<html>
<title> - ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 2002</title>
<body><pre>[Senate Hearing 107-683]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-683
 
    ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 2002
=======================================================================

                                HEARINGS

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                                   on

                           H.R. 2311/S. 1171

 AN ACT MAKING APPROPRIATIONS FOR ENERGY AND WATER DEVELOPMENT FOR THE 
     FISCAL YEAR ENDING SEPTEMBER 30, 2002, AND FOR OTHER PURPOSES

                               __________

                         Department of Defense
                          Department of Energy
                       Department of the Interior
                       Nondepartmental witnesses

                               __________

         Printed for the use of the Committee on Appropriations








                       U. S. GOVERNMENT PRINTING OFFICE
70-753                          WASHINGTON : 2002
___________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001


                      COMMITTEE ON APPROPRIATIONS

                     TED STEVENS, Alaska, Chairman
THAD COCHRAN, Mississippi            ROBERT C. BYRD, West Virginia
ARLEN SPECTER, Pennsylvania          DANIEL K. INOUYE, Hawaii
PETE V. DOMENICI, New Mexico         ERNEST F. HOLLINGS, South Carolina
CHRISTOPHER S. BOND, Missouri        PATRICK J. LEAHY, Vermont
MITCH McCONNELL, Kentucky            TOM HARKIN, Iowa
CONRAD BURNS, Montana                BARBARA A. MIKULSKI, Maryland
RICHARD C. SHELBY, Alabama           HARRY REID, Nevada
JUDD GREGG, New Hampshire            HERB KOHL, Wisconsin
ROBERT F. BENNETT, Utah              PATTY MURRAY, Washington
BEN NIGHTHORSE CAMPBELL, Colorado    BYRON L. DORGAN, North Dakota
LARRY CRAIG, Idaho                   DIANNE FEINSTEIN, California
KAY BAILEY HUTCHISON, Texas          RICHARD J. DURBIN, Illinois
MIKE DeWINE, Ohio                    TIM JOHNSON, South Dakota
                                     MARY L. LANDRIEU, Louisiana
                   Steven J. Cortese, Staff Director
                 Lisa Sutherland, Deputy Staff Director
               James H. English, Minority Staff Director
                                 ------                                

              Subcommittee on Energy and Water Development

                 PETE V. DOMENICI, New Mexico, Chairman
THAD COCHRAN, Mississippi            HARRY REID, Nevada
MITCH McCONNELL, Kentucky            ROBERT C. BYRD, West Virginia
ROBERT F. BENNETT, Utah              ERNEST F. HOLLINGS, South Carolina
CONRAD BURNS, Montana                PATTY MURRAY, Washington
LARRY CRAIG, Idaho                   BYRON L. DORGAN, North Dakota
TED STEVENS, Alaska (ex officio)     DIANNE FEINSTEIN, California

                           Professional Staff

                               Clay Sell
                              Tammy Perrin
                        Drew Willison (Minority)

                         Administrative Support

                            LaShawnda Smith
                       Nancy Olkewicz (Minority)





                            C O N T E N T S

                              ----------                              

                       Tuesday, February 27, 2001

                                                                   Page
Department of Defense--Civil: Department of the Army: Corps of 
  Engineers--Civil...............................................     1

                        Tuesday, March 13, 2001

Department of Energy: National Nuclear Security Administration...    23
Nondepartmental witness..........................................    53

                        Tuesday, April 24, 2001

Department of the Interior: Bureau of Reclamation................    81
Department of Defense--Civil: Department of the Army: Corps of 
  Engineers--Civil...............................................    99

                        Thursday, April 26, 2001

Department of Energy: National Nuclear Security Administration...   141

                          Tuesday, May 1, 2001

Department of Energy:
    Office of Power Technologies, Energy Efficiency and Renewable 
      Energy.....................................................   219
    Office of Science............................................   219
    Office of Nuclear Energy, Science and Technology.............   219

                         Tuesday, May 15, 2001

Department of Energy:
    Office of Environmental Management...........................   299
    Office of Civilian Radioactive Waste Management..............   351

                       NONDEPARTMENTAL WITNESSES

Energy programs..................................................   377
Water programs...................................................   446


    ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 2002

                              ----------                              


                       TUESDAY, FEBRUARY 27, 2001

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met, at 11 a.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Pete V. Domenici (chairman) 
presiding.
    Present: Senators Domenici, Hollings, and Reid.

                      DEPARTMENT OF DEFENSE--CIVIL

                         Department of the Army

                       Corps of Engineers--Civil

STATEMENT OF LT. GENERAL ROBERT B. FLOWERS, COMMANDER 
            AND CHIEF OF ENGINEERS


             opening statement of senator pete v. domenici


    Senator Domenici. The subcommittee will come to order. This 
is the first hearing this year of the Energy and Water 
Subcommittee. I would like to take a minute to welcome Senator 
Feinstein to our subcommittee, even though she is not here. She 
has changed subcommittees and will be a member of this 
subcommittee, and I look forward to working with the Senator 
from California. Senator Reid, we do a lot of things for the 
State of California, even without Senator Feinstein present, 
but just think what it probably will be now that she will be 
there advocating for that little State of California.
    Senator Reid. Dread the thought.
    Senator Domenici. Dread the thought. Second, I am very 
pleased to welcome Lt. General Robert B. Flowers, Chief of 
Engineers and the Chief of the U.S. Army Corps of Engineers. 
This is your first appearance before this subcommittee. It is 
nice to have you here today, and I hope that we gain a lot of 
information so we can move ahead forthrightly with the Corps' 
businesses. Today's hearing is to provide the Corps with an 
opportunity to share with the committee its response to the 
Army Inspector General's investigation which concluded in 
November. I am also hopeful that this hearing will provide us 
with an opportunity to examine the controversy surrounding the 
specific allegations regarding the Upper Mississippi River 
study which had made a rather significant amount of news.
    Eight years ago Congress appropriated, that's 8 years ago, 
appropriated $50 million for a navigation feasibility study of 
the Upper Mississippi and Illinois River to examine 
improvements that might be needed to quicken navigation and 
relieve congestion, which apparently was rather rampant on the 
waterways.
    This was the largest study, I understand, that the Corps 
had ever undertaken. For those of you who may not know, a 
project from development to completion can take from 15 to 20 
years, a rather lengthy process, to say the least. A year ago 
the office of special counsel began investigating a whistle-
blower case which alleged that the Upper Mississippi 
Feasibility Study was weighted toward the construction and that 
the--toward construction and that the study was manipulated to 
achieve a construction recommendation. As a result of this 
case, the Army Inspector General was directed by the office of 
special counsel to initiate a formal investigation into the 
claims of the whistleblower.
    The IG issued its findings on November 13, 2000. The Corps 
was to officially respond on February 6, 2001. In the findings 
the Army IG concluded that there was improper command direction 
of the study, that preferential treatment was given to the 
barge industry, a major stakeholder in this process, and that 
the Corps had an institutional bias toward construction over 
other potential alternatives. I believe the IG raises serious 
questions regarding how the Corps carries out its mission and 
its responsibilities as well as the integrity of the overall 
process which clearly must be of the highest integrity.
    I have the utmost respect for you, General, and the Corps 
of Engineers, and believe that those who work for the Corps 
carry out their jobs in an overwhelming majority of the cases 
in a very professional manner. In fact, they are mostly true 
professionals. I must say that the IG conclusions raise some 
questions. In fact, they may be better put as serious 
questions, with regard to how the Corps runs as an 
organization.
    As a result of the whistle-blower suit the IG investigation 
and the news articles during the past year, I felt we needed to 
have the Corps here today to respond to these allegations. 
Let's hope you can respond in a manner that will move us 
forward. I yield to my Ranking Member, Senator Reid.


                    statement of senator harry reid


    Senator Reid. Mr. Chairman, I look forward to working with 
you this Congress, as we have the past several congresses on 
this subcommittee. I believe it's one of the most important 
subcommittees that we have. I feel so strongly about that that 
I didn't move to another subcommittee this year. I feel this 
subcommittee is important to the country and certainly to the 
State of Nevada.
    I think that this is a perfect time to hear Lt. General 
Flowers this morning. I think this is--I have a long list of 
questions, and I'll submit these for the record and would hope, 
General, that you would answer these as quickly as you can. I'm 
also the chairman of the Environment and Public Works 
Committee, and we have Governor Whitman testifying there as we 
speak, so I have other things to do. That does not take away 
from the fact that I fully understand the importance of this 
meeting. I'm a supporter of the Corps of Engineers, understand 
its long record of accomplishment for our country, so there is 
no question about where I stand on the Corps of Engineers. Most 
members of this subcommittee have heard me describe at great 
length the importance of infrastructure to our Nation's economy 
and our future. We have a tremendous backlog of infrastructure 
needs that the Corps is the best poised to meet. For over 200 
years this Corps has done outstanding work for our Nation and 
continues to do so today.
    I recognize, as Senator Domenici has indicated, that the 
Corps is not infallible. I am concerned when allegations of 
misconduct have arisen concerning the Upper Mississippi River 
team. The Corps has always, in my opinion, prided itself on 
first rate analytical work, and to read accounts of how your 
employees might have, in effect, cooked the books to move a 
multibillion dollar project forward has been disturbing to me. 
These allegations which could be described by some as fraud and 
misconduct resulted in a very critical report by the Inspector 
General last year. Couple all this with the remarkably negative 
series of stories in the Post, Washington Post, so I think 
there is every reason for us to conduct this hearing and 
probably some more.
    I have an open mind about this I find it hard to believe 
that an organization which has done such good, credible work 
for such a long time has become the evil empire that we have 
been reading about. I have a unique position, as I have already 
indicated. I'm both ranking member of this subcommittee and the 
ranking Democrat on the full Environment and Public Works 
Committee. This is the first in a series of oversight hearings 
on the Upper Mississippi and Corps issues to be held by this 
subcommittee and the Environment and Public Works Committee.
    I understand the National Academy of Sciences will be 
releasing a report this week that may shed some light on all of 
this. We're going to get started today with both the 
information and the witnesses we have. Today, however, is as 
close as you are going to come to getting your thoughts in the 
record. I think it is proper for the subcommittee to proceed in 
this manner. The chairman and I both heard about the Corps from 
a lot of people last year, one group that was almost strangely 
silent was the Corps itself. I think it is now time for that 
silence to evaporate.
    My staff has told me that stakeholders will be invited to 
other oversight hearings upstairs on the fourth floor where we 
conduct our meetings. I look forward to my staff reporting to 
me on this hearing, and I apologize, General Flowers, for not 
being able to spend more time here.
    First, we have read about these reports. Second, there have 
been allegations that the Corps allowed certain stakeholder 
groups to have inappropriate influence, and so as I said, I 
hope that you will cover in your testimony, perhaps in your 
opening statement, that you will describe the Corps' public 
involvement process for studies such as the Upper Mississippi. 
For example, where members of the public are included in this 
Upper Mississippi study.
    I also want to hear from you your perspective for these 
individuals as these three Corps officers have been cited for 
inappropriate action, I would like to know what your office has 
done about this and what your opinion is about this.
    Finally, General Flowers, during my service on this panel, 
I have heard a great deal of testimony about the water 
resources needs of this country, requirements to improve our 
ports, waterways, provide protection from damaging floods and 
coastal storms, concern for degrading environments, providing 
for the water supply and water quality in rural America.
    I want you today to cover in your oral testimony or in 
writing what the role of the Army is in addressing these water 
resource needs, does it make sense for the Army to be involved 
in civil work activities, does the Corps prepare to respond to 
water source requirements.
    So these are difficult questions, and I would hope that you 
would take whatever time is necessary today or in writing to 
answer these questions. Thank you, Senator Domenici, for 
allowing me this inordinate amount of time to have an opening 
statement.
    [The information follows:]
     Corps Officers Involved in the Upper Mississippi and Illinois 
                            Navigation Study
    These three officers were doing their duty. They were attempting to 
bring to conclusion a most complex and difficult study. While, in 
hindsight, some of the actions that they took were misinterpreted by 
Corps team members, they were striving to complete the mission as they 
had throughout their careers.
     federal role in addressing the nation's water resources needs
    The development of water resources to serve the needs of the Nation 
do not follow state boundaries, and throughout our history interstate 
disputes have arisen over water. The Federal role is then quite clearly 
to provide the comprehensive planning and leadership to provide for the 
most efficient, effective and environmentally aware development and 
conservation.
    The Army Corps of Engineers was assigned the mission of providing 
for the nation's water resources development early in the 19th century, 
initially providing for interstate navigation and later in the early 
20th century in the prevention of flood damages. Throughout the century 
hydropower, water supply, recreation, shore protection, and 
environmental protection and restoration. As society's needs and values 
have changed, the Civil Works program has reflected changing national 
priorities for good water management.
    Responsibilities for the development, management, and protection of 
the Nation's water resources, coupled with the reimbursable support 
that the Corps provides to other federal agencies, nonfederal 
governmental entities and foreign governments, constitute the current 
Army civil works mission. One of the great strengths of the Corps is 
the force multiplier effect between civil and military missions. For 
example, in addition to the direct contributions that the civil works 
missions make to our economic and environmental security and 
prosperity, the Corps also applies its civil works assets to support 
the Army in times of national need to enhance national security and to 
promote democracy abroad. The Civil Works Program also derives greater 
capability and effectiveness by being an integral part of the larger 
Army and Defense team.
    The Corps of Engineers is prepared to respond to water resource 
requirements.

    Senator Domenici. Senator, I am glad you stayed on the 
subcommittee. I think it is an exciting subcommittee. The fact 
that we are having the first hearings on this would indicate 
that there is a genuine concern, since we have to appropriate 
the money, and we have been trying very diligently, both of us, 
to get the water projects in the country up to the right level 
of funding, and we have worked very hard at that over the last 
3 years, and so we want to make sure we're doing right as we 
raise the amount of--continue to raise the amount of money 
that's given to the Corps for major projects, major and minor 
projects across this land. Whenever you are ready to leave, I 
understand the situation.
    Senator Reid. Thank you.
    Senator Domenici. General, would you please proceed. We've 
got your written statement, but I do think it very important 
that you make your case. So if you want to use the full 
statement, you use it. If you think you can do a good job in 
abbreviating in making the case that you want to make----

           STATEMENT OF LIEUTENANT GENERAL ROBERT B. FLOWERS

    General Flowers. Sir, I will abbreviate, and I will do my 
best to answer the Senator's questions in my statement.
    First, sir, it is great to be able to be here and to tell a 
story on behalf of the Corps, its soldiers and its civilians. 
We've been working for the Nation for 225 years now, and I 
think we have become indispensable to the country and to its 
future. We've been involved in water resources planning for a 
very long time, and we are very proud of our discipline, 
planning process, our professionals who execute that process, 
and as you are aware, sir, we face significant challenges as we 
execute those responsibilities. But I believe we have served 
the public well through controversy and intense scrutiny, 
difficulties of our process are I'm sure known to you, sir.
    Two years ago in 1999 we had the National Academy of 
Sciences review our study process. They found it to be sound, 
and we have been working at improving the process continuously 
since we have been executing it.
    I would like to talk about the Upper Miss Navigation Study 
if I could.
    Senator Domenici. What part of the National Academy of 
Sciences did the review?
    General Flowers. Sir, it was the NRC, the National Research 
Council. It is an arm of the National Academy of Sciences.
    Senator Domenici. Okay. Proceed on the Upper Mississippi.
    General Flowers. Sir, the Upper Miss, as you've described, 
is the largest study that the Corps had undertaken. A regional 
study. Our expertise in doing studies was gleaned from doing a 
number of project studies using our process. In the economic 
arena, we had developed an expertise in microeconomics so that 
enabled us to do very good, I think, economic analyses of our 
projects.
    On the Upper Miss Navigation Study, we worked into an area 
that I will describe as macroeconomics. For the very first time 
what we came into contact with dealing with national and 
international issues, such as worldwide markets for grain, 
agricultural policy, transportation policy, and I think in an 
attempt to deal in that arena, the officers who were conducting 
this study who were responsible for bringing this study in on 
time and on budget pressed to have just exactly that done.
    While we were working in an arena that was asking us to 
predict 50 to 100 years in advance what would occur, the tenor 
of their communication, I think, to our teams that were 
studying it drove them--drove the people on the teams to 
believe that they were being forced to a certain decision.
    I know all three officers who were cited in the IG study 
personally. Major General Russ Fuhrman, a Vietnam veteran, 
almost 34 years of service to his country, helped save part of 
Chicago when there was a flood there in the early 1990s, led 
the team that restored Florida after the hurricane that 
devastated Miami and the area around it.
    Major General Phil Anderson, 31 years of service, led all 
the soldiers, the engineer soldiers for the Army in Somalia in 
the early stages in helping to conduct Operation Restore Hope, 
was the deputy commander who left on 1-day notice to go to 
Haiti and served there as we did our best to make things right 
in Haiti.
    And Colonel Jim Mudd, the district engineer from Rock 
Island District, 26 years of service to his country, gulf war 
vet.
    Sir, it is not in the character of those officers to do 
anything for personal gain, and I think in partial answer to 
one of Senator Reid's questions, you know, why the Army, I 
think it is because of the Army Corps values that are imbued in 
soldiers and that I think transfer to our civilian employees. 
Loyalty, duty, respect, selfless service, integrity and 
personal courage are things that we embrace and we try to live 
every day, and I think those officers did as well.
    I accept the IG report. I look at it as something that we 
have to accept, learn lessons from, and go on, and we are going 
to do that. I owe the Secretary of the Army a response, a 60-
day response that was due in February, sir, we have deferred 
until there is a Secretary of the Army and a new Assistant 
Secretary of the Army for Civil Works. I think that is the 
right thing to do. And we will be prepared as that new team 
comes on board to work with them in implementing whatever 
changes are necessary to restore faith and to combat the 
perception that the Corps is not doing something right.
    I believe, and I would just remind everyone on the Upper 
Miss Navigation Study, that no draft report had been issued, 
and so trying to derive a conclusion that the Corps was going 
in--driving toward one conclusion is a bit premature, since we 
had not even issued a draft report, but I do accept the 
criticism of the IG report and will be working to improve the 
process.
    The--I have been working very hard to reestablish 
relation--reestablishing good relations with the administration 
and with the Congress. We have been evaluating our feasibility 
study process. I have cooperated with the National Academy of 
Sciences in their study, we are working now, sir, to 
restructure the management process of the Upper Miss and 
Illinois Navigation Study.
    As I mentioned, some of the things that we ran into I think 
will require us to make use of the expertise of other Federal 
agencies, and so we are going to pause the Upper Miss study. We 
will take the months of March, April, and May to work with the 
Federal agencies in taking a look at the study and 
incorporating the results of the National Academy of Sciences. 
We will restart the study in June and work toward concluding 
the study in July 2002.
    Senator Reid asked another question, I think, about why the 
Army and why is the Army involved in Civil Works. I talked 
about our values, and I think the country being comfortable 
with officers and what they stand for, but from a national 
security standpoint the roads that were built in the various 
theaters in World War II, the massive construction efforts that 
went on to support our Armed Forces, contingency operations in 
Somalia, Bosnia, Kosovo, and other places are enabled because 
we have officers who have gained experience in working large 
civil works projects and in their planning and execution, and I 
think that gives us an edge that no other country has, and 
whatever the Nation has needed, we've been there for--the space 
program, the harbors on both coasts, the inland waterway 
system, flood control.
    When given a mission, sir, we've gotten it done. Our books 
have balanced and our structures have stood. So you are looking 
at an organization that I think is absolutely indispensable to 
our country, its Army, and our future.
    Sir, I'm prepared to answer any questions.
    [The statement follows:]

       Prepared Statement of Lieutenant General Robert B. Flowers

    Thank you Mr. Chairman, I am Lieutenant General Robert B. Flowers, 
Commander of the U.S. Army Corps of Engineers and Chief of Engineers. I 
am pleased to appear before you today to discuss the service of the 
Army Corps of Engineers to this Nation.
                              introduction
    The state of the Army Corps of Engineers is sound. We are prepared 
for the challenge of public service. Since 1775 the Army Corps of 
Engineers has honorably served the Army and the Nation. During the 20th 
Century the Army Corps of Engineers experienced both resounding success 
and dramatic controversy. Today, at the dawn of the 21st Century, we 
are called to respond to the scrutiny of the public we serve. I welcome 
this challenge.
                        the civil works program
    The Army Corps of Engineers traces its origins to the construction 
of fortifications at Bunker Hill in 1775. For more than 225 years, the 
Corps has responded to the needs of the Army and the Nation.
    Throughout this period, the mission of the Corps has evolved from 
``Builder'' to encompass ``Developer/Manager'' and ``Protector'' of 
water resources. What began as a military engineering mission for 
nation building in the 18th century expanded into a major peacetime 
mission in the 19th century. The Corps helped a young nation map the 
frontier and expand westward by surveying roads and canals. The Corps 
promoted economic development through a vast water resources 
infrastructure, initiated development of the first national parks, and 
tied an inland navigation system together to move commerce across 
states and keep ports and harbors open, a role critical for national 
defense. In the 20th century, Congress provided the Corps with 
additional water resources development and management authorities, 
including flood control, hydropower, water supply, and recreation. More 
recently shore protection, disaster relief, and environmental 
protection and restoration authorities were added. As society's needs 
and values have changed, the Civil Works program has reflected changing 
national priorities for good water management. The Corps abilities to 
facilitate, advise, develop, operate, manage, and evaluate on a broad 
range of water resource issues furnish a robust capability set for the 
Nation's benefit.
    Mr. Chairman, within your oversight, the Corps Civil Works Program 
is primarily responsible for the development, management, protection, 
restoration and enhancement of our nation's water and related land 
resources for commercial navigation, flood damage reduction, and the 
environment. The program provides stewardship of America's water 
resources infrastructure and associated natural resources, and also 
provides emergency services for disaster relief. It is my job, in 
concert with the Assistant Secretary of the Army (Civil Works), to 
provide advice to the Executive Branch and Congress on these matters. 
The goal of our study process is to produce the best economic and 
scientific analysis available.
           water resources planning and the national interest
    We are proud of our disciplined water resources planning and our 
planning professionals who face the daunting challenges of solving real 
problems, balancing competing interests and forging consensus around 
solutions. They serve the public well and very often in the midst of 
controversy and intense scrutiny. Their difficulties make the 
discipline of the process of paramount importance. Today, we continue 
to apply the Economic and Environmental Principles and Guidelines for 
Water and Related Land Resources Implementation Studies supplemented by 
Corps guidance that strives for inclusion of all interests in the 
management and investment in our water resources. When applied 
diligently, the Principles and Guidelines force all--the Corps and its 
stakeholders--to recognize the tradeoffs and balance competing 
interests.
    Our vision of planning is to meet national needs within the 
framework of current law and policy. Our planners have operated 
responsibly over the last two decades as priorities and concerns have 
shifted. The Water Resources Development Act of 1986 emphasized the 
National expectation that project partners be more involved in the 
formulation and financing of solutions to water resources problems. 
Nearly everyone believed that we could develop better projects more 
efficiently and effectively by recognizing that projects must both meet 
national needs and work viably at the local level. We responded with 
vigor and enthusiasm. The attached map illustrates where cost shared 
feasibility studies have been conducted with non-Federal partners since 
1986.
    Four years ago, the Army commissioned a National Academy of 
Sciences study to determine whether Corps planning should be further 
streamlined. That study concluded that the process was about right in 
terms of length and resources. During the last decade, interagency 
policy discussions increasingly have emphasized broader scale studies 
of entire watersheds with interagency collaboration and comprehensive, 
systemic solutions. An unintended effect of cost sharing has been the 
narrowing of focus of studies, as cost sharing partners are reluctant 
to finance studies that are broader than their immediate concern. As a 
result, our planners are often caught between the forces seeking 
comprehensive planning at one end of the spectrum and those who voice 
concerns for addressing needs on an expedited basis and early screening 
of alternatives that have little chance of being implemented. We are 
pledged to this service.
            upper mississippi and illinois navigation study
    Turning now to the Upper Mississippi and Illinois Navigation Study. 
This is a feasibility study of lock capacity and reliability. The study 
area extends from St. Louis to Minneapolis-St. Paul on the Mississippi 
River and from the mouth to Chicago on the Illinois River, a total of 
1202 river miles encompassing 37 existing locks and dams. This reach, 
10 percent of the inland waterway system, provides the origin or 
destination of 48 percent of the ton-miles of the total system. This 
study was started in fiscal year 1993 to address limited lock capacity 
and reliability. Limited lock capacity leads to commercial tow delays, 
while reduced reliability of aging locks contributes to outages and 
higher maintenance costs. Both delays and outages can add millions of 
dollars to the costs of transporting grain and other commodities 
carried on the system. These costs in turn reduce the real incomes of 
farmers, other producers and consumers. While the Upper Mississippi 
River system is a vital transportation corridor it is also a nationally 
significant environmental resource. It contains a system of Federal and 
state wildlife refuges and parks that provide habitat for migrating 
waterfowl and support fish and wildlife resources. Navigation 
development has had an adverse impact on these resources which must be 
carefully addressed and balanced in any study of improvements. This is 
a truly comprehensive study of an entire navigation system. The 
estimated study cost is currently approximately $60 million. Our 
current schedule provides for release of a draft report for public 
review in September of this year. In July 2002, I expect to make my 
final report to the Secretary of the Army.
    The Upper Mississippi and Illinois Study is very complex, involving 
engineering, economic and environmental analyses of impacts and 
consequences of a wide variety of possible future conditions on these 
rivers. A sound investment plan for the navigation system must be based 
on reasonable projections of future volumes, types and destinations of 
commodities that will move on the waterway. Therefore, a key component 
of the study is a 50-year forecast of demand for water borne 
transportation on the Mississippi and Illinois system including the 
response of barge operators and shippers to congestion. The commodity 
movements on this system are largely agricultural. Volumes and 
destinations of these products are driven by world market conditions 
and therefore, fluctuate with world economic conditions. Another key 
component is forecasting the schedules for major rehabilitation 
activities. In view of these facts, projections are subject to 
significant uncertainty.
    As part of the Study a group of Corps team members made economic 
projections and built an economic model to provide a basis for study 
conclusions. This proved to be a very difficult task. As you might 
expect, there were disagreements between the many stakeholders, as well 
as team members, over the model and its projections.
                           what we are doing
    First and foremost I take the issues surrounding the Army Corps of 
Engineers and the Upper Mississippi and Illinois Study seriously. I 
must ensure the integrity of the Corps of Engineers and its study 
process. In this regard there are several actions underway:
  --While the National Academy of Sciences has completed a general 
        review of the Corps studies process and found it to be a sound 
        process, I am evaluating our review process for feasibility 
        studies to determine whether improvements, including 
        independent review, are needed.
  --I have fully cooperated with the National Academy of Sciences on 
        its specific review of the Upper Mississippi and Illinois 
        Navigation Study. I am also fully supporting the National 
        Academy of Science study directed by the Congress in the Water 
        Resources Development Act of 2000 of the practicality and 
        efficiency of independent peer review of feasibility studies 
        and methods for project analysis.
  --I am restructuring the management of the Upper Mississippi and 
        Illinois Navigation Study.
  --I am placing renewed emphasis on my Environmental Advisory Board to 
        insure that I receive independent environmental advice.
  --The Assistant Secretary of the Army for Civil Works and I, on 
        November 28, 2000, submitted a joint memorandum to the 
        Secretary of the Army on Civil Works Management and 
        Communication Clarifications. In this memorandum, Dr. Westphal 
        and I agreed upon the responsibilities of both parties and 
        committed to sharing information, communicating effectively, 
        and cooperating fully on all Civil Works matters. The Secretary 
        of the Army provided copies of this memorandum to the Chairman 
        and Ranking Member of this Committee in his final update 
        regarding enhancement of the management procedures of the Civil 
        Works program.
  --I am rewriting the vision statement of the U.S. Army Corps of 
        Engineers to focus on service to the Army and the Nation.
  --I have conducted extensive outreach sessions with a broad variety 
        of interests, including meeting with a substantial number of 
        Members of the House and Senate.
                           other observations
    There are many interested parties and many points of view in the 
Upper Mississippi and Illinois study area. The Corps team members have 
worked diligently to give all an equal opportunity to be heard.
    At any one time we have many feasibility studies underway. The 
attached map illustrates where cost shared feasibility studies have 
been or are being conducted with non-Federal partners since 1986. In 
any study, our challenge is to balance competing values and interests, 
develop alternative solutions that solve recognized problems and 
establish a broad consensus for the best solution. I'm proud of our 
record on the many studies depicted on this map. We are especially 
proud that many of these studies are resulting in projects that go 
beyond simply avoiding or mitigating environmental impacts and make 
positive contributions to restoring the Nation's environmental 
resources. We strongly believe our leadership, engineering and water 
resources skills and disciplined planning are central to solving real 
problems and serving the American people. We've served the Nation well 
and will continue to do so.
                               conclusion
    Throughout my career I have been privileged to work with the 
outstanding men and women who make up the Army Corps of Engineers. They 
fostered in me a desire to be a consensus builder, someone who does not 
necessarily compromise but who seeks alternatives which uniquely 
combine individuals' input into a solution which is genuinely better 
than the sum of the parts. I view our current situation as an 
opportunity. This is an opportunity for us to see ourselves anew and 
rededicate ourselves to our principles.
    I take the issues surrounding the Army Corps of Engineers 
seriously, and I am making the changes necessary to insure the 
continued integrity of the Civil Works planning process, so that the 
Corps of Engineers can continue to fulfill its role in addressing the 
many water resource needs of this great country. Mr. Chairman, this 
completes my statement. I am prepared to answer your questions as well 
as those of other members of the Committee.

    Senator Domenici. Well, General, I'm impressed with the 
statements by you as to the background of the three officers, 
and that is--the record needs to have that on it. But I am kind 
of amazed that you're not really telling us anything about what 
you're going to do. You accept the report. That is a fairly 
good starting point. Could I just ask you some questions? It 
seems to me that you are waiting for another day to tell us 
what you are going to do and how those reports will affect and 
improve what you are doing.
    So it is evident with the IG investigation, General, that 
some outsiders do not believe the Corps study process is open 
enough. The Corps, as a result of the investigation, asked the 
National Academy of Sciences to review the project development 
process. The process itself has evolved over the last 65 years, 
and I understand that, with many laws and many regulations, 
some say refining it, may be what you will find when you get 
around to changing things that maybe you need to refine it in 
some other directions. But how many opportunities are 
stakeholders and communities guaranteed input under the current 
practices of the Corps, and do you think you are going to 
change those rules to any significant degree?
    General Flowers. Sir, our study process incorporates the 
public's and stakeholders' views at several points in the study 
process. On the Upper Miss study alone, there were 34 public 
meetings held, 2,400 people attended those public meetings. We 
received 2,500 comments from the public.
    The governors' liaison council, made up of the Governors 
whose States touch the Upper Mississippi sent newsletters 
periodically out to individuals, and 9,200 individuals, 
agencies, and interest groups received that. We prided 
ourselves on incorporating stakeholders into our process. The 
barge industry, for example, on the Upper Miss, was one of 
those stakeholders. Should any construction be done as a result 
of the study, the barge industry would cost share about 50 
percent in the construction of anything that is done, and so I 
think anyone, for example, who has to help pay for something 
probably wants to be involved in the process as it goes 
forward.
    And I would characterize our process as a very open one. 
It's like working in a fish bowl in that as we proceed through 
the study process, at points we invite local governments, State 
governments, other agencies, the public and stakeholders to 
participate, to grade our paper, to give us comments as we 
proceed through the study process.
    Senator Domenici. General, is not the contention, one of 
the contentions that certain stakeholders were not included 
sufficiently and others were included more so than they 
required and had more of an influence than they should have?
    General Flowers. Sir, I think the----
    Senator Domenici. Was not that one of the things that was 
reported?
    General Flowers. One of the things that was reported was 
the fact that the barge industry seemed to have more of a say 
as a stakeholder than they should have, and I would kind of 
view that as a judgment call.
    The barge industry, as I said, would be a cost share 
partner in anything that gets constructed in the future, and so 
they had, definitely had an interest in what was happening. But 
I do not believe that we have done anything to in any way 
prejudice an outcome just to make sure that we give the 
opportunity for everyone to have more of a say. That is why we 
are pausing the study as it is right now. We're going to work 
with the other Federal agencies to make use of their expertise 
as we proceed with the study, and we're taking into account the 
results of the National Academy of Sciences report which we 
will receive tomorrow.
    Sir, my intent on any other reforms is to wait until I have 
an opportunity to submit my 60-day report, my 180-day report to 
the Secretary of the Army, and I intend to do that just as soon 
as we have a new Secretary of the Army and an Assistant 
Secretary of the Army for Civil Works, but just to give you an 
indication of some of the things we are looking at, we are 
looking at a form of peer review for the Corps study process, 
and I must caveat this by saying everything that what we are 
looking at is designed to not add any more time or expense to 
the study, so that is a difficult challenge, but we are looking 
at that.
    I am reenergizing the Environmental Advisory Board for the 
Chief of Engineers to get more environmental input, and we will 
incorporate the results of the National Academy of Sciences 
report as we look to the future, but, sir, my response to the 
Army will be sent as soon as we have a new Secretary of the 
Army and assistant Secretary of the Army for civil works.
    Senator Domenici. So when did you decide that this delay 
would occur until the new secretary had arrived? When was that 
decision made?
    General Flowers. Sir, we have been taking a look at the 
Upper Miss Navigation study since receiving the results of the 
IG report in November, and we made a tentative decision to 
suspend the Upper Miss nav study and invite the involvement of 
the other Federal agencies in December. Since then we have been 
doing some coordination, looking at it, and really waiting 
until we had a better feel for what the National Academy of 
Sciences report was going to tell us before any announcements 
were made. But this is as good a time as any.
    Senator Domenici. In your prepared remarks you said you're 
restructuring the management of the Upper Mississippi and 
Illinois navigation study. What does that mean?
    General Flowers. Sir, what we intend to do is to bring the 
study up under the direct cognizance of the division engineer 
and manage it more centrally so there would be a regional team 
from the Federal agencies working the issues as well as an 
involvement from the Federal agencies here in Washington and 
the Washington principals group.
    Senator Domenici. The IG's findings concluded that the 
Corps is naturally weighted toward construction as a study 
recommendation, given the fact that the majority of the Corps 
personnel and the costs are expected directly by construction 
efforts. It would therefore appear to an outsider that it is 
the best interests of the Corps to recommend construction.
    How do you address the issue of institution bias toward 
construction and can you explain how the Corps is not dependent 
on a study recommending construction when the majority of its 
personnel costs are funded through an ongoing construction 
award?
    General Flowers. Sir, I would stand on our record. We have 
a very rigorous study process that has to be accomplished 
before any recommendations are made. Of every 100 
reconnaissance studies that are begun, 16 or less actually 
result in any construction.
    What that means is five out of six studies that are 
accomplished do not result or have not resulted in 
construction. The process is a tough one to get through. It has 
a lot of public involvement and stakeholder involvement, as you 
proceed through the process. It has been determined to be sound 
by the National Academy of Sciences when they did their last 
review in 1999. Can it be improved? Yes, sir, I am sure it can 
be, and we will work to do that.
    Senator Domenici. So are you saying that you could lay 
before the committee a number of projects that went through the 
process and were deemed not or recommended not, to not go, no 
construction, do not proceed?
    General Flowers. Yes, sir.
    Senator Domenici. Why do you not do that for the record and 
give us some list or some ratio or something that would give us 
evidence that that is actually--that that has happened.
    General Flowers. Sir, we will do that for the record.
    [The information follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Senator Domenici. You indicated in your testimony that your 
restructuring--excuse me, that you are placing renewed emphasis 
on the Environmental Advisory Board with reference to 
independent environmental advice. Tell me--tell the Senate a 
little bit about that. What does that mean? Are you 
acknowledging that perhaps you did not have sufficient input 
from that group? Or how does this fit into the scheme of 
things?
    General Flowers. Sir, the Environmental Advisory Board was 
begun in 1970 by the Chief of Engineers after the enactment of 
NEPA, the National Environmental Policy Act of 1969. What the 
board is made up of is up to 10 recognized environmental 
specialists from either academia, State agencies, and they 
would typically sit down about twice a year with the Chief of 
Engineers and be briefed on things that the Corps had going and 
provide some input, some perspective to the Chief of Engineers 
because we recognize--I think that we wanted to listen and get 
that perspective.
    I think in the last couple of years it's fallen into some 
disuse, and my intent is to reenergize that, sir, to take 
advantage of that input.
    Senator Domenici. General, we have put your statement in 
the record, and you have testified orally, and Senator Reid has 
indicated he has a number of specific questions. We would like 
you to answer them. I have about five or six more, but I guess 
what I am going to ask you has to do with your position here 
today, so we will have it right. Actually you are not prepared 
to tell this subcommittee how you are going to actually change 
things to comply with the IG's findings that you have said you 
accept. Now, when you said you accept them, I assume you mean 
that you are going to have to do something different so that 
you have a response to those contentions which you have now 
accepted.
    When will all of that be completed? When will you be able 
to come before this subcommittee and say here is what we're 
going to do?
    General Flowers. Sir, the 180-day response to the Secretary 
of the Army is due at the end of June. I would hope that we 
have, well before then, a new Secretary of the Army and an 
Assistant Secretary of the Army for Civil Works, and I really 
owe it to them an opportunity to sit down and go over this with 
them before I bring those recommendations to you, sir.
    We are prepared to do that, and I will do it just as soon 
as those positions are filled.
    Senator Domenici. Well, General, it seems to me that we 
called a meeting to hear what you're going to do, and you're 
telling us that you can't do anything because you have to work 
with the Secretary who is not yet there, and maybe a while 
longer before he gets there and has his deputy in charge of 
this kind of activity.
    What do we do in the meantime? What do we do with reference 
to the budget that's submitted? We say there's no changes? 
Everything's going to continue? What do we do about the 
Mississippi?
    General Flowers. Sir, I think we are going to proceed with 
the restructuring of the Upper Miss Navigation study. That 
decision has been made, and we are moving on that.
    Senator Domenici. Well, you have told us in your written 
remarks how that is going to happen. Would you tell us now 
orally, how is that remodeling of that structure changing it? 
How is that going to occur?
    General Flowers. Sir, we will have a pause in the study, we 
will take the next 2\1/2\ months roughly working with the other 
agencies and incorporating the results of the National Academy 
of Sciences report. We will rescope the study and the intent is 
to restart the study, making--taking advantage of what we have 
already done, so we have not lost anything there, with an eye 
toward completing the study process in July 2002 so that--and 
why July 2002? I think if it can be done, it should be done by 
then so that if there is anything to be incorporated in WRDA 
2002, it should be done, but I did not want to give you the 
impression, sir, that we are not doing anything until I an able 
to work any changes to the process. We are working changes to 
the process as we speak, but in terms of suggesting peer 
review, et cetera, I prefer to wait until I have had the 
opportunity to talk that over with my civilian leadership.
    Senator Domenici. Well, how do we make dollar decisions in 
the meantime?
    General Flowers. Sir, I think you can trust the results of 
the studies that we have completed. We will stand on all of 
them. Again, on the Upper Miss, there was no draft report even 
issued, but we do stand on the reports that we have issued, and 
if it has the Chief of Engineers' signature on it, sir, the 
integrity of this organization stands behind it.
    Senator Domenici. Have you been asked to go through the 
process of recommending to OMB what you need for this year or 
how is that part of the last 6 weeks been handled?
    General Flowers. Yes, sir, we have. We submitted through 
the Secretary to the Office of Management and Budget
    Senator Domenici. And you have told them what you need in 
the same way you have been telling us heretofore?
    General Flowers. Yes, sir.
    Senator Domenici. I don't want to ask you if you know the 
results.
    General Flowers. Sir, I think my Commander-in-Chief will be 
making some announcements tonight.
    Senator Domenici. Well, I am not sure what he will have to 
say about the Corps, but we will see. Commanders-in-Chief 
sometimes have to be talked to. Maybe not by generals, but----
    General Flowers. Yes, sir.
    Senator Domenici. My last observation is intended for the 
record and intended for you as head of the Corps of Engineers.
    I would ask the question Harry Reid, Senator Reid asked 
differently, and I already think I know what the Corps of--why 
the Corps of Engineers is involved in these projects, but I 
think what is happening is it is incumbent upon those who lead 
it not to let it, that is the Corps, get tarnished such that 
projects do not have the kind of credibility that we need to 
get support and to get them funded, and I think it is incumbent 
upon you and the new Secretary to quickly dispose of the 
serious contentions that were found in these studies of bias, 
of not understanding certain things or appearing to favor 
certain stakeholders because that could permeate everything.
    That would not just be the Upper Mississippi, if those kind 
of shortcomings exist, they could permeate many projects, so I 
for one look forward to your getting us the detailed report on 
what you are going to do soon. In fact, as soon as we have a 
Secretary, we will confer with that Secretary and tell him 
what--how important it is that we get these things answered 
quickly, if we have got a big budget, a lot of projects to 
proceed with. With that, I will submit about 10 questions for 
the record, and Senator Reid's questions are submitted. I note 
Senator Hollings is coming. Senator, did you have any 
questions? We were close to finishing.
    Senator Hollings. No, you go right ahead. I just wanted to 
meet the General.
    Senator Domenici. General, why do you not step up and meet 
the Senator. I have already met him.
    Senator Hollings. We have got a lot of things down in South 
Carolina I want to look at.
    General Flowers. Hello, sir, it is my honor. Good to see 
you.
    Senator Hollings. Good to see you, too.
    Senator Domenici. With that Senator Hollings, we had 
completed our questions and submitted some. Senator Reid had 
done likewise, and we were about to recess. You would note that 
the General has not been able to bring us the in-detail ways 
that he is going to reform the system to take care of the 
contentions that have been lodged by the Inspector General.
    Senator Hollings. Right.
    Senator Domenici. He does not have that ready today except 
as to the Upper Mississippi, he is telling us he is changing 
that process substantially to eliminate some of our concerns. 
That is about where we are. When will you have further details 
that you submit to us?
    General Flowers. Sir, I would say not later than June, but 
just as soon as we have a new sitting Secretary of the Army and 
a new Assistant Secretary for Civil Works, my intent is to 
carry this forward with them, sir.
    Senator Domenici. Senator Hollings, did you have anything?
    Senator Hollings. Yes. General, on the proposed new port 
facility down at the mouth of the Savannah River, is the Corps 
of Engineers taking a position on that?
    General Flowers. Sir, I will have to take that question for 
the record, if I might.
    Senator Hollings. Yes, all right. That is the kind of 
question to ask, see? I appreciate it, Mr. Chairman, thank you 
a lot.
    [The information follows:]
             Proposed South Carolina Port on Savannah River
    Jasper County, South Carolina, has initiated condemnation 
proceedings to acquire land owned by Georgia and used by the Corps. in 
connection with Savannah Harbor's dredging needs. However, the 
condemnation action specifically states that the interests sought to be 
acquired by Jasper County are subject to the United States' outstanding 
dredged material disposal easements.
    The Corps has received no specific proposals, plans, or permit 
applications concerning this project from either Jasper County, South 
Carolina, or South Atlantic International Terminal LLC, the proposed 
developer of the terminal. Until additional information pertaining to 
the port facility is, furnished and evaluated, the Corps is unable to 
state whether or not the proposed project would be economically and 
environmentally supportable.

    Senator Domenici. Thank you, General.
    General Flowers. Thank you, sir.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Domenici. Thank you very much. There will be some 
additional questions which will be submitted for your response 
in the record.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
            Questions Submitted by Senator Pete V. Domenici
    Question. How many opportunities are stakeholders and communities 
guaranteed input under the current practices by the Corps, and do you 
anticipate any changes in these rules?
    Answer. It is part of the Corps of Engineers process to involve all 
stakeholders and the General public early and often. Public involvement 
is a central element in our study process. The public involvement on 
the Upper Mississippi Study commenced during the earlier study stage. 
Over the course of the study, until it was suspended earlier this year, 
there were 34 public meetings, with over 2,400 attendees and 2,500 
comments. The Governor's Leadership Commission, and coordinating 
committees held over 70 forums, all opened to the public, with multiple 
interest participation. Public presentations were attended by citizens, 
and environmental, waterborne commerce, agricultural government/agency, 
business and industry, and recreation interests. Nineteen issues of a 
newsletter on the study were sent to more than 9,000 individuals, 
businesses, interest groups, and agencies. It is incumbent on us to 
provide stakeholders and communities access to the study and to use 
their comments, as well as the comments we receive from other interest 
groups and individuals in developing the analysis and subsequent 
alternatives. Changes in these rules would only take place where they 
are deemed necessary.
    Question. Were certain stakeholders given more access and/or were 
included in the process more than others.
    Answer. No, they were not. The Corps study process involves all 
stakeholders as well as the General public early in the study phase of 
a project. We conduct our process in a ``fish bowl'' environment, in 
other words, in view to everyone.
    Question. How do you address the Inspector General's findings of an 
institutional bias toward construction?
    Answer. The findings by the Inspector General of an institutional 
bias toward construction are unfounded. The Corps' planning process 
results in the culling out of many studies and projects. Approximately 
84 of 100 studies, or 5 out of 6, do not result in constructed 
projects. The Corps is experiencing a construction backlog, $40 
billion, at the current rate of appropriations. While this may seem 
vast, it is important to point out the benefits of a constructed Corps 
project, to date, outweigh the cost over 8 to 1.
    Question. Can you explain how the Corps is not dependent on a study 
recommending construction when the majority of its personnel costs are 
funded through on-going construction work?
    Answer. Nearly all of the Corps's construction work is contracted 
out. Less than one in six of our Civil Works employees are paid out of 
Construction, General funds. They are paid from General Investigation 
and Operation and Maintenance, General funds.
    Question. Please tell us about the Corps' accuracy rate in 
forecasting usage rates or how the economic modeling of past projects 
stood the test of time?
    Answer. A study on the Corps' forecasting was recently completed by 
our Institute for Water Resources (IWR). They examined 15 sets of 
projections for the inland waterway system. The report found in 11 
cases, the actual traffic for those waterways was close to, or 
exceeded, the projections. Only in four cases was traffic significantly 
below projections. Given the myriad of factors that can affect economic 
forecasts, 11 of 15 is a significant success rate.
    Question. How does the Corps ensure sufficient oversight and review 
by qualified individuals when it determines how to employ economic 
methods for a specific project?
    Answer. The Corps hires well-qualified professional economists, and 
invests in furthering to develop their expertise. We utilize these 
experts under the supervision of senior, supervisory economists. Where 
we lack the appropriate in-house economic expertise, we secure it from 
well-qualified professional consultants. The economic analyses, whether 
produced in-house or by contractors, is subjected to an independent 
technical review by professional economists.
    Question. Does the Corps essentially follow the same procedure for 
all forecasts, and is this step in the process regulated in any 
fashion?
    Answer. Forecasting procedures vary with each study depending on 
the missions, scope, availability of data, and the sensitivity of the 
results to the forecasts. We suggest generally accepted procedures to 
our field offices for some missions such as inland navigation, but we 
do not dictate applications. Deviations from the suggested procedures 
must be approved at our headquarters. We require our analysts to fully 
support the methods they use, including full descriptions of the 
methods, tools, assumptions and sources.
    Question. How does the Corps ensure that it keeps up to date with 
the current economic forecasting methods?
    Answer. The Institute of Water Resources, a field operating 
activity, keeps abreast of state-of-the-art procedures for forecasting, 
and thus maintains all statistical data on Corps maintained waterways. 
We provide training to our staff, to keep them informed and learned of 
new technologies. This helps us to maintain centers of expertise for 
many applications, such as hydropower, which demands forecasting in its 
development and maintenance.
    Question. What efforts are you undertaking within the Corps to 
ensure that feasibility studies are more reliable and are not unduly 
influenced toward an intended outcome?
    Answer. Our studies are conducted in full open view; and is a very 
rigorous procedure. Our study process is routed in the Planning and 
Guidelines, a thoroughly vetted process to be used by all Federal water 
resources agencies. We rely on several steps in our processes to insure 
the integrity of our studies:
  --Independent technical review
  --Headquarters policy compliance review
  --Public and agency review of the draft report
  --State and agency review of the final report All of these steps are 
        taken before I issue my project recommendation.
    Question. How do you address the issue that the Corps was providing 
an unfair access to the barge industry?
    Answer. Contrary to this allegation, the barge industry, and other 
navigation groups, had complained to the Corps about a lack of access. 
Our study process incorporated numerous stakeholders, to include the 
barge industry, which in the case of the Upper Mississippi Feasibility 
was our biggest stakeholder. We take into consideration all the 
comments of all the stakeholders, and take their comments seriously.
    Question. Was the involvement of the barge industry consistent with 
Corps practices?
    Answer. Yes, the involvement of the barge industry was consistent 
with Corps practices. Our study process incorporated stakeholder 
involvement, including the barge industry, throughout the study phase.
    Question. Does the Corps have any regulations or guidelines for the 
involvement of stakeholders in the study phase?
    Answer. Our study process requires the involvement of the numerous 
stakeholders. The National Academy of Science, who conducted a study on 
our process, found it to be sound. Proof of significant stakeholders, 
individuals, agencies and interest groups involvement can be found in 
the study process of the Upper Mississippi River Navigation Study.
    Question. What resource is available to these groups, should they 
feel left out of the process or if they believe that one group is 
provided an unfair advantage?
    Answer. Our study process is lengthy, and there are many occasions, 
throughout this process, where stakeholder involvement is incorporated 
in the study phase. We do our best to ensure access to our study 
process to all interested parties, and we expect people to notify us if 
they do not believe they are being listened to, and reply to concerns 
in a timely fashion, when they do.
    Question. Can you tell us what changes you plan to make in the 
Upper Mississippi Feasibility Study as a result of the Inspector 
General's investigation and the National Academy of Sciences work? Will 
this include any management changes?
    Answer. I have paused the Upper Mississippi Feasibility Study for 
now until we can make a detailed assessment of the findings in the 
Inspector Generals and the National Academy of Sciences reports, and 
can refocus our study team. When the study is resumed, it will be with 
considerable oversight and due caring. I will put into place three 
management measures to assure myself, the Congress, the Administration, 
and the American people this study will be conducted with the utmost 
diligence and attention to detail. There will be a Washington Level 
principals group, composed of senior people from other federal 
agencies, such as EPA, Departments of Interior, Agriculture, and 
Transportation. They will provide national level balance and guidance 
in scoping the study on important economic and environmental issues. 
They will insure our process continues to be methodical, well thought 
out, and unbiased. The Corps will continue to lead the study, but I 
feel we will benefit greatly from the additional input from the other 
Federal agencies this new structure will allow us to gather.
    Question. Would these changes be specifically limited to the Upper 
Mississippi Feasibility Study, or instituted Corps-wide?
    Answer. These changes will be consistent with agency policy for all 
Corps studies. I feel the Washington level involvement is more 
appropriate for similar large, complex studies.
    Question. Are there any additional authorities you would need from 
Congress to make these changes?
    Answer. Not at this time.
    Question. How would any of the changes you are considering have led 
to a different outcome on the Upper Mississippi Feasibility Study?
    Answer. Had other Federal agencies: Environmental Protection 
Agency, Departments of Interior, Agriculture, and Transportation, been 
involved in the oversight of the study, I believe they would have 
provided guidance on the proper scope of the study, revealed important 
issues, and addressed major concerns, early in the study process. They 
would have also assisted us with the larger issues of national economic 
policy.
    Question. There has been much publicity that portrays the Corps as 
a rogue agency, which is not responsive to or ignores the guidance of 
civilian leadership. Can you address this issue and explain how the 
organization, under your leadership, carries out its mission?
    Answer. As Chief of Engineers, I follow both a military and 
civilian chain of command in making decisions for the Corps. In the 
military chain of command, I respond to the Army Chief of Staff. In the 
civilian chain of command, I respond to the Secretary of the Army, 
through the Assistant Secretary of the Army (Civil Works). There are 
many checks and balances to ensure proper civilian control. An example 
of this is the memorandum I signed with the Assistant Secretary of the 
Army (Civil Works), November 28th, 2000 describing my responsibilities 
to the military and civilian leadership.
    Question. Can you explain how others could see the Corps as a rogue 
agency?
    Answer. The leadership role in Water Resources Development has 
traditionally been a very controversial subject, because there are many 
competing interests. These competing interests do not necessarily agree 
with the recommendations the Corps makes in Water Resources 
Development, and thus we are looked upon as being a rogue agency. We 
develop recommendations based on sound engineering and science, and a 
sound process. That is, process drives outcomes, and the outcomes often 
do not fit the preconceived outcomes of some groups.
    Question. Can you describe how the Environmental Advisory Board 
will improve the project process?
    Answer. The Environmental Advisory Board will provide me with sound 
insights on environmental issues related to our studies and projects, 
as well as recommendations on how to effectively balance economic 
development and environmental quality. It will also provide a voice for 
the environmental community to the Corps.
    Question. What will the Environmental Advisory Board provide you 
that you do not already have?
    Answer. We have substantial environmental expertise in the Corps of 
Engineers. However, the Board will provide an external source of 
prominent environmental experts with diverse views and backgrounds. The 
Board will provide us with a fresh perspective.
    Question. Will the Environmental Advisory Board be responsible for 
rendering environmental opinions only, or will the Board also be 
responsible for involvement in all of the Corps' projects from 
beginning to end?
    Answer. The Environmental Advisory Board will provide broad 
environmental advice, but will not typically be involved directly in 
projects or project review. However, I have considered establishing an 
independent project review board for this purpose.
    Question. Does the Corps conduct an independent peer review 
process?
    Answer. Currently, the Corps reviews all projects for compliance 
with the Principles and Guidelines and Corps planning and policy 
regulations. Although this is not an external ``independent'' review, 
it results in a very accurate and objective analysis of project 
feasibility.
    In some cases, large studies have independent expert panels that 
provide peer review of study products. The Upper Miss study had several 
such expert review panels. I am also considering an independent peer 
review process. In addition, the Corps is currently working with the 
National Research Council in support of Section 226 of WRDA 2000. This 
will lead to a review by NRC of independent review of Corps projects.
    Question. You stated in your testimony on February 27th that the 
National Academy of Sciences is examining your study process. What do 
you hope to learn from their analysis.
    Answer. The National Academy of Sciences report, which found the 
Corps study process to be sound, will be of great value to us as we 
move forward on the large, complex Upper Mississippi River Feasibility 
Study. It recognized the technical complexities and uncertainties of 
projecting future grain exports and predicting the response of river 
transportation to additional traffic and congestion. It will assist us 
in evaluating our independent peer review.
    Question. What role is the National Research Council providing to 
the Corps?
    Answer. We are currently negotiating with the National Research 
Council to look specifically at independent peer review as called for 
in the WRDA 2000. Specifically, we'll ask them to look at the 
efficiency and practicability of independent review and, if 
appropriate, how such a review procedure should be structured.
    Question. How does the work the National Research Council is doing 
for you relate to the work being done by the National Academy of 
Sciences?
    Answer. The National Research Council was organized by the National 
Academy of Sciences in 1916 to associate the broad community of science 
and technology with the NAS's broader purposes. The NRC is, in essence, 
the working arm of the National Academy of Sciences. It performs 
similar work.
    Question. Can you please tell the Committee where the Upper 
Mississippi Feasibility Study stands and how long of a delay do you now 
expect as a result of the Corps review.
    Answer. I have paused the study to set up the national and regional 
oversight groups, and to restructure the study team. Resumption of the 
study should take place in June of this year, and be completed in July 
of 2002. I will have a better idea of the overall impact on the study 
schedule once the oversight group sets the direction for the 
continuation of the study.
    Question. Does the Corps plan to make any significant changes to 
the Upper Mississippi Feasibility Study as it currently stands, or does 
the Corps plan to make any changes and implement them from this point 
forward?
    Answer. During the next four months, we will convene a Washington-
level principals group and a regional agency group that will continue 
through the remainder of the study. That Washington-level group will 
review the study scope, as a basis for determining how to continue 
through the remainder of the study. Therefore, we would make changes to 
the study and implement them from this point forward.
    Question. How did you determine that there was a need for the Corps 
to re-write its vision statement?
    Answer. Some perceived misinterpretations of LTG Ballard's vision 
statement with regard to new mission and program growth. Due to this 
misunderstanding, the Corps' senior leadership and I determined need to 
re-write, and clearly state, the vision statement. Internal and 
external stakeholders felt there was a need for re-work of the vision 
as well. We will re-focus the statements on ``program growth'' to serve 
the Army and the nation.
    Question. What kind of vetting process is the Corps going to 
undertake to ensure a thorough review?
    Answer. I have pulled together a comprehensive transition team of 
Corps stakeholders, from outside the Corps, to assist the senior 
leadership and me in developing a thorough review. My senior leadership 
is vetting it with their contacts and counterparts in other agencies 
and with stakeholder organizations such as groups representing 
industry. The Office of the Assistant Secretary of the Army (Civil 
Works) is vetting it with the Army Secretariat.
    Question. Once the Corps revises its vision statement, how do you 
expect to educate the internal and external stakeholders?
    Answer. When the vision statement is revised, we will publish a new 
vision statement for distribution and discussion with both internal and 
external stakeholders. We will also post the statement on the Corps web 
site, making it available to everyone.
    Question. What do you mean specifically when you state that you 
``accept the Inspector General's report'' as you testified on February 
27th?
    Answer. The Inspector General has made his report and it has been 
accepted by the Secretary of Defense. I accept the findings and the 
criticisms contained therein. I will take the necessary steps to 
rectify the things the Inspector General found wrong and we will move 
forward.
    Question. If you cannot report any specific details of your 
response to the Inspector General's report until June, how does the 
Congress make budget decisions in the meantime?
    Answer. The President will transmit his detailed budget 
recommendations to the Congress on April 3rd. I do not anticipate that 
he will be requesting any funds that are specifically related to the 
Inspector General's findings. As I stated in my testimony we are 
pausing on the Upper Mississippi and Illinois Navigation Study in order 
to produce the right recommendations. The process changes that I am 
considering implementing do not have immediate budgetary implications.
    Question. You have stated that you are currently ``pausing'' the 
efforts of the Upper Mississippi Feasibility Study; will you continue 
to expend any project funds during this time?
    Answer. During the pause in the study, feasibility study funds are 
being used to review and analyze the National Research Council's 
report, to complete initial coordination with the Federal Senior 
Principals Task Force and Regional Groups and to revise the project 
study plan. No Preconstruction Engineering and Design funds are being 
used for this or any other efforts associated with the Upper 
Mississippi River-Illinois Waterway Navigation Study.
    Question. Why is Preconstruction Engineering and Design (PED) 
funding being obligated when the feasibility report findings are 
subject to re-evaluation with an overall ``pause'' in the study 
efforts?
    Answer. Sir, no new obligations are being made and no work efforts 
are currently underway regarding PED efforts for which Congress 
appropriated funds in fiscal year 2000 and fiscal year 2001. 
Approximately $6,400 in expenditures occurred early in fiscal year 2001 
associated with contract closeout and orderly conclusion of PED 
activities initiated in fiscal year 2000. These expenditures were 
against funds provided in fiscal year 2000. The funds appropriated by 
Congress in fiscal year 2001 for PED efforts have been made available 
for reprogramming from the Navigation Study to other Corps of Engineers 
efforts.
    In fiscal year 2000, Congress appropriated an additional $6,300,000 
($5,418,000 after Savings & Slippage) for preliminary engineering and 
design associated with 1,200-foot lock chambers. In March 2000, the 
Mississippi Valley Division instructed Rock Island and St. Louis 
Districts to delay the award of any new private sector contracts for 
PED work on the Upper Mississippi River-Illinois Waterway System 
Navigation study pending the outcome of the ongoing HQUSACE policy 
review. MG Anderson, then Commander of the Mississippi Valley Division, 
notified HQUSACE on 2 June 2000 that he was bringing ongoing PED 
activities to an orderly and cost-effective conclusion. The Districts 
concluded ongoing PED activities in accordance with the plan approved 
by MG Anderson on 26 June 2000.
    Question. Please provide the Committee a listing of all the current 
(PED) funded work and the amount being spent on each piece of work 
related to the Upper Mississippi Feasibility Study.
    Answer. Sir, currently, there are no ongoing PED activities 
associated with the Upper Mississippi River-Illinois Waterway (UMR-IWW) 
System Navigation Study.
    Question. Does the Corps anticipate continuing to obligate 
additional funds for Preconstruction Engineering & Design (PED)? If so, 
please provide, for the record, a listing of all PED planned activities 
and the justification of why these activities are necessary to proceed.
    Answer. No, sir. No additional funds will be obligated for PED 
until the Feasibility Study is complete and a recommendation has been 
forwarded to HQUSACE for Washington-level processing.
    Question. How long do you anticipate it will take for you to 
officially respond to the Inspector General's report now that the new 
Assistant Secretary of the Army has assumed official duties?
    Answer. Once a new Assistant Secretary of the Army for Civil works 
is confirmed, I would expect that the Inspector general's report would 
be a very early matter for his/her attention.
    Question. When did you ask for and receive a 180-day extension 
beyond Feb 6th to respond to the Inspector General's report?
    Answer. I did not request an extension. However, I was informed by 
the Acting Secretary of the Army that since a new team was not yet on 
board, I should not submit my report. I am still obligated to make a 
final report after 180 days.

                          SUBCOMMITTEE RECESS

    Senator Domenici. We will stand in recess until Tuesday, 
March 13, when we will hear from General John Gordon, 
Administrator, National Nuclear Safety Administration.
    [Whereupon, at 10:47 a.m., Tuesday, February 27, the 
subcommittee was recessed, to reconvene at 9:30 a.m., Tuesday, 
March 13.]


    ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 2002

                              ----------                              


                        TUESDAY, MARCH 13, 2001

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 9:34 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Pete V. Domenici (chairman) 
presiding.
    Present: Senator Domenici.
    Also present. Senator Thompson.

                          DEPARTMENT OF ENERGY

                National Nuclear Security Administration

STATEMENT OF GENERAL JOHN GORDON, ADMINISTRATOR

             OPENING STATEMENT OF SENATOR PETE V. DOMENICI

    Senator Domenici. The committee will please come to order. 
This morning, the subcommittee will take testimony regarding 
the physical condition of facilities and infrastructure at our 
Nation's weapons complex.
    We have two very distinguished witnesses today. We will 
first hear from General John Gordon, the Administrator of the 
National Nuclear Security Administration, and the individual 
who has taken on the task of addressing the infrastructure 
problem, along with other problems within the nuclear 
department of the United States at the Department of Energy.
    Thereafter, we will hear from Jim Schlesinger. Dr. 
Schlesinger needs no introduction. He has had a very 
distinguished career, including appointments as Secretary of 
Defense and of Energy. He also serves on the independent panel 
to assess the reliability, the safety, and security of the U.S. 
nuclear stockpile which just released an annual report on 
February 1 of this year, and we are holding this hearing in 
advance of the traditional budget hearings that we are going to 
conduct later in the year.
    The purpose of today's hearing is not to review the 
administration's budget, since it is not before us in its 
totality. Today, we intend to focus on the magnitude of the 
infrastructure problem within the weapons complex, and assess 
what will be required over the next several years to rebuild a 
nuclear weapons complex appropriate to the future, and 
appropriate to what goes on in the complex.
    After the end of the cold war, and the last underground 
nuclear test in September of 1992, the United States began a 
significant new program to ensure the safety and reliability of 
our nuclear weapons without the benefit of new designs or 
nuclear testing. This formidable challenge is the purpose of 
the program called science-based stockpile stewardship. The 
success of this program is essential to maintain confidence in 
the safety and reliability of our stockpile future, regardless 
of whether we return to testing in the future, or remain as we 
are.
    Over the last few years, I have become more and more 
concerned about the general deterioration of the nuclear 
weapons complex. As is the practice in this town, when a 
concern is raised or a problem identified, a parade of internal 
studies, blue ribbon commissions, and congressionally mandated 
reviews are generated and, too often, little else is done.
    Each study over the last few years has drawn similar and 
striking conclusions on the need to refurbish the complex. In 
1998, defense programs conducted an internal review. In 1999, 
the DOE's 30-day review identified the problem. In April of 
2000, the Office of the Secretary of Defense conducted another 
review and made similar conclusions. The General Accounting 
Office and the DOE Inspector General have also studied the 
issue. Most recently, the NNSA administered a more detailed 
assessment, the so-called Scott program, Scott report, and the 
blue ribbon Foster panel made similar conclusions just last 
month.
    The consensus of all these reports is as follows. The DOE 
has allowed its nuclear weapons facilities to degrade in recent 
years, and it will take billions of dollars to fix the problem 
and modernize the future. The reports identify the following 
specific conclusions.
    First, the nuclear weapons complex has not been well-
maintained over the last 8 years and conditions are now rapidly 
declining. Maintenance funding has been well below industry 
standards. An immediate maintenance backlog of approximately 
$800 million exists today. The average age of facilities where 
we do nuclear weapons work is over 30 years. We need to spend 
an additional $300 to $500 million a year over currently 
planned levels for the next 17 years, according to the best 
analysis, to refurbish the weapons complex to perform just its 
basic mission.
    These expenditures will be required even if the nuclear 
stockpile is, over time, made smaller. If we do not take action 
on these infrastructure problems immediately, we will not be 
able to meet the Department of Defense schedules for 
refurbishing three weapons systems representing over 50 percent 
of the stockpile. We will not have sufficient facilities 
required to certify weapons, and our technicians and scientists 
will continue to work in unsafe facilities, increasing health 
risks, and a number of safety-related shutdowns.
    The crisis is too great to put off, and I am going to do 
everything I can first to get other Senators to join in this 
cause, and then ultimately to attempt to start down the path 
that will remedy it.
    We do not need any more studies. I believe we need a--there 
should be a call to action. The NNSA, under the leadership of 
General Gordon, is now developing the information and systems 
necessary to start addressing the years of neglect, and we must 
take the opportunity, with your leadership, to finally act, 
General.
    Now I am pleased to have present the Senator from 
Tennessee, and I want to just share with the public right off 
what a staunch supporter you have been of DOE's work in your 
State, and I want to particularly call to everyone's attention 
that there is a major facility in the State of Tennessee that 
is part of the defense part of this budget, and that building, 
there is nothing going on in the building, Dr. Schlesinger, 
that would require hard hats, but people wear them because the 
roof falls in from time to time, pieces of it, and it creates a 
little bit of a hazard. Well, that is part of our nuclear 
weapons infrastructure, and Senator, I yield to you, and thank 
you again for coming.

                   STATEMENT OF SENATOR FRED THOMPSON

    Senator Thompson. Well, thank you for inviting me to come, 
and thank you for what you are doing in this area.
    This is one of the areas that have two distinguishing 
features about it. One, nobody pays much attention to it, and 
the other is, it is one of the things we do around here that is 
very important, and that is a tough combination, and my concern 
hopefully goes beyond the parochial, although we are concerned 
about the Wyatt well plan, but this shows us that we have got 
to do something and spend some money.
    The most conservative of us have to acknowledge that we 
have got to spend some money in the discretionary account. 
Spending is not spending is not spending. Some spending is 
better than others, and some is worse than others, and we have 
got to figure in to what we are doing here some things that are 
vital to our national security. To me, we cannot keep letting 
our entitlement programs continue on their same glide path 
while squeezing the discretionary side more and more and more, 
and spending our time fighting and fussing over dwindling 
discretionary budget, while we refuse to reform the entitlement 
programs, and we cannot save enough or put enough aside, or put 
enough in a lock box that we have all got keys to, 
incidentally, to save social security and medicare, and we have 
got to reform all that, so this really highlights a much 
broader concern.
    But Senator Domenici, your leadership in dealing with the 
future viability of our nuclear weapons complex I want to 
commend, and you know, you're right, Y-12, many of the 
buildings there are over 50 years old, and this is one of the 
core functions of our Federal Government. I am very concerned 
about it.
    I was looking at the latest report, the so-called Hart-
Rudman report, the U.S. Commission on National Security of the 
21st Century. I just noticed that one of the things that they 
highlighted here is that the U.S. National Laboratory System is 
badly in need of redefinition and new investment, and the 
national laboratories, vestiges of the cold war, remain a 
national R&D treasure. Unfortunately, they are a treasure in 
danger of being squandered.
    So you are absolutely right, we do not need new assessments 
and new reports. We can get the same thing over and over and 
over again, just like we did before the recent troubles. We had 
security problems with the national labs, and then eventually 
we decided that all these reports we get, there is something to 
them, we ought to do something. Well, hopefully we will not 
have to wait so long that our national security is endangered 
because of it.
    Thank you very much.
    Senator Domenici. Thank you, Senator. General Gordon, we 
welcome you. It is good to have you here.

                    STATEMENT OF GENERAL JOHN GORDON

    General Gordon. Thank you very much, Mr. Chairman. Senator 
Thompson, thank you.
    Senator Domenici, let me really just start by thanking you 
again for your leadership, for establishing NNSA, and for the 
direct support for NNSA, and for the direct support that you 
give to the men and women who work so hard in all facilities to 
support the national security of this country, be they in 
Tennessee, or California, or New Mexico. There are a lot of 
people out there doing a lot of work, and we very much 
appreciate the direct support that you give them.
    We are working hard within NNSA to meet the expectations 
for this new organization. Progress has been slow, admittedly, 
but it has been steady, and I am hopeful that the new 
administration will quickly nominate the new Assistant 
Administrator so that we can again accelerate our work.

                             INFRASTRUCTURE

    Thank you again, Mr. Chairman, for the opportunity to be 
here today to discuss one of the greatest problems faced by 
NNSA, and one that, if not solved fairly quickly, will affect 
our ability to perform our mission in the short term and 
literally destroy the long-term viability of the nuclear 
weapons complex.
    I am a little bit worried about how to proceed here, 
because you have kind of given my testimony, and I want to 
endorse everything you say in that area. We are in lock step on 
that point, but we are, of course speaking about this complex, 
and I have prepared a rather lengthy formal statement which I 
offer for the record.
    Senator Domenici. It will be made a part of the record.
    General Gordon. It gives considerable detail about the 
state of our complex, the numbers of studies over the last 
several years that you have catalogued, and the problems, 
recommendations upon recommendations, to begin to invest in our 
facilities, and my main message is the same as yours, Mr. 
Chairman, it is time to get on with the work. We do not need 
any more studies. We know what to do, and we are ready to go.
    Mr. Chairman, if I might also offer for the record 
statements by each of our plant managers, and each of our 
laboratory directors, who make very similar points. The 
statements are all pointed, and all of it is sobering. We 
submit those for the record.

                    INFRASTRUCTURE SIZE/COMPOSITION

    Senator Domenici. Those will be made part of the record.
    General Gordon. Mr. Chairman, this committee is well aware 
of the size of the complex. Others may not be, but just a few 
figures to start. We operate about 1,800 square miles of land, 
6,350 buildings, 34 million square feet in those buildings, 
2,500 miles of roads, 1,650 miles of utility distribution line, 
and the replacement value is something like $20 billion.
    As large as these numbers are, I know the committee knows 
that this is not your Cold War enterprise. Personnel numbers 
have been drastically reduced over the years. For example, 
Kansas City runs at half the size it used to run during the 
peak, and we have closed entire facilities in the post Cold War 
environment, at least as far as nuclear weapons are concerned, 
at Hanford and Mound and Pinellas, in Rocky Flats, and much of 
Savannah River.
    I offer this only to make the point that we are not 
operating Cold War facilities or a Cold War complex, and we are 
not trying to maintain a Cold War footprint or Cold War 
capacity. Far from it. We have a complex of a size that is just 
barely large enough to support the stockpile we envisage, and 
almost all duplication is already out of the system. We rely on 
a system where there is little more to harvest in cost savings, 
although there are a number of buildings in the individual 
facilities that need to go away, and we operate a complex that 
cannot become appreciably smaller, even if we were to decide to 
significantly downsize our deployed nuclear arsenals.

                           STATUS OF COMPLEX

    Mr. Chairman, my account to the committee is first-hand. I 
have traveled widely throughout the complex, and have seen most 
of the problems first-hand. The structures, many of them are 50 
years old, and when a key structure exceeds 50 years old, it is 
really old in almost every term, certainly in the terms of 
safety and security, reliability, mission-effectiveness.
    These facilities often do not meet modern health, 
environmental, or energy efficiency standards. They are costly 
to maintain, difficult to keep in regulatory compliance, and 
yet they are where we ask some of the most brilliant scientific 
and technical minds in this country to work on an enterprise 
that underpins our national security.
    During my visits I was struck by what appeared on the 
surface, a reasonably well-functioning set of operations 
performed by highly skilled men and women of NNSA. However, one 
quickly notices that something is not right and that both the 
scientific and engineering and production operations, one 
frequently finds that the work, that should be very closely 
connected in time and space, is dispersed, and operating all 
around the facility in different buildings.
    At Y-12 I think sometimes material moves 6 or 7 miles 
within that facility, yet the engineers and the scientists, 
when you talk to them about it, are actually very proud of what 
they are able to accomplish in that environment, because they 
are able to work their work-arounds, and they take great pride, 
both the Federal employees and the contractors, in being able 
to make it work. The ingenuity employed by these people has 
overcome the burdens of the facilities that we have given to 
them to work in. It is time to act to reduce these impediments.
    How did we get here? A very fair question. For too long, 
the facilities, the infrastructure, their maintenance and 
recapitalization have been underfunded and, in the recent past, 
the priority has been given to the science side of the 
Stockpile Stewardship program, and attention to infrastructure 
was, and I would suggest rightly, put on hold while the 
Science-based stewardship program was formulated, funded, 
implemented, and now is beginning to work.
    I would offer, Mr. Chairman, a few examples, and we passed 
out some charts, and the first one just simply talks about the 
age of the facilities. I hope we have these in front of you.
    Senator Domenici. We do.
    General Gordon. Good--about the age of the facilities, and 
the main point is that the age of the facility, the condition 
of the facilities is rapidly accelerating. In 1995, roughly 55, 
56 percent of the complex was in good or excellent condition. 5 
years later, an assessment by many of the same people found the 
facility conditions in the excellent-good range were down to 
only 25 percent.

                          LANL INFRASTRUCTURE

    What does the complex look like? You alluded to that, Mr. 
Chairman. The next chart, next photograph shows the Chemical 
and Metallurgical Research Facility at Los Alamos. Here, the 
activities where we do actinide physics, actinide chemistry, on 
almost all the weapons in the stockpile by the very brightest. 
I would tell you that when I go and visit that facility, it 
looks to me like an old, outdated Russian laboratory, cinder 
block walls inside, cubby holes, and when we bring in new 
potential employees to look at it, they will comment that they 
have seen better facilities in their laboratories in their 
universities.
    The system is inadequate. Inside, pipes that carry 
radioactive waste leak and, as we show here, are literally 
bagged to prevent spills and contamination.
    The next photograph shows, also in Los Alamos, a photo of 
the folks at X Division in the laboratory. These are some of 
the typical offices in which we ask really the core of our 
nuclear design individuals to work. These are our designers, 
the people who come to us and are trained for many, many years, 
and this is the environment in which we ask them to work.

                         SANDIA INFRASTRUCTURE

    At Sandia, a building that is only 15 years old, but it 
desperately needs structural repairs. The roof-to-wall 
connections are cracked, needing significant repair. The 
original crane and support structure needs to be replaced, even 
though it was operating at the structural limit.

                    NEVADA TEST SITE INFRASTRUCTURE

    The Nevada Test Site, the next chart we show what we call 
the air building at the underground test facility, which was 
originally designed as a temporary structure to support the 
Ledoux test in 1990. We have been operating in this temporary 
facility since 1990, and at this location the workers there 
literally go off and patch this inflated building, with this 
kind of a material, on a regular basis to try to keep it 
running.
    This, Mr. Chairman, is the key support facility for the 
underground subcritical test program there, and it really 
underpins our nuclear test readiness program. Everyone who 
works underground for us works in and out of this facility.

                          Y-12 INFRASTRUCTURE

    I tend to say that the poster child of bad facilities is 
the Y-12 plant, and again, this is the facility that you are 
talking about, Mr. Chairman, where we literally ask people who 
work on lithium hydride to wear hard hats when they go into 
work to protect themselves from the concrete that is falling 
off the ceiling of this mid-forties building.
    Now, again, we run a very aggressive program at NNSA called 
integrated safeguards, or integrated safety management, where 
we hold the contractor strictly accountable for the safety of 
how they operate their facilities. So what I do is tell the 
contractor that you basically make sure that guy wears his hard 
hat, or I am going to fine you, and by the way, do really 
quality work while you are in there, because this is about 
nuclear weapons.

                         PANTEX INFRASTRUCTURE

    The situation at Pantex in Amarillo has its own story. It 
is the only site in the complex where we actually assemble and 
disassemble nuclear weapons. This is the roof of the assembly 
buildings. We call them Gravel Gerties. They leak. The grass 
grows up in the areas. They have been in operation since about 
1953.

                    KANSAS CITY PLANT INFRASTRUCTURE

    The next chart tells you not only the infrastructure in 
poor repair, but some of the tools that we use are in the same 
condition. At Kansas City Plant, this lathe is about 20 years 
old, or a little older, and it was designed to operate machine 
parts down to 1,000th of a inch. We are barely able to maintain 
5,000th of an inch now, yet it is the key to support classified 
products on the W-87 life extension program. There are four 
other machines like this at Kansas City.

                       NEVADA OPERATIONS FACILITY

    Now, I painted a fairly dark picture, a bleak picture. I 
want to tell you this obviously because of the support of this 
committee and others the whole complex is not in that exact 
standpoint, and I will just show you a photo of the operations 
office in Nevada, a facility that I would suggest meets the 
kinds of standards we would like for the rest of the complex to 
work on.

                       LIVERMORE LAB BUILDING 132

    It is not gold-plated, but it is open, it is airy, it is 
professional. No one will not take a job there because of the 
facility, and I do not say that they will come there to work 
for you, but no one would say, I cannot work in that facility. 
It is a quality place, and the next one shows a building that 
has been built at Livermore, the same kind of a concept, and 
this is again where many of the people, in contrast to the X 
Division people at Los Alamos, do their design work.
    These are buildings that the people, I think, should be 
proud to work in, and it is a kind of a model that we would 
suggest for the future.

                      TRITIUM EXTRACTION FACILITY

    The last one that I would show you is a building that is 
under construction, and it is the tritium extraction facility 
at Savannah River, and it again will be of a quality that we 
expect to be able to offer to our workers, and our goal is to 
make much of the facilities look like these last three 
photographs that I have shown you.

                      RECAPITALIZATION INITIATIVE

    To start this, we have begun, and we have crafted a 
recapitalization initiative to allow NSA to rapidly respond to 
any budgetary support that may develop in the future. Sustained 
incremental and preventive and other maintenance and 
infrastructure investments above the current base are needed to 
extend lifetimes to reduce the risk of the systems and risks of 
failures, increase the operational efficiency and 
effectiveness, and allow for capitalization of these aging 
facilities.
    The recapitalization will fund an integrated, prioritized 
list of maintenance and infrastructure activities that will 
significantly increase operational effectiveness and efficiency 
at all our sites. Mr. Chairman, we have today, ready to go, an 
integrated complex-wide priority list on how to proceed down 
this road. We are ready to start that right now. The work has 
been done. We know where we are going to spend the first 
dollar. We know where we are going to spend the last dollar. We 
know how to manage it for the next 5 or so years as we run 
through that.
    What we need, and what we have created, is a long-term plan 
to allow us to create a weapons complex that is properly sized, 
using modern technologies to protect the safety of our workers 
in a national environment.
    Senator Domenici. How much could we spend under your plan 
next year?

                        RECAPITALIZATION FUNDING

    General Gordon. I think in the next year we could spend 
about $300 million. Mr. Chairman, the majority of that in the 
first year would go towards deferred maintenance, of which 
there is something, as you mentioned earlier, something on the 
order of $800 million deferred maintenance, and then begin to 
lay out, in concert with the defense reviews, the specific 
major construction programs that would follow.

                               Y-12 PLANT

    Senator Domenici. What about Y-12, in fixing that?
    General Gordon. I would be putting the first effort in 
there would be to really attack the deferred maintenance in 
that area.
    Just to give you another story, Senator Thompson one I 
think you would particularly appreciate. We bought a sheet 
metal machine that the committee helped pay for a couple of 
years ago. The machine cost several million dollars and its to 
operate in a nuclear weapons area. It is under tarps, and the 
workers go by it every day and see this very efficient piece of 
new equipment sitting there. They have not had the money to 
install it because they have not got a clean facility to 
install it in yet.
    We have sort of put it there in front of people, so that 
they know that we have not come up with the extra money to put 
it in a facility to operate. We just kind of got out of cycle.

                               MANAGEMENT

    So what we really need to do, Mr. Chairman, is get into the 
facility management in a better way than we have done. We are 
not only asking for money, what I am trying to tell you is that 
we know how to run this program, we know how to manage this 
program. I do not think that is necessarily so deep in our 
history.
    We are moving towards an organizational change that will 
allow me to focus on the facilities and on the facility 
management programs, and to focus on the long-term planning and 
establishment of processes that will do that.
    You mentioned the Scott report, and what I would offer to 
any members that really want to get into the next level of 
detail is, Captain Scott come up and discuss the next level of 
detail and the management systems that we are putting in place 
to manage this program effectively. He has done an outstanding 
job to build up his assessment for the next several years, and 
he has captured the very nature and extent of the problems, and 
the price that will allow us to manage it in the future.

                            WEAPONS COMPLEX

    Mr. Chairman, I will be direct and blunt. The facilities 
that underpin the American nuclear deterrent require immediate 
attention in the order of $800 million in deferred maintenance. 
For years, we have been using up our facilities as if they were 
consumable resource, not replacing outmoded buildings, not 
maintaining our facilities, instead spending our limited 
resources on missions.
    Every report, every study defines a program that can 
readily spend something approaching $500 million a year for at 
least the next 10 years. The deterioration is inefficient, it 
is wasteful of taxpayers' dollars, it is an extremely difficult 
environment in which to operate, it sends exactly the wrong 
signal to the professionals who want to recruit for our future.
    Why would they come to work in this laboratory at Los 
Alamos with 1950's equipment, and I ask rhetorically, Mr. 
Chairman, what do the state of our facilities tell our current 
employees about how we value them and how we see the future of 
the mission that we ask them to continue to commit to?

                           PREPARED STATEMENT

    Mr. Chairman, we want our weapons to be safe, we want our 
weapons to be reliable and secure. I believe we want the same 
of our facilities, that they are safe, they are secure, they 
are reliable, and mission confident. There is no quick fix. It 
will take a minimum of 10 years to get this back in shape. We 
are ready to start. We know how to do it, and we appreciate 
your support and the time to allow me to come up here and chat 
with you, sir.
    Thank you.
    [The statement follows:]

                  Prepared Statement of John A. Gordon

    Mr. Chairman, Members of the Committee, thank you for the 
opportunity to come before you to discuss the condition of the 
facilities and infrastructure of our vital nuclear weapons complex.
                              introduction
    During my confirmation hearing before the Senate Armed Services 
Committee last May, I posed the question, ``Are we under invested in 
facilities?''--to which I replied, ``I am rather certain of that 
answer, by the way.'' Mr. Chairman, today I am positive of the answer: 
we are under invested, and by a lot.
    In July 2000, I had the opportunity to testify at the Hearing of 
the Special Oversight Panel on Department of Energy Reorganization, 
House Armed Services Committee. I made several points then which I 
would like to reiterate today. Mr. Chairman, Members of the Committee, 
I am the full-time advocate for the mission of the NNSA. As such, I 
understand that my responsibility is to be balanced and report the 
condition of my organization to the Congress. I appreciate that I have 
this opportunity today to provide you with my understanding of the 
conditions of the nuclear weapons complex.
    This is not a new story, nor is it a new issue. Brigadier General 
Gioconda has testified before this committee last year regarding our 
deteriorating facilities and infrastructure. As I will present in this 
testimony, the complex has been studied extensively, both inside the 
Department of Energy as well as outside. All have reached similar 
findings and the case is clear: the physical complex requires attention 
and we must act soon, because it is unprofessional, it's inefficient, 
it's wasteful of resources, it's potentially dangerous, and it sends 
exactly the wrong message to the professionals we want to attract and 
keep in this endeavor.
    Mr. Chairman, since assuming the challenging responsibilities as 
Administrator of the NNSA, I have traveled throughout the complex. My 
purpose was to reacquaint myself with the places where I had served 
earlier in my career, and, more importantly, to visit the entire 
complex--to learn first hand of the missions now executed by our 
intelligent, thoughtful and dedicated workforce.
    What I found, I must confess, was remarkable. Almost half of our 
structures are over 50 years old. Now, when I crossed the 50-year 
barrier, I knew that I was mature, but not old. But our 50-year-old 
structures are old--old in the sense of safety, security, reliability, 
and mission effectiveness. Many facilities do not meet modern health, 
environmental, or energy conservation standards. They are costly to 
maintain, and difficult to keep in regulatory compliance. It is in such 
facilities we ask some of the most brilliant scientific and technical 
minds and some of the most productive people in the country to work. I 
brought along some pictures to share with you which I believe 
graphically portray these issues. During my visits I was struck by what 
appeared on the surface to be a reasonably well functioning set of 
operations performed by the women and men of the Department of Energy's 
NNSA. However, it takes little to soon notice that something is amiss. 
In both scientific and production operations, one frequently finds 
activities that should be closely connected by time and space, but are 
separated by space and, in some cases, buildings. When questioned, the 
answers begin to describe ``work-arounds.'' There is great pride among 
the teams of Federal and contract workforce that execute the national 
security missions assigned. The ingenuity employed by these people to 
overcome antiquated facilities astounds. But frankly, we must help 
reduce these impediments. At some point, a failure directly 
attributable to the condition and age of these facilities will result 
in a costly, embarrassing, and possibly fatal incident that will harm 
our national security. While I cannot predict exactly when--it will 
almost certainly be sooner rather than later.
    I have documented age. Let me now discuss the condition of our 
facilities and infrastructure. It should be unremarkable that if one 
combines the lack of attention with the considerable age of the 
complex, the result is a deteriorating physical infrastructure. Studies 
show that the rate of deterioration of our nuclear weapons complex is 
accelerating. Recently, Defense Programs conducted an assessment of the 
condition of the complex. During the time period centered about 1995, 
roughly 56 percent of the complex was found to be in an either 
excellent or good condition. Five years later, a comparable assessment 
was conducted by many of the same people who had performed the first 
one. Their finding: facility conditions in the excellent to good range 
had declined to 26 percent, while those in the adequate to fail 
categories had soared to over 70 percent. Here then is another 
benchmark that describes the nuclear weapons complex, acceleration is 
added to the calculus of the deteriorating nuclear weapons complex.
    A fair question at this point is ``How did we get this way?'' The 
question is correct, simple, and beguiling. The answer, however, is 
complex. For too long a time, as a result of other priorities, we have 
underinvested in our facilities, infrastructure, and their maintenance 
and recapitalization. In the recent past, the priority has been 
properly given to ensuring the success of the Stockpile Stewardship 
Program. Attention to the infrastructure was put on hold while the 
science based stewardship program was formulated, funded, took hold, 
and is now working. It is now time to refocus on the physical complex 
which houses the Stockpile Stewardship Program.
    Our facilities require attention. Others have found, as we have, 
concerns regarding the condition of the complex. I will share some of 
these observations and also provide greater depth from our own study. 
Today, improving the facilities and infrastructure of the NNSA is a 
high priority, but we need your help. The Secretary and I are prepared 
to work with you to this end. On my end, I have a detailed plan of how 
to proceed, which unfolds throughout this testimony. Dollars alone, 
while vital, are only one part of the solution. As significant, 
possibly more, is my plan to bring focus, process, rigor and 
accountability to our work of recovering our facilities and 
infrastructure. Facility management is a standard business practice of 
most major organizations. It is being reengineered within the NNSA. We 
are establishing an office to manage the facilities and infrastructure 
of the nuclear weapons complex. We are refocusing on long term 
planning, establishing the processes--absent too long--that will 
institutionalize the procedures, standards and expectations for the 
complex.
    Mr. Chairman, I have included an appendix to this portion of my 
testimony. I ask that you carefully read through it. I believe that the 
information provided in the appendix is important because I make the 
case concerning the condition of our facilities and infrastructure. As 
you know, the Department of Energy's nuclear weapons complex has been 
analyzed and studied by a number of qualified, interested, and 
independent forums. I have summarized the key studies for you. As you 
will see, the terms may be somewhat different, but the conclusions they 
draw about the condition of our facilities and infrastructure are 
strikingly similar.
    I start by introducing two seminal studies from the recent past: 
our Defense Programs Facilities and Maintenance Study, Phases I & II, 
of May 1998, and the externally conducted Office of the Secretary of 
Defense (OSD), Program Analysis and Evaluation (PA&E) Review of April 
2000. I then cover in some detail our own internal analysis, the 
Defense Programs Facilities and Infrastructure Assessment 2000--Phase 
I. I continue with an explanation of how we are building process--
facility management--as Phase II of this Assessment 2000. In addition, 
I present evidence of the continuing interest in the status of the 
complex by some very impressive outside entities. Once you have gone 
through the appendix, I believe that you will have a comprehensive 
picture of the status of the nuclear weapons complex as seen by the 
NNSA and the interested stakeholders outside the NNSA. One thing is 
clear to me based on my understanding of the evidence at hand--the 
facilities and infrastructure need attention now. I believe that this 
committee can help. I have crafted a Recapitalization Initiative that 
begins the turnaround. And finally, I submit my conclusion.
       facilities and infrastructure recapitalization initiative
    In the aforementioned appendix, I have discussed the condition and 
resource needs of the nuclear weapons complex in some detail. To start 
the financial recovery, NNSA has crafted a Recapitalization Initiative. 
This will allow the NNSA to be able to rapidly respond to any budgetary 
support which may develop in the future. As you know, the base 
maintenance and infrastructure efforts at our sites are primarily 
funded within the budget for Readiness in Technical Base and Facilities 
and through site overhead allocations. These efforts focus on ensuring 
that facilities necessary for immediate programmatic workload 
activities are maintained sufficiently to support that workload.
    Sustained, incremental preventive and other maintenance, and 
infrastructure investments above this base are needed to extend 
facility lifetimes, reduce the risk of unplanned system and equipment 
failures, increase operational efficiency and effectiveness, and allow 
for recapitalization of aging facility systems. The Recapitalization 
Initiative will address such issues. The initiative as proposed will 
address an integrated, prioritized list of maintenance and 
infrastructure activities that will significantly increase the 
operational efficiency and effectiveness of our sites. This complex-
wide integrated priority list of over target requirements, the 
Prioritized Project Listing, is a first ever for the NNSA and Defense 
Programs. It will ensure accountable execution of near term 
improvements across the complex, based on overall mission requirements. 
The Recapitalization Initiative projects are updated semi-annually. All 
sites generate a prioritized listing of Recapitalization projects as 
part of their Ten-Year Comprehensive Site Plans. NNSA evaluates 
descriptions of scope, justification, and estimated costs for proposed 
recapitalization projects, and integrates them into a single 
prioritized list that becomes the basis for program planning, budget 
requests and program execution. Once funding is appropriated, the 
priority list will again be checked to assure that no higher or more 
urgent priorities have surfaced. During budget execution, funded 
Recapitalization projects will be authorized, managed and tracked 
through the work authorization process. The visibility afforded by this 
dynamic process will provide responsible budget estimates, assure that 
the most urgent Recapitalization needs are met in each year, and focus 
accountability for each project undertaken.
    The current plan for this initiative continues through a five year 
period, and is a modular approach. Specifically, whatever the funding 
level, the most urgent non-line item projects are worked off the 
Prioritized Project List. The program is designed to stabilize the 
infrastructure, and then shift the facilities and infrastructure 
funding and business practices back to the base programs at the end of 
the Recapitalization Initiative.
    The goals of the Recapitalization Initiative are:
  --To increase the operational readiness of facilities;
  --Reduce non-productive facility downtime and high costs associated 
        with unplanned and/or corrective maintenance;
  --To arrest the continuing deterioration of facilities by reducing 
        maintenance backlogs;
  --To extend the useful life of current facilities,
  --To reduce the excess facility and structure inventory by removal of 
        non-radioactively contaminated structures.
                               conclusion
    Mr. Chairman, Members of the Committee, I believe that this is a 
fair statement of where we are today. In my view, I am building the 
correct organization within the Department of Energy's NNSA to grapple 
with these tough problems. To underscore my testimony, I have brought 
along copies of our study and of the pictures mentioned herein. In sum, 
we have a complex that is old and that is deteriorating as we speak. 
The condition of the complex is known to many of you, discovered on 
your frequent trips to the sites. I believe that we are forging, for 
the first time, a facility management process that will husband 
economically the resources entrusted to us by the Congress. At the same 
time business as usual will eventually threaten this vital national 
defense program.
    Thank you for the opportunity to tell you our facilities and 
infrastructure story. I will now take any questions you may have.
                                appendix
    The following contains information derived from previous studies, 
which have looked into the condition of the state of the facilities and 
infrastructure of the National Nuclear Security Agency's nuclear 
weapons complex. Recently, Defense Programs concluded their seminal 
baseline assessment and it is also included here. This study is the 
basis for the current actions within NNSA that are dedicated, for the 
first time, to creating a facilities management process designed to 
efficiently manage the resources entrusted to the NNSA for improving 
the condition of the complex. Finally, two studies that were underway 
at the same time by outside panels are provided. This demonstrates that 
the concern for the nuclear weapons complex continues to exist within 
influential segments of the national security community.
 dp facilities and maintenance study phases i & ii, may 1998 executive 
                                summary
    Ninety seven percent of the facility area needed to support the 
assigned mission is being maintained in the full-up Operational 
category. The remaining three percent of the facilities are in the 
Operational Standby, Reserve, and New Construction categories. This 
full-up readiness does not appear to be consistent with the current 
capacity requirements reported in the mission assignment studies and 
reflects a lack of DOE guidance to use a graded degree of operational 
readiness.
    The 1997 reported maintenance costs for the laboratories and the 
production sites total $267.5 M. The overall ratio of maintenance 
funding to Replacement Plant Value (RPV) averages 1.5 percent which is 
lower than the 2-4 percent range recommended in the commercial sector, 
the General Accounting Office (GAO), and the Building Research Board of 
the National Research Council. Programmatic equipment maintenance is, 
for the most part, not addressed.
    Maintenance budgets have declined 25 percent over the past four 
years. This combined with the increase in square footage from new 
construction and the lack of guidance to move facilities into a lesser 
degree of readiness category is severely affecting the abilities of the 
respective site maintenance organizations to provide an effective 
maintenance program.
    Facilities have been declared excess to the DP assigned mission 
with dates starting in 1997 and continuing for the next ten years. 
While excess dates have been reported and some tentative disposition 
dates advanced, the costs associated with the disposition actions are 
largely unknown. The whole issue of disposal dates and costs will 
remain open until guidance is provided for disposal, establishment of 
disposition dates and disposition end states, timing and availability 
of funding.
    Sixty-five percent of the excess facilities are currently in use. 
The date a facility has been declared excess and the date disposition 
actions are initiated is not necessarily the same and in fact may be 
separated by several years or even decades. There appears to be no 
relief in reduction of maintenance costs from the excess facility arena 
as the maintenance of excess space currently in use will continue for 
the foreseeable future.
    The total backlog costs reported are $725 M.
    The consensus of the M&Os operating the sites is that the RPV 
provided in the Facilities Information Management System (FIMS) 
database does not reflect a true replacement cost and only addresses 
facilities. The accuracy of the RPV should be of reasonably good 
quality if it is intended to be used as a measurement tool for 
replacement cost estimates.
    The facility management program is not coordinated at the 
Headquarters level nor at the field office level to provide a 
consolidated and integrated approach of the facilities issues with line 
management. There are isolated pockets of information for the various 
functional areas but no coordinated effort.
    The current condition assessment of the facilities in the 
operational footprint shows that 72 percent of the facilities range 
between excellent and adequate with the majority of the assets in the 
good category. The condition assessment of the infrastructure shows 
that the majority of the assets are in the adequate to fair category 
with a few exceptions in the good category. This difference in 
condition reflects a lack of priority in maintenance of the 
infrastructure supporting mission operations.
    The average age of the facilities at the laboratories and 
production sites determined from construction history is: 1940s--25 
percent, 1950s--17 percent, 1960s--24 percent, 1970s--9 percent, 
1980s--13 percent, 1990s--12 percent. At least 66 percent of the 
facilities are 25 years or older. The design life for most government 
facilities is 25 years. The effect of the aging and deterioration of 
these facilities is reflected in the $725 M backlog of maintenance and 
repair.
    Some ``plus-up'' funding has been provided but it has not provided 
a significant impact on the reduction of the backlog. The lack of 
funding for reduction of backlog was a primary concern expressed at all 
of the sites. The deferral of corrective maintenance and a lack of 
similar funding in the 1970s led to a $2.2 B facilities and equipment 
restoration program in the early 1980s.
         osd program analysis and evaluation review, april 2000
    A summary of observations on DP's manufacturing infrastructure 
indicate that:
  --Anticipated workload will require an expansion of current capacity;
  --Regardless of workload, indefinite maintenance of the nuclear 
        stockpile will require an investment in the DP manufacturing 
        infrastructure of some $7B over 18 years;
  --If DP stays within a $4.5B annual budget, the above investment 
        would require a reduction in the science budget;
  --Tradeoff analyses between DP's science program and its 
        manufacturing infrastructure, or within each of the two, are 
        complicated by the lack of a DP multi-year plan.
 defense programs facilities and infrastructure assessment report 2000
                               summarized
    At the direction of the Secretary of Energy in October 1999, the 
Department concluded a 30-day review of the Stockpile Stewardship 
Program in November 1999. The Department developed a 15 point action 
plan as a result of the findings. One of the key points, ``The 
Department will develop a plan for long-term recapitalization of the 
facilities in the nuclear weapons complex'' prompted BG Thomas 
Gioconda, then acting Assistant Secretary for Defense Programs, to 
satisfy this requirement by directing that an assessment be conducted 
of the Defense Programs facilities and infrastructure. I am providing, 
in some depth, the findings of this study because it establishes the 
condition of the complex, determines the cost of DP's facilities and 
infrastructure business and speaks to the cost of recapitalization for 
the complex. What follows, I believe, is impressive.
                                overview
    The nuclear weapons complex, except for the newest experimental 
facilities, consists of production, testing, and laboratory facilities, 
which are very old and in need of intensive and ever escalating 
maintenance. During the previous 7 years, the DOE devoted the bulk of a 
flat budget to establishing the scientific backbone for the Stockpile 
Stewardship Program. The concentration of funding primarily on the 
science aspects of the Program has contributed to the neglect of aging 
facilities and infrastructure, the acceleration of their decline, and 
has resulted in an enormous maintenance backlog legacy.
    A 1999 review of the Stockpile Stewardship Program, mandated by the 
Under Secretary of Energy, recommended that the DOE develop a plan for 
long-term recapitalization of the facilities in the nuclear weapons 
complex. As a first step in the planning process, Brigadier General 
Thomas Gioconda, Acting Deputy Administrator for Defense Programs, 
National Nuclear Security Administration, directed that a detailed 
Assessment be conducted of the facilities and infrastructure (F&I) 
supporting Defense Programs nuclear weapons complex. To fulfill the 
Deputy Administrator's direction, a team comprised of Defense Programs 
(DP) F&I subject matter experts, located at headquarters and at field 
sites, was assembled.
    The approach adopted by the team was to divide this important 
effort into two phases. The objective of Phase I was to obtain an 
accurate snapshot of the current state of the complex infrastructure 
and the cost of doing business. This was accomplished by issuing a data 
call to the eight DP Sites: Kansas City Plant, Lawrence Livermore 
National Laboratory, Los Alamos National Laboratory, Sandia National 
Laboratory, the Nevada Test Site, Oak Ridge/Y-12, Pantex, and the 
Savannah River Site. The objective of Phase II, currently underway, is 
to develop a common approach to facility and infrastructure management, 
as well as, develop a Facilities Management Process Plan that 
integrates F&I requirements, management expectations, Headquarters and 
Field functions, and will provide safe, secure, reliable, and 
sustainable facilities.
    Phase I of the Assessment provided several important results: an 
integrated baseline of the condition of the entire complex 
infrastructure; a clear picture of the cost of maintaining the F&I 
constellation; and a prioritized maintenance and modernization list, 
integrated across the complex, of the most pressing infrastructure 
needs.
                                phase i
    The Phase I data call was developed to help determine the full cost 
of DP's F&I business. It was designed to accomplish two things: portray 
an integrated timeline of ongoing, planned, and required construction, 
modernization, and major maintenance projects; and profile current F&I 
funding requirements across the Complex. The funding requirements were 
to be reported as: actual expenditures for fiscal year 1998 and fiscal 
year 1999, funded and unfunded requirements for fiscal year 2000 
through fiscal year 2002, and the expected requirements for fiscal year 
2003 through fiscal year 2008. The framework for this data was the 
Stockpile Stewardship Program (SSP). Crucial to this effort was the 
requirement that the data tendered come from existing, accountable 
sources (e.g., DP 10-Year Site Plans, etc.). The information from Phase 
I provides a focused input to the fiscal year 2002 budget process when 
sizing the recapitalization of DP facilities and infrastructure. Since 
the methods of accounting differ between the laboratory and production 
programs, comparing the two is difficult. The production programs use 
direct funding methods, while the laboratory programs account for 
funding with both direct and indirect methods. (Direct funding is 
funding that is appropriated by Congress to conduct specific work. 
Indirect funding is funding that is derived by a tax or charge on 
direct funds and is normally allocated across multiple users.)
    The data call's guidance utilized standardized definitions from 
existing DOE directives to help the respondents properly categorize 
their figures while accounting for both direct and indirect costs. This 
information and the architecture of the data call have a linkage to the 
budget and to the Stockpile Stewardship Program. The call requested 
facts about each of the site's facilities and infrastructure needs 
separated into categories for Maintenance, Capital Equipment, Line 
Items, General Plant Projects, Disposition of Excess Real Property, and 
Expense Funded Projects. Funding information from fiscal year 1998 
through fiscal year 2008 was also requested for each included project.
                           results of phase i
    Overall, the studies determined that the deteriorating condition of 
the Complex is not a new problem. It has been recognized, studied, and 
documented many times over the last decade. The facilities in the 
production complex are old and are deteriorating, largely due to 
historical under-investment in recapitalization and maintenance.
    Although maintenance funds are in short supply, DP is maintaining 
more production space than it requires and a large inventory of 
facilities that are no longer needed by the Stockpile Stewardship 
Program. Disposing of these excess facilities has proven to be 
problematic. Facility disposition includes the dismantlement and 
removal of deactivated facilities and infrastructure that are not 
radiologically contaminated and are excess to current and future 
mission requirements. These actions are taken at the end of the life of 
a facility to retire it from service, with adequate regard for the 
health and safety of workers and the public protection of the 
environment. These actions will improve our ability to manage the 
facilities portfolio and reduce long-term costs.
    Numerous studies, reviews, and Site plans for the past 9 years have 
pointed out the problem of the deteriorating complex. Many reasons why 
the DOE did not act on the findings and recommendations are extant. 
Prime among them was the scarcity of F&I funds due to higher priority 
programmatic objectives (science over bricks and mortar). The costs of 
constructing and operating new science-oriented facilities compete for 
the funding available for deferred maintenance in the rest of the 
complex. The figure representing the cost of reducing the deferred 
maintenance backlog coupled with the substantial costs of 
decontamination and disposal grew to such an imposing number that it 
was easier to defer than to take action. Funds slated for attacking the 
maintenance problem were often redirected to respond to more urgent 
unfunded mandates (security, safety, environment, etc.).
                                  age
    The majority of the facilities reported in the Complex are 40 years 
and older. These facilities do not meet modern standards, especially in 
the area of energy conservation. The overall efficiency of the 
facilities is low because the facility was not originally designed for 
the mission/use currently being executed. In a number of instances 
where upgrades have been made to accommodate new or modified missions 
the function is consolidated in a portion of the facility and sits in 
the midst of surrounding empty and unused space.
                        condition of the complex
    A DP study, focused on the time period centered about 1995, 
reported that the complex was reasonably healthy. At that time, the 
Sites reported that 56 percent of the Complex was in either 
``excellent'' or ``good'' condition. The 2000 F&I data call portrays 
significant deterioration in the Complex. These data now capture a 
Complex that is only 26 percent ``excellent'' to ``good'' with over 70 
percent in an ``adequate'' to ``fail'' condition. The current 
Assessment indicates that the declining condition of the Complex is 
growing worse. Funding has not been sufficient to solve the backlog 
problem and stem the steady decline. A stagnant budget (in the past and 
anticipated for the future), a focus on science at the expense of 
infrastructure, an increasingly more stringent regulatory climate (with 
many unfunded mandates), and inflation have all contributed to a 
dramatic downturn in the condition of the Complex.
                   facility and infrastructure costs
    During the period fiscal year 1998 through fiscal year 2002 the 
average annual funded level of spending on F&I will be $1.3 billion. 
However, requirements will average approximately $2.1 billion per year 
for the time period fiscal year 2003 through fiscal year 2008. To 
compound the problem, unfunded (priority) requirements are increasing 
at a rate of about $200 million per year.
                           excess facilities
    A drain on F&I resources exists in the excess facilities category. 
These are facilities that are no longer in use because of mission 
change or reduction in the size of the Complex and are generally in 
poor condition. These facts describe the situation:
  --A sizeable number of facilities are waiting to be disposed of.
  --Most are in poor condition.
  --The expense to maintain them in a holding pattern is relatively 
        small but growing.
  --The costs for large-scale facility disposal will be great, but are 
        currently not estimated.
  --Should a catastrophic environmental, safety, or health event occur, 
        recovery will be expensive and the potential for unfavorable 
        press will be unavoidable.
  --Responsibility for disposing of these facilities resides with 
        Environmental Management.
  --Defense Program's current strategy of maintaining excess facilities 
        with minimal maintenance and surveillance, at low cost, has run 
        its course.
                   summary and conclusions of phase i
    This initial assessment is indisputable--the nuclear weapons 
complex is old, the infrastructure, a necessary part of the complex, 
has been neglected, and its maintenance is not funded adequately. In 
addition, facilities management is fragmented, is without uniform 
standards, and in difficult times has served as the bill payer for 
higher priority science and production programs across functional 
areas. For example:
  --Over half the facilities entered the inventory prior to 1960.
  --Fiscal year 2003--fiscal year 2008 requirements total $2.1 billion/
        year--under funded by some $800 million annually.
  --Unfunded priority requirements are increasing by about $200 
        million/year; and over $500 million of urgently needed, yet 
        unfunded, F&I projects are extant.
  --F&I conditions continue to deteriorate--CY 1995, 57 percent of 
        facilities were in either excellent or good condition, while in 
        CY 2000, the same facilities fell to 27 percent in these 
        condition categories.
  --Annual maintenance is under funded--Comparable industrial facility 
        managers fund from 2 percent to 4 percent, and in some cases 8 
        percent of replacement plant value (RPV) to maintain 
        facilities. Defense Programs averaged below 1.5 percent RPV for 
        over the past decade to maintain the complex.
  --Preventive maintenance and recapitalization required to maintain 
        DP's investment and support program requirements are 
        significantly under funded.
    The DP Phase I Facilities and Infrastructure Assessment indicated 
that the declining condition of the Complex is growing worse. Funding 
has not been sufficient to solve the backlog problem and stem the 
steady decline. A stagnant budget (in the past and anticipated for the 
future), a focus on science at the expense of infrastructure, and 
increasingly more restrictive regulatory climate (often with unfunded 
mandates), and inflation have all contributed to a dramatic downturn in 
the condition of the Complex.
                                phase ii
    Phase II of the Facilities and Infrastructure Assessment commenced 
August 2000, and set out to ``develop a plan for long-term 
recapitalization for the facilities in the nuclear weapons complex.'' 
Using the database developed in Phase I, the approach for Phase II is 
to build on existing processes while identifying the central issues to 
be resolved, and develop appropriate metrics by which to measure 
progress.
    To date, a dozen major tasks have been identified for action by 
using Six Sigma methods of analyses. These tasks include establishing 
and validating policy; developing consistent planning processes--both 
tactical and strategic; reengineering facility stewardship; 
implementing procedural improvements; and developing budget guidance 
that highlights F&I concerns and establishes accountability. I have 
here a briefing of our Facilities and Infrastructure Assessment which 
explains in more detail these tasks which bring focus, process, rigor 
and accountability to our work of recovering our facilities and 
infrastructure. I would request that one of my senior staff members 
brief you or your staffs at your convenience to provide a more 
comprehensive explanation of our efforts than I have time to do now.
                       recent reviews summarized
    While Defense Programs was aggressively coming to grips with the 
actions necessary to improve the condition of the complex, others were 
independently studying the complex and not too surprisingly drawing 
similar conclusions. Dr. John S. Foster chaired a ``Panel to Assess the 
Reliability, Safety, and Security of the United States Nuclear 
Stockpile''. The findings of this panel echo those put forth by Defense 
Programs. In addition, General John M. Shalikashvili, serving in his 
role of Special Advisor to the Secretary of State, issued findings and 
recommendations related to the Comprehensive Test Ban Treaty. His 
pointed recommendations also warn of the impact of existing conditions 
at the manufacturing plants and the consequences should nothing be 
done. Key findings of both panels are provided below.
                            the foster panel
    The 1999 Strom Thurmond Defense Authorization Act created the Panel 
to review and assess (1) the annual process for certifying stockpile 
reliability and safety, (2) the long-term adequacy of that process, and 
(3) the adequacy of criteria to be provided by the Department of Energy 
for evaluating its science-based Stockpile Stewardship Program.
Recommendations:
            Production complex
    Restore missing production capabilities and refurbish the 
production complex. The decline of the nuclear weapons production 
complex must be reversed with a 10-year program to eliminate critical 
maintenance backlogs and gaps in stockpile repair and replacement 
capabilities, requiring investment on the scale of $300 to $500 million 
per year. In addition, ongoing work on small-scale pit production 
capabilities and the certification of newly manufactured pits must be 
pursued with urgency. Work also must begin on the conceptual design of 
adequate nuclear facilities for the long-term support of the stockpile.
            Plans, programs, and budgets
    Implement a realistic plan, schedule, and multi-year budget for the 
Stockpile Stewardship Program, agreed to by the Nuclear Weapons 
Council. The new NNSA Future Years Plan (FYP) should provide, with the 
Defense Department's agreement, a realistic multi-year program to 
sustain confidence. Congress should support realistic budgets and 
provide NNSA flexibility to manage to this program. The Defense and 
Energy Departments should partner in a revised Nuclear Posture Review 
addressing the makeup of the future nuclear stockpile, and assessing 
DOD's requirements on NNSA to support that stockpile, including 
infrastructure and hedge strategies.
    The Panel also visited some of the forty- and fifty-year old 
production facilities at the Pantex, Oak Ridge Y-12, and Kansas City 
plants where weapons work is being done with aged equipment, employing 
health and safety practices that have been grafted onto the work flows 
of these outmoded facilities. Only a very small amount of design and 
production work is actually being performed. For at least a decade, 
these facilities have been permitted to spend only the minimal amounts 
needed to sustain operations for the tasks at hand. Consequently, 
independent DOE and DOD studies that find the production complex is 
incapable of meeting future stockpile requirements. In the coming 
decade, some $3 to $5 billion will be needed to remedy this situation. 
The DOE reports a maintenance backlog of $700 to $800 million. 
Additionally, there is a need for $300 to $500 million per year for up 
to ten years for recapitalization to restore the capability to meet 
workloads.
    In summary, production managers across the complex describe their 
situation as an impending disaster. They warn that the current approach 
is pushing their facilities toward failure, and that the current 
program does not enable them to hire and train a new generation of 
workers. They hold the following:
            Restore the capability to support needed weapons work
    Managers within the complex are concerned that the deterioration of 
the physical facilities is accelerating. For some of these deteriorated 
40 to 50 year-old facilities it may be more cost-effective to build 
replacement capabilities. Yet, there is no agreed upon plan or program 
in place for addressing the complex-wide backlog of critical 
maintenance requirements. The NNSA must take the lead in defining a 
long-term program for reversing these trends. NNSA must:
  --Plan and execute a ten-year program to restore needed production 
        capabilities. The DOE reports a maintenance backlog of some 
        $700-$800M. Additionally, there is a need for $300-$500M/yr for 
        some ten years for recapitalization to ensure that the 
        production complex will be able to meet both current and future 
        workloads.
            Restore nuclear facilities adequate to long-term needs
    The nation must be prepared to address problems that may arise in 
the nuclear components of stockpiled weapons. NNSA should begin a time-
phased program to design and build the critical nuclear facilities 
needed to have a complete capability to produce and refurbish nuclear 
components. These include facilities for pit production, secondary 
production, and some upgrades at the nuclear laboratories.
                     the shalikashvili report--2001
Recommendations:
    Working with the Department of Defense, other Executive Branch 
agencies, and the Congress, the Administrator of the NNSA should 
complete as soon as possible his comprehensive review of the Stockpile 
Stewardship Program. The review will clarify objectives and 
requirements, set priorities, assess progress, identify needs, and 
develop an overarching program plan with broad-based support.
    A dedicated infrastructure revitalization fund should be 
established after the NNSA has completed a revitalization plan for its 
production facilities and laboratories.

    Senator Domenici. Thank you very much, General.
    Senator Thompson, if you would like to proceed. You are 
doing us a favor by coming here, and I appreciate it.

                             MORALE ISSUES

    Senator Thompson. Not at all. You are doing the whole 
Nation a favor by highlighting these problems. You just touched 
on something in the end there that I have wondered about, and 
that is the growing concern over our personnel, our stewards of 
the stewardship program and what is happening to that. We are 
not testing. We are having to become more and more dependent on 
other things, and it probably makes our personnel even more 
important. We are losing personnel, and what is your overall 
assessment of that, and to what extent do these working 
conditions impact on that problem?
    General Gordon. It is hard to get a metric on that, 
Senator, but it is very clear that the new employees that come 
around and look at this facility have to wonder why they would 
want to come work in this environment.
    We have done a lot in the last 6 or so months to change the 
tone within the facilities, both the plants and the 
laboratories. I use the rather graphic analogy that when I took 
over the NNSA, the morale issues, were kind of a sucking chest 
wound. It may not be quite that bad now. We have held out some 
promise. We have held out some hope for the folks that are 
there.
    The young folks that I meet with at the laboratories and 
other places seem to actually be really charged up about what 
they are doing. They are doing great science. They see some 
future for themselves. Older folks really worry and wonder 
about what they are doing, and I have got to tell you that the 
new folks coming in just have to look around and say, the 
commitment is not there to this mission, the commitment is not 
there to me, why should I come to this organization.
    I cannot put numbers on it, but Sandia, for example, they 
would tell you that the number of people that accept their 
first offer is declining significantly.
    Senator Thompson We deal a lot in the Governmental Affairs 
Committee with the GAL high risk list, and they recently stated 
in their report, the GAL high risk report stated, quote, human 
capital issues may be the single largest problem challenging 
the nuclear weapons program. The experienced designers and 
engineers who built the weapons and the stockpile and 
understand how they work are reaching or past retirement age.
    DOE is also faced with shortages of technicians skilled in 
the techniques associated with weapons production, and it kind 
of reminds me of what a lot of knowledgeable people say about 
our military, and our losses there. It is not just about pay, 
it is how you live your life every day, and what your 
surroundings are like, and what kind of commitment you feel 
that your Nation is making to what you are doing, so it is 
important in that respect, too.
    I noticed in Mr. Mitchell's testimony, as far as Y-12 was 
concerned, he had the maintenance backlog $10 million first 
year, $5 million next 5 years, $1 to $2 million thereafter, 
excess unused buildings, $25-$30 million a year, technology and 
security improvements, $100 million a year, new construction 
$300 million. Does that comport with your own----

                       Y-12 PLANT INFRASTRUCTURE

    General Gordon. As I suggested Senator, Y-12 is really the 
poster child for this effort. It has been neglected longer than 
anything else. It is where the most horror stories are. If we 
were to get the $300 million or so that we suggested this year, 
we have estimated $40 million of that would go to Y-12 as the 
up-front to start.
    You have been there, Senator. The last time I walked 
through there there was an old portal that I used 20 years ago 
when I visited the place, a security entrance way, and it is 
wooden, and it has grown up with weeds, and there are weeds 
coming up through the windows.
    I said, why don't we tear it down? They said, well, we 
cannot, because all the power comes in through that facility, 
and communications comes in through that facility, and they 
need to maintain it. It is not as simple as even taking old 
buildings down. We cannot just go bulldoze the things. There 
are other requirements that lead into those.

                              RECRUITMENT

    But you are spot on in the importance of bringing new 
people in, giving them a quality life, as we would think about 
in the military, at least a quality in their work environment 
that lets them feel proud about what they are doing. It lets us 
send a signal to them that, this is a real mission that is 
going to be around for a while, and we are not doing that yet. 
I would propose that Y-12 again is the worst of the particular 
facilities, although every one of the places has individual 
facilities that needs significant work.
    Senator Thompson. Of course, every weapon in our current 
stockpile includes components manufactured at Y-12.
    General Gordon. Every weapon goes through there in both 
directions, coming into the stockpile, coming out of the 
stockpile, and refurbishing the stockpile and, as the chairman 
mentioned in his opening statement, we now are in the position 
ready to begin the refurbishment of some 60 percent of the 
Nation's stockpile we are going to be running through the kinds 
of facilities that we are talking about today.

                      Y-12 PLANT CHAIN OF COMMAND

    Senator Thompson. By the way, some are concerned that the 
NNSA reorganization plan will result in Y-12 not reporting 
directly to NNSA headquarters, and report elsewhere, and add 
another layer of bureaucracy. Can you tell me if that is in the 
works?
    General Gordon. That is a rumor without merit.
    Senator Thompson. I am glad to hear that.

                      HEADQUARTERS REORGANIZATION

    General Gordon. The work that we are doing now on 
suggesting a reorganization is limited to headquarters 
planning. We are under obligation, and will submit a report on 
field operations in the future, we will address that at the 
time, but that is not an active consideration on my book.
    Senator Thompson. Thank you very much. Thank you, Mr. 
Chairman.

                       INFRASTRUCTURE INITIATIVE

    Senator Domenici. Senator and fellow chairman, I want to 
just suggest that I am going to do everything I can to get a 
program started and I will need your help. Obviously for a few 
years a substantial portion of money has got to go to Y-12, 
because obviously we just let it absolutely deteriorate right 
around us, but I can tell you at other laboratories there is a 
desperate need for new facilities that fit scientists, and 
scientific work of our day. We have got scientists at the other 
major laboratories that are working related to our nuclear 
weapons, but it is science--you know, it is nanoscience. It is 
microengines.
    You have got to have facilities for those people. I mean, 
these are the cutting edge people of the whole country in terms 
of the next technology of significance, and frankly, we could 
have put--the General could have put in this packet of 
pictures, he could have put the Sandia National Laboratory 
facility in which the whole nanoscience engineers and experts 
are working.
    They are in the process of developing the world's leading 
center on microengines, engines that are so tiny that they are 
microscopic, and essentially they are energized much in the 
same way that you put things on a microchip for computers, and 
then they buzz around doing their own thing, these little tiny 
engines, and pretty soon we are going to tack them all together 
and do something with them.
    There is one thought that they might be good for a heart 
condition somewhere, that you might literally put these little 
micro machines that function at such a weak level it does not 
hurt anything, put them in your system, and if you can direct 
them, they may be the way to fix various accumulations around 
the heart without having to do what we are doing today.
    Now, that may never happen, but that is pretty exciting, 
and all the other things that might happen. These scientists 
cannot be living in a barrack room that was put up there on a 
temporary basis that had doors on it like you are going to go 
into an old warehouse. You know, I used to work in a store when 
I was a little guy. Those are the same kind of doors we had 
back 50 years ago, so they are all over the place. Los Alamos, 
built up there, is a city on its own. It has its share of them, 
and so does Livermore.
    So we are going to have to work together up here, but I do 
think you have the most valid claim on the first money in. We 
have to look at the President's budget in terms of where he 
would distribute the money, and I think in this regard we are 
going to have to push them very hard, because this is military 
expenditures. This is DOD expenditures, and we need to make 
sure that more resources are put in, not less.
    This is not a place to save money over the next 4 years of 
this President's--I mean, actually, if he tries, it will be 
harmful in the end, because what we are going to get is a very 
inferior condition to what we have today.
    Senator Thompson. Mr. Chairman, if I may, I appreciate 
first of all everything you have said, but going back here to 
this distinguished group of people who formed a commission, 
National Security for the 21st Century, just right along the 
lines of what you said, they recommend, of course, that we 
double the U.S. Government's investment in science and 
technology research and development by 2010, but they have a 
very interesting paragraph here that I think kind of summarizes 
it.
    It says, if the United States does not invest significantly 
in more public research and development, it will be eclipsed by 
others. Recent failures in this regard may return to haunt us. 
The decision not to invest in the large nuclear accelerator, 
the superconducting supercollider, already means that most 
significant breakthroughs in theoretical physics, at least, 
over the next decade, will occur in Europe and not the United 
States.
    The reduction of the U.S. research and development in basic 
electronics engineering has ensured that the next generation of 
chip processors and manufacturing technology will come from an 
international consortium, rather than the United States alone.
    So we cannot say we are not being warned.
    Senator Domenici. Well, General, I have a number of 
questions. I am going to submit most of them. You will have, by 
the time you are finished here this morning, will have put in 
the record how the 10-year plan would be--how we would spend 
the money more or less, and where will it go in a 10-year plan. 
That is part of what you have told us in your testimony, is it 
not?
    General Gordon. We will do that and we can expand that for 
the record.

                     COSTS OF INFRASTRUCTURE REPAIR

    Senator Domenici. I think that is pretty important, but 
could you give us the general numbers, the total extent that 
you are recommending expenditures in this area over the next 10 
years? How much is that, an average of $500 million a year?
    General Gordon. To me, we can readily, safely, and within 
our ability to manage it and oversee it, and stand up proud 
about the need and requirements, about $500 million a year for 
at least 10 years.
    Senator Domenici. Okay. Thank you very much.

                    TA-55 AT LOS ALAMOS NATIONAL LAB

    General Gordon. Mr. Chairman, could I just give you one 
more example? I mean, I know we have talked about examples here 
with you and Senator Thompson, but one of the ones that is 
really vexing to me is what we call TA, or Tech Area 55 at Los 
Alamos, the nuclear, the plutonium facility. For folks that 
have not visited there, that is probably the most modern 
plutonium facility in the world. We have done no work on it in 
22 years.
    At Los Alamos we have scattered throughout the landscape 
there a number of individual facilities that work on nuclear 
materials of one form or another. The so-called CMR building 
that we began with, an area down in a canyon called TA-18, 
where we do some special work, and there are several others.
    The point is not to just fix old stuff. There are some 
really sensible things that need to be done to pull these 
operations together. I need to pull together in one location, 
for example, at Los Alamos, the nuclear operations, so that we 
can do the safety and the protection of those facilities in one 
place.
    Instead of having guards and guns at five or six or seven 
different locations at Los Alamos, and then moving material 
back and forth between these buildings, the plan will be to 
encompass it into a single nuclear campus. That will save us 
significant funds on the security, adds greatly to safety, and 
to the ease of operation, and consolidate those operations in 
one place.
    Senator Domenici. Well, I am going to change the subject a 
little bit just for a minute. The military has certain 
requirements they make of DOE's nuclear capacity, that 
semiautonomous agency now that you run. In some respects, 
aren't the commitments that have been made in the area of the 
B-61, the W-76, aren't some of those commitments dependent upon 
whether we get some improved facilities to be able to live up 
to our military commitments?

                         STOCKPILE REQUIREMENTS

    General Gordon. Yes, Mr. Chairman. What we have done over 
the last several months, and spearheaded in our organization by 
Brigadier General Tom Gioconda, is revitalized the relationship 
with the Department of Defense, the military, and the Nuclear 
Weapons Council. We have agreed with them on a specific 
proposal and a specific plan to put nominally 60 percent of the 
weapons through a refurbishment program.
    We have agreed on what needs to be done, how it needs to be 
done, and I say that we cannot fully support that schedule and 
plan with the existing infrastructure.
    Senator Domenici. Well, I am pleased that you mentioned 
General Gioconda. I have found that prior to your coming into 
this leadership post he had done an excellent job working with 
the military, and I am going to end up this part, and then we 
will go to Dr. Schlesinger.
    First, I want to thank you again, General, for what you are 
trying to do. I understand it is a most difficult task to pull 
another organization together, as you have been asked. It is 
very hard to get personnel cleared, so you still do not have 
those people under you that you want to do very important work, 
because they are being cleared by the administration.
    Even some of those you need desperately that are not going 
to come through the Senate, it is difficult to get them cleared 
on time, and I understand the administration's log jam and 
difficulties, but we will be doing whatever you ask in order to 
be helpful to you with reference to your efforts, and I urge 
that the relationship with the Defense Department in terms of 
your problems that you need to solve to be able to be their 
good supplier, that they be open, and that they be put right on 
the table, and that the Defense Department clearly understand 
the situation we have got.
    I hope in your statement about the liaison that General 
Gioconda is doing, it fits that statement. Is that where we 
are?
    General Gordon. It is actually even better than that, sir. 
I think that at the end of the previous administration, after 
many years, we were able to put things back on a keel and 
really go forward and look at the very specifics of what needs 
to be done on specific weapons, and on what schedules.
    My impression over the last month or so in the dealings 
with the new Department of Defense, the new leadership over 
there, is they are extremely open to the kinds of discussion we 
are having, that the individuals, the advisors, the new 
Secretary can give this speech about as well as I can, sir.
    Senator Domenici. Now all we have got to do is make sure 
they put their budget where their discussion has ended, right?
    General Gordon. Thank you, sir.
    Senator Domenici. I know you would not say that, but my 
friends from Tennessee would support that, and we will work on 
that.
    Thank you, and good luck in your work.

                     ADDITIONAL COMMITTEE QUESTIONS

    General Gordon. Thank you very much, Mr. Chairman. Senator 
Thompson, thank you.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

            Questions Submitted by Senator Pete V. Domenici

                         backlog of maintenance
    Question. What do you estimate to be the maintenance backlog today 
in the nuclear weapons complex? Isn't the maintenance backlog 
approaching $800 million today?
    Answer. The Defense Programs Facilities and Infrastructure 
Assessment Phase I, Report 2000, identified more than $500 million of 
facilities and infrastructure backlog projects.
       overall cost to rebuild the infrastructure of the complex
    Question. A number of studies have assessed and catalogued the 
problems of the nuclear weapons complex. I mentioned many of them in my 
opening remarks.
    Do you agree that the overall cost of rebuilding the infrastructure 
for the nuclear weapons complex is in the ballpark of $5-$10 billion 
over 10 years?
    Answer. I believe that at least $500 million per year for ten years 
will be required to recapitalize the infrastructure if the current 
assumptions for the weapons program remain valid. For too long our 
facilities and infrastructure have been put on hold while the science 
based stewardship program was put into place. That program is now 
working and it is time to focus on the physical complex which houses 
the program. We have established an office to manage our facilities and 
infrastructure and we are establishing processes to institutionalize 
procedures, standards and expectations for the facilities and 
infrastructure of our complex. In the past we have been unable to 
accurately track infrastructure funding year to year. To correct that 
deficiency I intend to put into place a management system which 
monitors the condition of NNSA's infrastructure and evaluates the 
progress of the infrastructure investments.
    Question. Could it be higher?
    Answer. Yes, the costs to recapitalize the complex could be 
greater, if assumptions about stockpile size change, or an accident or 
incident attributable to the deteriorating state of the complex occurs.
    Question. How confident are you in the cost?
    Answer. I am reasonably confident in the facility and 
infrastructure costs required to meet current mission needs. As you 
know, the Administration is conducting a thorough analysis of the 
national military strategy. The outcome of this analysis may have an 
impact on the mission of the nuclear weapons complex. The NNSA will 
review all costs associated with mission execution if there is an 
impact on our mission.
                      recapitalization initiative
    Question. General Gordon, in your testimony you state that NNSA has 
crafted a Recapitalization Initiative containing a prioritized list of 
maintenance and infrastructure requirements across the nuclear weapons 
complex.
    What is the total estimated cost for proposed recapitalization 
projects in the plan?
    Answer. Our review indicates that we need an additional $500-$600 
million annually to meet the requirements of our facilities and 
infrastructure. This tracks closely with recent outside reviews (e.g. 
the Office of the Secretary of Defense Program Analysis and Evaluation 
Review April 2000, the DOE Inspector General report, the Foster Panel 
2000 Report, and the Shalikashvili Report 2001). The Recapitalization 
Initiative which NNSA has prepared would fund up to $300 million 
initially, building to $500 million for several years, potentially ten 
years. Our Prioritized Project List, which is now in its second 
revision, contains 228 urgent near term projects without funding 
support. These projects represent unfunded requirements spread across 
the entire complex and currently total an estimated $562 million.
    Question. Is it your recommendation that this account be set up as 
a dedicated budget category in order to ensure the necessary 
reinvestment occurs?
    Answer. I am open to any workable approach to funding and 
accountability. Whatever method is employed, assuming adequate funding, 
I am accountable for the recapitalization of the complex and therefore 
will ensure that the reinvestment will occur, regardless of the method 
chosen. For too long our facilities and infrastructure have been put on 
hold while the science based stewardship program was put into place. 
That program is now working and it is time to focus on the physical 
complex which houses the program. We have established an office to 
manage our facilities and infrastructure and we are establishing 
processes to institutionalize procedures, standards and expectations 
for the facilities and infrastructure of our complex. In the past we 
have been unable to accurately track infrastructure funding year to 
year. To correct that deficiency I intend to put into place a 
management system which monitors the condition of NNSA's infrastructure 
and evaluates the progress of the infrastructure investments.
    Question. What is the maximum amount of work that could be done 
efficiently in the next year from a dollars standpoint?
    Answer. To begin the long needed recapitalization program for the 
complex, $300 million can be executed efficiently to start our efforts 
in the first year.
                      foster panel recommendations
    The Foster Panel has suggested a number of additional activities as 
a part of the stockpile stewardship program. Such as:
  --exercising end-to-end design, production and certification 
        capabilities not currently being used
  --dual revalidation of all weapons designs
  --developing new designs of robust, alternative warheads
  --increasing enhanced surveillance
  --possibly reducing the nuclear test readiness response time to less 
        than one year
    Question. What is your response and what would these items add to 
the Stockpile Stewardship Program baseline?
    Answer. DOE and the NNSA have been supportive of the Foster Panel 
since its inception and there is agreement on many of the issues 
identified in the report. In some instances, however, the Foster Panel 
and NNSA have different views on the solutions to best address the 
issues and the trade-offs between cost, scope, schedule, and risk. The 
Foster Panel recommendations all act to reduce risk, but some do so at 
a significant cost or represent a significant change to current 
national policy. We are continuing to study the recommendations.
    There is currently no military requirement to produce new weapons, 
and we have not received such a request from the DOD. We believe the 
life extension programs authorized by the Nuclear Weapons Council for 
the B61, W80, and W76 will sufficiently exercise the design, production 
and certification capabilities of the weapons complex. Successful 
completion of these programs represents a workload and workscope 
unmatched in the weapons complex in more than ten years. Success will 
tell us much about our own long-dormant abilities.
    NNSA has developed an alternative approach to Dual Revalidation 
which achieves the same high-priority objectives, but takes less time 
and is less costly. Baselining, a first necessary step of any Dual 
Revalidation effort, will be applied to all of the warhead types during 
the next five years, while some designers that originally worked on the 
system are still available. The first Dual Revalidation on the W76 
Trident was valuable, but was much more expensive than estimated, and 
took much longer than originally anticipated--five years instead of 
three. If we choose to perform Dual Revalidation studies in the future, 
their focus and scope can be based on the key points brought out by 
completed baselining studies.
    Enhanced surveillance is systematically fielding diagnostic tools 
and conducting studies of components and materials in the stockpile to 
identify impacts from aging before there is impact to the stockpile. We 
agree that additional resources in this area could expand or accelerate 
capabilities to detect and respond to aging issues.
    We reported in the Nuclear Test Readiness Posture Report to 
Congress, dated February 2001, that for anything other than an 
extremely simple demonstration of capability, a six-month nuclear test 
response time was not technically feasible, especially considering the 
safety, environmental, and the Threshold Test Ban Treaty reporting 
requirements associated with a nuclear test resumption. In addition, it 
is estimated that maintaining a six-month posture would cost and 
additional $65M/yr, precluding investment in other more urgent areas of 
stockpile stewardship.
                        five year budgeting plan
    Question. Are there other programs critical to a successful 
stockpile stewardship program, that are not included in the current 
baseline?
    Answer. The preliminary fiscal year 2002 five-year budget plan 
recently submitted to the Office of Management and Budget supports all 
programs critical to the success of the Stockpile Stewardship Program 
to support current policy and DOD requirements. The results of the 
Administration's ongoing review of national security strategy will 
provide additional guidance on the future scope and direction of the 
NNSA's Stockpile Stewardship Program.
    Question. Are you aware that some credible experts that have looked 
at the Stockpile Stewardship Plan have suggested a fully funded program 
could grow from $6 billion to $7.5 billion a year over the next five 
years? How would you respond?
    Answer. I am aware of those estimates. The dollar figures in the 
preliminary five-year budget plan, which support current policy and DOD 
requirements, are essentially consistent with them. The NNSA will amend 
the fiscal year 2002 future-years budget plan to reflect guidance 
derived from Administration's ongoing review of national security 
strategy. We support the President's stated belief that the Nation's 
defense strategy should drive decisions on defense resources, not the 
other way around.
                   defense pa&e review of april 2000
    Question. The Office of the Secretary of Defense conducted a 
program analysis and evaluation review in April of last year. The 
review concluded that indefinite maintenance of the nuclear stockpile 
will require an investment in the Defense Programs manufacturing 
infrastructure of $7 billion over the next 18 years.
    Do you agree with the conclusion of the Defense review?
    Answer. I believe that the Defense review's estimated investment 
figures are on the correct order of magnitude. As I have testified, 
both the plants and the laboratories require attention immediately. If 
we don't arrest the deterioration soon, the cost to recapitalize will 
only increase.
    Question. How much of the $7 billion in infrastructure investments 
are included in the NNSA's Recapitalization Initiative?
    Answer. As the Office of the Secretary of Defense did not publish 
the details of its review, we cannot make this determination.
                 acceleration of decline in facilities
    Question. In your testimony you indicate that the deterioration of 
the physical infrastructure of the weapons complex is accelerating.
    When will new facilities be required, and when should we begin a 
major rebuilding effort?
    Answer. In order to arrest the deterioration of the physical 
infrastructure of the nuclear weapons complex, it is important that 
rebuilding begin as soon as possible. New facilities are coming on line 
as detailed in annual budget documents submitted to the Congress. The 
Recapitalization Initiative, which will plan for new facilities as well 
as the modernization of existing facilities, is a three phased 
approach. First, a prioritized list of non-line item maintenance and 
infrastructure projects has been developed and will be updated semi-
annually. Whatever the funding level, the most urgent projects on this 
list will be worked off first. Next, the revised ten-year comprehensive 
site plans will be used to develop restoration plans for each site, 
prioritize efforts, and plan conceptual design activities for future 
line item construction projects. Last, the initiative will support a 
facility disposition effort. This includes the dismantlement and 
removal of deactivated facilities and infrastructure that are not 
radiologically contaminated and are excess to current and future 
mission requirements.
                 ability to meet military requirements
    Question. The 30-Day Review said ``Failure to develop and mature 
these technologies [to make weapons safe, more reliable, and more 
secure] during the next 3-5 years could lead to the reuse of 20 to 30 
year old technology in refurbished weapons.''
    Address the seriousness of this problem and describe what 
facilities are specifically needed to avoid the reuse of 20-30 year old 
technology in refurbished weapons.
    Answer. The quote from the 30-Day Review refers specifically to the 
surety features in our stockpile weapons. However, in general, the 
technology used in designing, producing, and certifying the weapons in 
our current stockpile is several decades old. DOE and DOD have reached 
agreement on the refurbishment of the B61 and the first production unit 
is scheduled for fiscal year 2004. The Nuclear Weapons Council has 
recommended first production units for a refurbished W80 and W76 in 
fiscal year 2006 and fiscal year 2008 respectively.
    Aware that we would need to extend the life of or refurbish weapons 
now in our stockpile, DOE has under development several facilities 
incorporating state-of-the art technologies for developing and 
producing advanced replacement components. These include MESA, the 
Microelectronics Development Laboratory, and the LIGA Technology 
Facility at the Sandia National laboratories and the LIGA Assembly and 
Polysilicon Packaging Facilities at Kansas City Plant. [LIGA is a 
German acronym for a process that uses x-ray lithographic techniques to 
fabricate miniature parts.]
    We also have under development a number of other facilities to 
enhance our capabilities to certify refurbished weapons. Without 
underground nuclear tests, significantly different approaches to 
certification are required. Computational facilities must be available 
to simulate weapon performance with full-fidelity physics in three 
dimensions. This includes our Accelerated Strategic Computer Initiative 
systems and associated facilities such as the Terascale Simulation 
Facility at the Lawrence Livermore National Laboratory, the Strategic 
Computing Complex at the Los Alamos National Laboratory, and, at the 
Sandia National Laboratories, the Joint Computational Engineering 
Laboratory, the Model Validation & Systems Certification Test Center, 
and the Distributed Information Systems Laboratory.
    Facilities are also required to conduct subcritical experiments to 
verify dynamic properties of nuclear weapons materials and to 
radiograph (x-ray and proton) assemblies. While some of these 
facilities exist today, such as the subcritical test facilities and 
JASPER at Nevada, others are still under construction, such as the 
Dual-Axis Radiographic Hydrotest Facility (DARHT) and the National 
Ignition Facility (NIF) and some are only in a planning stage such as 
an Advanced Hydrotest Facility. It is absolutely essential to continue 
the development and construction of these facilities.
   reinvestment rates compared to industry and department of defense
    Question. Do you agree that DOE has consistently underfunded 
reinvestment?
    Answer. Maintenance and recapitalization of the infrastructure has 
been underfunded to meet current mission requirements. For the period 
fiscal year 2002-fiscal year 2008, facilities and infrastructure 
requirements, excluding line items, appear fairly stable at $1.3 
billion/year, whereas annual funding has recently been only $700 
million--a significant under funding as our study of the issue points 
out.
    Question. Based on the numerous reviews that have been conducted, 
what do you recommend is an appropriate reinvestment rate for the 
nuclear weapons complex?
    Answer. As discussed during my testimony, the NNSA requirement for 
recapitalizing the nuclear weapons complex is about $500 million/year 
for at least a decade. The figure is arrived at by projecting current 
mission needs, recognizing that the aging complex is in need of 
immediate attention, and integrating the management standards and 
practices successfully employed by state-of-the-art facility managers 
in other Federal agencies, academic institutions, and private industry.
                 ability to meet military requirements
    Question. If we do not begin a substantial recapitalization 
initiative this year, will we still be able to meet the targets 
established by the Nuclear Weapons Council for refurbishment of the W76 
and B61?
    Answer. It would be prudent to immediately begin a recapitalization 
initiative in order to complete the refurbishments as recommended by 
DOD. However, I cannot say that such an initiative must be undertaken 
this year in order to meet the targets established by the Nuclear 
Weapons Council for refurbishment of the W76, B61, or the W80 warheads; 
but it must begin soon in order to provide confidence that the required 
end state and level of readiness can be achieved to support our 
important deterrent weapons.
            infrastructure as a morale and recruitment issue
    Question. Morale throughout the weapons complex has become a very 
serious issue over the last few years. Much of the problems relate to 
security issues. But I believe the deteriorating facilities our workers 
are in, contribute to low morale. The Chiles Commission identified the 
need to ``eliminate problems of maintenance of equipment and 
facilities, and modernization of equipment'' in the context of 
enhancing recruitment and retention of a quality workforce. The U.S. 
Commission on National Security wrote in January 2001 that ``the 
physical circumstances in which lab professional work have also 
deteriorated in many instances, to unacceptable levels.''
    Do you agree with these statements?
    Answer. I agree fully with the statements of those Commissions. We 
engaged in a very active dialogue with them during their deliberations. 
The weapons complex is old, and in many cases utilizes obsolete 
technology. As the complex ages, maintenance and operating costs 
continue to rise. In addition, the complex has deferred maintenance, 
construction, and technology improvements in order to meet mission 
requirements. The NNSA is now faced with the realities of old and 
marginally maintained facilities, some of which are at unacceptable 
levels. This was confirmed by the Chiles Commission, the 30-Day Review 
of the Stockpile Stewardship Program and the U.S. Commission on 
National Security.
    On May 12, 2000, a detailed assessment of the existing nuclear 
weapons complex's Facilities and Infrastructure (F&I) was initiated. 
The goals of the assessment are to develop an integrated plan to 
improve the condition of the complex, to analyze our organizational F&I 
management structure, and to propose changes to existing F&I management 
policy. The Department intends to recapitalize the facilities and 
infrastructure of the nuclear weapons complex and institutionalize 
facility management processes to ensure their continued availability, 
condition, operational worth, and attractiveness to our workforce and 
potential recruits. The detailed assessment indicated that an 
additional $500-$600 million per year for many years is necessary to 
address issues that are not addressed within current base efforts.
    Question. How significant is the condition of the facilities to the 
ability to recruit and retain the best and brightest?
    Answer. Very significant. There is no question that work 
environment contributes to worker morale and the ability to recruit and 
retain a quality workforce. In a highly competitive market for 
technical talent, we are competing with the private sector for the best 
and brightest from our colleges and universities. While we believe the 
Stockpile Stewardship Program offers prospective recruits unique career 
opportunities, the work environment could very well be the deciding 
factor in their decision-making. We are very aware of this and believe 
that our Recapitalization Initiative is the correct path forward.
                                 ______
                                 

            Question Submitted by Senator Ernest F. Hollings

                          butler-cutler report
    Question. On January 18th, 2001, a bipartisan task force selected 
by the Department of Energy released a report evaluating 
nonproliferation programs between the United States and Russia. Lloyd 
Cutler and Howard Baker chaired the group, and I have included an 
excerpt of their conclusions for the record:

    ``The most urgent unmet national security threat to the United 
States today is the danger that weapons of mass destruction or weapons-
usable material in Russia could be stolen and sold to terrorist or 
hostile Nation States and used against American troops abroad or 
citizens at home.''

    Do you agree with their findings?
    Answer. Overall, I agree that the threat of loose nukes and 
weapons-useable material represents a threat to U.S. national security. 
I believe that these cooperative nonproliferation programs with Russia 
will require greater funding, but I cannot say at this point the exact 
funding level that should be spent over the next 8-10 years. I support 
the Bush Administration's current effort to develop a government-wide 
strategy on how to address this crucial issue that threatens the 
American people. Today, in order to clarify what our goals and 
milestones are. I look forward to working with my counterparts at the 
Departments of Defense and State, as well as the National Security 
Council and Congress, to help develop such a strategy.
    Question. The Committee's second major conclusion was that 
nonproliferation programs at the Department of Energy and the 
Department of Defense, while successful, are underfunded and have a 
limited mandate. Do you agree with this assessment?
    Answer. The NNSA's nonproliferation mission is extremely important. 
Currently, these and other U.S. nonproliferation programs are being 
reviewed by this Administration to determine their future scope, 
direction, and funding. Additionally, the NNSA is taking the lead for 
the programs in which we have the resident expertise, and we are 
supporting other agencies with our technical work as appropriate.
    Question. Which specific nonproliferation programs at DOE are in 
need of additional resources or an expanded mandate?
    Answer. The Administration is presently conducting a review of 
Russian programs which will determine the future scope, direction, and 
funding of these activities to meet urgent national security 
challenges. Once this review is complete, I will be in a better 
position to describe to you the specific nonproliferation programs at 
the NNSA that are in need of additional resources or an expanded 
mandate.
                    environmental management funding
    Question. As part of the Bush budget blueprint it was stated that 
overall DOE spending would be reduced 3.5 percent from the fiscal year 
2001 level. When the President's new spending initiatives are taken 
into consideration, the reduction in funding for the remaining programs 
is more 5.5 percent or 6.0 percent. As you stated in your written 
testimony, infrastructure in the DOE laboratory complex is currently 
inadequate.
    Do you believe that reductions in the Operations and Maintenance 
accounts are wise given the grave environmental challenges we face at 
many of the formerly-used nuclear weapons sites?
    Answer. Protecting the health and safety of the workers and the 
public is the Department's highest priority. We will ensure that our 
facilities and sites are operated and maintained in a safe manner that 
protects human health and the environment and in compliance with 
environmental laws. We recognize the Department now faces significant 
environmental cleanup challenges throughout the nuclear weapons complex 
resulting from past practices. We will place a top priority on managing 
our facilities safely to ensure we do not create environmental problems 
for the future.
    Question. Do you believe that reduced funding in environmental 
management accounts represent a national security risk?
    Answer. Protecting the health and welfare of our workers and the 
public will continue to be our highest priority. Within the 
Environmental Management program, we will continue to work to mitigate 
high risks at our sites. This includes maintaining the safety and 
security of nuclear materials and spent nuclear fuel at our sites that 
present potential national security risks and supporting critical non-
proliferation efforts.
                tritium modernization and consolidation
    Question. How is that project working and is the facility meeting 
its expected goals?
    Answer. The Tritium Modernization and Consolidation Project is 
currently on schedule to be complete and fully operational by September 
2004. Project design is 100 percent complete, procurement is 85 percent 
complete, and construction is 37 percent complete as of 3/15/01. Fixed-
price construction contracts for the building to support material 
testing (234-7H) will be awarded this year. This project is meeting 
expected goals and will, when complete, meet projected program needs.
                     modern pit production facility
    Question. Does the NNSA believe that there is a need for a higher 
capacity pit-production facility?
    Answer. The need and timing for a new pit production facility is 
predicated on completing several important studies. First, the 
Administration is conducting a thorough analysis of nuclear weapons and 
their role in national security. NNSA is conducting pit aging campaign 
studies which should be completed prior to a decision about a new pit 
production facility. This approach is supported by the Nuclear Weapons 
Council. In the event that a new facility is needed, NNSA is addressing 
pre-conceptual design issues required for a critical decision that will 
enable the start of a conceptual design for a Modern Pit Facility 
(MPF). This MPF would have sufficient pit manufacturing capacity to 
meet the needs of the Department of Defense. A prudent risk management 
strategy to address the need and timing for a MPF will be established 
after the numbers and types of warheads for the future nuclear 
stockpile and pit lifetimes are determined.
    Question. Will SRS be chosen for this facility if there is a need 
for it?
    Answer. Site selection for a MPF will proceed consistent with the 
normal acquisition process. Site selection would be expected to occur 
some three years after approval of conceptual design initiation, and 
following an environmental assessment of various site alternatives 
conducted under the National Environmental Policy Act.
                        NONDEPARTMENTAL WITNESS

STATEMENT OF DR. JAMES SCHLESINGER, ON BEHALF OF THE 
            PANEL TO ASSESS THE RELIABILITY, SAFETY, 
            AND SECURITY OF THE UNITED STATES NUCLEAR 
            STOCKPILE
        ACCOMPANIED BY DAVID GRAHAM, ON BEHALF OF THE INSTITUTE FOR 
            DEFENSE ANALYSIS

    Senator Domenici. Dr. Schlesinger, we would like to hear 
from you, if you are ready.
    Dr. Schlesinger. Mr. Chairman, could I have you invite 
David Graham to come up?
    Senator Domenici. David Graham, you are invited to join, 
please.
    Dr. Schlesinger. He is the fount of wisdom.
    Senator Domenici. He is welcome.
    Dr. Schlesinger. I trust that members of the committee will 
call upon him whenever they have some erudite question that 
they themselves are unable to answer.
    Senator Domenici. Well, we might start right off and ask 
you if you would testify and start off, then we will let Dr. 
Schlesinger do the balance--not at all.
    I wanted to say, Dr. Schlesinger, before you arrived as 
part of the preliminaries, we did announce that you would be 
the second witness, and the crowd has not changed much, and I 
told them of all of your greatness, so I am not going to repeat 
it again. Is that all right with you?
    Dr. Schlesinger. That is fine, Mr. Chairman.
    Senator Domenici. Having said that, we are going to ask you 
to start.
    This is a very serious subject, and I know there is no one 
around that is more concerned about it, and that spends more 
time at it, and I mean the general subject of nuclear weapons 
and the complexes, the Department of Energy's failures in the 
past. I am sure you are aware of our efforts to try to make 
that better in terms of the management. It is a very 
dysfunctional agency, because it is put together from so many 
sources, and all those sources brought their rules with them, 
and the rules and regulations do not run perpendicular in DOE, 
they run parallel, and so everybody gets spattered with the 
dysfunctional nature, but by pulling out the nuclear weapons in 
a semi-autonomous shield, we hope to do better. We hope that 
General Gordon will be the catalyst for that.
    But now we are focusing today in advance of appropriation 
dollars, and we are talking about the infrastructure, and we 
know you would like to share your wisdom with us, so now it is 
your opportunity to do that.
    Dr. Schlesinger. Well, thank you, Mr. Chairman. May I say 
about the DOE that we cannot blame the dysfunctional aspects of 
it on the predecessor agencies, that there is a lot of self-
inflicted damage over the years, in which the accountability 
has been removed from various bodies and spread out in such a 
way that nobody is accountable. Some of those things were 
touched upon by the Rudman report of about a year ago.
    Mr. Chairman, I am here to represent the views of the 
panel, assess the reliability and safety and security of the 
United States nuclear weapons stockpile. This panel was 
established by the Congress in 1999, the authorization act, and 
it is to assess the reliability, safety, and security. Last 
year we presented a report. Our second report has been sent to 
the Congress this year.
    Senator Domenici. Dr. Schlesinger and Senator, would you 
mind, I have something urgent out there, can I just take a 4-
minute leave? Would you rather proceed?
    Senator Thompson. Let's recess for just a little bit.
    Senator Domenici. The committee will proceed.
    Dr. Schlesinger.
    Dr. Schlesinger. Thank you, Mr. Chairman. Last year, as I 
say, we produced our first report. This is our second report. 
We have concentrated on infrastructure this year because of the 
various reasons that have been mentioned before. Over the years 
the priority has been to preserve the strength of the 
laboratories, and in that period, as the budgets were squeezed, 
infrastructure has been neglected.
    Let me start by just making a few observations. The first 
observation is, repeatedly, the leaders of the executive branch 
and the Congress have stated that the preservation of our 
nuclear deterrent is critical to our national security. The 
problem is that those statements tend to be rhetoric, and have 
not been balanced by what we see in terms of the actual support 
for the program and for the weaponry.
    Second, we talk about the infrastructure here. We are not 
in a position to make any recommendations with regard to the 
size of the nuclear weapons stockpile, but that is to a 
substantial degree independent of such judgments, because we do 
not know the breadth of any future program, and therefore we 
must be prepared with an infrastructure that is capable of 
producing a number of nuclear weapons should some of those in 
our present stockpile fail.
    Third, even if nuclear weapons were continuing to be 
tested, we would have many of these problems, simply because of 
the aging of the infrastructure. It is not a question of the 
absence of nuclear testing. These facilities are old. They 
needed to be maintained better in the past, and they need to be 
replaced over time.
    Mr. Chairman, there is no need for me to go over the report 
itself. It is available to all the Members of Congress. We make 
some recommendations after we have looked over this problem. 
First, we repeat--we repeat our recommendation of last year 
that we get to work on establishing a facility to produce 
primaries.
    As you know, Mr. Chairman, we have a small facility that 
was supposed to be operational at Los Alamos. It is slipping. 
It has slipped, just as other elements of this program have 
slipped. The absence of the capability to produce primaries for 
nuclear weapons is perhaps the most dramatic lack in our 
present nuclear program.
    We mentioned this last year. We reiterate it this year. 
Little has been done in the intervening period. It is now 12 
years since the last primary was produced. Rocky Flats has been 
shut down.
    Second, we have serious problems at Y-12. Some of them have 
been already touched on by General Gordon. At Y-12, we continue 
to be able to produce secondaries for our nuclear weapons, but 
the production capability there is fragile, and we believe that 
it might be upgraded. You mentioned, Mr. Chairman, something 
that is in our report, that members have to go in with hard 
hats because of the crumbling of the ceilings.
    We continue to operate these facilities, but these are 
under most unfavorable conditions, so the restoration of the 
production complex, and you have gone over some of those 
numbers. There is about $800 million estimated by the DOE 
itself in backlog on maintenance, and we probably need to spend 
$300 to $500 million on recapitalization of the facilities, 
additional beyond what we have been budgeting in the past.
    We need to define and execute the work needed to restore 
and exercise integrated design, fabricate and certification 
capabilities. These are areas that we have talked about in a 
general way, but we have not defined them as yet. Certification 
is something that was declared by President Clinton in 1995, 
but that needs to be strengthened. Right now, it is a process 
that is on auto pilot to some extent.
    Third, we recommend that we must ensure the continued 
vitality of the competition of ideas within the system of 
national laboratories. We believe that there should be dual 
validation by the two weapons laboratories of the existing 
stockpile weapons.
    In the past, the tendency has been for each laboratory to 
say, this was my development, my weapon, stay out of it, to the 
other design laboratories. In view of the fact that we are now 
in a position that the weapons in the stockpile will be there 
year after year, decade after decade, we need to get critical 
commentaries as we go through the certification processes, the 
life extension processes, and the qualification of components.

                           PREPARED STATEMENT

    Let me conclude. This panel is troubled to report that 
portions of the weapons complex infrastructure are defective, 
and that the production capabilities are fragile. There is an 
increasingly urgent need for a coherent vision, comprehensive 
plan, and programmatic commitment to reverse these adverse 
trends. General Gordon has started down that road. He needs 
support.
    Thank you, Mr. Chairman. I will leave my statement for the 
record.
    [The statement follows:]

               Prepared Statement of James R. Schlesinger

    Mr. Chairman, Members of the Committee. In 1999, Congress 
established the Panel to Assess the Reliability, Safety, and Security 
of the United States Nuclear Stockpile, chaired by Dr. John Foster. In 
my testimony today, I will summarize the analysis and recommendations 
provided in the Panel's second annual report to Congress.
    To provide context for my statement, I shall begin with three 
observations:
    First, the benchmark this Panel uses in assessing the weapons 
program is the national deterrence strategy. The nation's leaders--be 
they civilians in the executive branch or the Congress, or be they in 
the military--have stated repeatedly that sustaining a safe and 
reliable stockpile in support of deterrence is a supreme national 
interest. It is the Panel's view that programs for sustaining the 
stockpile should be managed accordingly.
    Secondly, although the Panel was not tasked to develop 
recommendations on a desirable size for the stockpile, we would counsel 
that the debate on this topic must accurately incorporate the 
implications for the weapons complex. Cutting the stockpile will not 
save much on the size and cost of the weapons complex. So long as we 
keep more than a handful of weapons, there are threshold levels of 
capabilities in the plants and laboratories that will be needed to 
maintain the stockpile, regardless of its size.
    Thirdly, the problems I shall be discussing today would exist even 
if nuclear testing had continued. Our aging stockpile will need to be 
assessed and maintained--and new tools and methods will be needed--
regardless of whether we test. Thus, our principal recommendations are 
not altered by future decisions concerning continuation or termination 
of the current unilateral moratorium on underground nuclear testing.
                                findings
    The Panel focused over the last year on the national capability to 
perform the high-priority, day-to-day work of stockpile stewardship--
surveillance, assessments, refurbishments, annual certification, and 
production. Our review included visits to the major production 
facilities and the national labs, plus presentations from all of the 
DOE, plant, and laboratory organizations that play a significant role 
in stockpile stewardship.
    We found the same major issues as have been reported by other 
reviewers, including DOD, the GAO, and DOE itself. In recent years, the 
weapons complex has been unable to complete even a very modest workload 
on schedule. In large part, this has been due to a lack of investment 
needed to prevent deterioration of the production facilities, some of 
which are forty-to-fifty years old.
    Some specific examples illustrate our concerns:
  --Almost a decade after the shutdown of the Rocky Flats plant, we 
        still have no capability to fabricate the qualified plutonium 
        pits needed in our nuclear weapon primaries.
  --Some critical production facilities for weapons secondaries at the 
        Oak Ridge Y-12 plant have not been brought back on line since 
        they were shut down in 1994 for health and safety reasons. DOE 
        has stored accumulated wastes since that time.
  --We have a personnel situation in the nuclear weapon design 
        laboratories that is quite alarming. Our technical staffs are 
        frustrated as they see the milestones for stockpile stewardship 
        continue to slip. Recent security incidents have had a major 
        negative impact. The rate of departure is up significantly at 
        all three laboratories this year; acceptance of job offers is 
        down; and for the first time the labs are losing some of their 
        most dedicated mid-career staff.
  --Finally, to underscore the significance of these problems, we find 
        that the time of need for these weapon complex capabilities is 
        upon us. There is already evidence of worrisome deterioration 
        in nuclear components.
                            recommendations
    Congress took an important step last year by increasing weapon 
program funding and establishing the National Nuclear Security 
Administration (NNSA). Our report recommends actions that NNSA, the 
Department of Energy, the Department of Defense, and the Congress 
should take to build on these initial steps. In my remarks today, I 
will concentrate on the three recommendations that most directly 
address problems in the weapons complex.
    The first recommendation is to restore the production complex. A 
long-term program is needed to redress critical maintenance backlogs in 
weapons facilities. We have recommended a ten-year program. DOE 
estimates this backlog to be $700-$800 million. Additionally, DOE 
estimates indicate an further $300-$500 million per year will be needed 
over the next ten years to redress shortfalls in production 
capabilities, particularly at Oak Ridge.
    Moreover, to meet long-term needs for nuclear components, the Panel 
has emphasized the need to begin the conceptual design of facilities 
needed for pit production, secondary production, and development work 
at the nuclear laboratories.
    Secondly, the Panel finds it essential to define, fund, and execute 
the work needed to restore and exercise integrated design, fabricate, 
and certification capabilities. Maintaining a complete end-to-end 
capability is essential for sustaining confidence in the stockpile, and 
it is a national priority established in the first Nuclear Posture 
Review. The first step is to commit to and fund the weapons work that 
we know will be needed over the coming decade. This includes life 
extension work on the W76 Trident warhead, the W80 cruise missile 
warhead, and the B61 bomb.
    Another essential step is to initiate programs for the design of 
robust, alternative warheads. These would provide training for new 
generations of stockpile stewards, and provide a hedge. Ten or twenty 
years from now, our confidence in robust designs based on previously 
tested weapons might exceed that in modified versions of today's 
weapons, which have been so highly optimized for weight, yield, and 
material usage that they have very thin performance margins.
    Our third recommendation: Ensure the continued vitality of the 
competition of ideas within the system of National Laboratories. 
Continued confidence in the stockpile requires continued confidence in 
its stewards. We must sustain a strong system of laboratories and 
effective processes for engaging their talents in a constructive 
competition of ideas on stockpile matters. Each of the nuclear 
laboratories should provide a comprehensive review and assessment of 
each weapon type, irrespective of its laboratory origin. Rigorous 
inter-laboratory review must be employed for major design and 
certification issues. Inter-laboratory reviews also must be employed in 
preserving data bases and adapting them to new computer codes (through 
``dual revalidation''); we do not support DOE's current proposal to 
give each lab exclusive rights to individually baseline the data for 
the weapons on which it takes lead responsibility.
    The labs' working environments also must be conducive to retaining 
world-class talent. We support the recommendations of Senator Baker and 
Representative Hamilton, which are intended to provide world-class 
security while minimizing unnecessary burdens. Some technical staffs 
are spending 30 percent of their time on administrative tasks--these 
burdens must be better managed by the NNSA.
    While I have limited my remarks to our specific findings and 
recommendations in these three areas, the Panel has identified a number 
of steps NNSA needs to take to improve its management processes, 
especially in the area of planning, programming, and budgeting. As 
noted in our report, we believe Congress has a vital role to play this 
year in ensuring that the vision, programs, and budget for the weapons 
program are adequate to sustain deterrence capabilities.
                           concluding remarks
    This Panel is troubled to report that portions of the weapons 
complex infrastructure are defective and that the production 
capabilities that remain are fragile. There is an increasingly urgent 
need for a coherent vision, comprehensive plan, and programmatic 
commitment to reverse these adverse trends.
    We strongly support the efforts of this Committee to identify and 
implement the actions needed to restore the weapons complex to the 
condition necessary to sustain a safe and reliable weapons stockpile. 
Our national declaratory policy is that the nuclear stockpile is a 
supreme national interest in support of nuclear deterrence strategy. If 
we are committed to this policy, then priority action is needed to 
reverse these adverse trends.

    Senator Domenici. Thank you very much. Your statement will 
be made a part of the record. Mr. Cummings, you were the staff 
editor?
    Dr. Schlesinger. This is Mr. Graham.
    Senator Domenici. Mr. Graham.
    Mr. Graham. Yes, sir, that is correct.
    Senator Domenici. How did you come upon such a job? Do you 
do this all the time here, different reports?
    Mr. Graham. I have been working on nuclear weapons 
management complex issues for about the last 5 years. I work in 
an organization called the Institute for Defense Analysis. Our 
president, General Leary Welsh, has had a lifetime interest in 
nuclear matters, and so he has drawn some of the staff into 
these issues.
    Senator Domenici. Well, I just wanted to compliment you. I 
notice every time we let the issues of significance boil up in 
the Department of Energy, that underneath them, causing the pot 
to boil, are reports, and I have come to the conclusion that 
for some reason we have to have too many very good reports 
before we do anything up here.
    What we did about the Department of Energy, trying to 
create some management in the future by creating the 
semiautonomous agency that General Gordon produces, that was 
preceded by at least five reports that said nuclear weaponry 
within the Department of Energy cannot work right because of 
the nature of the Department of Energy.
    Until we had a big security risk, plus a group following it 
that was chaired by former Senator Rudman, which is a powerful 
group under statute law of the Nation, they then reported 
that--I did not invent the word that it was dysfunctional. They 
invented the word within that report, but that was the fourth 
report, and we finally did one thing, and it is in the 
germinating stage. The General cannot put that together in 4 or 
5 months under the rules we have got.
    You think we act as if this is a serious problem. He has 
got rules that some of the personnel issues will take 6 months 
to resolve, but we have to get on with it.
    Now, in this regard, I have a question of both of you. With 
reference to starting a major maintenance and rebuilding plan, 
being brutally frank, the Department of Energy does not have 
success rate at building major projects. As they are indicated 
from the beginning, and as the specs are drawn and the 
commitments made, I do not think they really have a very good 
record of getting the job done that way. Overruns are rampant. 
We even had to stop some projects because we cannot get them 
done.
    Should we make some changes of some type in how these 
projects are going to be managed, as we put in a revolving fund 
of $500 to $800 million, and have projects ongoing? The 
General, clearly, if he can do it in NNSA, that is wonderful, 
but what about the ability to do projects right?
    Dr. Schlesinger. Well, I think that the record is much 
worse than is indicated in the Rudman report, Mr. Chairman. 
Years ago, back in the Reagan administration, the Department of 
Energy was cited in a report for being the model for the U.S 
Government, and reviews have gone up and down.
    Much of the problem, of course, over the years has been due 
to the fact that they are start and stop. Look at the problems 
that we have had with regard to the production of nuclear fuel. 
We started a program of centrifuge at Portsmouth, back in the 
1970's. We have a facility built there.
    In the early eighties it was decided by the administration 
to abandon that and to move off to California to support laser 
isotope separation, so that that money was clearly wasted at 
that time, but that was not the problem of the Department of 
Energy, and similarly, the decision with regard to the 
supercollider I think reflects, what shall I say, political 
controversy more than the Department's managerial ability.
    In any event, you have established, the Congress has 
established a mechanism to handle this. It has put it in the 
NNSA under General Gordon. We say in our report that there are 
a strong, substantial challenges to the NNSA, but there are 
opportunities as well, and since the Congress has established 
this semiautonomous body, I think that it is appropriate to let 
it run for a while and see how well it does.
    Let me say that in 1985, during the Reagan administration, 
when we delivered the blue ribbon task force which I was vice 
chairman of, we recommended the establishment of an autonomous 
body within the Department of Energy to handle nuclear weapons 
problems, so it takes a while, but we get there.
    Senator Domenici. Did you want to comment?
    Mr. Graham. Well, I would add two points, I think. One is, 
you had commented earlier on the organizational problems of DOE 
as a whole. One of the reasons for that is that when new 
problems arise, there has been a tendency to create new 
stovepipe organizations to address those problems. That 
happened with the environmental safety and health back in the 
late eighties, early nineties. To some degree, it happened 
again with the security problems in recent years.
    I think one principle that should be followed in this area 
for that reason is that the responsibility for managing these 
new programs I think ought to be within the line of 
responsibility of the NNSA, so I would not necessarily 
recommend creating some new activity to focus on these 
infrastructure problems.
    I think secondly, as compared with the Department of 
Defense, the Department of Energy historically has not really 
focused on program management, but now there are a number of 
people in this organization, General Gordon, General Giaconda, 
on down, who have that background and bring that background to 
management of these programs.
    Senator Domenici. Well, I think you have said it better 
than I, and to the extent that I correct my previous statement 
I will say I think program management is what I should have 
been saying instead of project by project, but program 
management is not one of the fortes of the Department of 
Energy.
    In fact, I think it is quite fair to say that they do it 
very poorly, but I do think, in conferring with General Gordon, 
that they clearly intend, within their jurisdiction and their 
autonomous jurisdiction, they intend to be program managers, 
and to be much more skilled and dedicated to it, and I commend 
them for it, because it has not been easy, when you get big 
projects, to find out that they end up being on board in terms 
of the early estimates, how long it will take to construct 
them, are there any real problems that were discovered while 
you are building it.
    Those are happening too much now, and you know, if we are 
going to do a major building program, they are all very precise 
buildings, and they are hard to get done, and they require a 
great deal of effort on clearing the environment, clearing the 
communities and all, so I know they will be tough, but they 
have got to do it.
    I do not think we want to change that. It is just that I 
think somebody has to program capacity to manage a $500 million 
a year ongoing program, which we may end up with six, eight 
facilities being constructed.
    Mr. Graham. Sir, another thing that will be really helpful 
for this is the new focus on developing future year budgets and 
programs. You know, having in the past operated on a year-to-
year budget basis, that might have underplayed the emphasis on 
some of the long-term problems.
    Dr. Schlesinger. Well, it is part of the problem of the 
DOE-DOD relationship. The DOD has a future years fiscal program 
that goes over the next 6 years. The DOE has 1 year at a time, 
and these two programs are supposed to be aligned when there is 
no future years programs. It is one of the recommendations that 
the panel has made, that we move in that direction.
    Senator Domenici. I have one last question, Dr. 
Schlesinger. You have been in a position where you had to 
experience the relationship of nuclear weaponry, which is not 
in the Department of Defense, and the Defense Department and 
how they treat and relate to the nuclear weaponry activity 
generally, all of those things that General Gordon has.
    Is the apparatus, and is it currently effective? That is, 
an apparatus that makes sure that the Department of Energy, 
Defense knows the needs of the Department of Energy and 
supports their needs? Does that exist? Is there a way?
    I sometimes wonder, as I work this appropriation bill, 
where every year I almost have to go ask for additional money, 
because nobody put it in the budget, and it does not seem like 
we have got the chairman of the Chief of Staff even 
knowledgeable about this problem, or at least not commenting--
excuse me. Would you give me your thoughts on that?
    Dr. Schlesinger. Well, that is a complicated matter, Mr. 
Chairman. As you know, all of this comes out of the 050 
account, which is generally--for the Department of Defense the 
largest non-DOD element is the DOE defense program. That 
includes, incidentally, the cleanup operations of the 
Department of Energy.
    That budget goes to the Office of Management and Budget for 
approval. It is separate from the DOD, and I think that it is 
no secret, and it has been the case this year that the OMB, in 
attempting to increase overall DOD expenditures, has been hard 
on certain other agencies, including the DOE, so that the 
program that had been put forward by the Clinton administration 
was cut back by the OMB.
    Now, there is nothing that the Department of Defense itself 
can do about it. What we see is something that is out of 
alignment, and I think that it is the responsibility of the OMB 
to see that those are in alignment.
    Senator Domenici. Dr. Schlesinger, I see it exactly the 
same way, and I see the very large growth now and in the future 
of the environmental cleanup account, which comes out of the 
Department of Energy's budget, big Department of Energy, and it 
goes over to the 150, the DOE function. I see that as something 
the Defense Department might very well be concerned about. They 
do not govern it, they do not guide it, they are not managing 
it, and yet whatever it is comes out of their budget, and it is 
a very big amount, and you have alluded to it as growing and 
growing.
    In any event, I think we have to find some way to get OMB, 
the Defense Department, more in line with the problems we are 
talking about that are going to beset this program, and are 
now, and this year's budget does it again, and pretty tough, 
from what I have seen. We cannot stay at that level. We have to 
do something about it.
    Dr. Schlesinger. Well, that is up to the administration and 
the Congress, but I repeat what I said at the outset. Every 
time we make a public statement we say that the preservation of 
the nuclear deterrent is fundamental to the national military 
posture and to the national interest, and those statements tend 
to hang out there. When there is a reduced threat, as there is 
today, with the collapse of the Soviet Union, we do not seem to 
see the same energy put into the preservation of that 
capability.
    On that question of the cleanup, we discuss in here the 
problems at Y-12 in particular, and what has happened is that 
certain facilities were shut down at Y-12 in 1994. The result 
is that Y-12 has not been able to handle the nuclear byproducts 
of its production process, and they are just accumulating at Y-
12.
    That is the way you run into trouble. That is why we have 
problems at Hanford. That is why you have problems at Savannah 
River. If you just accumulate waste, that will have to be dealt 
with at some future date, and it adds immensely to the long-
term cost of the program, because you need to have security 
officials there to handle the byproducts of the production 
process.
    Senator Domenici. I will yield now to Senator Thompson. Do 
you have any questions?
    Senator Thompson. Yes, Mr. Chairman. First of all, I 
appreciate what Dr. Schlesinger just said, and I note that 
General Gordon in his statement talk about the panel visiting 
Pantex, Oak Ridge, Y-12, Kansas City, and concluded that only a 
very small amount of design and production work is actually 
being performed, and Dr. Schlesinger's statement says there is 
evidence of worrisome deterioration and nuclear components. The 
cleanup problem all of its own, and a big one.
    But what about elaborating a bit on what you describe as 
the fragile nature of the secondary situation down there, the 
actual work you are doing. I mean, you made a very convincing 
case, I think everyone has, that physical plant, what is going 
on there impacts the work that we are supposed to be doing. You 
described it as fragile. Could you elaborate on that a bit 
more?
    Dr. Schlesinger. Well, in a way this is reiteration of what 
previously was said, Senator. We send people in hard hats into 
facilities in which the roof is crumbling. They are managing to 
do their tasks, but under arduous conditions. We have shut 
down, for safety and health reasons, some of the facilities at 
Y-12. As a result, they have not been able to handle the 
byproducts of the process, and they are just accumulating out 
there. I would regard that as fragile.
    It is not as bad, of course, as the situation with regard 
to primaries, in which the United States, probably alone 
amongst nuclear powers, is unable to produce a nuclear weapon 
today. We have not been able to produce primaries for more than 
a decade, and of course the United States has taken on major 
international responsibilities, whether it wanted to or had 
them thrust upon it, for being the sheriff of the world, and so 
we must be certain that our nuclear weapons work, and we are 
not investing sufficiently to be able to maintain the stockpile 
over the course of the decades ahead.
    Senator Thompson. When we read the New York Times, where 
the Russians are apparently testing now, in ways that are 
giving off nuclear yields, arguably in violation of the 
principles of the test ban treaty, although the Russians would 
say not, but clearly they are doing something along those 
lines, I mean, what does that--to the average person, how 
should that impact their thinking in terms of what we are 
talking about here today?
    Dr. Schlesinger. The first point to be made is that the 
decision to go to zero yield was a unilateral decision by the 
United States. It is not in the treaty. Nothing in the treaty 
defines what a nuclear explosion is, and so we decided that we 
would not have any kind of nuclear yield, no matter how small.
    Our British and French allies during the negotiations kind 
of gulped at that, but they did not protest. The Russians and 
the Chinese, other nuclear powers, clearly are not prepared to 
accept a definition in which there is no zero nuclear yield, 
and if the Russians are experimenting, they may be operating 
within the gray area of the treaty.
    This was one of the issues, of course, as you well recall, 
Senator, with regard to the Senate's vote on the comprehensive 
test ban treaty, whether or not we go to zero yield. In 1993, 
1994, and 1995, the Department of Defense and the laboratories 
recommended that we continue to have low yield experimentations 
to see to it that nuclear initiation could take place. 
President Clinton decided otherwise, and so the U.S. position 
was different, but we are not bound by the treaty. At the 
moment, we are bound by the presidential statement.
    Senator Thompson. So it seems that our ability to maintain 
our stockpile, any assurance is being compromised, because of 
all these things we are talking about, at the same time others 
are going on and moving at least into those gray areas. I mean, 
the world is not standing still because we have decided to 
neglect our stockpile responsibilities.
    Thank you very much, Mr. Chairman.
    Senator Domenici. Thank you.
    Senator Reid, we welcome you. You had business, and had to 
be a bit late, but it is very good of you to come to the 
hearing this morning.
    Senator Reid. Mr. Chairman, thank you very much. I ask 
unanimous consent that my opening statement be made part of the 
record as if read.
    Senator Domenici. It will be.
    [The statement follows:]

                Prepared Statement of Senator Harry Reid

    Thank you, Mr. Chairman.
    General Gordon, it is always good to see you. Thank you for taking 
time out of your busy schedule to join us here today.
    Mr. Schlesinger, I would also like to welcome you this morning. I 
have read the Foster Report and believe you and the other members or 
the panel did a fine job in assessing and compiling the infrastructure 
problems in the nuclear weapons complex. We sent you off to look at 
these issues for the better part of a year and I think you have 
assembled a fair and balanced report. I am grateful for it.
    We have, for too long, allowed the physical infrastructure that 
supports our nuclear weapons stockpile to deteriorate. The end of the 
Cold War has allowed our nation to turn its attention to other areas 
and to address other needs. However, the maintenance of our nuclear 
stockpile in the absence of testing, must remain an important priority 
for our country.
    We now live in an age of science-based stockpile stewardship. The 
weapon's complex will rely on computers and lasers and subcritical 
experiments as well as a pit production process that will eventually 
(we hope) deliver a certifiable nuclear pit.
    None of this is easy and all of it will cost money. We did not stop 
underground nuclear testing in this country because it was cheaper to 
do so. We did it because it was the right thing to do.
    For stockpile stewardship to work, we need to make sure that our 
nuclear workers have the tools, equipment, buildings, and other 
resources that will allow them to succeed.
    As all of you know, I have been a steady critic of cost-overruns in 
the weapons complex.
    I was highly critical of the National Ignition Facility last year. 
This year that project seems to have righted itself, so I will instead 
focus my attention on the even more severe cost-overruns that are now 
plaguing the pit production process.
    However, those are criticisms of management, not the workers. I 
strongly believe that the thousands of employees that make up our 
nuclear workforce need to have the proper tools to do their jobs right.
    Mr. Chairman, if you will indulge me for one moment, I would like 
to share an example of the sort of infrastructure shortcomings that I 
think we are both concerned about. It is a shining example of not 
giving our employees the proper tools, nor keeping them safe or even 
comfortable in their workplaces.
    I would like to draw your attention to the photos I have provided. 
These are from the Nevada Test Site and they are of the surface support 
facilities at the U1a Sub-Critical experimental complex.
    Mr. Chairman, this Committee has provided nearly half a BILLION 
dollars for subcritical nuclear tests in support of the Stockpile 
Stewardship Program.
    This photo shows a building called the ``Air Building'' a 
``temporary'' support structure that has been in service for nearly 15 
years. Close up photos would reveal it's fabric skin to be patched like 
an old innertube.
    In the distance you can see the ``trailer camp'' of diagnostic and 
measurement equipment. Millions of dollars worth of equipment that 
measure the instantaneous data bursts from a subcritical experiment.
    Mr. Chairman, the vital information we obtain, to say nothing about 
the tens of millions of dollars of investment we make in a single 
subcritical experiment are dependent on these ``temporary'' flimsy 
structures that have outlived their planned usefulness. Diagnostic 
Cables and energized electrical lines are laid across the ground to 
support these facilities.
    The sanitation facility that is adjacent to the Air Building is 
also temporary but is just a few years from being placed on the 
National Register of Historic Places. These kind of sanitation 
facilities are the only type available within miles of this complex.
    Mr. Chairman, though this may seem humorous, this whole issue is 
deadly serious.
    I must tell you that in mid-October of last year; because of the 
shorting-out of an aged ``temporary'' buried power cable, over a dozen 
miners, engineers and technicians were stranded for a number of hours 
underground at this complex with only battery lighting, no fresh air 
circulation and no power to the mine head elevator.
    There was no back-up power, no generator back-up and only after 
hours of being stranded underground the miners were able to leave 
through emergency egress.
    Though locally this emergency was handled expertly, and all in-
place procedures worked as planned, an Agency that expends billions of 
dollars on physics machines in support of science and does not provide 
the operational funds to ensure the safety of underground miners is 
mismanaging its infrastructure priorities.
    The opposite problem exists at the Device Assembly Facility, also 
located at the Nevada Test Site. It is quite possibly one of the nicest 
buildings in the entire complex, yet it stands virtually unused despite 
its $100 million price tag.
    Given this strange situation, I think both of you can understand 
why I am going to emphasize the need for reams and reams of long-term 
planning throughout my remarks today.
    Our infrastructure is in bad shape. All of us can agree on that. I 
have heard too many stories about leaking roofs, laboratories with no 
air conditioning, and offices with no heat, to stand idly by any 
longer.
    It is time to find the resources and the will to upgrade our 
nuclear weapons complex.
    There is no short-term fix available, so we are going to have to 
plan for a multi-year effort.
    More importantly, we need to ensure that we do this the right way. 
It is too easy to throw a lot of money at a problem of this magnitude 
and come away with little of value. To be successful we must plan.
    I have no interest in re-building the weapons infrastructure of the 
past. I am only willing to invest in the complex of the future.
    Allow me to suggest a principle or two that I believe should govern 
our discussions of how to move forward:
    As we are developing our infrastructure improvement plans, we need 
to constantly ask ourselves what the weapons complex is going to look 
like ten or more years from now and what our operating principles are 
going to be.
    Just as important is how we maintain those critical parts of the 
complex that are needed today and tomorrow, as well as ten or more 
years from now.
    During a period of more than 50 years, we built and operated our 
national weapons laboratories as essential elements of our national 
nuclear security.
    These laboratories represent scientific and technological 
capabilities that are unmatched anywhere else in the world and their 
objective advice to the Federal Government has been a highly valued 
planning asset.
    Their objectivity, however, is threatened by their fierce 
competition with each other.
    These institutions are supposed to be on the same team, working to 
the same goals, with their differences reflecting alternative paths to 
the same goal.
    Their competition used to be in the realm of ideas and concepts. 
They provided reality checks for one another, and they provided a 
necessary level of technical peer review of one another's ideas and 
approaches.
    I think the laboratories are still providing technical peer review 
of project level activities, but I also think that the reality checks 
of the past have withered.
    Their competition has left the realm of ideas and concepts and has 
moved into the world of dollars and cents.
    It appears that if one lab must have something to do its job, the 
other labs must achieve equity through some other provision.
    I say this because we have all heard the stories that the labs get 
together and decide what the spending priorities should be. We have all 
heard that an Advanced Hydrodynamics Facility should go to Los Alamos 
because the National Ignition Facility went to Lawrence Livermore. And, 
for these reasons, the X1 pulsed power facility should be funded for 
Sandia.
    Instead of competing for the best idea, or for the next stockpile 
weapon assignment, as was the practice during the Cold War, the labs 
are competing for major construction line items in the budget; and the 
competition is much like ``one for you, one for me.''
    It seems to be much less driven by what might be the best idea, or 
what might be the best way to proceed.
    For example, because of noise pollution and contamination of the 
ground water with explosive residues at Lawrence Livermore's Site 300 
high explosives test facility, a $100 million contained firing facility 
was built, even though this facility will never be permitted to test 
plutonium targets, one of the most important ingredients of the systems 
the facility was developed to test.
    The contained firing facility was built to respond to civilian 
encroachment around an inherently hazardous activity, but the proximity 
of civilian activities, and the very nature of the site, would never 
permit the most important activities associated with the purpose of the 
facility.
    Very similar arguments can be posed for the DAHRT hydrodynamics 
test facility at Los Alamos, thought by many to be the precursor to a 
necessary Advanced Hydrodynamics Facility.
    DAHRT is beset with environmental concerns that will, sooner or 
later, prohibit plutonium experiments.
    Plutonium experiments are critical to stockpile management, and it 
is quite likely that these sophisticated facilities, acquired through 
great effort and with great cost, will have to be duplicated at the 
Nevada Test Site, where plutonium experiments are permitted.
    In another speculative example, if the National Ignition Facility 
should succeed beyond our expectations, the experiments that could be 
performed will be denied because the Livermore site is not permitted to 
conduct experiments that generate such high neutron yields.
    I only point this out because the ignorance that causes many to 
question the potential success of the National Ignition Facility can 
cut both ways. NIF might work far better than we think, and then much 
of the investment will have to be duplicated elsewhere to take 
advantage of that success.
    If X1 is ever built, I think it will be built at the Nevada Test 
Site, and I commend Sandia Lab for its foresight in this regard.
    We want our national labs to compete, but we want the competition 
to be in the arena of ideas and concepts.
    To allow the competition to continue along the dollars and cents 
path is to encourage the labs to continue their foray into the world of 
advertising and marketing.
    The current path discourages objectivity by these most capable 
institutions, and loss of objectivity is only a short step away from 
complete loss of credibility.
    The Federal Government must reassert its role as referee of this 
competition by removing the financial incentive for major facility 
development that today is driving the labs, to their own detriment.
    It is time for the Federal Government to assure that these major 
investments are designed and sited to assure minimum cost, maximum 
effectiveness, and assured utility for their primary purpose.
    For example, what health and safety principles are going to govern 
where activities are located geographically? As you know, many of the 
facilities in the complex were originally sited in remote areas for 
safety reasons.
    A lot of these places are not so remote any more.
    How likely is it that we are still going to be experimenting with 
uranium, plutonium, tritium, or other unsafe or hazardous materials in 
close proximity to human populations ten or twenty years from now.
    I think we all know that the answer is ``Not very likely.''
    If these activities will have to be moved to more remote areas, 
then we should plan for that now rather than having to build facilities 
twice.
    We have a very real opportunity right now to build the nuclear 
weapon's stockpile infrastructure of the future, but I am not willing 
to write the first check if I cannot be convinced that the 
infrastructure plan is tightly wrapped to the long-term overall needs 
and requirements of the complex.
    General Gordon, I have tremendous respect for you and I do not envy 
you the job we have asked you to undertake here. If you can show me 
that your infrastructure needs are directly related to your future 
missions, then I will do everything I can to help you.

    Senator Reid. I came here late, knowing I would be late, 
knowing we have a vote at 11:00, mainly to indicate how 
important I feel this hearing is, and to indicate to anyone 
within the sound of my voice the confidence I have in General 
Gordon. I think that he, since taking this job, has kept you 
and I abreast of what is going on. I have been totally 
impressed with his administrative skills, and I have no doubt 
that we as a country are better today as a result of his 
stewardship.
    Of course, I am sorry I missed the Secretary's testimony. I 
always look forward to hearing and learning from you the great 
wisdom that you have about our Government.
    Other than that, I will talk to my staffers. I look forward 
to our continued cooperation.
    Dr. Schlesinger. May I comment in response to that?
    Senator Domenici. Sure.
    Dr. Schlesinger. Senator, as you know, this is the second 
of the three reports that we are assigned. Next year, we are 
going to turn to the question of the readiness of the nuclear 
test site which lies in your State to go to testing, and there 
are issues that must be decided by the policymakers of the 
Government. We probably could get off a test in a year's time, 
but it would be a very simple test, and the Congress and the 
administration working together will have to decide what degree 
of readiness they will want.
    We will make a report on the conditions for the renewal of 
nuclear testing, but the issue of how ready we must be is 
something that must be decided at the policy level.
    Senator Domenici. If there is nothing further, I want to 
also thank you again for appearing, and for what you did in 
preparing the report. Thank you, Dr. Schlesinger.
    Dr. Schlesinger. Thank you, Mr. Chairman.

                    ADDITIONAL SUBMITTED STATEMENTS

    [Clerk's Note.--The subcommittee received several 
statements which we will include in the record at this point.]

   Prepared Statement of C. Paul Robinson, Director, Sandia National 
                              Laboratories

                              introduction
    Mr. Chairman and distinguished members of the committee, thank you 
for the opportunity to submit this written statement for the record of 
the hearing held today. I am Paul Robinson, director of Sandia National 
Laboratories. Sandia is managed and operated for the U.S. Department of 
Energy (DOE) by Sandia Corporation, a subsidiary of the Lockheed Martin 
Corporation.
    Sandia National Laboratories is a multiprogram laboratory of DOE 
and is one of the three National Nuclear Security Administration (NNSA) 
laboratories with research and development responsibility for nuclear 
weapons. Sandia's job is the design, development, and certification of 
nearly all of the non-nuclear subsystems of nuclear weapons. Our 
responsibilities include arming, fuzing, and firing systems; safety, 
security, and use-control systems; engineering support for production 
and dismantlement of nuclear weapons; and surveillance and support of 
weapons in stockpile. We perform substantial work in programs closely 
related to nuclear weapons, such as nuclear intelligence, 
nonproliferation, and treaty verification technologies. As a 
multiprogram national laboratory, Sandia also performs research and 
development for DOE's energy offices, as well as work for other 
national security agencies when our unique capabilities can make 
significant contributions.
    I am pleased to comment on infrastructure management and planning 
at Sandia National Laboratories and the nuclear weapons complex as a 
whole. The infrastructure requirements for NNSA facilities are an 
important issue that must be properly managed for the benefit of all 
the vital elements of the NNSA complex. The infrastructure investment 
decisions we make today will determine whether the laboratories and 
plants can continue to conduct their stockpile stewardship 
responsibilities effectively in the years ahead.
                        infrastructure planning
    Sandia National Laboratories actively manages its infrastructure 
planning through a formal process that coordinates infrastructure 
initiatives to support mission requirements. Sandia's Corporate Sites 
Planning Process forms the basis for the actions proposed for a ten-
year planning period. The key objective of the process is to integrate 
mission requirements with physical infrastructure capabilities in order 
to develop plans for our sites that are aligned with future mission 
requirements. This planning process is managed by an Infrastructure 
Council of senior executives through its subcommittee, the Corporate 
Sites Planning Council.
    Annually, the Corporate Sites Planning Council solicits 
requirements for mission and support activities, integrates those 
requirements with existing physical infrastructure capabilities and 
capacities, and proposes a list of specific prioritized actions and 
construction projects, including associated funding strategies, to the 
Infrastructure Council for approval. The Infrastructure Council 
approves requested construction projects and associated funding 
strategies based on a ten-year strategic vision. Sandia's funding 
sponsors provide final funding approval. The approved list becomes the 
Investment Funding Profile, which is an essential part of Sandia's 
Sites Comprehensive Plan.
    Overall infrastructure investment levels at Sandia have averaged 
$88 million annually. This investment includes maintenance, line-item 
and general plant projects, expense funded projects, seismic upgrades, 
demolition and decontamination of substandard facilities, major 
renovations, and restorations. Over the last five-year period, we 
invested an average of $10.5 million annually in infrastructure support 
systems (utilities, communications, roads, etc.). We pursue a goal of 
keeping our utility systems at 90 percent ``good'' condition and 100 
percent of required capacity. Current and planned efforts will help us 
achieve those goals for most systems within our ten-year planning 
period, provided that the required funding is made available.
    Sandia's Sites Comprehensive Plan represents our extensive yearly 
effort to develop and update both strategic and tactical plans for 
development and redevelopment of the physical infrastructure. Sandia's 
goal is to develop a five- to ten-year vision for infrastructure as a 
means of ensuring that the physical assets are adequate and responsive 
to Sandia's evolving mission requirements. Sandia's vision for the 
physical infrastructure system sets a common direction for which 
detailed tactical action plans and project activities are developed in 
line with near-term budget realities. Our Sites Comprehensive Planning 
Process helps ensure that the most critical elements of the plan, and 
ultimately the corporate vision for the physical infrastructure, remain 
intact within a constrained budget environment. The plan shows Sandia's 
progress toward the planning targets and the positive trend in moving 
toward established, long-term goals.
    Sandia has enhanced and expanded its physical infrastructure 
program and master planning activities in recent years. Sandia 
currently produces program plans supporting integration of line-item, 
general plant project, decontamination and demolition, major 
renovation, and restoration activities. This ``city planning'' 
perspective deconflicts the process of locating major facilities and 
enables optimization of all our limited resources--land, time, and 
funding. The integrated program plans also utilize information gained 
from master plans such as our recently completed Telecommunications 
Infrastructure Master Plan and our Physical Security Infrastructure 
Master Plan, currently in development.
    These master plans will be updated periodically and new ones 
identified as needs arise. Sandia's continuing efforts to expand and 
integrate program and master planning activities support the overall 
goal of developing and maintaining an agile, flexible, and responsive 
physical infrastructure system in support of mission needs.
                    major infrastructure initiatives
    Sandia continues to plan for and invest in its infrastructure to 
meet the evolving mission requirements of DOE/NNSA. Several key line-
item initiatives supporting the programmatic needs of the Stockpile 
Stewardship Program are at the forefront of our infrastructure planning 
and execution.
Microsystems and Engineering Sciences Application (MESA) Complex
    The Microsystems and Engineering Sciences Application (MESA) 
complex is the cornerstone of Sandia's initiative to address the need 
for microelectronic and integrated microsystems to support a 
certifiable stockpile for the future. MESA will provide essential 
facilities and equipment to enable teams of weapon system designers and 
microsystems specialists to design, integrate, and qualify components 
and subsystems for nuclear weapon system assemblies.
    Microelectronic components have long been critical to almost every 
DOE Defense Programs mission, initiative, and program. Such components 
have largely determined the reliability of weapon systems, the 
precision of weapon delivery to the target, and the operability of 
weapons in the severe environments encountered during delivery. 
Satellites that monitor compliance with international arms control 
agreements also require the special durability offered by the 
radiation-hardened microelectronics for which Sandia has 
responsibility.
    Components in deployed nuclear weapons are aging, and we will need 
to begin replacing some key components within the decade. In many 
cases, components cannot be replaced with replicas of the original 
designs because they are technologically obsolete and the supplier 
base, materials, and design tools to support them no longer exist. 
Sandia has no choice but to meet component replacement needs using new 
microsystem technology. In addition, Sandia must preserve critical 
capabilities in radiation-hardened microelectronics for defense and 
space hardware. In 1998 Congress authorized the National Defense 
Electronics Partnership which mandates that Sandia retain the 
institutional memory for radiation-hardening technology and sustain the 
supporting infrastructure for developing radiation-hardened 
microelectronics. MESA will provide the required infrastructure to meet 
this mandate for future decades.
Facilities Supporting DOE's Accelerated Strategic Computing Initiative
    Sandia plays a major role in DOE's Accelerated Strategic Computing 
Initiative (ASCI), which is the enabling technology supporting NNSA 
Defense Programs' Defense Applications and Modeling campaign. ASCI is 
developing the advances in computational science and technology that 
will enable the shift from test-based methods to computational methods 
for stockpile certification.
    Sandia will support ASCI with construction of two key facilities at 
its major laboratory sites: The Distributed Information Systems 
Laboratory (DISL) at Sandia's site in California will develop a 
distributed information systems infrastructure required for NNSA 
Defense Programs' Virtual Enterprise for Stockpile Stewardship and 
Stockpile Management. The Joint Computational Engineering Laboratory 
(JCEL) at Sandia's site in New Mexico will be a state-of-the-art 
facility for research, development, and application of high-performance 
computational and communications technologies.
Test Capabilities Revitalization
    This construction line item will modernize Sandia's environmental 
testing and experimental infrastructure and associated diagnostic 
capabilities to perform tasks for weapons qualification, development, 
investigation, surveillance, and model validation. The project will 
renovate existing facilities or provide new facilities, subject to 
cost-benefit studies. It will provide NNSA with the experimental and 
test capabilities required to yield confidence in Accelerated Strategic 
Computing Initiative codes and maintain the enduring stockpile as part 
of the Stockpile Life Extension Program.
Weapons Evaluation Testing Laboratory
    The Weapons Evaluation Testing Laboratory will replace a forty-
year-old facility at NNSA's Pantex Plant. This new construction will 
provide a state-of-the-art facility for testing weapon component 
devices and implementing advanced diagnostic techniques developed by 
the enhanced surveillance campaign. This project is important for 
maintaining confidence in the safety, reliability, and performance of 
the stockpile without nuclear testing.
Other Infrastructure Line Items
    In addition to these major programmatic initiatives, there are two 
other line-item projects that are necessary for Sandia's institutional 
infrastructure. The first is the Storm Drain, Sanitary Sewer, and 
Domestic Water System Modernization, which is intended to rebuild or 
revitalize elements of the fundamental infrastructure at the 
laboratory. This project is half complete, but funding was withheld in 
fiscal year 2001 and allocated to other initiatives. The other project 
is the Exterior Communication Infrastructure Modernization (ECIM), 
which will replace communication systems in the oldest part of the 
laboratory to support modern computing and communications requirements.
Z Accelerator Refurbishment
    DOE's Z Accelerator at Sandia National Laboratories provides 
critical experimental data to the Stockpile Stewardship Program. Z 
produces over fifty times the x-ray energy and a factor of five more x-
ray power than any existing, non-explosively driven, laboratory 
facility. It is a major resource for ensuring the safety, security, and 
reliability of the nation's stockpile. Sandia has an unfunded need to 
refurbish Z to extend its lifetime and improve its performance, 
reliability, and shot rate. Planned as a refurbishment rather than a 
new construction line item, the project will replace and upgrade 
fifteen-year-old hardware and will be accomplished within the existing 
Z building and facilities.
    In May 2000 an independent review committee chaired by Dr. Richard 
Garwin (Fellow Emeritus of IBM's Thomas J. Watson Research Center and a 
recipient of DOE's Fermi Award) and composed of experts from the 
nuclear weapons laboratories, Department of Defense (DOD), academia, 
and industry overwhelmingly endorsed both the programs and the 
refurbishment of Z: ``The Committee was unanimous in its belief that an 
incremental, cost-effective upgrade of Z . . . is worth pursuing.''
    The hardware outside the center module of the accelerator is a 
remnant of an older machine and is not sufficiently robust or optimized 
electrically for today's configuration. The demand for experimental 
time on Z greatly exceeds what we can provide. When the refurbishment 
is completed, Z will support significantly more experiments per year. 
The refurbishment will also yield higher quality experimental data from 
increased precision and reproducibility at even higher energies than 
the world-record levels that have already been attained by Z alone.
    With full support beginning in fiscal year 2002, refurbishment of 
this national asset can be completed by fiscal year 2005 at the 
comparatively modest cost of $60 million for design, procurement, and 
fabrication of hardware and equipment. DOE, DOD, Sandia's partners at 
Lawrence Livermore and Los Alamos, and scientists elsewhere will 
benefit from this investment. In particular, the refurbished Z will 
provide the following benefits to the Stockpile Stewardship Program:
  --Accurate material property data at higher pressures for weapon-
        relevant materials for four of the Stockpile Stewardship 
        Program campaigns: Dynamic Materials Properties, Advanced 
        Simulation and Computing, Secondary Certification, and Inertial 
        Confinement Fusion;
  --An enhanced environment to evaluate radiation flow for the 
        Secondary Certification Campaign;
  --More energetic radiation sources to test non-nuclear components for 
        the Nuclear Survivability Campaign;
  --Insight and confidence in scaling parameters to a next-generation 
        facility for the Inertial Confinement Fusion Campaign.
    Sandia National Laboratories will shortly submit a request to NNSA 
to commence the Z refurbishment project in fiscal year 2002.
        facilities and infrastructure revitalization initiative
    Like other sites across the NNSA complex, Sandia suffers from the 
effects of aging infrastructures in need of refurbishment, repair, or 
replacement that fall below the level of line-item construction and are 
insufficiently supported by general plant projects (GPP) or other 
infrastructure funding programs. Infrastructure problems at this level 
are chronically understated and deferred, and they accumulate with the 
passage of years. Ultimately, this can lead to capability limitations 
that can affect the mission.
    NNSA recognized that this problem area must be addressed, rather 
than be allowed to worsen. NNSA's Facilities and Infrastructure 
Revitalization Initiative is an effort to inventory and prioritize 
unaddressed infrastructure repair and improvement projects across the 
complex. The initiative was intended to support an appropriation 
request of $300 million in fiscal year 2002 to help bridge the gap for 
essential infrastructure repairs that are unfunded. The multi-year 
effort would require a continuous infusion of funds on the order of 
$400-$600 million annually for the following five years.
    We identified approximately $300 million in items at Sandia 
National Laboratories that can benefit from Facilities and 
Infrastructure Revitalization Initiative funding during the course of 
the next few years. We submitted a list of thirty candidate projects 
for a recent inventory conducted by NNSA that can be effectively 
addressed in fiscal year 2002. The aggregate estimated cost of those 
items is $114 million. These projects would normally be funded through 
standard infrastructure programs such as GPP, maintenance, capital 
equipment, decontamination and demolition, and infrastructure planning, 
but they are perennially deferred for lack of sufficient funding. Some 
of these items were aggregated with line-item projects, but 
construction line items are subject to long lead times and are often 
delayed.
    Top priority items on our inventory for NNSA's Facilities and 
Infrastructure Revitalization Initiative are sufficiently urgent that 
failure to fund them soon will impact weapon program deliverables. For 
example, we have an urgent need to refurbish Building 983 which houses 
Sandia's Z Accelerator. The building's air handling system must be 
upgraded to provide control of airborne debris and consistent 
temperature control to maintain acceptable test conditions. Energy 
dissipation from accelerator shots has resulted in long-term structural 
damage that jeopardizes the operation of an overhead crane. The 
building's communications infrastructure and uninterrupted power supply 
system, as well as other building systems, must also be replaced. 
Certification of weapon component programs for the W76, B61, and W88 
could be affected by failure to address the Building 983 issues in a 
timely manner.
    Another priority item for the Facilities and Infrastructure 
Revitalization Initiative is Sandia's Electromagnetic Test Facility. 
The existing facility is deteriorating; its twenty-year-old diagnostic 
equipment has limited or no capability to support data acquisition for 
the development and validation of simulation codes. This modernization 
project will improve our capability to perform electromagnetic tests to 
qualify the W76, W78, and W80 in accordance with the Stockpile Life 
Extension Program (SLEP).
    NNSA's Facilities and Infrastructure Revitalization Initiative will 
perform a very important service to the Defense Programs mission if it 
succeeds in restoring the appropriate balance in funding for 
infrastructure improvements that are critical to sustaining mission 
capabilities. A carefully constructed Facilities and Infrastructure 
Initiative will help Sandia, and the rest of the Defense Programs 
complex, deal with longstanding infrastructure challenges. We must have 
a more viable Decontamination and Demolition Program to dispose of 
obsolete facilities; we must make a stronger commitment to major 
renovations and deferred maintenance; we must actively use General 
Plant Projects to maintain and revitalize our sites; and development 
planning must be enhanced and improved. Typically, a great deal of this 
kind of work is deferred to the out-years, although there is no 
guarantee that adequate funding will be available then. It is essential 
that additional infrastructure revitalization funding be made available 
if we are to maintain the laboratories at the level of capability 
necessary to support the Stockpile Stewardship Program and attract top 
technical staff.
                  infrastructure challenges and issues
    Sandia faces several challenges and issues related to 
infrastructure and infrastructure investment planning: lack of 
continuity in investment planning at the Defense Programs level; 
limited flexibility in investment funding strategies (including funding 
sources, amounts, allocations, and scheduling; aging facilities and 
site infrastructure; shortage of space both in quantity and type; and 
external events that affect infrastructure. The following paragraphs 
will give some perspective into each of these challenges.
Lack of Continuity in Investment Planning at the Defense Programs Level
    In fiscal year 1999, DOE Defense Programs, its three laboratories, 
and the Nevada Test Site negotiated a phased investment plan for line-
item construction projects. This ``Tri-Lab Agreement'' was intended to 
permit a logical implementation of the laboratories' projects over 
several years to the overall benefit of the program. (Major systems 
with total estimated cost exceeding $100 million were not covered by 
the agreement). Unfortunately, the Tri-Lab Agreement has not resulted 
in a predictable and consistent implementation of line-item 
investments.
    In the initial agreement, allocations for Sandia's Joint 
Computational Engineering Laboratory (JCEL) in New Mexico and 
Distributed Information Systems Laboratory (DISL) in California were 
deferred for a year to enable Los Alamos National Laboratory to move 
forward with its Strategic Computing Center. Those deferrals created 
challenges in the execution of Sandia's projects, requiring significant 
shuffling of planned scope, sub-optimum contracting arrangements, 
increased costs, and undesirable delays. Then, in the planning cycle of 
the following year, DOE again deferred the construction starts for JCEL 
and DISL.
    We have a concern that the next budget may contain insufficient 
funds to permit new construction starts in fiscal year 2002. If that 
happens, Sandia's JCEL and DISL projects will be deferred yet again to 
subsequent years. Insufficient funding would also jeopardize the 
construction start for Sandia's major system project, the Microsystems 
and Engineering Sciences Application (MESA) complex, which is the 
cornerstone of our initiative to address the need for microelectronic 
and integrated microsystems to support a certifiable stockpile for the 
future. The Weapons Evaluation Testing Lab modernization at NNSA's 
Pantex Plant, which is of great importance to Defense Programs' 
Enhanced Surveillance Campaign, could also be affected, as well as 
NNSA's Facilities and Infrastructure Revitalization Initiative. If 
construction starts are not adequately funded in fiscal year 2002, the 
magnitude of the line-item funding delays affecting Sandia would be 
such that we would lose another year in the construction schedule, 
incur unplanned costs to hold projects in idle status, and suffer 
reduced purchasing power due to cost escalation.
    Experience demonstrates that if fiscal year 2002 is underfunded, 
there would be no assurance that adequate funds would be supplied in 
fiscal year 2003 to permit deferred construction projects to start. 
When this uncertainty is considered in conjunction with needs of other 
projects, such as the funding requirements of large systems like the 
National Ignition Facility, a loss of funding for construction starts 
in fiscal year 2002 would very likely cause project delays well beyond 
one year.
    Sandia National Laboratories, having previously agreed to postpone 
line-item funding with the. expectation of a return to a normal 
allocation in fiscal year 2002, may again be in a position of deferring 
its construction program for the benefit of other major facility 
projects. The result is not only the delay of start-ups for needed 
mission capabilities at Sandia, but also a net reduction of NNSA's 
capital investment purchasing power attributable to the delays, 
ultimately resulting in reductions of scope for crucial investments in 
the stockpile management and production sectors of the complex.
    As I have indicated previously in other forums, I am not sure 
whether the problem is too little budget or too much program. I am 
concerned that the allocations within the Defense Programs 
infrastructure budget may not be balanced with respect to urgent needs 
in stockpile design, management, and production. The investment program 
for line-item construction must be prudently managed to provide for the 
needs of all sectors of the NNSA Defense Programs complex. We must find 
a way to fund our strategic infrastructure investments at a pace that 
will bring them into useful service without impacting our ability to 
perform needed stockpile work, such as weapons engineering, stockpile 
surveillance and support, maintenance, dismantlement, production 
support, and especially stockpile life extension programs.
Limited and Inflexible Funding Strategies
    Limited investment funding strategies constrain our ability to meet 
our infrastructure challenges. The three nuclear weapon laboratories 
are about fifty years old, and there is not enough funding to meet all 
their infrastructure needs at once. Thoughtful planning will be 
necessary to revitalize the current infrastructure while maintaining 
capability.
    Limited flexibility in funding causes delays in revitalization and 
other unintended consequences, such as spending money on a renovation 
that would be better spent on building a new facility. We have been 
hampered by the lack of flexibility in the use of indirect funding for 
capital improvements. We have also been discouraged by the lack of 
funding and flexibility in maintaining a decontamination and demolition 
program robust enough to keep up with required demolition of obsolete 
facilities.
    As a multiprogram laboratory, Sandia has many investment issues 
looming on the horizon, and as we become a more programmatically 
diversified lab, we will need to explore how new sponsors can assume 
some ownership for investments required to support emerging programs. 
Initiatives to increase flexibility for financing investments with 
multiple funding sources and types of funding would help us more 
quickly address the infrastructure issue.
    Due to the volatility in construction budget planning, major 
infrastructure investments are not always made in the most cost-
effective manner. Often, work must be sequenced inefficiently to 
conform to inflexible funding profiles. Funding for escalation is not 
generally provided when projects are delayed from a contracted baseline 
or when additional requirements are mandated as a result of independent 
reviews, security directives, and so forth. These factors reduce the 
buying power of funds, thereby exacerbating the problem of limited 
funding for infrastructure.
Aging Facilities
    Like other sites across the nuclear weapons complex, Sandia suffers 
from the effects of aging infrastructure. This affects Sandia's ability 
to attract and retain personnel, increases operating costs, impacts our 
ability to meet security and ES&H requirements, and results in a lack 
of agility and flexibility to meet evolving mission needs. 
Approximately 45 percent of all our buildings are at least thirty years 
old, and many of the utilities serving them are beyond their useful 
life.
    Many of these buildings and systems carry legacies that today's 
environmental, safety, and health regulations do not permit in new 
facilities. Fire protection systems and water lines are deteriorating, 
with potential risks for health, safety, and asset protection. Out-of-
date communications systems in older buildings are costly to operate 
and cannot satisfy the capacity demands of the modern workplace. 
Operations and maintenance costs are increasing for outdated energy, 
building, and security system repairs because parts are often no longer 
available. Much new program equipment requires cleaner, better 
temperature-controlled, more modern environments that are not possible 
in older facilities.
Space Management Issues
    Space at Sandia is currently a scarce commodity. In addition to 
growth in programs, some of our space challenges are the result of 
changes over the last decade in how people work. Technological advances 
in computing and simulation have moved much of the work out of 
laboratories into offices. Consequently, offices require more space per 
person to accommodate computers, printers, and other devices. New 
concepts in work environments such as informal hallway meeting areas, 
teleconferencing and multi-purpose conferencing centers, and open areas 
for working with industry and universities are becoming more important 
to the productivity and success of programs. Increased security 
requirements have also challenged our ability to provide appropriate 
work space.
    Sandia is desperate for new space: 96 percent of our available work 
space is occupied (industry guidelines recommend a 92 percent occupancy 
rate to allow for needed flexibility). The vacant office space that is 
available for use is just 9,500 square feet scattered throughout the 
laboratory in 53 different temporary buildings. Some buildings are over 
100 percent occupied, meaning that more employees are housed in the 
building than was intended by the design. There is not enough space 
outside our secure technical areas to house newly hired employees 
awaiting clearances. Turnaround space to support our renovation program 
is also insufficient.
    Sandia's space dilemma makes it difficult to attract and retain 
personnel and to quickly respond to new or changing mission directions.
Effects of External Events
    Many factors outside Sandia's control affect the cost and operation 
of infrastructure. Sandia's utility planning has been complicated by a 
number of events, including divestiture and privatization of portions 
of Kirtland Air Force Base and other local development issues. We share 
the capacity of a central steam plant with Kirtland at our New Mexico 
site, but the Air Force has indicated that it plans to construct a new 
heating system for its own use. When that occurs, Sandia will bear the 
total cost of the antiquated, fifty-year-old steam plant, which is 
inefficient and expensive to operate. A complete system replacement 
will be needed at some point in the next few years to replace the steam 
plant with a new heating system and replace deteriorated steam lines.
    Commercial and residential developments adjacent to the California 
and New Mexico sites are jeopardizing buffer zones and impinging on the 
possible uses of DOE land for programs. We may be forced to relocate or 
limit some of our activities depending on their proximity to 
residential areas. Deregulation of electric utilities has already 
affected energy costs and availability at the California site and may 
become an issue in the future at the New Mexico site.
                         summary and conclusion
    Sandia National Laboratories actively manages its infrastructure 
planning through a formal process that coordinates infrastructure 
initiatives to support mission requirements. We plan our requirements 
to meet the strategic mission needs of the National Nuclear Security 
Administration. Sandia's leading strategic mission requirement for the 
stockpile stewardship program is the Micro-systems and Engineering 
Sciences Application (MESA) complex, which will provide essential 
facilities and equipment to support the design, integration, and 
qualification of components and subsystems for nuclear weapon system 
assemblies.
    The infrastructure requirements for NNSA facilities must be 
properly managed for the benefit of all the vital elements of the NNSA 
complex. In this regard, NNSA's Facilities and Infrastructure 
Revitalization Initiative can perform a very important service to the 
Defense Programs mission if it succeeds in restoring balance in 
addressing infrastructure needs across the complex. We face several 
challenges and issues related to infrastructure and infrastructure 
investment planning, but chief among them is the lack of continuity and 
predictability in investment planning at the line-item level. NNSA's 
infrastructure investments must be prudently managed to provide a 
balanced program supporting the needs of all the sectors of the Defense 
Programs complex.
                                 ______
                                 

  Prepared Statement of C. Bruce Tarter, Director, Lawrence Livermore 
             National Laboratory, University of California

                              introduction
    Mr. Chairman and members of the committee, thank you for the 
opportunity to provide a statement on this very important issue. I am 
C. Bruce Tarter, Director of the Lawrence Livermore National 
Laboratory, one of the three National Nuclear Security Administration 
(NNSA) national laboratories. We carry out an integral part of the 
Stockpile Stewardship Program to maintain the safety and reliability of 
the U.S. nuclear stockpile in the absence of nuclear testing.
    Stockpile stewardship is a very demanding program to meet a vital 
national interest. It is requiring major investments in new facilities 
and capabilities that make it possible for scientists and engineers to 
much more thoroughly understand the performance of nuclear weapons. At 
Livermore, these investments have led to delivery of Accelerated 
Strategic Computing Initiative supercomputers (Blue Pacific and ASCI 
White, as well as plans for a third-generation machine), upgrade of our 
hydrodynamic test facility to become the Contained Firing Facility, and 
construction of the National Ignition Facility, which is under way. The 
Stockpile Stewardship Program will not succeed without the new-facility 
investments that are being made at the NNSA laboratories. Scheduled 
programmatic work at the laboratories and the plants has also placed an 
exceedingly high demands on provided funding. The cumulative effect of 
necessary continuing attention to the highest and most immediate 
priorities over the course of the Stockpile Stewardship Program has 
been shortage of funds to recapitalize NNSA's underlying 
infrastructure.
    A major increase in investments is needed to deal with aging NNSA 
facilities throughout the nuclear weapons complex--affecting workplace 
quality and, in cases, severely limiting productivity. Over the years, 
the Laboratory has depended on our having special facilities and 
equipment in an accommodating work environment to attract and retain an 
exceptional staff. Sustaining the quality of our workforce is a 
particularly challenging task in view of the high demand in the private 
sector for skilled people. The task is made more difficult by the 
continued aging of our facilities without major reinvestment. The 
situation at our Laboratory and other NNSA sites cannot be rectified 
without substantial new funding to revitalize the NNSA nuclear weapons 
complex--the laboratories, the Nevada Test Site, and the production 
sites. My testimony focuses on three major points about 
recapitalization of the NNSA weapons complex:
  --Investments are needed complex wide.--NNSA has assessed that 
        funding requirements for facilities are about $1.3 billion per 
        year, while the current funding averages about $650 million per 
        year--a significant shortfall that is a consequence of the many 
        competing high-priority demands on the Stockpile Stewardship 
        Program. The necessary repair or replacement of antiquated NNSA 
        facilities will require a sustained program of new investments.
  --Livermore is prepared to wisely and efficiently implement 
        additional investments in its infrastructure.--To effectively 
        manage the Laboratory's aging infrastructure, we have in place 
        a well-tested methodology for prioritizing recapitalization 
        investments, and we have demonstrated cost-effective approaches 
        for dealing with aging facilities. To make significant headway 
        on reducing a backlog of deficiencies, we need more funding.
  --Complex-wide investment planning will be challenging.--We are 
        providing input and support to NNSA's Facilities and 
        Infrastructure Recapitalization Plan. The planning efforts must 
        balance priorities and take into account the long-term facility 
        needs of all sites--a major challenge in view of dynamic future 
        requirements for refurbishment and production.
           the need for nnsa infrastructure recapitalization
    The NNSA Weapon Complex's Aging Infrastructure.--To meet the 
demanding goals of the Stockpile Stewardship Program, the NNSA 
laboratories must thoroughly understand the physics and engineering 
performance of weapons based on non-nuclear experimentation and 
computer simulation. That, in turn, requires leading-edge research and 
development facilities at the laboratories and the Nevada Test Site. In 
parallel, NNSA's production facilities must support requirements to 
extend the lifetime of weapons currently in the stockpile and to meet 
any future needs for production of new weapons. Refurbishment and 
production activities need to be conducted safely, efficiently, and in 
an environmentally responsible manner.
    Many mission-supporting facilities at the laboratories' sites are 
nearly fifty years old or older. Some need replacement immediately. The 
others are particularly demanding for maintenance to keep them 
adequate, and over time, all need rehabilitation or replacement. At 
Livermore, only 60 percent of our employees currently reside in 
permanent space, and 70 percent of the temporary office space (trailers 
and other temporary structures) is nearing or beyond end of service 
life. Such working conditions are not conducive to retaining and 
attracting the exceptional workforce that we need to accomplish our 
mission.
    The situation is dire at the production sites. Many production 
facilities are outmoded with antiquated equipment. Activities have 
ceased in some areas because of safety and health concerns, and in 
other areas, such as the manufacture of weapon pits, there are no 
existing production-scale capabilities. The pace of work on the W87 
Life Extension Program is being limited by conditions in the plants. 
The challenge will be even greater with the planned growth over the 
next decade in the amount of life-extension work.
    Recognition of the Problem.--NNSA and Defense Programs within NNSA 
(NNSA/DP) clearly recognize the problem, and they are working to 
improve management of the NNSA infrastructure. A particularly 
noteworthy step was taken in 1999 with the development of a new 
management strategy that features ``Readiness in Technical Base and 
Facilities'' as one of the three major integrating elements in the 
Stockpile Stewardship Program (``Directed Stockpile Work'' and 
``Campaigns'' are the other two). The revised program strategy, 
implemented in response to evolving demands, recasts the Stockpile 
Stewardship Program into a set of activities that more clearly 
establish program goals and budget priorities and helps to identify 
program risks if there are budget shortfalls. Readiness in Technical 
Base and Facilities requires investments to be made in people, special 
facilities, and supporting infrastructure to conduct the program today 
and to have in place the needed capabilities as more challenging issues 
arise in the future.
    In December 1999, ``The 30-Day Review'' of the Stockpile 
Stewardship Program, conducted for the Secretary of Energy, stated in 
its findings that ``DP faces significant challenges in the next decade 
with regard to the facilities and infrastructure needed to preserve the 
U.S. nuclear deterrent.'' In particular, the study cited findings by 
the Department of Defense (DOD) Comptroller's Office of Program 
Analysis and Evaluation that DOE's rate of reinvestment in facilities 
(0.8 percent of replacement value) is less than the norm of industry 
and the DOD (2 to 4 percent of replacement value). The 30-Day Review 
also reported that 70 percent of the facilities at Y-12, 80 percent of 
the facilities at the Kansas City Plant, 50 percent of the facilities 
at Los Alamos National Laboratory, 40 percent of the facilities at 
Pantex, and 40 percent of the Savannah River tritium facilities are 
more than 40 years old. At Livermore, about 30 percent of our space is 
more than 40 years old.
    The aging of the NNSA weapons complex was also a focus of concern 
in the Foster Panel report of February 1, 2001 (Fiscal Year 2000 Report 
to Congress of the Panel to Assess the Reliability, Safety, and 
Security of the United States Nuclear Stockpile). One of the panel's 
major recommendations is to ``restore missing production capabilities 
and refurbish the production complex.'' The report states that ``NNSA 
must plan and execute a ten-year program to restore needed production 
capabilities'' and cites a DOE estimate that the maintenance backlog is 
$700-$800 million. A recent General Accounting Office report (Nuclear 
Weapons: Improved Management Needed to Implement Stockpile Stewardship 
Program Effectively, December 2000) also provides many examples of 
antiquated facilities within the weapons complex.
    The NNSA/DP Infrastructure Recapitalization Initiative.--Motivated 
by the findings of The 30-Day Review, NNSA/DP launched a concerted 
effort to improve facilities and infrastructure management by 
instituting better processes for strategic planning, budgeting, and 
execution. The goal was to develop an NNSA/DP Facilities and 
Infrastructure Management Plan through a corporate approach to the 
problem and to institutionalize the processes that were implemented. We 
are fully supportive of the effort, and our Laboratory and other sites 
in the complex are contributing to it.
    During the first phase of the effort, planning activities focused 
on reviewing assessments of the condition of the complex and 
establishing an integrated baseline of costs for facilities and 
infrastructure upgrades. In short, NNSA/DP assessed that funding 
requirements are about $1.3 billion per year, while the current funding 
averages about $650 million per year--a significant shortfall. The 
shortfall means that current funding for the Stockpile Stewardship 
Program is not sufficient to restore the health of the weapons complex. 
New monies are needed to prevent further deterioration of the complex 
and over time, restoring it to better health. The NNSA/DP 
Infrastructure Recapitalization Initiative is intended to provide much 
needed funds for facility maintenance and restoration, general plant 
projects, capital equipment, and decontamination and demolition of 
legacy facilities.
        the situation at lawrence livermore national laboratory
    The Needs for Recapitalization at Livermore.--We strive for a work 
environment at Livermore that attracts top-notch employees, enhances 
workforce productivity, and helps ensure programmatic success. This 
requires modern facilities at the Laboratory, designed and sized for 
current and future operations and well maintained at competitive costs. 
A core strength of Livermore is its unique, state-of-the-art research 
facilities, but we also have many aging facilities. A poignant example 
is provided by the delivery of Accelerated Strategic Computing 
Initiative (ASCI) Blue Pacific, at the time the world's most powerful 
supercomputer. We had to repair the leaky roof of the building in which 
the machine was to be housed.
    Overall, 14 percent of Livermore's office and laboratory space is 
in need of major rehabilitation and nearly 30 percent of the space is 
in need of minor rehabilitation. Older facilities typically are more 
expensive to maintain and usually have higher costs associated with 
safe and healthy operations. Our overall maintenance backlog is about 
$330 million if funded with programmatic dollars. In addition, our 
requirements for space are changing. Livermore's mission increasingly 
demands greater computational capabilities and high-technology office 
buildings rather than experimental laboratory space. Other than funding 
for line-item construction of major new facilities, since the mid-1990s 
our infrastructure reinvestments have been in the range of $25 to 50 
million per year in programmatic dollars for a site with a plant 
replacement value of $3.1 billion. We need additional funding to reduce 
the backlog and/or construct replacement facilities.
    Reduction of the maintenance backlog is not the only issue we face. 
Obsolescent equipment needs to be replaced. For example, the Laboratory 
struggles to keep pace with rapid advances in telecommunications 
capabilities, which are critically needed to efficiently and securely 
use our supercomputers and to upgrade our business operations. In 
addition, the Laboratory has legacy facilities from long-discontinued 
programs as well as outdated and unusable or unsafe laboratory space 
that must be decommissioned, decontaminated (where necessary), and 
demolished. Livermore's legacy facilities and other excess marginal 
space require considerable up-front investments to rectify. Finally, we 
also have to invest so that buildings at Livermore meet present-day 
codes and the latest, more demanding seismic safety criteria. Executive 
Order 12941 required a reassessment of Laboratory facilities. We found 
that 83 buildings (not exempt from the order) may be deficient with 
respect to the seismic safety evaluation criteria and require more 
detailed study. We have completed detailed evaluations of six (of eight 
identified) high-priority buildings, complete with conceptual design of 
upgrades and cost estimates to mitigate deficiencies.
    Effective Processes for Prioritizing Investments and Managing Aging 
Facilities.--One of the findings of The 30-Day Review is that the 
Stockpile Stewardship Program is under considerable stress, and one of 
the consequences has been lower-than-historic levels of funding for 
infrastructure line items and general plant projects, particularly 
since the mid-1990s. The Laboratory has had to attend to our 
infrastructure needs through internal investments. We have pursued a 
strategy that balances maintenance of mission-critical aging 
facilities, rehabilitation of older facilities, consolidation of 
activities as mission priorities change, and efficient management of 
legacy facilities.
    In the same time period, Livermore launched a Cost Cutting 
Initiative to lower indirect costs through identification and pursuit 
of opportunities to re-engineer many operations functions. Success in 
that initiative lowered our overhead and support expenses from about 33 
percent of operating costs in fiscal year 1995 to less than 25 percent 
in fiscal year 1999. We have reinvested some of the cost savings in the 
Laboratory's infrastructure. To ensure effective investment of limited 
funds, I appointed an Institutional Facility Manager (IFM) in 1997. The 
IFM serves as the focal point for developing and implementing a long-
term strategy for managing facility and infrastructure investments at 
Livermore.
    The Laboratory has since become more effective in aligning 
infrastructure investments to mission priorities and in meeting 
essential institutional demands. In fact, a recent General Accounting 
Office study of facilities management in the Department of Defense 
(Military Infrastructure: Real Property Management Needs Improvement, 
September 1999) cited the approach used at Livermore for property 
management as a set of practices that should be used much more widely. 
Because of this external recognition, the Laboratory has hosted visits 
from several military organizations to assist their efforts in finding 
ways to improve their maintenance management. More recently, we have 
entered into a dialogue with Los Alamos to share mutually beneficial 
processes.
    To better manage the maintenance backlog, we developed and continue 
to refine a planning process for work prioritization based on two 
important criteria. One, the importance of the backlog item to 
accomplishment of the programmatic mission is determined by 
programmatic input, while the second criteria, probability of failure 
of the backlog item is assessed by Laboratory maintenance personnel. 
Projects that rank highest in both criteria are ``A list'' items that 
require immediate attention. The top three categories, which comprise 
all items that should be addressed within three years, constitute the 
Laboratory's Essential Backlog, representing approximately 20 percent 
of the total backlog. The process assures that the most essential items 
are addressed with planned expenditures of Laboratory Facility Charges, 
which are levied on building ``owners'' to support maintenance costs.
    We use our Facility Assessment and Ranking System (FAaRS) to select 
facility candidates for rehabilitation or removal. To meet the 
Laboratory's office space needs, we are rehabilitating older facilities 
identified through FAaRS as being fundamentally sound and possible to 
return to ``good'' condition cost effectively. In this connection, we 
are pursuing innovative methods for renovation. For example, a recent 
pilot project brought one of our World War II-era building complexes 
with over 100 offices up to good condition (an additional 15 years of 
life) at a very affordable cost.
    Similarly, we completed in fiscal year 1999 a pilot project 
demonstrating a new approach for safe and cost-effective demolition of 
contaminated (chemistry) facilities. There were no incidents, injuries, 
or lost/restricted workdays in this project, which included a thorough 
implementation of Integrated Safety Management as part of the work 
plan. Through the use of state-of-the-art sampling, near-real-time 
chemical and radiological analysis, and highly precise removal of 
contaminants, we were able to minimize radioactive and conventional 
hazardous wastes and significantly reduce the cost of this 
decontamination and demolition (D&D) project.
    Additional Funding Needed.--Through the use of the prioritization 
methods and innovative rehabilitation and D&D processes we have 
piloted, the Laboratory has in place effective means for managing its 
infrastructure--but we do not have enough funding to make headway at 
reducing accumulated problems. Accordingly, our input into NNSA/DP's 
Infrastructure Recapitalization Initiative totals $65.8 million for 
fiscal year 2002, with $38.2 million for high priority items. Some of 
the 12 high-priority maintenance, general plant projects, capital 
equipment items include replacement of electrical power systems in 
aging facilities, a number of building renovation projects, and 
investments in High-Efficiency Particulate Air (HEPA) filters to more 
effectively ensure that our high environmental standards continue to be 
met. Two other high priority projects include a D&D project and a 
scoping and design study for rehabilitation of a major building complex 
at our site.
           meeting the long-term needs of the weapons complex
    The NNSA weapons complex will not be able to make headway on its 
deficiencies in facilities and infrastructure without adequate multi-
year funding for the Infrastructure Recapitalization Initiative. An 
infusion of new dollars is vitally important, and processes have been 
developed at our Laboratory--and complex-wide through NNSA/DP's 
Infrastructure and Facilities Management Plan--to ensure that the funds 
are applied to meet the highest priority, integrated needs of NNSA. The 
immediate needs of each of the sites have been identified in the 
integrated plans for fiscal year 2002, and problems will only grow if 
funding is not forthcoming.
    In developing the overall Infrastructure and Facilities Plan and 
the new initiative, NNSA/DP has accomplished three particularly 
important objectives. First, the effort substantiated assessments of 
the condition of the weapons complex and estimates of the size of the 
shortfall in funding for facilities and infrastructure. That work 
provides the basis for the proposed funding for the Infrastructure 
Recapitalization Initiative. Second, the plan provides a complex-wide 
integrated list of priority work that needs to begin immediately, 
together with projected costs. Finally, an effective planning process 
was developed and implemented that can be used and continually improved 
upon in future years. That is important because understanding the 
detailed needs for the production facilities and laboratories is a 
dynamic process.
    The development of detailed plans on how to modernize facilities to 
most effectively support the research and production needs of the 
Stockpile Stewardship Program is a challenge. Plans for the 
laboratories and the Nevada Test Site are closely linked to the 
program's campaign strategy and are fairly well mapped out. The 
situation is far more dynamic for the production facilities, where 
requirements depend on the size of the stockpile, estimates of when 
weapon components have to be refurbished or replaced, and details about 
life-extension programs that have to be worked with the DOD. Hence, it 
is important that the laboratories be fully engaged in the planning 
process--contributing to the establishment of requirements, development 
of feasible work schedules, and consideration of new production 
processes. We are also contributing to the planning methodology by 
offering the lessons learned from our experiences.
                            summary remarks
    Stockpile stewardship is a very demanding program to meet a vital 
national interest. It is requiring major investments in new facilities 
and capabilities that make it possible for experts to much more 
thoroughly understand the performance of nuclear weapons. Scheduled 
programmatic work has also placed an exceedingly high demands on 
provided funding. The cumulative effect has been shortage of funds to 
recapitalize NNSA's underlying infrastructure. Substantial new 
investments are needed to upgrade facilities and infrastructure 
throughout the NNSA nuclear weapons complex. The new funding for a 
multi-year Infrastructure Recapitalization Initiative will enable NNSA 
to deal with a significant shortfall of monies so that antiquated 
existing facilities can be repaired or replaced. At Livermore, we have 
pressing needs for recapitalization of facilities through investments, 
which are prioritized by a well-tested methodology. In addition, we 
have demonstrated cost-effective methods for dealing with aging 
facilities--whether appropriate action be rehabilitation or 
decontamination and demolition. We need these improvements to aid in 
attracting and retaining exceptional staff.
    Through the development of a Facility and Infrastructure Management 
Plan, NNSA/DP has put into place a planning process to integrate and 
prioritize complex-wide needs. We support that planning process, and 
the Laboratory will help NNSA/DP to continually improve the process and 
to better understand the long-term needs of the complex, which will 
evolve as we better understand the needs of the stockpile.
                                 ______
                                 

  Prepared Statement of John C. Browne, Director, Los Alamos National 
                               Laboratory

                           laboratory mission
    Thank you for this opportunity to provide a statement on the 
infrastructure needs at Los Alamos National Laboratory. The Laboratory 
is one of three multi-program scientific institutions supported by the 
National Nuclear Security Administration (NNSA) in the Department of 
Energy. We are managed by the University of California and our mission 
is to
  --Ensure the safety and reliability of the U.S. nuclear weapons 
        stockpile
  --Reduce threats to U.S. security with a focus on weapons of mass 
        destruction
  --Provide technical solutions to national security problems in 
        energy, environment, infrastructure, and health.
                        statement of the problem
    The entire nuclear weapons complex managed by the DOE/NNSA--the 
production plants and laboratories--is faced with serious aging 
problems that threaten our ability to carry out the stockpile 
stewardship mission. To continue to work effectively on these DOE/NNSA 
missions, our Laboratory needs outstanding scientists and engineers 
working in state-of-the art facilities. Unfortunately, our facilities 
have deteriorated badly. Buildings, roads, sewer systems, electrical 
power grid and other critical infrastructure are approaching fifty 
years old and are crumbling at an alarming rate. The ability to conduct 
our programmatic mission is clearly at stake. A dedicated 
revitalization effort is crucial for the long-term viability of this 
Laboratory.
                               background
    Major segments of the Laboratory, and indeed the entire NNSA 
weapons complex, were constructed for Cold War missions in the 1950's 
and 1960's. Over half of Los Alamos National Laboratory's 2000-plus 
structures are greater than 40 years old and require significantly 
increased levels of funding for sustainability, including safety, 
maintenance and energy use. Many of the older facilities were built 
prior to the adoption of modern design and energy consumption codes and 
standards. Many of these aging facilities are becoming ineffective in 
serving ongoing mission needs. Approximately 40 percent of all 
Laboratory funding supports facilities, infrastructure, or 
construction. While the Laboratory is committed to safe and secure 
operation of all facilities, these costs are becoming disproportionate 
relative to program funding. These facilities have served the 
Laboratory well but now need significant rehabilitation or replacement 
to reverse this trend. The figure below shows a building condition 
analysis.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The result of not addressing these aging and failing facilities 
will be decreased reliability and effectiveness, undesirable conditions 
for staff recruiting and retention, increased maintenance and utility 
costs, and ultimately failure of the facilities and failure or delay to 
execute our assigned tasks. While the Laboratory will continue to 
operate facilities only if they are safe and secure, we are running 
many facilities to failure. At the present state of affairs, we cannot 
assure sustainability of our facilities to fulfill our mission.
                         statement of solutions
    We believe that there are three distinct areas that must be 
addressed in order to ensure infrastructure sustainability to meet our 
mission. Those three areas include:
  --1. Implementing formal facilities consolidation efforts and cost 
        reduction initiatives to reduce facility footprints, which in 
        turn reduces operating costs and improves safety, security, and 
        scientific interactions;
  --2. Addressing unfunded high-priority facility maintenance backlogs 
        before these backlogs become expensive emergency repairs; and
  --3. Investing in new construction projects, where appropriate and 
        economically feasible, to ensure that the Laboratory can meet 
        programmatic mission needs over the next twenty to forty years.
    Each of the areas identified above requires commitments to achieve 
positive results. The return on investment can be realized through 
reduced operating costs (maintenance and energy) and increased 
technical productivity to achieve mission requirements. In addition, 
each area addresses safety and security needs and allows Laboratory 
facilities to be sustainable over the next 20 to 40 years. Our planning 
efforts in these three areas are in different phases of development. 
Some projects have validated costs while other projects are in 
conceptual development; their costs will be validated using the 
established NNSA procedures.
1. Formal Facilities Consolidation and Cost Reduction Initiatives
    Our Cold War era facilities, while robust for the times, no longer 
effectively address today's mission. Present facilities are larger than 
now required, inefficient to operate, and in need of significant--often 
urgent--maintenance and repair. The best solution is a set of new 
facilities with a smaller footprint, and the rehabilitation and 
modernization of existing facilities where feasible, with attention to 
more energy efficient design and better operability for mission 
requirements. Consolidation plans at Los Alamos include:
  --A $60M investment to consolidate our weapons engineering division, 
        yielding a reduction of 30 percent space or 300,000 sq. ft. 
        within its organization. Implementation of the plan would 
        result in facility operations savings of $12M/year, in addition 
        to improved safety, security, and scientific interactions. 
        Other technical divisions at Los Alamos are completing similar 
        plans, with comparable investments and savings.
  --Weapons supporting science activities consolidation. This project 
        purpose is to consolidate the majority of scientists and 
        capabilities working on supporting research, in areas such as 
        materials, computations, chemistry, and physics, into modern 
        laboratory and high-tech office facilities. More efficient 
        designs, smaller footprints, and consolidation of programmatic 
        needs will result in better operability for mission 
        requirements, decreased maintenance requirements, and improved 
        space utilization, productivity, and energy-efficiency.
2. Addressing Unfunded High-Priority Facility Maintenance Backlogs
    The current overall state of Los Alamos facilities is well below 
acceptable national standards. Close to half of current Los Alamos 
space is rated in the ``poor'' or ``fail'' condition. The costs 
associated with maintaining aging facilities is growing at a faster 
rate than budgets. A backlog of unfunded, urgent corrective maintenance 
continues to grow at Los Alamos. Maintenance efforts will be focused 
only on those facilities that will continue to operate after the 
consolidation is complete. However, even with the implementation of 
serious consolidation efforts identified above, the backlog of unfunded 
maintenance must be addressed. Within our existing budget guidance, we 
are not able to address this expanding list of unfunded maintenance on 
aging facilities. We have been able to complete only the most urgent 
and most serious emergency repairs. There are many top-priority 
maintenance projects that need to be completed, but we have not been 
successful in obtaining funding to address all of these needs.
    A formal identification, planning, and prioritization effort has 
been implemented at LANL to identify the most urgent needs. While many 
of these identified concerns await funding, they become more costly as 
vulnerable situations turn into emergency conditions. Los Alamos has 
identified needs of $100M annually of urgent maintenance funding that 
must be addressed over a 5-6 year period to address the bow-wave of 
backlog concerns. These requests have been included within the NNSA/DP 
Facilities and Infrastructure (F&I) Initiative. The nation needs to 
address critical F&I needs in the entire Nuclear Weapons Complex with a 
new, dedicated, multi-year, complex-wide revitalization program.
3. Investing in New Construction Projects
    Over the past several years, Los Alamos has developed a long-range 
site plan to address many of the problems we face. We continue to 
update these efforts annually as facility condition assessments are 
reviewed, and as infrastructure needs are identified, addressed, or 
completed. Where appropriate and economically feasible, to ensure that 
LANL can meet programmatic mission needs over the next twenty to forty 
years, the NNSA should invest in new construction. Even with 
consolidation efforts and maintenance backlog work-off, it is clear 
that it is not economically feasible to extend the life of all 
facilities. Those facilities should be replaced that are becoming 
ineffective in serving ongoing missions, or no longer meet current 
standards for operations, safety, and/or security.
    A formal, risk-based prioritization method developed by Los Alamos 
planners is used to determine the ranking of proposed projects. This 
prioritization looks at programmatic requirements, safety requirements, 
security requirements, overall institutional need, and links to 
existing plans, capabilities, and requirements within the DOE complex. 
This prioritization method was used to develop the scope of the 
rehabilitation effort needed in response to the Cerro Grande Fire in 
May 2000.
    New construction projects would be managed utilizing formal project 
management tools such as baselining and change control. Our recent 
positive experience with new construction at LANL has established 
working relationships with industry that would be followed in any 
future projects. The new construction projects required to meet the 
stockpile stewardship mission at LANL are:
  --Central Laboratory Site Revitalization--Total $138M (validated).--
        Our planning effort identified two new construction projects 
        that address existing life safety issues, high operations 
        costs, high maintenance costs, and security concerns at the 
        most populated site at Los Alamos. The existing facilities that 
        house nuclear weapon designers, supporting scientists, 
        laboratory administration, environmental health and safety 
        personnel, and the Laboratory health clinic are 50 years old 
        and in poor condition. Due to the age of the facility 
        infrastructure, there are electrical system risks, mechanical 
        system failure, high energy costs, high maintenance costs, and 
        limited system reliability. The estimate includes the 
        construction of new facilities, in addition to the 
        decommissioning and demolishing of vulnerable facilities within 
        this core technical area at Los Alamos.
  --Integrated Nuclear Materials Complex--Total $550M (still in 
        conceptual phase, cost not validated).--This plan consolidates 
        LANL nuclear materials facilities to meet existing mission 
        requirements within a single security boundary at Technical 
        Area 55 (Plutonium Facility) at Los Alamos. Two projects have 
        been proposed to replace 50+ year old aging nuclear facilities, 
        including the Chemistry and Metallurgical Research (CMR) 
        Facility Replacement and the relocation of TA-18, which is the 
        Los Alamos Criticality Experiments Facility. In addition to the 
        two new construction projects, funding is required to address 
        facility life-extension of the now 20-year old plutonium 
        facility being utilized in plutonium pit production. 
        Infrastructure upgrades would be completed over the next 8 to 
        10 years and extend the useful life of TA-55 through 2030.
  --Utilities Infrastructure Upgrades--Total $100M (cost reflects 
        highest priority items).--A series of five utility projects are 
        needed to address the aging electrical infrastructure at Los 
        Alamos. Examples of projects include a new high-voltage 
        powerline into the Laboratory site to provide reliability 
        improvements for the Laboratory power grid, and a new gas 
        turbine generator to provide risk reduction of brownouts during 
        peak electrical power demands and local power generation 
        against power grid outages that put Lab facilities at risk.
  --Security and Safeguards Infrastructure Projects--Total $250M 
        (validated).--This set of projects for physical security 
        upgrades to Los Alamos facilities includes security fences, 
        perimeter access control, interior alarms, and control systems 
        required to meet new DOE security standards.
                           concluding remarks
    Ten or more years ago, the long-term outlook for the nuclear 
weapons complex and budget was uncertain, but the requirement to ensure 
the safety and reliability of the nation's nuclear deterrent remained. 
During this period, Los Alamos and much of the rest of the nuclear 
weapons complex sacrificed continual reinvestment for the future in 
favor of short-term operational needs. After formulation of the 
Stockpile Stewardship Program, some new facility construction did 
occur. These items, such as the Dual-Axis Radiographic Hydrodynamic 
Testing facility and the Strategic Computing Complex at Los Alamos, are 
dedicated to new capabilities and provide for refurbishment of some 
existing facilities and infrastructure. These projects have also 
enabled the Laboratory to strengthen our construction management 
organization.
    With existing operating funds, we have been able to complete some 
urgent maintenance at our aging facilities, but this only scratches the 
surface. Only the utmost top-priority issues are addressed, while the 
backlog of unfunded maintenance continues to grow as facilities age. 
The demands placed on the safety and security infrastructure from 
increased regulation and oversight has also stressed our resources. We 
are still running many buildings to failure.
    The general run-down condition of facilities in the nuclear weapons 
complex has been noted recently in several reviews chartered by 
Congress and the Administration. For example, the Chiles Commission 
identified the need to ``eliminate problems of maintenance of equipment 
and facilities, and modernization of equipment,'' in the context of 
enhancing recruitment and retention of a quality workforce. The U.S. 
Commission on National Security wrote in January 2001 that ``the 
physical circumstances in which lab professionals work have also 
deteriorated, in many instances, to unacceptable levels.''
    Congress created the NNSA to deal with many of these problems, and 
now we must put in place the measures for success. One of these 
measures is a viable nuclear weapons complex for the future. The best 
way to ensure that the necessary reinvestment occurs in the facilities, 
infrastructure, and construction base is to provide the resources 
through a dedicated budget initiative. We strongly endorse the NNSA/DP 
Facilities and Infrastructure funding initiative. We believe the top 
priority construction projects must be completed in the next 10-15 
years to ensure that the nuclear weapons complex has a safe, secure and 
reliable infrastructure to ensure that programmatic missions can be 
accomplished.

                          SUBCOMMITTEE RECESS

    Senator Domenici. General Gordon, as you know, we all look 
forward to great accomplishments in your new Department, and 
thank you so much. We will be working with you. We will try to 
do a little better job of getting you some resources than is 
currently planned and what we think the budget is. We will work 
hard at that with you. Thank you so much.
    We are recessed.
    [Whereupon, at 10:53 a.m., Tuesday, March 13, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]


    ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 2002

                              ----------                              


                        TUESDAY, APRIL 24, 2001

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 9:50 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Pete V. Domenici (chairman) 
presiding.
    Present: Senator Domenici.

                       DEPARTMENT OF THE INTERIOR

                         Bureau of Reclamation

STATEMENTS OF:
        J. WILLIAM McDONALD, REGIONAL DIRECTOR, PACIFIC NORTHWEST 
            REGION
        RONALD JOHNSTON, PROGRAM DIRECTOR, CUP COMPLETION ACT OFFICE
ACCOMPANIED BY ROBERT WOLF, DIRECTOR, PROGRAM BUDGET AND LIAISON

             OPENING STATEMENT OF SENATOR PETE V. DOMENICI

    Senator Domenici. The hearing will please come to order. I 
apologize for being late and in advance I apologize for having 
to leave early, but somehow or another we'll get today's 
hearings in on both the Bureau of Reclamation and Corps of 
Engineers.
    Today we are going to begin the Energy and Water 
Subcommittee's 2002 budget hearings with the Bureau of 
Reclamation. I hope that the Bureau of Reclamation people would 
come on up and take their seats. There will be two panels, and 
as a subcommittee tradition dictates, this year we will begin 
with Bureau of Reclamation in the first panel, and the second 
one would be the Corps of Engineers. As we have told you 
already, the Corps will be this afternoon at 3 o'clock in a 
different hearing room than this.
    The subcommittee that meets here today has jurisdiction 
over water resources as they pertain to the Federal 
Government's commitments and/or obligations. That is the Bureau 
of Reclamation and the Corps of Engineers, essentially. Both 
agencies are responsible for managing the natural resources in 
a cost effective manner while balancing the needs of diverse 
users. I believe that the mission of these two agencies will 
only become more increased over time and the Bureau of 
Reclamation will have bigger and tougher missions.
    That being said, I am concerned about the Administration's 
2002 request. I think the Bureau has been underfunded, and the 
Corps of Engineers, and both of them to such an extent that we 
will have to determine if those numbers are to hold up, whether 
the two agencies can effectively carry out their mandated 
missions for this coming year.
    Even though budgets are tight, I am concerned that no one 
is working to address the longer term problems, that the aging 
infrastructure is one of the problems that we all can put some 
time into, and over the long run, these may be very serious 
problems.
    The country has an aging water resource infrastructure. 
Approximately 50 percent of the Bureau of Reclamation's dams 
were built in 1900 and 150 before the current state of the art 
construction techniques were around.
    So I want to move on, talk about the impact of the 2002 
budget request on both the agencies. First, I would like to 
begin with the Bureau. The Bureau is responsible for 348 
reservoirs, 58 hydroelectric power plants and more than 300 
recreation sites.
    The Bureau's request totals $783.5 million for 2002, which 
is a $13.3 million decrease from last year's enacted level. The 
Administration is proposing the appropriation of about $648 
million for 2002, which is a $31 million cut from this year. 
This type of program, the types of program that falls under 
this account include construction, dam safety, site security, 
and I think we know the rest of them.
    The bulk of the work that the Bureau does falls under this 
account, which is effectively, as I indicated here, being 
reduced by $31 million. Most items in the budget are getting a 
4 percent increase, with certain priority items getting more 
than that. The question is whether this is the time to be 
reducing these two accounts, and we are going to now have Bill 
McDonald, the acting Commissioner of the Bureau. Glad to have 
you here, Mr. McDonald, and hopefully you will be able to go 
into some detail on these budgets for 2002 and to the extent 
that Mr. Johnston or--would you state your name?
    Mr. Wolf. Bob Wolf.
    Senator Domenici. Thank you.

                   STATEMENT OF J. WILLIAM MC DONALD

    Mr. McDonald. I very much appreciate the opportunity to 
appear before the committee. My name is Bill McDonald. I am the 
acting Commissioner of Reclamation, and I am the regional 
director of the Pacific Northwest Region. Good to see you 
again.
    Ron Johnston is representing the Central Utah Project 
Completion Act appropriation request, Office of Assistant 
Secretary for Water and Science. He has his own statement, and 
will speak for himself. Bob Wolf is Reclamation's Director of 
Program, Budget and Liaison and will assist me. We certainly 
appreciate the opportunity to present the President's budget 
request to you, Mr. Chairman. We have a written statement for 
the record, and I will ask that that be submitted for the 
record, and I will simply summarize.
    We certainly thank the committee for your continuing 
support for the Reclamation program. In a drought like this, we 
are reminded of the importance of the West's water 
infrastructure. Snow packs are generally only running 45 to 85 
percent of average as of the April 1 snow course measurements, 
and forecasts across the West are ranging only around 30 to 70 
percent of average. The shortage of water supplies would be far 
worse without the benefit of Reclamation projects, and stream 
flows would be substantially less in a year like this without 
releases from reservoirs.

                            CALIFORNIA POWER

    The power problems being confronted in California remind us 
that Reclamation contributes nearly 15,000 megawatts of 
installed capacity from our hydropower system to the West's 
energy system. In California alone, the Central Valley Project 
accounts for a little less than 5 percent of the capacity in 
California. The Lower Colorado dams, Hoover, Parker and Davis, 
contribute a substantial additional amount of electricity to 
customers in California and indeed throughout the West.

                          TOTAL BUDGET REQUEST

    Reclamation's hydropower system is critical to system 
reliability and a variety of other ancillary services and 
spinning reserves. The total President's request for fiscal 
year 2002 is $783.5 million in current authority, which is an 
increase of $6.7 million relative to fiscal year 2001. That 
consists, however, of two major components. $763.5 million is 
for Reclamation programs, if you will, and that is a decrease 
of $13.3 million from the fiscal year 2001 enacted level. And 
then secondly, there is in the President's budget a request of 
$20 million for the California Bay-Delta Restoration account 
for which there was no appropriation in fiscal year 2001.
    Within the $763.5 million requested for Reclamation 
programs proper, there is $648 million in the Water and Related 
Resources account, which is a decrease, as you noted, of about 
$31 million from fiscal year 2001 levels.

                CENTRAL VALLEY PROJECT RESTORATION FUND

    Second, $55 million is requested for the Central Valley 
Project Restoration Fund, which equals our request for the full 
authorized amount of projected revenues to the fund; and that 
is a $16.7 million increase over fiscal year 2001. That 
request, however, is offset by discretionary receipts to the 
fund of $45 million, so that only $10 million scores against 
the subcommittee's allocation, and that is comparable to fiscal 
year 2001.

               POLICY AND ADMINISTRATION AND LOAN PROGRAM

    Third, our request for Policy and Administration is $53 
million, and finally, the Loan Program request is $7.5 million, 
which would complete three loan projects in California in the 
next fiscal year.

                      WATER AND RELATED RESOURCES

    The $31 million decrease in the Water and Related Resources 
account, I would like to speak to that briefly. That is 
relative to an enacted level in fiscal year 2001 of $679 
million and reflects the net effect of the following overall 
changes compared to fiscal year 2001.
    First, our resources management and development programs 
and activities decreased by $62 million from $439.1 million to 
$377.1 million. On the other hand, facilities operation, 
maintenance and rehabilitation increased by a little better 
than $17 million, from $287.6 million to $304.7 million. 
Included in that is the Dam Safety Program at $74.6 million, 
and it continues to reflect Reclamation's priority in 
maintaining our infrastructure and being able to operate our 
projects to deliver their intended benefits.
    Finally, there is the $13.9 million decrease in 
undistributed underfinancing, which is something we would hope 
the Committee would be able to adhere to as you move forward 
with the budget.

                        RECLAMATION'S COMMITMENT

    In summary, Mr. Chairman, as Reclamation approaches very 
proudly its 100th anniversary, we believe that our fiscal year 
2002 budget request demonstrates our continuing commitment to 
meet the West's needs for water and power in a fiscally 
responsible manner. In cooperation with our contractors, with 
State, tribal and local governments, other stakeholders, and 
the public at large, Reclamation offers, we believe, workable 
solutions to water and power issues that are consistent with 
the ever-growing demands for power and water and with the need 
to pursue cost-effective environmentally sound approaches to 
meeting those demands.
    Needless to say, Reclamation and the Reclamation program 
face many challenging opportunities. First, an aging 
infrastructure, as you noted, requires that we focus on the 
need for dam safety, facilities improvements, technological 
upgrades and preventive maintenance to ensure the reliability 
and improved safety of operation of our projects.
    Second, meeting environmental requirements so that we 
continue to develop projects and supplies is a complex 
challenge. Third, innovative approaches to water conservation, 
power conservation, and programs for wastewater reuse and 
recycling are being explored by us, but within the budget 
limitations that we face.
    And finally, our participation, ever expanding at the 
request of Congress, in Indian water rights settlements and the 
growth of rural water projects to serve Indian reservations and 
others, particularly where Congress has directed Reclamation to 
bear all or a portion of the operation and maintenance of those 
completed projects, is putting substantial pressure on our 
overall budget.

                           PREPARED STATEMENT

    The projects and programs highlighted on page 4 and 5 of my 
written statement are illustrative of the challenges we face 
and with that, I invite the committee's attention to that as 
examples. Thank you for the continuing support of our program, 
Mr. Chairman.
    [The statement follows:]

               Prepared Statement of J. William McDonald

    Thank you Mr. Chairman and members of the subcommittee. I welcome 
the opportunity to appear before you today to support the President's 
fiscal year 2002 budget request for the Bureau of Reclamation, which 
totals $783.5 million in current authority. The request includes $20.0 
million in new funds for the California Bay-Delta Restoration account, 
and $763.5 million for Reclamation's traditional programs, a decrease 
of $13.3 million from the fiscal year 2001 enacted level of $776.8 
million.
                                mission
    As it approaches its 100th anniversary, the Bureau of Reclamation 
delivers 10 trillion gallons of water to over 31 million people in the 
17 western states for municipal, rural, and industrial uses. 
Reclamation facilities store over 245 million acre-feet of water, 
servicing one of every five western farmers to irrigate about 10 
million acres of land. These irrigated lands produce 60 percent of the 
nation's vegetables and 25 percent of its fruit and nuts. As the 
largest water resources management agency in the West, Reclamation 
administers or operates 348 reservoirs, 58 hydroelectric powerplants 
with an installed capacity of 14,744 megawatts. Reclamation manages 
approximately 8.6 million acres of Federal land, plus another 600,000 
acres of land under easements. In addition, our facilities provide 
substantial flood control, recreation, and fish and wildlife benefits.
    The economic viability, and in some cases the very survivability, 
of the citizens, ranchers, and farmers in the 17 western states depends 
on the effectiveness of Reclamation's stewardship of these valuable 
public resources. The Bureau of Reclamation, and its employees, take 
this responsibility and the mission of managing, developing and 
protecting water and related resources in an environmentally and 
economically sound manner in the interest of the American public very 
seriously.
    The impact of Reclamation on the lives and livelihoods of our 
western citizens is highlighted by the following facts: Reclamation has 
emerged as the second largest producer of hydroelectric power and the 
11th largest power producer in the United States with an average 
generation of more than 42 billion kilowatt hours of energy each year. 
Reclamation produces enough electricity to serve 14 million people, 
generating nearly a billion dollars in annual power revenues. In 
California, Reclamation's Central Valley Project generated more than 
6.1 billion kilowatt hours of energy in 2000, enough power to serve 
approximately 1.9 million Californians.
                    fiscal year 2002 budget request
    The fiscal year 2002 budget request demonstrates Reclamation's 
commitment to meeting the West's needs for water and power in a 
fiscally responsible manner. This budget continues the Bureau's shift 
in emphasis from the construction of large water projects and toward 
the management of these valuable public resources. In cooperation with 
state, tribal, and local governments, along with other stakeholders and 
the public at large, Reclamation offers workable solutions regarding 
water and power resource issues that are consistent with the ever 
growing demands for power and water, and with the need to pursue cost 
effective, environmentally sound approaches to meeting those demands.
    Nevertheless, the transition from a facilities builder to a water 
and power service management agency has resulted in a new set of 
challenges for Reclamation. Growing demands from an aging 
infrastructure have compounded the need for technological upgrades, new 
science and technologies, and preventative maintenance to ensure 
reliability, increase output, and improve safety of operation. The 
growth of rural water projects serving Indian reservations where 
Reclamation funds operation and maintenance has put substantial 
pressure on our overall budget. The demand for skills in such areas as 
negotiating agreements with Tribal Governments, negotiating title 
transfer agreements, mediating disputes among stakeholders, and 
renewing existing contracts represent a formidable challenge in the 
human resource arena. Balancing the demand for service delivery with 
environmental concerns is an equal challenge. Complementing supply-
oriented solutions with innovative approaches to power and water 
conservation and programs for wastewater recycling are being explored. 
Finally, as Reclamation attempts to keep pace with the technological 
revolution, our dependence on sophisticated computer systems presents 
new challenges in the areas of information system development, 
maintenance, and security. All of the above challenges place additional 
pressure on Reclamation's financial and human resources.
    One of Reclamation's strategies for meeting these new challenges is 
to target its planning program and science and technology program to 
search for contemporary solutions. Financial resource constraints 
facing the Nation require a commitment to the use of decision support 
tools, including risk analyses, to develop only the most efficient and 
cost-effective solutions to the complex challenges that we face.
    Every day we see immediate water resource needs important to our 
state, local and tribal partners. Many states are developing state-wide 
water plans or drought contingency plans, for instance, to address 
resource utilization and stewardship against the backdrop of large 
population increases and the growing notion of sustainable development. 
Reclamation, in partnership with other federal, state, local, tribal, 
and private entities, has consistently proven its ability to help 
assess the potential for optimum water use within a river basin or sub-
basin. This technical capability is one of our most valuable resources.
    Some of Reclamation's budget priorities as we continue into the new 
millennium are:
  --ensure the safety and reliability of Reclamation dams;
  --fund projects currently under construction;
  --ensure environmental compliance;
  --develop partnerships with customers, states and tribes;
  --continue investments in science and technology to meet the growing 
        water-related resources challenges facing the west in a more 
        efficient and cost-effective manner; and
  --optimize results-oriented business practices to provide the most 
        effective and efficient service to customers, partners and 
        employees.
                      water and related resources
    The fiscal year 2002 request for the Water and Related Resources 
account is $648.0 million, a decrease of $31 million from the fiscal 
year 2001 enacted level. The request provides funding for five major 
program activities--Water and Energy Management and Development ($257.7 
million), Land Management and Development ($33.9 million), Fish and 
Wildlife Management and Development ($85.5 million), Facility 
Operations ($158.1 million), and Facility Maintenance and 
Rehabilitation ($146.6 million). The request is partially offset by an 
undistributed reduction of $33.8 million, in anticipation of delays in 
construction schedules and other planned activities.
    The request continues to emphasize the operation and maintenance of 
Reclamation facilities in a safe, efficient, economic, and reliable 
manner; sustaining the health and integrity of ecosystems while 
addressing the water needs of a growing population; and assisting 
states, tribes, and local entities in solving contemporary water 
resources issues.
    Highlights of the fiscal year 2002 request include:
    Safety of Dams ($74.6 million).--The safety and reliability of 
Reclamation dams is one of the Bureau's highest priorities. Dam safety 
corrective actions and site security improvements are among the 
activities funded by facility operation, maintenance, and 
rehabilitation. The fiscal year 2002 request of $74.6 million for the 
Safety of Dams Evaluation and Modification Program, including 
Horsetooth Dam in Colorado and Wickiup Dam in Oregon, provides for risk 
management activities throughout Reclamation's inventory of 358 dams 
and dikes, plus preconstruction and construction activities for up to 
17 dams identified for funding through the Safety of Dams Program.
    Approximately 50 percent of Reclamation's dams were built between 
1900 and 1950, and 90 percent of the dams were built before current 
state-of-the-art foundation treatment and filter techniques were 
incorporated in embankment dams to control seepage. Continued safe 
performance becomes a greater concern with aging dams and requires a 
greater emphasis on the risk management activities provided by the 
program.
    Animas-La Plata in Colorado and New Mexico ($12.0 million).--In 
December 2000, legislation was enacted to resolve the Colorado Ute 
Tribes' water rights claims and allow construction of a smaller Animas-
La Plata Project to proceed. The reformulated Project limits depletions 
to an average of 57,100 acre-feet per year and provides only municipal 
and industrial water for the Tribes and local non-Indian entities. Work 
planned for 2002 includes design of project facilities, gas pipeline 
relocation, and related mitigation and cultural resources activities.
    Central Arizona Project ($31.5 million).--The request continues 
construction of the Gila River Indian Community Distribution System and 
other Indian distribution systems; work on recreation development; and 
fulfillment of endangered species mitigation commitments for Roosevelt 
Dam and for the CAP Aqueduct on the Gila, Santa Cruz, and San Pedro 
River. Funding is also requested to continue working with Tucson area 
municipal entities on CAP reliability features.
    Central Valley Project (CVP), which includes 15 projects, protects 
the Central Valley from water shortages and floods and provides water 
and power to match the continued growth in the State of California. Two 
of the components of this project include:
  --CVP, Replacements, Additions, and Extraordinary Maintenance Program 
        ($11.0 million).--This provides funding for work on 34 
        replacement, addition, and extraordinary maintenance (RAX) 
        items including refurbishing and painting of transformers at 
        the Shasta Powerplant, renovation of the drum gates on Shasta 
        Dam, and rehabilitation of cranes at the Nimbus Powerplant and 
        Folsom Dam. Items scheduled to begin include rewind of 
        generating units 1 and 2 and station service units at the 
        Shasta Powerplant, replacing the turbine runners at the New 
        Melones Powerplant, and rehabilitation of motor rotors at the 
        Tracy Pumping Plant.
  --Trinity River Division of the Central Valley Project in California 
        ($13.1 million).--The Trinity River Division provides delivery 
        of project water and power and for operation of the Trinity 
        Fish Hatchery. Funds will also be used to continue to implement 
        the December 2000 Record of Decision, which includes 
        development and implementation of a comprehensive monitoring 
        and adaptive management program for fishery restoration.
    Columbia-Snake River Salmon Recovery in Idaho, Oregon, Montana, 
Washington and Wyoming ($11.0 million).--This program addresses 
Reclamation's legal requirements contained in the biological opinions 
issued in December 2000 by the National Marine Fisheries Service and 
the Fish and Wildlife Service. These requirements include actions to 
modify the daily, weekly, and seasonal operation of Reclamation dams; 
acquisition of water for flow augmentation; off-site mitigation of 
hydro system impacts in selected subbasins; significantly increased 
research, monitoring, and evaluation as well as significantly increased 
regional coordination efforts. These actions are intended to protect 
and aid in recovery of 12 species of anadromous fish.
    Garrison Diversion Unit in North Dakota ($25.2 million).--Funds are 
requested for grants to the State of North Dakota for municipal, rural, 
and industrial water projects, for development of Indian irrigation 
facilities, for work at several wildlife refuges, and for operation and 
maintenance of completed project facilities.
    Klamath Project in California and Oregon ($12.7 million).--The 
request continues funding for studies and initiatives related to 
improving water supply and quality to meet agriculture, tribal, 
wildlife refuge, and environmental needs in the Klamath River Basin; 
and for improvements in fish passage and habitat.
    Lower Colorado River Operations Program in California, Arizona and 
Nevada ($13.1 million).--This program funds work necessary to carry out 
the Secretary's responsibilities as water master of the lower Colorado 
River. It also funds measures required by the interim biological 
opinion on Reclamation's lower Colorado River operations, and 
development of a multi-species conservation program to provide a basis 
for Endangered Species Act compliance on the lower Colorado River over 
the long term.
    Mid-Dakota Project in South Dakota ($10.0 million).--This program 
provides for assistance for construction of water supply transmission 
lines and storage reservoirs.
    Mni Wiconi Project in South Dakota ($28.0 million).--Funds are 
requested for design and construction activities on the Oglala Sioux, 
Rosebud Sioux, Lower Brule Sioux, and West River/Lyman-Jones Rural 
Water Systems; and for operation and maintenance of new and existing 
facilities on the three Indian reservations.
    Water Reclamation and Reuse Projects Title XVI ($19.5 million).--
This request continues funding for nine studies and projects to recycle 
and reuse water in the arid west. These projects over time will provide 
over 500,000 acre-feet of water annually to help the western states 
cope with drought and to meet the water needs of their rapidly growing 
population.
    Yakima River Basin Water Enhancement Project ($10.6 million).--This 
request continues the implementation of water conservation, fish and 
wildlife improvements, and other measures authorized by the Yakima 
River Basin Water Enhancement Act.
                central valley project restoration fund
    The fiscal year 2002 Reclamation budget includes a request for 
$55.0 million for the Central Valley Project Restoration Fund 
established by the Central Valley Project Improvement Act of 1992. The 
proposal is expected to be offset by discretionary receipts totaling 
$44.9 million, which is the amount that can be collected from project 
beneficiaries under Sec. 3407(d) of the Act. These funds will be used 
for habitat restoration, improvement and acquisition, and other fish 
and wildlife restoration activities in the Central Valley Project area 
of California.
                    california bay-delta restoration
    Consistent with the commitment to find long-term solutions to 
improving water quality, habitat and ecological functions, and water 
supply reliability, while reducing the risk of catastrophic breaching 
of Delta levees, the fiscal year 2002 budget contains funds for Bay-
Delta activities that can be undertaken within existing statutory 
authorities. The $20.0 million requested in this account will be used 
for the Federal share of the Environmental Water Account and for costs 
associated with administrative support of the CALFED Program, which 
includes planning and management activities provided by Reclamation and 
through CALFED Program staff. In addition, the fiscal year 2002 budget 
includes $64.7 million in other BOR accounts for authorized activities 
that support Bay-Delta Program objectives and priorities.
                             other accounts
    The request for Policy and Administration is $53.0 million, which 
will be used to develop and implement Reclamation-wide policy, rules, 
and regulations, including actions under the Government Performance and 
Results Act, and to perform functions which cannot be charged to 
specific project or program activities covered by separate funding 
authority. These funds support general administrative and management 
functions throughout the 17 western states in Reclamation's service 
area and in its Washington office.
    The fiscal year 2002 request for the Loan Program is $7.5 million 
to complete work on three small loan projects--Castroville Irrigation 
Water Supply, Salinas Valley Water Reclamation, and San Sevaine Creek 
located in California.
              fiscal year 2000 accomplishments highlights
    While we have set our priorities for the future, we are very proud 
of the part Reclamation has played in the past, and I would like to 
mention some recent accomplishments.
    Safety of Dams.--In fiscal year 2000, Reclamation completed Safety 
of Dams modifications at Bradbury (California), Pueblo (Colorado), and 
Willow Creek (Montana) Dams to address identified risks. Studies were 
completed on Safety of Dam improvements to Horsetooth Dam in Colorado, 
which provides municipal and industrial water to some of the fastest 
growing communities in the West.
    Power.--Reclamation met 100 percent of its project power 
commitments in fiscal year 2000. Reclamation is among the lowest cost 
providers in the hydropower industry. The dependability and service 
reliability of California's power system experienced significant stress 
beginning in the summer of 2000. Scheduled and emergency operations of 
Reclamation hydroelectric facilities in the West assisted in 
alleviating some threats of brownouts and rotating outages throughout 
California. As a partner with Western Area Power Administration and 
Bonneville Power Administration in the operation of the Federal 
hydroelectric generation and power transmission systems, the 
coordination and scheduling of outages is becoming increasingly more 
important. Reclamation developed processes to ensure that coordination 
between agencies is more formal while retaining the flexibility to 
respond to changing conditions that may impact outage schedules.
    Drought.--Reclamation's Drought Emergency Assistance Program 
assists States and local entities throughout the West in coping with 
emergency water shortages. The Bureau provided emergency assistance 
through the acquisition of water to mitigate impacts to fish and 
wildlife resulting from prolonged drought conditions in New Mexico on 
the Rio Grande and to Bowdoin and Benton Lakes National Wildlife 
Refuges in Montana. Reclamation provided emergency assistance to the 
Hopi Tribe by procuring portable pumps and generators to pump water 
from existing wells when the water table dropped due to drought and 
provided emergency drought assistance to several tribes within New 
Mexico through actions such as well repair and drilling.
    Water Conservation and Recycling.--Reclamation's Water Conservation 
Field Services Program has provided assistance to hundreds of local 
water districts in four key areas: planning, education, demonstration, 
and implementation. In specific instances, Reclamation assisted 209 
water districts with water conservation planning. Reclamation formed a 
cooperative cost-sharing partnership with 11 southern California water 
and wastewater agencies under the Southern California Water Recycling 
Projects Initiative.
    Endangered Species.--Reclamation worked to improve habitat and 
flows for endangered fish at its facilities throughout the West. In 
California Reclamation installed a temperature control device on Folsom 
Dam to help conserve cold water and lessen the impact to threatened 
salmon in the American River. Reclamation helped re-establish up to 42 
miles of prime salmon and steelhead habitat on the mainstream Battle 
Creek and an additional 6 miles of its tributaries in California. We 
completed modifications of an automated fish-handling device at the 
Marble Bluff Dam in Nevada to enhance recovery of the endangered cui-ui 
fish species.
    We developed flow recommendations for the Green, Gunnison, and 
Colorado Rivers to help recover a variety of endangered fish in the 
Upper Colorado and San Juan River Basins. Reclamation also began work 
on fish ladders and fish screens to be installed on all major diversion 
dams/canals on the Colorado, Gunnison, Green, and San Juan Rivers. 
Reclamation collaborated with Federal, State, and local stakeholders in 
New Mexico to sustain instream flows for the endangered Rio Grande 
silvery minnow when severe drought conditions threatened the minnow, 
and helped provide stream flows for the endangered Pecos bluntnose 
shiner into the Pecos River, New Mexico.
    Under the Columbia and Snake River Salmon Recovery Project 
Reclamation has continued to acquire water to increase streamflows in 
the lower Snake and Columbia Rivers to benefit salmon and steelhead 
migration.
    Water Quality.--Reclamation has invested over $48 million since 
1995 to control the salinity of the Colorado River. The total 
Reclamation program, including those projects constructed before 1995, 
is estimated to prevent about 550,000 tons of salt per year from 
entering the Colorado River. Reclamation also worked cooperatively with 
the Interagency Ecological Program for the Sacramento-San Joaquin 
Estuary in California, which identifies, and helps to avoid, impacts 
caused by State and Federal water diversion operations in the estuary.
    Native Americans.--Reclamation helped the Navajo Department of 
Water Resources develop and complete a resource management plan 
addressing the Navajo Nation's projected water requirements and water 
resource infrastructure deficiencies. It provided 13 Native American 
Pueblos with technical or financial water management-related assistance 
through various programs including water needs assessments, new pumps 
and other infrastructure, water measurement structures, and automation 
of flow structures. Other Indian Rural Water projects, including Mni 
Wiconi in South Dakota, Rocky Boys in Montana, and Animas-La Plata in 
Colorado, will help meet the water needs of hundreds of thousands of 
Native Americans.
    Recreation.--Reclamation joined with seven other Federal agencies 
to form the Federal Lakes Recreation Leadership Council co-chaired by 
Reclamation and the Corps of Engineers to develop procedures to enhance 
public recreation at Federal lakes. Reclamation formed a Recreation 
Policy Advisory Team and established a Bureauwide concessions and 
recreation management policy. Under the authority of the Reclamation 
Recreation Management Act, Reclamation cost shared with non-Federal 
partners the development, rehabilitation, and expansion of recreation 
and fish and wildlife areas and facilities on Reclamation projects in 
12 states.
                               conclusion
    This completes my statement. Please allow me to express my sincere 
appreciation for the continued support that this Committee has provided 
Reclamation. I would be happy to answer any questions you may have at 
this time.

    Senator Domenici. I am not sure with the shortage of time 
that I am going to be able to ask you questions, but if I 
can't, I will submit them and if you would answer them, please.
    Mr. McDonald. We would be pleased to.
    Senator Domenici. Why don't you not elaborate on it and 
just give it.

                           PREPARED STATEMENT

    Mr. Johnston. As you are aware, I serve as the program 
director for implementation of the Central Utah Project 
Completion Act, and I would simply like to submit our statement 
for the record, and I'll conclude with that.
    [The statement follows:]

                 Prepared Statement of Ronald Johnston

    My name is Ronald Johnston. I serve as the Program Director for 
implementation of the Central Utah Project Completion Act under the 
direction of the Assistant Secretary--Water and Science in the 
Department of the Interior. I am pleased to provide the following 
information about the President's fiscal year 2002 budget for 
implementation of the Central Utah Project Completion Act.
    The Central Utah Project Completion Act, Titles II-VI of Public Law 
102-575, provides for completion of the Central Utah Project (CUP) by 
the Central Utah Water Conservancy District. The Act also authorizes 
funding for fish, wildlife, and recreation mitigation and conservation; 
establishes an account in the Treasury for deposit of these funds and 
other contributions; establishes the Utah Reclamation Mitigation and 
Conservation Commission to coordinate mitigation and conservation 
activities; and provides for the Ute Indian Water Rights Settlement.
    The Act provides that the Secretary may not delegate his 
responsibilities under the Act to the Bureau of Reclamation. As a 
result, the Department has established an office in Provo, Utah, with a 
Program Director to provide oversight, review, and liaison with the 
District, the Commission, and the Ute Indian Tribe, and to assist in 
administering the responsibilities of the Secretary under the Act.
    The fiscal year 2002 request for the Central Utah Project 
Completion Account provides $36.2 million for use by the District, the 
Commission, and the Department to implement Titles II-IV of the Act, a 
decrease of $3.6 million from the fiscal year 2001 enacted level. The 
request includes $23.8 million for the District to continue 
construction on the remaining segments of the Diamond Fork System; to 
implement approved water conservation and water management improvement 
projects; and to continue development of planning and NEPA documents on 
facilities to deliver water in the Utah Lake drainage basin.
    The funds requested for transfer to the Mitigation Commission 
($10.7 million) will be used in implementing the fish, wildlife, and 
recreation mitigation and conservation projects authorized in Title III 
($9.6 million); and in completing mitigation measures committed to in 
pre-1992 Bureau of Reclamation planning documents ($1.1 million). Title 
III activities funded in fiscal year 2002 include the Provo River 
Restoration Project; acquisition of habitat, access, and water rights 
in other key watersheds; and fish hatchery improvements.
    Finally, the request includes funds for mitigation and conservation 
projects outside the State of Utah ($0.3 million); participation in the 
operating and maintaining new and improved hatchery facilities ($0.1 
million); and for program administration ($1.3 million).
    In addition to the request described above, the Bureau of Indian 
Affairs' budget includes $24.7 million for the Ute Indian Rights 
Settlement.

    Senator Domenici. All right. Fine. Appreciate it. I have 
seen the statement. Let me recognize Mike Gabaldon in the front 
row. Thank you so much for what you have been doing. I 
understand that you moved to Deputy Director of Operations.

                          NEW MEXICO PROBLEMS

    And let me just say on the Bureau of Reclamation, it is 
most interesting that depending upon where you are, what state, 
what river, which basin, the Bureau of Reclamation is 
intimately involved, or in some places not involved at all, but 
I want to say for the record that New Mexico is one of those 
states that by a rare combination of history and other things, 
you are heavily involved in the Rio Grande River in terms of 
the continuing problem of how do we handle the endangered 
species. And I want to thank the Bureau, I am not sure where we 
go from here, but for the past actions that they took on behalf 
of trying to solve that problem at least on an interim basis. 
And we will be trying to put together an extended package of 
involvement by you all to see if we can't resolve it further.

                           ZERO GROWTH BUDGET

    Let me ask just two or three questions and then we will 
close the meeting. Mr. McDonald, your 2002 request appears on 
the surface to be receiving an increase of $7 million, as you 
indicated, which with an appropriation of $784 million, even 
with that, that is not keeping pace with inflation. That is not 
the 4 percent increase that is being suggested as being the 
cornerstone of the President's budget. Can you tell the 
committee, Mr. McDonald, what this essentially zero growth 
budget means for the Bureau?

                  DAM SAFETY AND FACILITIES OPERATION

    Mr. McDonald. As I think I indicated in my introductory 
remarks, Senator, we gave priority in the context of the 
President's budget to dam safety and facilities operation, 
maintenance and rehabilitation. Those for a number of years 
have been our central priorities. They continue to be so. As 
you can see, resource management and development within the 
Water and Related Resources account was cut by nearly $62 
million. That is where the trade-off comes, and this reflects 
itself in the Title 16 program, reductions in rural water 
supply and similar kinds of activities and constraints on what 
we desire to do relative to moving forward with Indian water 
rights efforts.

                          RURAL WATER PROGRAMS

    Senator Domenici. Let's just move to the rural water 
resources for a moment. I was going to move to it separately, 
but actually you raised it. Actually, that is a small account, 
but there aren't any programs of any significance for potable 
water for rural areas and domestic or otherwise, and this small 
amount of money, $33 million I think is what you used last 
year, is one source that is trying to solve that problem. Is 
that correct?
    Mr. McDonald. Yes.
    Senator Domenici. Why it would be reduced as much as it has 
been would probably be an indication that this Administration 
doesn't place a high priority on this activity. That is the 
only way I can read it. What do you read into a one-third 
reduction in that program?
    Mr. McDonald. I don't know that I read anything into it, 
other than to balance the priority within the budget available 
to us. We focused very much on the maintenance of the existing 
infrastructure, continuing construction on existing projects, 
and not initiating new activities that would have major out-
year impacts.

                             BUDGET PROCESS

    Senator Domenici. You continue to use the word we. What 
does that mean? Is there a chain of command on this, that they 
gave you a number and you all on the Bureau of Reclamation went 
and fit the budget to the numbers? Did OMB's people do that? I 
don't really understand.
    Mr. McDonald. Well, in the typical process, of course, we 
made an initial proposal, then the Office of Management and 
Budget provided guidance to all agencies as to the overall 
budget within which we needed to operate.
    Senator Domenici. That is what you meant by the ``we'', 
that process you just described?
    Mr. McDonald. Yes, sir.
    Senator Domenici. I have about five more questions, and I 
am going to submit the ones on dam safety, which is important.

                     ADDITIONAL COMMITTEE QUESTIONS

    We ought to get your answers on the record. I do 
appreciate----
    Mr. McDonald. Be pleased to.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

            Questions Submitted by Senator Pete V. Domenici

           safety of dams evaluation and modification program
    Question. The Bureau's fiscal year 2002 budget request includes 
$72.9 million for the Safety of Dams Evaluation and Modification 
Program. Can you tell this committee what the $72.9 million will be 
used for?
    Answer. The requested funding is for continuing dam safety risk 
management and risk reduction activities throughout Reclamation's 
inventory of dams. It provides for ongoing safety of dams modification 
activities at Clear Lake Dam, California; Wickiup Dam, Oregon; and 
Horsetooth Dam, Colorado. Of the $72.9 million fiscal year 2002 request 
for the Safety of Dams Evaluation and Modification Program, $33,500,000 
is for contractor payments to the three ongoing modification 
activities, another $5,000,000 is needed for related contract 
supervision and administration, $10,500,000 is needed for modification 
work scheduled to begin in fiscal year 2002 at Keechelus Dam, 
Washington, and $4,000,000 is needed for Pineview Dam, Utah. That 
leaves about $2,000,000 for preconstruction activities associated with 
12 other dams listed in the fiscal year 2002 Budget Justifications as 
potentially needing risk reduction actions. Another $17,900,000 is for 
Safety Evaluation of Existing Dams activities on Reclamation's entire 
inventory of 358 dams and dikes which could result in loss of life if 
they were to fail.
    Question. Is there a prioritized list that the Bureau is 
systematically taking care of the worst dams so they can be moved off 
this critical list, and what progress have you made to date on reducing 
this list?
    Answer. Reclamation has a variety of management tools which it 
utilizes to set ongoing priorities as new information is developed 
through the dam safety program. Reclamation has an ongoing program of 
monitoring, inspection, and evaluation of issues which become 
identified during day-to-day operational activities. On an ongoing 
basis, the issues are prioritized and scheduled for further action 
based upon a risk analysis. If this risk analysis results in a finding 
of additional public risk, then Reclamation evaluates and implements 
interim actions while working toward actions to reduce the long-term 
risk. The fiscal year 2002 Budget Justifications narrative lists 12 
dams where Reclamation may be pursuing risk reduction action. To date 
under the Safety of Dams program, Reclamation has completed 
modifications to 55 dams to reduce public risk.
    Question. Is the $72.9 million (fiscal year 2002) budget sufficient 
to address the most critical needs in fiscal year 2002. And if not, 
what is a sufficient amount to address these needs?
    Answer. The $72.9 million budget request is sufficient to meet all 
critical needs. The proposed budget allows for initiation of 
construction on all projects where the necessary preconstruction 
activities have been completed. Major construction contracts will be 
initiated on Wickiup Dam in June 2001 and on Horsetooth Dam in August 
2001. These contracts will establish potential contractor earnings 
rates in fiscal year 2002 and fiscal year 2003. Additional capability 
at Horsetooth Dam has been made available by the anticipated receipt of 
funding from the power customers in fiscal year 2002. With the $72.9 
budget request, there is no delay in the initiation of any safety of 
dams modifications due to funding limitations.
    Question. What would this level of funding enable the Bureau to do, 
that under your current request you could not?
    Answer. An additional $16.5 million for fiscal year 2002 could be 
effectively utilized. Of that amount, $13.5 million could be spent on 
construction contracts for corrective actions at a rate associated with 
the construction contractor's capability. At this time, we anticipate 
that contractors will have the capability at Wickiup and Horsetooth 
Dams to accelerate construction if additional federal appropriations 
were available. The additional funding would also reduce the overall 
cost of the project by allowing project benefits to be recovered sooner 
and it would reduce the costs associated with construction management. 
The additional $3 million could be effectively spent on preconstruction 
activities for a number of dams that are in various stages of 
developing modification reports.
                           title xvi program
    Question. The Bureau's budget request for Title XVI projects, which 
is the water reclamation and reuse account, is for $19.5 million, down 
from last year's enacted level of over $33 million, or about a one-
third cut.
    Please tell this Committee why this program, which in many 
instances is providing the only potable water to homes, is being cut.
    Answer. The Title XVI Water Reclamation and Reuse Program helps 
local water agencies plan for and construct water recycling projects 
that are designed to provide non-potable water to be used for such 
purposes as landscape and agricultural irrigation, industrial 
processes, environmental restoration, power generation, recreation, and 
groundwater recharge, among others. In no instance is the reclaimed 
water from a Title XVI project being used as a source of potable water 
for use in homes. The value in the recycling program is that it 
provides a locally controlled and reliable source of water for use in 
lieu of potable water, thereby stretching the existing potable supplies 
and reducing the need to develop traditional alternative water supply 
projects.
    The enacted level of funding for fiscal year 2001 is approximately 
$30.6 million. However, after accounting for the rescission and 
underfinancing, $28.2 million was available for Title XVI activities. 
The President's fiscal year 2001 request was just under $21.2 million. 
The $19.5 million requested by the President for fiscal year 2002 is 
$1.7 million less than the request for fiscal year 2001. The fiscal 
year 2002 request has been reduced principally to reflect Reclamation's 
completion of funding participation in the Los Angeles Area Water 
Reclamation and Reuse Project, which received more than $69 million in 
Federal assistance. For the remaining seven project funding requests, 
two have been reduced slightly, one has remained the same, and four 
have actually increased over fiscal year 2001 requested levels.
    Question. What is a more sufficient funding level for this account?
    Answer. Based on currently available data, more than $80 million 
would be required in fiscal year 2002 to keep pace with the non-Federal 
projects sponsors' construction schedule. This represents more than 12 
percent of Reclamation's entire budget for Water and Related Resources. 
However, the Department does not support the addition of funds for any 
project which would result in the reduction of funding for other 
projects included in the budget.
    Question. Please provide for the record a list of projects which 
the Bureau considered but were not funded in the President's request?
    Answer. All projects considered by Reclamation for funding in 
fiscal year 2002 were included in the President's budget request.
                  water and related resources--new fte
    Question. The budget request for the Water and Related Resources 
account is down $31 million from last year's level. Yet, the Bureau is 
requesting 13 additional Full Time Equivalents, or FTE. Please tell the 
committee why the Bureau is requesting the 13 additional FTE, when 
there is a budget reduction?
    Answer. While FTE for Water and Related Resources reflects an 
increase, the total FTE level requested remains at 5,634 for both 
fiscal years 2001 and 2002. The level requested for Water and Related 
Resources FTE is based on projected workload. While dollars impact the 
amounts available on a project basis, the workload involved in each 
project can differ (i.e, some are more labor intensive than others). 
The additional FTE in the Water and Related Resources reflects a shift 
of FTE from the Trust Fund account.
                             budget impacts
    Question. The fiscal year 2002 request for the Bureau appears on 
the surface to be receiving an increase of only $7 million, which with 
an appropriation of $784 million, does not even keep pace with 
inflation.
    Please describe for the committee what this zero growth budget 
means for the Bureau.
    Answer. Although the fiscal year 2002 budget is not a significant 
increase over fiscal year 2001, it is a significant increase over 
fiscal year 2000. This is consistent with the Administration's stated 
goal of moderate growth while halting the trend of unconstrained 
spending at an unsustainable rate. The budget also provides for an 
increase of $17.1 million for facility operation, maintenance, and 
rehabilitation to pay for costs of new facilities and to more 
adequately deal with the Bureau of Reclamation's aging infrastructure. 
The budget also provides an increase of $10 million to begin 
construction of the Animas-La Plata project to address Native American 
water rights issues.
    Question. Please provide the committee with a list of the most 
critical items which were not included within your fiscal year 2002 
budget?
    Answer. The Bureau of Reclamation's fiscal year 2002 funds the most 
critical items to maintain and operate our facilities, address 
environmental and fish and wildlife impacts, complete ongoing projects, 
address safety of dams deficiencies, and provide water as part of 
Indian Water Rights settlements. There are no critical items that are 
not being funded.
    Question. Can you explain the rationale behind why the Water and 
Related Resources account took a $30 million reduction, when the 
majority of the Bureau's work is done through this account?
    Answer. It should be noted that the budget request submitted by 
Reclamation for Water and Related Resources for fiscal year 2002 
actually is $4.9 million higher than the budget request submitted for 
fiscal year 2001. The fiscal year 2002 request funds Reclamation's 
highest priorities, and is consistent with the Administration's goal of 
halting the recent trend of spending growing at an unsustainable rate.
                            animas-la plata
    Question. In last year's omnibus appropriation, authorization was 
included which reflected the cooperative agreement brokered by all the 
interested parties regarding the Animas-La Plata Project. The Bureau's 
budget contains $12 million for this project. What progress on the 
project will be made this year with the funding requested?
    Answer. The $12 million budget request will allow significant 
progress on the following critical elements of the project: Gas 
pipeline relocations; investigations, design, land acquisition, and 
contract award; Ridges Basin Dam design; cultural resources recovery 
contract award; fish and wildlife mitigation; wetland contract award; 
and Durango Pumping Plant design.
    Question. Does the Bureau have all intentions of moving forward on 
this project, given this new agreement?
    Answer. Reclamation is committed and supportive of completing the 
Animas-La Plata Project and fulfilling its obligations under the 
Colorado Ute Indian Water Rights Settlement.
    Question. Will the $12 million be actually utilized toward the 
project's construction, or will any of the funds be used to purchase 
water as part of the required cash payment?
    Answer. The $12 million will all be used toward the project's 
construction. Funding for the Tribal Resource Fund is being sought 
through the Bureau of Indian Affairs.
    Question. The Bureau's budget includes $1.6 million for land 
management and cultural resources activities as it relates to the 
Animas-La Plata project. Please provide the committee a definition of 
what ``cultural resources activities'' are being funded this year.
    Answer. A significant number of cultural resource sites are known 
to exist in the Ridges Basin area, and more specifically, in areas that 
will be disturbed by construction of the dam. Fiscal year 2002 cultural 
resource activities will concentrate on awarding a contract and 
initiating data recovery and mitigation on those sites that are in the 
vicinity of the dam foundation.
    Question. Are there funds requested for ``Tribal Development'', and 
if so, can you tell the committee how much is being requested by the 
Bureau and for what purpose?
    Answer. Reclamation is not seeking funding for the Tribal 
Development Funds. Such funds are being sought through the Bureau of 
Indian Affairs. We understand that the Bureau of Indian Affairs' 
request is $8 million for fiscal year 2002.
    Question. Several New Mexico newspapers have published stories 
about the Animas-La Plata project. Several of them have indicated that 
non-Indian Colorado water users want to lease project water from the 
Ute tribes. What does the Bureau of Reclamation know about this and how 
does it view such a proposal?
    Answer. The Colorado Indian Rights Settlement Act Amendments of 
2000 provide an allocation of the project water storage to two Colorado 
non-Indian entities. No negotiations have begun with either entity 
regarding entering into an agreement with the United States to pay the 
reimbursable project costs allocated to the respective entity's water 
storage. These negotiations could begin in early summer. If agreements 
cannot be reached with the Colorado entities, the Amendments provide 
that those water storage allocations shall be reallocated equally to 
the Colorado Ute Tribes.
    Question. Would this proposal effect the overall project and other 
water users, such as those in New Mexico?
    Answer. The Amendments provide that project construction costs 
allocated to the water storage provided to the Colorado Ute Tribes is 
nonreimbursable to the United States. This includes any project costs 
allocated to water storage that is reallocated to the Tribes. The 
reallocation of project water storage to the Tribes will not affect the 
other water users.
              middle rio grande project endangered species
    Question. The Bureau's budget request includes $11.7 million for 
the Middle Rio Grande project. Within the projects tasks for the 
upcoming fiscal year, there is included a mention of the purchase of 
non-Federal water for Endangered Species Act compliance as it relates 
to the silvery minnow. Can you update us on the silvery minnow?
    Answer. The Rio Grande silvery minnow was formerly one of the most 
widespread and abundant species in the Rio Grande basin of New Mexico, 
Texas, and Mexico. The silvery minnow is currently found only in the 
Rio Grande in central New Mexico between Cochiti Dam and the headwaters 
of Elephant Butte Reservoir (less than 10 percent of its historic 
range). Recent monitoring shows the majority of silvery minnow are 
concentrated below San Acacia Diversion Dam and populations in the 
Albuquerque and Isleta reaches are extremely reduced.
    Supplemental water operations during drought conditions in 2000 
were successful in providing water to the silvery minnow by exchange 
with natural flows, especially those fish below San Acacia Diversion 
Dam. The primary goal of these operations was to prevent the loss of 
the species in the wild during extremely dry conditions. This goal was 
achieved and population monitoring in early 2001 shows that silvery 
minnow still occur below San Acacia in reaches that would have 
substantially dried in 2000 without supplemental water management.
    Question. How much does the Bureau plan on spending this year to 
purchase this additional water?
    Answer. Reclamation committed this year to repay the Middle Rio 
Grande Conservancy District for 20,900 acre-feet of water that was used 
in 2000 for river management under the Agreed Order in Minnow v. 
McDonald. The cost of 20,900 acre-feet of water at up to $45 per acre-
foot is approximately $940,500. In addition, to date, Reclamation has 
leased about 13,700 acre-feet for this year's use, at a cost of about 
$616,500.
    Settlement negotiations with the State of New Mexico and other 
parties to the Minnow v. McDonald lawsuit, have suggested that the use 
of up to an additional 30,000 acre-feet of water in 2001 may be 
possible, although the cost has not yet been determined. Similar needs 
for water could also be required for 2002 and 2003 as a result of 
successful settlement negotiations.
    Question. How much water does the Bureau anticipate purchasing in 
fiscal year 2002, and will that be enough to be in compliance with the 
Endangered Species Act?
    Answer. It is anticipated that the Bureau would have available for 
lease a similar volume of water through the Bureau's supplemental water 
program in 2002, which was about 13,700 acre-feet.
    The additional water, which might be provided in a settlement 
agreement in Minnow v. McDonald would be enough to fulfill compliance 
with the Endangered Species Act if the Fish and Wildlife Service issued 
a biological opinion to the Bureau of Reclamation and the U.S. Army 
Corps of Engineers approving or allowing the actions of those agencies 
and of non-federal parties covered in the consultation.
    Question. Does the Bureau have increased water costs should there 
be a drought year, and in that case, can the Bureau actually find 
enough water to purchase?
    Answer. The Bureau's 2001 and 2002 budgets do not include acquiring 
additional water that could be required in the case of a drought. The 
availability of leased water through the Bureau's supplemental water 
program is limited. However, additional water could be made available 
by the State of New Mexico through upstream storage water if settlement 
negotiations are successful. This is the only potentially identified 
source of additional water.
    Question. Some of the non-Federal participants in this effort 
believe an additional $10 million for Endangered Species Act compliance 
is needed. Can you tell me what the Bureau's capability is related to 
this additional $10 million?
    Answer. An additional $10 million for Endangered Species Act 
compliance is identified and described in the draft Middle Rio Grande 
Endangered Species Act Collaborative Program document. On January 3, 
2000, Reclamation signed an MOU with other federal and non-federal 
partners to develop a Middle Rio Grande Endangered Species Act 
Collaborative Program which details short and long range planning in 
support of recovery of the silvery minnow and willow flycatcher while 
protecting existing and future water uses and ensuring compliance with 
all applicable laws. The program includes activities addressing fish 
passage and river reconnectivity, non-native species management, 
habitat restoration, population management, water management, including 
leasing of water for endangered species purposes, and research and 
monitoring.
    Additional capability does exist to utilize this funding for 
activities described in the July 1999 Rio Grande Silvery Minnow 
Recovery Plan and the Collaborative Program's draft Plan for fiscal 
year 2002, addressing the needs of both the silvery minnow and willow 
flycatcher. The additional capability shown was not included in the 
President's budget. The Department does not support the addition of 
funds for any project which would result in the reduction of funding 
for other projects included in the budget.
    Question. Is the Bureau aware of this request, either formally or 
informally?
    Answer. Yes, the Bureau is informally aware of this request from 
the non-federal participants of the Middle Rio Grande Collaborative 
Program. We provided technical input to the activities considered in 
the request through our involvement in the Collaborative Program ESA 
Work Group.
    The State of New Mexico has recently proposed a three-year interim 
agreement in the Minnow v. McDonald lawsuit, which could potentially 
result in a settlement or lawsuit. Generally, the settlement proposal 
would allow water up to 100,000 acre feet to be stored in upstream 
reservoirs rather than in Elephant Butte and then released in an amount 
not to exceed 30,000 acre feet for the Rio Grande silvery minnow. The 
original $10 million did not include funding for this potential 
settlement.
    Question. The New Mexico Interstate Stream Commission has recently 
proposed a three year settlement to the Minnow v. Martinez lawsuit. 
Generally, the settlement proposal would allow credit water to be 
stored in upstream reservoirs and then released each year to keep the 
river wet for the survival of the Rio Grande silvery Minnow. Is this 
possibility progressing, now that Texas and the Rio Grande Compact 
Commission have signed off on the credit water portion?
    Answer. Yes, while court-ordered mediation has officially ended, 
negotiations remain active between the State of New Mexico and the 
federal agencies in the lawsuit, i.e., Reclamation, Corps of Engineers, 
and the Fish and Wildlife Service. The Corps of Engineers began to 
store water in its upstream reservoirs, Abiquiu and Jemez Canyon, soon 
after the Rio Grande Compact Commission approved the action, and the 
parties are working on other aspects of the agreement, including 
changes to the Biological Assessment and the permits requested by New 
Mexico.
    Question. Does the Bureau think this idea may serve as a viable 
short term solution?
    Answer. Yes, the Bureau does believe the use of this additional 
upstream storage to enhance river flows during critical dry periods is 
an important component of a short-term solution concerning Rio Grande 
silvery minnow endangered species issues. Other components of a short-
term solution that may be required to meet the needs of the silvery 
minnow are discussed in the draft Collaborative Program document and 
include reconnecting the river or providing fish passage at San Acacia 
Diversion Dam, pumping supplemental water from the Bureau's Low Flow 
Conveyance Channel, and support of Fish and Wildlife Service's and 
State of New Mexico's silvery minnow propagation and relocation 
efforts. Ultimately, however, Reclamation will defer to the Service's 
Biological Opinion regarding the need of the species.
    Question. How does this three-year plan tie into the Middle Rio 
Grande ESA WorkGroup draft ten-year program plan, and the funding 
requested in fiscal year 2002?
    Answer. The Middle Rio Grande ESA Collaborative Program/ESA Work 
Group draft ten-year program plan currently focuses on long-term 
actions to meet the needs of the endangered species. The ESA Work Group 
has had difficulty working through the often contentious issues 
involved with short-term solutions, especially as litigation, and 
associated mediation and settlement in theMinnow v. McDonald lawsuit 
progressed. Thus, the ESA Work Group generally left the short-term 
solution to the endangered species issues on the Middle Rio Grande to 
be resolved through the mediation and settlement processes. Actions 
taken under the three-year agreement could result in a settlement of 
the litigation and could become the initial component of the 
Collaborative Program and allow the development, design and 
construction of the long-term components of the Program.
    The goals of both the short-term agreement (3 years) and permanent 
(Collaborative Program) focus on ensuring that existing and future 
water uses in the Middle Rio Grande Valley are in compliance with the 
ESA.

                          SUBCOMMITTEE RECESS

    Senator Domenici. I appreciate that you are giving a high 
priority to that, even in a budget that is very tight. We stand 
recessed until 3 o'clock in which meeting room? 138 Dirksen. 
Thank you all.
    Mr. McDonald. Thank you, Senator.
    [Whereupon, at 10:05 a.m., Tuesday, April 24, the 
subcommittee was recessed, to reconvene at 3:15 p.m., the same 
day.]
        (Afternoon Session, 3:15 p.m., Tuesday, April 24, 2001)

    The subcommittee reconvened at 3:15 p.m., in room SD-138, 
Dirksen Senate Office Building, Hon. Pete V. Domenici 
(chairman) presiding.
    Present: Senators Domenici, Cochran, Reid, Byrd, Murray, 
and Dorgan.

                      DEPARTMENT OF DEFENSE--CIVIL

                         Department of the Army

                       Corps of Engineers--Civil

STATEMENTS OF:
        CLAUDIA L. TORNBLOM, DEPUTY ASSISTANT SECRETARY OF THE ARMY 
            (MANAGEMENT ON BUDGET)
        LT. GEN. ROBERT S. FLOWERS, CHIEF OF ENGINEERS
ACCOMPANIED BY:
        MAJOR GEN. HANS A. VAN WINKLE, DEPUTY COMMANDING GENERAL (CIVIL 
            WORKS)
        ROBERT VINING, CHIEF, PROGRAM MANAGEMENT DIVISION
        MAJ. GEN. PHILLIP R. ANDERSON, DIVISION ENGINEER, SOUTH 
            ATLANTIC DIVISION
        BRIG. GEN. ROBERT H. GRIFFIN, DIVISION ENGINEER, GREAT LAKES 
            AND OHIO RIVER DIVISION
        BRIG. GEN. EDWIN J. ARNOLD, JR., DIVISION ENGINEER, MISSISSIPPI 
            VALLEY DIVISION
        BRIG. GEN. CAROL A. STROCK, DIVISION ENGINEER, NORTHWESTERN 
            DIVISION
        BRIG. GEN. M. STEPHEN RHOADES, DIVISION ENGINEER, NORTH 
            ATLANTIC DIVISION
        BRIG. GEN. RANDAL R. CASTRO, DIVISION ENGINEER, PACIFIC OCEAN 
            DIVISION
        BRIG. GEN. PETER T. MADSEN, DIVISION ENGINEER, SOUTH PACIFIC 
            DIVISION
        BRIG. GEN. DAVID F. MELCHER, DIVISION ENGINEER, SOUTHWESTERN 
            DIVISION

             OPENING STATEMENT OF SENATOR PETE V. DOMENICI

    Senator Domenici. The committee will come to order. I am 
going to--since I am a little late, I am going to put my 
statement in the record and yield to your side.
    Senator Reid. Me, too.
    Senator Domenici. You want to put yours in?
    Senator Reid. Yes.
    Senator Domenici. Great. And I understand you include in 
yours some comments about this morning's portion, the Bureau of 
Reclamation part, in your statement.
    Senator Reid. Since I have not read my statement yet----
    Senator Domenici. You did. You did. Your staff told me so.
    And I understand you have a very early departure time. 
Would you like to do something now? I will yield to you.
    Senator Dorgan. Mr. Chairman, let me just make a brief 
comment.
    Senator Domenici. Sure.
    Senator Dorgan. And then I am going to depart and then come 
back.
    Senator Domenici. All right.
    Senator Dorgan. As you know, all of us have so many 
committee hearings this week.
    Senator Domenici. Too much, yes.
    Senator Dorgan. I think mine are at 16 on this calendar 
this week alone.

                  STATEMENT OF SENATOR BYRON L. DORGAN

    Senator Dorgan. I want to just say a word about the Corps, 
especially, and indicate, as all of you know, my state has 
probably had more challenges that has required action by the 
Corps of Engineers than almost any state in the country. Devils 
Lake, an abiding flood that came and stayed, requires an 
enormous amount of attention. The Red River Valley flooding in 
Wahpeton and Breckenridge, Fargo, Moorhead, Grand Forks and 
East Grand Forks has required a substantial amount of 
attention.
    And I think the Corps has done an extraordinary job. And I 
am not adverse to being critical of the Corps when criticism is 
warranted. But I must say that our citizens are full of deep 
gratitude for what the Corps has done.
    We have a lot of challenges in this appropriations cycle. 
We have the permanent flood control project in Grand Forks. We 
need to adequately fund that. You know, we have this challenge 
of the outlet at Devils Lake and a series of other issues.
    I did want to say that I am very concerned that the Corps 
of Engineers needs to be adequately funded, if we are going to 
make these investments. I fear that in this area the 
recommendations of budget cuts are not appropriate. We are 
going to have to find ways to provide adequate funding for the 
Corps.
    General Flowers is here and General Van Winkle. Both of you 
know well what I speak of in North Dakota, because both of you 
have been there. And again, I just wanted to say at the start 
of the hearing how much we have appreciated that. I have, in 
the past, been critical of the Corps from time to time. But in 
recent years I have nothing but praise for the men and women 
that work in the Corps of Engineers and do the field work and 
are there every day and have done a terrific job for the 
citizens of North Dakota.
    I do hope, as we put together the resources in this 
committee, that we will be able to fund the needs that we have 
in a whole range of areas, not just North Dakota. When we do 
what we need to do for North Dakota, it means I have an 
obligation to say, when others are hurting and need help, I 
want to extend my hand to them and say let us help there, as 
well.
    So, Mr. Chairman, thank you for allowing me to say those 
words. I admire the work the Corps has done and am glad to be 
here today.

                    STATEMENT OF SENATOR HARRY REID

    Senator Reid. Mr. Chairman, if I could just say one word, 
based on what Senator Dorgan said. Senator Daschle has 
scheduled a 4 o'clock meeting. He asked me to attend, so I will 
have to be there by then. But I did want to say, elaborate on 
what Senator Dorgan has said.
    The Corps of Engineers has received a lot of negative 
publicity, and I think much of it is unwarranted. And I know 
that there will be a few who disagree with me. But I can speak 
about Nevada, rural Nevada and urban Nevada. One of the ways we 
have been able to continue to grow the way we have in Las 
Vegas, is that we have been able to stop these devastating 
floods that have taken place.
    It does not rain very often in Las Vegas. But when it 
rains, it is what we refer to as a cloudburst and creates very 
fast running water that is dangerous to life and limb. And we 
have spent a lot of money making that area safe.
    In the late sixties we had a flood that washed away cars 
and peoples' lives were lost. In the approximately 30 years 
since then, we have been able to do a remarkable job, under the 
direction of the Corps, in taking care of those flood control 
projects. This area is the fastest growing place in the United 
States, we continually have need for additional flood control 
projects.
    The same, Mr. Chairman, is true in rural Nevada. We have 
done some good jobs. Now I have been just as critical as 
anybody about the Corps. I get upset at them, because, you 
know, it takes too long to get something going. But overall, it 
does good work for our country. And I know that you and I have 
worked hard over these years. We have labored together on this 
committee, and we will do what we can this year to make sure 
that the funding is adequate for these very important projects.
    Senator Domenici. Thank you very much.
    Senator Cochran, would you like----

                   STATEMENT OF SENATOR THAD COCHRAN

    Senator Cochran. Mr. Chairman, thank you. I would be happy 
to follow your example and put my statement in the record. I 
know we are a little late getting started today, and there are 
other competing activities around the Hill. Thank you very much 
for convening this hearing at this stage in our legislative 
year. I look forward to working with you and our witnesses to 
identify the projects that we need to support. Thank you very 
much.
    Senator Domenici. Thank you.
    I have another conflict at 4:00. So I want to proceed to 
the witnesses. It would be unfair, however, if we did not 
spread on the record a vote of thanks and congratulations to 
the Corps for the great work that they did at Los Alamos when 
we had the big fire, which caused, Senator Reid, a number of 
real public works fiascos, where culverts had to be replaced or 
the mud was going to be sliding down the mountains, which were 
now treeless, and would have accumulated on city streets and in 
subdivisions. And the Corps came along and put in some very 
tough emergency measures that took care of the problem. And I 
know that many of your people were there, and I want to thank 
you.
    With that, let us proceed with the witnesses. Ms. Claudia 
Tornblom, Deputy Assistant Secretary for the Army, will go 
first; Lieutenant General Flowers, Commander and Chief of the 
U.S. Army Corps of Engineers, and then Major Hans A. Van 
Winkle, Deputy Commanding General for Civil Works. And then if 
we have time, we will have Robert Vining, Chief, Program 
Management Division, testify.
    Let us go in that order. And if you would please submit 
written statements and make your own remarks with reference to 
them, so we will get finished in time to have some questions.
    Senator Reid. I will submit my questions in writing and 
they may provide their responses to the committee?
    Senator Domenici. We will do that.
    Senator Reid. Over what period of time?
    Senator Domenici. Maybe ten days. Is that satisfactory for 
the answers? Okay.
    Let us proceed.

                    STATEMENT OF CLAUDIA L. TORNBLOM

    Ms. Tornblom. Mr. Chairman, Senators, it is a pleasure to 
be here today, and thank you for your kind words about the Army 
Corps of Engineers, in particular its Civil Works Program. 
Thank you, also, for the opportunity to testify today on the 
President's budget for the Civil Works Program for fiscal year 
2002.
    The 2002 budget reflects the President's overall goals to 
slow the growth of Federal spending, provide for a tax cut, and 
reduce the national debt, while still providing greater 
emphasis on education and protecting Social Security. Within 
those overall goals, the President's budget provides $3.9 
billion appropriations for the Civil Works Program. Of that 
amount, about $765 million would be derived from the Harbor 
Maintenance Trust Fund, the Inland Waterways Trust Fund, and 
other sources besides general revenues.
    In addition to the $3.9 billion in appropriations, about 
$514 million will be contributed by Bonneville Power 
Administration, non-Federal cost sharing sponsors, and 
additional sources. In combination, these resources will 
support a total Civil Works Program in 2002 of $4.4 billion.
    The budget emphasizes the principal Civil Works missions of 
commercial navigation, flood damage reduction, and 
environmental restoration.
    The program currently has an active construction backlog of 
about $40 billion, which includes $26 billion to complete 
ongoing regular construction projects, $6 billion to complete 
ongoing Mississippi River and Tributaries projects, and $8 
billion for projects currently in Preconstruction Engineering 
and Design. In order to address this backlog, available funding 
in 2002 is directed toward construction of continuing projects. 
As a result, no project construction or study new starts are 
budgeted.
    The budget proposes two new national studies, however, that 
will provide information needed by the Army and the Chief of 
Engineers to assess potential changes in Civil Works policies 
and procedures. The first of these two studies was authorized 
by Section 223 of the Water Resources Development Act of 2000. 
The budget includes $100,000 to initiate a 12-year project 
monitoring program to monitor the economic and environmental 
results of up to five projects constructed by the Corps.
    Second, the budget includes $300,000 to initiate a National 
Shoreline Study, which was authorized by Section 215 of the 
Water Resources Development Act of 1999. This study will assess 
the extent, causes and impacts of shoreline erosion on the 
coastal shores of the United States.
    The 2002 budget presents new administration policy toward 
shore protection projects that involve placing sand on beaches 
and then restoring those beaches periodically, as natural 
coastal processes and storms erode the sand. For the initial 
sand placement of these projects, the Administration proposes 
no change in the current cost sharing, 65 percent Federal, 35 
percent non-Federal. However, for the subsequent periodic 
renourishment of such projects, the Administration will seek a 
65 percent non-Federal share, reducing the Federal share to 35 
percent. This policy will apply to all renourishment work 
funded in 2002 and beyond.
    Until this budget, beach nourishment projects started since 
1995 have not received budgetary support. Now, due to this 
policy change, funding for projects with 2002 requirements is 
included in the budget regardless of when the projects were 
started. Altogether the budget includes $82 million for beach 
nourishment projects.
    For the Mississippi River and Tributaries project, the 
budget targets funds to high-priority flood damage reduction 
projects, which are on the main stem of the Mississippi River 
and in the Atchafalaya River Basin of Louisiana.
    In the Operation and Maintenance Program, the budget gives 
priority among port and harbor and inland waterway activities 
to those that support higher commercial navigation use. Funds 
for O&M of shallow draft harbors are limited to $47 million. 
Among shallow draft harbors, subsistence harbors for isolated 
communities and harbors that involve relatively greater use for 
commercial cargo are given higher priority, while the harbors 
that are essentially recreational in nature are de-emphasized.
    Senator Domenici. I wonder if you could just quickly 
summarize?
    Ms. Tornblom. Yes.
    Senator Domenici. I would appreciate it. We would 
appreciate it.
    Ms. Tornblom. Working closely with the Chief of Engineers 
to identify opportunities to strengthen the Civil Works 
planning process, we have already agreed to restore the past 
practice of concurrent vertical involvement of all 
organizations, including the Office of the Assistant Secretary, 
at critical steps in the formulation of civil works projects.

                           PREPARED STATEMENT

    Mr. Chairman, the Corps of Engineers places great emphasis 
on technical and analytical approaches to its projects. The 
Civil Works Program is a wise investment in the Nation's 
future.
    Thank you.
    Senator Domenici. Thank you very much.
    [The statement follows:]

               Prepared Statement of Claudia L. Tornblom

    Mr. Chairman and distinguished members of the Subcommittee: Thank 
you for the opportunity to testify before this subcommittee of the 
Appropriations Committee and to present the President's budget for the 
Civil Works program of the Army Corps of Engineers for fiscal year 
2002.
    Accompanying me this morning are Lieutenant General Robert B. 
Flowers, Chief of Engineers; Major General Hans A. Van Winkle, Director 
of Civil Works; and Mr. Robert F. Vining, Chief of the Programs 
Management Division, Directorate of Civil Works.
    My statement provides an overview of the fiscal year 2002 Army 
Civil Works program and discusses highlights of the program.
               fiscal year 2002 army civil works program
    The Army Corps of Engineers is the premier Federal agency for 
managing water resources project planning, construction, and operation; 
protecting the Nation's waters and wetlands; and responding to 
emergencies. As a decentralized, watershed-based organization with 
strong engineering, environmental, and research capabilities, the Corps 
is very well positioned to continue developing integrated solutions to 
complex, modern water resources problems. To carry out the Civil Works 
program, the Corps works in partnerships with other Federal agencies, 
states, and local communities, including the non-Federal cost-sharing 
sponsors for studies and projects.
    The President's fiscal year 2002 budget for the Army Civil Works 
program includes $3.9 billion in appropriations. Of the $3.9 billion, 
about $765 million will be derived from the Harbor Maintenance Trust 
Fund, the Inland Waterways Trust Fund, and other sources offsetting 
general revenues. In addition to the $3.9 billion, about $514 million 
will be contributed by the Bonneville Power Administration, non-Federal 
cost sharing partners, and other sources supplementing appropriated 
funds. Details are presented in Table A.
    The budget reflects the President's overall goals to slow the 
growth of Federal spending, provide for a tax cut, and reduce the 
national debt, while providing greater emphasis on education and 
protecting social security. The President is committed to a collegial, 
bipartisan approach to working with Congress. We look forward to 
working with you throughout your deliberations on the President's 
fiscal year 2002 budget for the Army Civil Works program.
      highlights of the fiscal year 2002 army civil works program
    The fiscal year 2002 Army Civil Works program includes a number of 
proposals and initiatives, such as targeting funds on continuing work 
with high priority outputs, increasing user fees for recreation 
services, and modifying the cost sharing for periodic renourishment at 
shore protection projects.
    The budget emphasizes the principal Civil Works missions of 
commercial navigation, flood damage reduction, and environmental 
restoration. The budget also provides funds for storm damage reduction 
studies and projects and for multiple purpose studies and projects that 
include other outputs such as hydroelectric power, water supply, and 
recreation. No funds are provided to continue additional missions that, 
in the view of the Administration, should remain the responsibility of 
non-Federal interests. In addition, the budget does not fund individual 
studies and projects that are inconsistent with established policies 
governing the applicable missions.
Construction Backlog
    There is a construction backlog of about $40 billion, including 
about $26 billion to complete ongoing regular construction projects, 
about $6 billion to complete ongoing Mississippi River and Tributaries 
construction projects, and about $8 billion for projects in 
Preconstruction Engineering and Design. Available funding is directed 
toward construction of the continuing projects, and no new project 
construction starts or project-specific study starts are budgeted.
Shore Protection Policy
    The fiscal year 2002 budget presents a new Administration policy 
toward shore protection projects that involve periodic sand 
renourishment. Until now, beach nourishment projects started since 
fiscal year 1995 have not received budgetary support. However, ongoing 
shore protection projects that involve periodic renourishment and that 
are otherwise consistent with established policies are supported in the 
fiscal year 2002 budget, no matter when these projects were started, 
provided that non-Federal interests agree to pay 65 percent of the 
costs of renourishment work funded in fiscal year 2002 or thereafter. 
This increased non-Federal cost share reflects the substantial economic 
benefits that these projects provide to state and local economies and 
ensures that the Federal Government's long-term nourishment obligations 
do not crowd out other important funding needs. The existing cost 
sharing for initial sand nourishment, which is 65 percent Federal and 
35 percent non-Federal in most cases, is not affected by the new 
policy.
    The new 65 percent non-Federal cost share would apply to all 
periodic renourishment costs for which the Federal share is financed 
with funds allocated to the project after fiscal year 2001. The Army 
Corps of Engineers will develop amendments to the project cooperation 
agreements to establish the new 65 percent non-Federal cost share for 
periodic renourishment.
    In addition, beach nourishment study phases started since fiscal 
year 1995 have not received budgetary support until now. With the 
policy change, this restriction has been lifted. Project reports will 
recommend the same new cost sharing formula for the resulting projects.
    Altogether, the budget provides $82 million for beach nourishment 
projects.
Recreation User Fees
    Recreation user fees will be increased by $10 million, to an 
estimated $44 million per year. This is the first step of a four-year 
effort to increase recreation user fee receipts by a total of $25 
million per year. All of the increase in fees will be made available to 
the Corps of Engineers, without further appropriation, for operation, 
maintenance, and improvement of Corps recreation facilities. A portion 
of these increases will be accomplished by increasing day use fees, 
camping fees, annual pass fees, and special use permit fees under 
existing authority. For the other portion of the increases, we plan to 
transmit proposed legislation to Congress to authorize certain changes 
in current fee collection authorities.
General Investigations
    The budget for the Civil Works study program is $130 million. This 
funding level is intended to slow the growth of the ongoing 
construction backlog and avoid unrealistic funding expectations among 
non-Federal project sponsors. Cost-sharing sponsors, who are being 
asked to invest in these studies, expect timely construction, once 
studies and design are completed and the projects are authorized.
    No project-specific new study starts are included in the budget. 
However, policy-consistent studies that are under way will continue to 
move seamlessly from the reconnaissance phase to the feasibility phase 
and from the feasibility phase to preconstruction engineering and 
design, as they receive the necessary levels of review and approval 
within the Corps and the Army.
    The budget proposes two new national studies that will provide 
information needed by the Army and the Chief of Engineers to assess 
potential changes in Civil Works policies and procedures. The first of 
these new studies was authorized in Section 223 of the Water Resources 
Development Act of 2000 and involves a Project Monitoring Program to 
monitor the economic and environmental results of up to 5 projects 
constructed by the Corps. The budget includes $100,000 to initiate the 
monitoring program.
    The second new national study, a National Shoreline Study, was 
authorized by Section 215 of the Water Resources Development Act of 
1999 and will assess the extent, causes, and impacts of shoreline 
erosion on the coastal shores of the United States. The budget includes 
$300,000 to initiate this study.
    A number of continuing studies focus on basin-wide solutions to 
interrelated water resources problems, where the Corps of Engineers can 
be especially effective as an integrator of multi-agency efforts. These 
studies include the comprehensive studies initiated in fiscal year 2001 
for the Rio Grande River Basin, the White River Basin, and the 
Yellowstone River Basin.
    Coordination, technical assistance, and research activities also 
will be continued. Ongoing coordination of Federal estuary management 
activities will include funds to enable Army participation in the 
National Estuaries Council.
Construction, General
    The fiscal year 2002 budget for the Civil Works Construction, 
General program is $1.324 billion. Of the total, $61 million would be 
derived from the Inland Waterways Trust Fund and $9 million would be 
derived from the Harbor Maintenance Trust Fund.
    Funds are included for continuing projects that are consistent with 
established policies, including Congressional adds that have completed 
Administration review and are policy consistent. No funds are included 
to initiate construction of new specifically authorized and funded 
projects, new projects funded in the Dredged Material Disposal Facility 
Program, or new projects under the Continuing Authorities Program.
    A number of projects added to the construction program in fiscal 
year 2001 have not completed Administration review and, thus, are not 
known to be policy-consistent. Where a project report is being prepared 
during fiscal year 2001 and additional funds are needed in fiscal year 
2002 to complete the project report, the fiscal year 2002 budget 
includes the needed funds.
    The budget emphasizes the continuing, multi-agency efforts to 
restore the South Florida and Everglades ecosystem and to mitigate the 
impacts of projects on the Columbia and Snake Rivers on threatened and 
endangered salmon species.
    $139 million is budgeted for the South Florida and Everglades 
program, including $28 million for the Comprehensive Everglades 
Restoration program authorized in Title VI of the Water Resources 
Development Act of 2000, $65 million for other elements of the Central 
and South Florida project, $26 million for the Kissimmee River 
restoration, and $20 million for critical restoration projects.
    $81 million is budgeted for the salmon impact mitigation program. 
These funds are needed to comply with Biological Opinions issued by the 
National Marine Fisheries Service and the U.S. Fish and Wildlife 
Service under the Endangered Species Act, while continuing to operate 
the projects for authorized flood control, navigation, and 
hydroelectric power purposes. Potentially conflicting requirements of 
the Endangered Species Act and the Clean Water Act also must be 
reconciled.
    The budget provides $88 million for planning, design, and 
construction of projects under the Continuing Authorities Program. 
These are small projects for flood damage reduction, navigation, beach 
erosion control, shore and streambank protection, navigation project 
impact mitigation, clearing and snagging, aquatic ecosystem 
restoration, beneficial uses of dredged material, and project 
modifications for improvement of the environment.
Flood Control, Mississippi River and Tributaries
    The budget includes $280 million for the Mississippi River and 
Tributaries program. The budget targets funds to high priority flood 
damage reduction projects, which are on the mainstem of the Mississippi 
River and in the Atchafalaya River Basin, Louisiana.
Operation and Maintenance, General
    The overall budget for the Operation and Maintenance, General, 
account is $1.745 billion. Of this amount, $666 million would be 
derived from the Harbor Maintenance Trust Fund and $29 million would be 
derived from Special Recreation User Fees.
    In addition to these funds, operation and maintenance of hydropower 
facilities in the Pacific Northwest will be directly financed by a 
transfer of approximately $114 million from Bonneville Power 
Administration revenues, pursuant to an agreement signed four years 
ago.
    Among port and harbor and inland waterway projects, recreational 
shallow-draft harbors and low commercial-use inland waterway segments 
are de-emphasized so that scarce resources can be available for 
navigation facilities with higher commercial use, as well as for other 
project purposes.
    Operation and maintenance funds for shallow draft harbors are 
limited to $47 million. These are harbors that have authorized depths 
of 14 feet or less. Among shallow draft harbors, the subsistence 
harbors for isolated communities and the harbors that involve higher 
use for commercial cargo and commercial fishing are emphasized, while 
the harbors that are essentially recreational in nature are de-
emphasized.
    The budget includes $42 million for operation of low commercial-use 
inland waterways, that is, inland waterways with less than 1 billion 
ton-miles of traffic per year. Funds for maintenance of low commercial-
use inland waterways are limited to $25 million for maintenance 
dredging, and the dredging funds are targeted at the waterway segments 
with relatively higher commercial use. No funds are requested for 
structural maintenance on the low-commercial use inland waterways.
    As always, funds will be reprogrammed as necessary for emergencies, 
such as to protect human health and safety, to perform emergency 
repairs, or to perform emergency dredging of shoaled-in waterways.
Regulatory Program
    The budget for the Regulatory Program is $128 million, an increase 
of $3 million over the fiscal year 2001 amount for labor cost 
increases. These funds are needed to help maintain program performance, 
protect important aquatic resources, and support partnerships with 
states and local communities through watershed planning efforts. These 
funds will be used for permit evaluation, enforcement, administrative 
appeals, and studies and environmental impact statements, in order to 
provide effective regulation of the Nation's waters and wetlands.
Formerly Utilized Sites Remedial Action Program (FUSRAP)
    FUSRAP is an environmental cleanup program that was transferred by 
Congress from the Department of Energy to the Army in fiscal year 1998. 
We are continuing to implement needed clean-up at contaminated sites. 
This year's budget includes $140 million in new appropriations for this 
program.
Flood Control and Coastal Emergencies
    Funding that remains available from prior year appropriations is 
sufficient to fund normal program activities during 2002. In order to 
finance responses to emergencies that may arise during the year, the 
Administration is proposing a government-wide emergency reserve fund. 
Civil Works is one of the programs that will be able to tap this 
proposed nation-wide emergency reserve fund, in the event that response 
costs for qualifying emergencies exceed available funds.
General Expenses
    Funds budgeted for the General Expenses program are $153 million. 
These funds will be used for executive management and direction 
activities of the Corps of Engineers headquarters, the Corps Division 
headquarters, and related support organizations.
    Among these funds, $1.8 million will be used to continue the 
management study authorized by section 216 of the Water Resources 
Development Act of 2000. This study, which is being initiated in fiscal 
year 2001, is examining Corps of Engineers planning and review 
procedures.
Harbor Maintenance Trust Fund
    The President's fiscal year 2002 budget proposes that $675 million 
be derived from the Harbor Maintenance Trust Fund, including $666 
million in the Operation and Maintenance, General program for harbor 
maintenance, and $9 million in the Construction, General program for 
the addition of dredged material disposal facilities at existing 
projects.
                 government performance and results act
    A performance plan is in preparation for the Army Civil Works 
program, based on the fiscal year 2002 budget. After completion of 
Administration review, the plan will be submitted to the Congress, as 
required by the Government Performance and Results Act of 1993.
    In fiscal year 2002, we plan to maintain high use commercial 
navigation facilities in a fully operational state at least 90 percent 
of the time, maintain flood damage reduction facilities in a fully 
operational state at least 95 percent of the time, and achieve ``no net 
loss'' of wetlands by creating, enhancing, and restoring wetlands 
functions and values that are comparable to those lost.
                      project planning and review
    The Army is working closely with the Chief of Engineers and others 
to identify opportunities to strengthen the Civil Works planning 
process. In addition, as indicated in the President's Budget Blueprint, 
the Army is considering options for strengthening the ability of the 
Office of the Assistant Secretary for Civil Works to ensure policy 
oversight of project planning. Already, General Flowers and I have 
restored the past practice of concurrent, vertical involvement at all 
organizational levels--including the Office of the Assistant 
Secretary--at critical steps in the formulation of studies.
                               conclusion
    In summary, the President's fiscal year 2002 budget for the Army 
Civil Works program is a solid one. It continues support to ongoing 
work, emphasizes primary missions and applies resources to areas likely 
to have the greatest national economic benefit. The Army Civil Works 
program is a wise investment in the Nation's future.
    Thank you.

    Senator Domenici. General, would you proceed? We want to 
thank you for your testimony earlier in the year, when you 
appeared before the Environment and Public Works Committee. We 
know what went on there, and we thank you for your statement. 
And would you proceed to summarize yours for today, please? We 
will make yours a part of the record, as if you read it.

           STATEMENT OF LIEUTENANT GENERAL ROBERT B. FLOWERS

    Lieutenant General Flowers. Yes, sir.
    Mr. Chairman, members of the subcommittee, thanks for 
inviting me back to testify. I have a prepared statement, and I 
have furnished that and ask that it be made a part of the 
record.
    Senator Domenici. Yes, sir.
    Lieutenant General Flowers. Sir, as I speak, our Nation is 
witnessing yet another flood fight in the upper Midwest. 
Farmers, homeowners, small business owners, members of the 
National Guard, and others are filling sandbags, building and 
reinforcing levees, and taking other actions to protect life 
and property.
    You have seen the state and local officials, if you have 
watched TV, who are responsible for public safety, as they 
direct those efforts to protect homes and livelihoods. What you 
have not seen so much of is another group of men and women who 
are supporting these citizens and their local leaders. They 
tend to wear red emergency operations jackets of the U.S. Army 
Corps of Engineers. And they have been working behind the 
scenes----
    Senator Reid. Mr. Chairman, if I could ask a question?
    Senator Domenici. Sure.
    Senator Reid. I heard on the news today--I was very 
impressed with the fact that President Bush had sent somebody 
along the Mississippi, rather than with a bundle of money, 
saying, ``Why do you let this happen all the time? This is the 
third flood. Should we not be doing something about that?''
    What is your reaction to that?
    Are you familiar with that, Senator Domenici?
    Senator Domenici. No, I am not.
    Senator Reid. I heard that on the radio this morning, that 
he sent his director of Federal Emergency Management Agency, 
where they have had--I think this is the fourth flood in the 
last 15 years. And he is saying, ``Why have you not done 
something about this?''
    Lieutenant General Flowers. Yes, sir. The----
    Senator Reid. He is in Iowa. Are you familiar with it?
    Lieutenant General Flowers. Sir, it was in Davenport, Iowa. 
I was there on----
    Senator Reid. That is right.
    Lieutenant General Flowers. I was there on Sunday. It is 
always a local decision as to whether or not to cost share and 
to build flood control. And there was a conscious decision made 
on the part of the city fathers, because of the nature of their 
waterfront, to not construct flood control protection for their 
city.
    Senator Reid. But do you not think the President may have 
had a good idea?
    Lieutenant General Flowers. Sir, I think--again, it is a 
very tough decision to make. When you decide not to have flood 
control, you end up in a flood fight the way the citizens there 
have. And it has been pretty courageous, where they have had to 
build temporary levees, working around the clock. And in fact, 
when I was there on Sunday, they lost their baseball stadium.
    Senator Reid. But my question is--and I am sorry to do 
this, Senator Domenici----
    Senator Domenici. That is fine.
    Senator Reid. But should the people of Nevada, the 
taxpayers in Nevada, be paying for this because the people in 
Iowa decided not to build a----
    Lieutenant General Flowers. Sir, that is pretty much a 
policy call. But you are right.
    Senator Domenici. Oh, good.
    Lieutenant General Flowers. Asking people to maybe pay for 
the same piece of property that has been flooded time and time 
again is not a wise use of the tax dollars.
    Senator Domenici. Well, let me comment. You see, the 
Administration comes up here, and, you know, I am very 
supportive of the President. But I like, when I feel like it, 
to say what I think. Now here you have a community that 
probably thought the 65-35 was a little bit too expensive for 
them. Whether they are right or wrong, I do not know. It would 
seem like a good case has been made that you ought not suffer 
through it three times. You ought to vote for some money and 
eliminate the flood hazard.
    But the Administration comes up here with these kinds of 
situations all over America, and they want to change the ratio 
and turn it around to 35-65. I just want to say that is a neat 
proposal. I am not sure how many times we have seen it here, 
but I look over and I see Senator Byrd, and I think this will 
be my third time in his presence where I have said that is not 
going to happen; why do you keep sending it up?
    But I say that now, and I say it in all deference and with 
goodwill. But, you know, you are not going to get that change. 
And if anybody in the Administration would have been looking, 
you would find that those who do OMB's work here send this up 
all the time, Senator Cochran. And it never happens. So I do 
not know why they would have expected that we would do it.
    And I want to comment on one other further item. The amount 
of money cut out of the Corps is $600 million. Now I have been 
looking from the previous year. I look at how did budgets come 
about in the past. And it is interesting. My mind locks in on a 
number.
    On average, every President for the last eight or nine 
years has reduced the Corps of Engineers $700 million. And on 
average, before we are finished, we put all the $700 million 
back and perhaps $50 million or $60 million more.
    Now I think it is good that you send up here and tell us 
how to save all this money. But I think when they ask me at the 
White House why is the budget unrealistic at four-percent 
growth, which I just went through, well, here is one I cite. 
What do you send us up, this $600 million decrease, and suggest 
that we are going to live with four-percent growth, which 
includes this decrease? And, you know, it is kind of 
unrealistic, also, to expect it.
    So if I feel from time to time that we need to be more 
realistic, my friends up here will appreciate that I have been 
through it so many times. I do not know when we will stop 
getting it sent up here only to see us say, you know, it does 
not make too much sense.
    So I am sorry. That is my principal comment on your 
testimony.
    And, General, we interrupted you. Would you try to finish 
your statement? And I understand the two other gentlemen do not 
have statements. So we will get through and have question time. 
Go ahead, General.
    I did not mean to make it so brief that there is no 
statement at all.
    Senator Reid. General, that is the best statement I have 
heard all day.
    Lieutenant General Flowers. Sir, the only thing I would 
like to say to summarize the statement is that the Nation's 
infrastructure--is the Army Corps of Engineers has produced a 
26 percent annual rate of return and has put $30 billion in tax 
revenues and savings into the Treasury. And I think that 
confirms my belief that the American people have invested 
wisely in our Nation's investment in water resources 
infrastructure.
    We are working hard to respond to the call. Our population 
has increased. Our infrastructure is aged. Our investment in 
water resources has decreased. Today we have a $40 billion 
backlog of authorized but unfunded new capital investment that, 
when implemented, will provide benefits to the American people.
    Our critical maintenance backlog amounts to over $800 
million. And as this infrastructure ages, costs go up. The 
story continues to worsen with future projections. In a report 
card recently released by the American Society of Civil 
Engineers, the Nation's navigable waterway infrastructure 
received a D+.
    Have we paid enough attention to the future? Our answer 
would be no. We have also heard that same answer from people 
across the country, concerned stakeholders from all walks of 
life that we went out and listened to and captured their 
concerns last year.
    Finally, seeing our men and women in action on Sunday on 
the Upper Miss, I am more firmly convinced than ever that your 
Army Corps of Engineers has a critical contribution to make in 
solving our country's problems today and in the future. Ours is 
an organization that has built flexibility into structure to 
meet the changing demands of changing times and requirements.

                           PREPARED STATEMENT

    We strive to bring synergy between development and the 
environment and seek out the best economic, environmental and 
social solutions. We will tackle the tough jobs. I am proud 
that our Nation looks to us when it needs the best.
    And, sir, that concludes my statement.
    [The statement follows:]

       Prepared Statement of Lieutenant General Robert B. Flowers

                              introduction
    I am honored to be testifying to your subcommittee today, along 
with the Deputy Assistant Secretary of the Army (Management and 
Budget), Ms. Claudia L. Tornblom, on the President's fiscal year 2002 
Budget for the United States Army Corps of Engineers' Civil Works 
Program.
    I am proud of my association with this program, first as a field 
engineer and research project manager for the Portland District, then 
as commander of the Mississippi River Valley Division, and, since 
October, as Chief of Engineers. I am especially honored to have the 
opportunity to lead the Corps through its current challenges to serve 
this great nation in meeting its many water and related land resources 
management needs.
    Thanks to this subcommittee's support, the Civil Works Program 
remains strong, balanced, responsive, and highly productive. I look 
forward to working with you in furtherance of our partnership in 
prosecuting this fine program, so broadly beneficial to our nation.
    In this statement, I will focus on significant challenges for the 
nation in water and related land resources management. I will say just 
a few words about the budget, then devote the balance of my testimony 
to an assessment of national water and related land resources 
management needs. Accordingly, my statement covers just these two 
topics:
  --Summary of the Civil Works Program Budget, and
  --Assessing the Nation's Needs for Water and Related Land Resources 
        Management.
                 summary of civil works program budget
                              introduction
    This is a good budget. New funding for the Civil Works Program, 
including the Direct and Reimbursed programs, is expected to approach 
$5.11 billion.
    As shown in Table 1, Direct Program funding, including 
discretionary and mandatory amounts appropriated directly to the Corps, 
totals $4.41 billion. Discretionary amounts total $3.90 billion; 
additional amounts total $514 million.
    Reimbursed Program funding is projected to be $700 million.
                             direct program
    The proposed budget reflects the Administration's commitment to 
continued sound development and management of the nation's water and 
related land resources. It provides for continued efficient operation 
of the nation's navigation, flood protection, and other water resource 
management infrastructure, fair regulation of the nation=s wetlands, 
and restoration of the nation's important environmental resources, such 
as the Florida Everglades. It is consistent with the President's 
overall domestic priorities and continued commitment to a balanced 
budget.
    The budget provides for continued funding of nearly all studies and 
projects underway, including many started in fiscal year 2001. It also 
provides for funding of two new starts under the General Investigations 
(GI) program.
                           reimbursed program
    Through the Interagency and Intergovernmental Support Program we 
help non-DOD federal agencies, States, and other countries with timely, 
cost-effective implementation of their programs, while maintaining and 
enhancing capabilities for execution of our Civil and Military Program 
missions. These customers rely on our extensive capabilities, 
experience, and successful track record. The work is principally 
technical oversight and management of engineering, environmental, and 
construction contracts performed by private sector firms, and is fully 
funded by the customers.
    Currently, we provide reimbursable support for about 60 other 
federal agencies and several State and local governments. Total 
reimbursement for such work in fiscal year 2002 is projected to be $700 
million. The largest share--nearly $270 million--is expected from the 
Environmental Protection Agency (EPA) for cleanup of wastes at numerous 
sites under its Superfund program. 90 percent of Reimbursed Program 
funding is provided by other federal agencies.
   assessing the nation's needs for water and related land resources 
                               management
                              introduction
    Water and related land resources play major roles in how Americans 
live and work. There are many competing and conflicting demands on use 
of these limited resources. When, where, how, to what extent, by whom, 
and by what means should the demands be addressed? Over the years, the 
Corps has employed various means to gather information for use in 
defining and understanding national water and related land resource 
management issues. Recently, it has employed ``Listening Sessions'' to 
improve the accuracy, currency, and relevancy of its information.
                  initial assessment of circumstances
    Last year, through assessment of trends and results of research, 
literature searches, and consultations with selected water and related 
land resource management experts, we concluded that the nation is 
facing important water and related land resources management challenges 
with serious implications. We made the following observations and 
interpretations:
  --As the world's climate changes, changing hydrology and water 
        distribution and, in turn, environmental and socioeconomic 
        conditions, we must anticipate need for changes in and 
        additions to the nation's water and related land resources 
        management facilities, systems, and practices, and effect such 
        changes as opportunely as feasible.
  --As global markets expand, international commerce will demand more 
        efficient domestic ports and harbors, and improved vessel and 
        intermodal cargo handling facilities.
  --With many properties and major populations located in the nation's 
        floodplains, flooding will continue to threaten national 
        welfare. Moreover, as pressures continue to develop, flood-
        prone lands and natural flood management systems will be 
        compromised, and the threat of flood damage will increase.
  --Ongoing migration of the nation's population to coastal plains and 
        coasts, and attendant property development, will increase risks 
        of loss from coastal erosion, floods, and hurricanes.
  --The ongoing migration to coastal plains and coasts will put 
        increasing pressure on coastal habitat, especially wetlands, 
        and other fish and wildlife ecosystems.
  --Through Water Resources Development Acts of 1996 and 1999 (WRDA 96 
        and WRDA 99), the American public placed national environmental 
        health in the forefront of social priorities. These acts, 
        providing additional authorities to the Corps for ecosystem and 
        watershed protection and restoration, increase emphasis on 
        national need for ecosystem restoration, wetlands management, 
        and nonstructural floodplain management.
  --As the nation's water and related land management infrastructure 
        ages, it must be rehabilitated, modified, replaced, or removed.
  --As the nation's population grows, there will be growing conflicts 
        among multiple interests within watersheds wanting to use 
        available water and related lands for diverse needs.
  --The American public has a strong and growing interest in downsizing 
        the Federal Government and, in turn, its workforce. In light of 
        this, ongoing outsourcing and privatizing for accomplishment of 
        government work, including engineering, will increase. An 
        implication of this is that the nonfederal sector, comprising 
        States and private interests will have to share greater 
        responsibility in water and related land resources management.
                 challenges based on listening sessions
    In light of these observations, particularly, the last one, the 
Corps invited Americans to ``Join the Dialogue'' about management of 
the nation's water and related land resources.
    The purpose of the dialogue was twofold, specifically, to provide 
opportunities for citizens to:
  --identify and discuss water and related land resources management 
        needs, opportunities, and problems impacting their lives and 
        future sustainability of their communities and environments; 
        and,
  --express what they believe the federal role should be in addressing 
        these issues.
    This dialogue was carried on from June through November 2000 in 16 
listening sessions--14 regional and two national--at locations across 
the country. A cross-section of stakeholders, totaling nearly 1,300, 
participated in the sessions. This included representatives from 
federal, State, and local agencies, tribes, environmental 
organizations, port authorities, private companies, legal 
professionals, farmers, navigators, journalists, and homeowners. The 
sessions were open to the public and comprised a combination of small 
group and plenary sessions. Corps participation generally was limited 
to note taking. Consensus on water resources issues was not sought.
    Detailed reports on each session are available at the web site of 
our Institute for Water Resources. We invite you to read them, 
particularly our summary report: America's Water Resource Challenges 
for the 21st Century: Summary Report on Identified Water Resource 
Challenges and Water Challenge Areas. Views expressed in this document, 
although not reflecting official policies or positions of the Corps, 
nevertheless, and importantly, accurately reflect views of the 
participants. This information will be used in dialogue on water and 
related land resources challenges in the future. Significantly, we have 
already used it in developing goals and strategies for our Civil Works 
Program Strategic Plan.
    Participants in the listening sessions identified more than 3,400 
water and related land resources management issues and grouped them 
into sets of challenges, forming 30 to 50 sets at each regional 
session, and 542 sets all told. We then distilled these sets into 18 
for the above-cited report, and, ultimately, into 10.
    Solutions to these challenge sets are complex and will require the 
concerted effort of many government organizations, at all levels, 
working for the collective good of the nation. Moreover, optimal 
solutions will require involvement and participation of all Americans. 
The more, the better.
                               conclusion
    The President's Budget for the Corps of Engineers is a good one. We 
must continue to find ways to reduce our costs and shift more of those 
remaining to direct beneficiaries of our services. Meanwhile, we will 
do our very best to execute the Civil Works Program for maximum benefit 
to the nation.
    Thank you Mr. Chairman and Members of the Committee. This concludes 
my statement.

    Senator Domenici. We will now start the questioning.
    Senator, we will go to your side first. And then we will go 
to you, Senator, on our side, and back to Senator Byrd.
    Senator Reid. We are, General Flowers, familiar with power 
shortages being experienced in the country, particularly in the 
West. Are there investments we could be making in the Corps' 
projects that could contribute to solving the Nation's growing 
energy crisis?
    Lieutenant General Flowers. Sir, yes, sir. We have 
locations around the country where additional units could be 
put into powerhouses that are already constructed.
    Senator Reid. Could you give us some examples?
    [The information follows:]

    We have conducted previous assessments that indicated a total 
potential increase in generating capacity of approximately 3,000 MW 
exists. This could be achieved through a combination of improvements to 
existing equipment and installation of power generating units at 
facilities that currently do not include hydropower. On our dams, some 
of our dams in the Columbia River system, we have consciously left bays 
empty that could contain turbines. Examples include the Dworshak 
Project in Idaho, the Libby Project in Montana, the John Day project in 
Oregon, and other projects located throughout the country such as Fort 
Gibson in Oklahoma. The assessments referred to above were completed in 
the 1980's and are in need of updating to reflect new environmental 
considerations work that is already underway or completed.

    Lieutenant General Flowers. Yes, sir. On our dams, some of 
our dams in the Columbia River system, we have consciously left 
bays empty that could contain turbines. We also have some 
hydroelectric projects that are part of that critical 
maintenance backlog that I spoke of earlier, where hydro-power 
is not operating at its peak efficiency. And if those were 
fixed, we would be able to do that.
    The name of the project that comes to mind, I believe, is 
the Clayton project--Carter. Sorry.
    Senator Reid. It started with a C.
    Lieutenant General Flowers. Yes, sir.
    Senator Domenici. Well, if you would like to have somebody 
answer with other examples, we do not hold you to this.
    Senator Reid. Yes.
    Senator Domenici. And would it be all right, Senator, if 
they submit additional examples?
    Senator Reid. Yes. I would appreciate, General, if you 
would, in your 10 days that Senator Domenici has indicated, 
respond to these questions. Give us an indication of the places 
you could upgrade and approximately how much it would cost. 
Because we are really looking for new ways to produce 
electricity. And hydroelectric, as we all know, is really non-
polluting. So we would appreciate you doing that.
    [The information follows:]

    The project referred to above is the Carters project in Georgia. 
This project has experienced major equipment failures that are in the 
process of being repaired using O&M funds. Repair of these units is a 
very high priority within the region.
    The Corps also has a very effective major rehabilitation program 
for it's hydropower facilities. This program is a direct result of 
studies done by the Corps in the late 1980's in recognition of our 
aging infrastructure and growing backlog of maintenance. Two projects, 
Hartwell in Georgia and South Carolina, and Dardannelle in Arkansas 
have already been rehabilitated under this program.
    Eight other projects, Bonneville and The Dalles in Oregon and 
Washington, J. Strom Thurmond in Georgia and South Carolina, Jim 
Woodruff in Florida, Walter F. George in Alabama and Georgia, Buford in 
Georgia, Garrison in North Dakota, and John H. Kerr in Virginia are in 
various stages of rehabilitation construction.
    Two more projects, Allatoona in Georgia and Ozark in Arkansas have 
been technically approved for rehabilitation and are awaiting new start 
funding. The cost of these projects are completely reimbursed by the 
rate payer through the various power marketing administrations.
    Major Rehabilitation reports on three hydropower projects, Webbers 
Falls in Oklahoma, Center Hill in Tennessee, and Whitney in Texas are 
currently being reviewed by our headquarters. Three additional projects 
are currently being evaluated for major rehabilitation. These projects 
are Wolf Creek in Tennessee, Fort Randall in South Dakota and Barkley 
in Kentucky.
    Within the last year, the Corps' Southwestern Division formed a 
Process Action Team to look at rehabilitation of all of the Corps 
hydropower plants that are marketed by the Southwestern Power 
Administration. This team has made recommendations for prioritizing the 
work and streamlining the rehabilitation reporting, approval and 
funding process.
    Finally, in the Pacific Northwest, all of the capital improvements 
are funded directly by the Bonneville Power Administration. BPA and the 
Corps have a joint operating committee that have prioritized these 
improvements over the next ten year period.
    In summary, the Corps has been aggressively working for over a 
decade at improving the reliability of these aging hydropower 
facilities, taking advantage of opportunities to improve efficiency and 
output and reduce operating and maintenance costs.

    Senator Reid. General, I know that the Corps is currently 
responding to the flooding situation in the Midwest, as you 
have indicated already. Without a supplemental appropriation, 
how will your emergency response actions be impacted?
    Lieutenant General Flowers. Sir, we had enough money in the 
account at the beginning of the year to, we thought, last us 
through the year. We have spent about $6 million, I believe, 
out of the FCCE account so far on the flooding in the upper 
Midwest. And I think we still have enough left in the account, 
if we have another event someplace in the country. But more 
than that, we will need to come back with a request for 
additional funds.
    Senator Reid. And you do not know the end of the present 
emergency, is that right?
    Lieutenant General Flowers. Unfortunately not, sir, no.
    Senator Reid. Now, General, the Corps held listening 
sessions throughout the country last year in order to determine 
the views of the public on a number of issues that this 
committee is concerned about. What were the results of these 
listening sessions? And how would you incorporate these views 
into your policies and procedures?
    Lieutenant General Flowers. Sir, we heard a great deal from 
the listening sessions that we held around the country. They 
have been summarized in a document that is on our website. We 
have also provided a summary sheet, summary pamphlet, of the 
comments that we have received. And we did our best to 
incorporate everything we heard in a strategic plan that was 
developed by our civil works director, which is now being 
staffed through the department and to OMB.
    Senator Reid. Can you provide the committee with copies of 
the strategic plan?
    Lieutenant General Flowers. Sir, we will work to do that.
    Senator Reid. It is completed.
    Ms. Tornblom. No, Senator, it is not completed. We are in 
discussions with the Office of Management and Budget at this 
time. And just a few days ago----
    Senator Reid. It is completed. They just have not given you 
permission to release it, is that right?
    Ms. Tornblom. It is a draft, sir. And I believe the new 
Army leadership, the Secretary and the Assistant Secretary for 
Civil Works, would want the opportunity to review it and make 
sure they are comfortable with it before it is publicly 
released.
    Senator Reid. One last question, Chairman Domenici.
    What would be the impact to the cost and schedule of 
ongoing projects if the President's budget were enacted as 
proposed? It is over $600 million lower than what we have 
required. For these projects budgeted in the President's 
proposal, are they funded to the optimal level to begin with? 
Do you understand the question?
    Lieutenant General Flowers. Yes, sir.
    Senator Reid. And I guess I would partially answer it 
myself. It is obvious if you do not fund them at present 
levels, the cost goes up in the out years. Is that true?
    Lieutenant General Flowers. Sir, what happens, what we have 
estimated, based on the 2002 budget, is that we will have about 
$5.8 billion in benefits that are foregone and about another 
$0.5 billion in additional costs, mostly interest. And the 
average delay on a project would be about 10 months.
    What you end up doing with ongoing work is funding at about 
57 percent. That is across the board. Some are higher, some are 
lower. But a conscious decision was made to continue the work 
that is already ongoing. It is funded at about 57 percent. So 
yes, sir, it does stretch it out. The average delay is about 10 
months, and it is a little over $600 million in cost.
    Senator Reid. Thank you, Mr. Chairman.
    Senator Domenici. Senator Cochran.
    Senator Cochran. Mr. Chairman, I have a statement and some 
questions I am going to submit for the record.
    I do have one question I want to ask you, though. Is the 
Mississippi River and Tributaries project still one of the 
largest projects that you have in terms of dollar cost 
requirements each year in your budget?
    Lieutenant General Flowers. Yes, sir.
    Senator Cochran. In that connection, I have not looked at 
the details of the budget submission, but I assume that there 
are cuts in that program, as well as some of the others that 
you have submitted in your budget. Is that right?
    Lieutenant General Flowers. Yes, sir.
    Senator Cochran. Does this heighten the level of potential 
damage to people who live and work along the Mississippi River 
and the homes and the farms that lie along the river?
    Lieutenant General Flowers. Sir, in the current budget, 
priority was placed on projects along the main stem of the 
Mississippi River. So there is probably some increased risk to 
those who are on the tributaries.
    Senator Cochran. And is it not also a fact that the levee 
system on the main stem of the Mississippi River is subject to 
erosion, deterioration, and aging that heightens the risk of 
loss of life and property in case of flooding like you are 
having on the Upper Mississippi right now?
    Lieutenant General Flowers. Yes, sir.
    Senator Cochran. I have no further questions, Mr. Chairman.
    Senator Domenici. Thank you very much, Senator.
    Senator Byrd?
    Senator Byrd, I am going to go back and take a picture with 
some constituents, but I will return before you are finished.
    Senator Byrd. Very well. Thank you.
    General Flowers, I believe our last discussion was about 
Hannibal. And he said, ``If there isn't a way across the Alps, 
I'll make one. I'll make one.''
    Lieutenant General Flowers. Yes, sir.
    Senator Byrd. He must have been the original army engineer, 
would you not say?
    Lieutenant General Flowers. Sir, I would say so.
    Senator Byrd. In short, I want to convey my strong 
disappointment in the Administration's disproportionate and 
severe proposed budget cuts to the Corps.
    The water infrastructure investments and navigation and 
flood control by the Army Corps of Engineers produced an annual 
rate of return, as you have just pointed out, of approximately 
26 percent. And yet, the Administration has decided to cut the 
Corps from between 15, 16 percent from last year's level.
    The Administration has proposed a budget that is woefully 
inadequate to continue the progress made in fiscal year 2001. 
Projects important to the Congress were omitted from this 
budget proposal. And the projects that the Administration chose 
to fund are funded at much less than optimal levels. The 
Administration's budget proposal will cause serious increases 
to both the schedule and the cost of thousands of urgently 
needed projects due to inadequate funding.
    The fact that no new studies or projects are proposed is 
incredibly short-sighted. In a time of budget surpluses, if we 
cannot afford to invest in our water resources, when can we 
ever afford to do it? The Nation has tremendous water resource 
needs. And this budget is a far cry from meeting those needs.
    In West Virginia, there are numerous navigation and flood 
control needs. I want to ask you, General Flowers, about two in 
particular, the Marmet Locks Expansion project and the London 
Locks Rehabilitation project. And I have a series of questions 
that I will submit for the record.
    But I will begin with this. With respect to the Marmet 
Locks and Dam located on the Kanawha River, ten miles upstream 
from Charleston, the project entails constructing a new lock 
chamber landward of the existing locks, which are too small to 
handle the increased traffic, part of which is attributed to 
the Clean Air Act amendments and the increased demand for low 
sulphur coal and an increase in barge size.
    Which lock in the United States, General Flowers, is the 
most heavily used lock?
    Lieutenant General Flowers. Sir, I would guess the Marmet 
Lock.
    I know it to be the Marmet Lock, sir.
    Senator Byrd. You guess that? Alexander, upon his return 
from India, was urged by the Chaldeans to delay his entrance 
into Babylon. And Alexander, in light of all the prophesies and 
the predictions that were being made, said, ``The best prophet 
is he who can guess right.''
    You guessed right.
    Lieutenant General Flowers. I am sure he was an engineer, 
yes, sir.
    Senator Byrd. Does the Marmet Lock replacement have a 
strong benefit cost ratio?
    Lieutenant General Flowers. Yes, sir, it does.
    Senator Byrd. What is it?
    Lieutenant General Flowers. Four to one, sir.
    Senator Byrd. 4.1 to 1, right? The Marmet Locks and Dam are 
67 years old. What impact does this have on transportation and 
the safety of those working at the locks in the barge industry 
and on area residents?
    Lieutenant General Flowers. Sir, the impact by not 
replacing a structure that has outlived its life can be very 
severe. It is pretty tough to quantify. I would tell you that 
some tough calls have to be made when you are doing the 
budgeting process. And we are working hard to try and make the 
best possible use we can of the dollars that are available. Had 
we the dollars, we would have put more into the Marmet Lock. 
The amount that is being applied will stretch out the 
construction times.
    Senator Byrd. When locks are deteriorating, and I assume 
they are at Marmet, could this result in a variety of 
disasters?
    Lieutenant General Flowers. Yes, sir, there is that 
potential.
    Senator Byrd. When are the lock chambers projected to meet 
maximum capacity?
    Lieutenant General Flowers. I believe that year is 2005, 
sir.
    Senator Byrd. Is there potential for the same type of 
delays which average 32 hours per transit and a number of 
accidents prevalent at the former Gallipolis Locks and Dam on 
the Ohio River prior to the replacement of the locks and the 
rehabilitation of the dam? Is there a potential for the same 
kinds of delays?
    Lieutenant General Flowers. Yes, sir, there is.
    Senator Byrd. What improvements will be realized with the 
completed new lock at Marmet?
    Lieutenant General Flowers. Well, you will have improved 
public safety, greater potential for throughput through the 
lock and dam. I think those are probably the two major 
benefits. And time savings, no delays.
    Senator Byrd. What would you estimate that the improvements 
at Marmet would bring about with respect to the average transit 
time of 4.7 hours to .8 hours?
    Lieutenant General Flowers. Yes, sir.
    Senator Byrd. Would you?
    Lieutenant General Flowers. .8 hours.
    Senator Byrd. From 4.7 to .8 hours. That would be the 
average transit time. And at current traffic levels, what does 
this mean in terms of hours of trip time savings?
    Lieutenant General Flowers. 10.5 thousand hours I am told, 
sir. That is a significant amount--16.5 thousand, sir.
    Senator Byrd. 16.5 thousand hours of trip time savings. And 
for more than 4,000 tows that use the project, is that correct?
    Lieutenant General Flowers. Yes, sir.
    Senator Byrd. Does the Corps have a capability to proceed 
with construction in fiscal year 2002?
    Lieutenant General Flowers. Yes, sir, we do.
    Senator Byrd. Then how could the Administration be so 
short-sighted as to not include construction funds in the 
budget, given all that has just been reported on the need to 
expand this critical navigation project? What level of funding 
would be needed to proceed with the construction?
    Lieutenant General Flowers. Sir, the decision on the amount 
in the budget, I understand, was based, is based, on us trying 
to keep all the projects that are currently under construction 
going. Currently budgeted for $6.2 million is fiscal year 2002 
for Marmet Lock, and we have a capability of $28.1 million.
    [The information follows:]

    Although project and study capabilities reflect the 
readiness of the work for accomplishment, they are in 
competition for available funds and manpower Army-wide. In this 
context, the fiscal year 2002 capability amounts shown consider 
each project or study PY itself without reference to the rest 
of the program. However, it is emphasized that the total amount 
proposed for the Army's Civil Works Program in the President's 
budget for fiscal year 2001 is the appropriate amount 
consistent with the Administration's assessment of national 
priorities for Federal investments. In addition, the total 
amount proposed for the Army's Civil Works Program in the 
President's Budget is the maximum that can be efficiently and 
effectively used. Therefore, while we could utilize additional 
funds on individual projects and studies, offsetting reductions 
would be required in order to maintain our overall budgetary 
objectives.
    Hereafter, this statement is referred to as ``the usual 
qualifications.''

    Senator Byrd. Will the under-funding of the project cause 
an increase in the project cost to complete? And if so, by how 
much?
    Lieutenant General Flowers. Yes, sir, it will. $260 million 
to $313 million.
    Senator Byrd. Now what do you mean when you say that?
    Lieutenant General Flowers. That will be the total amount 
of dollars that will have to be spent to complete the project 
with this current delay.
    Senator Byrd. Are you saying that each year of under-
funding creates an increase in the project cost by the delays 
in the construction schedule?
    Lieutenant General Flowers. Yes, sir.
    Senator Byrd. And since the project was authorized in the 
1996 WRDA, the fully funded cost of the project has increased 
from $260 million to the present estimate of $313 million? Is 
that what you are saying?
    Lieutenant General Flowers. Yes, sir.
    Senator Byrd. Does the budget provide sufficient funds to 
finish the real estate acquisition process?
    Lieutenant General Flowers. Yes, sir. I am told--it does 
not. It does, but at a slower pace. Yes, sir.
    Senator Byrd. It does, but at a slower pace.
    Lieutenant General Flowers. Right.
    Senator Byrd. Well, what would be the new time frame, then, 
for completing real estate acquisition?
    Lieutenant General Flowers. Sir, March 2003 now.
    Senator Byrd. That would be the new time frame, March 2003.
    Lieutenant General Flowers. Yes, sir.
    Senator Byrd. Instead of?
    Lieutenant General Flowers. The original schedule was to be 
completed in fiscal year 2002.
    Senator Byrd. The owners of the 250 homes and businesses in 
Bell that will be acquired for the lock expansion project have 
had their social and economic lives severely impacted by the 
impending government acquisition of their property. Although 
the Corps has acquired about 150 of 250 properties needed for 
the project, the remaining residents will continue to feel the 
adverse effects of the project until completion of their 
acquisition.
    So this means that decisions on schools for the children, 
repairs, maintenance on their homes and businesses, medical 
services and other livelihood issues will continue to be 
extremely difficult until the acquisition program is completed.
    If the Corps' full capability of $28.1 million is secured, 
would the Corps be able to complete real estate acquisition and 
begin construction of the new lock then?
    Lieutenant General Flowers. Yes sir.
    Senator Byrd. Now if I may turn briefly to the London Locks 
Rehabilitation, Mr. Chairman, this will complete my questions.
    What is the benefit cost ratio of the London Locks 
Rehabilitation project?
    Lieutenant General Flowers. It is about 25.5 to 1, sir.
    Senator Byrd. And coal is the primary commodity transiting 
the London Locks, I believe.
    Lieutenant General Flowers. Yes, sir.
    Senator Byrd. Are there additional Corps capabilities for 
this project for fiscal year 2002 above those identified in the 
President's budget?
    Lieutenant General Flowers. Yes, sir. The budget 
recommended $4.3 million, and we have a capability of $8.7 
million on that project.
    Senator Byrd. What is the urgency in the Corps' receiving 
full capability funding in fiscal year 2002, especially with 
respect to the lock closure and the condition of the lock wall?
    Lieutenant General Flowers. Our greatest concern is with 
the lock wall failure there at London Lock and Dam. That is 
probably the biggest risk we face, if we extend the project.
    Senator Byrd. There could be an unforeseen accident, would 
you say?
    Lieutenant General Flowers. Yes, sir.
    Senator Byrd. The longer the construction is delayed, would 
you say that the more severe the temporary lock closure will be 
to the shipment of commerce?
    Lieutenant General Flowers. Yes, sir.
    Senator Byrd. Once the lock is closed, it is essential that 
adequate funding be available, both in fiscal year 2002 and 
fiscal year 2003 to allow for the most efficient construction 
sequence to be undertaken. How long will the river lock chamber 
that is to be rehabilitated be closed?
    Lieutenant General Flowers. Two hundred six days, sir.
    Senator Byrd. What impact will that lower capacity have on 
river traffic?
    Lieutenant General Flowers. It will significantly decrease 
the amount of traffic that can transit the rivers.
    Senator Byrd. How would you say, percentage-wise, that that 
would effectively cut on the lockage capacity at London while 
leaving only the land chamber open?
    Lieutenant General Flowers. Sir, we believe that will be 
about 21 percent.
    Senator Byrd. Twenty-one percent.
    Lieutenant General Flowers. Yes, sir.
    Senator Byrd. I thought it would be about half.
    Lieutenant General Flowers. Sir, you are right. It is about 
42 percent.
    Senator Byrd. About 42 percent. Do not make that mistake 
often.
    Lieutenant General Flowers. No, sir.
    Senator Byrd. That means I have to do my homework better.
    Lieutenant General Flowers. Got it, sir.
    Senator Byrd. By what percentage will lock capacity 
increase once the rehabilitation is completed?
    Lieutenant General Flowers. Twenty-one percent, sir.
    Senator Byrd. Yes. Thank you, Mr. Chairman, and thank you, 
General, very much for your testimony.
    Senator Domenici. Thank you very much, Senator Byrd.
    Senator Murray, do you have a few moments that I might make 
a couple remarks and then let you close the meeting?
    Senator Murray. That will be fine.
    Senator Domenici. Is that all right with you, Senator?
    Senator Murray. Absolutely.
    Senator Byrd. Oh, absolutely, yes. Thank you.
    Senator Domenici. Thank you.
    First I want to put in the record, just for explanation 
purposes, the Wall Street Journal, Thursday, March 1 article 
called Distributing the Pain and the Gain. And what it shows is 
how all the departments have fared. And I must submit that I 
really did not think that the water projects of the country 
should get the most pain of all. But they get a 13.3 percent; 
that is, the Corps, which is the largest percent decrease of 
any agency or department of government.
    And I know this is a public document, but I would just like 
to put that in the hearing record at this point.
    [The information follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Senator Domenici. And I wanted to make sure, with Senator 
Byrd talking about authorized projects that are not being 
funded, that we make sure the record reflects, not in his case 
with reference to his two locks, but we have hundreds and 
hundreds of authorized projects that we have never paid for 
and, I must say publicly, that we never intend to.
    In fact, we tried to clean that up once. I do not remember 
what my position around here was, but, Senator, I remember we 
found kind of a place where we said, well, now is about the 
time to start taking some projects out, because we found one 
old one that made Dallas a seaport. And we found, working with 
Senator Bentsen, that even he thought that was modern day 
rather preposterous. But we gave him two or three years to see 
if they could get it to be a seaport, and then we started some 
process of weeding out. And I do not know how many we took out.
    But I think it is important that we know we are not doing 
justice by all this when we just continue to authorize with no 
idea when we are going to be paying for whatever it is we tell 
the public in our press releases that we are going to do.
    And, General, I wanted to ask one last question. You know, 
years ago when I was a brand new senator, we did not have the 
luxury of passing a lot of legislation. Back 26 and 25 years 
ago, we sat around for the first term and maybe did a couple 
things. But I happened to be the lucky fellow that introduced 
and passed the Inland Waterway User Fees. You all recall that. 
Some of you were old enough. That was a real struggle, because 
the old guys out there who were working in those barges, they 
came to meetings and just challenged me, why do I not go out 
and do their job for a while.
    And, of course, some of them wondered what a senator from 
New Mexico would be doing interfering with their locks. But it 
turned out that eventually they found out that I was a ranking 
member on a subcommittee, and it was my job. And believe it or 
not, we passed by an overwhelming margin one afternoon about 
4:00 o'clock the ten cent diesel fuel. Everybody said it was 
too much, and it would pay for everything.
    It turns out--I was just scanning here the sources of 
funding for the harbors for all of the Corps, inland, special--
what is this whole category, this category 3.9? The sources of 
appropriation, General Fund, Harbor Maintenance Fund. The 
Inland Waterway Fund is just $61 million out of $3.9 billion. 
So it is doing a little bit.
    Let me close by saying to the acting civilian chief, I 
certainly hope I have just been frank today and have not in any 
way offended you.
    Ms. Tornblom. Not at all, Mr. Chairman.
    Senator Domenici. I do worry that we consistently get these 
low requests, and then we have to find the money for them. And 
it makes it difficult for all of us. So I am sure the same 
thing is going to happen more or less this year. I do not want 
to get your hopes up too much, but I think eventually we will 
try to square this one away a little bit between the budget 
process and the appropriations.
    With that, we have about ten questions. We will submit them 
to you. And I want to just close by asking you, Ms. Tornblom, 
none of these cuts were predicated upon an argument at any 
level that the Corps was not doing a good job, based upon last 
year's media exposure?
    Ms. Tornblom. Mr. Chairman, no, they were not. I got a very 
clear response to that when I inquired with the Office of 
Management and Budget. This was totally a dollar-driven 
decision and, in part, reflected the fact that the new 
Administration did not feel comfortable going forward with an 
alternative harbor maintenance fee proposal, which made the 
bottom line more difficult for them. This was totally a dollar-
driven decision.
    Senator Domenici. Right.
    Senator Murray, would you--I yield to you. And would you do 
your questioning and then feel comfortable closing the meeting?
    Senator Murray. Absolutely.
    Senator Domenici. Thank you very much.
    Thank you, Corps people.
    Senator Murray [presiding]. Thank you very much, Mr. 
Chairman. And I am sorry I was not able to make this morning's 
portion of the hearing on the Bureau of Reclamation's budget, 
because my question really involves both agencies.
    General, as you know, the Pacific Northwest is under the 
Endangered Species Act obligation to recover several endangered 
species of salmon, trout, and sturgeon. In December of 2000, 
the National Marine Fisheries Service and the Fish and Wildlife 
Service issued biological opinions on the Columbia Snake River 
hydro-power operations. These biological opinions spell out the 
steps that we have to take to recover native fish populations.
    If these reasonable and prudent alternative actions are not 
taken, there is going to be further debate on the removal of 
the Lower Snake River dams. With the energy crisis and the 
drought that is now impacting Washington State, this is a very 
tough time for agriculture and for fish recovery.
    President Bush has voiced his support for fish recovery 
without removing the Snake River dams, and I appreciate that 
position. But his budget does not reflect a real commitment to 
recovering these native populations. Regional, Federal agencies 
and everyone involved with the biological opinions agree that 
it will take a spending increase to meet these actions. 
Estimates are between $50 million and $500 million. In fact, 
$50 million is the bare minimum, and that would require even 
larger increases in fiscal year 2003.
    But between the $50 million and $500 million needed, 
President Bush has come far short. Unfortunately, the Interior 
budget, as well, appears to only offer an $8 million increase 
in funding for 2002 to implement the biological opinions. The 
budgets for the Corps of Engineers and the National Marine 
Fisheries Service do not reflect a significant investment in 
these biological opinions.
    The main provision in the Corps budget for fish recovery is 
the Columbia River Fish Mitigation Program. The Corps' budget 
reflects $81 million for the program. That is the same amount 
that we appropriated last year. And so it does not reflect any 
of the needed increase.
    It is my understanding that the Corps could use up to $116 
million in 2002 for implementation of the biological opinions. 
And many believe it could be even higher. Unless President Bush 
improves his fish recovery budget, or unless Congress improves 
it for him, the issue is going to end up in the courts sooner, 
rather than later. And I fear that we will fail to recover 
native species vital to the economy and the culture of the 
Pacific Northwest. We have got to do better, if we are going to 
recover these fish populations.
    But, General, I would like to know how the Corps plans to 
meet biological opinion obligations with this budget without 
putting off increased funding to fiscal year 2003.
    Lieutenant General Flowers. Yes, ma'am. I was able to visit 
the Northwest last week and visit several of the projects that 
are involved in recovering and will be vital as we work the 
implementation plan for the Bi Ops. And you are absolutely 
right. It is a very, very tough proposition that we are working 
there in the Northwest.
    The $81 million reflected in the budget is short of our 
capability. Our capability is about $110 million in fiscal year 
2002. And what it does is it puts some risk in our ability to 
implement the Bi Ops.
    Senator Murray. Well, I appreciate that honest answer. And 
I am very worried this is going to put us into court, if we do 
not meet this biological opinion. Has the Federal caucus, the 
working group of all Federal agencies that are involved in the 
biological opinion, have they developed a coordinated budget 
for implementation of this Bi Op?
    Lieutenant General Flowers. I met with the Federal caucus 
last week. And they have put together a coordinated budget, 
yes, ma'am.
    Senator Murray. When will we see that?
    Lieutenant General Flowers. I will check with the caucus 
and make sure that it is made available. As far as I know, it 
is available now.
    [The information follows:]

    The Federal agencies at the Washington level are, collectively, 
trying to tie that budget together. When it is available, it should be 
provided by the Office of Management and Budget.

    Senator Murray. Okay. We need to get it very soon, because 
we cannot wait any longer to implement ground recovery 
projects. The Tribes, agriculture, irrigation, 
environmentalist, transportation industry have all really 
voiced support for this biological opinion, as you know, 
General. And I think it is critical that we move forward on 
implementing this Bi-Op.

                     ADDITIONAL COMMITTEE QUESTIONS

    And I will work with the Corps, the Administration, here in 
Congress and the State and Tribes and everyone to make sure 
that we do everything we can to implement this biological 
opinion in fiscal year 2002.
    Thank you.
    Thank you, Mr. Chairman.
    Senator Domenici. Thank you.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

            Questions Submitted by Senator Pete V. Domenici

                   beach re-nourishment policy change
    Included in this budget, is a proposal to change the cost-sharing 
percentages on the Corps' beach re-nourishment program. What the 
Administration is proposing is an increase of the non-Federal cost 
requirements from 35 percent to 65 percent.
    Question. Ms. Tornblom, can you provide the Committee the 
background on how the Administration arrived at this policy change?
    Ms. Tornblom. The fiscal year 2002 budget presents a new 
Administration policy toward projects that involve periodic beach re-
nourishment. Until now, beach nourishment projects started since fiscal 
year 1995 have not received budgetary support. However, ongoing shore 
protection projects that involve periodic re-nourishment and that are 
otherwise consistent with established policies are supported in the 
fiscal year 2002 budget no matter when these projects were started, 
provided that non-Federal sponsors agree to pay 65 percent of the costs 
of re-nourishment work funded in fiscal year 2002 or thereafter. This 
increased non-Federal cost share reflects the substantial economic 
benefits that these projects provide to state and local economies and 
ensures that the Federal Government's long-term re-nourishment 
obligations do not crowd out other important funding needs. The 
existing cost sharing for initial sand nourishment, which is 65 percent 
Federal and 35 percent non-Federal in most cases, is not affected by 
the new policy.
    Question. What kind of hearings or consultations did the 
Administration do with the affected parties or Congress regarding this 
change?
    Ms. Tornblom. I am not aware whether the Administration might have 
had any hearings or consultations with affected parties or Congress the 
Administration might have had prior to announcing the change in cost 
sharing for periodic nourishment of shore protection projects. On April 
9, 2001, the day the budget was made public, I sent letters to each of 
the affected non-Federal sponsors, informing them of the new cost 
sharing policy and explaining the rationale for the change.
    Question. This change has been proposed as ``voluntary'' and if 
non-Federal sponsors of a project chose to change their cost-sharing 
they would likely be required to renegotiate their existing contract. 
Please provide the committee an estimate of the additional costs which 
will be incurred by the non-Federal parties?
    Ms. Tornblom. The difference in the non-Federal cost share 
attributable to the change in cost sharing to periodic nourishment 
projects of funding included in the budget is about $21 million in 
fiscal year 2002.
    Question. Are there any savings from this policy change assumed in 
your fiscal year 2002 budget? If so, how much and what is the 
Administration going to do to cover any shortfall created by this, 
should non-Federal sponsors choose not to increase their contribution?
    Ms. Tornblom. Yes, there are savings to the Federal Government 
attributable to the change in cost sharing for periodic nourishment. 
The savings amount is about $21 million in fiscal year 2002, the same 
amount as the increased non-Federal share. No shortfall is expected 
because the budget is constructed on the basis that the Corps would 
only proceed with re-nourishment work financed with fiscal year 2002 
funds after the non-Federal sponsor had voluntarily agreed to pay the 
additional share for the cost of such work.
   upper mississippi and illinois navigation study, illinois, iowa, 
                   minnesota, missouri and wisconsin
    Question. General Flowers, can you please update this Committee on 
the status of the Upper Mississippi River Study?
    General Flowers. The Corps and the Principals Group--which consists 
of Washington-level executives from Federal agencies with a vested 
interest in the study are reviewing the National Research Council's 
report on the subject study. The Corps will consider the Principals 
Group's input as we revise the Project Study Plan that will set the 
course to complete this complex system feasibility study. This revised 
Project Study Plan is scheduled for completion in July 2001. The 
Project Study Plan will establish a revised study schedule and cost 
estimate, which are not available at this time.
    Question. What progress has the Corps made with regard to any 
outstanding issues or action items needed by the Corps with regard to 
recommendations for change?
    General Flowers. I have taken several courses of action specific to 
the Upper Mississippi and Illinois Rivers Navigation Study. In regards 
to the management of the Navigation Study, the study team has been 
placed under the direct supervision of BG Edwin Arnold, Commanding 
General of the Mississippi Valley Division. This action places the 
Navigation Study's Project Manager under the specific direction of BG 
Arnold, in light of the regional and controversial nature of the study. 
Secondly, we established a Principals Group consisting of Washington-
level executives from Federal agencies with a vested interest in the 
study. Membership includes Department of Agriculture; Department of 
Interior, Fish and Wildlife Service; Department of Transportation, 
Maritime Administration; Environmental Protection Agency; and Corps of 
Engineers. A regional group has also been convened from staff of these 
agencies to provide multi-agency oversight and guidance to the study 
and provide input to the Principals Group process. The Corps and 
Principals Group are reviewing the National Research Council's report 
on the subject study.
    Question. General, you testified recently that, by July 2002, you 
expected to send Congress a report on the Upper Mississippi navigation 
needs. Can you tell us if the Corps is still on schedule to release the 
report?
    General Flowers. My goal is to provide a report to Congress by July 
2002. However, the ongoing rescoping effort and revision of the Project 
Study Plan will define the actions that will be needed to produce a 
decision document and the time required to deliver a report to 
Congress. If it proves inadvisable to produce a comprehensive report in 
July 2002, I will consider submitting a report that addresses measures 
that could be implemented in the interim.
                             corps backlog
    Question. The Corps budget justification alludes to the fact that 
the reason there are no new starts requested in fiscal year 2002 is 
that the Corps wants to focus on its backlog.
    Ms. Tornblom, I would like to know, how you expect the Corps to 
address its backlog, which some estimate it at $50 billion, in an 
effective manner with a 14 percent cut in its budget?
    Ms. Tornblom. Funds are included in the fiscal year 2002 budget to 
achieve meaningful progress on continuing projects that are consistent 
with established policies. No funds are included for new construction 
starts since that would further slow the completion on ongoing work. 
The balance to complete budgeted construction projects is a large part 
of the construction backlog, so the budget focuses on completing these 
ongoing projects rather than starting new projects.
    Question. Does the Corps backlog increase in any manner with this 
level of funding?
    Ms. Tornblom. Assuming that fiscal year 2001 funds were 
appropriated and that no additional funds were available to continue 
design and construction, we projected when the President's fiscal year 
2001 budget was presented to Congress that the design and construction 
backlog would be approximately $45.7 billion at the end of fiscal year 
2001. Using the same assumptions, we now project that by the end of 
fiscal year 2002 the backlog will be $48.0 billion. This growth in the 
backlog is attributable to additional projects being authorized in the 
Water Resources Development Act of 2000 or completing the feasibility 
phase of planning, changes in estimates, and selected price level 
adjustments. The President's fiscal year 2002 budget proposes a total 
of approximately $1.5 billion for design and construction in three 
appropriation accounts. This is the appropriate funding level in light 
of alternative uses of Federal funds. Under the President's fiscal year 
2002 budget, the backlog projected for the end of fiscal year 2002 will 
be reduced to approximately $46.5 billion.
    Question. Ms. Tornblom, How will the Corps handle within this 
budget those projects which were authorized under WRDA 2000, which are 
ready to move forward? Aren't you effectively ignoring the backlog?
    Ms. Tornblom. We are moving forward on PED on many of these 
projects. We believe that the best way to address the backlog under a 
constrained budget is to complete projects that have started 
construction before taking on additional projects that will force all 
construction to proceed more slowly. There are no new construction 
starts proposed in the fiscal year 2002 budget, whether authorized in 
the Water Resources Development Act of 2000 or earlier authorizing 
legislation. Both the unstarted projects and the balance to complete 
ongoing projects are part of the construction backlog. Available 
funding is directed toward construction of continuing projects that are 
consistent with established policies.
    Question. General, how will the construction backlog be impacted by 
the fiscal year 2002 budget request?
    General Flowers. Sir, as I indicated previously, the President's 
budget will reduce the backlog at the end of fiscal year 2002. Because 
funds are limited, the budget focuses on completing ongoing 
construction projects.
                impact of the president's budget request
    Question. The fiscal year 2002 request by the Administration for 
the Corps is 14 percent less than last year, or down $600 million. Most 
Federal agencies are being held at a 4 percent growth rate, which is 
clearly not the case here. Ms. Tornblom, can you tell me what the 
rationale was behind this budget for the Corps?
    Ms. Tornblom. This budget reflects the Administration's priorities. 
Funds for the Civil Works program are applied primarily to the Corps' 
principal mission areas of commercial navigation, flood damage 
reduction, and environmental restoration.
    Question. Ms. Tornblom, given the recent controversies surrounding 
the Corps, do you believe the Corps was unfairly targeted for a budget 
reduction?
    Ms. Tornblom. No, Sir, I do not. The budget decisions were 
unrelated to those matters.
    Question. Can you please explain the 14 percent cut?
    Ms. Tornblom. The President's budget for fiscal year 2002 
approximates the appropriated amounts for the last few years, other 
than fiscal year 2001. The overall budget amount is in accordance with 
the President's government-wide budget priorities. Within the overall 
amount, emphasis is placed on the primary Civil Works missions of 
commercial navigation, flood damage reduction, and environmental 
restoration and on the completion of ongoing work rather than 
initiation of new work.
    Question. Do you believe the Corps' budget was used as a means to 
yield savings within the Administration's overall budget because they 
felt certain Congress would add the necessary funds back for a more 
reasonable budget?
    Ms. Tornblom. No, sir. The budget reflects the President's views of 
the amounts that should be allocated to discretionary spending in 
general and to the Army Civil Works program in particular.
    Question. Did anyone within the Army's hierarchy fight on behalf of 
the Corps during the budget deliberations and passback?
    Ms. Tornblom. Sir, once the Department of the Army received its 
initial allocation decision, or passback, for the Army Civil Works 
program, the Acting Secretary of the Army submitted a strong appeal to 
the passback.
    Question. Please provide the committee the outcome of these 
deliberations and the specifics of additional funding which was 
provided as a result of the passback.
    Ms. Tornblom. The advice and counsel leading up to the 
recommendations which form the basis of the President's Budget are part 
of the internal deliberative process. Similar to the pre-markup 
activities of any Congressional committee, the initial views and 
positions within the Executive Branch vary widely relative to the final 
outcome in the President's Budget. In order to assure the President the 
full benefit of advice from the agencies and departments, the 
Administration treats this as pre-decisional, internal information.
    Question. General Flowers, can you tell the committee the impact 
this budget has on the Corps?
    General Flowers. The emphasis that the budget places on ongoing 
construction activities and on our priority mission areas would have a 
positive impact on the Corps. On the other hand, to the extent that the 
budget provides less funding for justified projects than the maximum 
that the Corps would be able to spend efficiently, economic and 
environmental outputs would be deferred.
    Question. General, please quantify for the committee the benefits 
foregone as a result of this budget.
    General Flowers. Compared with project schedules that could be 
achieved with an unconstrained budget for the Army Civil Works program 
in the budget year, funding at the level in the President's budget 
would result in delayed schedules, and thus, delayed project benefits. 
Compared to benefits realized with unconstrained funding in the budget 
year, benefits totaling approximately $3.3 billion will be delayed 
under the President's budget. However, any delay in the benefits of 
Corps projects that results from funding constraints should be 
considered in the context of the benefits the Nation derives from 
alternative uses of these funds.
    Question. What additional unanticipated costs would the Corps incur 
with this level of funding, which are not currently planned in the 
budget?
    General Flowers. The inefficiencies associated with extended 
construction schedules, as compared with our schedules developed under 
the assumption of an unconstrained budget, are likely to result in some 
cost increases, although we have not quantified these costs.
    Question. General, can you tell the Committee how this level of 
funding impacts the long-term projects?
    General Flowers. The fiscal year 2002 budget funds ongoing projects 
at about 57 percent of their capability amounts, which are the amounts 
that would provide for completing projects on the most efficient 
construction schedules assuming an unconstrained budget for Corps 
construction projects. The constrained fiscal year 2002 budget level 
together with similar funding levels in future years would stretch out 
project completion dates. However, we are trying to manage our workload 
within tight budget constraints in order to maintain reasonable 
progress on all of our projects.
    [``Although project and study capabilities reflect the readiness of 
the work for accomplishment, they are in competition for available 
funds and manpower Army-wide. In this context, the fiscal year 2002 
capability amounts shown consider each project or study PY itself 
without reference to the rest of the program. However, it is emphasized 
that the total amount proposed for the Army's Civil Works Program in 
the President's budget for fiscal year 2001 is the appropriate amount 
consistent with the Administration's assessment of national priorities 
for Federal investments. In addition, the total amount proposed for the 
Army's Civil Works Program in the President's Budget is the maximum 
that can be efficiently and effectively used. Therefore, while we could 
utilize additional funds on individual projects and studies, offsetting 
reductions would be required in order to maintain our overall budgetary 
objectives.''
    Hereafter, this statement is referred to as ``the usual 
qualifications.'']
    Question. It is clear that the funds budgeted to address the 
growing water resources needs of this country falls way short of the 
known critical needs, what would you offer as suggestions of actions 
that can be taken in the future to close this gap?
    Ms. Tornblom. At the Federal level, the relative priority of each 
water resources mission, program, and project should continue to be 
discussed in order to help focus available funds on the most critical 
and best justified needs, while reducing expenditures that are not as 
well justified or are more appropriately handled at the state, local, 
or private level. To the extent that additional funds are available at 
the Federal, state, and local levels, allocating those funds to high 
priority water resources needs also would help.
                             infrastructure
    Question. This country has an aging water resources infrastructure. 
I do not believe that this budget request takes this into account, 
since the Operations and Maintenance account has a $153 million 
reduction. In addition, there are no new starts recommended in this 
budget. General Flowers, I understand you have spent some time 
traveling across the country holding listening sessions, is this 
approach to the budget consistent with what you're hearing in the 
field?
    General Flowers. The budget is consistent with the President's 
overall investment priorities. In addition, the budget reflects 
reliance on local and state government and private sector initiatives 
in providing certain water resources services, while employing Civil 
Works leadership in providing other priority, authorized water 
resources services. In contrast, our regional and national listening 
sessions received a view from the American citizens about water 
resources infrastructure that did not take into account the current 
constrained Federal budget, or the mission of the Corps versus those of 
other Federal or non-Federal entities. The American citizens attending 
our listening sessions expressed concern about aging water resources 
infrastructure, growing backlogs in the maintenance requirements of 
that infrastructure, growing congestion and delays in our marine 
transportation system, declines in the capability of the existing 
infrastructure to meet future needs, and construction schedule delays 
resulting from funding constraints.
    The budget request for fiscal year 2002 will not answer many of the 
investment and funding concerns raised in those listening sessions. We 
will not be able in fiscal year 2002 to reduce our critical maintenance 
backlog on existing water resource projects maintained by the Corps of 
Engineers. The budget request does not provide for any new construction 
starts. Moreover, the proposed funding is 57 percent of the amount 
needed for efficient construction of projects which are under 
construction as compared to construction under an unconstrained Corps 
budget. We will need to stretch out construction schedules compared to 
the optimum schedules.
    Question. Do you believe that this budget's approach is reasonable, 
given our aging infrastructure?
    General Flowers. I support the President's budget request. Although 
funds are constrained, they are targeted at investments that yield a 
high return to the Nation. We are doing the best we can with the 
resources available.
    Question. Are there any emerging trends in terms of national water 
issues?
    General Flowers. We found some emerging trends and a myriad of 
concerns over the future of water resources development during our 
regional and national listening sessions. Some of the salient trends 
are as follows. Foreign trade now accounts for 29 percent of Gross 
Domestic Product. Ninety nine percent of U.S. overseas commerce by 
volume moves through Federally maintained waterways. The total volume 
of domestic and international marine trade is expected to double by 
2020 to more than 4 billion tons of cargo per year. Tonnage that moves 
on our inland navigation system is projected to grow by as much as 37 
percent. That commerce is moving through an infrastructure largely 
built in the 1930's. Equally troubling trends are evident in our 
Nation's flood plains and coastal areas. Urban development in flood 
plains continues to increase by 1.5 to 2.5 percent annually. The 
Federal Emergency Management Agency estimates that 94 million acres of 
the United States lies within the 100 year flood plain. Since 1980, the 
population migrating to the coast has outpaced the total United States 
population growth by 15 percent, growing to over 41 million. Along the 
East and Gulf coasts, about $3 trillion in infrastructure is in hazard-
prone coastal areas. During this century, 23 hurricanes have caused 
damages in excess of $1 billion each when damage values are adjusted 
for inflation. The sessions also included discussion of trends in water 
resources in areas outside of the Corps of Engineers missions such as 
aging water supply and wastewater infrastructure.
    Participants in the listening sessions expressed the need to 
approach water resource infrastructure problems and development on an 
integrated and holistic basis. Solutions must not come at the expense 
of the environment, but should be developed with ecosystem restoration 
and environmental sustainability as requirements in the complete 
solution. There was wide ranging recognition and advocacy for restoring 
degraded water resources, ecosystems and watersheds on an integrated 
basis. In fact, one of the ten challenges that clearly emerged was 
``Managing Watersheds Holistically.''
    I have only begun to touch on some of the notable trends and 
concerns. We will furnish the Committee with brochures that highlight 
the trends and concerns identified as part of listening sessions. The 
brochures are entitled ``A National Dialogue About America's Water 
Resource Challenges For the 21st Century.'' We will also furnish the 
Subcommittee with copies of our national report on the findings of the 
14 regional and 2 national listening sessions once it is published in 
May.
    Question. What do you believe would be the necessary level of 
funding needed to begin to effectively deal with the infrastructure 
problem?
    General Flowers. I can most accurately speak for the national water 
resource mission needs for which we have authority. The budget provides 
substantial resources for priority activities, although less than the 
optimum amount. Subject to the usual qualifications, I believe we have 
additional capability, assuming an unconstrained budget, capability to 
work on our critical maintenance backlog, which will grow to $835 
million by the end of fiscal year 2002. This action would improve the 
efficiency, reliability, and levels of service of our existing projects 
while reducing the costs associated with deferral of maintenance and 
repairs. Furthermore, subject to the usual qualification, and assuming 
an unconstrained budget, we have a capability of $2.9 billion in fiscal 
year 2002 to complete authorized projects on efficient schedules. This 
capability breaks down into $2.7 billion for our Construction General 
account and $226 million for our Mississippi River and Tributaries 
account. These efficient and unconstrained budget schedules would not 
only realize construction efficiencies but also realize increased net 
economic benefits from the acceleration of project completions.
                             infrastructure
    Question. General Flowers, your predecessor and Dr. Westphal 
reported to this Committee that efforts were underway to streamline the 
Project Cooperation Agreement process, leading ultimately to the 
delegation of signing authority of a number of agreements to the 
District Commander. Could you please update this Committee on progress 
to date and future actions you are planning to take to streamline 
project implementation.
    General Flowers. Since that time the Assistant Secretary has 
delegated the execution of PCA's for the Sec 313, 531, and 552 programs 
when following the approved PCA models established for these programs. 
In addition, we have developed draft PCA models for design, 
construction, and design/construction (use only 1 model for a project 
instead of traditional method of using 2) for the Section 569, 571, 
593, 594, 595 programs of WRDA 99, and the Section 219 program of WRDA 
92. Later this fiscal year we will be forwarding these PCA models for 
approval to the Assistant Secretary and requesting delegation of 
approval and signature authority similar to that for the 313 program. 
We also have plans this calendar year to complete revisions to our 
navigation PCA models (for specifically authorized and Continuing 
Authority projects) and to submit them for approval and delegation of 
signature authority. In order to streamline the PCA development 
process, we are incorporating optional language to try to accommodate 
as many variations as possible within each PCA model. We are also 
looking ahead to updating the flood control PCA models, including 
additional options and project purposes addressed in each, and 
developing a Continuing Authority Section 103 PCA model for approval 
and delegation to expedite this program, as well.
                  redirecting congressional priorities
    Question. Contained in the budget preface for the Corps, Ms. 
Tornblom, there is a statement by you that, ``The budget also redirects 
funds from projects added by Congress in fiscal year 2001 that are not 
consistent with established policies.'' It is up to Congress to 
determine what the mission of the Corps is, and if Congress decides to 
make a change to that mission, it has the prerogative to do so.
    Ms. Tornblom, were all the projects added by the Congress and 
funded in the fiscal year 2001 appropriation authorized in recent WRDA 
legislation which was signed by the President?
    Ms. Tornblom. All except one of the projects added by Congress in 
fiscal year 2001 have been authorized in law. Most were authorized in a 
Water Resources Development Act or in a comparable Rivers and Harbors 
Act or Flood Control Act, but a few were authorized in some other law. 
The exception is the Hillsboro Inlet project, which is not authorized.
    Question. As such, these projects clearly fall within the mission 
of the Corps, as is defined by Congress. Therefore, how can the Corps 
state that these projects are not consistent with established policies?
    Ms. Tornblom. For clarity, the statement should have been that 
these projects are inconsistent with Administration policies. Such 
projects may not have standard cost sharing, may lack economic 
justification, or may primarily address missions other than the 
principal missions of commercial navigation, flood damage reduction, 
and environmental restoration. By not budgeting for these projects, the 
Administration is asking Congress to reconsider its priorities.
    Question. Can you share with the Committee how you determined which 
Congressional priorities were to be ``redirected?''
    Ms. Tornblom. Those projects that are not consistent with the 
Administration's policies or do not provide significant national 
benefits in the Corps' principal mission areas were targeted for 
redirection.
    Question. Was there any thought given as to the need of these 
projects?
    Ms. Tornblom. Yes, this information was considered during the 
formulation of the President's budget.
                                 ______
                                 

              Questions Submitted by Senator Thad Cochran

 flood control, mississippi river and tributaries construction--yazoo 
                           basin, mississippi
    Question. Mr. Secretary, does the fiscal year 2002 budget request 
for the Yazoo Basin projects provide the Corps of Engineers with the 
funding needed to complete construction as rapidly as possible?
    Ms. Tornblom. No sir, the optimum fiscal year 2002 funding needed 
to meet current schedules and complete construction of the Yazoo Basin 
projects as rapidly as possible is $44,225,000 or $35,675,000 above the 
budget request.
                         project cost increases
    Question. It is my understanding that a project's total cost 
increases, rather than decreases, if the annual budget requests are 
less than the Corps' maximum capability. Are my assumptions correct?
    Ms. Tornblom. Yes sir, you are correct. Capability estimates are 
the optimum funding amount needed to meet schedules. When the optimum 
funding level on a project is not received, the construction period 
must be extended which, in turn, increases the interest during 
construction. Additionally, the project's total cost is further 
increased due to the effect of inflation on the extended construction 
period. These factors can ultimately increase the total project cost 
significantly.
                yazoo basin, backwater pump, mississippi
    Question. Will you please update the Subcommittee on the current 
status of the Yazoo Backwater project?
    Ms. Tornblom. Sir, the final Project Report and Supplemental 
Environmental Impact Statement for the Yazoo Basin, Mississippi, Yazoo 
Backwater Project are scheduled for completion in early fiscal year 
2002. Design of the project, including the pumping plant and other 
project features, will continue in fiscal year 2002. Completion of 
planning, engineering and design is scheduled for September 2004, with 
initiation of construction scheduled in fiscal year 2005.
    Question. Is the funding level in fiscal year 2002 budget request 
sufficient to complete planning and design work for the Yazoo Backwater 
project?
    Ms. Tornblom. No sir, the optimum fiscal year 2002 funding required 
to maintain a September fiscal year 2004 completion schedule for 
planning and design work for the Yazoo Backwater Pump is $6,000,000.
    Question. If so, will the initial construction funding for the 
project commence in fiscal year 2003?
    Ms. Tornblom. No sir, based on current schedules and assuming 
adequate funding, completion of planning, engineering and design is 
scheduled for September 2004 with construction of the project scheduled 
for initiation in fiscal year 2005.
                                 ______
                                 

             Questions Submitted by Senator Robert C. Byrd

           impacts to operations and maintenance budget cuts
    Question. What are the impacts of the fiscal year 2002 O&M budget 
reductions on the Huntington, Pittsburgh, and Baltimore Corps 
Districts?
    General Flowers. The Huntington District's backlog at the beginning 
of fiscal year 2002 is projected to be $111 million. Historical data 
indicates that new maintenance and repair needs are an estimated $15 
million per year. The fiscal year 2002 O&M budget request of $57.4 
million allows the district to apply $12.9 million towards the 
maintenance backlog, and results in a net increase in backlogged 
maintenance of approximately $2 million by the end of fiscal year 2002.
    In the Pittsburgh District, The President's Budget will allow for 
continued operation of Locks and Dams 2 thru 9 on the Allegheny River 
at traditional levels. Some normal, daily routine maintenance, 
scheduled repair party maintenance, and prospective contract 
maintenance on the Allegheny River will not be performed. Emergency and 
unanticipated structural repairs will be accomplished, if needed, 
through reprogramming funds from other projects.
    In the Baltimore District, the work packages that are highest 
ranked but for which funds are not available in the budget are mostly 
for maintenance of navigation projects, including a number of shallow 
draft harbors.
                robert c. byrd locks and dam, wv & ohio
    Question. Please provide an estimate of the increased capability 
and the reduction in navigation delays since operation of the new locks 
commenced in January 1993. Please also include an estimate of the 
navigation savings during this same time.
    General Flowers. The capacity of the old Gallipolis locks was 
estimated to be 63.3 million tons. With the new locks, 15-barge tows 
typically can be processed in one operation rather than the two 
operations necessitated by the smaller Gallipolis locks. Transit times 
have been reduced from an average of 16 hours per tow to 1.5 hours per 
tow. The capacity of the new locks is estimated at 148.5 million tons.
    Since the new locks opened in 1993, annual traffic has grown from 
45 million tons to 58 million tons in 2000. In the first eight years of 
operation, the new locks have realized transportation savings of an 
estimated $261 million. The total project cost is $379 million. The 
incremental cost, over the without-project condition, is estimated at 
$263 million. Cumulative savings to date represent 99 percent of the 
incremental cost of the new locks. At present traffic levels, it is 
expected that the R.C. Byrd Locks and Dam project will pay for itself 
by the end of this year.
                       winfield locks and dam, wv
    Question. Please provide an estimate of the increased capability 
and the reduction in navigation delays since operation of the new 
additional lock commenced in November 1997. Please also include an 
estimate of the navigation savings during this same time.
    General Flowers. The capacity of the old Winfield project was 
estimated at 24 million tons. With the new lock, average tow size has 
increased from 5 to 9 barges per tow, and the entire tow locks through 
in one lockage, whereas before the 5-barge tows had to be processed 
into 5 lockages. Processing times were reduced from about 170 minutes 
per tow to 62 minutes. The capacity of the new lock is estimated at 
69.5 million tons.
    Since the new lock opened, transit time (processing time plus delay 
time) through Winfield has been reduced by approximately 8.6 hours per 
tow (from 10.11 hours in 1990-1997 to 1.51 hours in 1998-2000) and the 
total commercial lockages have reduced from over 22,000 to about 3,000. 
In the three years of operation, the new lock has realized an estimated 
$27 million in transportation savings. The cumulative savings represent 
12 percent of the incremental cost of the new lock. The total cost of 
the project is estimated at $235.5 million. This total cost is also the 
incremental cost because there was no construction in the without 
project condition. At current traffic levels, it is expected that 
Winfield lock will pay for itself by 2015.
                      bluestone dam safety project
    Question. Bluestone is a fifty-year-old dam on the New River just 
above Hinton and the confluence of the New and Greenbrier Rivers. The 
Huntington Corps of Engineers reports that the dam does not meet 
today's safety criteria.
    What risks are currently posed by the Bluestone Dam to the 
communities and businesses, and environments below the dam?
    General Flowers. Under current design criteria, the probable 
maximum flood is estimated to overtop the existing dam. Dam failure, 
while very unlikely, would cause catastrophic flooding along the 
Greenbrier, New, Gauley, Kanawha, and Elk Rivers, including the 
metropolitan area and heavily industrialized capital city of 
Charleston, West Virginia. This would place more than 115,000 persons 
at risk, with potential property damages in excess of $6.5 billion.
    Question. What level of flooding would cause the dam to fail 
catastrophically? How likely is it that such a level of flooding might 
occur? What is the likelihood that the dam will fail in the next 50 
years? In the next 100?
    General Flowers. The dam would be in danger of failing if pool 
levels approaching the top of the existing dam were to occur. This 
flood level, known as the 500 year flood event, has a 0.2 percent 
chance of occurring in any year, a 10 percent change of occurring at 
least once in the next 50 years, and an 18 percent chance of occurring 
at least once in the next 100 years.
    Question. What is the current status of work completed on the dam 
safety project with available funds? What work will be completed with 
the fiscal year 2001 funds?
    General Flowers. The first phase of construction is underway. In 
fiscal year 2001, this consists of a temporary bridge across the 
stilling basin, penstocks extension, and mass concrete thrust blocks. 
Plans and specifications will be started for the second phase, which 
consists of an 8-foot pre-cast concrete wall, State Route 20 gate 
closure, and anchors.
    Question. Are there additional Corps capabilities for this project 
for fiscal year 2002 above those identified in the President's fiscal 
year 2002 budget?
    General Flowers. Subject to the usual qualifications regarding 
capabilities, the Corps has an additional capability of $4 million 
above the President's Budget of $8 million, for a total of $12 million. 
The capability-level funds would be used to advance completion of phase 
1 construction, and continue design for the selected plan.
    Question. Contingent on adequate funding being provided, this 
project is not scheduled for completion until September 2008. In the 
meantime, what additional measures can be taken to minimize the risks 
to the public and to ensure that this project remains on track and a 
high priority?
    General Flowers. There are no temporary structural measures, such 
as sandbagging the top of the dam, that could be implemented to 
minimize the risk to the public. Similarly, there are minimal, if any, 
temporary operational changes that could be implemented to minimize 
risk. For example, temporarily eliminating the permanent pool by 
draining the lake would not provide any noticeable effects, because the 
volume of inflow for the probable maximum flood is so much greater than 
the volume of the permanent pool. Until the project is completed, the 
Huntington District's Water Control Section will maintain a close vigil 
on any significant storm event in the region that could potentially 
move into or through the Bluestone Lake drainage basin, and will 
provide forecasts as early as possible in order to determine if and 
when a hazardous pool level could occur. In the event that such a pool 
level might occur, emergency management organizations and law 
enforcement agencies in the affected area downstream of the dam will be 
notified of that potential. If the hazard appears to be more imminent, 
evacuation of those downstream areas will be implemented in order to 
minimize the risk to the public.
                 greenbrier basin flood control project
    Question. The Greenbrier River Basin of West Virginia is one prone 
to extensive flooding. The Water Resources Development Act of 1996 
authorized the Corps to implement local protection plans to help 
mitigate damage from future flooding.
    Has the Corps reached an agreement with the local sponsor, the City 
of Marlinton, on a local flood protection plan? Have the details of the 
plan been worked out and agreed to among the participants?
    General Flowers. The Town of Marlinton was recently presented with 
information on both structural and nonstructural alternatives, 
including costs, environmental concerns, and operation and maintenance 
requirements. Based on this information, the Town of Marlinton agrees 
with the least costly plan, which includes the construction of over 
16,000 feet of levee/floodwall to be built on both sides of the 
Greenbrier River, protecting both downtown Marlinton and the Riverside 
areas.
    Question. What is the projected federal and non-federal cost, 
factoring in ability-to-pay?
    General Flowers. The total project cost is estimated to be $70 
million fully funded, or $63 million at October 2000 price levels. The 
local sponsor would qualify for a reduction in its cost share, based on 
ability-to-pay provisions. The non-Federal share would be approximately 
$8.4 million; the Federal share would be $61.6 million. The final cost 
will be contained in the Detailed Project Report, scheduled for 
completion in September 2001.
    Question. What activities are currently being conducted on the 
Marlinton local protection plan?
    General Flowers. The Corps is finalizing the Detailed Project 
Report and accompanying volumes, including the Environmental Impact 
Statement, the Real Estate Plan, Engineering Technical Appendix, and 
the Baseline Cost Estimate that will serve as the decision document. 
The draft report will be completed in July 2001, the final report in 
September 2001. Design of the first construction element is also 
underway.
    Question. What capabilities do the Corps anticipate for fiscal year 
2002 for the Marlinton local protection plan?
    General Flowers. Subject to the usual qualifications concerning 
capabilities, the fiscal year 2002 capability is $1.2 million. These 
funds would be used to continue detailed design, including plans and 
specifications for the first construction phase of the project, and to 
execute a Project Cooperation Agreement.
    Question. When can construction on the Marlinton project begin?
    General Flowers. Construction in a limited area could be initiated 
late in calendar year 2002, provided fiscal year 2002 capability funds 
of $1.2 million were provided and the Project Cooperation Agreement was 
executed.
    Question. Have other localities, such as the cities of Ronceverte, 
Alderson, Durbin, Cass, Renick, which are authorized for flood damage 
reduction plans under the Water Resources Development Act of 1996, 
expressed interest in pursuing projects?
    General Flowers. Citizens in the lower portion of the basin, as 
well as a member of the state legislature, have indicated interest in 
getting discussions moving relating to flood protection for the lower 
basin, including Ronceverte and Alderson.
    Question. Is the current authorization sufficient to allow any of 
the above-mentioned local entities to initiate a flood control project?
    General Flowers. The amount authorized to be appropriated, as 
amended in Sec 360 of WRDA 99, is $47 million and is not sufficient to 
complete all of the potential projects. The Federal share of the 
Marlinton project alone, including expected price level adjustments for 
inflation, is estimated to be $61.6 million. The Federal share of 
projects for other localities such as Ronceverte, Alderson, Cass, 
Durbin, and Renick would not be quantified until a definitive plan and 
schedule were established, but the total Federal share for the 
Greenbrier River Basin is likely to be well over $100 million.
            west virginia tug fork flood protection projects
    Question. For fiscal year 2001, Congress provided $4.1 million to 
continue work on flood protection projects in southern West Virginia 
along the Tug Fork and its tributaries as part of the multi-state 
Section 202 project.
    The President's request includes $16,738,000 for Levisa and Tug 
Fork projects for fiscal year 2002, however, none of these funds are 
slated for projects in West Virginia. Why are no monies budgeted for 
the West Virginia projects in lower Mingo, Upper Mingo, Wayne County, 
and McDowell County?
    General Flowers. These projects were not budgeted because they are 
not economically justified.
    Question. What activities will remain to be completed beyond fiscal 
year 2001 in McDowell County and what is the cost of the remaining 
effort? Does the Corps have capabilities in McDowell County in fiscal 
year 2002?
    General Flowers. Remaining activities include acquisition, 
floodproofing, and construction of relocated schools, town halls, and 
fire stations. The remaining cost is $168 million. The capability for 
fiscal year 2002 is $3.2 million.
    Question. What is the present approved plan for the McDowell County 
schools?
    General Flowers. The approved plan consists of construction of 
ringwalls to protect three elementary schools, Panther, Iaeger, and 
Berwind, and relocation out of the floodplain with reconstruction 
elsewhere for two elementary schools, Bartley and War, and Iaeger High 
School.
    Question. How was the determination made for how each school was to 
be protected?
    General Flowers. Site reconnaissance was performed at each school. 
It was determined that three schools, Berwind, Iaeger, and Panther 
Elementary, have sufficient surrounding land on school board property 
that they could be protected in place by a ringwall. Even though a 
ringwall would be several feet high and hundreds of feet long with 
multiple gates, ringwall construction proved to be less costly than 
building replacement schools elsewhere. The other three schools, Iaeger 
High School, and Bartley and War Elementary Schools, are either in the 
floodway or are too close to the floodway and riverbank to build a 
ringwall, so the only flood protection option is to acquire those 
schools and build replacement schools.
    Question. What is the locally preferred plan for the McDowell 
County schools?
    General Flowers. The locally preferred plan is to consolidate the 
Berwind, Bartley, and War elementary schools, and Iaeger and Panther 
elementary schools, into two new schools. Both the approved and locally 
preferred plans call for construction of a new Iaeger High School out 
of the floodplain.
    Question. How can my constituents' preferred plan be implemented 
instead of the present approved plan?
    General Flowers. The district prepared a letter report which 
outlines the locally preferred plan and the extent of Federal 
participation, which is limited to the Federal share of the least cost 
plan. Once the report is approved, the Project Cooperation Agreement 
would be amended to reflect that type of flood protection remedy for 
the schools. After amendment of the agreement, relocations contracts 
will be negotiated with the McDowell County Board of Education, and 
design will be initiated for the two new consolidated elementary 
schools.
    Question. In fiscal year 1999, I added funds to allow the Corps to 
initiate the McDowell County project, including the schools. Two years 
have elapsed, yet no progress appears to be achieved for the schools. 
It is my understanding that a letter report outlining my constituents' 
preferred plan has been pending at headquarters level since December 
2000--over 4 months. A decision is way over due. When can I expect this 
letter report to be approved and the implementation of this long over 
due project to begin?
    General Flowers. The letter report has been reviewed by HQUSACE and 
was forwarded for approval to the Assistant Secretary of the Army for 
Civil Works on April 23, 2001. Implementation will begin once the 
letter report is approved and the PCA amended.
    Work is underway for the relocation of Iaeger High School. The 
preferred site identified by the McDowell County Board of Education 
contained contaminants, and the district is presently looking at other 
sites for construction.
    Question. What activities will remain to be completed beyond fiscal 
year 2001 in Wayne County and what is the cost of the remaining effort? 
Does the Corps have capabilities in Wayne County in fiscal year 2002?
    General Flowers. The acquisition or floodproofing of structures 
would continue beyond fiscal year 2001 if funds were provided. The 
remaining cost is $5.4 million. Subject to the usual qualifications 
concerning capabilities, the capability for fiscal year 2002 is 
$600,000.
    Question. What activities will remain to be done beyond fiscal year 
2001 in lower Mingo County and what is the cost of the remaining 
effort? Does the Corps have capabilities in lower Mingo County in 
fiscal year 2002?
    General Flowers. The floodproofing or acquisition of structures 
would continue beyond fiscal year 2001 if funds were provided. The 
remaining cost is $2.5 million. Subject to the usual qualifications 
concerning capabilities, the capability for fiscal year 2002 is $1.5 
million.
    Question. What activities will remain to be completed beyond fiscal 
year 2001 in upper Mingo County along the Tug Fork and its tributaries 
and what is the cost of the remaining effort? Does the Corps have 
capabilities in upper Mingo County in fiscal year 2002?
    General Flowers. The floodproofing or acquisition of structures 
would continue beyond fiscal year 2001 if funds were provided. The 
remaining cost is $1.8 million. Subject to the usual qualifications 
concerning capabilities, the capability for fiscal year 2002 is 
$600,000.
                 wheeling creek channelization project
    Question. What work will be accomplished with the $500,000 
appropriated for this project in fiscal year 2001?
    General Flowers. The Pittsburgh District is completing surveying, 
mapping, sediment sampling, and real estate rights-of-way in 
preparation of development of plans and specifications to begin the 
dredging work. It is anticipated that the dredging contract will be 
awarded either 4th quarter fiscal year 2001 or 1st quarter fiscal year 
2002.
    Question. What is the Corps' capability for this project in fiscal 
year 2002?
    General Flowers. Federal participation is limited to the $500,000 
appropriated in law. However, if additional authorization or direction 
in law were provided, up to an additional $2,000,000 could be used, 
subject to the usual qualifications concerning capabilities. This 
amount would be used for the dredging contract and contract 
administration.
    Question. Does the channelization project fit into the goals of the 
Wheeling National Heritage Area?
    General Flowers. Wheeling city officials, working with the Wheeling 
National Heritage Area Corporation, are currently redeveloping a 
portion of the city around the Ohio River Waterfront and Wheeling 
Creek. This area is known as the Wheeling Heritage Port. This dredging 
project was conceptualized in the Wheeling Waterfront Development 
Special Project Report, completed by the Pittsburgh District in August 
2000. The dredging work involves extending the navigable channel on the 
Ohio River upstream along Wheeling Creek 1.48 miles to provide boat 
access to Tunnel Green Park. Both the Wheeling National Heritage Area 
Corporation and the City of Wheeling support the dredging work as 
consistent with their plans for the Wheeling Heritage Port.
                            lower mud river
    Question. The Lower Mud River project, authorized by Section 580 of 
the 1996 Water Resources Development Act, was originally a Department 
of Agriculture project. Its purpose is to mitigate the repeated 
flooding events that have caused extensive damage to the City of 
Milton, West Virginia.
    What is the status of the re-evaluation report being conducted by 
the Corps and the options that are being examined.
    General Flowers. The report was scheduled for completion in July 
2000. Preliminary engineering data warranted the re-formulation of 
flood control alternatives for this project, resulting in an extension 
of report completion to May 2002.
    Two alternatives are being examined. One is the channel alternative 
proposed by the NRCS, which consists of 2.5 miles of channel 
modifications along the Mud River, providing an average flood reduction 
of 2-4 feet. The other is a levee alternative, consisting of 6,000 feet 
of levee at an average height of 14.5 feet, 730 feet of I-wall, and 1-2 
pump stations.
    Question. What are the construction costs associated with each 
option and the anticipated maintenance costs that will be the 
responsibility of the local sponsor?
    General Flowers. The channel alternative is estimated to cost $35 
million, with a $385,000 annual O&M cost. The levee alternative is 
estimated to cost $27 million, with an $80,000 annual O&M cost.
    Question. Has the local sponsor indicated an ability to cover the 
maintenance costs of the options being considered?
    General Flowers. The City of Milton has indicated that the channel 
O&M costs are not affordable and that the levee O&M costs would be 
affordable.
    Question. What activities will remain to be completed beyond fiscal 
year 2001 for the Lower Mud River project and what is the cost of the 
remaining effort? Does the Corps have capabilities for this project in 
fiscal year 2002?
    General Flowers. Remaining efforts include completion of the re-
evaluation report, completion of plans and specifications, execution of 
the construction Project Cooperation Agreement, and construction of the 
project. The Federal cost of the remaining effort, assuming the levee 
is the selected plan, would be $18.8 million. Subject to the usual 
qualifications concerning capabilities, the fiscal year 2002 capability 
is $750,000 to continue PED activities, including completion of the re-
evaluation report and initiation of plans and specifications.
                 feasibility and reconnaissance studies
    Question. Does the Corps have capabilities with respect to 
potential flood control projects in Cabin Creek, Fourpole Creek, and 
Mercer County, West Virginia, and port development at Longacre Point 
and in Wood County? Why does the budget not include funding for any of 
these initiatives? Is it not shortsighted to preclude any future 
projects from having the opportunity to develop?
    General Flowers. Subject to the usual qualifications concerning 
capabilities, fiscal year 2002 capabilities are as follows: $100,000 
for Cabin Creek, West Virginia to initiate a feasibility study; 
$100,000 for Fourpole Creek, West Virginia to initiate a reconnaissance 
study; $100,000 for Mercer County, West Virginia to initiate 
preconstruction engineering and design for the Brush Creek Basin area; 
$200,000 for Longacre Port, West Virginia to initiate a feasibility 
study; and $800,000 for Wood County (Erickson/Wood County Port), West 
Virginia to continue preconstruction engineering and design.
    The President's Budget for fiscal year 2002 includes funding of 
$100,000 to initiate PED for the Mercer County Brush Creek Basin. The 
budget does not include funding for Cabin Creek or Fourpole Creek 
because of a general reduction is study funding. Given the large 
backlog of ongoing projects and other construction and preconstruction 
engineering and design work (about $40 billion), the pace of new 
studies needs to slow to a level that reflects what we can afford to 
move through construction. The budget does not include funding for 
Longacre Port and Wood County Port because the development of land-side 
terminal facilities is considered a local responsibility.
                                 ______
                                 

             Questions Submitted by Senator Byron L. Dorgan

                       devils lake, north dakota
    Question. I want to briefly update you on the Devils Lake emergency 
flooding situation that exists in Northeast North Dakota. As you are 
aware, Devils Lake is one of only two closed basin lakes in the 
country. Devils Lake also is unique in that it continues to rise--month 
after month, and year after year. On the contrary, other lakes that 
experience flooding or rising levels do so for only a short time, then 
the water levels recede. In the case of Devils Lake, the water level 
has risen about 25 feet in 7 years. In the past 60 years, it has risen 
nearly 50 feet. And, the situation is getting worse. As of yesterday, 
the reported elevation for the Lake is 1446.92 feet. In early March, 
the Lake elevation was 1446.14 feet, and as of April 19 (last 
Thursday), the Lake was at 1446.75 feet. So, the Lake has risen nearly 
0.8 feet in the last month, and almost \1/4\ of a foot in less than one 
week.
    The rising and expanding Lake threatens to cut off one region of 
our state from emergency services and the normal commerce of daily 
life. It inundates roads, railways and utilities. The Corps has 
implemented normal flood protection, mitigation, and remediation 
measures, such as building levees. However, more must be done. This is 
an emergency situation, because it threatens peoples' homes, businesses 
and commerce in North Dakota. An outlet must be built to begin to help 
address this grave situation. A typical Army Corps analysis may not 
suffice to justify construction of an outlet. Thus, such an analysis 
must be crafted so that it factors in the unique characteristics of the 
Lake, and the unique situation that the Devils Lake region and its 
residents are facing, as a result. Please let me know what the Army 
Corps plans to do to address this critical situation and ensure that 
the relevant and analyses, and construction of the outlet, proceed as 
quickly as possible.
    General Flowers. Recognizing the critical situation at Devils Lake, 
the Corps is working toward completion of the Environmental Impact 
Statement and the preconstruction engineering and design of a 
recommended plan by the fall of 2002. To accomplish this, the design of 
a preliminary plan will proceed concurrently with preparation of the 
Environmental Impact Statement. For selection of the plan that will be 
advanced into the design phase, we will evaluate the cost effectiveness 
of alternatives and their economic justification under a range of 
scenarios for future lake stages. Much of this evaluation will be based 
on already available data and modeling. The design phase is scheduled 
to begin in August 2001. Efforts are under way to complete an updated 
evaluation of alternatives, collect essential seasonal data for 
evaluation of project impacts, and appropriately coordinate the 
Environmental Impact Statement.
         grand forks, north dakota-east grand forks, minnesota
    Question. I see that the Grand Forks permanent dike construction 
for the City of Grand Forks, ND is proposed to be funded at $24.954 
million for fiscal year 2002. It is my understanding that an additional 
$10 million beyond the President's budget request is needed for the 
next fiscal year to ensure completion of this project in four years. 
This will save money from increases in inflation, as well as from 
alleviating the need for annual emergency measures--both in terms of 
construction and removal of temporary levees. Further, I understand 
that FEMA is in the process of rewriting the flood maps in the Grand 
Forks area. Unless the dike is completed in a timely way, these maps 
will not reflect the protection of this dike and homeowners will 
unnecessarily pay flood insurance.
    Is the Army Corps of Engineers aware of this situation with FEMA 
and does it agree that it makes sense for the federal government to 
keep the project on an aggressive schedule?
    General Flowers. We understand that the Federal Emergency 
Management Agency is developing flood plain maps to reflect current 
conditions because the existing floodplain maps do not accurately 
reflect the flooding risk to which the citizens, businesses and 
infrastructure in the Grand Forks/East Grand Forks area are exposed. We 
provide current schedules for completion of the flood damage reduction 
project to FEMA so that FEMA may make reasonable decisions on 
scheduling its remapping efforts for the area. Subject to the usual 
qualifications concerning capabilities, the fiscal year 2002 capability 
for the project is $35 million.
           wahpeton, north dakota and breckenridge, minnesota
    Question. Along these lines, the Corps also has Function 205, or 
continuing authority, funding to proceed with levee construction in 
Wahpeton, N.D. However, the Corps has informed me that construction 
cannot proceed without Breckenridge, MN constructing a flood reduction 
project, that would include a parallel dike, or levee, on the other 
side of the Missouri River. The cost for the Breckenridge project is 
$21 million. Simultaneous construction on both sides of the River is 
essential to preventing damage to Breckenridge, as well as other 
surrounding areas. These areas could experience severe erosion and/or 
flooding, due to an imbalance in pressure on the River, if a levee were 
to be erected on one side of the River, but not the other. However, 
funding for the Breckenridge construction is considered a ``new start'' 
project. There is insufficient funding in the President's budget 
request for a ``new start'' in Breckenridge. I have a letter from the 
Breckenridge Mayor echoing the need for this project.
    Given the need for Breckenridge to construct a levee in order for 
Wahpeton's construction to proceed, and the fact that Wahpeton already 
has continuing authority for this critical project to protect the City, 
wouldn't you agree that it is essential to fund the Breckenridge 
construction project?
    General Flowers. The floods of 1997 and, more recently, 2001 have 
demonstrated the importance of providing permanent flood protection for 
both Wahpeton and Breckenridge. The two projects are interdependent 
because there would be project-induced flooding if either were 
implemented without the other. In addition, the 125-year level of 
permanent flood protection that would be provided by the Wahpeton levee 
project depends on concurrent construction of a diversion channel 
feature that is part of the Breckenridge project. For these reasons, we 
propose that the two projects be constructed in tandem. The 
Breckenridge project was specifically authorized by Section 320 of the 
Water Resources Development Act of 2000, and preconstruction 
engineering and design for both projects will be completed by the end 
of fiscal year 2001.
    Question. Ms. Tornblom, last year, the President proposed a 
Recreation Modernization Program to meet some of the needs of Corps 
recreation areas. This program seemed to make a lot of sense, given 
that the Corps has 4,340 recreation sites associated with 463 Corps 
projects. Ten percent of the American population visits these sites for 
a total of 376 million visits every year. According to Corps data, $15 
billion is spent at these sites by visitors to these sites. Seems to me 
like recreation is a big business. In fact, I have asked the General 
Accounting Office to conduct a formal cost-benefit analysis, but my 
understanding is that the recreational interests yield approximately 
$80 million annually, while the downstream navigational interests yield 
approximately $7 million.
    In this light, I think a Recreation Modernization program for the 
Corps would make some sense. It is my understanding that this proposal 
would upgrade recreation facilities throughout the COE inventory from 
the 1950-1960s standards to current standards and codes. This makes 
sense because there are so many needs in the Corps' limited O&M budget, 
that recreation often gets overlooked. Could you please inform us why 
funding for the Corps' Recreation Modernization program was not 
included in the fiscal year 2002 budget request?
    Ms. Tornblom. The Recreation Modernization Program, which was 
proposed in fiscal year 2001 but did not receive appropriations, would 
have been classified as a new construction start in the fiscal year 
2002 budget. However, no funds are included in the budget to initiate 
new construction starts. Rather, funds are included in the fiscal year 
2002 budget to achieve meaningful progress on continuing projects that 
are consistent with established policies.
                       operation and maintenance
    Question. You may already be aware that Lake Sakakawea is predicted 
to have exceptionally low water levels in the coming season. Depending 
on how the Corps proceeds with its operating plan for the Master 
Manual, their actions could actually exacerbate this problem. With this 
information in mind, it seems difficult to understand how the Corps 
could not give greater consideration to these recreational interests. 
Given the fact that the Corps' actions are already difficult situation 
even more difficult, will the Corps commit to providing these limited 
funds to mitigate the problem?
    General Flowers. The current operation of the Missouri River Main 
Stem Reservoir System conforms to the Guidelines set out in the 
existing Missouri River Master Manual. Under the current manual, 
storage levels trigger release from the reservoirs to serve the 
multiple purposes for which Congress established the reservoir system. 
Those purposes include flood control, irrigation, hydropower, 
navigation, recreation, municipal and industrial water supply and water 
quality. The Corps is currently in the process of revising the manual. 
The many alternatives under consideration include conservation 
measures, which would keep lake levels slightly higher during drought 
periods such as the 1980's. Our intent is to complete and implement the 
revised manual in March of 2003. While the Corps entered the year 
without funds designated to assist recreation interests with problems 
resulting from low lake levels, we are now making funds available 
through reprogramming actions to repair boat ramps constructed by the 
Corps and to address the noxious weed problem.
                                 ______
                                 

            Questions Submitted by Senator Dianne Feinstein

         american river watershed (common features), california
    Question. $13 million is included in the Budget for the American 
River Project. This project was authorized in WRDA 1996 and modified in 
WRDA 1999. It includes slurry walls to strengthen the Lower American 
River Levees, raising portions of the American River Levees, levee and 
berm raising along the Sacramento River and levee raising along the 
Natomas Cross Canal. What is your capability for the project in fiscal 
year 2002 and how would any additional funds be used?
    Answer. Subject to the usual qualifications, our capability for 
fiscal year 2002 is $17 million. With the additional funds we could 
advance completion of the Lower American River slurry wall 
construction, authorized in WRDA 1996, by 3 months.
    american river watershed, (folsom dam modifications), california
    Question. The Folsom Dam Modification project was included as a new 
construction start in the fiscal year 2001 Appropriation Act. When do 
you expect actual construction to begin on this project that is 
critical to improving the level of flood protection for the Sacramento 
Area?
    Answer. We are scheduled to initiate construction for the emergency 
generator in January 2002, and enlargement of the outlets will begin in 
August 2002.
    Question. Only $4,500,000 was included in the fiscal year 2002 
Budget for the project. What is your full capability for fiscal year 
2002?
    Answer. Subject to the usual qualifications, our full capability 
for fiscal year 2002 is $8,000,000.
    Question. Assuming sufficient funding in fiscal year 2002 and 
beyond, what is the project's scheduled completion date?
    Answer. Our optimal schedule reflects project completion in 
September 2006.
              south sacramento county streams, california
    Question. We understand that a Section 215 project has been 
proposed for a segment of the South Sacramento Streams Project. Would 
you describe that work and the urgency of moving ahead with it at this 
time?
    Answer. The proposed Section 215 work involves the non-Federal 
sponsor reconstructing approximately 3 miles of existing levee and 
constructing 0.5 miles of new levee at the downstream end of the 
project. The project would remedy the problem of sand lens underlining 
and increase the level of flood protection. The Section 215 work is an 
integral part of that effort.
    Question. Do you have a capability to initiate construction of the 
project in the fiscal year 2002 and if so, how much is your capability?
    Answer. Subject to the usual qualifications, our capability is 
$10,000,000, which would enable us to initiate Federal construction in 
the spring of 2002.

                          SUBCOMMITTEE RECESS

    Senator Byrd. I believe the chairman said you should close 
it.
    Senator Murray. Okay. In that case, I will. This meeting is 
recessed. Thank you.
    [Whereupon, at 4:07 p.m., Tuesday, April 24, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]


    ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 2002

                              ----------                              


                        THURSDAY, APRIL 26, 2001

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 2:09 p.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Pete V. Domenici (chairman) 
presiding.
    Present: Senators Domenici, Cochran, Reid, and Hollings.

                          DEPARTMENT OF ENERGY

                National Nuclear Security Administration

STATEMENTS OF:
        GENERAL JOHN GORDON, UNDER SECRETARY OF ENERGY FOR NUCLEAR 
            SECURITY AND ADMINISTRATOR, NATIONAL NUCLEAR SECURITY 
            ADMINISTRATION
        ADMIRAL FRANK L. BOWMAN, DIRECTOR, NAVAL NUCLEAR PROPULSION 
            PROGRAM
        GENERAL THOMAS F. GIOCONDA, ACTING DEPUTY ADMINISTRATOR FOR 
            DEFENSE PROGRAMS
        KENNETH E. BAKER, ACTING DEPUTY ADMINISTRATOR FOR DEFENSE 
            NUCLEAR NONPROLIFERATION

             OPENING STATEMENT OF SENATOR PETE V. DOMENICI

    Senator Domenici. The hearing will come to order. Thanks to 
Senator Hollings for coming, and I imagine Senator Reid's going 
to be here before we finish.
    This afternoon the subcommittee will consider the fiscal 
year 2002 budget request for National Nuclear Security 
Administration, having nuclear weapons, non-proliferation, and 
reactor programs.
    Combining these programs accounts for about $6.8 billion of 
the $18 billion requested from this subcommittee for the 
Department of Energy. For nuclear weapons Stockpile 
Stewardship, the new administration has proposed $5.3 billion 
for fiscal year 2002, an increase of $295 million over current 
year. However, even with this increase the request in my 
opinion--and we hope to establish here today is inadequate. I 
will state a few of those reasons and we'll try to go through 
them as we take the testimony.
    We know from this committee's hearings on infrastructure 
earlier this year that our nuclear weapons facilities have 
degraded to the point that it will take--over a number of 
years--billions of dollars to modernize for the future. 
Although the work must begin immediately, the budget request 
includes no funds to begin such an initiative.
    In case anybody doubts that we need to start on this 
infrastructure and building program, I think the evidence that 
we have with reference to a facility needed in Tennessee where 
the roof is kind of falling down and the workers are having to 
wear hard hats in a building that doesn't have anything to do 
with wearing hard hats because the ceiling's falling in on them 
it's time to get that one going because we need it for a lot of 
new activities.
    Under the budget we've got, the NNSA will not be able to 
meet the Nuclear Weapons Council refurbishment schedule for 
three major nuclear weapons systems representing about half of 
the stockpile, and we must soon have the capability to produce 
plutonium pits for weapons. We've been putting that date off 
annually into the future.
    I think we've arrived at a schedule which everyone says we 
ought to do, and we ought to be able to, and I believe that the 
capability which was lost when Rocky Flats was closed--many 
think it's high time we get on with that. My analysis at least 
is there's not enough money in this budget to do that.
    As a result, I believe the budget we received is about $800 
million short in what we should have to do the job of Stockpile 
Stewardship in the year 2002 correctly and adequately, and for 
the Defense Nuclear Non-proliferation program the new 
administration has proposed $773 million for 2002, a decrease 
of $100 million, or 12 percent over current year.
    Now, maybe the new administration thinks there are ways to 
do this non-proliferation differently and better. We certainly 
are anxiously awaiting what that is, but in the meantime we 
would note, at least for the subcommittee's purposes, that 
Senator Baker and Senator Cutler--excuse me--Attorney Cutler 
put together a very detailed report on this issue and they 
concluded that the most urgent unmet national security threat 
to our country is the danger that weapons of mass destruction 
or weapons usable material in Russia could be stolen and sold 
to terrorists or hostile nation states could use them against 
the United States after having acquired them either militarily 
or through civilian action.
    And the report concluded current non-proliferation programs 
of the Department of Energy have achieved results which are 
impressive as far as they have gone, but their limited mandate 
and funding fall far short of what is required to adequately 
address this threat.
    However, despite our knowledge of the threat and the 
success of the programs, the 12 percent reduction stands in the 
budget as it currently is before us. It puts at risk the 
Russian-U.S. Plutonium Disposition Agreement and forces some 
very major cuts in other areas, including the well regarded 
program that's named the MPC&A program. That's the one where we 
help the Russians with photography equipment and other kinds of 
things to maintain the nuclear--maintain their plutonium and 
other things in a safe manner where they can't be easily taken 
and transferred around without records.
    The threats are too great in this non-proliferation area 
to--for us to say we can get by with the cuts. I don't believe 
we can.
    And my last comment has to do with the Naval Reactor 
Program. The administration proposes $688 million, the same 
amount provided in current fiscal year. This program and the 
men and women who run it have enjoyed nearly 50 years of 
unparalleled success in providing safe and reliable nuclear 
propulsion plants for military use.
    I look forward to hearing today your comments on the budget 
request. We're going to begin, after Senators have commented, 
with you, General Gordon, and your testimony, then you, General 
Gioconda, whom I understand you're still acting and you're 
going to be leaving us pretty soon. I wish you could stay 
around longer. You're doing a great job.
    And we have the Acting Deputy Administrator for Programs, 
Ken Baker. Thank you for all your work. And then we will have 
the Acting Deputy Administrator for Defense Nuclear Non-
proliferation, and we will proceed now asking first Senator 
Hollings if he has any opening remarks.
    Senator Hollings. I'm very interested in waste disposal, 
but I'll wait until I can ask my questions.
    Senator Domenici. Thank you very much, Senator.
    Senator Hollings. Thank you.
    Senator Domenici. Senator Cochran.
    Senator Cochran. Mr. Chairman, I'll wait until we hear from 
the witnesses. I have a few questions.
    Senator Domenici. I appreciate that.
    General Gordon, welcome, not only here but to your new job. 
We know it's difficult. We created your position and that which 
is under you by a brand new statute last year after much debate 
and discussion, and we look forward, as that statute indicates, 
to a better managed part of the department as it pertains to 
nuclear weapons activities and non-proliferation, and we thank 
you for the time you're devoting to that end.
    Please proceed.

                    STATEMENT OF GENERAL JOHN GORDON

    General Gordon. Thank you, Mr. Chairman, and thank you for 
the opportunity to come up and discuss the budget request for 
this year. As you've already noted, I'm joined by Admiral 
Bowman, General Gioconda, and Ken Baker. They'll also have 
statements to make and they can answer the hard questions I 
think as we get into this.
    But, Mr. Chairman, I would like to make a special point of 
thanking the members of the committee and yourself for the 
continuing support of NNSA, its mission, and for the people who 
make it all happen, both in Washington and in the field, the 
Federal employees, the contractors. There's some 37,000 people 
who depend on what we do here today, and they need your 
support.
    I have submitted a rather long formal statement and I offer 
that for the record, sir, and I'll be a little briefer as we go 
through this.

                             STATUS OF NNSA

    I would like to speak for a few minutes about NNSA itself, 
and I would report to you, Mr. Chairman, that we're making 
steady but somewhat slow progress on the goals we share of an 
efficient and effective organization to lead and manage the 
portion of the nuclear security enterprise that's been 
entrusted to us, and I'm not particularly satisfied with where 
we have been able to establish NNSA as an all up organization 
with its unique identity and clear lines of authority, but we 
are moving forward and actually I think have made remarkable 
progress when measured against some of the barriers and the 
bureaucracy that we've faced.
    And even though it's been difficult to move dramatically on 
organizational issues we've gotten beyond such issues as dual 
hatting. We've begun to set up a new framework for the 
organization itself. We've brought on board critical staff for 
vital issues such as counterintelligence and security and 
contracting. We've made real progress in each of those areas.
    We have two senior advisors who work for me, one in policy, 
one in science of immense capacity, a director of congressional 
affairs with a proven track record, an ES&H advisor with 
tremendous professional experience who's joined us from Naval 
Reactors, a senior military assistant, a strong chief of staff 
who knows where the system is and where it's been in great 
detail, and I'm particularly excited--and you and I have spoken 
about this, Mr. Chairman--about the establishment of policy 
planning staff so we can be much more active in the debates 
that occur within the administration itself.
    Now, I did elect, Mr. Chairman, to spend a large portion of 
my time in the early months of my administration on the very 
critical mission-related problems that were squarely on my desk 
when we took over and a little bit less on the organization 
itself, and from my perspective there's been real progress to 
report on NNSA, and I'd like to just touch on that for a moment 
with you and the other members.

                          NNSA ACCOMPLISHMENTS

    First, the morale at the labs and production facilities 
really has now turned around. I don't want to say it's fixed. I 
won't tell you that it's not fragile, but every place you go in 
the structure now you can find at least a difference and a 
positive sign on what's happening on morale, in part because 
we've been able to put to them real work and real energy on 
real projects.
    We've made some marked improvements on security, which, if 
nothing else, you notice we're off the front pages. We have 
John Hamre running an important committee for us, looking at 
the balance between security and science and making sure we 
don't have to trade one off for the other; that we can in fact 
do both.
    We've established a moratorium on new policies until we can 
make sure the ones we've got are the right ones and that we're 
implementing them right, and we've begun work on integrated 
safeguards and security management, a way to really bring 
security down to the individual people who are trying to do the 
work.
    In counterintelligence we have a better balance on how we 
handle foreign visitors. We have a major polygraph study going 
on with the National Academy of Sciences, and I hope to be able 
to propose to Congress some perfecting language to the 
polygraph program itself while maintaining the very highest 
standards of security.
    We substantially changed our relationship with the 
Department of Defense and the military. The Nuclear Weapons 
Council is up and running and making decisions. We are working 
carefully together on requirements and we've agreed as you 
mentioned on a specific stockpile life extension program where 
we know what needs to be done. We've reached agreement with the 
Nuclear Weapons Council and developed a schedule for this 
program.
    I have developed a 5-year budget. It's an important 
management tool. It's not perfect by any means, but it's a good 
first start, and we're going to continue that every year as we 
move ahead. We rebaselined the National Ignition Facility, 
which is a clear way ahead, and when one goes out and visits it 
now you no longer hear just about the science, or isn't this 
going to be wonderful when it gets done, but it's really being 
run on a project basis. Here's what we did last week. Here's 
what I'm going to do next week. Here's the budget. Here's the 
earned value. Here are the problems. They're really dealing 
with it in a management way that's very different.
    We've begun to put new--renewed energy in our operations in 
Nevada with an aggressive subcritical program. It gives much 
needed unique information to our work for SSP as a whole with 
specific work on plutonium.
    We've had the first couple of shots now from a very 
important test facility known as Jasper, or gas gun. It's going 
to also contribute to our knowledge of plutonium at a much 
cheaper way than the subcrits, and we're well on our way toward 
understanding how we will move the ATLAS system there and get 
it up and running, dependent upon the outcomes of the strategic 
reviews and the allocation of funds.
    We've put into place new contracts at most of our 
facilities: at Los Alamos and Livermore Labs, under the 
University of California, a new contractor at Y-12 in 
Tennessee, a new contractor at Pantex, a new contract at Kansas 
City, and DOE has extended the contract at Savannah River. And 
I can report that in every one of those locations there are 
positive changes that are coming about, either new contracts or 
through the new contractor aggressively attacking the problems 
we have.
    With non-proliferation, Mr. Chairman, we've been equally 
successful in Detection R&D with the MTI satellite--from the 
MTI satellite to the smallest of hand held detectors being made 
available to first responders in nuclear, chemical, and 
biological.
    MPC&A is having success strengthening the security of 
several thousand Russian naval warheads and 220 metric tons of 
uranium and plutonium, and the Second Line of Defense in Russia 
where we've been helping deploy detectors at sensitive Russian 
border crossings, and the Nuclear Cities Initiative and the 
Initiatives for Proliferation Prevention providing 
opportunities for Russian nuclear scientists to turn to 
commercial activities and to reduce the footprint of the 
Russian nuclear complex.
    In the HEU purchase, the highly enriched uranium purchase, 
we've now monitored the conversion of 110 metric tons of 
Russian highly enriched uranium into a lower grade reactor 
fuel. We strengthened the safety of Russian-designed reactors. 
We're trying to convert unneeded material here and in Russia, 
and we've completed the canning and safeguarding of some 8,000 
plutonium bearing fuel rods from Yongbyong in North Korea.

                    NAVAL REACTOR'S ACCOMPLISHMENTS

    Mr. Chairman, I won't say a lot about naval reactors today 
other than to report that my friend Admiral Skip Bowman is 
actually doing a superb job by every measure. His organization 
operates 102 naval reactor plants, one less than the total 
number of commercial reactors operating in the United States 
today. Naval Reactors provide safe, efficient, effective 
propulsion to 40 percent of the naval combatants.
    They're developing the next generation reactor for the 
Virginia Class submarines and the reactor for the Navy's new 
class of aircraft carriers CVNX. These are included in the 
requested budget. But importantly, Naval Reactors continues to 
make real progress in improving its business practices and 
operating at the highest environmental standards. Mr. Chairman, 
what I do, what I ask my staff to do is go to school on them, 
because they're showing us how to do a lot of this.

         ONGOING REVIEWS AND THEIR EFFECT ON THE BUDGET REQUEST

    Mr. Chairman, you've mentioned the budget, $6.8 billion 
total, $5.3 billion for defense programs, $774 million for 
Defense Nuclear Non-proliferation, $688 million for Naval 
Reactors.
    Mr. Chairman, it's very likely that numbers for the Defense 
Nuclear Non-proliferation and Defense Programs are not final. 
President Bush has asked the Secretary of Defense, in 
conjunction with the Secretary of Energy, to conduct several 
reviews to create a new vision for the role of the Nation's 
military in this century. One of those reviews will examine the 
role of nuclear deterrence in the post-cold war national 
security environment, including determinations of the size and 
the structure of the weapons stockpile and the possibility of 
substantially different requirements.
    NNSA is an active participant in that review and its 
outcome will have a major impact on the work load of the 
national security laboratories and the plants for many years to 
come.
    Another review is examining the U.S. non-proliferation 
programs with Russia. At the end of this review I hope we'll 
have a new strategy for threat reduction activities, and the 
NNSA is also a major participant in those reviews. The 
administration will finalize its out-year funding request for 
defense and national security-related activities when these 
reviews are complete.
    Following these reviews, we will work with you and the 
staff to provide timely information on the results and any 
changes to the budget request for 2002 and the out years, and 
knowing that our schedules and your schedules for this budget 
are already quite compressed, I wish I could give you a firm 
schedule on this, but at this time it would really only be 
speculation on my part.
    But notwithstanding some uncertainty about the details of 
the reviews, I'd like to look ahead, Mr. Chairman, to the 
challenges and the opportunities that really are in front of us 
and the steps we need to take to effectively accomplish and 
focus our programs.

                           BUDGET PRIORITIES

    My formal submission defines the details. I'd like to speak 
pretty broadly about where this goes, particularly in the light 
of the possibility of some changes in the numbers.
    The requested budget for defense program goes a long way 
towards stockpile stewardship and includes, as you mentioned, 
an increase of about 4.6 percent this year. Now, $5.3 billion 
is a significant amount of money and, as I understand it, the 
only real increase in the DOE budget, and it will support most 
of our major campaigns, the technology building blocks for the 
future. Two national assets--the secure transportation asset 
and nuclear incident response--will remain a high priority, and 
weapons safeguards and security, a separate budget category, 
will meet all known requirements.
    At the requested level it will support the ongoing 
refurbishments of the W87 warhead and begin the work on the 
B61, which is much needed. It will not, under current 
allocations, support plans for the W76 or for the W80, although 
we should be able to begin some engineering development work.
    We will proceed with our pit manufacturing plan and 
schedule, but we will not be able to give a date certain for 
the certification of a W88 pit, at least without significantly 
unbalancing the program as a whole. And, at the requested 
level, we would not be able to aggressively attack the 
infrastructure problem issue, which we discussed at the last--
at my last appearance before the subcommittee.
    Mr. Chairman, the underlying approach to our budget was to 
keep all our campaigns in balance while focusing on three 
areas: correcting some of the major problems of the past such 
as the NIF, pit manufacturing and pit certification; beginning 
to fund the needed refurbishment programs for the stockpile 
which were not included in the original design of Stockpile 
Stewardship because we didn't know what work was going to need 
to be done; and to begin to correct this crisis we have in our 
facilities. So we await the outcome of the reviews to finalize 
our numbers.

          NUCLEAR TEST READINESS AND LONG-TERM PIT PRODUCTION

    As a bit of an aside, Mr. Chairman, there are two topics I 
want to focus on more this year, that at least in the first 
year won't have major budgetary impacts, but I think it is now 
time for us to get on a different step on nuclear test 
readiness and on long-term pit production as well. I plan to 
conduct a review very closely tied with the administration's 
defense reviews on whether and how we should improve our 
readiness to conduct a nuclear test, should it ever be 
conducted with the possibility of moving those time lines up.
    And I also believe we've now made enough progress in the 
pit manufacturing program at Los Alamos to begin seriously 
looking at what it would take to construct a new and larger pit 
production facility such as the Foster Panel and others 
recommended. We need to get up on that work.

          STATUS OF DEFENSE NUCLEAR NON-PROLIFERATION PROGRAM

    Mr. Chairman, the administration request for Defense 
Nuclear Non-proliferation programs is $101 million less than 
last year's appropriation. At that level it should be obvious 
that we will have to curtail efforts in several areas and lose 
momentum in others. Again, however, the administration is 
conducting a review of each of those programs and we await the 
conclusion of those reviews.
    From my perspective we manage a series of programs, and 
I've already highlighted most of them, that taken together 
contribute measurably to the vital goal of reducing the threat 
of proliferation of weapons of mass destruction. NNSA has had 
some real success in this area because we've been able to 
integrate the technology, the research, and the expertise of 
the NNSA laboratories with that of the other laboratories of 
DOE and other U.S. Government agencies.
    We quite literally provide the technical base for much of 
what the government does in proliferation detection and the 
expertise base to work effectively in Russia and elsewhere to 
secure materials and weapons, support international agreements, 
and reduce the threat we face.
    And, Mr. Chairman, it is appropriate that the 
administration review our programs and come to its own 
conclusions about their merits. For me, I would hope that the 
real result of these reviews would lead to a more comprehensive 
approach, a more integrated approach to non-proliferation and 
threat reduction so the individual programs can be seen and 
measured in light of an overall approach and clear goals and 
the individual programs can be judged and work synergistically.
    NNSA is responsible for a large range of national security 
programs, programs that seek to deter and prevent and detect 
worldwide proliferation of weapons of mass destruction and the 
materials that produce them. The three-fold threat of unsecured 
materials, available technology, underemployed expertise argues 
for a strong, effective program.
    Even so, we're mindful of how difficult it is to operate in 
this environment and the ongoing reviews and policy development 
activities that specifically deal with issues of Russian 
attitudes, the relationship with proliferants, issues of 
access, issues of sustainability.
    Mr. Chairman, some days I think I have the best job in 
American public service. Some days I'm not quite so convinced. 
But we are making progress on our mission and on the 
organization itself, and with the strong demonstrated support 
already by Secretary Abraham, I expect that progress to 
continue.
    I remain excited about the mission and its great 
importance. We can't be daunted by the magnitude of the 
problems we face. We need to attack them every day with energy 
and with commitment. We need to correct the shortfalls of the 
past but we've got to really look to the future, and this in 
turn requires that we attract and retain the very best people, 
give them clear leadership, an important mission, adequate 
resources to do their jobs, and a safe, efficient work 
environment.
    I remain so impressed by the folks that I deal with every 
day in NNSA. They're committed, they work hard, often in very 
difficult conditions, and I gain a lot of energy from those who 
do the mission every day. You can and you should be proud of 
them, as I am.
    Mr. Chairman, I very much appreciate the support of this 
subcommittee for NNSA. The 37,000 people of NNSA need your 
support. Thank you.
    [The statement follows:]

                  Prepared Statement of John A. Gordon

    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to testify on the Department of Energy (DOE) National 
Nuclear Security Administration's (NNSA) fiscal year 2002 budget 
request. The overall request--including Defense Programs, Defense 
Nuclear Nonproliferation, Naval Reactors, and the Administrator's 
Office--totals $6.8 billion.
    The Defense Programs (DP) fiscal year 2002 budget request is $5.3 
billion, an increase of 4.6 percent over the comparable appropriated 
fiscal year 2001 level. This budget will support (1) all scheduled 
maintenance, evaluation, and certification activities for the current 
stockpile, while deferring some decisions on future refurbishment 
workload; (2) manufacture of a certifiable W88 with a newly 
manufactured pit in fiscal year 2003, with no commitment to a 
certification schedule or to production quantities; (3) maintenance of 
all current facilities and sites at approximately the current level of 
funding; (4) maintenance of current management and operating (M&O) 
contractor employment levels for ongoing programs; (5) maintenance of 
secure transportation and nuclear weapon incident response assets at 
approximately their current levels; (6) current requirements for 
weapons safeguards and security, while undertaking a limited cyber 
security initiative; and (7) maintenance of federal staffing levels at 
the current, on-board level, including re-consolidation of NNSA federal 
landlord, safeguards, and security staffs. Specific line items include 
Directed Stockpile Work ($1,043,791,000), Campaigns ($1,996,413,000), 
Readiness in Technical Base and Facilities ($1,446,988,000), Secure 
Transportation Asset ($121,800,000), Safeguards and Security 
($448,881,000), and Program Direction ($271,137,000).
    The Defense Nuclear Nonproliferation (NN) fiscal year 2002 request 
is $773.7 million. This is a decrease from the 2001 budget, but this 
does not represent a lessening of our commitment to meeting the ever-
growing challenges faced in the international nonproliferation or 
threat reduction arena. The request does cover the funding needed to 
support a broad range of nonproliferation goals. These include: (1) 
international nuclear safety, (2) detecting the proliferation of 
weapons of mass destruction, (3) preventing the spread of nuclear 
materials, technology, and expertise, and (4) eliminating inventories 
of surplus fissile material usable for nuclear weapons. Specific line 
items include Nonproliferation and Verification Research and 
Development ($206,102,000), International Nuclear Safety ($13,800,000), 
Highly Enriched Uranium (HEU) Transparency Implementation 
($13,950,000), Arms Control and Nonproliferation ($101,500,000), 
International Materials Protection, Control and Accounting 
($138,800,000), Fissile Materials Disposition ($248,089,000), and 
Program Direction ($51,459,000).
    The Naval Reactors (NR) fiscal year 2002 budget request is 
$688,045,000, virtually unchanged from the fiscal year 2001 
appropriated amount. This budget will support planned activities for 
Naval Reactors Development, including Plant Technology, Reactor 
Technology and Analysis, Materials Development and Verification, 
Evaluation and Servicing, Facility Operation, and Construction. In real 
terms, the NR budget is decreasing about $18,000,000 due to inflation. 
This decrease reflects progress toward completing major inactivation 
work on the S3G and D1G prototype reactor plants at the Kesselring 
site, along with the final phase of the Windsor site inactivation and 
cleanup work. Specific line items include Naval Reactors Development 
($665,445,000) and Program Direction ($22,600,000).
    The fiscal year 2002 budget request for the Office of the 
Administrator of the NNSA is $15 million. The Department of Energy is 
required by various laws to enhance U.S. national security through the 
military application of nuclear technology, and to reduce global danger 
from the proliferation of weapons of mass destruction. The NNSA, a 
semi-autonomous Administration within the Department, carries out these 
responsibilities. Established in March 2000, pursuant to Title 32 of 
the National Defense Authorization Act for Fiscal Year 2000 (Public Law 
106-65), the NNSA is structured to provide clear and direct lines of 
accountability and responsibility for the management and operation of 
the nation's nuclear weapons, naval reactors, and nuclear 
nonproliferation activities.
    In January 2001, President Bush asked the Secretary of Defense, in 
coordination with the Secretary of Energy, to conduct a Strategic 
Defense Review to create a new vision for the role of the nation's 
military in the 21st century. Completion of this review will certainly 
impact the fiscal year 2002 and out-year budgets for defense and 
national-security-related activities. The Administration plans to 
determine the final fiscal year 2002 and out-year funding requests when 
the Strategic Defense Review is complete. As Secretary Abraham 
indicated in his statement on April 9, 2001, concerning the DOE fiscal 
year 2002 Budget Request to Congress, ``While awaiting the policy 
shaped by the Strategic Defense Review, we will refocus funding to meet 
vital national security needs, including investments to maintain our 
nuclear weapons arsenal, shore up an aging weapons infrastructure, and 
improve safeguards and security at all DOE facilities.'' I am here 
today to describe those efforts and the progress we have made since the 
NNSA was created.
Standing up the NNSA
    As you know, the NNSA has formed for just over one year. As the 
NNSA Administrator, this is my first opportunity to appear before the 
Subcommittee to discuss the NNSA budget request. Before providing a 
detailed presentation of our budget, based on our key goals and 
strategies for attaining those goals, let me share with you my 
observations about the nation's nuclear security enterprise and some of 
the accomplishments the NNSA has achieved during its short existence.
    I begin by emphasizing that our focus is on our mission, as 
Congress defined it in the NNSA enabling legislation--Title 32 of the 
National Defense Authorization Act for Fiscal Year 2000. Title 32 
contains six mission objectives:
  --To enhance United States national security through the military 
        applications of nuclear energy.
  --To maintain and enhance the safety, reliability, and performance of 
        the United States nuclear weapons stockpile, including the 
        ability to design, produce, and test, in order to meet national 
        security requirements.
  --To provide the United States Navy with safe, militarily effective 
        nuclear propulsion plants and to ensure the safe and reliable 
        operations of those plants.
  --To promote international nuclear safety and non-proliferation.
  --To reduce the nuclear danger from weapons of mass destruction.
  --To support United States leadership in science and technology.
     The NNSA's mission is to strengthen national security and reduce 
the global threat from weapons of mass destruction, through the 
application of science and technology. While standing up the NNSA has 
proceeded more slowly than I would have liked, we are fulfilling our 
mission every day in our laboratories, production facilities, test 
site, and, yes, even in remote parts of the world, where we pursue our 
nonproliferation goals. And, my friend Admiral Bowman oversees 102 
naval nuclear reactors, helping underwrite American military presence 
and deterrence around the globe.
                              observations
    Over the six months, I have traveled to all of the national defense 
laboratories, the production plants, and the federal field offices. I 
have met many of the men and women who make up the NNSA. Based on my 
observations and interactions, I am very impressed with the dedication 
our team brings to their work and our mission; the intelligence and 
creativity they apply to the highly complex scientific and engineering 
problems that confront them; and the technical skills they use to 
maintain the safety, security and reliability of this nation's aging 
nuclear weapons stockpile, while addressing the risks of proliferation 
and use of weapons of mass destruction, and developing the most 
efficient, safest nuclear reactors ever conceived.
    As long as nuclear deterrence remains the cornerstone of our 
national security strategy and we continue to face the risk of weapons 
of mass destruction, we must ask nothing less than the continued 
excellence these people have delivered for more than fifty years. In 
fact, we must continue to demand more--more security, improved health 
and safety of our workers, more environmentally benign processes, and 
higher efficiency. They, in turn, deserve our support and our advocacy.
    As we discuss budgets, programs, and projects, it is imperative 
that we not lose sight of the fact that the success of the NNSA depends 
on these talented and patriotic Americans--the technicians, 
administrative staff, scientists, guards, engineers, maintenance crews, 
managers, and all the others--who contribute to the nation's nuclear 
defense. One of my jobs is to make certain that none of us lose sight 
of this simple fact--we must not jeopardize the success of these 
programs by making decisions that unnecessarily hinder our people from 
performing their best work or stifle their creativity or limit their 
initiative.
    I assumed this job at a moment in which the enterprise, as a whole, 
was struggling with security concerns and questions about its future, 
and the morale of our people was at an all-time low. While hard to 
quantify, I sense, and I believe my colleagues and the leadership at 
the laboratories and production plants would agree, that morale has 
begun to improve. People are starting to feel better about themselves, 
their work, their institutions, and the direction in which they see the 
NNSA moving, especially at the laboratories.
                        mission accomplishments
    Last year, our overall budget saw its first real growth in many 
years, and, for that, I thank the Congress. This tangible commitment to 
our mission by Congress has sent a strong signal that the mission is 
important and enduring, and has allowed all of us in the enterprise to 
begin to really look to the future. With these additional funds, we 
have begun to make marginal improvements. These additional funds will 
make it easier to attract and retain the next generation of scientists 
and engineers, to continue to build the needed experimental and 
computational facilities, and to begin to correct for our aging 
infrastructure at the production sites and laboratories. Congress 
authorized an increase in Laboratory Directed Research and Development 
(LDRD). In fiscal year 2001, we have established a new research and 
development program, dedicated to improving the efficiency and 
effectiveness of our production plants.
    That said, the NNSA enterprise is still very fragile, and there is 
much more to do. We are making aggressive, pro-active management 
decisions to improve our stewardship of the resources provided by the 
Congress.
    The NNSA completed the fifth annual certification of the nuclear 
weapons stockpile, with the Secretaries of Defense and Energy signed 
their certification letter on January 11, 2001, for transmission to the 
President.
    Activities are on track to restore the capability of producing 
tritium, which is required for proper operation of all nuclear-weapon 
types in the stockpile. On January 1, 2000, a thirty-year interagency 
agreement with the Tennessee Valley Authority (TVA), making three of 
its reactors available to begin irradiation of tritium production 
absorber rods, as early as October 2003. On July 27, 2000, ground was 
broken for the Tritium Extraction Facility at the Savannah River Site. 
Delivery of new tritium gas is expected to commence in February 2006.
    In concert with the Department of Defense, and through the Nuclear 
Weapons Council, we now have an agreed upon program to refurbish the 
B61 bomb and the W76 and W80 warheads, which constitute a significant 
portion of the stockpile. This work, in addition to the ongoing 
refurbishment of the W87 intercontinental ballistic missile warhead, is 
a clear demonstration that stockpile stewardship is working, and a 
clear measure of a renewed, much improved relationship with the 
Department of Defense. At the same time, this planned workload demands 
resources that are not included in the original Stockpile Stewardship 
Program and demand long-delayed improvements in plant infrastructure, 
as well.
    There are new contracts in place that give NNSA better oversight at 
our plants and laboratories at Y-12, Pantex, Kansas City, and Los 
Alamos and Lawrence Livermore National Laboratories.
    The approach to solving infrastructure issues is also moving in the 
right direction. We have begun a Recapitalization Initiative to develop 
an integrated, prioritized list of maintenance and infrastructure 
activities that, when completed, will significantly increase the 
operational efficiency and effectiveness at all of our sites. It is a 
long-term plan that will allow us to create a weapons complex that is 
properly sized, using modern technologies to protect the health and 
safety of our workers and communities, without creating a legacy of 
hazardous waste and distrust that we do not want, nor can we afford. 
This plan will increase the operational readiness of facilities, reduce 
non-productive facility downtime and high costs associated with 
unplanned corrective maintenance, arrest the continuing deterioration 
of facilities, extend the useful lifetimes of current facilities.
    NNSA has rebaselined the work at the National Ignition Facility. 
There has been a major turnaround in the management of this once-
troubled program, and I have recently certified to Congress that the 
program is on schedule and within budget. We are making progress in 
plutonium pit manufacturing and certification, although there are 
serious issues ahead of us. Directed Stockpile Work has made enormous 
leaps, and is providing the thousands of parts needed to keep the 
nuclear stockpile safe, secure, and reliable. The Advanced Simulation 
and Computing program (formerly the Accelerated Strategic Computing 
Iniative [ASCI]) is continuing, on track, to provide the world-class 
computing and simulation tools required to maintain the stockpile, now 
and into the future. The Nevada Test Site continues to conduct 
experiments, subcritical and others, that are providing valuable data 
on the health of the nuclear weapons stockpile, and are exercising 
skills necessary to maintain test readiness.
    We have begun implementing ``Integrated Safeguards and Security 
Management'' in the NNSA. ISSM, as it is known, will build safeguards 
and security considerations into management and work practices, at all 
levels, so missions are accomplished securely. It is designed to 
involve the individuals performing work in the process of establishing 
appropriate safeguards and security practices. Subject matter experts 
are available to provide guidance and information, but we must place 
the responsibility for working securely squarely on the shoulders of 
every individual in our complex--the scientists, technicians, 
production workers, and professionals performing and managing our 
missions.
    NNSA has been hard at work to secure and dispose of nuclear warhead 
materials, at home and abroad. We are establishing methods to help 
prevent the unthinkable from happening--the use of weapons of mass 
destruction in an attack on this country or our citizens. NNSA's world-
class expertise at its national laboratories is vital to the success of 
this effort.
    Since 1993, the Materials Protection, Control and Accounting 
(MPC&A) program has formed a first line of defense by working with 
Russia to improve the security of weapons-usable material at ninety-
five sites. By the end of the current fiscal year, the program will 
have completed rapid security upgrades for nearly 4,000 Russian Navy 
nuclear warheads and an additional 220 metric tons of HEU and plutonium 
located in Russia and the Newly Independent States--enough material to 
make roughly 20,000 nuclear devices. In addition, our Second Line of 
Defense (SLD) Program is improving Russia's ability to detect and 
interdict nuclear smuggling, by installing radiation detection 
equipment at key Russian border crossings, including three seaports and 
two airports.
    NNSA is helping to prevent the proliferation of weapons-usable 
material, while significantly reducing long-term storage costs for 
these materials in the United States Under the materials disposition 
program, the United States and Russia are implementing an agreement, 
signed in September 2000, to permanently dispose of sixty-eight metric 
tons of weapons-grade plutonium--thirty-four metric tons on each side.
    We continue to transfer quantities of surplus U.S. highly enriched 
uranium--more than thirty-four metric tons to date--to the U.S. 
Enrichment Corporation, for downblending to low-enriched uranium 
nuclear-reactor fuel. We recently signed an agreement with the TVA to 
dispose of another thirty-three metric tons of highly enriched uranium. 
This agreement with the TVA will save U.S. taxpayers nearly $600 
million over the cost of disposing of it as waste.
    Under the HEU Purchase Agreement with Russia, we have overseen the 
conversion of 110 metric tons of Russian weapons-grade HEU to low 
enriched uranium, for commercial sale to the U.S. for our nuclear power 
plants. This amount is equivalent to roughly 4,400 nuclear weapons.
    NNSA employees are also training civilian nuclear reactor workers 
in Russia and the Newly Independent States to increase safety standards 
and prevent another accident, such as the one that occurred at 
Chornobyl. On December 15, 2000, the government of Ukraine permanently 
shut-down the last remaining operational reactor at the Chornobyl 
Nuclear Power Plant, on schedule. NNSA experts were instrumental in 
making certain this historic achievement was possible.
    The Multi-spectral Thermal Imager satellite was launched on March 
12th, 2000. This small research satellite was designed and built by a 
team of NNSA laboratories and industry partners, to develop and test 
remote sensing concepts that will add to our country's ability to 
monitor nuclear proliferation. Additionally, this unique satellite is 
being used by a wide number of civil, environmental, and defense 
scientists to conduct a broad array of government research.
    The Nuclear Cities Initiative (NCI) aims to prevent and reverse the 
threat of proliferation of nuclear weapons expertise, by redirecting 
weapons scientists in Russia's nuclear cities to sustainable, non-
weapons activities. The NCI also enhances U.S. national security by 
assisting Russia in reducing the overall size of its nuclear weapons 
production complex. Last year, this program achieved an historic 
accomplishment when the Russians moved a concrete fence at the Avangard 
weapons facility, creating an open ``Technopark'' for commercial 
businesses. This is the first time that a Russian weapons facility has 
reduced its footprint, as part of the nuclear weapons complex 
downsizing they have committed to undertake.
    All of this said, we face a period of uncertainty in our 
cooperative programs with Russia to reduce the threats of weapons of 
mass destruction. Recently, Russian President Putin dismissed the head 
of the Ministry of Atomic Energy, Minister Adamov, and replaced him 
with Alexandr Rumyantsev, from the Kurchatov Institute. We are 
uncertain what this change will mean for our programs. We remain 
concerned about access required to ensure that our cooperative threat 
reduction programs are implemented properly and that our financial 
contributions are well spent. We are also mindful of Russia's 
cooperation with Iran.
    Naval Reactors has compiled an unparalleled record of success, 
including
  --Nuclear-powered warships have safely steamed more than 122 million 
        miles, equivalent to nearly 5,000 trips around the Earth.
  --Naval reactor plants have accumulated 5,200 reactor-years of 
        operation, compared to approximately 2,540 for the U.S. 
        commercial industry. In addition, our operating experience is 
        approximately half that of the entire commercial power 
        industry, worldwide (our 5,200 reactor-years, compared to 
        approximately 9,660 worldwide, including the United States).
  --Naval Reactors' outstanding, and fully public, environmental record 
        enables our ships to visit more than 150 ports around the 
        world, which is critical to our nation's forward-presence 
        strategy and ability to project power.
Policy Reviews
    As mentioned above, the new Administration has chartered several 
reviews to create a new vision for the role of the nation's military in 
the 21st century. These reviews will examine the appropriate national 
security strategy for this country. One of the reviews will encompass 
the role of nuclear deterrence and a position on the size of the future 
nuclear stockpile. A second review will evaluate all U.S. 
nonproliferation programs with Russia. At the end of this review, we 
may have a new strategy for our threat reduction activities with 
Russia. The Department and the NNSA are active participants in these 
reviews. The Administration will finalize fiscal year 2002 and out-year 
funding requests for defense when these reviews are complete.
                     improvements are still needed
    No matter the outcome of these strategic reviews, we recognize the 
need for change in the business practices of the Nation's nuclear 
security enterprise.
    While we are making steady progress, the NNSA still has work to do 
to get security right. Our people must see that there is value added in 
new or additional security requirements. We want to make sure that what 
we do actually improves security, and that security measures do not 
unnecessarily impede accomplishing our mission. We have stressed the 
concept of science AND security, rather than science OR security. We 
must make sure that the scientific culture and the security culture 
mesh. Our scientists must understand the need for classification and 
security, as they advance science. Similarly, our security officers 
must be sensitive to the environment in which we operate, and help 
further our mission. Our scientists, engineers, technicians, and our 
security and counterintelligence personnel must see themselves on the 
same team.
    We must focus on revitalizing our infrastructure, which has long 
been neglected. This is key for the organization to improve morale, 
increase recruitment, and retain people. No one wants to work in a 
facility where weeds grow through the cracks in the buildings, or where 
you have to wear a hard hat, not for normal safety requirements, but 
because the concrete in the roof may fall down at any time. 
Revitalizing our infrastructure will take additional funding, but it 
will be incumbent upon us to set priorities so this job is done in the 
most cost-effective way, in future years.
    NNSA, as an organization, must continue to sharpen its project 
management skills. Just two weeks ago I was at Lawrence Livermore 
National Laboratory's National Ignition Facility. The people there are 
making great strides in focusing on the project, completing 
conventional-facility construction, and maintaining a schedule that 
will see this project to fruition.
    At Los Alamos National Laboratory, Defense Programs must ensure 
that the capability to manufacture plutonium pits is reestablished, and 
we must come to grips with the long-term requirements for pit 
manufacture. We have recently established a full-time office in DP that 
focuses solely on pit production and certification. This pit project 
office sets schedules and milestones to ensure that we can produce 
pits, and that they can be certified by the laboratory for use in the 
stockpile.
    A key to many of the management challenges facing the NNSA is 
implementing a planning, programming, budgeting, and evaluation 
process. This new management system will (1) improve discipline in 
program and project management, (2) ensure that each program and 
project receives appropriate consideration, as tradeoffs are made in 
establishing the integrated budget, and (3) create meaningful 
performance measurement and feedback systems. We will measure the value 
of this system through improvement in our mission performance.
    As a first step in the implementation of this process, we have 
begun a strategic planning process to identify key goals of the NNSA, 
strategies for attaining those goals, and measures for tracking 
progress on our goals. In addition to ensuring that NNSA is in 
compliance with the Government Performance and Results Act (GPRA), this 
effort has helped foster a recognition of the benefits of managing 
nuclear security programs on an enterprise-wide basis. We have 
organized our budget testimony this year to track the key goals and 
strategies identified by our senior managers. Our six primary goals 
are:
  --Maintain and enhance the safety, security, and reliability of the 
        Nation's nuclear weapons stockpile, meeting military 
        requirements designed to counter threats of the 21st Century.
  --Assure the safe and secure management of nuclear facilities, 
        materials, and expertise worldwide.
  --Detect, deter, and impede the proliferation and the use of weapons 
        of mass destruction.
  --Provide the Navy with safe, militarily effective nuclear propulsion 
        plants, and ensure their continued safe and reliable operation.
  --Ensure the vitality and readiness of the NNSA's scientific and 
        technical enterprise, for the next decade and beyond.
  --Create a well-managed, responsive and accountable organization by 
        employing effective business practices.
                     goal 1: stockpile stewardship
    We turn first to a discussion of the stockpile stewardship program 
that is designed to maintain and enhance the safety, security, and 
reliability of the nation's nuclear weapons stockpile, meeting military 
requirements designed to counter threats of the 21st Century. To ensure 
that the U.S. stockpile of nuclear weapons remains safe, secure, and 
reliable, the NNSA will continue to advance the Stockpile Stewardship 
Program. This program was established by the fiscal year 1994 National 
Defense Authorization Act, which directed the Secretary of Energy ``to 
establish a stewardship program to ensure the preservation of the core 
intellectual and technical competencies of the United States in nuclear 
weapons.'' The Stockpile Stewardship Program must: (1) predict, detect, 
and evaluate potential problems, due to the aging of the stockpile, (2) 
refurbish and re-manufacture warheads and components, as required, (3) 
support focused, multi-faceted efforts to increase the understanding of 
the stockpile, and (4) maintain the science and engineering 
institutions needed to support the nations's nuclear deterrent, now and 
in the future.
    Surveillance and assessment activities, including many aboveground 
experiments, the manufacture of limited-life components and replacement 
parts, the reestablishment of a capability to fabricate plutonium pits, 
weapon refurbishments to extend the lifetimes of weapons in our aging 
stockpile, securing a source of tritium, and providing secure 
transportation of nuclear materials are all necessary, whether we're 
conducting nuclear tests, or not. In addition, we must maintain our 
nuclear weapons complex, which has been downsized significantly during 
the last decade and is in dire need of repair; ensure that we have a 
workforce with the necessary skills; and see to the safety and security 
of both our facilities and workforce, the communities in which we work, 
and the environment in which we live.
    We are annually conducting hundreds of experiments at our national 
laboratories and the Nevada Test Site to increase our understanding of 
what happens when a nuclear weapon detonates. The software being 
validated by these experiments is already making significant 
contributions to the maintenance of the nuclear stockpile. Early 
versions of the three-dimensional weapon performance codes are 
resolving previously unexplained phenomena from past underground test 
data and are contributing to the resolution of issues that have been 
raised by our surveillance program. Simulations have also enabled us to 
qualify, for the first time without nuclear tests, a radiation-hardened 
component and a replacement neutron generator for the W76.
    Experiments in facilities now under development, such as the 
National Ignition Facility (NIF), and those that are on-line, such as 
the Z accelerator and the Dual-Axis Radiographic Hydrodynamic Test 
Facility (DARHT), will greatly expand our knowledge of what happens in 
a nuclear detonation. The closer our scientists and engineers get to 
duplicating in the laboratory the phenomena that occur in nuclear 
detonation, the greater our chances are of being able to continue to 
certify that our stockpile is safe, secure, and reliable, without the 
need to return to nuclear testing. But, even if there were no 
moratorium on nuclear testing, most activities encompassed by the 
Stockpile Stewardship Program would still be necessary to assess, 
certify, and maintain the safety, security, and reliability of the 
stockpile.
Stockpile Certification
    A cornerstone of the Stockpile Stewardship Program is the 
certification to the President, by the Secretaries of Defense and 
Energy, whether any safety or reliability concerns exist that would 
require a return to nuclear testing. At his confirmation hearing, 
Secretary Abraham stated that, in his judgment, ``one of the most 
sobering and important responsibilities vested in the Secretary of 
Energy is the duty to certify to the President each year that the U.S. 
nuclear stockpile is safe, secure, and reliable . . ..'' In a like 
manner, I believe my most important responsibility, as the 
Administrator of the NNSA, is to facilitate that process.
    Certification is based on a yearly, rigorous technical review of 
the condition of the stockpile by the Directors of the three nuclear 
weapons laboratories, the Commander in Chief of the U.S. Strategic 
Command, and the Nuclear Weapons Council. The most recent assessment 
concludes that the stockpile is safe and reliable, and that no nuclear 
testing is needed at this time.
    This certification is made possible by activities within the 
Stockpile Stewardship Program, through an extensive set of activities 
and tests assessing and qualifying the myriad of components and 
subsystems of each of our weapon system types. Data and test results 
must be analyzed, assessed, and evaluated before conclusions can be 
drawn regarding the safety and reliability of stockpiled warheads. A 
significant imperative of assessment and certification is to develop 
the necessary tools to accurately baseline warheads in the existing 
stockpile, while designers with nuclear-test and warhead-design 
experience remain to mentor the next generation of stockpile stewards.
    The key to accurate assessments is the expert judgment of our 
weapons scientists and engineers. Confidence in the accuracy of their 
judgment and confidence in the safety, security, and reliability of the 
warheads in our stockpile are more closely linked than ever before. In 
the past, a weapon steward's judgment was developed and validated 
through new warhead design and nuclear testing. Today, our Stockpile 
Stewardship Program is honing and demonstrating expert judgment of the 
next generation of stockpile stewards through integrated use of 
surveillance, computational simulations, applied scientific 
experimentation, material and aging studies, and nonnuclear 
experiments.
    In the absence of nuclear testing, a variety of experiments and 
tools provide data relevant to nuclear warhead performance. Some of the 
older tools, designed to complement nuclear testing, are not, in and of 
themselves, sufficient to provide the needed information. A suite of 
enhanced capabilities and facilities, to fill in the knowledge gaps and 
provide enhanced data relevant to various stockpile concerns, has been 
identified and is being developed through our Campaigns, described 
later in my testimony.
    We are implementing stockpile stewardship through two strategies: a 
program of Directed Stockpile Work, and development of a suite of 
science, engineering, and readiness Campaigns.
Directed Stockpile Work
    The first strategy for maintaining the safety, security, and 
reliability of the Nation's nuclear stockpile is our program of 
Directed Stockpile Work, developed in concert with the DOD. This 
program applies the improved tools and technologies developed by all 
elements of the Stockpile Stewardship Program, and consists of three 
important elements: maintenance and evaluation, refurbishments, and 
dismantlements.
Stockpile Maintenance and Evaluation
    The budget submission for fiscal year 2002 will support all 
scheduled maintenance and evaluation activities for the current 
stockpile. Each year, eleven weapons of each type in the stockpile are 
returned from the active force and are disassembled, examined, tested, 
and analyzed for defects. One is destructively tested. If defects are 
found, their effect on reliability and safety is assessed. We conduct 
flight and laboratory tests on systems and components, including the 
destructive testing of pits. In fiscal year 2002, we expect to conduct 
thirty flight tests, seventy-two laboratory tests, thousands of 
component tests, and we will destructively analyze nine pits. The 
current budget request will allow us to continue to reduce the backlog 
of laboratory tests resulting from other priorities during past years. 
The additional $23 million over our request in fiscal year 2001 that 
Congress provided for reducing the testing backlog was instrumental in 
reducing the backlog this year. The additional $17 million that 
Congress provided for the Enhanced Surveillance Campaign in fiscal year 
2001 enabled us to initiate and accelerate the deployment of advanced 
diagnostic tools, for early identification of warhead aging problems 
that otherwise may not be detectable until too late.
    Scheduled maintenance also includes the replacement of limited-life 
components, such as neutron generators and tritium reservoirs. In 
fiscal year 2002, we expect to produce and fill 1,695 tritium 
reservoirs, produce 1,445 new tritium reservoirs, re-certify 854 
neutron generators, and produce 296 new neutron generators. In fiscal 
year 2001, the complex accomplished the exchange of nearly 4,500 
limited-life components. We also expect to achieve first production of 
replacement tritium reservoirs for the W62 and W87, and continue 
production of the replacement neutron generator for the W76.
    As our nuclear weapons continue to age, we expect more parts to 
require replacement. Manufacturing replacement parts sounds 
straightforward, but in the time that has elapsed since the current 
weapons in the stockpile were originally manufactured, some of our 
production plants have closed, manufacturing processes, techniques, and 
standards have changed, and there are more stringent health, safety, 
and environmental standards. Under these conditions, manufacturing 
exact replacement parts is difficult, if not impossible and, because 
nuclear testing can no longer be used to qualify the replacements, 
extensive testing and analyses must be conducted to ensure that the 
replicated components are acceptable.
    At present, we have nine weapons alterations underway to meet 
higher safety standards or to replace faulty components in various 
systems. We are currently on schedule with all nine alterations, and 
the fiscal year 2002 budget supports those schedules. In addition, we 
have reached agreement, with the Department of Defense, on a 
comprehensive plan for refurbishing the nuclear stockpile over the 
coming decade. Implementation of that plan awaits the decisions from 
the Strategic Defense Review, and the current fiscal year 2002 budget 
submission supports only limited execution of that plan.
Refurbishments
    Following cessation of production at the Rocky Flats Plant in 1989, 
the United States has not produced a new nuclear warhead since 1991, 
nor have we had any requirement to build a new warhead. Prior to 1991, 
major refurbishment of a warhead to extend its life was not an issue, 
because new weapon types were continually being introduced into the 
stockpile. Currently, the average age of warheads in the stockpile is 
eighteen years, and signs of aging have been identified through 
stockpile evaluation and enhanced surveillance. As the stockpile ages, 
we are working closely with the DOD to finalize detailed plans to 
extend the lifetime of each warhead type. These life extensions, or 
refurbishments, include the detection and correction of problems, and 
provide and maintain safety improvements and use control.
    The budget submission continues the major refurbishment of the W87 
warhead, deployed on land-based intercontinental ballistic missiles. 
This is the first major retrofit of any warhead in nearly a decade. 
Delivery of the first production unit to the Air Force, in May 1999, as 
scheduled, six years after conception of the project, was a major 
success. The safety concerns and production-line problems that occurred 
at our Pantex Plant are lessons learned that will be applied in future 
refurbishments.
    Last year, the Nuclear Weapons Council reached final agreement on 
the technical scope of the refurbishments needed for the B61 bomb and 
for the W76 and W80 warheads. Together, these systems comprise a 
substantial portion of the current U.S. stockpile, and the additional 
funding received for research and development in fiscal year 2001 was 
used for W76 refurbishment design and W88 dynamic experimentation. The 
fiscal year 2002 request will support laboratory activities to complete 
the ongoing studies to refurbish the B61 (some components of which are 
more than thirty years old), to initiate development engineering to 
support a first production unit in fiscal year 2004, and to begin the 
development of a plan for certification of the B61, with a refurbished 
canned subassembly. We plan to work with the Department of Defense to 
determine a schedule and, possibly, revised scopes for the W76 and W80 
refurbishments, pending completion of the Strategic Defense Review. The 
current budget request does not support the original schedule eveloped 
with DOD.
Warhead Dismantlement
    Since the end of the Cold War, the United States has reduced its 
nuclear weapons inventory by approximately sixty percent. NNSA is 
currently disassembling two types of warheads, and is committed to the 
safe disassembly of any warheads retired, as a result of the ongoing 
national security strategy review or future decisions. Disassembly of 
the W79 Artillery-Fired Atomic Projectile will be complete in fiscal 
year 2003, and disassembly of the W56 Minuteman II intercontinental 
ballistic missile warhead will be complete in fiscal year 2005.
Campaigns
    The second stockpile stewardship strategy is to maintain and 
develop the scientific, engineering, and manufacturing capabilities 
needed for the continued certification of the stockpile, including the 
ability to design new weapons and conduct underground nuclear tests. 
This strategy is being implemented through a series of Campaigns, which 
are focused, scientific and technical efforts to develop and maintain 
critical capabilities needed to enable continued certification of the 
stockpile for the long-term. They are technically challenging, 
multifunctional in nature, and have definitive milestones, specific 
work plans, and specific deliverables. The Campaign approach was 
initiated in fiscal year 2001 as part of a new program planning and 
budgeting framework, to facilitate integration within the Stockpile 
Stewardship Program. There are currently seventeen campaigns:
  --Primary Certification,
  --Dynamic Materials Properties,
  --Advanced Radiography,
  --Secondary Certification and Nuclear Systems Margins,
  --Enhanced Surety,
  --Weapons System Engineering Certification,
  --Nuclear Survivability (formerly Hostile Environments 
        Certification),
  --Enhanced Surveillance, Advanced Design and Production Technologies,
  --Inertial Confinement Fusion and High Yield (includes NIF),
  --Advanced Simulation and Computing (formerly the Accelerated 
        Strategic Computing Initiative),
  --Pit Manufacturing and Certification (formerly Pit Manufacturing 
        Readiness),
  --Secondary Readiness,
  --High Explosives Manufacturing and Weapons Assembly/Disassembly, 
        Nonnuclear Readiness,
  --Materials Readiness, and Tritium Readiness.
    Today, I would like to discuss, in detail, a few of these 
Campaigns.
Pit Manufacturing and Certification
    We have not manufactured plutonium pits for use in the stockpile 
since 1989, when the Rocky Flats Plant stopped production of W88 pits, 
due to facility safety and environmental concerns. As a result, there 
are not enough W88 pits to meet future surveillance destructive-testing 
requirements. The budget request for fiscal year 2002 continues to 
reestablish a capability to fabricate a limited number of plutonium 
pits at Los Alamos National Laboratory. The plan is to complete the 
fabrication of a certifiable W88 pit in fiscal year 2003, within this 
budget request, with no commitment to a certification schedule or to 
production quantities. As we proceed, we will continue to work closely 
with the Navy to ensure that military needs for the W88 are met.
    The additional $25 million, provided by Congress in fiscal year 
2001, was instrumental in developing momentum in pit manufacturing. The 
NNSA completed a report for Congress earlier this month, as requested 
by the conference report accompanying the Energy and Water Development 
Appropriations Act for Fiscal Year 2001. The recently submitted report 
contains project schedules and cost estimates for production and 
certification of W88 pits.
    The magnitude of the challenge to reestablish a pit production 
capability at Los Alamos National Laboratory can, perhaps, best be 
illustrated by the fact that approximately 18,000 activities and 350 
individual work packages have been identified, to complete production 
and certification of the W88 with a newly manufactured pit. To date, we 
have produced eight W88 development pits, and are on schedule to 
reestablish the technology and manufacture a certifiable W88 pit in 
fiscal year 2003. A detailed and rigorous set of engineering and 
physics certification tests has been defined, to achieve certification 
without nuclear testing.
    A pit project office was established this past year within Defense 
Programs, to provide oversight of all pit production and certification 
related activities. In addition to near-term activities, such as the 
W88, this new office is responsible for long-term pit production 
readiness planning. For future readiness, we are using the $2 million 
provided by Congress this fiscal year to conduct pre-conceptual design 
studies, sufficient to enable a decision for conceptual design planning 
of a modern pit facility in fiscal year 2002. In fiscal year 2004, new 
information from pit-aging studies is expected to provide further 
insight into pit lifetimes. This information, coupled with the 
requirements for the numbers and types of weapons in the stockpile 
resulting from the President's Strategic Defense Review, will drive 
sizing decisions for a modern pit facility. The Nuclear Weapons Council 
will continue to monitor our work in this area.
Tritium Readiness
    Every U.S. nuclear warhead requires tritium to function as 
designed. Because tritium, a radioactive isotope of hydrogen, decays at 
the rate of 5.5 percent per year, it must be periodically replenished 
within each nuclear warhead. We have not produced tritium since 1988, 
and our inventory, depending on the results of the Strategic Defense 
Review, is sufficient only until approximately 2005, after which time 
the five-year tritium reserve we maintain may begin to be drawn down. 
In May 1999, the Department announced that TVA commercial light water 
reactors would be used to produce tritium, and that accelerator 
production of tritium (APT) technology would be developed as backup, by 
completing preliminary design and engineering development and 
demonstration activities.
    A 30-year interagency agreement with TVA went into effect on 
January 1, 2000, making three of its reactors, Watts Bar and Sequoyah 1 
and 2, available to begin irradiation of tritium production absorber 
rods, as early as October 2003. This month, TVA submitted a request to 
the Nuclear Regulatory Commission (NRC) to amend its operating license 
for the Watts Bar and Sequoyah reactors, to permit irradiation of 
tritium producing absorber rods. The NRC committed to expediting the 
approval of these requests.
    On July 27, 2000, ground was broken for the new Tritium Extraction 
Facility (TEF) at the Savannah River Site and, during fiscal year 2001, 
site preparation and detailed design for the facility is expected to be 
completed. Originally, construction of TEF was to have begun in early 
fiscal year 1999, but language in the National Defense Authorization 
Act for Fiscal Year 1999 prohibited any tritium construction activities 
during fiscal year 1999. Because of this delay in schedule, we project 
that the TEF will not begin delivering tritium gas from irradiated 
absorber rods until February 2006. Depending on the results of the 
Strategic Defense Review, about one year of the five-year tritium 
reserve may be consumed. The capacity of TEF to extract tritium from 
the absorber rods will be sufficient to restore the reserve, within two 
to three years.
    Congress appropriated additional funding for APT in fiscal year 
2001, and the preliminary design of APT is expected to be completed 
this year. However, the current fiscal year 2002 budget request does 
not include sufficient resources to complete the engineering 
development and demonstration activities in fiscal year 2002, as 
previously planned. In addition, an Advanced Accelerator Applications 
Program that is being planned by Defense Programs and the Office of 
Nuclear Energy, Science and Technology, may be put on hold. This multi-
mission accelerator program is to include waste transmutation, isotope 
production, and tritium production. An Accelerator Demonstration Test 
Facility is being planned that would have the capability to be upgraded 
to produce tritium, if required.
Advanced Simulation and Computing
    Senator Bingaman indicated, in the preface to a question following 
Secretary Abraham's confirmation hearing, that he was disturbed that, 
following the hearing held last Fall on the Stockpile Stewardship 
Program, as part of the hearings on the Comprehensive Test Ban Treaty, 
many of his ``colleagues seemed to get the impression . . . that the 
Stockpile Stewardship Program is a sort of computer simulation exercise 
. . . '' I want to dispel that impression.
    Computer modeling and simulation are important elements of the 
Stockpile Stewardship Program, but the ultimate goal of our Advanced 
Simulation and Computing Campaign (ASC), formerly referred to as the 
Accelerated Strategic Computing Initiative (ASCI), is to have the 
ability to perform three-dimensional, high-fidelity simulations of the 
performance of all aspects of the operation of a nuclear warhead. By 
integrating the findings of our experimental and engineering R&D 
programs, as well as data from past nuclear tests, such simulations are 
providing our scientists with sufficient confidence to make it 
unnecessary to use underground nuclear testing at this time.
    To fully achieve our goal, it is estimated that we must have a 
computer system operating at a minimum of 100 trillion operations per 
second (teraOPS), and computer software, validated by experimental data 
that provides a much greater understanding of the physics of nuclear 
explosions than we possess today. We are making remarkable progress 
toward achieving our goals in this area.
    In December 1999, a three-dimensional simulation of the primary 
explosion of a nuclear warhead was successfully completed, for the 
first time, at Lawrence Livermore National Laboratory. This proof-of-
principle simulation was performed on an ASC Campaign system operating 
at 3.89 teraOPS and took twenty days. On a Cray-class supercomputer, if 
sufficient memory were available, this simulation would have taken 
eighty years.
    Soon thereafter, Sandia successfully completed the first-ever, 
three-dimensional computer simulations of a weapon warhead exposed to 
hostile radiation and blast environments. As part of this milestone, 
Sandia also completed a series of three-dimensional simulations of the 
performance of a neutron generator in a radiation field. These weapon 
simulations collectively required about 500,000 megabytes of memory and 
used 2,000 computing processors for 45 days.
    In April 2000, eight months ahead of schedule, a proof-of-
principle, three-dimensional simulation of the secondary explosion of a 
nuclear warhead was completed at Los Alamos National Laboratory. This 
simulation was performed on two ASC Campaign systems, operating at 
approximately 3 teraOPS each, at Los Alamos and Sandia, and took 42 
days. None of these simulations were possible, prior to the development 
of ASCI-scale computational platforms and software. We expect to meet 
the next milepost, a proof-of-principle three-dimensional simulation of 
a full weapon, including both primary and secondary operation, by the 
December 2001 scheduled date.
    The ASC Campaign contributes to all elements of the nuclear weapons 
life cycle. It is providing the tools that are needed by weapons 
designers to maintain a nuclear weapon design capability. ASC Campaign 
computers are being used to help address issues associated with the 
manufacture of replacement parts for nuclear warheads, transportation 
and storage of weapons and components, certification of weapons, 
dismantlements, and the safety of weapons in various accident 
scenarios. The ASC Campaign is an integral and vital element of the 
Stockpile Stewardship Program. It provides the integrating simulation 
and modeling capabilities and technologies needed to combine new and 
old experimental data, past nuclear test data, and past design and 
engineering experience into a powerful tool for future design, 
assessment and certification of nuclear weapons and their components.
    The success of the computer modeling and simulation program has 
been, in no small measure, due to the budgetary support it has 
received, since its inception. The computing speed, power, and level of 
physics detail existing today was simply undreamed of a few years ago. 
The current budget request, however, will slow the scheduled progress 
of the Campaign, and delay our previously announced commitment to reach 
a computing capability of 100 teraOPS from fiscal year 2004 to fiscal 
year 2005. This will delay, by at least a year, our major deliverable 
to Directed Stockpile Work--the ability to perform a high-fidelity 
simulation, in three-dimensions, of the performance of a full nuclear 
warhead.
    Completion of three ASC Campaign construction projects will also be 
delayed for at least one year with this budget. These projects are the 
Distributed Information Systems Laboratory at Sandia National 
Laboratories in Livermore, the Joint Computational Engineering 
Laboratory at Sandia in Albuquerque, and the Terascale Simulation 
Facility at Lawrence Livermore National Laboratory. Two other ASC 
Campaign program elements will also be scaled back in fiscal year 2002. 
These are the Path Forward program, which funds computer hardware and 
software companies to develop products needed to meet the aggressive 
ASC Campaign schedule, and the DisCom2 program, which provides remote 
access to the large computing platforms, enabling sharing of these 
resources among our production plants and laboratories.
    These deferrals in meeting ASC Campaign milestones are consistent 
with the possible refurbishment schedules that achievable with the 
fiscal year 2002 Budget request.
    Our commitments to selected groups in the university community 
through our Academic Strategic Alliances Program will not be affected, 
nor will the operation of the 12-teraOPS machine at Lawrence Livermore 
National Laboratory, which was recently made available for software 
development and warhead simulations. It is already fully utilized.
Inertial Confinement Fusion and the National Ignition Facility
    The National Ignition Facility, under construction at the Lawrence 
Livermore National Laboratory, is a vital element of the Stockpile 
Stewardship Program. It will allow us to study issues that affect aging 
and refurbishment of the stockpile, validate advanced simulation 
software being developed by the ASC Campaign, and help in attracting 
and retaining the exceptional scientific and engineering talent needed 
by the Stockpile Stewardship Program, over the long term.
    The National Defense Authorization Act for Fiscal Year 2001 
required the submission of a revised project baseline for NIF, in 
response to substantial cost increases and schedule slippage, caused by 
problems in assembling and installing the laser and target system 
infrastructure. The revised baseline, submitted in final form to 
Congress last September, retains the full NIF design capability of 192 
beams, with completion of the project scheduled in fiscal year 2008, 
and experiments with the first eight laser beams beginning in fiscal 
year 2004. It is important to understand that we will be conducting 
many experiments at NIF, well before all 192 beams are available in 
fiscal year 2008. Between fiscal year 2004 and fiscal year 2008, 
approximately 1,500 experiments will be conducted at NIF. The project 
goals are to achieve early light in 2003, with four laser beams, and to 
meet our ``First Light'' milestone, with eight laser beams, in 2004.
    I believe the progress at NIF reflects several management decisions 
that have been made during the past year and half. These include (1) 
the hiring of an industrial contractor with a proven record of 
constructing similarly complex facilities, to manage and install the 
laser and target system, (2) the creation of a NIF Project Office that 
reports directly to the Deputy Administrator for Defense Programs, (3) 
the appointment by the laboratory director of an associate director 
with line responsibility for the NIF Project, and (4) the selection of 
a new project manager, with extensive project management experience, to 
oversee daily NIF Project activities.
    As required by the fiscal year 2001 Energy and Water Development 
Appropriations Act, I recently certified to Congress that the NIF 
Project milestones, for the revised schedule, are being met within the 
revised budget. The project is making significant progress. We expect 
to complete construction of conventional facilities this fiscal year. 
Laser bays are now under clean room protocols, and installation of 
laser systems has begun. Our glass manufacturers have delivered more 
than 1,700 of the required 3,500 laser glass slabs that meet our 
specifications.
    The Conference Report accompanying the Energy and Water Development 
Appropriations Act for Fiscal Year 2001 also directed the NNSA to 
assess the role of NIF, to consider the requirement for the full 192-
beam configuration, and determine if alternatives to the full NIF could 
meet the safety and reliability needs of the nuclear weapon stockpile. 
To meet this requirement, the NNSA initiated a broader study to examine 
its entire High-Energy-Density Physics Program. NNSA brought together 
laboratory leadership and technical staff, DP management, and a number 
of nuclear-weapon-knowledgeable advisors from a variety of federal 
organizations. Alternatives that were considered included pauses in NIF 
construction at 48, 96, and 120 beams, a refurbishment of the Z 
accelerator at Sandia, and the addition of an engineering demonstration 
milestone to the NIF Project at first light. The principal 
recommendation of this study, which was submitted to Congress on April 
6, was that the NNSA should continue with the current High-Energy-
Density Physics Program, including Omega, the Z accelerator, and the 
192-beam NIF, with the goal of achieving ignition.
    Experiments on the Atlas pulsed-power machine at Los Alamos 
National Laboratory will begin later this year and will continue in 
fiscal year 2002. Relocation of the facility to the Nevada Test Site 
will be deferred, due to higher priorities of the stockpile and 
limitations imposed by the current fiscal year 2002 budget. In fiscal 
year 2001, we also expect the completion of the Z-backlighter project 
at Sandia, in which the Beamlet, a technology demonstration for NIF, is 
being adapted as a diagnostic tool for use on the Z accelerator. A 
variety of experiments with this technology, planned to begin in fiscal 
year 2002 to study hydrodynamics, materials properties, and inertial 
confinement physics, may also be deferred.
Other Campaign-Specific Experimental Activities
    Other experimental activities are underway, across the complex, in 
support of the nation's nuclear deterrent. At Los Alamos National 
Laboratory, physics experiments using the first-axis of the Dual Axis 
Radiographic Hydrodynamic Test Facility (DARHT) have been conducted, 
providing valuable weapons data. DARHT provides us the capability to 
take freeze-frame photos of materials imploding at speeds greater than 
10,000 miles an hour, allowing scientists to study solids and metals as 
they flow like liquids, when driven by the detonation of high 
explosives. We expect the second arm of DARHT to be completed in fiscal 
year 2002, allowing simultaneous views from two directions, as well as 
several separate views over the time of the implosion.
    Subcritical experiments at the Nevada Test Site continue to be 
successful. To date, thirteen have been conducted. These experiments 
are helping us to assess the stockpile by providing understanding of 
aspects of weapons physics and the aging properties of plutonium. They 
also help us to certify pits manufactured at Los Alamos National 
Laboratory, for use in the nuclear weapons stockpile. In addition, 
subcritical activities are a major contributor to underground nuclear 
test readiness at the Nevada Test Site. To support related materials 
research, we have also begun acceptance tests on the JASPER (Joint 
Actinide Shock Physics Experimental Research) gas gun at the Nevada 
Test Site. We expect to begin obtaining data on plutonium late this 
year.
    During this next year, we will look hard again at improving test 
readiness, and will review whether an apporpriate level of resources is 
being applied to this vital element of stockpile stewardship.
   goal 2: securing nuclear facilities, materials, information, and 
                          expertise worldwide
    Our second goal is to ensure the safe and secure management of 
nuclear facilities, materials, and expertise, worldwide. While 
maintaining and enhancing the safety, security, and reliability of the 
Nation's nuclear weapons stockpile, the NNSA has a custodial 
responsibility to ensure that all U.S. nuclear-deterrent assets--
information, facilities, and people-are safeguarded and secured to 
prohibit unwanted damage or unauthorized release of these key U.S. 
national security assets. The NNSA also works in parallel to address 
international threats to U.S. national security interests from the 
potential proliferation of weapons of mass destruction. These new 
international threats derive largely from the Soviet Union's production 
of enormous quantities of nuclear materials and weapons, and from 
potential actions by rogue nations or terrorist organizations with 
interests contrary to those of our nation. The NNSA is pursuing a 
balanced and comprehensive approach to nonproliferation that seeks to 
reduce or eliminate these threats to U.S. national security interests, 
particularly threats in Russia and countries of the former Soviet 
Union.
Integrated Security Action Plan
    A key strategy for preventing proliferation is effectively managing 
and protecting the NNSA nuclear weapons, materials, and information. 
The NNSA is pursuing an Integrated Security Action Plan to protect U.S. 
nuclear assets. While we are making steady progress, NNSA still has 
work to do to get security right. We have commissioned a group of 
eminent Americans, known as the Hamre Commission, to review the entire 
issue of science and security to help us make sure we get the right 
picture and perspective. I have warned them to be careful with their 
recommendations, because many of them are likely to be implemented.
    I have called for a six-month moratorium on implementing any new 
safeguards and security policies. We are using this time to review past 
policies, identify policy improvements, and determine how policy can 
most effectively be implemented within NNSA. We are emphasizing the 
importance of personal commitment and individual responsibility in the 
protection of our nation's vital assets, and we are seeking to involve 
employees at all levels of our enterprise in improving safeguards and 
security.
    The NNSA is ensuring that people working on our nuclear deterrent 
are aware and accountable for their national security responsibilities. 
In that regard, on March 26, 2001, I announced plans for implementing 
``Integrated Safeguards and Security Management'' in the NNSA. ISSM, as 
it is known, will build safeguards and security considerations into 
management and work practices, at all levels, so that missions are 
accomplished securely. Individuals performing the work will be involved 
in the process of establishing appropriate safeguards and security 
practices. Subject matter experts are available to provide guidance and 
information, but we must place the responsibility for working securely 
squarely on the shoulders of every individual in our complex--the 
scientists, technicians, production workers, and professionals 
performing and managing our missions.
    As you know, the counterintelligence polygraph program has raised 
concerns among scientists and others within the NNSA community. We are 
sponsoring a scientific study by the National Academy of Sciences (NAS) 
on the validity and reliability of polygraphy. The NAS study will 
include what is known about the effects of medications, sleep 
deprivation, and illness on the physiological responses measured 
through polygraph examinations. The fifteen-month study began on 
January 1, 2001. The study's final report is to be released next year 
and should help us improve upon the Department of Energy's polygraph 
program.
Safeguards and Security
    The NNSA is protecting U.S. nuclear facilities. The NNSA conducts a 
rigorous Safeguards and Security program to protect the physical assets 
of the NNSA enterprise. These efforts are an integral part of the 
Administration's mission of being a responsible steward of the nation's 
nuclear weapons. In fiscal year 2001, safeguards and security 
activities were appropriated as direct costs, rather than as allocated 
costs within indirect and overhead funding, as in the past. We are 
managing the safeguards and security as a line responsibility in the 
NNSA. My Chief of Defense Nuclear Security is responsible for 
establishing safeguards and security policy throughout the NNSA. We 
will administer the weapons safeguards and security budget for 
facilities where NNSA is the landlord, through our new Facilities and 
Operations organization, which I will discuss later in this testimony.
    In 1999, a multitude of corrective actions and enhancements to 
upgrade the safeguards and security posture at all Defense Programs 
sites resulted from a program named ``Safeguards and Security Goal 
Posts.'' By the beginning of fiscal year 2001, all final corrective 
actions and enhancements resulting from this program had been completed 
for all sites, except the Y-12 Plant, which was the only site not rated 
``satisfactory.'' The ability of the Y-12 Plant to attain an overall 
satisfactory rating hinges on the availability of funds to correct 
deficiencies in material control and accountability for the highly 
enriched uranium operations. The fiscal year 2002 Budget request will 
maintain physical security functions at our production plants, the 
Nevada Test Site, and the national security laboratories, at their 
current security ratings.
    The NNSA is protecting vital nuclear deterrent information. The 
Integrated Safeguards and Security Management program is designed to 
systematically integrate safeguards and security into management and 
work practices, at all levels, so that missions are accomplished 
securely. Implementation of the ``Higher Fences'' initiative, to 
enhance protection of certain restricted weapons data within DOE and 
DOD, by establishing an additional sigma category, requires few 
resources and is moving forward.
    The nuclear weapons complex has always used secure computing 
systems and networks. However, the need for significant improvement in 
the protection of nuclear weapon data across the entire complex has 
been well documented in the past two years. An increased number of 
countries and organizations are attempting to obtain nuclear weapon 
data and are using ever increasing sophisticated techniques.
    In response, Congress provided supplemental funding in fiscal year 
2000, to begin developing the Integrated Cyber Security Initiative 
(ICSI) Plan. Implementing this plan will sustain the operations and 
maintenance of cyber security activities throughout the complex, 
providing solutions for the most critical vulnerabilities revealed 
through risk assessments of the current network. Also, as called for in 
the ICSI plan, we will implement and demonstrate a testing network for 
evaluating and testing products and proposed solutions, complete the 
design of a new complex-wide network, and identify and catalog all 
electronic information that is exchanged in the complex.
    The fiscal year 2002 Budget request will move us forward on the 
Integrated Safeguards and Security Management program and the ``Higher 
Fences'' initiative, and will allow us to sustain the maintenance and 
operation of cyber security activities across the complex, and to 
provide upgrades where the highest vulnerabilities are assessed, but 
will not allow us to address the long-term solutions set forth in the 
Integrated Cyber Security Initiative (ICSI) Plan that was submitted to 
Congress in March of this year.
Transportation Safeguards System
    The NNSA is protecting the U.S. movement of nuclear materials, 
components and nuclear weapons. The NNSA operates a Transportation 
Safeguards System to move nuclear weapons, components, and special 
nuclear materials, throughout the country, in a safe and secure manner, 
precluding theft or diversion. This unique transportation system has 
operated with an impeccable record of safety and security for more than 
twenty-five years. Although its primary mission has been in support of 
the nuclear weapons program, the system provides transportation 
services for all DOE programs that require nuclear materials to be 
protected while in transit. This summer, the Office of Environmental 
Management will begin to remove nuclear materials from Rocky Flats. 
Other programs have also projected increases in their requirements for 
secure shipment of nuclear materials. The Transportation Safeguards 
System resources will have to be increased during the next five years 
to meet the projected demand for secure shipment of nuclear materials. 
Headquarters and the Albuquerque Operations Office, in collaboration 
with other program offices, have initiated a coordinated planning and 
scheduling process to improve the optimum usage of our assets, to 
establish NNSA authority to certify Type B shipping packages, and to 
expand our capabilities by hiring and training special federal agents 
and enlarging the fleet of trailers, tractors, and escort vehicles.
Defense Nuclear Nonproliferation Activities
    With respect to NNSA's international nuclear security 
responsibilities, the NNSA develops and implements critical U.S. 
nonproliferation programs. Its role is due, in large measure, to the 
unique expertise in nuclear weapons and nuclear material handling that 
it draws from the national laboratories. The NNSA's goal is to ensure 
the close integration of technical talent and policy expertise with the 
efforts of other U.S. agencies working in the nonproliferation arena. 
Our goal is to address this complex, multifaceted issue in a 
comprehensive way, with specific, realistic goals for each part of the 
program. The Office of Defense Nuclear Nonproliferation's programs 
address different types of problems, and they are designed to do 
different things, while working to achieve the overall goal of reducing 
the threat of proliferation of weapons of mass destruction. All of 
these programs, together, offer a synergy of effect that is greater 
than the sum of the parts.
    The NNSA is pursuing strategies to protect or eliminate vulnerable 
weapons-usable nuclear material or infrastructure, and redirect excess 
weapons expertise to civilian enterprises in Russia and other nations 
that possess vulnerable materials. The Office of Defense Nuclear 
Nonproliferation is responsible for these nuclear security programs, 
along with other programs that seek to prevent, detect, and deter 
proliferation of weapons of mass destruction and the materials needed 
to produce them. Key programs within NN that deal with vulnerable 
weapons materials and the nuclear complex infrastructure in Russia 
include (1) Materials Protection, Control, and Accounting; (2) Fissile 
Materials Disposition; (3) HEU Transparency Implementation; (4) the 
Nuclear Cities Initiative; and (5) Initiatives for Proliferation 
Prevention. NN's other nonproliferation and arms control programs will 
be discussed in the next section. The three-fold threat of unsecured 
materials, widely available technology, and underemployed expertise 
following the breakup of the Soviet Union makes these issues of 
paramount importance and urgency.
Materials Protection, Control, and Accounting
    The NNSA conducts effective programs in Russia to protect 
vulnerable weapons and weapons-usable nuclear materials. The NNSA's 
Materials Protection, Control, and Accounting program (MPC&A) is 
working rapidly to complete its mission, and estimates in its Strategic 
Plan that comprehensive security upgrades will be complete at all of 
the warhead storage locations that the Russian Navy has requested, as 
early as 2007, and for 603 metric tons of weapons-usable nuclear 
material by 2011. Since 1993, the program has completed rapid upgrades 
for nearly 4,000 warheads and 220 metric tons of fissile material. The 
unprecedented degree of cooperation and access shown by the Russian 
Navy to NNSA employees has facilitated the advancement of our work at a 
number of very sensitive Russian sites, allowing us to focus our 
personnel and funds on promptly securing the items in Russia that are 
most attractive to diversion. One programmatic goal for fiscal year 
2002 is to complete security upgrades at thirteen nuclear sites, 
bringing the total number of completed sites to fifty.
    Another goal is to promote sustainable security improvements. 
``Sustainability'' is critical to the long-term mission of the program, 
because we must ensure that installed MPC&A systems are maintained and 
operated over the long term. Sustainability also entails fostering the 
ability of our Russian counterparts to operate and maintain the MPC&A 
systems unilaterally. To ensure sustainability, we are establishing 
training centers, identifying credible Russian suppliers of MPC&A 
equipment, helping draft national regulations and security force 
procedures, and establishing a federal information accounting system to 
track amounts and locations for all of Russia's nuclear material. 
Specifically, in fiscal year 2002, we will conduct fifty training 
courses in MPC&A design, operation, and maintenance for more than 2,400 
students, bringing the total number of Russian personnel trained in 
MPC&A concepts to greater than 6,000. Furthermore, we have developed 
and implemented a program to consolidate material into fewer buildings 
and fewer sites, and to convert excess highly attractive material to a 
form that is less attractive to potential proliferant nations. In 
fiscal year 2002, this program will convert an additional 1.8 metric 
tons of highly enriched uranium to low-enriched uranium (LEU), raising 
the total converted to four metric tons. This program reduces costs to 
the U.S. by limiting the number of buildings requiring security 
upgrades. It also reduces the Russia-borne costs of maintaining 
installed security upgrades once NNSA's funds are no longer provided.
    The NNSA conducts two separate, yet complementary, programs to 
eliminate vulnerable weapons and weapons-usable nuclear materials in 
Russia, so that it will never again be used for weapons purposes. We 
estimate that there are roughly 150 metric tons of plutonium and more 
than 1,000 metric tons of highly enriched uranium in Russia. These 
programs are the first step in what is sure to be a lengthy process.
Fissile Materials Disposition
    The Fissile Materials Disposition program is responsible for 
disposing of inventories of surplus U.S. weapon-grade plutonium and 
highly enriched uranium, for reducing the significant costs associated 
with long-term storage of these materials in the United States, as well 
as for providing the technical support for, and ultimate implementation 
of, efforts to obtain reciprocal disposition of surplus Russian weapon-
grade plutonium. This disposition program is among the nonproliferation 
programs that is currently undergoing a National Security Council 
review of U.S. Government nonproliferation assistance programs to 
Russia.
    The fiscal year 2002 Budget request will fund the completion of the 
mixed oxide (MOX) Fuel Fabrication Facility design and proceed with 
related MOX fuel qualification activities. We will continue the design 
of the Pit Disassembly and Conversion Facility at a reduced rate, and 
we will suspend the design of the Plutonium Immobilization Plant. These 
changes are necessary, to reduce the anticipated future-year peak 
funding requirements associated with plans for simultaneously building 
three plutonium disposition facilities at the Savannah River Site. 
Despite these schedule changes, the NNSA continues to pursue the 
irradiation of MOX fuel in existing reactors and immobilization for the 
disposition of surplus U.S. weapon-grade plutonium. This will enable us 
to meet the commitments called for in the recently signed U.S.-Russia 
Plutonium Management and Disposition Agreement and to support the 
continued consolidation, cleanup, and shut down of DOE sites where 
surplus plutonium is stored.
    Other activities planned for fiscal year 2002 involve providing 
limited support for the development of facilities in Russia for 
disposition of surplus plutonium, and continuing surplus U.S. HEU 
disposition, including capital improvements at the Savannah River Site 
to support the off-specification blend-down project with the TVA. This 
project will eliminate tons of surplus weapons material, by converting 
it to reactor fuel for use in TVA's reactors, which provide electric 
power throughout the Southeast. Equally important, this work will also 
save the taxpayers $600 million by avoiding the cost to dispose of this 
surplus material as waste.
HEU Transparency Implementation
    The NNSA is working to convert Russian surplus HEU from the Russian 
military stockpile into a non-weapon-usable form. The 1993 U.S.-Russia 
HEU Purchase Agreement remains one of the more impressive 
nonproliferation achievements of the last decade. The NNSA's HEU 
Transparency Implementation program is designed to provide assurance 
that surplus HEU, from dismantled Russian nuclear weapons, is 
downblended in Russia to LEU and fabricated into fuel for sale and use 
in U.S. commercial power reactors.
    The program monitors the conversion and processing of this material 
at Russian facilities, subject to the terms of the Agreement. Over the 
course of the program thus far, seventy-three teams--the equivalent of 
more than 4,000 monitoring hours--have visited these facilities to 
monitor conversion operations. During the past year, the NNSA installed 
a Blend-Down Monitoring System (BDMS) at one Russian facility, to 
provide continuous monitoring data in support of our transparency 
objectives. The fiscal year 2002 Budget request will allow the NNSA to 
continue its blend-down monitoring activities, but at a slightly 
reduced level. Through the end of 2000, more than 111 metric tons of 
weapons grade uranium--enough for roughly 4,400 weapons--had been 
removed from the Russian military program, under this Agreement, and 
converted to LEU for commercial sale. Our goal for 2001 is to convert 
another thirty metric tons. This program is a major source of income 
for the Russian government. Approximately $2.2 billion has been paid to 
the Russian Federation under this Agreement, and some of this money is 
to be used for the conversion of defense enterprises and for enhancing 
the safety of Russian nuclear facilities.
Redirecting Excess Weapons Expertise and Eliminating Weapons 
        Infrastructure
    The NNSA conducts two programs focused on redirecting excess 
weapons expertise in Russia to civilian enterprises and eliminating 
their weapons infrastructure. The Nuclear Cities Initiative and the 
Initiatives for Proliferation Prevention Program are programs that work 
together with the International Science and Technology Centers and the 
Civilian Research and Development Foundation to address all aspects of 
this issue.
Nuclear Cities Initiative
    NNSA's unique ``brain drain'' program, the Nuclear Cities 
Initiative (NCI), was created in 1998, to assist the Russian Federation 
in (1) diversification of the economy within the closed nuclear cities 
to attract commercial investors, (2) enhancement of U.S. national 
security by assisting Russia in reducing the overall size of its 
nuclear weapons production complex, and (3) prevention and reversal of 
the threat of proliferation of nuclear weapons expertise, by 
redirecting weapons scientists in Russia's nuclear cities to 
sustainable non-weapons activities. We are striving to accomplish this 
task, working closely with the Russians, to (1) facilitate transition 
from weapons research to civilian business and commercial projects, (2) 
develop joint plans for accelerated downsizing of the Russian nuclear 
complex, (3) develop local infrastructure to support economic 
diversification and job creation, (4) conduct targeted training and 
other activities to improve marketing and management capabilities, and 
(5) leverage funding and encourage non-U.S. Government investment.
    The fiscal year 2002 Budget request will allow the NNSA to focus 
its commitments in only Sarov, Russia. In an effort to make the closed 
nuclear cities in Russia more amenable to international businesses, the 
NNSA has facilitated the creation of two International Business 
Development Centers, two Open Computing Centers, and two 
Nonproliferation Centers for research and training new nonproliferation 
experts. Additionally, we have expanded and upgraded telecommunications 
capabilities, to enable remote work to be done from those 
geographically isolated cities. Thus far, with a limited budget, NNSA 
has facilitated initiation of more than twenty-five commercial and 
infrastructure projects in the cities, with more than $8 million spent 
in Russia. With our help, loan officers of the European Bank for 
Reconstruction and Development loan officers are now established in 
each city, making more than $1 million in small-business loans to local 
non-weapons businesses in the closed cities. We are pleased that there 
are now twenty-four business training courses in those three cities, 
with hundreds of participants. Looking to the future, we are hopeful 
that negotiations involving more than ten potential commercial 
investors will soon bear fruit.
Initiatives for Proliferation Prevention
    The Initiatives for Proliferation Prevention (IPP) program was 
established in 1993, to prevent the proliferation of weapons 
technologies and expertise, by engaging former Soviet weapon scientists 
in cooperative research projects with DOE national laboratories and 
U.S. industry partners, especially in areas that have a strong 
potential for non-military commercialization. This program enhances 
U.S. national security by engaging former Soviet weapons scientists in 
civilian work, to prevent the spread of technologies related to weapons 
of mass destruction and also to increase access to, and transparency 
at, former Soviet weapons facilities. We have developed a rigorous 
process of screening all projects for potential dual-use activities or 
efforts, relying on other parts of the U.S. Government to bring their 
expertise to bear on this issue. At the same time, NNSA's activities in 
this arena also provide U.S. industry with technology and research 
talent from the former Soviet military establishment. Since its 
inception, the IPP program has engaged more than 8,000 scientists, 
engineers, and technicians in the Newly Independent States, and is 
supporting sixty-four cooperative research projects at sixty-five 
institutes. These efforts realized seven commercial projects and 
generated $9.4 million of commercialized products.
International Nuclear Safety and Cooperation
    Another strategy for enhancing nuclear security is to improve 
operational safety and safety systems at nuclear facilities of concern. 
The NNSA is working to reduce safety risks at the sixty-six operating, 
Soviet-designed nuclear-power reactors in nine countries, through the 
International Nuclear Safety and Cooperation program. We plan to 
complete safety upgrades for these reactors by 2006. There are three 
reactors in Russia that are to be shut down, as part of DOD's program 
to eliminate the production of weapons-grade plutonium. These three 
high-risk reactors, at secured sites, are the oldest operating reactors 
in Russia, and have not received any safety upgrades under foreign 
cooperation. Safety upgrades at these production reactors, prior to 
their planned shutdown in 2006, are among our highest priorities. 
However, the scope of activities for improved safe operation will be 
limited.
    We are encouraged not just by our progress to address nuclear 
safety at operating reactors, but by the early closure of older 
reactors as well. The Ukrainian government shutdown Chornobyl's sole 
operational reactor--Unit 3--in December 2000, as planned. Our efforts 
to support the construction of a replacement heat plant at Chornobyl, 
for decontamination and decommissioning purposes, are also proceeding 
well. We were pleased when Kazakhstan also made the tough decision to 
shut down its BN-350 reactor. Our attention is now focused on plans for 
decommissioning and decontaminating the reactor's sodium coolant, which 
will ensure that this reactor can never be restarted. The fiscal year 
2002 Budget request will allow us to complete one full-scope, nuclear 
plant training simulator, each, in Russia, Ukraine, and Slovakia. We 
will also strive for the completion of operational safety improvements 
at all plants in Russia and Ukraine. Safety procedure and reactor in-
depth safety assessments will proceed, albeit at a delayed pace.
        goal 3: detecting, deterring, and impeding proliferation
    Our third goal is to detect, deter, and impede proliferation and 
the use of weapons of mass destruction. As mentioned in the previous 
section dealing with nuclear material security, the NNSA develops and 
implements critical U.S. nonproliferation programs. In addition to the 
programs already described, NN has extensive efforts in research and 
development (R&D) and arms control arenas. Our active role in the U.S. 
nonproliferation interagency community derives, in large measure, from 
the nuclear expertise found in the national laboratories. NN supports 
U.S. national, bilateral, and multilateral efforts to reduce the threat 
posed by the proliferation of weapons of mass destruction.
Research and Development Programs
    A key nonproliferation strategy is to enhance the capability to 
detect weapons of mass destruction. The NNSA goal of integrating 
technical talent and policy expertise is evident in the 
Nonproliferation and Verification R&D Program, which enhances U.S. 
national security through needs-driven R&D, with an emphasis on 
developing technologies to detect nuclear, chemical, and biological 
proliferation, and to monitor nuclear explosions.
    The following accomplishment is just one indication of the type of 
activities NNSA is involved with in the R&D area. NNSA was proud that, 
last year, we achieved a significant milestone in one of our R&D 
programs: The Multispectral Thermal Imager satellite was launched in 
March 2000. This small research satellite, designed and built by a team 
of NNSA laboratories and industry partners, will develop and test 
remote-sensing concepts that will add to our country's ability to 
monitor nuclear proliferation. Originally designed for a 14-month 
research mission (with an expectation of three years of useful 
operation), the satellite has already achieved most of its design 
objectives. The MTI program has developed the sensor technology and 
data processing methodology to make extremely precise multispectral 
remote sensing measurements from space, and to use these measurements 
to extract important proliferation monitoring information about 
observed sites. The engineering required to achieve these precise 
measurements and complex algorithms, to extract the useful information, 
is being validated through experiments with the satellite. 
Additionally, the satellite has been used to support numerous civil, 
environmental, defense, and space science researchers throughout the 
government. The satellite has collected more than a thousand images and 
approximately one third of these were at the request of non-DOE 
experimenters.
    The Proliferation Detection program will develop the requisite 
technologies to detect nuclear proliferation. Our unchallenged lead 
responsibility for nuclear nonproliferation technology derives from the 
expertise and knowledge base resident in our nuclear weapons complex, 
and it provides a technology template for the detection of activities 
related to all weapons of mass destruction. The objectives of the 
detection program are
  --to produce technologies that lead to prototype demonstrations and 
        resultant remote proliferation detection systems,
  --to strengthen our detection capabilities to respond to current and 
        projected threats to national security and world peace posed by 
        the proliferation of nuclear, chemical, and biological weapons,
  --and to develop technologies that are subsequently made available to 
        a wide range of government users, including DOD and the 
        intelligence community.
    The separate, yet closely related, Proliferation Deterrence program 
seeks to develop technical options to prevent and deter proliferation 
of nuclear weapon technology and fissile materials. Research is focused 
on developing integrated sensor systems that will improve the accuracy 
and timeliness of information. Our NNSA experts are working hard to 
build robust technical deterrence capabilities that include the 
development of unattended and handheld technologies designed to shape 
U.S. diplomatic efforts that rely upon verification or confidence 
building measures, in addition to the development of technical means to 
defend the homeland against lost or stolen, foreign weapons or fissile 
materials. We are also improving our forensic capability to identify 
the origin of fissile material that might be associated with a nuclear 
threat.
    With the fiscal year 2002 Budget, we will continue to develop and 
demonstrate innovative remote sensing, sampling, and analysis 
technologies needed to improve early detection of a proliferant 
nation's nuclear weapons program or non-compliance with international 
treaties and agreements, as well as tracking foreign special nuclear 
materials.
    The Nuclear Explosion Monitoring Program is designed to provide the 
United States with the technical capability to detect nuclear 
explosions. Specifically, NNSA technical experts are working to develop 
and deploy sensors and algorithms that enable the United States. to 
meet its national requirements for detecting, locating, identifying, 
and characterizing nuclear explosions in the atmosphere, in space, 
underground, or underwater. Additionally, we are transitioning 
technologies to, and providing operational support for, U.S. national 
nuclear explosion monitoring agencies, including the Air Force 
Technical Applications Center, in partnership with other Air Force 
elements, the United States Geological Survey, and other government 
agencies. The program seeks to enable detection of very low-yield 
events, especially those that might arise from proliferant nation 
efforts, deliver ground-based systems comprising state-of-the-art 
hardware and software products for seismic, hydro-acoustic, infrasound, 
and radionuclide technologies, and develop, engineer, and deliver 
satellite-based systems to the Air Force. During the next five years, 
we will develop, demonstrate, and begin deliveries of a new generation 
of optical, electromagnetic pulse, and direct-radiation sensors for 
Global Positioning System Block II-F satellites.
    In fiscal year 2002, the Nuclear Explosion Monitoring program will 
continue to develop enabling technology, operational hardware and 
software, and expertise to detect, locate, identify, characterize, and 
attribute nuclear detonations through both ground-based and satellite-
based systems.
    To meet threats posed by chemical and biological agents, the NNSA 
draws upon the diverse and extensive expertise of its national 
laboratories. The goal of the Chemical and Biological National Security 
Program is to develop, demonstrate, and deliver technologies and 
systems that will lead to major improvements in U.S. capability to 
prepare for, and respond to, chemical or biological attacks against 
civilian populations. This program will continue to focus emerging 
science and technology on the threat of chemical and biological attack 
against U.S. civilian populations. The NNSA is the primary agency 
developing non-medical technical solutions for this challenge. Our 
experts are involved in a broad interagency program to develop sensors 
that could detect the terrorist use of a biological agent at a large 
outdoor event, such as the Super Bowl or the Olympics. While we do not 
have the lead on this activity, NNSA brings to the table superb 
technical experience in this field. The NNSA is providing the 
underpinning biological information necessary for biological detection 
that would support analyses for attribution and event reconstruction 
purposes, and would aid other agencies in the development of medical 
and public health countermeasures. The goals of this program are to 
develop and demonstrate
  --chemical and biological detection, identification, and warning 
        systems for domestic, high-risk areas or conditions,
  --hand-portable chemical and biological detectors, to provide real-
        time detection to increase situational awareness during crises, 
        and
  --modeling and simulation capabilities, to enable accurate prediction 
        of the effects from chemical and biological attacks in urban 
        areas, to guide preparation and response efforts, chemical and 
        biological decontamination, and restoration techniques for use 
        in civilian settings.
    The construction of the Nonproliferation and International Security 
Center at Los Alamos will continue with funding of $36 million in 
fiscal year 2002, allowing for its completion in this same fiscal year.
Arms Control and Nonproliferation
    Another key strategy is promoting arms control and nonproliferation 
treaties, promoting agreements, and regimes, and developing the 
associated technologies to support them. The mission of the Office of 
Arms Control and Nonproliferation is to detect, prevent, and reverse 
the proliferation of weapons of mass destruction (WMD) materials, 
technology, and expertise. It is the focal point within the NNSA for 
activities that support the President's nonproliferation and 
international security policies, goals, and objectives, as well as 
those activities mandated by statute. The program provides policy and 
technical expertise and leadership for NNSA and the Department in 
interagency, bilateral, and multilateral fora involved in 
nonproliferation and international security matters. Several projects 
that had been initiated last year are not proceeding currently. The 
NNSA will not be proceeding with the Separated Civil Plutonium 
activities, due to Russian nuclear cooperation with Iran. Funding for 
Spent Fuel Storage and Geological Repository in Russia are on hold, to 
allow time for the new Administration's interagency policy review. At 
the current budget level for fiscal year 2002, further assistance to 
Kazakhstan, in implementing the secure long-term storage of the BN-350 
plutonium-rich fuel, will be curtailed.
Russia-Focused Programs
    The Second Line of Defense program was created in 1998. It is 
designed to help the Russians detect and prevent nuclear proliferation 
or terrorism through the installation of radiation detection equipment 
at strategic transit and border sites in Russia. It also helps to 
strengthen Russia's ability to detect and deter illegal nuclear 
transfers, thus adhering to its international nonproliferation 
commitments. In fiscal year 2002, this program will be expanded 
slightly, to increase our cooperation with the Russian Customs 
Committee. This program's objectives include
  --equipping vulnerable border and transit sites with radiation 
        detection equipment,
  --utilizing a ``systems'' approach to equipment installation, 
        including rigorous vulnerability assessments, site survey, and 
        design of candidate sites, and acceptance testing and data 
        evaluation of installed equipment, and
  --ensuring sustainability through training for equipment use and 
        procedures for response, using Russian-manufactured and U.S.-
        tested detection equipment, and providing mobile training 
        stations for use in remote regions.
    To date, this program has been quite successful on a limited budget 
of several million dollars per year. Equipment has been installed at 
the airports in Moscow and St. Petersburg, and at a port on the Caspian 
Sea. Eight sites are fully equipped and installation at three 
additional sites is underway. This relatively young program already has 
reached significant achievements, including ninety customs officers 
trained, training manuals distributed to 30,000 front-line officers, 
passive searches of roughly 120,000 vehicles, 11,000 railroad cars, and 
greater than 750,000 pedestrians, using radiation detectors installed 
under our joint program.
Policy and Analysis
    The Policy and Analysis office provides analytical support and 
technical expertise for arms control and nonproliferation treaty, and 
for agreement policy formulation, negotiation, and implementation at 
DOE and NNSA facilities and for regional security initiatives. In the 
next fiscal year, the NNSA will continue to promote arms control and 
nonproliferation activities, both under formal treaty-related 
mechanisms and under less formal mechanisms, including the Warhead 
Safety and Security Exchange (WSSX) Agreement, negotiations on Russian 
plutonium oxide measurements, under the Plutonium Production Reactor 
Agreement, and testing, evaluating, and demonstrating technologies, in 
accordance with the Joint DOE-DOD Integrated Technology Plan. These 
technologies would support transparency negotiations for several 
initiatives, including the monitoring regime, to be implemented at the 
Fissile Material Storage Facility being built by the DOD at the Mayak 
Production Association in Ozersk, Russia, the 1996 Plutonium Production 
Reactor Agreement implementation, and U.S.-Russian Federation-IAEA 
(International Atomic Energy Agency) Trilateral Initiative 
negotiations.
    The U.S. and Russian Federation have declared their commitment to 
pursuing transparent and irreversible reductions in nuclear arms. The 
mission of the NNSA Warhead and Fissile Material Transparency Program 
is twofold. First, we are comprehensively evaluating the impact of a 
warhead monitoring regime on the NNSA nuclear weapons complex, to 
ensure that there is no adverse impact on the U.S. requirement to 
maintain a safe, secure, and reliable nuclear weapons stockpile, and to 
ensure that no classified information is revealed. Second, NNSA experts 
are developing and implementing technical measures that can be applied 
at Russian nuclear weapons facilities, to provide confidence that 
Russian nuclear weapons are being dismantled, and that excess fissile 
materials removed from dismantled Russian nuclear weapons cannot be 
used again for weapons purposes. This program reduces the potential for 
theft and diversion of Russian warheads and fissile material, by 
increasing the safety and security of Russian warheads. It also obtains 
access to Russian scientific and technical information, and gains 
access and provides transparency in the Russian nuclear weapons 
complex.
    The Warhead Safety and Security Agreement/Laboratory-to-Laboratory 
Transparency Program is intended to provide a greater understanding of 
the Russian nuclear warhead dismantlement process, while encouraging 
advocates for transparency in Russia. The Laboratory-to-Laboratory 
program is implemented through contracts signed between U.S. and 
Russian national laboratories. Upon receipt of deliverables from 
Russian institutes, U.S. laboratories provide funds to Russian 
scientists, who worked on the deliverables. This program is conducted 
under the auspices of the extended Nuclear Warhead Safety and Security 
Agreement. Strict guidelines and oversight are used by the U.S. and 
Russian Federation to ensure that only unclassified information is 
exchanged. Areas of work include radiation measurement technology, tags 
and seals, remote monitoring, and other topics related to nuclear 
weapons transparency.
    The ``Agreement between the United States of America and the 
Government of the Russian Federation, on the Exchange of Technical 
Information in the Field of Nuclear Warhead Safety and Security,'' more 
commonly referred to as the Warhead Safety and Security Exchange 
Agreement (WSSX), was signed on December 16, 1994, entered into force 
in June 1995, and was extended for an additional five-year term last 
year. Participants in the Agreement are DOE and DOD for the U.S. and 
MinAtom and the Ministry of Defense for Russia. The June 2000 extension 
incorporated any ongoing or future DOE/MinAtom Laboratory-to-Laboratory 
activities concerning the transparency associated with dismantlement of 
nuclear weapons under the WSSX Agreement. As established under the 
original WSSX Agreement, a Joint Steering Committee and Joint 
Coordinating Group approve new Laboratory-to-Laboratory topics/projects 
for program technical exchange consideration and provide oversight to 
Agreement implementation.
    The Monitoring Warhead Inventories and Dismantlement Program 
focuses on identifying technical measures and technologies to monitor 
warhead inventories and dismantlement under future monitoring regimes. 
Future initiatives involving the monitoring of nuclear warheads, 
nuclear warhead dismantlement, or fissile material, resulting from 
dismantled nuclear warheads, will have a significant impact on the NNSA 
nuclear weapons complex. The NNSA Warhead and Fissile Material 
Transparency Program comprehensively evaluates the issues associated 
with potential monitoring regimes, to ensure that there is no adverse 
impact on the U.S. requirement to maintain a safe, secure, and reliable 
nuclear weapons stockpile, and that no classified information is 
revealed. In fiscal year 1999, DOE and DOD agreed to combine resources 
in support of a joint DOE-DOD Integrated Technology Plan to 
comprehensively develop, test, and ``red-team'' technologies that could 
be used to support Mayak transparency, the U.S.-Russia-IAEA Trilateral 
Initiative, Plutonium Production Reactor Agreement, and potential 
future initiatives.
    The Plutonium Production Reactor Agreement (PPRA), signed in 1996, 
commits the Russian government to cease production of weapon-grade 
plutonium at three reactors that also provide heat and electricity to 
two cities and their surrounding regions in Siberia. As part of the 
PPRA, both sides agreed to allow teams from the other side to monitor 
the shut-down reactors, as well as the plutonium storage facilities. 
NNSA and Russian technical experts are developing jointly technologies 
and mechanisms that will enable our monitors to perform their 
transparency activities, without revealing any sensitive information.
    The Trilateral Initiative began in 1996. Its goal is to provide 
international confidence that excess United States and Russian weapons 
plutonium is not returned to weapon use. Technical experts from Russia, 
the United States, and the International Atomic Energy Agency (IAEA) 
have been working diligently during the past four years to devise 
technologies and methods to allow IAEA verification of the material, 
without revealing sensitive information. IAEA inspections at the Mayak 
Fissile Material Storage Facility will verify that Russian excess 
plutonium remains removed from weapons programs. The U.S. will place 
its excess plutonium under IAEA verification at the K-Area Material 
Storage Facility at the Savannah River Site.
Non-Russia-Focused Programs
    While the bulk of our nonproliferation activities take place in 
Russia, the NNSA is also involved in nonproliferation and arms-control-
regime projects in many other parts of the world. For instance, since 
1995, the United States and Kazakhstan have been working to reduce 
proliferation risks associated with three tons of weapons-grade 
plutonium. This material, which is located at the BN-350 fast-breeder 
reactor in Aktau, Kazakhstan, contains enough plutonium to manufacture 
hundreds of nuclear weapons. Furthermore, unlike most spent fuel, the 
majority the BN-350 spent fuel material poses no significant radiation 
hazard to a would-be thief. The project has
  --reduced the threat to United States national security posed by the 
        vulnerability of the weapons-grade material,
  -- significantly enhanced physical protection and material control 
        measures at the plant,
  --utilized a former weapons-related complex in Kazakhstan, which was 
        converted to peaceful uses under the Cooperative Threat 
        Reduction program, to manufacture most of the storage 
        canisters,
  --instilled a safety and security culture, by conducting all U.S.-
        sponsored activities in a cost effective manner, consistent 
        with international safeguards, security, and safety standards, 
        and
  --packaged the nearly 3,000 fuel assemblies in welded and evacuated 
        1\1/2\-ton steel canisters in such a way that ``hot'' 
        assemblies are combined with ``cool'' assemblies, to provide a 
        radiation barrier to theft, while also stabilizing the spent 
        fuel for long-term storage. This phase will be complete this 
        summer, securing three metric tons of very high-grade 
        plutonium.
    The Aktau project will, as funding allows, continue to support the 
IAEA in the implementation of internationally accepted safeguards 
measures over the material, continue to provide non-weapons-related 
employment for nuclear scientists in Kazakhstan, and provide security 
and international safeguards measures for the transportation and long-
term dry storage facility for the BN-350 material.
    NNSA experts are also actively working in North Korea to reverse 
and prevent proliferation of nuclear weapons, by securing approximately 
thirty kilograms of weapon-grade plutonium contained in Nyongbyon 5 
megawatt reactor spent fuel. Similar to the objectives of the Aktau 
project, NNSA technicians have
  --packaged the 8,000 assemblies in canisters and placed those 
        canisters under IAEA monitoring, and
  --performed field operations to maintain packaged spent fuel in a 
        safe condition, appropriate for future shipment.
    We are also supporting the IAEA in the implementation of 
verification and international safeguards of the material, while 
helping to prepare plans to support future shipment and disposition of 
spent fuel.
    In an effort to impede the use of weapons of mass destruction, the 
NNSA supports several projects targeted at reducing the amount of 
fissile material that could be available to potential proliferators to 
fashion into a nuclear device. In the Reduced Enrichment for Research 
and Test Reactors (RERTR) Program, NNSA continues to work to reduce 
international commerce in civil HEU, by developing technologies to 
convert foreign and domestic research and test reactors from HEU to 
LEU. To accomplish this, the program continues to
  --develop denser LEU fuels that can be used to convert most, if not 
        all, research reactors to LEU fuel,
  --develop LEU targets and chemical processing methods that can be 
        used for production of medical radioisotopes,
  -- perform design and safety analyses, and transfer technology to 
        assist conversion of research reactors to use of to LEU fuel 
        and targets; and
  --provide support to the Russian RERTR program, to develop high-
        density fuels and to complete the design and safety analyses 
        needed for LEU conversion of Russian-designed research 
        reactors.
    Along those same lines, and based on its own experience with the 
RERTR program, NNSA experts have begun cooperation with Russia to 
establish a Research Reactor Fuel Take-Back Program, to prevent 
proliferation of nuclear weapons, by repatriating to Russia civil HEU 
fuel, from Soviet/Russian-supplied research reactors in sixteen 
countries, many of which are located in regions of proliferation 
concern. This program is in its early stages, and is working closely 
with the IAEA.
    NNSA is also active in strengthening regional security and 
nonproliferation, not only on the Korean peninsula, but also throughout 
East Asia, South Asia, and the Middle East. We are doing this by 
participating in U.S. policymaking, promoting regional security 
dialogues, and sharing with key states in these regions the expertise 
of the national laboratories on technical measures to implement 
nonproliferation agreements. Under a program to strengthen the 
Biological and Toxin Weapons Convention (BWC) regime, NNSA supports the 
United State in its efforts to negotiate a legally binding protocol to 
the 1972 BWC. This protocol is part of a larger effort to deter 
noncompliance with the BWC and to reinforce the global norm against the 
proliferation of biological weapons. Our technical experts facilitate 
U.S. commerce through implementation of bilateral peaceful nuclear 
cooperation agreements with our nuclear trading partners.
                goal 4: providing naval nuclear reactors
    Our fourth goal is to provide the Navy with safe, militarily 
effective nuclear propulsion plants, and ensure their continued safe 
and reliable operation.
    Naval Reactors is a highly successful semi-autonomous organization 
inside of the NNSA. Admiral Bowman, the Program's director, is 
responsible for providing the U.S. Navy with safe, militarily effective 
nuclear propulsion plants, and ensuring their continued safe and 
reliable operation.
    The responsibilities and authority of the Director of this unique 
dual agency organization were set forth in Executive Order and in 
Public Laws. This cradle-to-grave responsibility begins with technology 
development and continues through reactor operation and, ultimately, 
reactor plant disposal.
    With 102 operating Naval reactor plants in warships comprising 
forty percent of the Navy's major combatants, primary emphasis and most 
effort is placed on ensuring the safety and reliability of these 
plants. Naval Reactors is developing the next-generation reactor for 
the Navy's new VIRGINIA-class attack submarines and a reactor for the 
Navy's new CVNX class of aircraft carriers.
    I will continue to support and promote this unique Program that 
produces the ``culture of excellence'' that NR is known for.
         goal 5: vitality and readiness of the nnsa enterprise
     Our fifth goal is to ensure the vitality and readiness of the 
NNSA's scientific and technical enterprise, for the next decade and 
beyond. We are particularly concerned about attracting and retaining a 
preeminent workforce and revitalizing our aging infrastructure.
Nuclear Expertise
    A key strategy for ensuring the readiness of the enterprise is to 
attract and retain the best workforce possible, in today's highly 
competitive market for technical talent, by providing a challenging and 
rewarding work environment. Within a decade, most of our weapons 
designers with nuclear testing experience will be eligible for 
retirement and may have left our workforce. This means that when our 
newest system, the W88, reaches the end of its original, expected 
design life in 2014, we may no longer have anyone with test-based job 
experience to help evaluate modifications that may be required, due to 
aging. As part of the Stockpile Stewardship Program, we are using the 
remaining critical staff to train and mentor the next generation of 
stockpile stewards, who will use the new stockpile stewardship tools, 
along with existing nuclear test data and the weaponization database.
    As I indicated in the beginning of this testimony, our people are 
our most important asset. But our experienced cadre of scientists, 
engineers, and manufacturing personnel is dwindling, as workers retire. 
Attracting and retaining the critically skilled people we need is one 
of the major problems faced by the nuclear weapons complex today.
    We provided a report to Congress last year, in response to section 
3163 of the National Defense Authorization Act for Fiscal Year 2000, 
that describes the situation at each of our contractor sites, with 
regard to their current and projected critical skills status and their 
plans for maintaining essential nuclear weapons expertise. At present, 
we believe the situation is manageable, but we will carefully monitor 
the implementation of each site plan. We are also currently reviewing 
our policy with our management and operating contractors to ensure that 
it promotes effective recruitment and retention. The three new 
contracts with our production plants, awarded in fiscal year 2000, 
contain a new clause that states it is our policy not to inhibit 
recruitment and retention. The new contracts with the University of 
California for the Los Alamos and Lawrence Livermore National 
Laboratories include maintenance of critical skills as one of the key 
improvement areas that will receive focused evaluation by the NNSA.
    One might think that recruiting and retaining the critically 
skilled people we need could be solved by simply paying higher 
salaries. Certainly that is true in some instances, but not all. One of 
the problems in cyber security is that once we have trained individuals 
in the latest techniques, we often lose them to private industries that 
are paying higher salaries. Of course, a number of the critically 
skilled people that are needed in the complex have less direct 
application in private industry, for example, plutonium metallurgists. 
This raises the problem of encouraging individuals to enter these 
fields in the first place, and it is here that our new experimental 
facilities and capabilities come into play.
    A significant element in attracting and retaining personnel at the 
national defense laboratories has always been the Laboratory-Directed 
Research and Development (LDRD) Program. I would like to thank Congress 
for removing the restrictions against allowing our contractors to set 
aside up to six percent of their weapons activities appropriations for 
Laboratory-Directed Research and Development. The central objective of 
the LDRD program is to enhance the scientific and technical 
capabilities of the national laboratories, by investing in fundamental 
science and technology to meet long-term national needs. Sustained 
support for this program is essential, as it impacts recruitment. 
Overall, the personnel pool is still low which reflects the time it 
takes to recruit individuals. A similar program, authorized by Congress 
for the production plants, began in fiscal year 2001.
    Although Laboratory and Plant Manager Directed Research and 
Development Programs are essential elements in attracting people to the 
nuclear weapons program, the enduring attraction and retention of these 
people is fundamentally related to three issues: national importance of 
the mission, technical challenge of the program and advanced 
experimental, computational, and manufacturing capabilities.
Maintenance of the Complex
    Another key strategy for assuring the vitality of our enterprise is 
to provide state-of-the-art scientific and technical tools and 
facilities, in a safe and secure environment. The current budget 
request for fiscal year 2002 will provide approximately the same level 
of funding available to our facilities and sites, as it has during the 
past several years. As I indicated in my testimony before the Senate 
Energy and Water Development Appropriations Subcommittee on March 13th, 
that level of funding has focused maintenance activities each year on 
those facilities necessary to carry out the immediate workload. We have 
not been able to make a significant investment for sustained, 
preventive maintenance or investments to reduce the risk of equipment 
failures, to increase operational efficiency and effectiveness, or to 
extend facility lifetimes. As a result, our aging nuclear weapons 
complex--more than half of our structures are greater than fifty years 
old--is deteriorating at an accelerating rate. The assessment Defense 
Programs conducted last year indicated that, in just the last five 
years, the percent of the complex found to be in either excellent or 
good condition had fallen from roughly 56 percent to only 26 percent.
    The condition of our facilities and infrastructure is certainly not 
a new story, having been documented in a number of studies over the 
past decade, and addressed by various construction-oriented 
initiatives, including Utilities and Equipment Restoration, the 
Facilities Capability Assurance Program, R&D Revitalization, Non-
Nuclear Reconfiguration, and the Stockpile Management Restructuring 
Initiative, during the past three decades. The condition of our 
facilities and infrastructure has also been recognized by Congress, 
which, since fiscal year 1998, has earmarked $86 million above 
requested levels, specifically for infrastructure improvements at Y-12, 
Pantex, Kansas City, and Savannah River. Certainly, increased funding 
is vital, but it is only one part of the solution. Excellent facility 
management is a standard business practice of most major organizations 
and I have already taken steps to establish an office within NNSA to 
manage the facilities and infrastructure of the nuclear weapons 
complex. This office will focus on long-term planning, establishing the 
processes--absent too long--that will institutionalize the procedures, 
standards, and expectations for the complex.
    A Recapitalization Initiative has been developed to redress 
infrastructure problems throughout the complex in response to a recent 
comprehensive study of facilities and infrastructure. This multi-year 
initiative to correct maintenance deficiencies, with the goals of 
stabilizing the infrastructure, increasing availability of our current 
facilities, and extending their useful lives will be reviewed as part 
of the strategic review of national security programs.
              goal 6: creating a well-managed organization
    Our sixth goal is to create a well-managed, responsive and 
accountable organization, by employing effective business practices. On 
March 14, 2001, I announced my plans for realigning the NNSA's 
organizational structure to improve performance of our core mission of 
strengthening national security and reducing the global threat from 
weapons of mass destruction, through applications of science and 
technology.
    This past January, after listening to the findings of my two 
organizational options teams, I concluded that NNSA should be realigned 
into ``product'' and ``support'' divisions, as is the practice in many 
major private sector enterprises.
    Our ``product'' divisions, Defense Programs and Defense Nuclear 
Nonproliferation, will focus on defining and advocating for the most 
effective means of accomplishing our mission. On the other hand, key 
support functions have received less-than- adequate attention in the 
past. Security and safety management, infrastructure and project 
management, the personnel system, and the planning and budgeting 
process all need focus and dedicated management attention. In creating 
two new Associate Administrators, one focused on facilities and 
operations and the other on management and administration, we will 
establish the advocates for many of the functions that the Congress 
recognized as needing attention in the crafting of Title 32. By taking 
these functions off the plates of my Deputy Administrators, I am 
freeing these managers to focus more intensively on program concerns 
and mission accomplishment.
    We have no intention of realigning Naval Reactors within this 
reorganization--they will remain separately managed as specified in 
Title 32. We have made use of this program's record of success and 
their many lessons-learned in the shaping of the NNSA.
    The two new Associate Administrators will support the mission 
organizations. The Associate Administrator for Management and 
Administration will be tasked to ensure efficient management of budget, 
finance, procurement, information, and people, to make them serve the 
needs of the product divisions. The Associate Administrator for 
Facilities and Operations will ensure responsible stewardship of our 
facilities and will be successful only if these facilities are 
available to the program organizations for performing our missions. 
These changes are designed to consolidate responsibility for security, 
safety, and environmental issues at NNSA sites; to establish clear and 
direct lines of communication for laboratory directors and plant 
managers; establish greater personal accountability; and to improve 
productivity and morale.
    The Deputy Administrator for Defense Programs will focus on 
maintaining the safety, security, and reliability of the nuclear 
stockpile. Significant strides have been made in that area with the 
Department of Defense, in that we are implementing plans for detailed, 
requirements-driven stockpile life extension and refurbishment. Defense 
Programs will direct planning and set goals for production at the 
plants and for the science-based stockpile stewardship activities at 
the national laboratories. Defense Programs will retain responsibility 
for major program-oriented construction and facility initiatives.
    The Defense Nuclear Nonproliferation organization will continue to 
reduce the threats posed by weapons of mass destruction, strengthen 
nonproliferation institutions and norms, develop technologies to 
prevent nuclear smuggling, detect proliferation, respond to possible 
chemical or biological weapons use, and reduce the danger posed by 
unsafe operation of Soviet designed reactors worldwide.
    I recognize that establishing these ``product'' and ``support'' 
divisions creates a degree of tension within the organization, but I 
expect that this tension will evolve into cooperation and support as 
each element begins to work with the others to accomplish our mission. 
This organizational structure works, if we are able to adopt a 
corporate approach to accomplishing the mission. Each Deputy and 
Associate Administrator must recognize that their personal and 
organizational success is tied to the success of the overall 
organization. We are creating a Management Council consisting of the 
Deputies and Associates that will be tasked with resolving cross-
cutting issues and disputes. These issues will be referred to the 
Administrator, only if the Council cannot resolve them. Also, I will 
seek establishment of a Principal Deputy Administrator to help me 
resolve operational issues among NNSA elements and to assist in the 
day-to-day management of the enterprise. In sum, we are trying to 
develop a corporate approach to decision making.
    Mindful of the legislative mandate to provide the Armed Service 
Committees with a plan by May 1, 2001, ``for assigning roles and 
responsibilities to and among the headquarters and field organizational 
units of the NNSA,'' we divided the effort into two phases. The first 
phase addressed headquarters elements. In January, we assembled ten 
teams to tackle these issues for the headquarters elements. The reports 
of these teams formed the basis for the recently-announced 
reorganization. The May 1, 2001 interim plan is the first step in a 
multiphased effort, and will include mission and function statements 
for each major element of our realigned headquarters organization; it 
will describe relationships between each NNSA element; and it will 
discuss relationships between NNSA elements and those organizations 
external to the NNSA. The report will also contain an implementation 
plan for making this organizational transition by October 1, 2001, 
describing anticipated changes to organizational units and presenting a 
strategy for making the staffing transition. A final report will be 
transmitted to Congress in October. I have made a commitment that, in 
this initial reorganization phase, everyone currently employed will 
either be retained in a job similar to their current position or be 
placed in a new job within NNSA. We need to retain our federal talent 
for this to be a success!
    Realigning the field structure is the second phase of our efforts 
to establish an effective and efficient NNSA enterprise. Our May 1st 
plan will include a design outline for allocating roles and 
responsibilities between headquarters and the field. As the next step, 
I intend to charter a neutral group of experts to advise me on options 
for addressing key structural issues uncovered in by previous studies 
of this issue. This group will be asked to gather information and 
develop options over the next six months, with a view to resolving 
field-structure issues by the end of the year.
    My focus in these organizational adjustments is on making measured, 
thoughtful changes that improve NNSA's effectiveness in accomplishing 
our mission and then seeking to improve our efficiency through a 
structured process that does not disrupt current mission performance.
Detailed Budget Proposals and Multi-Year Plans
    One of the key strategies for creating a well-managed organization 
is to adopt an integrated business management system that links 
strategic planning, programming, budgeting, execution, and evaluation. 
On the budgeting front, the good news is that NNSA submitted a Future-
Years Nuclear Security Budget to the Office of Management and Budget 
(OMB) on March 2, 2001. OMB intends to carefully evaluate our future-
year budget, over the next few months, in conjunction with the 
Administration's strategic review.
    Internally, our focus within NNSA is on improving our planning, 
programming, budgeting, and execution (PPBE) process. Our first future-
year budget request was constructed while we began to implement a 
systematic process for connecting and integrating our plans, programs, 
funding requests, and performance evaluation processes. At the moment, 
these processes are not as well synchronized as we want. We expect that 
the fiscal year 2003 budget process will be a transition year in our 
implementation of a PPBE system. The system should be fully implemented 
during the fiscal year 2004 process. The graphic attached to my 
testimony presents a picture of how we expect the process to operate 
when the system is fully implemented.
    The NNSA PPBE system will (1) establish standardized business 
management processes where feasible and will provide flexibility for 
programs as appropriate; (2) improve discipline in program and project 
management; (3) assure that each program and project receives 
appropriate consideration as tradeoffs are made in establishing the 
integrated budget; and (4) create meaningful performance measurement 
and feedback systems. We hope to demonstrate the value of this system 
through measurable improvement in our mission performance.
    The system is divided into four phases:
  --Long-Range Planning--for the fiscal year 2004 cycle, this will be 
        performed between June and October of fiscal year 2001.
  --Programming--guidance for fiscal year 2004 will be issued early in 
        2002, and program decisions will be reached by June 2002.
  --Budgeting--NNSA senior managers will review the budget in June or 
        July of 2002 and will then participate in the Department's 
        process, tied to the preparation of the President's budget, 
        which is released in January or February of 2003.
  --Execution and Evaluation--execution year funding will cascade down 
        through program and implementation plans. Program managers will 
        perform periodic reviews and report the results to appropriate 
        officials.
    With the help of the Institute for Defense Analysis, NNSA has 
developed a detailed plan for implementing this system. NNSA's near-
term priorities include:
  --communicating our plans throughout our enterprise,
  --establishing and implementing an Integrated Priority List and 
        resource prioritization process,
  --improving the quality, timeliness, and integration of future-year 
        program and implementation plans,
  -- establishing and implementing a formal change control process,
  --conducting periodic, formal evaluations, and
  --reviewing and establishing NNSA information technology requirements 
        for the process.
    Development of a future-years defense budget process that brings us 
more in line with the needs of our missions, plants, and national 
laboratories is an important step. We have established momentum toward 
reaching that goal and we are making slow but steady progress. Your 
continued support for our efforts will be needed to reach this 
objective.
Improving Personnel Management
    Another key strategy for improving business processes is to stress 
accountability at all levels of the organization. We must hold managers 
and contractors accountable for program and service results, hold 
individuals accountable for meeting performance goals, and reward 
individuals, units, and contractors accordingly. Finally, we must 
foster an orientation toward self-development.
    Title 32 contains limited, but important authority for the NNSA 
Administrator to begin revitalizing the Federal staffing of our 
nation's nuclear security enterprise. Review of our interim policy for 
implementing excepted service appointments and compensation authority 
for no more than 300 scientific, engineering, and technical positions 
within the NNSA is nearly completed. We expect to begin exercising this 
authority by the beginning of July 2001.
    The policy was developed by NNSA staff, in consultation with other 
agencies, that use similar authorities. Indeed, our team leader was the 
architect and implementer of the excepted service authority granted to 
the Defense Nuclear Facilities Safety Board by Congress. His expert 
advice was invaluable in establishing this interim policy.
    Our interim policy is designed to provide NNSA managers with 
sufficient flexibility to attract and retain key personnel needed to 
meet our demanding mission, while ensuring that NNSA uses this special 
authority with due regard for the Merit Systems principles of federal 
personnel management. An integral element of the policy is the Pay-For-
Performance feature, allowing for performance increases and performance 
bonus pools. Implementation of this Pay-For-Performance feature will be 
deferred until a uniform performance appraisal system can be 
established for our excepted service employees, and until our managers 
can be trained to develop fair and accurate measures of staff 
performance.
    We see this interim policy as just the first step in revitalizing 
our federal staffing process. We urgently need to begin hiring staff at 
entry and mid-career tiers to avoid future gaps in staffing and 
leadership. As you may be aware, almost fifty percent of our staff is 
within a decade of retirement. We intend to outline a more complete 
plan for improving personnel management and continuity in the May 1st 
Report to the Armed Services Committees.
                               conclusion
    I believe that NNSA is on the right course. The NNSA enjoys the 
support and endorsement of Secretary of Energy Spencer Abraham. It is 
the right idea to bring together the national security missions of DOE, 
and to focus our work with clear goals and plans, clean lines of 
authority, and a strong view to the future. We are on a good path to 
improve on our management and performance, to manage our programs 
efficiently and effectively, and to plan our future.
    The culmination of all the stockpile stewardship activity--of all 
our surveillance, maintenance, refurbishment, research and development, 
and construction--is annual certification of the stockpile. The 
Stockpile Stewardship Program has, for the past five years, given the 
Secretaries of Energy and Defense the necessary confidence to inform 
the President that a return to nuclear testing is not required to 
maintain the safety, security, and reliability of the nuclear weapons 
stockpile. With appropriate resources, we will be able to continue to 
provide that confidence for the foreseeable future, maintaining a 
credible nuclear deterrent for as long as we should need it.
    This confidence--and I cannot emphasize this enough--is largely the 
product of expert judgment, the expert judgment of some of America's 
best and brightest men and women, in both federal service and 
throughout the nation in our laboratories and plants. Their judgment is 
only meaningful because of their experience in pursuing the highest 
standards of excellence in science, engineering, manufacturing, and 
management. If we offer these people anything less--if we continue 
asking some to work in substandard facilities with aging equipment, if 
we burden them with unnecessary bureaucratic requirements and politics, 
if we fail to give them challenging work--then they will go elsewhere, 
our confidence in our weapons will suffer, and, under such 
circumstances, our nuclear deterrence will fail.
    The scientists and engineers that are stewards of our nuclear 
arsenal have also been making important technical contributions to 
controlling, detecting, and deterring the use of weapons of mass 
destruction. NNSA's unique contribution is evident in the caliber of 
personnel working on these complex, interrelated threat reduction 
programs. Their expertise resident in our national laboratories has 
been honed by years of working in support of the U.S. nuclear complex. 
Our technical experts are ready and willing to share their 
nonproliferation and counterproliferation experience with their 
counterparts in Russia. Mr. Chairman and members of this Committee, I 
think we can all agree that as a nation, we may face no greater 
challenge than preventing weapons or weapons usable materials from 
falling into the hands of those who would use them against the United 
States or our allies. It has been more than a decade since the Berlin 
Wall fell, opening a new era in history. In many ways, we live in a 
more dangerous world now, since the demise of the Soviet Union. The 
threat to our safety and international security is more diffuse, which 
makes it harder to defend against. Rather than one monolithic threat, 
we must be prepared against rogue nations or terrorist organizations 
with interests inimical to ours. I am very proud of the 
nonproliferation programs that are rightfully part of the defense 
nuclear security enterprise. The review being conducted at the present 
time by the White House is timely and I am confident it will reveal 
that the NNSA's programs are making solid contributions to the national 
security of the United States.
    Again, I thank the members of this Panel for their commitment and 
support of our mission, and for your support of the people of NNSA who 
actually do the work and accomplish the mission: scientists, engineers, 
technicians, policy planners, administrators--at headquarters, in the 
field, at our laboratories, plants and the test site.
    Simply stated, NNSA has great people and a great mission. Thank you 
again for the opportunity to appear here today.

             NATIONAL NUCLEAR SECURITY ADMINISTRATION FISCAL YEAR 2002 CONGRESSIONAL BUDGET REQUEST
                                              [Dollars in Millions]
----------------------------------------------------------------------------------------------------------------
                                         Fiscal Year     Fiscal Year
                                            2000            2001         Fiscal Year     Fiscal Year     Fiscal
                                         Comparable      Comparable     2002 Request      2002 vs.     Year 2001
                                           Approp.         Approp.       to Congress                   (Percent)
----------------------------------------------------------------------------------------------------------------
Weapons Activities...................      $4,563,505      $5,069,289      $5,30O,025       $+230,736      $+4.6
Defense Nuclear Nonproliferation.....         712,672         873,884         773,700        -100,184      -11.5
Naval Reactors.......................         669,637         687,560         688,045            +485       +0.1
Office of the Administrator..........             350           9,978          15,000          +5,022      +50.3
                                      --------------------------------------------------------------------------
      Total, NNSA....................       5,946 164       6,640,711       6,776,770       +136,3059       +2.0
----------------------------------------------------------------------------------------------------------------

                                                                                                       <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                                                                                       

    Senator Domenici. Thank you very much.
    General, might I just quickly say we thought the nuclear 
weapons and non-proliferation activities within the Department 
of Energy needed to be somewhat carved out with a National 
Nuclear Security Administration, becoming a semi-autonomous 
management scheme for them. From this Senator's standpoint we 
worked very hard on that.
    I remain thoroughly convinced that was the very best way to 
go, and I think you understand that role and have explained it 
very well. I would say we're not close to where we ought to be; 
we've just taken the first--maybe the first snap from center 
and the quarterback's back ready to do something. We look 
forward to being of help wherever we can as you begin to put 
this total organization together so that much of the difficulty 
in managing within a department as dysfunctional as DOE, almost 
dysfunctional by mandate, how we put it together.
    We look forward to helping you wherever we can make that a 
much more straightforward management of some very serious, 
dangerous, and yet important activities.
    General Gordon. Thank you, Senator.
    Senator Domenici. Our next witness will be Admiral Bowman--
--
    Senator Reid. Mr. Chairman.
    Senator Domenici. Yes, please.
    Senator Reid. If I could just say one brief thing?
    Senator Domenici. Absolutely.
    Senator Reid. When the idea of you and Senator Kyl and 
others to develop this entity that now General Gordon runs I 
was very dubious. I didn't stand in the way but I wasn't on the 
side cheering you on, and I in hindsight recognize that I was 
probably wrong.
    But it appears to me that the DOE is functioning better in 
this regard than it ever has. A lot of it has to do with the 
leadership of General Gordon, but it's also the entity that was 
set up. So I want to tell you that I'm not sure I found 
religion but maybe so.
    General Gordon. Could I react to that, Mr. Chairman?
    Senator Domenici. Yes. Briefly, General.
    General Gordon. I appreciate that very much, Senator Reid, 
but I also just want to say that one of the things that's 
helped turn the morale around and the energy around within the 
complex in the field itself has been the clear signal from the 
Congress that there's a mission, there's a long-term mission 
that people care and appreciate and they're willing to put some 
resources behind it.
    Senator Domenici. Thank you. Admiral, we're fortunate to 
have you back, and I want to say to you in the event you have 
never heard me make reference to your great successes, whenever 
this Senator speaks of nuclear power, is it safe and can we do 
it right, and should it be something we seriously consider 
during these energy-short times, I most of the time give as an 
example that there's over a hundred boats, American Navy boats 
of various sizes and shapes that are on all the oceans and seas 
of the world and that in those boats are one or two nuclear 
power plants that are generating the same kind of waste that we 
are so worried about here at home and yet they're carrying them 
around in their boat bottoms, so all the sea ports of the world 
except perhaps in Australia--all the others let you go into 
them, let you dock, you have right on them a nuclear power 
plant, and I think that's a great testimony to their safety.
    And that's from its origins, but that's from its 
continuation, which is what you brought forward after a great 
Admiral started this and made sure of its safety, and I 
compliment you, and we'll listen to your testimony now.
    Senator Reid. I think that's an answer to our nuclear waste 
problems. Just put them on the boats.
    Senator Domenici. All right, Admiral.

                   ADMIRAL BOWMAN'S OPENING STATEMENT

    Admiral Bowman. Thank you very much, Mr. Chairman, members 
of the committee. I thank you for the opportunity to testify 
and thank you very much for those very kind words.
    As you know, Admiral Hyman Rickover organized this Naval 
Reactors program back in the late 1940s. His visionary concept 
then was cradle to grave responsibility for all aspects of 
maintaining and operating the Navy's nuclear powered warships, 
managed centrally by a single purpose organization with clear 
lines of authority, responsibility, and accountability.
    Naval Reactors basic structure, policies, and practices 
were preserved in an executive order signed by President Reagan 
on the day Admiral Rickover retired in 1982. The key to Naval 
Reactors operational excellence over these years and its 
unsurpassed record has been adherence to the tenets of that 
executive order.
    Congress has fully supported this concept by writing that 
executive order into law twice in two defense authorization 
acts. As a result I would say the country has benefitted. In so 
doing Congress placed great faith in this program and has duly 
protected the core values that have been the hallmark of our 
success for more than 50 years and the enabler of even more to 
come. I appreciate that faith very deeply.
    The core values of Naval Reactors must be preserved. I'm 
committed to operational excellence and an unsurpassable record 
of innovation and safety. We must continue to design and 
deliver the world's finest warships for our Navy and our 
country.
    I don't take lightly my responsibility to continually 
revalidate the faith that you have placed in us.
    We all recognize that the threats that the country faces 
today aren't the ones that we faced yesterday. How to protect 
our Nation's interests, what forces are needed for our defense, 
and how we will respond to those threats are among the most 
pressing and important issues faced by the leaders of this 
country.
    Just as the Nation's defense environment and requirements 
have evolved, Naval Reactors has also evolved to deliver what 
is demanded of it. Let me very quickly run through some facts 
about our fiscal year 2002 DOE budget request and this Naval 
Reactors program.

                  NAVAL REACTOR BUDGET REQUEST SUMMARY

    My DOE budget request remains flat as General Gordon said, 
at $688 million from this year's fiscal year 2001 numbers to 
fiscal year 2002. In real dollars therefore it is actually 
decreasing by about $18 million due to inflation.
    To put my budget in perspective, it's less than 4 percent 
of the DOE budget and less than 1 percent of the country's 
defense budget. I think the returns say that it's a good solid 
investment.
    Today the Naval Reactors program supports 102 reactors, as 
General Gordon said earlier, and 55 attack submarines, 18 
ballistic missile submarines, 9 nuclear powered aircraft 
carriers, and 4 training and prototype platforms along with the 
deep diving NR1 deep submergence vehicle. We have one fewer 
attack submarine this year than when I testified last year, and 
that force number could drop even lower if we don't watch 
what's going on and if action isn't taken soon.
    Our number one priority at Naval Reactors is supporting the 
nuclear powered fleet and ensuring their safe and effective 
operation. The average age of these ships today is about 16 
years old. The average age will be over 22 years by the end of 
this decade. As the ships age they place a greater demand on 
the Naval Reactors DOE budgets.
    The nuclear Navy is being employed at an unparalleled and 
unrelenting pace today. For example, the national level 
intelligence, surveillance, and reconnaissance missions 
requirements for our attack submarines has nearly doubled over 
the last decade while the number of those attack submarines has 
nearly been cut in half.
    Our carriers are also stretched to their limits, attempting 
to meet all the power projections and forward presence 
requirements placed on them. Every one of our last 11 carrier 
battle groups to deploy actually engaged in combat. To meet 
just the top priority requirements being placed on the 
submarine fleet we simply must refuel the five remaining Los 
Angeles class submarines scheduled for early inactivation, and 
I think we should also seriously consider converting Trident 
submarines coming out of the strategic inventory to Tomahawk-
shooting SSGNs.
    Those ships can carry by design as many Tomahawk missiles 
as an entire battle group does today.
    We must also increase the build rate of the new Virginia 
Class submarine, but even doing all of this will leave us short 
of attack submarines, as judget by the Chairman of the Joint 
Chiefs' requirements. Fortunately, our technological 
superiority is allowing us to stretch the assets we have to 
fill some of that gap.
    For example, we've extended the life of selected submarines 
and have also begun now looking to further extend that 
lifetime. However, pushing the life of these submarines comes 
at a cost. Life extension exacerbates the aging fleet problem, 
and as the fleet ages, it takes more resources to support.
    We are also forward basing three submarines in Guam to get 
them closer to their operational areas, eliminating the long 
transit from the west coast to the Pacific Rim and greatly 
increasing the mission days on station available from these 
three ships. We're designing better, more cost effective ships 
for the future.
    When the Navy's new Virginia Class attack submarine is 
delivered it will provide needed capability for the 21st 
century at an affordable price. The reactor plant design, which 
will be about 96 percent complete by the end of this fiscal 
year--I'm sorry--by the end of fiscal year 2002 will use 
advance component and systems technology, including a life of 
the ship core, which will make future refuelings unnecessary.
    The nuclear propulsion plant design of the new carrier, the 
new CVNX aircraft carrier is well underway. The CVNX reactor 
plant will provide 25 percent more energy than the Nimitz Class 
ships and will have more than triple the electric power 
available to the skipper on demand.
    We are designing and developing CVNX--the carrier of the 
future--nuclear propulsion plant without an increase in the DOE 
budget. We're focused on designing and delivering warships to 
the fleet that are more capable, more adaptable to technology 
insertion, and more enduring. To do so, my program will 
continue to require highly skilled and qualified professionals.
    To that end, Mr. Chairman, in particular I was pleased to 
see and read of your proposed legislation supporting nuclear 
programs in our Nation's universities. Our laboratories and 
vendor base draw to some extent upon the shrinking pool of 
uniquely skilled individuals, and I'm very grateful for your 
support.
    I would note that I sit on two of the visiting committees 
of these nuclear engineering departments at two of our 
universities in this country, and I am seeing exactly what your 
legislation is addressing, and I certainly appreciate your 
initiative.
    Where science leaves off we are employing smart business 
strategies to get more out of every dollar. Multi-year 
contracts, block buys, advance appropriations, shipyard teaming 
are just a few of the examples of what we're studying. I 
strongly advocate these types of initiatives because they do 
use the taxpayers' dollars more efficiently.

                           prepared statement

    The nuclear Navy is a true crown jewel in our Nation's 
defense arsenal. No other nation has anywhere close to this 
level of capability. That's due in very large part to the 
wisdom of Congress and your support. You have consistently 
supported this program in its endeavors. Naval Reactor's record 
is strong and the work is important and the funding need is 
modest. I offer you my thanks and gratitude.
    Mr. Chairman, with your permission I have a longer written 
statement for the record.
    [The statement follows:]

             Prepared Statement of Admiral Frank L. Bowman

    Thank you for inviting me to testify on Naval Reactors' fiscal year 
2002 Department of Energy budget request.
    Naval Reactors is a semi-autonomous, centrally managed, single-
purpose organization with clear lines of authority and total 
responsibility and accountability for all aspects of naval nuclear 
propulsion. As the Director of Naval Reactors, I have specific 
responsibilities within the Department of the Navy and the Department 
of Energy, and as necessary, direct access to the Secretary of the Navy 
and to the Secretary of Energy to fulfill these duties. Naval Reactors' 
principal mission is to provide militarily effective nuclear propulsion 
plants to the U.S. Navy and to ensure their safe, reliable, and long-
lived operation.
    Admiral Hyman Rickover organized Naval Reactors in the late 1940's. 
His visionary concept was cradle-to-grave responsibility for all 
aspects of maintaining and operating the Navy's nuclear-powered fleet. 
The Program's basic structure, policies, and practices were preserved 
in Executive Order 12344 signed by President Reagan upon Admiral 
Rickover's retirement in 1982.
    The key to Naval Reactors' operational excellence and unsurpassed 
record has been strict adherence to the tenets of this Executive Order. 
Congress has fully supported this concept by writing the Executive 
Order into law in two Defense Authorization Acts. This charter, 
incorporated into the National Nuclear Security Administration Act, 
maintains my responsibility for all aspects of the Naval Reactors 
Program, including:
  --Research, development, design, test, and construction;
  --Operation, operator selection and training, maintenance, and 
        disposal; and
  --Administration (e.g., security, nuclear safeguards, transportation, 
        public information, procurement, and fiscal management).
    Congress has placed faith in this Program and protected the core 
values which have been the hallmark of the Program's success for the 
past 50 years and which are the enabler for continued success into the 
future.
    I do not take lightly my responsibility to continually revalidate 
the faith you place in Naval Reactors. Our core values must be 
preserved; Naval Reactors is committed to operational excellence and an 
unsurpassable record of innovation and safety. We must continue to 
design and deliver the world's finest warships for our Navy and our 
country. In this regard, Naval Reactors has compiled an unparalleled 
record of success:
  --Nuclear-powered warships have safely steamed over 122 million 
        miles-equivalent to nearly 5,000 trips around the Earth.
  --Naval reactor plants have accumulated over 5,200 reactor-years of 
        operation, compared to about 2,540 for the U.S. commercial 
        industry. In addition, our operating experience is about half 
        that of the entire commercial power industry worldwide (our 
        5,200 reactor-years compared to about 9,660 worldwide-including 
        the United States).
  --Naval Reactors' outstanding (and fully public) environmental record 
        enables our ships to visit over 150 ports around the world-
        critical to our Nation's forward-presence strategy and ability 
        to project power.
    We all recognize that the threats the United States faces today are 
not the ones we faced yesterday. How to protect our Nation's interests, 
what forces are needed for our defense, and how we respond to these 
threats are among the most pressing issues faced by the leaders of the 
country. Just as the Nation's defense environment and requirements have 
evolved, the Naval Reactors Program has evolved to deliver what is 
demanded of it.
    Let me quickly recount some facts about the Naval Reactors Program:
  --Today, the Naval Reactors Program supports 102 reactors in 55 
        attack submarines, 18 ballistic missile submarines, 9 nuclear-
        powered aircraft carriers, 4 training and prototype platforms, 
        and a deep submergence vehicle. We have one less attack 
        submarine than we did just a year ago, and submarine force 
        level could drop even lower if our country fails to act soon.
  --The Program's number-one priority is supporting the nuclear-powered 
        fleet and ensuring its safe and effective operation. The 
        average age of these ships today is about 16 years. This 
        average age will be over 22 years by the end of the decade 
        because so few new ships are being added. As these ships age, 
        they place a greater and greater demand on Naval Reactors' DOE 
        budgets.
  --The nuclear Navy is being employed at an unparalleled and 
        unrelenting pace. For example, the national level Intelligence/
        Surveillance/Reconnaissance (ISR) mission requirements for our 
        attack submarines have nearly doubled over the last decade, yet 
        the force has been cut nearly in half. Our carriers are 
        stretched to their limits, attempting to meet all of the power 
        projection and forward-presence requirements placed on them. 
        Every one of our last 11 carrier battle groups to deploy has 
        engaged in actual combat.
  --To meet just the highest priority requirements being placed on the 
        submarine fleet, we simply must refuel the five remaining LOS 
        ANGELES-class submarines scheduled for early inactivation and 
        seriously consider converting Trident ballistic missile 
        submarines coming out of the strategic inventory to SSGNs. 
        These ships can carry as many Tomahawk missiles as an entire 
        battle group does today. We must also increase the build rate 
        of the VIRGINIA-class submarines. But even doing all this will 
        leave us short of attack submarines.
  --Fortunately, our technological superiority is allowing us to 
        stretch the assets we have to fill some of the gap. For 
        example, we have extended the life of selected submarines, and 
        we are looking to extend some further still. However, pushing 
        the limits comes at a cost. Life extension exacerbates the 
        ``aging fleet'' problem; and as the Fleet ages, it takes more 
        resources to support.
  --We are forward-basing three submarines in Guam to get them closer 
        to their operational areas-eliminating the long transit from 
        the West Coast to the Pacific rim and significantly increasing 
        the mission days on station available from these three ships.
  --We are designing better, more cost-effective ships for the future. 
        When the Navy's new VIRGINIA-class attack submarine is 
        delivered, it will provide needed capability for the 21st 
        century at an affordable price. The reactor plant design, which 
        will be about 96 percent complete by the end of fiscal year 
        2002, will use advanced component and systems technology-
        including a life-of-the-ship core, which will make future 
        refuelings unnecessary.
  --The nuclear propulsion plant design of the new CVNX class aircraft 
        carrier is well underway. The CVNX reactor plant will provide 
        25 percent more energy than the NIMITZ-class ships and will 
        have more than triple the electric power available to the 
        skipper, on demand. We are designing and developing the CVNX 
        nuclear propulsion plant without an increase in our DOE budget.
                         value of nuclear power
    Nuclear power enhances a warship's capability and flexibility to 
sprint where needed and arrive ready for sustained power projection. 
The Navy has repeatedly employed the unique capabilities inherent in 
nuclear propulsion. Sustained high speed (without dependence on a slow 
logistics train) enables rapid response to changing world 
circumstances, allowing operational commanders to surge these ships 
from the United States to trouble spots or to shift them from one 
crisis area to another. Nuclear propulsion helps the Navy stretch 
available assets to meet today's worldwide commitments.
    Nuclear-powered carriers can transit to a crisis area unsupported 
at sustained high speed and arrive fully ready to launch the awesome 
firepower of the airwing. Then, they can sustain that presence and 
response without immediate replenishment of combat consumables, and 
with tactical mobility and flexibility, free from the need for 
propulsion fuel replenishment. The future carrier, CVNX, will continue 
to provide these benefits.
    The 55 U.S. nuclear attack submarines possess inherent 
characteristics such as stealth, endurance, mobility, firepower, and 
multimission flexibility. These characteristics afford unfettered 
access to contested battlespace 24 hours a day, 7 days a week, for as 
long as required. Once there, submarines can surveil new or emerging 
adversaries undetected and provide timely insight on their intentions 
and capabilities to policymakers without risk of political escalation--
particularly valuable because many potential adversaries understand 
their vulnerability to satellite reconnaissance, and often employ 
deceptive methods to defeat it. Should tensions escalate, submarines 
can also execute Tomahawk strikes from undisclosed locations without 
warning, often from inside an adversary's defensive umbrella.
               highly technical and specialized employees
    We are focused on getting more out of existing ships and designing 
and delivering new warships to the Fleet that are more capable, more 
adaptable to technology innovation, and more enduring. Doing so 
requires highly qualified and skilled professionals.
    Naval Reactors' highly technical work requires rigorous technical 
discipline and attention to detail. We have extremely talented 
engineering staffs, both in Government service and at our prime 
contractors, including many young people who have been out of college 
less than 5 years. The importance of the work to our country is a key 
factor for keeping the talented people we need. However, retaining 
these people is a challenge given a decade of economic expansion and 
the resulting opportunities in the private sector. Unfortunately, today 
government service has difficulty keeping pace due in large measure to 
antiquated hiring practices and noncompetitive compensation programs. 
Today, the top three levels of government Senior Executive Service 
civilians are pay-capped at the same dollar value. Attention should be 
given this situation.
    Naval Reactors touches a highly technical and specialized vendor 
base, therefore I am acutely aware of the shortages of engineering 
graduates, especially in the nuclear field. Declining enrollments in 
nuclear engineering departments at schools across the United States and 
a declining number of universities offering degrees in nuclear 
engineering have limited the employment candidate pool of nuclear 
engineering graduates. To that end, I was particularly pleased to read 
of proposed legislation supporting nuclear programs in our Nations' 
universities. Our laboratories and vendor base draw to some extent upon 
this shrinking pool of uniquely skilled individuals and I am grateful 
for your support.
          fiscal year 2002 department of energy budget request
    Naval Reactors' fiscal year 2002 DOE budget request is $688M, about 
the same amount as appropriated for fiscal year 2001. With inflation, 
this means the Naval Reactors fiscal year 2002 budget request is $18M 
less in real terms than the fiscal year 2001 budget. To put my budget 
request in perspective, it is less than 4 percent of the DOE budget. 
Since the beginning of the 1990's, Naval Reactors' budget has declined 
30 percent in real terms.
    Naval Reactors' number-one priority is to support the 82 nuclear-
powered warships that make up over 40 percent of the Navy's major 
combatants. This responsibility includes ensuring safe and reliable 
operation of reactor plants in these ships, enhancing the reactor 
plants' performance, and developing improved reactor plants to support 
the Navy's needs for the future.
    Sustaining today's 102 operating reactors requires continual 
analysis, testing, and monitoring of plant and core performance. 
Nuclear propulsion is a demanding technology-the harsh environment 
within a reactor plant subjects equipment and materials to the 
deleterious effects of irradiation, corrosion, high temperature, and 
pressure over a lifetime measured in decades. In addition, naval 
reactor plants must be rugged enough to accommodate ships' pitching and 
rolling; have the resilience to respond to rapidly changing demands for 
power; be robust enough to withstand the rigors of battle; and be safe 
and easily maintainable by the Sailors who must live next to them.
    Naval Reactors' DOE laboratories have made significant advancements 
in components, materials, core lives, and predictive capabilities. 
These advancements allowed the Navy to extend the service life and 
intervals between major maintenance periods for nuclear-powered 
warships and reduce ship off-line time for maintenance. Increasing ship 
availability also increases the Navy's warfighting capability, while 
simultaneously reducing maintenance costs. Added ship availability is 
particularly important in the face of Fleet downsizing, as the 
operational demands on each remaining ship continue to increase. In the 
same vein, some development effort is devoted to ensuring that we can 
meet the Navy's need to extend warship lifetime.
    New development and analysis challenges continually arise as a 
result of Program advancements. For example, the longer intervals 
between major maintenance periods reduce opportunities to examine and/
or replace aging components. Thus, a more extensive analytical and 
testing effort is required to verify that materials and components are 
performing properly. Extended ship lifetime also demands exhaustive 
testing and performance enhancements to ensure that component 
endurance--despite potential corrosion and mechanical strain--can be 
ensured for significantly longer than the original design life. As data 
are gathered from deploying ships with long-lived reactor cores, the 
emphasis on evaluating material performance has grown. A life-of-the-
ship core offers extraordinary advantages in terms of ship 
availability, cost reduction, and reduction in radiation exposure and 
waste generation. However, a life-of-the-ship core eliminates mid-life 
opportunities to examine reactor components. Testing and verification, 
therefore, become even more important to ensure that naval reactor 
plants will continue to perform safely.
    New plant development work at the Program's DOE laboratories is 
focused on completing the design of the next-generation submarine 
reactor for the Navy's new VIRGINIA-class attack submarines and on 
continuing the design for a new reactor plant for the Navy's new CVNX-
class aircraft carriers.
    The design of the reactor plant for the VIRGINIA-class submarine 
will be about 96 percent complete by the end of fiscal year 2002. 
Currently, the design of the reactor plant for the VIRGINIA-class is 
over 90 percent complete. Today, 99 percent of reactor plant components 
have been delivered-all on schedule to support ship construction, and 
within budget. The lead-ship pre-reactor-fill testing and initial 
reactor fill have been completed. Significantly, the initial reactor 
fill was completed within 3 months of the schedule established 6 years 
ago. Reactor plant construction is 89 percent complete, and overall 
lead ship construction is 45 percent complete and is on schedule. 
VIRGINIA is expected to go to sea in fiscal year 2004 and will provide 
needed capability for the Navy at an affordable price.
    CVNX is the first new carrier designed since the 1960's NIMITZ 
Class. The CVNX reactor plant will build on three generations of 
nuclear propulsion technology developed for submarines since NIMITZ to 
incorporate needed advancements in warfighting capabilities and to 
significantly reduce lifecycle costs.
    Reactor plant design work is well underway to support the long 
design and manufacturing lead-times of reactor plant components needed 
for the CVNX ship construction schedule. Current design efforts include 
general arrangement design, system description and diagram development, 
and component design, such as final sizing and system interface 
evaluations. Long lead reactor plant forging contracts were placed this 
fiscal year and necessary system descriptions and general arrangements 
required for later design activities have been established. By the end 
of this year, over 70 percent of reactor plant system descriptions will 
be approved. The first contract for major reactor plant components will 
be placed in fiscal year 2002.
    Naval Reactors also is continuing inactivation of six DOE 
developmental and training prototype reactor plants. The increased 
sophistication of computer models and the accumulation of operational 
data, along with the decrease in the need for Navy plant operators, 
have allowed the shutdown of six of our eight land-based prototype 
reactor plants. Since 1993, Naval Reactors has been inactivating and 
dismantling the shutdown plants in three States as promptly as funding 
and manpower have allowed.
    Major inactivation work is nearly finished. The last of the 
prototype reactor plants at the Naval Reactors Facility in Idaho was 
defueled in fiscal year 1999. Inactivation and cleanup work at the 
Windsor site in Connecticut is complete, and regulatory approval for 
unrestricted release has been requested. The two shutdown prototype 
reactors at the Kesselring site in New York have been inactivated and 
defueled, and major dismantlement work will be completed in fiscal year 
2002.
           naval reactors department of energy budget detail
                     program technical requirements
    Naval Reactors' technical budget request is categorized into four 
areas of technology: Reactor Technology and Analysis; Plant Technology; 
Materials Development and Verification; and Evaluation and Servicing. 
This approach supports the integrated and generic nature of our DOE 
research and development work. The results of Naval Reactors DOE funded 
research, development, and design work in the following technology 
areas are not only incorporated into future ships, but also retrofitted 
into existing ships.
  --The $226.0M requested for Reactor Technology and Analysis will 
        continue work on the next generation reactor for the VIRGINIA 
        Class submarine, development work on the new reactor for CVNX 
        Class aircraft carriers, and ensure the safe and reliable 
        operation of existing reactors. The reduction in operating 
        plant maintenance periods places greater requirements on 
        thermal-hydraulics, structural mechanics, fluid mechanics, and 
        vibration analysis work to accurately predict reactor 
        performance and to identify and avoid problems. The continued 
        push for longer life cores also means we will continue to 
        operate reactors beyond our operational experience base for 
        many years to come. Improved analysis tools and understanding 
        of basic nuclear data will allow us to predict performance more 
        accurately and safely throughout extended core life. Other 
        efforts in this area include revising core manufacturing 
        processes to reduce cost and hazardous waste, performing 
        reactor safety analyses, developing components and systems to 
        support the Navy's acoustic requirements, and developing 
        improved shield designs to reduce costs and radiation levels.
  --The $116.0M requested for Plant Technology will allow Naval 
        Reactors to develop and analyze those systems that transfer, 
        convert, control, and measure reactor power to maximize plant 
        performance. The request reflects the requirement to develop 
        improved steam generator performance, which will benefit CVNX 
        steam generators-the largest components developed to date. 
        Development of technologies in the areas of chemistry, energy 
        conversion, instrumentation and control, plant arrangement, and 
        component development will continue to improve performance and 
        address operational requirements. Naval Reactors is also 
        developing components to address known limitations or to 
        improve reliability, including a redesigned main coolant pump 
        for the NIMITZ-class plants and new instrumentation and power 
        distribution equipment to replace older, technologically 
        obsolete, and increasingly harder-to-support equipment.
  --The $130.9M requested for Materials Development and Verification 
        will fund essential material analysis and testing as ships are 
        kept in service longer than originally intended, and materials 
        are, therefore, called upon to perform safely and reliably for 
        a longer time. Work on the core and core structural materials 
        includes testing and analysis of fuel, poison, and cladding 
        materials to verify acceptable performance, as well as 
        developing materials with such enhancements as reduced 
        susceptibility to corrosion or swelling. Testing and 
        development of reactor plant materials also ensures reliable 
        performance and leads to improvements such as reduced cracking 
        and stress.
  --The $132.3M request for Evaluation and Servicing is needed to fund 
        the operation and servicing of land-based test reactor plants 
        and part of Naval Reactors' share of the Advanced Test Reactor, 
        a specialized materials testing facility operated by the DOE 
        Office of Nuclear Energy, Science, and Technology. Materials, 
        components, cores, and systems in these plants provide 
        important technical data and experience under actual operating 
        conditions, thus allowing potential problems to be identified 
        and addressed before they occur in the Fleet. With proper 
        maintenance, upgrades and servicing, the two operating test 
        reactor plants and the Advanced Test Reactor will meet testing 
        needs for some time.
    The accumulation of operational data from the prototype and fleet 
operating plants, expended core examinations, and advances in computer 
modeling developed by Naval Reactors have enabled the Program to shut 
down six of the Program's eight land-based prototype plants, resulting 
in significant cost savings. For most of the last decade, Evaluation 
and Servicing funds have been focused on inactivating and laying up or 
dismantling the shutdown plants to place them in an environmentally 
benign state.
    As inactivation work on the six shutdown prototypes comes to 
completion, resources in this area decrease to a base level to continue 
ongoing cleanup of facilities at all Naval Reactors sites, to reduce 
hazards to personnel, and to reduce potential liabilities due to aging 
facilities, or changing conditions.
         program infrastructure and administrative requirements
    In addition to the budget request for the important technical work 
discussed above, infrastructure and administrative funding is also 
required for continued operation of the Program. Specifically, the 
fiscal year 2002 budget request includes:
  --$22.6M in Program Direction funding to cover Naval Reactors' 191 
        DOE personnel at Headquarters and the Program's field offices, 
        including salaries, benefits, travel, and other expenses. This 
        staff maintains oversight of the Program's extensive day-to-day 
        technical and administrative operations, while continuing to 
        ensure compliance with growing environmental, safety, and other 
        regulatory requirements, which-notwithstanding our excellent 
        record-necessitates substantial effort.
  --$47.0M in Facility Operations funding to maintain and modernize the 
        Program's facilities, including the Bettis and Knolls 
        laboratories and the Expended Core Facility (ECF).
  --$13.2M in Construction funding to refurbish and expand Program 
        facilities. This includes the continuation of the ECF Dry Cell 
        project in Idaho, which will significantly improve Naval 
        Reactor's ability to process naval spent fuel for dry storage. 
        (As identified and agreed to in a Settlement Agreement signed 
        by the Department of Energy, the Navy, and the State of Idaho, 
        Naval Reactors fuel must be among the early shipments of spent 
        fuel to the first permanent repository or interim storage 
        facility.) The requested funding also enables the continuation 
        of the Major Office Replacement Building project.
                               conclusion
    The ongoing support of the Senate Appropriation Committee, 
Subcommittee on Energy and Water Development is one of the single most 
important factors in our success story. The Subcommittee has recognized 
the requirements and demands the Program confronts daily: a growing 
need for power projection and forward presence far from home, which 
strains our dwindling number of nuclear ships; an aging nuclear fleet; 
the competitive climate in which we recruit and develop our people; and 
the funding required to meet these commitments today and into the 
future.
    For the post-Cold War period, many have urged the armed forces to 
transform into expeditionary units capable of rapid deployment and 
sustained presence where regional unrest requires it. The nuclear Navy 
is just such a force-and it is available today.
    The nuclear Navy is a true crown jewel in our country's defense 
arsenal. No other nation has our level of capability. That is due in 
large part to the wisdom of Congress. You have consistently supported 
this Program in its endeavors. I offer you my thanks and gratitude.

              STATUS OF THE STOCKPILE STEWARDSHIP PROGRAM

    Senator Domenici. It will be made a part of the record. 
Thank you.
    General Gioconda, do you have a statement?
    General Gioconda. Yes, sir.
    Senator Domenici. Do you have a written one?
    General Gioconda. No, sir. I don't.
    Senator Domenici. Okay. Thank you. Would you proceed?

                STATEMENT OF GENERAL THOMAS F. GIOCONDA

    General Gioconda. Yes, sir.
    Good afternoon to the members of the subcommittee. I'd just 
like to make a few important points about the Stockpile 
Stewardship Program and amplify some of the things that General 
Gordon has said.
    Senator Domenici. Please.
    General Gioconda. First, I'm pleased to report that the 
Stockpile Stewardship Program is delivering to the American 
people a safe and secure and reliable stockpile, and that's 
important, being the money that we have spent up to date. The 
program is working because of the continued dedication and 
patriotism of thousands of men and women, both Federal and 
contractor across the country, who make up the nuclear weapons 
complex, and it's important that we recognize their 
contribution of 50 years.
    We have completed the fifth annual certification of the 
stockpile as safe and secure and reliable with no need to 
return to underground nuclear testing at this time. The annual 
certification process is very important in that it places every 
part of the complex on alert to be that every year, and it's 
important to recognize that certification assessment goes on 
every year and now for the fifth time is very successful.
    Mr. Chairman, it's important to understand that the 
investments made by this committee for the new science hardware 
developed over the last 5 years is already making remarkable 
contributions to sustaining the Nation's nuclear deterrent. For 
example, the DARHT facility at Los Alamos is providing data on 
primary implosions needed specifically for the W88 and W76 
assessment.
    The Jasper facility in Nevada will begin shots this fall, 
which will provide critical data on the unique material 
properties of plutonium. We'll also begin experimental 
activities in ATLAS later this year.
    The program is also delivering for the stockpile--we have 
responded to the needs of the Department of Defense. We feel 
that the 61-11s replace the B53. We met the W87 initial 
operating capability and are continuing with that work load 
through fiscal year 2002. We are very proud of the Pantex team 
for meeting this important milestone for the Air Force.
    We're about to begin refurbishment of the B61. We're 
producing W76 neutron generators and Acorn Tritium reservoirs. 
We're doing preliminary development in engineering work to get 
ready for the future refurbishments of the W76 and the W80. 
Refurbishment of all these weapon systems would represent a 
significant portion of the active stockpile on alert today.
    The pace and scope of these refurbishments are part of the 
ongoing strategic defense review called by the President. We 
have met important milestones in reconfiguring the complex for 
the future. Sandia has made its first new neutron generator, 
the first since the closure of the Pinellas plant in 1994.
    We are making development pits at Los Alamos, recovering 
from the capability loss of the shutdown of Rocky Flats in 
1989. The Tritium program is on track to deliver new gas to the 
stockpile by 2006, all very important parts of the nuclear 
weapons complex.
    Next week we begin to pour concrete for the Tritium 
Extraction Facility at Savannah River. This TEF will extract 
tritium gas from burnable, absorber rods irradiated by the TVA. 
These are important achievements that have required a 
tremendous effort over the past several years, and I want to 
make note of those.

                         INFRASTRUCTURE STATUS

    Our success in the stewardship program rests in part on the 
facilities where we work. We've completed a comprehensive study 
of the weapons complex facilities and infrastructure that you 
mentioned in your opening statement, Mr. Chairman. We're taking 
the first steps to systematically maintain and manage the 
infrastructure and to arrest the serious rate of deterioration.
    As General Gordon has testified, we have a multiyear 
initiative to restore operational efficiency, reduce facility 
down time, and ultimately move us to the right facility 
configuration for the future. We must not ask our work force to 
perform their important national security mission in antiquated 
facilities.

      CHALLENGES AND ADVANCES OF THE STOCKPILE STEWARDSHIP PROGRAM

    But there are also other challenges before us. The NIF 
project is back on track and it must stay on track. We continue 
to watch this program very closely. We have established a 
headquarters office for NIF that reports directly to me. We 
plan to do our first stockpile experiments in NIF as early as 
fiscal year 2004, and to have completed some 1,500 experiments 
by fiscal year 2008, when it will be completely done.
    The NIF is vital for the long-term success of the Stockpile 
Stewardship Program, especially in its crucial contribution to 
high-energy density physics needed for the health of the 
stockpile. We have a vibrant and successful program of 
subcriticals going on at the Nevada Test Site that must be 
sustained, above-ground experimental capabilities such as 
radiography which must be further developed for the future 
health of an aging stockpile.
    The advanced 3D simulations of models being developed by 
the ASCI program are already providing benefits to the 
stockpile. We're using archive test data and new above-ground 
data to validate the codes that our designers so rightly need. 
But with all the competing requirements for dollars in the 
program today, we're slowing the computer procurement schedules 
by about 1 year to keep the balance right in all aspects of the 
Stockpile Stewardship Program.
    As mentioned earlier, we have met the W87 deliveries needed 
for the Air Force, but schedules are tight and the complex as a 
whole was stretched to make this milestone due to age and 
dormant infrastructure. We have an agreement with the Nuclear 
Weapons Council on the future life extensions for the B61, 76, 
and the W80. Only the B61 is fully supported by fiscal year 
2002 budget requests pending completion of the strategic 
defense review.
    Again, I must state as I said last year before you, I don't 
believe we can get there without significant investments in the 
infrastructure. We are getting on top of managing our pit 
program by our new campaign, which includes both manufacturing 
and certification, and while we're on schedule for 
manufacturing a certifiable pit by 2003 our resource and 
commitment to final certification of a pit without nuclear 
testing must await the strategic defense review.
    On the management front we have put in place three 
performance based contracts at Pantex, Kansas City, and Y-12. 
These new contracts are already providing benefits to us. At 
Pantex BWXT Technologies has implemented several process 
improvements that have increased the rate of pit repackaging 
and reduced radiation exposure to our technicians. Pantex has--
--
    Senator Domenici. General, could you summarize, please?
    General Gioconda. Yes, sir.
    The other part I was talking about is the--also the 
renegotiated contracts with the University of California, and I 
recently co-chaired the first quarterly review of that contract 
to let you know that the performance programs milestones are in 
place and on track in that regard.
    Also, regarding the budget, I think we've said enough 
there, but the current budget request is a current services 
approach for the work on the B61 and improvements in security, 
but all have to await the strategic review outcome.
    Senator Reid. Mr. Chairman.
    Senator Domenici. Yes, Senator Reid.
    Senator Reid. Since I'm the junior member of this group I 
can see my questions will be coming. I'm not going to be able 
to be here so I would ask your permission to be able to submit 
the questions in writing. Perhaps General Gordon could--most of 
them are directed towards him. If he could get them back to me 
in a couple of weeks?
    Senator Domenici. Certainly.
    General Gordon. Of course, sir.
    Senator Domenici. Any questions will be answered within 2 
weeks.
    Senator Reid. Thank you very much.
    Senator Domenici. All of yours and any others.
    Senator Hollings, you were here first and besides, it's 
your turn. Would you permit me one observation then I'll yield 
to you for whatever you'd like?
    Senator Hollings. Yes.
    Senator Domenici. Let me say to both of you, General 
Gordon, and you, Brigadier General Gioconda, you know I'm 
reading in your statements this notion that some of these very, 
very important issues are subject to strategic review--defense 
strategic review. I want you to really know what I think that 
means.
    I don't think that means that. I think it means nobody 
wanted to put in the money this year.
    In any event, we anxiously await the strategic review. We 
hope it really addresses these issues and we hope it's done 
pretty quickly, because some of us have been looking at three 
or four of the issues you just recited reference the 
certification of the pits and others, and some that you have 
recited, and they were all ready to go, and they should have 
been funded this year.
    And I guess that I will accept temporarily the excuse that 
somebody is reviewing them in some kind of overall strategic 
look, but I'm not sure of that. I think we'd better keep our 
eyes open, and I guarantee you as chairman of this committee I 
will. If we don't have something in the next couple of months 
my propensity is not going to be to wait around for it but 
rather to pay for it.
    Senator Hollings.
    Senator Hollings. The administration wants to make room for 
some other programs or cuts or even tax cuts, and he told poor 
General Gordon, he said: Now, General, you find the money and 
you cut $156 million of the environmental management one, and 
specifically that's why I had to come with respect to this MOX 
facility down there at Savannah River.
    Now, let me first thank, because as chairman of the Budget 
Committee you've got a hard charger but you're very generous to 
me as the chairman of the Energy Committee, and I appreciate it 
very much.
    Admiral Bowman, I'm glad to see you again. He has a nuclear 
power school down there at the Navy Yard in Charleston, South 
Carolina, and being one of Hyman Rickover's boys, you've got to 
be the best.
    General Gordon, I commend you for your enthusiasm. It's 
hard to find a general enthused in this town.

                     STATUS OF MOX FACILITY PROGRAM

    So, let's get right to the point. Three years ago we had a 
competition. Senator Gramm down there with Pantex in Texas, me 
at SRS, others and so forth about this disposing of surplus 
plutonium in the MOX facility and of course the pit disassembly 
to feed into it, and commitments were made specifically that we 
were going to ramp those things over the years. Certainly it 
is--you had to have the pit disassembly before you could get 
the MOX. Otherwise you couldn't key it into the MOX facility.
    And you look at this budget and find out that not only is 
the pit disassembly cut back but they even eliminated the 
immobilization program there.
    I'm ending up with what I said 3 years ago when I said, 
wait a minute. I'm going to end up with all the storage. Now, 
that's not just an individual environmental view of mine. It's 
the Nation's view in the sense that we've got the Tuscaloosa 
Aquifer that comes right through the Savannah River.
    And I was chairman of the Regional Advisory Nuclear Energy 
Commission they had back in 1955, 45 years ago, and we looked 
at a desert island out in the Pacific for disposal. We looked 
at the chalk caves in Kansas. We looked into the deep ocean and 
we finally got into Senator Reid's back yard at Yucca, and I 
hope we can move forward there, but, I can't stand all this 
storage here that's coming in. That's not only standard, it's 
very dangerous.
    Don't you think so? What's the score here? I seems that 
you're trying to comply with OMB and not with nuclear policy is 
what bothers me.
    General Gordon. Senator, the request as we've noted that 
came out was $100 million less than last year, and that has--at 
that funding level we are compelled to either reduce or do 
something about it.
    What we tried to do was to keep the focus on the MOX 
program for the very reasons that you just said, so that there 
would be a way out for the material once it got there. And with 
the amount of money that was potentially available or at least 
within the request was to try to keep focus on the MOX so we 
could keep that moving, and one of the things we did to try to 
balance out the funding was to then to significantly defer the 
immobilization so that the----
    Senator Hollings. But can it get to MOX with it not going 
through the pit disassembly? I know--they talked about the 
canyons about back 3 or 4 years ago and they said it was 
untried and not necessarily secure, and maybe they want to try 
that or at least rhetorically say that's what they're going to 
do.
    Senator Domenici. Let me ask Mr. Baker to try to jump in on 
that.
    Mr. Siskin. Senator.
    Senator Domenici. Ed Siskin.

                           MOX PROGRAM STATUS

    Mr. Siskin. Using the facilities at Los Alamos National Lab 
and potentially using canyon facilities at Savannah River we 
can get enough oxide to operate the MOX facility for about 3 
years, so by delaying the pit disassembly and conversion 
facility, basically what we'll do is we use existing oxide 
supplies--and oxide supplies that we will get in the next 5 
years--to operate that facility until we can bring the pit 
disassembly and coversion facility on line.
    With respect to the immobilization facility our intent is 
this. The facility has the capability to handle about 3.5 tons 
a year. The amount of material we have to process through the 
immobilization facility is 8.4 tons, so the schedule was 
originally calling for that facility to be available in 2010 to 
be completed by 2022. Obviously we have a little bit of 
flexibility in the schedule before we have to start building 
and operating that facility and still meet all of our 
commitments.
    We still remain committed to meeting our commitments to 
South Carolina and everything that goes into South Carolina 
will come out.
    Senator Hollings. Will come out?
    Mr. Siskin. Yes, sir.
    Senator Hollings. You've tried this in the canyons already 
you say?
    Mr. Siskin. We have not tried it in the canyons. We have 
tried it in areas at TA-55 at Los Alamos National Lab, and by 
using certain surplus pits that have an awful lot of plutonium 
in them it will be possible to provide a continual amount--a 
significant amount of plutonium oxide to support the MOX 
facility.
    So by doing this we do several things: we support the 
President's budget, although it's very, very tight. I have to 
admit that I certainly wouldn't object to some additional 
funding in that regard. But we also meet our commitments to 
Russia and we also meet our commitments to South Carolina 
within the confines of the bilateral agreement.
    Senator Hollings. Well, I thank you very much, and you, Mr. 
Chairman, and the committee. I'll have some other questions but 
we've got to sort of work this out. And I know these gentlemen 
are working in good faith and they're expert on it, and I want 
to make sure we just don't end up with what exactly I had a 
grave misgiving about some 3 years ago when we had this 
commitment that we just end up with a bunch of storage there, 
which has been going on now since we started in the early 
1950s, almost 50 years, and we've got to get it out of there 
some way or somehow.
    General Gordon. Senator, we understand that commitment. 
We're trying to work a very tight budget issue, and Mr. Siskin 
has outlined to the best way we can figure out to look ahead to 
meet those commitments that have been made in an extremely 
tight budget environment.
    Senator Hollings. Thank you very much, General.
    Thank you, Mr. Chairman.
    General Gordon. Thank you, sir.
    Senator Domenici. Senator Hollings, I might say that to be 
honest with you I was quite surprised when the proposal was put 
forth that we would go with MOX as we are now, at least as we 
contemplated. As you know, the United States had kind of 
abandoned that approach for quite some time. The new plan 
seemed very feasible and with all the work that was done in 
your State by your State and your experts in your State we came 
up with a reasonable plan.
    That isn't to say that the building and operational 
functioning of a MOX plant is an easy proposition. You and I 
both understand it is for some people something we should never 
do. For others it's an absolute necessity. In any event, I'm 
going to try very hard as you get the final allocations from 
Senator Stevens to get a little more defense money in this than 
the administration put in, and one of the reasons is because of 
our commitments.
    And I just stated them in a very general sense, but the MOX 
commitment is included in it.
    Senator Hollings. You've been outstanding, Senator, and I 
appreciate it very much, and I appreciate the witnesses too. 
Thank you.
    Senator Domenici. Thank you.
    General Gordon. Thank you.
    Admiral Bowman. Thank you, Senator.
    Senator Domenici. The senator from Mississippi, Senator 
Cochran.
    Senator Cochran. Mr. Chairman, thank you very much.

                   NATIONAL IGNITION FACILITY STATUS

    General Gordon, last year you wrote a letter to the 
chairman, Senator Domenici, and you said without the National 
Ignition Facility the ability of the weapons laboratories to 
continue to certify the safety, security, and reliability of 
the nuclear weapons stockpile into the future without 
underground testing is doubtful. That's a quote from your 
letter.
    My question is: Is the budget that's submitted sufficient 
to construct the National Ignition Facility on the schedule 
that you have so that we can avoid underground testing?
    General Gordon. Senator, I contend--I continue to believe 
that the NIF is a very critical facility. It contributes 
significantly to the ability to certify significantly the 
program and significantly to being able to attract the people 
we need. At the requested budget it will be extremely tight to 
be able to do that, even in this stretch out that we've done 
over the last year until we do this program. It will be very, 
very difficult.
    Senator Cochran. What does that mean in terms of our 
perception as having a reliable deterrent? Is that called into 
question as well?
    General Gordon. It doesn't call it into question in the 
near term, Senator, but in the long-term deterrence is going to 
be seen in both the stockpile, the qualities we have, the 
confidence we have in the overall stockpile, and what we are 
seen to be able to do and to continue to do into the future 
with an aggressive program.
    So it's an important program to me. We need to continue to 
figure out how to fund it and keep it on track. It is a program 
that has been put about to its limits on ability to stretch it 
out. We're already spending more money on a yearly basis than 
we ought to. As a project it ought to be a little bit shorter. 
It would be a lot more efficient to build it in that way.
    Senator Cochran. We learned at an earlier hearing that one 
of the capabilities of the NIF was to examine the part of the 
weapon known as the primary, and in previous testimony we 
learned also that the primary, if it fails, would render the 
weapon of limited or no value. If we've learned that probably 
our adversaries know that too.
    Does that create a problem for us in terms of the 
perception of our deterrent capability?
    General Gordon. The primary is key. There is no weapon 
without a primary. That's your point. And the NIF program and 
the full range actually of the Stockpile Stewardship Program 
contributes to the certainty that the primary will work. It's 
an important element of what we're trying to do. Yes, sir.

                       CERTIFIABLE PITS SCHEDULE

    Senator Cochran. When you talked about this certification 
and the certifiable pits, we understand the schedule has 
changed on that now, and my question is when do you expect at 
this point to produce the first certifiable plutonium pits?
    General Gordon. Sir, we've produced about--we're pretty 
happy with the manufacturing process that's going on in Los 
Alamos. We really made some turn arounds in there. We've 
produced seven or eight development pits at this time, and we 
expect to produce what we will call a certifiable pit in 2003. 
That means it meets all the standards, been through all the 
processes.
    What that pit will not have done though is been certified 
because we have not done all the science behind it to assure 
that these new processes are identical to that which was made 
years ago in Rocky Flats. We'll stay on project with this 
budget--this budget request for the production and for the 
certifiable pits. I cannot say at this budget level when I can 
get the science done to certify it.
    Senator Cochran. Do you think we should be considering 
restarting pit production somewhere in the production complex?
    General Gordon. As I alluded in my statement, Senator, what 
I--it is now time in my opinion to get very serious about 
suggestions and recommendations that have been made by the 
Foster Panel and others that we look to structures that would 
give us capability and capacity beyond that which could be 
reasonably expected to be produced in a laboratory environment, 
and I'm putting that up on one of our priorities this year to 
take the work, the understanding that we've learned from the 
Los Alamos work and from moving the pit manufacturing into the 
modern processes that must come today.
    We now know enough how to start seriously designing a long-
term, more capable facility.
    Yes, sir?

                       CERTIFICATION OF STOCKPILE

    Senator Cochran. Have you discovered anything in the work 
that you've done that if we were in a testing mode that would 
lead you to conclude that we should conduct a test?
    General Gordon. We haven't seen anything--just the 
opposite. We continue to certify the stockpile. It does not 
need to be tested at this date. The existing stockpile does not 
need to be tested at this date. Stockpile Stewardship is 
working from that regard.
    We are finding numerous aging related problems, and thus we 
propose to put with agreement with the Nuclear Weapons Council 
in the military to put some 60 percent of the stockpile through 
refurbishment over the next 10-plus years. We know what needs 
to be fixed. What we know about doesn't need testing. We need 
to fix stuff that's aged out.
    If we were in a test environment there would be certain 
things we're doing--would do, but there is no requirement for 
safety, reliability of the existing stockpile to test now or in 
the immediate future.

                         INFRASTRUCTURE FUNDING

    Senator Cochran. Senator Domenici asked you about the 
infrastructure and talked about the hard hats and gear people 
are having to wear just to protect themselves from things 
falling from the ceiling. Is there sufficient funding in this 
budget request to do something about that and to put the 
infrastructure into a modern and safe mode?
    General Gordon. Senator, at this budget request we will do 
very little to change the infrastructure situation we have and 
will not be able to complete the infrastructure changes 
required to accommodate the stockpile life extension programs 
for the entire stockpile that we've agreed to do for the 
military.
    Senator Cochran. Thank you.
    Senator Domenici. I would say, Senator Cochran, even though 
the idea is to start on a 10-year plan for infrastructure 
building, we already know what the first one would be, and then 
you've just reiterated it. There's two facilities combined in 
Tennessee that have to be replaced in order to be functional 
both for some of the things that are needed and also just to 
have something that we're not embarrassed about putting our 
workers in a service kind of facility wearing hard hats because 
of a roof--those would be the first ones, and then the 
inventory's ongoing as to real old facilities that are part of 
the nuclear complex for years.
    And they do--they are beginning with a 10-year plan. We 
don't have the startup money for it in this budget.
    General Gordon. Mr. Chairman, the plants really are the 
worst situations that we have out there, and we put people in 
very, very difficult situations and make them do their work in 
tough ways, and we ask the--we tell the plant manager that his 
profit, his fee is dependent upon the safety of the workers, so 
make sure you wear your hard hats when you go into that 
dangerous facility. That's not right.
    But the point I was going to make is it's now reached the 
point where it's getting beyond the factories, beyond the 
plants, and in some focus groups in Los Alamos the last couple 
of months sitting down with the younger scientists, they're 
starting to complain about their work environment, their 
facility as well. It's going to start affecting recruiting and 
retention as well.
    Senator Domenici. Well, I think Senator Cochran will 
support me wholeheartedly. It's a question of where do we find 
the money?
    Thank you, and I'm going to ask a few questions and then 
let Mr. Baker conclude the testimony today.

               5-YEAR PLAN FOR NATIONAL IGNITION FACILITY

    General Gordon, in the language that permitted you to 
proceed with NIF if you saw it as being necessary, that is to 
proceed with the remainder of the funding for this year, there 
was a requirement imposed by Congress that you submit to the 
Congress a 5-year plan and budget projections with reference to 
the future nuclear security needs. I understand we did not get 
that, yet you released the money. I'm not blaming you. It seems 
like the administration said you didn't have to submit the plan 
even though the language is pretty clear that you could go 
ahead and release the money.
    Is the plan ready and just something that the 
administration wasn't ready to give us? Is that what I can 
conclude?
    General Gordon. Mr. Chairman, as I said in my statement, we 
wrote what is to me a very competent, if not perfect yet, 5-
year plan. We worked very hard at it. We developed it so it 
would have a budget to fit a strategy. We've actually started 
with the strategy first rather than the budget. We tried to 
figure out how to balance in these programs that we're talking 
about and lay that out for a period of time and so we could do 
sort of a logical planning, a logical management if you want.
    And as part of our submission in the normal administrative 
budget process that was submitted to the Office of Management 
and Budget.
    Senator Domenici. Right. The Stockpile Stewardship budget 
request of $5.3 billion is 6 percent above current levels. Is 
that correct?
    General Gordon. I think $4.6 billion, but yes, sir.
    Senator Domenici. Okay. Within that request for actual work 
on nuclear weapons called directed stockpile work there's an 
increase of 13 percent. However, even with these increases the 
NNSA work will--you will not be able to perform all the 
required weapons work.
    So isn't it true that if you look through and say what do 
you actually need so that you can accomplish the purposes that 
you set out to do in 2002 is about $6.1 billion or thereabouts?
    General Gordon. Yes, sir.
    Senator Domenici. We'll submit a written question for you 
to tell us what the $5.3 billion will do and what's left out in 
terms of the $6.1 billion needed. You can do that later though 
if you have that. I think you do.

                             PIT PRODUCTION

    The pit production--I have a series of questions on it, but 
I think I understand it. What we're really saying is we know 
how to do it but part of doing it is to certify that it indeed 
is a replacement part in all respects, and that part, 
certifiability, is not completed yet. Is that correct?
    General Gordon. There's good news and there's bad news.
    Senator Domenici. Okay.
    General Gordon. The good news is the manufacturing is 
working. It was a hard way to go. The folks up at Los Alamos 
turned to it, produced it. It looks good. It really, really 
does.
    We had the Secretary out there the other day. We actually 
had him holding one. It looks good.
    The certification of that is a difficult, complex process. 
It's taking longer than one. It's more expensive than one, and 
I don't quite have the funds to be able to proceed at the pace 
we should.
    Senator Domenici. I think what I'm going to do is submit 
the rest of the questions to you and General Gioconda and let 
Mr. Baker wrap up our hearing. I have a 3:30 meeting to see if 
we can complete the total budget in terms of the dollars, and I 
don't want to let the people that I'm negotiating with sit up 
too long and wait.

                     STATEMENT OF KENNETH E. BAKER

    Mr. Baker. Mr. Chairman, I will--if I can I'd like to 
submit this for the record. I'll just read some of the 
highlights that I think----
    Senator Domenici. Great. It will be made part of the 
record.

                 NUCLEAR NON-PROLIFERATION AREA STATUS

    Mr. Baker. First of all, I want to thank you for your 
support, this committee's support over the years for threat 
reduction, and once again, I ask for your help in making this 
world a safer place.
    As you know, the nuclear non-proliferation area is where we 
do our non-proliferation work. The national non-proliferation 
efforts to reduce the threat posed by weapons of mass 
destruction come in three areas. First we detect the 
proliferation of weapons of mass destruction. We prevent the 
spread of weapons of mass destruction, technology and 
expertise, and we then of course we reverse the proliferation 
of nuclear weapons capabilities.
    As you stated, sir, the Baker-Cutter report concluded that 
U.S. non-proliferation work within Russia represents some of 
the most crucial dollars spent to protect the U.S. national 
security. The possibility that weapons of mass destruction or 
the material to create them could fall into the hands of 
terrorists or nations of concern poses the greatest unmet 
threat to America's citizens abroad and at home.
    It is more effective to try to control and secure these 
materials than it is to try to locate them some place in the 
Russian territories. It's like trying to find a needle in a 
haystack.
    The fiscal year 2002 budget request of $773.7 million--this 
is a decrease, sir, of $101 million as compared to the 2001 
budget, but this does not represent a lessening of NNSA's 
proliferation team's commitment to the challenges we face with 
international non-proliferation. We remain focused on our 
mission which is essential for the security of this Nation, but 
the pace and scope of our efforts will have to be reduced 
because of funding levels.

                          MPC&A PROGRAM STATUS

    I want to take a few minutes to run through our main 
programs with you. The MPC&A program--it secures nuclear 
material at its source. It consolidates material into fewer 
buildings, and now we're working to sustain the security 
improvements for years to come.
    By the end of the decade we estimate that the security 
upgrades will be completed on all the warhead storage locations 
for which the Russian Navy has requested--and this is a 
classified number, but it's a very high number of warheads, 
sir--as well as 603 metric tons of weapons useable materials 
located outside of weapons sites and at 53 other sensitive 
sites. This is enough material to build approximately 41,000 
bombs.
    In fiscal year 2002 we hope to take advantage of our recent 
agreement on access and expand our activities, which combined 
have more than 300 metric tons of weapons useable material. 
Additionally, we plan to increase our highly successful 
cooperation with the Russian Navy as well as innovative 
material consolidation and conversion program.

                           IPP PROGRAM STATUS

    I would like to turn now to the IPP program third. Thanks 
to you and many others, the Initiatives for Proliferation 
Prevention is a major success story with immediate non-
proliferation impact. IPP commercialization has taken off. 
Eight IPP projects are now commercially successful, providing 
300 long-term private sector jobs in Russia and more than $17 
million in annual sales revenues.
    There are another 20 IPP projects that are posed for 
commercialization this year. IPP projects are successful due to 
the U.S. private sector involvement from the start of the 
requirement for business to match NNSA funding. On average the 
U.S. industry contributes $3 for each $2 that the U.S. taxpayer 
puts in.
    This year we have started to see infusions of substantial 
venture capital. Two U.S. member companies have attracted over 
$40 million worth of private sector investment as a result of 
technologies developed through IPP. We know the long-term 
solution of the proliferation problem of unemployed Soviet 
weapons scientists lies in the private sector and commercial 
self sustainability and is a basis for our exit strategy in 
IPP.

                    NUCLEAR CITIES INITIATIVE STATUS

    We have generated substantial momentum in the U.S. industry 
community with roughly $30 million private sector in new IPP 
projects ready for implementation. The Nuclear Cities 
initiative is not as successful.
    Mr. Chairman, we have been criticized for lack of fast work 
in this area. However, it is important to recall that the 
program is still young and requires the initial period to lay 
the foundation for programs, as was the case for the IPP 
program.

                 SECOND LINE OF DEFENSE PROGRAM STATUS

    The Second Line of Defense Program is with the Russian 
Customs Service. This program helps detect--prevent nuclear 
proliferation and terrorism through the installation of 
radiation detection equipment in strategic transit and border 
sites in Russia; thus far a small amount of money.
    This program has been quite successful. Equipment has been 
installed at the international airports at Moscow and St. 
Petersburg, and on the Port of the Caspian Sea. Ninety custom 
officers have been trained and training manuals have been 
distributed to 30,000 front-line officers. These radiation 
detection monitoring systems have roughly checked 120,000 
vehicles, 11,000 railroad cars, and 750,000 pedestrians.
    Building on these successes we plan to expand this into six 
other locations this year.

                     INTERNATIONAL PROGRAMS STATUS

    The Office of Defense Nuclear Non-proliferation is involved 
in important non-proliferation projects outside the country. 
For example, we have achieved major successes and three tons of 
weapons grade plutonium, enough to manufacture hundreds of 
nuclear weapons, and we've done other things, sir, that I will 
submit for the record in non-proliferation. I would like to get 
to fissile materials.
    The fissile materials program is responsible for disposing 
of inventories of surplus U.S. weapons-usable plutonium and 
highly enriched uranium in order to reduce the potential theft 
or diversion of these materials, especially in Russia, as well 
as to reduce the significant cost associated with long-term 
storage of these materials in the United States. We are 
leveraging our domestic program to obtain reciprocal 
disposition agreements with the Russian plutonium program.

                          MOX FACILITY STATUS

    In fiscal year 2002 funding will be used to complete the 
MOX fuel fabrication facility. We will continue to design the 
pit disassembly conversion facility at a reduced rate. Due to 
budgetary constraints, we will suspend a design of the 
plutonium immobilization facility. These changes are to reduce 
the anticipated future year peak funding requirements that 
would have been associated with previous plans while 
simultaneously building three facilities in Savannah River.
    I would like to submit the R&D program for the record. We 
do need more money. We have cut programs in the R&D, programs, 
sir, that are big in proliferation detection that helps not 
only DOE but also this country.
    But I would like to close and say, Mr. Chairman, I'll tell 
you without a doubt even with this budget the people of NN and 
the national labs are unsung heroes. They have spent days, 
weeks, and months in places where accommodations were worse 
than I have ever seen, with no hot water, windows that wouldn't 
close in the winter time. However, they continue to work.
    Why? It's because they know the opportunity to make 
American citizens safer will not last forever. The window is 
still open. The time is now to work harder. The Russian 
federation is undoing a time of change. Presently we are 
hopeful that this will provide new and improved opportunities 
for us. The fruit of our work will be experienced for our 
generation and generations to come.
    I think you will agree that this Nation has faced no 
greater challenge than preventing weapons and weapons useable 
material from falling into hands of those who might use them 
against us and our allies. We live in a more dangerous world 
now than we did during the cold war. The threat to our safety 
and our international security is more diffuse, which makes it 
harder to defend against.
    I think the review being conducted now in the White House 
is a useful and timely exercise, but I am confident that the 
review will show that NN's programs that you have helped so 
much will make a solid contribution to national security and 
the United States of America.
    Senator Domenici. Thank you very much.
    I want to thank all of you and tell you how I feel about us 
having such a short period of time. It's obviously not enough 
for this subject, but somehow or another we have more to do 
around here than we can get done. I'm very pleased that we get 
to work together on an ongoing basis on most of these issues 
and we'll continue to do that.
    General Gordon, good luck in filling the rest of your high 
positions, and hopefully by the end of this fiscal year you 
will have many more of the functions right under you being 
accomplished directly through the organization that you had.
    To the rest of you, thank you very much. I tend to think 
that the whole area of nuclear activity somehow or another as 
we go through both an energy crisis and a pollution problem--
that is air pollution problem of high, high importance if not 
here and in the world that somehow or another nuclear is going 
to come back and people are going to take a look at it. I'm 
reading that the Cheney task force is doing that.
    The reason, Admiral, that I frequently use the story about 
your boats at sea is because--not because they're at sea, but 
rather they're in ports. They're not at sea forever. They stop 
places, and those places mean that in seaports of the world we 
have two nuclear--or one nuclear reactor right there in the 
water in the hull of an American boat with all the nuclear 
power plant on it and the waste--the highly enriched waste that 
comes out of there and the rods. they're on board.
    And somehow or another with the medium being water, which 
is miscible and can--seems like you could gender up all kinds 
of fears about what would happen. It would seem like the world 
understands there is no risk.
    Admiral Bowman. Yes, sir. We are welcome in over 150 ports 
around the world today.
    Senator Domenici. Yes. And I want to close by saying before 
the year's out I want to pull out on one of your nuclear 
submarines. Okay?
    Admiral Bowman. Terrific.
    Senator Domenici. We'll do that.
    Admiral Bowman. Yes, sir.
    Senator Domenici. I'll call you and we'll go together.
    Admiral Bowman. Great.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Specter. Thank you very much. There will be some 
additional questions which will be submitted for your response 
in the record.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

            Questions Submitted by Senator Pete V. Domenici

               condition of the nuclear weapons stockpile
    Question. General Gordon, is the nuclear weapon stockpile safe, 
reliable and secure?
    Answer. Yes. On January 11, 2001, the Secretaries of Energy and 
Defense certified to the President that the stockpile remains safe, 
reliable and secure--the 5th annual certification without the need for 
underground nuclear testing.
    Question. Do you have confidence that the weapons in the stockpile 
can and will perform as designed?
    Answer. Yes, I do. This confidence is based on the fact that the 
weapon systems in our current stockpile were thoroughly tested and 
documented prior to the cessation of underground nuclear testing in 
1992. Since that time, DOE has conducted extensive surveillance, 
analysis, simulations and tests through the science-based Stockpile 
Stewardship Program to detect and anticipate problems that could 
degrade the performance of the stockpile.
                    how to use additional resources
    Question. General Gordon, in my opening statement, I identified 
several critical areas as being underfunded in the request. Please 
respond for the record how you would use an additional $800 million 
within the stockpile stewardship program in fiscal year 2002.
    Answer. You suggested that the fiscal year 2002 budget request is 
underfunded in the areas of weapon refurbishments, pit work, and 
infrastructure. Let me discuss each of these in turn.
    The fiscal year 2002 budget request includes a 14 percent increase 
over fiscal year 2001 associated with refurbishment work. We will 
continue with the W87, and we are about to begin the refurbishment 
planning for the B61. We have agreement with the Nuclear Weapons 
Council on future life extensions for the W76, and W80. The budget 
supports limited engineering development work for these two systems. 
However, the pace and scope for these refurbishments are part of the 
ongoing strategic defense review called for by the President, and final 
determinations on resource requirements for these two systems will be 
made in light of the conclusions from the strategic review.
    Regarding pits, the fiscal year 2002 budget request includes $128 
million for the Pit Manufacturing and Certification campaign, and 
another $90 million spread throughout the programs for facilities and 
supporting research. We are on schedule for manufacturing a certifiable 
pit in fiscal year 2003. We have identified the series of experiments 
necessary to certify a pit and we have completed a detailed resources 
based manufacturing and certification plan to certify a pit by 2009. 
You are concerned that a lack of resources has caused a slip in this 
schedule, but in fact, the schedule has been quite fluid due to 
technical issues. Whether we go forward with this plan must await the 
results of the Administration's Strategic Review.
    Finally, you suggest that infrastructure is underfunded in the 
request. We have developed a multi-year infrastructure initiative to 
systematically address high priority maintenance backlog items, and put 
in place proactive management of the infrastructure to arrest the rate 
of deterioration and improve the operation and availability of our 
facilities. Since the initiative is designed to address problems, it 
would require resources in addition to the base maintenance funding 
request.
    The base maintenance funding included in the fiscal year 2002 
request, estimated at between $300-$350 million, will be managed under 
this new approach. The fiscal year 2002 request does not now include 
funding for the new initiative because the infrastructure issue is 
expected to be addressed by the strategic defense review.
    The $800 million above the budget request that you suggest 
corresponds roughly to the increment to fund the Defense Programs 
requirements estimate included for fiscal year 2002 in the Future Years 
Budget Plan currently pending before the Office of Management and 
Budget. About 60 percent of this increment would be associated with the 
three items discussed above. Another 20 percent would be used to 
accelerate the pace of cyber security improvements, and computing 
activities and their associated facilities. The remaining 20 percent is 
associated with rebalancing campaign activities with the directed 
stockpile workload, readiness in technical base and facilities, and 
program direction to lower the program risks in these key areas.
            adequacy of the fiscal year 2002 budget request
    Question. Are there any critical needs not addressed in the budget 
because of lack of budgetary resources?
    Answer. No. The Administration has stated that final resource 
decisions for the fiscal year 2002 budget will be made following 
completion of the strategic defense reviews. The fiscal year 2002 
request provides a 4.6 percent increase that maintains ongoing 
programs, sites, and M&O employment levels at roughly the fiscal year 
2001 level and all critical needs are met within this level.
    Question. Will the budget request before the committee allow NNSA 
to meet all DOE annual weapons alterations, modifications and 
surveillance schedules?
    Answer. Yes. Funding for these activities is included in Directed 
Stockpile Work, Stockpile Maintenance and Stockpile Evaluation, and it 
will support the workload requirements in the current Production and 
Planning Directive, and will reduce the backlog in evaluation testing 
as recommended in the 150 Day Study.
    Question. Will the budget request before the committee allow the 
NNSA to meet life extension program production milestones for the B61, 
W76, and W80?
    Answer. The budget request fully funds life extension and 
refurbishment activities in fiscal year 2002 for the W87 and B61, and 
supports limited engineering development for the W76 and W80. Although 
we have agreement with the Nuclear Weapons Council on the schedules for 
the W76 and W80, these may be revisited following the Administration's 
strategic review. We anticipate further guidance on pace and scope for 
these systems, and budget adjustments will be made as necessary.
    Question. Does this budget make the appropriate investments in 
future manufacturing facilities, process development, critical skills 
so that NNSA will be able to meet the known future military 
requirements as well as the stockpile life extension program?
    Answer. This budget request begins to make many investments in 
future manufacturing facilities, including continuing nine major 
construction projects with an estimated cost of over $770 million at 
the production plants, and production-related construction at the 
laboratories. Process development is funded through the ADAPT campaign, 
at essentially the fiscal year 2001 level. With the impetus of the 
Chiles Commission recommendations, and the promise of future workload, 
the production plants continue to make progress in addressing critical 
skills and transforming their workforce for the future. The budget 
request will support fiscal year 2001 contractor employment levels for 
ongoing programs, and we anticipate no involuntary layoffs for defense 
programs.
    We have pointed out that infrastructure investments are needed, 
beyond what is in the current budget request, to arrest the 
deterioration of our facilities due to insufficient maintenance 
expenditures in the past. In addition, depending on the schedule for 
weapon life extensions recommended by the strategic reviews, there may 
be additional investments required.
    Question. If the Committee were to provide you additional funds, 
what would be your next priorities and at what level of funding?
    Answer. I will be in a position to respond to this question after 
completion of the strategic reviews. The President stated his views 
about strategic vision driving resources and budget priorities, and I 
expect that the Administration will follow through on its commitment to 
finalize fiscal year 2002 and outyear funding requests to meet 
validated requirements for defense-related programs at the conclusion 
of the reviews. My priorities will always be centered on the people, 
directed stockpile work, our science technology base, and our critical 
infrastructure.
              size of the future nuclear weapon stockpile
    Question. If it turns out that the defense policy reviews 
ultimately recommend a smaller nuclear stockpile, how will that affect 
your five-year budget plan?
    Answer. We believe that the on-going defense reviews may result in 
potentially significant upward pressure on our current five-year budget 
plan. While there may be some modest reduction in direct weapon system 
funding needs, the emerging concerns to: reestablish a near-term pit 
manufacturing capability; rebuild a rapidly aging human and capital 
infrastructure; provide an assured resource of tritium; and establish 
and maintain the tools and capabilities necessary to continue to 
certify the reliability, safety, and security of the enduring stockpile 
without underground testing ultimately will affect the size of our 
five-year budget plan. We also would expect to increase our need for 
dismantlement of weapons if the stockpile is reduced.
    It is also worth noting that those weapons most likely to be 
retained have already been planned for refurbishment. Regardless of the 
ultimate decisions on the stockpile, our refurbishment requirements are 
well defined for at least the next five years which in turn drives 
scientific, facility, and budgetary needs.
    Question. Will you still need to rebuild the complex 
infrastructure?
    Answer. Absolutely. Should we move to a smaller stockpile it would 
place a greater premium on the reliability, safety, and security of the 
remaining weapons. It would require the complex to be able to 
remanufacture components on a very timely basis if problems were 
discovered, or to respond quickly to new threats.
    Question. Will you still need the full suite of science-based 
diagnostic and test facilities?
    Answer. Yes. The suite of capabilities planned for the Stockpile 
Stewardship Program was developed by considering the technical 
requirements for maintaining a safe, secure and reliable stockpile over 
the long term. The scientific and engineering issues that will arise in 
maintaining the stockpile are independent of the size of the stockpile 
and the capability and tools required for assessing the safety and 
performance of weapons do not change with the number of weapons. The 
NNSA considers that a full suite of diagnostic and test facilities will 
be required even in the event of any arms reductions.
   microsystems and engineering sciences applications (mesa) complex
    Question. When additional resources are provided for the NNSA, 
would you agree that MESA construction funding should be significantly 
increased?
    Answer. MESA is one of a number of activities that we have slowed 
pending the outcome of the Administration's strategic review. Depending 
on recommendations from that review concerning the future of the W76, 
we will need to revisit the MESA schedule. MESA is needed to produce a 
new arming, firing, and fuzing component that is currently planned as 
part of the eventual W76 refurbishment.
                             cyber security
    Question. Last year, Congress provided a supplement of $20 million 
for NNSA to make some immediate improvements in cyber security and to 
develop a cost-effective plan for the longer term. The resulting 
program for the Integrated Cyber Security Initiative has been received. 
The schedules shows 15 major milestones for this fiscal year and 26 
more by the end of 2005.
    How much funding is requested for this initiative
    Answer. There is $30 million specifically identified in the 
President's budget request to fund the Integrated Cyber Security 
Initiative. At the current funding level the DOE will provide cyber 
security in fiscal year 2002 comparable to that provided in the fiscal 
year 2001.
    Question. Is the plan on tract to meet its milestones in fiscal 
year 2001?
    Answer. The current efforts will support development of a cost-
effective implementation plan for the long term and have provided some 
immediate improvements in cyber security at select sites.
    Question. How much will the necessary activities cost and how will 
they be funded?
    Answer. The exact cost of the program will be developed along with 
the development of a detailed implementation plan. The actual cost will 
depend on which options are selected by the Department. That selection 
will take place as the plan is finalized. Funding will be requested 
based on identified need.
    Question. What is the Department's plan to upgrade cyber-security 
throughout the weapons complex?
    Answer. The overall plan was presented in a report provided to 
Congress on the Integrated Cyber Security Initiative. Effort is 
underway to develop additional implementation details of this plan.
    Question. How important is cyber security and what is the 
appropriate level of funding to address our cyber security 
vulnerabilities over the next 5 years.
    Answer. As the United States becomes more reliant on electronic 
means to store, move and access its critical information, it further 
the concern over the vulnerability of that information. The amount of 
protection must be based on a prudent determination of the value of the 
information and the processes that are supported. From a DOE 
perspective, the funding will be requested to maintain protection of 
the valuable DOE information and processes.
                       national ignition facility
    Question. Should not funding for NIF only be provided after we have 
ensured adequate resources are available for the near-term weapons 
refurbishment mission?
    Answer. If NNSA requirements remain the same after the 
Administration's strategic review, maintenance of the safety and 
reliability of the stockpile clearly requires increased expenditures 
for infrastructure, stockpile life extension programs, and development 
of a pit production capability. At the same time, the Stockpile 
Stewardship Program (SSP) must develop and deploy new scientific tools 
like NIF that are the only known means of assuring that we properly 
understand stockpile aging and the actions that we plan to undertake to 
sustain the deterrent. As we reaffirmed in the recent high-energy-
density-physics (HEDP) study, a vital HEDP Program is an essential 
component of SSP, and that with the full 192-beam NIF, the program 
meets its requirements. No alternative to the NIF was found that meets 
the program needs.
    We are working hard to balance the SSP, while meeting near term 
commitments and investing in critical capabilities required to provide 
for the longer term health of the stockpile. To fit within the 
available resources, many elements of the SSP including the NIF have 
been deferred and stretched out to the maximum extent possible over 
several years. Further stretch-out of NIF funding could damage the SSP 
immediately, as well as in the longer term. Without the NIF, in my 
opinion, the SSP could be unable to perform its long-range mission of 
maintaining the safety and reliability of the nuclear weapons 
stockpile.
    The timing of NIF's availability is an important issue for the SSP. 
In the next ten years, we will embark on major weapon refurbishment 
programs while at the same time the majority of the remaining 
experienced weapons experts will be retiring. It is vital that NIF and 
other new SSP tools be brought on board during this time. As NIF begins 
to come on-line during the latter half of this decade, it will provide 
unique experimental capability in the high-energy-density regime to 
investigate stockpile issues. It is estimated that approximately 1,500 
experiments will be conducted at NIF between fiscal year 2004 when 
eight laser beams will be on line and fiscal year 2008 when all 192 
beams are expected on line. NIF will also provide both basic physics 
data, and model validation needed to support computer simulation and 
thus the health of the Nation's stockpile.
                      foster panel recommendations
    Question. The Foster Panel has suggested a number of additional 
activities as a part of the stockpile stewardship program. Such as:
  --exercising end-to-end design, production and certification 
        capabilities not currently being used
  --dual revalidation of all weapons designs
  --developing new designs of robust, alternative warheads
  --increasing enhanced surveillance
  --possibly reducing the nuclear test readiness response time to less 
        than one year
    What is your response and what would these items add to the SSP 
baseline?
    Answer. DOE and the NNSA have been supportive of the Foster Panel 
since its inception and there is agreement on many of the issues 
identified in the report. However, the Foster Panel and NNSA have 
different views on the integrated solutions to best address the issues 
and the trade-offs between cost, scope, schedule, and risk. The Foster 
Panel recommendations all act to reduce risk, but some may do so at a 
significant cost or represent a significant change to current national 
policy. We are continuing to study the recommendations and potential 
implementation of solution sets.
    There is currently no military requirement to produce new weapons, 
and we have not received such a request. The life extension programs 
authorized by the Nuclear Weapons Council for the B61, W80, and W76 
will sufficiently exercise the design, production and certification 
capabilities of the weapons complex. Successful completion of these 
programs represents a workload and workscope unmatched in the weapons 
complex in more than ten years.
    NNSA has developed an alternative approach to Dual Revalidation 
which achieves the same high-priority objectives, but takes less time 
and is less costly. Baselining, a first necessary step of any Dual 
Revalidation effort, will be applied to all of the warhead types during 
the next five years, while some designers that originally worked on the 
system are still available. The first Dual Revalidation on the W76 
Trident was valuable, but was much more expensive than estimated, and 
took much longer than originally anticipated--five years instead of 
three. If we choose to perform Dual Revalidation studies in the future, 
their focus and scope can be based on the key points brought out by 
completed baselining studies.
    Enhanced surveillance is systematically fielding diagnostic tools 
and conducting studies of components and materials in the stockpile to 
identify impacts from aging before there is impact to the stockpile. We 
agree that additional resources in this area could expand or accelerate 
capabilities to detect and respond to aging issues.
    We reported in the ``Nuclear Test Readiness Posture Report to 
Congress'', dated February 2001, that for anything other than an 
extremely simple demonstration of capability, a six-month nuclear test 
response time was not technically feasible, especially considering the 
safety, environmental, and the Threshold Test Ban Treaty reporting 
requirements associated with a nuclear test resumption. In addition, it 
is estimated that maintaining a six-month posture would cost and 
additional $75 million per year, precluding investment in other more 
urgent areas of stockpile stewardship. Other options are being 
investigated.
                            critical skills
    Question. The Chiles Report in 1999, and many others since then, 
continue to identify critical skills as a major problem for the weapons 
complex.
    What have you proposed in this budget request to address the 
ongoing problem of recruiting and retaining the critical technical and 
scientific workforce needed to support and maintain over the long term 
a safe and reliable nuclear weapons stockpile in the absence of 
underground nuclear testing?
    Answer. The Laboratory Critical Skills Development Program under 
the Readiness in Technical Base and Facilities element of our budget is 
a direct funded initiative at $5.4M, aimed at identifying and 
developing critical scientific, engineering and technical skills at the 
three laboratories. The Laboratory Directed Research and Development 
programs which are targeted at 6 percent of our laboratories' budgets, 
and the Plant Directed Research and Development programs which are 
targeted at 2 percent of the budgets of the weapons plants, contribute 
to the recruitment, development and retention of needed critical 
skills. In addition to these initiatives which have a clear connection 
to critical skills, most of the key technology initiatives in the 
Stockpile Stewardship Program such as NIF, ASCI, Advanced Design and 
Production Technologies, etc. are intended to meet programmatic 
objectives while also promoting contractor efforts to recruit, develop 
and retain the right critically skilled workforce. A large share of the 
initiatives that directly impact on recruitment and retention such as 
pay levels, benefit programs and working conditions are within our 
contractors' discretion or covered by contractor overhead programs. We 
review proposed changes to these programs and have encouraged our 
contractors to propose pay and benefit changes that promote recruitment 
and retention of critical skills. We also use the contractor evaluation 
process in our performance-based management contracts to encourage and 
incentivize effective critical skills programs. One of Defense Programs 
key performance targets in both the fiscal year 2001 and fiscal year 
2002 budgets is ``Maintenance of critical skills to meet long term 
requirements.'' The restructured contracts with the University of 
California for Los Alamos and Lawrence Livermore National Laboratories 
include a special management initiative on critical skills which will 
ensure senior University and laboratory management focus on the issues.
                    pit production and certification
    Question. NNSA continues to work to reestablish plutonium pit 
production and certification at Los Alamos to replace pits 
destructively tested in the surveillance program and to replace pits in 
the future should surveillance indicate a problem. This capability is 
central to the weapons complex of the future.
    The original deadline for delivering a pit to the military was 
1998, it then slipped to 2001, then 2003, then 2006. As of your interim 
report last Fall, the date was 2007.
    Please update the committee on NNSA's efforts to reestablish pit 
production at Los Alamos?
    Answer. The pit manufacturing effort is fully funded in fiscal year 
2001 and fiscal year 2002 and is on track to fabricate a certifiable 
W88 pit in fiscal year 2003. The manufacture of a certifiable W88 pit 
is the first major milestone required to establish that W88 replacement 
pits manufactured at Los Alamos National Laboratory (LANL) are 
qualified for use in the nuclear stockpile; the later milestone is 
certification that the pit will meet required functions. Manufacturing 
and process specifications required to build W88 pits have been 
established and LANL has fabricated eight W88 development pits. NNSA, 
with LANL, has developed a certification plan for non-nuclear testing 
required to confirm equivalent performance of LANL pits with Rocky 
Flats pits. Risk mitigation actions to avoid single test failures 
continue to be assessed and project management systems to measure 
``earned value'' will be in place for fiscal year 2002.
    Question. Is it true, that under the Administration's budget 
request, delivery of a certified pit is put off indefinitely?
    Answer. With the current fiscal year 2002 funding for the pit 
manufacturing and certification project, NNSA will fabricate a 
certifiable pit in fiscal year 2003. However, the current fiscal year 
2002 request will not enable the laboratory to conduct all 
certification activities required to place a newly fabricated 
replacement W88 pit in the nuclear weapons stockpile in fiscal year 
2009. However, we expect to review the pit manufacturing and 
certification request following completion of the Administration's 
strategic review.
    Question. Is it true that $148 million must be added to the request 
for fiscal year 2002 in order to get back on a schedule that would 
allow delivery of a pit no later than 2009?
    Answer. A laboratory assessment of the March W88 Pit Manufacturing 
and Certification Integrated Project Plan and associated support for 
facilities at LANL estimated an additional $148 million in fiscal year 
2002 would enable the delivery of a W88 pit to the Department of 
Defense in 2009. We still need further NNSA peer review and independent 
assessments to validate the entire resource allocation need.
               laboratory directed research & development
    Question. LDRD investments have a proven track record of high 
returns to the taxpayer. In addition to significant contributions to 
mission relevant areas, these funds account for over 30 percent of the 
new knowledge, as measured by publications, at a laboratory like Los 
Alamos. There's no question that LDRD investments help attract the 
high-caliber staff required to meet the challenges of nuclear weapons 
science and engineering. Do you concur that the weapons programs have 
benefitted very significantly through the LDRD program and the funding 
should be maintained at 6 per cent?
    Answer. Definitely yes. Our weapons programs and the laboratories 
as national research institutions have benefitted significantly from 
the LDRD program. Many of the most innovative technical discoveries 
applied to the weapons programs originated in LDRD projects. Further, 
the NNSA concurs with the Laboratory Directors' previous testimony that 
the weapons program, and national defense in general, have been more 
than repaid for the cost of the LDRD program. We believe funding should 
be maintained at 6 percent. Our experience during fiscal year 2000, 
when the funding was reduced to 4 percent, was that the program 
suffered in several different ways, the impact of which will be 
experienced over several years.
                        industrial partnerships
    Question. Congress has frequently noted that carefully structured 
partnerships with United States industry can enable the labs to 
accomplish their missions more effectively, at the same time that they 
assist industry with new products and processes that boost our domestic 
competitiveness. The previous Administration reduced their support for 
such partnerships, which Congress reversed for the current fiscal year.
    In your view, are partnerships being used effectively by the 
laboratories?
    Answer. Yes, we believe that partnerships (collaborative 
activities) are currently being used effectively. One effective 
mechanism is the Cooperative Research and Development Agreement (CRADA) 
which was established as a contractual mechanism to encourage and 
simplify collaboration with the private sector. In fiscal year 2000, 
the NNSA complex initiated over 50 new CRADAs bringing to almost 350 
the number of active CRADAs. In fiscal year 2001, the Department 
initiated a new budget structure for the Stockpile Stewardship Program. 
Technology partnerships are not directly supported as a separate 
program by Stockpile Stewardship within this new budget structure. At 
this point in fiscal year 2001 there have been four newly executed 
CRADAs, 137 continuing CRADAs for a total of 141 active CRADAs all of 
which directly support the NNSA national security mission. Since the 
funding mechanism for CRADAs transitioned this fiscal year, we are 
carefully monitoring the effects of that change. We anticipate that 
there will be a reduction in those CRADA activities where there are 
only `spinoff' benefits to industry. We hope that the program-sponsored 
partnerships and funds-in CRADAs will more than make up for the spinoff 
partnership reductions.
    Question. Is Congressional guidance to increase partnerships being 
followed?
    Specifically, Congress recommended at least $30 million be invested 
in industrial partnerships in the current year, plus set aside $3 
million for assistance with small business technology-based companies 
near the weapon labs and identified $6 million for a program, to be 
matched with $6 million from NIH, to evaluate and develop NNSA 
technologies for medical needs.
    Answer. NNSA fully supports the development and execution of 
technology partnerships that support the NNSA missions and has directed 
that program officials consider funding partnerships as part of the 
planned execution of their programs when it is appropriate and 
advantageous. The accounting system does not provide information on 
partnerships, however , a staff estimate indicates that approximately 
$17.6 million has been invested in industrial partnerships. We 
anticipate that this number will increase as time goes on. Although the 
set aside for assistance to small business technology-based companies 
near the weapon labs was not appropriated, we recognize that support 
for small business in the vicinity of the laboratories and facilities 
not only contributes to technological advances in the private sector 
and maintenance of the procurement base, but also promotes local good 
will and acceptance of the continuing operation of the laboratories and 
facilities. The NNSA laboratories and facilities have been encouraged 
to participate in these small business programs.
    With respect to working with NIH to explore joint opportunities for 
the development of medical devices, our involvement with NIH has 
resulted only in encouragement to continue to respond to NIH 
solicitations. Although we have not yet been successful in the 
development of a joint NNSA/NIH medical devices program, the NNSA 
laboratories continue to use their unique skills in support of national 
security for the development of medical devices.
          administration support for nonproliferation programs
    Question. Why does the Administration propose such deep cuts in the 
nonproliferation programs in Russia?
    Answer. Although the fiscal year 2002 request is $100.2 million 
(11.5 percent) below the fiscal year 2001 appropriated level, it 
represents a $52.2 million (7.3 percent) increase over the fiscal year 
2000 level. The fiscal year 2002 request normalizes growth over two 
years at just under 4 percent per year. A review is underway to examine 
the nonproliferation programs with Russia. At the end of this review, I 
expect to have a clear understanding of the Administration's policy 
requirements for our threat reduction activities. The National Nuclear 
Security Administration's final Future-Years Nuclear Security Program 
for fiscal year 2002 through 2007 will be submitted after completion of 
the strategic review of national security-related activities.
                       safety and security record
    Question. Admiral Bowman, Naval Reactors has long enjoyed an 
outstanding record on safety and security. Would you elaborate on your 
Program's success in these areas and describe how your management 
systems support safety and security?
    Answer. Naval Reactors is a semi-autonomous, centrally managed, 
single-purpose organization with clear lines of authority and total 
responsibility and accountability for all aspects of naval nuclear 
propulsion. The precepts of this organization, developed under the 
leadership of Hyman G. Rickover were preserved upon his retirement in 
1982 by Executive Order 12344 issued by President Ronald Reagan 
(attached). This executive order was subsequently set forth in two 
Defense Authorization acts. The clear focus of the organization's 
mission, combined with a management philosophy which clearly assigns 
responsibility and authority, has resulted in an organizational culture 
that intertwines the need for safety, environmental stewardship and 
security with everyone's daily efforts.
    Naval Nuclear Propulsion Program technology is among the most 
sensitive and valuable military technologies currently in use in the 
United States. Nuclear powered vessels comprise about 40 percent of the 
U.S. Navy's combatant fleet, including the entire sea-based nuclear 
deterrent. All submarines and over half of the Navy's aircraft carriers 
are nuclear powered. This nuclear technology measurably contributes to 
the United States ability to defend its interests worldwide. The 
proliferation of this technology and the resultant development of 
nuclear powered submarines and surface combatants in other countries 
could result in destabilizing geopolitical conditions, to the detriment 
of world stability and U.S. interests.
    For that reason, information that permits nuclear propulsion to be 
applied to warships must be protected. This information is identified 
as naval nuclear propulsion information and concerns the design, 
arrangement, development, manufacture, testing, operation, 
administration, training, maintenance and repair of the propulsion 
plants of Naval nuclear-powered warships and prototypes including the 
associated shipboard and shore-based nuclear support facilities. 
Program personnel are trained from their first days to develop a 
knowledge of the details to ensure they can identify and correct 
problems, or resolve issues while they remain small. They understand 
the vital role of security in meeting the mission of the Navy.
    Security is ``mainstreamed'' in the Program. Shortly after entering 
the Program, all personnel are indoctrinated in the requirements and 
the importance of safeguarding naval nuclear propulsion technology. 
Then, protection of this technology is factored into the daily Program 
routine and reinforced periodically. Consequently, security is not an 
afterthought requiring retrofit into Program operations at a later 
date. Some of the principles employed to protect classified information 
are used to protect Program sensitive unclassified information. For 
example, foreign nationals are not permitted access to classified or 
unclassified Naval Nuclear Propulsion information except through 
approved government-to-government agreements, and assignment of foreign 
nationals at Program laboratories and other facilities is not 
permitted.
    The U.S. Naval Nuclear Propulsion Program is centrally controlled 
by a highly experienced but lean integrated organization of Department 
of the Navy and Department of Energy personnel. This organization is 
responsible for all aspects of the Program, including research, design, 
development, testing, operation, and personnel. In addition, peer 
review of reactor safety aspects of design, crew training, and 
operating procedures is provided by the U.S. Nuclear Regulatory 
Commission and the Advisory Committee on Reactor Safeguards.
    U.S. nuclear-powered warships and their reactors have been designed 
to the most exacting and rigorous standards. They are designed to 
survive wartime attack, and include redundant systems and means of 
auxiliary propulsion, and are operated by highly trained crews using 
rigorously applied procedures. All of these features enhance reactor 
safety just as they contribute to the ability of the ship to survive 
attack in time of war.
    Over 100,000 officers and enlisted technicians have been trained in 
the Program. The officer selection process accepts for interview by the 
Director only applicants who have high standing at colleges and 
universities. All personnel receive over a year of training in 
theoretical knowledge and practical experience on operating reactors 
that are like the reactors used on ships. Even after completing this 
training, before manning a key watch station, the personnel must 
specifically qualify on the ship to which they are assigned. Despite 
the extensive training and qualification program, multiple layers of 
supervision and inspection are employed to ensure a high state of 
readiness and compliance with safety standards.
    All U.S. nuclear-powered warships use pressurized water reactors. 
The radioactive fission products are contained within high-integrity 
fuel modules that can withstand battle shock. The fuel is fabricated 
such that U.S. Naval reactors do not operate with fission products 
released to the primary coolant. The reactor compartment forms a 
container and shields the crew from radiation. This compartment 
contains no loose radioactivity in accessible areas and can be entered 
without any protective clothing within minutes of shutting down the 
reactor.
    The U.S. Naval Nuclear Propulsion Program has historically 
incorporated major efforts to minimize radiation exposure. No civilian 
or military personnel in the Naval Nuclear Propulsion Program has ever 
exceeded the Federal accumulated limit, which until 1994 allowed 5 rem 
of exposure for each year of age beyond age eighteen. Since 1967, no 
person has exceeded the Federal quarterly limit, which allows up to 3 
rem per quarter year. Since 1968, no person has exceeded the Navy's 
self-imposed limit of 5 rem per year for radiation associated with 
naval nuclear propulsion plants. The Federal limit was changed in 1994 
to adopt the 5 rem per year limit already in use by the Navy in lieu of 
the accumulated exposure limit. The average exposure to nuclear-powered 
ship operators for the last 10 years is less than 0.04 rem, compared to 
0.30 rem per year from background radiation for the general public. 
This occupational exposure record is indicative of the conservative 
design employed in U.S. naval application. With regard to liquid 
discharges of radioactivity, design and operating practices strictly 
enforce a policy of minimum discharge to the environment. Within twelve 
miles of land, where no intentional discharge is allowed, the total 
gamma radioactivity discharged by all U.S. ships and facilities during 
any single year is less than 0.002 curie. That amount is 100 times less 
than the radioactivity discharged by a single typical U.S. commercial 
nuclear power station in a year, which is itself within permissible 
limits.
    While the strict procedures followed to control release of 
radioactivity preclude the need for environmental monitoring, the U.S. 
Navy does conduct environmental monitoring in locations where U.S. 
nuclear-powered ships are home ported or serviced, such as bases and 
shipyards, so there will be independent evidence to confirm the absence 
of any environmental effect. This monitoring consists of analyzing 
harbor water, sediment, and marine life samples for radioactivity 
associated with naval nuclear propulsion plants; radiation monitoring 
around the perimeter of support facilities; and effluent monitoring. 
Environmental samples from each of these harbors are also checked at 
least annually by a U.S. Department of Energy laboratory to ensure 
analytical procedures are correct and standardized. The U.S. 
Environmental Protection Agency has conducted independent surveys in 
U.S. harbors and results have been consistent with Navy results. These 
surveys have confirmed that U.S. naval nuclear-powered ships and 
support facilities have no significant effect on the radioactivity of 
the environment.
    In addition to the many safety considerations referred to above, 
there are several other factors that enhance naval reactor safety. 
Naval reactors are smaller and lower in power rating than typical 
commercial plants. They also operate at lower power levels, 
particularly when in port or in restricted waters. Thus, the amount of 
radioactivity potentially available for release is less than one one-
hundredth of that for a typical commercial reactor. Naval reactors have 
ready access to an unlimited source of seawater that can be used for 
emergency cooling and shielding, and are mobile. In the event of a 
problem, the ship can be moved, which, of course, is not the case for a 
fixed, land-based reactor.
    On the whole, the Program's success in safety and security is due 
in large part to its clear lines of authority and total responsibility 
and accountability for all aspects of naval nuclear propulsion. The 
success of this organization and its personnel is unsurpassed. The 
safety record of United States nuclear-powered warships is outstanding. 
In the history of the Naval Nuclear Propulsion Program, there has never 
been a nuclear reactor accident, nor has there been a release of 
radioactivity having a significant effect on the environment or the 
public. The Program currently is responsible for 82 operating nuclear-
powered warships and 102 operating reactors. Since 1955, U.S. Navy 
nuclear-powered ships have steamed over 122 million miles and amassed 
over 5200 reactor-years of operating experience. These ships have 
visited more than 150 ports in over 50 foreign countries and 
dependencies.
                       nuclear cities initiative
    Question. What progress has been made recently in downsizing of the 
complex and conversion of weapons manufacturing plants to alternative 
missions?
    Answer. Significant progress has been made at the Avangard 
Electromechanical Plant, a nuclear weapons facility in Sarov where a 
non-weapons related Technopark is being created. The strategy for 
closure at Avangard is the following: as a significant new project is 
developed, a suitably-sized facility is identified for installation of 
production and assembly lines for the project; then additional real 
estate is carved out of the active area, thus enlarging the Technopark 
and reducing the footprint available for weapons work. The effect is to 
reduce the size of the plant piece-by-piece and to contribute to the 
irreversibility of downsizing by bringing in commercial enterprises.
    Through the impetus of the Nuclear Cities Initiative (NCI), about 
10 percent of the Avangard site--including 10 acres, 6 major buildings 
and over 500,000 square feet of available floorspace--has already been 
moved out of the weapons area and is available for commercial non-
weapons activities. Four significant commercialization projects and 
three infrastructure projects are underway at Avangard. The projects 
include contributions from the Ministry of Atomic Energy (MinAtom) and 
other Russian sources, and agreement has been reached between MinAtom 
and the Department on levels of fiscal year 2001 funding from the NCI 
program. The projects will become fully operational in 2-4 years. At 
full production and employment these four commercialization projects 
will provide jobs for about half of the 3,600 Avangard employees and 
well over 1,000 jobs for VNIIEF employees.
    Question. How much funding could be intelligently used within that 
program to generate significant progress--but always conditioned on 
meeting transparent milestones?
    Answer. Progress is viewed differently by our two nations, and the 
differences must be recognized if we are to be successful in developing 
transparent milestones. To reduce costs, Russia wants to downsize its 
nuclear weapons complex, but it will not abandon the people to 
unemployment. Hence, the MinAtom objective is to create civilian jobs 
through sustainable commercial activities and the metric is the number 
of jobs created. The Russian approach is step-by-step; success with 
Avangard at Sarov will allow us access to other closed nuclear cities. 
In addition, strong and stable funding of the program will engender 
Russian confidence in the U.S. commitment to the program, further 
accelerating progress.
    The U.S. objective for NCI is to obtain irreversible reduction of 
the Russian nuclear complex. The metric at this time for the United 
States is, therefore, the square feet of facilities (buildings) and 
acreage of space converted to civilian commercial activities. As a 
detailed integrating strategy develops for our Russian programs, the 
metric will naturally evolve toward specific facilities that represent 
a high priority for the United States.
    To this end, we believe that now is the appropriate time to move 
aggressively toward the rapid and irreversible closure of the Avangard 
nuclear weapons facility. Given the infrastructure, which has already 
been developed and the significant number of companies expressing 
interest in moving into the Technopark, NCI could advance the closure 
of Avangard over the next two years and be in a strong position to move 
into another city.
    A secondary benefit associated with this strategy is the avoidance 
of cost for Material Protection, Control and Accounting Program 
upgrades at these two sites.
              laboratory directed research and development
    Question. Did the return to the historic level for LDRD help with 
morale?
    Answer. Yes. The return to the 6 percent funding for LDRD did 
improve morale. One of the aspects most significantly affected by the 
reduction was the ability of the Laboratories to recruit new Post 
Doctoral Candidates. The LDRD program supports, on the average, about 
half of the funding for Post Docs across the three NNSA Laboratories. A 
6 percent funding level helps provide these scientists and engineers 
motivation to bring good ideas forward, both to advance the missions of 
the laboratories and their own careers.
    Question. I've heard a suggestion that some small amount of LDRD, 
probably in addition to the 6 percent, be set aside specifically for 
helping new staff members gear up for major contributions in key 
programs. That strikes me as an excellent suggestion.
    Do you concur that such funds would provide important new ways of 
hiring new staff and helping them gain the specialized knowledge they 
need for programmatic contributions?
    Answer. Yes. Such funds would help in enabling the labs to improve 
their efforts to recruit and retain new scientists and engineers. 
Integrating new technical staff into the system of research at our labs 
is vital to our retention efforts. Innovative, high-risk ideas explored 
through the LDRD Program lead to research activities that team senior 
technical staff with relatively new staff members. This collaboration 
is beneficial for the training of new technical staff, retention of 
existing staff, the development of new ideas and helping new staff 
integrate into the mission of the nuclear weapons laboratories.
                               polygraphs
    Question. Do you agree that Congress moved too fast to impose too 
many requirements for polygraphs, before we have information from the 
National Academy?
    Answer. First, I must say that the DOE Office of 
Counterintelligence has worked hard to design a professional and 
effective Polygraph Program in compliance with the federal rule and the 
legislation mandating its existence. Thus far, DOE has tested more than 
2,000 contractors and employees and 99 percent of those tested have 
stated they felt the examination was fair and did not constitute an 
unwarranted invasion of privacy. Also, none of those selected to take 
the test has refused to do so. I'm very happy with those results. 
However, there obviously remain concerns about the test, and I want to 
be responsive to those. I view the Congressionally mandated DOE 
polygraph program and the National Academies' study as necessarily 
moving in parallel. I do not think the program implementation should 
necessarily have been delayed to await the results of the study, though 
the study may provide information useful to program improvement. In 
hindsight, we have concerns that the groupings of personnel required by 
the legislation may not have been the most effective approach to 
identifying those personnel who should be subject to a polygraph. 
Within groups there are positions that vary in degree of sensitivity, 
and we are studying assessment methodologies to be able to identify 
those ``high-risk'' positions that we feel are most appropriate for 
polygraph. This is an ongoing study whose results may suggest a change 
to the legislative requirements may be appropriate. We are also very 
interested in the National Academies' study of polygraph. The NAS study 
will include what is known about the effect of medications, sleep 
deprivation, and illnesses on the physiological responses measured 
through polygraph exams. The 15-month study began on January 1, 2001, 
and the final report is to be released next year. I view this study as 
a potential means through which DOE may further improve on its 
successful Polygraph Program.
                     polygraphs and employee morale
    Question. Do you agree that polygraphs are negatively impacting 
morale and potentially doing far more harm than any good?
    Answer. I know that personnel from Sandia, Los Alamos and Lawrence 
Livermore National Laboratories have discussed their concerns with the 
Office of Counterintelligence, and I am aware that they are engaged in 
an ongoing dialogue on the topic. We are doing all that we can to 
address employee concerns with respect to the polygraph program, and 
seek to minimize any negative impact it may have on recruitment and 
retention. Unlike the National Security Agency and the Central 
Intelligence Agency, where polygraph has long been used as a condition 
of employment and is seen by employees as something of a ``rite of 
passage'', our scientists in many instances are just now being 
confronted with this prospect, after many years of loyal service. We 
must deal with this cultural shift in a straightforward manner; 
addressing their concerns while protecting our most sensitive equities 
and complying with the legislation mandating polygraph.
    While polygraph may now be a factor, the issues of recruitment and 
retention are complex and pre-date DOE's proposed use of 
counterintelligence-scope polygraph examinations. This is well 
documented in the March 1999 Report of the Commission on Maintaining 
United States Nuclear Weapons Expertise (Chiles Report). The Chiles 
Report characterized DOE as being in a war for talent with the private 
sector. The scientific and technical talent that DOE must attract and 
retain has many options in today's competitive technology marketplace.
    The Department is committed to achieving the goal of having both 
good science and good security, and will continue to work hard to 
address employee concerns that impact on that goal.
                              apt and aaa
    Question. In the current year, Accelerator Production of Tritium 
(APT) is funded within Defense Programs and Advanced Accelerator 
Applications (AAA) is funded within the Nuclear Energy Office. The 
Department has recently issued a report, requested by Congress, from 
the Office of Nuclear Energy which was coordinated with the NNSA. That 
report outlines a comprehensive program for a future AAA program that 
incoroporates APT, and includes partnering with Defense Programs.
    Do you concur with plans to incorporate APT into a broad AAA 
program?
    Answer. Yes. The nation has invested more than $600 million in 
accelerator technology under the APT project. That investment can 
better be realized under the AAA Program than through closure of the 
project and archiving of data. The AAA Program's proposed new test 
facility could provide data valuable to civilian science as well as 
national security programs. In addition, the new facility, if built, 
could retain the capability to be upgraded to produce tritium, if that 
is ever required.
    Question. And, do you agree that it is in the national interest to 
advance APT technologies to the point where they could be readily 
scaled up to meet stockpile needs for tritium if any issues develop 
with the reactor-based program for tritium production?
    Answer. I believe it is in the national interest to capitalize on 
the investment of more than $600 million in accelerator technology 
represented by the APT by transitioning the technology development to 
the AAA program. Our primary tritium program, which will use TVA 
reactors to produce tritium, is going extremely well, and we, 
therefore, believe that the need for a `readily scaled up' backup is 
not a wise use of taxpayer resources. Nonetheless, I agree that it 
would be prudent, to include in any new facility at least the 
capability to be upgraded for tritium production.
                           retirement systems
    Question. Retirement systems are one of the most important benefits 
that staff must evaluate in selecting places of employment. There are 
currently vast differences among retirement benefits at the different 
weapons laboratories. Furthermore, the private sector has a far wider 
range of benefit options, such as stock options, that can be used to 
encourage people to accept employment.
    I hear from many constituents that retirement systems, most notably 
at Sandia, are seriously lagging other laboratories. Sandia has 
conducted their own analysis of this situation and confirmed this 
discrepancy. The employees are particularly concerned because the 
Sandia retirement system is extremely well funded and probably could 
support much higher benefits.
    In my view, the Department should be encouraging its contractors to 
maximize their retirement benefits since this can have a significant 
impact on their ability to hire and retain highly qualified staff.
    Do you concur with this view?
    Answer. Retirement systems are indeed an important consideration 
when applicants and employees compare employment offers. The Department 
has found that the weapons laboratories provide retirement benefits 
that are equal to or above what is offered by comparable employers with 
government contracts and in the private sector. Among NNSA sites (LANL, 
LLNL, Sandia, Knolls Atomic Power Laboratory, Oak Ridge, Kansas City 
Plant, Bechtel Nevada, and Bechtel Bettis) the Sandia salaried Pension 
Plan is second only to those at the Los Alamos and Lawrence Livermore 
National Laboratories which are covered by the University of California 
Retirement Plan. The Department's contractors have almost every benefit 
option available to offer employees, including, in the Sandia case, the 
ability to offer stock options although they have chosen not to do so. 
The Department supports and encourages contractors to develop 
attractive, contemporary, and competitive benefits packages.
    The Department is very concerned about public and media statements 
that claim that Sandia benefits are below standard. Based on our 
review, the Sandia analysis entitled ``Current Pension Plan Review 
March 26-29, 2001 by Joan Woodard and Ralph Bonner,'' supports the 
Department's analysis and findings that Sandia's pension plan for 
salaried employees and the 401(k) defined contribution plan provide a 
retirement benefit equal to or greater than most comparable employers. 
According to the two studies referenced in the Sandia analysis, the 
2001 Hewitt Associates survey for salaried employees and the 2000 
Towers Perrin High Technology BENVAL survey, Sandia's retirement 
benefits rank at or near the top in a list of comparable employers. 
Only when compared to the University of California Retirement Plan 
(UCRP) for older employees is the Sandia defined benefit plan lower. 
However, in the case of employees leaving employment before age 55, 
Sandia's benefits actually exceed the UCRP in some cases. Moreover, 
when the employer portion of the Sandia 401(K) defined contribution 
plan is factored in for salaried employees they compare even more 
favorably with the UCRP which does not include a 401(K).
    With regard to the use of excess assets in the pension plan to fund 
benefit increases, the Department does not view the existence of excess 
assets as justification for benefit increases. To do so would 
effectively penalize both the contractor and the Department for advance 
funding and good asset management. Moreover, the Department's Inspector 
General has previously warned the Department to not allow unwarranted 
benefit increases which would be funded by the available excess funds 
from the pension plans. The overfunding of a pension plan is no more 
compelling a reason for increasing benefits than an underfunded plan is 
for decreasing benefits, particularly in light of the fact that they 
are subject to significant market fluctuations.
    Finally, the Department evaluates the compensation and benefit 
packages provided by its contractors from the prospective of Total 
Compensation. To separate individual elements of compensation and 
benefits for comparison without consideration of the Total Compensation 
can be misleading and result in unnecessary cost escalation.
                  advanced hydrotest facility at lanl
    Question. An advanced hydrotest facility has long been planned for 
the stockpile stewardship program. In fiscal year 2001, $15 million was 
appropriated for R&D and pre-conceptual designs for a facility using 
protons. As you know Los Alamos has had some substantial developments 
in this area.
    What are the plans for continued development of this facility in 
fiscal year 2002?
    Answer. The continuing program of proton radiography experiments at 
Los Alamos and Brookhaven have been successful and show that this new 
technology is a promising and viable option for application to meet the 
radiographic requirements for primary certification. NNSA's plans and 
path forward for Advanced Radiography are contained in the Hydrotest 
and Radiography Requirements--Interim Report provided to this committee 
in response to HR 106-116. The AHF pre-conceptual design activities led 
by Los Alamos continue to meet the milestones laid out in this report.
    Principal milestones for NNSA are to complete pre-conceptual design 
review activities in fiscal year 2001 and then to review our 
understanding of the requirements for an advanced radiography facility 
and the status of current technologies in order to support a mission 
need determination in early fiscal year 2002.
    We have commissioned a JASON review of primary certification 
requirements and the role of an AHF in meeting those requirements. This 
study will be performed this summer and will give us a preliminary look 
at the issues that we will review further before making a mission need 
determination.
    If a mission need decision is made (Critical Decision-0), then we 
would continue to support Conceptual Design activities in fiscal year 
2002 with Operation and Maintenance funding in the advanced radiography 
campaign. The effort that can be applied to conceptual design and 
engineering development and demonstration activities in the fiscal year 
2002 budget submission have been balanced against other requirements, 
including advanced radiography campaign efforts to optimize DARHT I, 
support the commissioning of DARHT II, and certification activities.
                                 ______
                                 

             Questions Submitted by Senator Larry E. Craig

                 upgrades to the advanced test reactor
    Question. Upgrades to the Advanced Test Reactor. The Naval Reactors 
Program is the primary programmatic ``customer'' at the Advanced Test 
Reactor at the INEEL. There have been proposals to invest in some 
facility upgrades at the Advanced Test Reactor to construct a dedicated 
experiment assembly area and to upgrade experiment handling equipment. 
These upgrades would attract additional users to the Advanced Test 
Reactor, and would therefore reduce the overhead costs charged to Naval 
Reactors. Would you be supportive of these facility upgrades, if 
funding could be found within DOE's budget?
    Answer. Yes, NR supports the proposed upgrades. Seven years ago NR 
vacated test space in the Advanced Test Reactor (ATR) to provide access 
for other customers to reduce NR costs. Since that time, NR has 
actively supported efforts by DOE and the operating contractor to bring 
in new customers to use this space. Two years ago, DOE's branch of 
Nuclear Energy (NE) funded the installation of a new experiment 
facility, the Irradiation Test Vehicle (ITV) to support additional 
testing. The ITV enhanced ATR capabilities by allowing for the testing 
of multiple capsules with independent temperature control. Currently 
the ITV is not being used, and only a small number of other capsule 
experiments are being run in ATR. Enhancing the ability to assemble 
capsules and handle tests will increase the likelihood for other 
customers to use the ATR, reducing the costs paid by NR through the 
DOE. NR supports these upgrades that will have minimal effect on NR 
testing, while enhancing the utilization of the ATR. NR supports 
continued effort by NE to make upgrades that will improve ATR testing 
and data gathering capabilities and bring in other customers.
                             bn-350 reactor
    Question. Given the strategic importance of Kazakhstan from both an 
energy and a geopolitical perspective, could you describe the 
Department's plan for fulfilling the commitments that the U.S. has made 
to assist Kazakhstan?''
    Answer. The project at the BN-350 breeder reactor in Aktau has 
indeed been a major nonproliferation success. By June, NNSA will have 
completed the packaging of the plutonium-rich BN-350 spent fuel. The 
theft vulnerability of the material is now orders of magnitude less 
than it was in 1995 when the Department first visited Aktau. The 
Department has spent $15 million on material protection, control, and 
accounting measures at the reactor facility. In June, we will complete 
the packaging of nearly 3000 assemblies containing about three tons of 
weapons-grade plutonium. The packaged material is now in the BN-350 
pool and is as secure from theft as it will ever be. By July, NNSA will 
have spent $43 million on the spent fuel disposition aspects of this 
project.
    The 1997 agreement provided a ``provisional'' approach to the long-
term storage at the Baikal site on the opposite side of Kazakhstan from 
the BN-350. The agreement committed the Department to support that 
approach unless logistical, technical, or costs issues made that 
approach infeasible. Last September, a joint U.S./Kazakhstan study 
concluded that there are significant advantages to storing the material 
at Aktau both technically and financially. For unclear reasons, the 
Government of Kazakhstan decided to ship the material to Baikal. The 
Department does not have the funds to support that decision and is 
concerned that this approach was not supported by the joint U.S./
Kazakhstani study.
    In January, Kazakhstani officials announced that they had developed 
a plan that would allow them to transport and store the material at 
Baikal on their own. They asked for U.S. help in the area of security 
and for the design and construction of the storage site, as well as any 
other aspect of the project. The Department's priorities remain focused 
on the proliferation risks of the material. Therefore, we intend to 
address the physical protection requirements of transporting and 
storing the material, as the Kazakhstanis requested. We also intend to 
continue supporting the IAEA in a comprehensive program of safeguards 
against a successful diversion of the material's plutonium. These two 
efforts will require most of the project's budget.
    In February 1999, Kazakhstan requested NNSA assistance in upgrading 
the safety of the reactor following a critical review of the plant by 
an IAEA team. Subsequently, Kazakhstan announced that the reactor would 
be shutdown permanently. The plan is to place the reactor in a 
radiologically and industrially safe condition over the next 7 years 
and to maintain it for up to 50 years before it is dismantled. 
Kazakhstan has requested United States and international technical and 
financial assistance for the shutdown project.
    In December 1999, the Secretary of Energy and Minister Shkolnik 
signed a joint Implementing Arrangement for decommissioning the BN-350. 
The Arrangement states that the United States and Kazakhstan will 
cooperate in the shutdown project. Specifically, DOE will support 
decontaminating, draining and deactivating the sodium coolant; and 
development of a decommissioning plan that will be reviewed under the 
auspices of the IAEA. The Implementing Arrangement also states that DOE 
will assist Kazakhstan to find additional international partners for 
the decommissioning project.
    Decommissioning the BN-350 will permanently eliminate a source of 
weapons-grade material production. It also will eliminate a nuclear 
safety concern on the shores of the Caspian Sea in a strategically 
vulnerable region that is about 150 miles south of the Kashagan oil 
field. The project has the additional objectives of sustaining a 
nuclear infrastructure within Kazakhstan to support the remaining four 
research reactors and fostering Kazakhstan independence. 
Decontaminating, draining and deactivating the coolant, as well as the 
immediate safety upgrades, will cost about $29 million over five to 
seven years. Because of the nonproliferation nature of the project, 
NNSA has been able to obtain commitments from State's NDF, ISTC and AID 
programs for most of these funds. NNSA is also working to form a 
collaborative project with Japan.
                                 ______
                                 

               Questions Submitted by Senator Harry Reid

                    administration strategic review
    Question. I've heard that the budget we just received up here may 
be changed as a result of the recommendations in the forthcoming 
strategic review of the DOD programs. Is this true?
    Answer. Yes. The results and recommendations of the strategic 
reviews will set the Administration's budgetary priorities for defense 
and national security-related activities. The President believes that 
the Nation's defense strategy must drive decisions on defense 
resources--not the other way around. Accordingly, the Administration 
plans to determine final fiscal year 2002 and outyear funding requests 
once the Strategic Defense Review is complete. That means that there is 
a possibility that a budget amendment will be forthcoming.
    Question. Can you give me an idea about when this will come up to 
us?
    Answer. I must defer to the White House on when the reviews will be 
finalized. We will work with you and your staffs to assure that we 
provide all of the information you need to evaluate our requirements 
for fiscal year 2002 and the outyears.
                             infrastructure
    Question. Several weeks ago, you testified to this committee about 
infrastructure problems across the weapons complex. For the members who 
couldn't make that hearing, can you briefly tell this committee why 
this occurred?
    Answer. The current condition of the nuclear weapons complex is 
attributable to several factors, among which are the age of the 
complex, facility & infrastructure underfunding, and the increasing 
demands placed on facility management by current environmental, safety 
and health laws and regulations. The majority of the facilities are 40 
years or older. The design lives of many of these facilities have been 
exceeded, using any reasonable standard. Facility and infrastructure 
requirements have been underfunded for a long time. This chronic 
underfunding has taken a significant and measurable toll on our 
facilities. Finally, the costs directly attributable to compliance with 
today's health, safety, and environmental requirements continues to 
grow.
    Question. What will it cost Congress to make repairs after this 
long period of neglect?
    Answer. I believe that I am prepared to efficiently execute between 
$200-$300 million to start our recapitalization of the complex in the 
first year. Following thereafter, I believe that $500 million will be 
required annually for the next ten years to restore and recapitalize 
the complex. No funds were included in the current fiscal year 2002 
request pending completion of the strategic review.
    Question. DOE has a very bad record of construction management. If 
the Congress were to provide that much money, how can we be assured 
that the problems will get fixed?
    Answer. As stated in the Defense Programs ``Annual Report to 
Congress on Construction Project Accomplishments'' dated January 17, 
2001, Defense Programs has committed to a multi-year project management 
improvement campaign that is targeted at eliminating root cause project 
management problems through a fundamental change in culture and 
process. The PM Improvement Campaign encompasses the recommendations of 
numerous external review groups and the results of extensive bench 
marking of best practices being employed by both public and private 
industry. The Campaign is subdivided into eight individual goals 
designed to significantly improve project planning, decision making, 
lessons learned, career development for project managers, and complex 
wide procedures. Definitive results will not occur over night, studies 
by OMB have shown that at least three years is required to turn a 
culture around.
    Defense Programs/NNSA is committed to maintaining the momentum of 
implementing change through such techniques as new start Independent 
Project Reviews (IPRs) of line item new starts to ensure program 
requirements are clearly defined, a competent integrated project team 
is in place to address stakeholder issues, and sound planning baselines 
have been established for execution of the work.
    Question. Why not wait on the infrastructure initiative until after 
the Administration completes its strategic review?
    Answer. I remain close to the analysis being conducted by the 
Department of Defense regarding our military needs, particularly those 
dealing with the strategic nuclear posture of our forces. We are 
committed to retention of a weapons production capability, even if we 
reduce the number of weapons on hand. There is not a strong direct 
correlation between weapons reduction and facility requirements. One 
element of a credible deterrent is to have a production complex that 
can meet existing requirements and respond to emerging threats in a 
timely manner. As you also know, I am committed to reducing the 
footprint of our current sites and facilities. In this case, we are 
looking for additional resources to eliminate unused facilities that 
have no part in our recapitalization plan.
                    administration strategic review
    Question. Last year's authorization act strongly reinforced the 
requirement for a Five Year Budget Plan for NNSA. Is it included with 
the fiscal year 2002 budget?
    Answer. The National Nuclear Security Administration's final Future 
Years Nuclear Security Program for fiscal year 2002 through fiscal year 
2007 is currently undergoing review and will be submitted to Congress 
after completion of the President's strategic review of national 
security-related activities.
    Question. How much money is allocated to the weapons laboratories 
in the fiscal year 2002 request?
    Answer. The fiscal year 2002 budget request allocates $2.901 
billion to the three national security laboratories. This comprises 55 
percent of the request. It is important to remember that this is a 
preliminary allocation based on the Congressional request, and it will 
likely be updated with the completion of the strategic review.
                            nevada test site
    The NNSA, in order to meet its legal obligations under the Federal 
Facility Agreement with the State of Nevada in regards to the Nevada 
Test Site is required to provide for the protection of underground 
water resources that may be threatened by the underground nuclear 
testing program.
    The plugging and abandonment of underground nuclear test boreholes 
will prevent the transmigration of radiological contaminant between 
groundwater layers and potentially prevent the contamination of 
drinking water supplies. I am particularly pleased that your budget 
request provides a significant increase in funding (from $800,000 to $4 
million in fiscal year 2002) over past years, but I am interested in 
your long term commitment to this project. I have heard that this 
project could ultimately cost over $150 million and take over five 
years to accomplish.
    Question. Will the NNSA support this long term effort or should 
this subcommittee explore placing this project with the Environmental 
Restoration and Waste Management Program?
    Answer. The NNSA agrees that protection of ground water in and 
surrounding the Nevada Test Site is very important. Total Project Cost 
estimate to accomplish the project in 6 years is in the $144 million 
range. To that end, we have set aside approximately $4.6 M in fiscal 
year 2002 to support work to prevent potential contamination from 
expended nuclear test holes and plan to continue this work at a funding 
level of $5 M in fiscal year 2003. We are projecting that increased 
work, funded at a level of approximately $10 M, will be appropriate in 
fiscal year 2004. In fiscal year 2005, the program effort will be 
evaluated to determine what future work and funding levels will be 
optimum. Outyear funding is contingent on the conclusion of 
Administration's review of our 5-year budget.
    The NNSA works closely and cooperatively with the Department of 
Energy Environmental Management staff on this effort. However, the 
areas of the Nevada Test Site in which these expended nuclear test 
holes are located, are integral to the NNSA mission and correcting 
these effects remains our responsibility.
    Question. Are you going to move the Atlas facility from LANL to the 
Nevada Test Site since additional funds were provided last year?
    Answer. We have utilized the funds provided last year to fully plan 
the move but we have not provided funds in the fiscal year 2002 budget 
request to move the facility. An ATLAS project team has been formed, an 
environmental assessment has been performed, and design of a new 
building to house the machine at the Nevada Test Site (NTS) is 
underway. Plans are also being formulated to dismantle, move, 
reassemble, and recommission the ATLAS machine to prepare for full 
scale operation at the NTS.
    It is expected that ATLAS will operate on an interim basis at Los 
Alamos for the entire year of fiscal year 2002 to conduct experiments 
for the Dynamic Materials Properties Campaign in support of the 
Stockpile Stewardship Program. It is expected that the actual 
disassembly, move, and reassembly of the machine will be started in 
fiscal year 2003 and be completed in early fiscal year 2004, assuming 
adequate budget support.
    Question. Is the sub-critical program on track?
    Answer. Yes. The subcritical experiment program is active, 
providing important information for stockpile stewardship and helping 
to maintain nuclear test readiness. In fiscal year 2001, we are 
planning to complete three experiments and eight are planned for fiscal 
year 2002. Subcriticals are providing valuable data on the behavior of 
plutonium which is crucial to an enhanced understanding of nuclear 
weapons. The conduct of these experiments exercise many of the skills 
that would be needed if it were necessary to resume underground 
testing.
                             plutonium pits
    Question. At a previous hearing regarding the status and challenges 
that face the NNSA you mentioned the problem of Pit Certification. You 
indicated in that testimony that we could expect pit certification to 
be the same kind of story as NIF.
    ``Underfunded, under-costed, under-scheduled, and under-planned'' 
were your words. Your fiscal year 2002 request calls for over $128 
million for what is termed ``Pit Manufacturing and Certification.'' In 
addition you have requested almost $83 million for the CMR and TA-55 
facilities at Los Alamos where a majority of that Pit work will be 
done. I went through the financial schedule for this CMR facility that 
the Department provided to this Subcommittee in last year's budget 
request and the total appropriation provided for this facility from 
fiscal year 1992 to fiscal year 2001 was over $106 million. 
Appropriations for Pit Manufacturing and certification in fiscal year 
200 and fiscal year 2001 totaled over $250 million.
    I'm sure that if we go back to the early 90's and check, we will 
find close to a billion dollars total for this mission whose completion 
is still not within sight, and which, by your own acknowledgement, is 
badly broken.
    Question. General Gordon, can you outline for me, either now or in 
writing, the precise steps you are planning to take to restore this 
program's credibility?
    Answer. This program has been assigned the highest priority by the 
NNSA and Los Alamos National Laboratory (LANL), and both are committed 
to its success. LANL has appointed experienced project managers for 
both the pit manufacturing and pit certification projects and has given 
them the necessary fiscal and programmatic responsibility. Similarly, 
the NNSA has established a Pit Project Office at DOE Headquarters 
headed by an experienced project manager. This Office will ensure that 
the pit project meets programmatic objectives. The pit manufacturing 
and certification effort is being projectized for fiscal year 2002 
based on a W88 Pit Manufacturing and Certification Integrated Project 
Plan. The W88 pit manufacturing and certification effort has been 
reviewed both technically and programmatically by DOE and external 
reviewers. Additional reviews will be conducted to assess programmatic 
risks and to ensure the program is on track. The W88 pit manufacturing 
and certification project is essential to demonstrate that the nuclear 
stockpile can be maintained without nuclear testing and will continue 
to receive the highest level of attention.
    Question. Why is Los Alamos producing plutonium pits if the United 
States isn't manufacturing new nuclear weapons?
    Answer. The Los Alamos National Laboratory is working to produce 
replacement pits for the W88 warhead because production of W88 pits was 
abruptly stopped at the Rocky Flats Plant (RFP) in 1989 before enough 
pits were produced to meet required destructive pit assessments during 
the projected 20-year design life of the W88 warhead. In addition, the 
manufacture and certification of a W88 pit without nuclear testing is a 
principal challenge of the Stockpile Stewardship Program. Absent the 
manufacture of new nuclear weapons, newly manufactured pits still must 
be produced to replace those pits that are destructively assessed in 
the surveillance process during the design life of the nuclear warhead.
                       national ignition facility
    Question. You recently submitted to the Congress the NIF 
certification package. I will let Chairman Domenici's thoughts on the 
completeness of that certification stand as my view. Setting those 
concerns aside for the moment, I want to hear from you, clearly and 
concisely, both that you must have the full 198 Beam NIF and an 
explanation of why NIF is so important to the Stockpile Stewardship 
Program. You have been the Administrator for long enough now to form 
your own view.
    Is this something you have to have to fulfill your mission?
    Answer. Yes, the NNSA must have the full 192-beam NIF in order to 
meet the needs of the Stockpile Stewardship Program (SSP) and fulfill 
the NNSA mission to maintain the safety, security and reliability, of 
the US nuclear weapons, both now and in the future.
    NIF is important to the SSP for three reasons. One, it will provide 
unique experimental weapon physics capability, for the study of issues 
which can affect an aging or refurbished stockpile. Two, it will 
advance critical elements of the underlying science of nuclear weapons 
that will play a major role in validation of the advanced simulation 
codes. Three, it helps to attract and train the exceptional scientific 
and technical talent required to sustain the SSP over the long term.
    NIF is an essential facility of the high-energy-density physics 
(HEDP) program within the SSP. As you know from my NIF certification 
package, NNSA's Office of Defense Programs recently reviewed the HEDP 
program, with a particular focus on the NIF, and whether there are 
alternatives to the full 192-beam NIF. The baseline HEDP program, 
including the full 192-beam NIF, meets the requirements, and is the 
appropriate path forward.
    If we do not have the NIF to further our knowledge and capabilities 
in the area of high-energy-density physics (HEDP), as it relates to the 
current nuclear weapons stockpile, the deterrent, will be at risk. 
Without the full tool set identified for SSP, we will not be able to 
adequately assess the types of issues that are sure to arise.
    We must provide our future stewards the ability to quantitatively 
determine the validity of their models when applied to situations not 
explicitly covered by the existing set of test results. NIF is the only 
HEDP facility currently in the Defense Program's baseline or being 
discussed that provides the experimental capabilities needed to 
approach this task.
    Question. What is included in the fiscal year 2002 budget for the 
National Ignition Facility and is it consistent with recently approved 
baseline for the project?
    Answer. Senator, I included the approved NIF Funding Profile 
through fiscal year 2008 in the referenced certification. In addition, 
I submitted a follow-up, clarifying letter on April 13, 2001 wherein I 
stated that under the current fiscal year 2002 budget profile, the 
National Nuclear Security Administration would be required to 
restructure the NIF and other elements of the Stockpile Stewardship 
Program if the requirements remain the same. However, the Nuclear 
Security Program for fiscal year 2002 through 2007 is currently under 
consideration as part of the President's comprehensive strategic review 
of national security-related activities. Any changes resulting from the 
conclusion of the review will be transmitted to Congress as part of the 
final plan.
    Within the requirements budget, the NIF construction project 
requires at total of $246 million construction funding with an 
additional $72 million operating and maintenance funding for a total of 
$318 million in fiscal year 2002. This is consistent with the approved 
baseline.
                          hazardous activities
    Question. During our subcommittee hearing last year I expressed 
some concern about the planning process that is employed by NNSA in 
selecting technologies and ultimate location for high hazard high risk 
work. I have an overriding concern that large investments in hazardous 
new facilities are being made with consideration for the premature 
obsolescence of these facilities brought about by public encroachment. 
The fiscal year 2001 Appropriation made available $15 mission to 
support research, development and conceptual design for an advanced 
hydrodynamic test facility for advanced radiography. Your fiscal year 
2002 budget request indicates that Defense Programs may initiate a 
conceptual design for an AHF or advanced hydro facility which will cost 
in excess of $3 billion.
    General, I am very concerned that this subcommittee and the 
Congress are blindly agreeing to a major system acquisition without the 
appropriate reviews and validations of technologies. Additionally, the 
informed decision making required to determine the right location 
should be completed before another billion dollar stockpile stewardship 
physics machine is agreed to for your agency.
    Are you willing to provide me with a report describing the process 
that you intend to use to make the requisite recommendation to this 
subcommittee and the Congress prior to the Administration making any 
further expenditure of resources?
    Answer. We reported our planning and review process for an advanced 
radiography facility in an interim report on Advanced Radiography and 
Hydrotest Requirements submitted to Congress this past February. As 
indicated in the report, we expect to complete trade studies and 
requirements studies for a proton radiography based facility by the end 
of fiscal year 2001 so that we can make a mission need determination 
(CD-0) during the first quarter of fiscal year 2002. A complete set of 
independent reviews will be part of our process for making any 
determination about mission need.
    I have committed to submitting a final report to the Congress upon 
completion of these reviews, which I expect to occur in early fiscal 
year 2002. We have commissioned the JASONs to undertake a review of 
primary certification requirements, the role and conduct of 
hydrotesting, and the status of development of advanced radiography 
technologies and capabilities.
    NNSA shares your concerns about the impact of encroachment on the 
long term viability of facilities and this is a significant factor in 
any site selection determination. The potential siting of an advanced 
hydrodynamic facility (AHF) was described in the Stockpile Stewardship 
and Management Final Programmatic Environmental Impact Statement 
(September 1996) and remains unchanged. Due to the nature of dynamic 
experiments and hydrodynamic testing to be conducted in the facility, 
AHF would probably be considered for location at the Nevada Test Site 
and Los Alamos only. Appropriate National Environmental Protection Act 
studies and completion of the conceptual design report are among the 
requirements to be completed prior to site selection.
                                tritium
    Question. What is the status of the tritium program?
    Answer. The tritium program is on schedule to meet current 
requirements and remains within its baseline budget. DOE and TVA 
continue to implement the Interagency Agreement that went into effect 
in January 2000 for the irradiation of tritium-producing rods in TVA's 
Watts Bar and Sequoyah reactors. Regulatory review by the Nuclear 
Regulatory Commission of TVA's license amendment requests associated 
with the use of the DOE tritium rods are expected to be completed well 
in advance of the fall of 2003, when the initial irradiation of the 
rods would take place given current requirements.
    Construction of the structural portions of the new tritium 
extraction facility at the Savannah River Site is underway, and 
detailed design of the balance of the facility will be completed as 
scheduled.
    A contract has been signed with WesDyne, a subsidiary of 
Westinghouse, for fabrication of the tritium rods, and contracts with 
vendors for all components have either been signed or are in final 
negotiation. Finally, a Request for Proposals has been prepared, issued 
for comment by potential bidders, and will soon be issued in final form 
to acquire transportation services to take the rods from the TVA 
reactors to the tritium extraction facility.
    Question. What about the APT program?
    Answer. The APT program is proceeding with engineering development 
and demonstration and preliminary design activities planned for fiscal 
year 2001. This year, the program will document the status of 
preliminary design work on the APT plant. The program will also 
complete radio-frequency quadrupole beam halo experiments using the APT 
Low Energy Demonstration Accelerator. Consistent with Congressional 
legislation and funding for fiscal year 2001, the APT program is 
supporting the Department's efforts to establish a program for Advanced 
Accelerator Applications. If fully implemented, this program would 
conduct research and develop technologies for transmutation of spent 
nuclear fuel. If implemented, the AAA program would include the design 
and construction of an Accelerator Driven Test Facility that could be 
upgraded to produce tritium for the stockpile, if that is ever needed.
    Due to funding constraints and priorities for the Stockpile 
Stewardship program, $1 million was requested for the APT program in 
fiscal year 2002. This funding level will not support continuation of 
APT project work beyond fiscal year 2001.
    Question. I thought the license amendments were to be submitted to 
the NRC in March. Is there a technical issue that could delay 
irradiation in TVA's reactors?
    Answer. We are on track to produce tritium by early 2006 and I do 
not believe there is any problem, technical or administrative, that 
will delay the irradiation of the tritium rods in the TVA reactors. The 
Watts Bar and Sequoyah license amendment packages have been completed, 
and with the exception a number of calculations that are being 
independently checked, the great majority of the analyses for Watts Bar 
was submitted to the NRC on May 1, to be followed in the next few weeks 
with a similar Sequoyah submittal. The NRC has committed to expedite 
the review of these license amendment requests.
    We have awarded a contract for the production of the tritium rods 
and in July 2000, ground was broken for the new Tritium Extraction 
Facility (TEF) at the Savannah River Site. Construction of the facility 
is underway.
    Question. When will the license amendments be submitted to the NRC 
now? Any impact on supplying tritium for the stockpile?
    Answer. The Nuclear Regulatory Commission has now received the 
great majority of the license amendment submittal for Watts Bar, and 
will receive a similar package for Sequoyah within the next several 
weeks. The remaining calculations that are now being independently 
reviewed for both plants will be submitted when the reviews are 
completed and any necessary modifications made. The timing of these 
submittals will have no impact on our ability to supply tritium to the 
stockpile when required, and the NRC has committed to an expeditious 
review of the amendment applications.
       progress on the accelerated strategic computing initiative
    Question. Describe the progress on the Accelerated Strategic 
Computing Initiative, and what is included in the fiscal year 2002 
budget.
    Answer. ASCI has, in fewer than five years, produced results that 
make it the most successful high-performance computing program in U.S. 
history. The world's four fastest computers are ASCI systems. These 
systems coupled with other ASCI accomplishments is such areas as 
scalable algorithms, programming techniques, and visualization 
capabilities have enabled unprecedented modeling and simulation 
achievements. In December 1999, the first-ever, three dimensional 
simulation of a nuclear weapon primary explosion was successfully 
completed and in April 2000 the first-ever three dimensional simulation 
of a nuclear weapon secondary explosion was successfully completed. At 
about the same time we completed the first-ever , three-dimensional 
computer simulations of a weapon system exposed to hostile radiation 
and blast environments. These simulations included the performance of 
the neutron generator in a radiation field. Only a few years ago, it 
would not have been possible to run these calculations. These 
accomplishments give us high confidence that all computational program 
goals and objectives can be achieved.
    The requested 2002 budget continues the ASCI program at a slightly 
reduced pace. It provides for continued procurement of the 30 teraOPS 
machine for the Los Alamos National Laboratory and for the initiation 
of procurement activities for a 20 teraOPS machine for the Sandia 
National Laboratories and a 60 teraOPS machine for Lawrence Livermore 
National Laboratory. Final delivery of the 30T machine is scheduled for 
April 2002. The 20T and 60T machines are planned for delivery in fiscal 
years 2003 and 2004, respectively. No commitment can be made for the 
delivery date of the 100 teraOps machine pending completion of the 
strategic review. Development of the weapons performance and 
engineering codes will continue at the planned pace. Major deliverables 
from the code projects are the prototype three-dimensional full-system 
burn code due December 2001 and the completion of a three-dimensional 
safety simulation of a complex explosion-initiated scenario due in the 
fourth quarter of fiscal year 2002. The ASCI University Alliance 
program will be supported in fiscal year 2002 at the same level as in 
fiscal year 2001.
    Question. Why do you need all those large and expensive machines 
since I understand that the laboratories aren't fully utilizing what 
they have?
    Answer. ASCI computers currently at each of the weapons 
laboratories are being fully utilized. At present, about 50 percent of 
the time is devoted to directed stockpile work, about 25 percent is 
utilized for the ASCI milepost calculations, and the remainder supports 
code development and validation activities. We receive and monitor 
monthly machine usage reports from the labs, and we poll the tri-lab 
resource allocation committee frequently. These reports indicate that 
not only are the machines fully utilized, they are oversubscribed as 
measured by the number of jobs waiting in queues in order to gain 
access to the machines. Some jobs wait many days to access these 
limited resources.
    The supercomputers currently at the laboratories are helping us to 
meet the present needs of the stockpile stewardship program but larger 
systems are required, our scientists and engineers say in the 100 
teraOps range, to fully simulate a nuclear detonation.

                          SUBCOMMITTEE RECESS

    Senator Domenici. Okay. Thank you all. We stand in recess.
    [Whereupon, at 11:19 p.m., Thursday, April 26, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]


    ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 2002

                              ----------                              


                          TUESDAY, MAY 1, 2001

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:06 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Robert F. Bennett presiding.
    Present: Senators Bennett, Craig, Reid, and Dorgan.

                          DEPARTMENT OF ENERGY

  Office of Power Technologies, Energy Efficiency and Renewable Energy

STATEMENT OF DR. ROBERT DIXON, DEPUTY ASSISTANT 
            SECRETARY

                           Office of Science

STATEMENT OF DR. JAMES DECKER, ACTING DIRECTOR

            Office of Nuclear Energy, Science and Technology

STATEMENT OF WILLIAM D. MAGWOOD, IV, DIRECTOR

                OPENING STATEMENT OF SENATOR HARRY REID

    Senator Reid [presiding]. The subcommittee is called to 
order.
    Senator Domenici is one of the busiest people around here 
and, as you know, Senator Domenici has the responsibilities to 
lead this subcommittee. And in addition to that, he has other 
responsibilities as one of the senior members around here. He 
is not here now, and he asked me to start this hearing.
    I am not nearly as busy as Senator Domenici, but I also 
have other things to do. And as a result of that, this hearing 
will probably be a little bifurcated, to say the least.
    Senator Domenici has also, I understand, been called to a 
meeting with the leader, Senator Lott, at 10:30. So be patient. 
This could take a little while today, according to what Senator 
Domenici wants. But he did give me permission to start this 
hearing, to get my statement out of the way.
    Let me say that I have a complete statement. I would ask 
you gentlemen--we will submit a copy of it to you, each of you, 
and I would ask you to read it.
    I simply want to say that we welcome you here this morning. 
We have looked at your statements.
    The concern that I have--and Senator Domenici can speak for 
himself, but I think he may have some problems also, I think we 
have some real problems with these numbers here.
    I am very, very concerned that we have these drastic cuts 
in programs that I think are so, so important.
    And we are here today talking about the Office of Energy 
Efficiency and Renewable Energy, the Office of Science, the 
Office of Nuclear Energy. Every one of these is so important to 
the future of this country and to the future of the world, and 
to have these severe cuts is really unbelievable.
    We know we need to have new clean energy technologies. They 
are emerging every day. We have to be involved in those. It 
simply will not happen unless there is a clear, unambiguous 
stamp of approval from Congress and the White House for a range 
of policies, mechanisms and funding to move forward.
    We know the benefits of stronger commitments to renewable 
energy, to enhance national security due to reduced dependence 
on foreign sources of oil, enhance security of energy supply, 
revitalize and stabilize agricultural economy, new 
manufacturing and service jobs, increased export markets, 
cleaner air and water, and more sustainable use of productive 
lands and forests.
    So I can certainly make my case by numbers. There is really 
no reason to do that. It is in my statement.
    But we know that on average we throw away about two-thirds 
of the energy we use to generate electricity in the United 
States. The amount of heat energy that is sent up to cooling 
towers down rivers and otherwise wasted is equivalent to 
Japan's total annual energy use.
    Modern combined heat and power plants can more than double 
the efficiency of electricity generation of fossil fuels, but 
without Federal R&D dollars, deployments of these types of 
technologies will be delayed, delayed, and delayed. We have to 
be involved.
    We have heard many times that our nation, which has just 5 
percent of the world's population, produces more than 25 
percent of the CO<INF>2</INF> emissions. So no matter where one 
stands on climate changes, this is a percentage that should 
concern everyone, and renewable technologies to help us to 
drive this percentage down.
    We have done so much better in the ability to produce 
electricity by wind. And it is a result of the research that 
has been done, stimulated by the federal Government. Prices 
have dropped 90 percent since 1980 to produce electricity by 
wind, 90 percent. As a result, electricity can now be generated 
more cheaply from wind than natural gas in the United States.
    So I met with some power folks yesterday from Nevada and 
they were very enthused about what Bonneville is attempting to 
do; that is to solicit 1,000 megawatts of wind power for the 
energy-challenged Northeast. And this is a lot of electricity, 
hundreds of thousands of homes.
    North Dakota and Texas, we are told, have enough wind there 
to supply most of the nation's power, just those two States, if 
they had adequate transmission capabilities, properly placed 
R&D investments.
    Around the Nevada test site, we are told that there is 
enough sun there to generate enough solar electricity to take 
care of the whole United States.
    Now, I know that covering this area of Nevada with solar 
panels is probably not very practical, but it shows what can be 
done. And right now in most of that area, there is nothing. 
That is where we have set off bombs.
    But none of this is going to happen unless we do some 
research and development to continue that. I know that the Vice 
President, the Secretary of Energy, and the rest of the members 
of the present energy task force are some place, and they are 
trying to solve all these energy problems. And I think it is 
important that they are doing that.
    But one of the places we have to start is right here with 
this subcommittee. And I think that you should all take the 
message back to the Administration that these cuts simply will 
not happen.
    So each of you should go back to your offices and tell the 
Office of Management and Budget that you are going to get more 
money. And if they need to prove how you are going to spend it, 
that is fine. But you are going to have more money.
    We are not going to stand by at a time when we are talking 
about blackouts, global warming and all the other things, to 
cut back on something this important.
    Is Senator Domenici on his way, do you think?
    Staff. I believe he is on his way.
    Senator Reid. Senator Domenici is on his way, and you would 
be surprised what I have also. I have a Travel and Tourism 
matter at 10:15. I have got the Interior Committee, where we 
are going to hear from the head of the Forest Service at 10 
o'clock. And then Senator Daschle has called me to a meeting in 
his office at 10:30. So I am sorry that we have all that.

                     STATEMENT OF DR. ROBERT DIXON

    I would like Dr. Robert Dixon, Deputy Assistant Secretary, 
Office of Power Technologies, to proceed with your statement.
    Dr. Dixon. Thank you, Mr. Chairman. We are submitting 
written testimony for the record. I would also like to offer an 
oral statement this morning. And we have made copies of the 
statement available for Members----
    Senator Reid. That will be made part of the record.

            FISCAL YEAR 2002 RENEWABLE ENERGY BUDGET REQUEST

    Dr. Dixon. Thank you, Mr. Chairman.
    Mr. Chairman, good morning and thank you for the 
opportunity to present our fiscal year 2002 budget request for 
the energy and water development programs in Renewable Energy 
Resources.
    I am Dr. Robert K. Dixon, Deputy Assistant Secretary for 
the Office of Power Technologies. I'm here today on behalf of 
our Acting Director, Dr. Abraham Haspel, who was called away, 
due to some serious health problems.
    The energy investments proposed in our 2002 budget request 
address today's energy problems and provide the technology base 
for the next generation of energy needs. These investments can 
help reduce our dependence on imported energy sources, address 
the critical need for expanded energy supply and upgrade the 
energy infrastructure in the electric power sector.
    The 2002 budget request totals almost $277 million. This 
figure includes an amendment to our original budget request for 
a little more than $39 million. The Administration expects to 
submit this amendment in the next few days.
    In an effort to control spending, it's always necessary to 
identify priorities and focus on the most critical activities. 
Because of their strategic importance, the Secretary has 
identified five programs to be funded at or near fiscal year 
2001 levels.
    These programs include bioenergy, hydrogen, hydropower, 
electric energy systems and the Renewable Energy Production 
Incentive program.
    While we have adjusted the request for our other programs, 
the requested funding levels still maintain core competencies 
and allow a continued progress towards our national technology 
goals.
    Mr. Chairman, I want to assure you that solar, wind and 
geothermal programs remain a vital part of our portfolio and 
are essential to implementing a balanced and robust national 
energy policy.
    Next graphic, please.
    [Presentation of a slide.]

                        NATIONAL ENERGY PROBLEM

    Dr. Dixon. Mr. Chairman, clearly we are facing severe 
national energy problems. The President of the United States 
recently called the electricity crunch a national crisis.
    If the worst-case electricity shortage scenarios occur, up 
to two-thirds of the 125 million American electricity users 
could be affected. We have developed an alternative energy R&D 
portfolio that is responsive to these national needs.
    Next graphic, please.
    [Presentation of a slide.]
    Dr. Dixon. Mr. Chairman, we are working together. We have a 
window of opportunity to address national energy problems. The 
new national energy plan, which is being developed under the 
leadership of Vice President Cheney is expected to be released 
in the next several weeks and will contain important guidance 
for the future directions and priorities of our programs.
    The Hydrogen Reauthorization Bill is before Congress. It 
lays the foundation for revitalization of the nation's energy 
infrastructure, a critically important undertaking in solving 
America's energy crisis.
    Hydroelectricity, a vital resource today, could be 
significantly less important in the future if we do not 
streamline our re-licensing processes.
    Creation of new rules of the game for utility markets and 
regulation is proving to be an extraordinarily complex 
undertaking. We can do better.
    Our power generation, transmission and distribution 
infrastructure needs to be modernized. We need new power 
supplies and an up-to-date infrastructure to keep the lights on 
and the Internet humming.
    The electricity intensity of the newly emerging E-commerce 
sector is placing great demands on our power system, and is 
spurring the transition from the analog to the digital age for 
power.
    Mr. Chairman, this is truly a decade of decision for 
alternative energy R&D investments.
    Next graphic, please.
    [Presentation of a slide.]

                          RENEWABLE ENERGY R&D

    Dr. Dixon. Mr. Chairman, this is our portfolio of 
technologies and programs. We invest in three areas: Renewable 
energy, distributed energy resources, and electricity system 
reliability and power quality.
    I will highlight two of the Secretary's fiscal year 2002 
R&D priorities, bioenergy and distributed energy resources, 
before I close my remarks.
    Mr. Chairman, our proposed bioenergy activities focus on 
three elements: Biomass for electric power production, biomass 
for transportation fuels, and biomass for industrial feed 
stocks and products.
    We are requesting almost $82 million for collaborative 
research and we are working hard to align our program to help 
carry out the Biomass R&D Act of 2000.
    We are working very closely with our industrial and 
academic partners and with other Federal agencies, especially 
the U.S. Department of Agriculture.
    Next graphic, please.
    [Presentation of a slide.]

                      DISTRIBUTED ENERGY RESOURCES

    Dr. Dixon. Mr. Chairman, our activities in distributed 
energy resources are an example of our 2002 budget directions 
and priorities.
    Distributed energy is an important concept in a 
restructured utility market that focuses on energy technologies 
that can be installed on site, provide clean, affordable, 
reliable energy supplies directly to the consumers. Natural gas 
is an important fuel for the distributed energy systems of 
today and for tomorrow.
    The nation needs a distributed energy system that can 
operate efficiently and safely in concert with the traditional 
power system. It needs to be integrated, optimized, seamless 
and able to incorporate emerging technologies.
    For example, hydrogen energy is plentiful and clean and is 
compatible with existing distributed energy devices, such as 
fuel cells, engines and combustion turbines. Distributed energy 
resources provide new supplies and address the nation's aging 
transmission and distribution infrastructure.
    Approximately 70 percent of the transmission lines, 
transformer banks, circuit breakers in the United States are 
over 25 years old. And we greatly need to work together to 
improve or upgrade or replace this equipment.
    The proposed program, Electric Energy Systems, includes 
funding for high-temperature superconductivity, R&D for cables, 
motors, and transformers that have near-zero line losses.
    Mr. Chairman, our distributed energy resources portfolio is 
responsive to our nation's near and long-term energy needs.
    I would like to close my remarks by highlighting a few key 
points. The 2002 budget request provides for a robust portfolio 
of research and development programs in renewable and energy 
efficiency resources.
    These Federal investments are critical to address America's 
energy needs, both today and in the future. Again our request 
is almost $277 million, this figure--and it includes an 
amendment for a little over $39 million, which will be 
submitted by the Administration in the near future.
    The Secretary has identified five programs to be funded at 
or near the 2001 levels. These include bioenergy, hydrogen, 
hydropower, electric energy systems and the renewable energy 
production incentive activity.
    Thank you, Mr. Chairman, for the opportunity to offer this 
presentation today. I stand ready to respond to your questions.
    [The statement follows:]

               Prepared Statement of Dr. Robert K. Dixon

    Chairman Domenici, Senator Reid and members of the Subcommittee, it 
is a pleasure to be here today to discuss the Administration's fiscal 
year 2002 budget request for the Office of Energy Efficiency and 
Renewable Energy. Fiscal year 2002 is a transition year for our 
programs. Our budget supports the Administration's commitment to 
moderate discretionary spending while meeting critical national needs 
in energy security and environmental quality. Furthermore, our budget 
adjusts program requests to refine the Department's missions, and to 
allow the implementation of management strategies that will meet future 
challenges.
    The Office of Energy Efficiency and Renewable Energy's budget also 
reflects two Administration themes: first, enhancing energy security--
decreasing U.S. reliance on oil imports by increasing technology 
efficiencies and by increasing domestic renewable energy supplies; and 
second, enhancing electricity reliability--ensuring grid reliability 
and advancing small-scale, on-site power generation. While we have 
adjusted the requests for some of our programs, we are still presenting 
a strong portfolio of R&D activities in fiscal year 2002. Many of our 
programs such as Distributed Energy Resources, bioenergy, hydrogen, 
hydropower, electric energy systems, the Renewable Energy Production 
Incentive are held at or near fiscal year 2001 levels.
    The beginning of this decade has already borne witness to the 
impending energy problems that face our nation and this planet. The 
Office of Energy Efficiency and Renewable Energy's mission of advancing 
clean energy technologies, including energy efficiency and renewable 
energy, will play an increasingly critical role in securing our energy 
future, improving our environment and maintaining our economic growth. 
EERE leads the nation in the research, development and demonstration of 
affordable, advanced energy efficiency and renewable energy technology 
and practices.
    The Administration plans to send an fiscal year 2002 budget 
amendment to the Congress that reduces funding of $39.176M from the 
Partnership for a New Generation of Vehicles (PNGV) program (within the 
Interior and Related Agencies account) and increases several renewable 
activities. More detailed information is included in the following 
budget table.
    Recently, the electricity situation in California and other western 
states have highlighted the effects of low capacity margins for 
electricity generation. Additionally, the National Electricity 
Reliability Council predicts that over 35 states will be operating with 
capacity margins under 10 percent by the year 2009. Another data point 
in the emerging energy crisis comes from the petroleum product price 
spikes in the Midwest and northeast last summer. I would offer that the 
results of our program like: superconducting wires, distributed power 
generation, and biofuels for cars and trucks, represent government 
programs that might make a difference. The Federal Government remains 
committed to helping develop renewable energy technologies to help 
relieve these problems.
    Our Office of Power Technologies is leading research efforts to 
significantly improve energy reliability and power quality through the 
use of on-site distributed energy resources that reduce energy losses 
and increase stability of the national grid. Moving energy supplies 
closer to the point of end-use provides advantages in: load management, 
power quality, high efficiency and reliability.
                    fiscal year 2002 budget request
    The following table provides details of our fiscal year 2002 budget 
request. The sections following the table describe ongoing programs and 
our fiscal year 2002 budget request for renewable energy resources and 
program direction.

                   OFFICE OF ENERGY EFFICIENCY AND RENEWABLE ENERGY--FISCAL YEAR 2002 REQUEST
                                            [In millions of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                   Fiscal      Fiscal                   Request
                            Program                               year 2001  year 2002  Amendment \1\     with
                                                                 comparable   request                  amendment
----------------------------------------------------------------------------------------------------------------
Renewable Energy Resources.....................................     373,179    237,477       39,176      276,653
Biomass/biofuels Energy Systems................................      86,268     80,500        1,455       81,955
Geothermal Technology Develop..................................      26,911     13,900  .............     13,900
Hydrogen Research..............................................      26,881     13,900       12,981       26,881
Hydropower.....................................................       4,989      2,500        2,489        4,989
Solar Energy:
    Concentrating Solar Power..................................      13,710      1,932  .............      1,932
    Photovoltaic Energy........................................      75,060     39,000  .............     39,000
    Solar Buildings............................................       3,911      2,000  .............      2,000
Wind Energy....................................................      39,553     20,500  .............     20,500
Electric Energy Systems & Storage..............................      51,746     33,927       17,819       51,746
Renewable Support & Implementation:
    Departmental Energy Mgmt...................................       1,984      1,000  .............      1,000
    International Renewable Energy.............................       4,949  .........        2,500        2,500
    Renewable Energy Production Incentive......................       3,991      2,059        1,932        3,991
    Renewable Indian Energy Resources..........................       6,585  .........  .............  .........
    Renewable Program Support..................................       3,991      2,059  .............      2,059
National Renewable Energy Laboratory...........................       3,991      5,000  .............      5,000
Program Direction..............................................      18,659     19,200  .............     19,200
                                                                ------------------------------------------------
      Total, Renewable Energy Resources........................     373,179    237,477       39,176     276,653
----------------------------------------------------------------------------------------------------------------
\1\ The amendment is expected to be submitted by the Administration in the next several weeks.

                       renewable energy resources
Biomass/Biofuels and the Bioenergy Research and Development Initiative 
        ($81.9M)
    The Bioenergy Initiative provides an integrated framework for 
collaborative research and development to improve our Nation's ability 
to not only convert biomass into electric power, heat, and clean liquid 
transportation fuels, but also extract high-value biobased industrial 
materials such as chemicals, plastics, and building materials.
    Developing this ``home-grown'' resource with multiple applications 
can provide significant near term benefits to many sectors of our 
economy, contributing to a healthier, more robust rural economy; 
improved environmental quality; and reduced oil imports. Our biomass 
activities in the Energy and Water Development account focus on two 
distinct elements: Biopower, which co-fires biomass with coal or 
gasifies biomass material that is combusted to generate power; and 
Biofuels, which converts agricultural products to ethanol. Combined, 
these core activities provide the underpinnings of our national effort 
to more effectively utilize a vast domestic resource. With the strong 
support from industry, government, academia, and the national 
laboratories, we believe that biomass holds great promise to help meet 
our future energy needs.
Biopower Systems ($37.8M)
    The Biomass Power Systems Program works towards making biopower 
systems a significant contributor to the U.S. energy market by 2010, 
through collaboration with the private-sector and other Federal 
agencies, and by providing power in a variety of settings, including 
utility and distributed applications. Biomass systems promise to help 
meet our national energy needs, while simultaneously strengthening 
conventional energy security, protecting our environment, and improving 
our rural economy. To meet these objectives, biopower R&D involves a 
combination of 
near-, mid-, and long-term activities. Biopower activities fall within 
five categories: Thermochemical Conversion ($4.0M); Systems Development 
($26.6M); Feedstock Production ($3.5M); Regional Energy Biomass program 
($1.2M); and Bioenergy ($2.5M).
    Thermochemical Conversion.--This effort conducts basic and applied 
research, testing, and feasibility studies in the areas of biomass 
combustion and biomass gasification to provide the foundation for 
advanced and improved technology. Experimental research is conducted in 
the areas of biomass combustion and cofiring as well as on the coupling 
of biomass conversion devices to power generation equipment, including 
engines, gas turbines and fuel cells. Analytical studies are also 
conducted on the cost, performance, economic potential, and life-cycle 
emissions of existing, novel, and competing power generation 
technologies. In fiscal year 2002, the program will add research 
efforts that support systems integrated research and modeling efforts 
of gasification, including gas cleanup and conditioning.
    Systems Development.--Within Systems Development the programs 
focuses on Cofiring with Coal, Biomass Power for Rural development, 
Small Modular Biopower and Gasification R&D. Our cofiring activities 
will continue developing co-firing coal and biomass by exploring 
advanced technologies that enhance system reliability, performance, and 
efficiencies including work with municipalities and rural electric 
cooperatives. Performance is monitored and verified by analyzing 
initial cofiring and feedstock production trials and establishing 
operation and maintenance protocols.
    Biomass Power for Rural Development activities include the New York 
Salix Willow project that will produce 30-40 MW of generating capacity 
through cofired applications, and the Iowa Chariton Valley Switchgrass 
project that will utilize up to 50,000 acres of switchgrass dedicated 
to co-firing operations. Performance will be measured by completing two 
Biomass Power for Rural Development projects with more than 50 MW of 
new biomass power generating capacity.
    The Small Modular biopower program continues its efforts to 
research and develop systems that integrate small scale gasifiers with 
advanced power generating components such as internal combustion (IC) 
engines, microturbines and fuel cells. Performance will be measured 
through field verification R&D of systems that are being developed 
under current contracts. This effort will be expanded to include other 
feedstocks, to increase the flexibility, applicability and reliability 
of these systems.
    The Vermont Gasifier R&D project has been completed and the 
technology is being commercialized by the contractor (FERCO). Efforts 
will now focus R&D on technologies that produce product gas from a 
broad range of biomass feedstocks. These efforts will focus on gas 
production, hot gas cleanup, gas preparation, and innovative and 
productive uses of gasifier waste streams. This R&D will form the basis 
for future bio-refinery development.
    Feedstock Production.--This program focuses on research to improve 
yields and reduce handling costs of herbaceous and woody crops produced 
on farms. We will continue efforts to create tools for evaluating 
viability of multiple bioenergy technologies, with an emphasis on 
Biopower, and their impact on feedstock demand. Performance will be 
measured by developing 3 high-yield willow clones which increase yields 
by at least 20 percent. A slight increase in fiscal year 2002 will be 
used to fund an assessment of the effects of variability in soil type 
and climate on feedstock characteristics relevant to combustion and 
gasification systems and on soil carbon sequestration processes, as 
well as yield variability.
    Regional Energy Biomass Program.--The activity sponsors grants to 
State Energy Offices that enable technology transfer and industry 
support of activities to expand the near-term use of biomass conversion 
technologies and provide reliable information to potential biomass 
users. This funding continuation will sponsor grants to State Energy 
Offices and local industries for biomass power projects as well as to 
complete the integration of biomass resource assessments.
Biofuels ($44.8M)
    The Ethanol Program funds research, development, and demonstration 
of technology to enable and support the expansion of an indigenous, 
integrated biomass-based industry that will reduce reliance on imported 
fuels; promote rural economic development; and provide for productive 
utilization of agricultural residues and municipal solid wastes. 
Ethanol activities are divided into five activities: Ethanol Production 
($34.6M); Renewable Diesel Alternatives ($750,000); Feedstock 
Production ($3.5M); Regional Biomass Energy Program ($2.0M) and 
Integrated Bioenergy Research ($2.5M).
    Ethanol Production.--The Ethanol Program has identified ethanol as 
the most promising near-term/mid-term liquid transportation fuels 
option. In the next several years, we expect industry to deploy ethanol 
by using underutilized agricultural components (e.g., corn fiber and 
stover), because they are readily available as low-cost feedstock 
materials. Energy crops are being developed for the long-term, as 
demand increases and as scientific and engineering advances make the 
growing, collection, and conversion of these feedstocks more 
affordable. We believe that many of the advances in reducing ethanol 
production costs depend on the development of cost-effective enzyme 
technology to break down cellulose to simple sugars. These sugars can 
be converted to ethanol and/or to other chemicals (lactic acid and 
levulinic acid, among others), which can be used in an integrated 
biorefinery of the future. Ethanol production activities are divided 
into Advanced Fermentation; Advanced Cellulase R&D; Pretreatment R&D; 
and Cellulose to Ethanol production facilities.
    Our Advanced Fermentation activities collaborate with industry and 
academia to develop organism platforms with increased stability, 
robustness, and ability to ferment mixed sugars from cellulosic wastes, 
agricultural residues, and energy crops such as switchgrass, and to 
lower the cost of ethanol production from biomass. Increased funding of 
$2,000,000 will initiate yeast platform work by developing advanced 
genetic engineering tools and begin nine genetic manipulation of 
promising yeast strains. Performance will be measured by developing a 
yeast that can ferment the biomass-derived sugars, glucose, arabinose 
and xylose to meet cost goals for ethanol low blend markets. This yeast 
can also be the basis for the production of other high-value chemicals.
    Our Cellulose to Ethanol production facilities effort will continue 
to support partnerships to demonstrate cost-effective conversion of 
corn stalks to ethanol. The use of corn fiber for ethanol production 
offers an opportunity for integrating cellulosic ethanol into existing 
commercial corn-derived facilities. Competitive solicitations will be 
conducted to support the integration of cellulosic conversion processes 
with existing commercial facilities. Performance will be measured by 
demonstrating feasibility of commercially producing ethanol and co-
products from corn fiber stream, in partnership with a major ethanol 
producer. Decreased funding will reduce the number and require higher 
cost share by industry partners, in order to focus on core R&D 
(Advanced Organism R&D, Advanced Cellulase R&D, Pretreatment R&D) and 
integrated process testing.
    Pretreatment R&D.--Increased funding of $2,400,000 in fiscal year 
2002 will focus on developing and understanding fundamental principles 
of biomass depolymerizations, in collaboration with academia and 
industry, to aid in developing novel pretreatment systems to improve 
process efficiency and reduce costs.
    The Feedstock Development Centers program conducts research and 
development of model energy crops and residues at integrated biomass 
feedstock development centers in the Southeast and Midwest/Plains 
States. Projects include residue management, breeding, physiology, 
advanced biotechnology, carbon sequestration and storage. The funding 
decrease eliminates research and development of model tree crops such 
as hybrid poplar and willow at the integrated biomass feedstock 
development centers, consistent with analyses indicating that 
agricultural residues and perennial grasses have better potential as 
feedstocks for ethanol and biobased chemicals production in the near 
and mid-term.
Geothermal Energy Technology Development ($13.9M)
    The Geothermal Technology Development Program works in partnership 
with U.S. industry to establish geothermal energy as an economically 
competitive contributor to the U.S. energy supply. The Program sponsors 
research and development that will help the United States realize 
substantial economic, environmental, and energy security benefits. 
Technology improvements will reduce the levelized cost of generating 
geothermal power to 3 to 5 cents/kWh by 2010, as compared to 5 to 8 
cents/kWh in 2000.
    In helping to meet the priority needs of industry, the Program will 
focus primarily on exploration and drilling research. Better 
understanding of geothermal processes and improved analytical methods 
of exploration will enable industry to locate and characterize new 
geothermal fields. Advanced technology for drilling wells will provide 
access to deeper resources while lowering costs, thereby expanding the 
economic resource base. Program goals will be achieved with a balanced 
strategy of technology improvements in partnership with industry on 
cost-shared, competitively-selected projects.
    The Geothermal program is divided into three activities: Geoscience 
and Supporting Technologies ($3.5M), Exploration and Drilling Research 
($6.9M), and Energy Systems Research and Testing ($3.5M).
    Geoscience and Supporting Research.--Two activities are funded 
within this category: Core Research and University Research. Within the 
Core Research program, the Department will continue to investigate 
complex natural geothermal processes and develop technology to 
facilitate producing geothermal resources in an economical manner. 
Research activities include improving reservoir models, studying 
fracture dynamics, developing tracers, and conducting geochemical 
research. The funding provides for a continuation of projects in 
reservoir management that promise to give industry reliable tools for 
reservoir analysis and production. Our University Research efforts will 
focus on earth science at studies universities to expand the geothermal 
knowledge base. Knowledge gained from this work will result in new and 
improved technology that will help meet cost goals. The decrease in 
funding reflects the completion, or termination, of multi-year grant 
awards and a realignment of project activities to complement core 
research. No funding is requested in fiscal year 2002 for Enhanced 
Geothermal Systems.
    Exploration and Drilling Research.--We will continue cost-shared 
exploration projects initiated with industry in fiscal year 2000 to 
find and confirm new geothermal resources within the United States. We 
will also continue to conduct geophysical, geological, and geochemical 
exploration research. Work will continue on developing new drilling 
components, such as the Diagnostics-While-Drilling subsystem, for 
integration into an Advanced Drilling System that will reduce the cost 
of drilling geothermal wells by up to 50 percent, from $300 per foot in 
2000 to $150 per foot by 2008.
    Energy Systems Research and Testing.--Advanced heat and power 
systems activities seek to improve technology in heat conversion and 
power systems for application to a broad range of geothermal resources 
and environmental conditions. The subactivity involves laboratory 
research on innovative systems, including heat exchangers, air-cooled 
condensers, and other components, for both low and high temperature 
applications. The reduction in funding stems from the completion of 
work on advanced heat cycles and some condenser studies. Finally, no 
funding has been requested for the Geopowering the West initiative. 
Fiscal year 2001 efforts will be completed and information accumulated 
will be shared with the public.
Hydrogen Research ($26.9M)
    The Hydrogen Program includes research and validation projects for 
the development of safe, cost-effective hydrogen energy technologies 
that support and foster hydrogen energy as an integral part of the 
energy economy. To enable a future that includes hydrogen energy, four 
strategies are pursued that will provide benefits in efficiency, 
environment and economy. (1) Expand the use of hydrogen by working with 
industry, including hydrogen producers, to improve efficiency, lower 
emissions, and lower the cost of technologies that produce hydrogen 
from natural gas. (2) Work with fuel cell manufacturers to develop 
hydrogen-based electricity storage and generation systems that will 
enhance the introduction and penetration of distributed, renewables-
based utility systems. (3) Continue to coordinate with the Department 
of Transportation and EERE's Office of Transportation Technologies to 
demonstrate safe and cost-effective fueling systems for hydrogen 
vehicles in urban non-attainment areas and to provide on-board hydrogen 
storage systems. (4) Work with the National Laboratories to lower the 
cost of technologies that produce hydrogen directly from sunlight and 
water. The Hydrogen program is divided into three activities: Core 
Research and Development ($14.8M); Technology Validation ($9.0M); and 
Analysis and Outreach ($3.1M).
    In fiscal year 2002 our emphasis in the Core Research and 
Development Program will be on thermal processes that improve the 
efficiency and lower the cost of fossil-based and biomass-based 
hydrogen production processes to achieve $12-$15 per million Btu for 
(5000 psi) pressurized hydrogen when reformers are mass produced; on 
photolytic processes that support research into biological systems and 
advanced semi-conductors which will directly split water to hydrogen 
and oxygen; on storage activities to develop and demonstrate safe and 
cost-effective storage systems for use in stationary distributed 
electricity generation and for stationary and vehicle applications in 
urban non-attainment areas; and utilization which is developing a 
technology blue print for new building codes and equipment standards 
for hydrogen technologies. By 2005, we expect to meet key milestones 
for engineering validation of several reversible fuel cell systems.
    We will perform Technology Validation activities that include 
installing and operating a biomass to hydrogen conversion system as 
well as installing and testing an integrated wind/reversible hydrogen 
fuel cell system incorporating hydrogen storage. An important outcome 
of these activities is to confirm their economic viability in remote 
and distributed applications. In order to understand the requirements 
and operation, by 2010, we expect to validate distributed hydrogen 
refueling systems for hydrogen electric vehicles in collaboration with 
state and local governments. The fueling system will show the use of 
high pressure storage systems. We will also explore hydrogen use in 
distributed energy systems.
Hydropower ($5.0M)
    Working with industry and other Federal agencies, the Hydropower 
Program's R&D activities support the development of a new generation of 
more environmentally-friendly hydropower turbines. Current hydropower 
technology, while essentially emission-free, can have undesirable 
environmental effects, such as fish injury and mortality from passage 
through turbines, as well as detrimental changes in the quality of 
dissolved gases in downstream water. Advanced hydropower turbine 
technology could minimize these adverse effects and help preserve the 
Nation's ability to generate electricity from an important renewable 
resource. Fiscal year 2002 activities will focus on Biologically-Based 
Criteria Development, Advanced Turbine Pilot-Scale Testing, Low-Head/
Low Power Testing and Mini-Hydro Research and Development.
Solar Energy Programs ($42.9M)
    The fiscal year 2002 funding request for the Solar Energy Programs 
(Concentrating Solar Power, Photovoltaics, and Solar Buildings) is 
$42.9M. The program supports R&D that improves the performance and 
reliability while reducing the cost of solar technologies that can 
harness the sun's energy. With their inherent flexibility and 
scalability, the solar programs support a tremendous range of 
applications including large-scale power production, on-site 
electricity generation, and thermal energy for space heating and hot 
water.
    Concentrating Solar Power--$1.9M.--This funding request provides 
for program close-out costs. After the installation and checkout of the 
25 kW dish system at the University of Nevada has been completed, all 
program activities will be terminated.
    Photovoltaics--$39.0M.--The Photovoltaics program is divided into 
three activities: Fundamental Research ($9.4M); Advanced Materials 
($20.1M); and Technology Development ($9.5M).
    Fundamental Research.--Within this account we will continue 
research to identify efficiency-limiting defects and advance the 
fundamental understanding of both PV materials and devices using state-
of-the-art characterization techniques. We will continue university and 
industrial research in response to competitive solicitation issued in 
fiscal year 2000 for basic R&D on breakthrough, non-conventional PV 
technologies (Beyond the Horizon) and conduct research and analysis 
that improves the understanding of fundamental properties and 
performance of crystalline silicon, thin film materials and novel 
materials and cell devices. We will reduce High Performance Initiative 
to focus only on contracts that can lead to higher efficiency thin film 
technologies and will postpone contracts and research on 33 percent 
concentrator systems.
    Advanced Materials.--We will re-compete the Thin Film Partnership 
Program in fiscal year 2002 and fund industry cost shared contracts 
that address near term advancements. Support will continue on high 
efficiency devices and silicon crystal growth methods but with a 
reduced emphasis. We will fully fund the 3-year cost shared contracts 
for a new competitive solicitation to develop in-situ process 
diagnostics and intelligent processing needed for integrated module 
manufacturing scale-up. All contracts will have 50 percent cost 
sharing. The Advanced Manufacturing R&D activity will focus on high 
throughput large area thin films and next generation high efficiency 
thin wafer silicon technologies.
    Technology Development.--All manufacturing R&D and PVMaT activities 
under Technology Development will be completed in fiscal year 2001. 
These cost-shared contracts achieved manufacturing cost reductions of 
50 percent from 1996 levels. More advanced R&D activities are being 
funded in Advanced Materials and Devices. The systems and reliability 
activity will refocus its efforts on the critical need to improve 
reliability of the entire PV system, including balance-of-system 
components such as inverters. This effort also supports development of 
standards and codes, and procedures for certifying performance of 
commercial systems. No funding is requested for the Million Solar Roofs 
program in fiscal year 2002. Commitments for installation of nearly a 
million ``roofs'' have already been received. This activity will be 
privatized in fiscal year 2002.
    Solar Building Technology Research--$2.0M. In our Space 
Conditioning and Water Heating activity, we will build and field test 
prototypes of a low-cost solar water heater, utilizing newly-developed 
polymers, in collaboration with industrial partners.
Wind Energy Systems ($20.5M)
    The fiscal year 2002 funding request for the Wind Energy Systems 
Program is $20.5M. The program helps the United States attain the 
substantial economic, environmental, and energy security benefits of 
expanding the domestic and worldwide use of wind energy, and of 
fostering a world-class, domestic wind energy industry. The Program 
focuses on completing the research, testing, and field verification 
needed by U.S. industry to fully develop advanced wind energy 
technologies, and on coordinating with partners and stakeholders to 
overcome barriers to wind energy use. Over the last decade, wind has 
shown high promise for becoming a major supply of low cost, clean 
energy in the United States. However, wind is still contributing only a 
small fraction of its potential and faces many challenges to becoming a 
substantial contributor to U.S. energy supply, particularly in dynamic 
restructured markets for electric power. As a result of increased U.S. 
wind energy development, industry, states, and stakeholder partners are 
becoming more active in supporting activities to facilitate further 
introduction of wind energy. The Wind Energy program has three 
components: Applied Research ($8.4M); Turbine Research ($7.5M) and 
Cooperative Research and Testing ($4.6M).
    Applied Research.--Continue research efforts in wind turbine 
aerodynamics, structures, materials, advanced components, and wind 
characteristics to support development of new or improved tools for 
advanced wind energy system design and applications, with a focus on 
enabling low wind speed turbine technology. Performance measures in 
fiscal year 2002 will include completion of one year of data collection 
under the Long-Term Inflow and Structures Test and completion of design 
code validation using wind tunnel test data obtained in fiscal year 
2000. Reduced funding for fiscal year 2002 follows from completion of 
advanced control systems field testing and several activities for 
refinement and validation of design codes in fiscal year 2001.
    Wind Partnerships for Advanced Component Technologies (WindPACT).--
Conclude wind turbine system scaling analyses and prepare final 
reports. As a result of expanded industry interest and research 
capabilities, transition advanced drive train and rotor blade projects 
to industry partners. Prototype testing for a sub-scale advanced drive 
train system and proof of concept blade fabrication processes will 
commence at the end of fiscal year 2002
    Turbine Research.--Our activities in the Next Generation Turbine 
research will focus on completing design and begin fabrication of final 
prototype turbines. Funding is decreased as industry partners begin 
assuming higher share of project costs. The Low Wind Speed Turbine 
activity is the follow on from the fiscal year 2001 Advanced Turbine 
Concepts activity. In coordination with the outcome of the WindPACT 
project, we will complete Advanced Turbine Concepts studies initiated 
in fiscal year 2001 to identify promising technology path(s) leading to 
cost-effective wind turbines for sites with annual average wind speeds 
of 13 miles per hour. Two industry partners will be competitively 
selected to continue WindPACT component technology research efforts and 
to commence a multi-year effort to develop cost-effective low wind 
speed turbines.
    Cooperative Research and Testing.--Fiscal year 2002 funding will 
support laboratory testing and design review services in support of the 
U.S. wind turbine certification agent. We will continue to operate the 
National Wind Technology Center facilities at the National Renewable 
Energy Laboratory, and provide testing support to industry. In our 
Regional Field Verification activities we will complete development 
activities and commence field operation of projects selected in fiscal 
year 2001, and provide technical, data collection, analysis, and 
reporting support to cost-sharing project hosts. Project development 
reports will be completed by the end of fiscal year 2002.
Electric Energy Systems and Storage ($51.7M)
    The request is $51.7M, level with fiscal year 2001 appropriations. 
The program is divided into three activities: High Temperature 
Superconducting R&D ($36.8M); Energy Storage Systems ($6.0M); and 
Transmission Reliability ($8.9M). The Electric Energy Systems and 
Storage programs conduct research and development of advanced 
technologies to enhance the reliability of electric power transmission 
and distribution and to significantly improve efficiency, reliability, 
capacity, and power quality of electric generation, delivery, and end-
use in the United States. Energy Storage and Transmission Reliability 
program goals are to develop energy storage facilities with an energy 
density greater than 5kWh per square foot at a cost below $700/kWh; and 
improving the reliability of electric power generation and distribution 
system through the integration and interconnection of distributed 
energy resources (at least 20 percent of new installed capacity by 
2012) and integrating real time measurement and control networks 
throughout the grid. The fiscal year 2002 request is $51.7M, level with 
fiscal year 2001 appropriations.
    The successful, industry-led, Superconductivity Partnership 
Initiative supports aggressive projects to design advanced electrical 
applications such as generators, transformers, motors, transmission 
cables, current controllers, flywheel energy systems, and magnetic 
separation systems. The industry-led Second Generation Wire Development 
exploits breakthroughs at national laboratories that promise 
unprecedented current-carrying capacity in high-temperature 
superconducting wires. Several industry teams are now working with the 
national laboratories to scale-up the new discoveries. The strategic 
research component, led by the national laboratories, provides the 
underlying knowledge base needed for the success of these 
superconductivity projects. The goal of high-temperature 
superconductivity is to reduce energy losses by half and provide 
equipment half the size of current systems by 2010 through the use of 
high temperature superconducting wires to create super efficient 
generators, transformers, and transmission cables.
    DOE's Energy Storage and Transmission Reliability are part of a 
portfolio of Distributed Energy Resources activities that work together 
to implement DER technology deployment strategies that address 
standards making, infrastructure, energy delivery, technical, 
institutional, and regulatory needs. Transmission Reliability research 
develops real-time measurement and control networks, and electric 
system models and tools. This research ensures reliable and efficient 
grid operations and markets while integrating distributed energy in the 
competitive marketplace. It also removes technical, regulatory and 
institutional barriers and develops interconnection standards for 
deployment of DER near the potential users. Energy Storage Systems 
funds the design of integrated systems, research on advanced storage 
components, and development of economic and performance models. The 
Department partners with EPRI, the National Rural Electric Cooperative 
Association (NRECA), the American Public Power Association (APPA), the 
electricity industry, National Laboratories and universities to 
implement research and development activities.
    High Temperature Superconducting R&D.--The High Temperature 
Superconductivity (HTS) R&D program investigates the properties of 
crystalline materials that become free of electrical resistance at the 
temperature of liquid nitrogen. The lack of electrical resistance makes 
possible electrical power systems, super-efficient generators, 
transformers, and transmission cables, that reduce energy losses by 
half and allow equipment to be half the size of present electrical 
systems. Electrical wires from high temperature superconductivity 
ceramic materials will carry 100 times the amount of electricity 
compared to the same diameter conventional copper wires. Three 
activities comprise the High Temperature Superconducting R&D program: 
Superconductivity Partnership Initiative; the Second Generation Wire 
Initiative; and Strategic Research.
    The Superconductivity Partnership Initiative funding provides for 
field testing and evaluation of cost-shared, competitively selected, 
major projects with industry to develop electrical systems 
demonstrating advances in efficiency and reliability from use of the 
latest high temperature superconducting wire.
    Energy Storage, together with other distributed energy resources, 
provides the high nines of reliability required by the digital economy, 
telecommunication, and high tech manufacturing. While today's grid can 
at best give 3 nines of reliability, energy storage provides seamless 
power during micro outages, voltage sags, and frequency disturbances. 
Such disturbances are estimated to cost U.S. industry up to $150 
billion per year. Energy storage systems, backed up by distributed 
generation, are the cost effective way to provide required reliability 
for the consumer. Fiscal year 2002 funding of $5.9M is at last year's 
levels.
    Transmission Reliability.--Transmission Reliability will be 
implemented through National laboratory/electricity industry/university 
partnerships to conduct research on the reliability of the Nation's 
electricity infrastructure. Power System Reliability will develop 
advanced transmission technologies that promote competitive markets, 
ensure system reliability, increase network capacity for large scale, 
long distance power transfers, and promote the large scale integration 
of distributed energy resources into power system operations and 
competitive electricity markets. Fiscal year 2002 funding of $8.9M is 
at last year's levels.
Renewable Support and Implementation ($9.5M)
    The Renewable Support and Implementation line item is comprised of 
several programs submitted in prior year budgets as separate line 
items: Departmental Energy Management; International Renewable Energy 
Program; Renewable Energy Production Incentive Program; Renewable 
Indian Energy Resources; and Renewable Program Support. These programs 
collectively encourage the use of renewable energy technologies by 
state and local governmental entities, internationally in developing 
countries worldwide, non-profit electric cooperatives, residents in 
remote areas of the U.S. not served or under-served by the electric 
grid, and Native Americans both on Tribal lands and at Tribal colleges 
and universities. Renewable Support also includes activities which 
promote the use of renewable technologies, improved energy efficiency 
measures, and better management of utility costs at Department of 
Energy facilities throughout the country.
    Departmental Energy Management Program (DEMP).--The fiscal year 
2002 request is $1.0M. The Departmental Energy Management Program is 
administered by the Federal Energy Management Program's (FEMP) 
Departmental Utility and Energy Team (DUET). DUET targets FEMP services 
at DOE facilities to improve energy and water efficiency, promote 
renewable energy use, and manage utility costs in DOE's facilities and 
operations.
    International Renewable Energy Program. Our fiscal year 2002 
request for the International Renewable Energy Program (IREP) is $2.5M. 
The program supports diplomatic and technical assistance efforts to 
encourage the use of renewable energy technologies in economies in 
transition and developing countries worldwide.
    Renewable Energy Production Incentive. Our fiscal year 2002 request 
for the Renewable Energy Production Incentive is $4.0M, equal to 
current levels. This program encourages state and local governmental 
entities (usually public power electric utilities) and non-profit 
electric cooperatives to acquire renewable energy generation resources 
by providing financial incentives comparable to production tax 
incentives or investment tax credits that are available to private 
sector power generators.
    Renewable Indian Energy Resources.--No funding is being requested 
for the Indian Renewable Energy Resources Program.
    Renewable Program Support.--The fiscal year 2002 request is $2.0M. 
The Competitive Solicitation Program obtains, analyzes, and 
disseminates essential cost and operational information needed to 
improve the efficiency and effectiveness of renewable energy projects, 
as well as to remove the perceptions of risk in selecting renewable 
energy and hybrid renewable energy generation systems for use in the 
competitive power market. The Electricity Restructuring activity 
provides Federal and State officials unbiased technical assessments of 
utility restructuring issues relating to energy efficiency and 
renewable energy. As the only national effort, the mission of the 
restructuring program is to work with states and the electric power 
industry to either maintain or expand energy efficiency and renewable 
energy, whether in states that have chosen to restructure their 
electric markets, or those that have not.
National Renewable Energy Laboratory (NREL) ($5.0M)
    The National Renewable Energy Laboratory (NREL) leads the nation 
toward a sustainable energy future by developing renewable energy 
technologies, improving energy efficiency, advancing related science, 
and engineering, and facilitating technology commercialization. NREL's 
research efforts cover nearly 50 areas of scientific investigation 
including photovoltaics, wind energy, biomass-derived fuels and 
chemicals, energy-efficient buildings, advanced vehicles, solar 
manufacturing, industrial processes, solar thermal systems, hydrogen 
fuel cells, superconductivity, geothermal, and waste-to-energy 
technologies. Many of NREL's research achievements have been ranked 
among the Nation's most significant technical innovations by R&D 
Magazine, Discover, and Popular Science.
    The funds requested support NREL's infrastructure needs including 
necessary repairs, maintenance, calibration, equipment replacement, new 
construction, and facility modifications. These expenditures protect 
the Federal Government's investment and support of the domestic 
renewable energy industry. In addition, the fiscal year 2002 budget 
request includes for the first time, facility project engineering 
design (PED) funding as directed in the fiscal year 2001 Energy and 
Water Development conference report. The envisioned Science and 
Technology Facility in Golden, CO is intended to relieve overcrowding 
at NREL's current Solar Energy Research Facility (SERF). That structure 
was designed for 160 persons, but now is accommodating over 200 
researchers A lack of space is limiting participation by visiting 
professionals, industrial partners, and students at SERF. This 
overcrowding is also damaging worker productivity and discouraging the 
retention of high quality staff.
Program Direction ($19.2M)
    Program Direction provides the Federal staffing resources and 
associated funding to support the management and oversight of the 
Renewable Energy Resources Programs. This activity includes all funding 
for support service contractors, equipment, travel, crosscutting 
activities, and Assistant Secretary initiatives. Program Direction 
encompasses two principal activities: (1) Headquarters executive and 
program management; and (2) program operations at the Golden Field 
Office.
    Mr. Chairman, I will be happy to respond to any questions you may 
have.

    Senator Reid. To all the panel members, we have some 
questions. I will submit mine in writing and would ask that you 
get them back to the subcommittee within 2 weeks, so we can 
prepare for the markup of this important legislation.
    I apologize, but this committee will stand in recess 
pending the call of the Chair.
    Senator Bennett [presiding]. The committee will come to 
order.
    I understand prior to Senator Domenici's being called away, 
Dr. Dixon, you had finished your testimony or you were in the 
midst of it?
    Dr. Dixon. Yes. Mr. Chairman, I completed my testimony. 
Thank you.
    Senator Bennett. Okay. So we are with Dr. Decker.
    All right. Let us move from right to left, as they say, Dr. 
Decker, we appreciate it and we look forward to your testimony.

                     STATEMENT OF DR. JAMES DECKER

    Dr. Decker. Thank you, Mr. Chairman. I appreciate having 
the opportunity to testify before you today on the fiscal year 
2002 budget request for the Office of Science.
    Before I begin, I would like to thank this Subcommittee for 
the strong support that it has shown for our research programs 
in past years.
    I have submitted written testimony describing our $3.16 
billion request, supporting the basic research that underpins 
the science, energy, environment and national security missions 
of the Department of Energy.
    The Office of Science is a primary source of Federal 
support for fundamental research and physical sciences, which 
includes physics, chemistry and material sciences. In addition, 
my office plays a key role in the life sciences, environmental 
research, advanced computation and mathematics.
    This important research is conducted by scientists at the 
DOE National Laboratories and at more than 250 universities 
located in virtually every State.
    In funding this research, we develop the new scientific 
knowledge that helps support both the DOE missions and the 
nation's economy in the future, as well as helping to train the 
next generation of researchers.
    The Office of Science also plays an essential role in the 
nation's scientific infrastructure by constructing and 
operating major scientific facilities, such as accelerators, 
synchrotron light sources and neutron sources.
    This year, these facilities will serve more than 16,000 
researchers from academia, industry and Federal laboratories. 
These facilities are essential to progress in virtually every 
scientific discipline.
    The past year has been a very productive one for the Office 
of Science. A working draft of the human genome was completed, 
a major milestone in the human genome project, which the Office 
of Science initiated in 1986.
    We developed many of the underlying technologies used by 
all of the institutions involved in the sequencing process as 
well as sequencing of three of the human chromosomes.

                    HIGH ENERGY AND NUCLEAR PHYSICS

    In high energy and nuclear physics, experiments have both 
supported and challenged established theory.
    Fermilab observed the Tau neutrino, the last of the leptons 
predicted by the Standard Model, while the so-called G minus 2 
experiment at Brookhaven generated a new challenge to the 
Standard Model, as did strong evidence for neutrinos having 
mass.
    At the same time the B Factory at the Stanford Linear 
Accelerator Center has been gathering evidence of so-called 
charged parity violation with implications for understanding 
why matter dominated over anti-matter in the universe.
    And early results from the Relativistic Heavy Ion Collider 
at Brookhaven indicate the presence of a predicted state of 
matter--the quark-gluon plasma that existed shortly after the 
Big Bang.
    Construction of the Spallation Neutron Source at the Oak 
Ridge National Laboratory is approximately 20 percent complete 
and projected to remain within budget and on schedule for 
completion in 2006.
    The Spallation Neutron Source will be the world's most 
powerful pulsed neutron source producing six to ten times 
greater neutron flux than any existing source. It will provide 
a critical research capability in a wide range of areas 
including materials research, structural biology and 
development of drug design.
    Our researchers have also made substantial progress in many 
other areas, such as understanding and controlling energy 
losses from magnetically confined plasmas due to turbulence, 
developing techniques for bonding wear-resistant ceramic 
surfaces to metals, a technique with great promise for improved 
artificial knees and hips, as well as energy technology 
applications requiring high levels of heat resistance and also 
investigating the effects of Ritalin on the brain through 
positron emission--positron emission tomography studies.

                       SPALLATION NEUTRON SOURCE

    The President's budget request for fiscal year 2002 will 
fully fund the Spallation Neutron Source construction, continue 
operations of our existing scientific user facilities, support 
development of the next generation of high-performance 
computing and communications tools for science, continue 
research in support of DOE missions, and support our 
stewardship for those areas of science of which we are the 
predominant supporter, such as high energy and nuclear physics, 
nuclear medicine, catalysis and heavy element chemistry.
    In my remaining time, I would like to briefly focus on 
three of the important areas in our budget request: Genomes to 
Life, Physics of the Standard Model and Beyond, and 
Nanoscience.
    In each area, we are building knowledge and capabilities 
that have been created through sustained investments in the 
Office of Science programs.

                        GENOMES TO LIFE PROGRAM

    The proposed Genomes to Life program is aimed at 
determining how the single cell and consortia of cells 
function. A single cell is an amazing, complex chemical 
factory. With our ability to sequence the genome of any living 
thing, today we can determine the instruction set for making 
the parts of the cell. However, we do not know what the parts 
are and how they function together.
    We also do not have an understanding of how a consortia of 
cells, such as complexes of different microbes, work together. 
Eventually, we want to understand the behavior of more complex 
cellular organizations, including people.
    We do know that these systems are so complex that the only 
way that we will be able to obtain a predictive capability is 
through computational modeling. So to successfully tackle this 
problem, interdisciplinary teams will have to be formed, and we 
will need many of the tools that we have developed over the 
years, including our Terra scale computers, our synchrotron 
light sources, our neutron sources, and our DNA sequencing 
capabilities.
    Our initial focus is on microbes relevant to Department of 
Energy missions needs, including energy production, carbon 
sequestration, and environmental cleanup.
    We also anticipate this effort will contribute to a better 
understanding of the health effects of various environmental 
toxins and will allow us to better understand the impacts of 
low doses of radiation.

                    HIGH ENERGY AND NUCLEAR PHYSICS

    In high energy and nuclear physics, the Department of 
Energy laboratories are now the site of the most advanced 
experimental facilities in the world. The 2002 budget proposes 
a program to allow the Tevatron at Fermilab to explore the 
energy range where physicists now expect to observe the Higgs 
boson, believed to be the source of mass for the fundamental 
constituents of matter.
    This proposed budget will also allow the B Factory to 
dramatically speed up its program of research into the 
asymmetry that led to the dominance of matter over anti-matter.
    At Brookhaven the Relativistic Heavy Ion Collider will 
examine the qualities of a man-made quark-gluon plasma, 
addressing the question of why quarks are so strongly confined 
inside protons and neutrons, and shedding light on the 
evolution of the early universe.
    The G minus 2 and neutrino experimental programs will 
continue to see if they have, indeed, found signs of new 
physics beyond our present understanding.
    We are also exploring another scientific frontier, science 
at the nanoscale, where the physics of materials is governed by 
the interactions of individual atoms and molecules and is 
qualitatively different than at larger scales.
    The promise for the future is immense. We are now entering 
a stage of research where structures can be designed atom by 
atom so that the desired characteristics and chemical activity 
can be controlled.
    In the future, we should be able to design and synthesize 
new alloys, ceramics, chemical catalysts, and other materials, 
tailored for specific tasks, leading to significant 
improvements in solar energy conversion, more energy efficient 
lighting, and stronger, lighter materials to improve efficiency 
in transportation.
    The budget request of the Office of Science balances 
support for our existing programs, the facilities, with new 
investments such as Genomes to Life, and new tools such as the 
Spallation Neutron Source.
    This provides a strong basis for scientific progress and 
all other disciplines that we support, while capitalizing on 
exciting new opportunities and new areas of research.
    Mr. Chairman, that concludes my oral remarks. And I will be 
pleased to answer any questions that the subcommittee may have.
    Senator Bennett. Thank you very much.
    [The statement follows:]

               Prepared Statement of Dr. James F. Decker

    Mr. Chairman and Members of the Subcommittee: Thank you for the 
opportunity to testify on the fiscal year 2002 budget request for the 
Office of Science (SC). This budget request, part of the Science 
appropriation, supports: Advanced Scientific Computing Research (ASCR), 
Basic Energy Sciences (BES), Biological and Environmental Research 
(BER), Fusion Energy Sciences (FES), High Energy Physics (HEP), Nuclear 
Physics (NP), Energy Research Analyses, Multiprogram Energy 
Laboratories-Facilities Support, Safeguards and Security, and Science 
Program Direction. The Technical Information Management budget request 
is located within the Energy Supply appropriation.
    The Department of Energy (DOE) budget for fiscal year 2002 requests 
$3,159,890,000 in the Science Appropriation. This budget will support 
SC's unique scientific user facilities and continue our remarkable 
scientific achievements in the physical and life sciences, mathematics, 
computation, and environmental research. It will also permit continued 
investments in thousands of individual research projects at our 
national laboratories and at research universities across the Nation.
    SC's diverse basic research portfolio, with its emphasis on 
sustained investments in knowledge creation that results in scientific 
discoveries that enable tomorrow's technologies, is a cornerstone of 
our Nation's efforts to maintain lasting economic prosperity. In a 
recent major economic address, the President emphasized the need for 
long-term planning when he said: ``. . . lasting prosperity requires 
long-term thinking.''
    Our fiscal year 2002 basic research portfolio supports the 
President's goal of strengthening the U.S. scientific enterprise to 
ensure continued international leadership in scientific and 
technological innovation, and will advance the DOE missions in energy, 
environment, and national security.
    In fiscal year 2002, SC will pursue new and challenging scientific 
opportunities in a wide range of areas of great importance to our 
Nation's future. It will:
  --Continue operations and some enhanced capabilities for the large 
        scientific user facilities that SC operates on behalf of the 
        Nation's scientific and industrial research community, serving 
        over 16,000 researchers annually.
  --Support the ``Genomes to Life'' program, the next step in our 
        Nation's effort to build on the extraordinary success of the 
        Human Genome Project, begun by SC in 1986. ``Genomes to Life'' 
        will combine biological research and the development of 
        computational tools for a greater understanding of complex 
        biological systems with promise of innovative solutions to some 
        of the many complex challenges inherent in DOE's missions for 
        energy, environment and science.
  --Exploit a window of opportunity during which the U.S. will be the 
        undisputed research center of the world's high energy physics 
        community to continue the search for the elusive Higgs boson 
        (believed key to understanding the origin of mass) and exploit 
        the improved capabilities of the Stanford Linear Accelerator 
        Center (SLAC) B Factory to determine the nature of the 
        asymmetry between matter and anti-matter.
  --Continue research programs in nanoscience to explore the potential 
        for the development of nanoscale technologies that will 
        revolutionize many areas of industry and medicine.
  --Open enormous research opportunities in neutron sciences through 
        construction of the Spallation Neutron Source (SNS) for basic 
        research, applied research and technology development in the 
        fields of condensed matter physics, materials sciences, 
        magnetic materials, polymers and complex fluids, chemistry, and 
        biology. SNS is on time and on budget.
  --Continue development of the scientific understanding necessary to 
        effectively harness fusion energy as an environmentally benign, 
        economically viable, and abundant energy source for future 
        generations.
  --Revolutionize the way science is conducted by building on dramatic 
        advances in supercomputing power to develop large-scale 
        scientific simulation as a tool for the solution of complex 
        scientific problems of vital importance to DOE's missions and 
        the Nation's scientific community.
                our accomplishments and recent successes
    As the Nation's primary supporter of fundamental research in the 
physical sciences (materials research, chemical sciences, physics, 
etc.), and one of the largest supporters of basic research in 
mathematics, computing and environmental sciences, SC is uniquely 
poised to make important contributions to our general scientific 
knowledge and to the U.S. industrial base. SC programs fund researchers 
at more than 250 colleges and universities located in 48 states, as 
well as thousands of world-class researchers at DOE's national 
laboratories.
    SC provides the largest share of Federal support for major 
scientific user facilities, which together host more than 16,000 users 
annually from all research sectors. University-based scientists are 
among the principal users of these facilities, which provide powerful 
probes of matter at a range of scales from viral proteins to sub-atomic 
quarks--realms inaccessible by any other means.
    Each year, hundreds of principal investigators funded by SC win 
dozens of major prizes and awards sponsored by the President, the 
Department, the National Academy of Sciences, the National Academy of 
Engineering, and the major professional scientific societies. Recent 
awards have included: the 1999 Nobel Prize for Physics, shared by SC 
researcher Martinus Veltman, for theoretical work that helped establish 
the Standard Model; Supercomputing (SC 2000) Awards for High-Bandwidth 
Applications and Infrastructure advances supported by SC; one of top 10 
``Algorithms of the Century'' announced by Computing in Science and 
Engineering magazine was developed by SC research; three of the 2000 
``R&D 100 Awards'' and two of the 2000 Discover magazine awards went to 
SC researchers in the national laboratories.
    The following selected program highlights are illustrative of the 
broad range of research activities supported by SC. These highlights 
testify to the depth, diversity and importance of the research 
portfolio managed by SC, and the great impact that scientific 
discoveries can have on energy production and use, environmental 
sciences, the life sciences, and national defense, as well as the 
general creation of new knowledge that helps sustain other scientific 
disciplines.
    Solving optimization problems easily and inexpensively.--
Optimization applications range from designing circuits, to estimating 
the value of risk in environmental cleanup, to determining routing 
patterns on the Internet, to finding energy functions for molecular 
structures. Researchers at Argonne National Laboratory and Northwestern 
University completed a project to attack such problems successfully. 
The project involves development of a novel environment, called the 
Network-Enabled Optimization System (NEOS). NEOS allows users to solve 
optimization problems over the Internet with state-of-the-art software. 
The NEOS project recently gained considerable visibility with the 
release of a new portable version that can be run on various computers, 
Web servers, and email servers. Over the past year, the number of users 
has risen to an average of 2,600 problem submissions per month. NEOS is 
now used as an educational tool at universities worldwide.
    Ion-implantation for strong metal-ceramic bonds.--Ceramics are hard 
and corrosion resistant, but fracture easily. Metals resist fracture, 
but are not as wear or corrosion resistant as ceramics. Coating a metal 
with a ceramic is a way to improve both. However, current coating 
technologies can degrade the performance of metals. A new approach has 
been successfully developed that employs ion-beam intermixing of the 
coating with the metal from collision cascades, which are microscopic 
(nanometer-sized) ``hot-zones'' formed along the ion track. Since the 
heating in collision cascades is very short and localized, macroscopic 
heating of the metal does not occur. A patent has been filed using this 
new approach to improve hip, knee, and dental prosthetic devices. This 
approach of bonding of ceramics to metals also has applications for 
energy technology metal surfaces that require resistance to high 
temperature, corrosive, and erosive environments
    Genome sequencing named scientific advance of 2000.--In December 
2000, Science magazine named genome sequencing, enabled by seminal SC 
contributions, as the top scientific advance of 2000. In addition to 
its contributions to current sequencing technology, SC supports a wide 
variety of sequencing projects including its ongoing sequencing of the 
mouse and puffer fish (also acknowledged by Science magazine) to help 
understand human gene function, microbial genomes (more than 50 to 
date) and, previously, the fruit fly. SC also contributed to the 
sequencing of the human genome, fully sequencing 3 human chromosomes, 
which culminated in the publication of the draft human DNA sequence in 
Nature on February 15, 2001. The three human chromosomes sequenced by 
SC contain genes that contribute to a number of human diseases 
including, leukemia, colon, breast and prostate cancer, as well as 
kidney disease, Crohn's disease (an inflammatory bowel disease), 
asthma, deafness, diabetes, obesity, atherosclerosis (disease of the 
arteries in which fatty material is deposited in the vessel wall 
constricting blood flow), attention deficit disorder, schizophrenia, 
and mental retardation.
    Making drugs safe for children and treating obesity.--Positron 
Emission Tomography (PET)/radiotracer studies sponsored by BER have 
demonstrated that Ritalin, a drug commonly used in the treatment of 
attention deficit disorder, when given orally will effectively block 
the dopamine transmitter system without putting the child at risk or 
causing a ``high'' as observed with addictive drugs. In addition, BNL 
scientists have used PET and specific radiotracers to demonstrate that 
the brain dopaminergic pathways are poorly developed in obese 
individuals. These data may enable alternative methods for treatment of 
obesity.
    Tools created for controlling plasma turbulence.--The performance 
of tokamaks and other magnetic confinement systems are limited by 
turbulence. Researchers at MIT have discovered that radio waves are a 
powerful tool for creating and manipulating desired ``internal 
transport barriers,'' which prevent unwanted turbulent heat leakage 
from magnetically confined fusion plasmas and dramatically increased 
plasma density. Scientists have discovered that, depending on the 
location of the resonant radio wave heating, the overall rotation of 
the plasma can be significantly slowed, or even reversed. 
Simultaneously with this change, a clear internal transport barrier 
developed, resulting in an extraordinary peaking of the plasma density, 
one that was at least two times greater than before. Similarly, 
experiments in Germany and at General Atomics in the United States have 
shown that fusion energy content and other properties in magnetically 
confined plasmas can be significantly improved by a relatively small 
amount of even higher frequency microwave power applied at precisely 
the right location, in the plasma.
    Extraordinary tools for extraordinary physics.--This has been a 
period of great excitement in the Office of Science High Energy and 
Nuclear Physics program. Completion of the Relativistic Heavy Ion 
Collider (RHIC) and the upgrade of the Tevatron at Fermilab have made 
the U.S. the world leader in experimental facilities for high energy 
and nuclear physics. At the same time, while some experimental results 
have confirmed the predictions of the Standard Model, others have 
suggested new physics beyond the Standard Model. First measurements 
from RHIC indicate that its energy density--a measure of the energy 
deposited in the collision region by the colliding nuclei--is the 
highest ever achieved in a laboratory and is sufficient to create the 
long sought quark-gluon plasma, believed to be the state of matter of 
the universe shortly after the ``Big Bang.'' Fermilab produced the 
elusive Tau neutrino (the last of the leptons predicted by the Standard 
Model) and capped a major American achievement: the discovery of all 
but one of the quarks and leptons in the Standard Model of elementary 
particles. (The first of the 12, the electron, had been discovered in 
England in 1897.) Another Fermilab team observed a B meson containing a 
charmed quark and measured its properties, completing the observations 
of the predicted family of B mesons, required by the Standard Model. 
Also at Fermilab, a team of university and laboratory scientists 
working on the KTeV experiment found the first convincing observation 
of direct Charge-Parity (CP) violation (manifestation of a subtle lack 
of perfect symmetry between particles and antiparticles believed 
responsible for the domination of matter over anti-matter in the modern 
universe). Physicists using HEP's new BaBar detector at SLAC's B 
Factory announced their first measurement of CP violation in the B-
meson system in fiscal year 2000 and work is continuing to resolve the 
question of whether CP violation can be fit within the Standard Model. 
The g-2 experiment at Brookhaven National Laboratory, designed to study 
magnetic properties of the muon, has obtained the most precise 
measurement of the muon anomalous magnetic moment that does not appear 
to agree with the Standard Model, suggesting the possibility of new 
physics beyond the Standard Model.
                looking to the future--fiscal year 2002
    The Office of Science's fiscal year 2002 budget request provides 
sustained support to U.S. university and national laboratory 
researchers working on enormously complex scientific problems that will 
help to ensure our economic prosperity by advancing the mission of the 
DOE. The diversity of SC's basic research portfolio, combined with our 
traditional strengths in the operation of national scientific user 
facilities and support for multidisciplinary research, will prove vital 
to our national pursuit of the scientific challenges of fiscal year 
2002.
    ``Genomes to Life'' has the goal of using SC's 15-year investment 
in research on human and microbial genomes, it's expertise in 
computational modeling of complex systems, and it's unique suite of 
scientific facilities, to address DOE missions through a deeper 
understanding of the structure and function of microbes and microbial 
communities, and of the impact environmental toxins and radiation on 
human beings. The Genomes to Life program builds on the Microbial Cell 
Project, expanding it to (1) include characterization of life's 
multiprotein molecular machines and the genes' regulatory networks and 
processes that control those molecular machines; and (2) to include 
characterization of the overall functional capabilities of microbial 
communities--groupings of microbes that can work together to perform 
DOE missions--by understanding the ``community genome'' and how it 
influences performance.
    Microbes have evolved for 3.8 billion years and have colonized 
almost every environment on Earth. In the process, they have developed 
an astonishingly diverse collection of capabilities that will help DOE 
meet its challenges in toxic waste cleanup, energy production, global 
climate change, and biotechnology. To use these capabilities to address 
our missions, however, will require the development of new 
technologies, analytical tools, and modeling capabilities. It will 
require the talents of academic, nonprofit, and industrial partners, as 
well as the scientific capabilities of our national laboratories. These 
capabilities include high-throughput genomic DNA sequencing, microbial 
biochemistry and physiology, imaging, and structural biology. National 
user facilities such as synchrotrons will play important roles, as will 
capabilities in high-performance computing. Interdisciplinary 
collaborations among biologists, chemists, physicists, engineers, and 
computer experts will also be critical to this effort.
    The ``Genomes to Life'' program has four goals leading to its final 
objective:
  --Identifying life's molecular machines, the multiprotein complexes 
        that carry out the functions of living systems;
  --Characterizing the genes' regulatory networks and processes that 
        control life's molecular machines;
  --Characterizing the functional repertoire of complex microbial 
        communities in their natural environments; and
  --Developing computers and other computational capabilities needed to 
        model the complexity of biological systems.
    This program has great promise, but faces great challenges. 
Biological systems, through evolution, have achieved levels of 
intricacy and subtlety that dwarf the complexity of the 20th Century's 
most sophisticated engineering feats. The eventual objective of the 
Genomes to Life program is to use the greatly increased computational 
capabilities of modern supercomputers to model and understand many of 
these systems. This promises solutions to many as yet intractable 
problems in DOE mission areas. For example, M. jannaschii's ability to 
produce methane may have implications for new fuel generation 
strategies. Deinococcus radiodurans has potential for cleanup of toxic 
mixed-waste sites containing radioactive waste, in addition to heavy 
metals and organic solvents, because it can survive extremely high 
levels of radiation and repair its own radiation-damaged DNA.
    In addition, DOE has a need to protect its workers and the public 
from the health effects of energy production and use and from the low 
levels of radiation generated by weapon-related materials at DOE waste 
sites and those still in use at its laboratories. Because of their 
genetic makeup, some individuals may have a much greater health risk 
from exposures to these materials. A detailed understanding of how 
basic metabolic and regulatory pathways in microbial cells respond to 
environmental changes may offer insights into similar pathways in human 
cells. This knowledge can be used to help clarify the biological 
mechanisms responsible for adverse human responses and to develop the 
tools needed to identify individuals at greatest risk, information that 
is a key component of the Low Dose Radiation Research Program.
    The search for the Higgs boson and the possibility of physics 
beyond the Standard Model presents an extraordinary opportunity for the 
U.S. high energy physics community, which receives 90 percent of its 
Federal support from the Office of Science, to demonstrate its 
continuing leadership in international physics research.
    An excellent opportunity exists for U.S. researchers to identify 
the Higgs boson and measure its properties, which are believed key to 
understanding the source of mass for quarks and leptons, the 
fundamental constituents of matter. The Large Electron-Positron 
Collider (LEP) experimental program at CERN (located in Switzerland) 
was terminated in November 2000, leaving behind a tantalizing hint of a 
Higgs boson with a mass of about 115 GeV, within reach of Fermilab's 
Tevatron accelerator, recently upgraded with the new Main Injector.
    With protons and antiprotons colliding head-on at an energy of 
nearly one trillion electron volts (1 TeV), the Tevatron will be at the 
world's energy frontier for particle physics during the next five 
years. In order to find the Higgs, the Tevatron will need to run 
extensively and to increase its luminosity (and thus its data 
collection rate) as much as possible. Doing this will require 
progressive fine-tuning of collider operations and further equipment 
upgrades to increase luminosity by a factor of ten to be carried out 
from 2002 to 2004, interwoven with intensive data runs. The data taken 
in 2005-2007 should then be enough to find the Higgs if its mass is 
less than 165 GeV. Tevatron data will also give more information about 
the surprisingly heavy (170 times the mass of the proton) top quark 
discovered at Fermilab in 1995, and could reveal other important new 
particles that have been predicted by current theories (for example, 
supersymmetric particles).
    Why is the universe made of matter instead of a balance of matter 
and antimatter or nothing at all? This question is being addressed 
intensively at the new B Factory facility at the Stanford Linear 
Accelerator Laboratory, which is now operating above its design 
luminosity (or collision rate). The study of CP violation at the B 
Factory during the next few years will shed light on the mysterious 
preponderance of matter over antimatter in the universe. However, the B 
Factory will need a progressive series of small upgrades in order to 
maximize its productivity.
    Discovery and characterization of the quark-gluon plasma is about 
to be undertaken as the Relativistic Heavy Ion Collider (RHIC) begins 
its first run at full energy and approaches its design luminosity (or 
collision rate). Over 1,000 scientists, of which about one-half are 
from 18 foreign countries, participate in research with four detectors 
at RHIC, a $616.5 million facility (completed within budget and on 
schedule) located at Brookhaven National Laboratory. They are searching 
for a new state of nuclear matter, deconfined quarks and gluons, 
thought to have existed for a few microseconds after the ``Big Bang.'' 
Discovery of the quark-gluon plasma is eagerly awaited by the physics 
community, in the hope that it will provide insights into the origin of 
confinement-why free quarks cannot be observed. The properties of this 
new state of matter will have far-reaching implications for 
cosmological theories of the expansion of the early universe.
    The collider and detectors were commissioned last year. The 
subsequent brief run at a reduced energy from its design energy yielded 
tantalizing results of possible plasma formation, and several papers 
have already been published reporting on these early results. The 
discovery and characterization of the quark-gluon plasma is a key 
element in our understanding of the origin of the universe; a campaign 
to understand the detailed properties of the plasma is expected to take 
at least five years. We look forward to the upcoming run this year that 
will give us the first detailed information in this exciting quest.
    Science at the nanoscale, creating materials and machines one atom 
at a time, is today's frontier in materials and the life sciences. The 
triumphs of science in the 20th Century, which benefit all Americans, 
included the discovery and characterization of the atomic building 
blocks of matter, of the elementary excitations in materials, and of 
the fundamentals of chemical reactivity.
    We use this knowledge to design, synthesize, and characterize 
simple molecules and to combine them in a variety of ways to make 
alloys, ceramics, catalysts and other materials. We are now entering a 
more complex stage of research where structures can be designed atom-
by-atom so that the desired characteristics and chemical reactivity can 
be predicted and controlled.
    The Office of Science is forging a path into the world that Richard 
Feynman described in his now-famous 1959 lecture, ``There is Plenty of 
Room at the Bottom--An Invitation to Enter a New Field of Physics.'' In 
it, he challenged his audience to envision a time when materials could 
be manipulated and controlled on the smallest of scales, when new 
materials could be fabricated and devices could be designed atom-by-
atom. ``In the year 2000,'' he said, ``when they look back at this age, 
they will wonder why it was not until the year 1960 that anybody began 
seriously to move in this direction.'' In fiscal year 2001, SC began 
seriously to move in this direction. In fiscal year 2002, SC will 
continue to forge ahead--supporting innovative research and the design 
of centers for nanoscale science.
    DOE's missions in science, energy, defense, and environment will 
benefit greatly from nanoscale research. Nanoscale synthesis and 
assembly methods, for example, are expected to result in significant 
improvements in solar energy conversion; more energy-efficient 
lighting; stronger, lighter materials that will improve efficiency in 
transportation; greatly improved chemical and biological sensing; use 
of low-energy chemical pathways to break down toxic substances for 
environmental remediation and restoration; and better sensors and 
controls to increase efficiency in manufacturing.
    But before we can reach the stage where nanoscale science begins 
producing these kinds of products, the basic researchers supported by 
the Office of Science must address some of the most formidable 
scientific questions of our age:
  --Can we design materials having predictable and, yet, often unusual 
        properties? This will require ``bottoms-up'' atomic and 
        molecular design, the use of nanostructured materials having 
        special properties, novel routes for materials synthesis and 
        processing, and parallel fabrication approaches.
  --Can we design and construct multicomponent molecular devices and 
        machines having desired properties--optical, mechanical, 
        catalytic, electrical, tribological? We have begun to use 
        molecular building blocks to create self-organized structures. 
        These might form the basis of systems such as nanometer-scale 
        chemical factories, molecular pumps, sensors, and self-
        assembling electronic/photonic devices.
  --Can we harness, control, or mimic the exquisite complexity of 
        natural processes? Living organisms represent the most 
        sophisticated use of the chemical processing of basic elements 
        to create materials and functional complexes. Nature's 
        achievements allow us to set goals for the development of 
        materials and systems with incredibly enhanced properties, 
        including the ability to self-assemble, self-repair, sense, 
        respond, and evolve.
  --Can we develop the tools to visualize and predict phenomena 
        spanning the length scales and time scales of natural 
        phenomena? Spatial scaling involves lengths ranging from that 
        of the atom, to thousands of atoms (molecules), to the bulk 
        phase (organisms) and, finally, to the macroscale (ecosystems). 
        Temporal scaling involves times ranging from those of chemical 
        reactions (femtoseconds) to geologic times (millennia).
    Opening a new frontier in neutron science will be made possible by 
the commissioning of the Spallation Neutron Source (SNS) at Oak Ridge 
National Laboratory (ORNL), now scheduled for completion in 2006. When 
completed, SNS will be the world's most powerful accelerator-based, 
pulsed neutron source, producing 6-10 times more neutrons than any 
other such source. SNS will be used annually by 1,000-2,000 researchers 
from academia, national laboratories, and industry.
    DOE and its predecessor agencies have been the major supporters of 
neutron science in the United States since the late 1940s. DOE has 
served as the prime steward of this field throughout the entire course 
of its development--from the earliest work of Clifford Shull and E. O. 
Wollan at ORNL's Graphite Reactor in the 1940s to the Nobel Prize in 
physics shared by Clifford Shull and Bertram Brockhouse in 1994 for 
their work on neutron scattering.
    The importance of neutron science for fundamental discoveries and 
strategic research is universally acknowledged, and led France, 
Germany, Great Britain, Japan and other countries to aggressively 
pursue neutron science. By the early 1970s, new and upgraded European 
neutron machines were beginning to appear. This trend continued through 
the 1980s and 1990s without construction of U.S. counterparts--thus 
shifting the focus of neutron research away from the U.S.. The SNS will 
reverse this trend and will open new opportunities and capabilities for 
neutron research to U.S. researchers.
    The information that neutrons provide about the hundreds of 
materials that we use every day has wide ranging impacts on our 
everyday lives. For example, neutrons can ``see'' light atoms, which 
are far more difficult or impossible to see with x-ray or electron 
probes. As a result, chemical companies use neutrons to make better 
fibers, plastics, and catalysts, and drug companies use neutrons to 
design drugs with higher potency and fewer side effects.
    Neutrons also possess a tiny magnetic moment, making them one of 
the best probes for the study of magnetism. Research on magnetism using 
neutrons has led to higher strength magnets for more efficient electric 
generators and motors, and to better magnetic materials for magnetic 
recording tapes and computer hard drives.
    Fusion energy research in the United States is managed by SC's 
Office of Fusion Energy Sciences (FES), which funds virtually all basic 
research conducted by U.S. scientists in the area of high energy 
density plasma physics. In addition, FES, in partnership with DOE's 
Scientific Stockpile Stewardship Program and the National Science 
Foundation, plays a role in all aspects of basic research in fusion and 
plasma science.
    The major challenge today is to make fusion energy practical by 
further advancing our scientific understanding of high-temperature 
plasmas. The current U.S. fusion research effort integrates core 
capabilities in the national laboratories, universities, and industry 
and has been restructured to focus on science objectives. A 1999 review 
by the Secretary of Energy Advisory Board concluded that the fusion 
challenge will be solved, and they endorsed the restructured fusion 
energy sciences program.
    This science-based approach focuses on achieving a predictive 
capability based on detailed experimental campaigns, sophisticated 
modeling, and terascale computing. Dramatic advances in the scientific 
understanding of fusion plasmas led the National Research Council in 
2000 to conclude: ``. . . the quality of the science funded by the U.S. 
fusion research program in pursuit of a practical power source (the 
fusion energy goal) is easily on a par with other areas of contemporary 
physical science.''
    There are two distinct approaches to producing fusion energy: 
magnetic fusion energy (MFE) and inertial fusion energy (IFE). In MFE, 
plasma is confined by a magnetic field and held at the needed density 
and temperature. The fusion energy produced in a single magnetic 
confinement fusion experiment has risen by a factor of more than one 
trillion during the time period when computer speed has risen by a 
factor of one-hundred thousand. Along with this progress in fusion 
energy has come a much deeper understanding of the underlying plasma 
science.
    To date, MFE has been the primary subject of research worldwide for 
fusion energy applications. Consequently, the U.S. program is highly 
leveraged against the more than $1 billion in magnetic fusion research 
performed by other nations. MFE research is an international effort in 
which experimental results are openly shared and in which collaboration 
on experiments is extensive.
    With IFE, powerful lasers of particle beams are focused on a small 
pellet of fuel for a few billionths of a second. IFE research has been 
pursued primarily as a key component of the DOE's Scientific Stockpile 
Stewardship Program. Leveraging off of this large investment is an 
excellent opportunity for FES because IFE may also present a promising 
path to practical fusion power.
    The science-based approach to fusion offers the U.S. an affordable 
path to practical fusion energy and is advancing our knowledge of 
plasma physics and associated technologies, yielding near-term benefits 
in a broad range of disciplines. Examples include plasma processing of 
semiconductor chips for computers and other electronic devices, 
advanced video displays and innovative materials coatings.
    Scientific discovery through advanced computing brings together the 
Office of Science's 50-year investment in mathematics, computation, 
software development and multidisciplinary research in the quest to 
develop new tools that can be used by the U.S. research community to 
solve some of the most complex scientific questions of the 21st 
Century.
    Scientific computing programs and facilities are already essential 
to progress in many areas of research critical to the nation. Major 
scientific challenges exist in all SC research programs that only can 
be addressed through advances in scientific supercomputing--designing 
materials atom-by-atom, revealing the functions of proteins, 
understanding and controlling plasma turbulence, designing new particle 
accelerators, and modeling global climate change, to name just a few.
    Extraordinary advances in computing technology in the past decade 
have set the stage for major advances in scientific computing. Within 
the next five to ten years, computers 1,000 times faster than today's 
computers will become available. These advances herald a new era in 
scientific computing. Using such computers, it will be possible to 
dramatically extend our exploration of the fundamental processes of 
nature as well as advance our ability to predict the behavior of a 
broad range of complex natural and engineered systems.
    To exploit this opportunity, these computing advances must be 
translated into corresponding increases in the performance of the 
scientific codes used to model physical, chemical, and biological 
systems. This is a daunting problem. Current advances in computing 
technology are being driven by market forces in the commercial sector, 
not by scientific computing. Harnessing commercial computing technology 
for scientific research poses problems never before encountered in 
supercomputing, in magnitude as well as in kind. This problem will only 
be solved by increasing investments in computer software--in research 
and development on scientific modeling codes, as well as on the 
mathematical and computing systems software that underlie these codes.
    During fiscal year 2002, SC will continue a set of coordinated 
investments that focused on creating a Scientific Computing Software 
Infrastructure that bridges the gap between advanced computing 
technologies and its scientific research programs. The SC effort will:
  --Create the Mathematical and Computing Systems Software to enable 
        the Scientific Challenge Codes to take full advantage of the 
        extraordinary capabilities of terascale computers.
  --Create the Collaboratory Software Infrastructure to enable 
        geographically-separated scientists to effectively work 
        together as a team, as well as provide electronic access to 
        both facilities and data.
  --Create a new generation of Scientific Challenge Codes for terascale 
        computers that can address the most critical scientific 
        problems in SC's research programs
    The Scientific Computing Software Infrastructure, along with the 
upgrades to the hardware infrastructure, will enable laboratory and 
university researchers supported by the Office of Science to solve the 
most challenging scientific problems at a level of accuracy and detail 
never before achieved. These developments will have significant benefit 
to all of the government agencies that rely on high-performance 
scientific computing to achieve their mission goals, as well as to the 
U.S. high-performance computing industry.
    Creating the 21st century scientific and engineering workforce 
requires educational and training activities that are designed to 
ensure an adequate supply of talented American scientific, engineering 
and technical personnel. The Office of Science is uniquely positioned 
to assist in the creation of this workforce through the offering of 
research training opportunities at our scientific user facilities and 
world class national laboratories. During the past five decades, SC and 
its predecessor organizations have helped train tens of thousands of 
the best and brightest young students our Nation has produced.
    An expanded effort in fiscal year 2002 will carry on that legacy of 
achievement. SC will support undergraduate research internships for 
undergraduate students from four-year institutions, community college 
students and pre-service teachers preparing to teach math, science or 
technology at the K-12 level. In addition, SC will support the work of 
thousands of graduate students and post-docs who are working side-by-
side with DOE researchers on key research projects.
    To attract a wider cross section of students, the Department of 
Energy has entered into a collaboration with the National Science 
Foundation (NSF). Students participating in NSF undergraduate programs 
will be encouraged to apply for SC undergraduate research internship 
opportunities. The partnership with NSF will be expanded in fiscal year 
2002.
                          performance measures
    The Government Performance and Results Act (GPRA) requires 
accountability from all Federal programs. SC has always relied upon 
external peer review, independent construction management review, and 
regular program reviews to ensure the excellence and relevance of our 
research portfolio. These effective evaluation tools will continue.
    In addition, SC has embraced the recommendations of the National 
Academy's Committee on Science and Engineering in Public Policy 
(COSEPUP) report ``Science, Technology and the Federal Government: 
National Goals for a New Era,'' which calls for the U.S. to maintain a 
leadership position in key areas of science and to be ``among the world 
leaders'' in all areas of research. This enables the U.S. to quickly 
capitalize on breakthroughs in science worldwide. Therefore, the SC 
will evaluate its programs for scientific excellence, relevance to DOE 
mission areas, scientific leadership and management excellence. This 
will be accomplished through a variety of mechanisms, that may include: 
external review by peers, review of prizes and awards to SC's 
researchers, citation analysis, and a characterization of the 
significance and impact of the research as recognized at international 
conferences and Advisory Committee evaluations.
    SC is widely recognized for its world-class research and for the 
construction and operation of major scientific facilities. Demand for 
these facilities has steadily increased and calls for new or improved 
facilities greatly exceed budgetary resources. To ensure that the 
proper balance is maintained between laboratory research and facility 
operations, and between new and existing facilities, SC relies upon the 
advice of external Advisory Committees, feedback from facility User 
Groups, and the results of the merit review process.
    Critical to ensuring the excellence, relevance and leadership of 
SC's research is the human and physical infrastructure that enables 
world class science. SC will continue to evaluate the health and 
utility of its laboratory infrastructure through on-site institutional 
reviews, program reviews, and through merit evaluation. A continuing 
supply of talented researchers in critical subfields will be ensured 
through fellowships, support of graduate students within research 
grants, and through student use of research facilities.
    All four of SC's global scientific performance measures were fully 
met in fiscal year 2000.
  --At least 80 percent of all new research projects supported by SC 
        will be peer reviewed and competitively selected, and will 
        undergo regular peer review merit evaluation. In fiscal year 
        2000, 96 percent of new research projects supported by SC were 
        peer reviewed and competitively selected.
  --Upgrades and construction of scientific user facilities will stay 
        within 10 percent, on average, of cost and schedule milestones. 
        In fiscal year 2000, all scientific user facility construction 
        projects were within 10 percent of baselines. As an average, 
        weighted by total project cost, SC scientific user facility 
        construction projects varied from cost and schedule baselines 
        by about 3 percent.
  --The SC scientific user facilities will be operated and maintained 
        so that unscheduled operational downtime will be kept to less 
        than 10 percent, on average, of total scheduled operating time. 
        In fiscal year 2000, SC scientific user facilities operated, on 
        average, 96 percent of the scheduled time.
  --The Office of Science will ensure the safety and health of the 
        workforce and members of the public and the protection of the 
        environment in all SC program activities.
        science programs--advanced scientific computing research
Fiscal Year 2001 Appropriation--$165.7M; Fiscal Year 2002 Request--
        $165.7M \1\
    The Advanced Scientific Computing Research (ASCR) program's 
mission, which is primarily carried out by the Mathematical, 
Information, and Computational Sciences (MICS) subprogram, is to 
discover, develop, and deploy the computational and networking tools 
that enable scientific researchers to analyze, model, simulate, and 
predict complex physical, chemical, and biological phenomena important 
to the Department of Energy.
---------------------------------------------------------------------------
    \1\ A Pending Budget Amendment to transfer $10M to Fusion Energy 
Sciences from Advanced Scientific Computing Research ($2.7M), High 
Energy Physics ($5.0M), Energy Research Analyses ($0.3M), and Science 
Program Direction ($2.0M) will be submitted shortly.
---------------------------------------------------------------------------
    In fiscal year 2002, ASCR will continue to invest in research that 
advances the next generation of high performance computing and 
communications tools that are critical to the Department's scientific 
missions.
    The MICS subprogram will support research in applied mathematics, 
computer science, electronic collaboratory tools and network research. 
Competitively selected partnerships will continue to work toward 
discovering, developing, and deploying key enabling technologies for 
scientific research. These partnerships, called Integrated Software 
Infrastructure Centers, play a critical role in providing the software 
infrastructure that will be used by the Scientific Discovery through 
Advanced Computing (SciDAC) applications teams. Other MICS investments 
include fundamental research in networking and collaboratory tools, 
partnerships with key scientific disciplines, and advanced network 
testbeds for electronic collaboration tools.
    In fiscal year 2002 the Laboratory Technology Research subprogram 
will continue to support basic research at SC labs that will advance 
innovative energy applications.
    In fiscal year 2000, a Federally-chartered advisory committee was 
established for the ASCR program that is charged with providing advice 
on: promising future directions for advanced scientific computing 
research; strategies to couple advanced scientific computing research 
to other disciplines; and the relationship of the DOE program to other 
Federal investments in information technology research. This advisory 
committee will play a key role in evaluating future planning efforts.
                         basic energy sciences
Fiscal Year 2001 Appropriation--$991.7M; Fiscal Year 2002 Request--
        $1,004.7M
    The Basic Energy Sciences (BES) program is a principal sponsor of 
fundamental research for the Nation in the areas of materials sciences 
and engineering, chemistry, geosciences, and bioscience as it relates 
to energy. This research underpins the DOE missions in energy, 
environment, and national security; advances energy related basic 
science on a broad front; and provides unique user facilities for the 
scientific community.
    For fiscal year 2002, a very high priority is the continuation of 
construction of the Spallation Neutron Source (SNS) to provide the 
next-generation, short-pulse spallation neutron source for neutron 
scattering. The project, which is to be completed in June 2006, is on 
schedule and within budget.
    Enhancing U.S. research in neutron science, in preparation for the 
commissioning of the SNS, is also a program priority. A common finding 
among BES Advisory Committee studies has been the importance of 
establishing a large and well-trained user community by the time the 
SNS is fully operational in the 2008-2010 timeframe. To this end, 
funding will be provided for teams of scientists to participate in the 
development of neutron scattering instruments and for support for the 
neutron science/scattering programs at the host institutions of the BES 
facilities. Additional operations funds will be provided to High Flux 
Isotope Reactor (HFIR) and the Intense Pulsed Neutron Source (IPNS) to 
ensure that these facilities are available to the scientific community.
    In the areas of nanoscale science, engineering, and technology 
(NSET) research, BES will continue the new research directions 
initiated in fiscal year 2001 and will explore concepts and designs for 
Nanoscale Science Research Centers (NSRCs). NSRCs will be user 
facilities similar in concept to the existing BES major scientific user 
facilities and collaborative research centers. They will provide 
unique, state-of-the-art nanofabrication and characterization tools to 
the scientific community. NSRCs will enable research programs of a 
scope, complexity, and disciplinary breadth not possible through the 
support of individual investigators or small groups. Significant 
partnerships with regional academic institutions and with state 
governments are anticipated.
    The response of the scientific community to the fiscal year 2001 
NSET initiative has been strong. University researchers submitted 745 
pre-applications, 313 of which received encouragement letters from BES 
inviting the submission of full proposals. The DOE labs were restricted 
to four field work proposals per laboratory and 46 proposals were 
received. Proposals were also received for pre-conceptual design of 
NSRCs from ANL, BNL, LBNL, ORNL, and Sandia/LANL. All proposals will 
undergo peer review to determine which will be funded in fiscal year 
2001.
                 biological and environmental research
Fiscal Year 2001 Appropriation--$482.5M; Fiscal Year 2002 Request--
        $443.0M
    The Biological and Environmental Research (BER) program develops 
the knowledge needed to identify, understand, anticipate, and mitigate 
the long-term health and environmental consequences of energy 
production, development, and use.
    As the founder of the Human Genome Project, BER will maintain a 
critical role in the International Human Genome Consortium that 
includes the National Institutes of Health.
    A redirected effort entitled, ``Genomes to Life,'' will support 
research and computational tools that will lead to an understanding of 
complex biological systems. It will incorporate research to develop a 
comprehensive understanding of the Microbial Cell that will be used to 
engineer microbes for DOE mission applications such as environmental 
cleanup. Understanding how complex biological systems respond to their 
environments also promises the ability to accurately predict the impact 
of low doses of radiation and environmental toxins on living organisms, 
including people. In fiscal year 2002, BER microbial research will 
provide DNA sequences for four additional microbes important in 
bioremediation, clean energy, global carbon cycling, and human health/
low dose radiation research.
    The Atmospheric Radiation Measurement (ARM) program will improve 
the models that track the radiation balance through the atmosphere, 
including cloud and water vapor effects, to reduce uncertainty in 
predicting the effect of greenhouse gases on future climates. Carbon 
cycle and sequestration research will help to assess current carbon 
sinks and to develop methods of enhancing natural processes for 
terrestrial and ocean sequestration of carbon. Ecological research will 
provide data to develop and test robust models to predict the effects 
of changes in climate and atmospheric composition on important 
ecological systems and resources.
    BER will continue research in environmental bioremediation focusing 
on research at the Field Research Center in Oak Ridge, Tennessee. The 
Environmental Molecular Sciences Laboratory (EMSL), a national 
scientific user facility provides analytical and experimental 
capabilities to address the complex scientific barriers to restoring 
our environment. The EMSL computational facility will upgrade its 
computing capability by leasing a high performance computer in fiscal 
year 2002. This will enable the simulation of key environmental and 
molecular processes.
    Medical sciences research will develop advanced technology and 
instrumentation to image single molecules, genes, cells, organs, and 
whole organisms in real time with a high degree of precision. These 
achievements will have a broad impact on biomedicine, in particular the 
fields of cell and developmental biology and on more accurate medical 
diagnoses and effective treatments.
    The resources of the DOE national labs enable rapid advances in our 
programs in biophotonics (harnessing light and other forms of radiant 
energy for new biomedical research tools such as noninvasive diagnostic 
tools for the early detection of breast cancer), lasers in medicine, 
biological and chemical sensors, and advanced imaging instrumentation. 
BER and the National Institutes of Health (NIH) have developed a 
partnership in which the advanced technologies, instrumentation, and 
computational modeling capabilities developed in the DOE national labs 
will be applied to specific biomedical problems of high importance in 
the NIH intramural program. This partnership will benefit both agencies 
since complex biosensors capable of detecting and discriminating among 
large classes of biomolecules could be important not only to biology 
and medicine but also to environmental sensing. Cooperation will 
facilitate rapid application of advances in the biophysical sciences to 
solve clinical problems of national importance.
                         fusion energy sciences
Fiscal Year 2001 Appropriation--$248.5M; Fiscal Year 2002 Request--
        $238.5M \1\
    The Fusion Energy Sciences (FES) program's mission is to advance 
plasma science, fusion science and technology. The program emphasizes 
the underlying basic research in plasma and fusion sciences, with the 
long-term goal of harnessing fusion as a viable energy source. The 
program centers on the following goals: understanding the physics of 
plasmas; identification and exploration of innovative and cost 
effective development paths to fusion energy; and exploration of the 
science and technology of energy producing plasmas, as a partner in 
international efforts.
    In fiscal year 2002, the program will incorporate the 
recommendations of reports by the National Research Council, the 
Secretary of Energy Advisory Board and recommendations of the Fusion 
Energy Science Advisory Committee.
    The fiscal year 2002 FES program includes basic research in plasma 
science in partnership with NSF, plasma containment research, and 
investigation of tokamak alternatives along with continued operation of 
DIII-D, Alcator C-Mod, and the National Spherical Torus Experiment. 
Research on alternate concepts is pursued to develop a fuller 
understanding of the physics of magnetically confined plasma and to 
identify approaches that may improve the economical and environmental 
attractiveness of fusion.
    The inertial fusion energy activity will continue exploring an 
alternative path for fusion energy that would capitalize on the major 
R&D effort in inertial confinement fusion that is carried out by NNSA 
for stockpile stewardship purposes. Ongoing theory and modeling 
efforts, aimed at developing a predictive capability for the operation 
of fusion experiments, will continue as will enabling technology 
development.
                          high energy physics
Fiscal Year 2001 Appropriation--$712.0M; Fiscal Year 2002 Request--
        $721.1M \1\
    The High Energy Physics (HEP) program's mission is to understand 
energy and matter at a fundamental level by investigating the 
elementary particles and forces between them. Until the Large Hadron 
Collider (LHC) at CERN is completed in 2006, the U.S. will be the 
primary center of activity for experimental research in the field of 
high energy physics. There is the potential for exciting new 
discoveries, and the program needs to position itself to take advantage 
of these opportunities.
    The HEP program will concentrate on utilizing and upgrading its 
facilities, including direct support for research scientists. In fiscal 
year 2002, Fermilab will begin a five-year campaign to discover the 
Higgs particle (believed key to understanding mass) and other new 
particles predicted by current theories. The B Factory at SLAC will 
begin a three-year campaign to make important contributions toward 
understanding the preponderance of matter over antimatter in the 
universe.
    A small HEP program continues at the Alternating Gradient 
Synchrotron (AGS). The muon g-2 experiment recently announced results 
that showed a higher magnetic strength for the muon than that predicted 
by the Standard Model. If confirmed, these findings could lead science 
into exciting new territory beyond the Standard Model.
    Appropriately focused support for university and laboratory based 
physics theory and experimental research will be emphasized in fiscal 
year 2002. The experimental programs are performed by university 
(primarily) and laboratory based scientists. These scientists 
construct, operate, and maintain the detectors and analyze the 
resulting data as well as train the next generations of scientists.
    An important element of the program is successful completion of 
construction and major capital equipment projects. Continued 
participation in the LHC is a high priority as is construction of the 
Neutrinos at the Main Injector (NuMI) project at Fermilab and its 
detector, MINOS. When NuMI/MINOS is completed in fiscal year 2003, it 
will provide a world-class facility to study neutrino properties and 
make definitive measurements of masses.
    In partnership with NASA, the HEP program will continue two 
particle astrophysics projects--the Alpha Magnetic Spectrometer (AMS) 
and the Gamma-Ray Large Area Space Telescope (GLAST). The experiments 
are expected to lead to a better understanding of dark matter, high 
energy gamma ray sources, and the origin of the universe.
    Accelerator R&D is essential to the development of the next 
generation facility as well as to the future of the HEP program. 
Research continues on accelerator-related technologies aimed at 
reducing costs and improving performance.
                            nuclear physics
Fiscal Year 2001 Appropriation--$360.5M; Fiscal Year 2002 Request--
        $360.5M
    The mission of the Nuclear Physics (NP) program is to advance our 
knowledge of the properties and interactions of atomic nuclei and 
nuclear matter in terms of the fundamental forces and particles of 
nature.
    The NP program is the major sponsor of nuclear physics research in 
the U.S., providing about 85 percent of Federal support. The program 
educates and enlarges the Nation's pool of technically trained workers 
and facilitates the transfer of knowledge and technology.
    With the new Relativistic Heavy Ion Collider (RHIC) at Brookhaven 
National Laboratory researchers have a unique opportunity to create and 
characterize the quark-gluon plasma, a phase of matter thought to have 
existed in the very early stage of the universe. Initial data from 
gold-gold collisions have yielded results that show aspects of possible 
plasma formation; the fiscal year 2001-fiscal year 2002 run will 
provide the first opportunity to explore this exciting new physics in 
depth.
    New knowledge and insights on how quarks and gluons bind together 
to make protons and neutrons are being gained using high intensity 
electron beams from the Continuous Electron Beam Accelerator Facility 
(CEBAF) at the Thomas Jefferson National Accelerator Facility. In 
fiscal year 2002, the G0 Detector, a joint DOE-NSF project, will be 
completed and will provide an opportunity to map quark contributions to 
the structure of the nucleon.
    Measurements of the solar neutrino flux by the Sudbury Neutrino 
Observatory (SNO), constructed by a collaboration of Canadian, British 
and U.S. supported scientists in a deep underground nickel mine in 
Ontario, Canada, will provide first results shortly on the 
``appearance'' of oscillations of electron neutrinos into other 
neutrino flavors. Such evidence would confirm indications that 
neutrinos have mass, an observation that would force a re-evaluation of 
the existing Standard Model of particle physics.
    The search for new super-heavy elements will continue in fiscal 
year 2002, focusing on the techniques developed in the recent discovery 
of elements 116 and 118 at Lawrence Berkeley National Laboratory. 
Future studies will focus on the search for neighboring elements and 
will work to understand the surprising observation of enhanced 
stability for these very heavy elements.
    In fiscal year 2002, R&D activities will be supported for a 
proposed Rare Isotope Accelerator (RIA) facility. This facility would 
produce beams of highly unstable nuclei that can explore the limits of 
nuclear existence and measure reaction rates. These data are critical 
to computer modeling of the dynamics of supernovae explosions and other 
aspects of stellar evolution and to understanding the origins of 
elements.
          multiprogram energy laboratories--facilities support
Fiscal Year 2001 Appropriations--$30.2M; Fiscal Year 2002 Request--
        $30.2M
    The Multiprogram Energy Laboratories--Facilities Support (MEL-FS) 
program's mission is to support the general purpose infrastructure of 
the five Office of Science multiprogram national laboratories by 
funding line item construction to rehabilitate, renovate and replace 
laboratory and office buildings, utility systems, and other structures. 
This support helps enable high technology scientific research that is 
conducted in a reliable, cost effective, and safe manner. Together, 
these laboratories have over 1,600 buildings (including 500 trailers) 
with 15.5 million gross square feet of space and an estimated 
replacement value of over $10 billion. The total DOE and non-DOE 
research program funding for these laboratories is over $3 billion a 
year.
    In fiscal year 2002, MEL-FS will support Project Engineering and 
Design funding for the initiation of three new line item construction 
projects and construction funding for six ongoing line item 
construction projects.
    The request also supports SC's landlord responsibility at the Oak 
Ridge Reservation and DOE facilities in the town of Oak Ridge, 
including Payments in Lieu of Taxes (PILT) at this and two other sites.
                        energy research analyses
Fiscal Year 2001 Appropriation--$1.0M; Fiscal Year 2002 Request--$1.3M 
        \1\
    The mission of the Energy Research Analyses (ERA) program is to 
evaluate the excellence, relevance and international leadership of DOE 
research programs and projects. Fiscal year 2002 funding will support 
the development of performance measurement and evaluation tools that 
are utilized by SC programs and meet the requirements of the Government 
Performance and Results Act.
    In addition, the overall value of SC's research efforts will be 
communicated to the public and other stakeholders, and original 
research will be conducted into the best management practices of 
publicly funded science organizations. This research will result in the 
identification of best practices in the management of science 
organizations that could be adopted by SC to improve overall management 
efforts.
                safeguards and security program support
Fiscal Year 2001 Appropriations--$36.4M; Fiscal Year 2002 Request--
        $50.5M
    The Safeguards and Security (S&S) program mission is to provide an 
appropriate level of protection of personnel, property, information, 
and nuclear materials in a technically sound and cost-effective manner. 
This program ensures that essential S&S services are provided at all SC 
facilities through a tailored approach according to risk.
    The S&S program is concentrating on countering the vulnerabilities 
of the 21st Century. These vulnerabilities have been identified through 
program reviews as well as Inspector General (IG) and General 
Accounting Office (GAO) audits. In fiscal year 2002, S&S funding 
includes countermeasures for the ever increasing advances in and 
reliance on computer technologies. This request also supports the 
upgrading of aging physical security systems. Where applicable, these 
systems further advance our control of our small but vital national 
security interests.
    The S&S program must maintain a sustained vigilance so that science 
and technology operations are not adversely effected. The benefits of 
an effective S&S program include: providing the public with confidence 
that the taxpayer assets are appropriately protected; a safe work place 
for employees; adequate protection of user facilities, operations and 
scientific research data; and an attractive security climate supportive 
of international collaborations and leading edge scientific projects. 
The protection of these research programs and projects helps maintain 
science's critical contribution to American competitiveness and lasting 
prosperity around the world.
                       science program direction
Fiscal Year 2001 Appropriation--$126.9M; Fiscal Year 2002 Request--
        $144.4M \1\
    The Science Program Direction (SCPD) budget supports three 
subprograms: Program Direction, Field Operations, and Science 
Education. Program Direction is the funding source for SC's Federal 
staff responsible for managing and supporting the scientific 
disciplines. Field Operations provides funding for the daily operations 
and administrative functions performed at the Chicago and Oak Ridge 
Operations Offices that support the departmental programs, projects, 
laboratories, facilities, and grants under their purview. Science 
Education sponsors programs designed to promote interest in science, 
math, engineering and technology fields for college and university 
students and faculty.
    In fiscal year 2002, SC will continue to focus on strategic human 
capital management and planning with the goal of building and 
sustaining a talented and diverse workforce. SC needs to attract, 
recruit and retain highly skilled employees to offset the existing and 
projected shortfall in the scientific and technical workforce, and to 
continue to manage its programs in a safe, efficient, and effective 
manner.
    SC will also support the DOE Corporate R&D Portfolio Management 
Environment (PME) project, which will modernize and streamline the 
Department's R&D management processes. Process improvements and 
automation will enable electronic ``cradle-to-grave'' tracking of 
research projects that are critical to DOE corporate sharing and 
reporting of energy-related research across programs. In addition, SC 
will continue to standardize, integrate, and invest in information 
technology that will improve management processes and promote efficient 
use of resources among SC Headquarters and Field counterparts, e.g., 
increase remote accessibility to corporate systems, and enhance cyber 
security.
    Beginning in fiscal year 2002, funding for safeguards and security 
functions at the Oak Ridge Operations Office is included in SCPD as 
part of congressional direction to align such functions with line 
management.
    In fiscal year 2002, the Science Education subprogram will support 
research experiences at our national labs for a diverse group of 
competitively selected undergraduate students. In collaboration with 
the National Science Foundation, an effort is underway to attract a 
wider cross section of students to this program and a system is being 
created to document student career paths. In fiscal year 2002, this 
partnership will be expanded.
    The Office of Science also manages and supports the National 
Science Bowl<Copyright> for high school students from across the 
country and provides the students and teachers a forum to receive 
national recognition for their talent and hard work. In fiscal year 
2000, Saturday seminars on scientific topics were added to the National 
Science Bowl<Copyright> weekend. In fiscal year 2002, students 
participating in the National Science Bowl<Copyright> will be tracked 
to document the long-term impact on their academic and career choices.
      energy supply r&d programs--technical information management
Fiscal Year 2001 Appropriation--$8.7M; Fiscal Year 2002 Request--$9.0M
    The Technical Information Management (TIM) program leads DOE's e-
government initiatives for disseminating information resulting from the 
Department's R&D programs. The Office of Scientific and Technical 
Information (OSTI) manages the TIM program, providing electronic access 
to worldwide energy science and technical information to DOE 
researchers, industry, academia, and the public. The TIM program also 
coordinates technical information-related activities at sites 
throughout the DOE complex, which includes developing and implementing 
information exchange policies and standards; managing a 50-year archive 
of 1.1 million unclassified and 100,000 classified documents; 
maintaining a classified information program that collects, preserves 
and exchanges, in a secure environment, classified, sensitive and 
limited circulation documents; and serves as DOE's leader in the 
international exchange of scientific and technical information.
    In fiscal year 2002, the TIM program will make DOE's scientific and 
technical journal citations, technical reports, and preprints 
searchable and retrievable through e-government systems.
                                closing
    The fiscal year 2002 budget request for the Office of Science 
illustrates how long-term research is vitally connected to our Nation's 
lasting prosperity. Advances in life science, materials science, 
computation, fusion research, and other scientific disciplines 
supported by SC have made significant contributions to our economy and 
our national standard of living during the past 50 years. Future 
investments in SC-sponsored research at our Nation's universities and 
national laboratories will provide similar returns during the coming 
decades.
    On behalf of the Administration and the Department, I am pleased to 
present this budget for the Office of Science and welcome the challenge 
to deliver results.
    This concludes my statement. I would be happy to answer your 
questions.

                    STATEMENT OF WILLIAM D. MAGWOOD

    Senator Bennett. Mr. Magwood.
    Mr. Magwood. Thank you. Mr. Chairman, Senator Craig, I am 
Bill Magwood. I am Director of the DOE's Office of Nuclear 
Energy, Science and Technology. I am pleased to appear before 
you today to discuss our fiscal 2002 budget request. I will 
submit a written statement for the record.

                          NUCLEAR POWER PLANTS

    When we met at this time last year, I told you that we were 
seeing the early signs of a turnaround in prospects for nuclear 
energy in the United States. At that time, U.S. nuclear power 
plants were setting new records in producing inexpensive and 
reliable electric power. The utility industry was moving 
forward with the relicensing of its nuclear power plants, and 
utilities were beginning to talk about the possibility of 
building new nuclear power plants in the United States.
    This year, evidence of this turnaround is even greater. 
Nuclear power set even higher generation records last year. 
Nearly all U.S. nuclear power plants are now expected to 
receive NRC license renewals. Utilities are now actively 
engaged in developing the business cases for specific nuclear 
power plant projects in this country. We expect that next year 
we will be able to report even greater progress.
    It is difficult to measure the degree to which the 
government encouragement and support fosters this renewed 
interest. Clearly, industry makes its decision based on the 
economics and business factors, but you cannot underestimate 
the impact of having the Vice President of the United States, 
as he did yesterday, articulate the clear national interest in 
building new nuclear power plants in the United States.
    You also cannot underestimate the impact of renewed Federal 
funding for nuclear research and development. Since our R&D 
budget hit essentially zero in fiscal year 1998, the Department 
has received slightly more resources each succeeding year. We 
have set these resources to support both near-term National 
needs for increased power production and long-term strategic 
interests in advanced nuclear technology for the future.

                  NUCLEAR ENERGY TECHNOLOGIES PROGRAM

    I would first like to thank the Subcommittee for its 
leadership and vision in providing funds for the Nuclear Energy 
Technologies Program. While very small in comparison to many of 
the DOE programs, its impact has already been huge.

                             GENERATION IV

    At its core is the Generation IV Technology Roadmap. This 
roadmap has become a large international project, involving 
nearly 150 experts from 10 countries.
    We have established a new international collective known as 
the Generation IV International Forum, or GIF, through which 
the United States and other nuclear experienced nations will be 
able to work together, to set the goals, establish the programs 
and collaborate in the research that will lead to the next 
generation of nuclear energy systems.
    I am pleased to report that since last year, the Department 
has--with very limited funding and staff--reasserted a U.S. 
leadership position that many thought was long dead.
    Generation IV Technology goals have been drafted by a 
Subcommittee of the Nuclear Energy Research Advisory Committee 
(NERAC) with input from U.S. industry, laboratories, 
universities.
    These goals, now essentially complete, have been accepted 
by the international community through the GIF and through the 
International Atomic Energy Agency and are at this very moment 
being presented to the full NERAC for final review.
    The GEN IV goals set very aggressive targets for future 
technologies, such as eliminating the need for offsite 
emergency planning, and ensuring the economy of proliferation 
resistance of future nuclear systems.
    Now, international teams based mostly in the United States, 
but a few also overseas, all under the guidance of the NERAC, 
will evaluate a large number of concepts against the Generation 
IV goals and agree on a small set of technology concepts, 
around which the international R&D community will rally.
    The roadmap should be complete by the end of next year and 
we have requested $4.5 million in fiscal year 2002 to complete 
this historic work.
    Other portions of this program have enabled us to work with 
the NRC and industry to address the technical and regulatory 
issues that could slow the deployment of advanced light water 
reactors and gas-cooled reactors in the United States.
    Our work in these areas has been important and has 
encouraged the industry to move forward with their planning for 
new nuclear power plants.

               ADVANCED ACCELERATOR APPLICATIONS PROGRAM

    We have also made significant progress in the Advanced 
Accelerator Applications program. When we last discussed this 
program, the Department has made tremendous progress in 
defining the parameters for a potential project to build the 
necessary facilities and establish the research to explore the 
transformation of nuclear waste into less toxic and in smaller 
quantity forms than untreated spent fuel.
    We have worked very closely with the NERAC Subcommittee on 
Advanced Nuclear Transformation Technology chaired by Professor 
Burt Richter, former Director of SLAC, to define the technical 
issues and set appropriate paths forward.
    Yesterday, Professor Richter reported to the NERAC that we 
were on the right track, and that the prospect for 
international collaboration toward building a major facility in 
the United States is very real, if the United States makes a 
clear commitment to the project.
    I can validate this prediction. Soon, we will sign an 
agreement with the French CEA to share costs in performing a 
series of experiments over the next few years. The French are 
very interested in joining an activity in the United States to 
build an accelerator driven test facility in this country.
    Should such a project proceed, the support of the CEA, the 
Swiss Paul Scherrer Institute and other organizations, would be 
absolutely essential, as the United States is a relative 
newcomer to this area of study, and other countries have made 
important progress in many relevant areas.
    For this initiative, as well as most other aspects of our 
R&D portfolio, the fiscal year 2002 budget request reflects a 
need to pause and reflect on the direction of our research. 
With the entry of President Bush's Administration, it is 
appropriate to assess the energy needs of our Nation and 
consider the DOE's activities in that light.
    As you know, the Vice President is leading a task force to 
review these issues. Once these priorities are clearly 
identified, the Department will be in a better position to 
recommend future directions for research and development and to 
request appropriate funding for the new initiatives.

                      UNIVERSITY RESEARCH REACTORS

    Finally, I would like to inform you of an urgent matter 
discussed at the NERAC meeting yesterday. NERAC is very 
concerned about the potential closure of essential university 
research reactors in the United States and a continued decline 
in university nuclear engineering programs.
    Faced with the likely closure of important facilities at 
Cornell, MIT, and the University of Michigan, NERAC formed a 
task force, chaired by Bob Long, former Senior Vice President 
of GPU Nuclear and a former professor at the University of New 
Mexico.
    This task force has recommended that the Department provide 
a near-term influx of funds to keep these three facilities in 
operation and set up a longer term structure to assure the 
continued operation of a limited number of nationally 
significant university research reactors. The Department will 
soon announce specific actions we plan to take in response to 
the NERAC recommendations.
    With that, I will end my oral remarks and would be pleased 
to answer any questions you may have.
    Senator Bennett. Thank you very much.
    [The statement follows:]

                Prepared Statement of William D. Magwood

    Mr. Chairman and members of the Subcommittee, I am pleased to 
present the Department of Energy's fiscal year 2002 budget request for 
the Office of Nuclear Energy, Science and Technology (NE). We are 
proposing a $223 million investment during fiscal year 2002 to conduct 
vital nuclear research and development programs; to enhance the 
Nation's science, technology and education infrastructure; and to 
manage NE's Federal nuclear facilities and materials. We believe that, 
by supporting nuclear energy technology, the U.S. can achieve a 
balanced and sustainable energy supply, reestablish its international 
leadership in nuclear technology development, promote national 
security, and attain environmental goals.
    The Administration is currently developing a new national energy 
strategy. Secretary of Energy Abraham, speaking in March to a National 
Energy Summit, stated the essence of the new review:

    ``Our national energy policy will stress the need to diversify 
America's energy supply. It will be founded on the understanding that 
diversity of supply means security of supply . . . and that a broad mix 
of supply options--from coal to windmills, nuclear to natural gas--will 
help protect consumers against price spikes and supply disruptions.''

    The review will provide the guidelines of a new, comprehensive 
strategy to deal with our Nation's near-term energy challenges and put 
the technical ingenuity of our universities, laboratories, and industry 
to work to assure that we have long-term sources of energy to power the 
United States in the longer-term future.
             the revitalization of the nuclear power option
    The last few years have truly been an exceptional period for 
nuclear power in the United States. With demand for electricity at 
record highs, the Nation's nuclear power plants have been producing a 
record amount of power--up 3.7 percent to 755 billion kilowatt-hours 
last year. The nuclear share of electricity generation in 2000 (almost 
23 percent of the total) also set a record. U.S. nuclear power plants 
exceeded peak operating performance records set over the last few 
years, increasing plant capacity to nearly 90 percent. Meanwhile, the 
costs of producing electricity from nuclear power hit a record low in 
2000, leading nuclear power plants to surpass coal-fired plants--for 
the first time in more than a decade--as the leader in low-cost 
electricity production.
    In addition, the industry is aggressively and successfully moving 
forward with plant relicensing to extend operation of the existing 
fleet of plants for another twenty years. Last spring, the Nuclear 
Regulatory Commission (NRC) approved license extensions authorizing 
five nuclear units at two nuclear sites (Calvert Cliffs in Maryland and 
Oconee in South Carolina) to operate another 20 years. NRC is presently 
reviewing five other applications at three nuclear sites and the 
applications for thirty other units are pending. Today, industry and 
government alike expect that nearly all of the 103 U.S. nuclear plants 
will extend their licenses another 20 years.
    Furthermore, the consolidation that has been taking place in the 
utility industry over the last several years has created a cadre of 
utilities with the experience and resources to operate nuclear units 
efficiently and effectively, and the ability of undertaking 
construction of new baseload electrical capacity in time to meet 
national needs.
    After decades without any orders for new nuclear power plants in 
the United States, U.S. utilities are demonstrating a renewed interest 
in this technology. The factors that came together in the 1970's to 
make nuclear power less attractive than other energy sources, such as 
an over-supply of electricity and high interest rates, are no longer 
applicable. Today, we are facing rapidly rising natural gas prices, 
increasing reliance on imported oil supplies, and growing concerns 
about air pollution.
    As a result of this changing environment, in March, nuclear 
industry representatives indicated that one or more U.S. utilities were 
on the verge of filing applications for approval of sites for potential 
construction of nuclear power plants. Following NRC approval of these 
applications, the utilities could return to the NRC at a later date to 
ask for a combined construction and operating license (COL) for a pre-
approved nuclear power plant design. We are pleased with these recent 
developments since the Department has worked long and hard as a partner 
with the industry to achieve these milestones and is continuing to 
support demonstration of the NRC early site permit and COL processes. 
In addition, utilities are beginning to look at new nuclear power plant 
designs that may be attractive in the current market. For example, 
Exelon Corporation has invested in the Pebble Bed Modular Reactor 
(PBMR) project currently under development in South Africa with the 
goal of exploring its feasibility for the U.S. market. The DOE Nuclear 
Energy office is leading discussions with the NRC on requirements for 
gas-cooled reactors such as the PBMR and the Gas Turbine Modular Helium 
Reactor (GT-MHR). Further, interest in advanced light water reactor 
technologies such as the AP-600/1000 and Advanced Boiling Water Reactor 
remains high among U.S. utility decision-makers.
    With interest in building new nuclear power plants higher today 
than at any point in three decades, the Department is focusing its 
efforts to assure that Government is an appropriate partner to industry 
and not an obstacle. We are focusing on removing unnecessary barriers 
and leading the development of new technologies. In this way, the 
Department can best support the national need for clean and economic 
supplies of electric power for the near and long term.
    The Office of Nuclear Energy is also pursuing advances in nuclear 
medical technologies through our Medical Isotope Program. This program 
promotes vital U.S. research into the use of isotopes to treat and 
diagnose cancer and other illnesses. Radioisotope therapy has the 
potential to become standard medical treatment for a number of cancers 
that are major causes of death in the United States, including breast, 
prostate, and bone cancer. Our budget request for the Medical Isotope 
Program will support advanced research and assure that reliable 
supplies of these life-saving therapeutic and diagnostic isotopes will 
be available. Human trials of new isotope-based treatments often 
require the administration of multiple doses of radioisotopes over a 
period of time, and disruptions in supply may spell the difference 
between life and death for critically ill patients.
    Many of the most important radioisotopes have short half lives and 
cannot be stockpiled against vagaries in facility operation. The 
importance of a reliable supply of radioisotopes was driven home for us 
last summer when the Cerro Grande fire temporarily shut down operations 
at Los Alamos and threatened the security of our facilities there. The 
need for reliability of supply requires that we maintain, and upgrade 
as necessary, the facilities at which radioisotopes are produced, and 
our efforts this year include upgrading a facility to help ensure that 
availability.
    The Department also has an essential role in enabling the United 
States to explore space. Our Advanced Radioisotope Power Systems 
program provides critical support to our nation's efforts to better 
understand the universe in which we live. NASA's space exploration 
program requires reliable, long-term supplies of electricity and heat 
to power spacecraft and to maintain a suitable environment for people 
and equipment. For some missions, particularly long-term, deep space 
missions, radioisotope power systems are the only possible sources of 
power. Conventional sources of energy would require too much fuel, and 
solar power simply will not work for missions that extend to the outer 
portions of the solar system and beyond. The same types of systems that 
support space exploration are also used for national security missions 
of the Department of Defense (DOD). Our role, for both NASA and DOD, is 
to provide the radioisotope power systems that meet their mission 
needs. This requires that we maintain a sufficient supply of plutonium-
238 to meet the schedules and energy demands of upcoming missions of 
both agencies, as well as the infrastructure to build and deliver the 
needed systems on time. We also support research and development on 
advanced systems to assure that we can meet future needs, which may 
call for longer operating times and higher powers. Our research is also 
driven by the current limitations in the supply of plutonium-238; we 
are simultaneously working on options for additional supplies. NASA and 
DOD provide funding for mission-related activities, while DOE is 
charged with maintaining the infrastructure to meet the NASA and DOD 
needs.
    Finally, I want to bring to your attention another important 
function of the Office of Nuclear Energy: the support of the 
infrastructure that makes all these efforts--development of new 
reactors to meet future energy needs, production of life-saving 
isotopes, and support of space exploration--possible. By 
infrastructure, I mean not only the hardware, but also the people, and 
not only the government facilities, but also the other facilities that 
support critical training needs. To these ends, the Office of Nuclear 
Energy both supports operations at the remaining reactors and related 
facilities at our national laboratories and provides a variety of types 
of support to the academic infrastructure that supports the training of 
future scientists and engineers. Regarding the national laboratory 
facilities, one problem we are facing is that we are operating an aging 
infrastructure, and continued operation of these important facilities 
requires not only the normal operating expenses, but also significant 
expenditures to maintain aging structures and to bring facilities into 
compliance with modern standards of electrical and fire safety. The 
university reactor infrastructure, which is used for DOE and NRC 
sponsored research, is also at risk. With tightening university 
operating budgets, some universities are very near to shutting down 
some of the most important university reactor facilities. This will 
impact ongoing DOE and NRC research. We are working with the 
universities to identify ways to prevent such shutdowns, and have 
chartered a special subcommittee of our advisory committee, the Nuclear 
Energy Research Advisory Committee (NERAC) that will be presenting its 
recommendations at the end of April.
    In the meantime, we are trying to assure that the funding we 
provide for reactor upgrades and other reactor support is as effective 
as possible in meeting critical, near-term needs. We are also 
continuing to support students and faculty at the universities to the 
extent possible through scholarships, fellowships and research funding, 
and have been heartened this year to note an apparent reversal of the 
previous declining trend in enrollments in nuclear engineering 
departments. We believe this to be a result of both our sustained, 
though modest, support for the academic community, and of the new level 
of excitement about a future for nuclear power.
    In accomplishing its program mission, the Office of Nuclear Energy, 
Science and Technology will engage research institutions in industry, 
U.S. universities, national laboratories, international organizations, 
and other countries in cooperative and collaborative efforts. The major 
program elements that contribute to the mission are: Advanced 
Radioisotope Power Systems, Medical Isotope Program, University Reactor 
Fuel Assistance and Support, Research and Development (includes Nuclear 
Energy Plant Optimization, Nuclear Energy Research Initiative, Nuclear 
Energy Technologies), Infrastructure (includes Test Reactor Area 
Landlord, Fast Flux Test Facility, and Argonne National Laboratory-
West), Nuclear Facilities Management, and Program Direction.
    The following table summarizes the fiscal year 2002 request for 
Nuclear Energy programs:

Nuclear Energy Fiscal Year 2002 Budget Request

                        [In thousands of dollars]

Energy Supply:m Element                                          Request
    Advanced Radioisotope Power Systems.......................    29,094
    Medical Isotope Program...................................    18,177
    University Reactor Fuel Assistance and Support............    11,974
    Research & Development....................................    27,079
    Infrastructure............................................    81,279
    Nuclear Facilities Management.............................    30,457
    Program Direction.........................................    25,062
                    --------------------------------------------------------------
                    ____________________________________________________

      Total, Energy Supply....................................   223,122
                        research and development
Accelerating Technology Innovation
    I would now like to discuss in more detail the drivers for nuclear 
energy research, how we have structured and improved our processes for 
conducting research, our major accomplishments, and how our fiscal year 
2002 budget request helps position the Nation to take full advantage of 
exciting new developments in nuclear technology.
    Over the past several years, we have reinvented the Federal role in 
nuclear energy research and development. Recognizing the realities of 
today's fiscally constrained environment, we have reorganized how we 
conduct research to focus on accelerating innovation and assuring the 
best return on the investment for the Nation. We have returned to a 
more focused Federal role in conducting R&D--that is, investing most of 
our research portfolio on long-term, higher risk basic research aimed 
at reducing or eliminating significant barriers to future use of 
nuclear energy. This is research that typically is not within the 
shorter-term planning horizon of industry. Our R&D programs are 
designed to promote innovation and breakthrough technologies while 
limiting both the rate and duration of Federal investment--making good 
decisions on when to expand research that is promising, when to hand 
off successful projects to the private sector, and when to terminate 
projects that fall short.
    The Department obtains advice on the direction of its nuclear 
energy R&D activities from the NERAC. NERAC, a formal Federal advisory 
committee, provides expert advice on long-range plans, priorities and 
strategies for the nuclear technology R&D and research infrastructure 
activities of our office. NERAC has several active subcommittees 
examining various aspects of nuclear technology R&D. Reports issued by 
these subcommittees that address the future of nuclear energy include 
the Long-Term Nuclear Technology Research and Development Plan, to 
guide nuclear energy research out to the year 2020, and the Nuclear 
Science and Technology Infrastructure Roadmap. NERAC is also providing 
expert advice to help guide development of the Generation IV Technology 
Roadmap. In addition, NERAC provides recommendations regarding 
government-industry cooperative research in support of the Nation's 103 
operating nuclear power plants.
    As I think most of us would agree, in order for nuclear energy to 
expand in the long-term, we must successfully deal with issues such as 
plant economics, waste, and proliferation. For example, in the longer 
term, by changing the way we design and manage commercial nuclear fuel, 
we may be able to address proliferation concerns, making it more 
difficult to use nuclear power systems to advance nuclear weapons 
programs. Technology may be able to reduce or even eliminate the 
production of plutonium in spent fuel. By exploring such advanced 
technologies as modular reactors with long-life cores and thorium-based 
fuel cycles, we may find technology-based solutions to one of nuclear 
power's most significant long-term challenges.
    The Long-Term R&D Plan, developed by NERAC with significant input 
from the wider research community, recommends that R&D budget levels be 
increased in order to enable the Nation to realize further value from 
our currently operating nuclear plants; provide for economic 
technologies and approaches to build improved advanced reactors in the 
United States; complete a design for a Generation IV nuclear energy 
system; and support a range of enduring missions within the Department. 
NERAC has established a goal of conducting $240 million in nuclear 
energy research by 2005.
    The Department initiated the Generation IV Nuclear Energy Systems 
Project in January 2000 by convening a meeting of senior policy 
officials from interested countries. Representatives of nine countries 
participated in this initial discussion and considered the long-term 
interest of the countries in the application of nuclear energy, the 
international interest in advanced nuclear technologies, the barriers 
that might prevent the future expansion of nuclear energy, and the 
interest of the representatives in exploring potential multilateral 
research projects to explore and develop new technologies. These 
representatives agreed to a Joint Statement regarding the importance of 
the nuclear energy option to the future and informally committed to a 
process to explore further cooperative activities.
    As a result of this meeting, and subsequent meetings, the nine 
nations that first came together in January 2000 are planning the 
formal creation of a Generation IV International Forum (GIF) to pursue 
multilateral coordination and cooperation with the goal of identifying 
and developing Generation IV technologies that could address the 
factors impacting the expansion of nuclear energy internationally: 
economic competitiveness of building and operating nuclear energy 
systems; remaining concerns regarding nuclear safety and proliferation; 
and the challenge of minimizing and dealing successfully with nuclear 
wastes.
    Our research and development initiatives remain the cornerstone of 
the Department's nuclear energy, science and technology program. These 
initiatives are undertaken on the basis that nuclear science and 
technology will continue to provide important technological benefits 
and advancements for the Nation in the 21st century.
    The Nuclear Energy Research Initiative (NERI), a competitive, peer-
reviewed research and development selection process to fund researcher-
initiated R&D proposals from universities, national laboratories, and 
industry, has reinvigorated the Nation's nuclear energy R&D 
organizations. Focused on research to address the potential long-term 
barriers to expanded use of nuclear power--economics, safety, 
proliferation resistance, and waste minimization--the NERI program is 
yielding innovative scientific and engineering R&D in nuclear fission 
and reactor technology. Initiated in fiscal year 1999, this program 
signaled the return of the United States to nuclear R&D, but a return 
that reflected important lessons learned and a new appreciation for 
harnessing outside expertise to focus the research. NERI has, despite 
its limited funding, gone a long way to reinvigorate nuclear R&D in 
this country.
    The goals of NERI are to develop revolutionary advanced concepts 
and scientific breakthroughs in nuclear fission and reactor technology 
to: address scientific and technical barriers to the long-term use of 
nuclear energy; advance the state of nuclear technology to maintain a 
competitive position in overseas and future domestic markets; and 
promote and maintain the nuclear science and engineering infrastructure 
to meet future technical challenges. The program is managed to promote 
collaboration between U.S. research institutions and information 
exchange with international organizations.
    In fiscal year 2001, the Department launched an international 
version of NERI, the International Nuclear Energy Research Initiative 
(I-NERI), to sponsor innovative scientific and engineering research and 
development conducted by joint teams of U.S. and foreign researchers. 
Established as a cost-shared R&D program, the program objectives of the 
I-NERI program are to: promote bilateral and multilateral collaboration 
with international agencies and research organizations to improve the 
development of nuclear energy; and promote and maintain the U.S. 
nuclear science and engineering infrastructure to meet future technical 
challenges.
    We are in the final stages of signing I-NERI agreements with France 
and South Korea. We are negotiating agreements with Japan and South 
Africa, which we hope to conclude this year. We also expect to conclude 
I-NERI agreements with the Nuclear Energy Agency of the Organization 
for Economic Cooperation and Development and with Euratom. When 
implemented, these agreements will magnify modest U.S. investments in 
R&D with great benefit to both the United States and our research 
partners. In addition to accelerating innovation and leveraging costs, 
I-NERI provides to the United States and the Department a key seat at 
the table in international policy discussions on the future direction 
of nuclear energy.
    Our request of $18.1 million for NERI in fiscal year 2002 will 
allow continuation of the NERI and I-NERI research projects currently 
underway. The fiscal year 2002 request, however, reflects the 
Department's decision not to initiate new energy research activities 
until the Vice President's Task Force issues its national energy policy 
recommendations; therefore, no funding is being sought in fiscal year 
2002 budget request for new research projects. During fiscal year 2002, 
the Department will complete 43 NERI research projects awarded in 
fiscal year 1999, and continue the 10 NERI research projects awarded in 
fiscal year 2000 and the 15 NERI projects expected to be awarded in 
fiscal year 2001. In fiscal year 2002, the Department will continue the 
bilateral international projects initiated in fiscal year 2001.
    The Nuclear Energy Plant Optimization (NEPO) program plays a vital 
role in ensuring that current nuclear plants can continue to deliver 
reliable and economic energy supplies up to and beyond their initial 
40-year license period by resolving open issues related to plant aging, 
and by applying new technologies to improve plant economics, 
reliability, and availability. The NEPO program is cost-shared with 
industry through the Electric Power Research Institute (EPRI) and is 
conducted in close cooperation with the NRC. The research conducted 
under the NEPO program is identified, prioritized, and selected with 
broad input from utilities, national laboratories, NERAC, and other 
stakeholders. With about a dozen projects underway, this program 
demonstrates the Department's ability to lead without massive funding: 
about 60 percent of NEPO funding is provided by industry and the suite 
of projects focuses on areas that industry would not have pursued on 
its own-projects that look at the long-term and focus on the need for a 
stable, reliable, non-polluting electricity source for the United 
States. We are requesting $4.5 million in fiscal year 2002 for NEPO 
research to improve existing plant operations, safety and reliability.
    In fiscal year 2002, our NEPO program will sponsor several high-
priority research projects, based on the critical R&D needs identified 
in the Joint DOE-Electric Power Research Institute Strategic R&D Plan 
to Optimize U.S. Nuclear Power Plants. This comprehensive strategic R&D 
plan, developed jointly by the Department, industry, and a subcommittee 
of NERAC, includes near-term R&D that industry is doing on its own; 
long-term R&D in which the Federal investment is leveraged with 
industry to apply the unique infrastructure or expertise of DOE; and 
R&D that is needed to accelerate solutions to generic technical 
problems affecting existing nuclear power plants. The research projects 
conducted in the NEPO program address technical issues associated with 
a range of topics, including materials fatigue, fuel performance, 
component inspections, in-service inspections and testing, stress 
corrosion, and digital instrumentation and control.
    New in fiscal year 2001, the Nuclear Energy Technologies (NET) 
program is enabling the Department to begin to work on the development 
of the next generation of advanced reactor technologies. We are 
currently developing a Generation IV Technology Roadmap to evaluate a 
variety of advanced nuclear energy system concepts using rigorous 
technology goals developed by NERAC and the international community and 
to define the needed research activities for the most promising 
concepts. The Generation IV goals include the ability of the designs to 
successfully compete in all markets with the most cost-efficient 
electricity production technologies available while further enhancing 
nuclear safety, minimizing the nuclear waste burden, and further 
reducing risk of proliferation.
    The Generation IV Technology Roadmap project is drawing on a wide 
array of researchers, designers, and operators from industry, academia, 
the national laboratories, and the international community. Together, 
approximately 150 senior, experienced engineers and scientists from at 
least 10 countries will work together to create the Generation IV 
Technology Roadmap. We have found that U.S. leadership has been 
essential to this process and that without the Department's initiative, 
this type of effort would not have been possible. Moreover, our 
leadership in this area has proven to be a very important element in 
achieving our overall foreign policy and national security objectives. 
The Generation IV Technology Roadmap will also provide additional 
detail and focus to the Department's long-term R&D plan for nuclear 
technology. The fiscal year 2002 budget request of $4.5 million 
includes funding to complete the roadmap, which will be submitted to 
Congress by fall 2002.
    Finally, in fiscal year 2001, the Department initiated the Advanced 
Accelerator Applications (AAA) program to pursue research and 
development on an accelerator technology with the potential to 
significantly reduce the radioactive toxicity and volume of civilian 
spent nuclear fuel, as well as to produce electricity to help offset 
the life cycle costs of the program. As part of this effort, the 
Department established a new ``AAA University Fellowship'' program and 
plans to award ten fellowships to support Masters Degree studies in 
areas related to the AAA program. Awards are planned to be given out 
within the next 60 days. As required by the fiscal year 2001 Energy and 
Water Appropriations legislation, the Department has prepared a ten-
year program plan for management and execution of the AAA program, 
exploring the potential of this new type of research facility to meet 
U.S. needs in the 21st Century. However, for fiscal year 2002, the 
Department has requested no new funds for the AAA program. The 
Administration is reviewing U.S. energy policy and related research 
priorities. Until these priorities are clearly identified, the 
Department will not request funding for major new energy initiatives.
             university reactor fuel assistance and support
Investments in Education
    Government, industry, and academia face similar challenges today as 
we seek to preserve the aging but highly developed science and 
technology infrastructure that the United States has developed over the 
last 50 years. This infrastructure is vital to delivering current and 
future mission-critical technologies and products to the nation. 
Similarly, preserving the human and research facility infrastructure at 
our universities and colleges remains key to preparing tomorrow's 
nuclear scientists and engineers. More trained personnel will be 
required to ensure an adequate knowledge base to support innovation and 
technological advancement.
    The University Reactor Fuel Assistance and Support program carries 
out the Department's commitment to maintain U.S. leadership in nuclear 
research and education. For fiscal year 2002, we are requesting $12 
million in total for this program, an amount equivalent to previous 
years. By supporting the operation and upgrade of university research 
reactors, providing fellowships and scholarships to outstanding 
students, and providing Nuclear Engineering Education Research Grants, 
the program helps maintain domestic capabilities to conduct research. 
The program also helps to maintain the critical infrastructure 
necessary to attract, educate and train the next generation of 
scientists and engineers with expertise in nuclear energy technologies.
    Our efforts to attract students to nuclear engineering careers 
continue to be a major focus of our education support programs. NE's 
Nuclear Engineering Fellowship and Scholarship Program provides 
fellowships and scholarships to students enrolled in nuclear science 
and engineering programs at U.S. universities. This activity also pairs 
minority-serving institutions with nuclear engineering degree-granting 
institutions with the aim of increasing the number of minority students 
entering the field of nuclear engineering, while simultaneously 
strengthening the infrastructure of nuclear engineering education. In 
fiscal year 2001, we expect to fund three minority/majority 
partnerships, and plan to increase the number to six partnerships in 
fiscal year 2002.
    In fiscal year 2001, and proposed in fiscal year 2002, the 
Department will provide 18 or more grants under the DOE-Utility 
Matching Grants Program to support education, training and innovative 
research at participating universities, in 50-50 cost-shared 
partnership with industry. We provide grants of up to $60,000 to each 
participating university. We also expect to award up to 50 scholarships 
and 24 fellowships this year and next. The fiscal year 2002 request 
also supports the Nuclear Engineering Education Research (NEER) program 
to stimulate innovative research at U.S. universities, at a level of 
$5.0 million. This investigator-initiated, peer-reviewed research 
program is vital to attracting and retaining faculty and students in 
nuclear engineering programs. This year, with well over 100 proposals 
received from universities, we will award 19 NEER grants and, with 
continuation of existing grants, increase the total number of research 
projects underway to 50.
    In fiscal year 2002, Nuclear Energy will continue a program to 
support nuclear engineering education by teaming with a professional 
society with expertise in nuclear science and technology to provide 
information to high school teachers and students. This program will 
help ensure a highly informed group of students are available to enter 
university nuclear engineering programs and related scientific courses 
of study. We also will make new radiochemistry awards for the first 
time since fiscal year 1999. The three-year awards provide faculty 
support and student fellowships to help educate a new generation of 
radiochemists to address the technical challenges associated with 
radioactive wastes and contaminated sites.
    University research reactors in the U.S. form a vital component of 
the nuclear science and technology and education infrastructure in this 
country. These facilities are an important source of neutrons 
supporting research that is critical to national priorities such as 
health care, materials science, environmental protection, food 
irradiation, and energy technology. Currently, there are 29 operating 
research reactors at 27 campuses in 20 states. However, many U.S. 
universities are currently considering the future of their reactors and 
some are contemplating the closure of their research reactor 
facilities. The Department is concerned about these developments, as is 
the NRC.
    In response to this situation, the Department has asked NERAC to 
establish a special task force to recommend the most appropriate action 
for assuring that university-based facilities vital to our national 
infrastructure remain in operation. The task force has been conducting 
an intensive review and will report its findings and recommendations 
later this month.
    This year, and proposed in fiscal year 2002, we will continue to 
supply fresh fuel to and transport spent fuel from university research 
reactors and to fund reactor equipment upgrades. Also, under the 
reactor sharing initiative, this year, and proposed in fiscal year 
2002, we will continue to pair 23 institutions with research reactors 
to those institutions without research reactors to increase their 
opportunities for training, education and research in nuclear science 
and technology.
                  advanced radioisotope power systems
Enabling Space Exploration and Discovery
    When the astronauts first walked on the moon over 30 years ago, 
they placed radioisotope power systems on the surface to power through 
the long lunar night the experiment packages they left on the surface. 
The images of the outer planets Neptune and Jupiter that have thrilled 
the general public were made possible by the radioisotope power systems 
that powered these scientific spacecraft. Future exploration of the 
outer planets and their moons will continue to require nuclear power 
systems as scientists search to find answers on the origins of our 
solar system and even of how life began. Long time robotic exploration 
of Mars to pursue the potential of finding water or past life forms and 
eventual human exploration will also be made possible by radioisotope 
power systems and eventually by space reactors.
    The Advanced Radioisotope Power Systems program is our Nation's 
only program for providing the capability to develop and build advanced 
nuclear power systems for deep space exploration and national security 
applications. The program supports and funds DOE activities related to 
sustaining the unique infrastructure that allows the Department to 
develop, demonstrate, test, and deliver power systems to the National 
Aeronautics and Space Administration (NASA) and other Federal agencies. 
In fiscal year 2002, the Department is requesting $29.1 million for 
this program, which is the minimum amount required to sustain the basic 
capability.
    Critical national security activities and NASA missions to explore 
deep space and the surfaces of planets could not occur without these 
systems. To date, DOE has provided over 40 radioisotope power systems 
and heater units for use on a total of 26 spacecraft. Previous NASA 
missions that have used DOE-built power systems include the Apollo 
lunar scientific packages, Pioneer, Viking, Voyager, Galileo, Ulysses, 
Mars Pathfinder, and Cassini. As we consider the American enterprise in 
space in the first decades of this new century, it is clear that DOE's 
advanced power technology will continue to be indispensable if we are 
to continue our exploration and advance human understanding of the 
universe. Clearly, there will be future missions and there will be a 
need for these systems.
    In supporting these missions, consideration is being given during 
fiscal year 2002 to both a Small Radioisotope Thermoelectric Generator 
and a new, more efficient, Stirling engine conversion technology. The 
Stirling technology would require a lesser amount of plutonium-238, the 
heat-producing isotope that is used for all radioisotope power systems. 
Efforts will also proceed in support of providing Radioisotope Heater 
Units for two Mars Lander missions in 2003. This effort includes safety 
and environmental analyses to support both NASA's environmental 
documentation and the Department's preparation of Safety Analysis 
Reports, which are required to seek launch approval.
    The expanding needs of our Nation's national security missions will 
require delivery of several radioisotope power systems over the next 
decade. We are currently developing a new, more efficient 
thermoelectric generator for these national security applications. In 
fiscal year 2002, we will continue testing the thermoelectric element, 
proceed with design, and initiate fabrication of an engineering unit of 
this new generator.
    For the Department to be able to continue to support these 
important uses of radioisotope power systems, there must be an adequate 
supply of the radioisotope plutonium-238 that is the heat producing 
isotope upon which these systems are based. There is a finite U.S. 
supply of this isotope and the existing U.S. capability to produce the 
isotope is being shut down. Because of the projected long term need for 
this isotope to support future space missions, the Department evaluated 
the option of reestablishing a domestic production capability as part 
of a Programmatic Environmental Impact Statement (PEIS) on the 
Department's nuclear Infrastructure. The Record of Decision on this 
PEIS included a decision by former Secretary Richardson to reestablish 
this domestic capability. Funding for the initial planning for this 
capability is included in the fiscal year 2002 request.
    The Department is also trying to position itself so that it can 
support future space exploration that will require higher power levels 
than can realistically be provided by radioisotope power systems--this 
requirement leads to the need for some type of space fission reactor. A 
space-based reactor will have to meet stringent requirements for 
reliability, size and weight. Therefore an assessment of potential 
space fission reactor technologies and concepts that could meet such 
requirements is a necessary first step in a space reactor program. Such 
an effort was begun in fiscal year 2001 will continue in fiscal year 
2002 at a modest level. The assessment will focus on refining selected 
concepts and on evaluating programmatic factors such as cost, safety 
and schedule that would be associated with their potential development 
and delivery. NASA is an integral partner in this assessment and has 
provided the preliminary requirements upon which the assessments are 
based.
                        medical isotope program
Harnessing Nuclear Technology to Save Lives
    Medical isotopes save lives and reduce health care costs. 
Furthermore, accurate nuclear medicine diagnoses can enable physicians 
and patients to precisely target therapies, thus, in many cases, 
avoiding surgery or other debilitating treatments. The vast majority of 
these procedures use technetium-99m, an isotope first developed for 
medical applications in the 1960s at the Department's Brookhaven 
National Laboratory. Today, ground-breaking human clinical trials at 
Memorial Sloan Kettering Cancer Center are demonstrating that alpha-
particle-emitting isotopes being produced at the Oak Ridge National 
Laboratory may be extremely effective in treating Acute Myelogenous 
Leukemia. Alpha-emitting isotopes work well when targeted to cancers 
because they provide high-intensity radiation over an extremely short 
distance. Thus, the cancer cells are destroyed with very little damage 
to surrounding tissues.
    The Medical Isotope Program takes advantage of the Department's 
unique infrastructure, including DOE's research reactors and particle 
accelerators, to provide a reliable supply of stable and radioactive 
isotopes used in medicine, industry and research. Support of research 
applications that use isotopes is the Medical Isotope Program's primary 
focus. The program achieves this by providing peer-reviewed grants for 
medical research and education through the Advanced Nuclear Medicine 
Initiative (ANMI), by producing the low-volume, high-cost ``boutique'' 
isotopes that are needed for research, and by maintaining the unique 
Department of Energy infrastructure that is needed to produce isotopes.
    The Department's fiscal year 2002 request for the Medical Isotope 
Program is $18.2 million. In fiscal year 2002, the Department will 
continue its emphasis on isotope-based research by applying $2.5 
million to the Advanced Nuclear Medicine Initiative, a program that 
applies the Department's unique expertise to advance the state of U.S. 
medical research, diagnosis and treatment. We believe that, as in the 
example of alpha isotopes, advanced isotope-based therapies may hold 
the key to creating safe and efficient treatments for many types of 
cancer. The isotope program provides isotopes to researchers across the 
country and remains indispensable to the conduct of advanced research 
in the United States where isotopes are needed. In addition, the ANMI 
supports the development of science and technology programs at U.S. 
universities and colleges to address the critical need to train experts 
in fields relevant to nuclear medicine such as radiochemistry and 
radiopharmaceuticals.
    The ANMI uses a peer-review process in which members of the NERAC 
and other prominent experts judge the scientific merits of projects 
proposed by universities, hospitals, and the national laboratories for 
funding. I am pleased with the results to date. In September, 2000, 
nine research grants were made. Recipients of these grants include the 
Garden State Cancer Center, Oak Ridge National Laboratory, Regents of 
the University of Michigan, University of Chicago, University of 
California Davis, University of Washington, Westinghouse Electric 
Company LLC, and two awards to the Curators of the University of 
Missouri. Five educational grants to support nuclear medicine 
disciplines at universities and colleges were made in March 2001 to 
Washington University, Purdue University, University of New Mexico 
Health Sciences, Regents of the University of Wisconsin System, and 
Washington State University. With the $2.5 million requested in fiscal 
year 2002, we propose to continue the research projects and assistance 
to students provided this year.
    A total of $11.0 million will go toward maintaining core personnel 
and operating capabilities at the four Isotope Production and 
Distribution sites, and $250,000 toward improving the quality of 
isotope products and production processes. The fiscal year 2002 program 
will continue to serve its customers through the production and 
distribution of stable and radioactive isotopes necessary for medical, 
industrial, and research purposes. The Department is continuing its 
effort to exit commercial markets and to encourage new isotope 
production ventures by selling or leasing its facilities to the private 
sector, where possible.
    However, we must reinvest in the production of isotopes to support 
the Nation's researchers. One of our most important projects in this 
area is the construction of an Isotope Production Facility (IPF) at Los 
Alamos National Laboratory which will maintain the Government's ability 
to produce short-lived isotopes required for some of the most important 
medical research underway in the United States.
    During the past year, we became aware of some issues arising in the 
project to construct the IPF. Changes in the operating schedule of the 
LANSCE accelerator at the laboratory, increased costs for design and 
construction, and other issues were uncovered during reviews last year. 
We convened a special expert review to assess the situation and make 
recommendations about the continuation of the program. The primary 
charge to the review committee was to evaluate the IPF project team's 
revised cost and schedule estimate for completeness and credibility by 
analyzing the following: technical progress relative to the scientific 
requirements for the instrument; completeness of the scope; proposed 
budget, cost and schedule profile, including the commitment of funds 
and personnel and its adequacy to complete the project on schedule and 
within budget; proposed budget, cost and schedule profile for the 
instrumentation and controls on the new accelerator beam line and 
target handling system; whether the contingency is adequate for the 
project at this stage of its development; adequacy of management 
structures, including the relationships to the LANSCE mission 
organization, to deliver the IPF within specifications and budget and 
on time; and proposed budget, cost and schedule profile for the 
development, review and approval of the safety basis documentation and 
performance of the required readiness review.
    With the help of this review, we have established a new, high-
confidence bottom-up cost estimate of the remaining work. Our request 
of $2.494 million for the IPF in fiscal year 2002 is being submitted to 
enable the project to be completed in September 2003.
    The Office of Nuclear Energy, Science and Technology is 
disappointed that these problems have occurred. In response to the 
problems that have developed in this project, oversight of the project 
will be strengthened by establishing an expert project review 
capability at the site which will report directly to the Office of 
Nuclear Energy, Science and Technology. We also plan to issue a 
competitive procurement for a separate subcontract to complete portions 
of the work on the IPF instrumentation and control system, an area 
where the current contractor's initial estimate proved to be extremely 
problematic. The current project request incorporates corrections to 
reflect actual costs and revised estimates deemed necessary to complete 
the project successfully.
    Another key initiative of the Medical Isotope Program is the 
processing and extraction of alpha-emitting isotopes from residual 
uranium materials stored at the Oak Ridge National Laboratory. 
Researchers throughout the United States are assessing alpha-emitting 
radioisotopes that can destroy cancer cells and reduce tumors. Alpha-
emitters such as Bismuth-213 have been demonstrated to be successful 
for cancer therapy. In an effort to meet increased demand to support 
human clinical trials, the Department is expanding its processing to 
achieve a 30 percent increase in supply over the next year. For the 
long term, the Department plans to double the supply of Bismuth-213 by 
2002. However, this will require installation of a new processing line 
at ORNL. As additional supply is made available, researchers will 
increase human clinical trials and develop treatments for other serious 
cancers including cancer of the pancreas, kidneys and other organs.
    Finally, as you know, this program operates under a revolving fund 
as established by the fiscal year 1990 Energy and Water Development 
Appropriations Act (Public Law 101-101), maintaining its financial 
viability with Congressional appropriations and revenues from the sales 
of isotopes and services. The last few years' efforts to privatize 
production and distribution of commercially viable isotopes, though 
successful, have placed additional pressure on the program's working 
capital. Commercial revenues, which contribute to the infrastructure 
fixed costs, are no longer available and, as a result, we are unable to 
invest in maintenance and upgrades needed for our infrastructure--an 
infrastructure which is vital to providing isotopes to our research 
customers. To that end, the Department will have to make capital 
investments in new, replaced, or enhanced processing equipment and 
infrastructure to improve production and processing of isotopes to meet 
current and anticipated future increases in demand.
              infrastructure/nuclear facilities management
Managing Federal Nuclear Facilities and Materials
    The Office of Nuclear Energy, Science and Technology also is 
responsible for facilities and materials associated with current and 
past missions of the Office. In this capacity, NE serves as landlord at 
Argonne National Laboratory-West and the Idaho National Engineering and 
Environmental Laboratory's Test Reactor Area (TRA), both of which are 
in Idaho. Nuclear Energy is also responsible for the safe shutdown of 
the Fast Flux Test Facility (FFTF) in Hanford, Washington. As part of 
our stewardship over these facilities, we are responsible for the 
management and disposition, where appropriate, of nuclear materials.
    The fiscal year 2002 budget request for Nuclear Facilities 
Management--$30.5 million--supports Experimental Breeder Reactor-II 
shutdown activities; the disposition of spent fuel and legacy 
materials; and research on, and development of, various waste 
disposition technologies. The activities of the Infrastructure program 
are focused on maintenance of the Argonne National Laboratory-West 
nuclear infrastructure, the TRA Landlord program, and the Fast Flux 
Test Facility (FFTF) shutdown and deactivation. A funding level of 
$81.3 million is proposed for this program in fiscal year 2002.
    Under the Nuclear Facilities Management program, in March 2001, the 
Department completed the processing of the EBR-II secondary and primary 
sodium and the Fermi reactor sodium, in compliance with the Idaho 
National Engineering and Environmental Laboratory Treatment Plan, two 
months ahead of schedule. In fiscal year 2002, we will complete the 
engineering and technical efforts supporting the deactivation of the 
EBR-II and directly related facilities. The deactivation of EBR-II is 
currently on schedule to be completed by March 2002. We are requesting 
$4.2 million to complete EBR-II deactivation.
    We will continue to carry out the disposition of spent fuel at ANL-
West in accordance with the Record of Decision on the treatment and 
management of stored sodium-bonded fuel. Also, we intend to continue 
research that supports NRC approval of the disposal of metal and 
ceramic waste forms from the demonstration project in a geologic 
repository, and continue repackaging and removal activities for spent 
nuclear fuel that remains from an earlier fuel burn-up development 
program and is now stored by a commercial entity at ANL-West. These 
activities account for $16.3 million of the fiscal year 2002 request.
    Finally, we are requesting $10.0 million for waste disposition 
technology activities, including R&D of process refinements to ensure 
proper treatment of EBR-II fuel rods; a development and test effort on 
waste stream treatment process equipment of a scale suitable for 
inventory treatment; long-term waste characterization tests; 
improvements to existing process equipment; and development of zeolite 
columns and other equipment refinements to reduce waste volume and 
improve process efficiency.
    Within the Infrastructure program, the TRA Landlord program ensures 
reliable support for TRA activities, such as naval reactor fuel and 
core component testing at the Advanced Test Reactor and privatization 
of production of isotopes for medicine and industry. The program also 
funds operations, maintenance and upgrade activities for common site 
facilities and utilities and ensures environmental compliance at the 
Test Reactor Area, including identification of legacy waste and 
mitigation in accordance with State regulations and DOE agreements with 
the State of Idaho. In fiscal year 2002, we are requesting $8.7 million 
for these TRA-related activities.
    The permanent deactivation of the Fast Flux Test Facility (FFTF) 
was directed in a Record of Decision (ROD) issued by the Department in 
January 2001. The fiscal year 2002 NE budget request reflects the 
investment required to continue FFTF deactivation, and to reach 
milestones crucial to an expeditious completion of deactivation 
activities in subsequent fiscal years. Experience gained from the 
deactivation of the Experimental Breeder Reactor-II (EBR-II) is being 
applied to the deactivation planning and execution for the FFTF. In 
fiscal year 2002, Argonne National Laboratory engineers will continue 
to work closely with deactivation staff at FFTF to ensure that lessons 
learned are imparted to the extent practicable. This engineering and 
analytical support is anticipated to result in efficiencies, and, in 
some cases, such as sodium processing, direct application of state-of-
the-art technology developed specifically for deactivation purposes.
    The remainder of the Infrastructure budget request is for Argonne 
National Laboratory-West Operations, for which we are requesting $34.1 
million in fiscal year 2002. This funding will provide the engineering, 
technical, operator and technician support for maintaining the nuclear 
facilities at ANL-W in compliance with DOE Rules and Orders, 
environmental and industrial safety requirements, and good management 
practice. It will also support conceptual design activities for the 
Remote Treatment Facility project, which is needed for disposal of 
mixed transuranic waste stored at ANL-W. Construction on this facility 
is scheduled to begin in fiscal year 2005, with operations commencing 
in fiscal year 2009.
                program direction/organizational issues
Continuing to Refocus the U.S. Nuclear R&D Program
    NE represents the Federal Government's core expertise and 
capability in a wide range of civilian nuclear technologies. NE is one 
of the most diverse organizations in the Department. It is a research 
and development program that crosses many fields of application, all 
unified by its expertise and experience in the application of nuclear 
science and technology. The previous sections illustrate the breadth of 
our efforts.
    During the past year, two nuclear-related activities were moved to 
other offices. The fiscal year 2001 appropriation language transferred 
Uranium Programs and related personnel funding from NE to the Office of 
Environmental Management (EM) in recognition of the fact that the bulk 
of activities in Uranium Programs fell closely under the areas of 
expertise and effort covered by EM. This change will assure that NE 
activities are strongly focused on research and development. Therefore, 
the fiscal year 2002 budget request for NE does not seek funding for 
any Uranium Program activities or personnel expenses. In addition, the 
Department decided in fiscal year 2001 that safeguards and security 
activities within the DOE complex are so important that they should be 
direct-funded programs rather than be funded as an indirect cost of 
doing business. Therefore, all of the funding included in the fiscal 
year 2002 NE budget request for safeguards and security activities 
reflects the transfer of funds to other program offices for carrying 
out these activities.
    In the Program Direction category for fiscal year 2002, NE is 
requesting $25.1 million for salaries, travel, support services and 
other administrative expenses for headquarters and field personnel 
providing technical direction to NE programs. Our Program Direction 
funding also supports the many intensive activities of the NERAC.
    As part of the Department's objective to maintain a highly skilled 
workforce, NE must hire additional staff to replenish critical 
technical expertise such as that required to assure the safe operation 
of the Department's various reactor facilities and to carry out new 
responsibilities such as the Nuclear Energy Research Initiative (NERI) 
and the Nuclear Energy Plant Optimization (NEPO) programs. In addition, 
NE is faced with another issue concerning the aging workforce. The 
average age of NE employees is 49, and there are many employees who 
will soon be eligible to retire (25 percent by December 31, 2001). Over 
50 percent of the current organization could turn over within just a 
few years. Staffing levels have reached the point where some 
augmentation is necessary to be able to maintain a core staff of 
knowledgeable, competent, and experienced scientists and engineers to 
meet the growing responsibilities now being placed on the Office. NE is 
currently recruiting several entry-level engineering and scientific 
positions to replace senior, experienced technical staff expected to 
retire in the near future.
                               conclusion
    Over the last three years, the Nuclear Energy program has made 
great strides. We have launched three new research initiatives, and 
have successfully demonstrated a major technology for treatment of 
spent fuel. The budget we are proposing for fiscal year 2002 would 
provide for more focused international collaboration and leveraging of 
the Federal investment in nuclear energy R&D, and would sustain our 
enduring role in support of space exploration, would ensure the 
continuing supply of medical and research radioisotopes, and would 
provide for ongoing safe stewardship of our Federal nuclear facilities 
and materials.
    As I said at the beginning of my testimony, we have a historic 
window of opportunity today to begin planning the next several decades 
of innovation. The decisions we collectively make today can 
significantly influence energy supply options and the environmental 
outcomes over the next 50 years. I look forward to working with you and 
the Subcommittee as we embark on preparing the technologies needed for 
this new century.
    Mr. Chairman, this concludes my prepared statement. I would like to 
thank you and the Subcommittee members for your continuing support of 
the Nuclear Energy program. I will be happy to answer any questions.

    Senator Bennett. Senator Craig, do you have some questions 
or comment?
    Senator Craig. I do.
    Senator Bennett. You are recognized.
    Senator Craig. And if you have to go----
    Senator Bennett. No. You go ahead, and then we--we both 
have to go at 11:00.
    Senator Craig. Oh, okay.
    Senator Bennett. We--we have--yes.
    Senator Craig. All right. Well, then I will--then we will 
move right along.
    Senator Bennett. Yes, we have a vote.

                       GENERATION IV TECHNOLOGIES

    Senator Craig. Gentlemen, thank you all for your testimony. 
I am pleased to hear your discussion about what is moving 
forward with nuclear energy and the concern, because I agree 
with you, Mr. Magwood, that where we are and where we need to 
be is--is very critical.
    The Department of Energy has named the Idaho National 
Engineering and Environmental Laboratory and Argonne National 
Laboratory-West as lead laboratories for advanced nuclear 
reactor development. The budget request, as you mentioned, 
includes $4 million for Generation IV advanced nuclear 
activities. What would DOE do--or what do you plan to do with 
that level of funding?
    Mr. Magwood. With that level of funding, we will be able to 
complete the Generation IV Technology roadmap. That roadmap is 
being administered and run largely by Idaho National 
Engineering Laboratory and Argonne National Laboratory. And 
they have been coordinating with the entire international 
research community to perform this effort.
    Without them, quite frankly, it would not be possible to do 
this, so much of those resources are being used by Argonne and 
Idaho to pursue the technology roadmap, and we should complete 
it on schedule by the end of next year.

                   NUCLEAR ENERGY RESEARCH INITIATIVE

    Senator Craig. Of course we understand that the budget 
request was cut by--well, there was an $18 million initiative 
there, the National Research--the National Energy Research 
Initiative, and that was cut down.
    What are the implications of this reduction--reduced 
funding level for ongoing multi-year proposals, and will the 
program be able to fund any new research proposals?
    Mr. Magwood. The Nuclear Energy Research Initiative (NERI) 
is down from last year, down to about an $18 million request 
for fiscal year 2002.
    We will not be able to support new proposals for 2002 with 
that funding level. This is somewhat of a concern to the 
research community obviously because we have been building some 
momentum with that program.
    However, I think it is appropriate that we not make 
commitments for new programs unless we are certain that NERI 
will continue. Until the Department sets its priorities based 
on the Vice President's analysis, we would not want to make any 
promises we could not keep.

                             INFRASTRUCTURE

    Senator Craig. Okay. I am concerned that funding requested 
for Argonne West in nuclear facilities management and--and 
infrastructure accounts is insufficient to meet the EBR2 spent 
fuel treatment deadlines and adequately maintain Argonne West's 
facilities as agreed to by DOE.
    At the requested funding level, will DOE be able to meet 
the fuel treatment deadlines and also maintain Argonne West 
facilities?
    Mr. Magwood. For fiscal year 2002, the answer to that is 
yes. We are able to meet our commitments. It is clear, however, 
that in the future we will require more funding to meet all the 
commitments, particularly for treating spent nuclear fuel, but 
for 2002, we would have sufficient funds to continue to work 
where necessary.

           UNIVERSITY NUCLEAR SCIENCE AND ENGINEERING PROGRAM

    Senator Craig. Okay. You mentioned the need to keep 
university reactors up and the emergency situation there. I 
recently co-sponsored a bill with the Chairman of this 
subcommittee, Senator Domenici, and others, to provide other 
$30 million for support to university nuclear science and 
engineering programs to address the critical need to educate 
the next generation of nuclear experts.
    The budget request is only $12 million for these programs. 
Do you feel the level of funding will adequately address the 
university needs, and does that fit into this emergency 
situation you are speaking to?
    Mr. Magwood. Clearly, the budget was structured long before 
we had clear recommendations from NERAC as to what actions the 
Department should take.
    We have now received those recommendations from NERAC, just 
yesterday. And while NERAC has not provided us with a specific 
target, it is clear that the current funding levels would not 
be adequate to respond to the need that NERAC has foreseen.
    We clearly have to look closely at the NERAC's 
recommendations. They recommended we hold a workshop among the 
university community this summer. And after that, we would be 
in a position to better estimate what the need would be. But it 
would be more than the current $12 million budget.

               ADVANCED SCIENTIFIC COMPUTING LEGISLATION

    Senator Craig. Thank you.
    Mr. Decker, I just happened to have come from the Commerce 
Committee where I testified on climate change. And a week ago, 
I was sitting with Dr. Charles Canal, who is the head of the 
National Research Council arm of the National Science--National 
Science Foundation as it relates to this overall study.
    We were talking about the need of coordinating Federal 
resources to get to the business of building a major computer 
model for us to determine our future and our policy as it 
relates to climate change.
    I think a lot of us forget that the Department of Energy is 
really a premiere science agency in many respects. And, of 
course, you have mentioned the human genome and the advanced 
computing applications worked on by DOE scientists. It is that 
computer capability that we need.
    We do not need to go out and acquire new super computers. 
We simply need to be able to work, to schedule accordingly--and 
that may well be an approach that comes from this 
Administration and others. We are all counciling together now 
to see where we can get as it relates to bringing our science 
and our scientists together.
    There is lots of good science out there. The question is 
the application, how it is analyzed, how it is peer-reviewed, 
and how it is applied. And it--probably from a regional and 
global standpoint, it is going to take a modeling that we are 
satisfied with compared to what we have been using.
    Are you aware of Senate Bill 193, and are you supportive of 
it?
    Dr. Decker. No, sir, I am not aware of that bill.
    Senator Craig. This would deal with--this is legislation 
related to advanced scientific computing programs within the 
DOE, within the Office of Science. I was just curious whether 
you were sensitive to that.
    Dr. Decker. I remember that there was some work being done 
on drafting a bill, but I do not think I have seen a recent 
version.
    Senator Craig. Well, my guess is we are going to be working 
even more closely. I do not know how much all of this will come 
together, but it is very possible that in the near future a 
great new project for the supercomputers will be working to 
help shape a model.
    Do I have time for one more question, or do you have some?
    Senator Bennett. Go ahead. Surely. Go ahead.
    Senator Craig. Okay.
    And this is for you, Mr. Dixon. Within the Office of Energy 
Efficiency, there is a program called Industries of the Future, 
which funds energy efficiency research and development divided 
by industry sector.
    One of the industry sectors involved in the program is the 
mining industry. This program funds projects related to 
advanced mining equipment and technologies aimed at improving 
the safety and the productivity of mining and processing 
operations.
    A total of only about $9 million has been spent on this 
program from fiscal year 1999 to 2001. Although the budget 
request for this program is only about $2 million in fiscal 
year 2002, this program is strongly supported by the National 
Mining Association and by mining programs at colleges around 
the country, such as the University of Idaho.
    Do you feel the amount requested in the budget for the 
mining industry program is adequate? Is $2 million sufficient 
to continue funding an ongoing multi-year--or the ongoing 
multi-year proposal?
    Dr. Dixon. Senator Craig, thank you for that question. The 
Industries of the Future's program is outside my specific 
jurisdiction, but I would be happy to take your question back 
to the Department and provide you an answer for the record.
    Senator Craig. If you would do that and we will help direct 
it, we appreciate that. Thank you very much.
    Dr. Dixon. Thank you, sir.
    Senator Craig. Mr. Chairman, thank you.
    [The information follows:]

                 Mining Industry of the Future Program

    The fiscal year 2002 congressional budget request of $2.11 million 
for the Mining Industry of The Future (IOF) program is an appropriate 
level. It will be used to maintain the funding of existing cost shared 
research programs targeted to increase cross cutting technologies in 
the coal and hard rock mining industries. It will also fund start up, 
costs shared, projects for mining industry wide processing research. 
These projects are aimed at energy savings while developing new, 
innovative, technologies that produce higher quality products at lower 
costs and protecting human health and the environment.
    Mining Industry of The Future research and development projects, 
supported by the Department of Energy laboratories, are displaying 
improved energy conservation, while improving industry visions of 
advanced technologies that produce higher quality products and enhance 
the United States mining industry as the world leader in mining and 
mineral processing. The processing roadmap projects that are initiated 
will develop new outreaching technologies that will continue to advance 
the mining industry.

                          NUCLEAR POWER PLANTS

    Senator Bennett. Thank you.
    Mr. Magwood, long before I came to the Senate, as a private 
citizen, I supported an increased use of nuclear power in the 
United States. It simply made sense to me. Now, as a Senator, 
the more I get into it, the more sense it makes to me, 
particularly in view of the California situation and the 
difficulties that we are facing with respect to power. So your 
comments are very welcome and very optimistic.
    My question is an unfair question, but we ask unfair 
questions all the time, and are asked unfair questions by the 
press all the time. How realistic is it?
    Do you really sense that the political atmosphere is such 
in this country now that we can, in fact, build a new nuclear 
plant; or do you think that the appeals, the protests, the 
pickets, the rest of the folklore that has been built up around 
nuclear power will still be so strong that, in fact, we cannot 
build a new nuclear plant regardless of what the science says?
    Mr. Magwood. I think it is very realistic and I will give 
you the best reason why. When you talk to people across the 
country, there are obviously a variety of views about nuclear 
power: however, the people who are generally most familiar with 
nuclear power and the most accepting of nuclear power are these 
who live in communities around existing nuclear power plants.
    They are very well informed due to the kinds of 
communications that take place with the utility. They reflect 
very high numbers in the polls when asked, ``Would you like to 
see more nuclear power plants built in the United States?''
    These communities would accept and have accepted the 
relicensing of existing nuclear power plants at existing sites. 
We believe that most utilities that are thinking about new 
nuclear power plants would build these new plants at existing 
sites.
    So instead of breaking ground at a greenfield site, they 
would add to the nuclear power plants at a site that is already 
in operation. I think that the public around those plants are 
finding that very acceptable. And utilities are having those 
conversations and are thinking about that very carefully right 
now.
    Senator Bennett. Well, I hope you are right. I am afraid 
that the protestors very often do not live anywhere near the 
site that they are protesting.
    I have had that experience in my own State. The Southern 
Utah Wilderness Alliance is made up of people who do not live 
in Southern Utah and, indeed most of them have never set foot 
in the State of Utah, but they are--I will not go down that 
road anymore. I am sorry.

                      RECYCLING SPENT NUCLEAR FUEL

    Let us talk about recycling spent fuel in less toxic ways. 
You mentioned that in your opening statement. Bring me up to 
date on where the science is and how--how close we are to--to 
getting nuclear waste to a much more benign state.
    I know you cannot ever reduce it completely to common dirt, 
but you can at least lower it from what it used to be. And just 
kind of go there for a little--for a little while with me.
    Mr. Magwood. Sure. It is an interesting subject, obviously 
over the last several years, it has been very difficult to have 
much of a conversation in the country about it. There was not 
really a political environment to have a discussion about the 
possibility of recycling spent nuclear fuel.
    Currently there is policy on the books that would prohibit 
the recycling of spent nuclear fuel. I think this is something 
that needs to be evaluated.
    Senator Bennett. Is that a Congressional mandate, or is an 
executive----
    Mr. Magwood. There is an executive order.
    Senator Bennett. Executive order, okay.
    Mr. Magwood. Rather Presidential decision directive, number 
13, I believe.
    We have had significant conversations with other countries, 
particularly the Japanese and the French, about advanced 
recycling technologies and also the use of high energy 
accelerators to transmute nuclear waste into less toxic forms.
    I was talking to Burt Richter, the chairman of our NERAC 
Subcommittee, about this just yesterday. He told me that his 
calculation is that compared to spent nuclear fuel, which has a 
life of about 300,000 years, he believes that after going 
through recycling and transmutation, the resulting waste would 
last only about 3,000 years.
    He also said that is just about the lifetime of the 
pyramids, so obviously we can deal with that. That was his 
quick analysis.

                     PUREX REPROCESSING TECHNOLOGY

    There are clearly a lot of technical issues that remain. We 
would not want to see a vast expansion of the Purex 
reprocessing technology, which is practiced in Europe.
    It creates a significant amount of separated plutonium. It 
also creates large amounts of high-level waste that would need 
to be dealt with. But there are prospects for more advanced 
technologies, such as accelerator transmutation to address 
these situations.
    While I think we are not there yet, I certainly think that 
over probably about a 10-year period we could find technologies 
that would enable us to deal with nuclear waste. As you know 
the Department recently submitted a 10-year plan to Congress on 
the potential of using accelerators to transmute nuclear waste.
    Senator Bennett. That is encouraging, because aside from 
the waste issue--and I do not mean to minimize the waste 
issue--nuclear power is the cleanest and safest--I guess with 
the exception of hydroelectric.
    But there is great opposition also to the building of dams. 
Indeed, there are those who say we must take down the dams that 
we currently have.
    But nuclear power has the best safety record of any power 
plant that we operate. Is that not true or--is that hyperbole 
that I have heard that needs to be corrected?
    Mr. Magwood. Well, I have never heard of anyone killed by a 
solar cell. But I think that it is clearly true that----
    Senator Bennett. I do not know, sun cancer.

                             NUCLEAR SAFETY

    Mr. Magwood. I think it is clearly true that when you look 
at the fuel cycle of any source of electricity, be it coal, or 
natural gas, that there have been, injuries and deaths 
associated with these industries.
    However, in the United States, I do not think that anyone 
has ever been killed from the use of nuclear power. But there 
is a little hyperbole there, because there is, of course, with 
nuclear power the need to carefully manage the materials, to 
make sure the spent fuel is dealt with appropriately.
    Senator Bennett. Yes.
    Mr. Magwood To make sure that the plants are operated 
safely. As long as these things are done, nuclear power is very 
safe, and in this country it has an excellent record that we 
are very proud of. So I would conclude that nuclear power is 
very safe.
    Senator Bennett. Yes. I am glad to have you add that 
caveat, because we need to, ``in this country.''
    Obviously, the specter of Chernobyl is there for the 
problems of nuclear in places where they do not do the kinds of 
things that you have described and that your office is involved 
in.
    Senator Dorgan.
    Senator Dorgan. Mr. Chairman, thank you very much. I regret 
I had two other hearings and another meeting this morning, so I 
missed the----

          FISCAL YEAR 2002 BUDGET REQUEST FOR RENEWABLE ENERGY

    Senator Bennett. We understand, because we have all been 
cycling through here.
    Senator Dorgan. I missed the testimony, but I have reviewed 
it. And I would like to ask a couple of questions, especially 
about renewable energy, if I might.
    The renewable energy budget request for solar, wind, 
biomass, hydrogen, geothermal, hydropower, and so on, research 
and development is $237.4 million or a cut of 36 percent. I am 
very disappointed by that.
    Obviously, we are facing very serious energy issues that we 
have to deal with. We are talking about increased production 
needs, increased conservation needs and so on. In my judgment, 
part of the solution is to continue to work to make renewable 
commercial and acceptable and to have it contribute to our 
energy supply.
    Now, Dr. Dixon, you indicated there would be a budget 
amendment, and that is helpful, but it will still leave us far 
short of what we had last year and where we ought to be, in my 
judgment.
    Let me just run through a couple of numbers. A $135 million 
cut, or a 36-percent cut from last year in renewables. The wind 
energy program is $20.5 million. Last year, the budget request 
was $50.5 million. That is a dramatic cut in support from the 
Administration.
    Last year it was a substantial increase. This year, it is a 
dramatic request for a cut. Last year, we appropriated $39.5 
million for wind. This year, you are asking for a cut nearly in 
half for wind energy. It seems to me like you are moving in 
exactly the opposite direction in this budget.
    Can you tell me what the basis would be for taking the 
renewable section and gutting it?
    Dr. Dixon. Thank you, Senate Dorgan. I believe your summary 
of the--the historical budget information is correct.
    Just for the record, our 2002 budget request will total 
almost $277 million with a $39 million amendment, which is 
finding its way up to Capitol Hill.
    I would like to refer you to the Secretary of Energy's 
statement when the President's budget was announced about 3 
weeks ago. The Secretary of Energy specifically identified the 
hydrogen, high-temperature superconductivity, geothermal, and 
wind energy research programs, that they were maintained at 
levels that provide a launching point for new initiatives 
following the release of the Vice President's energy 
development task force report.
    Senator Dorgan. What does that mean?

                          ENERGY POLICY REPORT

    Dr. Dixon. The report will contain a number of chapters 
which address a variety of energy sources including renewable 
energy, and we have all been working together on the report. 
And we understand that our input is being considered and that 
there will be recommendations with regard to all energy sources 
in the future, development of those energy sources, including 
renewable energy.
    So the wind energy program would be well positioned to be 
launched, pending the recommendations of that report.
    Senator Dorgan. Do you know something? I do not have any 
idea what you just said, Dr. Dixon. I admire your public 
service but I just do not understand. You dig a hole and then 
talk about positioning for a launch.
    Wind energy, which in my judgment has significant promise 
for this country. Let me just deal with wind for a moment. The 
efficiencies of the new wind turbines are very substantially 
improved. The capabilities for wind energy to be commercial and 
provide substantial opportunities for this country are 
enormous, and it looks to me like the proposal, even with the 
add-back is to cut wind energy by 50 percent. That does not 
make any sense to me.
    I think you are saying, ``Well, maybe, when the Vice 
President comes out with his program, we are going to launch 
something new,'' but, you know, you do not launch from a hole. 
And you are digging a hole here.
    I do not mean to diminish what you just said. I just do not 
understand it. Any way to be more clear?
    Dr. Dixon. Well, I think we need to wait for the 
recommendations of the Vice President's task force----
    Senator Dorgan. Do you think that that is----
    Dr. Dixon [continuing]. And hopefully that will provide 
some clarity with regard to the future priorities and 
directions of these programs.
    Senator Dorgan. Is there some hope among this panel that 
the Vice President's task force will recommend at least 
equivalent funding, if not increased funding from last year 
with respect to wind energy, solar, biomass, hydrogen, 
geothermal, et cetera?
    Dr. Dixon. Well, again, I would refer you to the 
Secretary's statement in which he specifically identified the 
wind energy program as being well positioned to be launched 
based upon the recommendations of the report.
    Senator Dorgan. But that, of course, is at odds with the 
budget recommendation. So let me try again.
    Are you saying that there is some possibility that when the 
Vice President announces his program that we may actually see 
wind energy funded at least at last year's level and perhaps an 
increase? Does that possibility exist in your judgment?
    Dr. Dixon. That possibility exists.
    Senater Dorgan. Can I call you?
    Dr. Dixon. Yes.
    Senator Dorgan. Let me just say that I think this is an 
awful time to be cutting these areas. I guess when you do your 
add-back here in 2 weeks, you are going to submit a budget 
amendment. And that amendment excludes, as I understand it, 
wind energy. The budget amendment is going to add to some 
renewables. But it will still come up far short.
    You are saying in addition to this adding back, which 
represents a judgment that we are short, the Vice President 
will probably add back even further in some areas. Why would 
the 2-week add-back not include the Vice President's 
recommendations?
    Dr. Dixon. Well, of course, the report is still a work in 
progress. And the amendment that is finding its way up here 
would address those priorities of the Secretary of Energy.
    And we are hopeful that, in fact, the recommendations 
provide a clear list of priorities, and investments would be 
aligned with those priorities.

                              WIND ENERGY

    Senator Dorgan. Last year, 54 Senators joined me in sending 
a letter to the Chairman and the Ranking Member supporting the 
renewables program. These 54 members of the U.S. Senate signed 
up to say, ``Yes, we think this is really important.'' It is 
much more important this year, given what we see with respect 
to our energy problem.
    We have to do a lot of everything. We have to find more, 
produce more. We have to conserve more. We have to do a lot of 
everything.
    In my judgment, because I am a big fan of these areas, we 
especially have to find ways to bring renewable technologies 
into the commercial sector through research and development.
    We are making great progress in doing that. Again, I have 
spent some time on the issue of wind energy myself and I am 
mightily impressed by the new technology in wind turbines.
    The last thing we ought to do is slip and slide back on 
this issue. And that is what the budget does.
    The add-back excludes wind; would you agree with that?
    Dr. Dixon. Yes.
    Senator Dorgan. Okay. So we have about a 50-percent cut in 
wind energy and you are going to have an add-back that excludes 
wind and I am to leave here hoping that we have dug a hole we 
are going to launch from when the Vice President offers his 
advice on renewables.
    Well, I have got your phone number, Mr. Dixon, and you and 
I will chat again. I did want to at least come here and say 
that I think this energy issue we have is an abiding issue. It 
is a very difficult issue.
    Some say, ``We will drill in ANWR, and that is the 
solution.'' Some others say, ``Renewables,'' but we are not 
going to get our way out of this very quickly. And we have not 
had a decent energy policy under any administration, Republican 
or Democrat.
    We are trying to find our way to do a lot of things, some 
of them very difficult. I am not a big fan of nuclear energy, I 
might say.
    But, you know, I understand all the discussion about all 
these things, because this country is in a bind on energy. And 
we need to do a lot of things and do them right.
    And included in that, at least from my little perspective 
here, is renewables. And I am terribly disappointed in the 
budget and very much hope that there would be good news coming 
from the Vice President's recommendations. But I must tell you 
that in the discussions that I have been privy to, I have heard 
talk about things other than renewable in a substantial way.
    Mr. Chairman, we have a vote.
    Senator Bennett. Yes.
    Senator Dorgan. Thank you for indulging me, even though I 
was late.
    Senator Bennett. No, no, not at all.
    Senator Dorgan. Thank you very much.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Bennett. Senator Domenici's opening statement will 
be included in the record, and his questions will be submitted 
in the record.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

    Questions Submitted to the Office of Power Technologies, Energy 
                    Efficiency and Renewable Energy

               Questions Submitted by Senator Harry Reid

                                  wind
    Question. The fiscal year 2001 Wind Energy Systems appropriation 
directed $100,000 to be provided to the Turtle Mountain Community 
College in North Dakota for a wind turbine for educational purposes. 
What is the status of this activity?
    Answer. The Department's Wind Energy Systems Program has authorized 
this funding to the Golden Field Office, and negotiations are currently 
underway for the award of a grant to the College. We look forward to 
helping Turtle Mountain Community College make this project a 
successful experience for educating themselves and their community on 
the many benefits of wind energy.
                               geothermal
    Question. Why has the Department chosen to close out all Geothermal 
systems field verification projects?
    Answer. Funding has already been provided under the existing field 
verification contracts for completion of preliminary engineering 
designs. The documentation of those designs will provide a useful basis 
for decisions regarding future power plant developments and may be 
sufficient to attract the private sector investment needed to complete 
the current projects.
    Question. What is the status of the $2,000,000 Congressional 
earmark for the Lake County Basin 2000 Geothermal Project in 
California?
    Answer. The Department's Idaho Operations Office has established a 
grant for the Lake County Sanitation District as a result of the 
$2,000,000 Congressional earmark. The funds will be used to complete 
the second phase of a pipeline project to transport treated wastewater 
to The Geysers geothermal steam field for power generation activities. 
The Department is pleased the project will provide benefits to Lake 
County residents and help maintain stable power production.
                                hydrogen
    Question. How much funding are you prepared to provide to the 
Nevada Test Site to develop the fuel cell locomotive and front-end 
loader?
    Answer. In fiscal year 2001 Congress appropriated $2 million for 
the development of a PEM fuel cell powered front-end loader for 
underground mining applications. This vehicle is intended to be 
refueled and tested in an underground mine in Nevada.
    The goal of this fuel cell project is to develop and validate an 
articulated front-end loader capable of operating in deep mines without 
any of the emissions normally produced from diesel engines. This 
project will demonstrate the ability of the fuel cell to provide the 
power density necessary for a single shift operation, and interface 
dynamically with the rest of the mining equipment with the advantages 
of a longer-term storage system than a battery system. This technology 
offers application opportunities for both U.S. and Canadian mines. The 
Canadian government is also providing cost share funding.
    A solicitation was issued for the design, development and 
manufacture of a locomotive and front-end loader for Nevada mines, and 
responses were received on March 1, 2001. The proposals are in the 
process of being evaluated. Provided there is a favorable review by the 
merit review committee and the proposal meets programmatic factors for 
a technology validation project, there should be a procurement decision 
shortly.
    The Department expects to expend the entire two million dollars 
that has been allocated for this project in fiscal year 2001.
                           superconductivity
    Question. There was an increase in the fiscal year 2001 
appropriation to accelerate development on the ``second generation'' of 
HTS (high temperature superconductivity) wires. What has resulted?
    Answer. The funding increase was used to accelerate cost-shared 
research with several private sector companies and to better equip Los 
Alamos and Oak Ridge national laboratories to effectively work with 
U.S. industry to develop the ``second generation'' of HTS wires.
    The funding has been used at Los Alamos to hire three new staff 
members and to purchase state of the art research equipment for a new 
10,000 square foot laboratory in the Industrial Research Park now under 
construction at the LANL site. The research park will host joint 
laboratory/industry research for accelerated HTS wire development. 
Dedication of the new laboratory will take place this summer.
    The funding has also been used at Oak Ridge to equip a renovated 
2,300 square feet laboratory space where research previously conducted 
in several separate laboratories has been consolidated. The new 
laboratory was dedicated on April 19, 2001 in a ceremony attended by 
House Science Committee staff. A new permanent Oak Ridge staff member 
and two post-doctoral research fellows have been hired to staff the 
laboratory.
                                biomass
    Question. What is the status of the Iowa switchgrass project and 
are you requesting funds for the continuation of this project?
    Answer. The Iowa Chariton Valley switchgrass project was awarded on 
a Rural Development competitive solicitation to demonstrate closed loop 
biomass co-firing with coal. This project has great potential to 
successfully verify the co-firing of switchgrass with coal and the 
potential for establishing a new alternative energy crop that can 
provide financial benefits to the farm economy. The cooperative 
agreement is a three-phased arrangement. Phase 1 is defined as: 
Integrated system development, engineering, and environmental 
permitting and licensing; Phase 2 as a demonstration phase is comprised 
of the establishment of the biomass crop, facility construction, and 
testing of both the supply system and the conversion facility; and 
Phase 3 as a commercial operation phase in which the integrated biomass 
production and conversion facility will be functioning in a commercial 
operations mode without Federal funds.
    We are currently negotiating the advancement of the project from 
Phase 1 to Phase 2 which will use fiscal year 2001 appropriations and 
the work will be completed as part of each Phase. The program has 
planned for up to $3 million of the fiscal year 2002 requested budget 
to be directed toward this project, however, this is dependent upon the 
results of the aforementioned ongoing negotiations.
                                 solar
    Question. For the last several years, your office has been 
extolling the virtues of PV--now you are reducing the PV budget by 
about 50 percent. What changed your mind about the benefits of PV?
    Answer. We have not changed our mind. We will continue core 
research and development in photovoltaics. The reduction in funding 
reflects the early achievement of agreements to meet the goals of the 
Million Solar Roofs program. In addition, the Administration will be 
examining other options for expanding the use of solar power.
    Question. Do you still believe in the technology?
    Answer. Yes, but the Nation needs a balance of clean and reliable 
near-term and long-term energy options; if our new National Energy 
Policy is to succeed, we will need to make adjustments in funding for 
programs based on overall National priorities.
    Question. How will reduced funding impact our U.S. industry?
    Answer. The photovoltaic industry in the United States is growing 
rapidly. For example, U.S. photovoltaic manufacturing has increased by 
about 20 percent per year for a decade. The Administration will 
continue to examine other avenues besides R&D funding to ensure that 
this industry will continue to grow.
                          million solar roofs
    Question. You have not requested funding for the Million Solar 
Roofs Initiative. What happened to these activities?
    Answer. The Million Solar Roofs Initiative (MSRI) served as an 
organizing impetus for more than 50 state and local community solar 
partnerships, which include people and groups with a broad range of 
interests and expertise in solar. These partners have already committed 
to seeing that more that one million solar energy systems are installed 
on homes and buildings across the nation in these communities by 2010. 
We regard the mission of this program successfully completed.
    Question. What was accomplished with these funds?
    Answer. The Million Solar Roofs Initiative (MSRI) provides direct 
technical and information service to the more than 50 state and local 
community solar partnerships which volunteered to promote the use of 
solar technologies in their communities. No funding was used for 
subsidizing or purchasing equipment. The bulk of the 6.8 million 
dollars in funding from fiscal year 1999-2001 was distributed as small 
grants to community partnerships to be used for planning and 
implementing community based activities meant to encourage solar energy 
deployment. The partnerships benefit from the information outreach and 
barrier reduction tools (such as training programs, web based 
information, informational brochures) that were developed under the 
program. All program milestones were met ahead of schedule.
                              reliability
    Question. What is Reliability?
    Answer. The long-held definition of electric reliability is that 
the power system is able to provide a secure and adequate amount of 
electric power to meet customer demand. ``Secure'' means that reserve 
system capacity is maintained to meet unexpected contingencies like a 
sudden loss of a large generator or transmission line, and ``adequate'' 
means that sufficient generation and transmission capacity is available 
to supply the projected load. Normally, system operators maintain 
reserve capacity for a contingency that is equivalent to the loss of 
the largest generator or transmission line in the system. Adequate 
power is the amount needed to serve the peak load for the coming year, 
usually caused by air conditioning load during extended periods of 
extreme heat, plus reserves for contingencies. If these conditions are 
not met, system operators are likely to institute voltage reductions 
and rolling blackouts rather than risk damage to equipment or system 
voltage collapse that could result in extended wide spread outages. 
Reliability can be compromised by either inadequate generation or 
transmission.
    A variation of reliability is the high power quality required in 
today's digital economy. Highly sensitive digital equipment used in 
process controls, internet routers, and e-commerce requires an 
extremely stable and continuous voltage and power supply. This power 
quality is being supplied today by combinations of multiple utility 
feeds to these customers as well as distributed generation and energy 
storage incorporating high speed power electronic switching sited near 
the sensitive load.
    Question. What is this program doing to support the Western 
Situation?
    Answer. The Transmission Reliability (TR) program is engaged in 
research and development activities to address both the generation and 
transmission problems on the Western electric power system.
    The Transmission Reliability program is supporting installation of 
a voltage monitoring system that includes enhanced visualization to 
allow California's transmission operators to view the health of the 
system in real time and take pro-active steps to avert emergency 
situations. Other prototype reliability tools capable of tracking 
generator outputs and power flows throughout the Western system will be 
available this year. The TR program is also working with California 
regulators and system operators to adapt existing interruptible load 
programs to allow loads to respond to system emergencies and high 
prices. The Program is also supporting the development of advanced 
composite conductors that can be used to replace existing conductors to 
carry two to three times the power, and relieve transmission 
bottlenecks.
    On the generation side, strategically located distributed 
generation can also relieve transmission bottlenecks, provide capacity, 
and enhance power quality to sensitive customer loads. While economic 
incentives for conventional generation are provided through competitive 
markets, TR program support is being directed to help clear the 
regulatory, technical, and institutional barriers to the deployment of 
significant numbers of small distributed generation and storage 
technologies sited near the customer load. The Program is supporting 
the accelerated development of standards to interconnect distributed 
generation, along with energy storage, into the system and developing 
models to optimize their penetration into the distribution system to 
provide highly reliable energy and power quality services into 
competitive markets. Planning is underway for distributed generation 
test beds at various locations, including the Nevada Test Site, to 
evaluate and certify these interconnection standards and system models.
                               renewables
    Question. We need to increase energy supply and reduce demand. How 
does cutting the renewables program help the nation increase its supply 
of energy, a supply that doesn't pollute the air and water?
    Answer. Renewable energy resources provide a comparatively small, 
but still important, percentage of energy in the United States today. 
Depending upon water availability for hydroelectric production, 
renewables provide between nine and twelve percent of our Nation's 
electric power. Two to three percent of this electricity comes from 
non-hydro and non-wood renewable resources today. Since the U.S. demand 
for energy continues to climb, the Department believes the most 
responsible course of action is to focus its energy production R&D 
dollars on those technologies with the greatest potential for providing 
affordable electricity, heat, and liquid fuels for the American public. 
Research in renewables is only part of the solution to the energy 
supply program. We will also strive to ensure that these technologies 
do not compromise our shared goals for a clean environment.
    Question. The OPT strategic plan calls for a tripling of U.S. 
capacity of non-hydroelectric renewables by 2010. That's a change from 
3.5 percent today to about 10-11 percent in 2010. How will that be 
accomplished with the reductions in funding for renewable R&D? Is all 
the technology in place to triple the renewable supply? By the way, EIA 
predicts U.S. renewable capacity will remain essentially flat through 
2010.
    Answer. First to clarify, the OPT strategic plan referred to the 
tripling of non-hydroelectric, non-biomass ``new'' renewable 
electricity generation. It excluded from the 1997 baseline traditional 
biomass electricity generation such as the pulp & paper industry's use 
of wood waste to generate electricity with a relatively low efficiency 
boiler/steam turbine configuration. Thus, the baseline in 1997 was 
8,300 MW (according to EIA's Annual Energy Outlook). A tripling of this 
would be 25,000 MW, which our Fiscal Year 2001 Government Performance 
and Results Act (GPRA) metrics indicated we could reach by 2010, 
assuming flat fiscal year 2001 funding into the future and no policy 
change. We used this analysis last spring to support the goal stated in 
the strategic plan. In contrast, 10-11 percent of EIA's projected 2010 
capacity would be 93,000-103,000 MW, which is larger than this 25,000 
MW goal.
    Our preliminary GPRA estimate for the requested fiscal year 2002 
budget is that the tripling of non-hydroelectric ``new'' renewables 
would now be achieved by about 2015. (See p. 266 of the budget request) 
However, our estimate does not take into account the effect of the 
removal or reduction of non-funding barriers like siting and 
permitting, or the addition of financial incentives.
    To date, we have only one detailed technology analysis--for the 
Wind Program--of the impact of the fiscal year 2002 amended request, 
assuming flat fiscal year 2002 funding into the future and no policy 
change. This analysis indicates that we do have the technology ``in 
place'' for wind's contribution to tripling the renewable supply by the 
delayed goal year of 2015--mainly by exploiting class 6+ (high average 
wind speed >15 mph) winds. Longer term goals to tap more abundant class 
4 winds (moderate average wind speed of 13 mph) will be pursued on a 
slower track, because the funding changes could affect the advances in 
applied R&D and slow market penetration. Increased market incentives 
would help class 6 wind technology enter the market more quickly, but 
would have less impact on class 4 wind technology which requires more 
R&D. We are working on detailed estimates for all OPT technologies with 
major changes in funding levels in fiscal year 2002 relative to fiscal 
year 2001.
    Question. It's nice to see funding for the ``hydrogen'' program 
held constant, but it should increase. To prevent pollution, hydrogen 
must come from splitting water (i.e., electrolysis) using a renewable 
or clean energy source--and not from cooking a hydrocarbon source. So, 
why are we cutting renewables that should be the primary source to 
generate hydrogen.
    Answer. The Department strongly supports the Hydrogen R&D program 
and has structured a balanced approach for pursuing the development of 
hydrogen production, storage, infrastructure, and utilization 
technologies. Substantial progress toward achieving the much-discussed 
``hydrogen economy'' may be possible within the next twenty to forty 
years. In the near term, our approach is to cost-effectively produce 
hydrogen from existing resources as cleanly as possible, with longer 
term goals of cost-competitively producing hydrogen from renewables or 
other clean sources. With regards to the former, within the DOE 
Hydrogen program itself today, we are studying innovative methods for 
extracting hydrogen from readily available fossil fuels and 
sequestering the carbon so that it does not enter the atmosphere. We 
are also funding research on photobiological methods for producing 
hydrogen, using specialized bacteria as the hydrogen production source. 
Finally, cost-effective hydrogen may also someday be produced by using 
excess electric production from renewable energy technologies to split 
water into hydrogen and oxygen during non-peak times. This opportunity 
may well help enable certain renewable energy technologies achieve 
better cost profiles and enter the marketplace faster due to their 
expanded product capabilities. However, it is important that these 
renewable energy technologies also attain significant marketplace value 
in their own right. The Department continues to fund renewable energy 
research and development at adequate levels.
    Question. It sounds fantastic, but a 100 mile by 100 mile 
photovoltaic array placed in Nevada today could actually meet the 
entire country's energy needs. Why, then, are we cutting solar 
renewables by more than 50 percent ?
    Answer. The Department's current Solar Energy Technologies program 
focuses on three principal areas: Concentrating Solar Power, 
Photovoltaics, and Solar Buildings technologies. Research on 
Concentrating Solar Power has pursued three types of applications--
power towers, solar troughs, and dish/engine systems. DOE's power tower 
R&D and analysis was completed in fiscal year 2000. Commercial power 
tower systems are currently being developed in Spain, with Morocco and 
Egypt also actively considering use of these systems. While this 
generation of technology is not generally considered cost-competitive 
for use in the U.S. at the present time, one could reasonably expect 
that industry will continue to make incremental technology and 
operating and maintenance improvements that may one day allow their 
introduction into the U.S. market in appropriate locations. Solar 
troughs have been operating in the U.S. Southwest for a number of 
years. Substantial federal funding leading to big improvements in 
operating and maintenance cost reductions and the potential for new 
thermal storage techniques to increase energy efficiencies suggest that 
it is time for Federal R&D on this application to end. Finally, DOE 
research has led to the development of several sizes of solar dish/
engine systems that can provide onsite, village, or even utility scale 
electric power. While these dish/engine systems require a modest amount 
of additional R&D, we believe that the private sector partners can be 
encouraged to carry out any further efforts.
    In Solar Buildings, research and testing on new polymers for key 
components of an advanced solar hot water (SHW) system that cuts costs 
in half and weighs 50 percent less is entering the final phases of R&D. 
Thus the portion of the request pertaining to SHW development is less 
than in prior years. Additionally, the funding in this area maintains 
the core of other solar buildings research.
    Finally, the reduction in funding requested for photovoltaics 
reflects the early achievement of agreements to meet the goals of the 
Million Solar Roofs program and refocusing of the rest of the program 
on essential R&D.
    Question. Nevada is the Saudi Arabia of geothermal and can develop 
2500-3700 MW by 2010, meeting a significant fraction of the State's 
energy needs. Why are we cutting geothermal renewables in half, 
especially since these resources are in the West?
    Answer. The budget will maintain an adequate level for the 
Geothermal Program. The Program will focus at exploration and resource 
characterization and plans on providing technical support to better 
define the resource potential. We agree that Nevada possesses 
substantial geothermal resources. But a sizeable fraction of those 
resources has not been well defined or characterized to allow 
development. To the extent possible, the Program will work with 
industry to develop and provide the tools and information needed by 
Nevada and other states to explore and characterize the potential of 
their geothermal resources. In addition, the Administration will look 
for ways to reduce regulatory and siting barriers to increased 
geothermal use--key priorities of the industry.
    Question. If we added $135 million to the EE/RE budget, where would 
you put it?
    Answer. Based on recommendations in the National Energy Policy, the 
Office of Energy Efficiency and Renewable Energy has been asked to 
begin a strategic review of its programs' current funding and historic 
performance. The National Energy Policy also calls for such a review of 
the Renewable Energy program. Based on this review, we will propose 
appropriate funding of those research and development programs that are 
found to be performance-based and are modeled as public-private 
partnerships. We will be able to make more specific recommendations as 
our program reviews progress.
    Question. What would the impact be on the solar, geothermal and 
wind industries and their potential to supply additional clean power in 
the near future if this budget request goes through?
    Answer. The benefits to our Nation's energy portfolio from these 
domestic energy technologies will be impacted but in varying degrees as 
each has a different time frame for R&D needs.
    The main constraint impacting the near-term supply of photovoltaic 
(solar electric) energy systems is limited manufacturing capacity. 
Reduced Federal spending on photovoltaic R&D may potentially affect 
progress in expanding manufacturing capacity; the private sector will 
have to increase its investment in R&D to address this problem. 
Reductions in longer term research will not impact the near term 
potential for photovoltaics to supply electricity, but will result in 
slower progress toward the next generation of photovoltaics and 
manufacturing technology.
    In the geothermal industry, the slower pace of research and 
development to decrease costs will extend the time-frame for potential 
new geothermal facilities to be installed. Geothermal technology goals 
leading to commercialization of the next generation systems will be 
extended.
    Technologies presently under development by the DOE wind energy 
program, in conjunction with the U.S. wind industry, can enable a 
twenty-fold or more expansion of usable wind resources and make wind 
energy economically viable without the need for Federal incentives.
    DOE wind and geothermal programs will turn over to industry the 
efforts to characterize resources and identify technical and market 
barriers to supply.
    Question. What is the Department's goal for renewable energy's 
share of electricity generation.
    Answer. The official DOE renewable energy goal as published in the 
April 2001 DOE Performance plan states: ``The Department's research, 
development and deployment efforts (past as well as current) will help 
contribute to \1\ nearly 25,000 megawatts of non-hydroelectric 
renewable \2\ generating capacity by 2015.'' The Energy Information 
Administration estimates that total U.S. electricity generation 
capacity in 2015 will be 994,400 MW. Thus, DOE's tripling goal for non-
hydro, non-wood renewables would translate into an estimated 2.5 
percent of total electric generation capacity by 2015.
---------------------------------------------------------------------------
    \1\ Other factors other than the OPT program such as production tax 
credits for renewables, state renewable portfolio standards, 
international (especially European) programs also contribute to this 
goal.
    \2\ This also excludes electricity generated with pulp & paper 
industry by-products.
---------------------------------------------------------------------------
    Question. Why is the Indian renewable resources program zeroed out?
    Answer. All projects presently being undertaken by this program are 
scheduled to either be completed or are assumed to be continued by 
private sector partners. No further funding is being requested in 
fiscal year 2002 in order to support higher priorities within Renewable 
Energy Resources programs.
    Question. What portion of the EE/RE budget, if any, is intended to 
help satisfy our commitment to reduce greenhouse gas emissions?
    Answer. None of the EE/RE budget is undertaken specifically and 
solely to reduce greenhouse gas emissions. Instead, the EE/RE programs 
address a wide variety of public interests-including reducing energy 
costs for consumers, reducing local, regional, and global environmental 
burdens and impacts, reducing oil consumption, and maintaining U.S. 
leadership in energy science and technology. At the same time, 
virtually all of the EERE programs support RD&D on or the deployment of 
technologies that reduce greenhouse gas emissions, either through 
reducing the use of fossil fuels or by substituting renewable energy 
for fossil fuels--and most renewable energy produces no or very small 
amounts of net greenhouse gas emissions. EERE programs have particular 
value because they provide these multiple benefits simultaneously.
    Question. What impacts will these proposed cuts have on achieving 
the petroleum displacement and renewable energy production (and 
consumption by Federal facilities--FEMP) goals in the Energy Policy Act 
of 1992?
    Answer. The reduction in the 2002 budget of the Federal Energy 
Management Program will not have a direct impact on the Federal energy 
reduction goal in the Energy Policy Act of 1992. The EPACT goal called 
for a 20 percent reduction in Federal building energy by 2000 compared 
to 1985 when measured on a Btu-per-square-foot basis. This goal was 
achieved in fiscal year 1999 with a reduction of 20.7 percent and 
preliminary data for fiscal year 2000 indicates a reduction of greater 
than 21 percent.
    Question. What is the current electricity bill for Federal 
facilities? How much of the that could be met using renewables? What's 
the average price per kilowatt hour paid in DOE regions?
    Answer. During fiscal year 1999 (the latest year for which 
finalized data is available), the Federal Government spent $3.033 
billion for 54,057.3 gigawatt-hours of electricity. This translates 
into a national average price per kilowatt hour of $0.056. Average 
prices by DOE region of Federal Government purchased electricity is 
unavailable because Federal agencies do not report energy consumption 
and cost data on a state by state basis.
    Using national generation data from the Energy Information 
Administration, we estimate that approximately 10 percent of 
electricity consumed by the Federal Government is already generated 
from renewable sources as part of the conventional electrical 
distribution system (i.e., including large-scale hydropower).
    Excluding electricity from hydropower, the Government is working 
toward a goal of using the equivalent of 2.5 percent of facilities' 
electricity consumption from new renewable energy sources by 2005. 
Using 1999 Federal energy consumption data as the basis for 
calculations, the 2005 goal translates to 1,351 gigawatt-hours of 
electricity annually that will come from new renewable sources. A 
preliminary analysis conducted last year found that 173 GWh (0.3 
percent of total consumption) of new renewable energy was either 
already in use or available under contract in the Federal sector. In 
addition to purchasing renewable electricity, agencies are pursuing 
renewable energy in the form of solar thermal applications and 
distributed energy resources that use photovoltaics, wind power, and 
biomass, among other renewables. We believe these activities will 
result in meeting that goal. The Department will continue to monitor 
and report progress by Federal Government agencies in meeting the 
Executive Order 13123 goals which implicitly includes the renewable 
goal.
    Question. If Federal facilities were required to purchase at least 
7 percent of their electricity from generators using renewable energy 
sources, what would the avoided pollution benefits be? What is the 
current percentage?
    Answer. Using national average generation mix and carbon 
coefficients from the Energy Information Administration, a renewable 
electricity purchase of 7 percent of the Federal facility total would 
represent emissions of approximately 600,000 metric tons of carbon 
equivalent annually.
    Using national generation data from the Energy Information 
Administration, we estimate that approximately 10 percent of 
electricity consumed by the Federal Government is already generated 
from renewable sources as part of the conventional electrical 
distribution system (i.e., including large-scale hydropower).
                           energy efficiency
    Question. How much money has industry saved as a result of energy 
efficiency programs? Isn't there a huge return on investment?
    Answer. As a result of DOE research and development partnerships 
with industry, over 140 technologies have successfully reached the 
marketplace since 1980. The documented cumulative energy savings of 
these technologies and other Office of Industrial Technologies (OIT) 
programs was approximately 1.6 quads through 1999. Using an industrial 
energy price of $6.3 billion per quad (source: Energy Information 
Agency), the cumulative energy cost savings to industry to date is over 
$10 billion; in 1999 the savings in that year alone was $1.2 billion.
    It is difficult to accurately calculate the return on investment, 
since the technologies developed are usually the result of multi-year 
research and program efforts with substantial contributions from 
industry. The cumulative savings of $10 billion from these technologies 
and programs was achieved with the cumulative fiscal OIT budgets over 
that time of less than $2 billion. However, this comparison includes 
neither the private sector cost share nor the investment that is 
required to commercialize and deploy these technologies, and where 
technology was replaced, no allowance was made for competing technology 
efficiency. On the other hand, the comparison does not include the 
significantly larger cost savings over the expected future life of the 
technology nor from the productivity, environmental, and safety 
benefits of these technologies. It also does not include the indirect 
cost benefits from OIT programs, such as knowledge transferred through 
workshops, case studies, grants, information clearinghouses, decision 
tools, and cooperative programs with state and local agencies. These 
integrated efforts facilitate the adoption of best energy practices in 
industrial facilities and accelerate the development of other advanced 
technologies.
    Question. Doesn't it make better sense to promote energy 
efficiency? Isn't it cheaper to save fuel than to buy fuel.
    Answer. We cannot simply conserve our way out of our current energy 
needs. Consumers can invest in more energy efficient appliances and 
equipment when it makes economic sense for them to do so, and energy 
efficiency is certainly a vital component of the recommendations made 
by Vice President Cheney's National Energy Policy report. But while 
energy efficiency will continue to improve, our growing population and 
economy, plus new energy uses, will add to our overall energy needs. A 
healthy economy requires that we have sufficient, affordable, and 
reliable domestic energy resources to meet those energy needs.
    Question. Now that the Administration has chosen to relax the 
energy efficiency standard for central air conditioners--a matter of 
great concern to Nevadans--how are we going to make up for all that 
lost energy?
    Answer. By 2030, the standards (13 SEER) for residential central 
air conditioners and heat pumps that was issued in January 2001 are 
projected to save 4.2 quads. The proposed 12/12 SEER standard for 
residential central air conditioners and heat pumps is projected to 
save 3 quads by 2030. The proposed standard of a 13 SEER is the subject 
of a legal challenge, which questions the validity of that rule due to 
a potential detrimental impact on consumers. The new energy policy 
under development will address additional opportunities to save energy.
    Question. How much of your budget will be devoted to updating 
existing appliance efficiency standards? Are any major rules for new 
standards expected this fiscal year? Or are there any more relaxations/
rollback/revisions coming up? How many standards?
    Answer. In fiscal year 2002 approximately $5.1 M will be devoted to 
updating existing appliance efficiency standards. There are no major 
rules expected in fiscal year 2002. Having completed 5 final rules in 
fiscal year 2000 and fiscal year 2001, we are just initiating three 
standard rulemakings. Because it takes approximately three years to 
complete a rule, we anticipate some final rules in fiscal year 2003. We 
do not anticipate any more relaxations/rollback/revisions. We will be 
reopening the rule on residential central air conditioners and heat 
pumps and expect that the rule will be finalized some time this year.
    Question. Does the Administration intend to maintain the Executive 
Orders on bioenergy and energy efficiency? If so, how does this budget 
request comport with the requirements of those Orders?
    Answer. Public Law 106-224, Title III--Biomass Research and 
Development Act of 2000 established the Biomass Research and 
Development Initiative. The Initiative is to stimulate collaboration in 
all aspects of biomass processing, strengthen the intellectual 
resources of the United States in the field of biomass processing, and 
promote integrated research partnerships among colleges, universities, 
national laboratories, Federal and State research agencies, and the 
private sector. The Act superceded the Executive Order in the 
establishment of the Interagency Council and the Advisory Committee and 
created the Biomass Research and Development Board and the Biomass 
Research and Development Technical Advisory Committee. Both the 
Executive Order and the Act specify broad cooperation and coordination 
in biomass research and development to leverage the Federal investment, 
specify research and development to allow biomass to provide national 
benefit for sustainable resource supply, the reduction in greenhouse 
gas emissions, healthier rural economies, improved strategic security 
and trade balances, and continue to support the Federal investment in 
research that will support the biobased industry. The Biomass Research 
and Development Act of 2000 provides the launching point for continued 
investment, coordination, and leveraging of efforts across the Federal 
structure, and significant benefit to the Nation from biobased products 
and bioenergy. The fiscal year 2002 budget request provides near-level 
funding for biobased products and bioenergy including $5 million new 
integrated research and development projects, and will allow these 
important activities to go forward strongly.
    The Administration intends to maintain Executive Order 13123, 
Greening the Government Through Efficient Energy Management. The Energy 
Policy Act of 1992 required that Federal buildings reduce their energy 
consumption by 20 percent from 1985 levels by 2000. Executive Order 
13123 builds on these goals by requiring Federal agencies to reduce 
energy use in Federal buildings by 35 percent from 1985 levels by 2010. 
As the President indicated with the new directive on Federal energy 
conservation, this Administration is committed to smart energy 
management in our Federal facilities. We are working not only to reduce 
energy use in general, but also to reduce peak demand in key areas and 
thereby help prevent power outages. FEMP plays an important role in 
providing technical assistance and information to agencies on how to 
best implement energy conservation projects. FEMP also helps agencies 
access private sector financing to undertake many of these projects. We 
encourage Federal agencies to use energy savings performance contracts 
and utility contracts to help save energy and money.
                                 ______
                                 

               Question Submitted by Senator Patty Murray

    Question. Mr Dixon, the President's budget has significant cuts in 
Renewable Energy Budgets--roughly 30-35 percent. Can you provide a 
rationale as to how these cuts can be defended at a time when we have a 
significant energy supply shortage in the west, including the Pacific 
Northwest.
    Answer. Given both the many public and programmatic 
responsibilities of the Department--as well as our obligation as 
stewards of taxpayer resources--DOE's fiscal year 2002 budget request 
outlines a new approach to meeting our Nation's most near-term energy 
needs and lays a foundation for meeting longer term priorities. For 
example, significant funding is requested for electric energy systems 
R&D that is critical to meeting our Nation's growing need for highly 
reliable and responsive power delivery systems. Our inability to 
deliver power from points where supply is ample to regions experiencing 
a shortage is severely hampered by our aging and constrained current 
system. We have also requested nearly level funding for Biomass 
research and development to provide new sources of electric power, 
liquid fuels, and high-value products. If one considers that nearly 20 
percent of last year's appropriations for Biomass R&D were earmarked, 
the request for this line item as it stands would actually increase 
funds available for key biomass research as requested by the 
Department. Additionally, several programs are either at a point in 
their development where industry should begin to take on funding 
responsibilities and the Federal role should be phased out.
                                 ______
                                 

            Questions Submitted by Senator Pete V. Domenici

                         working with nnsa labs
    Question. The National Nuclear Security Administration started 
operation as a semi-autonomous agency with the Department last year. 
The NNSA labs of Los Alamos, Sandia and Lawrence Livermore have a long 
tradition of supporting a broad range of scientific initiatives beyond 
weapons activities. As the NNSA was created, I emphasized the 
importance of the NNSA labs continuing their multi-program support of 
the Department and other federal agencies.
    The enabling legislation, in Section 3264, states that: ``The 
Secretary, in consultation with the Administrator, shall establish 
procedures to provide for the use . . . of the national security labs 
by elements of the DOE not within the Administration . . . .''
    Despite the legislation, I am concerned that the NNSA labs will not 
continue to receive high priority funding from the Department.
    Will each of you assure me that you will continue to aggressively 
fund projects within the NNSA labs?
    Answer. The Office of Science funds over $150,000,000 in research 
at the three National Nuclear Security Administration (NNSA) national 
laboratories at Livermore, Los Alamos, and Sandia. The Office of 
Science programs use both prospective and retrospective merit or peer 
review in evaluating proposals for new science and in managing on-going 
research programs at all of the Department's laboratories, including 
the NNSA laboratories. The programs take into consideration the results 
of these reviews in making decisions on what future research to fund 
and which ongoing meritorious projects to continue within available 
research budgets.
    A recent review by the Office of Science of the research activities 
at the NNSA laboratories concluded that the current process is working 
well and that no new barriers have arisen to our ensuring effective 
management of the Office of Science research programs at the NNSA 
laboratories. Therefore SC expects that with outstanding merit and peer 
reviews, and adequate research funds from the congress, to be able to 
continue to support excellent research at the NNSA labs.
    Question. Have discussions been initiated between your Office and 
NNSA to define mechanisms to maintain close collaborations, both for 
NNSA lab support to your Office and for your labs to support NNSA as 
required?
    Answer. As you know, many of the NNSA laboratories work in 
partnerships with the Office of Science laboratories to achieve the 
most outstanding and cost effective results for SC and DOE research 
projects ranging from the construction of the Spallation Neutron 
Source, to operation of the Human Genome Center; and even participating 
in NNSA partnerships with the private sector, like the recent Extreme 
Ultraviolet Cooperative Research and Development Agreements (CRADA). 
Using the existing outstanding core competencies of all of the 
laboratories in the Department's system, we are able to avoid 
duplicating outstanding capabilities that already exist.
    The Department, including NNSA and the Office of Science, is 
committed to ensuring that this cost effective laboratory complex 
approach will continue to thrive within the new organizational 
framework and ensure the most effective use of all of the DOE 
laboratories. SC and NNSA have discussed our commitment to this 
approach at the Quarterly Laboratory Directors Meetings with all of the 
major laboratories, and there is broad support for its continuation.
    General Gordon held a series of Science Day celebrations at the 
three NNSA laboratories, in partnership with the Office of Science, 
where both discussed their commitment to close collaboration and 
support for each others needs, as required.
    The Office of Science uses the annual Institutional Planning 
process to review regularly on-going work and new initiatives of all of 
the programs at its laboratories in the context of a five year plan and 
a 15-year projection of each laboratory's overall vision. These plans 
are reviewed by all of the program users of the laboratory and the 
plans and initiatives are discussed at an on-site meeting at the 
laboratory with participation by representatives from the DOE programs 
supporting research there. This process is one way to ensure that the 
close collaboration with NNSA continues and that any problems that 
arise are addressed on a regular basis and resolved.
    Question. Do you foresee any barriers to maintaining close working 
relations between your Office and the NNSA?
    Answer. No. In fact, our relations are closer than they were before 
the creation of the NNSA.
                         working with nnsa labs
    Question. The National Nuclear Security Administration started 
operation as a semi-autonomous agency within the Department last year. 
The NNSA labs of Los Alamos, Sandia and Lawrence Livermore have a long 
tradition of supporting a broad range of scientific initiatives beyond 
weapons activities. As the NNSA was created, I emphasized the 
importance of the NNSA labs continuing their multi-program support of 
the department and other federal agencies.
    The enabling legislation in section 3264, stated that: ``the 
Secretary, in consultation with the Administrator, shall establish 
procedures to provide for the use . . . of the national security labs 
by elements of the DOE not within the administration . . . .''
    Despite the legislation, I am concerned that the NNSA labs will not 
continue to receive high priority funding from the Department.
    Will each of you assure me that you will continue to aggressively 
fund projects within the NNSA labs?
    Answer. Work with the NNSA will continue as appropriate to 
expertise and available funding. Several of these labs have critical 
expertise to our programs and should continue to provide support as 
defined by the overall goals of the programs they support.
    Question. Have discussions been initiated between your Office and 
NNSA to define mechanisms to maintain close collaboration, both for 
NNSA lab support to your office and for your labs to support NNSA as 
required?
    Answer. We have not begun any new discussions with NNSA. We 
continue to honor our ongoing collaborations. The goal has been to 
utilize the best expertise available and this goal will continue to be 
the basis for ongoing or new work with these labs.
    Question. Do you foresee any barriers to maintaining close working 
relations between your Office and NNSA?
    Answer. No, we do not anticipate any barriers.
                            biomass v. solar
    Question. Dr. Dixon, the Renewables budget was cut substantially in 
the request. However, I note that biomass programs were largely funded 
at last year's level, while solar programs are almost cut in half.
    How do you account for the great disparity in the treatment between 
solar and biomass?
    Answer. Both these programs are important. Biomass power has great 
potential to impact near term emissions from existing coal plants when 
it is co-fired with coal. As our country will continue to rely heavily 
on coal power for electricity generation, making that process as clean 
as possible is a critical national need. DOE's integrated biomass R&D 
efforts also address the need for clean domestic liquid transportation 
fuels and high-value chemical feedstocks and other products that are 
often derived from imported oil.
    Solar's greatest potential is longer term. As a small but rapidly 
growing technology, it holds great promise for very large future public 
benefits. We are attempting to support both these technologies. We have 
attempted to place priority on the projects in both these programs that 
have the clearest, near term benefits to the public in return for their 
financial support.
    The Solar R&D funding request maintains an adequate level of 
effort. Additionally, the Administration recently sent a budget 
amendment to the Congress that reduced funding for the Partnership for 
a New Generation of Vehicles by $39.1M and allocated the funds to 
selected renewable energy technologies.
    Question. What is the reason behind your decision to close-out the 
Concentrating Solar Power research effort?
    Answer. While some research remains to be done on this technology, 
we are re-prioritizing our Federal energy research efforts as described 
above.
                              reliability
    Question. In Senate report language for the current year, the 
Department was urged to begin a research program to develop solutions 
for grid reliability issues through the use of advanced computer 
simulations capabilities available within the national laboratories.
    What has the Department done in this area?
    Answer. The Pacific Northwest National Laboratory (PNNL) is leading 
a project to use real time data to validate existing models in the 
Western electric power system, and establish specifications and 
standards for data sharing and communications for real time control 
systems. PNNL and the Oak Ridge National Laboratory are investigating 
the integration of on-line and off-line security analysis software 
tools to manage security assessment and congestion management in a grid 
that is becoming increasingly complex. The Department also supported 
discussions with Los Alamos National Laboratory concerning their 
capabilities in computer simulation and power system analysis for 
possible participation in the program.
    Question. Does DOE have any plans to increase its leadership in the 
area of understanding policies and issues related to power grid 
reliability?
    Answer. The Department recognizes that reliable power system 
operation depends on the availability of sufficient reliability related 
(or ancillary) services to the system operator. Under electricity 
restructuring, electric energy and ancillary services will be acquired 
through market-based approaches. Therefore, in collaboration with 
electricity industry stakeholders, the Department's Transmission 
Reliability program defined and initiated a reliability and markets 
activity that takes a science-based approach to the analysis of 
evolving market structures and institutions to assess the market's 
efficacy in maintaining reliability. Projects in the reliability and 
markets activity include: load as a reliability resource; experimental 
market simulations to assess market participant behavior under 
alternative market structures; tools to reveal in advance how system 
constraints affect markets; and the evaluation of emerging markets on 
reliability. Proposed market structures were subjected to the 
experimental market simulation, and the results communicated to a Blue 
Ribbon panel examining market issues in that State. The Department is 
also increasing its emphasis on the evaluation of issues surrounding 
transmission system congestion relief.
               high temperature superconductivity center
    This year the committee added more money to accelerate the 
development, commercialization, and application of high temperature 
superconductor technologies through joint efforts of Oak Ridge and Los 
Alamos National Labs.
    Question. Please provide an update of this effort and describe the 
types of commercial possibilities that exist?
    Answer. DOE funding specified for the Accelerated Coated Conductor 
Initiative (ACCI) has been used to increase cost-shared research at 
several private companies. It has also enabled the acquisition of 
additional capital equipment and technical staff at both Los Alamos and 
Oak Ridge national laboratories that will greatly accelerate 
development of the next generation of superconducting wire. The effort 
has already accomplished a great deal. A January 2001 two-day workshop 
with over 100 industry, government and academic experts produced an R&D 
roadmap for research activities and respective government/industry 
roles that will guide activities over the period through 2010. Los 
Alamos will use their additional equipment and staff in a 10,000 square 
foot laboratory being constructed for joint laboratory/industry 
projects in the new Industrial Research Park on the LANL site. 
Dedication will take place this summer. Oak Ridge has purchased 
equipment and added staff for a 2,300 square foot refurbished 
laboratory space for joint research with private companies that allows 
consolidation of activities previously spread throughout the 
laboratory.
    Question. In order to achieve commercial success, what level of 
investment should be made in R & D over what period of time?
    Answer. Commercial possibilities include cost-effective, high 
performance power cables, transformers, motors, generators, and other 
equipment that will strengthen the US electric power system.
    At fiscal year 2002 funding levels, we believe we can produce and 
field a precommercial High Temperature Superconductor power transformer 
by 2005 and produce a 100 meter second generation cable capable of 
carrying 2,000 amps by 2006.
                                 ______
                                 

              Questions Submitted to the Office of Science

               Questions Submitted by Senator Harry Reid

                         fusion energy sciences
    Question. If Japan and Europe proceed with the next phase of 
International Thermonuclear Experimental Reactor (ITER), is there any 
problem if the US is just a bystander and does not contribute to this 
effort?
    Answer. If Japan and Europe, and Russia proceed with the next phase 
of ITER, which would be construction, and the U.S. is a bystander, the 
U.S. would miss an excellent opportunity to be involved in a meaningful 
way in highly relevant fusion research. The science and technology to 
be gained from a burning plasma fusion facility like ITER are important 
to the scientific understanding of the fusion process as well as to the 
future development of fusion energy. The Secretary of Energy Advisory 
Board, the National Research Council, and the Fusion Energy Sciences 
Advisory Committee have all recently emphasized that study of burning 
plasmas is an essential next step in understanding the science of the 
fusion process, and the U.S. scientific community would be eager to 
participate in the research experiments to be conducted in such a 
facility.
    Early involvement in the construction phase of this project would 
allow the Department and U.S. industry to benefit from the technology 
development inherent in construction of a state of the art scientific 
facility. There are also specific subsystems, such as the diagnostic 
instruments that measure and record the phenomena occurring in the 
plasma during experimental runs, in which the U.S. has world class 
design capabilities and could contribute significantly to the eventual 
success of the project. Finally, early involvement would place the U.S. 
program in a better position to influence details of the design, to 
ensure that the scientific needs of our program are met.
    Question. We keep hearing we are entering another ``energy crisis'' 
and we have been hearing about fusion for many years. Should we still 
be funding Fusion research?
    Answer. Fusion remains an important element in the Nation's long-
term energy supply portfolio. The Secretary of Energy Advisory Board, 
in the report of its 1999 review of the fusion program, stated `` . . . 
in light of fusion's potential and the risks arising from increasing 
worldwide energy demand and from eventually declining fossil energy 
supply, it is our view that we should pursue fusion energy 
aggressively.''
    There has been great progress in fusion energy development in the 
past decade. It is now the consensus of the fusion community in the 
United States, in Japan, and in Europe, that we can now design and 
build a large fusion device capable of producing a large net power 
output for brief periods. The challenge today is to more fully develop 
our scientific understanding of the behavior of high temperature 
plasmas, as well as needed fusion materials and technologies, to allow 
us to design and build fusion devices that can meet the utility 
industry's need for economically viable power plants.
    The results of fusion research also continue to contribute to our 
economy in other ways. The fusion program has been the driving force 
behind the development of plasma science, which is key to such 
innovative technologies as plasma processing of semiconductor chips, 
new forms of lighting, state-of-the-art video display screens, fiber 
optic communications systems, and pollution control devices.
                            genomes to life
    Question. This ``Genomes to Life'' program looks interesting. Why 
isn't this a National Institutes of Health (NIH) program? How does DOE 
funding of Genomes to Life help DOE's mission?
    Answer. Genomes to Life is about the future of biology now that the 
potential for and value of doing genome-scale science has been so 
clearly demonstrated by the ongoing success of the Human Genome 
Project. Genomes to Life has its origins in the wealth of recently 
acquired DNA sequence information from a growing number of organisms 
(from humans to microbes). The Human Genome Project is about decoding 
the basic set of instructions, the DNA sequence, for human life. 
Genomes to Life is about developing the next level of technologies and 
knowledge needed to understand how that basic instruction set is 
converted into living organisms--whether a human or a microbe. While 
there are clearly differences between humans and microbes, many of the 
fundamental ``rules of life'' for the conversion of DNA sequence 
information into life will be common among all forms of life.
    DOE is a logical agency to initiate this research program for two 
reasons. First, DOE has unique multi-disciplinary resources and 
capabilities in high throughput biology and in the mathematical, 
computational, engineering and physical sciences all of which will be 
needed to systematically tackle questions about critical life 
processes. Second, DOE facilities and research supported at its 
national laboratories and in premier academic institutions that played 
key enabling and scientific roles in the genomics revolution will also 
be needed for Genomes to Life. From the initiation of the Human Genome 
Project and the Microbial Genome Program to the development of key 
enabling technologies and resources, DOE already has a strong record of 
``kick-starting'' various aspects of the biotechnology revolution. DOE 
is again poised to make important contributions to this next revolution 
in biology.
    Other agencies, including the National Institutes of Health (NIH), 
will play central roles in using and expanding the technologies and 
information generated in Genomes to Life. NIH has an interest in 
pathogenic microbes which are not a focus of this program while DOE's 
focus, and the focus of Genomes to Life, is on microbes that can be 
used to address DOE needs. In addition, there are subtle differences in 
the strategies used to fund research at these different agencies, 
including DOE. These differences make the funding of new, high risk, 
technologically intensive research more likely at DOE than at NIH, an 
observation repeatedly made by many NIH-funded scientists and both 
current and former members of NIH advisory committees. A strength of 
the U.S. research enterprise is its diversity of funding sources, 
organizational strategies, and management styles. The initiation of 
this new initiative, Genomes to Life, by DOE is an excellent example of 
the value of this diversity.
    The fundamental knowledge acquired in Genomes to Life about the 
multiprotein molecular ``machines'' that make living things come alive, 
about the on/off switches and rheostats that control these machines, 
and about the functional capabilities of complex microbial communities 
will address DOE mission needs. Having this information will enable 
scientists to develop new biologically based strategies for energy 
production, mitigating the long-term impacts of climate changes, 
cleaning up the environment, and reducing the threat of biological 
terrorism. This understanding of complex biological systems will also 
help protect people from adverse effects of exposure to environmental 
toxins and radiation by leading to an increased understanding of 
genetic factors that determine individual susceptibility to these 
agents.
                         attracting scientists
    Question. Are you having problems attracting scientists to your 
labs given that some of them are 50 years old and in deteriorating 
condition?
    Answer. We have anecdotal comments from Lawrence Berkeley, 
Brookhaven and Oak Ridge National Laboratories that scientists are, in 
fact, declining job offers based on the quality of working space. Their 
concerns range from quality of facilities and equipment and appearance 
to location and amenities. At the Oak Ridge National Laboratory, they 
are having difficulty recruiting, even in the very ``hot'' field of 
genomics, due to the current state of the existing labs.
    Recruitment of new staff is particularly critical at this time as 
the generation that helped build the labs retires and the labs compete 
in the job market to replace them. While it is always difficult in hot 
new areas like genomics and nanoscience, decaying facilities and sites, 
lack of adequate housing for post-doc and graduate students, and salary 
gaps are making recruitment even more difficult. I should add that 
retaining the current staff is not easy either.
                     project management environment
    Question. What is this new Project Management Environment (PME) 
system? Is this another DOE computer system? How will PME improve 
things at DOE?
    Answer. The Corporate R&D Portfolio Management Environment is the 
technology infrastructure, information integration methodologies, and 
process enhancements that will enable cradle-to-grave tracking of 
research projects, information sharing across programs, and 
``corporate'' snapshots of the Department's R&D.
    It is a corporate, distributed information management system that 
enables the electronic assembly of R&D project management data from 
existing heterogeneous systems from across the DOE complex and where 
needed, provides the information management modules that enable 
electronic capture of critical data elements necessary to have a 
complete e-government solution to track research projects from the 
point of proposal submission to the Department, through reviews, funds 
distribution, tracking and reporting back to the Department (e.g., 
progress, highlights, publications, funds expended) to completion.
    Fully implemented the environment will: (1) streamline the proposal 
submission significantly reducing the burden (by eliminating the need 
to submit proposals in multiple formats for different program offices) 
on the researchers; (2) streamline the funds instructions and 
distribution process to enable an earlier start on projects (in some 
cases, 30-60 days) after completion of the review process; (3) reduce 
reconciliation, copying, and redundant data entry costs across the 
complex; (4) enable the Department to track and report, on a routine 
basis, on R&D efforts using a consistent approach for a ``corporate'' 
perspective; (5) enable program managers to work together to make 
strategic R&D investments; (6) reduce the burden on the program 
managers, and hence the field, for ad hoc queries and data collection 
efforts; (7) enable the Department to better report to Congress, OMB, 
and OSTP in a consistent manner not previously possible; (8) change the 
culture to make R&D tracking and reporting an integrated, team effort 
across the Department with standards and methodologies to help guide 
the development of future systems across the DOE complex; and (9) move 
the Department toward R&D project management best practices and better 
alignment with applicable laws.
                                 ______
                                 

              Questions Submitted by Senator Patty Murray

              environmental molecular sciences laboratory
    Question. Mr. Decker, the Science budget contains all of the 
funding for Pacific Northwest National Laboratory's Environmental 
Molecular Sciences Laboratory (EMSL), as well as a variety of research 
programs. Will the funds in the Administration's budget accomplish the 
goal of a $10 million equipment upgrade for EMSL?
    Answer. In fiscal year 2001, the William R. Wiley Environmental 
Molecular Sciences Laboratory (EMSL) received capital equipment funds 
of $4,450,000 to ``. . . expand the user capabilities of EMSL to 
include high-throughput functional genomics and structural biology.'' 
The fiscal year 2002 President's Request includes $5,461,000 to ``. . . 
lease and operate a 2 to 3 teraflop high performance computer for the 
EMSL to replace its current \1/4\ teraflop computer . . .'' The fiscal 
year 2001 capital equipment funds are expected to increase the number 
of EMSL users conducting structural biology research by 10 percent over 
the fiscal year 2000 level of 590. The fiscal year 2002 funding for the 
high performance computer will allow EMSL to increase the number of 
users conducting ``grand challenge'' computational projects by 10 
percent over the fiscal year 2001 level of 750.
                            genomes to life
    Question. Mr. Decker, the Science budget also includes the funding 
for the initiative called ``Genomes to Life'' (GTL). This is the new 
program that seeks to build upon the information from the human genome 
to understand proteins and how they work in organisms. What are the 
long term plans for the Department's Genomes to Life initiative?
    Answer. Whereas the Human Genome Project has focused on DNA, 
Genomes to Life will focus on proteins, the action molecules of living 
systems. Proteins are the motors, pumps, chemical catalysts, detectors, 
signals and signalers, structural units, gatekeepers, dismantlers, 
assemblers, and garbage handlers of living systems. Proteins rarely 
work alone. They assemble into larger multi-protein complexes often 
referred to as molecular machines. Understanding the nature and 
regulation of these molecular machines is a major goal of Genomes to 
Life. Similarly, microbes of potential importance for DOE's energy and 
cleanup missions rarely work alone in nature and are often found as 
part of complex, and poorly understood consortia of many different 
types of microbes. Understanding these consortia is another major goal 
of Genomes to Life.
    The scientific plan of Genomes to Life is to identify life's 
molecular machines, the multiprotein complexes that carry out the 
functions of living systems; characterize the gene regulatory networks 
and processes that control these multiprotein molecular machines; 
characterize the functional repertoire of complex microbial communities 
in their natural environments; and develop computers and other 
computational capabilities needed to model the complexity of biological 
systems.
    These scientific goals, and the broader context for Genomes to 
Life, are described in detail in the recently completed Genomes to Life 
``roadmap.'' This document is available in hard copy and at http://
www.doegenomestolife.org/. The Genomes to Life roadmap describes a very 
broad outline for 10 years of research to address the fundamental 
scientific goals outlined above. It includes estimates of time for 
broad program goals. The Genomes to Life roadmap was prepared in 
response to a report of the Biological and Environmental Research 
Advisory Committee (BERAC).
    Although the use of the new resources and technologies developed in 
Genomes to Life by scientists in the public and private sector will 
eventually involve funding that dwarfs investments in Genomes to Life, 
the Biological and Environmental Research Advisory Committee (BERAC) 
recommended sustained funding of $200,000,000 per year for Genomes to 
Life for 10 years.

             Question Submitted by Senator Pete V. Domenici

                           budget for science
    Question. What is your view of the impact of a relatively flat 
Science budget and what is your view of the imbalance of investment 
between the life sciences and the physical sciences?
    Answer. Over the past decade, the Office of Science has been faced 
with relatively flat budgets. This has resulted in below optimum 
utilization of some large scientific facilities, and prioritization of 
our research to focus funding on areas with the greatest promise. In 
this environment, we have continued to make significant contributions 
to both the DOE mission and to the advance of science more broadly. We 
have also made our unique suite of state-of-the-art large scientific 
user facilities available to a user community that has grown 
significantly, even if the operation of some facilities was not funded 
at desired levels. Nevertheless, we have not been able to take full 
advantage of many research opportunities.
    The substantial increases in funding for life sciences during this 
same period have been justified by the scientific advances in this 
area, and their potential contributions to both the health of our 
citizens and the growth of the economy. I believe that the physical 
sciences are now faced with equivalent opportunities in many areas. For 
example, nanoscience promises a revolutionary impact on our lives 
comparable to that following the development of semiconductors, and has 
profound implications for the future of medicine and the life sciences 
generally.
                          facility operations
    Question. With the increased number of new facilities and an 
increasing proportion of the Science budget going to facilities support 
at the expense of the R&D budget, what are the impacts of this trend 
and what dangers are lurking if it is not corrected?
    Answer. The Office of Science is the world's premier organization 
for the planning, construction, and operation of major scientific user 
facilities for physics, high performance computing, materials sciences 
and related disciplines, and environmental sciences. More than 16,000 
users perform experiments at these facilities each year, producing 
seminal results in all fields. This collection of facilities is a 
remarkable success story, and it is the envy of the world.
    Yet, at the same time, funding for research in the physical 
sciences--and in particular for the Office of Science--has not kept 
pace with scientific inflation for more than a decade. The survey done 
last summer on staffing levels throughout the SC laboratory system 
showed that, during the past decade, research staffing levels had 
declined by 15 percent or more at most of the laboratories in virtually 
all SC program areas. The situation in the university community is 
similar--fewer principal investigators and students are supported. The 
situation is further exacerbated because several of the laboratories 
are now in the process of redressing past salary imbalances with 
respect to local and national competition.
    This flat funding for the physical sciences will continue to erode 
staffing levels at the DOE laboratories and in the universities. Within 
a decade, these losses will likely impact U.S. industrial 
competitiveness, since virtually all of this Nation's advances in 
communications, information technology, and other high tech industries 
and products had their origins in the physical sciences.
                            genomes to life
    Question. The Office of Science really provided enormous positive 
press for the DOE with its outstanding contribution to the completion 
of the human DNA sequence. The follow-on program designed to understand 
how genes function is called ``Bringing the Genome to Life.'' This 
program is very important now that we have the genetic blue-print in 
hand.
    How do you see this new program working within the national 
laboratories?
    Answer. Genomes to Life will fund research at national 
laboratories, universities, and research institutions and in 
partnership with the private sector. Within the national laboratories, 
DOE has unique multi-disciplinary resources and capabilities in high 
throughput biology and in the mathematical, computational, imaging, 
engineering, and physical sciences all of which will be needed to 
systematically tackle questions about critical life processes. DOE 
facilities and research supported at its national laboratories and in 
premier academic institutions that played key enabling and scientific 
roles in the genomics revolution will also be needed for Genomes to 
Life. While research funded as part of Genomes to Life will only be 
funded following our normal process of rigorous peer review, we 
anticipate that the success of this new program will depend on all of 
these various national laboratory capabilities.
    Question. What role will the NNSA laboratories have in this 
program?
    Answer. The role of the NNSA laboratories will be the same as that 
of the other DOE laboratories. The NNSA laboratories provide some of 
the key capabilities that serve as the foundation for Genomes to Life 
such as unique multi-disciplinary resources and capabilities in high 
throughput biology and in the mathematical, computational, imaging, 
engineering, and physical sciences all of which will be needed to 
systematically tackle questions about critical life processes. For 
example, Lawrence Livermore and Los Alamos National Laboratories are 
key members of DOE's Joint Genome Institute that will certainly play an 
important role in the DNA sequencing components of Genomes to Life. The 
recently signed CRADA between Sandia National Laboratory and Celera 
Genomics is an example of the kind of computational investments that 
will be needed for Genomes to Life to which NNSA laboratories will make 
key contributions.
                   infrastructure at the science labs
    Question. The infrastructure problems in the defense nuclear 
weapons complex have received a lot of attention lately. But the 
infrastructure problems at the DOE are not exclusive to the weapons 
complex. DOE has failed to properly invest in its facilities 
throughout.
    Dr. Decker, how serious is the infrastructure problem in the 
Science Labs?
    Answer. The Science infrastructure problem is very serious. Nearly 
41 percent of the SC laboratories space was built in the 40's and 50's 
and another 27 percent was built in the 60's. Together, this is a 
whopping 68 percent that is 30 years or older. And, over the last ten 
years as the full effects of aging were hitting our facilities and the 
need to repair and replace facilities became more urgent, our 
infrastructure budget has remained level as the overall Science budget 
has remained level. The infrastructure funds that we have received have 
been directed primarily toward environmental, safety and health needs 
and utility systems because they have a higher, immediate priority 
compared to most building renovations. At our current budget levels, we 
cannot provide the significant funds needed to address the projected 
modernization needs of our Office of Science laboratories without 
significantly reducing our scientific research activities.
    We have determined in our recent planning efforts that the 
shortfall of unfunded backlog of capital investment needs to modernize 
the Science laboratories is $1.3 billion. Capital investment needs 
include general purpose facility line item construction, general plant 
projects and general purpose equipment. New scientific research 
facilities such as accelerators or user facilities are not included. 
This figure is based on a total ``projected'' modernization cost of $2 
billion over the next 10 years less the current projected funding level 
of $730 million for the same period. It is our strong view that a 
modern, effective and efficient physical infrastructure is of critical 
importance to maintaining the capability of the Science laboratories to 
continue America's world-class scientific research into the twenty 
first century.
    Question. How are the infrastructure problems affecting your 
mission?
    Answer. Mission activities are affected in many ways. We have many 
outdated facilities that are not fully utilized because of design and 
layout issues. Facilities are unable to support next-generation 
equipment. Ventilation systems and environmental controls are 
inadequate for modern sensitive equipment. Utility systems are 
noncompliant with current regulations and approaching end of service 
life. The removal of excess facilities is proceeding very slowly due to 
funding and priority issues in DOE's cleanup program. Deferral of 
excess facilities removal requires continuing expenditures for 
surveillance and maintenance along with associated liabilities of these 
facilities. High operating, maintenance, and utility costs for older 
facilities (both active and excess ones) are driving up the overall 
cost of R&D. Decaying facilities also make recruiting and retaining 
scientific staff much more difficult.
    Question. Have you completed a comprehensive assessment of the 
infrastructure problems and how do we fix the problem?
    Answer. Yes, we have completed a survey of the projected 
modernization needs as mentioned and briefly described above. The 
Strategic Facilities Plans that the laboratories submitted and our 
summary survey report are available on our web site: ``http://
www.sc.doe.gov/production/er-80/er-82/labs21/index.htm''.
    Our strategy for fixing the problem includes: increasing our 
capital investment rate to a level more consistent with the size, age 
and condition of our facilities; pursuing third party financing (such 
as we are doing at Oak Ridge National Laboratory); increasing the use 
of Energy Savings Performance Contracts and Utilities Incentive 
Programs to address energy efficiency issues; increasing laboratory 
maintenance and facilities retirement funding; and, addressing the 
clean-up and removal of excess facilities. Additionally, we plan a much 
stronger focus on facilities management throughout the Science complex 
and a better understanding of the true cost of doing the Science 
research business.
                       spallation neutron source
    Question. The Department has requested $276 million in construction 
funding for the Spallation Neutron Source in Tennessee. There has 
recently been a change in the leadership of that project.
    Is that project on cost and on budget?
    Answer. Yes, the SNS project is on cost and on schedule.
    Question. Was anything lost in the transition from the project team 
led by David Moncton to the project team now led by Thomas Mason?
    Answer. The leadership transition from Dr. David Moncton to Dr. 
Thomas Mason was smooth. There was no loss in project momentum, largely 
because Dr. Mason had been associated with the SNS project in a senior 
leadership position for several years.
    Question. Are there any technical, engineering, management or 
scientific issues that remain that could impact on the successful 
completion of this project?
    Answer. At present there are no high-risk technical, engineering, 
management, or scientific issues. Monthly earned value reporting by the 
project and semi-annual reviews of cost, schedule, technical scope, and 
management by the Office of Science ensure that future issues that may 
arise will be addressed quickly.
                       research on brain imaging
    Question. The National Foundation for Functional Brain Imaging has 
been operating in New Mexico, Massachusetts, and Minnesota for three 
years. It has compiled a superb record of research on the integration 
of magneto-encephalography or MEG and functional MRI into systems 
enabling dramatically new vistas into brain function.
    Please explain the rationale for zeroing funding for this 
Foundation after the first three years of its planned five year funding 
cycle?
    Answer. The National Foundation for Functional Brain Imaging is not 
an Administration initiative. It was established by Congressional 
Direction in fiscal year 1999. The National Foundation for Functional 
Brain Imaging received $9,617,000 in fiscal year 1999, $9,660,000 in 
fiscal year 2001, and $10,544,000 in fiscal year 2001 by Congressional 
mandate. Given other priorities in the Biological and Environmental 
Research (BER) program with large potential impacts on human health, 
energy production, and environmental cleanup, no funding was requested 
in fiscal year 2002.
    Question. Do you concur that this Foundation has begun to make 
significant contributions to improved understanding of brain function 
and that integration of different modalities of imaging can provide 
important new insights?
    Answer. The clinical programs in functional brain imaging supported 
by the Foundation have made a significant contribution. Funding has 
been used to develop an infrastructure for the Foundation, develop 
computational capabilities, purchase imaging equipment, and initiate 
scientific and clinical programs. In general, the clinical applications 
go beyond the programmatic goals of the BER program. BER imaging 
technology programs conduct basic biological and physical sciences 
research to develop instrumentation and computational tools used in 
medical imaging. We do not fund clinical studies on the medical 
applications of these technologies.
                        nanotechnology research
    Question. I've been briefed on the promise of nanotechnology to 
address a wide range of new projects. It seems to have immense and most 
exciting potential.
    I understand that the Department is developing plans to create 
several new centers focused on nanotechnology research. I know a 
consortium involving the University of New Mexico, and the two New 
Mexico national labs is preparing a proposal for such a center.
    Please describe your plans to create nanotechnology centers?
    Answer. Nanoscale Science Research Centers (NSRCs) will provide 
facilities for advanced synthesis, processing, and fabrication at the 
nanoscale in the same location as the existing Basic Energy Sciences 
(BES) user facilities and will make this combination widely available 
to the scientific community in the same way as are the BES user 
facilities. NSRCs will involve conventional construction of a simple 
laboratory building or equivalent, usually sited adjacent to or 
appended to an existing user facility. Contained within NSRCs will be 
clean rooms; chemistry, physics, and biology laboratories for 
nanofabrication; one-of-a-kind signature instruments and other 
instruments e.g., nanowriters and various probe microscopies; and 
beamlines at the host synchrotron light source or neutron scattering 
facility.
    NSRCs have been proposed by Argonne National Laboratory, Brookhaven 
National Laboratory, Lawrence Berkeley National Laboratory, Oak Ridge 
National Laboratory, and Sandia/Los Alamos National Laboratory/
University of New Mexico. Selection of NSRCs will be based on peer 
review of the proposed centers. Fiscal year 2002 budget authority is 
requested for Project Engineering Design (PED) to provide Title I and 
Title II design-only funding for Nanoscale Science Research Centers 
(NSRCs) to assure project feasibility, define the scope, and provide 
estimates of construction costs and schedules.
    Question. Please outline some of the ways in which nanotechnology 
may impact future products and processes?
    Answer. Nanotechnology is the creation and utilization of 
materials, devices, and systems through the control of matter on the 
nanometer-length scale, that is, at the level of atoms, molecules, and 
supramolecular structures. The essence of nanotechnology is the ability 
to work at these levels to generate larger structures with 
fundamentally new molecular organization.
    The DOE is currently making a broad range of contributions in these 
areas. For example, the enhanced properties of nanocrystals for novel 
catalysts, tailored light emission and propagation, nanocomposites and 
supercapacitors are all being explored. Nanocrystals and layered 
structures offer unique opportunities for tailoring the optical, 
magnetic, electronic, mechanical and chemical properties of materials, 
and DOE researchers have synthesized layered structures for 
electronics, novel magnets, and surfaces with tailored hardness.
    The principal missions of DOE in science, energy, defense, and 
environment will benefit greatly from developments in these areas. For 
example, nanoscale synthesis and assembly methods will result in 
significant improvements in solar energy conversion; more energy-
efficient lighting; stronger, lighter materials that will improve 
efficiency in transportation; greatly improved chemical and biological 
sensing; use of low-energy chemical pathways to break down toxic 
substances for environmental remediation and restoration; and better 
sensors and controls to increase efficiency in manufacturing.
        underground science at the waste isolation pilot project
    Question. Is the Office of Science prepared to encourage 
development of scientific experiments utilizing the underground 
environment of WIPP?
    Answer. The DOE Office of Science (SC) has been made aware by the 
scientific community of the unique underground characteristics of WIPP 
and its potential for accommodating various experiments for particle 
and nuclear physics. The possible science looks very interesting and SC 
would certainly like to seriously explore the possibility of implement 
these experiments. The priority of these experiments will depend upon 
the priority that the science of these experiments is given in the long 
range planning exercises in which both the High Energy and Nuclear 
Physics communities are presently engaged, the merit and feasibility of 
the specific proposed experiment and, of course, the availability of 
resources to pursue these new initiatives.
    Question. It is my understanding that the Environmental Management 
programs of the Department are fully cooperating with the Office of 
Science to make the WIPP facilities available. Is my understanding 
correct or is additional cooperation required from the EM Office?
    Answer. The DOE Office of Environmental Management (EM) has fully 
cooperated with the Office of Science in assessing the conditions under 
which scientific research could be performed in the WIPP facility. 
Certainly, a strong incentive for researchers is that WIPP 
infrastructure, when not needed to support the EM mission, could be 
available to support the scientific research teams. EM has proceeded on 
your request for an evaluation of the impact and costs on repository 
performance of creating a lower horizon for experiments with a draft 
report, to be shared with the Environmental Protection Agency, 
scheduled to be completed July 2001.
                   low dose radiation effects program
    Question. Three years ago, Congress created a program, anticipated 
to require ten years to provide a better scientific basis for the 
radiation standards used for low doses of radiation. Last year, the GAO 
completed a study that noted that the scientific basis for such 
standards is woefully inadequate. When DOE started the program, a 
program plan was carefully developed by the Department, which calls for 
about $25 million in fiscal year 2002.
    The Department requested only $12,700,000 for fiscal year 2002.
    That same GAO report noted that hundreds of billions of dollars in 
costs, much of it focused on cleanup of DOE facilities, are directly 
driven by these radiation standards. The cost of the research, which 
may provide better standards, is trivial compared to these 
expenditures.
    Why is the Department not following its own program plan for this 
critical research program?
    Answer. The fiscal year 2002 President's request for the Low Dose 
Radiation Research Program does represent an increase of $1,000,000 
relative to the fiscal year 2001 request but is substantially below the 
$25,000,000 recommended by the Biological and Environmental Research 
Advisory Committee (BERAC) program plan and below the fiscal year 2001 
appropriation that included $8,453,000 of Congressionally added funds. 
The amount requested was balanced relative to the other priorities in 
the BER program with equally large potential impacts on energy 
production, environmental cleanup and even to radiation standards 
through new understanding of genetic factors that affect susceptibility 
to low dose of radiation. Scientists may also apply to BER's Genomes to 
Life or Instrumentation programs for Low Dose-relevant research funds.
                               pubscience
    Question. What is the Agency's justification for creating 
PubSCIENCE and using taxpayer dollars to support a project which 
duplicates products already available within the private sector?
    Answer. PubSCIENCE is a modernization of the journal coverage that 
DOE and predecessor agencies have been providing since 1948. Such 
coverage has been continuous throughout this 53-year period, and 
information products have descended in a direct line to PubSCIENCE. All 
these dissemination products have been developed by the same 
organization operating out of the same dedicated building since 1948.
    Prior to 1974, DOE's predecessor agency was the Atomic Energy 
Commission (AEC), which focused on nuclear technology, rather than 
fossil energy, renewable energy, or other energy sources. Nuclear 
Science Abstracts (NSA) began in 1948. The cataloging mission, of which 
PubSCIENCE is the most recent manifestation, began with NSA. Throughout 
its history, DOE and predecessor agencies used the technology of the 
day to deliver citation information and, as appropriate, the 
corresponding full text.
    From the 1970s until the present time, DOE's bibliographic needs 
were addressed by the Energy Database (EDB). The EDB was designed to 
meet DOE's bibliographic needs, both journal literature and gray 
literature. PubSCIENCE is designed to meet these same bibliographic 
needs for journal literature. In conjunction with the DOE Information 
Bridge for gray literature, PubSCIENCE is in essence a web version of 
EDB.
    As the scope of DOE's bibliographic needs has changed little over 
the last few years, there is little difference between the scope 
addressed by EDB with its old technology and the scope addressed by 
PubSCIENCE with its new technology. Both products cover all forms of 
energy and related disciplines.
    Legislation makes it clear that government has an affirmative 
responsibility for promoting energy science and technology through the 
free exchange of ideas. PubSCIENCE addresses this need while supporting 
commercial entities through the agreements DOE has with 45 publishers 
of research articles.
    DOE has the statutory mandate to disseminate scientific and 
technical information to encourage scientific and industrial 
developments related to energy sources and technologies. DOE also has 
mandates to provide information to the public on various energy 
resources ``through use of mass communication'' (Energy Reorganization 
Act of 1974, Title 42 U.S.C. Sec. 5813 (7)) and to assist in education 
and training activities in institutions of higher education. 
Additionally, the Paperwork Reduction Act of 1995 requires all agencies 
to ``provide information resources management, increased program 
efficiency and effectiveness and improve integrity, quality and utility 
of information to all users within and outside the agency, including 
capabilities for ensuring dissemination of public information (Title 44 
U.S.C. Sec. 3506(b)(1)(B)(C).
    Question. What steps did DOE take prior to the development of 
PubSCIENCE to comply with existing laws governing agency 
responsibilities to provide notice to the public before initiating new 
information services?
    Answer. PubSCIENCE is the application of Web technology to an 
information dissemination function that has been in operation for over 
50 years. PubSCIENCE represents not a new role but a more cost-
effective way of doing business. PubSCIENCE retains the same purpose 
and scope of predecessor products and reflects modifications only in 
the delivery technology. PubSCIENCE was introduced in October 1999 
following on the Web model established by the National Institutes of 
Health (NIH) with PubMed.
    Through web technology, PubSCIENCE offers a number of advantages 
over EDB (the pre-Web predecessor product), not least of which are 
advantages that are functional in nature, rather than in scope. 
PubSCIENCE's functional benefits over EDB include: more convenient 
access, ease of use, desktop access, and increased timeliness to 
information. Such advantages are driving all agencies toward electronic 
government, with strong encouragement from the Office of Management and 
Budget.
    The Paperwork Reduction Act of 1995 as amended, 44 U.S.C.3501-3520, 
requires agencies to provide adequate notice--when initiating--
significant information dissemination products. Id. 3506(d)(3). This 
requirement is echoed in OMB Cir. A-130 at para 8.a.6.j. In its 
analysis of these provisions, OMB explains that agencies are 
responsible for having ``an active knowledge of, and regular 
consultation with, the users of their information dissemination 
products . . . [and that] Consultation with users might include 
participation at conferences and workshops, careful attention to 
correspondence and telephone communications . . . or formalized user 
surveys.'' Consistent with guidance from OMB Circular A-130, public 
forum presentations, discussions, and publicly available articles about 
the development of PubSCIENCE began one year before the product was 
introduced. Throughout fiscal year 1999, more than 7 speeches, 3 
published articles, 2 demonstrations and beta tests, and Congressional 
Testimony by Dr. Martha Krebs, then Director, Office of Science, before 
the Subcommittee on Energy and the Environment, Committee on Science, 
U.S. House of Representatives, announced the initiative to develop 
PubSCIENCE. These were the more formal communications, and do not 
include informal working discussions held in various forums with 
potential users. In addition to these communications, telephone 
interviews about this product to discuss opportunities for partnership 
were held with approximately 90 representatives from the primary, 
secondary, society, and university publishing communities. Other 
federal agencies with scientific and technical information management 
missions were also notified of the development of PubSCIENCE through 
periodic meetings and communications. Special communication efforts 
with GPO resulted in their partnership with the Department to provide 
public access to PubSCIENCE through the GPO Access system. OMB Circular 
A-130 guidance also says that ``In all cases . . . determination of 
what is a significant information dissemination product and what 
constitutes adequate notice are matters of agency judgment.'' We 
believe that the Department took appropriate steps to make the user and 
publishing communities aware of this information resource.
    Question. What is the Agency's justification for creating 
PubSCIENCE and using taxpayer dollars to support a project which 
duplicates products already available within the private sector?
    Answer. PubSCIENCE is a modernization of the journal coverage that 
DOE and predecessor agencies have been providing since 1948. Such 
coverage has been continuous throughout this 53-year period, and 
information products have descended in a direct line to PubSCIENCE. All 
these dissemination products have been developed by the same 
organization operating out of the same dedicated building since 1948.
    Question. In general, what is the Department's policy regarding 
creation of services that represent direct competition with the private 
sector?
    Answer. The Department's policy is to not create new services 
outside the scope of its mission and not supported by legislation. 
Those are not the conditions relative to PubSCIENCE. Journal titles 
included in PubSCIENCE are selected due to their relevance to DOE's R&D 
mission. The Department's enabling legislation and a number of other 
laws require that DOE make energy science and technology information 
accessible to the public. PubSCIENCE promotes energy science and 
technology through the free exchange of ideas both within the DOE 
scientific community and the public at large. PubSCIENCE is not a new 
service but a modernization of a longstanding service to fulfill this 
requirement. Rather than a competition with the private sector, it 
represents a strong partnership with over 40 commercial publishers in 
the private sector.
    PubSCIENCE does not duplicate any single commercial system. In 
fact, PubSCIENCE is designed to mimic the Department's R&D portfolio. 
Systems that present bibliographic information have a broad range of 
characteristics. Most commercial systems are typically geared to 
institutional subscribers, rather than the individual researcher or 
science-attentive citizen. Some systems are free to the user, while 
others require that each institution pay start up fees of hundreds of 
thousands of dollars, an amount comparable to the entire annual 
operating costs of PubSCIENCE; some are narrow in the scope of 
disciplines covered, while others are broad in scope; some are 
comprehensive within their disciplines, while others are less so; some 
offer any of a wide variety of value-added features, e.g., citation 
counting, targeted to specific user communities; some host abstracts, 
while others focus on authors and titles; some re-host primary 
publishers--full-text, while others link to publishers--servers and are 
thus especially compatible with electronic subscriptions or site 
licenses for full text. Internet technology is causing systems to 
evolve extremely rapidly so that generalizations applicable today may 
become outdated soon.
    Many other federal R&D agencies also capture and make available 
citations to journal articles on the Internet at no charge. The 
National Institutes of Health's PubMED is one such example; PubSCIENCE 
was modeled after PubMed. Through PubSCIENCE, researchers and the 
public are able to identify articles of concern to them, which then 
leads to commercial transactions with publishers to obtain the full-
text information. Thus, PubSCIENCE fulfills its legally-mandated 
mission to advance energy science and technology through the free 
exchange of ideas, while facilitating private sector commercial 
transactions.
                                 ______
                                 

   Questions Submitted to the Office of Nuclear Energy, Science and 
                               Technology

                Question Submitted by Senator Harry Reid

            generation iv nuclear energy systems initiative
    Question. Please give an update on the Generation IV international 
forum and how it relates to the Generation IV technology roadmap.
    Answer. The Generation IV International Forum (GIF) is currently 
comprised of nine countries: Argentina, Brazil, Canada, France, Japan, 
the Republic of Korea, the Republic of South Africa, the United 
Kingdom, and the United States. The Nuclear Energy Agency (NEA) and the 
International Atomic Energy Agency (IAEA) are permanent observers. 
Additional countries, such as Switzerland, and organizations such as 
the European Commission are interested in becoming members. We expect 
that the nine countries participating in this activity will sign a 
charter formally constituting the GIF during May or June 2001.
    The participating countries have demonstrated serious intent to 
pursue collaborative research and development (R&D) to develop one or 
more advanced reactor designs that could be deployed commercially by 
2030. The GIF provides them a forum and clearing house to organize R&D 
collaborations with similarly interested nuclear research institutions 
in other countries. We expect these collaborations to result in 
innovative approaches and to permit the leveraging of scarce R&D 
dollars.
    The GIF is participating in the development of the Generation IV 
Technology Roadmap--a comprehensive R&D plan for advanced reactor 
development. It is our belief that, in the current world energy 
environment, reactors developed for deployment in the United States 
will also have to be attractive to purchasers elsewhere in the world if 
they are to be economically successful. Consequently, the Office of 
Nuclear Energy, Science and Technology has invited GIF member 
participation in development of the roadmap.
    GIF members will participate in each of the Generation IV 
Technology Working Groups (TWG), i.e., light water, liquid metal, gas 
cooled, and non-classical design TWGs. They will also participate on a 
working group that will examine fuel cycle issues and on another cross-
cutting working group that will develop and compare methods for 
evaluating one technology against another. Together, over 100 U.S. and 
foreign scientists are supporting this DOE-led activity.
                                 ______
                                 

            Questions Submitted by Senator Pete V. Domenici

            generation iv nuclear energy systems initiative
    Question. Last year, this Subcommittee led the way in creating a 
new R&D program in Nuclear Energy Technologies. Among other things, the 
DOE was directed to use the funding to develop a road map for the 
commercial deployment of a next generation power reactor that would 
have superior economics, no possibility of a core melt-down, 
substantially reduced production of high level waste, proliferation 
resistant fuel and waste, and much greater efficiencies. Please update 
the Committee on the status of the Generation IV activities. Please 
give an update on the Generation IV international forum and how it 
relates to the Gen IV technology roadmap.
    Answer. The Office of Nuclear Energy, Science and Technology is 
leading an international effort to establish a comprehensive research 
and development program for the next generation of innovative nuclear 
energy systems. The Generation IV Technology Roadmap will evaluate 
nuclear energy concepts, select the most promising concepts for further 
development, and define the research and development (R&D) needed to 
bring these concepts to maturity for potential commercialization. The 
Roadmap, which is being developed over a period of approximately two 
years by U.S. and international experts from industry, national 
laboratories, and academia, will identify those technologies that will 
successfully address the factors impacting the expansion of nuclear 
energy: economic competitiveness of building and operating nuclear 
energy systems; remaining concerns regarding nuclear safety and 
proliferation; and the challenge of minimizing and dealing successfully 
with nuclear wastes.
    A plan for developing the roadmap, including management, staffing, 
and schedule for completion, has been established. In addition, we have 
established Technical Working Groups (TWG) to collect information on 
and evaluate four broad classes of nuclear energy system concepts: 
water cooled reactors, gas cooled reactors, liquid metal cooled 
reactors, and non-classical reactor systems. Additional crosscutting 
groups will be established as necessary to conduct comparative 
assessments of specific technology areas.
    We have also recently completed the process of defining technology 
goals that capture sustainability, safety and reliability, and economic 
goals for energy production for Generation IV technologies. The 
technology goals for Generation IV nuclear energy systems were 
developed by a subcommittee of the Department's independent Nuclear 
Energy Research Advisory Committee (NERAC) in close cooperation with 
the U.S. and international nuclear energy research community. After 
multiple reviews by U.S. and international experts, the goals are now 
widely endorsed as an appropriate basis for development of advanced 
nuclear energy technologies.
    The Generation IV International Forum (GIF) is a consortium of a 
small number of countries with an active interest in working together 
to plan and conduct research and development on innovative, next 
generation nuclear energy system designs. The GIF is currently 
comprised of nine countries: Argentina, Brazil, Canada, France, Japan, 
the Republic of Korea, the Republic of South Africa, the United Kingdom 
and the United States. The Nuclear Energy Agency (NEA) and the 
International Atomic Energy Agency (IAEA) are permanent observers. 
Additional countries, such as Switzerland, and organizations such as 
the European Commission are interested in becoming members. We expect 
that the nine countries participating in this activity will sign a 
charter formally establishing the GIF during May or June 2001.
    The GIF member countries have demonstrated serious intent to pursue 
collaborative research and development (R&D) to develop one or more 
advanced reactor designs that could be deployed commercially by 2030. 
The GIF provides a forum and clearing house to organize R&D 
collaborations with similarly-interested nuclear research institutions 
in other countries. We expect these collaborations to result in 
innovative approaches and to permit the leveraging of scarce R&D 
dollars.
    At the invitation of the U.S., the GIF is participating in the 
development of the Generation IV Technology Roadmap--a comprehensive 
R&D plan for advanced reactor development. It is our belief that, in 
the current world energy environment, reactors developed for deployment 
in the United States will also have to be attractive to purchasers 
elsewhere in the world if they are to be successful. Consequently, the 
Office of Nuclear Energy, Science and Technology invited GIF member 
participation in the development of the Roadmap.
    GIF members will participate in each of the Generation IV 
Technology Working Groups (TWGs). They will also participate on a 
working group that will examine fuel cycle issues and on another cross-
cutting working group that will develop and compare methods for 
evaluating one technology against another. Together, over 100 U.S. and 
foreign scientists are supporting this DOE-led activity.
    Concurrent with the long-term-focused Roadmap effort, a near-term 
review of the regulatory, technical, and institutional issues that need 
to be addressed to support the deployment of new reactors in the U.S. 
within the next ten years is well underway. This review will be 
incorporated into the roadmap to give it both near- and long-term 
vision.
               advanced accelerator applications program
    Question. The Department just delivered to Congress the required 
report on future plans for AAA program. That report painted a picture 
of major contributions from AAA, with study of improved nuclear waste 
strategies, demonstration of tritium production, and support for the 
nation's nuclear engineering research. Yet the Department zeroed the 
program. Do you share the enthusiasm which I have for this program? 
What funding level would be required in fiscal year 2002 to continue 
the AAA program?
    Answer. The Department is very interested in this technology and 
its potential for reducing the toxicity of high level waste and thus, 
significantly reducing the quantity of this waste that must be disposed 
of in a geologic repository. As you know, at the Congress's request, 
the Department has been exploring this technology over the last year 
with the assistance of the Los Alamos National Laboratory and the 
Argonne National Laboratory. In March 2001, the Office of Nuclear 
Energy, Science and Technology provided a Ten Year Plan to Congress 
that provides more detail on mission need, objectives, research and 
development needed for proof of performance, and with preliminary cost 
estimates for the initiative. As contemplated in this report, year two 
of the AAA program would cost about $120 million.
    The Administration's fiscal year 2002 request does not include 
funds for this initiative. As you know, under the Vice President's 
leadership, the Administration is conducting a comprehensive evaluation 
of energy policy and related research priorities. Until these 
priorities are clearly identified, the Department will not request 
funding for major new energy initiatives. However, with its completion, 
I look forward to working with you and other Members of Congress on the 
research priorities and the funding requirements to support the 
Administration's priorities.
                 status of nuclear engineering programs
    Question. Specialists in Nuclear Engineering and related 
disciplines are essential for our nuclear energy programs, as well as 
cleanup of the DOE complex and the nation's national security programs 
involving nuclear technologies.
    Enrollment in these programs is at very low levels. Some schools 
are considering dropping their programs and closing research reactors. 
What is your assessment of this critical part of the infrastructure? 
What would be your recommendations, both in the short and long terms to 
address the problem? Should the Government consider directly supporting 
university research reactors? What would it cost to cover the 
operations of all 29 university research reactors?
    Answer. The Department believes the U.S. nuclear engineering 
university programs are vital to the Nation's current and future energy 
security, environmental stewardship, and national security programs. As 
such, we have been very concerned about the U.S. nuclear engineering 
education infrastructure for the past several years. We have instituted 
a variety of programs to assist the university community in attracting 
students, improving the facilities--particularly the university 
research reactors, providing research funding, and attracting and 
supporting new faculty. To date, we have made some progress in 
increasing the number of students, especially at the undergraduate 
level, but university research reactors continue to be in need of more 
upgrading than current funds allow and many are laboring under a 
financial strain as universities try to support emerging fields of 
study. Several studies initiated and/or supported by DOE recently have 
made recommendations to the Department on how best to address the 
issues confronting nuclear engineering education.
    The two most recent studies; the Blue Ribbon Panel on the Future of 
University Nuclear Engineering Programs and University Research and 
Training Reactors headed by Dr. Michael Corradini of the University of 
Wisconsin and the Nuclear Energy Research Advisory Committee (NERAC) 
University Reactor Panel chaired by Robert Long, formerly of GPU and 
the University of New Mexico, provided recommendations in the 
University Reactor Task Force Report on how to address both the short 
and long term issues confronting nuclear engineering education. The 
Blue Ribbon Panel recommends large increases in the amount of support 
we provide for fellowships and scholarships, faculty support 
(especially junior faculty), nuclear research through the existing 
Nuclear Engineering Education Research program, research reactor 
upgrades, increased exchanges between universities and national 
laboratories, a national outreach and communication programs with local 
communities. We agree that all of these would be beneficial to nuclear 
engineering education in the U.S.
    The University Reactor Panel reported its findings on April 30, 
2001. Its primary area of interest was the university research 
reactors, especially the Massachusetts Institute of Technology, 
University of Michigan, and Cornell University reactors which are 
facing an uncertain future due to funding shortfalls for operations and 
other problems such as shortage of staff. The two-tier (short and long 
term) approach recommended by this Panel would provide near term 
operating support for the three reactors to assist them over the next 
year or so. In the longer term, support would be made available to 
university research reactors based on a peer review of proposals 
submitted by each institution and centers of excellence would be 
established at those reactors that are most suitable for research and 
training. This increased funding, over and above a base level that 
every reactor would receive, would permit the upgrading of these 
facilities to make them more useful to the research community and 
better able to sustain themselves financially. These recommendations 
were endorsed by the full NERAC committee on April 30, 2001.
    The exact cost to cover the operating expenses of all 29 U.S. 
university research reactors is very difficult to determine given the 
various accounting systems at each university, but we are aware of 
estimates ranging from $5 million to $10 million.
        report to congress on thorium fueled reactor assemblies
    Question. The Energy and Water Appropriations Bill for the current 
year required a report from the Department by March 1, 2001, on 
approaches for disposition of weapons-grade plutonium in thorium-based 
fuel assemblies in light water reactors. The request noted that work 
funded under the Initiatives for Proliferation Prevention Program, 
accomplished jointly with the Kurchatov Institute in Russia, showed 
extremely promising disposition rates for this approach, with 
potentially important benefits for non-proliferation. I understand that 
the Nuclear Energy Office was tasked to prepare this report. The report 
is now over two months late. When will it arrive? The Report was 
completed by the Nuclear Energy Office, but the Non-Proliferation 
Office has held up its release. Staff understands that the NN office 
feels the report is too critical of its current MOX program. Congress 
should be provided with the opportunity to review the report it 
requested and draw its own conclusions.
    Answer. The Office of Nuclear Energy, Science and Technology is 
working closely with the Office of Defense Nuclear Non-Proliferation 
(NN) on the Report to Congress titled, ``Alternative for the 
Disposition of Surplus Weapons Plutonium in Existing Light Water 
Reactors.'' We believe that most of the concerns raised by NN have been 
resolved and that the report is nearly ready for final approval within 
the Department. We hope to transmit this report to Congress by the end 
of May 2001.
                           budget development
    Question. Mr. Magwood, in reviewing the budget request for nuclear 
energy R&D, it appears you have at best requested money to continue 
existing research projects, but have requested virtually nothing to 
begin new research projects. Why such a substantial cut, given the 
incredible long-term importance nuclear energy may play in our future 
energy strategy?
    Answer. The investments that the Department proposes to make in 
nuclear energy are driven by the recognition of the important role that 
nuclear energy serves in providing reliable, affordable and 
environmentally sustainable electricity. These investments are based on 
the recognition that nuclear energy is and will remain an important 
component of the Nation's energy mix today and in the future. The 
Department's proposed fiscal year 2002 budget request of $223.1 million 
is focused on enabling us to meet our most critical needs--for 
research, for training and educating of the next generation of 
engineers and scientists and for maintaining the Nation's nuclear 
science and technology infrastructure. Our future investments in energy 
and energy technologies will be informed by the Vice President's 
National Energy Policy Development Group's review of energy policy, 
currently underway. The Department will assess its long-term research 
and development portfolio once the review is issued.
             national nuclear security administration labs
    Question. The National Nuclear Security Administration started 
operation as a semi-autonomous agency within the Department last year. 
The NNSA labs of Los Alamos, Sandia and Lawrence Livermore have a long 
tradition of supporting a broad range of scientific initiatives beyond 
weapons activities. As the NNSA was created, I emphasized the 
importance of the NNSA labs continuing their multi-program support of 
the Department and other federal agencies.
    The enabling legislation, in Section 3264, stated that: ``The 
Secretary, in consultation with the Administration, shall establish 
procedures to provide for the use . . . of the national security labs 
by elements of the DOE not within the Administration . . . .''
    Despite the legislation, I am concerned that the NNSA labs will not 
continue to receive high priority funding from the Department. Will 
each of you assure me that you will continue to aggressively fund 
projects within the NNSA labs?
    Answer. The National Nuclear Security Administration (NNSA) Act 
allows the NNSA laboratories to continue to perform significant 
research for all Department of Energy programs, for other federal 
agencies and non-federal organizations. It also permits the Department 
to continue the important role the NNSA laboratories have as part of 
the integrated laboratory system. The Department recognizes that non-
defense research is important to maintain the vital overall science and 
technology base and core competencies of the NNSA laboratories. The 
Department remains committed to encouraging and supporting the 
diversity of work performed by the Department's national laboratory 
complex, including the laboratories that report to the NNSA.
    The Office of Nuclear Energy, Science and Technology (NE) continues 
to work closely with the NNSA laboratories in research and other 
programmatic activities of our office. As part of NE's Isotope Program, 
Nuclear Energy Research Initiative program, Advanced Accelerator 
Applications program, and our space power systems program, we are 
engaged in a number of important research and other mission-related 
activities with the NNSA laboratories, including Sandia National 
Laboratory, Lawrence Livermore National Laboratory, and Los Alamos 
National Laboratory. We are committed to continuing to work closely 
with these laboratories as we accomplish the mission of NE.
    Question. Have discussions been initiated between your Office and 
NNSA to define mechanisms to maintain close collaboration, both for 
NNSA lab support to your Office and for your labs to support NNSA as 
required?
    Answer. An Implementation Plan for the NNSA was issued last year. 
This implementation plan provides maximum flexibility for both NNSA and 
non-NNSA laboratories, to continue to perform the type of research that 
they do best and to allow the initiating program sufficient control 
over their research. The Implementation Plan is structured to ensure 
continued utilization of the national laboratory complex by all 
parties. It allows the NNSA laboratories to continue to perform 
significant research for all DOE programs and to work together with the 
non-NNSA laboratories efficiently and effectively to complement each 
others' expertise in important scientific collaborations that can 
benefit all Departmental programs, including the NNSA. For example, NE 
and NNSA are finalizing a Memorandum of Understanding (MOU) on the 
joint management of the Advanced Accelerator Applications Program. The 
MOU combines the Accelerator Production of Tritium Program with the 
Accelerator Transmutation of Waste Program, integrating the two 
programs and enabling the use of the Low Energy Demonstration 
Accelerator at Los Alamos as well as assuring a tritium backup 
capability if needed to meet national security requirements. The MOU 
should be finalized by the end of May 2001.
    Question. Do you foresee any barriers to maintaining close working 
relations between your Office and the NNSA?
    Answer. No. The Implementation Plan for the NNSA adequately 
addresses the concerns you raise, and the Department is committed to 
maintaining a culture that permits the laboratories to continue this 
effective relationship.

                          SUBCOMMITTEE RECESS

    Senator Bennett. And we thank you all for coming. The 
subcommittee is recessed.
    [Whereupon, at 11:36 a.m., Tuesday, May 1, the subcommittee 
was recessed, to reconvene subject to the call of the Chair.]


    ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 2002

                              ----------                              


                         TUESDAY, MAY 15, 2001

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 2:36 p.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Pete V. Domenici (chairman) 
presiding.
    Present: Senators Domenici, Bennett, Craig, Reid, and 
Murray.
    Also present: Senator Crapo.

                          DEPARTMENT OF ENERGY

                   Office of Environmental Management

STATEMENT OF CAROLYN L. HUNTOON, PH.D., ACTING 
            ASSISTANT SECRETARY

                 STATEMENT OF SENATOR PETE V. DOMENICI

    Senator Domenici. Senator Reid has indicated we should 
proceed. He will get along here shortly, he said. So let us get 
started. I have a brief opening statement, after which I will 
yield to you, Senator Craig, and then we will ask you, Senator 
Crapo, for your comments. You are welcome to either join us 
here or there, whichever you prefer.
    Senator Crapo. This will be fine.
    Senator Domenici. Today we meet to review the Department of 
Energy's 2002 budget request for environmental management 
programs and the Office of Civilian Radioactive Waste 
Management, otherwise known as Yucca Mountain. We will hear 
today from Dr. Carolyn Huntoon, Acting Assistant Secretary for 
Environmental Management, and Mr. Lake Barrett, Acting Director 
of the Office of Civilian Radioactive Waste Management.
    Today's hearing will complete our series of hearings to 
specifically review the 2002 budget requests for programs 
within this subcommittee's jurisdiction. We will continue to 
have oversight hearings as appropriate during the remainder of 
the year.
    For environmental management programs at the Department of 
Energy, the administration has requested $5.914 billion for 
next year, $348 million less than the current year 
appropriation. That is a 6 percent reduction in just that 
account. The environmental management programs are the largest 
part of the DOE's budget outside of the NNSA, representing 
about one-third of the total DOE budget.
    The program's mission is primarily focused on cleanup of 
sites involved some way in the production of nuclear weapons. 
These programs are very important to the country and are of the 
utmost importance to those Senators who have major sites within 
their State.
    The administration has proposed drastic cuts in the 
environmental management. One example from my own State is the 
budget for waste isolation pilot plant. That is the only United 
States effort to take care of transuranic, low level 
transuranic wastes, on a permanent basis. That complex that 
handles the shipments will be reduced by 13 percent. This cut 
should not stand and we should restore money clearly for this 
purpose.
    In your written statement, Dr. Huntoon, that you submitted 
to us you state that Secretary Abraham has directed a top to 
bottom management review of the EM program with the goal of 
identifying efficiencies and speeding up cleanup efforts. I 
commend you in this endeavor, but I must raise a few concerns.
    For example, the management review is supposed to identify 
steps to strengthen project management. That is, identify steps 
to strengthen project management. That is in parentheses. But 
the budget request actually increases the time line for current 
projects, which ultimately leads to increased costs and greater 
project uncertainty. At least that is how we see it.
    The management review is supposed to implement better 
contracting strategies, but the budget request does not 
adequately fund the new performance-based contracts that you 
have negotiated, that we have negotiated in the past few years.
    The management review is supposed to lead to greater use of 
technologies to reduce cleanup costs, but the budget request 
proposes a 27 percent cut to EM science and technology 
department.
    There may be answers to all of these. From what I can tell, 
they are not very good answers. While I remain optimistic that 
the management review will identify areas for improvement, 
clearly we have been trying to do that for quite some time. You 
may have better good fortune at it than we have had in the past 
in determining new ways to solve these very long and costly 
cleanup operations.
    For the Office of Civilian Radioactive Waste Management, 
the administration has requested $445 million for next year, an 
increase of $45 million or 10 percent over current year level. 
This budget should allow the Department to transition towards 
the potential licensing of Yucca Mountain once the Department 
makes an onsite recommendation to the President the end of this 
year.
    A 10 percent increase in the Yucca Mountain budget is quite 
remarkable, given that the administration proposed deep cuts in 
almost every other account of the Department of Energy for 
fiscal year 2002. Mr. Barrett, you probably deserve both 
condemnation and warning. We will do what we can the support 
the President's request and I look forward to working with the 
new administration on spent fuel management issues.
    Today we are going to proceed, as I indicated before, by 
yielding first to Senator Craig and to Senator Crapo. Then, Dr. 
Huntoon, you will follow. Senator Craig.

                  STATEMENT OF SENATOR LARRY E. CRAIG

    Senator Craig. Well, Mr. Chairman, first of all thank you 
for your leadership in this area and the work you have done.
    What I think the record has to show today is the importance 
to me and to my colleague Senator Crapo of the commitment that 
DOE has made to the people of Idaho regarding the cleanup of 
nuclear contamination and waste at the Idaho National 
Engineering and Environmental Laboratory. This is an issue that 
we have discussed with the Secretary of Energy, Secretary 
Abraham, on numerous occasions, both prior to and since his 
confirmation. It is an issue that I have raised with the 
nominees for the key Department posts at Energy as they have 
appeared before us.
    The reason why this issue is so important is that States 
such as Idaho which have hosted the DOE sites for decades need 
to have confidence in the ability of DOE to keep its promises. 
It will not sit by while communities such as those in 
southeastern Idaho are penalized, if you will, for their 
patriotism and their role in winning the Cold War by being 
told, do not worry, DOE will get around to you some day, maybe 
next year, maybe decades from now, and maybe never; and if we 
decide that we do not need to clean up your site or we are 
finding it more challenging than we thought or more expensive, 
we are just going to tell you that we cannot do it, it is your 
problem.
    Now, Ms. Huntoon, you know that we have a good program 
going. There are substantial milestones that have been made. To 
stop now or to substantially cut back now does not make any 
sense. To analyze what we are doing and to examine it in light 
of the efficiencies that the chairman spoke of that may be 
there, that is good business. But the kind of cuts that we are 
talking about in my opinion is very bad business. A budget that 
cannot address DOE's cleanup commitments is the same as saying 
to Idaho Falls in Idaho and Pocatello in Idaho: Maybe some day 
we will finally get around to you and address the waste and 
potential environmental contamination problems that were 
created in your State, but right now it just is not a priority.
    Well, Mr. Chairman, these are the sentiments that I have 
heard expressed in my State, and I am sure that my colleague 
Senator Crapo has heard them, too. These concerns are the 
reasons why I visited with you earlier. We talked about these 
needs. You have worked very closely with us to see where we can 
resolve this and find the additional funding for DOE's 
environmental management program. I want to acknowledge this 
publicly now, that you have worked very hard with us.
    In the 4 years that I have served on this subcommittee, we 
have consistently kept on line these programs and we will work 
to continue that consistency.
    Mr. Chairman, I thank you for that tremendous support.
    Now then, we need an additional billion dollars. In a 
trillion dollar budget, that sounds like a manageable task, or 
a trillion plus. But what I am talking about is a system-wide 
commitment that deals with Idaho and deals with Hanford and 
deals with Paducah and all of those areas that have been well 
understood and well designated to have problems, environmental 
problems.
    While I am working with the chairman here, we are working 
with the chairman of the full committee, Senator Stevens, and 
yesterday he clearly gave his commitment to working to resolve 
these kind of things. Additionally, I must acknowledge the hard 
work, obviously, of the witnesses before. I have recognized 
you, Dr. Huntoon. Tomorrow another committee on which I serve, 
the Energy and Natural Resources Committee, will hold 
confirmation hearings for the person that President Bush has 
nominated to fill your shoes, Jessie Robertson, and we have 
already had that discussion. I have met with her and we have 
discussed the issue, and I know that you are working to prepare 
her for the responsibilities that she is going to be facing.
    This may be my best chance to speak to you and I sincerely 
want to acknowledge the hard work and the dedication of service 
that you have provided to the Department and to our lab in 
Idaho and the work that you have undertaken and in many ways 
accomplished.
    Finally, I have mentioned him, but let me recognize my 
colleague Mike Crapo. We have worked together to fight for this 
issue and for the additional funding necessary for years. Those 
of us in the Senate who represented the States with DOE sites 
have been somewhat loosely joined at times in alliances to 
support environmental cleanup. Now we have a formalized 
alliance, if you will, of the Nuclear Waste Cleanup Caucus. I 
thank both Doc Hastings in the House and Senator Crapo here for 
their leadership in organizing that and working with us to make 
sure that this happens, and it must happen, Mr. Chairman.
    We have a responsibility and a commitment to the States 
involved and to the citizens involved and to our country that 
when we initiate these programs we work to complete them in the 
end. 50 years of defense activity can oftentimes not be walked 
away from lightly. Again, I will work to find the efficiencies 
necessary, but with your commitment, Mr. Chairman and others, 
we will also work to fund the programs across the country. You 
cited one in your State that is critical to my State, the WIPP 
facility where our transuranic waste is now moving to.
    Cutbacks and slowdowns are certainly not a solution to a 
problem at a time when you and I are both wanting to see 
nuclear in a commercial sense lead and also deal with that 
particular waste problem that is generated for the sake of 
energy for this country.
    Again, Mr. Chairman, thank you very much for your support 
in this effort. I think collectively we will get there.
    Senator Domenici. Thank you very much, Senator.
    Senator Crapo, would you like to make a statement?

                    STATEMENT OF SENATOR MIKE CRAPO

    Senator Crapo. Yes, thank you, Mr. Chairman. Mr. Chairman, 
Senator Craig, and members of the subcommittee, I would like to 
thank you for allowing me the opportunity to speak briefly to 
you on the need to provide adequate funding for the Department 
of Energy's environmental management program.
    As Senator Craig has said so well, he and I have been 
working aggressively for the last few years to make certain 
that adequate funding is available to make clear that the 
Department of Energy will meet its commitments, not only in 
Idaho, but throughout the Nation and the DOE complex.
    I come before the subcommittee as the co-chairman of the 
Senate Nuclear Waste Cleanup Caucus and as a Senator with a 
major DOE lab and a cleanup facility near my home town, Idaho 
Falls. On March 8 Senator Craig and Senator Murray and I asked 
interested colleagues to join our informal caucus to raise 
awareness of the challenges facing the DOE complex as it tries 
to clean up the wastes left over from nuclear weapons 
production and nuclear reactor development.
    At present, 14 Senators have joined the caucus, including 
four members of this subcommittee, Senators Murray, Craig, 
McConnell, and Hollings. Today at DOE facilities across the 
country in States such as Ohio, Washington, Tennessee, South 
Carolina, Idaho, New Mexico, Nevada, Colorado, and New York, 
the DOE is working to safely store, treat, and process large 
volumes of high-level liquid wastes, mixed wastes, trans-uranic 
waste, low-level waste, spent nuclear fuel, and contaminated 
soils and water.
    All of this waste, which is the result of important 
national missions, requires careful handling to protect public 
health and the environment. Much of the work and progress being 
made cleaning up waste at DOE sites is driven by commitments 
made by the Federal Government under the Federal Facilities 
Compliance Act. Under this law, enacted in 1992, the Federal 
Government waived its right of sovereign immunity and entered 
into legally binding agreements to bring Federal facilities 
into compliance with existing environmental laws.
    This process lifted the veil of secrecy that surrounded 
many DOE sites and it gave communities and States a promise 
that cleanup commitments would be kept. Mr. Chairman, as 
members of this subcommittee know better than others, the DOE 
cleanup program is a very complicated, long-term, and a costly 
endeavor. In the not too distant past, this program has 
suffered from poor management, poor contracting, and poor 
performance. But in recent years the program has turned the 
corner and real progress is now being made on the ground.
    Indeed, the progress can be seen most clearly in the 
opening of the WIPP facility and the safe shipment of waste to 
this permanent disposal facility.
    Unfortunately, the DOE cleanup budget proposed by the 
administration will change that picture and slow or halt some 
of the critical progress being made in cleaning up waste across 
the DOE complex. On the surface, the proposed fiscal year 2002 
budget appears to reduce DOE EM accounts by about $350 million. 
But on closer scrutiny, the major cleanup accounts--defense 
closure projects, defense environmental restoration and waste 
management, and non-defense environmental restoration and waste 
management--are reduced by over $450 million from the fiscal 
year 2001 appropriated level.
    When the proposed cuts in the cleanup budget are matched 
against legally binding compliance agreements and requirements, 
the shortfall approaches $1 billion. The reductions proposed 
for the fiscal year 2002 DOE cleanup budget will increase risks 
to the environment and increase the long-term cost to complete 
the EM program. In addition, the proposed budget cuts will 
result in contracts being cancelled, enforceable milestones 
being missed, and thousands of workers being laid off.
    The proposed budget cuts are much deeper than they appear 
because as projects are stopped, milestones missed, and workers 
laid off, the States will impose fines and penalties, 
contractors and subcontractors will be paid termination costs, 
and displaced workers will receive severance packages and 
worker transition assistance.
    Congress needs to keep the commitments made to communities 
across the country to clean up DOE facilities and bring them 
into compliance with current environmental laws. In order to 
meet these commitments, additional funding is needed. That is 
why Senator Craig and Senator Murray and I authored the 
successful amendment to the budget resolution adding $1 billion 
to the DOE cleanup program. Mr. Chairman, in your capacity as 
chairman of the Senate Budget Committee, I appreciated your 
support for this same amendment and I look forward to working 
with you to identify opportunities during consideration of the 
supplemental appropriations bill or during the 2002 
appropriations process to provide these additional funds to the 
EM program.
    If the Federal Government breaks its word and reneges on 
its commitment to clean up existing DOE facilities in a timely 
manner, how will we ever be able to convince State governments, 
regulators, and stakeholders, and the public that the U.S. 
government will responsibly handle waste generated from today's 
national defense and energy programs? Who will believe today's 
promises if the Federal Government breaks promises made just a 
few years ago regarding the cleanup of nuclear waste?
    Mr. Chairman, I want to thank you for giving me a few 
minutes to urge members of this committee to do everything they 
can to support adequate funding for the DOE cleanup program. I 
know the members of the Senate Nuclear Waste Cleanup Caucus 
stand ready to work with you on this effort. The members of the 
Senate Nuclear Waste Cleanup Caucus also stand ready to assist 
Secretary Abraham in his review of the DOE cleanup program, but 
we do not support making cuts in the budget before efficiencies 
are identified.
    Mr. Chairman, speaking of caucuses, I want to thank you for 
your leadership in creating the Senate Nuclear Caucus, which 
seeks to promote a balanced evaluation of the contribution of 
nuclear energy, that it can make to our national energy 
strategy. In that regard, I am pleased to be an original co-
sponsor of S. 472, which will ensure that nuclear energy 
remains a viable component of our national energy strategy.
    Mr. Chairman, I look forward to working with you to 
increase the role of clean and reliable nuclear energy in our 
national energy strategy, and I thank you and Senator Craig for 
your strong and consistent work in this area.
    Senator Domenici. Thank you very much, Senator Crapo.
    Senator Crapo. Mr. Chairman, I might also ask to be 
released. I have got to preside on the floor in about 5 
minutes.
    Senator Domenici. You are. If you are finished with your 
statement, you are released, because that is all we want to 
hear from you.
    Senator Crapo. Thank you very much.
    Senator Domenici. Now we are going to proceed to you, 
doctor. I can recall when you took this job we talked a long 
time and on at least two occasions as to the nature of it and 
why in the world you would want it. You said you wanted the job 
very badly and that you would work very hard to make some real 
progress.
    I want to just open by saying there are a couple things 
about this account that make it very difficult. The first is 
that it is defense money. Money for this program comes 
predominantly from the Department of Defense. Now, that is a 
commitment. That is the way we have been appropriating it. That 
is the way they are supposed to be budgeting it. So it is not 
really the Department of Energy's money. It is the Department 
of Energy manages the money given to them by the Department of 
Defense to do this work.
    I think, Senator Craig, you and I have discussed on a 
number of occasions that makes it pretty difficult, because it 
is a very big ticket item each year, and when it comes out of 
the defense budget if they feel they have got a tight budget, 
it is pretty hard for them to figure out why they should give 
so much to this activity if they think some of their 
requirements of the military are being shortchanged.
    But the message is coming across this year loud and clear 
that if these programs have to be redone, if they have to be 
improved, reformed, changed, better management, you cannot do 
it by shortchanging them this year in the manner suggested in 
the President's budget. You need to have time to do that and 
you have to have time to sit down and work on these problems.
    Some of the projects are too expensive and have lasted too 
long. I do not think I put your project, Senator Craig, in that 
category.
    In any event, we would like to hear from you now and we 
have a few questions. This is our last chance to say thank you. 
You took a hard, hard job when you decided to do this in 
compliment you and thank you for your effort.
    Now, your statement will be made a part of the record. If 
you would please summarize it, we would be glad to hear from 
you.

                    STATEMENT OF CAROLYN L. HUNTOON

    Dr. Huntoon. Thank you, Senator Domenici and Senator Craig. 
It is a pleasure to be here today to talk about the budget. I 
am here to ask you to support our environmental management 
budget for fiscal year 2002. As you mentioned, the 50-year 
legacy that we are trying to clean up left profound 
environmental contamination. I am talking about the trillions 
of gallons of contaminated ground water, millions of cubic 
meters of contaminated soil, millions of gallons of highly 
radioactive liquid waste, and thousands of contaminated 
buildings across our country.

                           CLEAN UP PROGRESS

    Although progress in addressing these problems was 
initially slow, I believe we have turned a corner and we are 
making real tangible progress. For example, we have cleaned up 
71 of the 113 sites, or 66 percent, and 3 more will be done by 
the end of this year. We have completed cleanup at over 4,900 
of the nearly 10,000 release sites. We have stabilized 57 
percent of our nuclear material residues and 12 percent of the 
plutonium metals and oxides.
    At the Hanford site in Washington State, we are moving 
spent nuclear fuel from the K basins to a safe dry storage. At 
Oak Ridge in Tennessee, we completed the cleanup of gunnite 
tanks 10 years ahead of schedule by using innovative 
technologies. At Paducah in Kentucky, we completed the removal 
of the infamous Drug Mountain ahead of schedule. At the 
Savannah River site in South Carolina, we have produced over 
1200 canisters of vitrified high-level waste and we have 
disposed of over 1500 cubic meters of transuranic waste at 
WIPP.
    We are doing so well at Rocky Flats now that 2006 is moving 
from being a vision to being a realistic goal. In short, we 
have accomplished a lot, but we still have a lot to do. We have 
been doing it safely.

                           BUDGET PRIORITIES

    For fiscal year 2002 we are requesting, as you mentioned, 
$5.91 billion for this program. This may not be as much as we 
would like, but $5.91 billion is still a lot of money and I 
believe we can make progress. The budget continues to place the 
highest priorities on protecting the health and safety of our 
workers, the public at all the DOE sites, and continuing to 
work to mitigate our highest risks. We will ensure nuclear 
materials are properly managed and safeguarded and we will 
maintain compliance as the priority, but, given the demands of 
this budget, it will be a challenge at many of our sites.
    We have given priority to several key projects that will 
reduce high risk, provide significant reduction, or are key to 
completing activities at other sites. These projects include 
keeping Rocky Flats and Fernault in Ohio on track to meet their 
accelerated closure schedules, continuing progress to design 
and construct a vitrification plant to immobilize high-risk 
highly radioactive waste at Hanford, vitrifying the highly 
radioactive waste at Savannah River and selecting a technology 
to pretreat a portion of that waste, we almost double the 
shipments of transuranic waste to WIPP, to support closure or 
compliance requirements at other sites, including Idaho, Rocky 
Flats, Savannah River, and Argonne Laboratory East in Chicago.
    We are going to be stabilizing spent nuclear fuel or moving 
it from wet storage into dry safe storage at a number of our 
sites. We are going to continue progress on disposing of waste 
and cleaning up sites. We are completing active cleanup at 
Weldon Springs in Missouri and we are developing a long-term 
stewardship program to monitor and maintain remedies across the 
complex after cleanup is done.
    The budget continues to fund development and deployment of 
new technologies that can help reduce cleanup costs and 
schedules.
    The fiscal year 2002 request also funds high priority new 
responsibilities that EM has been given: turnover of the 
uranium enrichment plant at Portsmouth, Ohio, and activities 
required to keep it safe and operable; design and construction 
of the depleted uranium hexafluoride conversion plants at 
Portsmouth and Paducah; and acceptance of some excess 
facilities from the National Nuclear Security Administration 
and the Office of Science for decontamination and 
decommissioning.

                            EFFICIENCY GOALS

    The Secretary has challenged every program in the 
Department to become 5 to 10 percent more efficient. In 
addition, he challenged us to reduce the schedules and cost of 
completing cleanup. The EM budget reflects this challenge. The 
Secretary has asked me to initiate a top to bottom assessment 
of the program that will be completed by my successor. The 
goals here are to strengthen our project management, reduce 
contractor overhead, employ effective contracting strategies, 
ensure that we are performing work as efficiently as possible 
and in the proper sequence, and ensure that our decisions are 
based on sound science.
    In implementing this approach, EM will continue an open 
dialogue with the Federal and State regulators. The Secretary 
has invited the governors of the States that host our sites and 
EPA Administrator Whitman to work with him to find more 
efficient ways to do business and improve our compliance 
framework.

                           PREPARED STATEMENT

    By working together with our Federal partners and our 
contractors and with your support of this budget, we can 
develop solutions to achieve our shared environmental goals.
    Thank you for your continued support of this program. I 
will be happy to answer any questions.
    [The statement follows:]

              Prepared Statement of Dr. Carolyn L. Huntoon

    Mr. Chairman, and Members of the Subcommittee, I appreciate this 
opportunity to appear before you to discuss the Department of Energy's 
Environmental Management (EM) program and its fiscal year 2002 budget 
request.
    The Department of Energy's fiscal year 2002 request of $19.2 
billion fulfills President Bush's commitment to responsible 
discretionary spending while meeting critical requirements and 
priorities in the national security, energy, science and environmental 
quality programs the Department administers. We faced some tough 
choices for all of the Department's programs, but the end result is a 
balance among the critical national priorities in the programs 
administered by DOE.
    The Environmental Management program constitutes nearly a third of 
the Department's budget, second only to our national security 
activities, illustrating the scope and complexity, as well as the 
challenge, of the cleanup we face. Our budget request of $5.913 billion 
for fiscal year 2002 for the EM program will enable DOE to continue the 
cleanup of the contamination and wastes that resulted primarily from 
nuclear weapons research and production over the past 50 years. The 
request seeks $5.771 billion in traditional budget authority and $142 
million in budget authority to support privatization projects. Detailed 
information on site activities covered under this account are attached 
to this testimony.
    The level of funding in our request reflects the Department's 
priorities for the EM program. These priorities are, first and 
foremost, to ensure the safety of the workers and the public at all our 
sites. The request supports critical safety programs for the protection 
of workers who carry out cleanup activities across the DOE complex. Our 
request supports activities needed to address high risk wastes and 
nuclear materials to ensure they are safe and secure and that progress 
continues to reduce risks. It keeps us on track to meet accelerated 
closure schedules at Rocky Flats in Colorado and the Fernald site in 
Ohio. It supports many key projects, including the development of a 
waste treatment plant at Hanford to immobilize high-level waste, 
increased waste shipments to the Waste Isolation Pilot Plant, and 
stabilization of spent nuclear fuel and plutonium materials at the 
Savannah River Site in South Carolina. It supports the completion of 
cleanup at the Weldon Spring Site in fiscal year 2002. Our budget 
request continues efforts to develop and deploy innovative technologies 
that can reduce the cost and schedule of cleanup. While the budget 
addresses the major cleanup problems covered by compliance agreements 
and other essential requirements across the complex, Energy Secretary 
Abraham also has directed a top-to-bottom management review of the EM 
program with the goal of identifying efficiencies and speeding up our 
cleanup efforts.
    The Secretary has challenged every program in the Department to 
become five to ten percent more efficient and the EM review will focus 
on meeting this challenge. Under this management review, the program 
will work to identify steps to strengthen project management, implement 
contracting strategies that help reduce costs and schedules, make 
greater use of new technologies, and sequence work more effectively. We 
must be sure that we are spending our cleanup dollars on the right 
problems and that we are addressing cleanup problems as effectively as 
possible.
    Critical to the success of these efforts is the involvement and 
support of our state and federal partners. The Department is firmly 
committed to conducting the cleanup safely and in compliance with 
applicable laws and regulations. It is critical, however, that we are 
conducting the cleanup in the best and most practical way possible. 
Accordingly, the Secretary has invited the governors of the States that 
host our sites and EPA Administrator Christine Todd Whitman to work 
with us to improve the compliance framework that governs much of the 
cleanup work at our sites. We need to review our cleanup work to ensure 
it promotes on-the-ground results, makes use of technologies that are 
efficient, and reflects the lessons and technical understanding 
developed over the past decade. I am confident that, working 
cooperatively, we can find ways to achieve our shared environmental 
goals more efficiently.
                              introduction
    Before discussing the specifics of our fiscal year 2002 budget 
request, I would like to provide an overview of our program, as well as 
highlight some of our accomplishments in the past year and our planned 
achievements for the current fiscal year.
           meeting the challenge of the environmental legacy
    The Environmental Management program is responsible for managing 
and cleaning up the environmental legacy of the nation's nuclear 
weapons program and government-sponsored nuclear energy research. A 
common theme among the very diverse facilities across the country where 
the EM program is conducting cleanup is the challenge presented by the 
magnitude and complexity of the task we face in managing large volumes 
of nuclear wastes, safeguarding materials that could be used in nuclear 
weapons, and remediating extensive surface and groundwater 
contamination.
    In total, we are responsible for addressing an estimated 1.7 
trillion gallons of contaminated groundwater and 40 million cubic 
meters of contaminated soil and debris. EM is responsible for safely 
storing and guarding more than 18 metric tons of weapons-usable 
plutonium, enough for hundreds of nuclear weapons. Our inventory 
includes over two thousand tons of intensely radioactive spent nuclear 
fuel, some of which is corroding. EM is also responsible for storage, 
treatment, and disposal of radioactive and hazardous waste, including 
over 340,000 cubic meters of high-level waste stored at the Hanford, 
Idaho, New York and Savannah River sites; and for deactivation and 
decommissioning of about 4,000 facilities that will no longer be needed 
to support the Department's mission. The EM program also is responsible 
for critical nuclear non-proliferation programs to accept and safely 
manage spent nuclear fuel from foreign research reactors that contain 
weapons-usable highly enriched uranium.
    Completing the cleanup of the legacy from nuclear weapons 
production will meet our obligations to those communities and states 
that supported our national defense effort and helped win both the 
Second World War and the Cold War. Completing this cleanup will allow 
us to turn lands and facilities to other public uses and allow the 
Department to focus on its science, security, and energy missions.
            accomplishments and progress in fiscal year 2001
    I am pleased to report that EM is making significant progress 
around the country. Our accomplishments reflect the program's continued 
commitment to performance-based management, establishing goals and 
performance measures that demonstrate our progress in on-the-ground 
environmental cleanup and meeting our goals. For example:
    1. In fiscal year 2000, EM completed its cleanup work at two more 
sites--the Battelle Columbus-King Avenue site in Ohio and the 
Monticello site in Utah. We plan to complete cleanup of the Grand 
Junction site in Colorado, General Atomics in California, and Argonne-
West in Idaho by the end of fiscal year 2001. This will bring the 
number of completed sites to 74, with 40 sites (including the Moab site 
in Utah) remaining that require active cleanup.
    2. The rate of shipments of transuranic waste for disposal at the 
Waste Isolation Pilot Plant (WIPP), the world's first deep geologic 
waste repository, continues to increase. WIPP received 58 shipments in 
fiscal year 2000 and plans to receive an additional 381 shipments by 
the end of fiscal year 2001, which will bring the total number of 
shipments to 471 containing over 3,000 cubic meters of waste since WIPP 
began operations in March 1999. We are receiving waste from Rocky 
Flats, Los Alamos National Laboratory in New Mexico, Hanford, and the 
Idaho National Engineering and Environmental Laboratory (INEEL), and 
made the first shipment from the Savannah River Site last week.
    3. We continue progress toward the ambitious goal of closing Rocky 
Flats by 2006. In February 2000, we put in place a new ``closure'' 
contract that provides incentives to the contractor to meet the 
December 2006 target date for site closure. We completed the demolition 
of Building 779 in January 2000, eight months ahead of schedule. This 
is the first plutonium facility of its size and complexity in the 
nation to be decommissioned and demolished. Shipments of waste 
continue, including 249 cubic meters of transuranic waste to WIPP in 
fiscal year 2000 with another 1,000 cubic meters scheduled for fiscal 
year 2001. And we are removing nuclear materials from the site--we 
completed shipments of plutonium scrub alloy to the Savannah River Site 
in fiscal year 2000 and will complete shipments of classified metals to 
Los Alamos and the Savannah River Site in fiscal year 2001.
    4. In December 2000, we awarded a ``closure'' contract for the 
Fernald site in Ohio, which includes incentives to the contractor to 
accelerate closure ahead of the 2010 closure date in the site's current 
baseline. We continue to stay on track for closure by deactivating and 
decommissioning facilities, disposing of contaminated soils and waste, 
and shipping nuclear materials off-site.
    5. We produced a total of 241 canisters of vitrified high-level 
waste in fiscal year 2000 at the Savannah River Site in South Carolina 
and at West Valley in New York. In fiscal year 2001, we expect to 
produce 220 more canisters at the Savannah River Site facility and to 
complete five or more canisters at West Valley.
    6. At INEEL, we recently finished moving Three Mile Island spent 
nuclear fuel debris to a newly constructed dry storage facility, almost 
two months ahead of the milestone in the Idaho Settlement Agreement. 
Construction of the Advanced Mixed Waste Treatment Project started in 
fiscal year 2000 under a privatization contract. This facility will 
treat up to 65,000 cubic meters of stored waste. Transuranic waste 
shipments to WIPP continue in support of the Settlement Agreement with 
the State.
    7. At the Oak Ridge Reservation in Tennessee, we completed the 
cleanup of all eight ``Gunite'' tanks containing highly radioactive 
sludge in fiscal year 2000, eight months ahead of schedule and ten 
years ahead of the original baseline. We began shipments of low-level 
waste to the Nevada Test Site for disposal, which allowed the 
resumption of off-site shipments of waste to the Toxic Substances 
Control Act (TSCA) Incinerator under an agreement with the State. In 
fiscal year 2001, we will begin construction of a new on-site disposal 
facility for remediation wastes, as well as the construction of a 
transuranic/alpha waste treatment facility which will prepare Oak Ridge 
waste for shipment to WIPP.
    8. At the Hanford site in Washington State, we continue to make 
significant progress in reducing the urgent risks associated with the 
177 underground high-level waste tanks, some of which have leaked to 
the surrounding soils threatening groundwater and the nearby Columbia 
River. We are successfully resolving tank safety issues--in fiscal year 
2001 we will resolve an issue related to flammable gas safety, the last 
of high priority safety issues, and remove all remaining tanks from the 
``Watch List.'' We continue interim stabilization of single-shell 
tanks, transferring free liquids in the tanks to more secure double-
shelled tanks. We began pumping free liquids from four single-shelled 
tanks in fiscal year 2000 and will begin pumping another six tanks in 
fiscal year 2001, meeting all milestones in the Consent Decree with the 
State of Washington. In December 2000, a new performance-based contract 
was awarded ahead of schedule for construction of the treatment 
facility that will immobilize a significant portion of the high-level 
tank waste.
    9. Also at Hanford, in December 2000, we began moving spent nuclear 
fuel from the K-West basins to safer, dry storage away from the 
Columbia River. We plan to remove, dry, and transport 116 metric tons 
heavy metal of spent nuclear fuel in fiscal year 2001. We are also 
continuing the stabilization of plutonium-bearing liquids and materials 
in the Plutonium Finishing Plant, completing about 50 percent of 
solutions and nine percent of the containers by the end of fiscal year 
2001. In fiscal year 2001, we will dispose of more than 490,000 tons of 
contaminated soil and debris in the on-site disposal facility.
    10. In December 2000, we completed the removal and packaging of 
``Drum Mountain,'' a pile of thousands of crushed contaminated drums, 
at the Paducah site in Kentucky.
    11. In fiscal year 2001, we will complete construction of the 
Decontamination Waste Treatment Facility at the Lawrence Livermore 
National Laboratory in California. This facility will provide new, 
state-of-the-art technology for treatment of Livermore waste.
    12. At the Los Alamos National Laboratory, we began full operation 
of our sealed source program in fiscal year 2001 to recover radioactive 
sources that exceed the U.S. Nuclear Regulatory Commission's upper 
limit for commercial disposal and therefore currently have no approved 
disposal pathway. This program removes unwanted radioactive sources 
from the private and public sector and places them in safe storage at 
Los Alamos. We have brought 1100 private sector sealed sources to Los 
Alamos for storage and expect to recover over 2000 sources by the end 
of fiscal year 2001.
    In support of non-proliferation goals, we have completed a total of 
19 shipments to date of spent nuclear fuel from foreign research 
reactors in 25 countries since the start of the acceptance program, 
including three shipments in fiscal year 2001 from Argentina, Chile, 
Germany, Italy and Japan. All told, these 19 shipments effectively 
removed from commerce an amount of uranium equivalent to over 20 crude 
nuclear weapons. This program is crucial in supporting U.S. policy to 
reduce and eventually eliminate the use of highly enriched (nuclear 
weapons-capable) uranium in civil commerce world-wide.
    All EM sites achieved full implementation of Integrated Safety 
Management (ISM) by the end of fiscal year 2000. ISM is a ``common 
sense'' approach to safety management that defines the necessary safety 
structure for any work activity that could affect the safety of the 
public, the workers, or the environment.
    Our on-the-ground use of new innovative technologies continues to 
increase, many of which contributed to or resulted in the 
accomplishments described above. During fiscal year 2000, DOE sites 
used EM-sponsored innovative technologies 210 times in cleanup 
activities. For example, a breakthrough technology 
(LASAGNA<SUP>TM</SUP>) that uses buried electrodes to produce a flow of 
groundwater and dissolved contaminants toward ``in situ'' treatment 
zones was deployed at the Paducah Gaseous Diffusion Plant to treat 
trichloroethylene and technetium contamination in the ground. During 
the next two years, this technology is expected to reduce the level of 
contamination in the soil to a level that presents no threat to 
groundwater.
    Also in fiscal year 2000, 30 innovative technologies were made 
available for use for the first time. One such technology is the Vadose 
Zone Characterization System which measures contaminants that have 
leaked from high-level waste tanks into the groundwater. We also 
initiated 37 full-scale demonstrations of innovative technologies, 
including the Fiber Optic Tritium Detector and Quantifier, which 
enables tritium measurements to be made safer, faster (real time), 
better and cheaper than traditional liquid scintillation-based 
techniques.
    During fiscal year 2001, the sites expect to deploy new technology 
at least 60 times in cleanup activities. For example, we plan to deploy 
a new technology recommended by the fiscal year 2001 ``blue ribbon 
panel'' on alternatives to incineration at Hanford to treat organic 
hazardous and radioactive mixed waste.
                      the fiscal year 2002 request
    The fiscal year 2002 budget request of $5.913 billion will enable 
EM to continue making progress in cleaning up its sites. The request 
supports the Department's key priorities needed to meet the 
environmental management mission. Our request:
  --protects the health and safety of the workers and the public at all 
        our sites as our first priority;
  --ensures the safety and security of high risk wastes and nuclear 
        materials and continues the progress in addressing our high-
        risk cleanup problems and addresses critical needs across the 
        DOE complex;
  --keeps the major sites on track for meeting accelerated closure 
        goals;
  --continues investments in science and technology to find safer, less 
        expensive and more efficient solutions for cleanup problems;
  --provides for long-term stewardship responsibilities after cleanup 
        is done.
    In addition, the budget request for fiscal year 2002 reflects an 
increased scope of responsibility from previous requests, including:
    Turnover of the Portsmouth Plant.--In June 2000, the U.S. 
Enrichment Corporation (USEC) announced its intention to cease uranium 
enrichment operations at the Portsmouth Gaseous Diffusion Plant in 
Ohio. The Department must take steps to keep the facilities in a safe 
and operable standby condition to ensure, if necessary, that U.S. 
energy security and nuclear fuel commitments can be met; mitigate the 
impact of the cessation of enrichment activities on workers; and 
transition the facility from USEC operation to DOE stewardship.
    Uranium Programs.--The Energy and Water Development Appropriation 
for Fiscal Year 2001 consolidated funding for Uranium Programs and 
cleanup activities and authorized the transfer of federal personnel 
from the Office of Nuclear Energy, Science and Technology to EM to 
carry out the associated responsibilities. With this transfer, EM is 
now the landlord at the gaseous diffusion plant sites, responsible for 
the management and disposition of 680,000 metric tons of depleted 
uranium hexafluoride, among other activities associated with the 
gaseous diffusion plants now leased to USEC.
    Remediation of the Moab Site.--The National Defense Authorization 
Act for Fiscal Year 2001 directed the Department to undertake the 
remediation of the uranium mill tailings site in Moab, Utah, a site 
previously owned and operated by a now-bankrupt private company.
    Transfer of Excess Facilities.--Beginning in fiscal year 2002, EM 
will resume for the first time since 1996 accepting excess contaminated 
facilities, on a limited basis, from other DOE program offices for 
eventual deactivation and decommissioning.
    I would like to highlight some of the critical activities supported 
in the fiscal year 2002 request and our plans for the Environmental 
Management program.
                              safety first
    The safety of our workers is paramount in all we do. We expect 
outstanding safety performance as a matter of course, demand this from 
ourselves and our contractors, and accept nothing less. Full and 
continued implementation of Integrated Safety Management is our way of 
achieving and sustaining a safe and healthful cleanup. The fundamental 
principle of Integrated Safety Management is that all accidents are 
preventable and that safety requirements must be consistent and defined 
at all steps of planning and conducting work. We recognize that safety 
culture flows down from actions by the senior management of an 
organization. These actions enforce the belief at every level that 
constant attention to safety has an incremental beneficial effect. The 
Office of Safety, Health and Security was created to track safety and 
to assist our managers, programs and sites in meeting their safety 
responsibilities.
    We influence workers' approach to doing a job by instilling a 
safety culture; ensuring that workers have the proper knowledge, 
qualifications, training and equipment; identifying areas for 
improvement and verifying that safety deficiencies are corrected, and 
measuring progress and disseminating lessons learned.
    We also have a new initiative to more formally assure that new 
technologies are developed with the safety of the worker using them as 
a primary consideration. New technologies, however cost effective, will 
not be developed and deployed unless they can be used safely. Our goal 
is develop technologies that are safer to use, and make cleanup safer.
    Our enhanced focus on safety has begun to pay off. Currently, the 
total recordable case rate (a measure of occupational injuries and 
illnesses, more serious than those requiring first aid) for EM 
contractors and federal employees was 1.7 compared to the overall DOE 
rate of 2.0 and the private industry average of 6.7, despite the fact 
that the construction type work employed in EM activities is considered 
to be among the most hazardous. We have, in fact, reduced the EM total 
recordable case rate by 25 percent since 1999. There has also been 
considerable progress in closing out corrective actions in response to 
independently-observed safety deficiencies. There is every indication 
that workers are committed to the principles of Integrated Safety 
Management and are taking an active role in making it a part of 
workplace culture. We are driving safety performance to new levels of 
excellence, and are developing new ways to safely manage the risks 
associated with cleanup. Our fiscal year 2002 request fully funds the 
safety systems and processes that ensure our workers are protected.
        giving priority to the highest risk materials and wastes
    Moving spent nuclear fuel to safe storage at Hanford.--In December 
2000, we began removing spent nuclear fuel from K-West Basins at the 
Hanford Site in Washington as part of our ongoing effort to protect the 
Columbia River. This project is a first-of-a-kind technical solution to 
move 2,100 metric tons of corroding spent nuclear fuel from at-risk wet 
storage conditions in the K-East and K-West basins into safe, dry 
storage in a new facility away from the river. Our fiscal year 2002 
request of $163 million for the Spent Nuclear Fuel Project at Hanford 
allows this critical project to continue on schedule, supporting the 
transport of 662 metric tons of spent nuclear fuel from K-West Basin 
and the completion of modifications to K-East Basins.
    Stabilize Plutonium at Hanford and the Savannah River Site.--We are 
reducing risks by stabilizing plutonium-bearing materials at Hanford 
and the Savannah River Site, consistent with our commitments to the 
Defense Nuclear Facilities Safety Board. At Hanford, our request 
provides $73.8 million to continue stabilization activities at the 
Plutonium Finishing Plant, where we will complete stabilization of the 
remaining 4,300 liters of plutonium-bearing solutions and polycubes and 
continue stabilization and packaging of plutonium oxides and residues. 
These stabilization activities are a critical step in the deactivation 
of Plutonium Finishing Plant, which will significantly reduce 
``mortgage'' costs at Hanford.
    At the Savannah River Site, our request of $357.6 million will 
continue operations in the two chemical processing canyons to stabilize 
nuclear materials, including plutonium residues and plutonium metals 
and oxides, as well as plutonium alloys from Rocky Flats. Stabilization 
of these ``at risk'' materials is critical in resolving health and 
safety concerns surrounding these liquid or unstable radioactive 
materials; in supporting closure goals at Rocky Flats; and in 
responding to Defense Nuclear Facilities Safety Board recommendations. 
By the end of fiscal year 2002, with stabilization of sand, slag and 
crucible plutonium residues, we will complete processing of all nuclear 
materials currently planned to be stabilized using the PUREX process in 
F-Canyon.
    Safely Manage and Treat High-Level Waste in Underground Storage 
Tanks at Hanford.--The River Protection Project at Hanford includes the 
safe storage, retrieval, and treatment of 53 million gallons of high-
level waste now stored in 177 underground tanks near the Columbia 
River. In fiscal year 2002, we will continue interim stabilization of 
the tanks, i.e., pumping liquid waste from single-shelled tanks, which 
are at or beyond their design life or do not conform to current design 
codes, into more reliable double-shelled tanks. We will initiate 
pumping of four additional single shell tanks, staying on track to meet 
our commitment to complete interim stabilization of all single-shell 
tanks in 2004.
    Fiscal year 2002 is a critical year in developing the facility to 
vitrify the high-level tank waste, one of the most critical, complex 
and costly projects in the DOE complex. The fiscal year 2002 request 
provides $500 million to develop treatment facilities to vitrify at 
least 10 percent by volume and 25 percent of the radioactivity of the 
53 million gallons of high-level tank waste. Initially being developed 
under a privatization approach, the privatized contract was terminated 
in May 2000 because of price and management concerns, and a new 
contract using a cost-reimbursement approach was awarded in December 
2000. The new contract contains incentives tied to performance, 
encouraging the contractor to meet or exceed cost and schedule goals. 
The request provides funds to initiate construction of high-level waste 
pre-treatment and low-activity vitrification facilities and continues 
the design and installation of waste retrieval systems that will 
provide waste feed to the treatment facilities.
    Treat High-Level Waste and Begin Construction of Salt Processing 
Pilot Plant at Savannah River Site.--The fiscal year 2002 request 
includes $110.6 million to support continued vitrification of high-
level waste at the Defense Waste Processing Facility that has produced 
more than 1,080 canisters of vitrified waste. By the end of fiscal year 
2002, we will complete about 22 percent of the expected lifetime total 
of 6,025 canisters. The request also supports development of a 
technology to separate the high-activity and low-activity fractions of 
the salt waste, in order to minimize the amount of waste that must be 
vitrified and disposed of in a deep geologic repository. The Department 
is scheduled to identify a preferred alternative technology or 
technologies in June 2001 to replace the In-Tank Precipitation 
technology, which was terminated in 1998 because of excessive benzene 
generation. Two of three technology options currently being considered 
are a result of the EM science program--without this work, Savannah 
River Site would have had to begin development of new alternatives, 
creating a further delay of at least six years. In fiscal year 2002, we 
will begin construction of a pilot plant that will provide design and 
operational information for a full-scale salt processing plant.
    Complete Construction of the Advanced Mixed Waste Treatment Project 
at INEEL.--The request includes $40 million in budget authority for the 
Advanced Mixed Waste Treatment Project (AMWTP) at INEEL, a 
privatization project that will greatly increase the INEEL's capability 
to prepare 65,000 cubic meters of waste for disposal at WIPP. In fiscal 
year 2002, we will complete construction of the facility, and we will 
be on track to begin operations in 2003 in accordance with the 
agreement with the State.
    In response to a lawsuit and community concerns, the Department put 
the incineration component of the AMWTP on hold pending an expert 
review of alternative technologies to incineration that can meet legal 
standards. The ``blue ribbon panel'' of experts, in a December 2000 
report, identified several promising technologies. The request provides 
$5 million to explore several of these technologies, which may 
eliminate the need for the incinerator that had been planned for AMWTP.
    Increase Shipments to WIPP.--The request of $164.6 million plus 
$2.6 million for safeguards and security for the Waste Isolation Pilot 
Plant will allow us to increase shipments of contact-handled 
transuranic waste to WIPP in fiscal year 2002. We will continue 
critical shipments from Rocky Flats to support the closure schedule and 
from INEEL to meet its agreement with the State, as well as limited 
shipments from other sites. The WIPP facility remains critical to 
meeting our closure and completion goals at other sites.
    Begin Construction of a Pilot for ``Melt and Dilute'' Technology.--
The Savannah River Site has been developing a cost-effective path 
forward for spent nuclear fuel that does not require stabilization for 
health and safety reasons. This research and development effort is 
helping us identify technologies to manage spent nuclear fuel and other 
nuclear materials without chemical separation. Our efforts to develop 
the ``melt-and-dilute'' process have been so successful that we 
selected it as the preferred technology to prepare aluminum-based spent 
nuclear fuel for geologic disposal. Construction of a pilot plant that 
will test real spent fuel to demonstrate the viability of the melt and 
dilute process will be completed this fiscal year, and the $4 million 
requested in fiscal year 2002 will support operations of the pilot 
plant. This will provide a firm basis for the design and construction 
of the full-scale facility to prepare and store this spent nuclear fuel 
prior to final disposition in a geologic repository.
                 supporting the closure of major sites
    Staying On Track to Close Rocky Flats.--The fiscal year 2002 budget 
request of $628.6 million plus $35.4 for safeguards and security, or a 
total of $664 million, supports the closure of Rocky Flats by December 
15, 2006, the closure date targeted in the contract. The Rocky Flats 
site is the largest site challenged to accelerate site cleanup and 
achieve closure in 2006. To date, significant progress has been made 
toward making this goal a reality. A key ingredient for closing Rocky 
Flats is being able to ship nuclear materials and waste off-site, which 
requires that other sites--often DOE sites--are available and prepared 
to accept the materials. Our request also provides the necessary funds 
to other sites, such as Savannah River Site, Oak Ridge, Nevada Test 
Site, and WIPP, to support their part of the Rocky Flats closure 
effort. The coordination and support of these planned shipping 
campaigns to the receiver sites demonstrates the Department-wide 
commitment to the goal of achieving accelerated closure of Rocky Flats.
    Accelerating the Closure of the Fernald Site.--Our request of 
$285.3 plus $4.7 million for safeguards and security also funds efforts 
to complete cleanup and close the Fernald site in Ohio. The site is 
currently scheduled to close in 2010, but the new closure contract for 
Fernald awarded last November includes incentives to the contractor to 
accelerate the completion date to 2006. Fiscal year 2002 efforts build 
on past years' cleanup progress, including stabilization of liquid 
uranium solutions, off-site shipment of low level radioactive wastes, 
disposition of excess nuclear materials, and decontamination and 
demolition of several large industrial buildings at Fernald. We will 
continue these activities in fiscal year 2002, including completing 
shipments of uranium materials to the Portsmouth site in Ohio for 
disposition, and beginning the full-scale remediation project for Silos 
1 and 2 that contain radium-bearing residues generated from the 
processing of high-grade uranium ore.
                      meeting new responsibilities
    The budget request for fiscal year 2002 reflects an increased scope 
of responsibilities assigned to EM as a consequence of Congressional 
action in last year's legislation or internal initiatives. We have 
incorporated these new requirements into our request and prioritized 
the necessary activities in consideration of existing requirements of 
the Environmental Management program.
    Turnover of the Portsmouth Plant.--In June 2000, the United States 
Enrichment Corporation (USEC) announced its intention to cease uranium 
enrichment operations at the Portsmouth Gaseous Diffusion Plant in Ohio 
and to return the plant to DOE. The EM program is responsible for 
placing and maintaining the plant in cold standby condition and for 
other critical transition-related activities, as well as eventual 
decontamination and decommissioning of the plant.
    A total of $125 million requested in fiscal year 2002 supports 
activities to winterize the facilities, place the facilities in cold 
standby, and mitigate the impacts on the workforce. Some of these funds 
will be used to replace some of the funding sources for an fiscal year 
2001 reprogramming for transition activities now pending before 
Congress. In fiscal year 2002, this will allow us to complete the 
winterization of the plant, an activity we must begin this year. It 
will fund actions needed to place those portions of the plant needed 
for production of enriched uranium in a condition that would allow for 
restart of the operations within 18 to 24 months, should that become 
necessary in the future. And it allows us to selectively begin 
deactivating other parts of the plant and structures at the site that 
are no longer needed in order to reduce the surveillance and 
maintenance costs.
    Uranium Programs.--The Energy and Water Development Appropriation 
for fiscal year 2001 consolidated funding for Uranium Programs and 
cleanup activities, and authorized the transfer of federal personnel 
from the Office of Nuclear Energy, Science and Technology (NE) to the 
Environmental Management program. With this transfer, EM became 
responsible for a number of additional activities, including safely 
managing 680,000 metric tons of depleted uranium hexafloride 
(DUF<INF>6</INF>) now stored at three gaseous diffusion plant sites and 
the design, construction and operation of DUF<INF>6</INF> conversion 
facilities at Portsmouth and Paducah. We also are responsible for 
maintenance and cleanup of facilities not leased to USEC, management of 
DOE Material Storage Areas in and around USEC buildings, and for pre-
existing liabilities arising from law or agreement after the transfer 
of the uranium enrichment operations to USEC.
    The fiscal year 2002 request places priority on actions needed to 
ensure safety, including maintenance of the DUF<INF>6</INF> cylinders. 
We also will continue to work with the Commonwealth of Kentucky 
regulators to undertake actions needed to resolve the notice of 
violation issued by Kentucky concerning hazardous waste identified in 
the DOE Material Storage Areas at Paducah. The request also keeps the 
development of the DUF<INF>6</INF> conversion facilities on track to 
begin construction in January 2004, consistent with the schedule 
provided in Public Law 105-204.
    Transfer of Excess Facilities.--The Department has a number of 
aging facilities that are no longer needed to support mission work. The 
costs to maintain these facilities so that they do not become a safety 
or contamination hazard can be significant, costs which can increase as 
facilities degrade over time. EM currently manages the majority of the 
Department's excess contaminated facilities. Since 1996, due to 
concerns about funding and increasing the scope of EM responsibilities, 
facilities that became excess to the needs of other programs have been 
managed by those programs. However, consistent with a new DOE order, 
beginning in fiscal year 2002, EM will, on a limited basis, begin 
accepting excess contaminated facilities from other DOE program offices 
for eventual deactivation and decommissioning.
    In fiscal year 2002, ten facilities or facility complexes, located 
at Brookhaven, Oak Ridge, Pantex Plant in Texas, and the Savannah River 
Site, will transfer to EM from the National Nuclear Security 
Administration, the Office of Science, and the Office of Nuclear 
Energy. We are requesting funds for surveillance and maintenance to 
enable EM to manage these newly transferred facilities safely, based on 
a budget transfer from the DOE program that currently ``owns'' the 
facility. Since these excess facilities constitute new work scope for 
the EM program, we are requesting the funding in a separate program 
account to enable DOE and the Congress to track the cost and progress 
associated with the excess facilities transferring in fiscal year 2002. 
We also plan to include facility transfers in future years in this 
account.
          continuing the investment in science and technology
    Developing and using more effective technologies in our cleanup 
continues to be a critical element of our strategy to reduce the cost 
and the pace of cleanup. Since its inception, EM's Science and 
Technology program has made approximately 280 innovative technologies 
available for use. Yet we have seen an increase in the needs for 
technological solutions reported by the sites. This is due to a large 
degree to better problem definition and a better understanding of 
project requirements, uncertainties, and costs. More than two-thirds of 
the EM life-cycle cost estimate occur after 2006, so the need for 
Science and Technology investments continues.
    The fiscal year 2002 request of $196 million for the Science and 
Technology program activities will support the Department's near-term 
needs for technical solutions while allowing us to work toward 
solutions for the more intractable environmental problems.
    Over the past several years, Environmental Management's Science and 
Technology program has concentrated not only on technical achievements, 
but also on ensuring its activities are directly linked to solving 
specific problems identified by project managers in the field and 
enhancing the program's management practices. I am pleased to report 
today that both technical advances and management processes for the 
Science and Technology program are solidly on track:
    On-the-ground Successes.--In fiscal year 2000 alone, there were 
more than 200 innovative technologies used for the first-time in a 
project or site across the complex, demonstrating that EM's Science and 
technology program is successfully meeting real cleanup needs. For 
example, an innovative phytoremediation process was activated at the 
Mixed Waste Management Facility at the Savannah River Site. Tritium-
contaminated water is pumped above ground and sprayed onto the roots of 
selected trees where it is evapo-transpired into the atmosphere at safe 
concentrations. This process, which is already making improvements in 
downstream water quality, will prevent contaminants from flowing into 
Fourmile Creek and the Savannah River Site.
    At Hanford, the In Situ Redox Manipulation process, a 1998 R&D 
Magazine R&D 100 Award recipient, is being used on the highest-
concentrated portion of a chromium VI groundwater plume. This process 
replaces expensive pump-and-treat with a permeable treatment zone that 
immobilizes chromium traveling through it.
    And over 30 technologies were used as an integrated system to 
remediate the Oak Ridge Gunite and Associated Tanks, some of DOE's 
oldest tanks. Retrieval operations were completed in fiscal year 2000, 
ten years ahead of schedule and at a savings of $350 million.
    Technical and Deployment Assistance.--While furnishing innovative 
technologies is the cornerstone of our activities, the program also 
provides scientific and technical support to EM cleanup decisionmaking. 
In response to public concern about incinerator emissions, last year a 
Secretarial ``blue ribbon panel'' studied emerging alternatives to 
incineration, which resulted in recommendations on emerging 
technologies that hold greatest promise for further development. EM's 
Science and Technology program led the effort to provide technical data 
for this effort.
    The Science and Technology program is also supporting the 
development of an alternative technology to in-tank processing for 
cesium removal from high level waste. The Tanks Focus Area, one of five 
teams that address DOE's major environmental problem areas, is 
performing much of the testing and will continue to work with the site 
to develop and pilot the selected technology. It will also continue 
development of an alternative until the primary technology has 
successfully completed pilot-scale tests on actual waste.
    Deployment assistance teams were sent to the Paducah Gaseous 
Diffusion Plant and the Pantex Plant last year to perform technical 
reviews of their groundwater, soils and surface water contamination. 
Based on the teams' recommendations, innovative technologies are being 
deployed at both sites.
    Also, a first-ever textbook of reference material related to 
contamination of the vadose zone, a major problem for DOE sites, was 
compiled and published. This is an exhaustive compendium of information 
from multiple agencies and the private sector.
    Basic Research.--Research sponsored by the Environmental Management 
Science Program (EMSP) is yielding beneficial results. To date, this 
work has been documented in 576 publications and has resulted in 28 
patent disclosures and applications. Promising EMSP work is using 
tobacco and rice plants by a University of Georgia team to detoxify 
ionic mercury. This method could be applicable to mercury-contaminated 
soils at shallow depths, such as at Oak Ridge. Also a new technology 
being pursued at Sandia National Laboratory in New Mexico acts as a 
molecular ``sponge'' by capturing and storing radioactive strontium 
from liquid hazardous waste. Heat turns the sponge into a stable 
material that shows promise of being suitable for disposal.
    With the requested $32 million, EMSP will complete research begun 
in fiscal year 1999 on scientific problems associated with the vadose 
zone, subsurface contamination, and groundwater issues to support 
initiatives at sites such as Hanford. Also, the first full year of 
research will be completed on projects awarded in fiscal year 2001 to 
improve the effectiveness of tank cleanup and decontamination and 
decommissioning processes.
             meeting long-term stewardship responsibilities
    As the Department completes stabilization, cleanup and disposal of 
waste, we must consider the next and final stage in the cleanup 
process: meeting our enduring environmental protection obligations 
through long-term stewardship at sites that are unable to be cleaned up 
sufficiently to allow for unrestricted use. DOE's cleanup efforts have 
resulted in substantial risk and maintenance cost reductions across the 
complex. However, at most sites, cleanup will make the land available 
for other industrial uses, but not necessarily unrestricted use. Like 
private sites or other federal facilities, cleanup to levels allowing 
for unrestricted use often cannot be achieved for economic or technical 
reasons, including the presence of residual contaminants or deliberate 
entombment of waste or facilities.
    The Department has a legal and moral responsibility to ensure the 
protection of human health and the environment after cleanup is 
complete. The goal of long-term stewardship is the sustainable 
protection of human health and the environment after cleanup, disposal 
or stabilization is complete. The long-term stewardship program allows 
the Department to provide safe and effective long-term stewardship 
while optimizing future land and resource use. Good project management, 
applying the best science and technology to manage residual hazards, 
and increasing public confidence through effective involvement of state 
and local governments, Tribal Nations, and stakeholders is essential to 
a successful long-term stewardship program. A reliable long-term 
stewardship program can also provide confidence to regulators and the 
public that non-removal remedies are acceptable because the Department 
can be trusted to care for the sites after the waste is contained in 
place. These needs are not unique to the Department of Energy--while 
EM's Office of Long-term Stewardship may be the first office addressing 
these issues in the federal government, I would suggest to you that it 
will not be the last.
    In January 2001, DOE reported to Congress on the Department's long-
term stewardship responsibilities, in response to the fiscal year 2000 
National Defense Authorization Act (NDAA). The report provides the best 
available information on the cost, scope, and schedule of DOE's current 
and future long-term stewardship. It concludes that DOE currently 
carries out such activities at about 30 sites and may eventually be 
responsible for stewardship at 129 sites.
    Recently, we designated the Idaho Operations Office as the lead 
field office for our long-term stewardship program. The Grand Junction 
Office, which is currently conducting stewardship at sites that have 
completed cleanup, has been transferred from the Albuquerque Operations 
Office to the Idaho Operations Office to provide for continuity of 
critical operations and to coordinate policy and guidance development.
    The fiscal year 2002 request maintains funding for long-term 
stewardship activities at $8 million. In addition, $5.4 million in 
funding for Grand Junction also supports its stewardship activities. 
The number of sites moving from active cleanup to stewardship is 
expected to grow from 30 sites in fiscal year 2001 to 35 sites in 
fiscal year 2002, with an additional 33 sites transitioning into long-
term stewardship in the next five years.
    The request also supports INEEL and Headquarters activities to 
address complex-wide long-term stewardship challenges. Our emphasis in 
fiscal year 2002 will be on resolving issues that interfere with, or 
potentially delay, the transition of sites through closure and into 
long-term stewardship. We also continue investments in science and 
technology to help ensure that the protections provided by our remedies 
can be maintained as cost-effectively as possible for the necessary 
duration.
                 ensuring we use resources effectively
    The cleanup facing DOE is perhaps the most complex and challenging 
environmental challenge in the world. And it is one of the most costly, 
currently estimated to cost about $200 billion to complete. It is 
critical that we manage the program well and employ strategies that 
will help us continue progress and meet our commitments more 
efficiently and at a lower cost. The comprehensive, top-to-bottom 
assessment of the Environmental Management mission that the Secretary 
has directed be conducted will help identify opportunities to optimize 
the use of cleanup funds. Strategies to achieve this include:
  --implementing sound project management practices;
  --achieving efficiencies through innovative performance-based 
        contracting approaches that provide financial incentives for 
        performance;
  --working closely with state and federal regulators, tribal nations, 
        and other stakeholders at our sites; and
  --linking sites through integration.
                      improving project management
    Sound project management is fundamental to cost effective and 
timely completion of EM's massive clean-up effort. EM has accomplished 
significant improvements in the past several years in planning and 
execution of project baselines, but certainly more work remains. In 
particular, we need to improve our up-front planning and our project 
risk management practices. The latter is particularly important given 
the high degree of uncertainty associated with many of our first-of-a-
kind projects.
    EM's Office of Project Management, created in August 1999, is 
charged with bringing state-of-the-art project management tools and 
training into the EM program to enable us to better manage our 
projects. We work closely with the Office of Engineering and 
Construction Management (OECM) in the Office of the Chief Financial 
Officer, the unifying organization for project management for DOE. We 
learn from and compare our performance with the standards and practices 
of external organizations such as the Construction Industry Institute, 
the Project Management Institute, and the National Aeronautics and 
Space Administration.
    Over the past year, EM has significantly improved project 
management practices by taking an aggressive approach to implementing 
the new DOE project management order, Program and Project Management 
for the Acquisition of Capital Assets, which mandates that industry 
standard processes and reporting be incorporated into DOE project 
management. We have recently identified over 70 discrete, well-defined 
projects (referred to as Capital Asset Projects) that will be subject 
to the comprehensive project management requirements laid out in the 
new DOE order.
    A sample of the other changes made to promote better project 
planning and reduce overall program costs include:
    1. We are increasingly using a comprehensive project planning tool 
similar to that used by the Construction Industry Institute across the 
complex. We expect its use to result in near term project cost and 
schedule improvements.
    2. We have instituted quarterly performance reviews for key 
projects and formalized a ``critical decision'' approval process using 
the expertise of DOE's Energy Systems Acquisition Advisory Board 
(ESAAB). These internal and external independent project reviews are 
the independent ``eyes and ears'' assist us in making sound decisions.
    3. We have begun to make use of ``state-of-the-art'' cost 
estimating models for environmental remediation and decontamination and 
decommissioning projects. We plan to extend these models to all types 
of EM projects.
    4. We are putting together Integrated Project Teams to provide more 
effective intra-site communication. These teams are charged with 
expanding technology transfer and reducing project risk associated with 
cross site waste transfers.
    5. We are developing the project management career ladder to ensure 
that future project managers have the right training and experience to 
mange the large complex environmental management projects to come.
    EM is taking project management ``off the drawing board'' and 
putting it into practice. Both headquarters and field offices are 
making changes needed to promote effective project management. While we 
will certainly face challenges ahead, we also anticipate substantial 
project management improvement, and more success stories in the coming 
years.
                     improving contract management
    The EM program accomplishes its work largely through facility 
management contracts that provide for management and operations at each 
site. EM site managers have oversight responsibility for eleven 
facility management contracts. Managing performance under these 
contracts is key to successfully carrying out the EM mission and to 
reducing costs.
    To ensure we get what we pay for and that we get what we need, we 
have moved away from traditional cost-plus-award-fee contracts and are 
applying performance-based contracting and management principles to all 
our facility management contracts, as well as to our support service 
contracts. This contracting approach uses objective performance metrics 
to define and measure contract performance, tying the contractor's fee 
to achievement of these specific performance measures. Innovative 
performance metrics developed and used by EM sites include multi-year 
performance incentives, ``gateway'' provisions requiring the contractor 
to complete previous performance requirements before earning fee in a 
performance area, and ``stretch'' and ``super-stretch'' goals in which 
the contractor uses cost savings to fund unfunded work.
    In the past few years, we awarded new cost-plus-incentive-fee 
``closure'' contracts for the Rocky Flats and Fernald sites tied to 
completing the closure of the site. The contracts identify a target 
closure and include incentives for accelerated completions and 
reductions in fee for any delay beyond this targeted date. The 
contracts also include cost and schedule incentives focused on ensuring 
the cleanup is conducted safely and compliantly. We also negotiated new 
or extended contracts for operation of the Waste Isolation Pilot Plant, 
the Richland Operations Office and the Office of River Protection at 
Hanford, and the Savannah River Site that tie fees to performance.
    To further enhance contract reform objectives, EM is taking an 
increasingly active role in defining performance expectations, ensuring 
that these expectations are consistent with the Department's strategic 
plan, reviewing results, and holding both site managers and contractors 
accountable for producing results. In fact, site managers now have very 
specific elements in their annual performance plans concerning contract 
management.
           working with our regulators and other stakeholders
    We have found that performing good technical work is not enough. 
Getting the job done requires coordination with regulators and others 
outside of DOE that have a stake in our actions. By working 
cooperatively with regulators, stakeholders, local communities and the 
Tribal Nations, we have improved the efficiency of the EM program and 
have made progress in meeting our regulatory commitments in a more 
efficient and cost-effective way.
    Critical to the success of our efforts to improve the efficiency of 
this program and the cleanup results is the involvement and support of 
our state and federal partners. We believe this is an opportune time to 
examine the compliance framework that guides cleanup at all our major 
sites to ensure it reflects the experience gained over the past decade 
when many agreements were put in place. Accordingly, the Secretary has 
invited the governors of the States that host our sites and EPA 
Administrator Christine Todd Whitman to work with us to review our 
cleanup work to make sure it promotes on-the-ground results, and 
reflects the lessons and technical understanding that have developed. I 
am confident that, working cooperatively, we can find ways to achieve 
our shared environmental goals more efficiently.
    Our request supports public participation through continued 
relationships with states, site-specific and national advisory boards, 
and Indian tribes potentially affected by our activities. We will 
encourage an open and frank dialogue with our regulators to ensure that 
we are pursuing the most efficient and most cost effective solutions to 
cleanup and compliance needs, as well as the most appropriate 
sequencing of work.
                   linking sites through integration
    While each DOE site has its own objectives and milestones for 
cleanup and closure, no site can complete its mission without help from 
other parts of the EM program. Making use of the unique capabilities 
for managing and treating nuclear wastes and materials at our sites and 
sharing information and expertise is critical to our success. Through 
integration, we seek to use available capacity rather than construct 
new facilities; apply innovative technologies at multiple sites; and 
apply lessons learned and site successes complex-wide. We work to 
address common problems and challenges across the DOE complex through a 
corporate approach.
    The contribution of other sites to the closure of Rocky Flats 
continues to illustrate the importance of integration. Our ability to 
close Rocky Flats depends on the acceptance of waste and materials by 
other DOE sites, including the Savannah River Site, Los Alamos, Pantex 
Plant, Lawrence Livermore National Laboratory, and the Nevada Test 
Site. Rocky Flats is in the process of formulating an Integrated 
Closure Project Baseline that integrates the Department's contractual 
commitments to provide items and services with activities to be carried 
out by the site contractor. The Integrated Closure Project Baseline 
highlights that the closure of Rocky Flats is truly a complex-wide 
project, requiring the support and careful coordination of a number of 
Departmental sites and programs. It has improved our ability to 
integrate complex-wide activities, schedules and resources.
    We are working to develop disposition pathways for surplus nuclear 
materials throughout the DOE complex, including orphan materials (i.e., 
those with unclear programmatic ownership), and wastes that cannot be 
disposed of in their current forms. This requires that the Department 
has a full understanding of the surplus materials inventories and 
corresponding disposition plans prior to termination of facility 
capabilities. For example, EM recently completed the ``Savannah River 
Site Canyons Nuclear Material Identification Study'' (February 2001) to 
determine which materials would potentially require the use of the 
Savannah River canyons. Such disposition studies often identify the 
need to transfer materials and wastes between DOE sites in preparation 
for ultimate disposition. To support one particular transfer, EM 
recently revised DOE's 3013 Storage Standard for surplus plutonium, 
accelerating Rocky Flats closure by allowing metals and oxides stored 
there to be packaged for shipment off-site. We are also working to 
develop a cost-effective disposal approach for the classified waste 
currently stored at Rocky Flats.
    Finally, the transport of radioactive waste and material between 
sites is critical to the success of our integration priorities. Our 
national transportation program, which has successfully moved spent 
nuclear fuel containing U.S. enriched uranium from research reactors 
around the world to the U.S. for safe storage, is applying its success 
to other DOE shipments. For example, EM is working with other DOE 
program offices and with the sites to develop a national packaging 
strategy that will improve the availability of certified casks for 
unique types of DOE shipments, is working with NNSA to ensure the 
availability of Transportation Safeguards System for shipping special 
nuclear materials from Rocky Flats, and is developing the option of 
shipping waste to WIPP via rail. Our efforts will enable us to identify 
future packaging and transportation needs, to support aggressive 
shipping schedules, and to utilize our transportation assets more 
efficiently.
                 providing effective federal oversight
    Critical to successfully managing the cleanup program and to 
identifying and implementing more efficient ways of doing business is 
having the Federal workforce in place to provide effective oversight of 
the contractors that compete for and carry out the actual cleanup work. 
Federal employees establish the program and project goals; they provide 
the direction to the contractors; and they monitor contractor 
performance to ensure we are getting the results we need, at the 
quality and cost promised, and that work is done in a safe and 
compliant manner. Our initiatives to reduce the costs and schedules of 
the cleanup depends on having an effective Federal workforce to keep 
the pressure on the contractor to find more innovative and efficient 
ways of doing business.
    The Federal workforce performs essential tasks that it would be 
inappropriate to have contractors perform. These include formulating 
the annual budget and outyear projections; managing contractors, 
including contract negotiations, oversight, and accountability; 
representing the Department in its dealing with regulators; analyzing 
and formulating program policy and planning; and integrating activities 
and information across sites.
    Our request for Program Direction, which funds Federal salaries as 
well as travel and administrative and technical support services, is 
$355 million. However, our request reduces support services and travel 
funds by almost half, while essentially maintaining the funds for 
Federal salaries. The request supports 2,708 Full-time Equivalents 
(FTEs)--about 84 percent of which are in the twelve DOE field and 
operations offices--and includes increases in the Carlsbad Field Office 
and the Office of River Protection to reflect increased requirements. 
Overall, the Program Direction account has been significantly reduced 
from earlier years. The number of Headquarters FTEs, for example, is 45 
percent less than when at its highest point in 1995. The request for 
Program Direction in fiscal year 2002 is about 15 percent less than in 
fiscal year 1997, the year these activities were consolidated into a 
single account.
    The Department continues to place a high priority on workforce 
management to provide a stable workforce with the right skill mix and 
technical capabilities to accomplish our mission, now and into the 
future.
                               conclusion
    In conclusion, the Department is making progress in cleaning up the 
legacy of contamination left from the nuclear weapons production 
process. We are giving priority to reducing our most serious risks, 
accelerating cleanup at our major sites across the country, safely 
storing and safeguarding weapons-usable nuclear materials, and reducing 
the long-term costs of the program. We will continue to use science and 
technology to reduce costs and schedules, improve our project 
management, make the most effective use of our unique resources across 
the DOE complex, and maintain our focus on worker safety. We pledge to 
continue to work closely and cooperatively with the Congress to ensure 
that this progress continues and that we can meet the challenges ahead 
in the most effective way.
                 summary of the fiscal year 2002 budget
    The total fiscal year 2002 budget request for the Department of 
Energy's Environmental Management Program is $5.913 billion, including 
$142 million of privatization funding. The fiscal year 2002 
appropriation will fund cleanup at sites across the Nation. Five sites 
receive almost three-fourths of Environmental Management funding--the 
Hanford site in Washington (including Richland Operations Office and 
Office of River Protection), the Savannah River Site in South Carolina, 
the Rocky Flats site in Colorado, the Idaho National Engineering and 
Environmental Laboratory in Idaho, and the Oak Ridge Reservation in 
Tennessee.
    Our fiscal year 2002 budget proposal provides details on each 
project, including performance measures, which we use to hold managers 
accountable, and expect to be held accountable by Congress. Summaries 
of budget accounts and the fiscal year 2002 request by State and 
Operations Office are attached. In addition, information on each of 
following sites can be found immediately after the budget summaries.
    1. Hanford Site, Washington--Office of River Protection--Richland 
Operations Office
    2. Savannah River Site, South Carolina
    3. Rocky Flats Environmental Technology Site, Colorado
    4. Idaho National Engineering and Environmental Laboratory, Idaho
    5. Oak Ridge Reservation, Tennessee
    6. Fernald Environmental Management Project, Ohio
    7. Portsmouth Gaseous Diffusion Plant, Ohio
    8. Waste Isolation Pilot Plant, New Mexico
    9. West Valley Demonstration Plant, New York
    10. Paducah Gaseous Diffusion Plant, Kentucky
    11. Nevada Test Site and Operations Office, Nevada
    12. Los Alamos National Laboratory, New Mexico
    13. Miamisburg Environmental Management Project (Mound), Ohio
    14. Weldon Spring Remedial Action Project, Missouri
    15. Brookhaven National Laboratory, New York
    16. Sites in the State of California

Hanford Site, Washington--Fiscal Year 2002 Request

                        [In thousands of dollars]

Office of River Protection:
    Defense ER&WM, Post 2006-ORP........................         812,468
    Defense ER&WM, Site/Project Completion..............           2,000
    Defense ER&WM, Program Direction....................          23,386
                    --------------------------------------------------------
                    ____________________________________________________
      Total.............................................         837,854
                    ========================================================
                    ____________________________________________________
Richland Operations Office:
    Defense ER&WM, Site/Project Completion..............         419,586
    Defense ER&WM, Post 2006 Completion.................         164,642
    Defense ER&WM, Program Direction....................          53,342
    Non-defense EM, Site/Project Completion.............           1,485
                    --------------------------------------------------------
                    ____________________________________________________
      Total.............................................         639,055
                    ========================================================
                    ____________________________________________________
Defense ER&WM, Science & Technology.....................          36,844
Defense ER&WM, Safeguards & Security....................          51,544
                    --------------------------------------------------------
                    ____________________________________________________
      Total (Hanford Site)..............................       1,565,297

NOTE: All dollars include safeguards and security, program direction, 
excess facilities, privatization, and science and technology funding.
All operations office dollars include safeguards and security, program 
direction, excess facilities, privatization, and science and technology 
funding.

    The Hanford Site in Washington State remains the Department's 
greatest cleanup challenge. The 560-square mile site was carved out of 
a broad curve of the Columbia River during World War II. It is now the 
nation's largest former nuclear weapons production site, and the 
cleanup of the Hanford Site is the largest, most technically complex, 
environmental cleanup project yet undertaken. The site contains large 
amounts of spent nuclear fuel, unstable weapons grade plutonium, 177 
underground tanks containing 53 million gallons of high-level 
radioactive waste, and more than 100 square miles of contaminated 
ground water. The Hanford Site remediation activities are regulated by 
the Tri-Party Agreement which was signed by the U.S. Department of 
Energy, the U.S. Environmental Protection Agency, and the Washington 
State Department of Ecology. In addition to cleanup of the site, the EM 
program provides critical infrastructure activities and service at the 
site, referred to as ``landlord'' activities.
    The Hanford site mission is carried out by two independent 
organizations, the Richland Operations Office and the Office of River 
Protection (ORP). ORP was established in December 1998 following 
Congressional direction in the Strom Thurmond National Defense 
Authorization Act for Fiscal Year 1999 and is responsible for all 
aspects of the River Protection Project (formerly the Tank Waste 
Remediation System), which includes safe storage, retrieval, treatment 
and disposal of the high-level radioactive tank waste. Richland 
Operations Office responsibilities include all aspects of treatment, 
storage and disposal of legacy radioactive and hazardous wastes; safe 
and secure storage of nuclear materials and spent nuclear fuel; and the 
decontamination and decommissioning of facilities associated with the 
production of nuclear materials during the Cold War. The Richland and 
ORP managers report directly to the Assistant Secretary for 
Environmental Management, and their budgets (with the exception of 
integrated safeguards and securities and science and technology 
budgets) are separate. The ORP Manager has been delegated authority for 
contracting; financial management; safety; and general program 
management equivalent to other DOE Operations Offices.
Office of River Protection
    ORP works closely with the Richland Operations Office to protect 
the health and safety of the public, workers, and the environment and 
to control hazardous materials to protect the Columbia River. ORP 
manages the River Protection Project located on the central plateau 
(200 Area) of the Hanford Site. The River Protection Project uses two 
major contracts for the storage, retrieval, treatment and disposal of 
the high-level tank waste. A 10-year contract to design, construct and 
commission a new Waste Treatment and Immobilization Plant (WTP) was 
awarded to Bechtel National, Inc. on December 11, 2000. The goal is to 
treat and immobilize approximately 10 percent of the waste by mass and 
25 percent by radioactivity by 2018. The award of this contract follows 
a privatization effort to design, build, and operate a WTP that 
resulted in an unacceptable proposal submitted by the privatization 
contractor and termination of the privatization contract. However, as a 
result of the privatization effort, DOE acquired a robust technical 
design for the WTP that has been independently verified. In addition, 
the contract for maintenance and operations of the tank farms, which 
will provide waste feed to the WTP, is with CH2M Hill and was recently 
extended through 2006.
    Management of the underground high-level waste tanks remains one of 
the biggest challenges at Hanford. In fiscal year 2001, we made 
significant progress in reducing the urgent risks associated with these 
tanks. The issue of the rising level of tank SY-101 was resolved by 
dissolving the crust on the surface of the waste through a series of 
waste transfers and back dilutions. Elimination of the crust reduced 
the retention of flammable concentrations of gas in SY-101 and 
permitted us to resolve the flammable gas safety issue for this tank 
and to remove the tank from the ``Watch List'' established by the 
National Defense Authorization Act for Fiscal Year 1991. During fiscal 
year 2001, we expect to resolve the flammable gas safety issue for the 
remaining 24 tanks that are affected and to remove those from the Watch 
List. Once this action is complete, there will be no tanks remaining on 
the Watch List. The Department signed a Consent Decree with the State 
of Washington that established a schedule for interim stabilization of 
the single-shell tanks. To date, we have met all Consent Decree 
milestones, which includes declaring seven of 29 single shell tanks to 
be interim stable. The two unstabilized single shell tanks that are 
suspected of having leaked in the past will be pumped during fiscal 
year 2001.
    For fiscal year 2002, we will continue improving tank safety by 
transferring free liquids from single shell tanks to double shell tanks 
in accordance with the Consent Decree schedule. In addition, design and 
construction will continue on tank farm retrieval systems and other 
infrastructure improvements necessary to support future waste feed 
delivery to the treatment facility and eventual removal of all waste 
from the single shell tanks. Several of these upgrades are adapted from 
technologies developed under the EM Science and Technology Program. For 
example, we have procured a variant of the Houdini robotic platform for 
confined slucing of sludge waste and are planning to test an adaption 
of the fluidic sampler technology in solid waste retrieval.
    In fiscal year 2001, we will continue termination activities 
associated with the privatization contractor, including purchase of the 
pilot-scale melter, and acquisition of the appropriate intellectual 
property rights associated with the pilot-scale melter and with the WTP 
design completed under privatization. In addition, we will continue the 
design and engineering of the WTP, and begin site preparation 
activities to support WTP construction, including site clearing and 
grading, installation of site utilities, and construction of equipment 
laydown areas. In fiscal year 2002, the requested $500 million in 
funding will be used to maintain momentum on WTP design, proceed with 
long lead project procurement, begin facility construction, and manage 
the project.
Richland Operations Office
    Over the past year, Richland has formulated an outcome-oriented 
version of the Hanford Site's future that embraces priorities of 
regulators, stakeholders, and area Tribal Nations, while recognizing 
the absolute need to make visible progress in the near-term. The three 
elements of that vision are: (1) to restore the Columbia River 
corridor; (2) complete the transition of the Central Plateau to long-
term waste management; and (3) prepare the remainder of the site to 
contribute to the future welfare and well-being of its neighboring 
communities. This focus on outcomes has resulted in a new contract 
strategy and a revised project baseline. In December 2000, DOE 
negotiated an extension to the current site operations contract through 
2006 for transitional work in the Central Plateau and the Spent Nuclear 
Fuel Project. We are currently exploring awarding a closure-type 
contract for the River Corridor.
    In December 2000, we began moving spent nuclear fuel from K Basins, 
which are leak-prone underground wet storage pools located 400 yards 
from the Columbia River that hold roughly 2,100 metric tons of fuel, 
some of which is corroding. This first-of-a-kind, technically complex 
project entails loading the fuel elements while still underwater into a 
multi-canister overpack using robotic arms, drying it in the nearby 
Cold Vacuum Drying Facility, and transporting the fuel for dry storage 
to the newly-built Canister Storage Building, 12 miles from the river. 
Moving the fuel to safer storage safeguards the health of workers and 
the surrounding communities, and reduces the risks to the health and 
vitality of the Columbia River. By the end of fiscal year 2001, we will 
remove 116 metric tons of spent fuel from the K-West Basin. We will 
also begin design work for the K-Basin sludge and debris removal system 
and the sludge pre-treatment system. Our fiscal year 2002 request 
supports continued transport of spent nuclear in K-West Basin to dry 
storage.
    The Department is continuing to remediate waste sites and dispose 
of the contaminated soil and debris in the Environmental Restoration 
Disposal Facility (ERDF). In fiscal year 2000, ERDF received 
approximately 639,000 tons of contaminated soil and debris from cleanup 
sites along the Columbia River Corridor, and completed construction of 
cells 3 and 4. In fiscal year 2001 ERDF will receive over 490,000 tons 
of contaminated soil and debris. We plan to complete remediation of 
nine waste sites in the Hanford 100 and 300 Areas, and send up to 
461,000 tons of contaminated soil and debris to ERDF in fiscal year 
2002.
    In fiscal year 2000, we began operating three additional furnaces 
at the Plutonium Finishing Plant (PFP) for thermally stabilizing 
plutonium-bearing materials. We completed stabilization of 574 
containers of plutonium metals and oxides, and began stabilizing 
plutonium solutions via magnesium hydroxide precipitation. We also 
began packaging stabilized plutonium materials using the Bagless 
Transfer System and the Pipe-n-Go system for packaging residues. In 
fiscal year 2001, we will stabilize 2,190 liters of plutonium bearing 
solutions and 527 containers of plutonium metals and oxides at the PFP. 
We will also complete brushing and packaging of plutonium metals and 
initiate startup of the outer container packaging system at PFP. 
Stabilization activities will eliminate the risk posed by the 
plutonium-bearing materials and is a critical step in the deactivation 
of PFP, which will significantly reduce mortgage costs at Hanford. In 
addition, we will continue stabilization of plutonium oxides and 
residues, and complete stabilization of plutonium-bearing solutions and 
polycubes at PFP in fiscal year 2002.
    We continue to decommission the reactor facilities in the 100 Area 
through the Interim Safe Storage Project. In fiscal year 2000 and 2001, 
decommissioning activities continue at the DR and F reactors as well as 
at the 233-S Plutonium Concentration Facility.
    In fiscal year 2000, we made our first shipment of Hanford 
transuranic waste to the Waste Isolation Pilot Plant (WIPP) for final 
disposal, completing three shipments totaling 18 cubic meters, and we 
plan to complete at least five shipments of 42 cubic meters of 
transuranic waste to WIPP in fiscal year 2001. In fiscal year 2002, we 
will treat more than 500 cubic meters of mixed low-level waste in 
accordance with Tri-Party Agreement milestones, dispose of more than 
6,700 cubic meters of low-level waste, process over 200 million gallons 
of radioactive and hazardous effluents, and complete treatment of 265 
cubic meters of mixed low-level waste at a contract facility.
    In fiscal year 2002, the Hanford Site Groundwater/Vadose Zone 
Integration Project will implement the highest priority science and 
technology activities identified in fiscal year 2000.

Savannah River Site, South Carolina--Fiscal Year 2002 Request

                        [In thousands of dollars]

Defense ER&WM, Site/Project Completion..................         391,401
Defense ER&WM, Post 2006 Completion.....................         585,989
Defense ER&WM, Science & Technology.....................          17,526
Defense ER&WM, Excess Facilities........................             700
Defense ER&WM, Safeguards and Security..................          94,225
Defense ER&WM, Program Direction........................          52,731
                    --------------------------------------------------------
                    ____________________________________________________
      Total.............................................       1,142,572

NOTE: All dollars include safeguards and security, program direction, 
excess facilities, privatization, and science and technology funding.
All operations office dollars include safeguards and security, program 
direction, excess facilities, privatization, and science and technology 
funding.

    The Savannah River Site is a 310 square mile site near Aiken, South 
Carolina with an on-going defense mission. In addition to cleanup of 
the site, the EM program provides critical infrastructure activities 
and services at the site, referred to as ``landlord'' activities.
    One of the critical EM responsibilities at the site is the 
stabilization of nuclear materials resulting from its mission to 
produce strategic isotopes for national security purposes during the 
Cold War. In fiscal year 2001 and fiscal year 2002, we will continue to 
operate the two canyons as well as FB-Line, and HB-Line, to stabilize 
``at risk'' plutonium-bearing materials and spent nuclear fuel covered 
by Defense Nuclear Facilities Safety Board Recommendations 94-1 and 
2000-1. The Savannah River Site also continues it critical role in 
supporting the accelerated closure of Rocky Flats, receiving and 
stabilizing surplus plutonium-bearing materials from Rocky Flats. By 
the end of fiscal year 2002, more than 25 percent of plutonium residues 
at Savannah River will have been stabilized. In addition, surplus 
plutonium metal and oxides from Rocky Flats packaged in DOE-STD-3013 
containers will be received and stored in the K-Area Material Storage 
area until they can be permanently dispositioned. The fiscal year 2002 
budget request also supports continued construction of a process to 
vitrify americium/curium solutions, which have very intense radiation 
fields and require heavy shielding to protect workers and the public.
    The fiscal year 2002 budget request continues support for receipt 
and storage at the Savannah River Site of spent nuclear fuel from 
domestic and foreign research reactors in support of national and 
international non-proliferation goals. In fiscal year 2002, we expect 
to receive 22 casks of spent nuclear fuel from foreign sources and 
another 31 casks from domestic sources which will be safely stored at 
the Savannah River Site's basins. By the end of fiscal year 2001, we 
expect to have received almost one-third of the spent fuel assemblies 
that we know other countries plan to return.
    The Savannah River Site has been developing a cost-effective 
technology for preparing spent nuclear fuel that does not require 
stabilization for health and safety reasons for disposal. This work is 
helping us identify an approach to stabilize spent nuclear fuel and 
other nuclear materials without chemical separations. Last August, we 
selected the ``melt-and-dilute'' process as the preferred technology to 
prepare aluminum-based spent nuclear fuel for geologic disposal. The 
fiscal year 2002 budget provides $4 million for operation of the L-Area 
Experimental Facility to demonstrate the viability of the melt-and-
dilute process. This will provide a firm basis for the design and 
construction of the full-scale facility to prepare and store this spent 
nuclear fuel prior to final disposition in a geologic repository.
    Much of the EM work at the Savannah River Site that will be 
completed after fiscal year 2006 involves management of approximately 
38 million gallons of high-level waste in 49 tanks, including 
vitrifying waste for final disposal and removing waste from storage 
tanks so the tanks can be closed. Two tanks have already been closed 
and, in fiscal year 2000, we produced 231 canisters of vitrified waste 
in the Defense Waste Processing Facility (DWPF). As of the end of April 
2001, we had vitrified a total of 1,096 canisters of high level waste. 
We expect the DWPF to produce at least 150 canisters in fiscal year 
2002, which will bring the total DWPF canister production level to 
about 22 percent of its expected lifetime total of 6,025 canisters.
    Due to the long-term nature of this project, there are significant 
potential payoffs if we are able to develop and apply innovative 
technologies. We are currently moving forward with technologies that 
will make it easier to retrieve waste, to improve the way we 
decontaminate our canisters once they are filled, to reduce worker 
exposure through use of high efficiency filters that can be regenerated 
and reused, and to increase the amount of waste in each canister. These 
advances will allow DWPF to operate more efficiently and ensure that 
our goals for increasing canister production and reducing life cycle 
costs are realized.
    In-Tank Precipitation operations were terminated in January 1998 
because we were unable to successfully pre-treat the waste and limit 
the levels of benzene generation in the tanks to safe and manageable 
levels while maintaining production levels for DWPF. Pre-treatment of 
the waste is necessary to separate the high-activity and low-activity 
wastes, in order to minimize the amount of waste that must be vitrified 
and disposed in a deep geologic repository. We undertook a systems 
engineering analysis, which was reviewed by a panel of independent 
experts, to evaluate all possible alternatives and have narrowed them 
down to three. We will select a preferred technology for treatment of 
the salt component of the high level waste this June, and the fiscal 
year 2002 budget request supports continued construction of a pilot 
plant for that technology. The design and operational data gathered 
from this pilot project will support the design and engineering of the 
full scale Salt Processing Project facility by providing a research and 
development test bed.
    The first shipment of Savannah River Site transuranic waste to the 
Waste Isolation Pilot Plant occurred in May 2001, followed by three 
more shipments in fiscal year 2001, with shipping rates increasing to 
about one a month during fiscal year 2002. Storage, treatment and 
disposal operations of low-level, mixed low-level, and hazardous wastes 
will continue, including on- and off-site recycling activities.
    We will also continue to aggressively pursue the use of new 
technologies to characterize and clean up contaminated release sites 
and groundwater plumes. We are using the Vadose Zone Monitoring System 
to determine how fast and in what concentration contaminants are 
traveling to the groundwater. This approach provides sensitive early 
warning of aquifer contamination from the E-Area shallow disposal 
trenches. At the mixed waste management facility, we have begun using a 
phyto-remediation system to remove tritium from groundwater by the 
process of ``evapo-transpiration'' using trees and other indigenous 
vegetation. In fiscal year 2002, we expect to complete key closures at 
the K-Area Burning Rubble Pits and in the L and P Area Bingham Pump 
Outage Pits. We will complete remediation of five release sites, 
bringing the total count of sites remediated to 300, nearly 60 percent 
of the 515 release sites needing remediation. We will also operate 
eight groundwater treatment systems in six of eleven groundwater plumes 
at the site to remove and control contamination.

Rocky Flats Environmental Technology Site, Colorado--Fiscal Year 2002 
Request

                        [In thousands of dollars]

Defense Closure, Site Closure...........................         628,577
Defense Closure, Safeguards & Security..................          35,423
Defense ER&WM, Science & Technology.....................           3,000
Defense ER&WM, Program Direction........................          23,199
                    --------------------------------------------------------
                    ____________________________________________________
      Total.............................................         690,199

NOTE: All dollars include safeguards and security, program direction, 
excess facilities, privatization, and science and technology funding.
All operations office dollars include safeguards and security, program 
direction, excess facilities, privatization, and science and technology 
funding.

    The accelerated closure of the Rocky Flats Environmental Technology 
Site is one of the Department's key initiatives. As the first major 
weapons-related facility to be cleaned up and closed, this project will 
offer a wealth of lessons-learned that will be applied to other sites 
in the complex. Similarly, the closure of Rocky Flats requires the 
implementation of innovative approaches and resolution new project and 
policy issues.
    One of the innovative approaches we have applied is the use of a 
cost-plus-incentive-fee closure contract. In January 2000 we awarded 
Kaiser-Hill, L.L.C. a closure contract valued at approximately $4 
billion (excluding incentive fee payments) to complete the closure of 
the site. The contract identifies a target closure date of December 15, 
2006, and includes incentives for accelerated completions and 
reductions in fee for any delay beyond this targeted date. In addition, 
the contract includes cost and schedule incentives focused on ensuring 
the cleanup is conducted safely and compliantly.
    We are continuously working to ensure that safety is not 
compromised in our efforts to complete the cleanup scope as quickly and 
cost effectively as possible. The Department's Integrated Safety 
Management System (ISMS), an integral part of the closure contract, was 
implemented at Rocky Flats in January 2000. Since January 2001, both 
the Rocky Flats Field Office and Kaiser-Hill have been working to 
strengthen the site's safety posture. The site manager requested 
assistance reviews by the Office of Environment, Safety and Health, 
which were recently completed. The contractor has also recently 
completed a site-wide, ISMS-based safety improvement plan.
    The contract also formalized DOE's commitment to site closure in 
that it identified specific activities contractually required by the 
Department to support closure. These activities are referred to as 
government-furnished services and items and largely include activities 
necessary to ship special nuclear materials and wastes off-site. For 
this reason, we are approaching the execution and management of this 
contract as a complex-wide project, and this has required us to develop 
some new management tools. During this first year of the contract 
execution, we have been working to ``projectize'' the activities 
required by the Department through the formulation of the Integrated 
Closure Project Baseline. This integrated baseline will provide the 
formality and structure necessary to ensure the Department meets its 
contractual commitments, as well as improve our means of managing the 
contract. The Integrated Closure Project Baseline highlights that the 
closure of Rocky Flats is truly a complex-wide project, requiring the 
support and coordination of a number of Departmental sites and 
programs. The effort has been fully supported by the contractor and the 
other programs and sites, and has received significant attention from 
external stakeholders, including the General Accounting Office (GAO).
    In February 2001, GAO published their follow-on report assessing 
DOE's ability to complete the closure of Rocky Flats in 2006. Overall, 
the report provides a thorough assessment of the challenges facing us, 
and also demonstrates the progress we have made towards closure. 
Whereas the initial assessment indicated a one percent chance of 
achieving site closure in 2010 (1999 report), this follow-on report 
concluded there is a 15 percent chance of reaching site closure in 2006 
and a 98 percent chance of closure in 2008. As such, the GAO assessment 
is a powerful validation of the progress realized to date. The report 
also recognizes the value of the Integrated Closure Project Baseline, 
and provides useful recommendations for formalizing the 
responsibilities and authorities necessary to resolve any inter-
organizational resource issues.
    A key ingredient for closing Rocky Flats is being able to ship 
nuclear materials and waste off-site. This requires not only the 
preparation of the materials and waste for shipment, but ensuring the 
receiver sites and the necessary transportation services are available. 
We have made some very significant progress to date. We recently 
completed the shipment of classified plutonium metals to the Savannah 
River Site and Los Alamos National Laboratory. We also began operation 
of the Plutonium Stabilization and Packaging System, which packages 
plutonium metals and oxides into approximately 2,000 containers. These 
containers will be shipped to the Savannah River Site for storage 
beginning in June 2001. The disposition paths for the remaining nuclear 
material streams are being finalized through the integrated baseline 
development. We plan to ship certain weapons components to the Lawrence 
Livermore National Laboratory and, pending necessary NEPA review, 
highly enriched uranium either contaminated or associated with 
plutonium to the Savannah River Site. With the proper coordination of 
receiver site preparation and transportation services (provided by 
Defense Programs), we hope to complete all nuclear material shipments 
by the end of calendar year 2002.
    We have also made significant progress in the disposition of waste. 
In March 2001, we made our 100th transuranic waste shipment to WIPP. 
Rocky Flats to date has disposed of over 650 cubic meters of 
transuranic waste, more than any other site in the DOE complex. 
Currently, the site is completing an average of four shipments per 
week, and by year end will be nearing an average of nine shipments per 
week. In total, nearly 15,000 cubic meters of transuranic waste and 
about 100,000 kilograms of plutonium residues will be packaged and sent 
to WIPP. In fiscal year 2000, we also nearly doubled our planned 
shipments of low-level waste for disposal.
    The recent reconfiguration of the site's Protected Area is another 
significant accomplishment because it provides considerable 
productivity improvements. All special nuclear material on-site has 
been consolidated within Building 371, enabling us to close material 
access areas in the other major plutonium facilities. This has reduced 
the security requirements in those facilities, improving access for the 
workers performing the decontamination and decommissioning (D&D) in 
those buildings. This reduces safeguards and security requirements, 
increasing the total funding available to support actual cleanup 
activities.
    DOE has also clearly made enormous progress in reducing risks at 
the site. About 80 metric tons of plutonium residues have been 
stabilized and/or repackaged to date. This represents 79 percent of the 
total. We have also completed the draining of 32 and removal of 30 
liquid piping systems.
    We continue to make progress in deactivating and decommissioning 
buildings. Early in fiscal year 2000 we completed the demolition of 
Building 779, one of the five major plutonium facilities. Given that 
this facility once contained 133 contaminated gloveboxes, this 
achievement marked a significant milestone for the complex. We continue 
to apply the lessons learned from that demolition to the ongoing 
activities in the four remaining plutonium facilities. We have deployed 
an innovative technology called plasma-arc cutting for glovebox size 
reduction. This technology provides a significant reduction in worker 
risk and improved efficiency.
    In the area of environmental remediation, we are using another 
innovative technology, a horizontal drilling technology, to 
characterize the contamination located under the buildings. This 
characterization information helps us coordinate remediation plans with 
the facility cleanup schedules to support the 2006 closure date. We 
continue to work closely with the regulators and stakeholders to refine 
the details of site cleanup. We expect the regulators will reach a 
decision on the final soil action levels late this calendar year. 
Through our integrated stakeholder focus group, we are working to 
address all the cleanup issues in an integrated fashion to ensure the 
aggregate impact to the project schedule and costs is considered.
    The fiscal year 2002 budget request supports the closure contract 
and the closure activities we have identified as necessary for 
accelerated closure, including many of the complex-wide activities 
required to provide the government-furnished services and items. It is 
important to note that activities included in other sites' and 
programs' budgets are also needed to support Rocky Flats closure--
including the nuclear materials transportation services provided by 
Defense Programs, the storage operations at the Savannah River Site, 
waste treatment operations at the incinerator at Oak Ridge, waste 
disposal operations at the Nevada Test Site, and the availability of 
transuranic waste containers and trailers from WIPP.
    Our fiscal year 2002 request for Rocky Flats enables us to:
    1. Complete the stabilization and packaging of the plutonium 
residues;
    2. Continue the packaging and shipment of plutonium metals and 
oxides to Savannah River Site (620 containers);
    3. Ship over 25,000 cubic meters of radioactive waste for off-site 
disposal; and
    4. Complete the decontamination and decommissioning of 18 work 
sets.

Idaho National Engineering and Environmental Laboratory, Idaho--Fiscal 
Year 2002 Request

                        [In thousands of dollars]

Defense ER&WM, Site/Project Completion..................         52,105 
Defense ER&WM, Post 2006 Completion.....................        276,551 
Defense ER&WM, Science & Technology.....................         18,407 
Defense ER&WM, Safeguards & Security....................         34,346 
Non-Defense EM, Site/Project Completion.................          5,080 
Defense, Privatization..................................         89,332 
                    --------------------------------------------------------
                    ____________________________________________________
      Subtotal..........................................        475,821 
                    --------------------------------------------------------
                    ____________________________________________________
Use of Prior Year Balances (Defense)....................        (36,770)
                    --------------------------------------------------------
                    ____________________________________________________
      Total.............................................        439,051 

NOTE: All dollars include safeguards and security, program direction, 
excess facilities, privatization, and science and technology funding.
All operations office dollars include safeguards and security, program 
direction, excess facilities, privatization, and science and technology 
funding.

    The Idaho National Engineering and Environmental Laboratory 
(INEEL), a multi-program national laboratory with a significant cleanup 
mission, occupies 890 square miles of the eastern Snake River Plain in 
southeastern Idaho. INEEL combines a significant environmental and 
nuclear operations component with basic and applied research and 
development supporting the Department's four mission areas: 
Environmental Management, Energy Resources, National Security, and 
Science. INEEL operates under the sponsorship of EM, and has been 
designated a lead laboratory as well as a lead field site on long-term 
stewardship. The EM program provides critical infrastructure efforts at 
the site, referred to as ``landlord'' activities. In addition, the 
INEEL continues to serve important national security functions by 
receiving spent nuclear fuel from the Navy, and spent fuel from foreign 
research reactors that may contain weapons grade nuclear materials.
    In total, most EM activities at the INEEL are regulated by 
enforceable agreements like the Idaho Settlement Agreement, the Federal 
Facility Agreement and Consent Order, the Site Treatment Plan and a 
1999 Voluntary Consent Order. The Idaho Settlement Agreement guaranteed 
the government access to the INEEL for national security missions such 
as spent nuclear fuel examination and storage, in return for meeting 
specific waste treatment and disposal milestones. To date, the INEEL 
has met every milestone in the Idaho Settlement Agreement.
    INEEL has approximately 65,000 cubic meters of waste contaminated 
with transuranic radionuclides that must be removed from the State of 
Idaho under the terms of the 1995 Settlement Agreement. This waste 
originated from weapons production at the former Rocky Flats Plant in 
Colorado. We continue to make progress in characterizing, certifying, 
and shipping the transuranic waste to the WIPP for disposal. A 
significant effort is underway to meet the Settlement Agreement 
milestone to ship the initial 3,100 cubic meters of transuranic waste 
out of the State of Idaho by the end of 2002. In fiscal year 2000, we 
shipped 103 cubic meters of transuranic waste to the WIPP, exceeding 
our goal, and plan to ship 1,160 cubic meters in fiscal year 2001 and 
1,483 cubic meters in fiscal year 2002. Progress also continues on the 
Advanced Mixed Waste Treatment Project, a privatization project that 
will greatly increase the INEEL's processing capability for this waste. 
Construction began in fiscal year 2000 and will continue in fiscal year 
2001 and fiscal year 2002. The facility is expected to begin operations 
in fiscal year 2003. We are requesting $40 million in the fiscal year 
2002 privatization budget for this project.
    INEEL plays a key role in meeting non-proliferation goals by 
providing safe storage and management of spent nuclear fuel from 
foreign research reactor and domestic sources, and currently manages 
more than 50 percent by volume of the spent nuclear fuel in the entire 
DOE complex, constituting about 250 specific fuel types. We are 
actively improving storage conditions at the site, transferring fuel 
from wet to dry storage, or from aging facilities to modern, state-of-
the-art facilities. For example, we have transferred all spent nuclear 
fuel in wet storage in the CPP-603 South Basin to improved storage 
facilities well in advance of the Idaho Settlement Agreement milestone 
date of December 31, 2000. We completed movement of Three Mile Island 
spent nuclear fuel and core debris from wet storage at Test Area North 
to dry storage at the Idaho Nuclear Technology and Engineering Center 
(INTEC) six weeks ahead of the June 1, 2001, Settlement Agreement 
milestone. DOE also awarded a privatization contract last year for the 
design, licensing, construction, and operation of a facility for the 
packaging and safe dry storage of other spent nuclear fuel at the 
INEEL. The contractor is now proceeding with the facility design and is 
scheduled to submit its license application to the Nuclear Regulatory 
Commission in fiscal year 2002.
    The fiscal year 2002 budget request supports the management of 
high-level waste at INEEL including about 1.2 million gallons of liquid 
sodium-bearing waste stored in 11 underground tanks, and about 4,300 
cubic meters of calcined mixed high-level waste in separate robust 
temporary storage bin sets. As of June 2001, the volume of liquid 
sodium-bearing waste will be reduced by 250,000 gallons through 
evaporation and consolidation of tank contents. A draft environmental 
impact statement (EIS) for high-level waste treatment alternatives has 
been issued, and a final EIS and Record of Decision are planned for the 
end of 2001. We have deployed the Light Duty Utility Arm in two high-
level waste tanks, one of a suite of innovative technologies that can 
inspect, sample, and retrieve waste remotely through openings in the 
tank dome. In this case, we visually inspected the tank interior and 
obtained samples of the tank waste. We are moving forward in fiscal 
year 2002 to inspect and obtain samples from two additional tanks. In 
addition, we continue to treat and dispose of low level and mixed low 
level wastes in compliance with regulatory commitments with the State 
of Idaho.
    One of the most complex challenges at INEEL is the remediation of 
buried wastes, contaminated release sites, contaminated soils, and 
ground water, which is governed by the Federal Facilities Agreement/
Consent Order. A key goal is to eliminate the threat these contaminants 
pose to the Snake River Plain Aquifer, a sole-source aquifer underlying 
the site that provides drinking water to a quarter of a million people 
and serves as a critical source of irrigation water for Idaho's 
agricultural industry. Our environmental restoration program continues 
to make progress in assessing and remediating these areas of 
contamination. The INEEL made progress on the Pit 9 buried waste 
project, with the insertion of 43 probes into the pit. These and other 
probes will provide data for the comprehensive study that will support 
selection of a final cleanup remedy for all the buried waste in the 
Subsurface Disposal Area.
    We are applying bioremediation techniques at Test Area North to 
clean up the ground water plume at the injection well and continuing 
pump-and-treat operations for the extended plume. At the Test Reactor 
Area, we will complete remediation of all identified release sites in 
fiscal year 2001, two years ahead of schedule. At INTEC, with the 
signing of the Record of Decision in fiscal year 1999, we are 
undertaking the complex process of remediating soil and groundwater 
release sites while continuing to operate INTEC for spent fuel storage 
and waste management missions. In addition, we will continue design and 
construction of the Idaho CERCLA Disposal Facilities for the storage/
treatment and disposal of contaminated soils generated in the cleanup 
of INTEC and other contaminated sites at the INEEL.
    The INEEL will continue to perform world-class scientific research 
and development, technology demonstration and deployment, and systems 
analysis and integration in fiscal year 2002. The goal of this effort 
is to ensure a sound scientific basis for decision-making and full 
integration of science and technology into INEEL and EM operations. To 
date, INEEL has deployed nearly 100 technologies in its cleanup 
operations, leading to reduced cost, improved worker safety, schedule 
acceleration, and lower risks. In fiscal year 2002, deployments are 
planned to support each major cleanup program at INEEL.

Oak Ridge Reservation, Tennessee--Fiscal Year 2002 Request

                        [In thousands of dollars]

Defense EM, Privatization...............................          36,876
Defense ER&WM, Post 2006 Completion.....................         244,102
Defense ER&WM, Science & Technology.....................          10,695
Defense ER&WM, Safeguards & Security....................          11,476
Defense ER&WM, Excess Facilities........................             500
Defense ER&WM, Program Direction........................          18,740
Non-Defense EM, Excess Facilities.......................             141
Uranium Facil Main & Rem, Other Uranium Activ...........          12,809
Uranium Facil Maint & Rem, UE D&D Fund..................          65,538
Uranium Facil Maint & Rem, UE D&D-DUF<INF>6</INF>.......          10,000
                    --------------------------------------------------------
                    ____________________________________________________
      Total.............................................         410,877

NOTE: All dollars include safeguards and security, program direction, 
excess facilities, privatization, and science and technology funding.
All operations office dollars include safeguards and security, program 
direction, excess facilities, privatization, and science and technology 
funding.

    The Oak Ridge Reservation (ORR) is comprised of three facilities--
the Y-12 Plant, the East Tennessee Technology Park (ETTP) (formerly the 
Oak Ridge K-25 uranium enrichment facility), and the Oak Ridge National 
Laboratory (ORNL). Funding for EM activities at Y-12 and ORNL is 
primarily funded in Defense accounts, funding for the cleanup of ETTP 
comes from both the Defense and the Uranium Facilities Maintenance and 
Remediation accounts.
    At ORNL, we continue the decommissioning of the Molten Salt Reactor 
Experiment, an experimental nuclear reactor designed to use a fuel of 
highly-reactive uranium-233 blended with a molten salt coolant. After 
four and a half years of operation, the reactor was shut down in 
December 1969. We have made substantial progress, with input from the 
National Academy of Sciences, in stabilizing and deactivating this 
reactor. For example, we have installed and continue to operate a 
system to remove reactive gases from the reactor tanks and keep the 
reactor systems below atmospheric pressure until the fuel salt can be 
removed. In fiscal year 2001, we completed fabrication and testing of 
uranium conversion equipment, and completed the planning, major 
equipment design and documentation for fuel salt removal. In fiscal 
year 2002, we will continue conversion of uranium captured in the 
sodium fluoride traps to a stable oxide for repackaging and storage, 
and will begin flushing and fuel salt removal.
    In fiscal year 2001, we completed transferring waste from eight 
highly radioactive waste storage tanks, called the ``Gunite Tanks,'' at 
ORNL. The tanks were built in 1943 and were used for waste from 
chemical separations operations until the late 1970's. The tanks vary 
in size, with most having a capacity of 170,000 gallons (approximately 
the size of a 4-bedroom house). The estimated cost of the project is 
now $80 million, less than half the original estimate of $200 million. 
A key factor in the accelerated schedule has been the development of a 
variety of remote remediation technologies, such as the ``Houdini'' 
vehicle and a robotic arm that provides access to the tank interior. 
This remotely operated equipment eliminated the need for workers to be 
placed at risk while performing cleanup, while allowing the work to 
proceed more efficiently. The robotic equipment will be reused to 
enhance the cleanup of similar tanks at other sites. In fiscal year 
2002, we plan to continue stabilization of the Gunite tank shells.
    The request supports continued operation of the incinerator at Oak 
Ridge, which is permitted by the State to treat mixed radioactive and 
hazardous wastes regulated by the Resource Conservation and Recovery 
Act and by the EPA to treat PCB-contaminated wastes regulated under 
Toxic Substances Control Act (TSCA). This facility offers unique 
existing treatment capability for the DOE complex and is a vital DOE 
treatment asset. In addition to treating wastes generated by Oak Ridge 
facilities, it has also been used to treat wastes from other DOE sites. 
It provides a cost-effective and integrated approach to reducing the 
risk and managing these wastes.
    The fiscal year 2002 request supports two privatization projects at 
Oak Ridge. Construction of facilities to prepare transuranic waste to 
prepare waste for disposal at WIPP and for low-level waste at the 
Nevada Test Site began in fiscal year 2001 and is scheduled to be 
completed in November 2002, allowing operations to begin in fiscal year 
2003 will be the first year of operation of the facility. The 
Environmental Management Waste Management Facility is an on-site 
disposal facility with a capacity up to 2 million cubic yards of 
contaminated soils and debris resulting from cleanup and D&D actions at 
the site. Construction is currently scheduled to be completed late in 
fiscal year 2001.
    In fiscal year 2002, the Department will continue its effort to 
reindustrialize facilities in Oak Ridge, particularly at ETTP. The goal 
is to clean up ETTP as quickly and as safely as possible so that the 
site can be reused as an industrial park. As of December 2000, about 
6,300,000 square feet of space have been leased to 35 private companies 
in a total of 71 separate leases. In some cases, the Department has 
conducted cleanup of the building and, in other cases, the private 
company is undertaking the cleanup. Overall, we estimate that this 
strategy will save $182 million in life-cycle costs.
    We are making good progress on the Department's largest ever 
decommissioning project at ETTP. Cleanup of K-33, the first DOE uranium 
enrichment facility to be decommissioned, is already 60 percent 
complete as of March 2001. This first building will be finished in 
fiscal year 2002 and will then be readied for private sector reuse. The 
K-33 building and two other buildings are being decommissioned under a 
fixed price contract with BNFL, Inc. The project has turned the corner, 
and is currently making up for previous schedule delays. The largest 
supercompactor in the United States is now operating and is helping to 
minimize waste disposal volumes.
    The Department's moratorium on releasing into commerce recycled 
metals from radiological areas remains in effect, continuing to impact 
the BNFL project cost. These restrictions are expected to remain 
pending decisions made after completion of an Environmental Impact 
Statement. DOE has minimized impacts by purchasing metals destined for 
recycling and storing them for possible future release.
    Our fiscal year 2002 request for Uranium Programs at ETTP supports 
surveillance and maintenance of the inventory of 4,700 cylinders of 
depleted uranium hexafluoride (DUF<INF>6</INF>) and 2,500 other surplus 
uranium cylinders at ETTP. We are managing the cylinders at ETTP and 
the other gaseous diffusion plants in Ohio and Tennessee consistent 
with the consent agreements with the affected states and with Defense 
Nuclear Facilities Safety Board's Recommendation 95-1, which was closed 
in December 1999 when the Board determined the Department had met all 
of the relevant commitments.
    The fiscal year 2002 request includes $10 million in the Oak Ridge 
Account to proceed with the project to chemically convert the 
Department's inventory of DUF<INF>6</INF> into a more stable form that 
would make it acceptable for reuse, if applications for the material 
are found, or for disposal. Early in fiscal year 2001, the Department 
issued the final Request for Proposals to design, construct and, for 
the first five years, operate conversion facilities at Paducah and 
Portsmouth. Initially scheduled to be awarded at the end of fiscal year 
2001, we now expect to award the contract early in fiscal year 2002 due 
to the number of proposals received and the complexity of the technical 
and business evaluations. In fiscal year 2002, DOE is requesting $10 
million for the conversion project and plans to allocate an additional 
$12 million to this amount from funds obtained under Memoranda of 
Agreement (MOA) with USEC. The Department is committed to keeping this 
project on track to begin construction by January 2004, consistent with 
the schedule provided in Public Law 105-204.

Fernald Environmental Management Project, Ohio--Fiscal Year 2002 Request

                        [In thousands of dollars]

Defense Closure, Site Closure...........................         285,299
Defense Closure, Safeguards & Security..................           4,701
Defense ER&WM, Science & Technology.....................             255
                    --------------------------------------------------------
                    ____________________________________________________
      Total.............................................         290,255

NOTE: All dollars include safeguards and security, program direction, 
excess facilities, privatization, and science and technology funding.
All operations office dollars include safeguards and security, program 
direction, excess facilities, privatization, and science and technology 
funding.

    The Fernald site, encompassing approximately 1,050 acres near 
Cincinnati, produced uranium for nuclear weapons from 1951 to the end 
of the Cold War in 1989. Nearly 40 years of uranium production at 
Fernald resulted in soil and groundwater contamination, a large backlog 
of wastes, including some unstable liquids, as well as stored nuclear 
materials such as depleted and enriched uranium. Several years of 
cleanup progress have included stabilization of liquid uranium 
solutions, off-site shipment of low level radioactive wastes, on-site 
disposal of contaminated soils and debris, and deactivation, 
decontamination and demolition of several large industrial buildings at 
Fernald.
    Achieving the closure of its two major sites, the Fernald and Rocky 
Flats sites, is a high priority for the Department. At Fernald, the 
Department entered into a closure contract with Fluor Fernald on 
November 20, 2000, whereby the contractor is given incentives to 
complete site cleanup before the current completion date in the 
baseline of December 31, 2010. The contractor can earn incentive fees 
by achieving closure by December 2006. Long-term stewardship, including 
continued groundwater remediation and long-term institutional controls, 
will be necessary after active cleanup is completed.
    Our record at Fernald demonstrates that we will not compromise 
safety in our efforts to complete the cleanup quickly and cost 
effectively. In January 2001, DOE's Office of Environment, Safety and 
Health awarded the Fernald Environmental Management Project STAR 
recognition status in the Voluntary Protection Program. This DOE 
program promotes safety and health excellence through cooperative 
efforts among labor, management, and government at DOE sites. 
Contractors that meet the requirements for outstanding performance 
receive STAR recognition. STAR status is the highest safety performance 
and program honor that can be achieved.
    New technology deployments at Fernald are resulting in significant 
project cost and schedule savings. For example, a variety of 
technologies are being used to provide real-time identification of 
radioactive contaminants in the soil. This rapid characterization 
reduces the amount of soil excavated and improves worker productivity. 
These technologies are estimated to reduce remediation costs by over 
$30 million. And a groundwater re-injection demonstration project has 
accelerated cleanup of the Great Miami Aquifer. Current analysis 
indicates that the re-injection technology will reduce treatment time 
from 27 to 10 years, resulting in a cost savings of an estimated $14 
million.
    The On-site Disposal Facility allows for accelerated disposal of 
contaminated soil and debris resulting from cleanup and building 
demolition at a significant cost savings. In fiscal year 2000, we 
disposed of more than 255,000 cubic meters waste, contaminated soil, 
and debris in the facility, including the completion of waste placement 
in Cell 1 and start of waste placement in Cell 3. In fiscal year 2001, 
the placement of a permanent cap on Cell 1 will be completed, and 
approximately 45,000 cubic meters will be placed in Cells 2 and 3. In 
fiscal year 2002, the disposal facility will continue to be monitored 
and maintained.
    The Silo 3 pre-operations/treatment activities continued in fiscal 
year 2000, and the design and initial construction of the Tank Transfer 
Area/Waste Retrieval System, and Radon Control Systems was completed. 
In fiscal year 2001, pre-operational activities for Silo 3 remediation 
will continue, operations of the Radon Control System will begin, and 
the Silo 4 mock-up testing of the Waste Retrieval System will be 
conducted. In fiscal year 2002, Silo 3 operations will begin, 
construction of the Silos 1 and 2 Tank Transfer Area/Waste Retrieval 
System and Radon Control System will be completed, and the Silos 1 and 
2 full-scale remediation project is expected to begin.
    Removal of wastes and materials from the site is critical to 
closure. We are shipping uranium to the Portsmouth Gaseous Diffusion 
Plant in Ohio, with 62 shipments containing about 83 metric tons of 
uranium transferred to date. We are currently on schedule to complete 
the disposition of all nuclear product material by June 2002. We are 
also shipping waste off-site for disposal. As of January 2001, thirty-
two unit trains of rail cars loaded with treated waste have left the 
Fernald site for disposition at a permitted commercial disposal 
facility.
    We continue to make great progress in the demolition of deactivated 
and decontaminated industrial buildings. Approximately 90 of the over 
250 structures that require decontamination and demolition have been 
completed. We will complete cleanup of the Plant 6 Complex in fiscal 
year 2002, and begin work on the Multi-complex and Lab/Pilot Plant 
Complex. In addition, the facility shutdown of the non-nuclear 
facilities onsite will continue in fiscal year 2001 and fiscal year 
2002. Facility shutdown includes disconnecting utilities on process 
equipment and structures; and removing and dispositioning of residues, 
process material, and equipment as required.
    As remediation proceeds at Fernald, we are carrying out natural 
resource restoration projects and demonstrations using plantings 
similar to what historically and naturally occurs in the area, and 
incorporating a diverse variety of vegetation to promote wildlife 
colonization. Through fiscal year 2000, 31 acres were restored, and an 
additional 40 acres are planned for fiscal year 2001. In fiscal year 
2002, the Area 1 Phase III Northern Woodlot/Wetland Mitigation project 
will be completed, restoring 103 acres, the largest land restoration 
project to be completed to date.

Portsmouth Gaseous Diffusion Plant, Ohio--Fiscal Year 2002 Request

                        [In thousands of dollars]

Defense, Privatization..................................           2,000
Uranium Facil Maint & Rem/UE D&D Fund...................         113,905
Uranium Facil Maint & Rem/Other Uranium Activ...........          87,191
Defense ER&WM, Safeguards & Security....................           7,449
                    --------------------------------------------------------
                    ____________________________________________________
      Total.............................................         210,545

NOTE: All dollars include safeguards and security, program direction, 
excess facilities, privatization, and science and technology funding.
All operations office dollars include safeguards and security, program 
direction, excess facilities, privatization, and science and technology 
funding.

    Initially constructed to support the Federal government's uranium 
enrichment program for defense purposes, the Portsmouth Gaseous 
Diffusion Plant has been leased to the U.S. Enrichment Corporation 
(USEC), a private corporation, to provide uranium enrichment services 
to commercial nuclear power plants.
    In June 2000, USEC announced that it would cease operations of the 
Portsmouth enrichment facilities. We are working toward a smooth 
transition from USEC operations to DOE stewardship. The Department 
intends to place the facilities in a safe and operable condition, or 
``cold standby'' status, in the event of a significant disruption of 
the supply of enriched uranium that threatens the ability of the U.S. 
producer to meet its contractual commitments to utilities in both the 
U.S. and U.S. strategic allies. An immediate need is ``winterization'' 
of the facilities, which requires development of a new source of heat 
for the facilities, currently heated as a byproduct of the enrichment 
process operations. A total of $125 million requested in fiscal year 
2002 supports activities in fiscal year 2001 and fiscal year 2002 to 
winterize the facilities, place the facilities in cold standby, and 
mitigate the impacts on the workforce. Some of these funds will be used 
to replace funding for some of the sources for a fiscal year 2001 
reprogramming for transition activities now pending before Congress.
    EM has historically been responsible for the cleanup of existing 
environmental contamination at the site and management of legacy waste. 
Primary environmental problems include cleanup of contaminated areas 
around the site, remediation of several old landfills, disposition of 
legacy waste, and containment and remediation of groundwater 
contaminated with both radioactive and chemical contaminants. There is 
no off-site contamination, and ground-water contamination is contained 
within the shallow aquifer bedrock. With the requested funding in 
fiscal year 2002, EM plans to complete active remediation by fiscal 
year 2003 and all legacy waste disposition by fiscal year 2006.
    In addition, the Energy and Water Development Appropriation for 
fiscal year 2001 consolidated funding for Uranium Programs and cleanup 
activities and authorized the transfer of federal personnel from DOE's 
Office of Nuclear Energy, Science and Technology to the Office of 
Environmental Management to carry out the associated responsibilities. 
With this transfer, EM gained additional responsibilities, addressed in 
the fiscal year 2002 request, including management and disposition of 
the depleted uranium hexafloride (DUF<INF>6</INF>) inventory.
    In fiscal year 2000, we completed the capping of the last former 
landfill and transitioned from investigation and interim actions to 
implementing groundwater contamination technologies. During fiscal year 
2001, we are focusing on closure of the remaining hazardous waste 
units; containment and contaminant removal of on-site groundwater 
plumes; and disposal of legacy waste. We are also evaluating several 
alternatives for remediation of both soil and groundwater 
contamination, which include the use of innovative technologies such as 
oxidant injection and vacuum enhanced recovery with phytoremediation, 
steam stripping, oxidant recirculation, and groundwater extraction and 
bioremediation. The Record of Decision (ROD) will be issued in the Fall 
of 2001. We will initiate construction of the final remediation 
technology for groundwater plumes and construct caps on several 
landfills located in the southern portion of the site. We will initiate 
final remedial action for the X-701B groundwater plume and continue 
removing contaminated soils from areas associated with this plume. We 
will also initiate final remedial action for the groundwater plume 
located in the vicinity of the main process buildings for completion in 
fiscal year 2002. We will characterize approximately 12,500 containers 
of low-level waste, mixed hazardous and low-level waste, and PCB-
containing low-level waste for disposal.
    In fiscal year 2002, off-site disposal of low-level and mixed low-
level wastes will continue. We will operate the ongoing ground-water 
treatment facility and conduct long-term surveillance and maintenance 
of remedial action units and decontamination and decommissioning 
facilities. We will complete disposal of the remaining 2,600 tons of 
scrap metal on the X-747 scrap metal project, continue final 
remediation of ground-water plumes in Quadrant I, and initiate the 
final remedial action in Quadrant II for the X-701B soil and ground 
water.
    Our fiscal year 2002 request also supports maintenance of 
facilities and surplus uranium, and surveillance and maintenance of the 
inventory of approximately 16,000 DUF<INF>6</INF> cylinders and 2,000 
cylinders containing other surplus uranium at Portsmouth. We are 
managing the cylinders at Portsmouth and the other gaseous diffusion 
plants in Kentucky and Tennessee consistent with the consent agreements 
with the affected states and with Defense Nuclear Facilities Safety 
Board's Recommendation 95-1, which was closed in December 1999 when the 
Board determined the Department had met all of the relevant 
commitments.
    The fiscal year 2002 request includes $10 million in the Oak Ridge 
Reservation account to proceed with the project to chemically convert 
the Department's inventory of DUF<INF>6</INF> at Portsmouth and 
elsewhere into a more stable form that would make it acceptable for 
reuse if applications for the material are found, or for disposal. 
Early in fiscal year 2001, the Department issued the final Request for 
Proposals to design, construct and, for the first five years, operate 
conversion facilities at Paducah and Portsmouth. The Department is 
committed to keeping this project on track to begin construction in 
January 2004, consistent with the schedule provided in Public Law 105-
204.
    The President's fiscal year 2002 budget request also includes $7.2 
million for pre-existing liabilities at the Portsmouth Plant, which are 
those liabilities that by law or agreement the Department retained 
after the transfer of the uranium enrichment activities to USEC. Pre-
existing liabilities consist of post-retirement life and medical 
benefits for retirees and employees that existed prior to the time of 
transfer to the USEC (for that portion attributed to service prior to 
privatization for these retirees).

Waste Isolation Pilot Plant, New Mexico--Fiscal Year 2002 Request

                        [In thousands of dollars]

Defense ER&WM, Post 2006 Completion.....................         164,570
Defense ER&WM, Safeguards & Security....................           2,550
Defense ER&WM, Program Direction........................           8,510
                    --------------------------------------------------------
                    ____________________________________________________
      Total.............................................         175,630

NOTE: All dollars include safeguards and security, program direction, 
excess facilities, privatization, and science and technology funding.
All operations office dollars include safeguards and security, program 
direction, excess facilities, privatization, and science and technology 
funding.

    Operating WIPP is a key element of the Department's strategy to 
provide for the permanent disposal of the Department's inventory of 
radioactive waste. WIPP is critical to achieving site closure at the 
Rocky Flats Environmental Technology Site by December 2006 and to the 
closure or cleanup of 26 other sites in the DOE complex that store or 
generate transuranic waste. The total volume of transuranic waste 
currently managed by DOE (stored and projected) is estimated to be 
171,439 cubic meters, of which 167,412 cubic meters is contact-handled 
(CH-TRU) transuranic waste and 4,027 cubic meters is remote-handled 
(RH-TRU) transuranic waste. By shipping this waste to WIPP for 
disposal, the Department will be able to reduce the number of sites 
where this type of waste is stored, reduce the management costs of this 
waste, and reduce the long-term risks to the public and the 
environment.
    On March 26, 1999, WIPP began operations, receiving its first 
shipment of transuranic waste from Los Alamos National Laboratory, 
subsequently followed by shipments from the Idaho National Engineering 
and Environmental Laboratory (INEEL) and Rocky Flats. The State of New 
Mexico issued the final Hazardous Waste Facility Permit, with an 
effective date of November 26, 1999, enabling WIPP to receive mixed 
hazardous and transuranic waste, and all five of the major shipping 
sites (Rocky Flats, INEEL, Hanford, Savannah River Sites, and Los 
Alamos) are certified under the permit to ship transuranic waste to 
WIPP. The Hanford Site began shipments in fiscal year 2000, and began 
shipments from the Savannah River Site in fiscal year 2001. As of the 
end of April 2001, there have been 214 shipments to WIPP totaling about 
1,500 cubic meters of waste.
    The Department currently transports CH-TRU waste in Nuclear 
Regulatory Commission certified packages called TRUPACT-II's. To 
support increased shipping requirements, DOE is procuring additional 
TRUPACT-II's. The Department is also pursuing the development of a new 
container called the HalfPACT to transport heavier-than-average drums 
of CH-TRU waste under the current TRUPACT-II fabrication contracts. RH-
TRU waste requires a shielded cask for safe transportation. The 
Department will transport the RH-TRU waste in a certified cask called 
the RH-72B. Contracts were awarded in August 2000 to two vendors to 
fabricate a total of 12 casks. The Department will use fiscal year 1999 
privatization funds to procure the casks. The fiscal year 2002 budget 
request includes no funds for this project.
    In fiscal year 2001, the Department awarded a new performance-based 
Site Management and Operating Contract for WIPP. The Carlsbad Field 
Office's management and operating contractor assists the Department in 
managing the activities of the WIPP facility and the National 
Transuranic Waste Management Program; therefore, the selection of a 
qualified management and operating contractor for WIPP is not only 
crucial to WIPP but also to DOE's mission and goals.
    In fiscal year 2001, DOE revised the Record of Decision on 
treatment and storage of transuranic waste. The Department has decided 
to establish a centralized characterization capability at WIPP to 
prepare CH-TRU waste for disposal (up to 1,250 of the 7,000 cubic 
meters planned to be received for disposal annually). The New Mexico 
Environment Department must approve a modification of WIPP's Hazardous 
Waste Facility Permit before the Department could perform disposal 
characterization at WIPP. By conducting centralized characterization 
the Department will avoid the necessity of constructing 
characterization facilities at the small quantity sites.
    During fiscal year 2002, WIPP expects to receive CH-TRU waste 
shipments from Rocky Flats, INEEL, the Los Alamos National Laboratory, 
the Savannah River Site, Argonne National Laboratory-East, and limited 
shipments from other sites. We plan to increase shipments from the 
Savannah River Site to WIPP by using mobile facilities to prepare the 
waste for shipment. This will allow receipt of Mound transuranic waste 
at the Savannah River Site, as agreed with the State of South Carolina, 
to support early closure of the Mound Site.
    WIPP will continue activities in fiscal year 2002 to support the 
first receipt of RH-TRU waste. The Department must receive New Mexico 
Environment Department and the U.S. Environmental Protection Agency 
approvals before RH-TRU waste can be disposed of.
    The funding request for fiscal year 2002 includes $21.5 million to 
provide economic assistance to the State of New Mexico, as authorized 
by the WIPP Land Withdrawal Act. The WIPP program also funds a variety 
of institutional programs that provide for operational oversight and 
other assistance for affected governments and stakeholder groups.
    The Carlsbad Field Office, working with the Office of Science and 
Technology, will continue to apply innovative science and technology 
solutions that facilitate receipt of transuranic waste and promote cost 
savings in the National Transuranic Waste Management Program.

West Valley Demonstration Project, New York--Fiscal Year 2002 Request

                        [In thousands of dollars]

Non-Defense EM, Post 2006 Completion....................          95,115
Defense ER&WM, Science & Technology.....................           1,810
Defense ER&WM, Safeguards & Security....................           1,395
                    --------------------------------------------------------
                    ____________________________________________________
      Total.............................................          98,320

NOTE: All dollars include safeguards and security, program direction, 
excess facilities, privatization, and science and technology funding.
All operations office dollars include safeguards and security, program 
direction, excess facilities, privatization, and science and technology 
funding.

    The West Valley Demonstration Project, located in western New York, 
is being conducted at the site of the only commercial nuclear fuel 
reprocessing facility to operate in the United States. Pursuant to an 
agreement with the State of New York, a private company processed spent 
nuclear fuel to extract plutonium and uranium from 1966 to 1972, 
generating 2,200 cubic meters of liquid high-level radioactive waste. 
New York alone became responsible for the site after operations ceased, 
and the 1980 West Valley Demonstration Project Act directed the 
Secretary of Energy to carry out a high-level radioactive waste 
demonstration project to assist the State with cleanup of the site. The 
site will be returned to the State after DOE completes its 
responsibilities under the Act.
    The principal operation at West Valley is the solidification of the 
liquid high-level waste into borosilicate glass using a process called 
vitrification. The primary vitrification campaign began in June 1996 
and was completed ahead of schedule in June 1998. Vitrification of the 
high-level waste tank heels is currently underway. Ten canisters of 
solidified high-level waste were produced in fiscal year 2000, 
exceeding the goal of five canisters, and five to eight canisters of 
solidified high-level waste will be produced in fiscal year 2001. Due 
to recent characterization data which indicates that the high level 
waste tanks contain higher than expected levels of radionuclides, 
vitrification operations will continue into fiscal year 2002 to support 
additional tank cleaning efforts, to be then followed by systematic 
shutdown of the melter and other vitrification processing systems.
    The EM program is also responsible for the safe management of 125 
spent nuclear fuel elements stored at the site. The spent fuel is 
scheduled to be shipped to the Idaho National Engineering and 
Environmental Laboratory in the summer of 2001.
    The West Valley site exemplifies the Department's continued 
commitment to the safety of its workers. In fiscal year 2000, the West 
Valley site received the Department's top safety and health award, 
referred to as ``Voluntary Protection Program Star Status.''
    Now that vitrification of the high-level waste is nearly complete, 
our focus shifts to waste management and decontamination of project 
equipment and facilities. Off-site shipments of low-level waste for 
disposal are underway and will continue. We are developing the Remote 
Handled Waste Facility to prepare high activity waste for off-site 
shipment for disposal; we completed final design and started 
construction in fiscal year 2001, and construction will continue in 
fiscal year 2002. Deactivation and decontamination activities on 
project facilities will be carried out, such as clean-out of waste from 
the head-end cells and deactivation of the spent fuel storage pool.
    In addition, work is progressing toward development of a Waste 
Management and Decontamination Environmental Impact Statement Record of 
Decision (EIS ROD) scheduled for fiscal year 2002, to be followed in 
several years by a Decommissioning or Long-Term Stewardship EIS ROD, 
which will determine final closure of the site. New York State and DOE 
have been working together and with stakeholders to formulate a 
preferred alternative for the Decommissioning or Long-Term Stewardship 
EIS. Although negotiations between New York and DOE concluded in 
January 2001 without an agreement, we continue to work successfully 
with the State on day-to-day activities at the site. Should DOE and the 
State ultimately be unable to reach consensus on a preferred 
alternative, DOE will proceed with the Decommissioning EIS on its own.

Paducah Gaseous Diffusion Plant, Kentucky--Fiscal Year 2002 Request

                        In thousands of dollars]

Defense, Privatization..................................          13,329
Uranium Facil Main & Rem/UE D&D Fund....................          62,198
Uranium Facil Main & Rem/Other Uran Activ...............          10,784
Defense ER&WM, Safeguards & Security....................           2,408
                    --------------------------------------------------------
                    ____________________________________________________
      Total.............................................          88,719

NOTE: All dollars include safeguards and security, program direction, 
excess facilities, privatization, and science and technology funding.
All operations office dollars include safeguards and security, program 
direction, excess facilities, privatization, and science and technology 
funding.

    This uranium enrichment facility occupies a 3,500 acre site in 
Paducah--including 750 acres within the fenced security area and 2,000 
acres leased to the Kentucky Department of Fish and Wildlife. Initially 
constructed to support the Federal government's uranium enrichment 
program for defense purposes, U.S. Enrichment Corporation (USEC) now 
operates the facility to produce enriched uranium for commercial 
nuclear reactors. USEC is responsible for all primary process 
facilities and auxiliary facilities associated with the enrichment 
services and for waste generated by current operations. The Department 
has responsibility for facilities, materials, and equipment not leased 
by USEC.
    The Environmental Management program has historically been 
responsible for remediation of contaminated soils and groundwater, and 
management of legacy wastes and materials at Paducah generated before 
the plant was leased to USEC. The cleanup problems and contaminants 
include both on-site and off-site contamination from radioactive and 
hazardous materials, including off-site groundwater contamination which 
has contaminated private residential wells. There are also numerous 
contaminated areas around the site requiring cleanup, about 55,000 tons 
of scrap metal that must be dispositioned; 6,000 cubic meters of low-
level waste in drums; and several radioactively-contaminated surplus 
facilities that must be decontaminated.
    In addition, the Energy and Water Development Appropriation for 
fiscal year 2001 consolidated funding for Uranium Programs and cleanup 
activities and authorized the transfer of federal personnel from the 
Office of Nuclear Energy, Science and Technology to the Office of 
Environmental Management to carry out the associated responsibilities. 
With this transfer, EM gained additional responsibilities, addressed in 
the fiscal year 2002 request, including management and disposition of 
the depleted uranium hexafloride (DUF<INF>6</INF>) inventory and the 
cleanup of 160 DOE Material Storage Areas (DMSAs) containing more than 
800,000 cubic feet of materials and equipment.
    The Department continues to monitor residential wells and to pay 
municipal water bills for residents whose drinking-water wells were 
affected by the ground-water contamination. We will continue to operate 
``pump-and-treat'' systems installed at the northeast and northwest 
plumes during the early 1990's; approximately 12,000 pounds of 
contaminants have been extracted from ground water since these systems 
began operation.
    In December 2000, we completed the disposition of 6,250 tons of 
radioactively-contaminated drums removed from ``Drum Mountain,'' a 
suspected source of contamination of the Big and Little Bayou Creeks. 
Current plans for fiscal year 2001 call for beginning the removal of 
the remaining scrap yards, which is critical to access and characterize 
the underlying burial grounds, for completion at the end of 2003; 
beginning construction in fiscal year 2001 to remediate the North-South 
Diversion Ditch; issuing a Record of Decision for final remedy for 
groundwater sources contributing to the northeast and northwest plumes; 
and continuing decontamination of the shutdown radioactively 
contaminated buildings, completing the removal of stored equipment and 
materials and accessible loose contamination from the C-410 Feed Plant 
facility. In fiscal year 2002, our plans include completing remediation 
of the North-South Diversion Ditch; continuing removal of the remaining 
scrap metal piles; and removing the building infrastructure of the C-
410 Feed Plant.
    However, it will be necessary to re-prioritize cleanup activities 
in fiscal year 2001 and fiscal year 2002 in order to resolve a Notice 
of Violation (NOV) issued by the Commonwealth of Kentucky in September 
2000. The NOV concerned the possible presence of hazardous waste and 
other regulated substances in the 160 DOE Material Storage Areas 
(DMSAs), which EM became responsible for with the transfer of Uranium 
Programs in fiscal year 2001. Some planned cleanup activities may need 
to be deferred to accelerate characterization and disposition of 
materials and equipment in the DMSAs in response to the NOV. 
Discussions with State and EPA regulators are underway.
    The Department is currently evaluating alternatives for disposal of 
waste generated by site-wide remediation activities at Paducah. One 
alternative being considered is the construction and operation of an 
on-site disposal facility, a cost-effective approach to dispose of 
remediation waste. Environmental planning activities currently in 
progress, such as siting, seismic, and feasibility studies, will lead 
to a Record of Decision early in 2003. (Initially scheduled for fiscal 
year 2002, additional field studies requested by the regulators have 
delayed the schedule for issuing the ROD by several months.) If on-site 
disposal is selected, we would develop the 600,000 cubic yard facility 
through a privatization approach, in which the Department would 
purchase waste disposal services from the private vendor for low-level, 
hazardous, Toxic Substances Control Act defined, and mixed wastes 
generated at Paducah. Our request for $13.3 million in the 
privatization account supports this project and would allow us to carry 
out the procurement planning activities needed to award a contract soon 
after the Record of Decision is issued.
    Our fiscal year 2002 request for Uranium Programs at Paducah 
supports the maintenance of facilities not leased to USEC and of 
surplus uranium inventories. It also supports surveillance and 
maintenance of the inventory of approximately 40,200 mainly 
DUF<INF>6</INF> cylinders at Paducah. We are managing the cylinders at 
Paducah and the other gaseous diffusion plants in Ohio and Tennessee 
consistent with the consent agreements with the affected states and 
with Defense Nuclear Facilities Safety Board's Recommendation 95-1, 
which was closed in December 1999 when the Board determined the 
Department had met all of the relevant commitments.
    The fiscal year 2002 request includes $10 million in the Oak Ridge 
Reservation account to proceed with the project to chemically convert 
the Department's inventory of DUF<INF>6</INF> at Paducah and elsewhere 
into a more stable form that would make it acceptable for reuse if 
applications for the material are found, or for disposal. Early in 
fiscal year 2001, the Department issued the final Request for Proposals 
to design, construct and, for the first five years, operate conversion 
facilities at Paducah and Portsmouth. The Department is committed to 
keeping this project on track to begin construction in January 2004, 
consistent with the schedule provided in Public Law 105-204.
    The President's fiscal year 2002 budget request also includes $3.8 
million for pre-existing liabilities at the Paducah Gaseous Diffusion 
Plant, which are those liabilities that by law or agreement the 
Department retained after the transfer of the uranium enrichment 
activities to USEC. Pre-existing liabilities consist of post-retirement 
life and medical benefits for retirees and employees that existed prior 
to the time of transfer to the USEC (for that portion attributed to 
service prior to privatization for these future retirees).

Nevada Test Site, Nevada--Fiscal Year 2002 Request

                        [In thousands of dollars]

Defense ER&WM, Post 2006 Completion.....................          74,843
Defense ER&WM, Science & Technology.....................           2,429
Defense ER&WM, Program Direction........................           5,656
                    --------------------------------------------------------
                    ____________________________________________________
      Total.............................................          82,928

NOTE: All dollars include safeguards and security, program direction, 
excess facilities, privatization, and science and technology funding.
All operations office dollars include safeguards and security, program 
direction, excess facilities, privatization, and science and technology 
funding.

    The Nevada Test Site (NTS) is located 65 miles North of Las Vegas 
and encompasses 1,375 square miles (an area roughly the size of Rhode 
Island). The EM program undertakes waste management activities and 
environmental restoration actions resulting from past DOE nuclear 
testing activities at NTS.
    NTS plays a crucial role for other DOE sites as one of the major 
low-level radioactive waste disposal facilities in the DOE complex. In 
fiscal year 2000, the NTS disposed of 18,267 cubic meters of low-level 
waste and 29 cubic meters of mixed low-level waste. This year's 
projections are 28,500 cubic meters of low-level waste. NTS disposal 
operations are critical to closing other DOE sites. For example, Rocky 
Flats and Fernald will dispose of more than 38,000 cubic meters of low-
level waste at NTS to support their closure.
    We are working with the State of Nevada to acquire the required 
permits and to increase capacity for mixed low-level waste disposal at 
NTS as a result of the February 2000 Record of Decision designating NTS 
as a regional disposal facility for DOE low-level and mixed wastes. 
Work is also proceeding on the characterization of transuranic waste 
drums, in preparation for shipment to the Waste Isolation Pilot Plant, 
to begin in fiscal year 2002.
    Progress continues in the Underground Test Area to address 
groundwater contamination through installation of groundwater wells, 
monitoring activities, and modeling efforts. We installed and sampled 
three deep wells in fiscal year 2000. The corrective action strategy 
for NTS groundwater contamination was also renegotiated in fiscal year 
2000 with the State of Nevada, and have implemented actions to address 
regulator and stakeholder concerns.
    The cleanup of NTS Industrial Sites area that supported the 
historic nuclear testing continues on schedule. To date, corrective 
actions have been completed at over half of the 1,068 release sites. 
Negotiations are continuing with the State of Nevada on corrective 
action levels for cleanup of soils, which were contaminated primarily 
by above-ground testing. The start of corrective actions for soils 
cleanup has been deferred, pending negotiations.
    Project baselines have been reviewed with the regulators and 
stakeholders and fully identify the planned implementation of 
corrective measures for the various Nevada projects. These baselines 
include long-term stewardship obligations and emphasize the use of 
innovative technologies, such as the deployment of laser cutting for 
oversized TRU boxes, and an alternative arid landfill cover and 
monitoring system.

Los Alamos National Laboratory, New Mexico--Fiscal Year 2002 Request

                        [In thousands of dollars]

Defense ER&WM, Post 2006 Completion.....................          73,182
Defense ER&WM, Science & Technology.....................           2,538
Non-Defense EM, Post 2006 Completion....................           2,500
                    --------------------------------------------------------
                    ____________________________________________________
      Total.............................................          78,220

NOTE: All dollars include safeguards and security, program direction, 
excess facilities, privatization, and science and technology funding.
All operations office dollars include safeguards and security, program 
direction, excess facilities, privatization, and science and technology 
funding.

    The Los Alamos National laboratory is a 43 square mile research and 
development site located 60 miles northeast of Albuquerque, New Mexico. 
Through fiscal year 2001, the Department expects to complete 
remediation of 1,302 of 1,942 ``release sites,'' or specific areas 
where releases of contaminants had occurred, and decommission 36 out of 
101 surplus facilities. We plan to complete cleanup of one additional 
release site in fiscal year 2002.
    Approximately half of the fiscal year 2002 funding request for Los 
Alamos is devoted to environmental restoration work, such as drilling 
new regional ground water wells to characterize the hydrogeology and 
cleanup work in multiple watersheds. Although no EM funds in fiscal 
year 2002 directly support the project to transfer land to the 
community, a joint project with the Office of Defense Programs, other 
Los Alamos cleanup work, such as the source removal actions at high 
risk sites at the TA-21 parcel and some of the characterization work in 
the canyons, will support the transfer of parcels in future years. At 
this point, cleanup work has been completed at four of the 10 parcels 
proposed to be transferred.
    The EM program provides for the treatment, storage, and disposal of 
all legacy waste that is presently stored at the Los Alamos National 
Laboratory. The legacy waste consists of mixed low-level waste, 
transuranic waste, and mixed transuranic waste generated at 33 
Technical Areas and is treated, stored. Los Alamos has accelerated the 
treatment and disposal of legacy mixed low-level waste and retrieval of 
legacy transuranic waste (both transuranic and mixed transuranic) 
stored on asphalt pads under earthen cover, and now expects to complete 
these activities a year earlier than previously planned. Treatment and 
disposal of legacy mixed low-level waste with an identified path for 
disposal is now planned to be completed in fiscal year 2003. Retrieval 
of legacy transuranic and mixed transuranic waste stored on Asphalt 
Pads 1 and 4 has been completed. Retrieval of waste drums on Pad 2 
began in fiscal year 2000 with completion scheduled for fiscal year 
2002.
    In March 1999, Los Alamos National Laboratory became the first DOE 
site to ship transuranic waste to WIPP. Los Alamos plans to make 19 
shipments to WIPP in fiscal year 2001, bringing the total number of 
shipments or quantities of waste shipped to 41 which includes 
transuranic waste from the Office of Environmental Management and DOE's 
Office of Defense Programs.
    The Department designated Los Alamos as the lead laboratory for 
research and development efforts to support DOE's nuclear materials 
management. In this capacity, Los Alamos provides solutions to complex-
wide technical and operational issues associated with stabilization and 
storage of plutonium and other nuclear materials. LANL also manages the 
Off-Site Source Recovery Program for the recovery and storage of more 
than 5,500 commercial sealed radioactive sources, as well as Department 
of Defense sources and radioisotopoic thermoelectric generators. The 
program began full operations in fiscal year 2001 and to date has 
recovered more than 1,100 private sector sealed sources and brought 
them to LANL for storage. We expect to recover over 2,000 sources by 
the end of fiscal year 2001, and an additional 1,000 sources in fiscal 
year 2002.

Miamisburg Environmental Management Project (Mound)--Fiscal Year 2002 
Request

                        [In thousands of dollars]

Defense Closure, Site Closure...........................          70,939
Defense Closure, Safeguards & Security..................           5,778
                    --------------------------------------------------------
                    ____________________________________________________
      Total.............................................          76,717

NOTE: All dollars include safeguards and security, program direction, 
excess facilities, privatization, and science and technology funding.
All operations office dollars include safeguards and security, program 
direction, excess facilities, privatization, and science and technology 
funding.

    The Miamisburg Environmental Management Project, a 306-acre 
facility near Dayton, Ohio used for tritium and plutonium operations, 
consists of 152 buildings and approximately 230 potentially 
contaminated soil areas. By the end of fiscal year 2001, over one-half 
of the 107 buildings scheduled for removal will have been demolished or 
auctioned for off-site use, a quarter of the 42 buildings scheduled to 
be transferred to the Miamisburg Mound Community Improvement 
Corporation will have been decommissioned and decontaminated, and two-
thirds of the soil release sites will have been remediated. We still 
have a goal of completing cleanup of the site by 2006; however, 
changing conditions and increased scope are making a closure date of 
several years later more likely. Expanded project scope, especially in 
the excavation of greater quantities of contaminated soils, has 
significantly impacted cost and schedule. Worker health and safety 
issues at various times have seriously curtailed work in the ``critical 
path'' areas while additional personal radiation protection equipment 
to address these concerns has contributed to increased project cost.
    We continue to make progress towards closure. In fiscal year 2000, 
Mound completed the disposition of its excess nuclear materials, most 
of which were sealed sources used to calibrate and test equipment. The 
site also completed the decontamination or demolition of four buildings 
and the remediation of five contaminated soil areas in fiscal year 
2000, and will complete three buildings and the assessments of six 
contaminated soil areas in fiscal year 2001. We are shipping low-level 
radioactive waste off-site for disposal, approximately 18,000 and 
13,000 cubic meters in fiscal year 2000 and 2001 respectively. And in 
fiscal year 2001, Mound will begin off-site disposition of its 
transuranic waste to the Savannah River Site for interim storage and 
eventual repackaging and shipment to WIPP.
    In fiscal year 2002, Mound will complete shipments of its 
transuranic waste as well as disposition of all remediation-generated 
waste. Groundwater remediation will continue, and up to nine 
contaminated soil areas will be assessed for remedial action. In 
addition, cleanup will continue on the site's most contaminated 
buildings, including the tritium operations facilities that comprises 
three highly contaminated, complex buildings on the site's ``critical 
path'' for cleanup and closure.
    In 1998, the Department signed an agreement to transfer ownership 
of the site to the Miamisburg Mound Community Improvement Corporation 
as remediation of discrete parcels are completed. To date, the 
Department has transferred two buildings and 122 acres, and another 
five acres and two buildings will be deeded over in the next few 
months, bringing the total acreage transferred to 40 percent of the 
site. Currently, 31 private businesses employing 342 workers are co-
located at Mound in leased or transferred property. The Department's 
radioisotope heat source program, managed by the Office of Nuclear 
Energy, Science and Technology, will remain at Mound after the rest of 
the site is transferred. The program will retain use of three of the 
site's buildings.

Weldon Spring Site Remedial Action Project, Missouri--Fiscal Year 2002 
Request

                        [In thousands of dollars]

Non-Defense EM, Site Closure............................          43,000

NOTE: All dollars include safeguards and security, program direction, 
excess facilities, privatization, and science and technology funding.
All operations office dollars include safeguards and security, program 
direction, excess facilities, privatization, and science and technology 
funding.

    The Weldon Spring Site Remedial Action Project in Missouri covers 
the cleanup of an abandoned decommissioned uranium processing plant, an 
abandoned quarry used as a dump site, as well as numerous vicinity 
properties that were contaminated by uranium and thorium processing 
operations conducted for nuclear weapons support in the 1950's and 
1960's. It consists of two separate facilities, the Weldon Spring 
Quarry and the Chemical Plant Site, which includes the raffinate 
disposal areas.
    Our request supports completion of the cleanup of surface 
contamination at the Weldon Spring Site and permanent disposal of all 
contaminated material in an on-site, above-grade cell by the end of 
fiscal year 2002. Groundwater activities, as well as long-term 
surveillance and monitoring for the disposal facility will be conducted 
after surface cleanup is complete. Much of the remaining land is 
planned to be released for unrestricted use.
    In fiscal year 2000, we completed placement of 1.5 million cubic 
yard of waste in the on-site disposal facility, with only minimal 
miscellaneous waste expected to be placed to achieve site closure. The 
last of the legacy plant buildings was demolished, and cleanup of the 
vicinity properties was completed. We also completed the remediation of 
the waste pits and began restoration of the site.
    In fiscal year 2001, most of the disposal facility cover will be in 
place, and we will complete the backfill of the Quarry and the 
demolition of the Quarry water treatment plant. Work on the Quarry 
groundwater interceptor trench operation will continue. Efforts will 
continue on the study of the site groundwater, which will evaluate 
whether a pump-and-treat remediation operation will be needed and will 
support the Record of Decision on site groundwater.
    Fiscal year 2002 will be a transition year for the project as it 
moves from active remediation and restoration to preparation for long-
term stewardship. In fiscal year 2002, we will complete the 
construction of the disposal facility cover, cap and the restoration of 
the Quarry, soil borrow area, and main site. The Quarry ground-water 
interceptor trench operations and the treatment of trichloroethylene 
contaminants in the site ground water will also be completed. The 
groundwater Record of Decision that will establish whether groundwater 
remediation is required will also be completed in fiscal year 2002.

Brookhaven National Laboratory, New York--Fiscal Year 2002 Request

                        [In thousands of dollars]

Defense ER&WM, Science & Technology.....................             770
Non-Defense EM, Site/Project Completion.................          25,658
Non-Defense EM, Excess Facilities.......................           1,240
                    --------------------------------------------------------
                    ____________________________________________________
      Total.............................................          27,668

NOTE: All dollars include safeguards and security, program direction, 
excess facilities, privatization, and science and technology funding.
All operations office dollars include safeguards and security, program 
direction, excess facilities, privatization, and science and technology 
funding.

    The Brookhaven National Laboratory is a Department of Energy 
research and development facility on Long Island, New York, which is 
managed by the Office of Science. The site is located at the headwaters 
of the Peconic River, a New York State-designated Wild and Scenic River 
and included in the federal Estuary Program. The Laboratory has 
extensive groundwater and soil contamination, and overlies a shallow 
sole-source aquifer. EM is responsible for cleanup of on-site 
radionuclide and chemical contamination of groundwater and soils, heavy 
metal contamination in river sediments, and tritium and volatile 
organic compound contamination of off-site groundwater. EM is also 
carrying out the deactivation and decommissioning of two shut-down 
research reactors and for management of legacy waste. Listed on 
Superfund's National Priorities List, the cleanup is being conducted 
under an Interagency Agreement with the U.S. Environmental Protection 
Agency (EPA) and New York State.
    We are continuing to treat contaminated groundwater with the 
operation of five on-site and one off-site groundwater treatment 
systems. This off-site treatment system, installed under EM's 
Accelerated Site Technology Deployment program in 1999, uses innovative 
technology (in-well air stripping) to extract contaminants within the 
well. The Record of Decision to finalize groundwater remedies was 
signed in June 2000. Over the remainder of fiscal year 2001 and in 
2002, we will design and install additional groundwater treatment 
systems. The cleanup of the Ethylene Dibromide Plume is scheduled to 
begin in fiscal year 2002. The cleanup remedy will involve installation 
of a groundwater treatment unit as called for in a March 2001 Record of 
Decision.
    In September 1999, DOE and State and Federal regulators finalized 
the remedy for contaminated soil, which involves excavation and off-
site disposal. Remedy design was finalized, and soil excavation began 
in fiscal year 2000. Soil excavation will continue over the next 
several years.
    The proposed remedy for cleaning up contaminated sediments in the 
Peconic River is currently being finalized. We anticipate finalizing 
the Record of Decision for this project in fiscal year 2001, with 
remedial design activities beginning in fiscal year 2002. A draft 
Record of Decision for the Sewage Treatment Plant was submitted to the 
regulators in fiscal year 2001.
    In February 1999, EM assumed responsibility for characterizing, 
stabilizing, and decommissioning the Brookhaven Graphite Research 
Reactor. This project is being executed as a series of removal actions, 
allowing an early start to decommissioning. We plan to accomplish 
substantial field work by the end of fiscal year 2001, including 
removal of above-ground ductwork and below-ground piping. In addition, 
EM assumed responsibility for deactivation and decommissioning of the 
High Flux Beam Reactor at Brookhaven in April 2000. Stabilization 
activities funded by the Office of Science and managed by EM were 
performed in fiscal year 2000 and are continuing in fiscal year 2001, 
which will reduce the cost of safely maintaining the facility. We will 
carry out surveillance and maintenance activities for the Brookhaven 
Graphite Research and High Flux Beam reactors in fiscal year 2002.
    The EM program continued to dispose of legacy wastes and to store, 
treat and dispose of wastes generated by on-going Brookhaven operations 
in fiscal year 2000. In fiscal year 2001, management of newly-generated 
waste was transferred to the Office of Science. EM will continue 
management of legacy waste; we expect to complete most legacy waste 
disposal in fiscal year 2001.

Sites in the State of California--Fiscal Year 2002 Request

                        [In thousands of dollars]

Defense ER&WM, Post 2006 Completion:
    Lawrence Livermore National Laboratory..............          32,317
    Oakland Operations Office...........................           1,219
Defense ER&WM, Site/Project Completion: Lawrence 
    Livermore National Laboratory.......................             762
Non-Defense EM, Post 2006 Completion:
    Energy Technology Engineering Center................          13,305
    General Electric....................................             100
    Oakland Operations Office...........................              74
Non-Defense EM, Site/Project Completion:
    Lawrence Berkeley National Laboratory...............           4,950
    General Atomics.....................................             300
    Laboratory for Energy-Related Health Research.......           5,893
    Stanford Linear Accelerator Center..................           2,617
    Oakland Operations Office...........................              90
                    --------------------------------------------------------
                    ____________________________________________________
      Total.............................................          61,627

NOTE: All dollars include safeguards and security, program direction, 
excess facilities, privatization, and science and technology funding.
All operations office dollars include safeguards and security, program 
direction, excess facilities, privatization, and science and technology 
funding.

    The Lawrence Livermore National Laboratory consists of the 
Livermore Main Site, an operating weapons research and development 
laboratory; and Site 300, located about 15 miles east of the Livermore 
Main Site, which has been used to test high explosives and other 
technologies for defense programs. The EM program is responsible for 
management of both legacy waste and waste generated from on-going 
operations. It also is responsible for site remediation, which includes 
cleanup of hazardous contaminant releases to the soil and ground water 
contamination at the Livermore Site, and releases of hazardous and 
radioactive materials to soil and ground water from landfills, drum 
storage areas, and dry wells at Site 300. Both sites are listed on the 
Superfund National Priorities List and have cleanup agreements with 
U.S. Environmental Protection Agency and the State of California.
    At the Livermore Main Site, we have used an aggressive cleanup 
strategy to contain and extract groundwater contaminants that used 
enhancements to pump-and-treat technology, supplements the existing 
permanent treatment system network with portable treatment units, and 
emphasizes specific source area removal. In fiscal year 2000 we 
continued to install portable treatment units to treat specific areas 
of the site. In fiscal year 2001, we applied an electro-osmosis 
technology to our treatment system strategy to attempt to remove 
groundwater contaminants from fine grained sediments more effectively. 
In fiscal year 2002, groundwater treatment systems will continue to 
operate to maintain control of off-site migration of the Western 
boundary plume.
    In fiscal year 2000, we completed testing of the Molten Salt 
Oxidation unit for treating mixed low-level and hazardous waste and 
have awarded a contract to a commercial vendor who will own and operate 
the treatment unit to treat waste. In fiscal year 2001, we will 
complete construction of the Decontamination and Waste Treatment 
Facility, a treatment system for mixed low-level waste, and begin 
operational testing. In fiscal year 2002, we will continue to operate 
waste treatment, storage and disposal facilities and prepare 
documentation for closure of old waste storage facilities.
    At Site 300, the Department has focused on removal actions such as 
capping the Pit 6 Landfill to control release and getting groundwater 
treatment systems in place to contain off-site plume migration, and on 
characterizing the contamination at the site. In fiscal year 2000, we 
finalized plans and schedules for site-wide cleanup of the site and 
will begin design work in fiscal year 2001. We will also begin 
operation of an innovative groundwater treatment system in a canyon in 
the southeast part of the site using the Iron Filing/Geosyphon 
technology to remediate high concentrations of contaminants in 
groundwater. In fiscal year 2002, we will continue operation and 
maintenance of existing treatment facilities and soil vapor extraction 
units and will complete remedial design for several of the operable 
units.
    The General Atomics facility is a privately-owned and operated 
site, located near San Diego. General Atomics maintained and operated a 
Hot Cell Facility for years to conduct both government and commercially 
funded nuclear research and development. EM is responsible for the 
cleanup of the Hot Cell Facility and surrounding contaminated soils. In 
fiscal year 2000, after an independent verification certification was 
conducted, the Nuclear Regulatory Commission and State of California 
amended their respective licenses to release the Hot Cell Facility and 
associated yard for unrestricted use. However, soil from the Hot Cell 
yard, thought to be clean, was found to have particle contamination. In 
fiscal year 2001 we are disposing of that soil at the Nevada Test Site. 
Once the soil is dispositioned, all activities at the Hot Cell Facility 
will be complete except for surveillance and maintenance of spent 
nuclear fuel. The spent nuclear fuel will remain on site until 2003, at 
which time it will be shipped to the Idaho National Engineering and 
Environmental Laboratory for interim storage.
    The Laboratory for Energy-Related Health Research is located at the 
University of California, Davis. Research at the laboratory originally 
was directed toward the health effects from chronic exposure to 
radionuclides using animals to simulate radiation effects on humans. 
The Department terminated the research program and closed the 
laboratory in 1988. EM activities are directed toward cleaning up the 
DOE areas of contamination for eventual release back to the University 
without radiological restrictions. The site was put on the Superfund 
National Priorities List in 1994, and a Federal Facility Agreement 
between DOE, EPA and the State was signed in fiscal year 1999.
    We have made significant cleanup progress at this site. In fiscal 
year 2000, we completed the closure of the mixed waste storage 
facility; and removed three dry wells, a distribution box and piping, 
and Domestic Tank 2. In fiscal year 2001, we will complete removal of 
the Colbalt-60 source, Domestic Tank 3, the radium tank, Imhoff 
Facility tanks and associated leachfield, and begin removal of the 
Western Dog Pen and additional Domestic Tanks. In fiscal year 2002, we 
will complete removal of the domestic tanks, continue work on the 
Western Dog Pens, perform assessments on remaining domestic septic 
tanks, and perform offsite disposal of low-level wastes. However, due 
to additional contamination found and an increased volume of waste 
removed during soil excavation of the southwest trenches, the 
completion of cleanup at the site will extend beyond the original 
projected completion date of fiscal year 2002.
    The Energy Technology Engineering Center is a DOE facility located 
on 90 acres of land leased from Boeing North American Corporation in 
Simi Valley, California. EM activities at this site involve remediation 
of contaminated groundwater; decontamination and decommissioning of the 
remaining radiological facilities; deactivation and cleanup of existing 
sodium facilities; landlord functions; and characterization and off-
site disposal of waste.
    In fiscal year 2000, we began the development of an Environmental 
Assessment to evaluate the impacts of the remaining cleanup work at the 
site, completed cleanup of three facilities, and shipped mixed low-
level and low-level waste offsite for disposal. We began assessment for 
deactivation and decommissioning of the Radioactive Materials Handling 
Facility.
    We also completed the excavation of soil contaminated with 
hazardous constituents from the Former Sodium Disposal Facility (FSDF) 
in fiscal year 2000. However, in response to stakeholder concerns 
raised about the disposal of this material at a hazardous waste 
facility, the soil was temporarily stored onsite pending a re-
evaluation by the State as to whether the soil could appropriately be 
disposed at a permitted hazardous waste disposal facility as planned, 
or whether it should instead be disposed of at a radioactive disposal 
site. The State has completed its evaluation and approved disposal of 
the soil at the hazardous waste disposal facility. In fiscal year 2001, 
we will dispose of the excavated soil as approved by the State.
    Also in fiscal year 2001, we will complete below-grade work at the 
Reactor Test Facility, continue offsite shipments of mixed low-level 
and low-level waste, complete backfill operations at the FSDF, 
dismantle the Hockey Stick Steam Generator at the Sodium Component Test 
Installation, continue the assessment of the Radioactive Materials 
Handling Facility, and complete the site-wide Environmental Assessment.
    Dismantlement of the Sodium Component Test Installation and 
deactivation of Building 4059 will continue in fiscal year 2002, as 
will the development of plans for D&D of the Radioactive Materials 
Handling Facility and offsite disposal of mixed low-level and low-level 
waste.
    The Stanford Linear Accelerator Center is a 426-acre site at 
Stanford University, which conducts theoretical research in high-energy 
particle physics for DOE. Remediation activities at the site involve 
the cleanup of polychlorinated biphenyls (PCB)-contaminated soil areas 
and several solvent-contaminated groundwater and soil areas. In fiscal 
year 2000, we excavated contaminated soils in the Research and the 
Lower Salvage Yards, and completed the characterization the IR-6 
Drainage Channel. We will complete the pilot testing of the soil vapor 
extraction system at the Former Hazardous Waste Storage yard in fiscal 
year 2001 and begin remediation of soils at the Research Yard. In 
fiscal year 2002, final assessment reports for the Former Hazardous 
Waste Storage Area and plating shop will be submitted to the 
regulators. In addition, soil remediation will continue at several 
locations, the IR-6 Drainage Channel, and a power supply station.
    The Lawrence Berkeley National Laboratory is a site leased by DOE 
at the University of California-Berkeley. EM responsibilities at the 
site include storage, treatment and off-site disposal of both legacy 
waste and hazardous and radioactive waste generated by current 
operations, and remediation of contaminated soil and groundwater 
created from past Departmental operations. The Office of Science 
assumed responsibility for newly generated waste in fiscal year 2001, 
but EM continues to manage legacy waste. In addition, the RCRA Facility 
Investigation Report was submitted to the regulatory agencies in fiscal 
year 2001. In fiscal year 2002, we will continue to excavate 
contaminated soils at on-site locations, operate groundwater treatment 
systems to contain off-site plume migration, and continue off-site 
disposal of hazardous and radioactive waste.

    Senator Domenici. Senator Craig, whatever your commitments 
are, I would offer this to you. If you would like to inquire of 
Dr. Huntoon now, and you may proceed to do what you would like 
for the rest of the day and I will finish the hearing.
    Senator Craig. Well, thank you very much, Mr. Chairman, for 
that courtesy.

                         COMPLIANCE AGREEMENTS

    Dr. Huntoon, you testified before the House Energy and 
Water Appropriations Subcommittee and some of your statements 
were reported in the media. Specifically, it was reported that 
under the funding level in the budget request that you are here 
testifying on today, you said that DOE sites may fall out of 
compliance with their cleanup agreements, but that DOE is not 
sure at which specific sites this will occur.
    I have been doing all that I can, as I mentioned earlier, 
in working with the chairman to avoid this concern from 
happening. Did you testify that some sites might fall out of 
compliance and would you like to comment and-or to clarify that 
statement?
    Dr. Huntoon. Well, thank you for this opportunity. I 
believe what I said--and of course, under the press of the 
moment I may have misspoken. I believe what I meant to say, if 
I did not say it or was quoted incorrectly, was that it is 
going to be a challenge at some of our sites. Because our site 
managers and our program managers here in Washington are still 
working together to see exactly what this 2002 budget would 
look like at some of our sites, we are not certain about 
exactly how many challenges we have in the compliance area.
    We are committed, DOE is committed, Environmental 
Management is committed, to meet our compliance agreements. But 
as you well know, they are very complex in some States, and we 
have to sit down and talk with our regulators--both EPA and 
State regulators.
    To clarify this one step further, those kinds of talks go 
on continually at all of our sites. I know that almost on a 
weekly basis we are discussing milestones and challenges to 
milestones and the ability to clean up. We--just to put things 
in context, Senator--oversee 77 compliance agreements at 25 
sites. We have 1,100 enforceable milestones through the year 
2070 and 187 of those occur in the year 2002 alone.
    So out of this, we are going to have some challenges. But 
we intend to sit with our regulators and discuss with them and 
try to come to some agreement about the ones where we have 
challenges.
    Senator Craig. It also appears that funding for State 
oversight programs, such as the one that we have at the Idaho 
Department of Environmental Quality, have been substantially 
reduced. This is of concern to me and to environmental 
officials who work for the State of Idaho. Would you pledge to 
take another look at that funding level for us?
    Dr. Huntoon. Yes.
    Senator Craig. Obviously, that not only is an important 
balance to have, but it assures the credibility of the total 
program when you have more than one set of eyes looking at it, 
if you will, I think a reasonable and appropriate analysis.

                        INEL BURIED WASTE--IDAHO

    Dr. Huntoon, you and I have visited previously on the issue 
of buried waste at the INEL. In what is known as the subsurface 
disposal area, we have about 88 acres of pits and trenches, one 
of which is, of course, the very infamous Pit 9, buried low-
level and transuranic waste. Right now DOE and the State of 
Idaho and the Environmental Protection Agency are involved in a 
dispute resolution process over how to proceed regarding 
cleanup of the buried waste. The State would like to see DOE 
demonstrate the retrieval of some of the hotter, more 
radioactive waste. It is my understanding that DOE is refusing 
to talk about any alternatives for buried waste that would 
exceed the DOE's fiscal year 2002 budget request.
    Since doing any cleanup of buried waste is essentially 
underfunded in the budget request, this does not give the State 
much to work with. My question: Would you agree with me that 
when you are in a dispute resolution process it is good to at 
least get all of the options on the table? Is DOE willing to 
engage in a good faith process of negotiating with the State 
about buried waste?
    Dr. Huntoon. Certainly, Senator Craig. I think the ongoing 
discussions--in fact, I thought there was going to be a meeting 
this week. I guess it has been postponed until next week. But 
all the options do need to be out on the table. We have 
discussed the very laborious process of trying to completely 
dig up this waste area. But demonstrating that it can be done 
at some level, I think is appropriate. And I believe that that 
is what they are working toward.
    One of the issues, of course, is not only funding, but is 
the time that it takes. I have asked the people from the DOE 
Idaho office to work with the State on a schedule that would 
pull that into a more realistic time frame. I believe 
stretching it out over a decade is just too long.
    Senator Craig. Well, the last question, I am going to,I 
think, rely on the chairman to ask it because it is in his home 
State. He has mentioned it in his opening comments, and that 
is, of course, the adequate funding of the WIPP facility, 
because from Idaho to New Mexico flows a tremendous amount of 
transuranic waste. Both you and the person that is going to 
proceed you were talking about the succeeded, as it is 
appropriate to talk about. I think it is important for our 
public to know that there are some very real successes out 
there now.
    But one of the successes we like to talk about is Rocky 
Flats. The rest of the story is that that waste, some of that 
waste, a substantial part of the waste at Rocky Flats, is now 
in Idaho. So we clean up one site to store it at another site.
    My suggestion is that in the total text of the story that 
is not a completed process. Yes, it looks good in Colorado, but 
now Idaho has a growing concern that it becomes the recipient 
of cleanups and that we are not facilitating the kind of 
movement out of Idaho that we should, especially in the 
transuranic area. I think we are going to be okay. We were 
concerned, Mr. Chairman, about the number of casks available to 
facilitate the timely movement, and with the 13 percent cutback 
the ability of the facility itself at Carlsbad to be able to 
receive on a timely basis that which not only Idaho, but other 
sites, are shipping, too.
    So I will stop there, but let me suggest that when one 
paints a picture of success I always like the turn the canvas 
over, and in turning the Rocky Flats canvas over and other 
sites around the country, some of the other DOE sites become 
the recipient sites. I would suggest to you that that is not a 
complete picture.
    Thank you. Thank you, Mr. Chairman.
    Senator Domenici. We will ask about the $26 million cut in 
WIPP in due course. If we do not, we will submit it to you so 
you can answer it.
    Let me follow up here now and see, Senator, if we could 
proceed with Senator Bennett, who arrived.

                    STATEMENT OF SENATOR HARRY REID

    Senator Reid. If I could just ask, courtesy of the Senator 
from Utah, just to take the rest of the minute.
    Senator Bennett. Of course.
    Senator Reid. I had to arrange a pair on the last vote and 
it took me a while to get here, and then my staff gave me the 
wrong room to come to, 128. So I wandered around the halls for 
a while.
    Senator Bennett. He was really scheduled to arrive here 
sooner than I was and we passed in the hall.
    Senator Reid. I just had the wrong place. So I would ask 
unanimous consent, Mr. Chairman, that I be allowed to submit my 
statement in the record and also some questions that I have. My 
full committee of which I am the ranking member is meeting 
upstairs, and so I apologize. I have to be there.
    Senator Domenici. Sure, we will make your statement and the 
questions part of the record. What do you think we should have? 
2 weeks.
    [The statement follows:]

                Prepared Statement of Senator Harry Reid

    Good Afternoon, Mr. Chairman. Thank you for scheduling this final 
budget oversight hearing as we prepare to begin writing the fiscal year 
2002 Energy and Water Development Appropriations bill.
    Representatives of two DOE programs have joined us today:
  --Mr. Lake Barrett, the Acting Director of the Office of Civilian 
        Radioactive Waste Management
  --Carolyn Huntoon, the Assistant Secretary of the Environmental 
        Management Program
    I would like to welcome both of you to today's hearing. I have read 
each of your statements and have a number of questions for all of you.
    Unfortunately, most of these questions must be for the record.
    As you know, I am the Ranking Member of the Full Committee on 
Environment and Public Works and I am expected upstairs for a hearing.
    However, I hope you will not take my absence as a sign of a lack of 
interest on my part in what is going on in each of your programs.
    Quite the contrary. Ms. Huntoon, I am very concerned that the 
President's budget has not given you nearly enough money to perform the 
enormous amounts of work we have entrusted to you.
    Mr. Barrett, I worry that perhaps we are giving you too much.
    At a time when program after program at DOE has been slashed or, at 
best, held at last year's level (despite having been given far more to 
do), I am not sure what to think when the budget for the Office of 
Civilian Radioactive Nuclear Waste is given a double digit percentage 
increase.
    Is it because your program is running ahead of schedule or even on-
time?
    NO. Completion of the characterization report has been repeatedly 
delayed and all of the other milestones have also slipped. The current 
external rumor is that the report will be completed in December, 
although there certainly are signs that it will be later than that.
    Is it because your program has achieved significant cost 
efficiencies and you are being rewarded for such good stewardship?
    NO. If the Department succeeds in foisting this program off on the 
citizens of Nevada, it will do so at about double the originally-
anticipated cost. The $30 billion estimate of the early 1990's has 
become the $58 billion estimate of 2001. This includes a $12 billion 
increase in just the last three years.
    I needn't remind anyone in this room that we are a LONG ways away 
(both in terms of time and policy) from actually moving any nuclear 
waste in this country ANYWHERE. What are the chances that these costs 
will continue to spiral out-of control?
    Pretty good chance.
    So, I ask my rhetorical question again? What makes this program 
different?
    It costs twice as much as DOE thought. Sounds like a typical big 
DOE project to me.
    It rarely, if ever, meets its critical path milestones. Sounds like 
a typical big DOE project to me.
    The answer is there is really nothing different about the Yucca 
Mountain Project. It is plagued by the same management and budget 
problems that torment every major program at the Department. It is no 
different from the National Ignition Facility or the pit production 
process, or even some of the clean-up efforts.
    There is nothing going on in this program that is so special that 
it needs or deserves such a large increase when so many other worthy 
activities are being left on the floor at OMB.
    The only difference seems to be on this side of the table.
    There is no shortage of outrage from Members (including me) when 
projects like NIF or Pit Production spiral out of control. ``Kill 
NIF!'' we cry. ``Send pit production back to the drawing board until 
they get it right!'' we shout. The yelling and screaming and hand-
wringing is a sight to behold.
    $30 BILLION over budget at Yucca Mountain? The Silence is 
Deafening.
    I am the first to admit that I am opposed to Yucca Mountain. Always 
have been. Always will be.
    However, I would like to think that any casual observer would be 
concerned about what is going on here.
    If the work of the desperately under-funded Nuclear Waste Technical 
Review Board and some university scientists that we have thrown pocket 
change to over the years has been enough to get the Department to re-
think some of their fundamentals at Yucca Mountain, just think what 
some adequately funded external oversight might un-earth.
    But, then again, the DOE did just release a giant 1,000 page 
science and engineering report on Yucca Mountain. Unfortunately, 
nowhere--in any of those 1,000 pages--did they find a response to the 
issues the Technical Review Board asked the DOE to address. With all 
the money DOE seems to have for Yucca Mountain, you would think they 
would have the courtesy--let alone the responsibility--to address those 
issues with the full science and engineering report.
    On the off-chance that no one else is as upset about this as I am 
at the moment, I will simply have to bear the bad news to you myself, 
Mr. Barrett: there will be no huge increase for the Yucca Mountain 
Program this year given the current funding profile.
    You and your staff may not agree, but I feel that I have been more 
than fair to your program over the years, all things considered. 
However, I am not going to sit idly by while your program absorbs one 
of the only substantial increases in the DOE budget.
    Even you would have to agree, Mr. Barrett, that it is as least as 
important, for example, for the United States to meet its legal and 
moral commitment to major clean-up activities throughout the Nation's 
cold war weapons complex, as it is to make a little progress in your 
area.
    Which brings me to you, Ms. Huntoon.
    I won't beat around the bush.
    There is no way that the amount of funding the Administration has 
provided for clean-ups, particularly at Washington, South Carolina, and 
Idaho, will fulfill the legal and/or Departmental promises to those 
three States (and probably several others, including Nevada). I think 
you and I both know that your budget is shy hundreds of millions of 
dollars.
    While I appreciate the enormity of the task and the scarcity of 
dollars in this year's budget, the program you have outlined represents 
backsliding. Worse, I think, if enacted, it will subject the Department 
to legal jeopardy. Other States may need to line up behind Washington 
and Idaho at the courthouse door, but line-up they will.
    Congress is going to need to find additional resources to keep that 
from happening.
    That said, my other concern is this: The Department needs to get 
some of these sites closed.
    When Congress created a closure account a number of years ago, it 
was done to give a certain number of sites priority and additional 
resources to get the clean-up done prior to 2006. My staff informs me 
that a fair number of these sites now have closure dates after 2006.
    Obviously, this is not what we had in mind.
    If a site is really a post-2006 site, Congress may need to consider 
treating it as such.
    Hopefully, some more realistic resources will get these sites back 
on track.
    Again, thank you to both of our witnesses for appearing today.
    Thank you, Mr. Chairman.

    Senator Reid. Thank you very much, Mr. Chairman.
    Senator Domenici. Thank you very much, Senator Reid.
    Senator Reid. Thank you, Senator Bennett.
    Senator Bennett. Thank you.
    Senator Domenici. Senator Bennett, I have not inquired 
because I wanted to proceed, but I would like to do the same. I 
will stay on and you go ahead and ask your questions.
    Senator Bennett. Thank you, Mr. Chairman. I appreciate 
that.
    Dr. Huntoon, we are going to talk about Moab. Are you 
familiar with Moab?
    Dr. Huntoon. Yes, sir.
    Senator Bennett. The tailings problem there.
    Dr. Huntoon. Yes, sir.
    Senator Bennett. Well, I will not go through the history of 
it, then, except to enter into the record the fact that 
Congress in the last session passed legislation that directs 
the Secretary of Energy to prepare and complete a plan for 
remediation of the Moab site by October 30 of 2001, with the 
National Academy of Sciences directed to provide DOE with 
technical advice, assistance, and recommendations concerning 
that plan, and also for the record PriceWaterhouseCoopers is 
the trustee that controls the site after Atlas Corporation 
filed for bankruptcy and the asset was handed over to a 
trustee.
    Now, with that very, very brief background and 
understanding that you know far more about it than that, let me 
ask when DOE plans to take title to the site?

                        MOAB MILL TAILINGS SITE

    Dr. Huntoon. I believe the ownership will become effective 
by October the 30 of this year, DOE will assume ownership.
    Senator Bennett. PriceWaterhouseCoopers has indicated that 
it will resign and return management responsibility for the 
site to DOE on September 1. I do not quite understand what that 
is. Would that be a problem? Would you be prepared to take 
responsibility on September 1, as opposed to October 30?
    Dr. Huntoon. I am sure that is what needs to be done. We 
are planning to take ownership of the site as soon as they 
finish or resign their current management responsibility. The 
schedule may have changed a little, but that is the plan, the 
current plan.
    Senator Bennett. What is the status of the remediation 
plan?

                MOAB MILL TAILINGS SITE REMEDIATION PLAN

    Dr. Huntoon. What we asked for was a reprogramming that was 
submitted by the last administration to get funds, because we 
did not have funds to deal with Moab. The programming is still 
pending. The current administration has resubmitted the request 
and it is with OMB right now, I understand, before coming to 
Congress for funds, we will have to complete the plan.
    Senator Bennett. So the fact that there is no money in the 
budget indicates that you think the money is available through 
reprogramming and that is why it is not necessary to put a new 
item in the budget?
    Dr. Huntoon. The reprogramming funds are necessary to 
create the plan, so we will know how much to ask for, over what 
period of time. That is the work that has not been done.
    Senator Bennett. Do you have any idea when the remediation 
efforts might begin?
    Dr. Huntoon. I think creating the plan, meeting the current 
schedule we are on--and of course, the reprogramming money, 
getting it now will certainly help, but I think the idea of 
having 6 months to a year to not only do the planning but the 
permitting and all to do the necessary remediation work, will 
enable us to have time to ask next year for the money in 2003 
that would be required for the actual work there at Moab.
    Senator Bennett. So you think the work would begin in 
fiscal 2003?
    Dr. Huntoon. That would be the current plan.
    Senator Bennett. Do you have any plans for the site in 
fiscal 2002 other than the study?

              SURVEILLANCE AT THE MOAB MILL TAILINGS SITE

    Dr. Huntoon. Well, the office at Grand Junction that is 
currently now overseeing it will continue in their surveillance 
of the site to make sure that the status remains the same of 
the facility there. They have enough money in their budget to 
continue the surveillance of the site.
    Senator Bennett. Thank you very much. This will be useful 
information. As you may know, there have been a number of 
newspaper articles that raised the flag of great panic and 
suggested that because there was no money in the budget DOE was 
in danger of poisoning the water for 25 million people 
downstream. I take it from what you are saying that it is your 
scientific opinion that there is no health risk in the present 
circumstance, even though the long-term solution to move the 
tailings is the right solution.

                FUNDING FOR THE MOAB MILL TAILINGS SITE

    Dr. Huntoon. That is correct, Senator. The idea that we had 
not measured any substance from the mill tailings site 
downstream makes us think that that is true, and we are 
watching that now. The responsibility to clean it up has 
certainly been given to the Department of Energy. We did not 
ask, as you said, for the money because we did not have a plan 
and, we did not know what to ask for. We will have that worked 
out and we will come in with a plan and ask for permission to 
proceed with that.
    But it is the intent to clean up the place.
    Senator Bennett. Thank you.
    Thank you very much, Mr. Chairman. I appreciate your 
courtesy.
    Senator Domenici. You are welcome.
    Senator Murray, we have proceeded without taking the second 
witness because I knew the two Senators that had arrived on our 
side of the aisle wanted to inquire with reference to the waste 
management part of this budget.
    Mr. Barrett, is it all right if we proceed to complete and 
then we will take you last?
    Mr. Barrett. As you wish, Mr. Chairman.
    Senator Domenici. That may very well mean that I am the 
only person here.
    Senator Murray. Mr. Chairman, is Dr. Huntoon going to stay, 
because I am going to have some questions for her if that is 
the case.
    Senator Domenici. She is. She is. In fact, she has 
testified and two Senators have inquired of her very briefly. 
If you would like to inquire now of her, I would let you do 
that, and then I will save mine until afterwards. Go ahead, 
Senator.

                   STATEMENT OF SENATOR PATTY MURRAY

    Senator Murray. Well, thank you so much, Mr. Chairman.
    Senator Domenici. You are welcome.
    Senator Murray. I will do so as briefly as I can. I really 
appreciate your holding this hearing.
    Dr. Huntoon, I particularly wanted to thank you for all 
your efforts over the past several years and your willingness 
to stay on until the administration has a new Assistant 
Secretary in place. I would be remiss if I did not thank you, 
Mr. Chairman, as well for your support for nuclear waste 
cleanup in my State and across the country. It is not an easy 
challenge. It is one that is pretty easy to ignore. We cannot 
ignore it, and you have been there, and I just want to publicly 
thank you.
    Senator Domenici. Thank you very much.
    Senator Murray. Dr. Huntoon, significant progress on 
cleanup has been made at Hanford in the last couple of years 
and we are now moving spent nuclear fuel out of the K basins 
and the environmental restoration work along the river has 
moved along very well. I want to thank you for your efforts on 
that, and the support of Keith Klein and Harry Boston and all 
of the folks at Hanford have really done a good job.
    I know you are not responsible for this budget, but I just 
have to raise some very serious concerns and questions I have 
about the funding that is proposed in the budget for DOE 
Richland and the Office of River Protection. I really fear that 
this budget threatens the progress that has been made at 
Hanford and fails to meet the legal obligations of the triparty 
agreement and it fails to meet our moral obligations to protect 
the health and welfare of citizens and the environment in the 
Pacific Northwest.
    I am especially troubled by the proposed cuts in the waste 
treatment plan which is going to vitrify the high-level 
radioactive waste that is currently stored at our old and 
decaying tanks at Hanford. DOE officials have acknowledged that 
the new contract that was negotiated for this project was based 
on an fiscal year 2002 budget of $690 million, but the request 
that we have is only for $500 million.
    Now, I am told that with a $500 million level for 2002 the 
funding for this project would need to be spiked all the way up 
to $880 million in 2003. Would it not make more sense to 
levelize the funding for this project at $690 million, as it 
was first proposed and actually written into the contract, 
instead of counting on a funding spike next year? And would not 
a measured level of funding base be more consistent with the 
objectives of your top to bottom review of the cleanup program 
and use of commercial type contracts to make it more efficient? 
I would love to hear your response.

                   OFFICE OF RIVER PROTECTION FUNDING

    Dr. Huntoon. Thank you, Senator Murray. I think 
acknowledging the work that has been done out at Hanford is 
certainly appropriate. I know that we have two good managers 
out there and with their help with the stakeholders and 
regulators we have been able to move forward in a lot of areas 
at Hanford.
    I think the danger in meeting the commitments that we have 
is real. I mentioned a little bit earlier in response to a 
question that we do have challenges in several States to meet 
all of our commitments. But we are going to work with the 
regulators and the State and EPA to try to do that.
    Senator Murray, I know you know this, but just to put it in 
context, in 1989 when we signed the triparty agreement with 
EPA, the State of Washington, and DOE, we signed up for 161 
milestones in 1989. In the year 2001 we have completed 900 
milestones, 700 enforceable and 200 targets. What that is 
saying is that this is an ongoing process. It is an iterative 
process.
    We are working, as you know, almost on a daily basis with 
the regulators to meet milestones, to adjust the way we are 
approaching them, to try to keep our agreements we have made, 
but understanding this is a dynamic process.
    I know you know this, but there are 30 regulators that DOE 
pays for that work for the State of Washington that live on the 
site at Hanford. I do not mean live there literally, but work 
there. They are there all the time. So our relationship with 
our regulators I believe is good. There is some tension there. 
I think that tension is probably healthy. But it is an ongoing, 
iterative, very long-range process.
    We have milestones in the State of Washington to reach out 
through the year 2070, and I think that tells you the level at 
which this TPA has gone to to make sure that we do things in a 
regulated fashion that the State and EPA agree with.
    To answer your question about the funding, I think that 
with the money that we requested for the tanks at Hanford we 
can get started on the job.
    Senator Murray. $500 million.
    Dr. Huntoon. The $500 million.

         POSSIBLE RENEGOTIATION OF BECHTEL WASHINGTON CONTRACT

    Senator Murray. Well, I just have to say, Dr. Huntoon, I am 
really concerned that the $500 million is going to trigger a 
renegotiation of the Bechtel Washington contract, which is 
based on a $690 million allocation for 2002. That is an 
incentive-based contract that could result in this facility 
being built for a lower target price than was first expected. I 
am very concerned that if we do not have the $690 million that 
that contract will be renegotiated, and I do not think any one 
of us think that it is going to be renegotiated for a lower 
price.
    So does not that funding level put us in jeopardy of having 
to pay more in the long run?
    Dr. Huntoon. The funding level does give us the potential 
to have to renegotiate. We have not heard that from the 
contractor yet officially.
    Senator Murray. I would assume that renegotiation would not 
mean to a lower contract price.
    Dr. Huntoon. Most often it does not. But the issue is again 
the $500 million can keep us on track to do the 2007 start of 
operations, which is what the contractor agreed to. The funding 
profile would be different, as you mentioned, and it would call 
for quite a bit more funding in 2003 than we had previously 
thought when we negotiated the contract.
    Senator Murray. So if the $500 million comes in this year, 
we are going to have to spike it up to $800 million?
    Dr. Huntoon. That is correct, according to the current 
profile we would have to do that.
    Senator Murray. If we do not do that, that contract could 
be renegotiated, and my sense is that we will have a legal 
challenge as well on the triparty agreement.
    So, Mr. Chairman, I think we have got some very serious 
issues that we need to look at. I have several other questions 
that I will submit for the record that I would like responses 
back on. But I want to work with you, because this is a very, 
very serious issue for my State and I am concerned about the 
funding levels in this budget.
    Senator Domenici. Senator, if you will submit your 
questions they will be answered within 2 weeks, as the other 
questions.
    We will proceed now. I was going to ask you, Dr. Huntoon, a 
series of questions, but I think what I will do is let Mr. 
Barrett testify. Do you mind waiting just another 15 or 20 
minutes? That is all it will be.
    Dr. Huntoon. I do not mind at all. I am here.

            Office of Civilian Radioactive Waste Management

STATEMENT OF LAKE H. BARRETT, ACTING DIRECTOR
    Senator Domenici. Mr. Barrett, would you proceed. Your 
testimony will be made a part of the record. Would you 
summarize it as best you can.
    Mr. Barrett. Thank you very much, Mr. Chairman and Senator 
Murray. I am pleased with this opportunity to present our 
fiscal year 2002 budget request. Our budget request advances 
our Nation's policy for the management of spent nuclear fuel 
and high-level radioactive waste. The request presumes that the 
Department will make an informed science-based decision to 
recommend the Yucca Mountain site for further development later 
this year. If a decision is made, under the process outlined by 
the Nuclear Waste Policy Act we will proceed into the next 
phase of site development.
    Our budget request begins the transition from the 
predominantly investigative science of the site 
characterization phase to the engineering and design phase to 
prepare a license application for submittal to the Nuclear 
Regulatory Commission.
    Management of nuclear materials in a repository is 
important in supporting the continued operations of our 
Nation's commercial nuclear power plants, which provide 20 
percent of our Nation's electricity. It is also essential for 
our national defense and international nonproliferation 
objectives.

               PREPARATIONS FOR YUCCA MOUNTAIN REPOSITORY

    After nearly 20 years of cutting-edge science to determine 
whether a geologic repository can perform safely, we are close 
to making a decision on whether or not to proceed with 
developing the Yucca Mountain site.
    The fiscal year 2002 request is $444.9 million, a modest 
increase over fiscal year 2001. In the next fiscal year, most 
of our resources will be applied toward preparing a complete 
license application for the Nuclear Regulatory Commission.
    However, science will not end there should a decision be 
reached to proceed with applying for a license to build a 
repository. Our program will continue to strengthen the 
underlying scientific basis for any further potential 
decisions.
    We have allocated $355 million, about 80 percent of our 
request, to conduct activities at Yucca Mountain. For example, 
the core science funding will increase by 15 percent to a 
request level of $76 million. These activities support our 
ability to model individual and combined natural processes 
necessary in assessing how a repository might perform many 
thousands of years into the future.
    Design and engineering funding will increase 41 percent, to 
$104 million. This substantial increase in these activities, 
which were deferred due to past year budget cuts, is necessary 
to resume, and in some cases accelerate, engineering and design 
work to develop a complete license application. For instance, 
we will integrate new design concepts for accepting and 
handling all the different types of spent fuel and high-level 
waste that we might receive.
    We are also evaluating how a flexible repository system can 
integrate new spent fuel management technologies and new 
operating concepts as they may become available in the future. 
A flexible repository is an important part of any future 
advanced nuclear energy technology scenario.
    The operations and construction funding request is $35 
million, and in part, will be used to build additional thermal 
test alcoves and niches to gather performance confirmation data 
in the repository block. The remainder will go to maintaining 
the surface and subsurface infrastructure which supports the 
core science activities.
    If the Yucca Mountain site is recommended and approved for 
further development, a transportation infrastructure must be 
available to move spent fuel and high-level radioactive waste 
in sufficient quantities to meet our obligations. We have 
requested $5.9 million to begin the long-lead time logistical 
and planning activities in this area.

                 CHALLENGES TO THE YUCCA MOUNTAIN SITE

    As I have noted in my written statement, some of the 
opportunities and challenges facing us are quite significant. 
If the Yucca Mountain site is ultimately recommended for 
further development, then future program costs could far exceed 
past appropriations. Our administration's budget request 
recognizes these future funding challenges by affirming support 
for efforts to use the nuclear utilities' budgetary receipts 
for their intended purposes.
    The program is looking at engineering, construction, and 
operational strategies for managing potential annual cost 
increases. These strategies seek to distribute annual costs 
over the next 10 years by using modular repository construction 
and operational approaches. The program also intends to submit 
its report on alternative means for financing and managing a 
Federal repository to the Congress this June, as requested in 
last year's energy and water development conference report.
    However, the report identified several statements that the 
Inspector General concluded ``could be viewed as suggesting a 
premature conclusion regarding the suitability of Yucca 
Mountain.'' After the Inspector General's finding, both 
Secretary Abraham and I communicated our firm belief to all the 
program's Federal, laboratory, and contractor employees that 
our work must be performed in a manner that reflects the 
integrity and objectivity necessary for conducting world class 
science. We will continue to operate this program in an open 
and transparent manner worthy of public confidence and trust.

                           PREPARED STATEMENT

    In conclusion, I believe we have made considerable 
progress, despite enormous challenges. Our budget request 
supports the next step in the process, which is development of 
a license application for submittal in 2003. I urge you to 
consider favorably our appropriation request. I would be 
pleased to answer any questions that you may have.
    [The statement follows:]

                 Prepared Statement of Lake H. Barrett

    Mr. Chairman and members of the Committee, I am Lake H. Barrett, 
Acting Director of the Department of Energy's Office of Civilian 
Radioactive Waste Management. I appreciate the opportunity to present 
our fiscal year 2002 budget request to you and discuss our plans for 
scientific and technical activities at the Yucca Mountain site in 
Nevada.
    Our fiscal year 2002 budget request of $444.9 million is devoted to 
advancing our Nation's policy for the long-term management of spent 
nuclear fuel and high-level radioactive waste. Based on the presumption 
that a potential decision to recommend the site for further development 
could be made, fiscal year 2002 would begin the transition from 
investigative science under the site characterization phase to 
engineering and design for the pre-licensing phase. Work during the 
fiscal year would focus mainly on preparing a license application for 
submittal to the Nuclear Regulatory Commission. The license application 
would contain surface and subsurface designs, including descriptions of 
operational parameters to meet the Commission's stringent technical 
licensing and Nuclear Quality Assurance requirements. During the 
transition, we would begin implementing performance confirmation work 
to verify and strengthen the scientific and technical basis for a 
potential repository. Also in fiscal year 2002, we would begin the work 
necessary to develop the national infrastructure necessary to move 
spent nuclear fuel and high-level radioactive waste from their present 
locations.
                               background
    The Civilian Radioactive Waste Management Program, particularly the 
ongoing scientific and technical work at Yucca Mountain, is the 
cornerstone of our national policy for the management of nuclear 
wastes. Permanent geologic disposal is essential for managing spent 
nuclear fuel from commercial electric power generation and nuclear 
waste from defense activities.
    Commercial nuclear power plants that currently generate 20 percent 
of our nation's electricity will require permanent disposal of their 
spent nuclear fuel in a geologic repository. Past weapons production 
and research activities have accumulated over 2,500 metric tons of 
spent nuclear fuel. Thousands of high-level radioactive waste canisters 
will have been processed at Hanford and Savannah River. Our Navy's 
nuclear powered ships will have generated approximately 65 metric tons 
of spent nuclear fuel by 2035. From dismantling surplus weapons, our 
nation has amassed approximately 50 metric tons of weapons-usable 
plutonium. The nation will require disposition of these materials in a 
geologic repository to maintain our energy options, support cleanup of 
our weapons sites, continue operations of our nuclear powered ships, 
and advance our international non-proliferation goals to isolate 
weapons material in a repository.
    Since the enactment of the Nuclear Waste Policy Act in 1982, our 
nation has made a substantial investment in permanent geologic 
disposal. Almost $4 billion has been committed to the scientific and 
technical work for a geologic repository. After nearly twenty years of 
cutting-edge science, our policymakers are very close to making a 
science-based decision on whether to proceed with further development 
of the Yucca Mountain site. Should the site be approved, we will 
continue with the step-wise process, outlined in the Nuclear Waste 
Policy Act, to develop a repository.
           summary of fiscal year 2002 appropriation request
    The Office of Civilian Radioactive Waste Management fiscal year 
2002 budget request of $444.9 million is an increase of $44.6 million 
above fiscal year 2001 funding. This increase not only reflects our 
goal to reverse the over $140 million in funding shortfalls incurred 
over the past four years, but also renews the Administration's 
commitment to address the waste management issue responsibly.
    Our resources will be reallocated and applied towards accelerating 
our efforts--i.e., regaining some lost schedule--to submit a license 
application to the Nuclear Regulatory Commission in 2003. The 
Commission will consider information in the license application in its 
determination of how a repository at Yucca Mountain would protect human 
health and safety and the environment, based on the regulatory 
framework provided by the Environmental Protection Agency and the 
Commission.
    Yucca Mountain.--Of the $444.9 million request, $355.4 million, 
eighty percent, is targeted for activities at Yucca Mountain. Of these 
funds, more than sixty-five percent are devoted directly towards 
regaining momentum for license application activities, with particular 
emphasis on resuming and accelerating surface and subsurface Design and 
Engineering. To support a potential license application, Suitability, 
Licensing, and Performance Assessment activities will focus on 
resolving key technical issues identified by the Commission, and 
conducting and refining performance assessments of the surface and 
subsurface design features and operational modes, based on input from 
Core Science activities.
    Core Science activities will continue to strengthen the underlying 
scientific and technical basis, which will be used to make an informed 
decision on whether to recommend Yucca Mountain for further 
development, and to verify and provide scientific data for licensing. 
These scientific activities will focus on understanding more fully how 
lower-temperature subsurface operational modes may reduce uncertainties 
in analyzing long-term repository performance. We also will seek to 
strengthen our performance analysis through our performance 
confirmation activities, which will provide independent lines of 
evidence for our analysis and performance models.
    Waste Acceptance and Transportation.--In fiscal year 2002, the 
Program is requesting $5.9 million to fund activities that will support 
the transfer of spent nuclear fuel and high-level waste from its 
current owners to a federal facility and to begin revitalizing 
transportation logistical and institutional planning activities. Due to 
budgetary shortfalls during the past four years, these activities, 
especially transportation planning, were deferred while we focused our 
resources on investigative science for a possible decision on whether 
to recommend Yucca Mountain for development as a repository.
                          performance measures
    The fiscal year 2002 request is the start of funding levels that we 
need to meet our most critical performance measure--maintaining the 
schedule to begin waste acceptance at a geologic repository by 2010. If 
there is a decision to proceed, the Program could then move forward 
with the process embodied in the Nuclear Waste Policy Act, as amended, 
by submitting a license application in 2003; obtaining Commission 
authorization--as early as thirty-six months after submittal; and 
building the infrastructure to begin waste acceptance in 2010.
                      fiscal year 2002 activities
    I would now like to describe in more detail our fiscal year 2002 
objectives and how this budget request will support our activities.
Yucca Mountain
    Fiscal year 2002 delineates a shift in focus to engineering and 
design activities necessary for a possible license application in 2003. 
The Program, under direction from language accompanying the 1997 Energy 
and Water Development appropriations, presented our plans, schedule, 
and estimated costs to license a repository in the 1998 Viability 
Assessment. If a decision is made to recommend the site, the Program 
will proceed to implement the general framework presented in the 1998 
plan, supplemented by our greater understanding of how a potential 
repository within Yucca Mountain might perform.
    Our budget request for Yucca Mountain is allocated under the 
following project elements: Core Science, Design and Engineering, 
Suitability, Licensing, and Performance Assessment, National 
Environmental Policy Act, Operations and Construction, and External 
Oversight and Payments-Equal-to-Taxes. The activities planned under 
each of these categories are described as follows.
    Core Science.--This year's budget request of $75.6 million 
represents a fifteen percent increase. Core Science activities include 
collecting data from the surface and subsurface; performing laboratory 
tests; monitoring and collecting environmental data; formulating 
scientific hypotheses; modeling individual and combined natural 
processes; compiling scientific information for technical data bases; 
and writing scientific descriptions and analyses used to document 
results and findings. These efforts will proceed as a part of our 
performance confirmation program to strengthen the underlying 
scientific basis for a potential decision and provide multiple lines of 
evidence supporting the assumptions used in our engineering designs and 
performance assessments.
    Design and Engineering.--The fiscal year 2002 request for Design 
and Engineering is $104.4 million, an increase of 41 percent over last 
year. This substantial increase will allow us to resume engineering and 
design work to support a possible license application. This is work 
that we deferred while the Program focused on scientific and technical 
activities required for any possible decision on whether to proceed 
with repository development. The Program will vigorously continue 
repository surface design efforts to integrate new design concepts for 
accepting and handling defense high-level waste and spent fuel, and 
commercial spent fuel. The Program will analyze a modular surface and 
subsurface design and construction concept to evaluate how a step-wise, 
flexible repository system can integrate new technologies and new 
operational concepts as they become available.
    The Program will refine the repository subsurface design and 
operating modes, including further analyzing the potential advantages 
of cooler repository operating temperatures and what effect they might 
have on reducing uncertainties associated with long-term performance. 
Engineering and design work will analyze fuel blending models that 
could enhance subsurface thermal management. We also will seek a 
greater understanding of long-term performance of waste package 
materials to strengthen our understanding of corrosion properties and 
the effects of manufacturing on waste package integrity.
Suitability, Licensing, and Performance Assessment
    The fiscal year 2002 request for Suitability, Licensing, and 
Performance Assessment is $84.9 million, a slight decrease of 1.2 
percent. Although our request is lower in this area than fiscal year 
2001, we have reallocated funds to specific activities supporting a 
possible license application. The bulk of our resources will be applied 
towards developing the preclosure safety analysis. This work was 
deferred while our investigative science focused on the post-closure 
long-term repository performance assessment required for a possible 
site recommendation decision. The results from this preclosure safety 
engineering analysis and the long-term post-closure performance 
assessments will provide the Commission in a licensing proceeding with 
a basis to determine whether a repository at Yucca Mountain can 
reasonably assure that public health and safety, and the environment 
would be protected during repository operations, and post-closure.
    In parallel, we will further refine our repository total system 
performance assessments with information from continuing Core Science 
and Engineering and Design work to strengthen our understanding of 
long-term performance at cooler subsurface operating modes. Finally, 
significant resources will be applied to documenting license 
application reports and underlying data into electronic media and web-
based technologies for a license support network. We deferred these 
activities while we awaited a possible decision on whether to proceed 
with Yucca Mountain, but must address them to meet the Commission's 
requirements under 10 CFR Part 2, if the site is recommended and 
approved.
    Operations and Construction.--The fiscal year 2002 request for 
Operations and Construction is $35 million, a 10.7 percent increase. 
This modest increase is to build additional thermal test alcoves and 
niches in the potential repository block to gather performance 
confirmation data verifying drift scale thermal test results. The bulk 
of these funds would be used primarily to maintain the surface and 
subsurface infrastructure that supports Core Science.
    National Environmental Policy Act (NEPA).--In fiscal year 2002, 
$1.6 million, a 27 percent reduction, is requested for NEPA activities 
if the site is recommended. A final environmental impact statement will 
be completed and will accompany the documents supporting the 
comprehensive basis for a potential site recommendation. Afterwards, 
the administrative record compiled during preparation of the final 
environmental impact statement would be finalized, if the site is 
recommended.
    External Oversight and Payments-Equal-to-Taxes (PETT).--The fiscal 
year 2002 budget requests $19.7 million for External Oversight and 
Payments-Equal-to-Taxes. The Administration supports the State of 
Nevada and affected units of local government oversight activities--
solely for independent review of ongoing scientific and technical 
work--as authorized by the Nuclear Waste Policy Act.
    Our budget request also includes $10 million to continue our 
cooperative agreement with the University and Community College System 
of Nevada. This agreement, initiated in fiscal year 1999, provides the 
public and the Yucca Mountain project with an independently derived 
body of scientific data, and fosters collaborative working 
relationships between government and academic researchers.
             waste acceptance, storage, and transportation
    The primary responsibility of the Waste Acceptance, Storage, and 
Transportation Project is to develop processes for the physical 
transfer of spent nuclear fuel to the Federal Government. Because we 
were awaiting a decision on whether to proceed with the Yucca Mountain 
site, we deferred transportation logistical and institutional planning 
activities. However, if the site is recommended and approved, we must 
resume the preparations necessary to implement a transportation 
infrastructure to support the movement of spent nuclear fuel and high-
level radioactive waste in 2010. For fiscal year 2002, we request $5.9 
million to begin long lead-time logistical and planning activities.
    Transportation.--For fiscal year 2002, we request $3.1 million to 
begin and ramp-up activities that would develop the private sector-
based national transportation capability necessary to move spent 
nuclear fuel and high-level waste beginning in 2010. This requires 
restarting the solicitation process for a draft request for proposals 
for waste acceptance and transportation services, with the goal of 
releasing a final request for proposals in late fiscal year 2002. Other 
planning activities will consider transportation institutional issues 
within the State of Nevada, as the potential host state for a geologic 
repository, and will focus on resuming development of policies and 
procedures for the training of public safety officials as specified 
under the Nuclear Waste Policy Act, Section 180(c).
    Waste Acceptance.--For fiscal year 2002, $2.3 million is requested 
to support modifying the Standard Disposal Contract to integrate 
private sector-based transportation services requirements. A 
significant part of our request will be applied to integrating waste 
acceptance criteria and schedules for the wide variety of fuel types 
from defense spent nuclear fuel and high-level waste owned by the 
Office of Environmental Management, Office of Fissile Materials 
Disposition, and Naval Nuclear Propulsion Program.
                   program management and integration
    For fiscal year 2002, we request $83.6 million for Program 
Management and Integration activities, a 10 percent increase above 
fiscal year 2001. The Program Management and Integration element 
oversees coordination between the Yucca Mountain Site Characterization 
Project and Waste Acceptance, Storage, and Transportation Project. The 
primary function is to ensure compliance with the statutory 
requirements of the Nuclear Waste Policy Act, and regulatory 
requirements imposed by the Nuclear Regulatory Commission, the 
Environmental Protection Agency, other Federal oversight groups, and 
Departmental reporting and accounting systems. Particular emphasis will 
be placed on ensuring that the Program meets Nuclear Regulatory 
Commission Nuclear Quality Assurance requirements as we accelerate our 
efforts to submit a possible license application in 2003.
Future Funding Challenges
    Mr. Chairman and members of the Committee, I began my testimony by 
stating that our fiscal year 2002 request is based on the presumption 
that a potential decision to recommend the site for development could 
be made. If the Yucca Mountain Site is recommended and approved, the 
costs to license, build, and operate a waste management system will 
exceed past appropriations levels. Our Administration's budget request 
recognizes these future-funding challenges. The Administration in its 
budget states ``support for efforts to use the nuclear utilities' 
budgetary receipts for [their] intended purposes.''
    The Program is looking at engineering, construction, and 
operational strategies for managing these potential annual costs that 
could occur after the 2002 timeframe. These strategies seek to 
distribute costs to level-out annual costs over the next ten years, 
using modular repository construction and operational approaches. In 
addition, the Program intends to submit a report on alternative means 
of financing and managing a federal repository to Congress in June 
2001, as requested in the 2001 Energy and Water Development Conference 
Report.
                               litigation
    The Department is in litigation over the delay in meeting our 
contractual obligation to nuclear utility companies to begin accepting 
their spent fuel by January 31, 1998. The issue of waste acceptance is 
among our highest priorities. The Courts already determined that the 
federal government is liable to compensate utilities for additional 
costs they may have incurred due to the delay. We are now litigating 
what the source of funding should be and how much these costs will be.
Inspector General Inquiry
    Last December, Secretary Richardson decided not to issue the Site 
Recommendation Consideration Report until the Inspector General 
investigated whether bias may have compromised the integrity of our 
work. The Inspector General performed a comprehensive and thorough 
evaluation of this issue and released his report on April 23. I was 
gratified that the Inspector General concluded there was no evidence to 
``substantiate the concern that bias compromised the integrity of the 
site evaluation process.'' I have told my staff that we must do even 
better. The report also identified several statements that the 
Inspector General concluded, ``could be viewed as suggesting a 
premature conclusion regarding the suitability of Yucca Mountain.'' We 
are well aware that we must perform our work without even the 
perception of possible bias.
    Secretary Abraham, and I firmly believe and have communicated to 
all our employees, that it is Departmental policy, that all Federal, 
laboratory, and contractor employees must perform their work in a 
manner that reflects the integrity and objective approach necessary to 
conduct world-class science. We have reaffirmed our commitment to a 
site suitability evaluation process that is objective, unbiased, and 
based on sound science. We will continue to operate this Program in an 
open and transparent manner, worthy of public confidence and trust.
                           concluding remarks
    The Department has made considerable progress and, despite enormous 
challenges, maintained the essential momentum to implement our Nation's 
policy for the management of spent nuclear fuel and high-level 
radioactive waste. We have conducted a world class investigative 
science program to determine whether the Yucca Mountain site is 
suitable for further development. We have developed repository designs 
and operational concepts that would enable future generations to make 
decisions about a repository, providing them the flexibility to choose 
closure, indefinite monitoring, or retrieval of emplaced materials.
    I believe that we are in a position to achieve important national 
and global decisions later this year. I urge you to consider favorably 
our appropriation request. Thank you. I would be pleased to answer any 
questions you may have.

                     YUCCA MOUNTAIN SITE TIME TABLE

    Senator Domenici. Thank you very much. Let me just ask you 
three or four questions on Yucca Mountain if I might.
    First of all, the Inspector General has issued a report. 
That caused some delay. Now, that report is considered to be a 
favorable report as I understand it. Is that a correct 
characterization of it?
    Mr. Barrett. Yes, sir.
    Senator Domenici. How soon will the Department be ready to 
proceed with their recommendations to the President?
    Mr. Barrett. We are proceeding ahead in doing the 
scientific work necessary to support any future decisions. Just 
last week we released a suite of documents which include the 
Yucca Mountain Science and Engineering Report, which is the 
bulk of the science that would support any future decision, and 
we are proceeding ahead under the processes in the law this 
year.

                   YUCCA MOUNTAIN RADIATION STANDARDS

    Senator Domenici. Recently--well, I will give you the date. 
March the 30 of this year, I wrote to EPA Administrator 
Christine Whitman noting that the scientific credibility of the 
draft EPA regulations for Yucca Mountain were severely 
criticized by the National Academy of Science. No such 
criticism was leveled by the Academy against the proposed NRC 
standards. I suggested in my letter that the EPA and the NRC 
should be working to harmonize their difference in approach to 
the standards.
    Many have suggested that the scientifically flawed EPA 
standards, if implemented, would preclude waste storage in 
Yucca Mountain while offering no benefit of public safety. On 
April the 26, Administrator Whitman responded that the EPA and 
the NRC are working through an inter-agency process to 
determine ``the most appropriate public health standards for 
Yucca Mountain.'' The latter part of that statement is in 
quotes.
    What is the status of discussions among EPA, NRC, and DOE 
to identify scientifically credible radiation standards for 
Yucca Mountain?
    Mr. Barrett. The Office of Management and Budget is in the 
process, through the inter-agency approach, of reviewing that. 
The Environmental Protection Agency is actively involved in 
creating the standard. They requested scientific input from us. 
We have provided that, and that process is continuing under the 
OMB inter-agency review process. So it is very active and Ms. 
Whitman is involved and will, we hope be reaching some 
decisions soon.
    Senator Domenici. A technical question. The Nuclear Waste 
technology Review board, they have expressed some concern 
within the last year over certain aspects of the Department's 
plans for Yucca Mountain. Among those concerns were the 
reliance by the Department on high temperatures in the 
repository to reduce moisture and thereby enhance the life of 
the waste casks. These high temperature storage configurations, 
created by reducing spacing among casks, was criticized in part 
because lower temperature options which would minimize chemical 
reaction rates that could degrade the casks had not been 
reviewed with sufficient care, they said.
    What is the current status of the Department's response to 
the concerns by the NWTRB, the Nuclear Waste Technology Review 
Board?
    Mr. Barrett. The Nuclear Waste Technical Review Board 
pointed out opportunities to strengthen the technical basis for 
any future decisions on Yucca Mountain. We have been working 
very hard over the last 6 months in doing the studies in 
exactly those areas. I just had a meeting last week, where we 
presented the results of many of those studies. We are in the 
process of preparing those documents to strengthen the 
technical bases and address the issues of operational low 
temperature designs and improvements.
    Senator Domenici. This could go to both of you. The 
Washington group--that is a business group. I should say 
Washington Group International--announced that it had reached 
an agreement in principle with the bank group, the steering 
committee for the plan of reorganization in bankruptcy. The 
plan did not include Westinghouse government services companies 
which operate a number of DOE M&O contracts. What is the effect 
of this announcement at existing sites where Westinghouse has 
contracts? Do you know?

                      CONTRACTOR FINANCIAL ISSUES

    Dr. Huntoon. Senator, after they I guess made their 
business decisions we did communicate with the Westinghouse----
    Senator Domenici. Would you pull that up a little closer, 
please.
    Dr. Huntoon. I am sorry.
    Senator Domenici. Thank you.
    Dr. Huntoon. We did communicate with the Westinghouse 
company about our sites and the work they are doing for us, as 
you know, at Savannah River, in New York, and at WIPP. We were 
told that it will have no effect, it will be transparent, our 
operations will continue. So we are not expecting anything to 
happen to our work based on the Washington Group's financial 
issues right now.
    Mr. Barrett. We do not expect any in ours at all.
    Senator Domenici. It will not affect yours.
    Have you received sufficient information at this point to 
conclude yourself that that statement is true?
    Dr. Huntoon. Our procurement people have, our legal people 
have. I have not gotten back input from all my sites. I have 
talked to Savannah River and they have no issues. I will be 
talking to the others today.
    Senator Domenici. All right. In any event, are you telling 
this subcommittee that you believe in that regard things are 
all right?
    Dr. Huntoon. Yes.

                  WASTE ISOLATION PILOT PLANT FUNDING

    Senator Domenici. Let me now ask you a few more questions. 
Let me talk about WIPP just for a minute. There is a lot of 
reductions in this budget that struck me as being kind of 
interesting and in some ways counterproductive. But the one 
that gives me a real strange feeling is, how can you expect 
WIPP to do more and yet reduce the funding by $26 million? They 
are supposed to do more of everything. They are supposed to do 
more on-site characterization. They are supposed to move more 
transuranic wastes there. Their budget is $26 million less than 
last year.
    Dr. Huntoon. Yes, sir. As you know, we had challenges 
across the complex with the budget to get to our budget 
numbers. WIPP was certainly one of them. WIPP has done an 
outstanding job in meeting their commitments in the past and 
coming up on the curve to getting the shipments in. We are past 
20 now in the shipments to WIPP.
    This budget that we turned in, Senator, is focused on 
activities that are essential to the disposal operations 
specifically. We want to maintain the priorities on Rocky 
Flats, Idaho, and Savannah River because that is going to 
support closure at Mound. We talked about limiting the 
shipments from other places until we had the funds to do it. We 
will scale back advisory groups and State organization support 
where we have to.
    We were going to begin the work on the remote handled 
waste. That is an essential aspect, but hopefully working with 
the State and NRC to make some necessary changes to some of the 
permits to decrease the cost and increase the efficiency.
    Senator Domenici. Well, let me just assure you that there 
is no more support from any community on anything of national 
interest that involves nuclear activity than this community of 
Carlsbad and Eddy County and that part of New Mexico. Frankly, 
when they read things like this they wonder over the years why 
they have been so supportive. I can assure you that there are 
all kinds of reasons to say we should cut this or that as it 
pertains to the Department of Energy, but the OMB missed the 
boat on this one. I do not expect you to say that about it--as 
they did on a number of others of these.

                         COMPLIANCE AGREEMENTS

    Let me talk about the compliance agreements, Dr. Huntoon, 
for just a minute. Do you believe that this budget keeps the 
DOE in compliance with all applicable laws, regulations, and 
existing programs? How much more money would be required to do 
that if the budget does not?
    Dr. Huntoon. This budget, Senator, gives us some challenges 
in several years to meet compliance. We have sat down with our 
regulators yet to discuss if we can adjust milestones or 
procedures to stay in compliance, but it will be a challenge in 
several areas.
    Senator Domenici. I take it that means you are not sure you 
can live within it. Is that a fair statement of what 
``challenging'' means?
    Dr. Huntoon. It will be very difficult to do it in a lot of 
areas. I am not prepared to say we will not be compliant, but 
there are going to have to be negotiations.
    Senator Domenici. Well, let me suggest I have been at this 
long enough--I shared with you early on when you took this 
appointment that I sure hope there were some ways we could find 
to be more efficient at all the sites, that we seemed in many 
cases to be walking in place, where we stayed in one place for 
so long, with so much money spent, that I had begun to wonder 
whether some of these activities were employment opportunities 
or cleanup sites.
    So I expect that we can do better. But I want to suggest to 
the Department of Energy, it is not very easy to do it in the 
way you are recommending. It seems to me you have a 
responsibility, the Department, whoever represents the 
Executive Branch, to sit down with those who are cleaning these 
sites up, with the States that they are in, with the 
communities that they have agreements with, and try to work out 
something new and different that is more efficient, and if they 
are unsuccessful to bring that to Congress and say, we have to 
have your help.
    I do not think the way to do it is to dramatically reduce 
the funding and let each one of these communities wonder how 
many hundreds will be laid off while we are looking for a new 
policy. I think that is kind of a reverse approach. It may be 
that there were some in the OMB that concluded that is the only 
way to get change. Well, it might be. You are not going to get 
that change this year, however, that way, if there is any way 
to avoid it. We are going to put the money in and ask that you 
all start a new process of determining how we might improve the 
efficiency of these various sites.
    The top the bottom review that the Secretary is talking 
about, I just want to talk about one aspect of it. Every 
portion of the DOE from what I understand is supposed to become 
5 to 10 percent more efficient in the future and immediately 
cut the budget about 6 percent. That is my own interpretation 
of where we are.
    Now, the management review is supposed to identify steps to 
strengthen project management, but in some respects it 
stretches out projects and increases the cost. Now, this 
management review is supposed to implement better contracting 
strategies, but fails to fund such performance-based contracts 
that you have negotiated in the very past few years. That does 
not seem to me to be very consistent.
    This review is supposed to make greater use of 
technologies, as I understand it, but the cuts in environmental 
science and technology are about 27 percent. Now, I would 
conclude that either those are inconsistent or one would 
conclude that the research being done in the EM R&D effort is 
not very good or something you do not think is very good.
    Which is it, or is it neither of them?

                  FUNDING FOR RESEARCH AND DEVELOPMENT

    Dr. Huntoon. I think our science and technology program I 
think has been excellent. The money invested has already helped 
us through in the last few years. We have reaped benefits from 
money that has been invested over the last 10 years in R&D. So 
you would never get me to say that it is not a good program, 
that it is not worth the money.
    In fact, I believe, as you and I have discussed in the 
past, the one way we are going to decrease the amount of time 
that it is going to take to clean up this complex is by 
applying good science and technology to the problem. So I think 
we are going to be doing that.
    We are, with the money that we do have available in science 
and tech this year, planning plan to our highest priority 
issues and trying to get more work out into the complex from 
the R&D community. We will be not doing as much basic research 
as we would like or university work as we would like.
    Senator Domenici. Well, let me tell you, I would not be 
surprised to hear the Department of Energy say that an awful 
lot of the EM research, that is research within the 
laboratories and not on contract, which has been looking for 
better ways to handle our responsibility with reference to 
cleanup, I would not be surprised if somebody said they have 
been very redundant, some of them have been absolutely 
inapplicable, it just did not fit, some of them were done with 
such scientific esoteric ideas that they are not applicable 
anywhere. I have found that over the years to be the case.
    But I also find that there is nobody what seems to be able 
to do that much better than they do. If you could refine them 
down and make sure they are all focused, they are a pretty good 
source of information on how to handle this. Is that latter a 
fair assessment, they are pretty good at it?
    Dr. Huntoon. Yes, sir, it absolutely is. I will give you 
one example. We have a very tough problem with the salt issue 
down at Savannah River. We are looking at three technologies 
right now and we are going through an assessment to choose the 
one that we will do a pilot on later this year. Two of those 
most promising technologies, have come from our R&D program 
that we funded earlier, that would not have been ready for us 
to apply had we not put money into it.
    Other people do not have the kinds of problems that we have 
in dealing with this nuclear waste.
    Senator Domenici. I am going to submit a question to you 
with reference to performance-based contracts and then close my 
questioning of you by talking about a project and program 
called Waste Management Education Research Consortium. Its 
acronym is WERC. I am not sure you would be aware of that.

           WASTE MANAGEMENT EDUCATION AND RESEARCH CONSORTIUM

    Dr. Huntoon. No.
    Senator Domenici. There exists a program whereby three 
universities in the State of New Mexico, led by one of its 
technology universities, engages in a curriculum to produce 
civil engineers who are environmentally oriented, and at the 
same time they conduct national competitions among college 
students to prepare actual plans for environmental cleanup. It 
attracts attention from all the universities of America and the 
winners have gone on to be great scientists in cleanup. That is 
a $2.5 million a year program and it is supposed to be extended 
for 5 years pursuant to the last appropriation bill.
    There has not been any extension done on that. I wonder if 
you would look at that for us and report back through the 
committee with a response as to when that is going to be 
funded.
    Dr. Huntoon. Yes, sir, I will.
    [The information follows:]

       Waste-Management Education and Research Consortium (WERC)

    The Department has developed a new 5-year cooperative agreement 
with WERC (which is now referred to as A Consortium for Education and 
Technology Development). The agreement became effective on July 1, 
2001. Funding for this agreement is included in the DOE Fiscal Year 
2002 Congressional Budget Request. Future funding will be subject to 
the availability of funds and overall DOE funding priorities.

       WASTE MANAGEMENT EDUCATION AND RESEARCH CONSORTIUM (WERC)

    Senator Domenici. I appreciate that.
    Mr. Barrett, did you have anything further you would like 
to comment on?
    Mr. Barrett. No, sir.
    Senator Domenici. Dr. Huntoon, did you want the comment? 
This is your last appropriation hearing. We said that. Thank 
you so much for all you have done.

                     ADDITIONAL COMMITTEE QUESTIONS

    Dr. Huntoon. Well, I would just like to thank you for your 
support of this program. I appreciate it.
    Senator Domenici. You are welcome.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

            Questions Submitted by Senator Pete V. Domenici

                      waste isolation pilot plant
    Question. Many elements of the Departments' budget submission are 
puzzling to me, but perhaps none as confusing as the dramatic cut in 
the budget recommended for the Waste Isolation Pilot Plant.
    It seems to me that the Department should be encouraging dramatic 
increase in the material shipment rates to WIPP. Furthermore, one of 
the best ways of increasing those shipment rates would be to improve 
the overall management of the National TRU-Waste progam, which I think 
requires that WIPP and the Carlsbad Office of the Department play a 
larger role in specifying shipments from each site.
    WIPP has also made excellent proposals to assume responsibility for 
characterizing waste from the many Small Quantity Sites around the 
complex. Such centralized characterization can lead to greater 
efficiencies, more rapid shipment of wastes from these sites, and 
greater assurances to the people of New Mexico that the 
characterization is done to State-mandated requirements.
    In light of these issues, can you explain how WIPP is going to 
increase its shipments rates, assume additional waste characterization 
responsibilities, and play a larger role in the National TRU Waste 
program with a funding cut of $26 million?
    Answer. The Waste Isolation Pilot Plan (WIPP) budget request is 
focused on activities that are essential to disposal operations and the 
National Transuranic Waste Program. It also assumes that a combination 
of efficiencies being pursued with the U.S. Environmental Protection 
Agency, the New Mexico Environment Department, and the Nuclear 
Regulatory Commission will reduce transuranic waste characterization 
and shipping costs.
    The Department will give priority to shipments from the Rocky Flats 
Environmental Technology Site to support closure, and from the Idaho 
National Engineering and Environmental Laboratory to support the Idaho 
Settlement Agreement requirements, as well as shipments from the 
Savannah River Site which is assisting in the closure of the Mound Site 
by storing some of Mound's waste. WIPP will also accept limited 
shipments from other sites, such as Argonne National Laboratory-East, 
Los Alamos National Laboratory, and the Nevada Test Site.
    To support the President's fiscal year 2002 budget priorities, the 
Department will need to scale back support to advisory groups and State 
organizations where possible. In addition, the Department has 
eliminated funding for other initiatives that are not core functions of 
WIPP's mission to dispose of transuranic waste at WIPP.
    The Department is also looking at resources needed for the 
increases in waste shipments in fiscal year 2002 from Rocky Flats and 
Idaho. Since the President's fiscal year 2002 budget was submitted to 
Congress, Rocky Flats has identified plans to ship more waste to WIPP 
than was assumed at the time the budget was formulated. Options will be 
reviewed for shifting EM funds to meet these needs and ensure we have 
sufficient shipping containers and adequate carrier services. The 
Administration's recently submitted supplemental budget request for 
fiscal year 2001 includes funds that could be applied to this increased 
workload for WIPP.
                         compliance agreements
    Question. Does this budget keep the DOE in compliance with all 
applicable laws, regulations and existing agreements?
    Answer. We are taking several steps to identify and evaluate new 
ways of doing business to reduce costs and shorten schedules. Recently, 
the Secretary directed the start of an assessment of the Environmental 
Management program to find ways to achieve cleanup goals more cost 
effectively and efficiently. In addition, Secretary Abraham has invited 
the Governors of states that host major DOE sites and the EPA 
Administrator to work with us on this assessment. Working with our 
state and EPA partners, we believe we can find ways to improve the 
program's efficiency and progress.
    Maintaining compliance is a priority for the Department. However, 
until these initiatives and the Congressional appropriations process 
are completed, it is premature to say what our specific compliance 
challenges may be in fiscal year 2002. We will follow applicable 
procedures if any modification to existing requirements is needed.
    Question. How much more money would be required to do so? If you 
wish, you may submit that answer for the record.
    Answer. Until these initiatives and the Congressional 
appropriations process are completed, it is premature to say whether 
additional money will be required to meet our compliance requirements 
in fiscal year 2002. We believe, however, that by working with our 
state and EPA partners, we can find ways to improve the compliance 
framework and our programmatic efficiency, and continue to make 
progress toward Environmental Management cleanup goals.
                      performance-based contracts
    Question. The DOE Inspector General has recently criticized the 
Department for undermining its own performance-based contracts by 
paying incentive fees even though the work did not meet the specific 
requirement DOE established in its contract. This has been a recurring 
problem for the DOE. The Department has placed a lot of hope on the 
success of such contracts for increasing performance and cutting costs. 
Does the DOE have the mechanism in place to completely enforce such 
contracts?
    Answer. Yes. The subject of performance-based contracting has 
received the highest level of management attention within the 
Department. In turn, this top-level emphasis directly resulted in DOE's 
recent implementation of a contract management initiative which 
requires greater responsibility and accountability from both the 
Department's senior managers and its contractors.
    Some of the major provisions of this May 2000 initiative include: 
(1) ensuring that performance fees will be paid in full when earned or 
withheld when performance objectives are not met; (2) ensuring that 
performance bonuses paid by contractors to their key managers are 
dependent on the achievement of established contract performance 
objectives; (3) expanding the Chief Operating Officer's ``watch list'' 
to include marginal or poor-performing projects, so that a project 
which is placed on the COO's watch list is subject to more frequent 
reporting and closer scrutiny until its performance improves; (4) 
requiring that contract performance objectives be formally linked to 
the Department's strategic plan; (5) holding Federal senior executives 
accountable for effective contractor management through their own 
performance plans; and (6) conducting briefings to high-level DOE 
management officials of contractor performance assessments and proposed 
performance awards prior to their award.
    Furthermore, the Department's major program offices have 
established policies and procedures to ensure: early identification of 
program expectations to be communicated to Field offices; close 
coordination between Headquarters and Field offices in developing such 
plans; and the approval of these plans, as well as any performance 
awards as a result of the evaluation of the contractor's performance, 
by the responsible program assistant secretary. DOE's Procurement 
Executive has also been reviewing and approving major site and facility 
management contract performance plans since 1998.
    In addition, with the publication of the Department's revised fee 
policy for management and operating contractors in March 1999, DOE's 
Office of Procurement and Assistance Management established an 
iterative program to work with selected Headquarters and Field offices 
to upgrade the effectiveness of the incentives being established for 
the achievement of critical performance. Moreover, the Office issued in 
1998 a ``Performance-Based Contracting Guide'' which provide guidance 
on linking performance incentives to desired results and strategic 
goals. Associated workshops have focused on sharing lessons-learned 
within the Department.
    Performance-based contracting--characterized by results-oriented 
statements of work, strict performance criteria and measures to assess 
the quality of work accomplishment, and incentive-fee arrangements to 
motivate enhanced performance--is now the standard for the Department 
of Energy. All of DOE's major site and facility management contracts 
awarded during and after fiscal year 1999 are performance-based 
management contracts. Despite the identification of occasional 
deficiencies, the Department believes that the appropriate mechanisms 
are available to adequately enforce the provisions of performance-based 
contracts. In turn, with an emphasis on sustained improvements in the 
administration of these contracts, the use of performance-based 
contracts should lead to even more cost-effective performance on the 
part of the Department's contractors and a greater return for the U.S. 
taxpayer.
           waste-management education and research consortium
    Question. The contract for the Waste-management Education and 
Research Consortium (WERC) was specified in the current Appropriations 
Report language to be extended for a 5-year period at a level of $2.5 
million. To date, that contract extension has not been done.
    WERC has compiled an excellent record in their support of 
environmental education and technology development. Over its history, 
now spanning more than 10 years, WERC graduates have filled many 
positions of importance to the nation. Some graduates are now directly 
contributing to cleanup of the Department's environmental legacy 
problems.
    When will the congressional guidance be followed and their contract 
extended?
    Answer. The Department has developed a new 5-year cooperative 
agreement with WERC (which is now referred to as A Consortium for 
Education and Technology Development). The agreement became effective 
on July 1, 2001. Funding for this agreement is included in the DOE 
fiscal year 2002 Congressional Budget Request. Future funding will be 
subject to the availability of funds and overall DOE funding 
priorities.
                                 ______
                                 

            Questions Submitted by Senator Robert F. Bennett

                        moab mill tailings site
    Question. What is the status of the remediation plan?
    Answer. The Federal staff at the Grand Junction Office is preparing 
an initial draft remediation plan that will identify remediation 
alternatives and summarize the state of knowledge regarding the Moab 
site. This will be completed by October 30, 2001. The initial draft 
plan will not, however, be sufficiently developed to allow for 
selection of a remediation option. Selection of a remedial action will 
require an in-depth analysis and the legally-required involvement by 
the National Academy of Sciences, for which funding was included in the 
Administration's recent supplemental budget request for fiscal year 
2001.
    Question. Has the DOE made any arrangements with the National 
Academy of Sciences to provide technical advice, assistance, or 
recommendations on the remediation plan?
    Answer. On February 16, 2001, the Office of Environmental 
Management sent a letter to the National Academy of Sciences requesting 
them to perform the analysis required by the National Defense 
Authorization Act for Fiscal Year 2001. The Administration recently 
submitted a supplemental budget request for fiscal year 2001 that 
includes funding for the Moab project. If this funding becomes 
available, DOE will request the Academy to commence the analysis as 
part of an ongoing long-term institutional management study and provide 
DOE with advice and recommendations in a separate report.
    Question. When is it estimated that the DOE will begin remediation 
efforts?
    Answer. The start of remediation is dependent on the successful 
completion of all preparatory activities, such as National Academy of 
Sciences review, any required environmental review, remedy selection 
and design, and contractor procurements. Appropriate remediation is 
expected to start in fiscal year 2005, subject to the availability of 
funding.
    Question. What actions will the DOE need to take before remediation 
work could begin?
    Answer. DOE will have to complete the National Academy of Sciences 
review, prepare any required environmental review, obtain a Biological 
Opinion from the U.S. Fish and Wildlife Service regarding endangered 
species near the site, receive Nuclear Regulatory Commission approval 
of the remedial action plan, complete design for the selected remedial 
alternative, and procure a remediation contractor.
    Question. What are your plans for the site in fiscal year 2002?
    Answer. DOE will complete the title transfer of the mill site, 
finalize the remediation plan, and perform surveillance of the tailings 
pile. Initiation of the National Academy of Sciences review is 
dependent upon Congressional approval of the Administration's recent 
supplemental budget request that included funding for developing the 
Moab remediation plan.
                                 ______
                                 

               Questions Submitted by Senator Harry Reid

                        transportation of waste
    Question. One of the major issues with the proposed Yucca Mountain 
site is transporting the waste from the 103 reactor sites through more 
than 40 states to Nevada. Why has so little effort been placed on 
defining the transportation modes and routes? How can we be studying a 
central disposal site if we do not know if the spent fuel can be safely 
moved?
    Answer. The transportation of spent nuclear fuel has been conducted 
safely for decades. The U.S. Department of Transportation and the 
Nuclear Regulatory Commission have developed regulations that control 
virtually every aspect of spent nuclear fuel and high-level radioactive 
waste transportation. The safety record for spent fuel shipments in the 
United States and in other industrialized nations is excellent. Of 
these thousands of shipments completed over the last 30 years, none has 
resulted in an identifiable injury through release of radioactive 
material.
    Because of funding constraints, the Department, in setting 
priorities, applied its available funds to Yucca Mountain scientific 
and engineering activities to determine if this site is scientifically 
suitable for further development as a geologic repository. We have 
deferred activities related to transportation planning until a site is 
designated. If the site is designated, the Department plans to acquire 
a transportation infrastructure by 2010. While we await a decision on 
whether to proceed, identifying transportation routes that could be 
used in 2010 is premature. It is more appropriate to select routes 
taking into account the highway, rail route, and shipping vendor 
considerations that would exist at the time that shipments may occur.
     benefits of cooperation with foreign waste management programs
    Question. Why does the Office of Civilian Radioactive Waste 
Management feel that it must send senior level managers to foreign 
countries? What is the purpose of the trips? How do these trips benefit 
the U.S. waste disposal program?
    Answer. The general international consensus and the cornerstone of 
the United States waste management strategy is disposal of radioactive 
waste in geologic repositories. All nations with nuclear power programs 
will need to safely dispose of their radioactive waste regardless of 
their nuclear fuel cycle approach. Furthermore, nuclear issues 
transcend national boundaries, and therefore, the global nuclear 
community has a shared interest in protecting human health and safety 
and the environment.
    Developing geologic repositories for high-level radioactive waste 
is a first of a kind endeavor. The U.S. continues to play a leading 
role in developing scientific and engineering knowledge for geologic 
repositories. Foreign countries have technical and institutional 
information that is beneficial to the current U.S. effort. In this 
regard, the Office of Civilian Radioactive Waste Management has 
bilateral agreements with six nations and is working to extend that 
collaboration with other countries. The Office also has formal 
arrangements with the International Atomic Energy Agency, the 
International Association for Environmentally Safe Disposal of 
Radioactive Materials, and the Nuclear Energy Agency of the 
Organization for Economic Cooperation and Development. The purpose of 
these agreements is to share and exchange scientific, technical, and 
other relevant information on radioactive waste management. Senior 
management in the United States and abroad have recognized the value 
and benefits of sharing experiences and information through 
participation in meetings, conferences, and visits to nuclear 
facilities.
                     total systems life cycle costs
    Question. There has been an $11 billion increase to the total cost 
estimates for the proposed repository, bringing the total to $58 
billion. Please explain to me what has driven this large increase in 
total repository costs.
    Answer. Increases in costs are due to design enhancements that 
could improve long-term repository performance, if they are all 
implemented. For example, most of the increases are due to inclusion of 
titanium drip shields. These drip shields would be placed over the 
waste packages within the emplacement drifts just before repository 
closure. However, the decision to include drip shields would be made at 
the time of repository closure, after performance confirmation and 
monitoring. Because the possible use of drip shields is far in the 
future, we believe that monies from the Nuclear Waste Fund will be 
available to pay for them.
                        local oversight funding
    Questions What is the justification for reducing the budget request 
for local government oversight at a time when DOE is asking for an 
increase in its Yucca Mountain budget for fiscal year 2002? Is there no 
longer a relationship between the amount of work to be carried out at 
the site and the amount of work required of local governments to 
monitor, review and comment on those site activities?
    Answer. The Administration fully supports the State of Nevada and 
affected units of local government in their scientific oversight roles 
pursuant to the Nuclear Waste Policy Act. The Department's fiscal year 
2002 budget request of $445 million is a modest increase over the 
fiscal year 2001 budget request of $437.5 million. Our fiscal year 2002 
budget request for affected units of local government oversight funding 
of $5.8 million is the same as the fiscal year 2001 request. The fiscal 
year 2002 request for State of Nevada oversight funding is also at the 
same level as fiscal year 2001 appropriations at $2.5 million. We hope 
that fiscal year 2002 appropriations will support continuing oversight 
activities.
               disposal of waste at the nevada test site
    Question. Data presented by the Department last month at my local 
Community Advisory Board concluded that disposal of low-level 
radioactive soils shipped from the DOE site at Fernald, Ohio to the 
Nevada Test Site is two-and-half times more expensive than disposal at 
a commercial disposal site in Utah, a site I'm advised that has the 
support of its congressional delegation and stakeholders. How can the 
Department justify trucking increasing amounts of low-level waste from 
sites around the DOE complex to NTS when you can use an existing 
contract to ship the same waste directly via rail to the Utah site at a 
much lower cost?
    Answer. The cost of shipping waste from the Fernald site in Ohio to 
the Nevada Test Site (NTS) or to a commercial facility, and the cost of 
disposal at NTS or a commercial facility, is dependent on the type of 
waste requiring disposal. Wastes vary in density, type of 
containerization, level of radioactivity, and heterogeneity (e.g., soil 
or debris). Another key factor in these decisions is the waste 
acceptance criteria at each of the disposal sites. For example, the 
commercial facility in Utah cannot accept radioactive wastes that 
exceed Class A limitations. Prior to selecting a disposal option for 
each waste stream, the Department compares costs for transportation to 
and disposal at DOE and commercial disposal sites. Normally, commercial 
disposal is selected when it is the most cost effective option.
    The data on disposal options presented to the NTS Community 
Advisory Board focused on two examples of low-level waste streams from 
Fernald, to illustrate how waste density, containerization, 
radioactivity level, and heterogeneity influence costs and decisions. 
The wastes chosen for these examples both met the Envirocare waste 
acceptance criteria. However, for one predominantly soil low-level 
waste stream, as you have noted, commercial disposal was the more cost 
effective disposition and was used for that waste stream. In fact, 
Fernald sends the majority of its soil to the commercial facility. The 
second example stream, consisting of contaminated debris, was more cost 
effectively transported to and disposed of at the NTS.
    Other DOE low-level waste, with radioactivity levels that exceed 
the Envirocare license, cannot be disposed of at Envirocare. For these 
wastes, technical criteria, not transportation and disposal costs, are 
the deciding factors in choosing a disposal facility.
                          nuclear power plants
    Question. The industry has recently seen expensive purchases for 
nuclear power plants. In almost no case, has this price been close to 
the actual cost of constructing and operating these plants. In fact, 
Paul Joskow an MIT economist recently said referring to the price per 
unit capacity, ``None of these deals even comes close to covering the 
book costs. You couldn't justify paying $2,000 or $3,000 per kilowatt 
for those plants.'' He added that investors would have to expect a huge 
competitive benefit from nuclear plants to risk putting money in a new 
one ``because of the significant possibility of coming up with a dry 
hole.'' Do you agree with this assessment?
    Answer. Today, purchasing a nuclear plant from another utility has 
become a very cost-effective approach to acquiring additional 
electricity capacity for a given utility. As there are plants that have 
been in operation for, in general, a decade or more, it should not be 
surprising that the cost of purchasing an existing plant is less than 
the cost of building a new nuclear plant. That said, the price paid for 
existing plants is not dramatically lower than what a modern nuclear 
power plant would cost to build.
    With the advances made by the nuclear industry over the last 
decade, the deployment of advanced light water reactors overseas, 
improvements in construction techniques (e.g., modular construction), 
operating efficiencies, and with greater regulatory certainty, we 
believe that a more realistic cost of new nuclear capacity is in the 
range of $1,000 to $1,500 per kilowatt. When coupled with the 
increasing cost of natural gas (due primarily to delivery constraints) 
and the economical track record of current nuclear plants, nuclear 
power presents an attractive option for investors.
    Over the past decade, the nuclear industry has succeeded in 
lowering average production costs (fuel, operations and maintenance) to 
below two cents per kilowatt-hour. Last year, nuclear energy was the 
lowest cost electricity source in the country--attributed to a decade-
long increase in unit capacity factors following economizing steps 
taken to resolve regulatory issues, reduce refueling outage durations, 
and extend operating cycles. Aside from economics, nuclear power has 
benefits that are not measured in dollars and cents. Nuclear-generated 
power provides electricity that is free of greenhouse gas emissions and 
other pollutants released by the combustion other energy fuels coal, 
petroleum, and natural gas. As a result of its performance and its 
benefits, the value of nuclear power plants has increased, as indicated 
by their more expensive, recent purchase prices. As a result, we expect 
to see new nuclear construction in the United States during this 
decade.
                        vitrification technology
    Question. In last year's Energy and Water Development 
Appropriations Act, Congress directed the Department to re-test the 
Advanced Vitrification System. What is the status of that review? Are 
you willing to commit to providing a complete assessment to Congress in 
a timely fashion to allow Members to make an informed decision about 
the future of this technology?
    Answer. The additional tests of the Advanced Vitrification System 
(AVS), a process under development by the Radioactive Isolation 
Consortium (RIC) designed for vitrification of high-level waste in a 
canister, were performed using surrogate waste provided by the 
Department of Energy. These additional tests were completed by June 1, 
2001, and a project review was initiated on June 12, 2001.
    Yes, we will provide RIC and Congress the results once we have 
completed this review. We anticipate the results will be available by 
July 30, 2001.
                                 ______
                                 

             Questions Submitted by Senator Robert C. Byrd

    waivers for disposition of scrap metals from radiological areas
    Question. How do you intend to insure that this waiver is not used 
to circumvent the current suspension on release of metal from 
radioactive areas? Will decisions to use the waiver be reviewed by 
appropriate persons in the Secretary's office to make sure that the 
suspension is not circumvented?
    Answer. The suspension on unrestricted release of scrap metals from 
DOE radiological areas was initiated in July 2000 as part of a process 
in which DOE proposed establishing a new standard that would preclude 
the unrestricted release of such metals if surveys demonstrated that 
the metals had contamination at levels above background levels as a 
result of DOE operations at the site. DOE prepared proposed related 
changes to its procedures and issued them for public comment last fall. 
As a result of public comments on these proposed changes, DOE decided 
to retain the suspension and prepare an Environmental Impact Statement 
(EIS) to address this topic. A Notice of Intent to prepare the EIS was 
published in the Federal Register on July 12, 2001.
    While the EIS is being prepared, DOE will continue the July 2000 
suspension on recycling of scrap metal from radiological areas into 
commerce unless DOE makes a specific determination that the metal could 
not have been radioactively contaminated by DOE activities or 
operations. In making a determination, the Department will impose a 
rigorous set of protocols that must be followed to demonstrate and 
document process knowledge about the use and location of the metals and 
the necessary confirmatory surveys that must be performed to validate 
this determination. Field offices would be responsible for implementing 
these protocols, and oversight would be provided by Headquarters 
program offices.
                           excess facilities
    Question. The National Energy Technology Laboratory located in 
Morgantown, West Virginia, and Pittsburgh, Pennsylvania, administers 
nearly half of the Department of Energy's Deactivation and 
Decommissioning Focus Area, which seeks to promote the rapid deployment 
of better technologies to treat, stabilize, and dispose of nuclear 
waste at the Department of Energy sties across the nation, reduce risks 
to site workers, the public and the environment; and provide a 
practical approach for testing a technology's capability.
    How many contaminated buildings are there to deactivate at the DOE 
complex?
    How many buildings are there to be decommissioned at the DOE 
complex?
    How many years will it take to clean up these sites and facilities, 
and at what cost?
    Answer. The Department of Energy (DOE) does not have precise, 
complex-wide data on all facilities that are or may be determined in 
the future to be excess to DOE mission requirements and require 
deactivation, decontamination and/or decommissioning (D&D). However, 
there are two sources of information that can provide rough estimates 
of the total scope of facilities that may need to be deactivated and/or 
decommissioned in the future and give an indication of the life-cycle 
cost of carrying out this work. One source contains information on 
facilities that are the responsibility of the Department's 
Environmental Management (EM) program, and the other source addresses 
those that are the responsibility of other DOE programs.
    For EM facilities, EM's corporate information system, the 
Integrated Planning, Accountability and Budgeting System (IPABS), which 
supports budget formulation and execution, life-cycle planning, and 
performance measurement, provides a good indication of the total 
facilities' workscope currently within the EM program. IPABS lists 
4,222 facilities managed by EM that require D&D over the life of the EM 
program. IPABS further indicates that deactivation has already been 
completed on another 411 of these facilities, and decommissioning on 
639 facilities. The lifecycle cost associated with D&D of all EM-
managed facilities, including those that are currently operational, as 
reported in IPABS is $10.6 billion from fiscal year 2002 through 2052. 
IPABS does not include data on which of these facilities are currently 
excess, or the level of cleanup that may be required.
    EM is seeking additional, facility-level information to better 
characterize the universe of facilities in the next update of its 
planning estimates, which is expected to be available at the end of the 
summer. However, we will continue after that time to develop methods to 
collect more complete and consistent information that minimizes 
differences in how different field offices manage, maintain, and 
interpret facility data.
    The ``Department of Energy Performance and Accountability Report 
for Fiscal Year 2000'' (DOE/CR-0071) estimates a $26 billion potential 
liability associated with Departmental facilities (both active and 
surplus) other than those in the EM program. This includes about $19 
billion (based on use of a cost-estimating model) to stabilize, 
deactivate and/or decommission about 3,000 contaminated facilities. The 
specific number of facilities associated with the remaining costs in 
the liability estimate (e.g., for decommissioning of Naval Reactor and 
Strategic Petroleum Reserve program facilities), is not identified.
                 national energy technology laboratory
    Question. Is advanced technology needed to clean up the remaining 
DOE facilities?
    Answer. While technologies generally exist to clean up contaminated 
facilities, innovative deactivation and decommissioning technology is 
needed to enhance worker safety, minimize cleanup schedules, and reduce 
costs. For instance, more than 900 plutonium-contaminated gloveboxes 
must be removed, cut up, and disposed of to meet the accelerated Rocky 
Flats closure goal of fiscal year 2006. The baseline method--workers in 
cumbersome protective gear using hand tools--could not have met this 
schedule or budget requirements. In the last three years, several 
innovative technologies that revolutionize this process have emerged as 
a result of the Deactivation and Decommissioning Focus Area. Through 
these technologies, worker exposure is eliminated or dramatically 
reduced, often enabling cleanup that was impossible otherwise.
    Question. Is the Deactivation and Decommissioning focus area 
helping to address the nation's cleanup backlog?
    Answer. The Deactivation and Decommissioning (D&D) Focus Area 
provides support for the demonstration and deployment of improved D&D 
technologies and methods, and through technical assistance to DOE sites 
for the planning and execution of D&D tasks. Through these new D&D 
technologies, worker exposure is eliminated or dramatically reduced, 
often enabling cleanup that was impossible otherwise.
    For instance, the D&D Focus Area is furnishing improved 
technologies to ensure closure milestones can be met at the Rocky Flats 
Environmental Technology Site. The primary focus of these efforts is 
the disposition of over 900 plutonium-contaminated gloveboxes and other 
contaminated equipment, such as process piping, tanks, and vessels. 
Disposition of this equipment is a formidable task that, unless 
improved technologies are implemented, would place workers in extremely 
dangerous and high-radiation environments. Deployment of remotely 
operated robotic systems for size reduction, decontamination, and waste 
handling and packaging in some cases are enabling cleanup that could 
not have been accomplished previously.
    The D&D Focus Area has demonstrated 121 new and innovative 
technologies. And 91 different D&D-sponsored technologies have been 
deployed a total of 336 times, all of which performed cleanup cheaper, 
faster or safer than conventional technologies or enabled cleanup that 
was previously impossible.
    Question. Does the program save taxpayers money? How?
    Answer. The Deactivation and Decommissioning Focus Area is 
achieving direct cost savings through the deployment of more productive 
and cost-effective methods and technologies, as well as cost avoidance 
through accelerated cleanup schedules thereby reducing long-term 
facility surveillance and maintenance requirements. As important as 
saving taxpayers' money, technologies from this program also minimize 
worker safety and health risks
    Question. The fiscal year 2001 enacted level of funding for D&D 
Focus Area was $27.1 million. The President's fiscal year 2002 budget 
request slashing the budget for this activity to $17.6 million a 35 
percent cut. What impact will this have?
    Answer. At the requested level, there is sufficient funding to 
continue core activities, including some deployment projects, at a 
reduced level.
    Question. How will jobs at National Energy Technology Laboratory be 
impacted as a result of the 35 percent cut in the program?
    Answer. We do not expect any National Energy Technology Laboratory 
employees' jobs will be affected as a result of the request for the 
Deactivation and Decommissioning Focus Area.
    Question. Please provide me a chart, listing of the number of D&D 
Focus Area projects that have been funded in each state, along with 
their total value, and the number of employees that the projects 
support.
    Answer. The requested information follows:

          DEACTIVATION & DECOMMISSIONING FOCUS AREA (1991-2001)
                         [Dollars in thousands]
------------------------------------------------------------------------
                                                               Estimates
               State                 Projects   Total funding  FTE's \1\
------------------------------------------------------------------------
California.........................        7           $3,640         12
Colorado...........................        8           16,206         57
Florida............................        3              535          3
Idaho..............................       12           10,650         21
Illinois...........................       10            7,662         23
Iowa...............................        1              830          1
Montana............................        1              660          4
Nevada.............................        7            8,615         20
New Mexico.........................        5           11,772         37
New York...........................        6            6,153         18
Ohio...............................       10           11,157         32
Pennsylvania.......................        1            1,000          6
South Carolina.....................        9            8,559         22
Tennessee..........................       21           14,177         49
Washington.........................       16           24,114         46
West Virginia......................        7           12,240         24
                                    ------------------------------------
      Total........................      124          137,970       375
------------------------------------------------------------------------
\1\ Full-time equivalents.

    Question. Please also provide me with a listing of the West 
Virginia projects that are funded under this program.
    Answer. The National Energy Technology Laboratory administers all 
the Deactivation and Decommissioning projects for the Environmental 
Management program. See attached chart of activities within West 
Virginia.

  FISCAL YEAR 1991-2001 WEST VIRGINIA DEACTIVATION AND DECOMMISSIONING
                              (D&D) FUNDING
                        [In thousands of dollars]
------------------------------------------------------------------------
                                                    Fiscal year funding
                     Project                     -----------------------
                                                   1991-2000     2001
------------------------------------------------------------------------
Transition of Basic Science for D&D.............           0       1,151
Characterization Exploratory & Advanced                    0         175
 Development....................................
Cost Benefit Analysis/Stakeholder Involvement/         1,867       2,637
 Public Participation...........................
U.S. Army Corp of Engineers.....................       5,000           0
Phoenix: A Decision Support Tool for D&D                 800           0
 Activities.....................................
Technology and Program Support to CMST-CP.......         104           0
Cost Savings Analysis/Technology Summaries......         206         300
                                                 -----------------------
      Total.....................................       7,977       4,263
------------------------------------------------------------------------

                    industry and university program
    Question. The National Energy Technology Laboratory also 
administers 100 percent of the Industry and University Program, which 
is the Office of Environmental Management's main mechanism for private 
industry and higher education to provide new technical solutions to the 
DOE cleanup problems.
    How many research and development (R&D) contracts with private-
sector organizations have resulted from this program?
    Answer. This program has resulted in 123 research and development 
contracts with private sector companies and universities, nearly all of 
which have been managed by the National Energy Technology Laboratory 
(NETL). There have also been 11 cooperative agreements and grants with 
universities and nonprofit organizations that conduct applied research 
and development in support of the Environmental Management mission 
under this program, also managed by NETL.
    The Industry and University Program also includes the University 
Robotics Program administered by the Albuquerque Operations Office, 
which consists of a consortium of five universities and has resulted in 
five grants.
    Question. How many technology demonstration and technology 
deployments has the program yielded?
    Answer. Research and development within this program has resulted 
in 87 technology demonstrations and 78 deployments. For instance, a 
robotic vehicle sponsored by this program (Houdini) was instrumental in 
closing the Gunite and Associated Tanks at Oak Ridge ten years ahead of 
the project's initial schedule.
    Question. What is the projected cost savings that can be realized 
with successful technologies?
    Answer. New and innovative technologies can result in significant 
life-cycle savings or cost avoidance for the EM program compared to the 
``baseline'' technologies that were otherwise planned to be used.
     However, it is difficult to provide reliable and consistent 
estimates of cost savings associated with new technologies across the 
program. Not only have the baselines for many of these first-of-a-kind, 
technically complex projects evolved, but EM has used several methods 
in the past to estimate cost savings/avoidance related to the 
introduction of new technologies. Consequently, these estimates are not 
consistent or comparable.
    To improve the consistency of estimates, EM has adopted a Return-
on-Investment methodology for estimating and documenting the cost 
savings or cost avoidance resulting from the use of new or improved 
technologies. We have recently issued guidance requiring use of this 
methodology across the program and will begin applying it to 
technologies deployed in fiscal year 2001.
    Question. What will be the primary impacts of these cuts? Will 
there be any new program starts next fiscal year because of the cuts?
    Answer. The requested level provides sufficient funding to support 
core activities at a reduced level and a limited number of new starts. 
It also provides equitable funding for work at universities such as 
Florida International University, Florida State University, the 
Diagnostic and Instrumentation Analysis Laboratory at Mississippi State 
University, and the university consortium conducting work in robotics.
    Question. How many jobs will be eliminated at the National Energy 
Technology Laboratory as a result of the 28 percent cut in the program?
    Answer. We do not expect any jobs at the National Energy Technology 
Laboratory will be eliminated as a result of the fiscal year 2002 
budget request for this program.
    Question. Could a reduction in the number of projects to be funded 
have an eventual impact on the jobs at the Lab since the workload would 
be lessened?
    Answer. We do not anticipate any eventual impact on the National 
Energy Technology Laboratory employees' job as a result of the fiscal 
year 2002 budget request for this program.
    Question. Please provide me a chart, listing the number of Industry 
and University Program projects that have been funded in each state, 
along with their total value, and the number of employees that the 
projects support.
    Answer. The requested information follows:

------------------------------------------------------------------------
                                      Number
               State                    of       Total EM-50   Estimated
                                     projects      funding     FTE's \1\
------------------------------------------------------------------------
   INDUSTRY PROGRAMS (1992-2001)
 
Arizona............................        1         $681,636          1
California.........................       14       14,024,444         34
Colorado...........................        5        5,664,169         14
Connecticut........................        1          224,947          1
District of Columbia...............        1        1,301,425          4
Florida............................        5        3,888,978         12
Georgia............................        2        1,148,484         10
Idaho..............................        1          362,446          2
Illinois...........................        5        9,709,871         18
Kentucky...........................        1          267,827          1
Louisiana..........................        1        1,513,959          3
Maine..............................        1        2,849,768          4
Maryland...........................        8       25,073,805         46
Massachusetts......................       12       42,477,632         57
Michigan...........................        2          748,793          4
Minnesota..........................        2        3,429,910          5
Mississippi........................        1          562,000          6
Missouri...........................        2          912,329          4
Nevada.............................        1          111,316          1
New Jersey.........................        1          526,193          1
New Mexico.........................       11       20,647,888         28
New York...........................        5        6,340,768         14
North Carolina.....................        1          950,519          2
North Dakota.......................        1       11,786,381         20
Ohio...............................        2        1,910,340          3
Pennsylvania.......................       11       43,241,154         59
South Carolina.....................        9        7,000,362         18
Tennessee..........................        3        4,795,275          7
Texas..............................        6        9,248,036         16
Vermont............................        2          821,089          2
Virginia...........................       13       13,648,441         23
Washington.........................        2        2,828,050          9
West Virginia......................        4       21,338,593         69
                                    ------------------------------------
      Total........................      137      260,093,828        498
                                    ====================================
  UNIVERSITY PROGRAMS (1997-2001)
 
Florida............................        3       39,891,248        133
Louisiana..........................        2        8,770,118         37
Michigan...........................        1        2,600,000          7
Mississippi........................        1       21,182,000         60
New Jersey.........................        1          500,000          6
New Mexico.........................        1        2,600,000          7
Tennessee..........................        1        2,600,000          7
Texas..............................        1        2,600,000          7
West Virginia......................        1        4,000,000         17
                                    ------------------------------------
      Total........................       12       84,743,316       281
------------------------------------------------------------------------
\1\ Full time Equivalents.

    Question. Please also provide me with a listing of the West 
Virginia projects that are funded under this program.
    Answer. The National Energy Technology Laboratory administers most 
of the industry and university projects for the Environmental 
Management program. The list of projects within West Virginia follows, 
including the International Union of Operating Engineers where human 
factors assessment and protocol development are conducted to enhance 
the desirable human values, including improved safety, reduced fatigue 
and stress, and increased comfort.

                  WEST VIRGINIA PRIVATE SECTOR FUNDING
------------------------------------------------------------------------
                                                    Fiscal year
                 Project                 -------------------------------
                                             1992-2000         2001
------------------------------------------------------------------------
Industry Programs:
    Miscellaneous Technical Support           $6,619,732      $1,400,000
     Contracts..........................
    Remote Mining for In-Situ Waste              316,146  ..............
     Containment........................
    West Virginia University............      12,092,365  ..............
International Union of Operating                 910,350  ..............
 Engineers \1\..........................
                                         -------------------------------
      Total.............................      19,938,593       1,400,000
                                         ===============================
University Programs: Development of a          2,000,000       2,000,000
 National Electronics Recycling Center..
                                         ===============================
Other Funding Managed at NETL:                11,552,828       2,946,000
 International Union of Operating
 Engineers \1\..........................
------------------------------------------------------------------------
\1\ Originally this activity was funded and managed by Industry
  Programs. Funding and management was subsequently moved to the
  Technology Acceptance budget, but the project is still administered by
  the National Environmental Technology Laboratory.

                                 ______
                                 

           Questions Submitted by Senator Ernest F. Hollings

                   savannah river ecology laboratory
    Question. Could you please explain your plans for funding the SREL 
for fiscal year 2002 and the future. Can you please assure the 
Subcommittee that you will find the necessary funds in the EM-50 
account to fully realize the plans set forth in the new five-year 
cooperative agreement the SREL is now discussing with the SRS managers.
    Answer. The Secretary has challenged every program in the 
Department to become more efficient, and the Environmental Management 
budget request reflects this challenge. The Department has also 
initiated a management assessment to evaluate our current clean-up 
strategies and to identify ways to become more efficient.
    The Department's highest priorities for the Environmental 
Management program are ensuring safety, addressing high risk waste and 
materials, and supporting the closure of major sites. Accordingly, in 
developing our request for fiscal year 2002, we have placed priority on 
a number of key, high-risk projects at the Savannah River Site and have 
had to balance the needs of other activities funded by the EM program 
in light of these priorities.
    The Department values the independent environmental research 
provided by the University of Georgia. Our request continues support 
for the basic research programs at the Savannah River Ecology 
Laboratory, but the education and public outreach programs may need to 
be cut back, depending on the outcome of the management assessment and 
the response of the Savannah River Site to the Secretary's management 
challenge.
    Question. As the mission of the SRS site grows, what increased 
activities for the SREL does the Department contemplate to help ensure 
that the SRS will continue to have an independent, scientifically 
credible environmental research and assessment capability at the SRS?
    Answer. The Savannah River Ecology Laboratory currently conducts 
ecological research and site-wide monitoring activities at the Savannah 
River Site covering a number of elements and isotopes including 
plutonium. Therefore, we do not anticipate that the expanded plutonium 
disposition mission at the Savannah River Site will require any change 
in the scope of the Savannah River Ecology Laboratory side-wide 
activities.
                    environmental management program
    Question. Secretary Abraham testified to the House Appropriations 
on Energy and Water that the Department of Energy Budget for 2002 was 
sufficient. Is this accurate? How can such a representation be made 
when the President's fiscal year 2002 budget will not result in 
compliance with RCRA and CERCLA requirements at SRS?
    Answer. Maintaining compliance at the Savannah River Site is a 
priority. However, we face significant challenges in meeting lower-risk 
environmental restoration commitments in fiscal year 2002.
    Concerned about the cost and schedule estimates for completing the 
cleanup, Secretary Abraham has directed a top-to-bottom assessment to 
focus on ways to more efficiently and cost effectively complete 
cleanup. The Secretary has also asked the Governor in each state in 
which a major DOE site is located to work with us in this assessment. 
Our goal is for the cleanup program to proceed as fast as possible with 
the minimum necessary commitment of federal resources. Given the 
pressing needs of the nation in many other areas that affect citizens' 
well being, health, and safety, it is DOE's responsibility to ensure 
that funds are spent wisely and results are maximized. Until this 
assessment is complete, it is unknown whether any work will need to be 
deferred.
                          meeting commitments
    Question. With the proposed fiscal year 2002 budget reductions at 
SRS, will the DOE be able to meet the following commitments?
    Perform all obligations required by the Federal Facilities 
Compliance Agreement?
    Maintain High Level Waste Vitrification operations and investments 
needed for continuity of operations to meet the SRS Site Treatment 
Plan?
    Shipments of Transuranic Waste to the Waste Isolation Pilot Plant?
    Stabilization of nuclear materials commitments to the Defense 
Nuclear Facility Safety Board?
    Answer. The Environmental Management budget continues to place the 
highest priority on protecting the health and safety of workers and the 
public at all DOE sites, and on mitigating high risks. We will ensure 
that nuclear materials are properly managed and safeguarded. Our budget 
places priority on a number of key projects that reduce higher 
potential risks, provide significant mortgage reduction, or are key to 
completing activities at other sites. For the Savannah River Site, 
these projects include producing at least 150 canisters of vitrified 
high level waste, shipping up to 600 cubic meters of transuranic waste 
to the Waste Isolation Pilot Plant, completing construction of the melt 
and dilute technology demonstration facility, beginning construction of 
the Salt Processing pilot plant and initiating conceptual design of the 
full scale plant, and completing all currently planned F-Canyon 
dissolution campaigns.
    Maintaining compliance with the Federal Facilities Agreement at the 
Savannah River Site is a priority. However, we face significant 
challenges in meeting some of our lower-risk environmental restoration 
compliance commitments in fiscal year 2002. The Secretary has directed 
a top-to-bottom reassessment of the Environmental Management program to 
examine opportunities for program efficiencies and to review existing 
cleanup strategies. Until this review is completed, it is unknown 
whether any work will need to be deferred.
                    environmental management program
    Question. If Congress restores funding to the DOE EM budget for 
fiscal year 2002, will you, in turn, restore nearly $160 million to the 
SRS EM budget to assure regulatory compliance?
    Answer. Maintaining compliance is a priority for the Environmental 
Management Program. However, until Congress passes a final 
appropriations bill and the Department has had an opportunity to 
evaluate the direction provided by Congress and to consider all program 
priorities, it would be premature to say how much funding would be 
provided to any individual site.
                                 ______
                                 

              Questions Submitted by Senator Patty Murray

                   office of river protection funding
    Question. I am deeply troubled by proposed cuts in the Waste 
Treatment Plant, which will vitrify the high-level radioactive waste 
currently stored at old and decaying tanks at Hanford. DOE officials 
have acknowledged that the new contract negotiated for this project was 
based on a fiscal year 2002 budget of $690 million, but the request is 
only for $500 million. I'm advised that with a $500 million level for 
fiscal year 2002, the funding for this project would need to spike up 
to $800 million in fiscal year 2003.
    Wouldn't it make more sense to levelize the funding for this 
project at $690 million, as first proposed and actually written into 
the contract, instead of counting on a funding spike next year? 
Wouldn't a measured, level funding base be more consistent with the 
objectives of your ``top-to-bottom'' review of the cleanup program and 
use of commercial type contracts to make it more efficient?
    Answer. The fiscal year 2002 budget proposes $500 million for the 
Waste Treatment Plant, an increase of $12.4 million above the fiscal 
year 2001 enacted level. We believe the fiscal year 2002 budget request 
will allow the performance of the fiscal year 2002 scope of work agreed 
to by the Department and Bechtel Washington, the contractor. We 
recognize that increased funding may be needed in subsequent years. We 
are working with Bechtel to satisfy the priorities within the terms and 
conditions of the contract in order to meet the goal of beginning 
radioactive waste treatment by fiscal year 2007.
     office of river protection--renegotiation of bechtel contract
    Question. I am concerned that the lower funding level of $500 
million will trigger a renegotiation of the Bechtel-Washington contract 
which is based on the $690 million amount. This is an incentive-based 
contract that should result in this facility being built for a lower 
target price than was first expected. Doesn't the Administration run 
the risk that renegotiating this contract will result in a higher cost 
to the taxpayer?
    Answer. The Department of Energy is currently working to meet the 
commitment of processing wastes through the treatment plant by fiscal 
year 2007. The Bechtel Washington contract was developed to help us 
achieve these milestones and to get the best value for the government. 
The Department of Energy has requested budget authority to cover all 
the work that we expect Bechtel will accomplish through fiscal year 
2002. Bechtel is working with DOE to establish a baseline of work that 
will fit within the limits of the contract and satisfy Departmental 
priorities. Renegotiation of the Bechtel contract is not likely to be 
necessary.
         office of river protection--future funding for the wtp
    Question. As you know, my state has negotiated a legally-binding 
agreement with the Department to get the Hanford tank waste cleaned up. 
Yet, the funding cut for the Waste Treatment Plant raises real concerns 
with my state regulators as to whether you can meet the milestones 
established in this Tri-Party Agreement. For example, what assurances 
can you give me that the facility can commence hot start-up in 2007 as 
required by this agreement?
    Answer. DOE is committed to moving ahead with the design and 
construction of the Hanford vitrification plant and beginning 
radioactive waste treatment by fiscal year 2007. At the requested 
funding level of $500 million in fiscal year 2002 and with adequate 
funding in fiscal year 2003 and beyond, meeting the 2007 milestone for 
beginning hot-waste processing is expected to be achievable.
               hanford tri-party agreement renegotiations
    Question. My state has been very patient with the Department on 
Tri-Party Agreement compliance issues. We have re-negotiated this 
agreement several times, pushing back deadlines to accommodate DOE's 
slips in the schedule with the promise that additional delays will not 
happen and yet here we are again with a likely delay because of 
inadequate funding. Given the Department's disappointing record in 
complying with the Tri-Party Agreement, why shouldn't my state take 
legal action?
    Answer. The State and the Department have worked together to 
resolve issues that arise under the Tri-Party Agreement (TPA). 
Additionally, we believe that the Department's performance under the 
TPA has been good over the years and we expect to continue that 
performance, even with the challenges we face at Hanford and elsewhere 
in the DOE complex. The Tri-Party Agreement contains 1,261 milestones, 
of which 924 are enforceable. To date, approximately 970 milestones, 
including slightly more than 700 enforceable ones, have come due. All 
but eight of the enforceable milestones have been met. We have 
successfully started shipping transuranic wastes from the Hanford Site 
to the Waste Isolation Pilot Plant in New Mexico, we are making 
improved progress in removing spent nuclear fuel out of the aging K-
Basins and transporting it away from the Columbia River, and we are 
stabilizing and repackaging plutonium residues at the Plutonium 
Finishing Plant and moving it to compliant storage. Soil cleanup along 
the river shore has moved forward at a steady and safe rate, and we 
have successfully removed most high-level waste tanks from Congress' 
``watch list.'' We have successfully removed the liquid waste from 128 
of 149 single-shell tanks, including 65 of 67 suspected leaking tanks.
    The future success of the Tri-Party Agreement will depend on the 
ability of all parties to work collectively to resolve issues. We 
expect to continue to work together to evaluate all aspects of the 
fiscal year 2002 budget, including identifying ways to improve 
efficiency and streamline processes. We expect the Department's ``top-
to-bottom'' review of its Environmental Management program to assist us 
in more effectively meeting our cleanup obligations.
      office of river protection--building new double-shell tanks
    Question. Given the budget cuts and the uncertainty on the schedule 
for the Waste Treatment Plant, it appears under the terms of the Tri-
Party Agreement that DOE must build new double-shell tanks for the 
storage of Hanford high-level waste. Do you agree that building still 
more tanks is very wasteful when the real solution to vitrify the waste 
only needs to be funded adequately?
    Answer. The Department currently is not considering building new 
double-shell tanks to replace the single-shell tanks. The Department 
agrees that vitrifying waste is the best solution to the Hanford waste 
problem and is proceeding with that approach as a budget priority. The 
State of Washington, in its regulatory role, continues to require the 
Department to study the possible installation of additional double-
shell tanks as a contingency against future single-shell tank failures 
and/or to permit the movement of waste out of the single-shell tanks 
prior to the processing of these wastes in the vitrification plant.
                 hanford river corridor cleanup project
    Question. Cleanup of the corridor along the Columbia River is 
another important priority for Hanford. This remediation effort is 
proceeding extremely well. Please explain the Administration's plans to 
keep the momentum going on the Hanford river corridor cleanup project--
especially when the program has not been funded at levels supported by 
the local site manager and necessary to meet milestones?
    Answer. The fiscal year 2002 Presidential budget request places 
high priority on funding high-level waste and high-risk nuclear 
material activities. It defers some lower-risk environmental 
restoration activities, including remediation work along the Columbia 
River. Other remediation work along the Columbia River will continue, 
including completing nine release site remediations and decommissioning 
one facility, as well as disposing of up to 215,000 cubic meters of 
contaminated soil and debris at the on-site Environmental Restoration 
Disposal Facility. The River Corridor 2012 plan was envisioned to 
combine all work done along the Columbia River (principally in the 100- 
and 300-areas) under one contract and achieve River Corridor cleanup 
and closure of most of the area by 2012. The Department is currently 
working on developing a contract strategy for achieving cleanup of the 
River Corridor, taking into account input from stakeholders and 
potential bidders, the fiscal year 2002 funding levels, and the top-to-
bottom review of the Environmental Management Program. This review will 
focus on efficiencies and cleanup strategies that will allow us to 
accomplish additional cleanup work at the site and proceed on the most 
expeditious schedule possible.
                         hanford worker layoffs
    Question. It is my understanding that Richland and Office of River 
Protection may need to begin laying-off workers in mid summer if there 
is no indication funding levels will be increased over the 
Administration's budget. How can the Department meet legal milestones 
if the site has to lay-off over a thousand workers?
    Answer. It is our intent that more work will get done per dollar 
spent than in the past as a result of the Secretary's ``top-to-bottom'' 
review to improve the efficiency and productivity of the Department's 
Environmental Management program. The Secretary has also pledged to 
work with the U.S. Environmental Protection Agency and the States to 
find ways to improve cleanup progress and improve the compliance 
framework at DOE sites. Until these initiatives are complete, it is 
premature to say whether any workforce reductions will be required, or 
what our compliance challenges might be.

                         CONCLUSION OF HEARINGS

    Senator Domenici. We stand recessed at the call of the 
Chair.
    [Whereupon, at 3:45 p.m., Tuesday, May 15, the hearings 
were concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]


    ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 2002

                              ----------                              

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

                       NONDEPARTMENTAL WITNESSES

    [Clerk's note.--At the direction of the subcommittee 
chairman, the following statements received by the subcommittee 
are made part of the hearing record on the Fiscal Year 2002 
Energy and Water Development Appropriations Act.]

                            ENERGY PROGRAMS

         Prepared Statement of the Geothermal Resources Council

    Mr. Chairman and Members of the Committee, my name is Ted Clutter. 
I am Executive Director of the Geothermal Resources Council (GRC), a 
non-profit professional education association located in Davis, 
California. I am here before you, today, to request $34 million for the 
Geothermal R&D Program of the U.S. Department of Energy (DOE) for 
fiscal year 2002.
    Geothermal energy is heat derived from the natural geologic forces 
of the Earth. It is of utmost importance to both the environmental 
health of the nation and our energy security, providing highly 
reliable, domestically produced electricity and geothermal heat to 
homes, communities and industry across the American West. Though 
geothermal energy has been used to varying small degrees in the United 
States for centuries, industrial development of this unique, indigenous 
energy resource began only 40 years ago. During that time--and with DOE 
assistance--the U.S. geothermal industry has installed power plants in 
California, Nevada, Utah and Hawaii that now produce approximately 
2,800 megawatts of clean electricity--or enough power to serve 2.8 
million homes.
    Geothermal energy is our most valuable renewable energy option. 
Electricity generated from all non-hydro renewal energy sources 
accounts for approximately 0.8 percent of total U.S. energy needs, with 
geothermal contributing over half (60 percent) of that figure. Not only 
is geothermal the largest contributor of renewable electricity in the 
nation, it is not subject to skyrocketing fuel costs or the whims of 
wind and sunlight. These attributes are especially important today, 
with our continuing concern for the environment, a tripling of natural 
gas prices during the past year, and a crisis of power supply centered 
in California reaching out its tentacles to engulf the entire West.
    Geothermal energy development is part of the answer to solving 
these problems for the future as well. According to a 1999 joint study 
by DOE and the Geothermal Energy Association, U.S. geothermal power 
generation capacity could be realistically quadrupled to 10,000 
megawatts with enhanced technologies. Development of geothermal 
resources for conversion to electricity or useful heat, however, 
requires costly and risky exploration of potential geothermal areas, 
costly drilling of wells, and development of power plants or direct-use 
facilities.
    Because of these high up-front costs and risks, continuing well-
funded assistance by DOE in partnership with the U.S. geothermal 
industry--through cost-shared initiatives and development of new 
technologies--is of paramount importance to future, economical 
installation of geothermal energy facilities in the West.
                       doe geothermal r&d program
    DOE has promoted geothermal energy development through its R&D 
Program since the early days of the OPEC oil crisis of the 1970s. With 
that assistance, the U.S. geothermal industry developed a sixfold 
increase in clean power online, and roughly a threefold increase in 
direct-use facilities. Another key factor in fostering this development 
was favorable energy markets and legislation that rewarded geothermal 
power developers with firm long-term power sales contracts. But all 
that changed in the 1990s when utility deregulation and low natural gas 
prices effectively killed those incentives. The result? Without assured 
contracts available to help geothermal energy investors face 
exploration, drilling and development risk, no new geothermal resources 
have come online in the past decade.
    At the same time, DOE's financial resources for its Geothermal R&D 
Program have dwindled to less than $30 million annually. And even that 
marginal amount is now threatened with proposed cuts to DOE's entire 
Energy Efficiency and Renewable Energy Program. During this time of 
change and economic uncertainty, the GRC understands the need for 
fiscal restraint, but also believes that geothermal energy's potential 
contributions to our environment and national energy security far 
outweigh our request of $34 million for DOE's Geothermal R&D Program in 
fiscal year 2002.
    If DOE is to meet the goals of its Geothermal Strategic Plan to 
provide geothermal electricity and heat to over 10 million homes in the 
coming decade, a number of regulatory, legislative and technological 
barriers to development must be overcome. DOE's role is vital in 
assisting the industry in its efforts to solve technological problems 
and spur geothermal energy production to new highs for the benefit of 
the nation. The following highlights important areas of R&D that the 
GRC believes DOE must pursue through industry partnerships to enhance 
geothermal development in the United States:
DOE Geothermal Focus on the West
    To meet the present energy crisis in the western states--and 
recognizing our continuing need for environmental improvement--we must 
quickly and significantly increase electricity capacity from all forms 
of renewable energy, especially geothermal. In the past year, the DOE 
Office of Wind and Geothermal Technologies has provided new and dynamic 
leadership for its Geothermal R&D Program, instituting an initiative 
with the assistance of its National Laboratories that has served as an 
effective catalyst for geothermal development in the western United 
States.
    The program, though marginally funded, has succeeded in drawing 21 
industry R&D proposals intended by DOE to put geothermal ``projects on 
the ground'' as rapidly as possible, and to increase the number of 
states with geothermal electric and heat production from 4 to 8. 
Projects initiated by this program have already fostered a successful 
exploratory drilling effort in Nevada that will likely result in 
construction of a 30-megawatt power plant. We recommend that this 
initiative be further funded to continue the momentum already achieved 
for geothermal development in the West.
Geothermal Resource Exploration
    To help accomplish DOE goals for geothermal development, a campaign 
of exploration must begin at once across the West. Many obvious 
geothermal areas--hot springs, fumaroles and other surface 
manifestations--have already been explored, and where environmentally 
appropriate, many have been developed for their energy potential. 
However, physical and geologic characteristics of many unexploited 
areas in the western United States strongly suggest that many more 
geothermal systems exist where no signs of them are found on the 
surface--and no exploration has been undertaken or completed.
    A critical key to success is DOE incentives to encourage 
exploration for new geothermal resources throughout the West. This 
effort should include development of new geothermal exploration 
technologies, DOE contingent grants and loans to help offset high risk 
of initial geothermal exploration costs, and additional funding for 
federal and state land agencies to provide geologic databases that will 
effectively assist an industry revival of geothermal exploration 
activity.
    With needed improvements in federal agency land-use policies and 
renewed emphasis on geothermal exploration backed by a solid, well-
financed Geothermal R&D Program at DOE, the U.S. geothermal industry 
can develop needed increases in geothermal power generation at existing 
sites--and begin to tap the West's vast potential for new geothermal 
sources of clean, renewable and reliable energy supplies.
Geothermal Drilling
    The cost of drilling geothermal steam wells presents the largest 
risk to potential power plant developers. A geothermal well costs 
between $200 and $300 per foot--40 percent more than drilling an off or 
gas well. That makes the cost of a typical 8,000-foot deep geothermal 
well from $1.6 million to $2.4 million! Success rates for geothermal 
exploration wells are only 20 percent in newly explored, untested areas 
(and rising to only 80 percent for wells in proven geothermal fields). 
Given these figures, it's easy to see the up-front risk involved in 
geothermal development--long before power production can begin.
    Reasons for the high cost of geothermal well completions are many. 
First, high temperatures demand the use of costly unconventional 
drilling tools. Second, the hard and abrasive geologic environment 
typical of geothermal formations significantly slow drill penetration 
rates. Third, low reservoir pressures create ``loss circulation'' zones 
that drain away expensive drilling muds and pose costly problems in 
cementing of well casings. And finally, steam from certain reservoirs 
contains minerals that cause corrosion and scale deposition inside well 
casings that are expensive to deal with.
    Sandia National Laboratories is DOE's lead organization in the 
development of much needed geothermal drilling equipment, materials and 
technologies. With its industry partners, Sandia is developing high-
temperature instrumentation for use in geothermal wells, and high-
temperature logging tools for geothermal reservoir monitoring and 
evaluation. Bit design is an ongoing area of research, with development 
and testing that has resulted in a marked increase in both bit life and 
penetration rates. Loss circulation control has been addressed with 
development of new cements, cement placement tools and equipment, 
fracture plugging agents, and lightweight drilling and cement 
additives.
    To reach its targeted goal of reducing geothermal drilling costs by 
50 percent, Sandia periodically surveys the geothermal industry for 
needed areas of research, and works through a Request for Proposal 
process to bring these products and technologies to the industry. This 
ongoing effort by Sandia, DOE and its private-sector partners offers 
unparalleled value in reducing the cost of drilling for geothermal 
steam resources for producing electricity.
    A number of projects in this arena are ongoing--to lose these 
partnerships and this momentum at a critical time for western energy 
supply would deal a terrible blow to U.S. geothermal development. To 
successfully proceed in development of geothermal resources in the 
West, this vital research to lower drilling cost by DOE must continue. 
An increase in DOE's Geothermal R&D Program budget will augment this 
valuable potential contribution to our national energy security.
Enhanced Geothermal Systems
    Currently, all commercial power production of geothermal energy in 
the United States is derived from relatively shallow (less than 2 miles 
deep) hydrothermal zones. Water flows freely through highly fractured 
rock in these geothermal reservoirs, heated by magmatic intrusions 
lying far below. In many cases however, a high degree of geothermal 
development potential lies just beneath these free-flowing reservoirs 
in geologic formations with fewer fractures (low permeability) and 
limited fluid flows.
    Only about 20 percent of total heat is contained in the relatively 
shallow, commercially available hydrothermal zones of currently 
developed geothermal resources, while the remainder (80 percent) 
resides in underlying, low-permeability zones that have yet remained 
untapped for their energy potential. Currently, our ability to produce 
energy from these resources is limited, dictated by available 
technology and cost.
    In concert with other geothermal development promotion initiatives, 
DOE's Office of Wind and Geothermal Technologies has undertaken a major 
program to develop technologies for the creation and development of 
``Enhanced Geothermal Systems,'' or EGS. Assistance by DOE in 
development of such technologies is critical if the U.S. geothermal 
industry is to successfully engineer commercially viable power 
production from deep heat reservoirs that offer only limited 
permeability and/or fluid content.
    Cost-effective EGS technologies to ``mine'' heat from beneath areas 
of hydrothermal circulation will have a profound impact on the 
geothermal industry. The life of currently commercial geothermal 
systems will be greatly expanded, making better use of existing power 
plants. And new EGS technologies will also be applicable to other 
potential geothermal resource production areas, including those 
previously considered as candidates for Hot Dry Rock (HDR) development.
    Development of EGS technology is critical to the long-term 
viability of the U.S. geothermal industry after all of our high-grade 
hydrothermal resources have been developed. With assistance by DOE's 
current and future EGS technology program, the geothermal industry can 
continue its contribution of environmentally benign electricity to the 
U.S. power generation mix well into the future.
Geothermal Co-Production
    Recent developments with the assistance of DOE incentive funding 
have resulted in construction of the world's first geothermal minerals 
recovery facility, using spent geothermal fluids from power plants on 
the shore of southern California's Salton Sea. Potential exists for 
commercial recovery of manganese at the Salton Sea, and high-grade 
silica and other minerals at other geothermal developments in the West. 
A DOE investment in further development of these ``co-production'' 
technologies holds the promise to add another revenue stream to certain 
geothermal operations, making them more competitive with fossil-fuel 
power generation while reducing treatment and disposal costs.
Geothermal Direct Use
    Direct-use employs low- to intermediate-temperature geothermal 
resources (100 deg. to 3000 deg. F) in systems for industrial 
processes, space heating, and agricultural production (greenhouses and 
aquaculture). Currently, there are over 1,000 geothermal direct-use 
projects in 26 states, and geothermal central heating projects in 18 
communities. Recent surveys have shown that this is only a fraction of 
direct-use potential in the United States, which DOE estimates could 
potentially serve as many as 7 million households by the year 2010.
    Unfortunately, interest in and development of direct-uses of 
geothermal energy is limited, largely because of reliable information 
and financial assistance to ``jump-start'' projects is lacking. This is 
especially true in rural areas where the necessary technical 
infrastructure is not available.
    The DOE Geothermal R&D Program can play a vital role in promoting 
and assisting the development of direct-use projects across the West. 
It is already doing so by providing information and technical 
assistance, but can do more with increased funding to assist in the 
critical areas of direct-use resource identification and drilling 
confirmation. Funding to provide this information and expanded 
technical assistance can do much to help develop this extensive 
geothermal energy resource.
    DOE funding is also needed to develop improvements in direct-use 
equipment, reduce the cost of project capital, and lower project 
operations and maintenance costs. The DOE budget should also provide 
funds for promotion of economic and efficient cascaded use of 
geothermal fluids from power production to direct-use developers. In 
addition, direct-use geothermal funding can help foster public-private 
partnerships to help ``buy down'' the up-front risk and financial 
burdens that often discourage potential geothermal direct-use 
developers during the initial drilling and resource confirmation stages 
of potential projects. Once these concerns are satisfied, direct-use 
geothermal resource development can more easily occur with private 
project financing, while accruing additional benefits of economic 
development and employment in rural areas of the West.
    Mr. Chairman and Members of the Committee, the Geothermal Resources 
Council urges your attention to these facts, and hopes you will agree 
that given current need, the modest $34 million in funding that we 
request for the U.S. Department of Energy Geothermal R&D Program in 
fiscal year 2002 is money well invested in our environment and our 
national energy security. Thank you for your consideration.
                                 ______
                                 

      Prepared Statement of the International Association of Fire 
                           Fighters<Register>

    Dear Chairman Domenici: On behalf of the 240,000 professional fire 
fighters and emergency medical personnel who are members of the 
International Association of Fire Fighters (IAFF), I write to 
communicate our strong disagreement with the proposal to decimate the 
Hazardous Waste Worker Training Program line item of the Department of 
Energy's budget.
    For the past two years, the Hazardous Waste Worker Training Program 
has been funded at $8.5 million. However, in DOE's fiscal year 2002 
request, the funding for this vital program has been slashed to $1 
million. If this devastating budget cut remains unchanged, the result 
will be the termination of the training program that protects fire 
fighters and those communities that they serve.
    The Hazardous Waste Worker Training Program funds training for fire 
fighters on or near DOE nuclear facilities and contract employees 
working at these facilities. The International Association of Fire 
Fighters (IAFF) utilizes the grant from DOE's training program to teach 
fire fighters how to safely and effectively respond to emergencies, 
whether accidental or intentional, at these facilities.
    Since 1994, an average of 2,200 responders have been injured at 
hazardous materials incidents annually. Emergency personnel responding 
to incidents related to DOE complexes face health and safety challenges 
that potentially involve radioactive and other hazardous materials. The 
IAFF provides a flexible training program that emphasizes occupational 
safety and health which is designed to meet these unique challenges.
    For these reasons, the IAFF urges the Subcommittee to appropriate 
$8.5 million, instead of the $1 million DOE has requested, for the 
Hazardous Waste Worker Training Program.
    Please direct all your questions or comments to Barry Kasinitz, 
IAFF Governmental Affairs Director, at 202-824-1581.
    Thank you for your time and attention to this matter.
                                 ______
                                 

        Prepared Statement of the Geothermal Energy Association

    The Geothermal Energy Association is a trade association composed 
of 84 U.S. companies and organizations that support the expanded use of 
geothermal energy and are developing geothermal resources worldwide for 
electrical power generation and direct-heat uses. Our members have 
offices or operations in virtually every state, though most of the 
energy production from geothermal resources is located in the Western 
half of the country.
    The Department of Energy's geothermal research program has been 
seriously under funded. For over a decade, we have witnessed the near 
abandonment of this program by the political hierarchy of the 
Department of Energy. Budgets have collapsed from a high of over $100 
million to requests for under $30 million in recent years.
    A recent independent review by the National Research Council, 
Renewable Power Pathways, generally agrees with this conclusion. The 
NRC panel states:

    ``In light of the significant advantages of geothermal energy as a 
resources for power generation, it may be undervalued in DOE's 
renewable energy portfolio. Significant amounts of high-grade resources 
are available, and geothermal power technologies can operate in a 
variety of duty cycles (from base load to peak load conditions) . . . 
In addition, the United States has taken the lead in successful 
commercial demonstrations of geothermal energy for generating 
electricity and heat at several sites and is the current technology 
leader in the world among very active competitors in Europe and 
Japan.'' (Renewable Power Pathways, page 53.)

    The DOE geothermal energy program was separate from the renewable 
energy programs for many years. Ever since the program was incorporated 
into DOE's renewable energy efforts, it has lost out in the internal 
competition for budget priority. (Perhaps as one senior official of the 
previous Administration stated, drilling holes and building power 
plants was just viewed as ``PC.'') As a result, the U.S. Department of 
Energy's efforts to advance the technology to tap the enormous 
geothermal resources base have waned, and as a result we are slowing 
the development of new resources in the U.S. and losing our lead in 
foreign markets. This has serious consequences for our Nation's energy 
supply, and the U.S. geothermal industry's competitiveness in one of 
the world's fastest growing power markets.
                    fiscal year 2002 recommendation
    The Geothermal Energy Association recommends an appropriation for 
the DOE research program of at least $60 million in fiscal year 2002. 
This would provide the funds needed to support the institutional 
capabilities of the program, which involves core competencies at 
Sandia, INEEL, NREL, and other research institutions; and provide funds 
to undertake programmatic research efforts in a few significant areas. 
We estimate the base institutional capabilities of the program to 
require annual funding of roughly $20 million. The additional funds 
should be used in prioritized efforts consistent with the programs 
Strategic Plan, as updated on a regular basis.
    Given the expense involved in many geothermal operations, $60 
million for program efforts is not an extraordinary sum. Much of the 
risk and uncertainty in geothermal development involves finding, 
defining and accessing the subsurface resource. Developing new 
technology to improve our ability to identify the resource without 
drilling will be risky and expensive, and corresponding research to 
reducing drilling costs can involve substantial effort. Today, drilling 
one geothermal well can involve several million dollars, and an 
advanced drilling program would likely involve sustained effort at 
several sites over several years costing tens of millions of dollars.
              the doe geothermal program's strategic plan
    In June of 1998, the Department of Energy released a new Strategic 
Plan For Geothermal Energy Research and Development. This document was 
the product of a multi-year collaborative effort between DOE, national 
laboratories, university researchers, and the geothermal industry. 
Through a series of new initiatives, implementing the Strategic Plan 
would develop the technology to engineer enhanced production from 
geothermal systems. The technology developed would be applicable to 
hundreds of sites in the Western States, as well as to geothermal 
development around the world.
    According to the Strategic Plan, this advanced research initiative 
can develop the technology to ``greatly accelerate development and use 
of the [geothermal resource], providing a reliable alternative energy 
capable of supplying a significant fraction of the world's energy 
needs.''
    Enhanced geothermal systems technology research would have numerous 
benefits. For example, if funded, by 2010 this effort is expected to 
result in:
  --tripling domestic geothermal electricity production, supplying the 
        needs of 18 million people in the U.S.,
  --continued expansion of geothermal technology exports, the leading 
        US renewable energy export today, by installing at least 10,000 
        MW in developing countries.
    A recent study prepared by the Geothermal Energy Association in 
conjunction with DOE and the University of Utah indicates that research 
into enhanced geothermal systems technology, as proposed in the new DOE 
Strategic Plan, could lead to the development of an additional 12,000 
MW of geothermal power in the Western U.S., and open new export 
opportunities for an additional 65,000 MW of power. Both of these 
figures represent developments beyond what would otherwise occur in a 
favorable market place.
                           budget background
    The geothermal energy budget has received low priority at the 
Department of Energy while the program has been reassessing its long-
term direction. In recent years, the program has been funded at about 
one-half of what internal multi-year plans indicate should be its base 
funding level.
    The DOE budget has included very limited funds to begin 
implementing the Department's new Strategic Plan For Geothermal Energy 
Research And Development. These funds would have supported cost-shared, 
collaborative research by the Department of Energy, national 
laboratories, university researchers, and the geothermal industry.
    The geothermal energy Strategic Plan calls for a near-term annual 
budget level of $50-$60 million. This budget level would be consistent 
with recommendations made by the President's Committee of Advisors on 
Science and Technology (PCAST) in its 1997 report. Critical technical 
needs include the development of advanced drilling, exploration and 
reservoir sensing, energy conversion and metals recovery, and enhanced 
reclaimed water injection. (By comparison, Japan is spending $150 
million on geothermal energy research and development)
                      status of geothermal energy
    Geothermal energy supplies about 6 percent of the electricity in 
California, 10 percent of the power in Northern Nevada, about 25 
percent of the electricity for the Island of Hawaii (the Big Island), 
and significant power in Utah. These states together with Arizona, 
Colorado, Idaho, New Mexico, Oregon and Washington could produce nearly 
20,000 megawatts with enhanced technology. With advanced technology, 
Potential electric power resources could possible be identified and 
developed in nearly every state West of the Mississippi.
    Direct uses of geothermal heat provide energy for businesses 
schools and homes in over twenty-six States. States with potential for 
expanding their direct use of geothermal heat include: Alabama, 
Alabama, Alaska, Arizona, Arkansas, California, Colorado, Georgia, 
Hawaii, Idaho, Kansas, Maryland, Montana, Nebraska, Nevada, New Mexico, 
New York, North Carolina, North Dakota, Oregon, Pennsylvania, South 
Dakota, Utah, Virginia, Washington, and West Virginia.
    Exports of U.S. geothermal technology involve businesses throughout 
the country. Currently, the U.S. geothermal industry enjoys a lead in 
the international market with its chief competition from Italy, Japan 
and New Zealand. At stake is 80,000 MW of potential new power 
development contracts in developing countries alone, a market that 
could exceed $25 billion over the next ten to fifteen years.
                          near term potential
    Geothermal energy has significant potential to contribute to 
alleviating the energy supply crisis in the West, and the Department of 
Energy's programs could assist with realizing this potential. With 
proper support, hundreds of Megawatts of geothermal electricity could 
be brought on line fairly quickly, and thousands of megawatts could be 
added in a matter of a few years.
    We estimate that electricity production from many existing power 
plants could be improved through better technology and operational 
changes. Existing plants could provide perhaps 20-30 percent more 
power--adding 500-600 MW--if there was a significant short-term 
investment in these improvements. Also, efforts to supply treated 
wastewater to The Geysers need to be continued on a priority basis to 
achieve projected increases in generating capacity.
    In fairly short order, new geothermal capacity could be on-line in 
the West. A thousand megawatts or more of additional capacity lies in 
or immediately near existing facilities. Because there is some 
knowledge of the subsurface resource, and some infrastructure already 
in-place, these sites could be developed as fast as markets and 
permitting allow.
    Further we estimate that between 5,000 and 20,000 of additional 
electric power resources are developable in the West using technology 
that we anticipate would be available if a continued research and 
development effort it supported. Based upon our review of experts in 
the field, this level of power development may be possible over the 
next decade with appropriate federal and state support.
    Of course, this is only electric power resource development. Today, 
there is also a significant direct use industry throughout the West 
that uses geothermal heat in schools, homes, farms, and industrial 
processes. Dr. John Lund of the Oregon Institute of Technology has 
estimated than an equal amount of energy could be harnessed through 
direct use applications in buildings, commercial operations and 
industrial processes. Of course, Dr. Lund also assumes that both 
federal and state governments continue to support expanded use of 
geothermal resources.
    Combined, geothermal power and direct-use energy has enormous 
potential for the Western United States. Together, these estimates 
represent energy equivalent to roughly 20 percent of total current U.S. 
energy needs. And, with continued advances in technology, the ultimate 
potential for geothermal energy will continue to expand far beyond this 
range.
                               conclusion
    The U.S. geothermal industry strongly supports the research and 
technology development programs in geothermal energy at the Department 
of Energy. Our industry's growth is not limited by geothermal resource 
availability. Rather it is limited by inadequate technology. Despite is 
significant contribution in some states, geothermal technology is not 
mature, but is still in early stages of development. Only the very 
highest-grade geothermal resources can be economically used today, and 
then only at significant risk and cost to a developer. Research is 
urgently needed to expand the range of the resource that can be 
utilized, and to lower both the cost and risk of using geothermal 
energy to produce power and direct-use energy.
    Thank you.
                                 ______
                                 

         Prepared Statements of Bob Lawrence & Associates, Inc.

                         geothrmal r&d programs
    Mr. Chairman and Members of the Subcommittee: My name is Bob 
Lawrence, and I am President of Bob Lawrence & Associates, Inc., a 
consulting firm headquartered in Alexandria, Virginia. I am here before 
you, today, to request that the Geothermal R&D Program at the 
Department of Energy be funded at a level of $37 Million for fiscal 
year 2002, since this is the level that will allow ongoing programs to 
continue at their planned rate. My firm has been involved with 
Geothermal technology since 1990, working with both the private sector 
and national laboratories, and we are very impressed with both the 
progress and potential of this technology.
    This Subcommittee, in particular, deserves a great deal of credit 
for your support of the Geothermal Program over the past 25 years. It 
has been a great investment of taxpayer dollars. Cost-shared Department 
of Energy investments in geothermal energy R&D, starting in the 1970s, 
have made possible the establishment of a geothermal industry in the 
United States. In 1975, that industry did not exist. Today, the 
geothermal industry generates over 16 Billion kilowatt-hours per year 
in the U.S., alone, with a value over $1 Billion in annual revenues. 
The industry, today:
  --returns over $41 million annually to the Treasury in royalty and 
        production payments for geothermal development on Federal 
        lands, an amount significantly exceeding our funding request. 
        This amount is in addition to the amount of taxes paid to 
        Federal, State, and Local governments.
  --supplies the total electric-power needs of about four million 
        people in the U.S., including over 7 percent of the electricity 
        in California, about 10 percent of the power in Northern 
        Nevada, and about 25 percent of the electricity for the Island 
        of Hawaii (the Big Island). Significant power is also provided 
        to Southwestern Utah.
  --employs some 30,000 U.S. workers;
  --displaces the emissions of 16 million tons of carbon dioxide, 20 
        thousand tons of sulfur dioxide, 41 thousand tons of nitrogen 
        oxides, and 1300 tons of particulate matter every year, 
        compared with production of the same amount of electricity from 
        a State-of-the-Art coal-fired plant;
  --has installed geothermal projects worth $3.0 billion overseas, 
        mostly in the Philippines and Indonesia;
    It is very important to note that none of this would have been 
possible without the dedicated and tenacious efforts of the Department 
of Energy's Geothermal R&D programs and the patient and continuing 
support of this Subcommittee. Geothermal developers are, almost 
entirely, financial people with little, internal, technology 
capability. The industry depends upon the wealth of geothermal 
technology and knowledge that has been developed at the national 
laboratories and at university institutes. Cost shared, government-
industry programs provide the necessary technical know-how to address 
each new geothermal challenge, and we do this better than teams in any 
other country.
    The American geothermal industry is centered in the Western States, 
right in the region which is most threatened by an electric generation 
and transmission shortfall. The industry, working with government 
technologists, has a great deal of near term generation potential. The 
geothermal industry, with appropriate government R&D support, can 
provide an additional 600 Megawatts of power in about 18 months. This 
power will come from:
  --Use of tertiary treated wastewater injection: 200 MW: Pioneering 
        efforts being accomplished in Lake County and with the city of 
        Santa Rosa, California, are taking thoroughly treated 
        wastewater and are injecting this water about 1000 meters down 
        into the earth. This depth is well below the water table, but 
        in the regions where very hot formations of volcanic rock occur 
        and water is lacking. The wastewater turns to steam and makes 
        its way back to the geothermal wells which are used for power 
        generation. An additional 200MW, using this technique, could be 
        obtained over the next 18 months to two years.
  --Implementation of new technologies into old plants, well field 
        upgrades, and turbine replacements: 400 MW: Many of the 
        geothermal generation units presently operating were put into 
        place in the late 1970's and early 1980's. Available 
        technology, today, can upgrade the efficiency and capacity of 
        these units so that, over the next 18 months to two years, an 
        additional 400MW of capacity could be obtained.
    In addition, direct use increases, through the GeoPowering the West 
initiative, can provide an additional 100MW of use for heating, 
cooling, industrial drying, agricultural applications, and recreational 
purposes in the near term.
    This is an additional 700MW of clean, renewable, geothermal energy 
available within two years with appropriate government funding and 
support, right in the heart of the western states that presently have 
the most critical power problems.
    Longer term potential.--The long term potential of Geothermal 
energy in the United States is estimated to be 25,000 MW of electrical 
generation and an additional 25,000 MW of direct use. To date, the 
geothermal industry has made use of only the highest grade geothermal 
resources in the U.S. The key to realizing the enormous potential of 
geothermal energy is improved technology to tap resources that can not, 
at present, be economically developed. Substantial investments in R&D 
by the geothermal industry, acting alone, are unlikely because the 
developers are uniformly financial entities, with small engineering 
components, which rely on the technology centered at national 
laboratories and university institutes for project development and 
engineering. The government investment is essential, with a history of 
providing an outstanding return to the taxpayer.
    Technology Needs.--Applied R&D is essential to reduce the technical 
and financial risks of new technology to a level that is acceptable to 
the private sector and its financial backers. The U.S. geothermal 
industry has conducted a series of workshops to determine the 
industry's needs for new technology and has recommended cost-shared R&D 
programs to DOE based on the highest-priority needs.
    The Geothermal Industry supports the Strategic Plan of the DOE 
Office of Geothermal Technology. The plan calls for increased spending, 
quickly reaching $50--$60 million per year, a geothermal budget level 
consistent with that recommended by the President's Committee of 
Advisors on Science and Technology (PCAST) in their 1997 report. 
Technical needs include:
  --Drilling.--Geothermal drilling differs dramatically from oil and 
        gas drilling since the necessary production holes are three 
        times as wide as oil and gas and they must be drilled through 
        hard, volcanic rock rather than sedimentary soils. Also, 
        because of the high temperatures and corrosive nature of 
        geothermal fluids, geothermal drilling is much more difficult 
        and expensive than conventional oil and gas drilling. Each well 
        costs $1 million to $3 million, and an average geothermal field 
        consists of 10 to 100 or more wells. The drilling technology 
        program continues to show cost-saving advancements.
  --Exploration and Reservoir Technology.--The major challenge facing 
        the industry in exploration and development of geothermal 
        resources is how to remotely detect producing zones deep in the 
        subsurface so that drill holes can be sited and steered to 
        intersect them. No two geothermal reservoirs are alike. Present 
        exploration techniques are not specific enough, and result in 
        too many dry wells, driving up development costs. The industry 
        needs better geological, geochemical, and geophysical 
        techniques, as well as improved computer methods for modeling 
        heat-extraction strategies from geothermal reservoirs.
  --Energy Conversion.--The efficiency in converting geothermal steam 
        into electricity in the power plant directly affects the cost 
        of power generation. During the past decade, the efficiency of 
        dry- and flash-steam geothermal power plants was improved by 25 
        percent. It is believed that geothermal power-plant efficiency 
        can be improved by an additional 10-20 percent over the next 
        decade with a modest investment in R&D.
  --Reclaimed Water Use for Geothermal Enhancement.--Many potential 
        geothermal resources are not utilized due to insufficient water 
        in the hot zones. Reclaimed water, which is an expensive 
        problem for many communities, could be used productively, in 
        many cases, to enhance the geothermal resources, making them 
        more economically viable for local use. In the US, 271 western 
        communities have a potentially useable geothermal resource 
        within 5 miles. The technology which will evolve from this 
        effort could be broadly applicable to these communities and 
        their combined energy and wastewater problems.
    GeoPowering the West.--This initiative, now in its second year, 
seeks to develop and implement those technologies needed to utilize 
geothermal resources in the 271 presently identified ``co-located'' 
communities in 17 Western States. These 17 Western States are exactly 
the area presently threatened by electric generation and transmission 
shortfalls. Studies now underway may increase the number of communities 
to over 350. The program is creating partnerships with the subject 
communities to utilize hot geothermal waters for direct use 
applications such as space conditioning, industrial drying, 
agricultural applications, and recreational purposes. Additionally, the 
program will provide technology needed to explore these resources for 
generation potential. First contracts, being issued under a competitive 
solicitation, are studying the feasibility of increased use of a number 
of these sites. Follow-on funding, for cost-shared development of these 
sites, is planned and requires the level of funding requested in this 
testimony, or $37 Million for fiscal year 2002.
    Mr. Chairman, the Geothermal program continues to be a uniquely 
successful effort integrating the traditionally, high-technology roles 
of national laboratories and university institutes with the financing 
and development capabilities of American industry. This program has 
worked the way it should and remains an investment of which the 
American people can be proud. It is reasonable, proper, and rewarding 
to fully fund this effort.
    Thank you very much for your time and attention to this matter.
                                 ______
                                 
                       superconductivity program
    Mr. Chairman and Members of the Subcommittee: My name is Bob 
Lawrence, and I am President of Bob Lawrence & Associates, Inc., a 
consulting firm headquartered in Alexandria, Virginia. Among other 
assignments, our firm carries out market studies addressing 
superconductivity technology and potential products for both the 
private sector and the US Government. Our recent report entitled: 
``High Temperature Superconductivity: The Products and Their 
Benefits,'' is based on 54 references and a wide ranging set of utility 
surveys. It is a heavily referenced document on the subject of 
Superconductivity. To summarize this 60 page document, it is indicated 
that Superconductivity technology has the potential to produce accrued 
public benefits of $1.086 Billion by 2010, $11.8 Billion by 2015, and 
$61.2 Billion by 2020 (page 40). In addition, the potential of this 
technology to reduce atmospheric pollution reaches annual savings of 
41.96 million metric tons of carbon equivalent, 0.487 million short 
tons of sulfur oxides, and 0.241 million short tons of nitrogen oxides 
by 2020. This program is a classic example of the kind of long term, 
high risk, high payoff technology that the government traditionally 
funds.
    I am here before you, today, to request that the Superconductivity 
program be funded, for fiscal year 2002 at $44M, a modest increase over 
the fiscal year 2001 amount and an amount well justified by the 
progress and promise of this program.
                               background
    Superconductivity is the property of a material to conduct 
unusually large quantities of electrical current with virtually no 
resistance. Since the middle of the century, researchers have known 
that certain ceramic materials show superconductive properties when 
they approach a temperature near absolute zero. Practical applications 
of these materials are difficult, however, since they are 
characteristically very costly to make, very brittle in nature, and 
prohibitively expensive to cool to the required temperature of liquid 
hydrogen or liquid helium.
    In 1986, a new class of ceramic materials was discovered which 
showed superconductive properties at temperatures up to 34K. Since that 
time, improvements have produced superconducting materials at the 
temperature of liquid nitrogen, or 72K. These ``high temperature'' 
superconductive materials have generated great excitement since the 
projected costs of applications have dropped by orders of magnitude, 
and first viable products appear to be within reach.
                              the program
    Today, a number of HTS-based pieces of electrical equipment are at 
the prototype stage with capable manufacturing entities intimately 
involved. Early candidates for commercial products include 
Transformers, Electric Motors, Generators, Fault Current Limiters, and 
underground Power Cables. Later in the commercialization process, 
replacements for overhead transmission lines are also foreseen; 
however, this will not be an early application. To enhance and 
accelerate the prospects for early commercialization of HTS products, 
the Department of Energy has developed a vertically integrated program 
in which product oriented teams are focused on the development and 
implementation of HTS equipment. Under the title of the 
Superconductivity Partnership Initiative (SPI), these vertically 
integrated teams typically each consist of an electric utility, a 
system manufacturer, an HTS wire supplier, and one or more national 
laboratories. Supporting these vertical teams is a Second Generation 
Wire Initiative, in which development teams are exploiting research 
breakthroughs at Los Alamos and Oak Ridge National labs that promise 
unprecedented current-carrying capabilities in high-temperature 
superconducting wires. Since superconducting wire is the main component 
of all superconducting cables, products and systems, the price drop 
projected by the Second Generation technology is highly significant and 
important to successful commercialization.
    Transformer development is being carried out by the team of 
Waukesha Electric Systems, Intermagnetics General Corporation, 
Rochester Gas and Electric, Rensselaer Polytechnic Institute, and the 
Oak Ridge National Laboratory. This team has conducted a series of 
reference designs concentrating mostly on a 30-MVA, 138-kV/13.8kV 
transformer which is representative of a class expected to capture 
about half of all U.S. power transformer sales in the next two decades. 
According to Mehta et al, Japan and Europe are somewhat ahead of the 
United States in transformer development.
    The United States HTS electric motor team is headed by Reliance 
Electric with American Superconductor Corp as the HTS coil supplier and 
manufacturer. Also on this team are Centerior Energy (a utility 
company) and Sandia National Laboratory. ``In February 1996, Reliance 
Electric successfully tested a four-pole, 1800 rpm synchronous motor 
using HTS windings operating at 27 deg.K at a continuous 150kW output. 
The coils . . . achieved currents of 100A. . . , 25 percent over the 
initial goal of 80 A.'' This program has now been extended to ``develop 
a pre-commercial prototype of a 3.7MW HTS motor''. The demonstration of 
this motor will be an important milestone in the commercialization 
process, since it will provide a measure of efficiency, reliability, 
and projected costs and benefits.
    Generator efforts in the United States, again, appear to be behind 
those in Japan. In Japan, funds expended on HTS design, development, 
and demonstration were $75M covering 1995 and 1996. This heavily funded 
effort involves 16 member organizations with representation from the 
electric utilities, manufacturers of electric power equipment, research 
organizations, manufacturers of HTS wire and tape, refrigeration and 
cryogenic suppliers, and independent research institutes.
    Fault Current Limiters represent a new class of electric utility 
equipment with many attractive properties. This type of equipment may, 
in fact, be a market leader, since its properties appear to provide 
substantial potential cost savings to electric utilities as well as 
containing power outages.
    Exciting developments have taken place in the field of underground 
HTS cables for transmission and distribution. In the United States, two 
teams are pursuing two different technical concepts, but each team is 
led by a powerhouse electrical cable manufacturer; Pirelli North 
America, and Southwire Co.
                              the benefits
    Dramatic cost and energy savings are projected when the candidate 
systems and products from superconducting technology are fully 
implemented, with incremental benefits accruing from the time of 
technology readiness and commercial introduction to the time of full 
market penetration. Generally speaking, one-half the present losses in 
electric generation, transmission, distribution, transforming, and 
using equipment can be saved by the implementation of superconducting 
technology. Since, in round numbers, 10 percent of the electricity 
generated today is lost between generation and use, and another 2 
percent is lost in use, Superconductivity has the potential of saving 
in excess of 6 percent of the total amount of electricity generated. 
Today, that would equate to approximately 225 billion kilowatt hours 
valued at $13.5 Billion. This would be a dramatic savings to Americans, 
especially compared to the small DOE program investment I am 
requesting.
    Thank you very much for your time and attention to this matter.
                                 ______
                                 

      Prepared Statement of the Steamship Association of Louisiana

    Mr. Chairman: I am President of the Steamship Association of 
Louisiana (SALA). Our Association represents ship owners, operators, 
and agents who handle the majority of the approximately 8,000 deep-
draft vessels in waterborne commerce that call Louisiana's deep-water 
ports each year. SALA is dedicated to the safe, efficient movement of 
maritime commerce through the state's deep-water ports. We endorse the 
testimony of Mr. Donald T. Bollinger, Chairman of the Governor's Task 
Force on Maritime Industry.
    Channel stabilization and maintenance dredging in Southwest Pass 
(SWP) are critical to keep project draft. Project draft ensures the 
Mississippi River's deep-water ports will continue to handle the 
country's foreign and domestic waterborne commerce in the most cost-
effective way possible.
    For years we have urged this Committee to provide funds to maintain 
project draft at SWP. You have responded, and your wisdom has 
benefitted the entire American heartland served by the Mississippi 
River system. SWP was greatly restricted throughout the 1970s. From 
1970 to 1975, the channel was at less than project draft 46 percent of 
the time. In 1973 and 1974, the channel was below the 40-foot project 
draft 70 percent of the time. During some periods, drafts were limited 
to 31 feet. Fortunately, those conditions have not recurred because of 
a combination of factors: Your help, and the constant vigilance of the 
Pilots, the Corps, and the maritime community. The years 1990 through 
2000 show a tremendous improvement in channel stability. The funding 
you provided was money well spent. The repairs to the jetties and 
dikes, and the Corps' ability to rapidly respond to shoaling, have been 
instrumental in maintaining project dimensions. However, the lack of 
available hopper dredges has, at times, jeopardized the stability of 
the channel.
    The Pilots have taken advantage of tidal flows and other factors to 
recommend the maximum draft possible consistent with safe navigation. 
This stability represents additional sales and increased 
competitiveness for U.S. products on the world market. Industry's 
partnership with you has kept Mississippi River ports competitive and 
attractive to vessels. Twelve inches to a large vessel with a loading 
capacity of 250 tons per inch is an additional 3,000 tons of cargo. As 
of this writing, freight rates for grain moving from the Mississippi 
River to the Far East are $22.65 per ton. Using this figure, each foot 
of draft represents an additional $67,950 in vessel revenue, or 
$339,750 for the five additional feet over the old 40-foot project 
draft.
    The funds we request for maintenance dredging and other works are 
essential for the Corps to maintain a reliable channel and respond 
rapidly to potential problems. This builds the confidence of the bulk 
trade in a reliable Mississippi River draft, which is critically 
important. Much of Louisiana's bulk trade is export agricultural 
products and coal and imports of petroleum products. These export 
commodities are neither captive to Louisiana nor the United States if 
they can be shipped from competing countries at a consistently lower 
cost.
    The deeper the channel, the more important channel stabilization 
becomes. Adequate channel stabilization work minimizes the maintenance 
cost of the deeper channel--a cost-effective investment. The faster the 
project is stabilized, the faster and greater the benefits of reduced 
O&M costs will be realized. Also, we recommend that the Corps conduct 
research on prototype dredging techniques.
    Funds are also needed for dustpan dredges to work the crossings 
above New Orleans. These crossings control the draft to the Ports of 
South Louisiana and Baton Rouge, which are home to eight of our ten 
major grain elevators, plus many mid-stream and other bulk cargo 
facilities. This area caters to the bulk trade and must have a stable 
channel depth consistent with the depth at SWP. Only two dustpan 
dredges in the world are available to maintain the deep-draft crossings 
between New Orleans and Baton Rouge. There are times when a high river 
is followed by a rapid drop in the river's stage. In such cases, the 
dustpan dredges may not be available, or both dredges may not be 
capable of restoring the 12 crossings within a reasonable time. When 
this happens, hopper dredges are used to assist in the work.
    For all of the above reasons, we request full funding for the 
mitigation features of the O&M General, 45-foot Mississippi River 
project.
    We also support Phase III of the Mississippi River channel 
deepening project and urge that the Corps be funded to proceed with 
design studies for the 55-foot channel, Baton Rouge to the Gulf of 
Mexico.
    The Mississippi River-Gulf Outlet (MR-GO) is also a viable channel 
for the state of Louisiana. The funds you provided in past fiscal years 
have allowed the Corps to improve the channel considerably. However, 
the channel width has remained limited primarily because of erosion. 
For safety reasons in this narrow channel, one-way traffic restrictions 
apply to vessels with a draft of 30 feet or more, causing delays to the 
tightly-scheduled container traffic using the MR-GO. These specialty 
vessels serving the Port's facilities are becoming larger. The highest 
wages under the International Longshoremen's Association's contract 
($25 per straight-time hour) is paid for work at the MR-GO container 
facilities. Anything that threatens the MR-GO jeopardizes these high-
paying jobs, which are held mostly by minority workers.
    To improve safety on the MR-GO and protect Louisiana's container 
trade (and the well-paying, minority employment it produces), we 
request that the Corps be funded to an increased capability for the MR-
GO in fiscal year 2002. This will allow annual maintenance dredging, 
north and south bank stabilization, and jetty maintenance, which is 
essential to provide the stability needed for vessel and port 
operations.
    The Corps is currently conducting a study that will determine the 
feasability of maintaining the MR-GO at a depth of 36 feet. This study 
has been requested due to the increase in costs of maintaining the 
channel and growing environmental concerns. While we urge that the 
Corps be funded in fiscal year 2002 to complete this study, this 
important and viable channel must not be closed to deep-draft traffic 
until construction of the new deep draft IHNC lock is complete. A deep-
draft lock should accommodate the needs of all business, except the 
Port's container facilities, that require deep-water access. In 
addition to the lock, 100 percent of the container traffic currently 
being handled by the Port of New Orleans must be re-located to the 
Mississippi River. Container vessels are extremely price and time 
conscious and will not utilize a lock. If the channel is closed prior 
to the container traffic being moved, the port will lose traffic that 
will be nearly impossible to recover.
    With facilities located on both the MR-GO and the Mississippi 
River, an adequate route between the two is essential for efficient 
transit between these facilities. The shortest route is the inadequate, 
antiquated Inner Harbor Navigation Canal (IHNC) Lock built in the 1920s 
with a width of 75 feet and limited depth of 30 feet. Its maximum 
capacity has long been exceeded. The average waiting time for passage 
through the Lock has increased from 8\1/2\ hours in 1985 to about 12 
hours at present; however, we understand that waiting time can be more 
than a day in some instances. A much larger ship lock is necessary to 
accommodate today's traffic.
    The replacement project for the IHNC Lock is important to the ports 
on the lower Mississippi River and to the nation's commerce since it is 
on the corridor for east/west barge traffic. Without full funding, the 
project will be delayed and increase the overall cost of the project. 
We urge Congress to provide the Corps' full fiscal year 2002 capability 
for this important project to insure its completion. Delays are 
unthinkable since the new lock is long overdue.
    The Port of Lake Charles, Louisiana, is served by the Calcasieu 
River, which is often below project depth and width. This is another of 
Louisiana's major deep-water ports that benefits the economy of the 
State and the nation. According to the Port's figures, the Port handled 
34.3 million tons of import cargo and 15.8 million tons of export 
cargo. Also in 1999, a total of 1,056 deep-draft vessels and 7,305 
barges utilized the Calcasieu River. The public and private facilities 
along this waterway provide thousands of jobs for the Lake Charles 
area. This channel, because of its project deficiencies, requires one-
way traffic for many ships, causing delays that disrupt cargo 
operations. This is costly and inefficient for industry. The Port 
area's growth and continued success depends on a reliable and safe 
channel that should be at full project. We request funding to the full 
capability of the Corps to maintain this channel at its project 
dimensions.
    The J. Bennett Johnston Waterway, Mississippi River to Shreveport, 
Louisiana, Project is directly related to our deep-water ports. The 
continuation and completion of this work will stimulate the economy all 
along the Red River Basin with jobs and additional international trade. 
This stimulated trade will service the Port of Shreveport and the ports 
on the lower Mississippi River, providing needed growth and benefitting 
the states of Louisiana, Texas, Oklahoma, and Arkansas, which are 
served through the Shreveport distribution center. Therefore, we 
strongly recommend that the Corps be funded to full capability for 
fiscal year 2002.
    Thank you for allowing the Association to submit testimony on the 
Corps' funding needs.
                                 ______
                                 

      Prepared Statement of the American Public Power Association

    The American Public Power Association (APPA) is the national 
service organization representing the interests of over 2,000 municipal 
and other state and locally owned utilities throughout the United 
States. Collectively, public power utilities deliver electric energy to 
one of every seven U.S. electric consumers (about 40 million people), 
serving some of the nation's largest cities. The majority of APPA's 
member systems are located in small and medium-sized communities in 
every state except Hawaii.
    We appreciate the opportunity to submit this testimony outlining 
our fiscal year 2002 appropriations priorities within your 
Subcommittee's jurisdiction.
                       renewable energy programs
    APPA believes it is important to continue development and 
commercialization of clean, renewable energy resources as we face 
increased competition in the electricity marketplace. Two of the most 
significant barriers to greater renewable energy use are cost and lack 
of demonstrated experience. Because of the requirement to supply 
electricity to customers on demand, with high reliability at a 
reasonable cost, electric utilities often are conservative when 
evaluating new technologies. Evolving deregulation, coupled with 
unstable fuel prices, now adds a further challenge to greater adoption 
of relatively unproved renewable technologies.
    APPA believes that investing in energy efficiency and renewable 
programs is critical and urge this Subcommittee to support adequate 
funding to ensure that renewable energy remains part of the full range 
of resource options available to our nation's electric utilities. APPA 
supports a minimum of $409 million for Solar and Renewable Resources 
Technologies in fiscal year 2002. This funding level will go a long way 
in furthering the call for significant expansion of renewable energy 
R&D programs in order to meet the energy challenges and opportunities 
of the 21st century.
          renewable energy production incentive program (repi)
    APPA urges this subcommittee's support of the Renewable Energy 
Production Incentive Program (REPI) at $25 million in fiscal year 2002. 
At this level of funding, 62 projects would be funded providing 685 
million kWh of electricity from renewable energy resources.
    Established by the Energy Policy Act of 1992, Section 1212 was 
intended to provide some level of benefit with EPAct programs for tax 
paying entities (sections 1914 & 1916, providing production and 
incentive tax credits for renewable energy projects). The law directed 
the Department of Energy to create a program providing one and half 
cents per kWh of electricity produced from solar, wind, certain 
geothermal and biomass electric projects. Because projects of this 
nature often require a long lead-time for planning and construction, it 
is imperative that stable and predictable funding be provided.
    As the only significant incentive available to locally owned, not-
for-profit electric utilities to make new investments in renewable 
energy projects, REPI represents public power's only opportunity to 
produce environmentally-friendly electricity to meet the nation's 
environmental and energy goals.
    A fully funded and reformed REPI program will help public power 
improve it's contribution to important renewable energy supply goals. 
Under a fully funded REPI program, 55.8 million metric tons of carbon 
equivalent (mmtce) could be reduced by developing existing landfills 
into gas-to-energy projects. A fully funded REPI would provide the 
needed incentive to spur development of other renewable energy 
projects.
    Even more critical, given today's situation, the nation faces an 
unprecedented energy shortage, requiring the need to bring additional 
sources of energy capacity online. Rising prices in gas and other fuels 
have resulted in higher consumer power rates and power shortages. The 
time is ripe to accelerate the development and use of sustainable 
energy resources which currently represent 2 percent of the nation's 
energy generation (2.8 percent of capacity).
    This subcommittee's support of full funding for REPI at $25 million 
will go a long way in fueling future renewable investments.
                  storage for high-level nuclear waste
    The Federal government's responsibility for deep geologic disposal 
of used nuclear fuel and the byproducts of defense-related activities 
is long established U.S. national policy. In 1982, the Nuclear Waster 
Policy Act established Federal policy for developing a repository for 
long-term stewardship of used nuclear fuel. In 1987, after 
environmental assessments were conducted of five sites, Congress 
focused the repository study on a single site at Yucca Mountain, 
Nevada. DOE is committed to providing a decision on a formal Yucca 
Mountain site recommendation to the president in 2001. Page 3 of 5 APPA
    Since 1982, American electricity consumers have committed $16.5 
billion to the Nuclear Waste Fund, specifically to finance the central 
Federal management of used nuclear fuel. Federal taxpayers have paid an 
additional $1.2 billion for disposal of waste from defense-related 
programs. The Nuclear Waste Fund has a balance of about $10 billion, 
all of which must be made available for repository construction and 
operation.
    APPA strongly supports the Department of Energy's fiscal year 2002 
funding request for the Civilian Radioactive Waste Management program. 
At this critical juncture, an increase in DOE's fiscal year 2001 
appropriation of $409 million is warranted to continue scientific study 
at Yucca Mountain. Electricity consumers this year will pay more than 
$700 million into the Nuclear Waste Fund.
                  advanced hydropower turbine program
    The Advanced Hydropower Turbine Program is a joint industry/
government cost-share effort to develop a new, improved hydroelectric 
turbine superior in its ability to protect fish and aquatic habitat and 
operate efficiently over a wide range of flow levels. We support 
funding this program at $5 million in fiscal year 2002
    During the next 15 years, 220 hydroelectric projects will seek new 
licenses from the Federal Energy Regulatory Commission (FERC). Publicly 
owned projects constitute 50 percent of the total capacity that will be 
up for renewal. Many of these projects were originally licensed over 50 
years ago. Newly imposed licensing conditions can cost hydro project 
owners 10 to 15 percent of power generation. A new, improved turbine 
could help assure any environmental conditions imposed at relicensing 
in the form of new conditioning, fish passages or reduced flows are not 
accomplished at the expense of energy production. This is particularly 
important due to the increasingly competitive electric market in which 
utilities operate today. Flow levels will affect the economics of each 
of these projects and many will be unable to compete if the current 
trend toward flow reductions continues.
             federal power marketing administrations (pmas)
    APPA urges the Committee to support adequate funding for purchase 
power and wheeling (PPW). APPA has consistently supported increased 
efficiency in PMA operations. However, Congress must recognize that 
Federal power sales revenues cover all PMA operating expenses plus all 
Corps of Engineers and Bureau of Reclamation operations, maintenance, 
replacement and rehabilitation expenses for hydropower and repayment of 
the Federal investment in the construction of the projects plus 
interest. Power sales also support many nonpower-related expenses 
associated with these projects.
              federal energy regulatory commission (ferc)
    APPA urges support of at least $175 million in fiscal year 2002 for 
the Federal Energy Regulatory Commission (FERC). Adequate funding for 
the agency is particularly necessary at this time in Page 4 of 5 APPA 
order to provide the resources needed to continue implementation of 
electric utility industry restructuring and to address major issues 
such as development of regional transmission groups.
    The FERC is charged with regulating certain interstate aspects of 
the natural gas, oil pipeline, hydropower, and electric industries. 
Such regulation includes issuing licenses and certificates for 
construction of facilities, approving rates, inspecting dams, 
implementing compliance and enforcement activities, and providing other 
services to regulated businesses. These businesses will pay fees and 
charges sufficient to recover the Government's full cost of operations.
                        climate change programs
    APPA advocates continued support for and funding of the Climate 
Change Technology Initiative in fiscal year 2002. The initiative 
consists of a package of tax incentives and investments in research and 
development to stimulate increased energy efficiency and to encourage 
greater use of renewable energy sources. APPA is an aggressive advocate 
of Federal support for energy research and development. While these 
programs do not directly provide benefits or incentives to public power 
systems, APPA supports them nevertheless because they will result in 
substantial improvements to the environment.
    U.S. DOE programs under the Climate Change Initiative include a mix 
of tax credits and Federal spending programs designed to increase 
efficiency and greater use of renewable energy resources. Important 
elements of the initiative include support for the deployment of clean 
technologies for buildings, transportation industry and electricity.
              navajo electrification demonstration program
    APPA calls on this Subcommittee to support full funding for the 
Navajo Electrification Demonstration Program at its $15 million 
authorized funding level for fiscal year 2002 and for each succeeding 
year.
    The Navajo Electrification Demonstration Program is a new program 
authorized in Public Law 106-511, Section 602. The purpose of the 
program is to provide electric power to the estimated 18,000 occupied 
structures on the Navajo Nation that lack electric power. The goal of 
the program is to ensure that every household on the Navajo Nation that 
requests electric power has access to a reliable and affordable source 
of electricity by the year 2006. Appropriations for the program are 
authorized at $15 million over each of the next five years beginning in 
fiscal year 2002, October 1, 2001.
    The Navajo Nation is served by the Navajo Tribal Utility Authority 
(NTUA), an APPA member. NTUA provides electric, natural gas, water, 
wastewater treatment, and photovoltaic services throughout the Navajo 
Indian Reservations in the states of Arizona, New Mexico, and Utah at 
the Four Corners.
    APPA believes the Navajo Electrification Demonstration Program will 
go a long way to improve the quality of life for the Navajo Nation.
                 national energy reliability initiative
    The nation's economic future is inextricably linked to the 
information revolution. Computer dependent and data-intensive end-users 
such as the Internet, telecommunications, and financial services 
industries, and modernized manufacturers require uninterruptible power 
supplies and high levels of power quality. It is estimated that power 
interruptions cost this nation's economy approximately $50 billion 
annually. The existing power infrastructure is challenged to provide 
the quality of power and high reliability that the information-based 
economy requires. APPA's membership believes that the Federal 
government has an important role to play in addressing these issues.
    APPA believes the time has come for a National Energy Reliability 
Initiative to be established. The solution requires the immediate 
implementation of a joint public/private research, development and 
deployment portfolio in technologies for fuel-diverse distributed 
energy resources, electricity transmission and distribution, end-use 
equipment improvements, natural gas infrastructure, advanced power 
controls and sensors, and energy storage. Advances in these areas will 
help information-based industries for the next few years, while 
providing the technology framework that will enable truly effective and 
efficient competitive energy markets.
    APPA, along with stakeholders in the high tech industry, seek the 
creation of a specific fiscal year 2002 line-item in the fiscal year 
2002 budget focused on the energy reliability needs of the high tech 
industry and urge this Subcommittee to support the program and provide 
adequate funding to assist in achieving its goals.
                                 ______
                                 

      Prepared Statement of the American Society for Microbiology

    The American Society for Microbiology (ASM), the largest single 
life science organization in the world, with more than 42,000 members, 
appreciates the opportunity to provide written testimony on the fiscal 
year 2002 budget for the Department of Energy (DOE).
    The ASM represents scientists working in academic, medical, 
governmental and industrial institutions worldwide. Microbiological 
research is focused on human health and the environment and is directly 
related to DOE programs involving microbial genomics, climate change, 
bioremediation and basic biological processes important to energy 
sciences.
    The ASM strongly supports the basic science programs of the DOE, 
which fund important fundamental discoveries that lead to developments 
in alternative fuels, improvements in the refinement process of fossil 
fuels, environmental remediation and reduction of wastes and pollution. 
These programs are critical for the United States to develop the 
science to respond to the challenges of global warming and to solve the 
nation's growing demand for reliable and environmentally safe energy.
    The DOE Office of Science (SC) provides the primary source of 
support for the physical sciences and is an essential partner in areas 
of biological and environmental science research as well as in 
mathematics, computing and engineering. The SC complements the 
scientific programs of the National Institutes of Health and the 
National Science Foundation and supports peer reviewed, basic research 
in DOE-relevant areas of science in universities and colleges across 
the United States, contributing enormously to the knowledge base and 
training of the next generation of scientists.
    ASM comments focus on research supported by the Biological and 
Environmental Research (BER) and Basic Energy Sciences (BES) programs 
and make recommendations on several programs that include microbiology 
research.
                           microbial genomics
    DOE is the lead agency supporting the genomic sequencing of non-
pathogenic microbes. Since these bacteria and fungi make up the vast 
majority of microbes on earth and power the planet's carbon and 
nitrogen cycles, clean up our wastes, make important transformations of 
energy, live in extreme conditions and are an important source of 
biotechnology products, the genome sequences of these microbes are 
extremely valuable for advancing our knowledge of the non-medical 
microbial world. ASM applauds DOE's leadership in recognizing this 
important need in science and endorses expansion of its microbial 
genome sequencing efforts, particularly in using DNA sequencing to 
learn more about the functions and roles of the 99 percent of the 
microbial world that cannot yet be grown in culture. DOE's role in this 
science frontier needs to be expanded.
                         microbial cell project
    During the last decade, scientists have determined the sequence of 
millions of DNA base pairs from the genomes, containing the complete 
genetic instructions, for a rapidly growing number of important 
microbes. As the number of sequenced microbes increases, and sequencing 
costs continue to decrease, scientists are faced with the important 
task of deciphering how the information in the DNA sequence determines 
cell function, in short, how a cell assembles functional pathways and 
systems from those genome-determined parts. Since microbial cells are 
the simplest cells, The Microbial Cell Project (MCP) represents a 
logical start to understand the meaning of genome sequences in a 
comprehensive and functional manner. MCP builds upon previous research 
sponsored by the DOE Office of Science, e.g. the Microbial Genome 
Program, itself a spin-off of the DOE Human Genome Program. The ASM 
applauds the bold vision of DOE in starting the MCP and notes that this 
represents the kind of interdisciplinary science that DOE has done 
successfully in the past, making use of advanced technologies, 
specialized facilities, teams of scientists, and computational power. 
The ASM also sees this program as the basis for an expanded effort to 
understand more broadly how genomic information can be used to 
understand life at the cellular level and urges Congress to fully 
support this exciting program.
                          basic energy science
    This program includes initiatives in both microbiological and plant 
sciences focused on harvesting and converting energy from sunlight into 
energy feedstocks such as cellulose and other products of 
photosynthesis, as well as how those chemicals may be further converted 
into energy rich molecules such as methane, hydrogen and ethanol. 
Alternative and renewable energy sources will remain of strategic 
importance in the nation's energy portfolio, and DOE is well positioned 
to advance basic research in this area. The advances in genomic 
technologies have given this research area a tremendous new resource 
for advancing the Agency's bioenergy goals.
                             bioremediation
    DOE's bioremediation research is largely supported through the 
Natural and Accelerated Bioremediation Program (NABIR). This is a well 
coordinated, comprehensive basic research program comprised of seven 
interrelated research elements. The quality of the research has been 
outstanding and is probably the best example of basic research advances 
on this challenging topic area supported by the Federal government. 
Many of the nation's pollution problems cannot be solved by simple, 
existing technologies, which is particularly true of DOE's metal and 
radionuclide contaminated sites. Hence, the basic research effort 
supported by NABIR is particularly appropriate for DOE. ASM notes that 
the funding of NABIR was reduced by 20 percent last year. ASM endorses 
the NABIR program and recommends that the funding be restored to the 
fiscal year 2000 level of $25 million.
                 new technologies and unique facilities
    New technologies and advanced instrumentation derived from DOE's 
expertise in the physical sciences and engineering have become 
increasingly valuable to biologists. The beam lines and other advanced 
technologies for determining molecular structures of cell components 
are at the heart of current advances to understand cell function and 
have practical applications for new drug design. DOE advances in high 
throughput, low cost DNA sequencing; protein mass spectrometry; cell 
imaging and computational analyses of biological molecules and 
processes are other unique contributions of DOE to the nation's 
biological research enterprise. Furthermore, DOE has unique field 
research facilities for environmental research important to 
understanding biogeochemical cycles, global change and cost-effective 
environmental restoration. In short, DOE's ability to conduct large-
scale science projects and draw on its unique capabilities in physics, 
computation and engineering is critical for future biological research.
    DOE's research programs play a major role in keeping the United 
States at the forefront of scientific discovery and competitive in the 
world marketplace. The ASM encourages Congress to maintain its 
commitment to the Department of Energy research programs to maintain 
the United States' leadership in science and technology.
                                 ______
                                 

   Prepared Statement of DOE University Research Program in Robotics 
                                 (URPR)

    The U.S. Department of Energy (DOE) has provided support to the DOE 
University Research Program in Robotics to pursue long range research 
leading to the:
    ``development and deployment of advanced robotic systems capable of 
reducing human exposure to hazardous environments, and of performing a 
broad spectrum of tasks more efficiently and effectively than utilizing 
humans.''
    The DOE University Research Program in Robotics (URPR) has proven 
highly effective in technology innovation, education, and DOE mission 
support. The URPR incorporates mission-oriented university research 
into DOE EM's Office of Science and Technology (OST) and, through close 
collaboration with the DOE national laboratories, provides an avenue 
for developing creative solutions to problems of vital importance to 
DOE.
    The URPR would like to thank the Committee members for their 
historically strong support of this successful program and is pleased 
that the URPR is reportedly embedded in the broad DOE EM-50 Budget 
Request for fiscal year. To ensure the continuation of this support, we 
respectfully request the Committee explicitly include language 
endorsing the DOE request.
Request for the Committee
    We request the Committee include language augmenting DOE's request 
of EM-50 research funds from $4M to $4.35M to support the University 
Research Program in Robotics (URPR) program in developing safer, less 
expensive, and more efficient robotic technology for environmental 
restoration and waste management.
          developing advanced robotics for doe and the nation
Develop robotic solutions for work in hazardous environments and 
        facilitate cleanup operations
    The goal of this program is to advance and utilize state-of-the-art 
robotic technology in order to remove humans from potentially hazardous 
environments and expedite remediation efforts now considered essential. 
Competitively established by DOE in fiscal yearsupport advanced nuclear 
reactor concepts, the project was moved to EM to support the higher 
priority needs in environmental restoration. The project has produced 
an impressive array of technological innovations which have been 
incorporated into robotic solutions being employed across Federal and 
commercial sectors. This successful program demonstrates efficient 
technology innovation while educating tomorrow's technologists, 
inventing our country's intelligent machine systems technology of the 
21st century, and meeting today's applied research needs for DOE.
               robotics: a strategic national technology
    According to economists, R&D funding is the most effective use of 
Federal funds to promote the nation's well-being. Indeed, technological 
innovation has been responsible for more than half of the GDP growth 
since WW II. And, as documented in previous testimonies, key national 
studies (by the Council on Competitiveness, DOD, and former OTA 
technology assessment reports) consistently list robotics and advanced 
manufacturing among the five most vital strategic technologies for 
Federal support. The national need for an investment in the development 
of intelligent machines which can interact with their environment has 
now been universally recognized and accepted.
Intelligent Machines: Grand Challenge for the New Millennium
    Significant advances in computing power, sensor development and 
platform architectures (e.g., unmanned airborne vehicles) have opened 
new opportunities in intelligent machine technology. The long-range 
implications of intelligent mobile machines which can assist humans to 
perform life tasks are clearly significant and represent one of 
technology's Grand Challenges for the new millennium. We can expect to 
see intelligent prosthetic devices, smart transport vehicles, and 
mobile devices capable of assisting or replacing the human, not only in 
potentially hazardous situations, but in daily life. Much as the 
computer has revolutioned life in the 20th century, intelligent mobile 
machines will revolutionize life in the 21st century and beyond.
          urpr: innovation, education, and doe mission support
    The URPR Paradigm The National Science Board (NSB) policy paper 
``The Federal Role in Science and Engineering Graduate and Postdoctoral 
Education'' reaffirmed the basic principle of a government-university 
partnership in graduate and postdoctoral education, but warned that the 
government ``tends to emphasize short-term research ``products'' and to 
de-emphasize benefits to graduate education.'' The ensuing 
recommendations in that paper argue for better integration of research 
and education, validating the paradigm of the URPR for providing DOE 
mission support.
URPR: Refining the Right Paradigm in 1902
    The URPR's strategic mission is to make significant advances in our 
nation's robotic and manufacturing technology base while emphasizing: 
education, technology innovation through basic R&D, and DOE mission 
support. Accomplishments in each of these areas for DOE are detailed 
below. Uniquely organized, the Consortium of Universities (Universities 
of Florida, Michigan, Tennessee, Texas, and New Mexico) are united as a 
powerful technology team advised by a Technical Advisory Committee of 
site users and directed by DOE field managers.
    The URPR has demonstrated the advantages of operating as a 
consortium are significant. The institutions of the URPR partitioned 
the technical development into manageable sections which allowed each 
university to concentrate within their area of expertise (efficiently 
maintaining world-class levels of excellence) while relying on their 
partners to supply supporting concentrations. With full cooperation of 
the host universities, this effort naturally generated the in-depth 
human and equipment capital required by the EM community. Practically, 
the long-term distributed interaction and planning among these 
universities in concert with the DOE labs and associated industry 
allows for effective technology development (with software and 
equipment compatibility and portability), for a vigorous and full 
response to application requirements (component technologies, system 
technologies, deployment issues, etc.), and for the supported 
application of the technology. Considering the remarkable achievements 
of URPR over its history, the URPR is in an ideal position to continue 
to execute its role in education, technology innovation, and DOE 
mission support.
Educating 21st Century Technologists
    The URPR has already educated approximately 500 advanced-degree 
students in the critical engineering fields, including many with earned 
doctoral degrees. These students have entered the work force, and are 
powering today's innovation economy, employing intelligent machines, 
advanced manufacturing technology, and related fields. Graduates from 
this project have built successful startup companies and made 
industrial technology transfers in computer vision and robotic 
technology (MI, TN) and medical imaging (MI), video databases (CA), and 
intelligent manufacturing (MI, FL, TX). We have seen an overwhelming 
demand for graduates educated through this project to fill the serious 
skills shortage in our country.
DOE Mission Contribution--Environmental Cleanup
    Since its inception, EM has recognized robotics as an essential 
technology to accomplish its mission. The motives for undertaking a 
comprehensive R&D effort in the application of advanced robotics to EM 
tasks in hazardous environments reflect both economic considerations, 
efficiency, and health and safety concerns. In particular, DOE/EM-0362 
``Accelerating Cleanup: Paths to Closure'' is the high-level plan to 
clean up and close down many facilities by year 2006 and has objectives 
that are being addressed by the URPR. While the national laboratory-
based robotics program primarily applies existing technology to current 
problems, the URPR is the only needs-driven research program to provide 
new remote systems technologies to support the EM thrust areas.
Over the past few years, the URPR projects successfully supported DOE 
        EM operations:
  --deployment and testing of SWAMI, an autonomous inspection robot for 
        Fernald stored waste drums,
  --design, construction and testing of a robot to precisely map large 
        DOE facilities, such as K-25 and K-27 in Oak Ridge, in 
        preparation for decontamination and decommissioning (D&D),
  --delivery of a robotic handling system for an automated chemical and 
        radiological analysis system to Los Alamos,
  --remote radiation imaging of the MSRE facility at ORNL prior to D&D.
  --design and implementation of a real-time controller for use at 
        Hanford in support of the tank waste retrieval project
During Fiscal Year 2001, the URPR projects have included:
  --a system to reduce the time between a site-defined need and a site-
        delivered implementation of the robotic hardware using 
        simulation followed by direct conversion to actual controllers 
        (UNM), demonstrated using the coordinated control of dual robot 
        arms in a workcell,
  --a portable radiation imager with high efficiency and wide energy 
        range for EM cleanup applications (UMI), demonstrated in both 
        low and high radiation environments,
  --sensors and navigation algorithms invented, built, and delivered 
        for D&D robots to permit semi-autonomous operation (UTN, UMI), 
        including the integration of a three-dimensional laser range 
        scanner capable of mapping large facilities,
  --a program for design, fabrication, and testing of intelligent 
        actuators for environmental robot systems (UTX). These 
        actuators are as central to robots as computer chips are to 
        computers.
  --a vision system to inspect and sort randomly placed objects for the 
        Mixed Waste Operations Focus Area for robotic singulation tasks 
        (UTN).
    As shown above, these efforts are directly linked to cleanup 
operations in the DOE complex. During fiscal year 2002, the URPR plans 
to continue its focussed efforts on DOE field cleanup technology needs, 
while maintaining our commitment to research and education.
Innovation--the seed of future technology
    The URPR has produced prodigious levels of innovation in research 
and development. While recent demonstrations reveal next-generation 
technologies, even more advanced capabilities are emerging from the 
laboratories. These include new types of locomotion, navigation 
techniques, sensing modalities (radiation cameras and laser imaging 
devices), environmentally hardened components, and dextrous dual-arm 
manipulators. These new machines will have an unparalleled man-machine 
interface and inherent intelligence, with the capability of being able 
to integrate many diverse sensors simultaneously. These devices will 
evolve and inspire the intelligent machines of the future, including 
smart automobiles, obstacle avoidance aids for the disabled, and 
advanced manufacturing cells assembled on demand.
This level of innovation can also be seen in the following statistics:
  --Approximately 20 patents awarded or pending.
  --Over 700 technical papers published in technical journals and 
        conferences.
  --The standard technical books for vision, radiation detection and 
        imaging, and mobile robots are authored by researchers 
        associated with this project. Faculty and senior scientists who 
        have contributed to this project are the internationally 
        renowned technologists of their fields.
  --A suite of world-class robots (including CARMEL, winner of the AAAI 
        Mobile Robot Competition; OmniPede, OmniMate, MOVERS, and ARM 
        modular manipulators) serve as the research testbeds for this 
        project.
                            program request
    During fiscal year 2001, the URPR provided vital contributions to 
education and research while meeting DOE technology needs. The 
motivation for this project remains steadfast--removing humans from 
hazardous environments while enhancing safety, reducing costs, and 
increasing cleanup task productivity. EM-50 has reportedly embedded $4M 
for the URPR for fiscal year 2002 in its broad request for focus area 
support. However, Committeee language is needed to explicitly identify 
this funding for the URPR and to augment this level to the fiscal year 
2001 level of $4.35M.
Request for the Committee
    To continue this vital program, we request that the Committee 
include the following language into the fiscal year 2002 Energy and 
Water Appropriations Bill:
    The Committee supports the DOE EM-50 request to continue the 
University Research Program in Robotics (URPR), at the fiscal year 2001 
level of $4.35M in fiscal year 2002.
                                 ______
                                 

       Prepared Statement of the Nuclear Waste Strategy Coalition

    Mr. Chairman, and distinguished members of the Subcommittee, the 
Nuclear Waste Strategy Coalition (NWSC) appreciates this opportunity to 
present written testimony in support of the Department of Energy's 
(DOE) fiscal year 2002 budget request of $445 million for the civilian 
nuclear waste disposal program. While the NWSC supports increasing the 
DOE's budget, the NWSC strongly OPPOSES the DOE's budget request of 
$900 thousand or any appropriations in its budget that supports the 
1998 Department of Justice (DOJ) litigation efforts involving the 
civilian radioactive waste management system. However, the NWSC 
RECOMMENDS the allocated amount be used for transportation related 
systems and infrastructure activity.
                             about the nwsc
    The NWSC is an ad hoc group of state utility regulators, state 
attorneys general, electric utilities and associate members 
representing 43 member organizations in 25 states. The NWSC was formed 
in 1993 out of frustration at the lack of progress by the DOE's Office 
of Civilian Radioactive Waste Management (OCRWM) to develop a permanent 
repository for high-level radioactive waste. The mission and purpose of 
the NWSC is to seek on behalf of the ratepayers of the United States:
  --The removal of commercial spent nuclear fuel from 72 temporary 
        storage sites located in 33 states.
  --The authorization of a temporary, centralized commercial spent 
        nuclear fuel storage facility.
  --The allocation of appropriate funds from the Nuclear Waste Fund 
        (NWF) by the U.S. Congress to the DOE so that it will fulfill 
        its statutory and contractual obligations.
  --The capping of the NWF payments at the present one-tenth of a cent 
        per kilowatt-hour by the U.S. Congress.
  --The approval of the Yucca Mountain Geologic Repository by the 
        President of the United States and the U.S. Congress with the 
        requirement that the repository will be operational by 2010.
  --The augmentation of existing Waste Isolation Pilot Plant (WIPP) 
        hazardous and nuclear materials transportation planning and 
        regulations to facilitate transportation systems.
                             budget request
    The DOE requests $445 million in its fiscal year 2002 budget for 
the civilian nuclear waste disposal program. The $445 million requested 
by the DOE is the minimum required and is barely adequate to keep its 
nuclear waste disposal program on track. The NWSC strongly urges 
members of Congress to appropriate the total funds collected into the 
Nuclear Waste Fund, and that the DOE be funded so that it stays on 
track with the permanent repository and transportation infrastructure 
to remove spent nuclear fuel from plant sites.
    The DOE cites in its budget request that the requested $445 million 
is essential to complete the scientific and technical reports obligated 
of the Secretary to determine the suitability of Yucca Mountain, 
present the site recommendation to the President in 2002 and complete 
the licensing application to the Nuclear Regulatory Commission (NRC) by 
2003. The budget further highlights transportation activities for the 
removal of waste from plant sites to include the development of legal 
and physical processes and management and integration systems that 
support program functions. The NWSC is concerned that the ratepayers 
who have contributed multiple billions of dollars into the NWF are 
seeing none of these funds directed to build the transportation-related 
systems and infrastructure necessary to ultimately remove the spent 
fuel from commercial reactor sites. The DOE's schedule not to begin the 
fabrication and deployment of transportation casks and waste acceptance 
capabilities until the end of the decade, as documented in the DOE's 
January 2001 response to the House Committee on Appropriations request, 
is unacceptable--these programs need to begin now. If Congress 
continues to reduce essential funds to complete this program, as it has 
done in the past, there will be further delays and excuses by the DOE 
not to fulfill its statutory and contractual obligations. Every delay 
increases the amount and cost of spent nuclear fuel stored at the plant 
sites.
               progress of the civilian disposal program
    The NWSC is encouraged by the timeline proposed in the DOE's fiscal 
year 2002 budget to maintain progress towards the civilian disposal 
program. It is indeed heartening news that the DOE will soon release 
the Science and Engineering Report requested by the Nuclear Waste 
Technical Review Board and a Preliminary Site Suitability Evaluation 
Report with hearings to be held in Nevada sometime this summer.
    On the other hand, the DOE and OCRWM have been evaluating 
alternatives to the design of the permanent repository and packaging 
for the removal of high-level nuclear waste from plant sites for 
eighteen years. Since 1983, the DOE and OCRWM have released several 
scientific and environmental studies on the progress at Yucca Mountain 
and yet, in 2001, we are still waiting to see actual progress. Progress 
reports are not what Americans have paid for. We have paid to have 
high-level radioactive waste removed from power plants beginning by 
January 31, 1998. We want sound science that evaluates the viability 
and suitability of Yucca Mountain. We also want the DOE to produce high 
quality work with a comprehensive framework that accommodates safety 
and bolsters confidence in the performance of Yucca Mountain as the 
permanent repository site. Hopefully, we will see actual performance in 
2001 towards the development of a permanent repository and not just 
progress reports.
                           nuclear waste fund
    The NWF collects annually more than $680 million from the nation's 
ratepayers. Americans have already paid more than $17 billion, 
including interest, to the NWF for nuclear waste disposal services we 
are not receiving. We continue to pay at the rate of $80,000 every hour 
of every day. Meanwhile, tons of high-level radioactive waste continues 
to accumulate at 73 sites in 33 states because of the DOE's failure to 
fulfill its statutory and contractual obligations with the nation's 
ratepayers to move this waste to a permanent repository. Because of 
continued missed deadlines by the DOE, an additional $40 billion to $80 
billion in costs could occur, paid from the Department of Treasury 
Judgment Fund and NOT from the Nuclear Waste Fund as the DOE has 
claimed. Clearly, it is time for Congress to hold the DOE accountable 
for its expenditures, especially its contract obligations, by expressly 
linking the $445 million requested by the DOE in its fiscal year 2002 
budget to an action plan that includes (1) a settlement with contract 
litigants and (2) until there is a permanent repository in the U.S., 
initiate immediately a pilot program to transport byproducts from 
plants threatened with shutdown or are already shutdown. It is time for 
Congress to appropriate, at a minimum, the $445 million requested by 
the DOE in its fiscal year 2002 budget so that the Department stays on 
track with the nuclear waste disposal program.
            lawsuits and funds for the department of justice
    The DOE has requested $900 thousand from the NWF to defend itself 
against 1998 lawsuits brought by various utilities seeking performance 
under the contract with the DOE. The NWSC vigorously OPPOSES any 
appropriations to the DOE in support of the 1998 Department of Justice 
litigation involving civilian radioactive waste management system. The 
NWSC RECOMMENDS that this $900 thousand be allocated instead to 
transportation related systems and infrastructure necessary to remove 
spent nuclear fuel from plant sites.
    It is almost 3 years since the DOE defaulted on its obligations, as 
stated in the Nuclear Waste Policy Act of 1982, to remove spent nuclear 
fuel from the nation's nuclear power plants. In its 1996 Indiana--
Michigan decision, the U.S. Court of Appeals affirmed that the DOE was 
obligated to start moving waste on January 31, 1998, ``without 
qualifications or condition.'' The DOE ignored the Court, prompting 46 
state agencies and 36 utilities to again seek relief from the Court. 
The DOE has meanwhile ignored repeated Court orders to begin moving 
waste from commercial nuclear plant sites on the grounds that it has 
yet to build a permanent repository and has no authority to provide an 
interim storage and transport high-level nuclear waste from plant 
sites.
                       rigorous safety standards
    The DOE has proven that it can safely transport spent nuclear fuel 
and high-level nuclear waste from plant sites across the nation. More 
than 3,000 shipments of spent nuclear fuel from nuclear power plants, 
government research facilities, universities and industrial facilities 
have crossed the United States, ``without a single death or injury due 
to the radioactive nature of the cargo.'' \1\ Shipments include 719 
containers from the Naval Nuclear Propulsion program between 1957 and 
1999, and 2,426 highway shipments and 301 railway shipments from the 
U.S. nuclear industry from 1964 to 1997. In addition, since 1996, 
shipments of spent nuclear fuel have been safely transported to the 
United States from 41 countries to the DOE facilities; \2\ again, 
without a single death or injury. Furthermore, the DOE has safely and 
successfully made more than 100 shipments to the WIPP in New Mexico 
since 1999.\3\ The Western Governors' Association (WGA) signed an 
agreement with the DOE in April 1996 that affirmed regional planning 
processes for safe transportation of radioactive waste. All regional 
high-level radioactive waste transportation committees also endorsed 
the WGA approach. The WIPP transportation planning system is setting 
the standard for safety and proving to be a critical step toward 
solving the nations spent nuclear waste disposal program. To ensure 
safety at on-site spent fuel storage facilities and during 
transportation, the material is stored in containers that meet the 
NRC's rigorous engineering and safety standards testing. To satisfy the 
NRC's rigorous standards for subsequent transportation approval, these 
containers have been dropped 30-feet onto an unyielding surface, 
dropped 40 inches onto a 6-inch vertical steel rod, exposed for 30 
minutes to a 1,475 deg.F fire, submerged under 3 feet of water for 
eight hours, immersed in 50 feet of water for at least eight hours 
(performed in a separate cask), and immersed in 656 feet of water for 
at least one hour.\4\
---------------------------------------------------------------------------
    \1\ National Conference of State Legislatures' Report, January 
2000.
    \2\ U.S. Department of Energy Report to the Committees on 
Appropriations, January 2001.
    \3\ U.S. Department of Energy Report to the Committees on 
Appropriations, January 2001.
    \4\ Nuclear Regulatory Commission Testing Requirements, 10 CFR 
Sections, 71.61, 71.71, and 71.73.
---------------------------------------------------------------------------
                protect nation's environment and energy
    Nuclear power comprises 20 percent of our nation's base-load 
electric generating capacity and is consistently emission-free when 
properly monitored. According to the International Atomic Energy 
Agency, U.S. commercial nuclear power plants prevent the emission of 
147 million metric tons of carbon dioxide and 2.5 million tons of 
nitrogen oxide into our nation's atmosphere per year; and by doing so, 
significantly reduces the global greenhouse effect and improves the air 
quality of this country. Nevada is unfortunately among the states that 
rely primarily on coal fuel for energy. These states struggle for 
solutions to the downwind effects of that energy's byproducts. 
Regardless of the merits of nuclear energy, nuclear byproduct 
management advocated by the NWSC is policy-neutral. That is, access to 
Federal storage and disposal facilities is required immediately whether 
nuclear power plants are closed, re-licensed or licensed in a Neo-
Nuclear Age.
                               conclusion
    The NWSC is an environmentally minded ad hoc group concerned about 
the nation's civilian nuclear waste disposal program. For the last 18 
years, those who want to derail commercial nuclear power in this 
country have used this program as a political tool. In fact, the 
Federal government's failure to deliver extends back several decades. 
The U.S. Congress and the Federal government need to immediately 
address the growing problem of high-level nuclear waste that now 
exists. We can no longer pretend that stranded waste at plant sites 
does not exist and is without economic consequence to the nation. We 
can no longer pretend that the problem is going away. The NWSC strongly 
urges the U.S. Congress to release, as a minimum, the $445 million 
requested by the DOE to bring the nuclear waste disposal program to 
fruition as promised and mandated by the Nuclear Waste Policy Act of 
1982. The NWSC also urges Congress to deny the DOE's request for any 
funds from the NWF requested in support for the 1998 Department of 
Justice litigation involving civilian waste management system. The DOJ 
expenses incurred in the DOE's breach of contract with the utilities 
should be paid by the nation's taxpayers and not by the nation's 
electric ratepayers who are already paying for the disposal of high-
level radioactive waste.
                                 ______
                                 

          Prepared Statement of the American Chemical Society

    The American Chemical Society (ACS) would like to thank Chairman 
Pete Domenici and Senator Harry Reid for the opportunity to submit 
testimony for the record on the Energy and Water Development 
Appropriations bill for fiscal year 2002.
    As you may know, ACS is a non-profit scientific and educational 
organization, chartered by Congress, representing more than 163,000 
individual chemical scientists and engineers. The world's largest 
scientific society, ACS advances the chemical enterprise, increases 
public understanding of chemistry, and brings its expertise to bear on 
state and national matters.
    We firmly believe that advances in science and engineering have 
produced more than half of our nation's economic growth in the last 50 
years. They remain the most important factor in the productivity 
increases responsible for our growing economy and rising standard of 
living, economists agree. Each field of science contributes to our 
diversity of strengths and capabilities and has given us the 
flexibility to explore new fields and apply science in unexpected ways. 
Over the last 25 years, funding for biomedical research has increased 
while Federal support for most other disciplines has remained flat or 
declined. Congress took an important step in the right direction last 
year when it increased funding for scientific research for fiscal year 
2001. To nourish the roots of innovation in all fields and help ensure 
the success of growing investments in biomedicine, balance must be 
restored to the nation's R&D portfolio while supporting overall growth 
in the nation's science and technology budget. This should be a top 
priority for Congress and the administration as fiscal year 2002 
appropriations are considered.
                       doe budget recommendations
    The Department of Energy's Office of Science is the nation's 
largest supporter of research in the physical sciences and is 
responsible for managing major scientific facilities. To meet the 
challenges of the nation's 21st century energy needs, ACS strongly 
supports funding the Office of Science in fiscal year 2002 at $3.62 
billion, a 15 percent increase.
    The Office of Science's fiscal year 2001 budget was a step toward 
reversing ten years of declining funding (in constant dollars) that 
eroded research capabilities and adversely impacted DOE-managed 
facilities used by the scientific community. A strong fiscal year 2002 
budget will enable the Office of Science to support additional peer-
reviewed research, better maintain and operate scientific facilities, 
and participate more fully in cutting-edge multi-disciplinary research 
such as nanotechnology and advanced scientific computing.
    To ensure value for research dollars and excellence in performance, 
the Office of Science depends on rigorous peer reviews and on 
scientific advisory committees. These committees regularly provide 
recommendations on program content, scientific quality, future 
directions, research priorities, and proposed scientific user 
facilities. This overall approach is recognized by many in the 
scientific community to be among the best and most thorough processes 
in the field of public research.
    Currently, DOE must decline many highly rated grant proposals. 
These are lost opportunities for significant discoveries. Increases in 
core, peer-reviewed research are essential to provide clean and 
affordable power, advance energy efficiency and renewable energy, and 
improve energy production. Within the Office of Science, ACS is 
particularly supportive of the Basic Energy Sciences (BES) and 
Biological and Environmental Research (BER) programs.
    The Basic Energy Sciences (BES) program funds an array of long-term 
basic research to improve energy production and use and environmental 
progress. BES research, for example, has fostered improvements in 
battery storage, superconducting materials, and the understanding of 
combustion at a fundamental level.
    The Biological and Environmental Research (BER) program advances 
fundamental understanding in fields such as waste processing, 
bioremediation, and atmospheric chemistry to better understand 
potential long-term health and environmental effects of energy 
production and use and identify opportunities to prevent pollution.
    Progress in these fields is also needed to develop and advance new, 
effective, and efficient processes for the remediation and restoration 
of weapons production sites. The program advances understanding of the 
basic chemical, physical, and biological processes of the Earth's 
atmosphere, land, and oceans, and how energy production and use may 
affect these processes. Such research includes critical efforts to 
capture, measure, and reduce carbon dioxide and other greenhouse gases 
and the consequences of global climate change. ACS supports a strong 
role for BER in Federal efforts to understand and address global 
climate change.
    Each year, over 15,000 scientists and students from academia, 
industry and government--many funded by agencies other than DOE--
conduct cutting-edge experiments at the national laboratories and user 
facilities DOE manages. These experiments are vital to advances in 
nearly every scientific discipline. With demand for these world-class 
facilities intensifying, additional funding would allow more operating 
time, upgrades, instrumentation, and technical support. More complete 
utilization of DOE's facilities would increase the return on investment 
made in their construction and maximize their scientific contributions 
and educational value. Additional funding for DOE user facilities 
should not come at the expense of individual investigator grants.
    ACS also supports DOE's ``Industries of the Future'' program within 
the Office of Industrial Technologies (OIT). The program advances 
innovative technologies through cooperative R&D with the nation's most 
energy-intensive industries, including the chemical industry. OIT works 
with these industries to develop both a long-range vision of their 
future competitiveness and a technology roadmap to identify the R&D and 
other investments needed to achieve that vision.
                                 ______
                                 

      Prepared Statement of the American Public Power Association

    The American Public Power Association (APPA) is the national 
service organization representing the interests of over 2,000 municipal 
and other state and locally owned utilities throughout the United 
States. Collectively, public power utilities deliver electric energy to 
one of every seven U.S. electric consumers (about 40 million people), 
serving some of the nation's largest cities. The majority of APPA's 
member systems are located in small and medium-sized communities in 
every state except Hawaii.
    We appreciate the opportunity to submit this testimony outlining 
our fiscal year 2002 appropriations priorities within your 
Subcommittee's jurisdiction.
                       renewable energy programs
    APPA believes it is important to continue development and 
commercialization of clean, renewable energy resources as we face 
increased competition in the electricity marketplace. Two of the most 
significant barriers to greater renewable energy use are cost and lack 
of demonstrated experience. Because of the requirement to supply 
electricity to customers on demand, with high reliability at a 
reasonable cost, electric utilities often are conservative when 
evaluating new technologies. Evolving deregulation, coupled with 
unstable fuel prices, now adds a further challenge to greater adoption 
of relatively unproved renewable technologies.
    APPA believes that investing in energy efficiency and renewable 
programs is critical and urge this Subcommittee to support adequate 
funding to ensure that renewable energy remains part of the full range 
of resource options available to our nation's electric utilities. APPA 
supports a minimum of $409 million for Solar and Renewable Resources 
Technologies in fiscal year 2002. This funding level will go a long way 
in furthering the call for significant expansion of renewable energy 
R&D programs in order to meet the energy challenges and opportunities 
of the 21st century.
          renewable energy production incentive program (repi)
    APPA urges this subcommittee's support of the Renewable Energy 
Production Incentive Program (REPI) at $25 million in fiscal year 2002. 
At this level of funding, 62 projects would be funded providing 685 
million kWh of electricity from renewable energy resources.
    Established by the Energy Policy Act of 1992, Section 1212 was 
intended to provide some level of benefit with EPAct programs for tax 
paying entities (sections 1914 & 1916, providing production and 
incentive tax credits for renewable energy projects). The law directed 
the Department of Energy to create a program providing one and half 
cents per kWh of electricity produced from solar, wind, certain 
geothermal and biomass electric projects. Because projects of this 
nature often require a long lead-time for planning and construction, it 
is imperative that stable and predictable funding be provided.
    As the only significant incentive available to locally owned, not-
for-profit electric utilities to make new investments in renewable 
energy projects, REPI represents public power's only opportunity to 
produce environmentally-friendly electricity to meet the nation's 
environmental and energy goals.
    A fully funded and reformed REPI program will help public power 
improve it's contribution to important renewable energy supply goals. 
Under a fully funded REPI program, 55.8 million metric tons of carbon 
equivalent (mmtce) could be reduced by developing existing landfills 
into gas-to-energy projects. A fully funded REPI would provide the 
needed incentive to spur development of other renewable energy 
projects.
    Even more critical, given today's situation, the nation faces an 
unprecedented energy shortage, requiring the need to bring additional 
sources of energy capacity online. Rising prices in gas and other fuels 
have resulted in higher consumer power rates and power shortages. The 
time is ripe to accelerate the development and use of sustainable 
energy resources which currently represent 2 percent of the nation's 
energy generation (2.8 percent of capacity).
    This subcommittee's support of full funding for REPI at $25 million 
will go a long way in fueling future renewable investments.
                  storage for high-level nuclear waste
    The Federal government's responsibility for deep geologic disposal 
of used nuclear fuel and the byproducts of defense-related activities 
is long established U.S. national policy. In 1982, the Nuclear Waster 
Policy Act established Federal policy for developing a repository for 
long-term stewardship of used nuclear fuel. In 1987, after 
environmental assessments were conducted of five sites, Congress 
focused the repository study on a single site at Yucca Mountain, 
Nevada. DOE is committed to providing a decision on a formal Yucca 
Mountain site recommendation to the president in 2001.
    Since 1982, American electricity consumers have committed $16.5 
billion to the Nuclear Waste Fund, specifically to finance the central 
Federal management of used nuclear fuel. Federal taxpayers have paid an 
additional $1.2 billion for disposal of waste from defense-related 
programs. The Nuclear Waste Fund has a balance of about $10 billion, 
all of which must be made available for repository construction and 
operation.
    APPA strongly supports the Department of Energy's fiscal year 2002 
funding request for the Civilian Radioactive Waste Management program. 
At this critical juncture, an increase in DOE's fiscal year 2001 
appropriation of $409 million is warranted to continue scientific study 
at Yucca Mountain. Electricity consumers this year will pay more than 
$700 million into the Nuclear Waste Fund.
                  advanced hydropower turbine program
    The Advanced Hydropower Turbine Program is a joint industry/
government cost-share effort to develop a new, improved hydroelectric 
turbine superior in its ability to protect fish and aquatic habitat and 
operate efficiently over a wide range of flow levels. We support 
funding this program at $5 million in fiscal year 2002
    During the next 15 years, 220 hydroelectric projects will seek new 
licenses from the Federal Energy Regulatory Commission (FERC). Publicly 
owned projects constitute 50 percent of the total capacity that will be 
up for renewal. Many of these projects were originally licensed over 50 
years ago. Newly imposed licensing conditions can cost hydro project 
owners 10 to 15 percent of power generation. A new, improved turbine 
could help assure any environmental conditions imposed at relicensing 
in the form of new conditioning, fish passages or reduced flows are not 
accomplished at the expense of energy production. This is particularly 
important due to the increasingly competitive electric market in which 
utilities operate today. Flow levels will affect the economics of each 
of these projects and many will be unable to compete if the current 
trend toward flow reductions continues.
             federal power marketing administrations (pmas)
    APPA urges the Committee to support adequate funding for purchase 
power and wheeling (PPW). APPA has consistently supported increased 
efficiency in PMA operations. However, Congress must recognize that 
Federal power sales revenues cover all PMA operating expenses plus all 
Corps of Engineers and Bureau of Reclamation operations, maintenance, 
replacement and rehabilitation expenses for hydropower and repayment of 
the Federal investment in the construction of the projects plus 
interest. Power sales also support many nonpower-related expenses 
associated with these projects.
              federal energy regulatory commission (ferc)
    APPA urges support of at least $175 million in fiscal year 2002 for 
the Federal Energy Regulatory Commission (FERC). Adequate funding for 
the agency is particularly necessary at this time in Page 4 of 5 APPA 
order to provide the resources needed to continue implementation of 
electric utility industry restructuring and to address major issues 
such as development of regional transmission groups.
    The FERC is charged with regulating certain interstate aspects of 
the natural gas, oil pipeline, hydropower, and electric industries. 
Such regulation includes issuing licenses and certificates for 
construction of facilities, approving rates, inspecting dams, 
implementing compliance and enforcement activities, and providing other 
services to regulated businesses. These businesses will pay fees and 
charges sufficient to recover the Government's full cost of operations.
                        climate change programs
    APPA advocates continued support for and funding of the Climate 
Change Technology Initiative in fiscal year 2002. The initiative 
consists of a package of tax incentives and investments in research and 
development to stimulate increased energy efficiency and to encourage 
greater use of renewable energy sources. APPA is an aggressive advocate 
of Federal support for energy research and development. While these 
programs do not directly provide benefits or incentives to public power 
systems, APPA supports them nevertheless because they will result in 
substantial improvements to the environment.
    U.S. DOE programs under the Climate Change Initiative include a mix 
of tax credits and Federal spending programs designed to increase 
efficiency and greater use of renewable energy resources. Important 
elements of the initiative include support for the deployment of clean 
technologies for buildings, transportation industry and electricity.
              navajo electrification demonstration program
    APPA calls on this Subcommittee to support full funding for the 
Navajo Electrification Demonstration Program at its $15 million 
authorized funding level for fiscal year 2002 and for each succeeding 
year.
    The Navajo Electrification Demonstration Program is a new program 
authorized in Public Law 106-511, Section 602. The purpose of the 
program is to provide electric power to the estimated 18,000 occupied 
structures on the Navajo Nation that lack electric power. The goal of 
the program is to ensure that every household on the Navajo Nation that 
requests electric power has access to a reliable and affordable source 
of electricity by the year 2006. Appropriations for the program are 
authorized at $15 million over each of the next five years beginning in 
fiscal year 2002, October 1, 2001.
    The Navajo Nation is served by the Navajo Tribal Utility Authority 
(NTUA), an APPA member. NTUA provides electric, natural gas, water, 
wastewater treatment, and photovoltaic services throughout the Navajo 
Indian Reservations in the states of Arizona, New Mexico, and Utah at 
the Four Corners.
    APPA believes the Navajo Electrification Demonstration Program will 
go a long way to improve the quality of life for the Navajo Nation.
                 national energy reliability initiative
    The nation's economic future is inextricably linked to the 
information revolution. Computer dependent and data-intensive end-users 
such as the Internet, telecommunications, and financial services 
industries, and modernized manufacturers require uninterruptible power 
supplies and high levels of power quality. It is estimated that power 
interruptions cost this nation's economy approximately $50 billion 
annually. The existing power infrastructure is challenged to provide 
the quality of power and high reliability that the information-based 
economy requires. APPA's membership believes that the Federal 
government has an important role to play in addressing these issues.
    APPA believes the time has come for a National Energy Reliability 
Initiative to be established. The solution requires the immediate 
implementation of a joint public/private research, development and 
deployment portfolio in technologies for fuel-diverse distributed 
energy resources, electricity transmission and distribution, end-use 
equipment improvements, natural gas infrastructure, advanced power 
controls and sensors, and energy storage. Advances in these areas will 
help information-based industries for the next few years, while 
providing the technology framework that will enable truly effective and 
efficient competitive energy markets.
    APPA, along with stakeholders in the high tech industry, seek the 
creation of a specific fiscal year 2002 line-item in the fiscal year 
2002 budget focused on the energy reliability needs of the high tech 
industry and urge this Subcommittee to support the program and provide 
adequate funding to assist in achieving its goals.
    Clean Coal Power Initiative.--APPA strongly urges the Subcommittee 
to support the Administration's request of $150 million in fiscal year 
2002 to fund joint government/industry-funded research, development and 
demonstration of new technologies to enhance the reliability and 
environmental performance of coal-fired power generators. The CCPI will 
also develop the technological foundation for the next generation of 
even cleaner, more efficient technologies for both new power plants and 
for modernizing older ones.
                                 ______
                                 

     Prepared Statement of the Coalition of Northeastern Governors

    The Coalition of Northeastern Governors (CONEG) is pleased to 
provide testimony for the record to the Senate Appropriations 
Subcommittee on Energy and Water Development as it considers fiscal 
year 2002 funding for the Office of Energy Efficiency and Renewable 
Energy (EERE) of the U.S. Department of Energy (DOE). Adequate funding 
for EERE is a vital component in the nation's ability to secure a 
diverse, balanced and reliable energy portfolio. Within this 
appropriation, the CONEG Governors specifically support an increase in 
funding for the Regional Biomass Energy Program (RBEP)--an important 
partner in DOE's multi-faceted initiatives to encourage a diverse 
energy resource mix and energy efficiency across the nation. 
Congressional support for an fiscal year 2002 funding level of $5.5 
million for the RBEP within the EERE biomass program budget will allow 
this Federal-state-private sector initiative to continue the pioneering 
regional projects and informational and technical assistance networks 
which help bring bioenergy into regional energy markets across the 
nation.
    Recent increases in the price of energy have placed a new emphasis 
on the need for alternative and domestic energy production. Bioenergy, 
which is both renewable and sustainable, includes forestry and 
agricultural crops and residues; wood and food processing wastes; and 
municipal solid waste. Today, ethanol and electricity generation from 
biomass feedstocks contribute three percent of the nation's energy 
consumption. Biomass resources and technology offer additional 
potential as the nation seeks to secure additional domestic energy 
production from diverse energy resources.
    Biomass is particularly important to the Northeastern United 
States--a region heavily dependent on imported energy. Today, bioenergy 
produced from the region's forest and agricultural resources 
contributes approximately five percent of the region's energy 
consumption. Increased use of these indigenous energy resources for 
electricity production and fuels offers the potential to diversify the 
region's energy resource mix, generate jobs, and achieve important 
environmental objectives.
    The RBEP, a U.S. DOE supported program which encompasses all 50 
states in five regional programs, is an important tool in the nation's 
effort to realize the opportunities which bioenergy offers for energy 
production, economic development and sound environmental management. 
The regional programs are unique in tailoring their services to the 
specific biomass resources and unique energy market opportunities of 
each region. These services include regional projects and information 
and technical assistance networks which help identify opportunities for 
bioenergy resources and technology, and mitigate institutional and 
market barriers to the development and deployment of bioenergy 
technologies. To accomplish these goals, the RBEP and its state 
partners have established partnerships with industry, fostered intra-
state coordination, and established a reputation for providing 
objective and reliable information to Federal and state officials and 
the public sector.
    From Maine to Maryland, the Northeast Regional Biomass Program 
(NRBP) makes possible state working groups which promote state policies 
supportive of bioenergy. It provides critical informational networks 
which share policy, technical and market information about bioenergy 
among the states and with the energy industry and the Federal 
government; and encourages public and private sector cooperation in 
undertaking demonstrations of bioenergy technologies. The NRBP 
activities encompass a wide range of biomass resources and 
technologies--from promoting experimental trials of energy crops such 
as willow and switch grass; demonstrating leading edge technologies 
such as fuel cells powered by biomass fuels; regional analysis of 
residues and wastes suitable for energy production; and facilitating 
the understanding of the role of bioenergy production in rural 
economies.
    Recent RBEP funding has fallen to just over $2 million. This 
decrease has resulted in a significant reduction in funding to states 
and the elimination of regional projects. By restoring funding to $5.5 
million, regional studies that support state and national activities 
can continue; and states can continue to support critical public-
private sector bioenergy networks which transfer information and 
coordinate activities within a state, throughout the region and 
throughout the nation.
    We thank the Subcommittee for this opportunity to share the views 
of the Coalition of Northeastern Governors, and we stand ready to 
provide you with any additional information on the importance of the 
Regional Biomass Energy Program and the Northeast Regional Biomass 
Program to the Northeast and the rest of the nation.
                                 ______
                                 

               Prepared Statement of the City of Gridley

    Mr. Chairman, Members of the Subcommittee, my name is Thomas 
Sanford, Energy Commissioner of the City of Gridley. I appreciate the 
opportunity to submit this testimony on behalf of the City and rice 
growers in Northern California who provide 20 percent of the nation's 
total rice production. We submit the following testimony in support of 
our request that an additional $5,000,000 (above the President's 
request) be earmarked in the fiscal year 2002 Energy and Water 
Development Appropriations bill, under the Department of Energy, Solar 
and Renewable Energy, Biomass/Biofuels, for the Gridley Rice Straw 
Project. These federal funds will be used to complete feasibility, 
permitting and environmental assessment efforts, and initiate 
construction of facilities to implement technologies and processes for 
cost-effective rice straw removal and utilization in the production of 
ethanol, silica and electric power.
                               background
    The City of Gridley has spearheaded development of technologies and 
processes for cost-effective rice straw removal and utilization in the 
production of ethanol. Gridley is in the heart of Sacramento Valley 
rice growing region in Northern California. Thousands of jobs and more 
than $500 million of the Sacramento Valley's economy are directly 
dependent on the rice industry. Clean air mandates have required 
exploration of alternative methods of clearing and disposing rice 
straw. Without alternatives to open field burning, rice acreage would 
likely diminish, with adverse economic consequences. This key component 
of the Gridley Rice Straw Project, rice straw disposal, will assist the 
State of California in meeting air quality objectives, help maintain 
cost-effective operations in the rice industry, and create hundreds of 
direct and indirect jobs in Northern California communities. This is 
particularly important to communities facing double-digit unemployment 
and significant seasonal reductions in agriculture-related jobs.
          rice straw conversion to ethanol and electric power
    The Gridley Rice Straw Project (Project) has made great strides 
towards an efficient process of gathering, processing and converting 
rice straw into ethanol. The present design capacity of the Project 
will be a minimum of 365,000 bone dry tons (BDT) of rice straw 
annually--approximately 40 percent of the reasonably available 
feedstock in the Sacramento Valley. The present Project design is 
expandable, and could handle up to 700,000 BDT of rice straw. 
Application of new technology for economical separation of silica and 
favorable transportation costs are key factors in increasing the 
Project's consumption of rice straw and overall efficiency. Production 
of up to 43,000 BDT of marketable silica will add significantly to the 
project's overall output/revenue generation.
    In addition to producing 15.5-26 million gallons of ethanol 
annually, the Project can convert rice straw to lignin, a high energy 
content boiler fuel. The project's net electric generation capacity is 
currently estimated to be 11-20 megawatts, depending on the project's 
configuration.
    The processes and technology at the foundation of the Gridley Rice 
Straw Project can also utilize other renewable biomass feedstocks for 
the production of ethanol; including the byproducts of corn harvest, 
and even municipal greenways (grass clippings).
         project timing, cost and prior federal appropriations
    Environmental assessment and permitting work is expected to be 
completed in 2001, with construction scheduled for 2002. The Project 
will be operational in 2003, at a total capital cost of $80-$104 
million, depending on the final plant configuration. Between fiscal 
year 1995 and fiscal year 2000, the Project has received $12.15 million 
in federal support under the Department of Energy, Solar and Renewable 
Energy, Biomass/Biofuels.
                               conclusion
    This project to collect, transport and process rice straw, 
eliminate open-field burning, and implement new technologies for 
ethanol, silica and electric energy production represents the best 
efforts of local communities working with state and federal agencies to 
implement state-of-the-art biomass to biofuel conversion and 
electricity production. Once established, this technology can be 
utilized in other California communities, and across the country--
providing cost efficient renewable energy.
    We strongly urge and respectfully request your support for 
$5,000,000 in addition to the President's budget request for the 
Gridley Rice Straw Project, to implement technologies and processes for 
cost-effective rice straw removal and utilization in the production of 
ethanol, silica and electric power.
                                 ______
                                 

   Prepared Statement of the University Corporation for Atmospheric 
                                Research

    On behalf of the University Corporation for Atmospheric Research 
(UCAR) and the university community involved in weather and climate 
research and related education, training and support activities, I 
submit this written testimony for the record of the Senate Committee on 
Appropriations, Subcommittee on Energy and Water Development.
    UCAR is a 66 university membership consortium that manages and 
operates the National Center for Atmospheric Research (NCAR) and 
additional programs that support and extend the country's scientific 
research and education capabilities. The UCAR mission is to support, 
enhance, and extend the capabilities of the university community, 
nationally and internationally; to understand the behavior of the 
atmosphere and related systems and the global environment; and to 
foster the transfer of knowledge and technology for the betterment of 
life on earth. In addition to its member universities, UCAR has formal 
relationships with approximately 100 additional undergraduate and 
graduate schools including several historically black and minority-
serving institutions and 38 international universities and 
laboratories. UCAR is supported by the National Science Foundation 
(NSF) and other federal agencies including the Department of Energy 
(DOE).
    The President's Blueprint budget stated that ``DOE intends to 
achieve significant savings in 2002 from restructuring and reevaluating 
the performance of major projects . . . including . . . science 
projects . . .'', and the detailed DOE proposed budget includes only a 
0.1 percent increase for the Office of Science. While constructive 
assessment of continuing programs is desirable, I urge the Committee to 
examine carefully any ``significant savings'' coming from DOE's science 
programs to ensure that programs contributing to the nation's 
scientific and technological preeminence and world economic leadership 
are not compromised.
    I would like to comment on the following programs within the DOE 
Office of Science that are of particular importance to the work of the 
atmospheric sciences community:
              biological and environmental research (ber)
    The environmental component of BER is of great importance to the 
welfare of the country since its programs improve our understanding of 
the Earth's radiative energy balance, improve predictions of climate 
change induced by greenhouse gases, quantify sources and sinks of 
greenhouse gases and aerosols, and improve our ability to assess the 
potential consequences of climate change. BER programs, particularly 
those involving support of peer-reviewed research at universities and 
national laboratories, are critical to the work of researchers 
focussing on climate change and climate change impacts, and represent 
an important part of DOE's contribution to the multi-agency U.S. Global 
Change Research Program. These include the following:
Atmospheric Radiation Measurement (ARM) Program
    ARM is a key component of DOE's research strategy to address global 
climate change. ARM data are critical to the improvement of General 
Circulation Models (GCMs), which simulate the entire global circulation 
of the atmosphere, and to our understanding of climate change responses 
to increasing greenhouse gases. Current ARM research foci include the 
significant role of clouds in climate, the radiation balance of the 
atmosphere, and the interactions of solar and infrared radiation with 
water vapor and aerosols. These atmospheric processes are critical to 
understanding and predicting changes in global and regional temperature 
and precipitation patterns that result from anthropogenic and natural 
influences.
    The work of many university principal investigators is supported 
through ARM as are interactions and collaborative work with prominent 
climate modeling centers. The proposed fiscal year 2002 funding for ARM 
is $13.4 million for research, only a $362,000 increase; and $27.3 
million, or flat funding, for ARM infrastructure. I urge the Committee 
to allocate increases to cover at least a 4 percent cost of inflation 
for BER's Atmospheric Radiation Measurement program research and 
infrastructure accounts, or $13.65 million and $29.3 million, 
respectively.
Climate Modeling
    DOE is working with agencies such as NSF, NASA and NOAA to improve 
the state of climate modeling. Positioned within Climate and Hydrology 
in BER, the Climate Modeling effort is an important component of the 
USGCRP and integrates the BER climate modeling programs, including the 
successful Computer Hardware, Advanced Mathematics, and Model Physics 
(CHAMMP) activity. This initiative supports the development of the next 
generation circulation models and smaller scale climate model 
simulations for global and regional studies of environmental changes.
    Teams involving national laboratories and the university community 
produce and apply observational and modeling data to study both global 
and regional climate change and accompanying environmental impacts. 
This work is of great importance to our understanding of the manner in 
which climate change, natural or otherwise, affects specific areas of 
the country with ramifications to local environmental and economic 
systems. The proposed funding of $27.1 million for Climate Modeling in 
fiscal year 2002 is only very slightly higher than that of fiscal year 
2001 and is insufficient to cover inflation, much less make the kinds 
of scientific progress that it possible. I urge the Committee to 
appropriate an amount of at least $29.0 million (approximately a 4 
percent increase) for Climate Modeling within BER.
Atmospheric Chemistry and Carbon Cycle
    Contributing critical work to the USGCRP, DOE's Atmospheric 
Chemistry and Carbon Cycle programs support research at university, 
DOE, and non-DOE laboratories across the country to provide information 
on the atmospheric environment that is critical for long-range energy 
planning. The DOE-supported carbon cycle research explores movement of 
carbon on a global scale and is key to understanding the sources and 
sinks of carbon both in terrestrial and ocean systems. The agencies of 
DOE, NOAA, NSF, and EPA have a coordinated strategy to work toward 
completing our knowledge of the carbon cycle. One of the especially 
important aspects of the DOE carbon cycle program is its support of 
long-term measurement sites and data holdings that are used by climate 
change researchers around the world. Proposed overall funding for this 
critical work is decreased from the fiscal year 2001 amount by 
$735,000. I urge the Committee to appropriate for Atmospheric Chemistry 
and Carbon Cycle (within BER) an fiscal year 2002 amount of $37.0 
million, a 4 percent increase over fiscal year 2001 to account for 
inflation.
    Within Atmospheric Chemistry and Carbon Cycle, the Atmospheric 
Science programs acquire critical data to advance our understanding of 
the transport and fate of energy-related chemicals and particulate 
matter in the atmosphere as well as the important roles of aerosols in 
weather and climate. Proposed funding for this work is flat for fiscal 
year 2002. I urge the Committee to specify for DOE's Atmospheric 
Science programs (within BER) an fiscal year 2002 amount $13.1 million, 
a 4 percent increase over fiscal year 2001.
             advanced scientific computing research (ascr)
    DOE's ASCR complements the work of and enables progress in the 
Climate Modeling initiative described above. ASCR's continued progress 
is of particular importance to atmospheric scientists involved with 
coupled general circulation model development, research that takes 
enormous amounts of computing power. By their very nature, problems 
dealing with the interaction of the earth's systems and global climate 
change, cannot be solved by traditional approaches. If the United 
States is to continue to play a key role in determining the components 
that influence climate behavior and further developing scientific 
methods to successfully predict climate change, then the country's 
scientists must have access to enhanced computer simulation and 
modeling technology and software.
    The ASCR section of the proposed fiscal year 2002 budget states 
that, ``High performance computing is rapidly increasing its importance 
as a science tool.'' A completely flat budget of $165.4 million is then 
recommended. If I am reading the budget correctly, that flat request 
will be reduced soon by $2.7 million to increase the Fusion Energy 
Science Program. While I understand the immediate need for enhanced 
energy science, I disagree strongly with handicapping one critical 
scientific program to boost another, particularly at a time when we 
enjoy a national surplus in large part because of scientific and 
technological advances. I urge the Committee to examine carefully the 
importance of Advanced Scientific Computing Research in the context of 
the world's computing capabilities and the country's needs and 
appropriate, at the very least, an increase of 4 percent to cover 
inflation, for a funding level of $172.4 million.
                    global change education program
    DOE's Global Change Education program (within Human Interactions in 
the budget) performs a great service for the atmospheric sciences 
community by joining with the NSF and other agencies to support 
students involved in the UCAR-managed program, Significant 
Opportunities in Atmospheric Research and Science (SOARS). SOARS is a 
four-year graduate and undergraduate program for students pursuing 
careers in the atmospheric and related sciences. In its relatively 
short history, SOARS has already increased the number of under-
represented students in this scientific area by a significant 
percentage. I would like the Committee to be aware that the Global 
Change Research Program is contributing to the SOARS effort to ensure 
that tomorrow's scientific workforce reflects the diversity of our 
citizenry and provides opportunity to all students.
    On behalf of UCAR, I want to thank the Committee for the important 
work you do for U.S. scientific research. We appreciate your attention 
to the recommendations of our community concerning the fiscal year 2002 
budget of the Department of Energy.
                                 ______
                                 

               Prepared Statement of New York University

    On behalf of New York University, I appreciate the opportunity to 
submit testimony in support of public investment in basic research and, 
in particular, to salute the Department of Energy (DOE) whose funding 
of fundamental research is so important to the health and well being of 
our nation.
    The DOE's support of university-based research is essential to our 
national ability to prepare for the scientific and technological 
challenges that we will face in the 21st century. The Department of 
Energy supports biological and environmental research, nanoscale 
science, physical, life, as well as computational, and social sciences. 
The DOE's funding is critical both for its direct support of research, 
training, and education, as well as its indirect impact in enabling 
extramural (university-based) researchers to attract additional funding 
for research and science infrastructure from other federal agencies, 
private foundations, and industry. In that regard, I urge Congress to 
support increased funding for the Department of Energy for fiscal year 
2002.
    At the Washington Square Campus of New York University, DOE funding 
has supported leading-edge research across a range of areas. In 
environmental science, DOE supported our efforts to test climate models 
against what is known about paleoclimates. In quantum physics, DOE is 
aiding the theoretical understanding and experimental pursuit of quark-
gluon plasma. In the broadening field of genomics, DOE has funded work 
in everything from optically mapping the genome to studying chemical 
and energy-related mutation to isolating the genes that regulate plant 
growth. I would like to underscore genomics, as it is an important 
priority for DOE and an area in which NYU intends to make major 
contributions.
                          advances in genomics
    The genome is the recipe or blueprint for life. During the last 
decade--and particularly during the last two years--the unraveling of 
the genetic code has opened up a vast range of new opportunities for 
evolutionary and developmental biologists, chemists, and information 
scientists to understand what genes are, what they do, and how they do 
it. Genomics is revolutionizing biology and is dramatically changing 
the way we characterize and address biological questions. As a field 
that straddles biology, chemistry, computer science, and mathematics, 
genomics is growing at an extraordinary pace and is transforming these 
disciplines as well as the social and behavioral sciences.
    In its first stage, the revolution in genomics was characterized by 
a period of intensive development of techniques to analyze DNA, first 
in simple models, like yeast, bacteria, the worm, and the fruitfly, 
then in the mouse, and now in humans. The structure and function of 
genes are similar in these models, making comparisons useful. The 
second phase was characterized by the use of these tools to address 
whatever biological question was most easily approached, given the 
state of technique development. It may be described as structural 
genomics--which comprises the mapping and sequencing of genomes and is 
mainly driven by technology. The scientific community is now poised to 
enter the third phase of the genomics revolution in which investigators 
bring perspectives from other fields, like immunology, genetics, and 
neurobiology to pursue investigations that are driven by hypothesis 
rather than technique. This third phase is generally termed functional 
genomics and uses the map and sequence information already collected to 
infer the function of genes.
    At New York University, we think the key issues facing genomics 
today are how to translate the enormous quantities of gene sequence 
data into knowledge of gene function. The answers lie, we believe, in 
comparative functional genomics, an approach that looks for the 
occurrence of the same genes in different species that share certain 
structures or functions, and provides a powerful method for 
understanding the function of particular genes. Comparative functional 
genomics uses two primary modes of analysis: (1) identifying what has 
been conserved over long evolutionary periods, and (2) determining 
crucial differences that distinguish two closely related species. This 
focus can provide the key to unraveling the complex regulatory networks 
for crucial biological functions.
    Studies in comparative functional genomics are necessarily 
multidisciplinary. Comparative functional genomics synergizes basic 
science research programs such as those at NYU's Faculty of Arts and 
Science, with computational science, specifically bioinformatics, at 
its Courant Institute of Mathematical Sciences. Further, the scope of 
the enterprise is such to encourage collaboration not only within but 
also between research institutions. As an example, the concentration 
within NYU of strengths in evolutionary biology, neurobiology, 
developmental genetics, human genetics, applied mathematics research, 
imaging and computation is further extended through the University's 
research collaborations and affiliation agreements with major 
metropolitan area institutions. Productive affiliations that were 
recently articulated in response to New York State's major new 
initiative to develop the State's science and technology resources link 
NYU with The New York Botanical Garden and the American Museum of 
Natural History which house the world's largest collections of well-
characterized specimens from the animal and plant kingdoms 
respectively, and Cold Spring Harbor Laboratory, one of the world's 
centers for molecular biology and genomics research.
    New York University and other major research institutions are 
poised to make important contributions to the next phase of genomics 
research. DOE funding is critical to maintain and strengthen the 
vibrancy of university-based science research.
              research applications and national benefits
    Research in genomics can offer benefits to our citizens in a wide 
range of domains from new energy sources to crops that resist disease, 
insects and drought to better industrial processes to identification 
(or exoneration) of crime suspects. Genomics can be a major resource 
for directly energizing a range of commercial enterprises, and can 
provide a strong framework for economic development in vital, high-tech 
industries.
    Advances in Biological, Computational, and other Research Fields.--
The understanding of the human genome has very broad applications to 
cell biology, embryology, developmental biology, and population 
genetics. Genomics connects and illuminates science in all these 
fields. Further, functional genomics research has created a need for 
information processing structures that efficiently compare and analyze 
patterns in enormous data sets and allow ready representation and 
interpretation of their common elements and differences. As an example, 
computer scientists at NYU are working closely with molecular 
geneticists and business entrepreneurs to develop a library of genomics 
software tools. Some of these tools are already being considered by 
medical researchers for use in diagnosing tumors, which have a genetic 
structure different from healthy tissue.
    Applications for Environmental Issues.--Genomics offers important 
new approaches to addressing environmental problems and conservation. 
As an example, knowing the genetic sequence of plants may allow us to 
identify clusters of genes and their function (to produce a flower from 
a shoot) and manipulate them (to cut flowering time); enhance seed 
viability without affecting the quality of a fruit; and increase the 
nutritional value of grains. As we continue to sequence new plants and 
isolate more genetic clusters, we can expect to discover how to develop 
crops that have increased resistance to temperature extremes and 
disease, and that can also grow in less hospitable soils. As we learn 
more about how genes are switched on and off by environmental factors, 
we may be able to predict how a crop will function in a particular 
climate before attempting to cultivate it. These discoveries and others 
can revolutionize agriculture within a decade.
    Commercial Applications.--Fundamental studies in genomics are 
producing new data about the function of genes that will have 
widespread commercial applications for the development of novel human 
and veterinary therapeutics and diagnostics; ``customized'' patient 
care; the development of crops with improved growth capabilities or 
improved resistance to herbicides; and so on, in a list that can impact 
virtually every aspect of our health and well being.
    Economic Development.--R&D investment in genomics is energizing 
biotechnology, pharmaceutical, biomedicine, agbiotech, computer 
software, and engineering enterprises, as genomics research begins to 
spawn a new generation of commercializable technologies, and new 
bioinformatics and software companies and genomics platform companies 
(that generate specific genomic data for product development).
    More generally, investment in research can foster vital university-
centered concentrations of industrial activity: In a now familiar 
dynamic, industry draws on the faculty's entrepreneurial energies, 
their expertise in training the personnel needed to staff high-
technology firms, and the fundamental scientific research that can 
translate into practical applications. High-tech firms spring up near a 
research university and, in turn, attract or spin off additional high-
tech firms in the same or related fields. The interaction of scientists 
across firms makes the spread of information quicker and the 
development of projects more rapid. Initial firms and newer firms share 
a growing pool of highly trained personnel. The expansion of the 
skilled labor pool makes hiring easier and attracts still more firms. 
And, once a core of high-tech industries locates in an area, venture 
capitalists identify the area as ``promising'' and the flow of 
capital--a key ingredient for high-technology growth--increases.
    In a related economic spiral, R&D funding spurs job growth across a 
range of economic sectors. A conservative approximation that uses state 
employment multipliers maintained by the U. S. Commerce Department's 
Bureau of Economic Analysis points to immediate employment impacts: The 
BEA calculates that each $1 million in R&D grants supports roughly 34.5 
full and part time jobs directly within the university and indirectly 
outside the university as the university's expenditures ripple through 
the local and state economy.
    Biomedical Applications for National Health Needs.--An investment 
in genomics research will help us to understand complex, multi-gene 
diseases such as cancer, heart disease, and Alzheimer's; distinguish 
different forms of a disease, permitting precisely targeted treatment; 
and understand why drugs work and how to design better ones. Genomics 
has the potential to revolutionize the development of mass screening 
tests for genetic disorders, ultimately making it possible to identify 
the hereditary contribution to common diseases, predict individual 
responses to drug intervention, and design drugs that are customized 
for individual use.
    In summary, investment in genomic science is a strategic and 
efficient vehicle for advancing fundamental studies in a wide variety 
of scientific fields, facilitating applications that can greatly 
enhance the public welfare, and energizing existing and new industries. 
Increasing the investment in state-of-the-art equipment and in research 
that enables geneticists, computer scientists and physical chemists to 
readily interact with each other is essential for the development of 
this important area. We firmly believe that a federal investment in 
these and other biomedical research fields repays itself many times 
over.
    The commitment of this committee to support the Department of 
Energy and its capacity to support the study of genomics is greatly 
appreciated. And, in general we urge Congress to continue its 
commitment to increase the funding of the basic sciences.
                                 ______
                                 

Prepared Statement of the Integrated Petroleum Environmental Consortium

    It is proposed that the U.S. Department of Energy support a pilot 
technology transfer program in Oklahoma and Arkansas called the 
Petroleum Extension Agent Program through the Integrated Petroleum 
Environmental Consortium (IPEC). Federal support of $1.5 million is 
specifically requested as part of the fiscal year 2002 appropriation 
for the Department of Energy or other source the Subcommittee may 
determine to be appropriate
        the integrated petroleum environmental consortium (ipec)
    The Integrated Petroleum Environmental Consortium (IPEC) is an 
environmental consortium of The University of Oklahoma, Oklahoma State 
University, The University of Tulsa, and The University of Arkansas at 
Fayetteville. Funded as an EPA Research Center, the mission of IPEC is 
to increase the competitiveness of the domestic petroleum industry 
through a reduction in the cost of compliance with U.S. environmental 
regulations. This mission is accomplished through a vigorous research 
and technology transfer program.
    IPEC is industry driven to ensure that the consortium is meeting 
the needs of the industry and fulfilling its mission. IPEC is advised 
by an Industrial Advisory Board (IAB) composed of environmental 
professionals, state regulators, and independent operators who review 
all research proposals for relevancy to IPEC's mission. Representatives 
of regulatory bodies include the Oklahoma Corporation Commission, the 
Arkansas Oil and Gas Commission, the Arkansas Department of Pollution 
Control and Ecology, and the Pawhuska, OK office of the U.S. 
Environmental Protection Agency. The independent oil companies 
(producers and refiners) are the majority group represented on the IAB. 
This Board is dominated by the upstream independent sector of the 
industry. The responsibilities of the IAB are two-fold. First, the IAB 
advises the IPEC Executive Committee on environmental research needs in 
the domestic petroleum industry. Secondly, the IAB reviews research 
proposals at a pre-proposal stage for relevancy to the mission of IPEC. 
Research proposals must meet this test of relevancy to be considered 
further for funding. IPEC is also advised by a Science Advisory 
Committee (SAC), composed of leading environmental experts from 
academia and government laboratories, that reviews all research 
proposals for scientific quality.
    Since September 1998 IPEC has funded 18 research projects that 
promise to help ease the regulatory burden on the domestic petroleum 
industry. These funded projects include: the use of plants to clean 
contaminated soils; the natural biodegradation of gasoline by 
microorganisms in the absence of oxygen; the beneficial use of 
petroleum wastes as road materials; the control of the formation of 
toxic hydrogen sulfide in oil wells; the development of simple sampling 
devices to replace expensive live organisms to assess toxicity in 
contaminated soils; the treatment and disposal of naturally occurring 
radioactive material (NORM) in oil production equipment; the 
remediation of brine-impacted soils; development of a sound scientific 
basis for ecological risk assessment of petroleum production sites; 
improving the economics of well plugging; improving the efficiency of 
oil-water separation; and enhancing the remediation of oil contaminated 
soils. These projects were first reviewed and approved by our 
Industrial Advisory Board (dominated by independent producers) as 
relevant to our mission of increasing the competitiveness of the 
domestic petroleum industry and finally reviewed and approved by our 
Science Advisory Committee (SAC) on the basis of scientific quality. 
The EPA has endorsed each member of the IPEC SAC.
    IPEC has provided $1,612,071 in funding for these projects. 
However, another $1,432,226 in funding for these projects has been 
secured by the investigators as matching funds from industry and 
industry organizations such as the Gas Research Institute, the American 
Petroleum Institute and the Petroleum Environmental Research Forum. 
This is over and above matching funds provided by the Oklahoma State 
Reagents for Higher Education ($750,000). IPEC has pledged to Congress 
to work for a 1:1 match of federal dollars. As you can see IPEC is 
living up to that promise! IPEC is a true public/private partnership.
    IPEC's technology transfer program is directed toward providing 
useful tools for environmental compliance and cost reduction to 
independent producers. The first objective of this program is to raise 
the level of technical training of the field inspectors of the oil and 
gas regulatory bodies of Oklahoma and Arkansas including the Oklahoma 
Corporation Commission, the Arkansas Oil and Gas Commission, and the 
Osage Agency of the Bureau of Indian Affairs with regard to first 
response to spills, pollution prevention, and remediation of oil and 
brine spills. The second objective of this program is the development 
of checklists for independent producers to assist them in environmental 
audits (``staying out of trouble checklists''), remediation of oil and 
brine spills, and first response to spills. Oklahoma and Arkansas 
regulatory field agents are being used to deliver these tools to the 
independent producers.
    IPEC's technology transfer flagship is the International Petroleum 
Environmental Conference. In November, 2000 IPEC held the 7th 
International Petroleum Environmental Conference in Albuquerque, NM. 
There were 345 in attendance from all facets of the oil and gas 
industry including independent and major producers, service industry 
representatives, and state and federal regulators. The program for the 
7th conference featured several plenary lectures, over 135 technical 
presentations, exhibits, a poster session and a special symposium on 
characterization and remediation of the subsurface. Co-sponsors of the 
conference included the Interstate Oil and Gas Compact Commission, the 
Railroad Commission of Texas, the Texas Independent Producers and 
Royalty Owners Association, the Gas Research Institute, the Oklahoma 
Independent Petroleum Association, the Oklahoma Energy Resources Board, 
the EPA Office of Research & Development, and the National Petroleum 
Technology Office of the U.S. Dept. of Energy. IPEC sponsors the 
participation of fifteen state regulators from Oklahoma and Arkansas 
each year at the conference. The 8th International Petroleum 
Environmental Conference will be held November 5-9, 2001, in Houston, 
TX.
        the continuing crisis in the domestic petroleum industry
    Much attention has been paid recently to the high costs to 
consumers of gasoline and natural gas. Energy experts agree that the 
price increases currently being experienced were brought on by short-
term shocks that resulted from sudden changes in supply and demand. On 
the demand side there has been increasing demand for petroleum 
worldwide, especially in the Far East. On the supply side, OPEC and 
several non-OPEC countries have removed significant amounts of crude 
oil from production. Once again America has been held hostage to the 
marketing whims of foreign producers and we are in no position to 
respond. Since 1990 there has been a 27 percent decline in the number 
of jobs in the U.S. exploring and producing oil and gas and the number 
of working drilling rigs has seriously declined. Thirty-six refineries 
have closed since 1992 and no new refineries have been built since 
1976. Most energy analysts agree that we need to ``drill our way out'' 
of the current high prices and shortages; however, the industry's 
infrastructure (in terms of equipment and trained personnel) cannot 
support the amount of drilling activity current prices would otherwise 
encourage.
    In order to regain energy security the U.S. must have a coherent 
domestic energy strategy. Some may be willing to entrust the health of 
the U.S. economy to windmills and solar-powered cars, but it will be a 
stable and profitable domestic oil and gas industry that is the 
nation's best defense against OPEC market manipulations. The current 
upswing in crude oil prices may eventually stimulate the industry. 
However, the record low prices that preceded the current increases have 
left many companies in financial positions that make it impossible to 
launch new exploration activities. Additionally, many in the industry 
are simply uneasy with the volatility that has come to characterize the 
industry. Much of U.S. domestic oil production is carried out by 
independent producers who are producing from mature fields left behind 
by the majors. Although there is a significant resource base in these 
fields, this is the most difficult and the most costly oil to produce. 
The independent producer has only one source of revenue--the sale of 
oil and gas. There is no vertical depth to his business.
    A major factor in the high cost of production in the domestic 
petroleum industry is the cost of environmental compliance. IPEC is 
working to strengthen the domestic petroleum industry and reduce the 
impact of market volatility by providing cost-effective environmental 
technologies to solve those problems that are having the greatest 
impact on production costs. These efforts are especially needed now as 
we develop new sources of natural gas such as coal-bed methane. This 
new source of natural gas is desperately needed to meet our nation's 
energy demand but coal-bed methane presents some unique environmental 
problems which must be addressed in a cost-effective manner. A strong 
and stable domestic petroleum industry is our best hedge against 
foreign market manipulation.
               ipec's response to critical industry needs
    IPEC is continually probing our Industrial Advisory Board for new 
ways to assist the domestic petroleum industry and continually seeking 
out cost-effective technical solutions to these problems through an 
aggressive proposal solicitation and review process. The IPEC IAB also 
advises the Consortium on technology transfer needs in the industry. An 
exciting idea that has been put forward by the IPEC IAB is the concept 
of the petroleum extension agent (PEA). The current appropriations 
request will fund a pilot PEA program in Oklahoma and Arkansas that can 
be expanded to include every oil and gas producing state or region.
    There are over 3,500 independent oil producers in Oklahoma and 
Arkansas. Most of these are very small companies, the ``mom and pop'' 
operations whose business is run from the pickup truck and the kitchen 
table. These small producers are especially vulnerable to industry 
volatility. The current crises in the domestic petroleum industry 
requires a multi-level response with a specific outreach effort to the 
smallest of the independents, those without in-house experts, to advise 
them on the latest production techniques to minimize costs; how to 
prevent spills and the accompanying clean-up costs; and how to comply 
with state and federal regulations to avoid fines and costly loss of 
production. This type of assistance is not currently provided by the 
private sector engineering and service companies because the small 
producers cannot afford private sector services of this kind.
    IPEC proposes to provide these services to small independent 
producers through a system of petroleum extension agents (PEAs). Up to 
ten (10) full-time equivalent petroleum professionals will be hired to 
call on small independent producers throughout Oklahoma and Arkansas to 
provide direct assistance in every aspect of operating a profitable and 
environmentally friendly business as an oil producer. These PEAs will 
be seasoned veterans of oil and gas production in the state in which 
they will operate. PEAs will possess demonstrated technical competence 
and have a minimum of 20 years of experience in the industry. PEAs will 
operate in the major oil producing areas of the states.
    PEA services will be made known to producers through advertisements 
and through field agents of the Oklahoma Corporation Commission and the 
Arkansas Oil and Gas Commission. PEAs will also seek out and call on 
small producers in the same way that county agricultural extension 
agents call on small farmers. PEAs will be required to serve at least 
24 clients per year, spending an average of two weeks working with each 
small producer. This amount of time is needed to earn a producer's 
confidence, get to know their business, and demonstrate cost-saving 
ideas. In difficult situations PEAs will be able to draw on the 
significant resources of the IPEC institutions and the IPEC Industrial 
Advisory Board. The IPEC institutions contain many business and 
environmental resources, two departments of petroleum engineering, and 
many chemical and mechanical engineers engaged in oil and gas research. 
The IAB members also represent decades of experience in the oil and gas 
industry in Oklahoma and Arkansas.
    Representatives of the Oklahoma Corporation Commission and Arkansas 
Oil and Gas Commission are members of the IAB; therefore, in cases of 
conflict between small producers and one of these regulatory bodies, 
IPEC can also potentially serve to help resolve problems.
    The results expected from this program are:
  --a reduction in the costs of production and increased profitability 
        among small independent producers,
  --lesser numbers of small producers going out of business,
  --less abandoned resources,
  --greater state tax revenues and
  --increased compliance with environmental regulations and greater 
        protection of natural resources.
    It is anticipated that 240 small producers will be directly 
assisted in the first year of this program. However, the knowledge 
gained by these producers will be passed on to other small producers 
and family members by word-of-mouth greatly expanding the reach of this 
direct mechanism of technology transfer to the industry.
            funding of the petroleum extension agent program
    IPEC is seeking an appropriation of $1.5 million for fiscal year 
2002 through the Department of Energy to fund a pilot petroleum 
extension agent program in Oklahoma and Arkansas. The Consortium will 
be subject to peer review to ensure the effective utilization of public 
funds in meeting the stated goals of the PEA program.
                                 ______
                                 

      Prepared Statement of the American Museum of Natural History

              about the american museum of natural history
    The American Museum of Natural History [AMNH] is one of the 
nation's preeminent institutions for scientific research and public 
education. Since its founding in 1869, the Museum has pursued its 
mission to ``discover, interpret, and disseminate--through scientific 
research and education--knowledge about human cultures, the natural 
world, and the universe.'' It is renowned for its exhibitions and 
collections of more than 32 million specimens and cultural artifacts. 
With nearly five million annual visitors--approximately half of them 
children--its audience is one of the largest, fastest growing, and most 
diverse of any museum in the country. Museum scientists conduct 
groundbreaking research in fields ranging from all branches of zoology, 
comparative genomics, and informatics to earth, space, and 
environmental sciences and biodiversity conservation. Their work forms 
the basis for all the Museum's activities that seek to explain complex 
issues and help people to understand the events and processes that 
created and continue to shape the Earth, life and civilization on this 
planet, and the universe beyond.
    Today more than 200 Museum scientists with internationally 
recognized expertise, led by 47 curators, conduct laboratory and 
collections-based research programs as well as fieldwork and training. 
Scientists in five divisions (Anthropology; Earth, Planetary, and Space 
Sciences; Invertebrate Zoology; Paleontology; and Vertebrate Zoology) 
are sequencing DNA and creating new computational tools to retrace the 
evolutionary tree, documenting changes in the environment, making new 
discoveries in the fossil record, and describing human culture in all 
its variety. The Museum also conducts graduate training programs in 
conjunction with a host of distinguished universities, supports 
doctoral and postdoctoral scientists with highly competitive research 
fellowships, and offers talented undergraduates an opportunity to work 
with Museum scientists.
    The AMNH collections of some 32 million natural specimens and 
cultural artifacts are a major scientific resource, providing the 
foundation for the Museum's interrelated research, education, and 
exhibition missions. They often include endangered and extinct species 
as well as many of the only known ``type specimens,'' or examples of 
species by which all other finds are compared. Within the collections 
are many spectacular individual collections, including the world's most 
comprehensive collections of dinosaurs, fossil mammals, Northwest Coast 
and Siberian cultural artifacts, North American butterflies, spiders, 
Australian and Chinese amphibians, reptiles, fishes, and one of the 
world's most important bird collections. Collections such as these are 
historical libraries of expertly identified and documented examples of 
species and artifacts, providing an irreplaceable record of life on 
earth. They provide vital data for Museum scientists as well for more 
than 250 national and international visiting scientists each year.
    In the exhibition halls AMNH scientific knowledge and discovery are 
translated into three dimensions. One of the most exciting chapters in 
the Museum's history culminated just over one year ago with the opening 
of the Rose Center for Earth and Space in February 2000. Greeted with 
critical and popular acclaim and record-setting attendance surpassing 
all projections, the Rose Center includes a rebuilt Hayden Planetarium, 
Hall of the Universe, and Hall of Planet Earth. In Planet Earth, 
exhibits explore the processes that determine how the Earth works and 
questions about natural resources. It leads to the Hall of 
Biodiversity, which opened in 1998 and reveals the variety of Earth's 
living things and expands the Museum's efforts to alert the public to 
the critical role biodiversity plays in sustaining life as we know it. 
Together, the new planetarium and halls provide visitors with a 
seamless educational journey from the universe's beginnings to the 
formation and processes of Earth to the extraordinary diversity of life 
on our planet.
    The Education Department builds on the Museum's unique research, 
collections, and exhibition resources to offer rich programming 
dedicated to increasing scientific literacy, to encouraging students to 
pursue science and museum careers, and to providing a forum for 
exploring the world's cultures. Each year hundreds of thousands of 
students, teachers, and schools participate in workshops, courses for 
college credit, and Museum visits; more than 500,000 students and 
teachers come on school visits, prepared and supported by curriculum 
resources and workshops. The Museum is also reaching beyond its walls: 
through its National Center for Science Literacy, Education, and 
Technology, launched in 1997 in partnership with NASA, it is exploiting 
new technologies to bring learning and discovery, materials, and 
programs into homes, schools, museums, and community organizations 
around the nation.
           support for department of energy mission and goals
    The American Museum shares DOE's fundamental commitments to 
cutting-edge research, technology in support science and education, and 
science education and literacy. As the nation's third largest 
government sponsor of basic research and a major source of support for 
laboratory equipment and instrumentation, DOE is one of the world's 
preeminent science organizations. Its primary strategic goals also 
include promoting science literacy and educating the next generation of 
scientists. The Museum seeks in concert with DOE to leverage our 
complementary resources and mutually strengthen our abilities to 
advance our shared goals.
Genomics Science
    DOE is a leader in genomics research, advanced sequencing 
technologies, and instrumentation. With the historic completion of the 
first draft of the human genome, its work on the frontier of genome 
science continues, including research in energy-related biology, 
comparative genomics, and organisms' responses to biological and 
environmental cues. The American Museum, in turn, is home to a 
preeminent molecular research effort and is deeply engaged in genome 
research closely tied to DOE's mission areas and research priorities. 
Indeed, natural history and genomic science are intricately related. 
The AMNH molecular systematics program is at the forefront of 
comparative genomics and the analysis of DNA sequences for evolutionary 
research. In its molecular laboratories, in operation now for ten 
years, more than 40 researchers in molecular systematics, conservation 
genetics, and developmental biology conduct genetic research on a 
variety of study organisms.
    The Museum is also expanding its collection techniques to include 
the preservation of biological tissues and molecular libraries in a 
super-cold storage facility for current and future genetic study. This 
collection is an invaluable resource for worldwide research in fields 
including genetics, comparative genomics, and medicine. Such a tissue 
collection will preserve genetic material and gene products from rare 
and endangered organisms that may become extinct before science fully 
exploits their potential. With nearly 40,000 samples already collected, 
it will be the largest super-cold tissue collection of its kind and 
will increase the possibilities for DNA research exponentially. We also 
plan an online collection database to ensure public access as well as 
to facilitate loans to scientists worldwide.
Cluster Computing
    Parallel computing is an essential enabling technology for 
phylogenetic (evolutionary) analysis and intensive, efficient sampling 
of a wide array of study organisms. A 256-processor cluster recently 
constructed in-house by Museum scientists is the fastest parallel 
computing cluster in an evolutionary biology laboratory and one of the 
fastest installed in a non-defense environment. It allows Museum 
scientists to examine the effectiveness and computational behavior for 
large real-world data sets, and will be central to all Museum projects 
in evolutionary and genomics research.
                   institute of comparative genomics
    The Museum proposes to establish, in concert with the scientific 
goals and efforts of DOE, an Institute of Comparative Genomics so as to 
contribute its unique resources and expertise to the nation's genomic 
research enterprise. A full understanding of the impact of the 
knowledge we have gained from genomics and molecular biology can come 
from placing genomic data in a natural history perspective; comparative 
work in genomics will enrich our knowledge not only of biodiversity, 
but also of humans, medicine, and life itself. The Museum intends to 
establish the Institute with funds from federal as well as nonfederal 
sources.
    With the advent of DNA sequencing, museum collections have become 
critical baseline resources for the assessment of the genetic diversity 
of natural populations, as well as for pursuit of research questions 
pertinent to DOE's interests. Genomes, especially those of the simplest 
organisms, provide a window into the fundamental mechanics of life. One 
of the goals of DOE's Human Genome Project is to learn about the 
relevance to humans of nonhuman organisms' DNA sequences. DOE also 
supports an area in which AMNH is expanding its expertise--microbial 
genomics, the study of organisms that have survived and thrived in 
extreme and inhospitable environments. This research can yield 
information that can be applied in solving critical challenges in 
medicine and health care, energy resources, and environmental cleanup. 
The AMNH comparative genomics program could provide vital tools in 
these endeavors and support DOE's biological and environmental research 
function (the BER account).
    The Museum has already established its parallel computing facility, 
enhanced the molecular labs with state-of-the-art DNA sequencers, and 
built the super cold storage facility. Thus initially equipped, the 
Institute will be one of the world's premier research facilities for 
mapping the genome across a comprehensive spectrum of life forms, 
drawing on comparative methods and biological collections.
    Working cooperatively with New York's outstanding biomedical 
research and educational institutions, the Institute will focus on 
molecular and microbial systematics, expanding our understanding of the 
evolution of life on earth through analysis of the genomes of selected 
microbes and other non-human organisms, and constructing large genomic 
databases for conservation biology applications. Research programs may 
include the study of the utility of genomic information on organismal 
form and function, microbial systematics, and the use of broad scale 
comparative genomic studies to understand the function of important 
biomolecules.
    The Institute's scope of activities will include: an expansion of 
the molecular laboratory program that now trains dozens of graduate 
students every year; the utilization of the latest sequencing 
technologies; employment of parallel computing applications that allow 
scientists to examine the effectiveness and computational behavior of 
large real world data sets; and operation of the frozen tissue 
collection as a worldwide scientific resource, with at least 500,000 
samples accessioned in the first phase alone, an active loan program, 
and ready public on-line access.
    In addition to research, the Museum has already launched an 
ambitious agenda of genomics-related exhibition, conference, and public 
education programming, including the landmark exhibition, ``The Genomic 
Revolution,'' which opens in May 2001. The exhibition, the most 
comprehensive ever presented on genomics, will examine the revolution 
taking place in molecular biology and its impact on modern science and 
technology, natural history, biodiversity, and our everyday lives. In 
conjunction with the exhibition, the Museum may also display a video 
bulletin on genomics in the Hall of Human Biology. The bulletin would 
be modeled after the popular Earth, Bio, and AstroBulletins in the 
newest exhibit halls that display changing science news and link to 
computer kiosks and websites.
    In fall 2000 the Museum hosted ``Sequencing the Human Genome: New 
Frontiers in Science and Technology,'' an international conference 
featuring leading scientists and policymakers. Spring conferences will 
include: ``Conservation Genetics in the Age of Genomics,'' co-sponsored 
by AMNH's Center for Biodiversity and Conservation and the Wildlife 
Conservation Society; and ``New Directions in Cluster Computing,'' 
which will explore how parallel computing can make sense of the huge 
complex data sets that genomic science and other fields generate. In 
September, the Museum will convene ``Assembling the Tree of Life: 
Science, Relevance, and Challenges.''
    In establishing the Institute, the Museum plans to expand its 
curatorial range in microbial work; grow the super-cold tissue 
collection; and draw on our exhibition and educational expertise to 
offer enhanced public education and outreach. Plans also entail 
expanding and renovating lab space and facilities to accommodate 
additional curators and students.
    We seek $5-$10 million to establish the Institute for Comparative 
Genomics at the Museum. Together, the Museum and DOE will be positioned 
to leverage their unparalleled resources to advance joint genomics 
research, education, and technology goals. As well, development of the 
super-cold tissue collection will increase enormously the possibilities 
for DNA research and provide an invaluable international scientific 
resource. Our online collection database will ensure public access to 
genomics information, furthering DOE's own goals for fostering public 
understanding of human genomics and the fundamental building blocks of 
life.
                                 ______
                                 

   Prepared Statement of the Lovelace Respiratory Research Institute 
                                 (LRRI)

    It is proposed that the Department of Energy through its 
constituent agencies support the renovation of the LRRI clinical 
facilities and purchase of necessary equipment to support LRRI's 
ability to maintain its high research and clinical standards, and to 
better provide appropriate patient data security.
    LRRI has committed to a building campaign using $10M in private 
funds to improve its laboratory facilities and equipment. LRRI's 
clinical study facility is in need of renovation to better accommodate 
the thousands of outpatients recruited for these studies and to better 
maintain security of their patient information. LRRI requests $2M to 
help renovate this facility.
    LRRI has a long and distinguished history of providing critical and 
superior research to DOE. Through a long standing cooperative 
agreement, LRRI managed and operated the DOE Inhalation and Toxicology 
Research Institute (ITRI) for many years. With the encouragement and 
support of DOE, LRRI went through a five-year transition to privatize 
the use of the ITRI facility. LRRI continues and it is anticipated, 
will do so into the future, provide research services to DOE through a 
new Cooperative Agreement, which is pending final execution. As part of 
its services to DOE, LRRI will continue to use its clinical trial's 
facility in furtherance of scope of services defined in that agreement.
Project Impact:
    LRRI, as a private non-profit research institute, places top 
priority on its ability to translate its basic science findings from 
animal models, into protocols designed to evaluate new approaches for 
treating respiratory disease. These protocols lead to new innovative 
techniques and approaches to health care.
    LRRI conducts clinical studies requiring the recruitment of 
thousands of patients that provide the basis for making the link 
between genetic and cellular defects and clinical disease presentation 
and demographic characteristics. Currently, LRRI is conducting 
population-based genetic studies in:
  --Chronic obstructive pulmonary diseases (COPD),
  --Early detectors for lung cancer,
  --Pulmonary fibrosis, and
  --Mechanisms of asthma and other lung diseases in Hispanic and Native 
        American children.
    Two events have greatly enhanced the ability to better understand 
the mechanisms of human disease in communities. One is the dramatic 
advance in molecular and cellular biology over the last 10 years, 
especially in human genetics. The other is the ability to collect and 
process data using advance computer systems and statistical techniques. 
This process called ``molecular epidemiology'' makes the link between 
genetic and cellular defects and clinical disease. LRRI has formed 
collaborations with national and local a private health providers to 
collect and manage patient data to carry out their ``molecular 
epidemiological'' studies. These partners include, the:
  --Lovelace Health Systems (LHS),
  --Albuquerque Veterans Administration Medical Center (VA),
  --University of New Mexico School of Medicine (UNM), and the
  --University of Miami School of Medicine (UMSM).
    Given the nature of the clinical studies performed, LRRI's facility 
requires security mechanisms well beyond those of ordinary medical 
clinics. As one can well imagine, this facility is the repository of 
very sensitive personal data, including that linked to an individual's 
DNA. To carry out this responsibility for privacy and confidentiality, 
there is a need to renovate the facilities and equipment necessary to 
be physically and electronically impenetrable to all but those who have 
specific and authorized access.
    The existing 8,000 sq. ft. facility was constructed in the 1950's 
and requires renovation and upgrades to provide a suitable, efficient, 
functional and secure facility. The proposed project would require 
reconfigured space, upgrades to meet current fire and safety codes, new 
interior finishes, new plumbing, upgraded electrical and a new heating, 
ventilation and air conditioning system.
    The current clinical trial's facility is occupied in part by other 
LRRI functions. Some of these functions will need to be relocated to 
provide the required additional space for the clinical studies. 
Unfinished space is being made available in the new research facility 
included as part of the $10M LRRI campaign. The proposed project will 
include the completion of 8,000 square feet of the unfinished space for 
this purpose.
    Accordingly, to meet this responsibility and to improve LRRI's 
ability to conduct its clinical studies, we respectfully request $2M. 
The responsible Federal agency is the Department of Energy--Biological 
and Research Account.
                                 ______
                                 

Prepared Statement of the Alachua County Board of County Commissioners, 
                        Alachua County, Florida

    Mr. Chairman: Thank you for allowing the Alachua County Board of 
County Commissioners to submit this written testimony before your 
Subcommittee concerning the County's Energy Conservation Prototype for 
the New Alachua County Criminal Courthouse. This innovative and state 
of the art project is described below in detail.
   energy conservation prototype for the new alachua county criminal 
             courthouse ($3.0 million in funding requested)
    In order to be a model for energy and resource conservation, the 
new Alachua County Criminal Courthouse has been designed in accordance 
with the highest national standards (LEED Certification Program) for 
energy conservation. Federal funding is being sought in order to 
augment the building's present energy saving measures with four 
additional items: potable water reduction, alternative energy source, 
reduction of heat loads, and higher performance systems for the 
building's heating, ventilation and air conditioning (HVAC) system. 
Together, these systems will effectively reduce energy consumption, as 
well as the future operating costs of the new Courthouse.
    The following narrative outlines in detail the energy saving 
measures that are presently being incorporated into the design of the 
new Courthouse. For ease of review, they are broken down into the five 
major categories of the LEED Certification Program.
Site Considerations
  --Erosion will be controlled to reduce any negative impact on water 
        and air quality.
  --The site will increase the density and urbanity of downtown 
        Gainesville.
  --The site is adjacent to and provides good access for mass transit.
  --On site parking requirements have been reduced to their minimum, 
        and parking preference will be provided for car pooling.
  --Site construction impact has been limited to an area of four blocks 
        to minimize disturbance.
  --Fifty percent of the open areas will be planted with native 
        vegetation.
  --Existing storm water runoff patterns will be undisturbed, and on 
        site water treatment will be provided.
  --Parking areas will be provided with landscaping to reduce heat 
        islands.
  --Screening measures will be used to ensure that direct lighting beam 
        emissions do not fall outside of the property line.
Water Conservation and Efficiency
  --Landscape material will be selected from native plant materials 
        that require minimal watering.
  --Waste water needs have been minimized by reducing the user 
        requirements for showers to a minimum of two for the building's 
        staff.
  --All of the plumbing fixtures specified utilize 30 percent less 
        water than the industry standard.
Energy Conservation and Atmospheric Efficiency
The building is being designed so that it is 30 percent more efficient 
        in energy use than the industry requirements (ASHRE 90.1).
  --The mechanical and fire protection systems will contain no HCFC, or 
        ozone damaging liquids.
  --An extensive commissioning routine will be utilized to insure that 
        the building systems are constructed as designed, and operated 
        in the most efficient manner.
Material Conservation and Resource Efficiency
  --Program areas to facilitate the recycling of materials will be 
        provided in the building.
  --Whenever possible, existing site materials will be recycled into 
        the new construction. Examples include asphalt pavement and 
        crushed concrete to be used for base material.
  --Fifty percent of all materials that will be specified are to be 
        manufactured within a 500-mile radius of the site.
  --All wood products utilized in the project will be acquired from 
        companies providing responsible forest management, and from 
        rapidly renewable sources.
Indoor Environmental Quality
  --The heating, ventilation, and air conditioning (HVAC) system in the 
        facility will be monitored and operated through a carbon 
        dioxide monitoring system.
  --Fresh air effectiveness will be equal, or greater to 0.9 as 
        determined by ASHRAE 129-97.
  --A construction indoor air quality management plan will be 
        implemented, and monitored.
  --All materials specified will have low, or no emission of VOCs.
  --The HVAC system in the facility will be monitored and operated 
        through a relative humidity monitoring system, and will comply 
        will ASHRAE standards for thermal comfort.
  --Natural day lighting will be provided to all spaces regularly 
        occupied, when not in conflict with confidentiality and 
        security measures.
    As previously noted, the items described above constitute those 
design measures and mechanical systems that are presently being planned 
for the new Courthouse. However, the County is requesting a total of 
$3.0 million to augment these systems with four additional energy 
saving items. These items, with their estimated costs, are describe 
below.
Potable Water Reduction (Estimated Cost: $570,000)
    In order to reduce potable water consumption, the County is 
investigating the use of a centralized vacuum toilet system that will 
reduce the water consumption for every single flush from 1.6 gallons to 
0.5 gallons. This system utilizes a centralized vacuum extractor to 
help move the solids through the piping network. This allows water to 
used only to clean bowl, and to work as a lubricant to facilitate 
movement.
Alternative Energy Source (Estimated Cost: $900,000)
    The use of a fuel cell power plant is being analyzed in order to 
help reduce the building's dependence on traditional electric systems. 
Specifically, fuel cells are designed to produce electrical power from 
natural gas fuel (through an electro-chemical process) and recoverable 
heat. The fuel cell system being studied for the new Courthouse would 
be utilized for both a portion of the building's normal energy needs, 
and the emergency power needs of the facility. With the approval of the 
appropriate agencies for the storage of some natural gas on site, the 
dependence upon a traditional diesel-powered generator can be avoided 
for this facility.
Reduction of Heat Loads (Estimated Cost: $1,000,000)
    The single largest contributor of heat in this facility will be the 
building's direct exposure to the sun. In order to minimize the heat-
gain of the building, and thus reduce the energy demand to cool the 
building and its users, the design team has developed an alternative 
exterior shading device in the form of horizontal fins. This system 
will shade all of the glazing, and the exterior of the building. By 
acting as a parasol shade, all of the building's glazing will be 
protected at the peek exposure time. The state of the art shading 
coefficient for 1.0 inches of insulated glass without a mirror finish 
is in the range of 0.24 to 0.28. The goal of the shading system for 
this building is to bring that shading coefficient of the glass to near 
zero.
Higher Performance Systems for the Heating, Ventilation, and Air 
        Conditioning (HVAC) System (Estimated Cost: $530,000)
    The County's efforts in the design of the building's HVAC system 
concern the utilization of the most energy efficient equipment and 
technology available on the market. As part of those efforts, the 
following systems are being analyzed for the final implementation of 
this design. These systems include:
  --High efficiency condensing natural gas boilers that provide hot 
        water to all air handling units, and VAV box heating coils. 
        Consequently, the boilers shall be the direct vent type with 
        PVC combustion air ducts and stainless steel exhaust flues out 
        of the roof of the mechanical room. This would include two 
        boilers rated two million BTU each. Finally, the hot water 
        pumping system will be a primary/secondary pumping system with 
        variable frequency drives on secondary pumps.
  --Air handling equipment that would be designed as follows: double-
        wall construction with two inch insulation, IAQ-type sloped 
        drain pans, 30 percent pre-filters, and 90 percent to 95 
        percent cartridge filters. In order to provide optimal energy 
        efficiency, the air-handling units that are variable volume 
        shall be controlled via variable frequency drives. This system 
        also greatly increases the latent cooling ability of the system 
        at part-load conditions, preventing humidity buildup in the 
        summer months. Each air-handling unit shall have a humidity 
        sensor to monitor and modify control sequences if necessary to 
        maintain proper humidity levels. All motors shall be high-
        efficiency. The coils within the system will all operate using 
        two-way control valves to provide the most efficient use of 
        chilled and hot water. Cooling coil temperature differential 
        shall be selected to minimize energy use.
  --A ventilation system for the building that would be provided in 
        accordance with the amounts prescribed in ASHRAE 62-1989. 
        Specifically, carbon dioxide sensors will monitor the carbon 
        dioxide level in the building's habitable spaces, and utilize 
        this information to control the amount of outside air being 
        supplied to the building's system. This will reduce energy 
        consumption by reducing the amount of outside air that needs to 
        be cooled and dehumidified.
               concluding comments for written testimony
    In conclusion, Alachua County proposes an energy conservation 
prototype for the new Alachua County Criminal Courthouse. In addition 
to serving as a centerpiece of downtown redevelopment, the Courthouse 
will also serve as a model project for the conservation of energy and 
natural resources in public buildings. To demonstrate the County's 
commitment to this project, numerous energy and resource conservation 
measures have already been planned for the building.
    Therefore, the federal funding requested in this initiative will 
allow other conservation measures to be included in the building's 
design, making it a remarkable state and national example of energy 
conservation and environmental protection. For these reasons, we hope 
that the Subcommittee will find this project worthy of your support. 
Thank you for your consideration.
                                 ______
                                 

 Prepared Statement of the University of Medicine and Dentistry of New 
                                 Jersey

    UMDNJ is one of the of the largest public health sciences 
universities in the country. In its 30-year history, the university has 
become a statewide system with 8 schools on 5 academic campuses. UMDNJ 
has developed a network of core and affiliated teaching hospitals as 
well as academic partners that provide health care and higher education 
to citizens throughout the state.
    The university's president and board of trustees developed a 
strategic plan to place UMDNJ in the top tier of academic health 
centers in the nation. Foremost in that plan is the development of 
centers of excellence such as the Cancer Institute of New Jersey and 
the Child Health Institute of New Jersey.
    The Cancer Institute is New Jersey's only NCI-designated cancer 
center. CINJ was established in 1990 with a capital grant from the 
federal government and other grant support. Over the past decade, CINJ 
has developed a provider network that includes 20 hospital partners 
across the state to provide seamless access to the exceptional cancer 
programs at CINJ. Over the past 3 years, the Gallo Prostate Cancer 
Center achieved $9 million in federal funding to enhance prostate 
cancer education and treatment programs throughout New Jersey. Because 
African-American males are 2.5 times more likely to develop prostate 
cancer than white males, we are especially pleased of our partnership 
with the 100 black men organization through which we offer prostate 
cancer screenings in minority communities. To date, this initiative has 
provided screenings for prostate cancer to more than 1,500 men in three 
counties. Our goal is to extend that service to every county in New 
Jersey.
    CINJ also works with the Chandler Health Center, a federally 
qualified community health center operated by the UMDNJ-Robert Wood 
Johnson Medical School in New Brunswick, NJ. The center provides early 
detection programs and examinations to medically indigent adults and 
children. CINJ also provides outreach to make the benefits of clinical 
trials more widely available to minorities.
    CINJ currently occupies a 76,000 square foot research and treatment 
facility, but demand has outpaced its capacity. The facility was 
designed to accommodate 16,000 patient visits, but last year there were 
more than 37,000 patient visits. These visits continue to increase at 
an annual rate of 10 percent. We anticipate between 50,000-60,000 
patient visits at CINJ by 2003. UMDNJ has approved the construction of 
a new addition to the CINJ facility in New Brunswick and has 
commitments of $16,000 toward the construction cost of $30 million. The 
new facility will take about two years to build and will create 
numerous construction-related jobs in the area. When completed, the 
facility will accommodate nearly 200 additional employees (faculty, 
support staff, nurses, clinical researchers, etc.) and will be the new 
home of the Dean and Betty Gallo Prostate Cancer Center. We are seeking 
$10 million in federal funding toward construction of the new CINJ 
addition.
    Our second priority is the Child Health Institute, a comprehensive 
research institute dedicated to the prevention, treatment and potential 
cures of childhood diseases, disabilities and disorders. The strong 
support of parents and families of affected children has produced 
important collaborations for the institute. Advocacy groups know the 
value of research as a tool toward treatment and cures. An example is 
autism. The Child Health Institute is home to the governor's council on 
autism, which distributes $1.5 million in grants from the state to 
provide education and treatment services to autistic children and their 
families.
    The Child Health Institute will act as a magnet for additional 
growth in research and healthcare in New Jersey. The Institute will 
encompass 100,000 square feet to house more than 40 research 
laboratories and associated support facilities. When completed, there 
will a full complement of 130 employees at the CHI.
    The Child Health Institute is estimated to cost about $40 million. 
To date, CHI has achieved close to $5 million in federal funding and 
$30 million from private, individual, foundation and other government 
sources. We are seeking $5 million to complete the federal government's 
commitment to the development of the Child Health Institute.
    The ability of urban based academic health centers such as UMDNJ 
and Robert Wood Johnson Medical School to conduct research that will 
translate to better health care must be supported through a partnership 
of federal, state and private resources. We thank this committee for 
supporting the critical needs of research and economic development 
throughout the nation and for your past support of our programs.
                                 ______
                                 

   Prepared Statement of the Business Council for Sustainable Energy

                              introduction
    The Business Council For Sustainable Energy is pleased to offer 
testimony on the role for government in promoting energy research, 
development and deployment, specifically the renewable energy programs 
at the Department of Energy (DOE).
    The Council was formed in 1992 by businesses and industry trade 
associations sharing a commitment to realize our nation's economic, 
environmental and national security goals through the rapid deployment 
of clean and efficient natural gas, energy efficiency, and renewable 
energy technologies. Our members range in size from Fortune 500 
enterprises to small entrepreneurial companies, to national trade 
associations.
                a federal energy commitment is critical
    The recent election focused on the energy crisis like none other we 
have faced in recent memory. We continue to experience spiraling prices 
and supply interruptions in California for electricity and we may see 
problems spread to other regions this summer. The environmental 
challenges of energy supply and use abound, and even energy's national 
security implications are coming to the forefront. All of these 
challenges will persist for years and will only be resolved by the 
concerted efforts of industry, government and the public.
    Regarding the Federal role in energy supply and use, we eagerly 
await implementation of the Administration's demonstrated commitment to 
fixing the problems, and a commitment by Congress to ensure that there 
is a diverse, environmentally and economically sound menu of energy 
options available to the market.
         federal programs to promote renewable energy resources
    The Council recognizes that suppliers and users of energy--not the 
Federal government--ultimately will decide which energy sources will 
meet our needs. In fact, in the deregulated California wholesale 
electricity market, many renewable energy projects are the margin in 
keeping the lights on, and their contribution to grid reliability will 
be realized many more times in more areas of the nation as summer 
approaches.
    The ability of these technologies to fulfill this role is due in 
large part to a sustained commitment by industry and the Federal 
government to research and development. In addition, the private sector 
has and continues to be important in helping share the risk of 
investing in deployment of clean technologies that, while at or near 
economical viability, face obstacles to their wide market availability.
    With the energy needs of the nation having never been more acute, 
the need for a continued Federal commitment is likewise critical. We 
believe it vital that the following programs receive the full support 
of the Congress in order to lead the nation through the challenges we 
face and will continue to face in the foreseeable future.
                                  wind
    Markets for utility-scale wind energy continue to accelerate their 
growth rate. Over the past year in the U.S. alone, nine separate 
hundred-plus megawatt projects were announced, including in Nevada, 
California and along the Washington-Oregon border, which will aid the 
heavily stressed West coast grid, three projects in Texas, and smaller 
projects in Pennsylvania, upstate New York, Kansas, Wyoming and 
elsewhere. Collectively, they represent the output of several 
traditional central station power plants yet have a minimal impact upon 
the environment.
    In addition to increasing their contribution to national 
electricity needs, wind facilities are some of the most rapidly sited 
and constructed energy providers. Major wind facilities can move from 
proposal to being on line in a fraction of the time of traditional 
power plants. In short, they are making a difference now.
    Wind energy technology as it stands today is capable of providing 
electricity at cost-competitive rates in only 5 percent of potential 
wind sites in the U.S. Further refinement from continued research and 
development can make wind a viable energy resource in more and more 
regions, over a wider range of wind conditions and make more 
significant contributions to our national electricity needs. To do so, 
Federal support is critical.
    Small wind turbines are also on the rise. Companies like Bergey 
Windpower, a Council member and manufacturer of small wind systems 
serving the distributed generation market for rural homes and 
facilities, are working overtime to satisfy orders from electricity-
starved regions. These distributed generation systems have great 
potential to reduce energy costs, promote competition and strengthen 
the electrical grid.
    DOE has significant programs for many technologies but not for 
small wind. A Small Wind Turbine Initiative (SWTI) would reduce the 
costs of small wind systems for homes, farms, and small businesses by 
promoting deployment that would lead to higher production volumes, 
reducing market barriers and improving the technology. SWTI aims to 
make small wind turbines cost-effective for an estimated 6 million to 
10 million potential rural residential users, opening a potential 
market of up to 60,000 MW that could make small wind a major 
contributor to our domestic energy supply.
                              solar energy
    Solar energy continues to provide an increasing amount of energy 
for the world. The concentrated solar power, photovoltaics and solar 
buildings programs at the Department have played and will continue to 
play an important role in the deployment of these technologies.
Concentrated Solar Power
    This technology can provide both heat and power for baseload energy 
demand. Three primary technologies are emerging today: solar troughs; 
solar-driven dish/engines; and concentrators. Storage technologies and 
hybrid designs provide for energy production even when the sun is not 
shining. Together these technologies are expected to contribute over 
5,000 megawatts of electricity worldwide by 2010.
    The Council supports funding for a combination of activities 
related to concentrated solar power (CSP). This includes research and 
technical assistance directed by industry but administered through the 
national laboratories and universities, cost-shared funding provided 
directly to U.S. industry for applied research, development and 
deployment and the establishment of the CSP Southwest Border 
Initiative, which would provide a blend of CSP technologies to help 
provide badly needed power to this region (Arizona, Nevada, California, 
and New Mexico). Together we request funding for concentrated solar 
power activities at a level of $25 million.
Photovoltaics
    This technology utilizes silicon to convert sunlight directly into 
electricity. Research has already succeeded in cutting the cost of 
producing electricity in this manner in half between 1995 and 2000. The 
industry has grown three-fold in less than a decade. On the horizon 
over the next five years is the potential to halve cost again, making 
photovoltaic-produced electricity competitive with all other 
distributed electricity generation options in the U.S.
    U.S. preeminence in this field can only be maintained with a 
committed Federal effort. New materials development, integrating 
photovoltaic systems with structural building materials, increasing 
manufacturing efficiencies and technology validation partnerships that 
increase confidence in the technology are all efforts requiring Federal 
assistance. Funding at a level of $100 million in fiscal year 2002 
would build upon past achievements and increase market penetration of 
this environmentally benign technology.
Solar Buildings
    Continued technological developments and a Federal commitment in 
this arena have seen solar thermal water heating and other technologies 
penetrating the building market. This program has successfully 
established performance and certification criteria that can predict the 
performance of solar water heating systems and improve efficiencies at 
lower costs. Today, large-scale homebuilders are actively integrating a 
variety of solar, energy efficiency and other renewable energy 
technologies into their designs and marketing them to consumers.
    The Council supports $12 million in funding for this program to 
develop integrated technology packages that can deliver competitive 
energy in today's market. Its blending of technologies including energy 
efficiency, other renewable and natural gas technologies creates 
solutions that provide reliable, low cost and environmentally sound 
energy options to consumers.
The Zero Energy Building Initiative
    The Council supports the creation of this initiative. The 
combination of solar technologies with energy-efficient construction 
techniques and highly efficient appliances can result in a new 
generation of cost-effective buildings that have zero net annual need 
for off-site energy while generating zero air pollution emissions.
                           geothermal energy
    The Council supports Federal programs directed towards taking 
advantage of geothermal resources. California today receives six 
percent of its electricity from geothermal resources and the western 
U.S. could realize nearly 20,000 megawatts of electrical and thermal 
energy using enhanced geothermal technology. That would represent a 
tripling of today's output, and would satisfy the needs of 18 million 
residents. The Council requests an increase to $60 million in 
geothermal funding in fiscal year 2002.
               residential renewable energy grant program
    Senator Murkowski has proposed this program to offset a portion of 
the cost of renewable energy systems that include solar, photovoltaic, 
wind, biomass, waste, hydroelectric or geothermal energy resources. We 
support the full authorization level of $30 million for fiscal year 
2002.
                           distributed power
    Reliable power generated on-site has received much attention since 
rolling blackouts struck California. Whether the energy is produced by 
microturbines, reciprocating engines, fuel cells or other gas-fueled 
systems, or by renewable energy technologies, challenges to widespread 
deployment remain. In some instances it is the lack of real-world 
operating experience due to the newness of some technologies; in other 
cases it may be problems associated with hooking up to the grid due to 
the lack of interconnect standards or emissions issues associated with 
siting new generating capacity. In all of these cases and despite 
demands of the marketplace, the Federal role remains strong.
    We view the new National Energy Reliability Initiative as a serious 
effort to address many outstanding distributed power and reliability 
issues. Its integrated examination of the challenges, backed by 
meaningful resources, has the potential to make substantial inroads 
toward deploying distributed energy resources. To meet these needs, the 
Council requests appropriations in the amount of $30 million for the 
initiative and $9 million for traditional distributed energy resources 
programs.
                 renewable energy production incentive
    As part of the Energy Policy Act of 1992 (Sec. 1212), Congress 
passed the Renewable Energy Production Incentive (REPI) to encourage 
the development of renewable energy projects in tax-exempt municipal 
utilities. This program has been successful in helping municipal 
utilities such as the Sacramento Municipal Utility District develop 
wind and solar generating facilities. We very much support this program 
and request the Committee provide $25 million in funding for the REPI.
                        international activities
    Finally, the Council would like to offer its support for Federal 
programs designed to help open important international markets for 
renewable energy technologies. Competition in rapidly growing 
developing country markets is intense; U.S. renewables manufacturers 
face the dual obstacles of competition from conventional energy sources 
and foreign renewables manufacturers often buoyed by government 
assistance.
    Our participation in international markets is more critical than 
ever. Growth in developing nations will take their energy use levels 
above that of the industrialized nations within two decades, with an 
anticipated expenditure of $4 trillion to $5 trillion. Traditionally, 
most ``new'' environmentally friendly and efficient technologies are 
not the first choice of decision-makers in these markets. With 
encouragement and bureaucratic streamlining, however, U.S. clean energy 
exports could easily double in less then five years, resulting in up to 
$5 billion in export revenues and 100,000 new American jobs. Global 
benefits include reducing greenhouse gas and sulfur particulate 
emissions, and providing for the energy needs of some of the 2 billion 
people in the world now without electricity.
    The Council is extremely supportive of the fiscal year 2002 funding 
for international energy programs and urges that funding not come at 
the expense of existing research, development and deployment programs. 
Beyond the benefit to U.S. exports, these technologies can help ensure 
international economic and political stability by meeting the profound 
infrastructure needs of these countries.
                               conclusion
    A wide range of energy options is needed to create energy security 
and ensure our economic and environmental integrity. With a full slate 
of choices, choices in part aided by research and development supported 
by the Department of Energy, the marketplace will have options to 
select those most appropriate solutions to meet specific needs. These 
are options that are already having an impact in many states and 
countries.
    In the near-term, these technologies provide the shortest lead-time 
to getting new generation capacity on the grid. Simultaneously, they 
provide American jobs, stronger economies here and abroad, enhanced 
export opportunities for domestic manufacturers and a cleaner 
environment. Continuing Federal emphasis on developing low- and non-
polluting energy technologies and services will help achieve these 
goals. Utilizing cost-shared collaboratives with industry to leverage 
limited Federal funds in recognition that cooperation with industry is 
vital for addressing market imperfections impeding the widespread use 
of renewables.
    The Council strongly urges the Congress to continue its support of 
Federal research, development and validation programs for renewable and 
distributed energy technologies. By adopting a robust budget, Congress 
can demonstrate its genuine commitment to the U.S. economy throughout 
this time of critical energy constraint.
                                 ______
                                 

        Prepared Statement of the National Hydrogen Association

    Dear Chairman Domenici: The National Hydrogen Association (NHA) was 
formed by a group of ten industry, university/research, and small 
business members in February 1989. The National Hydrogen Association 
now has over 70 members, including automobile companies, energy 
providers, fuel cell developers, gas producers, chemical companies and 
others. The NHA provides a national focal point for hydrogen interest 
and information transfer.
    With active participation from three major energy companies (BP, 
Shell Hydrogen, and Texaco Energy Systems), as well as three major 
hydrogen suppliers (Air Products and Chemicals, BOC Gases, and 
Praxair), the NHA is better positioned than ever to achieve the goal of 
industry and government to implement a hydrogen energy infrastructure. 
The Department of Energy must be ready to support this effort with 
improved technology and safe infrastructure while removing the barriers 
to commercialization.
    The mission of the National Hydrogen Association is to foster the 
development of hydrogen technologies and their utilization in energy 
applications. I am writing to underscore the NHA's support for 
increased funding of the Department of Energy's fiscal year 2002 
Hydrogen Research Program. The Hydrogen Future Act of 1996, authored by 
Congressman Robert Walker while he was Chairman of the Science 
Committee, authorized $40 million for the Hydrogen Research Program for 
fiscal year 2001. This act expires this year, and reauthorization 
efforts are underway. The current proposed DOE budget for hydrogen 
falls short of the targets in the draft bill and in fact falls short of 
the authorized amount for fiscal year 2001 of $40 million. The NHA 
encourages you to fund the fiscal year 2002 DOE Hydrogen Program at the 
$40 million level that was authorized, but not appropriated for fiscal 
year 2001.
    The development of programs that create jobs, and enhance the 
economy while not polluting our environment should be a priority and 
should be funded at the level that Congress has authorized. The 
introduction of hydrogen as a clean energy carrier will have wide 
ramifications. Hydrogen and the associated technologies will provide us 
with a degree of energy independence that we have not experienced in 
the world market for oil, and will unleash this nation's ability to 
influence world markets through U.S. production of clean energy 
technologies.
    A $40 million appropriation for such an important program is 
modest, especially when compared to the funds being spent by domestic 
and foreign businesses and foreign governments. We should not be left 
at the starting gate when it comes to the opening of New World markets. 
Full funding of the Hydrogen Research Program is a cost-effective 
investment in America's future.
    Hydrogen was rated highly by the Department of Energy in a study 
conducted by Energy Efficiency and Renewable Energy (EERE) on carbon 
displacement, a key indicator in their budget allocation in response to 
the Administration's climate change initiative. Auto companies and 
energy companies have publicly stated that if certain technical issues 
with hydrogen were solved, they would not be looking at other alternate 
fuels. Why has DOE reduced the budget for the Department's core 
competency in hydrogen when the need for clean, sustainable energy has 
significantly increased?
    The administration's budget recommends only $13.9 million for 
hydrogen research and development. A supplemental budget may be in the 
works. At $13.9 million, many activities critical to assure a safe 
hydrogen infrastructure will not be funded. These include ceramic 
membrane technology efforts cost-shared with industry; the development 
of codes and standards for hydrogen energy systems, including 
transportation and stationary power systems; critical outreach with 
regulatory bodies and others who want to work with the hydrogen 
community to assure public safety; outreach to the public on the proper 
use and benefits of these new technologies; niche market demonstrations 
including fuel cell mining vehicle demonstration projects, hydrogen 
refueling stations, hydrogen storage technologies using new materials; 
and others. Even at $27 million, demonstrations of stationary fuel 
cells and vehicles at Federal facilities, efforts to meet cost targets 
for hydrogen production by reformation of natural gas, and other 
activities described in Title II of the Hydrogen Future Act will not be 
fully funded.
    Hydrogen technologies have made significant progress both 
technically and economically due to the benefit of a focused 
government-industry program at the U.S. Department of Energy. The 
Hydrogen Program allows for a single focal point for hydrogen energy 
system information and activities. This core competency is supported by 
industry and avoids redundancy and duplication of effort, while 
enabling hydrogen to have a visible activity. This activity is 
monitored with support from the Hydrogen Technical Advisory Panel, 
mandated by Congress, and tracked through an effective peer review 
process annually. This type of accountability has allowed the Hydrogen 
Program to make significant progress with limited budgets.
    Given that demonstrations will be taking place over the next three 
years in California and other states, timing for the development of 
hydrogen storage and refueling systems is now. The DOE Hydrogen 
Program, in which the National Hydrogen Association and many of our 
members participate, has been called upon by industry to address these 
issues and is responding to industry's requests. The NHA has been 
working closely with the DOE Hydrogen Program to ensure that industry 
has the tools it needs to commercialize the technologies developed 
through our national laboratories and cooperative research efforts. I 
believe it is unwise for the hydrogen program to suffer a funding 
reduction and turn these activities over to other DOE areas, since this 
diffuses the hydrogen effort and would lead to independent or poorly 
coordinated hydrogen projects.
    Hydrogen has enjoyed support on Capitol Hill and from industry by 
providing a balanced program focused on proving key technological 
concepts, which industry may then use to make products, based on their 
own market analyses. The NHA encourages you to fund the Hydrogen 
Program at its fiscal year 2001 authorized level of $40 million in 
fiscal year 2002. Thank you for your past leadership in this energy 
area. I look forward to working with you to increase the fiscal year 
2002 appropriation for the DOE Hydrogen Program.
                                 ______
                                 

           Prepared Statement of the Nuclear Energy Institute

    On behalf of the Nuclear Energy Institute, I would like to commend 
you, Mr. Chairman and the members of this subcommittee, for focusing 
your attention on the value of nuclear technology-related programs in 
the Energy Department and Nuclear Regulatory Commission budget 
proposals for fiscal year 2002.
    The Nuclear Energy Institute (NEI) coordinates public policy for 
the U.S. nuclear industry. NEI represents 270 members with a broad 
spectrum of interests, including every U.S. electric company that 
operates a nuclear power plant. NEI's membership also includes nuclear 
fuel cycle companies, suppliers, engineering and consulting firms, 
national research laboratories, manufacturers of radiopharmaceuticals, 
universities, labor unions and law firms.
    Today, America's 103 nuclear power plants are the safest, most 
efficient and reliable in the world. Nuclear energy is the largest 
source of emission-free electricity generation in the United States, 
and the industry last year reached record levels for efficiency and 
electricity production.
    The industry thanks Senator Pete Domenici for his leadership in 
supporting the major U.S. source of emission-free electricity. The 
nuclear energy legislation introduced by Senator Domenici in March 
provides concrete steps to set our nation on a sound energy course for 
decades to come, including an appropriate robust role for nuclear 
energy in our nation's electricity portfolio.
                 federal disposal of used nuclear fuel
    The Federal government's responsibility for deep geologic disposal 
of used nuclear fuel and the byproducts of defense-related activities 
is long established U.S. national policy. In 1982, the Nuclear Waste 
Policy Act codified Federal policy for developing a repository for 
long-term stewardship of used nuclear fuel. In 1987, after 
environmental assessments were conducted at five sites, Congress 
focused the repository study on Yucca Mountain, Nev. DOE is committed 
to forward a formal decision on the site suitability of Yucca Mountain 
to the president this year.
    DOE's 1998 viability assessment, 1999 draft environmental impact 
statement (EIS) and additional scientific evaluations support 
preliminary findings that the proposed repository at the remote, desert 
ridge at Yucca Mountain can protect public health and safety far into 
the future. DOE's science consistently predicts that peak radiation 
releases over 10,000 years, due to the repository, would be less than 1 
percent of naturally occurring background radiation at that location, 
or less radiation than received by traveling on a transcontinental 
airplane flight.
    DOE must start meeting its contractual and statutory obligations to 
begin removing used nuclear fuel from nuclear power plant sites, 
national laboratories and defense facilities in approximately 150 
communities in 40 states. The industry thanks the committee for its 
commitment to rectify DOE's 1998 default on this obligation by 
sufficiently funding the repository program. We urge the committee to 
continue to hold DOE accountable for making a decision on a formal 
Yucca Mountain site recommendation to the president by the end of this 
year.
    Since 1983, American electricity consumers have committed $16.8 
billion to the Nuclear Waste Fund, specifically to finance the Federal 
management of used nuclear fuel. Federal taxpayers have paid an 
additional $1.4 billion for disposal of waste from defense-related 
nuclear programs. The Nuclear Waste Fund has a balance of $10.1 
billion, which must be made available for repository construction and 
operation.
    The nuclear energy industry strongly supports the Department of 
Energy's fiscal year 2002 funding request of $445 million for the 
Civilian Radioactive Waste Management program. At this critical 
juncture, an increase in DOE's appropriation is warranted to continue 
the scientific study of Yucca Mountain. Electricity consumers this year 
will pay more than $700 million into the Nuclear Waste Fund.
    Although the repository program is the foundation of our national 
policy for managing used nuclear fuel, the nuclear industry also 
recognizes the value in researching future used fuel management 
technologies. Farsighted research and development programs allow our 
nation to remain the world leader in nuclear technologies. However, it 
is important to note that even technologies like transmutation--the 
conversion of used nuclear fuel into less toxic materials--require a 
repository for disposal of the radioactive byproducts generated from 
the process.
                 nuclear energy research & development
    For the United States to remain the world leader in nuclear safety 
and technology, it is crucial that industry and government continue to 
invest in nuclear technology research and development.
    U.S. electricity demand grew by 2.3 percent a year on average 
during the 1990s, and by 2.6 percent in 2000. Even if electricity 
demand grows by a modest 1.8 percent annually over the next two 
decades, the nation will need nearly 400,000 megawatts of new electric 
generating capacity, including replacement of retired capacity, 
according to the U.S. Energy Information Administration. This capacity 
is the equivalent of building about 40 new mid-size (500-megawatt) 
power plants--20,000 megawatts--every year for the next 20 years.
    The industry is disappointed that DOE has requested less funding 
for its fiscal year 2002 nuclear energy research and development 
programs than last year, and urges the committee to approve $433 
million in fiscal year 2002 for DOE's Office of Nuclear Energy, Science 
and Technology--twice the current budget.
    This funding level is consistent with recommendations in 
legislation recently introduced authorizing increases in nuclear energy 
R&D programs. Funding increases also have been suggested in recent 
years by the President's Committee of Advisors on Science and 
Technology (PCAST), the Secretary of Energy's Nuclear Energy Research 
Advisory Committee and DOE's Near-Term Deployment Group.
    The Nuclear Energy Research Initiative (NERI)--which seeks to 
expand America's nuclear energy program in the 21st century--fills a 
vital need identified in a 1997 PCAST report. PCAST recommended an R&D 
program to address potential barriers to nuclear energy's long-term use 
and to maintain America's nuclear science and technology leadership. 
PCAST also recommended another R&D initiative--the Nuclear Energy Plant 
Optimization (NEPO) program--to generate more low-cost energy from 
America's nuclear power plants.
    A blue ribbon panel of seven experts appointed by the Nuclear 
Energy Research Advisory Committee has offered recommendations on how 
DOE can support university nuclear engineering programs, help to 
maintain university research and training reactors and promote 
collaboration between universities and DOE laboratories. DOE's Near-
Term Deployment Group is developing recommendations on agency actions 
needed in fiscal year 2002 and fiscal year 2003 to facilitate the NRC 
review of early site permit applications for new nuclear power plants.
    Also, authorizing legislation introduced this year in the U.S. 
Senate and House of Representatives would expand funding in these areas 
as well as provide incentives to increase electricity generation at 
nuclear power plants.
    The nuclear energy industry urges the committee to approve $60 
million in fiscal year 2002 for the NERI program, which is paving the 
way for the expanded use of nuclear energy and maintaining U.S. 
leadership in nuclear plant technology and safety. In fiscal year 2001, 
NERI received $22.5 million--less than one-half of the $50 million 
annual appropriation recommended by PCAST in its 1997 report. Beginning 
in fiscal year 2002, PCAST recommended NERI funding be increased to 
$100 million a year. Although current funding has been sufficient to 
continue projects initiated in previous fiscal years, it leaves little 
funding for new R&D projects.
    The nuclear energy industry also encourages the committee to 
allocate $15 million for the NEPO program, which improves efficiency 
and reliability while maintaining outstanding safety at U.S. nuclear 
power plants. This public-private partnership is helping to facilitate 
America's economic growth and prosperity--and improving our nation's 
air quality. NEPO received $5 million in fiscal year 2000 and fiscal 
year 2001--half the annual funding recommended by PCAST.
    DOE has launched a project to prepare a technology roadmap for 
developing and deploying ``next generation'' nuclear plants, called 
Generation IV. As a part of this effort, DOE is preparing a report on 
near-term deployment activities needed to have new nuclear plants in 
operation by 2010 or sooner, while longer term technologies are being 
developed.
    DOE is coordinating with NEI's Executive Task Force on New Nuclear 
Plants. In the interim, DOE is preparing recommendations on activities 
requiring immediate attention and is expected to released them in the 
near future. To support completion of the DOE technology roadmapping 
effort and to begin implementing these near-term recommendations, NEI 
urges the committee to approve $42 million in fiscal year 2002 for the 
Nuclear Energy Technology Development program.
    The industry also requests $34.2 million for DOE's University 
Support Program, which enhances vital research and educational programs 
in nuclear science at the nation's colleges and universities. The 
number of college programs in nuclear engineering and science is 
dwindling. To maintain our nation's position as the international 
leader in nuclear technology, it is vital that this trend be reversed 
and that our nation's best and brightest technical minds be attracted 
to the nuclear technologies. We urge Congress to adequately fund 
student recruitment, teaching facilities, fuel and other reactor 
equipment, and instructors to educate a new generation of American 
nuclear specialists.
    Finally, the industry supports the new initiatives included in 
authorization legislation introduced this year. One such initiative is 
the Production Incentive Programs, which the industry believes should 
be funded at $15 million.
                     nuclear regulatory commission
    The industry commends Congress for important changes to the nuclear 
industry user fee assessments supporting NRC activities that are 
unrelated to industry activities. That legislation requires that the 
proportion of the NRC's budget derived from user fees be decreased by 2 
percent each year through 2005. In that year, licensees will support 90 
percent of the NRC's budget, but not activities that are not directly 
related to regulating the industry.
    As industry and national energy supply priorities change, sound 
public management and budgeting principles dictate that the NRC 
reassess its allocation of resources and make appropriate budget and 
staffing changes. In that regard, this committee asked for a 
comprehensive five-year plan as part of the NRC's fiscal year 2001 
budget request. Last year, the NRC issued a strategic plan for fiscal 
years 2000-2005. In addition, the agency submitted a fiscal year 2001-
2005 resource information document in response to requests from 
Congress.
    The industry urges the NRC to review its budget in the context of 
those documents and the changing needs of the agency. In particular, 
the agency should carefully review its organizational structure and 
employment levels. The NRC, in its resource information document, has 
acknowledged that additional organizational changes may be desirable. 
Although the NRC has reduced its staffing levels during the 1990s, its 
projections reveal that it may begin increasing those levels over the 
next few years. The industry believes there are a number of 
opportunities for reallocating resources that should be explored before 
additional resources are authorized. These include: reevaluating NRC's 
regional structure in light of the results of the reactor oversight 
process; eliminating research efforts of questionable value, such as 
human performance and organizational effectiveness; limiting the role 
of the Advisory Committee on Reactor Safety (ACRS) to technical 
matters; and streamlining the differing professional opinion process to 
minimize its impact on issue resolution and management time.
    The NRC will be facing several issues in the near future that will 
challenge its management flexibility. The possibility of early site 
permitting and new reactor licensing, for example, will raise issues 
that have not been considered by the NRC for many years. It may not be 
possible to simply reassign current staff due to the levels of 
specialized expertise that may be required. The industry urges the 
committee to request a detailed explanation of how the NRC's proposed 
budget will address this important issue as well as the impact that 
license renewal may have on this and future NRC budgets and resource 
allocation.
    The industry thanks the committee for its continued oversight of 
the NRC and support for the agency's new reactor oversight process, 
which is designed to make regulation of the industry more focused on 
areas significant to safety. The industry and other stakeholders are 
working with the NRC to incorporate lessons learned during initial 
implementation of the process in 2000 and to enhance the efficacy of 
the oversight process.
    The industry believes that the majority of U.S. nuclear power 
reactors will be relicensed for an additional 20 years. The first two 
electric companies seeking 20-year license extensions for a total of 
five reactors received regulatory approval within 24 months. The 
industry expects future license renewal applications to be streamlined 
as the NRC applies lessons learned from the initial applications. The 
committee's continued oversight of license renewal is greatly 
appreciated.
    Other programs supported by the industry include:
    Nuclear Nonproliferation: The industry supports the disposal of 
excess weapons grade nuclear materials through the use of mixed-oxide 
fuel in reactors in the United States and Russia.
    Low-Dose Radiation Research: The industry strongly supports 
continued funding for the DOE's low-dose radiation research program. 
This program will produce a better understanding of low-dose radiation 
effects to ensure that public and private resources are applied in a 
manner that protects public health and safety without imposing 
unacceptable risks or unreasonable costs on society.
    Nuclear Research Facilities: The industry is concerned with the 
declining number of nuclear research facilities. We urge the committee 
to request that DOE provide it with a long-term plan for using existing 
nuclear research facilities as well as for development of new research 
facilities.
    Uranium Facility Decontamination and Decommissioning: The industry 
fully supports cleanup of the gaseous diffusion plants at Paducah, Ky., 
Portsmouth, Ohio; and Oak Ridge, Tenn. Each year, commercial nuclear 
power plants contribute more than $150 million to the government-
managed uranium enrichment plant Decontamination and Decommissioning 
Fund. NEI urges the committee to ensure that these monies are spent on 
decontamination and decommissioning activities at these facilities. 
Other important environmental, safety and/or health activities at these 
facilities should be paid for out of the general fund.
    International Nuclear Safety Program & Nuclear Energy Agency: NEI 
supports the funding requested for the international nuclear safety 
programs of both the DOE and NRC. They are programs aimed at the safe 
commercial use of nuclear energy.
    Medical Isotopes: The nuclear industry supports the 
administration's program for the production of medical and research 
isotopes. We support continued funding for the Advanced Nuclear 
Medicine Initiative to fill the gap where other funding sources, such 
as the National Institutes of Health, have been either unable or 
unwilling to provide support for radioisotope production.
                                 ______
                                 

Prepared Statement of the American Society of Plant Physiologists, the 
 National Corn Growers Association and the American Phytopathological 
                                Society

                           summary paragraph
    The Department of Energy, Office of Science, Basic Energy Sciences, 
Energy Biosciences program is a highly competitive research program 
that supports leading basic research on plants and microbes. Plant 
genomics and recombinant DNA technology (biotechnology) offer 
revolutionary new tools to plant scientists to engineer plants that 
will address the nation's energy needs. Basic plant research is leading 
to plants that will produce valuable chemicals that will replace 
petroleum-derived industrial products. These home-grown energy crops 
will provide benefits to the U.S. economy, farmers, the chemical 
industry, consumers and environment. Environmental benefits will also 
result from research on engineered plants that remove heavy metal 
contaminants from the soil and water. Scientists supported by the 
Energy Biosciences program have gained prominence in the national and 
international science communities. As just one of these examples, 
Energy Biosciences-sponsored research on capture of energy from 
photosynthesis by Professor Paul Boyer led to the award of the 1997 
Nobel Prize in Chemistry (biochemistry) for Dr. Boyer. The Energy 
Biosciences program is an example of the optimum way basic science can 
be used to solve some of our country's most challenging energy and 
environmental problems.
    Mr. Chairman, the American Society of Plant Physiologists (ASPP), 
representing 6,000 plant scientists, the National Corn Growers 
Association (NCGA), representing more than 30,000 members, and the 
American Phytopathological Society (APS), representing 5,000 plant 
pathologists, appreciate having this opportunity to submit comments on 
opportunities offered by energy-related plant research sponsored by the 
Department of Energy. The DOE Office of Science, Basic Energy Sciences, 
Energy Biosciences program funds basic research in the plant sciences 
and non-medical microbiology in several important areas.
    The Energy Biosciences program supports basic research that makes 
use of the sun's energy and atmospheric carbon dioxide to produce in 
plants renewable sources of energy including fuels and industrial 
products. Promising research on plants in the area of phytoremediation 
sponsored by the Energy Biosciences program is leading to enhanced 
plants that can be used to clean heavy metal contaminants from soil and 
water.
    Until the latter part of the 19th Century, people throughout the 
world were dependent upon plants and other contemporaneous biological 
sources for the production of organic materials. Plants and animals 
provided the only sources of fibers, coatings, lubricants, solvents, 
dyes, waxes, fillers, insulation, fragrances detergents, sizing, 
leather, wood, paper, rubber and many other types of materials.
    Dr. Chris Somerville, whose research has been supported by the 
Energy Biosciences program, and Dario Bonetta, provided in the January 
2001 issue of the peer-reviewed science journal Plant Physiology a 
historical background and projected future advances in energy-related 
plant research. These scientists identified a number of opportunities 
offered by advances in plant genomics and modern transformation 
technologies such as biotechnology that will lead to development of 
novel plant products to replace petroleum-derived chemicals. Research 
in this area has been identified by Plant Physiology as one of the 
greatest advances in plant science of the past 25 years. The DOE Energy 
Biosciences program is the key source of support for this basic energy 
research. This statement includes in part some of the findings of 
Somerville and Bonetta endorsed by the ASPP and the APS.
    As recently as 1930, 30 percent of industrial organic chemicals 
were derived from plants. The discovery of extensive petroleum reserves 
and advances in chemistry and petroleum engineering resulted in a major 
shift to reliance on fossil sources of organic feedstocks such as 
petroleum. These developments also led to the development of petroleum-
based materials, such as inexpensive plastics, with properties that 
could not be duplicated by abundantly available natural materials.
    However, many important materials are still derived from plants and 
animals including wood, cork, paper, leather, cotton, ramie, hemp, 
flax, sisal, wool and silk. Rubber from natural latex is still the only 
material that can be used to produce tires that will reliably withstand 
the forces associated with airplane landings. Linseed oil is still used 
to make paint. Clearly, for many applications, biological sources can 
still be used to produce materials on the scale necessary to meet the 
needs of the U.S. and other populous industrialized nations.
    Research leading to home-grown genetically engineered plants that 
produce commercially valuable chemicals offers many benefits for the 
U.S., which is now greatly dependent upon imported petroleum for these 
products. Enhanced energy crops would help diversify crop production in 
the U.S. by producing high-value chemicals and other technical 
materials that are currently produced from declining petroleum or coal 
feedstocks. In addition, it is possible to envision the production in 
plants of novel biologically inspired materials with properties not 
easily simulated through chemical synthesis. These enhanced crops could 
create potentially large new markets for excess production of American 
agriculture. Plants engineered to be chemical feedstocks would also 
address the long-term goal of developing more sustainable and 
environmentally benign methods of meeting national needs for chemicals 
and other materials. This includes the use of the most environmentally 
benign methods for protecting these enhanced crops against their pests 
and diseases. Like any other efficient use of crops for the benefit of 
society, the crops must be healthy.
    Two major factors suggest that the trend toward use of petroleum-
derived products over plant-based products can be reversed. First, the 
costs of agricultural plant products have declined steadily over the 
past 75 years, while oil prices have generally increased. Second, we 
now have the ability through genomics and genetic engineering to tap 
into the vast chemical diversity produced biologically. Within the 
plant kingdom alone, over 50,000 different organic chemical structures 
are produced biologically. The microbial world provides many additional 
opportunities. A practical example of the possibilities offered was 
demonstrated by the use of a bacterial gene to modify a plant to 
produce a biodegradable plastic at levels up to 14 percent of the dry 
weight of the plant's leaves. Basic research leading to this example 
was made possible by the DOE Energy Biosciences program. Plant-produced 
products can also provide the chemical industry with much greater 
diversity than available from the comparatively limited structures 
found in crude oil.
    Examples of transgenic plant oils in commercial production include 
high-lauric acid canola, which can be used in a variety of applications 
including specialty foods and soap and detergent manufacture. A 
transgenic soybean variety has very low saturated fatty acids and more 
nutritional unsaturated fatty acids. Such oils are both healthier for 
human consumption and are extremely stable making them useful as 
biodegradable lubricants.
    The lab of Michigan State University Professor John Ohlrogge, who 
has been supported by the DOE Energy Biosciences program, is now 
working to develop plants which will provide the feedstocks for new 
types of polyurethane, nylon with stronger and more flexible fibers, 
and biodegradable lubricants. These are not niche markets. The U.S. now 
produces nylon, polyurethane and other plastics to supply multi-
billion-dollar markets. Genetically modified crop plant production of 
nylon alone could create over $2 billion in new income for American 
farmers. American farmers will benefit from these enhanced plants 
because they will have new markets for their products. The American 
chemical industry will benefit because it will have new structures on 
which to build improved plastics and other products. American consumers 
will benefit because more of the nation's products will be based on 
renewable and biodegradable resources that do not contribute to 
landfill overflow or higher atmospheric carbon dioxide levels. The 
nation would also become less dependent on foreign oil for production 
of these products.
    The Energy Biosciences program is an example of the optimum way 
basic science can be used to solve some of our country's most 
challenging energy and environmental problems. We appreciate the strong 
support of the Committee for the Energy Biosciences program in past 
years. ASPP, NCGA and APS respectively urge the Committee to increase 
support for Energy Biosciences and the Office of Science by 15 percent 
in fiscal year 2002 to help the nation more effectively meet its 
enormous energy needs.
                                 ______
                                 

  Prepared Statement of the Solar Energy Industries Association (SEIA)

    Mr. Chairman, Members of the Committee, I appreciate this 
opportunity to submit testimony on solar energy programs sponsored by 
the Federal government. Solar energy will play an important role in the 
years ahead not just in promoting America's energy independence, but 
also in cleaning up our environment, and in expanding a domestic high-
tech industry and the precision manufacturing jobs that come with it.
    At the outset, let me express our profound disappointment with the 
Administration's budget request for solar programs. It is apparently 
the Administration's judgment that bipartisan majorities in Congress 
last year wasted an enormous amount of taxpayer money with your fiscal 
year 2001 appropriations for solar research and development. The facts, 
however, reflect that the Federal government's investments in solar 
programs over the last two decades have lead to steady improvements in 
efficiency of solar products and in steadily declining costs to produce 
solar energy.
    As you well know, Administrations sometimes under-request funds for 
programs when they know Congress will correct the deficiencies. Perhaps 
this is the case here. In any event, it makes your work this year more 
important than ever. We request that Congress appropriate for these 
programs in fiscal year 2002 amounts that will enable solar energy to 
contribute not just to expanding our energy supply, but also to help 
clean our air, as solar energy creates no emissions.
    Our budget recommendations are consistent with an important 
amendment, sponsored by Senator Harry Reid, which was adopted as part 
of the Senate Budget Resolution. The amendment increased by $450 
million our nation's commitment to renewable energy R&D programs for 
fiscal year 2002.
    The United States has invested millions of dollars in solar RD&D, 
which is a tiny amount compared to its investment in conventional 
energy technologies. While SEIA recommends the following minimum 
investments in Federal solar energy RD&D, we are also equally 
recommending that existing programs in other agencies be co-invested in 
the development and demonstration (deployment) part of the RD&D budget. 
In fact, the priority for these investments this year and beyond should 
now be focused on the second ``D,'' which we call ``deployment.''
    The funding levels for solar RD&D programs through the Department 
of Energy for fiscal year 2002 should be:

                        [In millions of dollars]

Concentrating solar power.........................................    25
Photovoltaics.....................................................   100
Solar buildings...................................................    12

    SEIA believes that one-quarter of these budgets ($35 million) 
should be reserved for basic research directed by industry but 
administered through the national laboratories and universities. SEIA 
believes that one-third of these funds ($45 million) should be cost-
shared with US industry directly from DOE for applied RD&D (i.e., 
manufacturing initiatives, partnerships, etc.). SEIA urges that the 
remaining funds ($58 million) be competitively awarded to the U.S. 
solar industry through the states by leveraging with other Federal and 
state programs, aggregating nearly $200 million per year for actual 
deployment and system validation demonstration programs.
    There are three other valuable programs that merit the Committee's 
attention. SEIA urges your support for the Concentrating Solar Power 
(CSP) Southwest Border Initiative, which would utilize a blend of CSP 
technologies to help provide badly-needed power to the states of 
California, Arizona, Nevada, and New Mexico, while also improving these 
technologies for deployment elsewhere in the nation. The Zero Energy 
Building (ZEB) Initiative would combine solar technologies with energy-
efficient construction techniques and highly efficient appliances to 
develop the next generation of buildings that will have zero net annual 
need for off-site energy while generating zero emissions. This multi-
disciplinary program deserves your support. Finally, SEIA urges the 
Committee to support and fund fully Senator Frank Murkowski's 
innovative Residential Renewable Energy Grant Program, which would 
offset a portion of the cost of renewable energy systems.
    SEIA further recommends that other Federal agency, and other DOE, 
programs direct a certain portion of their funds for deployment and 
technology validation, as follows:

                        [In millions of dollars]

Department of Defense.............................................    20
    Defense Advanced Research Program (DARPA).....................    10
    FEMP Procurement..............................................    10
Department of Energy..............................................    26
    Combined Heat & Power.........................................    10
    Distributed Power.............................................     2
    Hydrogen......................................................     3
    Industries of the Future......................................    10
    Storage.......................................................     1
Environmental Protection Agency...................................    10
    Energy Star...................................................     5
    Office of Research and Development (ORD)......................     5
Housing and Urban Development.....................................     4
    Office of Energy..............................................     2
    Partnership of Advanced Technology in Housing.................     2
National Institute of Science and Technology (NIST)...............    10

    SEIA also recognizes that several hundred million dollars are 
available through the State Trust Funds established by some states that 
have deregulated their electric utilities. The basis of SEIA's 
recommendations is to leverage the Department of Energy and other 
Federal agency funds and co-invest with these state-based funds. SEIA 
also suggests that states and local governments with other resources 
should be sought out to co-invest as well, so that a strong geographic 
dispersion of solar energy technologies and applications can occur.
    The US solar industry believes that increased market penetration 
tied to relevant applied research and technology validation is the most 
effective path to exponentially increase the use of solar technologies 
in realistic market-driven uses. Solar technology today can provide 
real solutions to real problems such as power reliability, energy rate 
fluctuations, fossil fuel shortages, pollution and noise, as well as 
high-technology economic development.
    Particularly in this time of rolling blackouts in California, and 
the potential for these disruptions to expand across the country in the 
summer months ahead, the added capacity that solar represents could 
make the difference for critical needs of businesses, governments and 
homes. As we seek to expand our nation's energy mix and capacity, the 
Department of Energy's solar energy RD&D efforts should continue their 
important work.
    The Solar Energy Industries Association (SEIA) is the national 
industry organization of the photovoltaics and solar thermal 
manufacturers, component suppliers, distributors and installers. We 
have been active in guiding and promoting solar energy through the U.S. 
Department of Energy (and its predecessors) over the last 26 years. We 
would be happy to provide you with further information, and answer any 
questions you may have.
    We look forward to working with you in the months and years ahead, 
as solar energy helps more and more families and businesses meet their 
energy needs in a clean and reliable way. Thank you very much for your 
consideration.
                                 ______
                                 

  Prepared Statement of the Biomass Energy Research Association (BERA)

    This testimony pertains to the fiscal year 2002 (fiscal year 2002) 
appropriation for mission-oriented, biomass research, development, and 
deployment (RD&D) supported by DOE's Office of Energy Efficiency and 
Renewable Energy (EERE). The Biomass Energy Research Association (BERA) 
is a non-profit association headquartered in Washington, DC. BERA was 
founded in 1982 by researchers and private organizations that are 
conducting biomass research. Our objectives are to promote education 
and research on the production of energy and fuels from virgin and 
waste biomass that can be economically utilized by the public, and to 
serve as a source of information on biomass RD&D policies and programs. 
BERA does not solicit or accept federal funding for its efforts.
    On behalf of BERA's members, I would like to thank you, Mr. 
Chairman, for the opportunity to present our Board's position on the 
funding of mission-oriented biomass RD&D. On this occasion, I would 
like to focus on the high-priority projects and programs that we 
strongly urge be continued or started.
    One of the primary goals of the Bioenergy/Bioproducts Initiative, 
which was created as a result of ``The Biomass Research and Development 
Act of 2000,'' and Executive Order 13134, ``Developing and Promoting 
Biobased Products and Bioenergy,'' is to triple U.S. usage of bioenergy 
and biobased products by 2010. Congress provided funding for the 
Initiative in fiscal year 2000 and fiscal year 2001. A strategic plan 
has been developed to attain the Initiative's goal by the multi-agency 
Biomass Research and Development Board (BRDB) co-chaired by the 
Secretary of Energy and the Secretary of Agriculture. Achievement of 
this goal is sorely needed because of what has happened to U.S. crude 
oil, natural gas, and electricity markets, our continually increasing 
dependence on imported oil, and environmental issues. It is time to 
determine whether practical biomass systems can be developed that are 
capable of displacing much larger amounts of fossil fuels. The amount 
displaced in 1999 was 1.65 million barrels of oil equivalent per day 
(3.49 quad per year). The BRDB will address this question, and help to 
coordinate the many different biomass RD&D projects in progress in the 
different agencies to ensure that each is necessary and on course. 
Estimation of the potential contribution to the program goal of each 
technology that is funded is essential to optimize the project mix. New 
projects should not be started until this is done. The BRDB has 
projected that achievement of the targeted goal requires RD&D funding 
to be increased by $500 million to $1 billion per year of public-sector 
investment. It is clear that a significant increase in RD&D 
appropriations is necessary to implement this program.
    The Regional Biomass Energy Program (RBEP) authorized in 1983 by 
Congress covers the entire country and is nationally known for its 
information and outreach programs. It has a successful track record in 
partnership with almost all states, and has brought many local 
government and business communities together to plan the development of 
practical biomass energy and fuel systems using indigenous resources in 
the respective state areas. We urge that the RBEP be continued because 
it promotes and helps facilitate commercialization of biomass through 
its established networks with the states and the private sector, and 
can make major contributions to the goal of tripling biomass 
consumption.
    In its core RD&D, DOE has been required to terminate research in 
several microbial and thermochemical conversion areas because of the 
cost of scale-up programs. BERA believes that a balanced program should 
be sustained and protected, so we continue to recommend both a 
diversified portfolio of research and an appropriate amount of funding 
for scale-up without diminishing either EERE's research or scale-up 
programs. DOE's basic research on biomass energy outside of EERE by the 
Office of Science, which supports academic research, complements EERE's 
biomass RD&D. Other mission-oriented biomass RD&D programs are funded 
through EERE's Office of Industrial Technologies (OIT) under the 
Interior and Related Agencies Bill. All of these projects and programs 
should be internally coordinated and jointly managed at DOE 
Headquarters. BERA's recommendations for OIT's mission-oriented biomass 
programs are presented in a separate BERA statement for the Interior 
and Related Agencies Bill.
    Specifically, BERA recommends that $127 million be appropriated for 
biomass RD&D under the Energy and Water Bill in fiscal year 2002 as 
follows:
  --$30 million to continue the Bioenergy/Bioproducts Initiative and 
        $7.5 million to continue the RBEP, equally divided between 
        Power Systems and Transportation.
  --$27 million for research and $15 million for industry cost-shared 
        scale-up projects for the core programs of Power Systems.
  --$29.5 million for research and $12 million for industry cost-shared 
        scale-up projects for the core programs of Transportation.
  --$6 million for biomass-based hydrogen research.
           program integration, coordination, and management
    For several years, BERA has urged that all biomass-related research 
funded by DOE should be internally coordinated and jointly managed at 
DOE Headquarters. The program managers at DOE Headquarters should be 
heavily involved in this activity.
    BERA strongly recommends that the Bioenergy/Bioproducts Initiative 
be continued and incorporated into the overall federal biomass RD&D 
program. The USDA has a long history of developing advanced biomass 
production technologies, which are essential to meet the objective of 
tripling biomass energy consumption by 2010. It is especially important 
that the biomass research of DOE and USDA be closely coordinated so 
that each agency is fully aware and apprised of the research that the 
other is conducting.
    Implementation of the Initiative should include identification of 
each federal agency that provides funding related to biomass energy 
development, each agency's programs, and the expenditures by each 
agency. This will enable the coordination of all federally funded 
biomass energy programs through the National Bioenergy and Bioproducts 
Board. This will also avoid duplication of efforts, unnecessary 
expenditures, and continuation of projects that have been completed or 
that are not focused on the program goal, and instead will facilitate 
new starts that target the program goal. If the Initiative is fully 
implemented, the value of the federal expenditures on biomass research 
to the country will be enhanced in many different ways.
   bera recommends $94.5 million for research and $32.5 million for 
      industry cost-shared, scale-up projects for fiscal year 2002
    BERA's recommendations consist of a balanced program of mission-
oriented RD&D on feedstock production, conversion research, and 
technology transfer to the private sector. Advanced feedstock 
production methods, conversion processes, and power generation 
technologies; alternative liquid transportation fuels; and hydrogen-
from-biomass processes are emphasized.
    BERA strongly recommends that at least 50 percent of the federal 
funds appropriated for biomass research, excluding the funds for scale-
up projects, are used to sustain a national biomass science and 
technology base via sub-contracts for industry and universities. While 
it is desirable for the national laboratories to coordinate this 
research, increased support for U.S. scientists and engineers in 
industry, academe, and research institutes that are unable to fund 
biomass research will encourage commercialization of emerging 
technologies and serious consideration of new ideas. It will also help 
to expand the professional development and expertise of researchers 
committed to the advancement of biomass technologies.
    BERA's specific dollar allocations are listed in the accompanying 
table. Additional commentary on each program area is presented in the 
same order as listed in the table.
Allocation of Appropriations Recommended by BERA
    BERA recommends that the appropriations for fiscal year 2002 be 
allocated as shown in the accompanying table. BERA's recommendations 
are generally listed in the same order as DOE's request for funding, 
except we have included several research areas that are either new or 
that BERA recommends be restored to sustain a balanced program of 
research and scale-up. Note that the recommended budget for each scale-
up category does not include industry cost-sharing, which is required 
to be a minimum of 50 percent of the total budget. Note also that the 
funding recommended for the Bioenergy/Bioproduct Initiative is shown in 
the research category. It is expected that DOE will allocate a large 
portion of these funds to scale-up projects after evaluating the 
projected contribution of each technology to the goal of the 
Initiative.

------------------------------------------------------------------------
                                            Recommended Budget
Office of Energy Efficiency and ----------------------------------------
 Renewable Energy/Program Area         For Research        For Scale-Up
------------------------------------------------------------------------
         Power Systems
 
Thermochemical Conversion:
    Cofiring/Ash Deposition....               $3,000,000              $0
    Advanced Combustion........                2,000,000               0
    Advanced Gasification......                2,000,000               0
    Advanced Pyrolysis.........                3,000,000               0
    Advanced Stationary Fuel                   2,000,000               0
     Cells.....................
    Advanced Process Fuels.....                3,000,000               0
    Improved Emissions Control.                3,000,000               0
    Wastewater Treatment.......                2,000,000               0
    Hot Gas Clean-Up...........                2,000,000               0
Microbial Conversion:
    Advanced Anaerobic                         1,000,000               0
     Digestion.................
Systems Development:
    Biomass/Coal Cofiring......                        0       2,000,000
    Integrated Field Scale-Up..                        0       4,000,000
    Vermont Gasifier...........                        0       4,000,000
    Small Modular Systems......                2,000,000       2,000,000
    Feedstock Production.......                2,000,000       3,000,000
    Regional Biomass Energy                    1,000,000       2,750,000
     Program \2\...............
                                ----------------------------------------
      Core Programs, Subtotal..               28,000,000      17,750,000
    Bioenergy/Bioproducts                     15,000,000               0
     Initiative................
                                ----------------------------------------
      Subtotal.................               43,000,000      17,750,000
                                ========================================
         Transportation
 
Fermentation Ethanol:
    Advanced Organisms.........                2,000,000               0
    Advanced Cellulase.........                9,000,000               0
    Advanced Pretreatment......                3,000,000               0
    NREL Pretreatment Pilot                            0       1,000,000
     Reactor...................
    NREL Fermentation Pilot                            0       3,000,000
     Plant.....................
Commercial Ethanol Plants by
 Company and Location:
    Arkenol, Rio Linda, CA <SUP>3,4</SUP>.                        0               0
    BCI International,                                 0               0
     Jennings, LA <SUP>3,5</SUP>..........
    BCI International, Gridley,                        0       1,000,000
     Ca \6\....................
    Masada Resources, Orange                           0               0
     County, NY <SUP>3,7</SUP>............
    Sealaska Corp., Southeast                          0       1,000,000
     AK \8\....................
    Corn Stalk Feedstock \9\...                        0       3,000,000
    Advanced Mobile Fuel Cells.                3,000,000               0
    Renewable Diesel...........                1,000,000               0
    Feedstock Production.......                2,000,000       3,000,000
Thermochemical Oxygenates:
    Ethanol....................                3,500,000               0
    Mixed Alcohols.............                3,000,000               0
    Other Oxygenates from                      3,000,000               0
     Biomass...................
    Regional Biomass Energy                    1,000,000       2,750,000
     Program \2\...............
                                ----------------------------------------
      Core Programs, Subtotal..               30,500,000      14,750,000
    Bioenergy/Bioproducts                     15,000,000               0
     Initiative................
                                ----------------------------------------
 
      Subtotal.................               45,500,000      14,750,000
     Hydrogen Research \1\
 
Thermal Processes (Reforming)..                3,000,000               0
    Photolytic Processes                       3,000,000               0
     (Algae)...................
      Subtotal.................                6,000,000               0
                                ----------------------------------------
      Total....................               94,500,000      32,500,000
                                ========================================
      Grand Total..............                127,000,000
------------------------------------------------------------------------
\1\ BERA's recommendations pertain only to the biomass-based portion of
  Hydrogen Research;
\2\ BERA strongly recommends that for future funding requests, the
  Regional Biomass Energy Program be treated as a line item;
\3\ DOE contribution to plant costs completed;
\4\ Rice straw, concentrated acid;
\5\ Bagasse, dilute acid;
\6\ Rice straw, dilute acid;
\7\ Refuse-derived fuel, concentrated acid;
\8\ Waste softwoods;
\9\ For plant located in Midwest.

                             power systems
    Thermochemical Conversion.--Currently, there is over 8,000 MW of 
electric power capacity fueled by biomass in the United States. 
Municipal solid wastes, forest and wood processing residues, and 
pulping liquors are the primary fuels. Continued research to develop 
advanced biomass combustion, gasification, and pyrolysis methods could 
have environmental and economic benefits that can lead to significant 
growth in biomass power generation. Much of this research has been 
phased out by DOE. Research (not scale-up) should be initiated or re-
stored with the goal of developing the next generation of 
thermochemical biomass conversion processes for power generation. 
Stationary, integrated biomass gasifier-fuel cell systems should be 
developed as potential, high-efficiency power generation systems. New 
fuel cells that can tolerate the sulfur levels found in certain 
biomass-derived fuel gases without sacrificing system affordability and 
the testing of integrated advanced fuel cell systems should be included 
in this work. Research is also recommended to develop advanced 
processed fuels and systems for handling them. Examples are pelletized 
wood wastes and densified solid waste biomass-coal fines that are 
easily handled and fed to existing combustion devices. In addition to 
this research, priority should also be given to the development of 
innovative enabling technologies consisting of advanced emission 
control systems, improved ash disposal methods and new ash uses, low-
cost, hot gas clean-up methods, and advanced materials that eliminate 
corrosion and erosion problems for thermochemical reactors and 
turbines. The status of these technologies is far from what is needed, 
yet they are essential for practical, low-cost thermochemical 
conversion of biomass.
    Microbial Conversion. Gasification by anaerobic digestion is unique 
in that it produces methane directly, the major component in natural 
gas, from a full range of virgin and waste biomass. DOE has terminated 
most of the microbiological research needed to develop advanced systems 
that yield low-cost methane by reducing capital and operating costs. 
This research can lead to the alleviation of numerous environmental 
problems encountered during waste treatment and disposal, and should be 
restored.
    Systems Development.--The scale-up of biomass gasification for 
medium-Btu gas and power in Vermont was successfully continued in 
fiscal year 2001. This project should be funded in fiscal year 2002 to 
test an advanced turbine system for the generation of 8-12 MW from 
wood, and to enable modification of the facility by converting it to a 
multi-purpose development site for biomass gasification and related 
technologies. The facility will then provide benefits to a broad range 
of researchers. The development of hot gas clean-up technology, which 
was terminated before completion at another gasification site, should 
be restored. This work should be continued until the technology is 
perfected. The integrated biomass production-power generation projects 
chosen by DOE for scale-up in New York (willow-coal cofiring), and Iowa 
(switchgrass-coal cofiring) should be continued as well as DOE's 
initiative to expand biomass-coal cofiring at additional sites, such as 
the wood waste-coal project at NIPSCO. Plans should also be made to 
fund scale-up of the Whole Tree Energy system as part of this effort. 
Research on the development of advanced biomass-coal cofiring systems 
and small modular direct biomass combustion turbines should be 
sustained to develop advanced designs for small modular systems, and 
advanced combined cycle systems for cogeneration.
    Feedstock Production.--Land-based biomass grown as energy crops can 
supply large amounts of fossil fuel substitutes. Considerable progress 
has been made on the efficient production of short-rotation woody 
crops, and on the growth of herbaceous species. In addition, research 
on tissue culture techniques and the application of genetic engineering 
methods to low-cost energy crop production have shown promise. This 
research should be continued to develop advanced biomass production 
methods that can meet the anticipated feedstock demand. BERA also 
recommends that industry cost-shared, scale-up projects chosen by DOE 
of at least 1,000 acres in size be continued to develop large-scale, 
commercial energy plantations in which dedicated energy crops are grown 
and harvested for use as biomass resources. These projects should be 
strategically located and should utilize the advanced biomass 
production methods already developed in the research programs. 
Successful completion of this work will help biomass energy attain its 
potential by providing the data and information needed to design, 
construct, and operate new biomass production systems that can supply 
low-cost feedstock for conversion to electric power and transportation 
fuels. It is recommended that the appropriation for this activity be 
shared between EERE's Power Systems and Transportation Fuels programs.
    Regional Biomass Energy Program.--The Regional Biomass Energy 
Program (RBEP) established by Congress is the information and outreach 
arm of DOE's biomass energy RD&D program. Within the national goals of 
DOE and regional constraints, the RBEP develops regional goals and 
strategies with stakeholder participants, and then conducts activities 
to create awareness and a positive image of biobased resources, 
technologies, and applications; develops and provides information and 
technical assistance; develops educational materials and conducts 
training programs; and assists in the planning of the infrastucture and 
facilities needed to produce, store, transport, and distribute biomass 
energy and fuels. The RBEP also identifies barriers to the development 
and deployment of energy crops and facilitates the development of state 
programs to promote biomass energy and fuel production and consumption. 
Thus, the RBEP develops and disseminates information and provides 
technical and financial assistance to biomass project developers and 
entrepreneurs. The RBEP also gathers information in the field to keep 
DOE informed of current situations and opportunities. There is no other 
DOE program that is assigned the information transfer roll, nor that 
has the capability, level of experience, local-level presence, or 
widespread networks of the RBEP. During its history, the RBEP has 
established working relationships with virtually all stake holder 
groups in every state. These linkages, which take considerable time to 
develop, provide efficiency through expertise and resource-sharing 
arrangements, including sharing of project costs. Historically, RBEP 
activities have been conducted with partners providing $2-$4 of non-
federal funds for each federal dollar. BERA recommends that the 
appropriation for the RBEP be shared between EERE's Power Systems and 
Transportation Fuels programs. For future funding requests, BERA 
strongly recommends that the RBEP be treated as a line item.
                             transportation
    Fermentation Ethanol.--Research on the conversion of low-cost 
lignocellulosics to fermentation ethanol should be continued. The 
targets should include the development of genetically engineered 
organisms that can produce cellulase to breakdown cellulosics to sugars 
and ferment all the C5/C6 sugars in biomass at the same time, and low-
cost cellulase production for simultaneous saccharification-
fermentation of cellulosics. This research should focus on the 
development of accurate bases from which advanced technologies can be 
scaled-up for commercial use with confidence, and on advanced 
technologies that significantly reduce processing costs. NREL's 
fermentation pilot plant and counter-current pretreatment pilot plant 
reactor that was installed in fiscal year 2000 should be operated on a 
cost-shared basis with DOE's industrial partners to support the 
commercial ethanol plant program.
    Commercial Ethanol Plants.--DOE's contributions to the costs of the 
fermentation ethanol plants have either been completed or are winding 
down as shown in the table on page 3. Another plant using corn stalk 
feedstocks is planned for the Midwest. The processes used are 
conventional and advanced technologies. BERA recommends that the 
existing projects should be completed, the results analyzed, and the 
technologies confirmed before other scale-up projects are started.
    Advanced Mobile Fuel Cells.--Research should be initiated to 
perfect vehicular fuel cell systems equipped with on-board reforming 
units for biomass and biomass-based liquids. The goal should be the 
production of low-cost fuel gases suitable for direct use as motor 
fuels or fuels for on-board fuel cells.
    Renewable Diesel.--This research, formerly called Biodiesel, should 
be focused on methods of reducing production costs of renewable diesel 
fuels and biomass-based diesel fuel additives. BERA recommends that 
most of this effort focus on increasing natural triglyceride yields, 
which are the main barrier to improved biodiesel economics, and to the 
evaluation of other potential biomass feedstocks such as tall oils that 
can be directly transformed into high-quality diesel fuels having high 
cetane numbers.
    Feedstock Production.--See Power Systems.
    Thermochemical Conversion.--Almost all of DOE's RD&D on liquid 
transportation fuels from biomass emphasizes fermentation ethanol. 
Thermochemical conversion research should be started that targets 
liquid motor fuel production at costs competitive with those of 
gasolines and diesel fuels in the near-to-mid term. Research on the 
thermochemical conversion of low-grade biomass for use as motor fuels 
shows great promise. Preliminary research on the non-microbial 
conversion of synthesis gas illustrates the potential of producing 
ethanol, mixed alcohols and oxygenates, ethers, and coproducts at costs 
that are less than the corresponding costs of liquids produced by 
microbial and fermentation processes. Some estimates indicate that the 
production costs of thermochemical fuel ethanol from waste biomass are 
in the same range as the cost of gasolines. Each of these areas should 
be added to DOE's program.
    Regional Biomass Energy Program.--See Power Systems.
                           hydrogen research
    Research on the thermal reforming of biomass in a supercritical 
fluid reactor and in an advanced-design plasma reformer, and on water 
splitting with algae, which is the equivalent of photolysis, should be 
continued. Detailed study of each of these conversion techniques may 
lead to practical processes for the low-cost production of hydrogen.
                                 ______
                                 

         Prepared Statement of the Geothermal Resources Council

    Mr. Chairman and Members of the Committee, my name is Ted Clutter. 
I am Executive Director of the Geothermal Resources Council (GRC), a 
non-profit professional education association located in Davis, 
California. I am here before you, today, to request $34 million for the 
Geothermal R&D Program of the U.S. Department of Energy (DOE) for 
fiscal year 2002.
    Geothermal energy is heat derived from the natural geologic forces 
of the Earth. It is of utmost importance to both the environmental 
health of the nation and our energy security, providing highly 
reliable, domestically produced electricity and geothermal heat to 
homes, communities and industry across the American West. Though 
geothermal energy has been used to varying small degrees in the United 
States for centuries, industrial development of this unique, indigenous 
energy resource began only 40 years ago. During that time--and with DOE 
assistance--the U.S. geothermal industry has installed power plants in 
California, Nevada, Utah and Hawaii that now produce approximately 
2,800 megawatts of clean electricity--or enough power to serve 2.8 
million homes.
    Geothermal energy is our most valuable renewable energy option. 
Electricity generated from all non-hydro renewal energy sources 
accounts for approximately 0.8 percent of total U.S. energy needs, with 
geothermal contributing over half (60 percent) of that figure. Not only 
is geothermal the largest contributor of renewable electricity in the 
nation, it is not subject to skyrocketing fuel costs or the whims of 
wind and sunlight. These attributes are especially important today, 
with our continuing concern for the environment, a tripling of natural 
gas prices during the past year, and a crisis of power supply centered 
in California reaching out its tentacles to engulf the entire West.
    Geothermal energy development is part of the answer to solving 
these problems for the future as well. According to a 1999 joint study 
by DOE and the Geothermal Energy Association, U.S. geothermal power 
generation capacity could be realistically quadrupled to 10,000 
megawatts with enhanced technologies. Development of geothermal 
resources for conversion to electricity or useful heat, however, 
requires costly and risky exploration of potential geothermal areas, 
costly drilling of wells, and development of power plants or direct-use 
facilities.
    Because of these high up-front costs and risks, continuing well-
funded assistance by DOE in partnership with the U.S. geothermal 
industry--through cost-shared initiatives and development of new 
technologies--is of paramount importance to future, economical 
installation of geothermal energy facilities in the West.
                       doe geothermal r&d program
    DOE has promoted geothermal energy development through its R&D 
Program since the early days of the OPEC oil crisis of the 1970s. With 
that assistance, the U.S. geothermal industry developed a sixfold 
increase in clean power online, and roughly a threefold increase in 
direct-use facilities. Another key factor in fostering this development 
was favorable energy markets and legislation that rewarded geothermal 
power developers with firm long-term power sales contracts. But all 
that changed in the 1990s when utility deregulation and low natural gas 
prices effectively killed those incentives. The result? Without assured 
contracts available to help geothermal energy investors face 
exploration, drilling and development risk, no new geothermal resources 
have come online in the past decade.
    At the same time, DOE's financial resources for its Geothermal R&D 
Program have dwindled to less than $30 million annually. And even that 
marginal amount is now threatened with proposed cuts to DOE's entire 
Energy Efficiency and Renewable Energy Program. During this time of 
change and economic uncertainty, the GRC understands the need for 
fiscal restraint, but also believes that geothermal energy's potential 
contributions to our environment and national energy security far 
outweigh our request of $34 million for DOE's Geothermal R&D Program in 
fiscal year 2002.
    If DOE is to meet the goals of its Geothermal Strategic Plan to 
provide geothermal electricity and heat to over 10 million homes in the 
coming decade, a number of regulatory, legislative and technological 
barriers to development must be overcome. DOE's role is vital in 
assisting the industry in its efforts to solve technological problems 
and spur geothermal energy production to new highs for the benefit of 
the nation. The following highlights important areas of R&D that the 
GRC believes DOE must pursue through industry partnerships to enhance 
geothermal development in the United States:
                    doe geothermal focus on the west
    To meet the present energy crisis in the western states--and 
recognizing our continuing need for environmental improvement--we must 
quickly and significantly increase electricity capacity from all forms 
of renewable energy, especially geothermal. In the past year, the DOE 
Office of Wind and Geothermal Technologies has provided new and dynamic 
leadership for its Geothermal R&D Program, instituting an initiative 
with the assistance of its National Laboratories that has served as an 
effective catalyst for geothermal development in the western United 
States.
    The program, though marginally funded, has succeeded in drawing 21 
industry R&D proposals intended by DOE to put geothermal ``projects on 
the ground'' as rapidly as possible, and to increase the number of 
states with geothermal electric and heat production from 4 to 8. 
Projects initiated by this program have already fostered a successful 
exploratory drilling effort in Nevada that will likely result in 
construction of a 30-megawatt power plant. We recommend that this 
initiative be further funded to continue the momentum already achieved 
for geothermal development in the West.
                    geothermal resource exploration
    To help accomplish DOE goals for geothermal development, a campaign 
of exploration must begin at once across the West. Many obvious 
geothermal areas--hot springs, fumaroles and other surface 
manifestations--have already been explored, and where environmentally 
appropriate, many have been developed for their energy potential. 
However, physical and geologic characteristics of many unexploited 
areas in the western United States strongly suggest that many more 
geothermal systems exist where no signs of them are found on the 
surface--and no exploration has been undertaken or completed.
    A critical key to success is DOE incentives to encourage 
exploration for new geothermal resources throughout the West. This 
effort should include development of new geothermal exploration 
technologies, DOE contingent grants and loans to help offset high risk 
of initial geothermal exploration costs, and additional funding for 
federal and state land agencies to provide geologic databases that will 
effectively assist an industry revival of geothermal exploration 
activity.
    With needed improvements in federal agency land-use policies and 
renewed emphasis on geothermal exploration backed by a solid, well-
financed Geothermal R&D Program at DOE, the U.S. geothermal industry 
can develop needed increases in geothermal power generation at existing 
sites--and begin to tap the West's vast potential for new geothermal 
sources of clean, renewable and reliable energy supplies. Geothermal 
Drilling
    The cost of drilling geothermal steam wells presents the largest 
risk to potential power plant developers. A geothermal well costs 
between $200 and $300 per foot-40 percent more than drilling an oil or 
gas well. That makes the cost of a typical 8,000-foot deep geothermal 
well from $1.6 million to $2.4 million! Success rates for geothermal 
exploration wells are only 20 percent in newly explored, untested areas 
(and rising to only 80 percent for wells in proven geothermal fields). 
Given these figures, it's easy to see the up-front risk involved in 
geothermal development--long before power production can begin.
    Reasons for the high cost of geothermal well completions are many. 
First, high temperatures demand the use of costly unconventional 
drilling tools. Second, the hard and abrasive geologic environment 
typical of geothermal formations significantly slow drill penetration 
rates. Third, low reservoir pressures create ``loss circulation'' zones 
that drain away expensive drilling muds and pose costly problems in 
cementing of well casings. And finally, steam from certain reservoirs 
contains minerals that cause corrosion and scale deposition inside well 
casings that are expensive to deal with.
    Sandia National Laboratories is DOE's lead organization in the 
development of much needed geothermal drilling equipment, materials and 
technologies. With its industry partners, Sandia is developing high-
temperature instrumentation for use in geothermal wells, and high-
temperature logging tools for geothermal reservoir monitoring and 
evaluation. Bit design is an ongoing area of research, with development 
and testing that has resulted in a marked increase in both bit life and 
penetration rates. Loss circulation control has been addressed with 
development of new cements, cement placement tools and equipment, 
fracture plugging agents, and lightweight drilling and cement 
additives.
    To reach its targeted goal of reducing geothermal drilling costs by 
50 percent, Sandia periodically surveys the geothermal industry for 
needed areas of research, and works through a Request for Proposal 
process to bring these products and technologies to the industry. This 
ongoing effort by Sandia, DOE and its private-sector partners offers 
unparalleled value in reducing the cost of drilling for geothermal 
steam resources for producing electricity.
    A number of projects in this arena are ongoing--to lose these 
partnerships and this momentum at a critical time for western energy 
supply would deal a terrible blow to U.S. geothermal development To 
successfully proceed in development of geothermal resources in the 
West, this vital research to lower drilling cost by DOE must continue. 
An increase in DOE's Geothermal R&D Program budget will augment this 
valuable potential contribution to our national energy security.
                      enhanced geothermal systems
    Currently, all commercial power production of geothermal energy in 
the United States is derived from relatively shallow (less than 2 miles 
deep) hydrothermal zones. Water flows freely through highly fractured 
rock in these geothermal reservoirs, heated by magmatic intrusions 
lying far below. In many cases however, a high degree of geothermal 
development potential lies just beneath these free-flowing reservoirs 
in geologic formations with fewer fractures (low permeability) and 
limited fluid flows.
    Only about 20 percent of total heat is contained in the relatively 
shallow, commercially available hydrothermal zones of currently 
developed geothermal resources, while the remainder (80 percent) 
resides in underlying, low-permeability zones that have yet remained 
untapped for their energy potential. Currently, our ability to produce 
energy from these resources is limited, dictated by available 
technology and cost.
    In concert with other geothermal development promotion initiatives, 
DOE's Office of Wind and Geothermal Technologies has undertaken a major 
program to develop technologies for the creation and development of 
``Enhanced Geothermal Systems,'' or EGS. Assistance by DOE in 
development of such technologies is critical if the U.S. geothermal 
industry is to successfully engineer commercially viable power 
production from deep heat reservoirs that offer only limited 
permeability and/or fluid content.
    Cost-effective EGS technologies to ``mine'' heat from beneath areas 
of hydrothermal circulation will have a profound impact on the 
geothermal industry. The life of currently commercial geothermal 
systems will be greatly expanded, making better use of existing power 
plants. And new EGS technologies will also applicable to other 
potential geothermal resource production areas, including those 
previously considered as candidates for Hot Dry Rock (HDR) development.
    Development of EGS technology is critical to the long-term 
viability of the U.S. geothermal industry after all of our high-grade 
hydrothermal resources have been developed. With assistance by DOE's 
current and future EGS technology program, the geothermal industry can 
continue its contribution of environmentally benign electricity to the 
U.S. power generation mix well into the future.
                        geothermal co-production
    Recent developments with the assistance of DOE incentive funding 
have resulted in construction of the world's first geothermal minerals 
recovery facility, using spent geothermal fluids from power plants on 
the shore of southern California's Salton Sea. Potential exists for 
commercial recovery of manganese at the Salton Sea, and high-grade 
silica and other minerals at other geothermal developments in the West. 
A DOE investment in further development of these ``co-production'' 
technologies holds the promise to add another revenue stream to certain 
geothermal operations, making them more competitive with fossil-fuel 
power generation while reducing treatment and disposal costs.
                         geothermal direct use
    Direct-use employs low-to intermediate-temperature geothermal 
resources (100 deg. to 300 deg. F) in systems for industrial processes, 
space heating, and agricultural production (greenhouses and 
aquaculture). Currently, there are over 1,000 geothermal direct-use 
projects in 26 states, and geothermal central heating projects in 18 
communities. Recent surveys have shown that this is only a fraction of 
direct-use potential in the United States, which DOE estimates could 
potentially serve as many as 7 million households by the year 2010.
    Unfortunately, interest in and development of direct-uses of 
geothermal energy is limited, largely because of reliable information 
and financial assistance to ``jump-start'' projects is lacking. This is 
especially true in rural areas where the necessary technical 
infrastructure is not available.
    The DOE Geothermal R&D Program can play a vital role in promoting 
and assisting the development of direct-use projects across the West. 
It is already doing so by providing information and technical 
assistance, but can do more with increased funding to assist in the 
critical areas of direct-use resource identification and drilling 
confirmation. Funding to provide this information and expanded 
technical assistance can do much to help develop this extensive 
geothermal energy resource.
    DOE funding is also needed to develop improvements in direct-use 
equipment, reduce the cost of project capital, and lower project 
operations and maintenance costs. The DOE budget should also provide 
funds for promotion of economic and efficient cascaded use of 
geothermal fluids from power production to direct-use developers. In 
addition, direct-use geothermal funding can help foster public-private 
partnerships to help ``buy down'' the up-front risk and financial 
burdens that often discourage potential geothermal direct-use 
developers during the initial drilling and resource confirmation stages 
of potential projects. Once these concerns are satisfied, direct-use 
geothermal resource development can more easily occur with private 
project financing, while accruing additional benefits of economic 
development and employment in rural areas of the West.
    Mr. Chairman and Members of the Committee, the Geothermal Resources 
Council urges your attention to these facts, and hopes you will agree 
that given current need, the modest $34 million in funding that we 
request for the U.S. Department of Energy Geothermal R&D Program in 
fiscal year 2002 is money well invested in our environment and our 
national energy security. Thank you for your consideration.
                                 ______
                                 

       Prepared Statement of the Low Impact Hydropower Institute

                              introduction
    With energy issues at the forefront of public concern, the Energy 
and Water Development Appropriations Subcommittee has the challenge of 
providing support for domestic energy supplies that are sustainable, 
environmentally sound, and low cost. In aid of those goals, we urge you 
to provide $100,000 to the Department of Energy to fund the Low Impact 
Hydropower Certification Program, administered by the Low Impact 
Hydropower Institute. This voluntary program certifies hydropower 
facilities with low environmental impacts based on eight objective 
criteria. With the program, hydropower dam owners generating low impact 
power (from any size facility) can gain market rewards, and consumers 
gain a credible standard to evaluate hydropower. Funding from the 
Department of Energy will help build on the program's early success, 
and help the Institute explore expansion of the certification program 
to address ``incremental'' hydro, and other emerging efforts to develop 
hydropower capacity at existing dams.
                   why certify low impact hydropower?
    Hydroelectric generation presents a dilemma for sustainable energy 
strategies in this country. On the one hand, hydropower can provide 
nearly emission-free, sustainable energy generation, with large 
available capacity (80 percent of the nation's renewable energy), and 
ancillary services for supporting system reliability. Hydropower dams 
can also provide additional public benefits, such as flood control and 
recreation opportunities.
    On the other hand, hydropower dam construction and operations have 
been devastating to the nation's freshwater ecosystems, and the fish 
and wildlife dependent on them. Hydropower dams degrade water quality, 
block fish passage, disrupt river cycles and key water habitats, and 
inundate hundreds of thousands of acres of irreplaceable riverine 
habitats. If a dam is well sited and well operated, these environmental 
impacts can be reduced (though not eliminated). Consumers need a 
credible means to determine which hydropower facilities are well sited 
and well operated, such that the benefits of the hydropower generation 
are attained, while minimizing the environmental impacts.
    Unfortunately, generation capacity is the most commonly used 
criterion for identifying environmentally preferable hydropower (if one 
is used at all). A typical standard is 30 megawatts (MW) of generation 
capacity. Under a ``small hydro'' standard, if the hydropower facility 
generates less than the identified amount of power, it is deemed 
environmentally preferable. But the size of a facility's generation 
capacity reveals nothing about its particular site-specific 
environmental impacts. Under a size criterion, a small dam can be 
operated in a way that is harmful to the environment and still be 
labeled environmentally preferable, and a large dam can undergo major 
changes to reduce the environmental impacts of its operation, and still 
not be considered environmentally acceptable.
    In addition, a small hydro criterion automatically certifies the 
majority of hydropower dams in the country, but eliminates from 
consideration the majority of the country's hydropower capacity. Of the 
over 2,000 hydropower dams in the U.S. owned by entities other than the 
federal government, approximately 89 percent of the dams are ``small'' 
(less than 30 megawatts capacity), but together they provide only 8 
percent of the hydropower capacity. The remaining 11 percent of the 
dams produce 92 percent of the hydropower capacity. Thus, under the 
small hydro approach, we are classifying as environmentally preferable 
a large number of dams but not a large amount of power, and we are 
granting that preferred status without any examination of the 
particular impacts of those dams.
    The Low Impact Hydropower Certification Program resolves these 
problems by providing an impact-based, site-specific evaluation of 
hydropower facilities of any size. The program provides a voluntary 
certification that evaluates existing hydropower dams in the United 
States against objective environmental criteria in eight key areas--
river flows, water quality, fish passage and protection, watershed 
protection, threatened and endangered species protection, cultural 
resources, recreation use and access, and whether the facility has been 
recommended for removal. Interested dam owners apply for certification, 
and facilities that meet the environmental criteria are certified as 
``Low Impact.'' The dam owner can then market this Low Impact 
hydropower to consumers, or to third party power marketers who bundle 
``green'' power products.
   a brief history of the low impact hydropower certification program
    The Low Impact Hydropower Certification Program grew out of efforts 
initiated in 1998 by the river conservation organization American 
Rivers, and the ``clean'' power marketer Green Mountain Energy, to 
identify environmentally preferable hydropower for the emerging 
``green'' power markets nationwide. With the help of an Implementation 
Task Force comprised of representatives from environmental 
organizations, the hydropower industry, power marketers, government, 
and other interested parties, the certification program was refined 
over many months.
    In order to ensure the independence of the program, the Institute 
was established in 1999 as a non-profit public benefit corporation, 
governed by a fourteen-member Governing Board comprised primarily of 
representatives from environmental organizations interested in low 
impact hydropower. In addition, two advisory panels, a Hydropower 
Industry Advisory Panel, and a Renewables Advisory Panel, participate 
in Board discussions and provide advice and recommendations. A list of 
Governing Board and Advisory Panel members is available on our website 
at www.lowimpacthydro.org. The Institute finalized the certification 
criteria, and began accepting applications for certification in 2000.
                         accomplishments so far
    Although only in its infancy, and despite the uncertainties in 
energy markets, the certification program is already producing results. 
The Institute certified its first facility in March, and a second 
certification decision is expected shortly. The first certified 
facility, the Stagecoach Dam and Reservoir, located on the Yampa River 
in Colorado, is owned and operated by the Upper Yampa Water Conservancy 
District. The second facility under consideration is the Island Park 
Hydroelectric Project, owned by the Fall River Rural Electric 
Cooperative, which utilizes water from the Island Park Dam and 
Reservoir, owned by the United States and operated by the U.S. Bureau 
of Reclamation, on the Henry's Fork of the Snake River, in Idaho. 
Several other applications are expected in the coming months. All 
applications received are posted to the Institute's web site for public 
review and comment, and all certification decisions are posted as well. 
Certification decisions are subject to appeal from any commenters in 
order to ensure a fair and transparent process.
    Since Low Impact certification applies to the individual hydropower 
facility, the Institute does not certify power products. However, other 
``green'' power certifiers have already selected LIHI certification for 
the hydropower components of their programs, demonstrating its 
credibility and value. For example, the Green-E Renewable Electricity 
certification program has adopted LIHI certification for the hydropower 
components of its program (effective in California in 2001, and 
elsewhere in 2002)(see www.resource-solutions.org). The Power 
Scorecard, a rating program for all types of generation, gives LIHI-
certified hydropower facilities its highest environmental rating in the 
hydropower sector (see www.powerscorecard.org). Renew 2000, a ``green'' 
power certification program in the Pacific Northwest allows only LIHI-
certified hydropower for the hydropower component of its program (see 
www.cleanenergyguide.com.) The Salmon Friendly Power program, a 
``green'' pricing program developed by For the Sake of the Salmon and 
Portland General Electric in Oregon uses LIHI-certified power as the 
only hydropower qualified for its program (see www.4sos.org, click on 
Salmon Friendly Power).
                        goals and funding needs
    The Institute has multiple goals for the program for fiscal year 
2002, including recruitment of additional applications, expanding 
interest in the program and ``green'' markets generally, helping to 
develop the market for Low Impact hydropower, and improving and 
expanding the certification program itself. In terms of expanding the 
program, the Governing Board is currently evaluating how to best 
address ``incremental'' hydro and other incentives emerging for 
expansion of hydropower generation at existing dams.
    The program is currently funded through grants from charitable 
foundations, supplemented by application fees. However, foundations are 
not expected to maintain their grants indefinitely, and though the 
application fees help to offset processing expenses (including the 
hiring of independent technical consultants to verify applications), 
any application fee received in excess of expenses is reimbursed to the 
applicant. As a result, funding from the Department of Energy is 
critically important in ensuring the Institute can maintain a quality 
program.
                               conclusion
    The Institute's Low Impact Hydropower Certification Program, if 
properly funded, will
  --promote sustainable, domestic energy supplies
  --help maximize the benefits of hydropower generation while 
        minimizing its environmental impacts
  --expand consumer energy options
  --support market rewards and incentives for hydropower dam owners 
        interested in producing low impact power
    We urge you to demonstrate your commitment to these important goals 
by providing $100,000 to the Department of Energy to fund the 
certification program.
                                 ______
                                 

       Prepared Statement of the American Wind Energy Association

  a strong commitment to r&d necessary to capture wind energy's full 
                               potential
    Utility-scale wind energy capacity in the U.S. expected to nearly 
double by mid-2002
    Public Demand for Small Wind systems used to power homes, farms and 
small businesses on the rise
    Proposed Administration budget would severely hamper technological 
advances made through DOE-industry partnerships
    The crisis in California has put energy issues back on the radar 
screen. The upcoming summer could bring the problems in California to 
other parts of the country, particularly the Northeast and Midwest. 
With energy prices expected to remain high, particularly natural gas, 
the importance of investing in domestic, stable-cost, clean energy 
resources is vital for the nation's energy security.
    Wind energy is positioned to be an important part of the solution. 
In California and other western states, wind energy potential is there 
to meet the electricity needs. Moreover, wind can help protect against 
volatile electricity rates. The costs of a wind plant are primarily 
upfront capital costs, thus the price for electricity is stable over 
the life of the plant because the fuel, the wind, is free.
    Moreover, wind projects can be built quickly, often within six 
months, not including wind resource assessment and permitting. As we 
speak, there are new wind energy projects expected to go on line by the 
end of the year in the west and southwest that will eventually provide 
electricity for 750,000 people. By comparison, most new fossil-fueled 
facilities can take up to three years to come online.
    Continued investment in domestic energy alternatives like wind 
power will allow the industry to keep driving down costs and by 
improving the efficiency of new wind turbines. Wind energy holds the 
greatest potential of all non-hydro renewables to contribute to our 
energy needs over the next decade.
    Investing in domestic, inexhaustible renewable energy technologies 
strengthens our national security, spurs new high-tech jobs, and helps 
protect the environment. There are no downsides to investing in wind 
and other renewables.
    However, the Administration has proposed cutting the wind energy 
budget by approximately 48 percent in fiscal year 2002. This makes no 
sense. With the current energy crisis and a call for an increase in 
energy supply, cutting R&D funding for clean, domestic alternatives is 
not part of a sound energy strategy. The American Wind Energy 
Association \1\ (AWEA) appreciates this opportunity to provide 
testimony for the record on the Department of Energy's Fiscal 2002 wind 
energy program budget before the House Appropriations Subcommittee on 
Energy and Water Development. AWEA's testimony addresses the following:
---------------------------------------------------------------------------
    \1\ The American Wind Energy Association, or AWEA, was formed in 
1974. The organization represents virtually every facet of the wind 
industry, including turbine and component manufacturers, project 
develops, utilities, academicians, and interested individuals.
---------------------------------------------------------------------------
Total Request for DOE's Wind Energy Program: $55 million
    AWEA requests a funding level of $55 million for the wind energy 
program to continue DOE's support of wind energy development at the 
national, state, and local levels. Working in conjunction with the U.S. 
wind industry, power producers, suppliers, industrial consumers and 
residential users, DOE provides important technical support, guidance, 
information, and limited, cost-shared funding for efforts to explore 
and develop wind energy resources.
Utility-Scale Wind Development: $45 million
    There is a continued and necessary need for increased 
appropriations for cost-shared DOE/industry R&D partnerships. The 
program is aimed at further driving down the cost of wind power to a 
level fully competitive with fossil fuel technologies. Additional 
support is necessary for developing wind turbines capable of operating 
in areas with lower wind speeds. This would expand wind development 
potential by 20 times as well as allow the placement of turbines closer 
to existing transmission lines. In addition to lowering the cost of 
wind power, R&D support is necessary for enhanced wind site forecasting 
and power systems integration.
Small Wind Systems: $10 million
    A significant boost of DOE's small wind turbine program (machines 
rated at 75 kilowatts or below) will help achieve greater cost 
reductions and to increase the availability of this energy option for 
homes, schools, and businesses.
Renewable Energy Production Incentive (REPI): $8 million
    This program provides financial incentives to municipal utilities 
to encourage use of renewables. In addition, AWEA suggests that 
Congress work with the Department of Energy (DOE) to develop long-range 
alternatives to unpredictable annual funding for REPI.
              utility-scale wind development: $55 million
    From mid-1998 to mid-1999, some 925 megawatts (MW) of new 
generating capacity were installed in the U.S.--more than twice the 
amount added in 1985, the previous record year (442 MW) in the U.S. 
market. In addition, nearly 200 MW of existing capacity were 
``repowered,'' with new turbines replacing older, less efficient ones. 
These additions bring total U.S. wind capacity to about 2,500 MW, or 
enough power to serve about 600,000 average U.S. households or 1.5 
million people.
    By mid-2002, installed wind energy capacity in the U.S. is expected 
to nearly double, to upward of 5,000 MW. The states of Texas, 
Minnesota, Oregon, Wyoming and Iowa account for most of the new wind 
energy development. Texas in particular is expected to account for a 
large portion of new development over the next five years due to state 
incentives.
    In addition, a number of new, large wind developments have been 
announced. In Nevada, a 260 MW project is underway at the Nuclear 
Weapons Test Site. In Washington, the ``Stateline'' project is being 
developed on the Oregon-Washington border. When completed, the 300 MW 
wind farm will be the largest wind in the world. In February, the 
Bonneville Power Administration announced it's intention to purchase 
1,000 MW of wind energy and has signed up as one of the purchasers of 
power from the Stateline project. All of these developments will help 
alleviate stress on the western power grid, stabilize energy prices and 
offset pollution associated with conventional power sources.
    The impressive growth of the wind industry exhibits a significant 
change from the three year period (1995-1997) when U.S. markets for 
wind energy had slowed to only 41 MW installed in 1995, 10 MW installed 
in 1996, and 11 MW of new capacity installed in 1997. This surge in 
U.S. utility-scale wind energy capacity is due to two main factors:
    Cost-shared DOE/industry R&D partnerships which have helped reduce 
the cost of wind energy by more than 80 percent since the early 1980's. 
Today's wind energy costs are 4-6 cents per kilowatt-hour for the 
largest projects at the best wind sites (based on wind speed and size 
of project).
    Extension of the wind energy Production Tax Credit (PTC), which 
provides a 1.5 cents per kilowatt-hour credit of electricity produced 
(the credit is currently 1.7 cents adjusted for inflation). A 2 percent 
2-year extension was approved with bipartisan support at the end of 
1999, but will expire on December 31, 2001. Legislation to extend the 
credit for five years has been introduced in both the House (H.R. 876) 
and Senate (S. 530) by members of the Ways & Means and Finance 
Committees respectively.
    On the international front, wind power is the fastest growing 
energy source in the world with global installed generating capacity 
estimated to have increased by nearly 30 percent annually since 1996. 
Current installed capacity worldwide is over 17,000 megawatts, or as 
much energy as 5 million California households use.
           small wind systems (75 kw and below): $10 million
    More Emphasis Needed on Small Wind Turbines.--Homes consume more 
electricity than either businesses or industry: <difference>35 percent 
of the <difference>3.2 trillion kWh consumed in 1998. Distributed 
generation with small customer-sited power plants has great potential 
for reducing customer energy costs, promoting competition in the 
marketplace, and strengthening the nation's electrical supply network. 
Renewable energy technology for homes and farms include solar 
photovoltaics, concentrated solar thermal, and small wind turbines (up 
to 75 kW).
    DOE has significant programs for technology development and 
deployment of solar technologies, but not for small wind systems. 
However, small wind systems arguably have the greatest market potential 
in the next several decades. Small wind systems are currently much less 
expensive than solar technologies. For example, a home system sized to 
provide $150 month worth of electricity would cost $32,000 with a small 
wind turbine and $80,000 with a photovoltaic solar system. We believe 
that small wind technology has the potential to cut its costs in half 
within ten years.
    With the exception of California, low electricity prices and the 
high up-front costs of small wind systems make it very difficult for 
this technology to gain wide acceptance in the domestic market. This 
would change if DOE were given the resources to work with America's 
small wind manufacturers to achieve cost reductions similar to those 
already achieved by the large, utility-scale wind industry. In the 
special case of California, small wind turbine manufacturers are 
experiencing a surge in sales, which demonstrates that the public 
really wants cost-effective small wind turbines. Inquiries from around 
the country have ballooned due to the run up in natural gas and propane 
costs this winter.
    AWEA appreciates that in the fiscal year 2001 Energy & Water 
Development Conference Report, small wind systems received a $5 million 
earmark. Doubling that total to $10 million for the program in fiscal 
year 2002 will continue to ensure that small wind systems receive 
adequate attention at DOE. We are pleased that the US-DOE Wind Program 
has taken last year's Congressional direction to heart and that they 
are working very cooperatively with our small turbine industry.
    A Small Wind Turbine Initiative (SWTI) would reduce the costs of 
small wind systems for homes, farms, and small businesses by promoting 
deployment leading to higher production volumes, reducing market 
barriers, and improving the technology. SWTI aims to make small wind 
turbines cost effective for an estimated 6-10 million potential rural 
residential users over the next twenty years. This potential market, up 
to 60,000 MW, could be a major contributor to our nation's domestic 
energy supply.
        renewable energy production incentive (repi): $8 million
    Year-to-year uncertainty regarding funding levels for the Renewable 
Energy Production Incentive (REPI) plays havoc with the long-term 
planning needs of running a municipally owned utility. Due to 
insufficient funds for the program, full payments for eligible projects 
have not been made for a number of years. For this reason, AWEA 
suggests the Congress work with the Department of Energy (DOE) to 
develop long-range alternatives to annual funding of this program. The 
REPI program, authorized by the Energy Policy Act of 1992, encourages 
municipally owned utilities to invest in renewable energy technologies 
including wind energy systems. REPI permits DOE to make direct payments 
to publicly and cooperatively owned utilities for electricity generated 
from wind, solar, geothermal, and biomass projects.
                               conclusion
    Continued investments in wind energy R&D are delivering value for 
taxpayers by developing another domestic energy source that strengthens 
our national security, spurs new high-tech jobs, and helps protect the 
environment.
    Now is not the time to abandon the important advancements that have 
been made through DOE-industry partnerships. With the California energy 
crisis threatening to spread across the rest of the country, wind, 
along with other renewable energy technologies, must continue to play 
an important role in our nation's energy strategy.
    By the same token, utility-scale wind energy--which is right now 
becoming costcompetitive with other sources of electricity--and small 
wind energy systems are equally deserving of continued R&D. Just as 
coal and nuclear energy R&D does not stand still, neither does wind 
energy R&D.
    AWEA appreciates the opportunity to provide testimony to the 
Subcommittee. We would be pleased to answer any questions that may 
arise. Thank you.
                                 ______
                                 

     Prepared Statement of the Southeastern Universities Research 
                              Association

    Mr. Chairman and members of the Subcommittee: My name is Jerry 
Draayer and I am President of the Southeastern Universities Research 
Association (SURA). SURA, a consortium of 53 research universities in 
the South, manages the Thomas Jefferson National Accelerator Facility 
(Jefferson Lab) in Newport News, Virginia. Jefferson Lab, as the 
Committee knows, is home to the Continuous Electron Beam Accelerator 
Facility (CEBAF), a new $600 million nuclear physics research facility 
funded by the U.S. Department of Energy.
    Mr. Chairman, our purpose in providing the Subcommittee with 
testimony is three fold. First, we want to thank you and the 
Subcommittee members for your support of the Science programs funded by 
the Department of Energy, including Nuclear Physics and to urge your 
continued support. We are convinced that generous Federal support for 
basic research is an important investment leading to continued economic 
growth, employment and prosperity. Secondly, we urge the Subcommittee 
to favorably consider increasing the fiscal year 2002 funding level for 
the DOE's Office of Science to $3.68 billion, a fifteen percent 
increase over last year's funding. Finally, within the Office of 
Science, we request that the Nuclear Physics budget be increased to 
$425 million (15 percent above fiscal year 2001) to better address the 
backlog of important scientific opportunities that exist in this field. 
This level of funding would provide support for increased scientific 
output of Jefferson Lab, and will help build the intellectual 
infrastructure in our research universities to prepare for and mount 
experiments.
    An expanded Office of Science budget will allow for more complete 
utilization of these world-class facilities, thus returning more on the 
investments made for their construction and maximizing their scientific 
contributions and their tremendous educational value.
          contributions of doe-supported science to the nation
    Mr. Chairman, we would like to thank the Subcommittee for the 
increased level of funding provided in fiscal year 2001 for the DOE's 
Science programs. For fiscal year 2001, the Congress provided $3.16 
billion for the Office of Science, representing a growth of 12.9 
percent over fiscal year 2000. The National Academy of Sciences has 
noted that much of the U.S. economic growth, quality of life, and 
security derive from the nation's investment and leadership in science 
and technology. Therefore, as these investments are the underpinning of 
our nation's economic growth, we wish to thank the Subcommittee for its 
leadership in providing increased funding for DOE's science programs.
    A commitment to basic research investments has been recognized on 
both sides of the aisle. Yet despite this broad agreement, from 1987 to 
1995 the federal investment in basic research shrank by 2.6 percent a 
year and as a fraction of gross domestic product, the federal 
investment in research and development is about half of what it was 30 
years ago. In the field of nuclear physics, investments in forefront 
facilities have made the United States a world leader. Over the last 
several decades the nation's leadership has been threatened as the 
funding levels provided have resulted in significantly reduced 
purchasing power for the field.
    As the driver of our Nation's economic success is scientific 
innovation, we are concerned that the Administration has proposed for 
fiscal year 2002 to cut the three primary sources of ideas and 
personnel in the high-tech economy:
  --The National Science Foundation is cut by 2.6 percent;
  --NASA is cut by 3.6 percent; and
  --The Department of Energy is cut by an alarming 7.1 percent.
    It is our hope that the Congress will reverse these reductions and 
continue its strong support for basic science.
    Mr. Chairman, the return on investment includes continued economic 
prosperity, national security, and an improved quality of life. DOE's 
Office of Science is the primary supporter of science and research in 
the physical sciences. It is also active across many scientific 
disciplines, including Basic Energy Sciences, Biological and 
Environmental Sciences, Nuclear and High Energy Physics, and Fusion 
Energy Science. And, it has stayed on the cutting edge by introducing 
new initiatives like the human genome, nanoscience and technology, and 
advanced scientific computing research. As a consequence, DOE is 
responsible for a significant portion of federal R&D funding to 
scientists and students at our colleges and universities.
    Mr. Chairman, thanks to the leadership of this Subcommittee, the 
nation has made a significant investment in the Office of Science 
programs and the national user facilities, which provide a unique 
large-scale scientific effort across several scientific disciplines. As 
the Subcommittee begins its decision making process on the allocation 
of fiscal year 2002 resources, it is our hope that the members of the 
Subcommittee would choose to continue to reverse the downward trend in 
our nation's investment in the physical sciences. Specifically, an 
increase in funding for Nuclear Physics in fiscal year 2002 will allow 
us to reverse these trends in our subfield and to help maintain our 
world leadership position in the physical sciences.
   the thomas jefferson national accelerator facility (jefferson lab)
    Jefferson Lab, completed in 1994, offers research capabilities and 
opportunities for the scientific community that are unique in the 
world. Research at Jefferson Lab is intended to help answer fundamental 
questions about the structure of matter. Generally, nuclear physics 
helps answer questions about how matter is formed, how it is held 
together, and how its constituents parts interact with one another. The 
Jefferson Lab was built to increase our understanding of a very 
specific piece of the overall puzzle, to learn more about quarks, the 
sub-atomic particles that make up each proton and neutron. The major 
scientific tool at the Jefferson Lab is its accelerator facility which 
emits a billion times each second a million electrons into a human-
hair-width continuous electron beam that is accelerated to almost the 
speed of light. The experiments at the Jefferson Lab record and analyze 
the results of the collision of this continuous electron beam with the 
nucleus of an atom, probing the protons and neutrons of the nucleus to 
learn about its constituent parts, the quarks and gluons.
    The Federal investment in the Jefferson Lab has already resulted in 
important spin off developments in the fields of medicine, industry and 
national defense. For example, the Jefferson Lab is pioneering the 
development of a Free Electron Laser (FEL) facility that is made 
possible by the Lab's expertise in superconducting radio frequency 
(SRF) technology. There is significant interest in the Defense 
community for application of the FEL technology and by industry for use 
of the FEL technology for materials processing. Additionally, the 
technology and expertise at the Jefferson Lab has resulted in the 
development of a new non-invasive medical imaging technology to help in 
the early detection of breast cancer.
                upgrade of the jefferson lab accelerator
    The Jefferson Lab has made remarkable progress in understanding the 
behavior of strongly interacting matter during the almost two decades 
that have passed since the parameters of the Continuous Electron Beam 
Facility (CEBAF) at the Lab was defined. These advances have revealed 
important new experimental questions best addressed by upgrading CEBAF 
to a higher energy.
    When CEBAF was first created, the capabilities of the technology 
behind the machine and the energies necessary to answer the fundamental 
questions were not fully understood. Fortunately, however, the design 
of the CEBAF accelerator and the unique capabilities afforded by the 
advances in superconducting radio frequency (SRF) technology allow a 
straightforward upgrade from the original 4-GeV design energy to a 12-
GeV design that is necessary to expand our reach within our current 
program and address new and compelling physics questions. The energy 
upgrade is facilitated because of favorable technical developments and 
the foresight in the original facility design which make it feasible to 
triple CEBAF's beam energy from the initial design value in a very 
cost-effective manner. The upgrade can be realized for about 15 percent 
of the cost of the initial facility, enabling CEBAF's world-wide user 
community to greatly expand its research horizons and maintain our 
international leadership in this critical field in the physical 
sciences.
    Mr. Chairman, the Jefferson Lab seeks $3 million of fiscal year 
2002 funding to begin preliminary design work for the 12-GeV energy 
upgrade to put the lab on the path to begin construction in 2004.
                               conclusion
    Mr. Chairman, in conclusion we would urge the Subcommittee to 
favorably consider increasing the fiscal year 2002 DOE Office of 
Science budget to $3.68 billion, a fifteen percent increase over last 
year's funding. This is the same amount that has been recommended by 
the Energy Sciences Coalition. Furthermore, within the Office of 
Science, we request that the Nuclear Physics budget be increased to 
$425 million, 15 percent above fiscal year 2001. This will allow the 
nation to take advantage of important scientific opportunities that 
exist in this field and reap the benefits of our nation's investments 
in these facilities.
    Within the $425 million recommended for Nuclear Physics, we would 
anticipate and request an allocation of $91.43 million for the 
Jefferson Lab. At this level of funding, the Lab could deliver the most 
science that the facility capabilities allow. It would permit the Lab 
to substantially eliminate the six-year backlog of approved and highly 
meritorious projects. It would permit the hiring of key critical and 
scientific and technical staff. And it would allow the lab to begin to 
plan for the energy upgrade. All of these are needed to remain at the 
forefront of core competencies benefiting the lab complex and the 
nation.
    Mr. Chairman, we appreciate the opportunity to submit testimony for 
your consideration.
                                 ______
                                 
                             WATER PROGRAMS

  Prepared Statement of the South Dakota School of Mines & Technology

    Thank you for agreeing to consider this request for funding of the 
Acid Drainage Technology Initiative (ADTI) through the Federal multi-
agency mechanism. The Army Corps of Engineers (USACE) is being 
requested to provide annual funding of up to $200K, to match the 
standard set by the Office of Surface Mining (OSM). OSM funding is 
going primarily to the Coal Mining Sector of ADTI and a predictable 
base of funding is also needed for the Metal Mining Sector activities, 
in order to identify the best science for controlling acid and metal 
drainage from metal mines and related materials.
    The ADTI is a nationwide technology development program with a 
guiding principle of building a consensus among Federal and State 
regulatory agencies, universities and consulting firms to predict and 
find remedies for acid drainage from active and inactive metal and coal 
mines. It is not a regulatory or policy development program. The Acid 
Drainage Technology Initiative Metal Mining Sector (ADTI-MMS) is an 
organization of volunteers committed to the development of the best 
science and technology-based solutions to mine water quality issues at 
metal mines. The Review Committee is responsible for developing and 
implementing the consensus review process for documents, editorial 
services, international networking and membership coordination. The 
consensus review process is developed by this Committee is available on 
the world wide web at: http://www.bucknam.com/<difference>chb/
consensu.txt and several draft documents are also being reviewed on the 
ADTI-MMS web site at: http://www.mackqy.unr.edu/adti.
    As you may be aware, it has been estimated that correcting the mine 
drainage and abandoned mined land problems will cost up to $70 billion. 
As this figure suggests, it will be necessary to lead off on this 
effort with an adequate foundation of current technology-based 
solutions. The ADTI-MMS organization is in the process of preparing and 
maintaining handbooks to provide that foundation and is prepared to 
launch the necessary research programs to develop the best science and 
technologies.
    ADTI-MMS is backed through participation from members of numerous 
mining companies, environmental consulting firms, Federal and State 
research, land management and regulatory agencies, academic researchers 
committed to the ADTI mission, and the Western Governors Association. 
The Western University Consortium, consisting of University of Nevada--
Reno, New Mexico Institute of Mining and Technology, University of 
Idaho, University of Utah and University of Alaska, Fairbanks and other 
members of the ADTI-MMS University Network (Colorado School of Mines, 
Montana Tech at the University of Montana, South Dakota School of Mines 
and Technology, University of Colorado, Berkeley, Northern Arizona 
University, Montana State University-Bozeman, and the University of New 
Mexico) provide part of our research foundation under direction of the 
Mining Life Cycle Center at the University of Nevada, Reno. In 
addition, the U.S. Army Corps of Engineers Restoration of Abandoned 
Mined Sites (RAMS) program and the headquarter-based Research Programs 
are actively pursuing research coupled with on ground cleanups. 
Coordination with sister organizations in other countries, including 
Mine Environment Neutral Drainage (MEND)--Canada, Mitigation of 
Environmental Impact From Mining Waste (MiMi)--Sweden, (other), 
signifies our position in the international realm.
    The ADTI-MMS Review Committee needs funding for technical-
professional review and illustrations for ADTI-MMS Workbooks on 
prediction, sampling and monitoring, modeling, mitigation and pit 
lakes. We feel that minimal funding (<difference>10 percent of ADTI-MMS 
annual budget) can provide needed training documentation for what 
proves to be an expensive multi-decade effort.
    The National Mining Association (NMA), the Interstate Mining 
Compact Commission (IMCC) and several Federal agencies [OSM, BLM, 
Department of Energy (DOE), and Geological Survey (USGS)] have actively 
participated in the Acid Drainage Technology Initiative (ADTI) since 
1995. This collaborative effort receives funding and other support from 
industry and several Federal agencies for specific projects. For 
example, the OSM has provided the ADTI $200,000 for the last three 
fiscal years which has been a consistent source of funding for 
activities related to acid mine drainage from coal mining and has been 
instrumental in accomplishing the ADTI's short-term goals. In addition, 
the EPA has provided $10,000 for travel and administration, and is 
currently providing funding for prediction workbook preparation. If 
each of the Federal agencies, OSM, Environmental Protection Agency 
(EPA), DOE, Army Corps of Engineers (USACE), BLM, USGS, and other 
agencies as appropriate [i.e. Bureau of Reclamation (USBR), National 
Park Service (NPS) and Forest Service (USFS)], were provided funds to 
commit $200,000 toward ADTI, more than $1 million would be available to 
support the work of this vital initiative.
    In fiscal year 1999, House Report No. 105-581 acknowledged that 
acid mine drainage is a serious environmental problem and that the U.S. 
Army Corps of Engineers possessed the experience and capability to 
assist in the ADTI's efforts. Further, the subcommittee directed the 
Corps to participate in this initiative with available funds. Since 
that time, the Corps participated in several workshops with members of 
the ADTI to exchange information on mining and related environmental 
issues and to explore the nature and extent of the Corps' involvement. 
In order to participate along with the Corps, we respectfully request 
that the USACE be provided funds to commit $200,000 annually (with 
other Federal agencies involved, such as OSM, EPA, DOE, BLM, USGS, 
USBR, NPS and USFS) to further the Corp's goals of ecosystem 
restoration.
    Thank you for your time and interest in this vital area. Your 
continued funding of this Committee's activities will significantly 
improve our ability to develop the best science for addressing drainage 
issues with an organized and predictable schedule.
                                 ______
                                 

        Prepared Statement of the Fifth Louisiana Levee District

    The possibility exists that within weeks the people of Louisiana 
will have the unfortunate opportunity to see the integrity of the 
Mainline Mississippi River Levee System tested beyond its capabilities. 
Melting snow will begin to merge with excessive rainfall in the upper 
tributaries feeding into the Mississippi, and combined with recent 
heavy rains within the lower reaches of the River, we may be witnesses 
to the inevitable. ``Project flood,'' that once-in-a-hundred-years 
flood that is imminent.
    If not this year, then maybe next year. But eventually, it will 
happen. Funding for adequate flood control in the Mississippi Valley 
now will be minimum compared to the potential that exists if flood 
control projects are not completed as currently planned.
    The Mississippi Valley Flood Control Association has requested a 
total appropriation of $395,000,000 in fiscal year 2002 for Mississippi 
River and Tributaries (MR&T), to be divided among the seven states 
covered by the Project.
    To guarantee that the Vicksburg District, Corp of Engineers is able 
to maintain the level of progress needed to ensure that MR&T 
construction schedules are met, it is imperative that the $51,968,000 
requested in the Budget and allocated for construction of Mississippi 
River Levees within the Division, be funded.
    Funding provided in recent years has allowed the U.S. Army, Corp of 
Engineers to proceed with construction of Levee enlargement projects on 
the West Bank of the River, starting at the Louisiana-Arkansas State 
line and extending southward. It is essential that this section of 
Levee continue to be raised to prevent overtopping of the Levee in 
areas deficient in height.
    The Mississippi River Levee System in Louisiana and Mississippi 
must be brought to heights and capabilities equal to that of the levees 
stretching northward; otherwise, upper reaches of the Mississippi River 
Levee System will become a funnel, protecting states to the north while 
directing destruction southward. Increased funding for MR&T levee 
improvement projects in Louisiana and Mississippi is the only means to 
eliminate this possibility.
                                 ______
                                 

        Prepared Statement of The Little River Drainage District

    My name is Dr. Sam Hunter, DVM of Sikeston, Missouri. I am a 
veterinarian, landowner, farmer and resident of Southeast Missouri.
    I am the President of the Little River Drainage District, the 
largest such entity in the nation. Our District serves as an outlet 
drainage and flood control District to parts of seven (7) counties in 
Southeast Missouri. We provide flood control protection to a sizable 
area of Northeast Arkansas as well. Our District is solely tax 
supported by more than 3,500 private landowners in Southeast Missouri.
    Our District as well as other Drainage and Levee Districts in 
Missouri and Arkansas is located within the St. Francis River Basin. 
This is a project item of the Mississippi River and Tributaries 
Project.
    The St. Francis Basin Project was authorized by Congress in 1928 
for improvements by the U.S. Army Corps of Engineers. The initial 
authorization was justified by a projected benefit cost ratio of 2.4:1. 
Today this ratio is 3.6:1 and the project is still not completed. As 
you can see this has been a wise investment of our federal tax dollars. 
Few projects or ventures with funding levels provided by the Federal 
Government return more than they cost. This one does and we need to 
complete it in a timely fashion.
    Local interests have done their part in providing rights of way, 
roads, utilities and the like. Our government now needs to fulfill 
their part of the project and bring it to completion as quickly as 
possible.
    The St. Francis Basin project has had a base funding level of 
approximately $10,000,000 over the past several years for maintenance. 
Our last 5 year average has been $9.9 million. That baseline funding 
level does not need to be diminished. We hereby respectively request 
funds for fiscal year 2001 for this project of not less than 
$17,200,000 for maintenance and $5,500,000 for construction. This 
amount is compatible with the Corps of Engineers capability.
    Since the initiation of the project for improvements we have seen 
many positive changes occur such as: (1) Many miles of all weather 
roads have been constructed and are usable almost daily each year. (2) 
Improved flood control and drainage. (3) Development of one of the most 
fertile and diversified valleys in the world. (4) Growth of towns, 
schools, churches, industry, commerce, and etc. (5) Improvement of our 
environment: malaria, typhoid and other such diseases are no longer the 
norm but seldom occur. (6) A future for our young people to have a 
desire to remain in the area. (7) Production of a variety of food and 
fiber products.
    As you can see many changes have occurred and we who live there 
welcome them fully. We, local interests, in Southeast Missouri and 
Northeast Arkansas want this project brought to completion and 
adequately maintained. We have waited over 70 years and we believe it 
is now time to complete a wise investment for our nation.
    Our requests to you today is to approve funding for the St. Francis 
Basin Project of $5,500,000. for construction for the fiscal year 2002 
and with funding of not less than $17,120,000 to preform the required 
and needed annual maintenance of items within that project which have 
been completed and which are the responsibility of the U.S. Army Corps 
of Engineers.
    The Corps of Engineers has the capability of more than $395,000,000 
for fiscal year 2002. We ask you to give consideration to provide 
funding levels at $395,000,000 for this project for fiscal year 2002. 
This will provide some new construction but it will also provide the 
necessary maintenance monies needed each year.
    Our great Mississippi River and the other navigable tributaries are 
valuable assets to our great nation. As far back as 1845 we find 
records indicating our forefathers and leaders of this nation 
recognized the Mississippi River as a national problem, a national 
asset, and a problem local interests could not and should not be 
responsible for controlling, namely, flood control and navigation. The 
river has always been a viable asset to our nation and important to the 
development of our towns along its banks such as New Orleans, 
Louisiana, Memphis, Tennessee, St. Louis, Missouri, and of course many 
others along it and its tributaries.
    We have locks and dams which are more than 50 years old. They need 
to be improved and enlarged to meet the needs for our navigation 
interest to perform in the 21st century. Our competing nations are 
modernizing and building navigation systems in order to compete with 
our export of commodities and we need to at least keep pace. We must 
upgrade our waterways infrastructure in order to compete with the 
foreign markets and we must improve our aging waterway facilities. No 
successful private industry does not improve and modernize its internal 
and external features in order to keep pace with the competition and to 
meet current demands. Our nation needs to do the same.
    It has been proven over and over our waterway transportation system 
is the safest, the most environmentally acceptable, and the most fuel 
efficient in moving commodities and materials throughout our nation. It 
would be totally unacceptable and very unwise to diminish that mode of 
moving products throughout our nation and expect them to be moved 
either by rail or by highways. Our highway systems already are in dire 
need of repair and to add additional demands on them would be extremely 
costly, very unsafe, and would expend much more fuel which we currently 
do not have but must import. Hopefully, common sense will prevail and 
Congress will make the choice to invest into one of the greatest assets 
we have in our nation. The many locks and dams on our rivers are 
needed. They were designed to accommodate traffic 50 years ago and it 
is now time to upgrade, enlarge, and construct them to accommodate the 
industry as we have it today. We have done the same thing with our 
vehicler traffic on our roads by upgrading, enlarging, and constructing 
to meet the modern day demands. It is now time and past time to do the 
same for our water industry. Former President Eisenhower saw an 
increase in our car and truck traffic on the horizon and thus we 
implemented an extensive interstate system. Let's do something in a 
similar way on our rivers.
    We have only a few oil producing fields, therefore, we must look 
for as many means as possible to conserve our fuel. Utilizing and 
increasing our waterway transportation industry is one way to do that. 
We need an energy plan and we encourage Congress to incorporate 
increased use of water to move products throughout our nation as one 
way to conserve fuel. Every little bit will help when our oil resources 
are so small domestically.
    In the past few months there has been much unfair criticism of the 
U.S. Army Corps of Engineers for their study procedures and related 
work. This organization should have their hands held up high and not 
with accusing fingers pointed toward them. No other organization, to my 
knowledge, must stand before Congress each year and justify by a 
favorable cost/benefit ratio of why they need the funding to do the 
work Congress has authorized them to do. The Mississippi and 
Tributaries Project currently returns back to the Federal Treasury more 
than $25 dollars for each dollar spent. In any society and to any 
investor that is a good return on your investment.
    The Corps of Engineers does not do anything beyond what Congress 
has authorized them to do. They can and they will improve our great 
nation if Congress will only let them and if those groups who oppose 
them are not given the never ending ability to interfere. Those groups 
and individuals who oppose the Corps seem to only have to point a 
finger and we see an investigation occur. They should be required to 
provide scientific facts and supporting evidence not ``innuendos'', 
``perhaps'', ``maybes'', and ``could have'' type charges before any 
consideration is given to their allegations. Simply to delay a project 
or to cast doubt in the citizens eyes through their good use of our 
news media means they have been successful. Local interests and those 
who benefit from the Corps projects are fully aware of the results of 
their tactics. We are sure Congress in their wisdom will do the same. 
Your assistance in this matter is extremely important. Congressman 
Barry from Arkansas understands the problem, perhaps, many more of the 
other 434 will be likewise enlightened.
    Recently we have learned six members of Congress have attempted to 
create a Corp reform caucus whereby the Corps of Engineers projects 
would be placed under another additional financial and scientific 
review board. This is absurd and is nothing more than another effort of 
those who oppose the Corps of Engineers and the work they do to stop 
any work under the guidelines the Corps of Engineers must operate. It 
is our hope none of you participate in such a caucus and the efforts 
being pushed by those who desire same will come to naught.
    I wish to thank you very much for your time and kind attention and 
for taking the time to review the above discourse. We would be very 
appreciative of anything this committee can do to help us improve our 
environment, improve our livelihood, and improve the area in which we 
live and work which ultimately is good for America. We are also very 
appreciative of all this Committee has done for us in the past. We 
trust you will hear our pleas and act accordingly.
                                 ______
                                 

 Prepared Statement of the Board of Supervisors, Contra Costa County, 
                               California

                  a turning basin at avon, california
Request
    Contra Costa County requests a $2 million add to the Construction 
General (CG-continuing construction) Federal Fiscal Year 2002 Civil 
Works Budget to complete a General Reevaluation Report (GRR) and 
construct a Turning Basin to -35 feet MLLW at Avon, California.
Background
    The Avon Turning Basin will provide necessary modification to the 
Suisun Bay Channel, increasing the distance between vessels traveling 
within the channel, and those berthed at terminals in the vicinity. 
Second, a Turning Basin will be constructed to allow oil tankers to 
turn vessels within (regularly surveyed and expanded) navigational 
boundaries, with a uniform depth of -35 feet of water (rather than 
attempting to turn in shallower areas). Finally, the Turning Basin will 
provide an emergency anchorage for vessels traveling westward when the 
railroad bridge (adjacent to HWY 680 between Martinez and Benicia) 
fails to open.
    The recent grounding of the oil tanker CHESAPEAKE TRADER during 
turning operations in the Suisun Bay Channel has brought attention to 
and created some urgency for construction of a turning basin at -35 
feet MLLW. The potential for an oil spill during a grounding event is 
significant. The Bar Pilot in question was cited (and suspended in 
part) for having the vessel outside channel boundaries, creating a 
liability issue for the Pilots as well. The Bar Pilots have no choice 
but to turn large vessels outside the narrow (linear) channel. This 
project is supported by the Bar Pilots, the U.S. Coast Guard, 
industries using the channels, the Port of Stockton, and the U.S. Army 
Corps of Engineers.
    Avon, California is located at the mouth of the Sacramento San 
Joaquin Delta, as it flows into San Francisco Bay. The Bar Pilots and 
local industry have approached the County, concerned that a turning 
basin was no longer being considered at Avon, Suisun Bay Channel, as 
part of the JF Baldwin deepening project. Funding was successfully 
obtained in fiscal year 2001, allowing the Corps to begin reevaluation 
of the Turning Basin to -35 feet, the existing channel depth. The 
fiscal year 2002 appropriation would enable the Reevaluation Report to 
be completed, and construction to occur as part of the San Francisco to 
Stockton (J.F. Baldwin), authorized project.
                                 ______
                                 

  Prepared Statement of the Southeastern Federal Power Customers, Inc.

    Mr. Chairman and Members of the Subcommittee: On behalf of the 
Southeastern Federal Power Customers' (``SeFPC'') Operation and 
Maintenance Committee, I am pleased to provide testimony in support of 
the Administration's fiscal year 2002 (``fiscal year 2002'') budget 
request for the Army Corps of Engineers' (``Corps'') South Atlantic 
Division (``SAD'') and the Great Lakes and Ohio River Division 
(``LRD'').
    The SeFPC has enjoyed a long and successful relationship with the 
Corps' SAD and LRD offices that has greatly benefited the approximately 
5.8 million customers that are SeFPC members. As the Subcommittee is 
aware, the Corps is responsible for operating and maintaining federal 
hydropower generating facilities. The Southeastern Power Administration 
(``SEPA'') then markets the energy and capacity that is generated from 
the federal projects in the Southeast. The SeFPC represents some 238 
rural cooperatives and municipally owned electric systems in the states 
of Alabama, Georgia, Mississippi, Kentucky, North Carolina, South 
Carolina, Florida, Virginia, West Virginia, and Illinois, which 
purchase power from SEPA. In some cases, SEPA supplies as much as 25 
percent of the power and 10 percent of the energy needs of SeFPC 
customers. The SeFPC therefore greatly relies on the power generated at 
Corps' projects in the SAD and LRD.
    It is important to note that the relationship of the Corps, SEPA, 
and the SeFPC, forged pursuant to the Federal Power Marketing Program, 
is separate and distinct from other Corps' activities. The Federal 
Power Marketing Program is designed to pay for itself--consumers are 
responsible for repaying the federal taxpayer investment in the Corps' 
multi-purpose hydroelectric facilities. In the rates charged by SEPA to 
preference customers, a portion of each rate is devoted to future 
operation and maintenance (``O&M'') and renewals and replacement 
(``R&R'') activities at these facilities. In turn, these revenues are 
deposited in the Treasury and used to reimburse Congressionally 
appropriated funds for O&M and R&R expenses at the Corps' hydropower 
facilities. Funds collected from consumers may also be used for the 
joint costs of dam activities such as recreation, navigation and flood 
control.
    The SeFPC is dedicated to providing reliable and economic power for 
its consumers. We therefore are concerned that the President has 
proposed a 14 percent reduction in the Corps' overall O&M account for 
the upcoming fiscal year. With these reductions in funding, the Corps 
will not be able to undertake the O&M and R&R work necessary to ensure 
the long-term reliability of the Southeastern federal hydropower 
facilities.
    We are particularly concerned about the effects of the proposed 
budget cuts on ongoing O&M work on hydropower infrastructure within the 
SEPA system of projects. The proposed reductions will impede the Corps' 
work in the following SEPA projects:
  --the $1 million purchase of SF6 Switchyard breakers for the Hartwell 
        hydropower project.
  --$750,000 for head cover repairs of Unit 1 at the Carters hydropower 
        project.
  --$1.3 million for the excitation replacement of Unit 1 at the 
        Carters project.
  --$1.5 million for purchase and installation of SF6 switchyard 
        breakers at the Carters project.
    We also are concerned about the President has proposed no new 
starts for fiscal year 2002 from the Corps' General Construction 
account. If enacted, the prohibition on new starts would delay the 
badly needed rehabilitation of the Allatoona hydropower project.
    When a generating unit becomes inoperable, SEPA may be forced to 
purchase expensive replacement power. If this occurs frequently, SEPA 
must then recover these costs through future rate increases. Such a 
result is inappropriate because preference customers already have 
contributed to the Corps' O&M and R&R expenses, thus effectively 
double-charging the customers and their consumers. In fact, revenue 
from the rates paid by the preference customers has enabled SEPA to 
repay, on schedule, the original investment incurred to construct these 
projects. However, when generating units deteriorate, the operation and 
maintenance expenses greatly increase. The failure to provide adequate 
resources for maintenance and rehabilitations impairs the preference 
customers' ability to repay the federal investment and everyone loses.
                                 ______
                                 

               Prepared Statement of the American Rivers

    American Rivers is joined by over 500 local, regional and national 
conservation organizations \1\ from all 50 states in calling for $25 
million in funding for the Upper Mississippi River Environmental 
Management Program in fiscal year 2002.
---------------------------------------------------------------------------
    \1\ These groups have endorsed ``The River Budget 2002'', a report 
of national funding priorities for local river conservation. A list of 
groups endorsing the River Budget can be viewed at 
www.americanrivers.org.
---------------------------------------------------------------------------
    The Environmental Management Program (EMP) is the primary habitat 
restoration and long term resource monitoring program on the Upper 
Mississippi, and is administered by the U.S. Army Corps of Engineers in 
cooperation with the U.S. Geological Survey and the five Upper 
Mississippi River Basin states of Minnesota, Wisconsin, Illinois, Iowa, 
and Missouri.
            overview of the environmental management program
    Dams and levees that support navigation and flood control have 
robbed the Mississippi River of its ability to create and sustain 
habitat for waterfowl and wildlife. Side channels and backwaters fill 
in with silt and sediment and are no longer replaced during floods. 
Instead, they are replaced by state and federal programs.
    More than half the river's backwaters and side channels will be 
lost by the year 2035, likely leading to a catastrophic collapse of the 
nation's most productive and diverse inland fishery. Loss of river 
habitat also threatens a $1.2 billion river-recreation industry, which 
supports 18,000 jobs. As the Corps recently concluded, the Upper 
Mississippi River is in a ``recognized state of decline.'' Corps 
scientists predict that the river will experience a shift to less 
desirable fish species, poorer water quality, and fewer areas that are 
able to support migratory waterfowl unless restoration efforts are 
improved and accelerated.
    One of the most successful and promising federal efforts to reverse 
the degradation of the Mississippi River is the Environmental 
Management Program (EMP). The primary habitat restoration and 
monitoring program on the Upper Mississippi River, EMP has restored or 
created 28,000 acres of habitat to date. When the projects currently 
under construction are completed, it will have protected more than 
96,000 acres of habitat.
    Habitat restoration projects constructed by the Corps with funding 
from the EMP include backwater dredging, water level management, island 
restoration, shoreline stabilization, and side channel improvements. 
These activities allow the Corps and its project partners (e.g., U.S. 
Fish and Wildlife Service and/or basin states) to restore habitat 
degraded by management of the river system for navigation and flood 
control benefits by restoring natural river processes. Managing water 
levels to more closely mimic natural high and low water periods in the 
hydrologic cycle provides key ecological triggers for the growth of 
marsh plants, which in turn support fish and wildlife populations 
popular with hunters and anglers. Backwater dredging opens areas of 
aquatic habitat previously unavailable to aquatic organisms due to 
excessive sedimentation. In all, these restoration activities are a 
critical factor in improving the ecological health of the Upper 
Mississippi River.
    Long term resource monitoring provides river managers with 
critical, systemic scientific analyses of the river ecosystem, which 
identifies key threats to river health and helps guide management 
decisions to protect and restore this national resource. These 
monitoring efforts provide critical information needed to maintain the 
Upper Mississippi River as a sustainable large river ecosystem 
supporting multiple uses, including recreation, navigation and 
commercial fishing.
                the value of the upper mississippi river
    Few rivers have had as great an impact on the nation as the 
Mississippi River.
    Generations of explorers, engineers, Native Americans, fur traders, 
steamboat pilots, writers, painters and musicians have contributed to 
its legend. The river is a life sustaining force whose presence has 
contributed to a rich fabric of social, economic, cultural and natural 
resources.
    As the river courses through the nation's heartland, the 
Mississippi winds through hundreds of communities and thousands of 
years of human history. Millions make their homes along the river's 
shores, and millions more use the waterway every year for recreation, 
to move goods, supply water, and generate power. From the moment it 
trickles out of Minnesota's Lake Itasca, the Mississippi River shapes 
the lives of the communities along its banks. The river that inspired 
Mark Twain continues to inspire millions of people today.
    People of virtually every ethnic and racial background have claimed 
homes along the river, and the river's many different names--the Father 
of Waters, Big Muddy, Old Devil River--underscore the diversity of the 
people who have lived along its shores. The Mississippi is a confluence 
of literally hundreds of different cultures.
    More than 400 different species of wildlife call the river home as 
well--one of the world's most diverse ecological systems--including the 
nation's most ancient lineage of fish and 40 percent of North America's 
migratory waterfowl. The river's floodplain includes dense forests of 
maples, cottonwoods, and willows, which support bald eagles, herons, 
egrets, and double-crested cormorants, rare orchids and many other 
species.
    The heritage resources of the river valley include traces of North 
America's earliest inhabitants. The river's banks are dotted with 
remnants of the past, ranging from 10,000 year-old Native American 
effigy mounds to the remains of Zebulon Pike's expedition to the paddle 
wheelers that inspired Mark Twain. Attractions like Mark Twain's 
birthplace in Hannibal, Missouri, historic steamboats and bridges, and 
river museums link visitors to the river's past.
    The river's natural resources, scenic beauty, and heritage are 
powerful economic engines. Recreation on and along the Upper 
Mississippi River attracts 12 million annual visitors--four times more 
than Yellowstone National Park--who spend $1.2 billion annually, 
supporting more than 18,000 recreation-related jobs. Commercial 
fishermen continue to harvest carp, buffalo, catfish and freshwater 
drum, supporting hundreds of jobs and preserving an important link to 
the river's past. Tourism in counties along the entire Mississippi 
generates more than $15 billion in annual economic benefits.
    Unfortunately, these important economic resources are threatened by 
land use practices which contribute too much sediment and nutrients, 
the loss of floodplain forests and wetlands, the loss of side channels 
and sloughs, outdated methods of channel maintenance, and introduced 
species like the zebra mussel. Sadly, that ``artery of a continent'' is 
becoming clogged with excess sediment and nutrients while critical 
habitat continues to degrade under a system highly managed to support 
economic benefits. Scientists tell us that these threats may have 
serious consequences if left unattended.
              threats to the upper mississippi river basin
    The Mississippi was once characterized by ``dynamic equilibrium''--
sediment and silt may have filled a side channel, but a new side 
channel was created by the erosive power of flood waters; particular 
islands and sandbars may have washed away, but new ones were built 
elsewhere by the river. The overall mosaic of floodplain forest and 
wetlands, side channels and sloughs, islands and sandbars stayed more 
or less the same. Periods of both high and low flow were critically 
important--during floods, powerful currents would build new habitat and 
fish could migrate onto the river's floodplain to spawn; during periods 
of low flow, exposed sediments would consolidate and river water would 
become clearer, aiding the production of marsh plants, a major food 
source for fish and waterfowl.
    Today, the dams that make the river reliably navigable and the 
levees that temporarily protect floodplain farms have reduced the 
frequency, extent and magnitude of high flows, robbing the river of the 
ability to build new side channels and islands, replenish forests and 
marshes--to sustain itself. Because dams and channel training 
structures have confined the river's erosive power to a central 
channel, side channels, which fill with silt and sediment, are no 
longer replaced during floods. Current land use practices accelerate 
the loss of side channels by increasing the rate at which sediment is 
washed off the land into feeder streams. The river's bottom is becoming 
increasingly uniform, replacing the variety of water depths that 
contribute to the Mississippi's remarkable diversity of aquatic 
species. The absence of low flows has sharply reduced the amount and 
diversity of marsh plants, and elevated water tables have undermined 
the health of the river's floodplain forest. Marsh plant seeds, buried 
under layers of accumulating sediment, lay dormant.
   the environmental management program: one solution to restore the 
                              mississippi
    the value of the Environmental Management Program to the ecological 
health of the Upper Mississippi River cannot be understated. Continued 
increases in funding for this important restoration program will 
translate into more effective restoration projects. With sound science 
and effective use of restoration funding, the degraded Upper 
Mississippi has some hope of turning around, and becoming the 
outstanding, world-class natural resource it once was. Without 
increased funding, the Upper Mississippi River is at risk of continued 
declining ecological health, putting at risk the $1.2 billion in 
recreation-based economy in the basin, 18,000 or more recreation-based 
jobs, 400 different species of fish and wildlife, and a natural 
resource beyond compare.
    We strongly urge you to appropriate $25 million to the U.S. Army 
Corps of Engineers' Upper Mississippi River System Environmental 
Management Program.
                                 ______
                                 

  Prepared Statement of the Association of State Floodplain Managers, 
                                  Inc.

    The Association of State Floodplain Managers appreciates the 
opportunity to express support for fully funding several key programs 
of the Army Corps of Engineers. These programs can significantly expand 
the Corps' ability to assist communities in the nation reduce losses 
due to flooding. We have found that the Flood Plain Management Services 
(FPMS) and Planning Assistance to States (Section 22) programs provide 
for important elements of effective floodplain management. The Riverine 
Flood Hazard Mitigation and Ecosystem Restoration Initiative, and 
Section 1135 and 206 programs offer new opportunities for use of non-
structural options to achieve flood loss reduction. The National 
Shoreline Study requested by Congress in WRDA 99 has some initial 
funding proposed in the budget. These are all elements of the Corps' 
activities that are especially helpful to communities and states around 
the country in reducing flood losses.
    The Association of State Floodplain Managers is an association of 
over 4,000 state and local officials and other professionals engaged in 
floodplain management, flood hazard mitigation, flood preparedness, 
warning and recovery and in working with numerous federal agencies, 
including the Corps of Engineers. Our members have expertise in the 
fields of engineering, planning, community development, hydrologic 
forecasting, emergency response, and water resources.
    Three of the programs we are discussing, PAS, FPMS and Ecosystem 
restoration & mitigation, are all programs which directly support major 
themes the Corps is pursuing to formulate and implement Civil Works 
policy. They are based on building strong partnerships with states and 
local communities as well as other federal agencies. Additionally, that 
Civil Works policy should help economic growth and prosperity by 
``combining sound infrastructure management and development with 
environmental protection and ecosystem restoration''. We fully support 
these strategies for the Corps.
    Under General Investigations, Flood Plain Management Services, $8.2 
million is requested for fiscal year 2002. The funding level for fiscal 
year 2001 was that $8.2 Million. The Floodplain Management Services 
Program funds specific technical assistance requests from states, local 
governments and tribes. Generally, these address needs for 
identification of flood hazards in communities under growth pressure, 
assessing and taking steps to assure the safety of dams and providing 
the technical information to identify appropriate flood mitigation 
options, floodproofing, flood warning and hurricane evacuation studies. 
Without the technical assistance the Corps provides, structures may be 
built at risk, exposing citizens and the nation's taxpayers to future 
costs. Clearly, projects funded under FPMS work tangibly to reduce 
flood losses and costs to the federal government and support the 
partnership and economic growth/infrastructure management strategies 
above. There is a growing need to increase the funds in this critical 
program to help reduce flood losses in the nation, which we hope the 
Congress mill consider for fiscal year 2002.
    The General Investigations, ``Coordination Studies With Other 
Agencies'' budget includes $6.5 million for Planning Assistance to 
States in the budget request for fiscal year 2002, the same as last 
year's funding. The growing need of localities and local and regional 
governmental entitles for technical assistance from the Corps has been 
helped by the Congressional effort. Further, increasing federal efforts 
to encourage cooperation and capability building among federal agencies 
and state and local governments have produced more demand for the 
Corps' guidance and assistance. We hope that the Committee will approve 
funding at least at the budget request and, hopefully, once again at a 
measure above the budget request.
    The Riverine Flood Mitigation and Ecosystem Restoration program was 
authorized by Congress last year. This program would provide the Corps 
with a full-range toolbox to help communities and states. It offers 
essential flexibility such as the ability to accommodate smaller 
projects for communities where a traditional structural project might 
not be justified or the ability to mix structural and non-structural 
elements to better design an overall project. The continuing 
authorities nature of the proposed program is important because 
confidence in a sustained federal commitment is important to 
communities for development and implementation of these smaller 
projects. From our knowledge, hundreds of communities in the nation 
have the potential to benefit substantially from this innovative 
initiative and are eager to cost share in this effort. We hope that the 
Committee will provide the nation's communities with the valuable tools 
of this program.
    Two other important programs need full funding--namely the Section 
1135 and 206 programs. Both programs are helping communities restore 
much of the habitat lost when Corps projects were constructed. Both 
programs are authorized for $25 Million.
    Congress Authorized the National Shoreline Study in WRDA 99 in 
order to help the nation describe the extent of economic and 
environmental effects of erosion and accretion of our shorelines. The 
study is also to help identify appropriate benefits and costs to 
various levels of federal and non-federal participants in shore 
protection projects. We support proceeding with such a study so the 
nation will be better prepared to address and manage our shorelines to 
benefit everyone. The proposed budget provides $300,000 for starting 
this study under ``General Investigations--Studies not under states''. 
We urge the Committee to provide at least the budget request. In order 
to complete the study in the time Congress requested, funding of $500-
$750,000 would be appropriate.
    Thank you for the opportunity to present testimony. Please contact 
ASFPM Executive Director, Larry Larson, at (608) 274-0123 if further 
information is needed.
                                 ______
                                 

                 Prepared Statement of Butte County, CA

      rock creek-keefer slough flood control project, section 205
    Butte County in cooperation with the California Reclamation Board 
and U.S. Army Corps of Engineers (Corps) is currently completing the 
Feasibility Study Phase of the project review with several important 
milestones to occur in the near future. The Working Group has 
established two project construction alternatives. When the components 
of the alternatives have been agreed upon they will be subject to an 
Environmental Review through the California Environmental Quality Act 
(CEQA) and National Environmental Policy Act (NEPA) processes.
    In October we expect development of the PED Phase (Project 
Engineering and Design) to start. The NED Plan (National Economic 
Development Plan is slated to be completed near that date. This will be 
a General Inquiry Project.
    Our goal is to have the project properly reviewed, designed and 
constructed in the shortest possible time. This does not mean we want 
to cut any corners or bend any rules. It means we do not want to miss 
any deadlines or waste any time waiting for something to start which 
should have already been completed, including project budgeting.
    At this time, we are asking The Honorable Members of the United 
States Senate, to support Federal Funding of $2,100,000, for the U.S. 
Army Corps of Engineers, to proceed with the PED, in fiscal year 2002, 
for construction of this critical Flood Control Project in their fiscal 
year 2003 recommended flood control projects.
    If you have any questions concerning this matter, please contact: 
Stuart Edell, P.E., at Butte County Public Works, 7 County Center 
Drive, Oroville, CA 95965-3397, Telephone (530) 538-7266, FAX (530) 
538-7683, Email <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="deadbbbabbb2b29ebcabaaaabbbdb1abb0aaa7f0b0bbaa">[email&#160;protected]</a>
                                 ______
                                 

       Prepared Statement of the Southern Nevada Water Authority

                              introduction
    It has long been said that the Colorado River is the lifeblood of 
the West. Today, the Colorado River supplies vital water and power 
resources for more than 20 million people in Arizona, California and 
Nevada.
    Concerns have been raised about the reliability of these water and 
power resources following the U.S. Fish and Wildlife Service's 1994 
designation of critical habitat for four endangered fish species in the 
Colorado River Basin.
    In response, representatives of the U.S. Department of the 
Interior, Arizona, California, and Nevada, Native American tribes, 
along with various stakeholders and water and power agencies along the 
lower Colorado, have formed a regional partnership, which is developing 
a first-of-its-kind multi-species conservation program aimed at 
protecting sensitive, threatened and endangered species of fish, 
wildlife and their habitat.
    The partnership formed a 35-member steering committee, which has 
been designated by the U.S. Fish and Wildlife Service as an Ecosystem 
Conservation and Recovery Implementation Team (ECRIT) under the federal 
Endangered Species Act. The steering committee has retained the 
services of professional facilitator and technical consultant teams to 
help develop a plan for the conservation program. The conservation plan 
is scheduled for completion in Fall 2002.
                          program description
    The multi-species conservation program will work toward the 
recovery of listed species through habitat restoration and species 
conservation, and reduce the likelihood of additional species listings 
under the federal and California Endangered Species Act.
    The MSCP planning area includes the historic floodplain of the 
lower Colorado River and reservoir full-pool elevations from Lake Mead 
to the Southerly International Boundary with Mexico. MSCP habitat 
restoration and preservation activities are intended to address the 
following habitat types: aquatic, wetland/marsh, riparian and upland 
desert fringe. It is the intent of the MSCP to re-vegetate native 
cottonwood-willow and mesquite trees in the floodplain, and remove the 
non-native salt cedar, or tamarisk, that has become established.
    The MSCP will be implemented over a 50-year period. The long-term 
program is also intended to accommodate current water diversions and 
power production and optimize opportunities for future water and power 
development. This comprehensive program will provide long-term 
environmental compliance for participating federal agencies, pursuant 
to Section 7 of the federal Endangered Species Act, and non-federal 
agencies under Section 10. California Agencies will also pursue 
programs and actions to achieve compliance with California 
Environmental Quality and Endangered Species Acts.
    Over the past four years, interim conservation measures (ICMs) have 
been developed and implemented to address the immediate critical needs 
for certain endangered species. ICMs benefiting the endangered 
razorback sucker, bonytail, and southwestern willow flycatcher were 
initiated.
                        program development cost
    Current, program development costs are projected at about $6.7 
million over five years for planning needs and implementation of ICMs. 
A federal/non-federal cost-sharing agreement is in place for 
development of the program and implementation of interim conservation 
measures. The federal and non-federal participants shared program 
development costs on a ``50/50'' basis. Among the non-federal 
participants, the shares were distributed as follows: 50 percent of the 
non-federal share was borne by California, 30 percent by Arizona, and 
the remaining 20 percent by the State of Nevada.
                         program implementation
    The MSCP will be implemented over the fifty-year period beginning 
in late-2002. However, MSCP proponents are desirous of implementing a 
series of ``pilot projects'' in order to begin evaluating potential 
habitat restoration and species conservation technologies within the 
planning area. Additionally, the pilot projects would be supplemented 
with species and habitat monitoring and research programs, providing 
the basis for a comprehensive adaptive management approach.
          colorado river indian tribes pilot project proposal
    The Colorado River Indian Tribes (CRIT) have played an active role 
in the restoration of critical habitats for the past eight years. Since 
1993, the tribe has restored, preserved and protected over 2,000 acres 
of riparian, wetland, and aquatic resources on the Lower Colorado 
River. In particular, the Ahakhav Tribal Preserve project has served as 
a model for riparian habitat restoration in the southwestern United 
States for Native American Tribes, the U.S. Fish and Wildlife Service, 
U.S. Bureau of Reclamation, and various other public and private 
agencies. More importantly, it serves as a model for the Lower Colorado 
River Multi-Species Conservation Program (MSCP).
    Located just south and west of Parker, Arizona, in La Paz County, 
the Ahakhav and Deertail Backwater Restoration Pilot Project is located 
on the Colorado River on the Colorado River Indian Reservation. The 
Ahakhav and Deertail Restoration Pilot Project provides numerous 
opportunities for MSCP covered species conservation and native habitat 
restoration. Many of the nearly 100 species proposed for coverage, or 
receiving benefits from MSCP conservation, occur on lands within the 
pilot project area. Anticipated actions for this pilot project include 
enhancement of riparian, wetland, and aquatic habitats and continued 
collaboration with ongoing Native American, federal, and state 
environmental planning efforts, specifically the MSCP.
                     pilot project area description
    The Ahakhav and Deertail backwaters extend from Rivermile (RM) 169 
to 174 on the Colorado River. This restoration pilot project plans to 
restore native riparian, wetland, and aquatic habitats modified through 
development of the Colorado River water and hydroelectric power 
resources over the past century. This proposed pilot project would 
restore over 1,000 acres of native riparian habitat, 200 acres of open 
water, 250 acres of wetland/marsh complex, and 200 acres of fallowed 
agricultural land. Over 300 species of birds, 32 species of mammals, 19 
fish species, 20 species of reptiles, and 9 amphibian species utilize 
the sites. In addition, 29 threatened or endangered species are 
expected to benefit from the proposed pilot project, including the 
endangered southwestern willow flycatcher, Yuma clapper rail, and 
razorback sucker.
                         pilot project actions
    In keeping with the overarching intent of the MSCP, habitat 
restoration at these sites is the primary component of the project. 
This MSCP pilot project seeks to restore wildlife habitat and some 
measure of pre-development hydraulic conditions in this area. This will 
be accomplished through re-excavation and re-connection of historic 
channel features, installation of water control structures, conversion 
of agricultural land and riparian re-vegetation activities. The 
following is a list of pilot project goals and objectives:
  --Excavate historic channel features to improve water quality and 
        flow in existing wetlands;
  --Convert fallowed agricultural lands into cottonwood-willow forests;
  --Re-vegetate stands of native cottonwood, willow, and mesquite trees 
        in areas where exotic plant species have invaded;
  --Implement pre- and post-restoration monitoring to measure success 
        and aid in the development of future maintenance and 
        restoration activity recommendations; and
  --Provide environmental and cultural education and low-impact 
        recreational opportunities for surrounding communities.
                         pilot project funding
    It is proposed that the CRIT Ahakhav and Deertail Restoration Pilot 
Project of $2.5 million be funded through the U.S. Bureau of 
Reclamation, Lower Colorado Region, Lower Colorado River Operations 
(LCROP) budget line item.
                                 ______
                                 

   Prepared Statement of the Monterey County Water Resources Agency 
                                (MCWRA)

                 castroville seawater intrusion project
    Mr. Chairman, thank you for the opportunity to provide testimony 
for inclusion in the hearing record of the fiscal year 2002 Energy and 
Water Development Appropriations bill. The people of the Salinas Valley 
in California's 17th Congressional District appreciate your willingness 
to accept our statements in support of the Castroville Seawater 
Intrusion Project. I would further like to express our deep 
appreciation for this Subcommittee's efforts on our behalf on past 
Energy and Water Development Appropriations bills. I am pleased to 
report that the project is complete and operational and provided over 
10,000 acre-feet of recycled water in calendar year 2000.
    As in the past seven years, the Monterey County Water Resources 
Agency has worked diligently to present the Subcommittee with an fiscal 
year 2002 funding request that is supported by the Administration as 
well as all the other Small Reclamation Loan Program participants. 
Through close consultation with the Bureau of Reclamation (Bureau) and 
other Program participants, we have developed the funding plans that we 
hope will be included in the President's fiscal year 2002 budget for 
the Public Law 84-984 Small Reclamation Loan Program. I therefore 
respectively request that the Subcommittee provide the full request for 
the project of $1.12 million.
    This is the eighth year of an eight-year fiscal strategy designed 
to meet the requirements of all the projects in the Program while 
recognizing the fiscal constraints facing all levels of government. 
Originally, the Program was to provide all appropriations ($16,500,000) 
over a three-year period. During the past seven years this Subcommittee 
provided $13.164 million for our project. The current appropriation 
amount of $1.12 million, when combined with other federal funding which 
is available from the U.S. Treasury in the amount of approximately 
$2.174 million pursuant to the Federal Credit Reform Act of 1990, 
should yield a total loan amount of $3.294 million for fiscal year 2002 
allowing the project to proceed on schedule.
    The Monterey County Water Resources Agency (MCWRA) is a local 
government entity formed under the Monterey County Water Resources 
Agency Act. It is an agency with limited jurisdiction involving matters 
related primarily to flood control and water resources conservation, 
management, and development. The Salinas Valley is a productive 
agricultural area that depends primarily on ground water as its water 
supply. The combination of the Valley's rich soils, mild climate, and 
high quality ground water makes this Valley unique among California's 
most fertile agricultural lands and has earned the Valley the 
distinction as the ``Nation's Salad Bowl.'' As agricultural activity 
and urban development have increased in the past forty years, ground 
water levels have dropped allowing seawater to intrude the coastal 
ground water aquifers. Seawater intrusion is extensive adjacent to the 
coast near the town of Castroville. The Castroville Seawater Intrusion 
Project will provide 19,500 acre-feet of recycled water annually for 
agricultural irrigation to over 12,000 acres and help solve the 
seawater intrusion problem by greatly reducing groundwater pumping in 
the project area. The Castroville Seawater Intrusion Project is an 
essential component in the MCWRA's plan to deal with basin-wide ground 
water overdraft and seawater intrusion.
    The amount requested in fiscal year 2002 when combined with the 
additional Treasury portion is intended to fulfill the Bureau's eighth 
year of an eight-year loan commitment for assistance to construct the 
project. As stated above, the funding request that we anticipate is the 
result of a lengthy and complex financial agreement worked out with the 
other Loan Program participants and the Bureau. The agreement 
recognized the tight federal budgetary constraints and represents the 
absolute minimum annual amount necessary to proceed with the project. 
The MCWRA has been extremely accommodating of the Bureau's budgetary 
constraints and has agreed to expend considerable local funds to bridge 
the federal government's budgetary shortfall. Any additional cuts in 
federal funding will jeopardize the complex financing plan for the 
project.
    In August 1992, the original loan request was submitted to the 
Bureau. Subsequent approval was received from the Secretary of the 
Interior in May 1994. Through extensive discussion and negotiations 
between the MCWRA and the Bureau, a project-financing plan was created. 
The Bureau made it quite clear that the original provisions in the loan 
application of full disbursement during the three years of construction 
could not be met due to federal budget shortfalls. As defined in the 
repayment contract, the Bureau will disburse funds to the MCWRA over an 
eight-year period. This means that the MCWRA will receive these funds 
for five years after the project is operational. The fiscal year 2001 
funding provided monies for the fourth year after completion of the 
project. The MCWRA had to acquire ``bridge financing'' to meet the 
needs of the Castroville Seawater Intrusion Project construction costs. 
Even though the additional private debt service has increased the 
project costs, the critical problem of seawater intrusion demanded that 
the project proceed. The Bureau loan is a crucial link in project 
funding and it is imperative that the annual appropriations, even at 
the planned reduced rate over eight years, continue. Federal 
appropriations have been received in fiscal years 1995, 1996, 1997, 
1998, 1999, 2000, and 2001 as shown in the table below and must 
continue for the last year in accordance with the negotiated agreement 
in order for the projects to be successful. The federal funds requested 
under the Public Law 84-984 program will be repaid by landowners in the 
Salinas Valley with assessments that are currently in place. The MCWRA 
has spent approximately $36.0 million of its own funds getting to this 
point.

                                                               FEDERAL APPROPRIATIONS \1\
                                                                [In millions of dollars]
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                  Received 1995-2000                              Requested 2002
                                                              ------------------------------------------------------------------------------------------
                                                                                                                                  Requested
                                                                   1995       1996     1997     1998     1999     2000     2001      2002       Total
--------------------------------------------------------------------------------------------------------------------------------------------------------
CSIP.........................................................        1.064      1.5      2.0      2.1      2.6      2.6      1.3       1.12       14.284
--------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ Does not include Treasury portion of $15.992 for CSIP.

    Mr. Chairman, we urge you and the members of the Subcommittee to 
give your continued support to the Small Reclamation Program and we 
urge the inclusion of funds for the Castroville Seawater Intrusion 
Project. Without your continued support, we will not be able to realize 
the benefit of the work completed over the past several years and the 
Salinas ground water basin will continue to deteriorate, creating a 
significant threat to the local and state economies as well as to the 
health and welfare of our citizens.
    Again, thank you for your support and continued assistance.
                                 ______
                                 
                small reclamation projects loan program
    Mr. Chairman, thank you for the opportunity today to provide this 
testimony for inclusion in the hearing record on the fiscal year 2002 
Energy and Water Development Appropriations bill. But most importantly, 
let me express my sincere appreciation for your continued support for 
the Small Reclamation Projects Loan Program, and specifically, the 
funding for the Salinas Valley Reclamation Project. During the past 
seven years, this subcommittee provided $9.0 million for our project. I 
am pleased to report that the funds appropriated thus far have been 
well spent on our project, which began construction in August 1995. The 
new facility was dedicated in October 1997 with full operation 
beginning in April 1998. In calendar year 2000, the plant produced 
about 10,000 acre-feet (AF) of recycled water.
    As in the past, we have been in close consultation with the Bureau 
of Reclamation (Bureau) and the other Small Reclamation Projects Loan 
Program participants in an attempt to provide the Committee with a 
consensus budget request that has the support of the Administration and 
the Loan Program participants. Based on these discussions, we are 
hopeful that the Administration will request, with our support and 
endorsement, $0.557 million for the Salinas Valley Reclamation Project 
as part of the Bureau of Reclamation's Public Law 84-984 Small 
Reclamation Projects Loan Program for continuation of loan obligations. 
This appropriation amount, when combined with other federal funding 
which is available from the U.S. Treasury pursuant to the Federal 
Credit Reform Act of 1990, will yield a total loan amount that we 
believe will meet the federal government's commitment for fiscal year 
2002. The amount requested, when combined with the additional Treasury 
portion, is intended to fulfill the Bureau's eight-year loan commitment 
for assistance to construct the project.
    The project will ultimately provide 19,500 AF of recycled water per 
year to land south and west of Castroville where abandonment of wells 
threatens agricultural production and the loss of a portion of rural 
America. It will also reduce discharge of secondary treated wastewater 
to the recently created Monterey Bay National Marine Sanctuary. In 
addition, the California State Water Resources Control Board 
specifically indicated its strong support for the Salinas Valley 
Reclamation Project in a prior letter to the U.S. Bureau of 
Reclamation.
    The Monterey Regional Water Pollution Control Agency (MRWPCA), a 
joint-powers entity formed under the laws of the State of California, 
was created in 1971 to implement a plan that called for consolidation 
of the Monterey Peninsula and northern Salinas Valley wastewater flows 
through a regional treatment plant and an outfall to central Monterey 
Bay. The plan also required studies to determine the technical 
feasibility of using recycled water for irrigation of fresh vegetable 
food crops (artichokes, celery, broccoli, lettuce, and cauliflower) in 
the Castroville area. These studies were initiated in 1976 and included 
a five-year full-scale demonstration of using recycled wastewater for 
food crop irrigation. California and Monterey County health departments 
concluded in 1988 that the water was safe for food crops that would be 
consumed without cooking. Subsequently, the Salinas Valley Seawater 
Intrusion Committee voted to include recycled water in their plan to 
slow seawater intrusion in the Castroville area.
    In addition, a supplemental water-testing program (October 1997 
through March 1998) was initiated to confirm the new plant's removal of 
what are termed ``emerging pathogens.'' These organisms, which include 
Cryptosporidium, Giardia, Cyclospora, and E. Coli, were not evaluated 
in the original five-year field study. The results of the follow-up 
testing program again verified that the water is safe for irrigation of 
food crops.
    As I indicated, the funding request is the result of a lengthy and 
complex financial agreement worked out with the other Loan Program 
participants and the Bureau. The agreement represents the absolute 
minimum annual amount necessary to continue with the project. The 
MRWPCA worked under the premise of accommodating the Bureau of 
Reclamation's budgetary constraints and is expending considerable local 
funds to bridge the federal government's budgetary shortfall. Any 
additional cuts in federal funding will jeopardize the complex 
financing plan for the project.
    The MRWPCA has received Federal Grant and Loan Funds in Federal 
fiscal year 1995, fiscal year 1996, fiscal year 1997, fiscal year 1998, 
fiscal year 1999, fiscal year 2000, and fiscal year 2001 through 
February 12, 2001, as follows:

                                                               FEDERAL APPROPRIATIONS \1\
                                                                [In millions of dollars]
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                        Received 1995-2001
                                                                  -------------------------------------------------------------  Requested      Total
                                                                    1995    1996     1997     1998     1999     2000     2001       2002
--------------------------------------------------------------------------------------------------------------------------------------------------------
SVRP.............................................................  .....      2.0      1.5      1.3      1.7      1.7      0.8        0.557        9.557
--------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ Does not include Treasury portion of $10.375 for SVRP.

    Even though the additional private debt service and bridge 
financing will increase the project costs, the critical problem of 
seawater intrusion demands that the project be continued. The Bureau of 
Reclamation loan is a crucial link in project funding, and it is 
imperative that annual appropriations continue, even at the planned 
reduced rate over eight years. The federal funds requested under the 
Public Law 84-984 program will be repaid by landowners in the Salinas 
Valley with assessments that are currently in place. Local funds 
totaling $14.4 million have already been spent getting to this point.
    Mr. Chairman, we urge you and the members of the Subcommittee to 
give your continued support to the Small Reclamation Projects Loan 
Program and, specifically, funding for the Salinas Valley Reclamation 
Project. Your support and continued assistance of this critical project 
is greatly appreciated.
                                 ______
                                 

   Prepared Statement of the Lewis and Clark Rural Water System, Inc.

    On behalf of the Lewis and Clark Rural Water System (LCRWS), I 
would like to thank you for the opportunity to provide testimony to the 
Senate Appropriations Subcommittee on Energy and Water Development in 
support of fiscal year 2002 funding. First, I would like to thank you 
for all your efforts on behalf of the Lewis and Clark Rural Water 
System (LCRWS) last year. Without your steadfast and diligent support, 
our hopes of providing safe, reliable drinking water to our communities 
would be impossible.
    Our need for the project is even greater today than when we 
embarked on our effort almost a decade ago. The shallow wells, aquifers 
prone to contamination, demands of compliance with new federal drinking 
water standards, and increasing population growth and economic 
expansion are stressing our existing systems beyond their capacity. The 
promise of a pure, dependable, Missouri River drinking water system for 
the nearly 200,000 residents in 22 communities in rural Iowa, 
Minnesota, and South Dakota can only be realized with your continued 
support and efforts. In order to meet the fundamental need for clean 
dependable water in this area, we must once again request your support 
for funding this vital project in fiscal year 2002.
                               background
    The LCRWS is a bipartisan effort supported by all members of its 
Congressional delegation including Senators Grassley (R-IA), Daschle 
(D-SD), Wellstone (D-MN), Johnson (D-SD), Harkin (D-IA) and Dayton (D-
MN), and Congressmen Kennedy (R-MN), Latham (R-IA), and Thune (R-SD). 
Additionally, in recent remarks in Sioux Falls, South Dakota, President 
Bush expressed his support for LCRWS.\1\
---------------------------------------------------------------------------
    \1\ ``A priority is to work with states on important development 
projects. And Lewis and Clark rural Water Project is a project that 
will be in my budget, and something that we can work together on.'' 
President George W. Bush, Remarks in Sioux Falls, South Dakota, March 
9, 2001.
---------------------------------------------------------------------------
    The Senate unanimously passed S. 244, authorizing LCRWS on November 
19, 1999. Companion legislation, H.R. 297, passed the House by an 
overwhelming majority of 400-13 on May 23, 2000. The Lewis and Clark 
Rural Water System Act of 1999 was signed into law (Public Law 106-246) 
by President Clinton on July 13, 2000, as a part of the fiscal year 
2001 Military Construction Appropriations bills, where $600,000 was 
appropriated for this project. Further, funds totaling $1 million have 
been appropriated through the fiscal year 2001 VA-HUD/Energy and Water 
Appropriations bill (H.R. 4635).
                    fiscal year 2002 funding request
    The LCRWS is requesting further funding for this project, through 
the U.S. Bureau of Reclamation (Bureau), in the amount of $2 million 
for fiscal year 2002. These funds will be used for final design 
engineering, environmental compliance, acquisition of easements and 
property, and associated legal and professional costs. Specific tasks 
to be accomplished with these funds include acquiring property for well 
sites, a water treatment plant, and for the raw water pipeline route; 
completing the Final Engineering Report that will include a Water 
Conservation Program; completing the Environmental Assessment report; 
completing final design and initiating construction of at least one 
radial collector well; initiating final design of the water treatment 
plant; and initiating final design of the raw water pipeline.
                          project description
    Water from an aquifer adjacent to the Missouri River near 
Vermillion, SD, will be treated in a water treatment facility and 
delivered to the project's membership through a regional distribution 
system. Each member utility will take water from the LCRWS at a point 
of connection and deliver it to the end user through their distribution 
system. Some members will receive all of their drinking water from 
LCRWS. Others will blend project water with their existing resources.
    Physical Attributes of the Project.--Nearly 412 miles of pipe will 
be needed to distribute treated drinking water to the project's 
membership. The largest pipe is expected to be 54 inches in diameter, 
with the smallest being 6 inches in diameter. One centralized treatment 
plant will be constructed. The LCRWS will build at least five 
reservoirs to assist in meeting storage needs. About one day's worth of 
storage will be included in the reservoirs and in the distribution 
system. A state of the art communication system will be utilized to 
allow plant operators to monitor and control the operation of the 
entire system from one location. A radial well system will be 
constructed to collect water for treatment and distribution. A series 
of four to six wells will be needed to give enough capacity for the 
system.
    As dictated by Public Law 106-246, the Bureau will be the federal 
oversight agency during project construction. A cooperative agreement 
between the Bureau and the LCRWS is currently being negotiated. Once an 
agreement is signed, the appropriated funds can be transferred to the 
project to assist with the pre-construction activities. All project 
activities are carried out in consultation with the Bureau.
                           project activities
    Summary of Current Activities.--The following summary of project 
activities over the past few months demonstrates the project's progress 
to date in developing the final engineering and environmental 
documentation. The listing includes both planning and engineering 
activities, consultations, and data gathering efforts associated with 
the preparation of documents necessary for compliance with the National 
Environmental Policy Act (NEPA).
    1. Requests for additional capacity from LCRWS have come from 
existing members and potential new users along the proposed pipeline 
route. Costs associated with increasing system capacity to meet these 
requests will be accomplished through means other than the federal 
authorization for the project. These new requests would require an 
additional 11 million gallons per day of treated water. This is a 
fifty-percent increase in project capacity from the original project 
design.

Authorized System Costs, Year 1993......................    $272,800,000
Indexed System Costs, Year 2000.........................     343,831,200

    2. To ensure compliance with NEPA, the following tasks have been 
initiated:
  --preparation of detailed route maps showing a 2 mile wide corridor 
        for the pipeline routes and project features;
  --initial consultation meetings with State Historic Preservation 
        Offices in Iowa, South Dakota, and Minnesota;
  --initial consultation meetings with U.S. Fish and Wildlife Service, 
        South Dakota Game Fish and Parks, Iowa Department of Natural 
        Resources, and Minnesota Department of Natural Resources;
  --consultation and coordination meetings between the project team 
        members and the project management team from the Bureau; and
  --class I file search of archaeological records for pipeline routes 
        in Iowa, Minnesota, and South Dakota.
    3. Hydro-geological studies to identify prospective sites for 
radial collector wells have begun. A preliminary report identifying 
recommended locations for exploratory drilling and production pump 
testing has been prepared. Project representatives have met with 
affected property owners who have given permission for site access for 
investigations. A categorical exclusion for the exploratory drilling 
has been approved and this drilling is scheduled to begin in early 
April.
    April 2002 is the target date for submittal of the final 
engineering report including a business plan, environmental assessment, 
and water conservation program. The documents will be submitted to the 
Bureau and the United States Congress marking the beginning of the 
mandated 90-day review period.
    Public Scoping.--Public meetings will be held throughout the 
project area to invite public comment on the project planning process. 
These meetings will be held in early May 2001. Notifications and a 
project scope statement will be distributed in late April 2001. These 
meetings will be prime opportunities to better inform the public about 
the LCRWS and its plans for the future. The Bureau will also be working 
with tribal organizations throughout the area to gain their input into 
this process.
                           project financing
    The projected total cost for the LCRWS project is $272.8 million, 
in 1993 dollars. A combination of local, state, and federal funding is 
being used for this project. Each of the three member states has 
already passed legislation authorizing the state governments to fund 10 
percent of the project. Project members will fund an additional 10 
percent of the project. The federal government will fund the remaining 
80 percent except in Sioux Falls, where the federal cost-share is 50 
percent. In addition, Sioux Falls will contribute significantly to the 
O&M costs of the project, lowering those costs for other project 
members.
    Throughout the past decade, as the LCRWS completed its Preliminary 
Engineering Report and Environmental Assessment Report, the three 
states and project members have contributed to financing the project. 
For every state dollar that has been contributed, the local members 
have matched those state funds dollar for dollar. To date, over $2 
million in state and local funds have been contributed to project 
activities related to development, administration, public education, 
and federal authorization.
                                 ______
                                 

    Prepared Statement of the Metropolitan St. Louis Sewer District

    On behalf of the Metropolitan St. Louis Sewer District (MSD), I 
would like to thank you for the opportunity to provide testimony to the 
Senate Appropriations Subcommittee on Energy and Water Development in 
support of fiscal year 2002 funding. We respectfully request your 
continued support of fiscal year 2002 funding for MSD projects to 
minimize the impact combined sewer overflows have on the Mississippi 
River in the heartland of our country. Authorization for such work, to 
be performed by the U.S. Army Corps' of Engineers, was contained in the 
Water Resources Development Act of 1999.
    In fiscal year 2001, $3 million was appropriated to start a 
combined sewer project in an area of south St. Louis City. Additional 
funding for fiscal year 2002 totaling $5 million is being requested to 
continue the work on that project, known as Grand & Bates, and for two 
additional combined sewer projects, Mill Creek Sewer and Southern 
Arsenal Relief Sewer, in the city of St. Louis. This work has as its 
goal to reduce floatable materials that collect in combined sewers, and 
which unless removed, may be discharged into the Mississippi River 
during storm events. Such materials can be unsightly in the water, may 
jeopardize water supplies and pose a risk to the aquatic life thriving 
in the river.
    Depending upon weather conditions, the combined sewers serving the 
city of St. Louis may discharge untreated flows of sewage and 
stormwater runoff an average of 100 times per year. The cost to totally 
separate the sewers is too high, estimated at $6 billion, thus we are 
proposing other methods to reduce the impact these structures have upon 
the Mississippi River.
    Grand & Bates.--MSD is proposing to continue the work on the Grand 
& Bates project where separation of a small portion of the combined 
sewer is being recommended and a sewer is being built in a tunnel 100 
feet below the surface. The separation will reduce the likelihood of 
flooding in this neighborhood and, because the drainage is being 
removed from the combined sewers, will improve the discharges into the 
Mississippi River.
    Mill Creek Sewer, Vandeventer to Grand Avenues.--This sewer is a 
15-foot by 18-foot combined sewer system running through the north 
central portion of the city of St. Louis. Most of the sewer is carved 
in stone and is nearly 100 years old. The improvements proposed will 
help stabilize the sewer, thus, reducing the threat of failure and 
debris being carried downstream into the Mississippi River. Failure on 
a system this large can threaten public safety.
    Southern Arsenal Relief Sewer, Phase II.--This combined sewer 
system serves a southern portion of St. Louis City. It is an 8.5-foot 
by 8.5-foot carved in rock sewer. Numerous voids have been detected 
along this sewer causing concern for its structural stability.
    Due to the size of this system and the fact that it discharges into 
the Mississippi River, there are concerns about failure of the system, 
leading to more debris being carried into the river. The voids around 
the sewer could lead directly into the river, thus increasing the 
potential for pollution. A public safety concern exists due to the 
potential condition of this system.
    The Mississippi River is the backbone of our country. Its 
environmental integrity is critical now and in the future. We request 
that the Subcommittee give strong consideration to appropriating $5 
million for these projects.
                                 ______
                                 

      Prepared Statement of the Colorado River Board of California

    Your support and leadership are needed in securing adequate fiscal 
year 2002 funding for the Department of the Interior with respect to 
the federal/state Colorado River Basin Salinity Control Program. 
Congress has designated the Department of the Interior, Bureau of 
Reclamation to be the lead agency for salinity control in the Colorado 
River Basin. This successful and cost effective program is carried out 
pursuant to the Colorado River Basin Salinity Control Act and the Clean 
Water Act. California's Colorado River water users are presently 
suffering economic damages in the hundreds of million of dollars per 
year due to the river's salinity.
    The Colorado River Board of California (Colorado River Board) is 
the state agency charged with protecting California's interests and 
rights in the water and power resources of the Colorado River System. 
In this capacity, California along with the other six Basin States 
through the Colorado River Basin Salinity Control Forum (Forum), the 
interstate organization responsible for coordinating the Basin States' 
salinity control efforts, established numeric criteria, in June 1975, 
for salinity concentrations in the River. These criteria were 
established to lessen the future damages in the Lower Basin States as 
well as assist the United States in delivering water of adequate 
quality to Mexico in accordance with Minute 242 of the International 
Boundary and Water Commission. The goal of the Colorado River Basin 
salinity control program is to offset the effects of water resource 
development in the Colorado River Basin after 1972 rather than to 
reduce the salinity of the River below levels that were caused by 
natural variations in river flows or human activities prior to 1972. To 
maintain these levels, the salinity control program must remove 
1,480,000 tons of salt loading from the River by 2015. In the Forum's 
last report entitled ``1999 Review, Water Quality Standards for 
Salinity, Colorado River System'' released in June 1999, the Forum 
found that additional salinity control measures were necessary to meet 
the implementation plan that had been adopted by the seven Colorado 
River Basin States and approved by the Environmental Protection Agency. 
The Forum identified a ``backlog'' of salinity control measures which 
stands at 384,000 tons. This is in addition to future controls designed 
to lower the River's salt loading by 372,000 tons by 2015 in order to 
meet the established salinity standards. The Forum has presented 
testimony to Congress in which it has stated that the rate of 
implementation of the program beyond that requested by the past 
President is necessary.
    In 2000, Congress reviewed the salinity control program as 
authorized in 1995. Following hearings, and with the Administration's 
support, the Congress passed legislation that increased the ceiling 
authorization for this program by $100 million. Reclamation is now 
prepared to receive proposals to move the program ahead and the seven 
Basin States have funds available to cost-share up-front. The seven 
Basin States have agreed to cost sharing up-front on an annual basis, 
which adds 43 cents for every federal dollar appropriated.
    The President's request for funding the Bureau of Reclamation's 
Basinwide Salinity Control Program in fiscal year 2002 is unknown at 
this time. Based upon past appropriations, implementation of salinity 
control measures has fallen behind the needed pace to prevent salinity 
concentration levels from exceeding the numeric criteria adopted by the 
Forum and approved by the EPA. The seven Colorado River Basin states 
have carefully evaluated the federal funding needs of the program and 
have concluded that an adequate budget is needed for the plan of 
implementation to maintain the river salinity standards. The Forum, at 
its meeting in Henderson, Nevada, in October 2000, recommended a 
funding level of $17,500,000 for Reclamation's Basinwide Program to 
continue implementation of needed projects and begin to reduce the 
``backlog'' of projects.
    In addition, the Colorado River Board recognizes that the federal 
government has made significant commitments to the Republic of Mexico 
and to the seven Colorado River Basin states with regard to the 
delivery of quality water to Mexico. In order for those commitments to 
be honored, it is essential that in fiscal year 2002 and in future 
fiscal years, that Congress provide funds to the Bureau of Reclamation 
for the continued operation of completed projects.
    The Colorado River is, and will continue to be, a major and vital 
water resource to the 17 million residents of southern California. 
Preservation of its quality through an effective salinity control 
program will avoid the additional economic damages to users in 
California.
    The Colorado River Board greatly appreciates your support of the 
federal/state Colorado River Basin Salinity Control Program and again 
asks for your assistance and leadership in securing adequate funding 
for this program.
                                 ______
                                 

        Prepared Statements of the County of Tulare, California

    Mr. Chairman and Members of the Committee: The County of Tulare, 
California requests your consideration of an appropriation of $400,000 
in the fiscal year 2002 Federal budget for the United States Army Corps 
of Engineers for continuation of the feasibility study for the White 
River flood control investigation.
    White River is an uncontrolled stream that continues to devastate 
agricultural lands in Tulare County, flood the community of Earlimart 
and disrupt commerce on a major California highway arterial, State 
Route 99.
    The Corps of Engineers completed a reconnaissance level study for 
White River in fiscal year 2000 and determined that there is a Federal 
interest in proceeding with a 50/50 Feasibility Cost Sharing Agreement 
(FCSA). The FCSA and Project Study Plan (PSP) as prepared by the Corps 
are under review and negotiation with the non-federal sponsors.
    The Federal fiscal year 2001 budget included $150,000 for the 
Corps' General Investigation of White River, California.
    The local non-federal sponsors urge the subcommittee's 
appropriation of $400,000 in fiscal year 2002 for the Corps of 
Engineers continuation of the White River flood control feasibility 
study.
                                 ______
                                 
    Mr. Chairman and Members of the Committee: The County of Tulare, 
California requests your consideration of an appropriation of $400,000 
in the fiscal year 2002 Federal budget for the United States Army Corps 
of Engineers for a feasibility study for the Frazier & Strathmore 
Creeks flood control project.
    The Corps of Engineers has completed a reconnaissance level study 
of Frazier & Strathmore Creeks and determined that there is a Federal 
interest in proceeding with a feasibility study. The 50/50 Feasibility 
Cost Sharing Agreement is under negotiation between the Corps, the 
State Department of Water Resources and the local non-federal sponsors.
    Frazier & Strathmore Creeks are uncontrolled streams that continue 
to devastate agricultural lands in Tulare County, flood the community 
of Strathmore and disrupt commerce on a major highway arterial, State 
Route 65.
    The Corps of Engineers estimate the feasibility study will require 
three years for preparation with a total cost of $2.4 million. Under 
the 50/50 cost sharing requirement the fiscal year 2002 appropriation 
bill for the Corps of Engineers general investigation needs $400,000 
for the first year of the feasibility study.
    The local non-federal sponsors urge the subcommittee's 
appropriation of $400,000 in fiscal year 2002 for the Frazier & 
Strathmore Creeks feasibility study by the Corps.
                                 ______
                                 

Prepared Statement of the Poso Creek Improvement Joint Powers Agreement 
                                Agencies

    Mr. Chairman and Members of the Committee: The Poso Creek Joint 
Powers Agreement (JPA) Agencies composed of the Cawelo Water District, 
North Kern Water Storage District and Semitropic Water Storage District 
in Kern County, California request your consideration of an 
appropriation of $250,000 in the fiscal year 2002 Federal budget for 
the United States Army Corps of Engineers for the continuation of the 
feasibility study for the Poso Creek flood control project, a four year 
study.
    An Agreement Between the Department of the Army and the Poso Creek 
Improvement Joint Powers Agreement agencies for the Poso Creek Basin 
Investigation was entered into 25 October 2000. The local non-federal 
sponsors for the 50/50 cost sharing of the feasibility study with the 
Corps include the State Department of Water Resources, the County of 
Kern, the Kern County Water Agency, the Cawelo Water District, the 
North Kern Water Storage District and the Semitropic Water Storage 
District.
    Poso Creek, is an uncontrolled stream that continues to devastate 
agricultural lands in Kern County, floods the community of McFarland, 
and ravages the Kern National Wildlife Refuge. Major highway arterials, 
State Route 99 and SR 43, have been closed due to Poso Creek 
floodwaters, resulting in the disruption for several days of commerce 
by time delaying detours.
    The Poso Creek feasibility study, a 4-year study, has been 
estimated by the Corps of Engineers to cost $2.8 million. The 
feasibility study has been separated into a Phase 1 and a Phase 2 
program, with Phase 1 covering a determination of the feasibility of a 
flood control and water conservation dam and reservoir on Poso Creek 
above State Highway 65. Fiscal year 2002 will be the second (2nd) year 
of the feasibility study and will complete Phase 1 of the study.
    The local non-federal sponsors urge the subcommittee's 
appropriation of $250,000 in the fiscal year 2002 budget for the 
orderly continuation of the Poso Creek feasibility study by the Corps.
                                 ______
                                 

Prepared Statement of the Tule River Improvement Joint Powers Agreement 
                                Agencies

    Mr. Chairman and Members of the Committee: The Tule River 
Improvement Joint Powers Agreement Agencies, comprised of the City of 
Porterville, the Tulare County Flood Control District, the Deer Creek 
and Tule River Authority, the Tulare Lake Basin Water Storage District 
and the County of Kings all located in Tulare and Kings Counties, 
California, request your consideration of an appropriation of $725,000 
in the fiscal year 2002 Federal budget for the United States Army Corps 
of Engineers for completion of the preconstruction engineering and 
design (PED) for the Tule River, Success Reservoir Enlargement Project.
    In addition the Corps and the non-federal sponsors have agreed to 
proceed with construction of Public Health and Safety components of the 
project in the recreational areas of Success Reservoir during fiscal 
year 2002 and $400,000 of Federal funds are needed for cost sharing 
such construction costs.
    The Success Reservoir Enlargement Project would increase the 
reservoir storage capacity 28,000 a.f. by raising the spillway 10 feet 
and by widening the existing spillway 165 feet. The additional flood 
control storage space improves the protection for the City of 
Porterville and downstream highly developed agricultural lands from a 
return period flood event occurring once in 47 years to once in 100 
years.
    The Tule River, California, Success Reservoir Enlargement Project 
(SREP) was authorized for construction by Section 101(b)(4) of the 
Water Resources Development Act of 1999 (WRDA 1999), Public Law 106-53 
subject to completion of a favorable report of the Chief of Engineers 
which occurred 23 December 1999.
    The Corps of Engineers has commenced design of the SREP, conducted 
a Value Engineering Conference, and currently, in addition to 
determining the most economical design for raising the spillway, are 
preparing construction plans and specifications for public health and 
safety components of the enlargement project.
    The Tule River interests greatly appreciate your continued support 
for the SREP and request that the Senate Subcommittee on Energy and 
Water Development include in the fiscal year 2002 appropriation bill 
for the Corps of Engineers for the SREP $725,000 for PED and $400,000 
for construction of Public Health and Safety components of the project.
    Thank you for your consideration.
                                 ______
                                 

              Prepared Statement of the City of Sacramento

    Gentlemen: On behalf of the City of Sacramento, I would like to 
thank you for the opportunity to provide testimony to the Senate 
Appropriations Subcommittee on Energy and Water Development in support 
of fiscal year 2002 funding for flood protection projects in 
Sacramento. I respectfully request that this letter be included in the 
formal hearing record. First, I would like express my appreciation to 
the Subcommittee for its efforts in past years to fund flood control 
measures for the City. Sacramento, California, continues to face the 
highest flood risk in the nation. During the past several years, the 
Subcommittee has recognized the dire need for flood protection in and 
around the Sacramento area and has provided funds for a variety of 
previously authorized projects. Flood control is City's number one 
Federal priority. In order to meet the fundamental need for flood 
protection in Sacramento, we must once again request your support for 
funding these vital flood control projects in fiscal year 2002.
    This year, the City of Sacramento is seeking $51.4 million in 
Federal funding to finance both ongoing and newly authorized projects. 
This figure represents the most recent estimate developed by the 
Sacramento Area Flood Control Agency (SAFCA) and is derived from their 
discussions with the U.S. Army Corps of Engineers. A chart summarizing 
the projects and funding levels is enclosed.
    Most importantly, the City is seeking $10.0 million for a ``new 
start'' for the South Sacramento Streams Group Project and significant 
increases in construction funding for Folsom Dam modifications and 
continuing work on the American River Common Elements projects. These 
projects, authorized in WRDA 1996 and 1999, will form the backbone of a 
system of improvements that may someday remove the threat of 
catastrophic flooding from the streets of downtown Sacramento. The 
South Sacramento Streams Group Project is ready for construction and 
when completed will prevent flooding of portions of Sacramento from the 
south, where four creeks convey foothill runoff through urbanized areas 
into Beach Lake and the Delta.
    The Folsom dam modifications project received $4.0 million in 
construction funds in fiscal year 2001. In fiscal year 2002, $12.0 
million will be necessary to keep this crucial project moving forward. 
When completed, the modifications to Folsom Dam will provide greater 
efficiency in managing flood storage in Folsom Reservoir and will 
greatly enhance Sacramento's flood control options.
    The American River Common Elements include 24 miles of levee 
improvements along the American River and 12 miles of improvements 
along the Sacramento River levees, flood gauges upstream of Folsom Dam, 
improvements to the flood warning system along the lower American 
River, and work on American River levee parity authorized in WRDA 1999. 
This work is well underway and we are seeking $17 million in fiscal 
year 2002. These projects represent the last line of defense against 
flooding in Sacramento and must be completed with all due haste.
    The City of Sacramento has been working in cooperation with the 
SAFCA on the construction of bank protection improvements which are 
essential to correct harmful erosion threatening the integrity of our 
existing levees along the banks of the American River. This work is 
already authorized under the Sacramento River Bank Protection Project, 
which is used to fund erosion control projects throughout the 
Sacramento River System. We request that the Subcommittee support our 
request for $3.0 million for this vital project.
    For the American River Watershed (Natomas) improvements, which were 
authorized by Congress in 1992, we are seeking continued construction 
appropriations in the amount of $5.0 million for reimbursement to SAFCA 
for the Federal share of the flood control improvements.
    In fiscal year 2001, $3.285 million was provided in PED funds for 
the American River Watershed plan, which continued previously 
authorized planning and design of Sacramento flood control projects. 
For fiscal year 2002, we are requesting your support to secure $1.0 
million in PED funds to aid the completion of this necessary project.
    Under the Corps' Section 205 Program, we are seeking $3.2 million 
in fiscal year 2002 for both the off-base and on-base portions of the 
Magpie Creek project. This project will provide a high degree of flood 
protection on Magpie Creek and provide for a feasibility study to 
evaluate alternatives for providing improved flood protection on 
McClellan Air Force Base in connection with the reuse of that base.
    Again, the City of Sacramento greatly appreciates the essential 
leadership role you have played in obtaining funding for these 
important flood control projects in previous years and asks for your 
continued support for funding this year.
    The safety of the citizens of Sacramento and the well being of the 
regional and state economy are dependent on adequate Federal funding 
for our flood control projects. We stand ready to assist you in 
whatever way we possibly can. Please contact me if I can provide you 
with any further information.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 

 Prepared Statement of the Metropolitan Water Reclamation District of 
                            Greater Chicago

    On behalf of the Metropolitan Water Reclamation District of Greater 
Chicago (District), I want to thank the Subcommittee for this 
opportunity to present our priorities for fiscal year 2002 and, at the 
same time, express our appreciation for your support of the District's 
projects in the years past. The District is the local sponsor for three 
Corps of Engineers priority projects of the Chicagoland Underflow Plan: 
the O'Hare, McCook and Thornton Reservoirs. We are requesting the 
Subcommittee's full support for McCook and Thornton Reservoirs, as the 
O'Hare Reservoir has been completed. Specifically, we request the 
Subcommittee to include a total of $32,000,000 in construction funding 
for the McCook and Thornton Reservoir projects in the bill. The 
following text outlines these projects and the need for the requested 
funding.
                     the chicagoland underflow plan
    The Chicagoland Underflow Plan (CUP) consists of three reservoirs: 
the O'Hare, McCook and Thornton Reservoirs. These reservoirs are a part 
of the Tunnel and Reservoir Plan (TARP). The O'Hare Reservoir Project 
was fully authorized for construction in the Water Resources 
Development Act of 1986 (Public Law 99-662) and completed by the Corps 
in fiscal year 1999. This reservoir is connected to the existing O'Hare 
segment of the TARP. Adopted in 1972, TARP was the result of a multi-
agency effort, which included officials of the State of Illinois, 
County of Cook, City of Chicago, and the District.
    TARP was designed to address the overwhelming water pollution and 
flooding problems of the Chicagoland combined sewer areas. These 
problems stem from the fact that the capacity of the area's waterways 
has been overburdened over the years and has become woefully inadequate 
in both hydraulic and assimilative capacities. These waterways are no 
longer able to carry away the combined sewer overflow (CSO) discharges 
nor are they able to assimilate the pollution associated with these 
discharges. Severe basement flooding and polluted waterways (including 
Lake Michigan, which is the source of drinking water for millions of 
people) is the inevitable result. We point with pride to the fact that 
TARP was found to be the most cost-effective and socially and 
environmentally acceptable way for reducing these flooding and water 
pollution problems. Experience to date has reinforced such findings 
with respect to economics and efficiency.
    The TARP plan calls for the construction of the new ``underground 
rivers'' beneath the area's waterways. The ``underground rivers'' are 
tunnels up to 35 feet in diameter and 350 feet below the surface. To 
provide an outlet for these tunnels, reservoirs will be constructed at 
the end of the tunnel system. Approximately 93.4 miles of tunnels have 
been constructed at a total cost of $2.1 billion and are operational. 
The tunnels capture the majority of the pollution load by capturing all 
of the small storms and the first flush of the large storms. Another 
15.8 miles of tunnels costing $399 million need to be completed. Of 
this 8.1 miles of tunnel are currently under construction and 7.7 miles 
are in design, with construction scheduled to begin in 2001.
    The completed O'Hare Reservoir provides 343 million gallons of 
storage. This Reservoir has a service area of 13.7 miles and provides 
flood relief to 21,000 homes in Arlington Heights, Des Plaines and 
Mount Prospect. Thornton and McCook Reservoirs have not been built yet, 
so significant areas remain unprotected. Without these outlets, the 
local drainage has nowhere to go when large storms hit the area.
    Since its inception, TARP has not only abated flooding and 
pollution in the Chicagoland area, but has helped to preserve the 
integrity of Lake Michigan. In the years prior to TARP, a major storm 
in the area would cause local sewers and interceptors to surcharge 
resulting in CSO spills into the Chicagoland waterways and during major 
storms into Lake Michigan, the source of drinking water for the region. 
Since these waterways have a limited capacity, major storms have caused 
them to reach dangerously high levels resulting in massive sewer 
backups into basements and causing multi-million dollar damage to 
property.
    Since implementation of TARP, 621 billion gallons of CSOs have been 
captured by TARP, that otherwise would have reached waterways. Area 
waterways are once again abundant with many species of aquatic life and 
the riverfront has been reclaimed as a natural resource for recreation 
and development. Closure of Lake Michigan beaches due to pollution has 
become a rarity. After the completion of both phases of TARP, 99 
percent of the CSO pollution will be eliminated. The elimination of 
CSOs will reduce the quantity of discretionary dilution water needed to 
keep the area waterways fresh. This water can be used instead for 
increasing the drinking water allocation for communities in Cook, Lake, 
Will and DuPage counties that are now on a waiting list to receive such 
water. Specifically, since 1977, these counties received an additional 
162 million gallons of Lake Michigan water per day, partially as a 
result of the reduction in the District's discretionary diversion since 
1980. Additional allotments of Lake Michigan water will be made to 
these communities as more water becomes available from reduced 
discretionary diversion.
    With new allocations of lake water, more than 20 communities that 
previously did not get lake water are in the process of building, or 
have already built, water mains to accommodate their new source of 
drinking water. The new source of drinking water will be a substitute 
for the poorer quality well water previously used by these communities. 
Partly due to TARP, it is estimated by IDOT that between 1981 and 2020, 
283 million gallons per day of Lake Michigan water would be added to 
domestic consumption. This translates into approximately 2 million 
additional people that would be able to enjoy Lake Michigan water. This 
new source of water supply will not only benefit its immediate 
receivers but will also result in an economic stimulus to the entire 
Chicagoland area by providing a reliable source of good quality water 
supply.
                  the mc cook and thornton reservoirs
    The McCook and Thornton Reservoirs of the Chicagoland Underflow 
Plan (CUP) were fully authorized for construction in the Water 
Resources Development Act of 1988 (Public Law 100-676). These CUP 
reservoirs, as previously discussed, are a part of TARP, a flood 
protection plan that is designed to reduce basement flooding due to 
combined sewer back-ups and inadequate hydraulic capacity of the urban 
waterways.
    These reservoirs will provide a storage capacity of 15 billion 
gallons and will provide annual benefits of $104 million. The total 
potential annual benefits of these projects are approximately twice as 
much as their total annual cost. The District, as the local sponsor, 
has acquired the land necessary for these projects, and is meeting its 
cost sharing obligations under Public Law 99-662.
    These projects are a very sound investment with a high rate of 
return. They will enhance the quality of life, safety and the peace of 
mind of the residents of this region. The State of Illinois has 
endorsed these projects and has urged their implementation. In 
professional circles, these projects are hailed for their 
farsightedness, innovation, and benefits.
    Based on two successive Presidentially-declared flood disasters in 
our area in 1986 and again in 1987, and dramatic flooding in the last 
several years, we believe the probability of this type of flood 
emergency occurring before implementation of the critical flood 
prevention measure is quite high. As the public agency for the greater 
Chicagoland area responsible for water pollution control, and as our 
past sponsorship for flood control projects, we have an obligation to 
protect the health and safety of our citizens. We are asking your 
support in helping us achieve this necessary and important goal of 
construction completion.
    We have been very pleased that over the years the Subcommittee has 
seen fit to include critical levels of funds for these important 
projects. We were delighted to see the $7,800,000 in construction funds 
included in the Energy and Water Development Appropriations bill for 
fiscal year 2001. However, it is important that we receive a total of 
$32,000,000 in construction funds in fiscal year 2002 to maintain the 
commitment and accelerate these projects. This funding is critical to 
continue the construction of the McCook Reservoir on schedule, in 
particular, to complete construction of the slurry wall and pumping 
facilities and to accelerate the design of the Thornton Reservoir. The 
community has waited long enough for protection and we need these funds 
now to move the project in construction. Delaying this project results 
in lost benefits and additional inflation costs of $120 million per 
year. This is unacceptable. We respectfully request your consideration 
of our request.
                                summary
    Our most significant recent flooding occurred on February 20, 1997, 
when almost four inches of rain fell on the greater Chicagoland area. 
Due to the frozen ground, almost all of the rainfall entered our 
combined sewers, causing sewage back-ups throughout the area. When the 
existing TARP tunnels filled with approximately 1.2 billion gallons of 
sewage and runoff, the only remaining outlets for the sewers were our 
waterways. Between 9:00 p.m. and 3:00 a.m., the Chicago and Calumet 
Rivers rose six feet. For the first time since 1981 we had to open the 
locks at all three of the waterway control points; these include 
Wilmette, downtown Chicago, and Calumet. Approximately 4.2 billion 
gallons of combined sewage and stormwater had to be released directly 
into Lake Michigan.
    Given our large regional jurisdiction and the severity of flooding 
in our area, the Corps was compelled to develop a plan that would 
complete the uniqueness of TARP and be large enough to accommodate the 
area we serve. With a combined sewer area of 375 square miles, 
consisting of the city of Chicago and 51 contiguous suburbs, there are 
550,000 homes within our jurisdiction, which are subject to flooding at 
any time. The annual damages sustained exceed $150 million. If TARP, 
including the CUP Reservoirs were in place, these damages could be 
eliminated. We must consider the safety and peace of mind of the two 
million people who are affected as well as the disaster relief funds 
that will be saved when these projects are in place. As the public 
agency in the greater Chicagoland area responsible for water pollution 
control, and as the regional sponsor for flood control, we have an 
obligation to protect the health and safety of our citizens. We are 
asking your support in helping us achieve this necessary and important 
goal. It is absolutely critical that the Corps' work, which has been 
proceeding for a number of years, now proceed on schedule through 
construction.
    Therefore, we urgently request that a total of $32,000,000 in 
construction funds be made available in the fiscal year 2002 Energy and 
Water Development Appropriations Act to continue construction of the 
McCook and Thornton Reservoir Projects.
    Again, we thank the Subcommittee for its support of this important 
project over the years and we thank you in advance for your 
consideration of our request this year.
                                 ______
                                 

     Prepared Statement of the Green Brook Flood Control Commission

    Mr. Chairman and Members of the Subcommittee: My name is Vernon A. 
Noble, and I am the Chairman of the Green Brook Flood Control 
Commission. I submit this testimony in support of the Raritan River 
Basin--Green Brook Sub-Basin project, which we request be budgeted in 
fiscal year 2002 for $10,000,000 in Construction General funds.
    Extremely heavy rains began on Thursday, September 16, 1999, 
extending over the Green Brook Sub Basin of the Raritan River Basin. 
These rains were heavily concentrated in the upper part of the Raritan 
River Basin.
    By night fall on that day, the river systems were greatly swollen, 
particularly the Raritan River. The flood levels in the Raritan River 
have a direct effect on the Bound Brook Borough and Middlesex Borough 
portion of the Green Brook Sub Basin.
    Bound Brook has streams on three sides: the Green Brook, which 
empties into the Raritan River on the east end of Bound Brook Borough, 
the Middle Brook, which borders Bound Brook Borough on the west, and 
likewise empties into the Raritan River; and the Raritan River itself, 
which forms the southern boundary of the Borough of Bound Brook.
    All three of these streams rose to flood levels during Thursday 
night, September 16th, and the early hours of Friday, September 17, 
1999.
    By early morning on Friday, September 17, 1999 water levels around 
Bound Brook had reached unprecedented levels.
    The water surface elevations around three sides of Bound Brook 
Borough slightly exceeded even the calculations made by the Corps of 
Engineers in their final General Reevaluation Report of May 1997.
    There were tremendous monetary damages. These damages even exceeded 
the figure predicted by the Corps of Engineers for a 150 year flood 
($106,500,000) for Bound Brook Borough alone.
    Beyond the monetary damages, there was vast human suffering. The 
tragic plight of the people of Bound Brook touched the hearts of people 
throughout New Jersey, and volunteers and food and clothing and rolled-
up-sleeves volunteers poured into Bound Brook from all over New Jersey.
    All of this raises a very fundamental question: If the Green Brook 
Flood Control Project, as authorized by Congress, had been completely 
constructed, would this tragedy have happened?
    That's a question which the Green Brook Flood Control Commission 
has intensely examined. We are greatly relieved to report to you that, 
although there would have been minor flooding in low spots in Bound 
Brook, as there always is in every heavy rain storm, the massive 
flooding and tragic aftermath would have not have happened.
    A thorough study of the water levels throughout the area, done by 
the New York District of the Corps of Engineers since the terrible 
flood of September 1999, has shown that, although the water reached 
record levels, it would have been contained by the extra margin of 
safety, the ``free board'', which the Corps of Engineers has 
incorporated in the design of this Project.
    The flooding of September 1999 is not the first bad flood to have 
struck this area. Records show that major floods have occurred here as 
far back as 1903.
    Disastrous flooding took place in the Green Brook Basin in the late 
summer of 1971. That flood caused $304,000,000 in damages (April 1996 
price level) and disrupted the lives of thousands of persons.
    In the late summer of 1973, another very severe storm struck the 
area, and again, thousands of persons were displaced from their homes. 
$482,000,000 damages was done (April 1996 price level) and six persons 
lost their lives.
    As you no doubt know, actual construction of the Project began in 
late 2000. This first construction involves the replacement of an old 
bridge over the Green Brook which connects East Main Street in the 
Borough of Bound Brook, Somerset County, New Jersey, with Lincoln 
Boulevard in the Borough of Middlesex, in Middlesex County, New Jersey.
    The protective levee along the bank of the Green Brook will be 
substantially higher than the old bridge, and the new higher bridge is 
necessary so as to pass over the levee.
    While this new bridge is being built, the Corps of Engineers 
expects to solicit bids for the second construction contract, known as 
Segment T. The final plans and specifications for this second segment 
are essentially complete, and the necessary permits are expected to be 
received very shortly.
    With the continued support of the Congress, this second Segment of 
the Project will be under construction as the first segment (the new 
and higher bridge), approaches completion.
    Final plans and specifications for the balance of the work to 
protect the Borough of Bound Brook are in progress. It is the 
Commission's hope that protection for all of the Borough of Bound Brook 
will proceed seamlessly during the next several years.
    The Green Brook Flood Control Commission was established in 1971, 
pursuant to an Act of the New Jersey Legislature shortly after the very 
bad flood of 1971.
    The Green Brook Flood Control Commission is made up of appointed 
representatives from Middlesex, Somerset and Union Counties in New 
Jersey, and from the 13 municipalities within the Basin. This 
represents a combined population of about one-quarter of a million 
people.
    The Members of the Commission are all volunteers, and for 30 years 
have served, without pay, to advance the cause of flood protection for 
the Basin. Throughout this time, the Corps of Engineers, New York 
District, has kept us informed of the progress of the project, and a 
representative from the Corps has been a regular part of our monthly 
meetings.
    We believe that it is clearly essential that the Green Brook Flood 
Control Project be carried forward, and pursued vigorously to achieve 
protection at the earliest possible date. This Project is needed to 
prevent loss of life and property, as well as the trauma caused every 
time there is a heavy rain.
    New Jersey has programmed budget money for its share of the Project 
in 2002.
    We urgently request an appropriation for the Project in fiscal year 
2002 of $10,000,000.
    The Green Brook Flood Control Commission is dedicated to the 
proposition that Bound Brook Borough, and the other municipalities, and 
their thousands of residents, who will otherwise suffer in the next 
major flood, must be protected. We move forward with renewed 
determination to achieve the protection which the people of the flood 
area need and deserve.
    With your continued support, we are determined to see this Project 
through to completion.
    Thank you, Mr. Chairman, and Members of the Subcommittee, for your 
vitally important past support for the Green Brook Flood Control 
Project; and we thank you for the opportunity to submit this testimony.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 

          Prepared Statement of the Merced Irrigation District

    Mr. Chairman and Members of the Committee: My name is Ross Rogers, 
General Manager of the Merced Irrigation District. I am respectfully 
submitting this statement on behalf of the County of Merced, the City 
of Merced, and the Merced Irrigation District, which jointly form an 
informal coalition commonly known as the Merced County Streams Group 
for the purpose of performing maintenance functions along portions of 
the Merced County Streams Project. The County of Merced, together with 
the State of California, is the sponsor of the Merced County Streams 
Project. The El Nido Irrigation District and the Le Grand Athlone Water 
District are also concerned in this matter.
    Federal authorization for the project construction was granted as 
part of the Supplemental Appropriations Act of 1985. Authorized 
facilities include constructing dry dams on Canal (Castle Dam) and 
Black Rascal Creeks (Haystack Mountain Dam), enlargement of the 
existing Bear Creek Dam, and modifications of levees and channels along 
more than 25 miles of Fahrens, Black Rascal, Cottonwood, and Bear 
Creeks. The completed project will provide flood protection worth more 
than $10,000,000 per year to 263,000 acres of urban and agricultural 
lands. Total project cost is currently estimated to be $133,000,000 of 
which $40,000,000 or roughly 31 percent will be paid during 
construction by the local beneficiaries.
    When completed, more than 240,000 residents occupying 55,000 
housing units within the greater metropolitan Merced area will live 
with assurance of 125-year flood protection, while the lower rural area 
will receive 25-year protection.
    The first component of the project, Castle Dam, was completed in 
1992. This component was constructed under budget, ahead of schedule, 
and without a lost-time accident. Without Castle Dam during the intense 
storms of January, February, March 1995, January 1997 and January, 
February, March, 1998, the city of Merced would have been partially 
inundated.
    As a result of a request by the County of Merced, the Corps of 
Engineers has reevaluated project components and will extend the 
boundaries of the levee and channel portion of the project to better 
match growth that has taken place in the city of Merced. This 
willingness to remain flexible throughout the lengthy planning and 
design process is also a credit to the Corps and its staff.
    The Merced County Streams Project is a modification and expansion 
of an earlier flood project constructed between 1948 and 1957. It has 
undergone considerable review and modification since first authorized 
as part of the Flood Control Act of 1970. Approximately $19,397,000 has 
been spent to date on the Merced County Streams Project. This has been 
matched with local contributions of approximately $3,000,000. As 
partners in the construction of this project, the local agency sponsors 
have worked closely with the Corps to establish an economic balance 
between costs and benefits. As a result of this combined effort, 
nonessential project components were first scaled back and eventually 
eliminated. This scaling to fit the economic reality resulted in 
substantial Federal and local savings.
    On January 15, February 3 and March 25, 1998, due to El Nino-driven 
storms, Bear Creek overtopped its banks in several locations within and 
downstream of the city of Merced, flooding 33 homes, county, city and 
Merced Irrigation District infrastructure, and thousands of acres of 
prime agricultural land, with total damages in the millions of dollars. 
The U. S. Army Corps of Engineers, with input from the National Weather 
Service, estimates that the January 15th and March 25th events were 
both one-in-100 year events, unprecedented for the area. The greatest 
storm intensity in both storms centered in northeastern Merced County 
in and around the watershed of Black Rascal Creek, tributary to Bear 
Creek, upstream of the Merced County Streams Project's proposed 
Haystack Mountain Dam site. According to Corps of Engineer's rating 
tables for the Black Rascal Creek Bypass gaging station, January flows 
reached 4,300 cubic feet per second (cfs) in a channel with a rated 
maximum capacity of 3,000 cfs, 143 percent of channel capacity. March 
flows exceeded 4,700 cfs, or 157 percent of channel capacity. Had the 
Merced County Streams Project's Haystack Mountain Dam been in place, no 
flooding would have occurred along Bear Creek during the January, 
February or March events.
    Due primarily to the New Years, 1997 devastating California flood, 
the U. S. Congress and the California legislature authorized a four 
year study, identified as: ``Sacramento and San Joaquin River Basins 
Comprehensive Study.'' The study was authorized under the Flood Control 
Act of 1962 (Sacramento River) and the 1964 Congressional Resolution 
(San Joaquin River). According to a brochure distributed by The 
Reclamation Board of the State of California and the U. S. Army Corps 
of Engineers, Sacramento District, the study:
    `` . . . will initially identify problems, opportunities, planning 
objectives, constraints, and measures to address flooding and ecosystem 
problems in the study area. It will ultimately develop a strategy for 
flood damage reduction and integrated ecosystem restoration along with 
identification of projects for early implementation. Solutions will 
include consideration of both structural and non-structural measures . 
. .''
    According to the study timeline, in April, 1999, an interim report 
was presented to Congress. In 2001, a Draft Strategy for Flood 
Management and Related Environmental Restoration will be completed. By 
the Spring of 2002, the final Strategy and EIS/EIR, including an 
implementation plan will be completed.
    There is great concern on the part of the City of Merced, County of 
Merced and the Merced Irrigation District officials that the Merced 
County Streams Project will be ``swallowed up'' by the Comprehensive 
Study, becoming one of many new flood control projects that have not 
yet received Congressional authorization. The Merced County Streams 
Project has been authorized by Congress. This important and urgent 
Project must not lose its priority for Congressional funding or be 
further delayed while the Comprehensive Study is undertaken.
    The project has the support of state and local authorities and 
funding of the non-Federal portion has been addressed.
    We request the Committee's support for inclusion of funds in the 
fiscal year 2002 budget for the orderly progress of the Merced County 
Streams Project, which is so vital to the community, state, and the 
nation.
                                 ______
                                 

 Prepared Statement of the Louisiana Governor's Task Force on Maritime 
                                Industry

    Mississippi River Ship Channel, Gulf to Baton Rouge, LA.--Recommend 
the Corps be funded $1,221,000 (Construction General) to perform 
required work on the saltwater intrusion mitigation plan and complete 
design studies for potential phase III 55-foot channel.
    Mississippi River, Baton Rouge to the Gulf, Maintenance Dredging.--
Recommend funding of $55,831,000 (O&M General).
    Mississippi River Gulf Outlet (MRGO), LA., Maintenance Dredging.--
Recommend that Corps be funded $13,111,000 (O&M, General).
    Inner Harbor Navigation Canal (IHNC) Lock, LA.--Funding 
requirements include $25,000,000 (Construction General) to continue 
construction and mitigation for the IHNC New Lock. Recommend that Corps 
be funded to continue lock construction and mitigation.
    Mississippi River Outlets at Venice, LA.--Recommend funding of 
$2,943,000 (O&M General).
    Intracoastal Waterway Locks, LA.--Recommend funding of $500,000 
(general Investigations) to continue the development of plans for 
replacement of Bayou Sorrel Lock on the Gulf Intracoastal Water Way 
(GIWW), Morgan City-to-Port Allen alternate route.
    Gulf Intracoastal Waterway, LA. and TX.--Recommend funding of 
$18,195,000 (O&M General). Recommend that Corps be funded increased 
capability to construct a spare set of miter gates for Leland Bowman 
Lock and 20 additional mooring buoys at various locations along the 
GIWW.
    Calcasieu Lock, LA.--Recommend funding of $900,000 (General 
Investigations) funds to continue the feasibility phase of the study to 
replace Calcasieu Lock on the GIWW.
    Calcasieu River and Pass, LA.--Recommend funding of $12,773,000 
(O&M General) to continue dredging and operation and maintenance of the 
Saltwater Barrier.
    MRGO Reevaluation Study, LA.--fiscal year 2002 funding requirement 
is $500,000 (Construction General). Funds are needed to complete a 
study to determine the advisability of maintaining the 36ft. depth of 
the MRGO. Recommend that the Corps be funded to complete this study.
    J. Bennett Johnston Waterway, Mississippi River to Shreveport, 
LA.--Fiscal year 2002 funding requirement is $20,000,000 (Construction 
General) and $9,462,000 (O&M General). Recommend that the Corps be 
funded to complete work already underway.
    As Chairman of the Louisiana Governors Task Force on Maritime 
Industry, I hereby submit testimony to the Senate Subcommittee on 
Energy and Water Development on behalf of the ports on the lower 
Mississippi River, the J. Bennett Johnston Waterway and the Calcasieu 
River waterway and the maritime interests related thereto of the State 
of Louisiana relative to Congressional appropriations for fiscal year 
2002.
    The U.S. Army Corps of Engineers reports that in 1999 a total of 
427.9 million tons of foreign and domestic waterborne commerce moved 
through the consolidated deepwater ports of Louisiana situated on the 
lower Mississippi River between Baton Rouge and the Gulf of Mexico. 
Deepening of this 232-mile stretch of the River to 45 feet has been a 
major factor in tonnage growth at these ports. Due in large part to the 
efforts of Congress and the New Orleans District of the Corps, 
Louisiana's ports and the domestic markets they serve can compete more 
productively and effectively in the global marketplace. Ninety-one 
percent of Americas foreign merchandise trade by volume (two-thirds by 
value) moves in ships, and 21 percent of the nation's foreign 
waterborne commerce passes through Louisianas ports. Given the role 
foreign trade plays in sustaining our nation's growth, maintaining the 
levels of productivity and competitiveness of Louisiana's ports is 
essential to our economic well-being.
    In terms of transportation services and global access, Louisiana 
ports enjoy a distinct competitive advantage. Hundreds of barge lines 
accommodate Americas waterborne commerce on the lower Mississippi 
River. The high level of barge traffic on the river is indicated by the 
passage of more than 229,000 barges through the Port of New Orleans 
annually. In 1999, 2,345 ocean-going vessels operated by more than 80 
steamship lines serving U.S. trade with more than 150 countries called 
at the Port of New Orleans. The Port's trading partners include: Latin 
America (33.5 percent); Asia (33.1 percent); Europe (23.5 percent); 
Africa (9.3 percent) and North America (1.1 percent). During the same 
year, more than 6,148 vessels called at Louisianas lower Mississippi 
River deepwater ports.
    The foreign markets of Louisiana's lower Mississippi River ports 
are worldwide; however, their primary domestic market is mid-America. 
This heartland region currently produces 60 percent of the nation's 
agricultural products, one half of all of its manufactured goods and 90 
percent of its machinery and transportation equipment.
    The considerable transportation assets of Louisiana's lower 
Mississippi River ports enable mid-Americas farms and industries to 
play a vital role in the international commerce of this nation. In 
1999, the regions ports and port facilities handled 229.5 million tons 
of foreign waterborne commerce. Valued at $35.1 billion, this cargo 
accounted for 18.4 percent of the nation's international waterborne 
trade and 27 percent of all U.S. exports. Bulk cargo, primarily 
consisting of tremendous grain and animal feed exports and petroleum 
imports, made up 82 percent of this volume. Approximately 53.3 million 
tons of grain from 17 states, representing 55.3 percent of all U.S. 
grain exports, accessed the world market via the 10 grain elevators and 
midstream transfer capabilities on the lower Mississippi River. This 
same port complex received 87.3 million short tons of petroleum and 
petroleum products, 15.5 percent of U.S. waterborne imports of 
petroleum products.
    In 1999, public and private facilities located within the 
jurisdiction of the Board of Commissioners of the Port of New Orleans, 
the fourth largest port in the United States, handled a total of 87.5 
million tons of international and domestic cargo. International general 
cargo totaled 11.2 million tons. Although statistically dwarfed by bulk 
cargo volumes, the movement of general cargo is of special significance 
to the local economy because it produces greater benefits. On a per ton 
basis, general cargo generates spending within the community more than 
three times higher than bulk cargo. Major general cargo commodities 
handled at the Port include: iron and steel products; coffee; forest 
products; copper; aluminum products; and natural rubber.
    Fostering the continued growth of lower Mississippi River ports is 
necessary to maintain the competitiveness of our nation's exports in 
the global marketplace and, consequently, the health of the nation's 
economy. Assuring deep water access to ports has been a priority of our 
trading partners around the world. Moreover, an evolving maritime 
industry seeking greater economies of scale continues to support 
construction of larger vessels with increased draft requirements. 
Because it facilitated the provision of deepwater port access, passage 
of the Water Resources Development Act of 1986, played a most 
significant role in assuring the competitiveness of ports on the lower 
Mississippi river and throughout the U.S.
    By December, 1994, the Corps completed dredging of the 45-foot 
channel from the Gulf of Mexico to Baton Rouge, LA (Mile 233 AHP). 
Mitigation features associated with the first phase of the channel 
deepening project in the vicinity of Southwest Pass of the river, 
accomplished in 1988, are nearing completion. We urge the continued 
funding for this work in fiscal year 2002 to complete construction of 
improvements to the Belle Chasse water treatment plant. This will 
complete the approximate $15 million in payments to the State of 
Louisiana for construction of a pipeline and pumping stations to 
deliver potable fresh water to communities affected by saltwater 
intrusion. We further urge that the Corps be provided funding to 
proceed with design studies for Phase III which will allow deepening of 
the river to the 55-foot authorized depth.
    Along with the Port of New Orleans, the Port of South Louisiana, 
the nation's largest port with 214.2 million tons of foreign and 
domestic cargo in 1999, and the Port of Baton Rouge, the nation's 
seventh largest port with 63.7 million tons of foreign and domestic 
cargo in 1999, and other lower Mississippi River ports are dependent 
upon timely and adequate dredging of Southwest Pass to provide deep 
draft access to the Gulf of Mexico. Based on past experience--spring 
thaws bringing higher river stages and higher siltation rates--we 
strongly urge funding in the amount of $55,831,000 under O&M General 
for maintenance of the 45-foot project channel. Funding includes monies 
for both dredging and repairs to foreshore dikes; lateral dikes; and 
jetties. Revetment construction has reduced the number and size of deep 
draft anchorages. To mitigate this loss, we recommend that the Corps be 
authorized under the O&M General appropriation to construct new 
anchorages and maintain new and existing anchorages to accommodate 
increased ship traffic.
    Maintenance of adequate depths and channel widths in the 
Mississippi River Gulf Outlet Channel (MRGO) is also of great concern. 
This channel provides deep draft access to the Port of New Orleans 
principal container terminals and generates an annual economic impact 
of nearly $800 million. In 1999, 480 general cargo vessels calling on 
the MRGO Tidewater facilities accounted for 33 percent of the general 
cargo tonnage handled over public facilities at the Port of New Orleans 
and 80.8 percent of Louisiana's containerized cargo.
    Because of the MRGO's demonstrated vulnerability to coastal storm 
activity, annual channel maintenance dredging and bank stabilization 
are essential to assure unimpeded vessel operations. In 1998, heavy 
shoaling related to Hurricane Georges resulted in the imposition of a 
draft restriction from the project depth of 36 feet to 25 feet. The 
amount needed in fiscal year 2002 is $13,111,000 under O&M General. We, 
however, strongly recommend that the Corps be funded increased 
capability for bank stabilization projects.
    We recognize the need for the Corps to evaluate the feasibility of 
continuing the maintenance of a deep draft channel in the MRGO because 
of increased maintenance costs and environmental impacts. Any thoughts 
of not maintaining a deep draft channel in the MRGO must be preceded 
with the completion of another deep draft access (IHNC Lock) to the 
many businesses serviced by the MRGO, even though the Port of New 
Orleans is planning to relocate the container terminals to the 
Mississippi River. We recommend funding to the Corps' full capability 
to complete this study.
    The Inner Harbor Navigation Canal (IHNC) Lock is a critical link in 
the U.S. Inland Waterway System as well as the Gulf Intracoastal 
Waterway (GIWW), and provides a connection between the Port of New 
Orleans Mississippi River and IHNC terminals. In 1998, the Corps 
approved a plan for replacement of this obsolete facility. The Corps 
estimates that the lock replacement project will have a cost-benefit 
ratio of 2.2 to one and will provide $110 million annually in 
transportation cost savings. In addition to minimizing adverse impacts 
to adjacent neighborhoods, the project includes a $35 million Community 
Impact Mitigation Program. The fiscal year 2002 funding requirement of 
$25,000,000 for the IHNC New Lock for continued engineering and design 
work, construction, and partial funding of the mitigation program. 
Therefore, funding the Corps to continue lock construction and fully 
implement the mitigation program is recommended.
    Operation and maintenance of the Mississippi River Outlets at 
Venice, La. are essential to providing safe offshore support access to 
energy-related industries. In 1999, these channels accommodated cargo 
movements exceeding 2.8 million tons. In addition to routine traffic, 
Baptiste Collette Bayou is used by shallow draft vessels as an 
alternate route between the MRGO, GIWW and the Mississippi River. The 
amount needed is $2,943,000 under O&M General.
    More than 75.9 million tons of cargo transverse the GIWW in the New 
Orleans District annually. The amount needed for fiscal year 2002 for 
Gulf Intracoastal Waterway, Louisiana and Texas is $18,195,000 under 
O&M General. We recommend that the Corps be funded increased O&M 
capability to construct a spare set of miter gates for Leland Bowman 
lock and 20 additional mooring buoys at various locations along the 
GIWW.
    To assure the efficient flow of commerce on the GIWW, approval is 
urged for $500,000 in GI funds to complete the feasibility study and to 
develop plans for replacement of the Bayou Sorrel Lock, Morgan City-to-
Port Allen alternate route. We further recommend approval of $900,000 
in GI funds to continue the feasibility phase of the study to replace 
Calcasieu Lock on the GIWW.
    The Port of Lake Charles, Louisiana, is served by the Calcasieu 
River, which often does not meet project depth and width requirements. 
This Port is one of Louisiana's major deep-water ports, benefitting the 
economy of the state and the nation. In 1999, the Port handled 34.3 
million tons of import cargo and 15.8 million tons of export cargo. The 
Port and private facilities along this waterway provide thousands of 
jobs for the Lake Charles area. In 1999, 1,056 ships and 7,305 barges 
used the Calcasieu River waterway. The Port area's growth and continued 
success depends on the provision of a reliable and safe channel at full 
project dimensions. We recommend approval for fiscal year 2002 of 
$12,773,000 under O&M General to continue dredging and operation of the 
saltwater barrier.
    One additional project warrants consideration. The J. Bennett 
Johnston Waterway, Mississippi River to Shreveport, La. Project 
provides 236 miles of navigation improvements, 225 miles of channel 
stabilization works and various recreational facilities. Project 
completion will stimulate economic growth along the Red River Basin and 
increase cargo flows through the deep draft ports on the lower 
Mississippi River. Fiscal year 2002 requirements include $20,000,000 in 
Construction General and $9,462,000 for Operations and Maintenance. We 
recommend that the Corps be funded to full capability for this project 
to complete work already underway.
    The need and impetus to reduce the Federal budget is certainly 
acknowledged; however, reduced funding on any of the above projects 
will result in decreased maintenance levels which will escalate 
deterioration and, ultimately, prevent them from functioning at their 
full authorized purpose. Reduction in the serviceability of these 
projects will cause severe economic impacts not only to this region, 
but to the nation as a whole that will far outweigh savings from 
reduced maintenance expenditures. Therefore, we reiterate our strong 
recommendation that the above projects be funded to their full 
capability.
    Supporting statements from Mr. J. Ron Brinson, President and CEO of 
the Port of New Orleans; Mr. Joseph Accardo, Jr., Executive Director of 
the Port of South Louisiana; Mr. Roger Richard, Executive Director of 
the Greater Baton Rouge Port Commission; Mr. Terry T. Jordan, Executive 
Director of the Lake Charles Harbor and Terminal District; Mr. Channing 
Hayden, President of the Steamship Association of Louisiana; and Capt. 
Mark Delesdernier, President of the Crescent River Port Pilots 
Association are attached. Please make these statements along with my 
statement part of the record. Supplemental graphics relating to my 
statement have been furnished separately for staff background use. 
Thank you for the opportunity to comment to the subcommittee on these 
vital projects.
                                 ______
                                 

                    Letter From Joseph Accardo, Jr.

                                   Port of South Louisiana,
                                 LaPlace, Louisiana, April 4, 2001.
Hon. Pete V. Domenici,
Chairman, Subcommittee on Energy and Water Development, Committee on 
        Appropriations, U.S. Senate, Washington, DC.
    Dear Senator Domenici: The Port of South Louisiana very much 
appreciates being given the opportunity to submit this statement and 
supportive material to signify its endorsement of the statement of Mr. 
Donald T. Bollinger, Chairman of the Louisiana Governor's Task Force on 
Maritime Industry.
    The Port of South Louisiana is comprised of nearly 54 miles of 
Mississippi River north of New Orleans and south of Baton Rouge, with 
more than fifty private and public docks and wharves. The Port of South 
Louisiana is the largest tonnage port in the United States and third 
largest in the world, handling more than 245 million short tons of 
cargo during 1999. Of this total tonnage, more than 123 million tons 
are shipped in international trade by deep water vessel and 12-2 
million tons are shipped in domestic trade by vessels and barges. Each 
year more than 100,000 barges transport cargo at the Port of South 
Louisiana and more than 4,000 ships call at the public and private 
wharves of our Port.
    A recent study by Dr. Tim Ryan of the University of New Orleans 
indicates that nearly 20 per cent of the domestic gross product of the 
State of Louisiana is dependent upon the maritime industry and one of 
twelve jobs is created from the economic activity of the maritime 
industry. Attached you will find statistics which have been developed 
from the records of the Port of South Louisiana.
    The Port of South Louisiana strongly urges the Congress to fund all 
of the following projects.
    1. Mississippi River Ship Channel, Gulf to Baton Rouge, LA 
(Construction General)
    2. Mississippi River, Baton Rouge to the Gulf, Maintenance Dredging 
and GI Funds For Navigation Study
    3. Mississippi River-Gulf Outlet (MR-GO), LA, Maintenence Dredging
     4. Inner Harbor Navigation Canal (IHNC) Lock, LA 5. Mississippi 
River Outlets at Venice, LA
    6. Intracoastal Waterway Locks, LA
    7. Gulf Intracoastal Waterway, LA and TX
    8. Calcasieu Lock, LA
    9. Calcasieu River & Pass, LA
    10. Mississippi River-Gulf Outlet (MR-GO) Reevaluation Study, LA
    11. J. Bennett Johnston Waterway, Mississippi River to Shreveport
    The Port of South Louisiana strongly believes that the finding and 
completion of the above maritime projects will enhance the ability of 
the ports in the region to be competitive in the global economy and 
will enhance the ability of domestic industry and agriculture to 
compete in the export of its products.
    If we can provide any further information, please feel free to call 
upon me.
            Your truly,
                                        Joseph Accardo, Jr.
                                            Executive Director/CEO.
                                 ______
                                 

                      Letter From Roger P. Richard

                               Port of Greater Baton Rouge,
                              Port Allen, Louisiana, April 5, 2001.
Hon. Pete V. Domenici,
Chairman, Energy & Water Development Subcommittee, Committee on 
        Appropriations, U.S. Senate, Washington, DC.
    Dear Senator Domenici: Maintaining open navigable channels for the 
Mississippi River and its tributaries is vital to the nation's commerce 
and national interest. Therefore, the Port of Greater Baton Rouge 
respectfully requests that your committee give favorable consideration 
to the following projects:
    Mississippi River Ship Channel--Gulf to Baton Rouge, Louisiana 
(Construction General).--We support full funding of $719,000 in fiscal 
year 2001 to the U.S. Corps of Engineers General Construction Budget. 
This will allow for the completion of the saltwater intrusion 
mitigation plan and the Phase III design studies for the fifty-five 
foot channel. Both projects are important to the future success of the 
Port of Greater Baton Rouge.
    Mississippi River--Baton Rouge to the Gulf--Maintenance Dredging.--
We support maximum funding for maintenance dredging for the Mississippi 
River and recommend approval of the President's fiscal year 2001 Budget 
of $63,359,000.
    Mississippi River--Gulf Outlet (MR-GO), LA., Maintenance.--We 
support the President's fiscal year 2001 Budget of $11,286,000 under O 
& M General to include increase funding to the U.S. Corps budget to 
increase capability for bank stabilization.
    Intracoastal Waterway Locks, LA.--Recommend approval of the 
President's fiscal year 2001 budget of $686,000 in GI Funds to complete 
the feasibility study and develop plans for replacement of Bayou Sorrel 
Lock on the Gulf Intracoastal Water Way (GIWW), Morgan City to Port 
Allen alternate route.
    J. Bennett Johnston Waterway, Mississippi River to Shreveport, 
LA.--President's fiscal year 2001 is $18,040,000 in Construction 
General and $8,907,000 for Operations and Maintenance. We support full 
funding to the U.S. Corps budget to complete work already underway.
    As stated in previous correspondence, these projects are vital not 
only to the Port of Greater Baton Rouge but also to the entire nation. 
The great Mississippi River is the premier national waterway, providing 
accessibility to and from foreign countries for the transportation of 
goods and services used by countless numbers of U.S. companies and 
individual citizens. The channel must be properly designed and 
maintained for the benefit of all ports and commerce.
    We also earnestly request your support for funding of the other 
projects included in April 5, 2001 testimony prepared and submitted by 
Mr. Donald T. Bollinger. A summary of Mr. Bollinger's statement is 
attached. Our waterway infrastructure must be properly maintained if we 
are to increase trade and have the confidence of our trading partners 
around the world. Your cooperation and support of these important 
projects for the Mississippi River are greatly appreciated.
            Sincerely,
                                         Roger, P. Richard,
                                          Executive Director & CEO.
                                 ______
                                 

                      Letter From Terry T. Jordan

                   Lake Charles Harbor & Terminal District,
                            Lake Charles, Louisiana, April 6, 2001.
Hon. Pete V. Domenici,
Chairman, Energy & Water Development Subcommittee, Committee on 
        Appropriations, U.S. Senate, Washington, DC.
    Dear Senator Domenici: The Lake Charles Harbor and Terminal 
District respectfully requests favorable consideration from you and 
your committee for the following projects:
    Calcasieu Lock, LA.--Recommend approval of President's Fiscal Year 
2001 budget of $900,000 (GeneralInvestigations) funds to continue the 
feasibility phase of the study to replace Calcasieu Lock on the G1WW.
    Calcasieu River and Pass, LA.--Recommend approval of the Terminal 
Presidents fiscal year 2001 Budget of $12,773,000 (O&M General) to 
continue dredging and operation and maintenance District of the 
Saltwater Barrier.
    This project is vital not only to the Port of Lake Charles, but to 
many parts of the nation. The Calcasieu River provides a route for oil 
and gas to enter the country's 11th largest port and ultimately be 
distributed to the Midwest and Northeast areas. The Port also provides 
a route for exports such as bagged grains, wood and paper products, dry 
bulk materials and other commodities, which originate from as far as 
the Pacific Northwest.
    The District also requests support for funding of the other 
projects included in the testimony of Mr. Donald Bollinger. These 
projects are extremely important to Louisiana ports as well as the 
nation.
            Yours very truly,
                                                   Terry T. Jordan.
                                 ______
                                 

                   Letter From Michael R. Lorino, Jr.

                                  Associated Branch Pilots,
                                Metairie, Louisiana, April 5, 2001.
Hon. Pete V. Domenici,
Chairman, Energy & Water Development Subcommittee, Committee on 
        Appropriations, U.S. Senate, Washington, DC.
    Mr. Chairman: The Associated Branch Pilots is an Association of 
Pilots that have been guiding oceangoing vessels into the entrances of 
the Mississippi River system for over 125 years. We are called Bar 
Pilots because we guide the ships past the constantly shifting and 
shoaling sand bars in the area.
    Southwest Pass of the Mississippi River is the main entrance for 
deep draft oceangoing vessels entering the Lower Mississippi River 
System. It is the shallowest stretch of the Lower Mississippi River 
System and the area that requires the greatest effort by the Corps of 
Engineers to maintain project depth.
    In 2000, the Associated Branch Pilots made 11,987 transits on 
oceangoing vessels through Southwest Pass. Of these ships, 3,290 were 
of 50,000 dead weight tons or greater and 648 had a draft in excess of 
40 feet.
    This number of heavily laden vessels calling on the Lower 
Mississippi River System is a result of having a channel with a depth 
of 45 feet.
    This first phase has proven to be extremely well designed and well 
maintained by the fact that the maximum draft recommended by my 
Association for vessels using Southwest Pass has been 45 feet or 
greater, except for periods of extremely high water that caused 
shoaling that overwhelmed the dredging efforts. This is in stark 
contrast to the late 1970's and early 80's when we often had to 
recommend drafts less than the project depth due to shoaling.
    To the world shipping community, this means that calling at ports 
on the Mississippi River system will be more profitable because larger 
ships can enter and carry greater amounts of cargo.
    This is beneficial to the entire United States because it makes the 
large quantities of petroleum, agricultural, and manufactured products 
shipped from the Mississippi Valley more desirable due to increased 
profitability.
    I would also like to comment briefly on the East-West navigation 
channels near Venice, Louisiana. Tiger Pass and Baptiste Collette 
provide a shorter, more direct route to Breton Sound and the Gulf of 
Mexico for offshore supply boats and small tugs and barges. These 
channels not only represent a savings in time and money for these 
vessels, but reduce the traffic in the main shipping channel, the 
Mississippi River and its passes, which is one of the most congested 
waterways in the country.
    The dredging and maintaining of South Pass would contribute to the 
safety of the overall waterway.
    The Associated Branch Pilots also pilot vessels in the Mississippi 
River Gulf Outlet, a man-made tidewater channel 75 miles long, 
stretching from the Gulf of Mexico to an intersection of the 
Intercoastal Waterway in New Orleans.
    This channel leads to the Main Container Terminals for the Port of 
New Orleans, the Roll On, Roll Off Terminal, the Port of New Orleans 
Bulk Handling Plant, and additional General Cargo Docks. For the Port 
of New Orleans to remain competitive in the ever growing container 
trade, the continued maintenance of this channel is crucial. In 2000, 
497 ships called on the port using the Mississippi River Gulf Outlet.
    Much is being said pro and con concerning the Mississippi River 
Gulf Outlet. There is, admittedly, an erosion problem in the 
Mississippi River Gulf Outlet, but any curtailment of shipping traffic 
in the channel without regard to the long term effect upon the Port of 
New Orleans would be disastrous. I strongly support approval of funding 
for both the maintenance dredging/jetty repair project and the erosion/
rip rap study for the Mississippi River Gulf Outlet.
    Funding of the Corps of Engineers' projects in the Lower 
Mississippi River System has proven to be money well spent. It has 
increased exports and imports that have benefited the entire United 
States. I urge your support of the funding requested to enable the 
Corps to continue to maintain and improve the most efficient and 
productive waterway system in the country.
            Sincerely,
                                    Michael R. Lorino, Jr.,
                                                         President.
                                 ______
                                 

               Letter From Captain Mark Delesdernier, Jr.

                   Crescent River Port Pilots' Association,
                            Belle Chasse, Louisiana, April 6, 2001.
Hon. Pete V. Domenici,
Chairman, Energy and Water Development Subcommittee, Committee on 
        Appropriations, U.S. Senate, Washington, DC.
    Mr. Chairman: I have served as President of the largest pilot 
association in the United States for the past nineteen (19) years. The 
Crescent River Port Pilots furnish pilots for ships destined to the 
Port of Baton Rouge, Port of South Louisiana, Port of New Orleans, Port 
of St. Bernard, and the Port of Plaquemines.
    The Crescent River Port Pilots have piloted and shifted over 
sixteen thousand one hundred and eighty two (16,182) ships during 2000. 
We pilot deep draft vessels on more than one hundred (100) miles on the 
lower Mississippi River and thirty-five (35) miles on the Mississippi 
River Gulf Outlet.
    The lower end of our route on the Mississippi River has a shoaling 
problem starting with the high water season each year. The shoaling 
requires daily attention by the United States Army Corps of Engineers 
to maintain project depth.
    Heavy-laden vessel calls on the lower Mississippi River system as a 
direct result of the completion by the Corps of Engineers of the 
deepening of the channel from forty (40) feet to forty-five (45) feet.
    For several years now, we have had extraordinary success in keeping 
the river dredges to project depth. This success is a direct result of 
an experienced and vigilant Corps of Engineers that, through 
experience, is able to timely bid in dredges to avoid extra dredging 
cost by waiting too long to start maintenance dredging.
    Channel stability sends a positive message to the world's shipping 
community that schedule cargo for deep draft vessels months in advance 
is reliable. This makes the port call on the Mississippi River very 
profitable since the ships can lift greater tonnage.
    Keeping project depth is beneficial to twenty-seven (27) states 
that are directly tied to the Mississippi River Port Complex.
    Additionally, I would like to commend on the east and west 
navigation channels near Venice, Louisiana. Baptiste Collette and Tiger 
Pass provide a shorter and more direct route to Breton Sound and West 
Delta in the Gulf of Mexico for oil field support vessels.
    The Crescent River Port Pilots also pilot ships in the Mississippi 
River Gulf Outlet. A man-made channel approximately 75 miles long 
starting in Breton Sound in the Gulf of Mexico and ending in New 
Orleans where it intersects with the Intercoastal Waterway.
    The Mississippi River Gulf Outlet feeds the main container 
terminals in the Port of New Orleans. Additional docks, such as Bulk 
Terminal and general cargo facilities depend on this channel, which 
handled approximately 980 ship calls last year.
    The Mississippi River Gulf Outlet has been a controversial channel 
since its inception, but being an integral part of the Port of New 
Orleans, it would be a disaster if it is not kept at project width and 
depth. The Crescent River Pilots strongly support approval of funding 
for both the maintenance dredging, and jetty repair projects.
    Funding of the United States Army Corps of Engineers projects in 
the lower Mississippi River system which includes the Mississippi River 
Gulf Outlet, Tiger Pass, Baptiste Collette, and Southwest Pass has 
proven to be money well spent.
    I urge your support of the funding requested to allow the Corps of 
Engineers to continue to maintain and improve the most productive 
waterway system in the world.
    Mr. Chairman, thanks for allowing me the opportunity to submit my 
comments to your subcommittee.
            Sincerely,
                            Captain Mark Delesdernier, Jr.,
                                                         President.
                                 ______
                                 

Prepared Statement of the Coosa-Alabama River Improvement Association, 
                                  Inc.

                                summary
    Mr. Chairman & distinguished Committee members: This statement 
includes the following:
    (A) A plea to recognize and maintain our Nation's inland waterways 
system as a vital part of the national transportation infrastructure;
    (B) A request for support in the following areas:
  --Sufficient funding to maintain and improve our nation's inland 
        waterway system;
  --O&M funding for federal projects in the Coosa-Alabama Basin and 
        Mobile Harbor;
  --Funding to complete a study to improve the navigation channel on 
        the Alabama River
  --Funding to remove major obstacles to efficient operation of the 
        Millers Ferry power generation plant
  --Funding to commence construction of Mayo's Bar Lock and Dam on the 
        Coosa River;
                           expanded statement
    Thank you for the opportunity to present my perspective on several 
topics relating to our Nation's waterways system in general, and to the 
Coosa-Alabama River Basin in particular. As President of the Coosa-
Alabama River Improvement Association, I speak for a large and diverse 
group of private citizens and political and industrial organizations 
that sees the continued development of the Coosa-Alabama Waterway as an 
opportunity for economic growth in our region as well as the Nation.
    Our association is concerned about the deteriorating waterway 
infrastructure throughout the nation. The waterways are vital to our 
export and import capability, linking our producers with consumers 
around the world. Barges annually transport 15 percent of the nation's 
commodities, one out of every eight tons. It is incumbent upon the 
Federal Government to maintain and improve this valuable national 
asset. Therefore, we ask Congress to appropriate enough funds for 
required maintenance and construction to keep the waterways the 
economic multiplier it is. To maintain the inland waterways facilities 
and to accommodate vitally needed growth will require approximately $6 
billion. The Federal government must commit to improve the waterways 
infrastructure or risk serious economic consequences and jeopardizing 
large public benefits.
    We are concerned that any budget strategy that reduces funding for 
the operations and maintenance of inland and intracoastal waterways 
will have a detrimental effect on the economic growth and development 
of the river system. We are especially concerned about the President's 
direction to direct funding away from those waterways suffering 
temporary downturns in barge transportation. We cannot allow that to 
happen. In the Alabama-Coosa River Basin, we must be able to maintain 
the existing river projects and facilities that support the commercial 
navigation, hydropower and recreational activities so critical to our 
region's economy. The first priority must be the O&M funding 
appropriated to the Corps of Engineers to maintain those projects. 
Since, as of the submission of this statement, the President's Budget 
Proposal for fiscal year 2002 has not been made available, we request 
the following projects be funded on a level at least equal to that of 
fiscal year 2001, with exceptions as indicated:

------------------------------------------------------------------------
                                                           Association's
                                            Fiscal year     fiscal year
                 Project                       2001         2002 budget
                                           appropriation      request
------------------------------------------------------------------------
Alabama-Coosa River, AL \1\ (AL River         $5,355,000      $5,355,000
 incl Claiborne L&D)....................
Miller's Ferry L&D......................       4,999,000       6,999,000
Robert F. Henry L&D.....................       4,962,000       4,962,000
Lake Allatoona, GA......................       6,000,000       6,000,000
Carters Lake, GA........................       7,489,000       7,489,000
Lower Alabama River Study (South of              150,000         250,000
 Claiborne) feasibility study...........
Mayo's Bar..............................  ..............       1,500,000
                                         -------------------------------
    Totals..............................      27,525,000      32,555,000
------------------------------------------------------------------------
\1\ Includes dredging from the mouth of the Alabama River through
  Claiborne L&D to Miller's Ferry. Coosa River not included.

    We also support funding O&M for Mobile Harbor at $20,500,000. We 
cannot allow Mobile Harbor infrastructure to deteriorate because not 
enough funds are appropriated.
    The Corps of Engineers has not dredged the Alabama River since 
1999. During the drought months last year, water depths below Claiborne 
were less than six feet, not enough to sustain barge traffic. That 
traffic, however, was severely curtailed in 1999 when Kimberly-Clark 
Corporation ceased its logging operation on the Alabama. In effect, the 
Corps reprogrammed fiscal year 2000 O&M funds from maintenance of the 
Alabama River navigation channel to the Port of Pascagoula, Mississippi 
because of low commercial usage. From all indications, that money will 
be reprogrammed again this year. We must, however, maintain the 
navigation channel to preserve the channel's potential of attracting 
new business into the Alabama River Basin. We request Congress to 
appropriate funding for the Alabama-Coosa, Miller's Ferry, and Robert 
F. Henry projects at least equal to that appropriated in fiscal year 
2001.
    In addition, we ask that $2 million be appropriated to the Miller's 
Ferry project to purchase a capability to remove river debris that 
clogs the inlet structure of the power generating plant at the dam. 
Debris causes the generating plant to lose its efficiency, which in 
turn drives up the cost of producing electricity. These costs are, of 
course, passed on to the purchasers of the electricity. An additional 
benefit is that the debris removing system would obviate the need, thus 
the manpower and time, to physically remove the debris.
    We must improve the infrastructure of the river itself, 
specifically the navigational reliability below Claiborne Dam. 
Increased reliability is the only way prospective investors will 
entertain establishing an industry that uses river transportation. The 
most affordable and most environmentally friendly solution to 
increasing navigation reliability on the Lower Alabama River is to 
improve the training dikes. Mobile District is in the middle of a 
feasibility study to determine the interest of the Federal Government 
in such a project. Without an improvement in the navigation reliability 
on the Lower Alabama River, we cannot hope to attract new river-related 
industry into the Basin. We ask Congress to appropriate $250,000 to 
complete the feasibility study already underway.
    Recreation has become a major economic factor on our waterways. 
Boating, fishing, swimming, and camping have become an indispensable 
economic tool for many of our lake and river communities. One of the 
projects in the Upper Coosa River Basin needs federal funding to assist 
in greatly enhancing recreational opportunities in the northwest 
Georgia and northeast Alabama.
    Mayo's Bar Lock and Dam, eight miles downstream of Rome, Georgia, 
on the Coosa River, is an old federal project constructed in 1913 as 
part of an overall plan to provide navigation from Wetumpka, Alabama, 
to Rome. The project was abandoned in 1931. The site of the facility is 
currently operated as a recreational facility. The lock, however, is 
unusable as no maintenance has been performed on it since the 1930's. 
Floyd County, Georgia officials plan to restore and operate the lock to 
facilitate recreational boat traffic from Rome to Cedar Bluff and 
Centre, Alabama through Lake Weiss, 57 miles downstream. A 1988 study 
by the Corps of Engineers found the cost of rehabilitating the lock to 
be feasible. Cost of the project today is estimated at $3 million. 
Section 528 of the Water Resources Development Act of 1999 authorized 
the Corps of Engineers to ``provide technical assistance (including 
planning, engineering, and design assistance)'' for reconstruction of 
Mayo's Bar Lock and Dam. Floyd County is prepared to share the costs of 
the rehabilitation on a 50/50 basis. We request Congress authorize the 
Corps of Engineers to assist Floyd County in the construction phase of 
the lock and in the modification of the dam to accommodate planned 
water levels. Construction costs for modifying both the lock and the 
dam is $3 million. We request Congress appropriate the federal share of 
$1.5 million in fiscal year 2002 to allow the Mobile District to assist 
Floyd County in the construction of the Mayo's Bar Lock and Dam. We 
strongly urge the Committee provide funding to benefit northwest 
Georgia and northeast Alabama.
    In summary, we request your support in the following areas:
  --Sufficient O&M funding of the US Army Corps of Engineers Civil 
        Works budget to maintain and enhance the US inland waterways 
        system, including the Coosa-Alabama River Basins and Mobile 
        Harbor;
  --Funding to purchase a system to remove debris from the intake of 
        the power generating plant at Millers Ferry Dam on the Alabama 
        River;
  --Funding for completing the feasibility study of improving the 
        reliability of the navigation channel below Claiborne Dam on 
        the Lower Alabama River;
  --Funding federal share for the construction phase of rehabilitating 
        Mayo's Bar Lock and Dam on the Coosa River near Rome, Georgia.
    Thank you for allowing us to submit this testimony and for your 
strong support of the Nation's waterways.
                                 ______
                                 

                      Letter From Clyde Chambliss

                                 Autauga County Commission,
                                Prattville, Alabama, April 9, 2001.
Hon. Pete V. Domenici,
Senate Subcommittee on Appropriations for the Energy and Water 
        Development, U.S. Senate, Washington, DC.
    Dear Senator Domenici: The Autauga County Commission would like to 
take this opportunity to ask for your help in funding requests for 
Coosa-Alabama River Improvement Association for fiscal year 2002.
    We are particularly interested in the operations and maintenance 
funding that keeps the navigation channel open. We feel that top 
priority should be given in order to attract new river-using industry 
into the Alabama River Basin. Improvements needed to enhance industry 
interest into the river basin include extending the Coosa-Alabama 
Waterway and improving navigational reliability below Claiborne Dam by 
maintaining and improving training works and dredging. Commercial river 
transportation development between Mobile and Montgomery is dependent 
on these improvements. Funding of $2.0 million in fiscal year 2002 and 
$1.0 million in fiscal year 2003 is needed to install a system to 
remove debris at the intake gates of Miller's Ferry hydropower 
generation plant near Camden, Alabama.
    We also support efforts to reach an agreement on a water allocation 
formula between Alabama and Georgia, but cannot support an agreement 
that could negatively affect the ability of Mobile District Corps of 
Engineers to maintain a nine-foot navigation channel on the Alabama 
River or that seriously hinders the economic development of the State 
of Alabama and Northwest Georgia.
    It is our hope that you will consider the importance of maintaining 
the Alabama River projects arid provide the funding needed.
            Sincerely,
                                      Clyde Chambliss, Jr.,
                                                          Chairman.
                                 ______
                                 

                   Letter From Phillip A. Sanguinetti

                                         The Anniston Star,
                                 Anniston, Alabama, March 26, 2001.
Hon. Pete V. Domenici,
Senate Subcommittee on Appropriations for the Energy and Water 
        Development, U.S. Senate, Washington, DC.
    Dear Sen. Domenici: I am writing to seek your support of the Coosa-
Alabama River Improvement Association's request for an appropriation 
from the State General Fund in Fiscal Year 2002.
    As a member of the Board of Directors for the Association, I 
strongly endorse its mission of promoting the development of the Coosa 
and Alabama Rivers for the benefit of the state. CARIA is the only 
organization in our State that annually works for funding of federal 
projects on those rivers.
    In the water allocation negotiations between Alabama and Georgia, 
CARIA has been the primary advisor to Alabama's negotiators on 
navigation issues in the Alabama-Coosa-Tallapoosa basin.
    I support the Association's request for $300,000 to improve the 
training works below Claiborne Dam.
    In addition, these are other points to consider: (a.) The state 
should maintain and improve the training works and dredging so the 
commercial river transportation between Mobile and Montgomery may 
continue. (b.) The state should continue efforts to agree on a water 
allocation formula between the states of Alabama and Georgia, but not a 
formula that negatively affects the ability of the Mobile District 
Corps of Engineers to maintain a ninefoot navigation channel on the 
Alabama River or impedes Alabama's developing of economic potential.
    Increased fees and taxes prohibit the development of the waterway. 
Lowering the freight rates provide a better opportunity to help the 
trade business.
    Thank you for considering these suggestions.
            Very truly yours,
                                    Phillip A. Sanguinetti,
                                                         President.
                                 ______
                                 

                        Letter From Phil Powell

                                            City of Centre,
                                    Centre, Alabama, April 9, 2001.
Hon. Pete V. Domenici,
Senate Subcommittee on Appropriations for the Energy and Water 
        Development, U.S. Senate, Washington DC.
    Dear Senator Doemenici: As Mayor of the City of Centre I am writing 
to express my support for the funding request by the Coosa-Alabama 
River Improvement Association, Inc. As you are aware this Association 
is very active in promoting the use of the Alabama River Basin as a 
functional navigational waterway for the benefit of the entire State of 
Alabama. As the Association submits its funding request for fiscal year 
2002 please keep in mind the importance of keeping the navigational 
channels open and in operation. Without funds for operations and 
maintenance of the channel it would be impossible to keep it in 
operation and functional.
    The channel is essential on our efforts to attract new river-using 
industry and to expend those already in place. Without funds to keep 
the channel open and accessible for navigation the economies of all 
communities along the channel will be adversely affected. As you are 
aware, millions of dollars have been. spent in recent years toward 
making the Alabama River Basin a functional waterway for barge traffic: 
Failure to maintain such a facility will be harmful to all concerned.
    As Mayor I certainly support the regional efforts to improve and 
expand the channel. Top priority must be given to the operational and 
maintenance funding that keeps the channel open. This is the only way 
new river using industry can be attracted to the Basin area. I also 
support the regional effort in the following areas:
  --To improve and extend the Coos-Alabama Waterway. It is imperative 
        that we improve the navigational reliability below Claiborne 
        Dam.
  --To maintain and improve training works and dredging
  --The development of commercial river transportation between--Mobile 
        and Montgomery.
    It is vital that all affected cities support the Association's 
request for funding--to install a system to remove debris from in front 
of the intake gates at Miller's Ferry hydropower generation plant near 
Camden, Alabama. The funding needed is $2.0 million in fiscal year 2002 
and $1.0 million in fiscal year 2003.
    Finally, I applaud the efforts of Alabama and Georgia to agree on a 
water allocation formula between the two states, but I cannot support 
an agreement that would negatively affect the ability of the Mobile 
District Corp of Engineers to maintain a nine-foot navigational channel 
on the Alabama River or that seriously impedes the economic development 
of the State of Alabama and Northwest Georgia. I do however support the 
efforts of Floyd County and the City of Rome, Georgia to modernize and 
make operational Mayo's Bar Lock and Dam to allow recreational boat 
traffic between Rome and Weiss Lake, Alabama.
    On behalf of the entire community of Centre I encourage you to 
consider these matters carefully as each one, directly or indirectly, 
affects the economic viability of all cities and towns affected by the 
waterways.
    I appreciate your concern and know you will support the Improvement 
Association in their efforts to improve our states waterways.
            Sincerely,
                                               Phil Powell,
                                                             Mayor.
                                 ______
                                 

                       Letter From Anne H. Farish

                                       City of Monroeville,
                              Monroeville, Alabama, March 22, 2001.
Hon. Pete V. Domenici,
Senate Subcommittee on Appropriations for Energy and Water Development, 
        U.S. Senate, Washington, DC.
    Dear Senator Domenici: It has come to my attention that the 
Appropriations Subcommittee on Energy and Water will be considering 
budget requests for operations and maintenance funding for the Alabama 
River projects. I understand that this funding is at risk due to the 
continuing low level of tonnage on the navigation channel. I cannot 
stress the importance of maintaining the navigation channel in the 
Alabama River to attracting new industry and maintaining our current 
industries.
    I support the Coosa-Alabama River Improvement Association's funding 
request for fiscal year 2002. Top priority must be the operations and 
maintenance funding that keeps the navigation channel open. I support 
the regional effort to improve and extend the Coosa-Alabama Waterway. 
Funding is needed to improve the navigational reliability below the 
Claiborne Dam and to maintain and improve training works and dredging 
in order to develop commercial river transportation between Mobile and 
Montgomery.
    I support the efforts of Alabama and Georgia to agree on a water 
allocation formula between the two states, but could not support an 
agreement that negatively affects the ability of Mobile District Corps 
of Engineers to maintain a nine-foot navigation channel on the Alabama 
River or that seriously impedes the economic development of the State 
of Alabama and Northwest Georgia.
    Thank you for supporting this request.
            Sincerely,
                                            Anne H. Farish,
                                                             Mayor.
                                 ______
                                 

                       Letter From Jim Byard, Jr.

                                        City of Prattville,
                                 Pratville, Alabama, April 4, 2001.
Hon. Pete V. Domenici,
Senate Subcommittee on Appropriations for Energy and Water Development, 
        U.S. Senate, Washington, DC.
    Dear Senator Domenici: I am a member of the Board of Directors for 
the Coosa-Alabama River Improvement Association, Inc. These are some 
priority items for your consideration:
  --I support the Association's funding request for fiscal year 2002. 
        Top priority must be the operations and maintenance funding 
        that keeps the navigation channel open. We must maintain the 
        channel in order to attract new river-using industry into the 
        Alabama River Basin.
  --I support the regional effort to improve and extend the Coosa-
        Alabama Waterway, including
    --Need to improve the navigational reliability below Claiborne Dam.
    --Need to maintain and improve training works and dredging. 
            Development of commercial river transportation between 
            Mobile and Montgomery depends on these improvements.
  --I support the Association's request for funding to install a system 
        to remove debris from in front of the gates at the Millers 
        Ferry hydropower generation plant near Camden, Alabama. The 
        funding needed is $2.0 million in fiscal year 2002 and $1.0 
        million in fiscal year 2003.
  --I support the efforts of Alabama and Georgia to agree on a water 
        allocation formula between the two states, but could not 
        support an agreement that negatively affects the ability of 
        Mobile District Corps of Engineers to maintain a nine-foot 
        navigation channel on the Alabama River or that seriously 
        impedes the economic development of the State of Alabama and 
        Northwest Georgia.
  --I support the efforts of Floyd County and the City of Rome, 
        Georgia, to modernize and make operational Mayo's Bar Lock and 
        Dam to allow recreational boat traffic between Rome and Weiss 
        Lake, Alabama.
    Your support of CARIA's request for funding will be greatly 
appreciated.
            Sincerely,
                                            Jim Byard, Jr.,
                                                             Mayor.
                                 ______
                                 

                      Letter From Sue L. Glidewell

                                      City of Rainbow City,
                             Rainbow City, Alabama, March 19, 2001.
Hon. Pete V. Domenici,
Senate Subcommittee on Appropriations for Energy and Water Development, 
        U.S. Senate, Washington, DC.
    Dear Senator Domenici: As you know, I am a member of the Board of 
Directors of Coosa-Alabama River Improvement Association, Inc. I am 
listing below some priority items for your consideration:
    (1) You support the Association's funding request for fiscal year 
2002. Top priority must be the operations and maintenance funding that 
keeps the navigation channel open. We must maintain the channel in 
order to attract new river-using industry into the Alabama River Basin.
    (2) You support the regional effort to improve and extend the 
Coosa-Alabama Waterway.
  --Need to improve the navigational reliability below Claiborne Dam.
  --Need to maintain and improve training works and dredging. 
        Development of commercial river transportation between Mobile 
        and Montgomery depends on these improvements.
  --You support the Association's request for funding to install a 
        system to remove debris from in front of the gates at the 
        Miller's Ferry hydropower generation plant near Camden, 
        Alabama. The funding needed is $2.0 million in fiscal year 2002 
        and $1.0 million in fiscal year 2003.
    (3) You support the efforts of Alabama and Georgia to agree on a 
water allocation formula between the two states, but could not support 
an agreement that negatively affects the ability of Mobile District 
Corps of Engineers to maintain a nine-foot navigation channel on the 
Alabama River or that seriously impedes the economic development of the 
State of Alabama and Northwest Georgia.
    (4) You support the efforts of Floyd County and the City of Rome, 
Georgia to modernize and make operational Mayo's Bar Lock and Dam to 
allow recreational boat traffic between Rome and Weiss Lake, Alabama.
    Your support concerning this will be greatly appreciated.
            Sincerely,
                                          Sue L. Glidewell,
                                                             Mayor.
                                 ______
                                 

                      Letter From James T. Jordan

                                   J.T. Jordan Cotton, Inc.
                                    Centre, Alabama, April 9, 2001.
Hon. Pete V. Domenici,
Senate Subcommittee on Appropriations for Energy and Water Development, 
        U.S. Senate Washington, DC.
    Dear Senator Domenici: This letter is to let you know that I 
support the Coosa-Alabama River Improvement Association's funding 
request for fiscal year 2002. I think the top priority must be the 
operations and maintenance funding that keeps the navigation channel 
open. We need to maintain the channel in order to attract new river-
using industry into the Alabama River Basin. I also support the 
regional effort to improve and extend the Coosa-Alabama Waterway.
    Some other points that are crucial are: we need to improve the 
navigational reliability below Claiborne Dam; to maintain and improve 
training works and dredging; development of commercial river 
transportation between Mobile and Montgomery which depends on these 
improvements; support of the Association's request for funding to 
install to remove debris from in front of the intake gates at the 
Miller's Ferry hydropower generation plant near Camden, Alabama.
    We also need to support the efforts of Floyd County and the City of 
Rome, Georgia to modernize and make operational Mayo's Bar Lock and Dam 
to allow recreational boat traffic between Rome and Weiss Lake, 
Alabama.
    We appreciate what you can do and are doing to help us in these 
endeavors.
            Sincerely,
                                           James T. Jordan,
                                                         President.
                                 ______
                                 

                        Letter From Sandy Smith

                      Monroeville Area Chamber of Commerce,
                              Monroeville, Alabama, March 28, 2001.
Hon. Pete V. Domenici,
Senate Subcomittee on Appropriations for Energy & Water Development, 
        U.S. Senate, Washington, DC.
    Dear Senator Domenici: On behalf of the Monroeville Area Chamber of 
Commerce, I am writing in support of the Coosa-Alabama River 
Improvement Association's funding request for fiscal year 2002. The 
waterway is a major transportation artery for an economically depressed 
area. We must maintain a nine-foot navigation channel on the Alabama 
River to attract new, river utilizing, additional industry to this part 
of Alabama. We support the regional effort to improve and extend the 
Coosa-Alabama waterway, and the need to improve the navigational 
reliability below Claiborne Dam.
    We also support the Association's request for funding to install a 
system to remove debris from in front of the intake gates at the 
Miller's Ferry hydropower generation plant near Camden, Alabama. The 
funding needed is $2.0 million in fiscal year 2002 and $1.0 million in 
fiscal year 2003.
    In addition, we support the efforts of Alabama and Georgia to agree 
on a water allocation formula between the two states, but cannot 
support an agreement that negatively impacts the ability of Mobile 
District Corps of Engineers to maintain a nine-foot navigation channel 
on the Alabama River, or that seriously impedes the economic 
development efforts of the State of Alabama and Northwest Georgia.
    Please support our request for funding to improve and maintain our 
waterways, vital to our continued economic development.
            Respectfully submitted,
                                               Sandy Smith,
                                                Executive Director.
                                 ______
                                 

                       Letter From Otha Lee Biggs

                                  Monroe County Commission,
                              Monroeville, Alabama, March 29, 2001.
Hon. Pete V. Domenici,
Senate Subcommittee on Appropriations for Energy & Water Development, 
        U.S. Senate, Washington, DC.
    Dear Senator Domenici: The Monroe County Commission supports the 
Coosa-Alabama River Improvement Association's funding request for 
fiscal year 2002. The Coosa-Alabama waterway system is a major 
transportation artery for an economically depressed area. In order for 
this region to receive maximum economical benefits, a nine-foot 
navigation channel on the Alabama River is needed to attract new 
industries and to accommodate existing industries. We support the 
efforts to improve and extend the Alabama waterway to Rome Georgia and 
the need to improve the navigational reliability below the Claiborne 
Lock and Dam to Mobile.
    We also support the Association's request for funding of $2.0 
million for fiscal year 2002 and $1.0 million for fiscal year 2003 to 
install a system to remove debris in front of the intake gates at the 
Miller's Ferry hydropower generation plant in Camden, Alabama.
    The Monroe County Commission supports the efforts of Alabama and 
Georgia to agree on a water allocation formula between the two states; 
however, we cannot support an agreement that negatively impacts the 
ability of the Mobile District Corps of' Engineers to maintain a nine-
foot navigational channel on the Alabama River, or that seriously 
impedes the economic development efforts of the State of Alabama and 
Northwest Georgia along the Coosa-Alabama River systems.
    We respectfully request your support of the fiscal year 2002 Budget 
as submitted by the US Corps of Engineers for this most important 
waterway system.
            Respectfully submitted,
                                            Otha Lee Biggs,
        President of Monroe County Commission and Judge of Probate.
                                 ______
                                 

                       Letter From Lynn A. Gowan

                              Montgomery County Commission,
                                Montgomery, Alabama, April 9, 2001.
Hon. Pete V. Domenici,
Senate Subcommittee on Appropriations for Energy and Water Development, 
        U.S. Senate, Washington, DC.
    Dear Senator Domenici: The Montgomery County Commission has a vital 
interest in the development of the Coosa-Alabama River project which 
was originally authorized by Congress in 1945. The benefits which 
accrue to the citizens of this region, and to the nation, fully justify 
the operation of this economical waterway.
    Previously, industry users of this river basin have seen the river 
as undependable and needing more internal dock facilities before they 
would consider barge transportation. The value of cargo is important, 
but much emphasis must be placed on increasing tonnage by attracting 
new river-using industries into the Alabama River Basin. Therefore, the 
top priority must be the operations and maintenance funding that keeps 
the navigation channel dredged and the locks operational.
    Also, improvements are needed to enhance the navigational 
reliability below Claiborne Dam and improve training works and 
dredging. Assurance is needed that there will be sufficient releases of 
water from upstream reservoirs.
    The Mobile District is in its second year of a three-year 
feasibility study and the District cities need a positive benefit-cost 
ratio. This could be achieved through a $300,000 Federal Budget in 
fiscal year 2002.
    Adequate funding is necessary to ensure that progress is made for 
further development of the River project and to properly operate and 
maintain the existing portion. We fully support the testimony provided 
by the Coosa-Alabama River Improvement Association and urge your 
favorable consideration of the recommended appropriations for fiscal 
year 2002.
            Sincerely,
                                                Lynn Gowan,
                                                   Acting Chairman.
                                 ______
                                 

                     Letter From Richard T. Dozier

                                         Montgomery Marina,
                                Montgomery, Alabama, April 9, 2001.
Hon. Pete V. Domenici,
Senate Subcommittee on Appropriations for Energy and Water Development, 
        U.S. Senate, Washington, DC.
    Dear Senator Domenici: A great event took place here in Central 
Alabama in 1972 when the Coosa-Alabama River Navigation System came on-
stream.
    We, as a region, have failed to pursue commercial users for the 
system with the vigor required. While there have been some low-water 
problems, I believe that a bigger user demand would have helped correct 
those physical problems.
    As your committee meets this month, we are in the process of a 
region-wide assessment of what the system offers this large inland 
area. A joint 5-county, long-term development study is underway and 
will assess new facilities and programs to attract users for the system 
and improve the interface with both rail and truck terminals.
    Continuing maintenance and operations funding is critically 
important to maintain the readiness of this valuable system.
    In the meantime, the recreational and residential use of the system 
has had great growth and created jobs and rising tax base values that 
have been very beneficial to this river basin region. These activities 
will only increase in the future. The reliability of the channel is a 
key ingredient in our planning.
            Sincerely,
                                         Richard T. Dozier,
                                 President, Montgomery Marina, Inc.
                                 ______
                                 

                      Letter From Joseph F. Mathis

                       Prattville Area Chamber of Commerce,
                                Prattville, Alabama, April 9, 2001.
Hon. Pete V. Domenici,
Senate Subcommittee on Appropriations for Energy and Water Development, 
        U.S. Senate Washington, DC.
    Dear Senator Domenici: I am writing to request your support for the 
Coosa-Alabama River Improvement Associations funding request for fiscal 
year 2002. Priority must be given to keeping the navigational channel 
open and the operational maintenance budget in tact.
    As a member of the Board of Directors for the Association, I 
strongly endorse its mission of promoting the development of the Coosa 
and Alabama River system for the benefit of the State of Alabama. The 
Association is the only organization that annually works for the 
funding of the federally funded projects on these rivers.
    Major points to consider: maintain and improve the dredging of the 
channel for commercial traffic between Mobile and Montgomery; continue 
efforts to agree on a water allocation formula between Alabama and 
Georgia but not at the expense of negatively impeding the navigation of 
the rivers; additional funds for the removal of debris for the intakes 
at Millers Ferry hydropower plant.
    Navigational Rivers are a key to the future Economic Development of 
the State of Alabama. Your support of this request will greatly benefit 
our state.
            Sincerely,
                                          Joseph F. Mathis,
                                                Executive Director.
                                 ______
                                 

                     Letter From Stanley D. Batemon

                               St. Clair County Commission,
                                  Ashville, Alabama, April 9, 2001.
Hon. Pete V. Domenici,
Senate Subcommittee on Appropriations for Energy and Water Development, 
        U.S. Senate Washington, DC.
    Dear Senator: This is to acknowledge support of continued funding 
for the Coosa-Alabama River Improvement Association, Inc. and their 
efforts to maintain the navigation channel in order to attract new 
river-using industry into the Alabama River basin.
    Your support of their efforts will be greatly appreciated.
            Yours truly,
                                        Stanley D. Batemon,
                                                          Chairman.
                                 ______
                                 

                      Letter From Jamie D. Wallace

               Selma and Dallas County Chamber of Commerce,
                                    Selma, Alabama, March 19, 2001.
Hon. Pete V. Domenici,
Senate Subcommittee on Appropriations for Energy and Water Development, 
        U.S. Senate Washington, DC.
    Dear Senator Domenici: Deep in Alabama there runs a river system 
that has the potential to be an economic catalyst for one of the 
poorest regions in the U.S., that is the Coosa-Alabama River System.
    Here in our area of Selma and Dallas County our concern is with the 
Historic Alabama River. Our unemployment currently fluctuates between 
9-12 percent. We leave no four-lane connector roads on which to ferry 
our products to market and we are deeply concerned about a river system 
that will not be able to carry barge traffic unless the integrity of a 
channel can be maintained. Currently funding is not adequate to do so.
    As a strong supporter of the Coosa-Alabama System for many years, 
the 148 year old Selma-Dallas County Chamber of Commerce encourages you 
and your committee to take a close look at the points being raised that 
are necessary to keep this river open for traffic. Currently tonnage is 
down, but in the South we say its like ``which came first the chicken 
or the egg.'' Without an adequate channel it is no reliable vehicle to 
transport goods.
    Thank you very much for your consideration and support.
            Sincerely,
                                          Jamie D. Wallace,
                                                         President.
                                 ______
                                 

                      Letter From J. Craig Stepan

                         Warrior & Gulf Navigation Company,
                                 Chickasaw, Alabama, April 9, 2001.
Hon. Pete V. Domenici,
Senate Subcommittee on Appropriations for Energy and Water Development, 
        U.S. Senate Washington DC.
    Dear Senator Domenici: I am J. Craig Stepan, General Manager of 
Warrior & Gulf Navigation Company. Our company is an active member of 
the Coosa-Alabama River Improvement Association. I wish to take this 
opportunity to solicit your support on behalf of the Association and 
the river system and enterprises it serves.
    Primarily, please support the Coosa-Alabama Association's funding 
request for fiscal year 2002. This funding is imperative to protect the 
Alabama River as a safe and efficient transportation waterway. Further, 
your additional support of a regional initiative to improve the 
waterway below Claiborne Dam and install a debris removal system at 
Miller's Ferry generating plant near Camden will also be appreciated.
    As you know, the states of Georgia and Alabama are working on a 
plan to equitably allocate the water resources common to the two 
states. It is important that this project move ahead without 
compromising the nine foot navigation channel on the Alabama River. 
Your efforts to secure that protection and to help Floyd County and the 
City of Rome, Georgia successfully modernize Mayo's Bar Lock and Dam 
would be appreciated.
    Our company and its 200+ employees respectfully request your 
support for these important projects, and we pledge our best efforts to 
provide reliable cost efficient transportation services to the Alabama 
business community.
            Very truly yours,
                                           J. Craig Stepan,
                                                   General Manager.
                                 ______
                                 

                     Letter From William M. Fricks

                                      Rome City Commission,
                                      Rome, Georgia, April 9, 2001.
Hon. Pete V. Domenici,
Senate Subcommittee on Appropriations for Energy and Water Development, 
        U.S. Senate Washington, DC.
    Dear Senator Domenici: As a member of the Coosa Alabama River 
Improvement Association, I am requesting that you please support the 
following:
  --The Coosa/Alabama River Improvement Association's funding request 
        for fiscal year 2002.
  --The regional's effort to improve and extend the Coosa-Alabama 
        waterway.
  --Improvements of the navigational reliability below Claiborne Dam.
  --Maintain and improve training works and dredging. Development of 
        commercial river transportation between Mobile and Montgomery 
        depends on these improvements.
  --Floyd County and the City of Rome Georgia's effort to modernize and 
        make operational Mayo's Bar Lock and Dam to allow recreational 
        boat traffic between Rome and Weiss Lake in Alabama.
  --The efforts of Alabama and Georgia to agree on a water allocation 
        formula between the two states, but not a formula that 
        negatively affects the ability of the Mobile District Corps of 
        Engineers to maintain a nine-foot navigation channel on the 
        Alabama River or that seriously impedes the state of Alabama in 
        developing its economic potential.
    You are aware, I am sure, that increased fees and taxes stifle 
waterway commercial development. Lowered freight rates provide a better 
export market, thus helping the trade business. Waterways provide 
efficient transportation that tends to lower inflation.
    Thank you very much for your consideration of this request.
            Sincerely,
                                         William M. Fricks,
                                                          Chairman.
                                 ______
                                 

   Prepared Statement of the Chambers County-Cedar Bayou Navigation 
                                District

    On behalf of the Chambers County-Cedar Bayou Navigation district 
and the users of the Cedar Bayou Channel, Texas, we extend gratitude to 
Chairman Domenici, and members of the subcommittee for the opportunity 
to submit testimony in support of the improvement project for the Cedar 
Bayou Channel, Texas.
    We express full support of the inclusion in the fiscal year 2002 
budget for:
    Pre-Construction Engineering and Design (O&M) For Cedar Bayou, 
Texas $750,000
                         history and background
    The River and Harbor Act of 1890 originally authorized navigation 
improvements to Cedar Bayou. The project was reauthorized in 1930 to 
provide a 10 feet deep and 100 feet wide channel from the Houston Ship 
Channel to a point on Cedar Bayou 11 miles above the mouth of the 
bayou. In 1931, a portion of the channel was constructed from the 
Houston Ship Channel to a point about 0.8 miles above the mouth of 
Cedar Bayou, approximately 3.5 miles in length. A study of the project 
in 1971 determined that an extension of the channel to project Mile 3 
would have a favorable benefit to cost ratio. This portion of the 
channel was realigned from Mile 0.1 to Mile 0.8 and extended from mile 
0.8 to Mile 3 in 1975. In October 1985, the portion of the original 
navigation project from project Mile 3 to 11 was deauthorized due to 
the lack of a local sponsor. In 1989, the Corps of Engineers, Galveston 
District completed a Reconnaissance Report dated June 1989, which 
recommended a 12 feet by 125 feet channel from the Houston Ship Channel 
Mile 3 to Cedar Bayou Mile 11 at the State Highway 146 Bridge. The 
Chambers County-Cedar Bayou Navigation District was created by the 
Texas Legislature in 1997 as an entity to improve the navigability of 
Cedar Bayou. The district was created to accomplish the purpose of 
Section 59, Article 2 XVI, of the Texas Constitution and has all the 
rights, powers, privileges and authority applicable to Districts 
created under Chapters 60, 62, and 63 of the Water Code--Public Entity. 
The Chambers County-Cedar Bayou Navigation District then became the 
local sponsor for the Cedar Bayou Channel.
                project description and reauthorization
    Cedar Bayou is a small coastal stream, which originates in Liberty 
County, Texas, and meanders through the urban area near the eastern 
portion of the City of Baytown, Texas, before entering Galveston Bay. 
The bayou forms the boundary between Harris County on the west and 
Chambers County on the east. The project was authorized in Section 349 
of the Water Resources Development Act 2000, which authorized a 
navigation improvement of 12 feet deep by 125 feet wide from mile 2.5 
to mile 11 on Cedar Bayou.
                   justification and industry support
    First and foremost, the channel must be improved for safety. The 
channel is the home to a busy barge industry. The most cost-efficient 
and safe method of conveyance is barge transportation. Water 
transportation offers considerable cost savings compared to other 
freight modes (rail is nearly twice as costly and truck nearly four 
times higher). In addition, the movement of cargo by barge is 
environmentally friendly. Barges have enormous carrying capacity while 
consuming less energy, due to the fact that a large number of barges 
can move together in a single tow, controlled by only one power unit. 
The result takes a significant number of trucks off of Texas highways. 
The reduction of air emissions by the movement of cargo on barges is a 
significant factor as communities struggle with compliance with the 
Clean Air Act.
    Several navigation-dependent industries and commercial enterprises 
have been established along the commercially navigable portions of 
Cedar Bayou. Several industries have docks on at the mile markers that 
would be affected by this much-needed improvement. These industries 
include: Reliant Energy, Bayer Corporation, Koppel Steel, CEMEX, US 
Filter Recovery Services and Dorsett Brothers Concrete, to name a few.
                       project costs and benefits
    The Corps of Engineers has indicated a benefit to cost ratio of the 
project of 2.8 to 1. The estimated total cost of the project is $16.8 M 
with a Federal share estimated at $11.9 M and the non-Federal sponsor 
share of approximately $4.9 M. Total annual benefits are estimated to 
be $4.8 M, with a net benefit of $3 M. This project is environmentally 
sound and economically justified. We would appreciate the 
subcommittee's support of the required $750,000 appropriation to 
complete the plans and specifications of the project so that it can 
move forward at an optimum construction schedule. The users of the 
channel deserve to have the benefits of a safer, most cost-effective 
Federal waterway.
                                 ______
                                 

               Prepared Statement of the City of Phoenix

    Dear Mr. Chairman and Members of the Subcommittee: On behalf of the 
City Council and the residents of Phoenix, the sixth largest city in 
the country, I would like to submit the following testimony for the 
record. I am pleased to present this testimony in support of 
appropriations to help our city and region continue to foster a 
partnership with the Federal government to achieve our shared 
objectives. We have been working with our delegation, this Committee, 
the Corps of Engineers, the Bureau of Reclamation, and other Federal 
agencies to promote environmental restoration and flood control needs 
in the most effective and economical way. We sincerely appreciate the 
past support of this Committee and trust we will continue our 
partnership to see several critical projects through to a successful 
conclusion.
    There are several initiatives under way which this Committee has 
supported in the past and have been included in the President's Budget. 
Continued support is essential to achieve the public benefits for which 
the projects are being designed.
                   rio salado and rio salao phase ii
    We have been working for nearly seven years with the Corps of 
Engineers in a cost-shared partnership to study a project to improve 
the water carrying capacity of the river and restore riparian habitat 
along the Salt River in downtown Phoenix and Tempe. The habitat was 
lost over many years as a result of diversion of Salt River flows for 
irrigation of the surrounding region.
    In cooperation, the Corps, the City of Tempe, and we have developed 
a cost-effective plan called Rio Salado to improve the low flow 
channel, restore about seven miles of the lost riparian wetlands and 
provide incidental recreational benefits. The plan has been approved by 
the Secretary of the Army and the Administration and was authorization 
in the 1999 Water Resources Development Act (WRDA). Last year, the 
House and Senate Appropriations Committees approved a credit agreement 
between the city and Corps, allowing us to proceed using local funding 
in anticipation of Federal funding. Later in the year, the Congress 
approved ``new start'' construction funding for the project as part of 
the fiscal year 2001 Energy and Water Development Appropriations bill.
    The Rio Salado project is the centerpiece of our efforts to 
revitalize the environment and the economy of a part of our city that 
has not enjoyed the fruits of progress as have other parts of the city. 
While we were delighted at receiving a $2 million new start designation 
in fiscal year 2001, for fiscal year 2002 we are seeking a 
substantially higher level of funding (a total of $30 million) to allow 
the project to remain on schedule for completion. We are eager to keep 
the $81 million dollar Phoenix portion of the Rio Salado project on its 
planned course of the three-year construction period at a 35 percent 
local, and 65 percent Federal cost.
    The Rio Salado Phase II portion (Rio Oeste) of this environmental 
restoration project was included in the Corps of Engineers 
Reconnaissance Study in 1996. The study led to a feasibility level 
report and authorization of the Rio Salado project, consisting of only 
a portion of the original reconnaissance level study area. We would 
like to move beyond the reconnaissance level for the Rio Oeste portion 
of the project. Rio Oeste would essentially be a continuation of the 
Rio Salado project and would connect the project west to our 91st 
Avenue Treatment Plant at the Tres Rios project (discussed below. We 
are seeking $600,000 for the Corps of Engineers Feasibility Study for 
Phase II (Rio Oeste). The Feasibility funding will be matched 50 
percent by the local sponsor. We strongly urge your support for this 
appropriation.
                               tres rios
    Ten years ago, the City of Phoenix and its partners undertook an 
effort to restore the natural environment of the area encompassing the 
Salt, Gila, and Agua Fria rivers now known as Tres Rios. The purpose of 
the project is to restore lost sonoran habitat in the arid southwest 
and to provide important flood protection and modest recreation 
opportunities for the community in an attempt to bring about economic 
revitalization to the area.
    This is a truly unique project the outcome of which holds promise 
to benefit the entire nation as well as the Phoenix region in 
particular. The Bureau of Reclamation has constructed a demonstration 
project that uses wastewater from the regional wastewater treatment 
plant to create wetlands near the discharge location. The Bureau's 
project is authorized under their general research and demonstration 
authorities under their Title XVI Water and Wastewater Reclamation and 
Reuse Program. We are seeking the $500,000 in the Bureau's budget to 
continue the Tres Rios research and demonstration project.
    In addition, we embarked on a cost-shared feasibility study with 
the Corps of Engineers to expand the project to create approximately 
800 acres of high quality wetlands along a 7 mile stretch of the Salt 
and Gila Rivers. The City and the Corps have worked with both the 
neighboring Gila River Indian River Community and the Holly Acres 
neighborhood throughout the planning process. The feasibility study is 
nearing completion and Congress provided an initial $50,000 in fiscal 
year 2000 and $500,000 in fiscal year 2001 to initiate planning, 
engineering and design. The City is asking for the continued support of 
Congress and the Administration in funding this valuable project in the 
fiscal year 2002 Corps budget at $2.5 million for preliminary 
engineering and design.
    The City is also requesting funding from the Bureau of Reclamation 
in the amount of $300,000 to allow the Bureau to begin studies on the 
Agua Fria River groundwater recharge project under the authority of 
section 1608 of the Bureau's Title XVI Reclamation and Reuse Program. 
This is an important element of the wastewater management strategy. It 
would reuse the water from the Tres Rios Project for groundwater 
recharge. It is important to have that portion of the study completed 
in about the same time frame as the rest of the study and design work 
to avoid losing the water coming from the wetlands restoration project.
                                summary
    All of these projects, the Rio Salado and Phase II of the Rio 
Salado project (Rio Oeste), Tres Rios, and the Gila River, will act in 
synergy to restore lost environmental quality and provide for creative 
management, conservation, and reuse of scarce water quantities in the 
Phoenix Metropolitan Area. We sincerely appreciate the opportunity to 
present this request and thank you very much for your support in the 
past. We would be pleased to provide any additional information you may 
need.
                                 ______
                                 

 Prepared Statement of the Confederated Tribes of the Umatilla Indian 
                              Reservation

    Mr. Chairman, on behalf of the Confederated Tribes of the Umatilla 
Indian Reservation, thank you for the opportunity to present the 
Confederated Tribes' request for appropriations in the fiscal year 2002 
budget for the U.S. Army Corps of Engineers. The Confederated Tribes of 
the Umatilla Indian Reservation (Confederated Tribes) respectfully 
request an appropriation of $1.2 million for the U.S. Army Corps of 
Engineers (Corps) for a crucial stream restoration project in the Walla 
Walla River Basin in Oregon and Washington.
    The U.S. Army Corps of Engineers, Walla Walla District, has been 
authorized under the Water Resources Development Act to conduct a 
Feasibility Study to restore instream flows to the Walla Walla River in 
Oregon and Washington. The Walla Walla River Basin is within the 
homeland of the Umatilla Tribes. Mill Creek, located in the basin, is 
where the Tribes' Treaty of 1855 was signed, which ceded to the United 
States 6.4 million acres of the Tribes' lands, but also reserved, among 
others, the Tribes' right to fish at all usual and accustomed areas.
    Historically, the Walla Walla River supported significant runs of 
spring chinook salmon and summer steelhead, as well as runs of fall 
chinook, chum and coho salmon. Those runs have been seriously impacted 
by dewatering of the mainstem Walla Walla River between June through 
October. The Tribes and the Oregon Department of Fish and Wildlife 
annually conduct a fish salvage operation just below the Nursery Bridge 
Dam in Milton-Freewater, Oregon, relocating stranded fish to other 
parts of the river system. Both Middle Columbia River summer steelhead 
and Columbia River Basin bull trout are listed species under the 
Endangered Species Act. As such, the Tribes consider the restoration of 
instrearn flows and the fisheries in the Walla Walla Basin a high 
priority.
    The Tribes have chosen to co-sponsor the Walla Walla Basin Project 
with the Corps. Together, we are in the process of finalizing the 
Project Study Plan, which will be used to direct the scope of the 
Feasibility Study. Both the Corps and the Tribes believe that the 
Feasibility Study is the first step in assuring a long-term solution to 
providing permanent instream flows that will benefit treaty resources 
and Indian and non-Indian fisheries, while enhancing flows for fish 
species protected under the Endangered Species Act and maintaining 
existing agricultural water uses.
    The Corps and the Tribes have targeted the end of May 2001 for 
signing the Project Management Plan and the end of June 2001 for 
signing the Feasibility Study Cost Agreement. As such, work on the 
Feasibility Study is expected to begin July 1, 2001, using existing 
fiscal year 2001 Corps Funds.
    In order to ensure the work on the Feasibility Study continues past 
October 2001, the Corps must have an appropriation for fiscal year 
2002. The Feasibility Study is expected to take 18-24 months to 
complete. However, without funding in fiscal year 2002, the work on the 
Feasibility Study would be unnecessarily delayed at least a year.
    The study will provide a complete analysis that evaluates the 
feasibility of comprehensive restoration of instream flows, key 
riparian habitat, addresses fish passage, and restoration of habitat 
for spring chinook, steelhead, bull trout and pacific lamprey in the 
Basin, while maintaining agricultural productivity in the Basin
    The Corps is authorized to conduct the Feasibility Study under the 
following project authorization: Reconnaissance Report for the Walla 
Walla River Watershed (1997) under General Investigation authorized in 
Senate Committee on Public Works July 27, 1962 (Columbia River and 
Tributaries).
    Currently, there are four alternatives being considered for study. 
The Corps will be writing an Environmental Impact Statement, under the 
requirements of the National Environmental Policy Act (NEPA), and as 
such, these alternatives may be modified or dismissed, and other 
alternatives added through the EIS process. The four alternatives for 
restoring instream flow, currently under consideration, are (1) 
Irrigation Ditch Efficiency, (2) Water Storage; (3) Water Exchange, and 
(4) Conservation through purchase of Water Rights
    Other actions, such as habitat enhancement and fish passage will be 
considered as part of the overall proposal.
    The Confederated Tribes will model its fisheries restoration off 
the successful Umatilla River Basin Project, which restored instream 
flows for the lifecycle of fish and agricultural needs. During 2000, 
Indian and non-Indian people shared in return runs of about 5,000 
reintroduced chinook salmon in the Umatilla River.
    Since the early 1990's, the Confederated Tribes began working to 
restore the Walla Walla River. To date, the Confederated Tribes have 
implemented approximately $10 million worth of restoration projects in 
the Walla Walla River Basin. The Walla Walla Basin Feasibility Study 
will provide feasibility analysis and planning necessary to restore 
essential instream flows for salmon, summer steelhead, bull trout and 
pacific lamprey to the Walla Walla River.
    The instream flow project would complement the millions of dollars 
worth of Confederated Tribes' sponsored habitat restoration, fish 
passage improvements, fish production and monitoring and evaluation 
projects in the Basin. The projects have been implemented in 
cooperation with Bonneville Power Administration, Oregon and Washington 
Department of Fish and Wildlife, Walla Walla and Columbia County, Walla 
Walla Irrigation District, Walla Walla Watershed Council, and the U.S. 
Army Corps of Engineers.
    Many benefits will be accrued by completing the Feasibility Study 
within 18 months. For agricultural interests, this means a long-term 
solution to relieve the impacts of agricultural water diversion that 
presently de-water the Walla Walla River and compete with ESA listed 
fish instream flow needs. The Study is the next step in a Corps project 
designed to provide a stable water source that restores instream flows 
for fish and agricultural needs in the Basin. Consistent funding for 
the U.S. Army Corps of Engineers to conduct the study will ensure that 
the project goes forward and these benefits are realized in a timely 
manner.
    Currently, the U.S. Fish and Wildlife Service (FWS) contends that 
water diversion by local irrigation districts de-water the Walla Walla 
River, causing take of ESA-protected bull trout. These irrigation 
districts are: Gardena Farms Irrigation District #13 of Touchet, 
Washington; Walla Walla Irrigation District of Milton-Freewater, 
Oregon;, and the Hudson Bay District Improvement Company, also of 
Milton-Freewater, Oregon.
    In June 2000, the Districts and the FWS reached a one year 
settlement agreement to forgo instituting formal civil ESA penalty 
proceedings against the Districts in exchange for interim District 
measures that include development of a long term basin wide 
conservation plan. The National Marine Fisheries Service plans similar 
enforcement for take of ESA-protected steelhead in the Walla Walla 
River.
    Choosing to step up to the plate rather than wait for an 
enforcement action, the Districts chose to commit to improving 
conditions for the endangered fish. For the year 2000, the settlement 
agreement included District commitments to monitoring flows, leaving 
enough water in the River for proper operation of the fish ladders, 
assisting the Confederated Tribes and Oregon Department of Fish and 
Wildlife salvage fish stranded due to irrigation diversions, and other 
measures beneficial to ESA listed fish. Pursuant to agreement 
requirements, the Districts cooperated with the implementation of the 
2000 and 2001 Confederated Tribes' Annual Operations Plan (AOP) that 
coordinates fisheries restoration projects for each year in the Walla 
Walla Basin. The settlement conditions are based on District 
commitments to cooperatively work with other entities in the Walla 
Walla Basin toward an instream flow conservation plan that protects 
bull trout, steelhead, and other species dependent on instream flows.
    After the 1997 Reconnaissance Report, the Corps set aside 
approximately $250,000-$275,000 to complete the Feasibility Study. They 
carried over that funding each year until a non-Federal sponsor was 
found. The Confederated Tribes and Corps began to negotiate the Project 
Management Plan in late 1999. At that time, the Corps estimated non-
Federal 50 percent cost share to be around $600,000 (with up to half of 
the non-Federal share, $300,000 required as cash, to the Corps). Since 
that time the Corps have diverted the set aside funding to other 
projects.
    In 2000, the Water Resources Development Act was amended to allow 
non-Federal partners to contribute all of their cost share requirements 
as in-kind services towards the Feasibility Study. As of March 20, 
2001, negotiations on the scope and budget have led to a desire to 
maintain a total project cost of approximately $4.4 million. Both the 
Confederated Tribes and the Corps would be responsible for 
approximately $2.2 million. The Confederated Tribes will contribute 
it's cost share entirely with in-kind services.
    The restoration of instream flows to the Walla Walla River benefits 
all the people of this Basin across Northeast Oregon and Southeast 
Washington. As a community, we see that restoration of instream flows 
to the Walla Walla River is good for us now, good for our children, and 
good for the region.
    The Confederated Tribes and the Walla Walla Basin community have 
worked together on many projects both in planning and implementation. 
The Confederated Tribes actively coordinates and works with many 
resource managers to implement a cohesive watershed restoration of the 
Basin, including, the Walla Walla Watershed Council, the WRIA 32, Walla 
Walla 2514 Watershed Planning Unit, the Northwest Power Planning 
Council, Umatilla and Walla Walla Conservation Districts, Hudson Bay 
Irrigation District, Gardena Farms Irrigation District #13, Walla Walla 
Irrigation District, Oregon Department of Fish and Wildlife, Washington 
Department of Fish and Wildlife, Oregon Department of Water Resources, 
Washington Department of Ecology, U.S. Fish and Wildlife Service,
    We view the success of the Confederated Tribes' Umatilla Basin 
Project (http://umatilla.nsn.us/basin.html) as a demonstration that 
there can be a win-win partnership for restoring instream flow for fish 
and agriculture.
    In anticipation of the benefits that the Confederated Tribes 
instream flow restoration project could bring to the Walla Walla Basin, 
``Senator Gordon Smith urged local farmers to work together with the 
CTUIR [Confederated Tribes] to find solutions on water issues.'' (East 
Oregonian, March 12, 2000). The Districts and the Confederated Tribes 
are demonstrating a commitment to work together to achieve long-term 
solutions for community needs in the Walla Walla Basin. We urge the 
U.S. Congress to support these solutions and continue to make the Walla 
Walla River Basin Restoration Project a priority project for the Basin.
    In summary, Mr. Chairman, without the requested appropriation, the 
Walla Walla Basin Feasibility Study will most likely be delayed at 
least until fiscal year 2003. The Subcommittee's assistance will 
prevent delay of long-term solutions for restoring instream flows to 
the Walla Walla River while protecting endangered fish, restoring 
salmon, improving water quality and protecting vital agricultural 
economies. Thank you for your attention to this matter.
                                 ______
                                 

      Prepared Statement of the Santa Clara Valley Water District

                        guadalupe river project
                                summary
    This statement urges the Committee's support for an Administration 
budget request of $4 million and an appropriation add-on of $8 million, 
for a total of $12 million to continue construction of the final phase 
of the Guadalupe River Flood Protection Project.
    Background.--The Guadalupe River is a major waterway flowing 
through a highly developed area of San Jose, in Santa Clara County, 
California. A major flood would damage homes and businesses in the 
heart of Silicon Valley. Historically, the river has flooded downtown 
San Jose and the community of Alviso. According to the U.S. Army Corps 
of Engineers (Corps) 2000 Final General Reevaluation & Environmental 
Report for Proposed Project Modifications, estimated damages from a 1 
percent flood in the urban center of San Jose are over $575 million. 
The Guadalupe River overflowed in February 1986, January 1995, and 
March 1995, damaging homes and businesses in the St. John and Pleasant 
Street areas of downtown San Jose. In March 1995, heavy rains resulted 
in breakouts along the river that flooded approximately 300 homes and 
business.
    Project Synopsis.--In 1971, the local community requested that the 
Corps reactivate its earlier study. Since 1972, substantial technical 
and financial assistance have been provided by the local community 
through the Santa Clara Valley Water District in an effort to 
accelerate the project's completion. To date, more than $85.8 million 
in local funds have been spent on planning, design, land purchases, and 
construction in the Corps' project reach.
    The Guadalupe River Project received authorization for construction 
under the Water Resources Development Act of 1986; the General Design 
Memorandum was completed in 1992, the local cooperative agreement was 
executed in March 1992, the General Design Memorandum was revised in 
1993, construction of the first phase of the project was completed in 
August 1994, construction of the second phase was completed in August 
1996. Project construction was temporarily halted due to environmental 
concerns.
    To achieve a successful, long-term resolution to the issues of 
flood protection, environmental mitigation, avoidance of environmental 
impacts, and project maintenance costs, a multi-agency ``Guadalupe 
Flood Control Project Collaborative'' was created in 1997. A key 
outcome of the collaborative process was the signing of the Dispute 
Resolution Memorandum in 1998, which resolved major mitigation issues 
and allowed the project to proceed. Completion of the last phase of 
flood protection construction is estimated in 2002 and is dependent on 
timely Federal funding and continuing successful mitigation issue 
resolution.
    Fiscal Year 2001 Funding.--$7 million was authorized in fiscal year 
2001 to continue Guadalupe River Project construction.
    Fiscal Year 2002 Funding Recommendation.--Based upon the need to 
continue construction to provide critical flood protection for downtown 
San Jose and the community of Alviso, it is requested that the 
Congressional Committee support an appropriation add-on of $8 million, 
in addition to the $4 million in the Administration's fiscal year 2002 
budget, for a total of $12 million to continue construction of the 
final phase of the Guadalupe River Flood Protection Project.
                     upper penitencia creek project
                                summary
    This statement urges the Committee's support for an Administration 
budget request of $300,000 and an appropriation add-on of $240,000, for 
a total of $540,000 to continue with the feasibility study for the 
Upper Penitencia Creek Flood Protection Project.
    Background.--The Upper Penitencia Creek Watershed is located in 
northeast Santa Clara County, California, near the southern end of the 
San Francisco Bay. In the last two decades, the creek has flooded in 
1980, 1982, 1983, 1986, 1995, and 1998. The January 1995 flood damaged 
a commercial nursery, a condominium complex, and a business park. The 
February 1998 flood also damaged many homes, businesses, and surface 
streets.
    The proposed project on Upper Penitencia Creek, from the Coyote 
Creek confluence to Dorel Drive, will protect portions of the cities of 
San Jose and Milpitas. The floodplain is completely urbanized; 
undeveloped land is limited to a few scattered agricultural parcels and 
a corridor along Upper Penitencia Creek. Based on the U.S. Army Corps 
of Engineers' (Corps) 1995 reconnaissance report, 4,300 buildings in 
the cities of San Jose and Milpitas are located in the flood prone 
area, 1,900 of which will have water entering the first floor. The 
estimated damages from a 1 percent or 100-year flood exceed $121 
million.
    Study Synopsis.--Under authority of the Watershed Protection and 
Flood Prevention Act (Public Law 83-566), the Natural Resources 
Conservation Service completed an economic feasibility study (watershed 
plan) for constructing flood damage reduction facilities on Upper 
Penitencia Creek. Following the 1990 U.S. Department of Agriculture 
Farm Bill, the Natural Resources Conservation Service watershed plan 
stalled due to the very high ratio of potential urban development flood 
damage compared to agricultural damage in the project area.
    In January 1993 the Santa Clara Valley Water District (District) 
requested the Corps proceed with a reconnaissance study in the 1994 
fiscal year while the Natural Resources Conservation Service plan was 
on hold. Funds were appropriated by Congress for fiscal year 1995 and 
the Corps started the reconnaissance study in October 1994. The 
reconnaissance report was completed in July 1995, with the 
recommendation to proceed with the feasibility study phase. The 
feasibility study, initiated in February 1998, is scheduled for 
completion in 2003.
    Advance Construction.--To accelerate project implementation, the 
District submitted a Section 104 application to the Corps for advance 
approval to construct a portion of the project. Approval of the Section 
104 application was awarded in December 2000. The advance construction 
is for a 2,500 foot long section of bypass channel between Coyote Creek 
and King Road. The District plans to begin construction on this portion 
of the project in 2002.
    Fiscal Year 2001 Funding.--$300,000 was authorized in fiscal year 
2001 for the Upper Penitencia Creek Flood Protection Project for 
project investigation.
    Fiscal Year 2002 Funding Recommendation.--Based upon the high risk 
of flood damage from Upper Penitencia Creek and the need to proceed 
with the feasibility study, it is requested that the Congressional 
Committee support an appropriation add-on of $240,000, in addition to 
the $300,000 in the Administration's fiscal year 2002 budget, for a 
total of $540,000 for the Upper Penitencia Creek Flood Protection 
Project.
                          llagas creek project
                                summary
    This statement urges the Committee's support for an Administration 
budget request of $250,000 and an appropriation add-on of $750,000, for 
a total of $1 million for planning and environmental updates for the 
Llagas Creek Flood Protection Project.
    Background.--The Llagas Creek Watershed is located in southern 
Santa Clara County, California, serving the communities of Gilroy, 
Morgan Hill and San Martin. Historically, Llagas Creek has flooded in 
1937, 1955, 1958, 1962, 1963, 1969, 1982, 1986, 1996, 1997, and 1998. 
The 1997 and 1998 floods damaged many homes, businesses, and a 
recreational vehicle park located in areas of Morgan Hill and San 
Martin. These are areas where flood protection is proposed. Overall, 
the proposed project will protect the floodplain from a 1 percent flood 
affecting more than 1,100 residential buildings, 500 commercial 
buildings, and 1,300 acres of agricultural land.
    Project Synopsis.--Under authority of the Watershed Protection and 
Flood Prevention Act (Public Law 566), the Natural Resources 
Conservation Service completed an economic feasibility study in 1982 
for constructing flood damage reduction facilities on Llagas Creek. The 
Natural Resources Conservation Service completed construction of the 
last segment of the channel for Lower Llagas Creek in 1994, providing 
protection to the project area in Gilroy. The U.S. Army Corps of 
Engineers (Corps) is currently updating the 1982 environmental 
assessment work and the engineering design for the project areas in 
Morgan Hill and San Martin. The engineering design is being updated to 
protect and improve creek water quality and to preserve and enhance the 
creek's habitat, fish, and wildlife while satisfying current 
environmental and regulatory requirement. Significant issues include 
the presence of additional endangered species including the red-legged 
frog and steelhead, listing of the area as probable critical habitat 
for steelhead, and more extensive riparian habitat than were considered 
in 1982.
    Until 1996, the Llagas Creek Project was funded through the 
traditional Public Law 566 Federal project funding agreement with the 
Natural Resources Conservation Service paying for channel improvements 
and the District paying local costs including utility relocation, 
bridge construction, and right of way acquisition. Due to the steady 
decrease in annual appropriations for the Public Law 566 construction 
program since 1990, the Llagas Creek Project has not received adequate 
funding from U.S. Department of Agriculture to complete the Public Law 
566 project. To remedy this situation, the District worked with 
congressional representatives to transfer the construction authority 
from the Department of Agriculture to the Corps under the Water 
Resources Development Act of 1999 (Section 501). An initial budget of 
$235,000 was appropriated and another $215,000 was reprogrammed for the 
Corps' planning and design.
    Fiscal Year 2001 Funding.--$700,000 was authorized in fiscal year 
2001 for the Llagas Creek Flood Protection Project for planning and 
design.
    Fiscal Year 2002 Funding Recommendation.--Based upon the high risk 
of flood damage from Llagas Creek, it is requested that the 
Congressional Committee support an appropriation add-on of $750,000, in 
addition to the $250,000 in the Administration's fiscal year 2002 
budget, for a total of $1 million for planning and environmental 
updates for the Llagas Creek Project.
     coyote/berryessa creek project berryessa creek project element
                                summary
    This statement urges the Committee's support for an Administration 
budget request of $600,000 and an appropriation add-on of $400,000, for 
a total of $1 million to continue with the General Reevaluation Report 
for the Berryessa Creek Flood Protection Project element of the Coyote/
Berryessa Creek Project.
    Background.--The Berryessa Creek Watershed is located in northeast 
Santa Clara County, California, near the southern end of the San 
Francisco Bay. A major tributary of Coyote Creek, Berryessa Creek 
drains a large area in the City of Milpitas and a portion of San Jose. 
The Berryessa Watershed is 22 square miles.
    On average, Berryessa Creek floods once every four years. The most 
recent flood in 1998 resulted in significant damage to homes and 
automobiles. The proposed project on Berryessa Creek, from Calaveras 
Boulevard to Old Piedmont Road, will protect portions of the Cities of 
San Jose and Milpitas. The flood plain is largely urbanized with a mix 
of residential and commercial development. Based on the U.S. Army Corps 
of Engineers (Corps) 1993 draft General Design Memorandum, a 1 percent 
or 100-year flood could potentially result in damages of $52 million 
with depths of up to three feet.
    Study Synopsis.--In January 1981, the Santa Clara Valley Water 
District (District) applied for Federal assistance for flood protection 
projects under Section 205 of the 1948 Flood Control Act. The Water 
Resources Development Act of 1990 authorized construction on the 
Berryessa Creek Flood Protection Project as part of a combined Coyote 
Creek/Berryessa Creek Project to protect portions of the Cities of 
Milpitas and San Jose.
    The Coyote Creek element of the project was completed in 1996. The 
Berryessa Creek Project element proposed in the Corps' 1987 feasibility 
report consisted primarily of a trapezoidal concrete lining. The Corps 
and the District are preparing a General Reevaluation Report which 
involves reformulating a project which is more acceptable to the local 
community and more environmentally sensitive. Project features will 
include setback levees and floodwalls to preserve sensitive areas 
(minimizing the use of concrete), appropriate aquatic and riparian 
habitat restoration and fish passage, and sediment control structures 
to limit turbidity and protect water quality. The project will also 
accommodate the City of Milpitas' adopted trail master plan. Estimated 
total costs of the General Reevaluation Report work are $3.6 million to 
be completed in 2003.
    Fiscal Year 2001 Funding.--$1 million was authorized in fiscal year 
2001 for the Coyote/Berryessa Creek Flood Protection Project to 
continue the General Reevaluation Report and environmental documents 
update.
    Fiscal Year 2002 Funding Recommendation.--Based on the continuing 
threat of significant flood damage from Berryessa Creek and the need to 
continue with the General Reevaluation Report, it is requested that the 
Congressional Committee support an appropriation add-on of $400,000, in 
addition to the $600,000 in the Administration's fiscal year 2002 
budget, for a total of $1 million for the Berryessa Creek Flood 
Protection Project element of the Coyote/Berryessa Creek Project.
                  coyote creek at rock springs project
                                summary
    This statement urges the Committee to support an earmark of 
$113,000 within the Section 205 Small Flood Protection Projects Program 
to continue the Coyote Creek at Rock Springs Feasibility Study.
    Background.--Coyote Creek flows through the cities of Milpitas and 
San Jose. The Rock Springs neighborhood is upstream of the recently 
completed, Federally-supported flood protection works on Coyote Creek. 
The neighborhood suffered severe damages to approximately 25 apartment 
buildings in January 1997 when Coyote Creek flooded in the vicinity of 
the Rock Springs neighborhood. This event was estimated to be a 15-year 
event. The neighborhood was almost flooded again in February 1998, when 
Coyote Creek in the vicinity of the neighborhood was within a foot of 
overtopping its banks.
    Status.--In February 1999, the Santa Clara Valley Water District 
(District) initiated discussions with U.S. Army Corps of Engineers 
(Corps) for a Section 205 study to reduce flood damage in Rock Springs 
neighborhood. A cost-sharing agreement for the Section 205 Small 
Projects Program $1.16 million three-year feasibility study was signed 
by the Corps and the District on January 4, 2000. Funding is a 50/50 
cost share. Preliminary alternatives consist of a levee or floodwall.
Project Timeline
  --District requested Federal assistance from Corps under Section 
        205--Feb 1999
  --Feasibility cost sharing agreement signed--Jan 2000
  --Public Workshop--Feb 2000
  --Draft Feasibility Report/Environmental Impact Statement (EIS)--Nov 
        2001
  --Final Detailed Project Report/EIS--Mar 2002
    Fiscal Year 2001 Funding.--$203,000 was earmarked in the fiscal 
year 2001 Section 205 appropriation.
    Fiscal Year 2002 Funding Recommendation.--Based upon the need to 
continue the feasibility study to provide critical flood protection for 
the Rock Springs Neighborhood, it is requested that the Congressional 
Committee support an earmark of $113,000 within the Section 205 Small 
Flood Protection Projects Program.
                san francisquito creek watershed project
                                summary
    This statement urges the Committee's support for an appropriation 
add-on of $100,000 to conduct a Reconnaissance Study of the San 
Francisquito Creek Watershed.
    Background.--San Francisquito Creek forms the boundary between 
Santa Clara and San Mateo counties, California and separates the cities 
of Palo Alto from East Palo Alto and Menlo Park. San Francisquito Creek 
is one of the last continuous riparian corridors on the San Francisco 
Peninsula and home to one of the last remaining viable steelhead trout 
runs. The creek flows through five cities and two counties, from 
Searsville Lake above Stanford University to the San Francisco Bay near 
Palo Alto Airport. It is a highly valued resource by these communities. 
Area between El Camino Real and the bay is subject to flooding during a 
1 percent flood and has a flooding frequency of approximately once in 
15 years. Over $155 million in damages could occur in Santa Clara and 
San Mateo counties from a 1 percent flood, affecting 4,850 home and 
businesses, according to the 1998 Reconnaissance Investigation Report 
done by San Francisquito Creek Coordinated Resource Management and 
Planning Organization, a local stakeholder group.
    Flooding History.--Overflowed seven times since 1910 with record 
flooding in February 1998. Flooded significant areas of Palo Alto in 
December 1955, inundating about 1,200 acres of commercial and 
residential property and about 70 acres of agricultural land. April 
1958 storms caused a levee failure downstream of Highway 101, flooding 
Palo Alto Airport, the city landfill, and the golf course up to four 
feet deep. Overflowed in 1982 near Alpine Road, at University Avenue, 
and downstream of Highway 101, causing extensive damage to private and 
public property. Overflowed at numerous locations on February 3, 1998, 
causing severe, record consequences with more than $28 million in 
damages, based on a March 1999 U.S. Army Corps of Engineers (Corps) 
Survey Report. More than 1,100 homes were flooded in Palo Alto, 500 
people were evacuated in East Palo Alto, and the major commute and 
transportation artery, Highway 101, was closed.
    Status.--Active citizenry anxious to avoid a repeat of February 
1998 flood. Since 1955, numerous floodplain management studies have 
been commissioned by the Corps, the Santa Clara Valley Water District 
(District), Stanford University, and the San Mateo County Flood Control 
District. Grassroots, consensus-based Coordinated Resource Management 
and Planning Organization has productively united local and state 
agencies with citizens, flood victims, developers, and environmental 
activists. The cities of Palo Alto, East Palo Alto, Menlo Park, San 
Mateo County and the District have established a Joint Powers Authority 
to coordinate creek maintenance issues, to develop a solution to 
flooding and to address other creek-related issues. The Joint Powers 
Authority Board has initiated Congressional involvement to authorize a 
Corps reconnaissance study. Should Federal interest be demonstrated by 
the reconnaissance study, the next step would be a cost-shared 
feasibility study. The feasibility study would require six to seven 
years work and cost $5-6 million. Study elements will include an 
investigation to define flooding, erosion and other stream needs within 
the project area; an analysis of alternative solutions; a public 
participation program followed by preparation of an Engineer's Report; 
and an Environmental Impact Report. Flood protection alternatives for 
the San Francisquito Creek project might include raising the levees 
downstream of Highway 101, storage of flows upstream, channel 
diversions such as detention basins or auxiliary channels, or instream 
improvements that increase the capacity of the channel through the 
urban area. The feasibility study would also include a ``no project'' 
alternative. The riparian habitat and urban setting offer unique 
opportunities for a multiobjective project which could enhance habitat, 
improve water quality, and provide for recreational use.
    Fiscal Year 2001 Funding.--No Federal funding was requested in 
fiscal year 2001.
    Fiscal Year 2002 Funding Recommendation.--It is requested that the 
Congressional Committee support an appropriation add-on of $100,000 to 
conduct a Reconnaissance Study of the San Francisquito Creek Watershed.
                      pajaro river watershed study
                                summary
    This statement urges the Committee's support for an Administration 
budget request of $50,000 for the Pajaro River Watershed Study. It is 
also urged that the Committee support an Administration budget request 
of $750,000 to continue the General Reevaluation Report of the 
completed U.S. Army Corps of Engineers Pajaro River Project in the City 
of Watsonville.
    Background.--Pajaro River flows into the Pacific Ocean at Monterey 
Bay, about 75 miles south of San Francisco. The drainage area 
encompasses 1,300 square miles in Santa Clara, San Benito, Monterey, 
and Santa Cruz counties. Potential flood damage reduction solutions 
will require cooperation between four counties and four water/flood 
management districts. There is critical habitat for endangered wildlife 
and fisheries throughout the basin. Six separate flood events have 
occurred on the Pajaro River in the past half century. Severe property 
damage in Monterey and Santa Cruz counties resulted from floods in 
1995, 1997, and 1998. Recent flood events have resulted in litigation 
claims for damages approaching $50 million. $20 Million in U.S. Army 
Corps of Engineers (Corps) flood fight funds have been expended in 
recent years.
    Status.--Two separate Corps activities are taking place in the 
watershed. The first activity is a Corps reconnaissance study 
authorized by a House Resolution in May 1996 to address the need for 
flood protection and water quality improvements, ecosystem restoration, 
and other related issues. The second activity is a General Revaluation 
Report initiated in response to claims by Santa Cruz and Monterey 
Counties that the 13 mile levee project constructed in 1949 through 
agricultural areas and the city of Watsonville is deficient. The 
reconnaissance study on the entire watershed has been initiated by the 
San Francisco District of the Corps and will be complete in May 2001. 
Watershed Stakeholders are working cooperatively to support the Corps' 
reconnaissance study, which will provide information to help reach an 
understanding and agreement about the background and facts of the 
watershed situation.
    Local Flood Prevention Authority.--Legislation passed by the State 
of California (Assembly Bill 807) in 1999 titled ``The Pajaro River 
Watershed Flood Prevention Authority Act'' mandated that a Flood 
Prevention Authority be formed by June 30, 2000. The purpose of the 
Flood Prevention Authority is ``to provide the leadership necessary to 
. . . ensure the human, economic, and environmental resources of the 
watershed are preserved, protected, and enhanced in terms of watershed 
management and flood protection.'' The Flood Prevention Authority was 
formed in July 2000 and consists of representatives from the Counties 
of Monterey, San Benito, Santa Clara, and Santa Cruz, Zone 7 Flood 
Control District, Monterey County Water Resources Agency, San Benito 
County Water District, and the Santa Clara Valley Water District. At 
this time, the Flood Prevention Authority is in the initial stages of 
formulation. The Flood Prevention Authority would be the logical local 
sponsor should the Corps reconnaissance study result in a 
recommendation for a cost-shared feasibility study.
    Fiscal Year 2001 Funding.--$50,000 was authorized in fiscal year 
2001 for the Pajaro Watershed Reconnaissance Study. In addition, $1.2 
million was authorized for continuation of the General Revaluation 
Report.
    Fiscal Year 2002 Funding Recommendation.--It is requested that the 
Congressional Committee support the Administration's fiscal year 2002 
budget of $50,000 for the Pajaro River Watershed Study. It is also 
requested that the committee support $750,000 for continuation of the 
General Revaluation Report.
                      coyote creek watershed study
                                summary
    This statement urges the Committee's support for an appropriation 
add-on of $100,000 to initiate a Reconnaissance Study of the Coyote 
Creek Watershed.
    Background.--Coyote Creek drains Santa Clara County's largest 
watershed, an area of more than 320 square miles encompassing most of 
the eastern foothills, the City of Milpitas, and portions of the Cities 
of San Jose and Morgan Hill. It flows northward from Anderson Reservoir 
through more than 40 miles of rural and heavily urbanized areas and 
empties into south San Francisco Bay.
    Prior to construction of Coyote and Anderson Reservoirs, flooding 
occurred in 1903, 1906, 1909, 1911, 1917, 1922, 1923, 1926, 1927, 1930 
and 1931. Since 1950, the operation of the reservoirs has reduced the 
magnitude of flooding, although flooding is still a threat and did 
cause damages in 1982, 1983, 1986, 1995, and 1997. Significant areas of 
older homes in downtown San Jose and some major transportation 
corridors remain susceptible to extensive flooding. The Federally 
supported lower Coyote Creek Project (San Francisco Bay to Montague 
Expressway) which was completed in 1996 did protect homes and 
businesses from storms which generated of record runoff in the northern 
parts of San Jose and Milpitas.
    The proposed Reconnaissance Study would evaluate the reaches 
upstream of the completed Federal flood protection works on lower 
Coyote Creek.
    Objective of Study.--The objectives of the Reconnaissance Study are 
to investigate flood damages within the Coyote Creek Watershed; to 
identify potential alternatives for alleviating those damages which 
also minimize impacts on fishery and wildlife resources, provide 
opportunities for ecosystem restoration, provide for recreational 
opportunities; and to determine whether there is a Federal interest to 
proceed into the Feasibility Study Phase.
    Study Authorization.--The existing study authority is the 1941 
Guadalupe River and Adjacent Streams authorization. This authorization 
is limited in scope to flood protection issues only. Congressional 
representatives are currently pursuing an updated study resolution to 
authorize a multipurpose study of the watershed.
    Fiscal Year 2002 Funding Recommendation.--It is requested that the 
Congressional Committee support an appropriation add-on of $100,000 to 
initiate a multipurpose Reconnaissance Study within the Coyote Creek 
Watershed.
           santa clara basin watershed management initiative
                                summary
    This statement urges the Committee to support an earmark of 
$240,000 within the Section 206 Aquatic Ecosystem Restoration Program 
to cost-share Santa Clara Basin Watershed Management Initiative work.
    Background.--The Santa Clara Basin Watershed Management Initiative 
(Initiative) was spearheaded in 1996 by the U.S. Environmental 
Protection Agency, the State Water Resources Control Board, and the San 
Francisco Bay Regional Water Quality Control Board for the purpose of 
establishing a practical management process to oversee the effort to 
balance natural systems with urban development in the Santa Clara 
Basin. Recognizing the importance of quality of life and diversity, the 
Initiative's goal is to establish an on-going process of managing 
activities and natural processes to maximize benefits and minimize 
adverse environmental impacts for the benefit of the community as a 
whole. The Santa Clara Basin watershed includes areas in northern Santa 
Clara County which drain into San Francisco Bay, and portions of 
Alameda and San Mateo counties.
    The Initiative addresses the integration of activities within the 
watershed while focusing on water quality protection. Some of the 
specific issues being addressed include land use and development, water 
supply, flood management, environmental restoration, and the regulatory 
process.
    The Santa Clara Valley Water District (District) is one of many 
stakeholders who continue to demonstrate commitment to this multi-year 
effort by providing funds and actively participating with the 
Initiative Core and Working Groups. Providing direction, the Core Group 
includes representatives of the business community, local government, 
environmental groups, agriculture, resource and regulatory agencies, 
and other interested stakeholders.
    The multi-year planning phase began in 1998 and will result in the 
development of four major reports focused on the effective management 
of resources to improve and protect water quality and the aquatic 
habitat of the Santa Clara Basin. The first of the four reports was the 
Watershed Characteristics Report, which provided a description of the 
physical and political characteristics of the Santa Clara Basin. This 
report will be followed by the Watershed Assessment Report, a 
preliminary assessment of the watershed's condition based on available 
data. The Watershed Characteristics Report was completed in April 2000. 
The Watershed Assessment Report is scheduled to be completed in 
December 2001. In the mean time, several important technical memos were 
generated through the stakeholder work process, which allowed the 
Initiative to move forward with the planning and development of the 
Watershed Action Plan, which is scheduled to be completed in December 
2002. The Watershed Action Plan is the final product of this consensus-
based stakeholder process. This will be a comprehensive plan, 
incorporating stakeholder input and extensive public outreach, and is 
intended to guide watershed activities as the Initiative moves into its 
implementation phase.
    Section 503(d)(9) of the Water Resources Development Act of 1996, 
authorizes the U.S. Army Corps of Engineers (Corps) to provide 
technical and planning assistance in the development of a watershed 
plan for the Santa Clara Valley. The Initiative has progressed to the 
point where the Corps' participation is now necessary for continuing 
the watershed assessment and addressing pressing regulatory issues. Due 
to inadequate funding of the Section 503 program in recent years, the 
District requested the Corps to be included in the Section 206 Aquatic 
Ecosystem Restoration Program in fiscal year 2001 and received an 
appropriation.
    Fiscal Year 2001 Funding.--$100,000 was authorized in fiscal year 
2001 to initiate an ecosystem restoration report to address aquatic 
restoration including control of non-native weeds in the Santa Clara 
Basin.
    Fiscal Year 2002 Funding Recommendation.--In order to continue the 
Initiative's progress to date, it is requested that the Congressional 
Committee support an earmark of $240,000 in the Section 206 Aquatic 
Ecosystem Restoration Program to cost-share Initiative work and the 
development and implementation of the Watershed Action Plan.
  san francisco bay shoreline project (silicon valley tidal flooding 
                              protection)
                                summary
    This statement urges the Committee's support for an appropriation 
add-on of $100,000 to conduct a Reconnaissance Investigation to 
reassess the Federal interest in the protection of the San Francisco 
Bay Shoreline due to a change in circumstances that may affect the 
Federal interest.
    Background.--After much effort from local agencies and legislators, 
Congress authorized a tidal flooding study for the Silicon Valley Tidal 
Flooding Project in its passage of Public Law 94-587, the Water 
Resources Development Act of 1976. The Santa Clara Valley Water 
District is one of the project sponsors.
    Santa Clara County was originally included in the first phase of 
the study, which proposed that facilities in Santa Clara County protect 
portions of the cities of Palo Alto, Sunnyvale, and San Jose. In 1990, 
the U.S. Army Corps of Engineers (Corps) concluded that the potential 
incidence of levee failure in the project area was low and suspended 
the project until adequate economic benefits can be proven under 
Federal criteria. However, the Santa Clara Valley Water District is 
concerned that the continued maintenance of historical non-Federal 
levees may not be able to continue at the same level due to restricted 
funding and regulatory issues. Additionally, the potential of tidal 
flooding in Santa Clara County has been aggravated by a significant 
land subsidence of as much as 6 feet near Alviso. And when high tides 
coincide with wind generated waves, levee overtopping occurs.
    Project Synopsis.--In 1984, the Corps' study identified $15 million 
to $20 million needed in flood control construction in three areas: 
Palo Alto, Sunnyvale, and Alviso. The Corps determined the most likely 
mode of tidal flooding was overtopping, not erosion or levee failure. 
The Corps attributed significantly fewer potential benefits in making 
levee improvements because existing non-Federal and non-engineered 
levees have historically withstood overtopping without stability or 
erosion failures. The Santa Clara Valley Water District's belief is 
that the low incidence of levee failure is due to luck and diligent 
private and public maintenance programs--programs that may not continue 
under the present regulatory environment and restricted funding. The 
trend toward tougher regulatory controls restricts levee maintenance, 
potentially making it economically unfeasible to continue historic 
levels of maintenance activities. In addition, the potential sale of 
over 13,000 acres of shoreline salt producing ponds may result in a 
change in maintenance practices. Lower maintenance levels will leave 
these levees and surrounding communities vulnerable to significant 
damages.
    The project was temporarily suspended by the Corps until evidence 
of adequate economic benefits under Federal criteria is provided. Corps 
staff in Washington D.C. have attempted unsuccessfully to resolve the 
differences in their standards for freeboard and stability of levees 
with the Federal Emergency Management Agency. Similar levee failures 
and floods in California's Central Valley in the winter of 1997 
heightened concern regarding the integrity and protection provided by 
Bay Area levees. Agreeing with the increased concern, the Corps 
recognized the potential Federal interest and requested reconnaissance 
funding to reopen the study in fiscal year 1998 and fiscal year 1999. 
No funds were included in the final congressional authorization.
    Fiscal Year 2001 Funding.--No Federal appropriation was authorized 
in fiscal year 2001 for the San Francisco Bay Shoreline Project.
    Fiscal Year 2002 Funding Request.--It is requested that the 
Congressional Committee support an appropriation add-on of $100,000 for 
the San Francisco Bay Shoreline Study to conduct a Reconnaissance 
Investigation.
                        calfed bay-delta program
                                summary
    This statement urges the Committee's support for an Administration 
budget request of $20 million and an appropriation add-on of $40 
million, for a total of $60 million for the CALFED Bay-Delta Program. 
It also urges the Committee's support for the CALFED authorization 
legislation now being developed in Congress to implement the CALFED 
program and to resolve California's water supply problems.
    Background.--In an average year, half of Santa Clara County's water 
supply is imported from the San Francisco Bay/Sacramento-San Joaquin 
Delta estuary (Bay-Delta) watersheds through three water projects: The 
State Water Project, the Federal Central Valley Project, and San 
Francisco's Hetch Hetchy Project. In conjunction with locally-developed 
water, this water supply supports 1.7 million residents in Santa Clara 
County and the most important high-tech center in the world. In average 
to wet years, there is enough water to meet the county's long-term 
needs. In dry years, however, the county could face a water supply 
shortage of as much as 100,000 acre-feet per year, or roughly 20 
percent of the expected demand. In addition to shortages due to 
hydrologic variations, the county's imported supplies have been reduced 
due to regulatory restrictions placed on the operation of the state and 
Federal water projects.
    There are also water quality problems associated with using Bay-
Delta water as a drinking water supply. Organic materials and 
pollutants discharged into the Delta, together with salt water mixing 
in from San Francisco Bay, have the potential to create disinfection-
by-products that are carcinogenic and pose reproductive health 
concerns.
    Santa Clara County's imported supplies are also vulnerable to 
extended outages due to catastrophic failures such as major earthquakes 
and flooding. As demonstrated by the 1997 flooding in Central Valley, 
the levee systems can fail and the water quality at the water project 
intakes in the Delta can be degraded to such an extent that the 
projects cannot pump from the Delta.
    Project Synopsis.--The CALFED Bay-Delta Program is an 
unprecedented, cooperative effort among Federal, state, and local 
agencies to restore the Bay-Delta. With input from urban, agricultural, 
environmental, fishing, and business interests, and the general public, 
CALFED is developing a comprehensive, long-term plan to address 
ecosystem and water management issues in the Bay-Delta.
    Restoring the Bay-Delta ecosystem is important not only because of 
its significance as an environmental resource, but also because failing 
to do so will stall efforts to improve water supply reliability and 
water quality for millions of Californians and the state's $700 billion 
economy and job base.
    The June 2000 Framework for Action and the August 2000 Record of 
Decision/Certification contain a balanced package of actions to restore 
ecosystem health, improve water supply reliability and water quality. 
It is critical that Federal funding be provided to implement these 
actions in the coming years.
    Fiscal Year 2001 Funding.--No funding was authorized for CALFED 
Bay-Delta ecosystem restoration and non-ecosystem improvements in the 
final fiscal year 2001 appropriations legislation.
    Fiscal Year 2002 Funding Recommendation.--It is requested that the 
Committee support an appropriation add-on of $40 million, in addition 
to the $20 million included in the Administration's fiscal year 2002 
Budget, for a total of $60 million for the CALFED Program. It is also 
requested that the Committee support the CALFED authorization 
legislation now being developed in Congress to implement the CALFED 
program and to resolve California's water supply problems.
  central valley project: operations and maintenance of san luis unit 
                          joint use facilities
                                summary
    This statement urges the Committee's support for an Administration 
budget request of $5.5 million to continue operations and maintenance 
of the San Luis Unit Joint Use Facilities.
    Background.--The San Luis Unit of the Central Valley Project is 
located by the city of Los Banos on the west side of the San Joaquin 
Valley. This unit originates from San Luis Reservoir and extends 102 
miles south, spanning Fresno, Kings, and Merced counties. The San Luis 
Unit is an integral part of the Central Valley Project, delivering 
water and power supplies from the American, Shasta and Trinity rivers 
to users located in the service area.
    Specific facilities of the San Luis Unit are owned, operated, and 
maintained jointly with the state of California. These Joint Use 
Facilities consist of O'Neill Dam and Forebay, San Luis Dam and 
Reservoir, San Luis Pumping-Generating Plant, Dos Amigos Pumping Plant, 
Los Banos and Little Panoche reservoirs, and the San Luis Canal. These 
facilities are essential to the State Water Project's ability to serve 
numerous agricultural, municipal, and industrial water users in the San 
Joaquin Valley and Southern California. Funding for the Joint Use 
Facilities are divided to 55 percent state and 45 percent Federal, 
under provisions of Federal-State Contract No. 14-06-200-9755, December 
31, 1961.
    Within the Central Valley Project, the Joint Use Facilities of the 
San Luis Unit are an important link to the San Felipe Division, which 
serves as the largest source of water imported into the Santa Clara 
Valley Water District (District) and the San Benito County Water 
District. All of the Central Valley Project water delivered through the 
San Felipe Division must be pumped through O'Neill Dam and Forebay and 
San Luis Dam and Reservoir.
    Project Synopsis.--Annual invoices from the state of California for 
the Federal share of operation and maintenance costs average 
approximately $10 million. For several years, Federal funding was 
inadequate to cover the pro-rated Federal share of Joint Use Facility 
costs. The District intervened by using the contributed Funds Act to 
direct a $20 million advance payment of its Central Valley Project 
capital costs toward an operations and maintenance payment.
    As a contractor of both the Central Valley Project and the State 
Water Project, the District hopes to expediently resolve the issue of 
unreimbursed operations and maintenance expenses. These expenses are 
carried by the state without interest, seriously impairing the cash 
flow and financial management of the State Water Project.
    In fiscal year 1998, an agreement was reached between the U.S. 
Bureau of Reclamation and project contractors to provide direct funding 
for project conveyance and pumping facilities, reducing annual 
appropriations from approximately $10 million to $3.5 million.
    Fiscal Year 2001 Funding.--$4.551 million was authorized in fiscal 
year 2001 for operations and maintenance of the San Luis Joint Use 
Facilities.
    Fiscal Year 2002 Funding Recommendation.--It is requested that the 
Congressional Committee support the $5.5 million in the 
Administration's fiscal year 2002 budget to continue operations and 
maintenance of the San Luis Unit Joint Use Facilities.
  san jose area water reclamation and reuse program (south bay water 
                           recycling program)
                                summary
    This statement urges the Committee's support for an Administration 
budget request of $2.5 million and an appropriation add-on of $7.5 
million, for a total of $10 million to fund the program's phase 2 study 
and work.
    Background. The San Jose Area Water Reclamation and Reuse Program, 
also known as the South Bay Water Recycling Program, will allow the 
City of San Jose and its tributary agencies of the San Jose/Santa Clara 
Water Pollution Control Plant to protect endangered species habitat, 
meet receiving water quality standards, supplement Santa Clara County 
water supplies, and comply with a mandate from the U.S. Environmental 
Protection Agency and the California Water Resources Control Board to 
reduce wastewater discharges into San Francisco Bay.
    The Santa Clara Valley Water District (District) collaborated with 
the City of San Jose to build the first phase of the recycled water 
system by providing financial support and technical assistance, as well 
as coordination with local water retailers. The design, construction, 
construction administration, and inspection of the program's 
transmission pipeline and Milpitas IA Pipeline was performed by the 
District under contract to the City of San Jose.
    Status.--The City of San Jose is the program sponsor for Phase 1, 
consisting of almost 60 miles of transmission and distribution 
pipelines, pump stations, and reservoirs. Completed at a cost of $140 
million, Phase 1 began partial operation in October 1997. Peak 
operation occurred in August 2000 with actual deliveries of 10 million 
gallons per day of recycled water. The system now serves over 300 
customers and delivers over 6,000 acre-feet of recycled water per year.
    Phase 2 planning is now underway. A study, to be completed in 2001 
at a cost of approximately $3.5 million, will provide a master plan for 
the years 2010 and 2020. Phase 2's near-term objective is to increase 
deliveries by the year 2010 to 15,000 acre-feet per year.
    Funding.--In 1992, Public Law 102-575 authorized the Bureau of 
Reclamation to work with the City of San Jose and the District to plan, 
design, and build demonstration and permanent facilities for reclaiming 
and reusing water in the San Jose metropolitan service area. The City 
of San Jose reached an agreement with the Bureau of Reclamation to 
cover 25 percent of Phase 1's costs, or approximately $35 million; 
however, Federal appropriations have not reached the authorized amount. 
To date, the program has received $19 million of the $35 million 
authorization.
    Fiscal Year 2001 Funding.--$3.5 million was authorized in fiscal 
year 2001 for project construction.
    Fiscal Year 2002 Funding Recommendation.--It is requested that the 
Congressional Committee support an appropriation add-on of $7.5 
million, in addition to the $2.5 million in the Administration's fiscal 
year 2002 budget, for a total of $10 million to fund the Phase 2 study 
and work.
                                 ______
                                 

              Prepared Statement of the State of Illinois

    The State of Illinois supports the following projects in the 
Administration's fiscal year 2002 budget proposal:

SURVEYS:
    Alexander and Pulaski Counties............................  $130,000
    Des Plaines River (Phase II)..............................   400,000
    Illinois River Ecosystem Restoration......................   825,000
    Kankakee River............................................   177,000
    Peoria Riverfront Development.............................   311,000
    Rock River................................................   300,000
    Upper Mississippi & Illinois Navigation Study............. 3,724,000
    Upper Mississippi System Flow Frequency Study............. 1,200,000
PRECONSTRUCTION ENGINEERING & DESIGN:
    Peoria Riverfront Development.............................   415,000
    St. Louis Harbor..........................................   284,000
    Waukegan Harbor...........................................   160,000
    Wood River Levee..........................................   341,000
CONSTRUCTION:
    Chain of Rocks Canal...................................... 3,617,000
    Chicago Shoreline.........................................24,000,000
    East St. Louis Rehabilitation............................. 1,000,000
    Loves Park................................................ 1,600,000
    McCook & Thornton Reservoirs..............................10,000,000
    Melvin Price Lock & Dam...................................   500,000
    Mississippi River Major Rehab:
        Lock & Dam 12......................................... 4,906,000
        Lock & Dam 24......................................... 8,038,000
    Olmsted Lock & Dam........................................34,000,000
    Upper Mississippi River EMP...............................21,000,000
                       operation and maintenance
    Illinois supports the Corps' budget for continued satisfactory 
maintenance and operation of navigation, flood control and multipurpose 
projects, as well as adequate manpower for public service activities 
related to the water resources in and bordering the state. Although, 
the administration's budget request contains nearly $120 million for 
operation and maintenance for the Corps Districts in Illinois, the 
Districts anticipate a flat level of funding over the next five years. 
With inflation, their operations and maintenance activities will be 
reduced by 15 percent or more. There are concerns that significant cuts 
to operations and maintenance can severely impact the Corps' future 
viability and commitment to maintain the inland waterway system, water 
supply and recreational reservoirs, and to perform harbor maintenance. 
As an example, there is a need for an additional $4.0 million to 
satisfy dredging needs and the backlog of maintenance for the Illinois 
River Waterway. Backlog of maintenance items for the Mississippi River 
in Rock Island and St. Louis Corps Districts is an additional $17.0 
million.
                     additional funding priorities
    The State of Illinois recommends that additional funding be 
provided for the following projects in the fiscal year 2002 Corps of 
Engineers' budget:
Illinois River Basin Restoration
    Section 519 of Water Resources Development Act of 2000 authorized 
the Illinois River Basin Restoration Program, known as Illinois River 
2020, to address the serious threats to the Illinois River and its 55 
county watershed. Authorized funding for this program totals $100 
million. It is a voluntary, incentive-based public-private partnership 
that utilizes existing Federal programs to restore and preserve the 
Illinois River and its tributaries. Currently, no funding is included 
in the fiscal year 2002 budget for this program. To initiate the 
program in fiscal year 2002, Illinois requests $21,250,000 in the Corps 
of Engineers' budget as the first part of a 3-year appropriation 
totaling $100 million.
Chicagoland Underflow Plan
    McCook and Thornton Reservoirs--The 1988 Water Resources 
Development Act authorized the construction of McCook and Thornton 
reservoirs as components of the Chicagoland Underflow Plan for flood 
control. The completion of these projects, with their related 
improvements to water quality, will have a significant impact on 
reducing the amount of Lake Michigan diversion water required for 
dilution purposes. The reduction in dilution water will improve 
Illinois' ability to meet the limits of Lake Michigan diversions and 
provide for future water supply needs. While $10.0 million is in this 
year's budget request, we are requesting an additional $22 million in 
the fiscal year 2002 budget to continue this work at its optimum level 
of funding.
The Chicago River Lock Rehabilitation
    The Chicago River Lock Rehabilitation is an important project for 
the State of Illinois. It will reduce leakage of Lake Michigan water 
into the Chicago Sanitary and Ship Canal and thus will reduce Illinois' 
Lake Michigan diversion. Reducing leakage at the Chicago River Lock is 
specifically mentioned in the list of activities in the 1996 Memorandum 
of Understanding that Illinois, the other Great Lakes states and the 
U.S. Department of Justice signed to resolve the dispute over Illinois' 
alleged over diversion of Lake Michigan water. As part of the move to 
lakefront diversion accounting, improved control of Lake Michigan water 
used at the Chicago River Lock is essential. This project is also 
needed to ensure the safe operation of the lock itself. This lock is 
the second busiest lock in the country, and while almost all of the 
traffic is recreational, its value and importance to Chicago and the 
state is enormous. Currently, no funding is included in the fiscal year 
2002 budget for this purpose. To initiate the rehabilitation of the 
lock in fiscal year 2002, Illinois requests $4.0 million, which would 
primarily be used to fund the fabrication of two new gates for the west 
end of the lock.
Chicago Shoreline
    Currently, the fiscal year 2002 budget contains $24 million for 
this project. There is a need for an additional $2,000,000 of 
construction general funds to allow the Corps to advance this crucial 
erosion control project into Lake Michigan Shoreline Reach 5.
Chicago Sanitary & Ship Canal Dispersal Barrier
    Section 1202 of the National Invasive Species Act of 1996 
authorized the Corps to study, design and construct a barrier in the 
Chicago Sanitary and Ship Canal to prevent the exchange of nuisance 
species between the Great Lakes and the Mississippi/Illinois River 
systems. The Corps is authorized to expend up to $750,000/year to 
conduct the study. The fiscal year 2001 appropriation of $400,000 
provided construction general funds to advance and complete the 
construction of the project. For fiscal year 2002, Illinois requests 
that $150,000 be appropriated for monitoring the Invasive Species 
Barrier. Currently, no funding is included in the fiscal year 2002 
budget for this purpose.
Des Plaines River--Phase One
    Section 101(b-10) of the Water Resources Development Act of 1999 
authorized Phase I of the Upper Des Plaines River Flood Control Project 
at a total cost of $49 million for the implementation of the six 
recommended projects. The Federal share is approximately $31.8 million 
(65 percent) and the estimated non-Federal cost is $17.1 million. The 
fiscal year 2001 appropriation bill provided $400,000 to start 
preconstruction engineering and design for Phase I of the project. 
Illinois requests $4.4 million for a Phase I construction start in 
fiscal year 2002. Currently, the fiscal year 2002 budget contains no 
funding for this purpose.
Des Plaines River Feasibility Study--Phase Two
    Inasmuch as Phase I of the Upper Des Plaines River Flood Control 
Project will only reduce flood damages by approximately 25 percent, an 
expansion of the Phase I Upper Des Plaines River study was authorized 
in Section 419 of the Water Resources Development Act of 1999. The 
projected $18,000,000 average annual damages, which will remain in the 
tributary floodplains of the Des Plaines River after the completion of 
Phase I project construction, is the basis for the expanded study of 
Phase II. State funds have already been appropriated for cost sharing 
in the Phase II study effort. Federal funding is needed to continue 
cost sharing (50/50) with non-Federal entities in studying additional 
alternatives to reduce expected damages from future floods. The Federal 
fiscal year 2001 appropriation bill provided $750,000 to start the 
Phase II study effort. Currently, the fiscal year 2002 budget contains 
$400,000 to continue the Phase II study effort. Illinois requests an 
additional $450,000 of general investigation funds for the continuation 
of Phase II of the Upper Des Plaines River feasibility study.
Chain of Rocks Canal Levee
    The levee lying along the east bank of the Chain of Rocks Canal has 
documented design deficiencies, which must be corrected in order to 
adequately protect the thousands of residents living behind it. 
Currently, the fiscal year 2002 budget includes $3,617,000 for this 
purpose. We are requesting additional funding of $500,000 of 
construction general funds to advance the construction of the remedial 
work.
Carlyle Lake Conveyance Analysis
    The State of Illinois is concerned about the surface drainage flow 
levels, channel depths, sedimentation trends and their effects on the 
Kaskaskia River from Vandalia, Illinois to Carlyle Lake and the 
surrounding vicinity. Therefore, for fiscal year 2002, we are 
requesting that $475,000 be provided in the Corps of Engineers general 
investigation funding to initiate the conveyance analyses. Currently, 
the fiscal year 2002 budget contains no funding for this purpose.
East ST. Louis & Vicinity (Ecosystem Restoration & Flood Damage 
        Protection)
    In fiscal year 2001, the Corps of Engineers, St. Louis District, 
will complete a re-evaluation study of the project for flood protection 
at East St. Louis and Vicinity, Illinois (East Side Levee and Sanitary 
District), authorized by Section 204 of the Flood Control Act of 27 
October 1965 (Public Law 89-298) The project is focusing on the 
continued problem of flooding within the American Bottoms area. The 
Water Resources Development Act of 2000 modified Section 204 of the 
Flood Control Act of 1965, to make ecosystem restoration a project 
purpose. Accordingly, ecosystem restoration will be included with the 
flood control project. Illinois requests an appropriation of $700,000 
for the Corps of Engineers to initiate the Pre-Engineering and Design 
of the East St. Louis and Vicinity Project. Currently, the fiscal year 
2002 budget contains no funding for this purpose.
Melvin Price Lock and Dam
    Illinois also urges that the Corps support the continuation of the 
recreational features of the Melvin Price Lock and Dam with an 
additional $600,000 appropriation in fiscal year 2002. The additional 
funding is needed to initiate the contract award for the recreational 
facilities and to continue with the visitor center exhibits. Currently, 
the fiscal year 2002 budget contains only $500,000 for this purpose.
Sections 204, 206, & 1135 Enhancement Projects
    Section 204 and 1135 programs offer a wide range of opportunities 
to address fish and wildlife habitat needs which exist due to past 
Corps projects and ongoing ecosystem and dredging activities. The 
Section 206 program provides a proactive tool for Federal participation 
in aquatic ecosystem restoration initiatives where the need for the 
aquatic restoration activity does not have to directly relate to a 
prior Corps sponsored project. The State of Illinois strongly urges 
full funding of these continuing authorities.
Upper Mississippi River Environmental Management Plan
    Section 509 of the Water Resources Development Act of 1999 re-
authorized the Upper Mississippi River System Environmental Management 
Program (EMP) in response to the need for restoring habitat and 
improving the scientific understanding of the river system. While $21.0 
million is in this year's budget request, we believe this program 
should be pursued at the re-authorized level of $33.17 million as 
described in Section 509 of the Water Resources Development Act of 
1999.
Upper Mississippi and Illinois Rivers Levees and Streambanks Protection 
        Study
    Section 458 of the Water Resources Development Act of 1999 
authorized the Upper Mississippi and Illinois Rivers levees and 
streambanks protection study in response to erosion damages to levees 
and other flood control structures on these rivers. We request $250,000 
for the initiation of the Upper Mississippi and Illinois Rivers levees 
and streambanks protection study in fiscal year 2002. The funding will 
expedite impact studies of navigation traffic on deterioration of the 
levees and other flood control structures. Currently, the fiscal year 
2002 budget contains no funding for this purpose.
Illinois River Dredged Disposal Sites
    Section 102 (g) of the Water Resources Development Act of 1992 
directed the Secretary to acquire dredged material disposal areas for 
the inland navigation project on the Illinois River, at a total Federal 
cost not to exceed $7,000,000. For fiscal year 2002, we request 
$1,100,000 of construction general funds to continue acquisition and/or 
construction of these sites.
Upper Mississippi River Comprehensive Plan
    Section 459 of the Water Resources Development Act of 1999 
authorized the Upper Mississippi River Comprehensive Plan for the Corps 
to develop a three-year study to address water resource and related 
land resource problems and opportunities in the Upper Mississippi and 
Illinois River Basins. We request $2,000,000 for the initiation of the 
Upper Mississippi Comprehensive Plan. Currently, the fiscal year 2002 
budget contains no funding for this purpose.
East Cape Girardeau & Clear Creek Drainage & Levee District
    The Flood Control Act of June 1936 authorized the raising and 
enlargement of 10.9 miles of levee, construction of gravity drains, 
closure structures, and seepage control measures in the East Cape 
Girardeau and Clear Creek Drainage & Levee District. The project was 
completed except for seepage control measures. Recently, the Clear 
Creek Drainage and Levee District along with the Preston and Miller 
Pond Drainage and Levee Districts have requested the St. Louis District 
Corps to reevaluate the modifications for the interior flooding problem 
and recommend rehabilitation for the deteriorating hardware of the 
existing levee. A House Resolution that was adopted in May of 1997 is 
the authorization vehicle for the Office of the Chief of Engineers to 
restart the project. However, funds have to be made available for the 
Corps to initiate the process. Illinois requests an appropriation of 
$100,000 for the Corps of Engineers to restart the East Cape Girardeau 
and Clear Creek Flood Control Project. Currently, the fiscal year 2002 
budget contains no funding for this purpose.
                                 ______
                                 

         Prepared Statement of the California Reclamation Board

    The Reclamation Board is the State agency that furnishes required 
nonfederal assurances for a majority of the Federal flood control 
projects in California's Central Valley. The Reclamation Board has been 
cooperating with the US Army Corps of Engineers in providing flood 
damage reduction projects since 1917.
    The Reclamation Board in general supports the President's fiscal 
year 2002 budget for the Corps of Engineers for their flood control 
activities in the Central Valley. The Board recommends modification to 
the Corps budget as shown below:

--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                                                               Board
                                                                             Estimated      Actual cost   Allocation for    President's     recommends
                                                                           project costs   thru 9/30/00     fiscal year    budget fiscal    fiscal year
                                                                                                               2001          year 2002         2002
--------------------------------------------------------------------------------------------------------------------------------------------------------
Bay-Delta Ecosystem Restoration (CALFED--    Corps......................  ..............  ..............  ..............  ..............      $1,350,000
 Staffing and Regulatory).
 
       GENERAL INVESTIGATION--SURVEYS
 
Lower Sacramento River Riparian              Corps......................      $1,970,000        $842,000        $180,000        $100,000        $200,000
 Revegetation (Solano, Yolo).
                                             NonFed.....................       1,350,000
                                                                         ----------------
                                             Total......................       3,320,000
                                                                         ================
Dry Creek (Middletown).....................  Corps......................         400,000         122,000          25,000         150,000         253,000
                                             NonFed.....................         300,000
                                                                         ----------------
                                             Total......................         700,000
                                                                         ================
Middle Creek...............................  Corps......................       1,971,000         904,000         381,500               0         350,000
                                             NonFed.....................       1,285,500
                                                                         ----------------
                                             Total......................       3,256,500
                                                                         ================
San Joaquin River Basin Corral Hollow Creek  Corps......................       1,100,000          63,000          49,000               0         140,000
                                             NonFed.....................       1,000,000
                                                                         ----------------
                                             Total......................       2,100,000
                                                                         ================
San Joaquin River Basin Tuolumne River and   Corps......................       1,600,000         100,000          25,000         200,000         250,000
 Tributaries.
                                             NonFed.....................       1,500,000
                                                                         ----------------
                                             Total......................       3,100,000
                                                                         ================
San Joaquin River Basin West Stanislaus      Corps......................         847,000         480,000         207,000         160,000         250,000
 County.
                                             NonFed.....................         750,000
                                                                         ----------------
                                             Total......................       1,597,000
                                                                         ================
San Joaquin River Basin, Frazier Creek.....  Corps......................       1,600,000          50,000          50,000          25,000         100,000
                                             NonFed.....................       1,500,000
                                                                         ----------------
                                             Total......................       3,100,000
                                                                         ================
 
   PRECONSTRUCTION ENGINEERING AND DESIGN
 
San Joaquin River Basin Stockton             Corps......................         700,000               0               0         100,000         130,000
 Metropolitan Area.
                                             NonFed.....................         233,000
                                                                         ----------------
                                             Total......................         933,000
                                                                         ================
Stockton Metropolitan Area (Farmington Dam)  Corps......................         750,000               0               0         200,000         300,000
                                             NonFed.....................         250,000
                                                                         ----------------
                                             Total......................       1,000,000
                                                                         ================
San Joaquin River Basin West Stanislaus      Corps......................         750,000               0               0               0          50,000
 County.
                                             NonFed.....................         250,000
                                                                         ----------------
                                             Total......................       1,000,000
Middle Creek...............................  Corps......................         750,000               0               0         300,000         400,000
                                             NonFed.....................         250,000
                                                                         ----------------
                                             Total......................       1,000,000
                                                                         ================
American River Watershed...................  Corps......................      28,600,000      19,186,000       2,464,000       2,000,000       3,000,000
                                             NonFed.....................               0
                                                                         ----------------
                                             Total......................      28,600,000
                                                                         ================
Strong & Chicken Ranch Sloughs (Sacramento)  Corps......................         250,000               0               0               0         125,000
                                             NonFed.....................         750,000
                                                                         ----------------
                                             Total......................       1,000,000
                                                                         ================
 
           CONSTRUCTION--GENERAL
 
Sacramento River Bank Protection...........  Corps......................     179,900,000     110,411,000       4,200,000       2,326,000       5,000,000
                                             NonFed.....................      69,500,000
                                                                         ----------------
                                             Total......................     249,400,000
                                                                         ================
American River Watershed (Levee              Corps......................      87,000,000      27,888,000      10,400,000      13,000,000      15,000,000
 Improvements on American and Sacramento
 Rivers).
                                             NonFed.....................      28,600,000
                                                                         ----------------
                                             Total......................     115,600,000
                                                                         ================
American River Watershed (Natomas)           Corps......................      26,089,000      16,860,000               0               0       5,000,000
 (Reimbursement).
                                             NonFed.....................      12,591,000
                                                                         ----------------
                                             Total......................      38,680,000
                                                                         ================
American River Watershed (Folsom Dam         Corps......................      97,500,000       2,400,000       3,360,000       4,500,000       8,000,000
 Modifications).
                                             NonFed.....................      52,500,000
                                                                         ----------------
                                             Total......................     150,000,000
                                                                         ================
South Sacramento County Streams (New         Corps......................      41,200,000               0               0               0      10,000,000
 Construction Start).
                                             NonFed.....................      24,300,000
                                                                         ----------------
                                             Total......................      65,500,000
                                                                         ================
San Joaquin River Basin--Stockton            Corps......................      35,700,000               0       3,360,000       1,000,000      10,000,000
 Metropolitan Area (Section 211
 Reimbursement).
                                             NonFed.....................      12,000,000
                                                                         ----------------
                                             Total......................      47,700,000
                                                                         ================
Kaweah River (Tulare)......................  Corps......................      23,500,000       4,146,000       2,520,000       3,000,000       9,000,000
                                             NonFed.....................      16,986,000
                                                                         ----------------
                                             Total......................      40,486,000
                                                                         ================
       CONTINUING AUTHORITY PROGRAMS
 
Flood Control Act of 1948, Section 205,      ...........................  ..............  ..............  ..............      30,000,000      50,000,000
 Flood Damage Prevention.
Water Resources Dev. Act, 1996, Section      ...........................  ..............  ..............  ..............      15,000,000         ( \1\ )
 206, Aquatic Ecosystem Restoration.
Program Water Resources Dev. Act, 1986,      ...........................  ..............  ..............  ..............      21,000,000      50,000,000
 Section 1135, Project Modification for
 Improvement of the Environment Program..
 
         OPERATIONS AND MAINTENANCE
 
Inspection of Completed Works Chico Landing  ...........................  ..............  ..............  ..............  ..............         100,000
 to Red Bluff.
 
                NEW PROJECTS
 
Hamilton City Levee Modification and         ...........................  ..............  ..............  ..............  ..............         300,000
 Ecosystem Restoration (Comprehensive
 Study) (PED).
West Bear Creek Floodplain Storage Project   ...........................  ..............  ..............  ..............  ..............         300,000
 (Comprehensive Study) (PED).
San Joaquin River South Delta Flood          ...........................  ..............  ..............  ..............  ..............         400,000
 Conveyance Improvement and Habitat
 Restoration Program (Comprehensive Study)
 (FEAS).
Yolo Bypass Flood Conveyance and Habitat     ...........................  ..............  ..............  ..............  ..............         500,000
 Restoration Program (Comprehensive Study)
 (FEAS).
San Joaquin River Public Lands Floodplain    ...........................  ..............  ..............  ..............  ..............         300,000
 Storage and Ecosystem Restoration
 (Comprehensive Study) (FEAS).
Upper San Joaquin River Flood Conveyance     ...........................  ..............  ..............  ..............  ..............         300,000
 Improvement and Habitat Restoration
 Program Comprehensive Study) (FEAS).
Woodson Bridge Ecosystem Restoration         ...........................  ..............  ..............  ..............  ..............       2,000,000
 (Comprehensive Study Section 1135).
Beneficial Reuse of Dredged Materials        ...........................  ..............  ..............  ..............  ..............       3,900,000
 Project (Section 204).
Delta Levee Rehabilitation and Ecosystem     ...........................  ..............  ..............  ..............  ..............       4,875,000
 Restoration Project (Section 1135).
Pacific Flyway Center--Yolo Bypass (Section  ...........................  ..............  ..............  ..............  ..............         180,000
 1135).
--------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ Support Program.

                                 ______
                                 

 Prepared Statement of the Columbia River Inter-Tribal Fish Commission

    Thank you for the opportunity to submit testimony on behalf of the 
members of this Commission regarding the fiscal year 2002 budget of the 
Army Corps of Engineers (Corps) and the Bureau of Reclamation. For the 
Columbia River Fish Mitigation Project (CRFMP), a series of separate 
construction activities at the Federal Columbia River Power System 
(FCRPS), the tribes recommend a funding level of $91 million for fiscal 
year 2002. In addition to CRFMP funding, $1.2 million should be 
provided so that the Corps can continue the Walla Walla River 
Feasibility Study, in Washington and Oregon. You should examine the 
relationship between the capital construction budget and the Corps' 
operations and maintenance budget. Shortfalls in the operations and 
maintenance budget are jeopardizing the ability to maintain dam fish 
passage facilities. The Corps should have the flexibility to transfer, 
with regional approval, capital construction funds to the O & M 
category. Further, the capital construction budget should be modified 
to include all Corps dams on the Columbia and Snake River that impact 
anadromous fish passage. Currently the budget is limited to run-of-
river dams. We also ask that you give the Corps' sufficient 
authorization to undertake necessary construction and/or reconstruction 
of salmon production facilities, such as the Mitchell Act facilities, 
in the Columbia River basin so as to ensure in-place/in-kind mitigation 
for salmon losses caused by the hydroelectric power system. The Corps 
should be prohibited from using limited capital construction funds, 
sorely needed for dam passage improvements, for estuary research. 
Instead, under WRDA, provide the Lower Columbia River Estuary Program 
and the Tillamook Estuary Program with $7,377,405 for the coming fiscal 
year for estuary programs. Finally, the Corps should undertake a 
system-wide review of Columbia Basin flood control as required under 
the Biological Opinion issued by the National Marine Fisheries Service. 
The Bureau of Reclamation should be provided with $5 million to 
undertake a fast-track feasibility study and to initiate construction 
of fish passage facilities during reconstruction of the irrigation dam 
on Keecheelus Reservoir in the Yakima River basin in Washington. In 
addition, provide sufficient funding to the Bureau of Reclamation to 
undertake work to provide fish passage at Wallowa Lake Dam, as well as 
fish production facilities to mitigate for the loss of past natural 
production caused by the construction of the dam.
    Mission Statement.--The Columbia River Inter-Tribal Fish Commission 
(CRITFC) was formed by resolution of the Nez Perce, Umatilla, Warm 
Springs and Yakama Tribes for the purpose of coordinating fishery 
management policy and providing technical expertise essential for the 
protection of the tribes' treaty-protected fish resources. The CRITFC's 
primary mission is to provide coordination and technical assistance to 
the member tribes to ensure that outstanding treaty fishing rights 
issues are resolved in a way that guarantees the continuation and 
restoration of our tribal fisheries into perpetuity. The tribes' Wy-
Kan-Ish-Mi Wa-Kish-Wit (Spirit of the Salmon), is a framework plan for 
Columbia Basin salmon restoration that documents threats to fisheries, 
identifies hypotheses based upon adaptive management principles for 
addressing these threats, and provides specific recommendations and 
practices that must be adopted by natural resource managers to meet 
their treaty obligations and restore the resource. The tribes' plan 
calls for significantly increasing the survival of salmon during their 
juvenile and adult migrations through the FCRPS.
    Walla Walla River Feasibility Study, in Washington and Oregon.--The 
tribes believe that $1.2 million should be provided so that the Corps 
of Engineers can continue the Walla Walla River Feasibility Study, in 
Washington and Oregon. The Corps is authorized under the Water 
Resources Development Act to conduct a Feasibility Study to restore 
instream flows to the Walla Walla River. The Walla Walla River 
supported significant runs of spring chinook salmon and summer 
steelhead, as well as runs of fall chinook, chum and coho salmon. 
Dewatering of the mainstem Walla Walla River between June and October 
has seriously impacted those runs. Both Middle Columbia River summer 
steelhead and Columbia River Basin bull trout are listed species under 
the Endangered Species Act. The tribes consider restoration of instream 
flows and the fisheries in the Walla Walla Basin a high priority. The 
Confederated Tribes of the Umatilla Indian Reservation co-sponsor the 
Walla Walla Basin Project with the Corps. The Feasibility Study is the 
first step in assuring permanent instream flows that will benefit 
Indian and non-Indian fisheries, while enhancing flows for fish species 
protected under the Endangered Species Act and maintaining existing 
agricultural water uses.
    Keecheelus Reservoir in the Yakima River basin.--Provide the Bureau 
of Reclamation with $5 million to undertake a fast-track feasibility 
study and to initiate construction of fish passage facilities during 
reconstruction of the irrigation dam on Keecheelus Reservoir in the 
Yakima River basin in Washington. The irrigation dam was constructed 
early in the last century without fish passage facilities. The 
structure, now of extremely limited usefulness for irrigation in its 
current state, must be rebuilt for safety reasons; the structure should 
be upgraded at the same time to provide passage for juvenile and adult 
salmon, as well as for bull trout. The area above the dam would provide 
habitat for stocks of steelhead, sockeye, spring Chinook and bull 
trout.
    Wallowa Lake Dam fish passage and mitigation.--Sufficient funding 
should also be provided to the Bureau of Reclamation to undertake work 
to provide fish passage at Wallowa Lake Dam, as well as fish production 
facilities to mitigate for the loss of past natural production caused 
by the construction of the dam. The Nez Perce Tribe can provide 
additional information on this project to the Committee.
    Lower Columbia River Estuary Program and the Tillamook Estuary 
Program.--The Water Resources Development Act of 2000 authorized 
$30,000,000 for the U.S. Army Corps of Engineers to implement the Lower 
Columbia River Estuary Program and the Tillamook Estuary Program. The 
Commission now supports a request for $7,377,405 for 2002 
appropriations. This funding is critical to achieving the habitat 
restoration goals of the two programs. In addition, the Commission 
supports Senate Bill 835, which last year provided for re-authorization 
of the National Estuary Program.
    Corps' CRFM Project Proposal Undermines Long Term Goals and 
Objectives.--The Corps' proposed fiscal year 2002 capital construction 
budget prioritizes projects on a path that runs counter to undertaking 
critical projects that are necessary to meet recovery goals and 
performance standards. The fiscal year 2002 Corps' capital construction 
budget should ascribe to the following tribal priorities:
  --Meet juvenile passage performance standards of 80 percent fish 
        passage efficiency and 95 percent survival per project by 2001 
        and to reduce adult salmon delays and interdam mortality by 50 
        percent by 2001.
  --Meet adult passage; spill efficiency and meeting dissolved gas and 
        temperature water quality standards. The Corps fails to 
        allocate adequate funds to these critical mainstem passage 
        measures. We ask that the Congress direct the Corps to conform 
        to these standards.
    Capital Construction Priorities.--For the CRFMP, the tribes 
prioritize spending for fiscal year 2002 as follows: $24 million for 
surface flow bypass measures at Bonneville, The Dalles, John Day, and 
Lower Granite Dams; $34.4 million on necessary adult passage measures 
(including temperature control and high head passage); $15.7 million 
for stilling basins and spillway deflectors as dissolved gas abatement 
measures; and, $16.9 million for optimization of turbine efficiencies, 
juvenile and adult passage monitoring, Dworshak Dam structural changes 
to promote temperature control, water quality and spill efficiency 
monitoring. These actions are geared towards meeting the tribal 
objectives of achieving 80 percent juvenile fish passage efficiency, 95 
percent juvenile survival per project, and a 50 percent reduction in 
adult mortality by 2001. These actions represent major steps in 
bringing the FCRPS into compliance with Clean Water Act standards for 
temperature and dissolved gas.
    Specific Project Concerns with the Corps' Fiscal Year 2002 Capital 
Construction Budget.--Two major areas in that budget are representative 
of seriously misplaced capital construction priorities:
  --$44.2 million for fish guidance projects, including Bonneville 
        Powerhouse 1 Juvenile Bypass Outfall ($36 million), Bonneville 
        Screen Bypass Modifications ($4.8), and John Day Screen 
        Modifications ($3.4). These projects represent 38.1 percent of 
        the Corps' proposed budget for fiscal year 2002. These systems 
        rely on mechanically guiding fish away from turbines and 
        dewatering the remaining flow so that the juvenile salmon can 
        be transported by pipe systems as long as 2 miles to deposit 
        the juvenile in areas deemed safe from predation. Recent 
        studies indicate smolt-to-adult returns are much greater for 
        juveniles that pass the dams via spill instead of via turbines 
        and screen bypass systems.
  --$10.3 million for non-supported studies. Several studies proposed 
        by the Corps do not have the support of the regional salmon 
        managers. These studies include work in the estuary and on 
        delayed mortality of fish held in saltwater tanks at Bonneville 
        dam. Other studies include mortality of fish passing through 
        turbines. Much of this work is long term and has questionable 
        methods that will not address key questions the region has 
        agreed require additional study. These studies will not aid the 
        regional managers in making informed decisions.
    In addition, the Corps' proposed budget has not been expanded to 
include other important projects that can have a positive impact on 
salmon recovery. High head dam passage studies can be used to access 
previously blocked habitat for salmon. There are no projects to 
investigate and construct modifications to hydropower projects that 
would allow them to operate in a manner that can aid in temperature 
controls, such as deep-water selective withdrawals, nor are there 
projects on long-term gas abatement solutions that would allow 
hydropower projects to better meet the Clean Water Act and improve 
downstream passage for juveniles.
    Operational and Maintenance (O&M) Budget Issues.--Currently the 
Corp of Engineers allocates approximately $22.5 million for maintenance 
of its projects in the Columbia Basin. This allocation does not provide 
the funding necessary to maintain many of the key components of these 
projects. For example, at Dworshak Dam cool water releases are altered 
to insure they do not affect the downstream hatchery. Minor 
modifications, at a cost of approximately $1.5 million, would allow the 
region to use these cool water releases from Dworshak Dam in the most 
efficient manner. Erosion in the Lower Monumental Dam spillway and in 
the stilling basin is severe enough to impact the spill program called 
for in the Biological Opinion. However, there are no funds in the O & M 
budget to make the necessary repairs that would eliminate this problem. 
The Corps could reallocate funds from the capital construction budget 
to address such critical maintenance issues, based upon the consensus 
of the regional fish managers. The Corps requires your direction to 
make this effective use of available funding possible.
    In conclusion, the tribes are advising a course of action and a 
level of funding for salmon recovery projects designed to allow salmon 
to migrate in rivers in the most natural way possible within the 
current hydropower system configuration. This philosophy moves away 
from the current dependence on mechanical bypass systems and manual 
transportation of salmon. The tribes' approach promotes a more a 
normative approach to salmon management and helps to achieve a ``spread 
the risk'' policy in order to minimize the negative impacts for salmon 
migrants. Please contact us if you have any questions; we can provide 
additional information at your request.
                                 ______
                                 

          Prepared Statement of the Seminole Tribe of Florida

    The Seminole Tribe of Florida is pleased to submit this statement 
regarding the fiscal year 2002 budget for the Army Corps of Engineers 
(COE). The Tribe asks that Congress provide $20 million in the COE's 
construction budget for critical projects in the South Florida 
Ecosystem, as authorized in section 208 of the Water Resources 
Development Act (WRDA) of 1999. On January 7, 2000, the Tribe and the 
COE signed a Project Coordination Agreement for the Big Cypress 
Reservation's critical project. The Tribe's critical project includes a 
complex water conservation plan and a canal that transverses the 
Reservation. In signing this Agreement, the Tribe, as the local 
sponsor, committed to funding half of the cost of this approximately 
$44 million project. Design and planning efforts continue, and the 
first phase of construction is expected to commence this summer.
    The Tribe's critical project is a part of the Tribe's Everglades 
Restoration Initiative, which includes the design and construction of a 
comprehensive water conservation system. This project is designed to 
improve the water quality and natural hydropatterns in the Big Cypress 
Basin. This project will contribute to the overall success of both the 
Federal and the state governments' multi-agency effort to preserve and 
restore the delicate ecosystem of the Florida Everglades. In 
recognition of this contribution, the Seminole Tribe's Restoration 
Initiative has been endorsed by the South Florida Ecosystem Restoration 
Task Force.
                     the seminole tribe of florida
    The Seminole Tribe lives in the Florida Everglades. The Big Cypress 
Reservation is located in the western basins, directly north of the Big 
Cypress National Preserve. The Everglades provide many Seminole Tribal 
members with their livelihood. Our traditional Seminole cultural, 
religious, and recreational activities, as well as commercial 
endeavors, are dependent on a healthy Everglades ecosystem. In fact, 
the Tribe's identity is so closely linked to the land that Tribal 
members believe that if the land dies, so will the Tribe.
    During the Seminole Wars of the 19th Century, our Tribe found 
protection in the hostile Everglades. But for this harsh environment 
filled with sawgrass and alligators, the Seminole Tribe of Florida 
would not exist today. Once in the Everglades, we learned how to use 
the natural system for support without harm to the environment that 
sustained us. For example, our native dwelling, the chickee, is made of 
cypress logs and palmetto fronds and protects its inhabitants from the 
sun and rain, while allowing maximum circulation for cooling. When a 
chickee has outlived its useful life, the cypress and palmetto return 
to the earth to nourish the soil.
    In response to social challenges within the Tribe, we looked to our 
Tribal elders for guidance. Our elders taught us to look to the land, 
for when the land was ill, the Tribe would soon be ill as well. When we 
looked at the land, we saw the Everglades in decline and recognized 
that we had to help mitigate the impacts of man on this natural system. 
At the same time, we acknowledged that this land must sustain our 
people, and thereby our culture. The clear message we heard from our 
elders and the land was that we must design a way of life to preserve 
the land and the Tribe. Tribal members must be able to work and sustain 
themselves. We need to protect the land and the animals, but we must 
also protect our Tribal farmers and ranchers.
    Recognizing the needs of our land and our people, the Tribe, along 
with our consultants, designed a plan to mitigate the harm to the land 
and water systems within the Reservation while ensuring a sustainable 
future for the Seminole Tribe of Florida. The restoration plan will 
allow Tribal members to continue their farming and ranching activities 
while improving water quality and restoring natural hydroperiod to 
large portions of the native lands on the Reservation and ultimately, 
positively effecting the Big Cypress National Preserve and Everglades 
National Park.
    The Seminole Tribe's project addresses the environmental 
degradation wrought by decades of Federal flood control construction 
and polluted urban and agricultural runoff. The interrupted sheet flow 
and hydroperiod have stressed native species and encouraged the spread 
of exotic species. Nutrient-laden runoff has supported the rapid spread 
of cattails, which choke out the periphyton algae mat and sawgrass 
necessary for the success of the wet/dry cycle that supports the 
wildlife of the Everglades.
    The Seminole Tribe designed an Everglades Restoration project to 
allow the Tribe to sustain ourselves while reducing impacts on the 
Everglades. The Seminole Tribe is committed to improving the water 
quality and flows on the Big Cypress Reservation. We have already 
committed significant resources to the design of this project and to 
our water quality data collection and monitoring system. We are willing 
to continue our efforts and to commit more resources, for our cultural 
survival is at stake.
             seminole tribe's big cypress critical project
    The Tribe has developed a conceptual water conservation plan that 
will enable us to meet new water quality standards essential to the 
cleanup of our part of the Everglades ecosystem and to plan for the 
storage and conveyance of our water rights. The Tribe's Everglades 
Restoration Initiative is designed to mitigate the degradation the 
ecosystem has suffered through decades of flood control projects and 
urban and agricultural use and ultimately to restore the nation's 
largest wetlands to a healthy state.
    The Seminole Tribe's critical project, a part of the water 
conservation plan, provides for the design and construction of water 
control, management, and treatment facilities on the western half of 
the Big Cypress reservation. The project elements include conveyance 
systems, including major canal bypass structures, irrigation storage 
cells, and water resources areas. This project will enable the Tribe to 
meet proposed numeric target for low phosphorus concentrations that is 
being used for design purposes by state and Federal authorities, as 
well as to convey and store irrigation water and improve flood control. 
It will also provide an important public benefit: a new system to 
convey excess water from the western basins to the Big Cypress National 
Preserve, where water is vitally needed for rehydration and restoration 
of lands within the Preserve.
                               conclusion
    Improving the water quality of the basins feeding into the Big 
Cypress National Preserve and the Everglades National Park is vital to 
restoring the Everglades for future generations. Congress has 
acknowledged this need through the passage of the last three Water 
Resource Development Acts. This Committee has consistently shown its 
support through appropriating requested amounts over the last three 
fiscal years. By continuing to grant this appropriation request for 
critical project funding, the Federal government will take another 
substantive step towards improving the quality of the surface water 
that flows over the Big Cypress Reservation and on into the delicate 
Everglades ecosystem. Such responsible action with regard to the Big 
Cypress Reservation, which is Federal land held in trust for the Tribe, 
will send a clear message that the Federal government is committed to 
Everglades restoration and the Tribe's stewardship of its land.
    Completion of the critical project requires a substantial 
commitment from the Tribe, including the dedication of over 2,400 acres 
of land for water management improvements and meeting a 50/50 cost 
share. This summer, the Tribe will initiate the first phase of 
construction with the main conveyance canal. As the Tribe moves forward 
with its contribution to the restoration of the South Florida 
ecosystem, increasing Federal financial assistance will be needed as 
well.
    The Tribe has demonstrated its economic commitment to the 
Everglades Restoration effort; the Tribe is asking the Federal 
government to also participate in that effort. This effort benefits not 
just The Seminole Tribe, but all Floridians who depend on a reliable 
supply of clean, fresh water flowing out of the Everglades, and all 
Americans whose lives are enriched by this unique national treasure.
    Thank you for the opportunity to present the request of the 
Seminole Tribe of Florida. The Tribe will provide additional 
information upon request.
                                 ______
                                 

       Prepared Statement of the Coachella Valley Water District

          whitewater river basin thousand palms flood control
    The U.S. Army Corps of Engineers, with the Coachella Valley Water 
District as the local sponsor, has completed the feasibility study for 
the Whitewater River Basin flood control project. This project received 
a favorable Chief of Engineers Report from Lieutenant General Robert B. 
Flowers and it was fully authorized in the Water Resources Development 
Act of 2000.
Project Description
    The preferred alternative for a flood protection project in the 
community of Thousand Palms consists of four levees and the purchase of 
a 700-acre floodway. The levees total just less than eight miles in 
length and range in height from 7 to 18 feet. The first three levees 
collect runoff and sediment flowing from the Little San Bernardino 
Mountains and the Indio Hills, and they outlet the flow onto the 700-
acre floodway. The sediment in the floodway is then available for 
windblown transport onto the adjacent Coachella Valley Fringe-Toed 
Lizard Preserve. This preservation of the sand transport system is 
necessary for the long-term viability of the sand dunes ecosystem of 
the fringe-toed lizard, a Federally endangered species. A fourth levee 
also conveys flow along the southern boundary of the preserve to 
existing flood control structures downstream of the project. The U.S. 
Fish and Wildlife Service has stated that it supports this preferred 
alternative. The proposed project would protect 2800 acres of land from 
flooding. This accounts for the majority of the existing development in 
the area. The benefit/cost ratio is over 1.3 with a total cost of 
$28,900,000. The estimated Federal share is 65 percent of the total 
cost or $18,800,000. The estimated non-Federal share is 35 percent of 
the total cost or $10,100,000.
Funding Requirements
    In the Energy and Water Development Act of 2000, $500,000 was 
budgeted for Project Engineering and Design (PED). The estimated cost 
of the PED phase is $2 million. Twenty-five percent or $500,000 is 
local share. Thus an addition $1 million needs to be appropriated for 
the PED phase of this project in the Energy and Water Development Act 
of 2001. In addition the Federal share of $18.8 million needs to be 
appropriated in future versions of the Energy and Water Development 
Act.
                                 ______
                                 

         Prepared Statement of the County of Sonoma, California

    Bodega Bay, located in Sonoma County, California, has been dredged 
by the Army Corps of Engineers since the mid-1940's. The Federal 
channel has been dredged on an average of every 11 years by the Corps. 
See Figure 1--Location map of Bodega Bay.
    Historically, Bodega Bay has been the home of a commercial fishing 
fleet. Salmon, herring, dungeness crab and rock cod are among the 
species of seafood that are caught in the waters outside of the Bay. In 
the 1980s, millions of pounds of salmon were caught by a commercial 
fishing fleet of over 600 vessels berthed at Bodega Bay. Today, even 
with the commercial fishing limitations that have reduced the number of 
active commercial fishing vessels in the Bay, the Bay remains popular 
for commercial and recreational fishing. Bodega Bay is home to a U.S. 
Coast Guard installation, and serves as a Harbor of Refuge for vessels 
traveling along the California Coast.
    Without periodic dredging, Bodega Bay cannot continue as a viable 
fishing and recreation harbor. The shoaling rate at Bodega Bay is 
estimated at 10,000 cubic yards per year. The Corps is responsible for 
financing the dredging of the Federal channel in Bodega Bay, while 
Sonoma County has historically had the responsibility to provide a site 
for the dredged material. The existing dredge materials site at Bodega 
Bay does not have the capacity to allow the Army Corps of Engineers to 
conduct its scheduled dredging of the Federal channel in 2002. See 
Figure 2--location of Federal Channel and Dredge Material site.
                        appropriation requested
  --Total of $3.7 million in the U.S. Army Corps of Engineers' 
        Operation and Maintenance Budget, fiscal year 2002. It is 
        important that this funding be specifically designated for use 
        at Bodega Bay to complete dredging in 2002.
  --$1.8 Million for preparation of the Bodega Bay dredge materials 
            site through implementation of the Corps' Dredge Material 
            Management Plan (DMMP).
  --$1.9 million for dredging the Federal channel.
    Sonoma County needs congressional funding for the implementation of 
the DMMP, estimated at $1.8 million, to prepare the existing dredge 
material site. Without this funding, dredging the Federal channel will 
not be possible. A delay of the Federally scheduled dredging cycle into 
future years may jeopardize the entire project given the current trend 
to cut funding for civil works projects at the Federal level. Smaller 
ports are particularly under attack. The risk to the entire project 
will increase if the project is deferred beyond 2002.
                                purpose
    The existing Dredge Materials Site (located at County's Bird Walk 
Coastal Access) is at approximately 70 percent capacity (remaining 
capacity is 58,500 cubic yards). Therefore, the appropriation will be 
used to remove 73,300 cubic yards of material from the existing dredge 
material site before the next maintenance dredging of the Federal 
channel by the Army Corps of Engineers can begin, which is scheduled 
for 2002.
    The most cost-effective site to place the excavated dredge 
materials is a proposed community park for Bodega Bay approximately 2 
miles away. (See Figure 1) This beneficial use of clean fill material 
would be used to provide play fields, picnic sites, and children's play 
area for the community.
    During the 1991 Federal Bodega Bay Dredging program, dredging of 
the County marine facilities, and private marinas and wharfs were 
allowed to piggyback on the Federal program. Each entity was 
responsible for their incremental dredging costs. We anticipate that 
most of the agencies will, once again, want to be included in the 
Federal dredging program. See Figure 2 for location of County, Private 
Marinas, and Wharfs.
            army corps of engineers--san francisco district
    The Corps is responsible for dredging the Bodega Bay Federal 
channel approximately every 11 years. Sonoma County Regional Parks 
Department has shared information regarding history and concerns about 
the proposed 2002 dredging for Bodega Bay, including: dredge site 
preparation, excavation and moving material to the proposed community 
park site, anticipated costs, environmental concerns, and economic 
impacts.
    The County and Corps have continued to work together on a Dredge 
Materials Management Plan (DMMP), which could expand the Corps' project 
scope at Bodega Bay. The San Francisco Corps Office has been supportive 
in including our request for financial support for Bodega Bay dredging 
and for the dredge site preparation in legislation.
                          environmental issues
    This project does not include any controversial environmental 
issues.
Studies
    All environmental issues relating to the preparation of the dredge 
material site, moving dredge material to the proposed community park 
site and dredging of the Bay will be completed by either the Corps, as 
part of the DMMP, or the County prior to the maintenance dredging of 
the Bay. The major studies, in addition to the DMMP studies include:
  --Hydrographic Analysis and Refinement--allows for accurate 
        measurement of dredge volumes needs.
  --Eel Grass Identification--This species needs to be plotted and 
        assessed to predict and avoid serious impact due to the 
        dredging of the channel and marinas.
  --Other Endangered Species--Several native plants, animals, and other 
        organisms are native to Doran Marsh and its environs. Project 
        impacts will need to be assessed.
                              local effort
    Private wharfs, marinas and U.S. Coast Guard will be encouraged to 
participate with the County to include their dredging needs in the 2002 
program. If Congress funds this project in its entirety, the County has 
enough funding set aside to meet the local match requirements of the 
DMMP (80 percent Federal/20 percent local).
                              conclusions
    Without financial assistance, the Bodega Bay dredging project on 
line for 2002 will have to be delayed. Any delays places the dredging 
of Bodega Bay at risk as Federal public works budgets continue to be 
cut.
    Any delay in dredging the Federal Channel will impact the ability 
to safely navigate within the Bay and will pose a serious health and 
safety hazard. Some larger vessels are already running aground in the 
harbor.
    Any delay in dredging the Federal Channel could impede its ability 
to service commercial and sport fishing and its availability as a 
Harbor of Refuge. Lastly, a delay would cause a significant economic 
impact on the region.
                                 ______
                                 

  Prepared Statement of the Association for the Development of Inland 
                  Navigation in America's Ohio Valley

    Mr. Chairman and Members of the Subcommittee: I am Barry Palmer, 
Executive Director of DINAMO, The Association for the Development of 
Inland Navigation in America's Ohio Valley. DINAMO is a multi-state, 
membership based association of business and industry, labor, and state 
government leaders from throughout the Ohio Valley, whose singular 
purpose is to expedite the modernization of the lock and dam 
infrastructure on the Ohio River Navigation System. Largely through the 
leadership of this subcommittee and the professional efforts of the US 
Army Corps of Engineers, we in the Ohio Valley are beginning to see the 
results of 20 years of continuous hard work in improving our river 
infrastructure.
    Lock and dam modernization at Robert C. Byrd Locks and Dam, Grays 
Landing Locks and Dam, Point Marion Lock, and Winfield Locks are 
largely complete. These projects were authorized for construction in 
the Water Resources Development Act of 1986. The immediate problems 
really are focused on completing in a timely manner lock and dam 
modernization projects authorized by the Congress in subsequent water 
resources development acts. Substantial problems remain for adequate 
funding of improvements at the Olmsted Locks and Dams, Ohio River, IL/
KY; Lower Monongahela River Locks and Dams 2, 3 & 4, PA; McAlpine Locks 
and Dam, Ohio River, IN/KY; Marmet Lock, Kanawha River, WV; and for the 
Kentucky Locks, Tennessee River, KY. The construction schedules for all 
of these projects have been severely constrained, and we are requesting 
increased funding for these construction projects at an ``efficient 
construction rate.'' Following is a listing of the projects and an 
efficient funding level determined by the US Army Corps of Engineers to 
advance these projects, in order to complete construction by 2008 or 
earlier:
                  recommendations for fiscal year 2002
    1. For the Robert C. Byrd Locks and Dam modification project, 
formerly the Gallipolis Locks and Dam on the Ohio River, OH/WV, about 
$4,000,000 to complete rehabilitation of the dam.
    2. For the Winfield Lock Replacement on the Kanawha River, WV, 
$3,000,000 for continued construction of the lock and relocations 
related to environmental mitigation.
    3. For the Olmsted Locks and Dam, replacing Locks and Dams 52 and 
53 on the Lower Ohio River, IL/KY, $75,000,000 for continued 
construction of the approach lock walls related to the twin 
110<greek-e>1,200 locks and design and initial construction activities 
for the new gated dam.
    4. For improvements to Monongahela River Locks and Dams 2, 3 & 4, 
PA, $75,00,000 to complete construction of the Braddock Dam, for 
relocations related to the construction project, and continued design 
of Lock 4.
    5. For the McAlpine Lock Project on the Ohio River, IN/KY, 
$25,000,000 to complete construction of the cofferdam related to the 
new 110 feet <greek-e> 1,200 feet lock addition.
    6. For the Marmet Lock Replacement on the Kanawha River, WV, 
$30,000,000 for real estate acquisition and for initial systems for 
mitigation of the construction project.
    7. For the Kentucky Lock Addition on the Tennessee River, KY, 
$55,000,000 to continue construction of the new highway and bridge work 
and to begin construction of the upstream cofferdam.
    8. For continuing major rehabilitation of London Locks and Dam, 
Kanawha River, $8,000,000.
    9. For the Ohio River Mainstem Study, including studies related to 
completing Interim Feasibility Reports for Newburgh, Cannelton, and 
Meldahl, and for Emsworth, Dashields, and Montgomery Locks and Dams, 
approximately $30,000,000 to be expended over the next five years. This 
level of funding is needed to complete the work leading to construction 
authorization documents for additional capacity at these six lock and 
dam locations.
    10. For Pre-Construction Engineering and Design for the John T. 
Myers Locks and Dam, Ohio River, IN/KY, $3,500,000-$4,000,000. A new 
construction start for this project will be required soon, since this 
project was authorized for construction in the Water Resources 
Development Act of 2000.
    11. For Pre-Construction Engineering and Design for the Greenup 
Locks and Dam, Ohio River, OH/KY, $3,500,000-$4,000,000. A new 
construction start for this project will be required soon, since this 
project was authorized for construction in the Water Resources 
Development Act of 2000.
    For these lock and dam modernization projects the President has not 
released specific allocations for the fiscal year 2002 Civil Works 
Budget of the US Army Corps of Engineers. It is expected that these 
allocations will be woefully inadequate. The ``efficient'' construction 
level for fiscal year 2002 and for each and every year into the future 
has been discussed with Corps officials over a number of years, and 
DINAMO is confident that the projected funding levels identified above 
represent the amount of money the Corps can efficiently use. 
Additionally experience has shown that the Corps could execute 
completion of these projects by 2008 if adequate funding were provided, 
i.e. efficient funding levels.
    These construction projects, in addition to the Olmsted Locks and 
Dam, should be completed in a timely and orderly manner. It is 
important to note that taxes are being generated by a 20 cents per 
gallon diesel fuel tax by towboats operating on America's inland 
navigation system. These tax revenues are gathering in the Inland 
Waterways Trust Fund, in order to finance 50 percent of the costs of 
these project costs. There is about $400 million in the Inland 
Waterways Trust Fund. The real challenge is not the private sector 
contribution to completing these lock and dam construction projects in 
a timely manner, but rather the commitment of the Federal government to 
matching its share.
    The construction schedules for Ohio River Navigation System 
projects have slipped from one to six years, depending on the project. 
Delaying the construction of these vitally needed infrastructure 
investments is a terribly inefficient practice. Inefficient 
construction schedules cost people a lot of money. A March 2000 study 
by the Institute for Water Resources concluded that $1.34 billion of 
cumulative benefits (transportation savings) for Olmsted, Lower 
Monongahela River 2, 3 & 4, McAlpine, Marmet, and Kentucky lock and dam 
modernization projects, in addition to the London Lock rehabilitation, 
all on the Ohio River Navigation have been lost forever. The benefits 
foregone represent the cumulative annual loss of transportation cost 
savings associated with postponing the completion of these projects 
from their ``optimum,'' or ``efficient,'' schedule. In addition, this 
study concludes that $534 million of future benefits are at risk but 
will be foregone (based on fiscal year 2001 schedules) if funding is 
not provided to accelerate design and construction activities in 
accordance with ``efficient'' schedules.
    Expenditures for lock and dam modernization are an investment in 
the physical infrastructure of this nation. The President's $3.9 
billion Corps of Engineers Civil Works Budget for fiscal year 2002 will 
fall at least $1 billion short of what will be needed to meet the 
nation's water resources needs. Mr. Chairman, we have great confidence 
in the Corps of Engineers and urge your support for a funding level 
more in line with the real water resources development needs of the 
nation. For lock and dam modernization on America's inland navigation 
system, targeted construction funding ought to be at a level of about 
$300 million annually. Last year Congress provided about $4.54 billion 
for the Corps of Engineers program and more than $200 million for lock 
and dam modernization on America's inland navigation system. It is 
reasonable that funding for the Corps program should be increased to 
levels closer to $5 billion and about $350 million for lock and dam 
modernization on our nation's river system. With this kind of increased 
funding, as amply supported in both the House and Senate appropriations 
committee report language in previous years, it is clear that a 
national lock and dam modernization program could be sustained at a 
level commensurate with the needs for improving the nation's inland 
navigation system.
    We thank you for the opportunity to present this request and our 
thoughts on these matters.
                                 ______
                                 

 Prepared Statements of the Louisiana Department of Transportation and 
                              Development

               mississippi river and tributaries project
    The Louisiana Department of Transportation and Development, Office 
of Public Works and Intermodal Transportation, is the agency designated 
to represent the State of Louisiana in the planning and orderly 
development of its water resources. This statement is presented on 
behalf of the State of Louisiana and its twenty levee boards. It 
contains recommendations for fiscal year 2002 appropriations for work 
in Louisiana under the Mississippi River and Tributaries Project.
    Louisiana contains the terminus of the Mississippi River, which has 
the third largest drainage basin in the world, exceeded only by the 
watersheds of the Amazon and Congo Rivers. The Mississippi River drains 
41 percent, or 1\1/4\ million square miles, of the contiguous United 
States and parts of two Canadian provinces. All of the runoff from 
major river basins, such as the Missouri and Upper Mississippi, the 
Ohio including the Tennessee and others, and the Arkansas and White, 
flow into the Lower Mississippi, which empties into the Gulf of Mexico 
through Louisiana.
    The jurisdiction of levee boards in Louisiana includes one-third of 
the State's total area. However, the importance of this one-third of 
the State can be seen by the fact that it contains nearly 75 percent of 
the State's population and about 90 percent of the State's disposable 
personal income. Traditionally, the levee district areas are water rich 
and many have fallen heir to industrial development that ranks high in 
the nation. It has been estimated that about 60 percent of the State's 
agricultural products come from levee district areas. So you can see 
why Louisiana and its twenty levee districts are so interested in 
seeing the completion of the Mississippi River and Tributaries Project.
    In making the following recommendations regarding construction, 
studies, and some selected operation and maintenance items, the State 
of Louisiana hopes that Congress and the Administration will honor 
their prior commitments to infrastructure development and fund our 
requests.
    Since the timing of this meeting is before a detailed budget has 
been released, the figures presented herein are only approximate and 
will be revised when more information becomes available. The following 
projects are of particular concern to us. See the attached ``Summary of 
Recommended Appropriations'' for a complete listing of projects in 
Louisiana.
Operation and Maintenance
    Request: Full Capability.
    Atchafalaya Basin; Old River Lower Red River, South Bank Levees, 
(Bayou Rapides Drainage Structure and Pumping Plant); Mississippi River 
Levees (total MR&T); Channel Improvement (total MR&T).
    The operation and maintenance of completed works are essential to 
achieving the full benefits of projects. In times of budget constraints 
it is essential that operation and maintenance of projects continue as 
scheduled in order to maintain their effectiveness, otherwise more 
expensive maintenance and rehabilitation would be required at a later 
date.
    The above listed projects have reached a point where delayed 
maintenance is now essential and we urge you to fund these projects to 
the full capability of the Corps.
Mississippi River Levees (total MR&T)
    Request: Full Capability.
    The Mississippi River and Tributaries Project above Louisiana is 
about 90 percent complete, but to a much lesser extent in Louisiana. 
Because of the improvements upstream, increased flows are a major 
problem in Louisiana where the project is lagging behind the 
construction in the upper valley. Of the total request for levee 
construction, most is needed for Louisiana projects. In the Vicksburg 
District there is a deficiency of 4 to 7 feet on mainline Mississippi 
River levees in the Fifth Louisiana Levee District. It is also 
requested that Federal funds be provided to purchase rights-of-way for 
this critical work as the Levee District is in an economically 
depressed area and does not have a tax base capable of producing the 
funds necessary for both maintenance and rights-of-way purchase.
Channel Improvement (total MR&T)
    Request: Full Capability.
    Channel improvement and bank stabilization provide protection to 
the levees and the development behind them, as well as, preventing 
unsatisfactory alignment where the river's bank is unstable. The funds 
we are requesting will provide for the dredging and revetment work 
necessary to accommodate increased flows caused by upstream 
improvements.
Tensas Basin, Red River Backwater Area
    Request: Full Capability.
    (Sicily Island Area Levee Project).
    The construction of this project must not be delayed by budget 
constraints.
Morganza to the Gulf of Mexico
    Request: Full Capability.
    Funds are requested for preconstruction engineering and design. 
This hurricane protection project is vital for coastal Louisiana and 
should be constructed as soon as possible.
           local contributions for flood control improvements
    Historically, Louisiana has always done its part in cooperation 
with the Federal agencies concerned with flood control. The Louisiana 
Board of State Engineers, the forerunner of the Department of 
Transportation and Development, Office of Public Works and Intermodal 
Transportation, was created in 1879, the same year as the Mississippi 
River Commission, to coordinate the planning and construction of the 
required flood control facilities to protect the State. Since that 
time, local expenditures for flood control have exceeded $730,000,000. 
This amount adjusted to present day dollars represents expenditures in 
excess of $5.5 billion. Nearly one-half of the potential flooded area 
of the Lower Mississippi River Valley lies in Louisiana. Local 
expenditures for flood control have increased with the growth of the 
valley. This record not only meets, but exceeds any National Water 
Policy local participation requirement ever put into practice.
                               conclusion
    The Mississippi River and Tributaries Project has been underway 
since 1928 and isn't scheduled for completion until the year 2031--a 
date that continually keeps moving further into the future. We 
understand the need for budget constraints, but the past budget 
requests for the total MR&T Project have not been adequate. We endorse 
the recommendation of the Mississippi Valley Flood Control Association 
in their request for $395 million for the MR&T project throughout the 
whole valley.
    The State of Louisiana, Department of Transportation and 
Development, Office of Public Works and Intermodal Transportation, in 
particular, wishes to commend the Appropriations Subcommittees on 
Energy and Water Development and express our appreciation for the 
foresight and understanding exhibited for water resources projects 
which are vital to the national interest. We solicit your further 
consideration of the recommendations presented herein.

 MISSISSIPPI RIVER AND TRIBUTARIES SUMMARY OF RECOMMENDED APPROPRIATIONS
                FOR FISCAL YEAR 2002--STATE OF LOUISIANA
------------------------------------------------------------------------
                                              Budget         Louisiana
           Louisiana projects                schedule         request
------------------------------------------------------------------------
 
        Operation and Maintenance
 
Mississippi River Levees (total MR&T)...      $8,500,000            Full
                                                              Capability
Atchafalaya Basin.......................      10,400,000            Full
                                                              Capability
Channel Improvement (total MR&T)........      43,000,000            Full
                                                              Capability
Old River Control Structure.............       6,100,000            Full
                                                              Capability
Bonnet Carre Spillway...................       1,900,000            Full
                                                              Capability
Lower Red River, SBL--Bayou Rapides            6,000,000            Full
 Drainage Structure & Pumping Plant.....                      Capability
Tensas Basin:...........................
    Boeuf & Tensas Rivers...............       2,600,000            Full
                                                              Capability
    Red River Backwater Area............       3,500,000            Full
                                                              Capability
Atchafalaya Basin, Floodway System, LA..       2,100,000            Full
                                                              Capability
Baton Rouge Harbor--Devil Swamp, LA.....         200,000            Full
                                                              Capability
Bayou Cocodrie and Tributaries..........         100,000            Full
                                                              Capability
Mississippi Delta Region, Caernarvon, LA         916,000            Full
                                                              Capability
Inspection of Completed Works (MR&T)....       1,500,000            Full
                                                              Capability
Mapping (MR&T)..........................       1,100,000            Full
                                                              Capability
Dredging (MR&T).........................      18,000,000            Full
                                                              Capability
 
              Construction
 
Mississippi River Levees (total MR&T)...      54,000,000            Full
                                                              Capability
Louisiana State Penitentiary Levee......       3,000,000            Full
                                                              Capability
Atchafalaya Basin.......................      30,000,000            Full
                                                              Capability
Channel Improvements (total MR&T).......      48,000,000            Full
                                                              Capability
Tensas Basin, Red River Backwater Area..       3,882,000            Full
                                                              Capability
Atchafalaya Basin, Floodway System......      10,000,000            Full
                                                              Capability
Mississippi Delta Region, Davis Pond....       4,600,000            Full
                                                              Capability
Mississippi & Louisiana Estuarine Area           100,000            Full
 (Bonnet Carre).........................                      Capability
 
  Preconstruction Engineering & Design
 
Morganza to the Gulf of Mexico..........       6,500,000            Full
                                                              Capability
 
         General Investigations
 
Donaldsonville to the Gulf of Mexico....       1,000,000            Full
                                                              Capability
Alexandria to the Gulf of Mexico........         700,000            Full
                                                              Capability
Spring Bayou............................         500,000            Full
                                                              Capability
West Baton Rouge Parish, LA (recon).....         350,000            Full
                                                              Capability
Collection & Study of Basic Data (MR&T).         600,000            Full
                                                              Capability
------------------------------------------------------------------------
NOTE: The projects listed above are only those in Louisiana (except
  where noted) and directly affect the State. We realize that there are
  other projects in the Valley. We endorse the recommendations of the
  Mississippi Valley Flood Control Association.

  food control, navigation, hurricane protection and water resources 
                         projects in louisiana
    The Louisiana Department of Transportation and Development, Office 
of Public Works and Intermodal Transportation, is the agency designated 
to represent the State of Louisiana for the coordinated planning and 
development of water resources, including flood control, navigation, 
drainage, water conservation and irrigation projects; therefore, this 
statement is presented on behalf of the State of Louisiana and its 
twenty levee boards. We are pleased to present the recommendations for 
fiscal year 2002 appropriations for Louisiana projects. The projects 
listed herein are in addition to those covered in the statement by the 
Office of Public Works and Intermodal Transportation for the 
Mississippi River and Tributaries Project.
    Louisiana contains the terminus of the Mississippi River, which has 
the third largest drainage basin in the world. The Mississippi drains 
41 percent, or 1 1/4 million square miles, of the contiguous United 
States and parts of two Canadian provinces. In addition to the 
Mississippi River system, Louisiana contends with other interstate 
waters--the Sabine River, the Red River, the Ouachita River, the Amite 
River, and the Pearl River. All of these river systems converge toward 
Louisiana, passing on to the Gulf of Mexico, draining a figure 
approaching 50 percent of these contiguous 48 states.
    Louisiana also plays a strategic part in providing the country with 
access to world markets through an inland navigation system. 
Approximately 75 percent of all soybeans, animal feed, and corn grown 
in the U.S. are shipped through Louisiana. And almost 50 percent of all 
rice and cereals. Louisiana has the highest waterborne traffic by 
state. The river flood control systems work in conjunction with the 
hurricane and coastal protection systems to form a total integrated 
protection system to protect us from floods of all types. This 
integrated system protects the inland navigation system. It also 
protects the petrochemical industry in Louisiana which has the second 
largest refining capacity in the country producing approximately 15 
billion gallons of gasoline at 19 refineries. Louisiana ranks second in 
produced natural gas and third for oil production. The pipeline system 
which supplies much of the country with natural gas and petroleum 
originates in Louisiana. The petrochemical and oil and gas industries 
depend almost totally on Federally constructed levee systems to protect 
them from floods and hurricanes, and depend on the Federally maintained 
navigation system for transportation. This infrastructure development 
which benefits the entire country has contributed to the destruction of 
our marshes and wetlands which still produce a commercial fish and 
shellfish harvest worth more than $600 million and 40 percent of the 
Nation's wild fur and hides harvest worth more than $15 million. This 
wealth of natural resources cannot survive and propagate for the 
economic benefit of our State and Nation without onshore facilities 
that require protection from major storms and hurricanes. It would be a 
national loss if these facilities and infrastructures were not 
protected. But Louisiana alone cannot support the infrastructure on 
which the country depends. All these facilities in Louisiana that 
support and contribute to the economic well-being of the country are 
protected by flood control measures; flood control measures that the 
Federal Government has appropriately committed itself to provide.
    In making the following recommendations regarding construction, 
studies, and operation and maintenance items, the State of Louisiana 
would hope that Congress and the Administration will honor their prior 
commitments to infrastructure development and fund our requests. We 
feel that water resources projects are probably the most worthwhile and 
cost-effective projects in the Federal budget, having to meet stringent 
economic justification criteria not required of other programs. We ask 
that this be taken into consideration in the final decision to 
appropriate the available funds.
    Since the timing of this meeting is before a detailed budget has 
been released, the figures presented herein are only approximate and 
will be revised when more information becomes available. The following 
projects are of particular concern to us. See the attached ``Summary of 
Recommended Appropriations'' for a complete listing of projects in 
Louisiana.
Inner Harbor Navigation Canal Lock
    Request: Full Capability.
    The Inner Harbor Navigation Canal (IHNC) lock has long been 
considered dimensionally obsolete and is a key to the viability of the 
Port of New Orleans, the nation's 4th largest.
West Bank Vicinity of New Orleans, LA
    Request: Full Capability.
    We urge Congress to provide for an accelerated construction 
schedule for this project to provide hurricane protection to the 
metropolitan area of New Orleans.
Southeast Louisiana Urban Flood Control
    Request: Full Capability.
    We urge that the approved five-year construction schedule be 
maintained by authorizing funds to the full capability of the Corps.
Lake Pontchartrain and Vicinity, Hurricane Protection
    Request: Full Capability.
    Funding to the full capability of the Corps will allow for the 
completion of existing construction contracts and to continue with 
other required work.
Mississippi River Ship Channel, Baton Rouge to Gulf
    Request: Full Capability.
    The funds will be used to complete existing construction contracts 
for saltwater intrusion mitigation to the water supply of Plaquemines 
Parish.
New Orleans to Venice
    Request: Full Capability.
    This is a hurricane protection project for Plaquemines Parish. The 
funds requested are needed to continue construction of this important 
hurricane protection project.
Larose to Golden Meadow
    Request: Full Capability.
    This is a hurricane protection project which will protect the 
developed areas along Bayou Lafourche. Funds are needed to complete 
this project.
Ouachita River Levees
    Request: Full Capability.
    The Ouachita River Levees are deficient and need to be brought up 
to Federal standards. We request that specific language be added to the 
appropriations bill to direct the Secretary of the Army to accomplish 
this task.
J. Bennett Johnston (Red River) Waterway
    Request: Full Capability.
    Remaining work consists of additional channel training works, 
purchase of mitigation lands and construction of recreation features. 
We urge the approval of funds for fiscal year 2002 based on the 
previously approved schedule.
Grand Isle and Vicinity
    Request: Full Capability.
    Funds are requested to address WRDA 99 language to determine any 
environmental benefits to the mainland coast.
East Baton Rouge Parish, LA
    Request: Full Capability.
    We are requesting new start language and language to rectify an 
oversight in the Water Resources Development Act of 1996, authorizing 
this project to be constructed at the 75/25 cost share in effect at the 
time of study completion.
Lake Pontchartrain Westshore
    Request: Full Capability.
    Funds would be used to advance construction. Authorization is 
expected in the next WRDA.
MR-GO Reevaluation Study
    Request: Full Capability.
     The Environmental Protection Agency, at the request of local 
officials, has formed a task force to re-examine the navigation project 
based on the amount of economic benefits and the safety issues of 
possible storm damage.
Orleans Parish, LA
    Request: Full Capability.
    This project is in addition to the Southeast Urban Flood Control 
projects already under construction in Orleans Parish. The funds 
requested would be used to advance preconstruction engineering and 
design.
Jefferson Parish, LA
    Request: Full Capability.
    This project is in addition to the Southeast Urban Flood Control 
projects already under construction in Jefferson Parish. The funds 
requested would be used to advance preconstruction engineering and 
design.
Calcasieu Lock, LA
    Request: Full Capability.
    The Calcasieu Lock is becoming congested due to an increase in 
traffic. The funds will be used to advance the feasibility study.
ST. Bernard Parish, Urban Flood Control
    Request: Full Capability.
    Flood control improvements are needed to reduce the repetitive 
damages to residential development, which is consistent with 
Administration policy. The funds will be used to advance the 
feasibility study.
Calcasieu River Basin, LA
    Request: Full Capability.
    This study will address the feasibility of measures to reduce 
flooding and restore fish and wildlife habitat in the study area. The 
funds will advance the feasibility study.
Ascension Parish Flood Control Study
    Request: Full Capability.
    The Ascension Parish Flood Control Study was recommended in the 
Amite River and Tributaries Reconnaissance Report. The parish has 
decided to proceed to the feasibility phase and funds are required in 
fiscal year 2002 to start the study.
New Study Requests
    Request: Full Capability.
    Several new study requests will address a comprehensive look at the 
hurricane protection system, urban flood control, ecosystem restoration 
and beneficial use of dredged material. See attached Summary Sheet for 
individual projects.
Continuing Authorities Projects
    We urge you to discontinue the practice of earmarking funds and to 
raise the program limits for Section 205 projects to $60 million.
Coastal Wetlands Planning, Protection and Restoration Act
    The passage of the Coastal Wetlands Planning, Protection and 
Restoration Act has been a positive force for Louisiana. We support the 
continued funding for this program.
Baton Rouge Infrastructure
    Request: $10,000,000.
    The Water Resources Development Act of 1999 authorized $10,000,000 
for water resources related infrastructure for the parishes of East 
Baton Rouge, Ascension and Livingston. This request is for the 
appropriation these funds.
Red River Basin Chloride Control Project
    Request: Full Capability.
    The construction of the Red River Chloride Control Project will 
enhance further economic development in the Red River Valley and make 
the Navigation Project prove even more economically beneficial than 
previously anticipated.
Operation and Maintenance
    Request: Full Capability.
    It is essential that operation and maintenance not be delayed which 
would hamper the effectiveness of the projects and cause more expensive 
maintenance at a later date. We urge you to continue funding O&M to the 
Corps' full capability.
                               conclusion
    We wish to express our thanks to the Appropriations Subcommittees 
on Energy and Water Development of the House and Senate for allowing us 
to present this brief on the needs of Louisiana. Without reservation, 
practically every single project in Louisiana which has been made 
possible through actions of these committees has shown a return in 
benefits many times in excess of that contemplated by the authorizing 
legislation. The projects which you fund affect the economy of not only 
Louisiana, but the nation as a whole. The State of Louisiana 
appreciates the accomplishments of the past and solicits your 
consideration of the appropriations requested for fiscal year 2002.

   FLOOD CONTROL, NAVIGATION, HURRICANE PROTECTION AND WATER RESOURCES
                          PROJECTS IN LOUISIANA
------------------------------------------------------------------------
                                              Budget         Louisiana
           Louisiana projects                schedule         request
------------------------------------------------------------------------
 
Construction:
 
    Inner Harbor Navigation Canal Lock..     $15,000,000            Full
                                                              Capability
    West Bank Vicinity of New Orleans,        31,000,000            Full
     LA.................................                      Capability
    Southeast Louisiana Urban Flood          100,000,000            Full
     Control............................                      Capability
    Lake Pontchartrain and Vicinity,          19,700,000            Full
     Hurricane Prot.....................                      Capability
    Mississippi River Ship Channel, LA..       1,200,000            Full
                                                              Capability
    New Orleans to Venice, Hurricane           2,000,000            Full
     Protection.........................                      Capability
    Larose to Golden Meadow, Hurricane         4,700,000            Full
     Protection.........................                      Capability
    Ouachita River Levees...............       5,300,000            Full
                                                              Capability
    J. Bennet Johnston (Red River)            28,000,000            Full
     Waterway, LA.......................                      Capability
    Grand Isle and Vicinity.............         200,000            Full
                                                              Capability
    Comite River Diversion..............      15,400,000            Full
                                                              Capability
    MR-GO Reevaluation Study............       1,080,000            Full
                                                              Capability
    Baton Rouge Infrastructure..........               0      10,000,000
    Red River Chloride Control..........               0            Full
                                                              Capability
 
Preconstruction Engineering and Design:
 
    Lafayette Parish, LA................         500,000            Full
                                                              Capability
    Orleans Parish, LA..................         300,000            Full
                                                              Capability
    Jefferson Parish, LA................         500,000            Full
                                                              Capability
    West Shore, Lake Pontchartrain, LA..         300,000            Full
                                                              Capability
    East Baton Rouge Parish, LA \1\.....       1,000,000            Full
                                                              Capability
 
Authorized Studies:
 
    Intracoastal Waterway Locks (Bayou           500,000            Full
     Sorrel), LA........................                      Capability
    Calcasieu Lock......................         900,000            Full
                                                              Capability
    Louisiana Coastal Area-Ecosystem           1,750,000            Full
     RestorationFeasibility Study (COAST                      Capability
     2050)..............................
    St. Bernard Parish, Urban Flood              600,000            Full
     Control............................                      Capability
    Calcasieu River Basin, LA...........         500,000            Full
                                                              Capability
    Ascension Parish, LA (Amite River &          425,000            Full
     Tribs).............................                      Capability
    Amite River Ecosystem Restoration...         600,000            Full
                                                              Capability
    Atchafalaya, Chene, Boeuf and Black.         300,000            Full
                                                              Capability
    Hurricane Protection Improvements...         500,000            Full
                                                              Capability
    St. Charles Parish, Urban Flood              400,000            Full
     Control............................                      Capability
    Plaquemines Parish, Urban Flood              450,000            Full
     Control............................                      Capability
 
New Study Requests:
 
    Louisiana Coastwide Dredging........               0         100,000
    Lake Pontchartrain Basin                           0         500,000
     Comprehensive Study................
    Gulf Intracoastal Waterway Bank                    0         100,000
     Stabilization......................
    Southern LA Floodproofing Evacuation               0         100,000
     Routes.............................
    Acadiana Navigation Channel, LA.....               0         100,000
Operation and Maintenance \2\...........  ..............             \2\
------------------------------------------------------------------------
\1\ New start language is needed to initiate construction in fiscal year
  2002.
\2\ Full Capability of Corps.

                                 ______
                                 

   Prepared Statement of the Board of Mississippi Levee Commissioners

    Mr. Chairman and Members of the Committee: I am James E. Wanamaker, 
Chief Engineer for the Board of Mississippi Levee Commissioners, 
Greenville, Mississippi, and I have the privilege of presenting this 
statement on behalf of this Board and the citizens of the Levee 
District. The Board of Mississippi Levee Commissioners is comprised of 
7 elected commissioners representing the counties of Bolivar, 
Issaquena, Sharkey, Washington, and parts of Humphreys and Warren 
counties in the Lower Yazoo Basin in Mississippi. The Board of 
Mississippi Levee Commissioners is charged with the responsibility of 
providing protection to the Mississippi Delta from flooding of the 
Mississippi River and maintaining major drainage outlets for removing 
the flood waters from the area. These responsibilities are carried out 
by providing the local sponsor requirements for the Congressionally 
authorized projects in the levee district.
    The funding of the flood control projects also provide assistance 
to the overall economics of the Mississippi Delta through the 
employment of individuals by contractors completing these necessary 
projects. The region encompassed by the Mississippi River & Tributaries 
Project is included in the recently authorized Delta Regional 
Authority. The employment of the local work force and purchases from 
local vendors by the contractors on these projects provides income to 
the most impoverished counties included in the Delta Regional 
Authority.
    The foresight used by the Congress in their authorization of the 
many features of the Mississippi River & Tributaries Projects is 
exemplary. This project has proven to be one of the most cost effective 
projects ever undertaken by the United States. The Board remains aware 
that budget constraints, along with the again extremely low 
administration budget, is making it very difficult to fund projects at 
levels deemed necessary to maintain timely construction to provide the 
much needed flood protection to the Mississippi Delta. Without the 
Congressional adds to the budget over the last several years, 
construction would be lagging far behind throughout the entire Lower 
Mississippi Valley. The Mississippi Valley Flood Control Association 
will be submitting a general statement to support an appropriation of 
$395 million for fiscal year 2002 for surveys, advanced engineering, 
construction, and the operation and maintenance of the Mississippi 
River & Tributaries Project. We must always remember that the Lower 
Mississippi River receives flood waters from 41 percent of the 
Continental United States.
    The Mainline Mississippi River Levee throughout the Valley is the 
backbone for providing flood protection to the Delta areas. Following 
the 1973 flood, it was determined that 69.1 miles of Mainline 
Mississippi River Levees in Mississippi were deficient in grade and 
section. The Corps of Engineers currently has 18 miles of our levee 
under construction. The administration budget for Mississippi River 
Levees of $42.1 million will not allow any new construction starts on 
this vital project. We are asking that the Congress appropriate $54.1 
million for construction of Mainline Mississippi River Levees to allow 
construction to proceed in an orderly manner. Until such time all of 
our levees are completed to grade and section, the Mississippi Delta 
will remain exposed to severe flooding from the Project Design Flood on 
the Mississippi River. It is estimated that the State of Mississippi 
alone would suffer damage in excess of $1.8 billion with over 20,000 
homes flooded, displacing more than 56,000 people by an overtopping of 
the levee system in Mississippi.
    As the Vicksburg District Corps of Engineers proceeded with the 
development of a draft report for the remaining features of the Yazoo 
Backwater Project, the Board of Mississippi Levee Commissioners 
initiated a consensus process involving State and Federal resource 
agencies and major private environmental groups. After the initial 
meeting the National Wildlife Federation, the Mississippi Wildlife 
Federation, the Audubon Society, the Gulf Restoration Network, and the 
Sierra Club elected to withdraw from this consensus building process. 
The only private environmental group to remain in the process was Ducks 
Unlimited. The consensus process involved over 50 hours of meetings of 
these agencies, organizations, and local citizens over an 18 month 
period. We remain very disappointed in the attitude taken by the U.S. 
Fish & Wildlife Service and Environmental Protection Agency during this 
process. These agencies did not participate as resource agencies as 
anticipated, but as advocates of their own plan for the area. The 
consensus process resulted in a modification of alternatives being 
considered by the Corps of Engineers for this project. At this time, 
the Vicksburg District has completed the draft report which includes a 
recommended plan that is supported officially by the Board of 
Mississippi Levee Commissioners, County Boards of Supervisors of 
Issaquena, Sharkey, Washington, Warren, Humphreys, and Yazoo. The Board 
of Mississippi Levee Commissioners and the Corps of Engineers have each 
hosted public meetings in the project area and found the vast majority 
of individuals living in the project area support the recommended plan. 
This support is given by these local individuals living in the project 
area even though water levels will be 7 feet deeper with the 
recommended plan than the 1982 plan before the pumps are operated, and 
62,500 acres of developed land will be taken out of production and 
reforested as part of this project. We are currently requesting an 
appropriation of $6 million for this project, which will allow the 
Vicksburg District to initiate the design of this project, initiate 
real estate activities and right-of-way acquisition for this project.
    As with all infrastructure, the need for maintenance is required to 
keep the projects functioning as designed. The Big Sunflower River 
Maintenance Project is a case where the local sponsors have provided 
the necessary minor maintenance for over 50 years. It has been 
identified that major maintenance is required to restore the capacity 
of this project to move flood waters through the Mississippi Delta. We 
are requesting an appropriation of $6.4 million to allow work to 
continue on this project. Construction on Item 3 has been completed and 
right-of-way for Item 2 is being acquired. This appropriation will 
allow the work on Item 2 to continue and to purchase rights-of-way for 
future items.
    Work on the Upper Yazoo Project is continuing with the completion 
of Items 4-A and 4-B bringing protection in the Delta to the City of 
Greenwood. We are requesting an appropriation of $15 million for the 
Upper Yazoo Project which will allow contracts to be awarded on Items 
5-A, 5-B, and Item 7 structures. It is imperative that work on this 
project be continued to provide an adequate outlet for the flood 
control reservoirs that hold back flood waters from the Mississippi 
Delta. Without an adequate outlet for these reservoirs, stages inside 
the reservoirs will continue to rise threatening an overtopping of the 
emergency spillway, whereby, we lose all control of flood waters in the 
basin.
    Maintenance of our Mainline Mississippi River Levee System 
continues as a major feature carried out by the basins' Levee Boards. 
The Flood Control Act of 1928 clearly delineates Federal and local 
responsibilities in the maintenance activities required for this 
project. We are requesting $9.5 million for the maintenance of 
Mississippi River Levees to allow the Corps of Engineers to carry out 
the Federal responsibilities for major maintenance along the Mainline 
Mississippi River Levee System.
    As we pointed out earlier, all projects need to be maintained to 
keep them functioning as designed. Work on our 4 flood control 
reservoirs are no exception to this need. We are asking for an 
appropriation for maintenance of Arkabutla Lake of $11.5 million; Enid 
Lake $7.5 million; Grenada Lake $7.8 million; and Sardis Lake of $18 
million. The increased funds requested for this project will be 
utilized to complete the bank protection along these dams, repair water 
wells, treatment storage facilities and other maintenance needs. We are 
also requesting an appropriation of $1.2 million for the tributaries 
features of the Yazoo Basin which will allow for continued bank 
stabilization and shore line protection work.
    In closing, I must take a minute to reflect on the criticism being 
focused on the Corps of Engineers' study process utilized in reviewing 
projects. I must point out that the focus of the criticism primarily on 
the Upper Mississippi Navigation Study relies on activities taking 
place prior to the publication of a draft report. No one knows what 
that draft report would have contained had the process been allowed to 
continue. Even after a draft report is published, the current process 
allows thorough review of the report and the recommended plan by 
government agencies, private organizations and individuals throughout 
the project area and the Nation. All of the comments received by the 
Corps through that draft report must be addressed prior to a final 
report being made before construction of any project proceeds. Far more 
studies performed by the Corps of Engineers throughout the Nation fall 
by the wayside than results in actual construction taking place. We 
feel that the current process provides a thorough review and an 
adequate opportunity for proponents and opponents to review and express 
their thoughts.
    We are grateful to the Committee for providing us the opportunity 
each year to present our requests.
                                 ______
                                 

    Prepared Statement of the St. Francis Levee District of Arkansas

    My name is Jake Rice, III and my home is in Marion, Arkansas, 
located on the West side of the Mississippi River in the St. Francis 
River Basin. I am the Chief Engineer of the St. Francis Levee District 
of Arkansas. Our District is the local cooperation organization for the 
Mississippi River and Tributaries Project and the St. Francis Basin 
Project in Northeast Arkansas. Our District is responsible for the 
operation and maintenance of 160 miles of Mississippi River Levee and 
75 miles of St. Francis River Tributary Levee in Northeast Arkansas.
    The St. Francis Basin is comprised of an area of approximately 
7,550 square miles in Southeast Missouri and Northeast Arkansas. The 
basin extends from the foot of Commerce Hills near Cape Girardeau, 
Missouri to the mouth of the St. Francis River, seven miles above 
Helena, Arkansas, a distance of 235 miles. It is bordered on the east 
by the Mississippi River and on the West by the uplands of Bloomfield 
and Crowley's Ridge, having a maximum width of 53 miles.
    The Mississippi River and Tributaries Project and the St. Francis 
Basin Project provide critical flood protection to over 2,500 square 
miles in Northeast Arkansas alone. This basin's flood control system is 
the very lifeblood of our existence. Our resources and infrastructure 
are allowing the St. Francis Basin and the Lower Mississippi Valley to 
develop into a major commercial and industrial area for this great 
nation. The basin is quickly becoming a major steel and energy 
production area. The agriculture industry in Northeast Arkansas and the 
Lower Mississippi Valley continues to play an integral role in 
providing affordable food and clothing for this nation. This has all 
been made possible because Congress has long recognized that flood 
control in the Lower Mississippi Valley is a matter of national 
interest and has authorized the U.S. Army Corps of Engineers to 
implement a flood control system in the Lower Mississippi Valley that 
is the envy of the civilized world. With the support of Congress over 
the years, we have continued to develop our flood control system in the 
Lower Mississippi Valley through the Mississippi River and Tributaries 
Project and for that we are extremely grateful.
    Although, at the current level of project completion, there are 
areas in the Lower Mississippi Valley that are subject to major 
flooding on the Mississippi River. The level of funding that has been 
included in the President's Budget for the overall Mississippi River 
and Tributaries Project is not sufficient to adequately fund and 
maintain this project. This level of funding will require the citizens 
of the Lower Mississippi Valley to live needlessly in the threat of 
major flood devastation for the next 30 years. Timely completion of 
this project is of paramount importance to the citizens of the Lower 
Mississippi Valley.
    Therefore, we support the amount of $395,000,000 requested by the 
Mississippi Valley Flood Control Association for use in the overall 
Mississippi River and Tributaries Project. This is the minimum amount 
that the Executive Committee of the Association feels is necessary to 
maintain a reasonable time line for completion of the overall 
Mississippi River and Tributaries Project. Also, the amounts that have 
been included in the President's Budget for the St. Francis Basin 
Project; construction, operation and maintenance have not been 
sufficient to fund critical projects. These declined amounts have 
resulted in a significant backlog of work within the St. Francis Basin. 
Therefore, our District is requesting $4,502,000 for St. Francis Basin 
Project construction funds and $6,978,000 for St. Francis Basin 
operation and maintenance funds. The amounts requested for the St. 
Francis Basin Project are a part of the total amounts requested for the 
Mississippi River and Tributary Appropriations of the Civil Works 
Budget.
    As your subcommittee reviews the Civil Works Budget of fiscal year 
2002 Appropriations for the Mississippi River and Tributaries Project, 
please consider the significance of this project to the Lower 
Mississippi Valley and to the Nation's security, economy and 
infrastructure. As always, I feel the Subcommittee will give due regard 
to the needs of the Lower Mississippi River Valley as it considers 
appropriations for the Mississippi River and Tributaries Project. I 
would like to sincerely thank the Subcommittee for its' past and 
continued support of the Mississippi River and Tributaries Project.
    Also, I would like to express our continued support for the U.S. 
Army Corps of Engineers and the fine water resource projects that they 
perform. However, we find the Corps under constant attack from a 
variety of organizations and special interest groups. A few members of 
Congress are even proposing to reform the Corps. In our opinion, 
leadership at the Corps is of the highest level of professional 
integrity, and the processes in place result in projects that are 
essential to the well being of this great nation. I can think of no 
other agency that provides such a vital service to the citizens of this 
country. The Corps of Engineers is the worlds' premiere engineering and 
construction agency. They have the expertise and technical ability to 
perform any task or solve any problem that this nation could possibly 
face. We depend on their services daily. I would like to respectfully 
request that you and your Subcommittee help us defend the U.S. Army 
Corps of Engineers from these unjustified attacks and accusations and 
to promote them as the fine agency that they are and have been for the 
past 225 years.
                                 ______
                                 

  Prepared Statement of the Arkansas River Basin Interstate Committee

    Mr. Chairman and members of this distinguished Committee, my name 
is Wallace Gieringer. I am retired as Executive Director of the Pine 
Bluff-Jefferson County (Arkansas) Port Authority. It is my honor to 
serve as Chairman of the Arkansas River Basin Interstate Committee, 
members of which are appointed by the governors of the great states of 
Arkansas, Colorado, Kansas, Missouri, and Oklahoma.
    First, we wish to thank you very much for the foresight, wisdom and 
resourcefulness you and your colleagues demonstrate each and every year 
in providing solutions to our nation's water resource problems.
    Your efforts are especially important today due to our nations 
growing dependence on others for energy and the need to protect and 
improve our environment. Greater use and development of one of our 
nation's treasures--our navigable inland waterways--will help remedy 
these problems. At the same time, these fuel-efficient and cost-
effective waterways keep us competitive in international markets.
    As Chairman of the Interstate Committee, I present this summary 
testimony as a compilation of the most important projects from each of 
the member states. Each of the states unanimously supports these 
projects without reservation. I request that the copies of each state's 
individual statement be made a part of the record, along with this 
testimony.
    Mr. Chairman, the Interstate Committee continues to identify 
Montgomery Point Lock and Dam as our top priority. This urgently needed 
project at the confluence of the McClellan-Kerr Arkansas River 
Navigation System and the Mississippi River is vital to the five-state 
area and beyond. Without Montgomery Point some $5 billion in Federal 
and private investments, thousands of jobs, growing exports in world 
trade and future economic development are endangered.
    Continuing problems caused by the lowering of the Mississippi River 
continue to plague McClellan-Kerr entrance channel users. During times 
of low water on the Mississippi River the entrance channel is drained 
of navigable water depth. As the Mississippi River bottom continues to 
lower, the McClellan-Kerr moves toward total shutdown. Thus, the entire 
Arkansas River Navigation System is at risk, and its long term 
viability is threatened without Montgomery Point.
    Use of the temporary by-pass channel increases navigation hazards 
and existing dredge disposal areas are virtually full. Ongoing dredging 
and disposal of material can mean environmental damage. Construction 
needs to continue as rapidly as possible before limited dredge disposal 
areas become inadequate.
    The good news is that you, your associates and the Congress have 
all recognized the importance of constructing Montgomery Point!
    The Corps of Engineers awarded a $186 million construction contract 
on July 19, 1997. Last year Congress appropriated $40 million to 
continue construction of the lock and dam. Work is progressing well and 
the project is 50 percent complete.
    Mr. Chairman and Members of the Committee, continuing Congressional 
support is essential at this crucial time in the history of the 
project. An appropriation of $45 million for fiscal year 2001 will 
insure that Montgomery Point is in operation as soon as possible at the 
lowest possible cost.
    The Interstate Committee also respectfully recommends the following 
as important priorities:
    $2,000,000 is needed to continue the most important Arkansas River 
Navigation Study, AR & OK. In addition to your past support, WRDA 2000 
directed the Corps to ``expedite completion of the Arkansas River 
Navigation Study, including the feasibility of increasing the 
authorized channel depth from 9 feet to 12 feet.''
    Approximately 95 percent of the lower Arkansas already enjoys a 12-
foot or greater channel depth. A 12-foot channel can mean one-third or 
more cargo in each barge with resultant energy savings, reduction in 
greenhouse gases and other environmental advantages. Lock chambers on 
the McClellan-Kerr were built to accommodate a 12-foot channel.
    While navigation is the primary purpose of the McClellan-Kerr, 
navigation needs and flood control are closely related. Chronic high 
flows and channel restrictions result in decreased navigation traffic, 
as well as continued flooding in the vicinity of Fort Smith, Arkansas, 
and reduced recreational use.
    This study addresses the navigation System Operating Plan and 
navigable depths to improve navigation conditions on the river, as well 
as the performance of flood control measures and the impacts of high/
low flows on environmental quality and recreation uses.
    The Arkansas River Basin Interstate Committee urges the Committee 
to fund the Section 206 Aquatic Ecosystem Restoration program to the 
programmatic limit of $25 million, so that funds will be available to 
match the committed $2 million from the State of Colorado's Great 
Outdoors Colorado Trust Board. The Colorado funds are contingent upon 
receiving the Federal funds. These funds are for the Arkansas River 
Fisheries Restoration Project.
    Equus Beds Groundwater Recharge Project--Wichita, Kansas. 
Continuation of a City of Wichita, Groundwater Management District No. 
2 and State of Kansas project to construct recharge facilities for a 
major groundwater resource supplying water to more than 20 percent of 
Kansas' municipal, industrial and irrigation users. Almost one billion 
gallons of water have already been recharged. The total project will 
capture and recharge in excess of 100 million gallons per day and will 
also reduce on-going degradation of the existing groundwater quality by 
minimizing migration of saline water. Continued Federal funding is 
requested in the amount of $6,840,000 for fiscal year 2002.
    Again this year we urge the Committee to provide funding in the 
amount of $2.5 million to initiate the installation of tow haulage 
equipment on the 3 locks on the Arkansas River portion of the 
McClellan-Kerr Arkansas River Navigation System in Oklahoma.
    Mr. Chairman, Members of this Committee, we respectfully request 
that you and members of your staff review and respond in a positive way 
to the attached individual statements from each of our states which set 
forth specific requests pertaining to those states.
    We sincerely appreciate your consideration and assistance.
                           summary statement
    Mr. Chairman and members of the Committee, we are grateful that 
you, your associates, the Congress and the Administration have all 
recognized the urgency of Constructing Montgomery Point Lock and Dam on 
the McClellan-Kerr Arkansas River Navigation System. Continuing 
Congressional support is essential. We respectfully urge the Congress 
to appropriate $45 million for use in fiscal year 2002 to continue 
construction and insure that this urgently needed lock and dam is in 
operation as soon as possible at the lowest possible cost.
    We also urge you to provide $2,000,000 for the most important 
Arkansas River Navigation Study, AR & OK. This study addresses the 
Navigation System Operating Plan to improve navigation conditions 
during high flows on the river, as well as the performance of flood 
control measures, and the feasibility of increasing the authorized 
channel depth from 9 feet to 12 feet.
    Other projects are also vital to the environment, social and 
economic well-being of our region and the nation. We request your 
support and urge you to favorably consider the following:
  --Support continued funding for the construction, and Operation and 
        Maintenance of the McClellan-Kerr including an additional 
        $800,000 to complete bank stabilization work on the right bank 
        to stabilize the navigation channel in the vicinity of the 
        Little Rock Port.
  --Continue construction authority for the McClellan-Kerr. It is 
        vitally important that the Corps develop a permanent solution 
        to the threat of cutoffs developing in the lower reaches of the 
        system and to construct these measures under the existing 
        construction authority.
  --Provide funding and direct the Corps to complete installation of 
        tow-haulage equipment for all the locks and dams on the 
        McClellan-Kerr.
  --Provide funds and direct the Corps of Engineers to begin 
        construction of the Arkansas River Levees Project as authorized 
        by Section 110 of the Water Resource Development Act of 1990.
  --$1.3 million needs be specifically provided and the Corps directed 
        to begin rehabilitation construction on the Plum Bayou Levee 
        (including the Old River and Baucum Levees).
  --Provide $7 million to initiate repair and rehabilitation of the 
        power units at the Ozark-Jetta Taylor Lock and Dam Powerhouse 
        which first went into operation in 1970.
  --Provide funding in the amount of $1,175,000 to complete pre-
        construction engineering and design on the North Little Rock, 
        (Dark Hollow), AR, Project.
  --Provide funding in the amount of $1,845,000 to complete Fourche 
        Bayou Basin, Little Rock, AR, Project.
    Please help prevent a crisis for the Arkansas River Navigation 
System and the multi-state region it serves by appropriating $45 
million for use in fiscal year 2002 for Montgomery Point Lock and Dam.
    We fully endorse the statement presented to you today by the 
Chairman of the Arkansas River Basin Interstate Committee.
               arkansas river basin for fiscal year 2002
    Mr. Chairman and members of the Committee, thank you for the 
opportunity to present testimony to this most important committee. I am 
retired as Executive Director of the Pine Bluff-Jefferson County Port 
Authority and serve as Arkansas Chairman for the Interstate Committee. 
Other committee members representing Arkansas, in whose behalf this 
statement is made, are Messrs. Wayne Bennett, soybean and rice farmer 
from Lonoke; Colonel Charles D. Maynard, U.S. Army, retired, from 
Little Rock; Barry McKuin of Morrilton, President of the Conway County 
Economic Development Corporation; and N. M. ``Buck'' Shell, 
transportation specialist of Fort Smith and Van Buren, Arkansas.
    2000 was a memorable year in the history of the McClellan-Kerr 
Arkansas River Navigation System--and you helped make it so! Last year 
Congress continued to recognize the urgent need for Montgomery Point 
Lock and Dam by appropriating $40 million. This much needed facility is 
under construction near the confluence of the McClellan-Kerr System and 
the Mississippi River. To each of you, your staff and the Congress--our 
most heartfelt thanks!
    The Corps of Engineers awarded a $186 million contract for 
construction of the lock and dam proper on July 19, 1997. The cofferdam 
and the diversion channel have been completed, and placement of 
concrete is progressing well. When completed, Montgomery Point will 
protect over $5 billion in public and private investments, thousands of 
jobs and world trade created as a result of the McClellan-Kerr Arkansas 
River Navigation System. Without Montgomery Point Lock and Dam the 
future of our wonderful navigation system remains threatened. Time is 
of the essence.
    Montgomery Point Lock and Dam is a time sensitive project as 
economic growth along the entire McClellan-Kerr River is being deterred 
awaiting completion! As the Mississippi River bottom continues to 
lower, the McClellan-Kerr moves toward total shutdown. Existing dredge 
disposal areas are virtually full. Ongoing dredging and disposal of 
material can mean environmental damage. Construction must continue as 
rapidly as possible if the project is to be in place before disposal 
areas become inadequate.
    Use of the temporary by-pass channel increases navigation hazards 
making it imperative that work on the lock and dam be completed as 
quickly and as safely as possible.
    We are very grateful that you, your associates, the Congress, and 
the Administration have all recognized the urgency of constructing 
Montgomery Point. Appropriations of $156.2 million have been made to 
date for engineering, site acquisition and construction for this 
project which should be completed in 2003 according to the Corps' 
optimum construction schedule.
    Mr. Chairman and Members of the Committee, continuing Congressional 
support is essential at this crucial time in the history of the 
project. We respectfully request and urge the Congress to appropriate 
$45 million for use in fiscal year 2002 to continue construction. 
Adequate funding will insure that the urgently needed facility is in 
operation as soon as possible at the lowest possible cost. (This 
amount, and other dollar amounts requested herein, were obtained from 
the Corps in response to our questions about what could be efficiently 
expended for each project if directed to do so and funded by the 
Congress.)
    On another crucial matter, $2,000,000 is needed for the most 
important Arkansas River Navigation Study, AR & OK. We want to 
especially express thanks Mr. Chairman for the Committee's past 
support. In addition to your action, taking into account the need to 
realize the total economic potential of the McClellan-Kerr System, WRDA 
2000 directed the Corps to ``expedite completion of the Arkansas River 
Navigation Study, including the feasibility of increasing the 
authorized channel depth from 9 feet to 12 feet.''
    Approximately 95 percent of the lower Arkansas already enjoys a 12-
foot or greater channel depth. A 12-foot channel can mean one-third or 
more cargo in each barge with resultant energy savings, reduction in 
greenhouse gases and other environmental advantages. Lock chambers on 
the McClellan-Kerr were built to accommodate a 12-foot channel.
    While navigation is the primary purpose of the McClellan-Kerr 
System, navigation needs and flood control are closely related. Chronic 
high-water flows and channel restrictions result in decreased 
navigation traffic, as well as continued flooding in the vicinity of 
Fort Smith, Arkansas, and reduced recreational use.
    This study addresses the navigation System Operating Plan and 
navigable depths to improve navigation conditions on the river as well 
as the performance of flood control measures and the impacts of high/
low flows on environmental quality and recreation uses.
    Other projects are vital to the environment, social and economic 
well-being of our region and our nation. We recognize the importance of 
continued construction of needed features to the McClellan-Kerr 
Arkansas River Navigation System and strongly recommend that you 
favorably consider the following in your deliberations:
  --Support continued funding for the construction, and Operation and 
        Maintenance of the McClellan-Kerr Arkansas River Navigation 
        System including an additional $800,000 to complete bank 
        stabilization work on the right bank to stabilize the 
        navigation channel in the vicinity of the Little Rock Port.
  --Continue construction authority for the McClellan-Kerr Arkansas 
        River Navigation Project until remaining channel stabilization 
        problems identified by the Little Rock District Corps of 
        Engineers have been resolved. It is vitally important that the 
        Corps continue engineering studies to develop a permanent 
        solution to the threat of cutoffs developing in the lower 
        reaches of the navigation system; and for the Corps to 
        construct these measures under the existing construction 
        authority.
  --Provide funding and direct the Corps to complete installation of 
        tow haulage equipment for all the locks and dams on the 
        McClellan-Kerr Arkansas River Navigation System. This 
        efficiency feature will reduce lockage time by as much as 50 
        percent while permitting tonnage to double in each tow with 
        only a minor increase in operating cost.
  --Provide funds and direct the Corps of Engineers to begin 
        construction of the Arkansas River Levees Project as authorized 
        by Section 110 of the Water Resource Development Act of 1990. 
        $400,000 is needed in fiscal year 2002 to continue engineering 
        and design for these levees which have been previously studied 
        in the cost-shared Arkansas River, Arkansas and Oklahoma 
        Feasibility Study. $1.3 million needs be specifically provided 
        and the Corps directed to begin rehabilitation construction on 
        the Plum Bayou Levee (includes the Old River and Baucum 
        Levees).
  --Provide $7 million to initiate repair and rehabilitation of the 
        power units at the Ozark-Jetta Taylor Lock and Dam Powerhouse 
        which first went into operation in 1970. This project is 
        vitally needed to correct problems which have plagued the slant 
        axis turbines since they were first put in operation and to 
        continue the reliable production of power from this facility. 
        Having reliable power production facilities is vital to the 
        economic well being of this region of the country.
  --Provide funding in the amount of $1,175,000 to complete pre-
        construction engineering and design on the North Little Rock, 
        (Dark Hollow), AR, Project.
  --Provide funding in the amount of $1,845,000 to complete Fourche 
        Bayou Basin, Little Rock, AR, project. This will allow the U.S. 
        Army Corps of Engineers to cost-share with the City of Little 
        Rock on purchase of 1,750 acres of bottomland hardwood for 
        environmental preservation and establishment of nature 
        appreciation facilities.
    We also urge the Congress to continue to encourage the Military 
Traffic Management Command to identify opportunities to accelerate use 
of the nation's navigable waterways to move military cargoes thereby 
helping contain the nation's defense costs.
    In conclusion, Mr. Chairman, please help prevent a crisis for the 
Arkansas River Navigation System and the multi-state region it serves 
by appropriating $45 million for use in fiscal year 2002 for Montgomery 
Point Lock and Dam.
    The entire Arkansas River Navigation System is at risk, and its 
long-term viability is threatened. The system remains at risk until 
Montgomery Point is constructed. Some $5 billion in Federal and private 
investments, thousands of jobs, and growing exports are endangered.
    We fully endorse the statement presented to you today by the 
Chairman of the Arkansas River Basin Interstate Committee. We 
appreciate the opportunity to provide testimony to your most important 
subcommittee and urge you to favorably consider our request for needed 
infrastructure investments in the natural and transportation resources 
of our nation.
                                 ______
                                 

  Prepared Statement of the Arkansas River Basin Interstate Committee 
                               (Colorado)

    Mr. Chairman and members of the Committee, we greatly appreciate 
the opportunity to present testimony before this committee. My name is 
Steve Arveschoug. I am General Manager of the Southeastern Colorado 
Water Conservancy District and serve as Colorado Chairman for the 
Interstate Committee.
    The City of Pueblo and 21 other project partners request that 
funding be committed in the fiscal year 2002 Energy and Water 
Appropriations Bill for the Arkansas River Fisheries Restoration 
Project. The U.S. Army Corps of Engineers are completing the final 
stages of the Ecological Restoration Report and Environmental Analysis 
for the project and have scheduled the plans and specification for 
construction to be completed between August 2001 and January 2002. The 
City of Pueblo has secured a funding commitment of $2 million from the 
State of Colorado is Great Outdoors Colorado Board that is contingent 
upon the Federal government committing Section 206 Aquatic Ecosystem 
Restoration funds to complete design and start construction in fiscal 
year 2002.
    Congress annually appropriates funds within the Energy and Water 
Appropriations Bill for U.S. Army Corps of Engineers general 
construction projects that includes funding for Section 206 Aquatic 
Ecosystem Restoration projects. The commitment of project funds within 
this appropriations bill is needed to have the Great Outdoors Colorado 
Trust Board enter into a contract with the City of Pueblo to commit 
their funds to the project.
    The City Council and the project partners thank you for your 
previous support for this project and request your continued support of 
legislation to provide funding in fiscal year 2002. This request is the 
top priority of the Pueblo City Council in the upcoming Federal budget. 
The City Council requests the following wording be included in the 
Energy and Water Appropriations Bill or other Appropriations Bills that 
would commit funding in fiscal year 2002 for the Arkansas River 
Fisheries Restoration Project:
    The Committee approves the expenditure of up to $1.75 million in 
fiscal year 2002 on the Arkansas River Corridor Legacy Project from the 
Section 206 provision of this bill. The Committee is particularly 
cognizant of the State of Colorado is designation of funds to comply 
with non-Federal cost-sharing requirements of Section 206, and the 
State's need for a Federal commitment to the project, which is 
currently ranked as a priority for the Corps.
    We fully endorse the statement presented to you today by the 
Chairman of the Arkansas River Basin Interstate Committee. We 
appreciate the opportunity to provide testimony to your most important 
subcommittee and urge you to favorably consider our request for needed 
infrastructure investments in the natural and transportation resources 
of our nation.
                                 ______
                                 

  Prepared Statement of the Arkansas River Basin Interstate Committee 
                                (Kansas)

                           summary statement
    The critical water resource projects in the Kansas portion of the 
Arkansas River Basin are summarized below. The projects are safety, 
environmental and conservation oriented. In addition, we state our 
unanimous support for the fiscal year 2002 request of $45 million for 
continued construction of the authorized Montgomery Point Lock and Dam 
Project to maintain viable navigation for commerce on the McClellan-
Kerr Navigation System.
    We request your continued support for these important Bureau of 
Reclamation projects:
  --Equus Beds Groundwater Recharge Project.--Continuation of a City of 
        Wichita, Groundwater Management District No. 2 and State of 
        Kansas project to construct recharge facilities for a major 
        groundwater resource supplying water to more than 20 percent of 
        Kansas municipal, industrial and irrigation users. Almost one 
        billion gallons of water have already been recharged. The total 
        project will capture and recharge in excess of 100 million 
        gallons per day and will also reduce on-going degradation of 
        the existing groundwater quality by minimizing migration of 
        saline water. Continued Federal funding is requested in the 
        amount of $6,840,000 for fiscal year 2002.
  --Cheney Reservoir.--On the North Fork of the Ninnescah River 
        providing natural treatment of inflows in the upper reaches of 
        Cheney Reservoir to control poor water quality due to non-point 
        source pollution from agricultural runoff. Continued funding in 
        the amount of $125,000 is requested for fiscal year 2002.
    We request your support of these equally important Corps of 
Engineers projects:
  --Arkansas City, Kansas Flood Protection.--To protect homes and 
        businesses from catastrophic damages resulting from either 
        Walnut River or Arkansas River flooding. Previous funding is 
        appreciated and continued Federal funding is requested in the 
        amount of $5 million for fiscal year 2002, the level needed by 
        the Corps of Engineers.
  --Walnut River Basin, Kansas.--Feasibility study is needed to fully 
        understand and recommended ecosystem restoration strategies to 
        protect and extend the useful life of public water supply. 
        Funding is requested in the minimum amount of $200,000.
  --Grand Lake Feasibility Study.--Follow-on flood control study to 
        determine the most cost-effective solution to real estate 
        inadequacies of Federal flood control easements around Grand 
        Lake. Funding request in the amount of $1.7 million.
  --Grand (Neosho) Basin Watershed Reconnaissance Study--To evaluate 
        non-structural measures to reduce flood damages in southeastern 
        Kansas and northeastern Oklahoma. Funding request is for 
        $100,000.
  --Continuing Authorities Program.--Several smaller Kansas 
        communities, including the metropolitan area of Wichita, have 
        previously requested funding from the Small Flood Control 
        Projects Program and the Emergency Streambank Stabilization 
        Program. We request funding to be authorized at the full 
        programmatic limits.
  --National Streamflow Information Program (NSIP).--Funding at the 
        level needed by the USGS for a vital national baseline network 
        of stream gages needed to meet national interests.
    Finally, we are very grateful that both the Corps of Engineers and 
Bureau of Reclamation have the expertise needed for the development and 
protection of water resources infrastructure. It is essential to have 
the integrity and continuity these agencies provide on major public 
projects. Your continued support of these vital agencies, including 
funding, will be appreciated.
                               statement
    Mr. Chairman and members of the committee, I am Gerald H. Holman, 
Senior Vice President of the Wichita Area Chamber of Commerce, Wichita, 
Kansas and Chairman of the Kansas Interstate Committee for the Arkansas 
Basin Development Association (ABDA). I also serve as Chairman of ABDA. 
This statement is submitted on behalf of the entire Kansas Delegation.
    We join with our colleagues from the states of Oklahoma, Arkansas 
and Colorado to form the multi-state Arkansas River Basin Interstate 
Committee. We are unified as a region and fully endorse the statement 
of the Arkansas River Basin Interstate Committee.
    In addition to the important projects listed below, continued 
construction to completion of the Montgomery Point Lock and Dam Project 
is essential to maintain viable navigation for commerce on the 
McClellan-Kerr Navigation System. This inland waterway is vital to the 
economic health of our area. Likewise, your support is vital to 
maintain its future viability. Construction is well underway and 
continued funding authorization is needed. We state our unanimous 
support for the $45 million needed by the Corps of Engineers for fiscal 
year 2002 to maintain the most economical and cost efficient 
construction schedule.
    The critical water resources projects in the Kansas portion of the 
Arkansas River Basin have been reviewed by the Kansas delegation. The 
projects are safety, environmental and conservation oriented and all 
have regional and/or multi-state impact. We are grateful for your past 
commitment and respectfully request your continued commitment.
    We ask for your continued support for these important Bureau of 
Reclamation projects on behalf of the Wichita/South Central Kansas 
area:
    Equus Beds Groundwater Recharge Project.--This is the continuation 
of a Bureau of Reclamation project jointly endorsed by the City of 
Wichita, Groundwater Management District No. 2 and the State of Kansas. 
This model technology has proven the feasibility of recharging a major 
groundwater aquifer supplying water to nearly 600,000 irrigation, 
municipal and industrial users. The demonstration project has 
successfully recharged almost one billion gallons of water from the 
Little Arkansas River. The recharge project is also helping to protect 
the aquifer from on-going degradation caused by the migration of saline 
water.
    The demonstration project has confirmed earlier engineering models 
that the full scale aquifer storage and recovery project is feasible 
and also capable of meeting the increasing water resource needs of the 
area to the mid 21st century. Presently, the Equus Beds provides 
approximately half of the Wichita regional municipal water supply and 
is vital to the surrounding agricultural economy. Through the recharge 
project, a greater reliance on the aquifer is planned for the future. 
The project is also an essential environmental protection strategy, 
which must be implemented.
    Governor Graves supports this much needed project in order to 
secure the quality of life and economic future for more than 20 percent 
of the state's population.
    The full scale design concept for the aquifer storage and recovery 
project calls for a multi-year construction program. Phase One is 
estimated to cost $17.1 million. Construction is planned to begin in 
early 2002. The total project involving the capture and recharge of 
more than 100 million gallons of water per day is estimated to cost 
$110 million over 10 years. All interested parties fully support this 
project as the needed cornerstone for the area agricultural economy and 
for the economy of the Wichita metropolitan area. The aquifer storage 
and recovery project is a vital component of Wichita's comprehensive 
and integrated water supply strategy estimated to cost $350 million at 
completion.
    We are grateful for your consistent, previous cost share funding 
support since fiscal year 1995 as a compliment to funds provided by the 
City of Wichita. We request continued cost share funding for Phase One 
of the full-scale aquifer storage and recovery project in the amount of 
$6,840,000 for fiscal year 2002.
    heney Reservoir.--The reservoir provides approximately 50 percent 
of Wichita's regional water supply. Two environmental problems threaten 
the water quality and longevity of the reservoir. One is sedimentation 
from soil erosion and the other is non-point source pollution, 
particularly the amount of phosphates entering the reservoir resulting 
in offensive taste and odor problems. A partnership between farmers, 
ranchers and the City of Wichita has proven beneficial in implementing 
soil conservation practices and to better manage and therefore reduce 
and/or eliminate non-point source pollution. Lansat 7 imaging and 
digital elevation modeling have been employed to identify high priority 
areas. To date, over 1,900 environmental projects have been completed 
within the 543,000-acre watershed. This partnership must continue 
indefinitely to protect the reservoir and to extend the life of the 
Wichita regional water supply. The City of Wichita is providing funding 
for this critical, nationally acclaimed model nonpoint source pollution 
project. We request continued Federal funding in the amount of $125,000 
for fiscal year 2002. With funding from Section 319 of the Clean Water 
Act being phased out, we request another funding source to continue 
this vital program.
    Many of our agricultural communities have historically experienced 
major flood disasters, some of which have resulted in multi-state 
hardships involving portions of the state of Oklahoma. The flood of 
1998 emphasized again the need to rapidly move needed projects to 
completion. Our small communities do not have the necessary funds or 
engineering expertise. Major losses also took place in the Wichita 
metropolitan area. Projects in addition to local protection are also 
important. This Committee has given its previous support to Kansas 
Corps of Engineers projects. We request your continued support for the 
projects listed below:
  --Arkansas City, Kansas Flood Protection.--Unfortunately, this 
        project was not completed prior to the flood of 1998. The flood 
        demonstrated again the critical need to protect the 
        environment, homes and businesses from catastrophic damages 
        from either Walnut River or Arkansas River flooding. When the 
        project is complete, damage in a multi-county area will be 
        eliminated and benefits to the state of Oklahoma just a few 
        miles south will also result. The Secretary of the Army was 
        authorized to construct the project in fiscal year 1997. We 
        request your continued Federal support in the amount of $5 
        million for fiscal year 2002, the level needed by the Corps of 
        Engineers.
  --John Redmond Reservoir Reallocation Study.--John Redmond Reservoir 
        remains a primary source of water supply for many small 
        communities in Kansas. It is suffering loss of capacity ahead 
        of its design rate due to excessive deposits within the 
        conservation pool. The flood pool remains above its design 
        capacity. Funding provided in fiscal year 2001 should be 
        sufficient for the Corps of Engineers to complete a study which 
        will ascertain the equitable distribution of sediment storage 
        between conservation and flood control storages and also 
        evaluate the environmental impact of the appropriate 
        reallocation. No additional funding is requested in fiscal year 
        2002. However, funding may be requested in fiscal year 2003.
  --Walnut River Basin, Kansas.--The concern for the protection and 
        restoration of wetland and riparian areas has increased in 
        response to greater public understanding of ecological and 
        economic value. Riparian corridor and wetland preservation and 
        protection practices are increasingly more important as 
        corrective measures for nonpoint source pollution thereby 
        extending the useful life of public water supply lakes in the 
        basin. An initial Corps reconnaissance report has been 
        certified yet a feasibility study is needed to fully understand 
        and recommend solutions to ecosystem restoration. Funding is 
        requested in the minimum amount of $200,000 for fiscal year 
        2002.
  --Grand Lake Feasibility Study.--A need exists to complete evaluation 
        of water resource problems in the Grand-Neosho River basin in 
        Kansas and Oklahoma to evaluate solutions to upstream flooding 
        problems associated with the adequacy of existing real estate 
        easements necessary for flood control operations of Grand Lake, 
        Oklahoma. A study authorized by the Water Resources Development 
        Act of 1996 was completed in September of 1998 and determined 
        that if the project were constructed based on current criteria, 
        additional easements would be required. A Feasibility study is 
        necessary to determine the most cost-effective solution to the 
        real estate inadequacies. Changes in the operations of the 
        project or other upstream changes could have a significant 
        impact on flood control, hydropower, and navigation operations 
        in the Grand (Neosho) River system and on the Arkansas River 
        basin system. We request funding in the amount of $1.7 million 
        in fiscal year 2002.
  --Grand (Neosho) Basin Watershed Reconnaissance Study.--A need exists 
        for a basin-wide water resource planning effort in the Grand-
        Neosho River basin, apart from the issues associated with Grand 
        Lake, Oklahoma. The reconnaissance study would focus on the 
        evaluation of institutional measures needed to improve the 
        quality of the aquatic and terrestrial habitat in the basin and 
        to assist communities, landowners, and other interests in 
        southeastern Kansas and northeastern Oklahoma in the 
        development of non-structural measures to reduce flood damages. 
        The study could also address the land losses due to streambank 
        erosion which the basin experiences on an annual basis and 
        which contributes to the degradation of the habitat in the 
        basin. We request funding in the amount of $100,000 in fiscal 
        year 2002 to conduct the study.
  --Continuing Authorities Programs.--We support funding of needed 
        programs including the Small Flood Control Projects Program 
        (Section 205 of the 1948 Flood Control Act, as amended) as well 
        as the Emergency Streambank Stabilization Program (Section 14 
        of the 1946 Flood Control Act, as amended). Smaller communities 
        in Kansas (Pittsburgh, McPherson and Medicine Lodge) have 
        previously requested assistance from the Corps of Engineers 
        under these programs. Section 205 Feasibility studies are 
        underway to address flooding problems in Wichita, Augusta and 
        Coffeyville. We urge you to support these programs to the $50 
        million programmatic limit for the Small Flood Control Projects 
        Program and $15 million for the Emergency Streambank 
        Stabilization Program.
    The Planning Assistance to States Program under section 22 of the 
Water Resources Development Act of 1974, as amended, provides Federal 
funding to assist the states in water resource planning. The state of 
Kansas is grateful for previous funding under this program which has 
assisted small Kansas communities in cost sharing needed resource 
planning as called for and approved in the Kansas State Water Plan. We 
request continued funding of this program at the level which will allow 
the state of Kansas to receive the $500,000 limit.
    Also, Ecosystem Restoration Programs are relatively new programs 
which offer the Corps of Engineers a unique opportunity to work to 
restore valuable habitat, wetlands, and other important environmental 
features which previously could not be considered. Preliminary 
Restoration Plan studies are underway at Newton, Garden City and Neosho 
County. We urge you to support section 1135 of the Water Resources 
Development Act of 1986 and Section 206 of the Water Resources 
Development Act of 1996 at their $25 million programmatic limits.
  --National Streamflow Information Program (NSIP).--For more than 100 
        years, the USGS has operated a multipurpose streamgaging 
        network supported primarily by other Federal, State and Local 
        agencies. Streamflow data from those stations is used for 
        planning and decisions related to agriculture, industry, urban 
        water supplies, riverine and riparian habitat, navigation and 
        flood hazard verification. The loss of about 22 percent of the 
        streamgaging stations since 1971 has resulted in a commensurate 
        loss in valuable streamflow information. In 1998, the USGS 
        completed a study on the ability of the streamgaging network to 
        meet Federal needs. A NSIP program was recommended to produce 
        information for multiple current and future uses. We recommend 
        funding the NSIP program to cover the entire cost of a baseline 
        network of stream gages needed to meet national interests in 
        order to ensure the long-term stability of this vital network.
    Finally, we are very grateful that both the Corps of Engineers and 
Bureau of Reclamation have the expertise needed for the development and 
protection of water resources infrastructure. It is essential to have 
the integrity and continuity these agencies provide on major public 
projects. Your continued support of these vital agencies, including 
funding, will be appreciated. Our infrastructure must be maintained and 
where needed, enhanced for the future.
    Mr. Chairman and Members of this Committee, we thank you for the 
dedicated manner in which you and your colleagues have dealt with the 
Water Resources Programs and for allowing us to present our needs and 
funding requests.
    Thank you very much.
                                 ______
                                 

  Prepared Statement of the Arkansas River Basin Interstate Committee 
                               (Oklahoma)

                           summary statement
    The water resource needs for the State of Oklahoma have been 
carefully reviewed and the following accurately represents the needs of 
the citizens of our region.
    We continue to hold as our number on priority the continued 
construction of Montgomery Point Lock and Dam in Arkansas. The 
completion of this project is critical to the continued use of the 
navigation system and the continued growth of the entire region. We 
request an appropriation of $45 million for fiscal year 2001.
    We strongly urge the Committee to provide funding in the amount of 
$2.5 million to initiate the installation of tow haulage equipment on 
the 3 locks and dams on the Arkansas River portion of the McClellan-
Kerr Arkansas River Navigation System in Oklahoma.
    The Arkansas River System Operations Feasibility Study, Arkansas 
and Oklahoma. This study would optimize the reservoirs in Oklahoma and 
Arkansas that provide flows into the river with a view toward improving 
the number of days per year that the navigation system will accommodate 
tows. WRDA 2000 also directs the Corps of Engineers to expedite the 
study including the feasibility of increasing the authorized channel 
depth from 9' to 12'. We request funding in the amount of $2 million, 
to continue the study in fiscal year 2001.
    We request the Committee to provide funding for the following 
studies:
  --Illinois River Watershed Reconnaissance Study, $100,000.
  --Grand(Neosho) Basin Reconnaissance Study, $100,000.
  --Grand Lake Feasibility Study, $1.7 million.
  --Lake Tenkiller Reallocation Study, $500,000.
  --Wister Lake Reallocation Study, $450,000.
  --Oologah Lake Water Quality Study, $515,000.
    We also urge the Committee to provide adequate funding for the 
following Programs:
  --Section 205, Small Flood Control Projects Program, $50 million, 
        program limit.
  --Section 14, Emergency Streambank Stabilization Program, $15 
        million, program limit.
  --Sections 1135 and 206, Ecosystem Restoration Programs and Flood 
        Plain Management Services Program, $25 million each, program 
        limits.
    On a related matter, we have deep concerns about the attempt to re-
authorize the Endangered Species Act without significant beneficial 
reforms. We strongly urge you to take a hard look at any bill 
concerning this re-authorization and insure that it contains reasonable 
and meaningful reforms.
                               statement
    Mr. Chairman and members of the committee, I am James M. Hewgley, 
Jr., Oklahoma Chairman of the Arkansas River Basin Interstate 
Committee, from Tulsa, Oklahoma.
    It is my privilege to present this statement on behalf of the 
Oklahoma members of our committee in support of adequate funding for 
water resource development projects in our area of the Arkansas River 
Basin. Other members of the Committee are: Mr. Ted Coombes, Tulsa; Mr. 
Edwin L. Gage, Muskogee; Mr. Terry McDonald, Tulsa; and Mr. Lew 
Meibergen, Enid.
    Together with representatives of the other Arkansas River Basin 
states, we fully endorse the statement presented to you by the Chairman 
of the Arkansas River Basin Interstate Committee. We appreciate the 
opportunity to present our views of the special needs of our States 
concerning several studies and projects.
    Montgomery Point Lock and Dam--Montgomery Point Arkansas. As we 
have testified for the past several years, we are once again requesting 
adequate appropriations to continue construction of this most important 
and much needed project. The shippers and users of the McClellan-Kerr 
Arkansas River Navigation System have been seriously impacted by 
droughts in the past, and last year with the lowest flows in recorded 
history at Memphis, on the Mississippi River. This again demonstrates 
the absolute need for completion of this critical project, as such an 
event will drain the navigation water from the 10 mile White River 
Entrance Channel to the McClellan-Kerr System.
    We respectfully request the Congress to appropriate $45 million in 
the fiscal year 2002 budget cycle to continue construction on the 
current project schedule. This will help insure the project is 
completed and in operation in a timely manner at the lowest possible 
cost.
    Mr. Chairman, it is my pleasure to point out to this distinguished 
Committee that this navigation system has brought low cost water 
transportation to Oklahoma, Arkansas and the surrounding states. There 
have been over $5 billion invested in the construction and development 
of the McClellan-Kerr Arkansas River Navigation System by the Federal 
Government and the public and private sector, resulting in the creation 
of over 50,000 jobs in this partnered project.
    Tow Haulage Equipment--Oklahoma. We also request funding of $2.5 
million to initiate the installation of tow haulage equipment on the 
locks located along the Arkansas River Portion of the McClellan-Kerr 
Arkansas River Navigation System. Total cost for these three locks is 
$4.5 million. This project will involve installation of tow haulage 
equipment on W.D. Mayo Lock and Dam#14, Robert S. Kerr Lock and Dam#15, 
and Webbers Falls Lock and Dam#16, on the Oklahoma portion of the 
waterway. The tow haulage equipment is needed to make transportation of 
barges more efficient and economical by allowing less time for tows to 
pass through the various lock and dams.
    We are hopeful that the President's budget includes funds to 
advance work for flood control and other water resource needs in 
Oklahoma. Of special interest to our committee is funding for the 
Skiatook and Tenkiller Ferry Lakes Dam Safety Assurance Projects in 
Oklahoma and that construction funding has been provided for those 
important projects. We are also pleased that funding is included to 
continue reconnaissance studies and initiate feasibility studies in the 
North Canadian River Basin for Warr Acres, Oklahoma, and for the 
Cimarron River Basin in Kansas and Oklahoma.
    Arkansas River System Operations Feasibility Study, Arkansas and 
Oklahoma.--We are requesting funds to continue the Arkansas River 
Navigation Study, a feasibility study which is examining opportunities 
to optimize the Arkansas River system. We want to express our 
appreciation for the Committee's past support for this important study. 
In addition to your action, taking into account the need to realize the 
total economic potential of the McClellan-Kerr System, WRDA 2000 
directed the Corps of Engineers to ``expedite completion of the 
Arkansas River Navigation Study, including the feasibility of 
increasing the authorized channel depth from 9 feet to 12 feet.''
    Lock chambers on the McClellan-Kerr were built to accommodate a 12 
foot channel. Approximately 95 percent of the lower Arkansas already 
enjoys a 12 foot or greater channel depth. A 12 foot channel can mean 
one-third or more cargo in each barge with resultant energy savings, 
reduction in greenhouse gases and other environmental advantages.
    While navigation is the primary purpose of the McClellan-Kerr 
System, navigation needs and flood control are closely related. Chronic 
high-water flows and channel restrictions result in decreased 
navigation traffic, as well as continued flooding in the vicinity of 
Fort Smith, Arkansas, and reduced recreational use.
    The system of multipurpose lakes in Arkansas and Oklahoma on the 
Arkansas River and its tributaries supports the McClellan-Kerr 
Navigation System, which was opened for navigation to the Port of 
Catoosa near Tulsa, Oklahoma, in 1970. The navigation system consists 
of 445 miles of waterway that wind through the states of Oklahoma and 
Arkansas. This study would optimize the operation of the reservoirs in 
Oklahoma and Arkansas that provide flows into the river with a view 
toward improving the number of days per year that the navigation system 
would accommodate navigation.
    This study could have significant impact on the economic 
development opportunities in the states of Oklahoma, Arkansas, and the 
surrounding states. Due to the critical need for this study, however, 
we request funding of $2 million, which is the amount the Corps can 
efficiently spend in fiscal year 2002 should the Congress approve and 
appropriate the funds.
    Illinois River Watershed Reconnaissance Study.--The Tulsa District 
has the capability to utilize $100,000 to conduct a reconnaissance 
study of the water resource problems of the Illinois River Basin in 
fiscal year 2002. The Illinois River watershed is experiencing 
continued water resource development needs and is the focus of ongoing 
Corps and other agency investigations. However, additional flows are 
sought downstream of the Lake Tenkiller Dam and there are increasing 
watershed influences upstream of Lake Tenkiller which impact the 
quality of water available for fish and wildlife, municipal and 
industrial water supply users, and recreation users of the Lake 
Tenkiller and Illinois River waters. We are requesting funding in the 
amount of $100,000 for this study.
    Grand (Neosho) Basin Reconnaissance Study.--The Tulsa District has 
the capability to utilize $100,000 to conduct a reconnaissance study of 
the water resource problems in the Grand (Neosho) Basin in Oklahoma and 
Kansas. There is a need for a basin-wide water resource planning effort 
in the Grand-Neosho River Basin, apart from the issues associated with 
Grand Lake, Oklahoma. The reconnaissance study would focus on the 
evaluation of institutional measures to improve the quality of the 
aquatic and terrestrial habitat in the basin and to assist communities, 
landowners, and other interests in southeastern Kansas and northeastern 
Oklahoma and in the development of structural and non-structural 
measures to reduce flood damages. The study could also address the land 
losses due to streambank erosion which the basin experiences on an 
annual basis and which contributes to the degradation of the habitat in 
the basin. We therefore request funding in the amount of $100,000 in 
fiscal year 2002 to conduct the study.
    Grand Lake Feasibility Study.--A study authorized by the Water 
Resources Development Act of 1996 was completed in September of 1998 
and determined that if the project were constructed based on current 
criteria, additional easements would be acquired. A Feasibility Study 
is now required to determine the most cost-effective solution to the 
real estate inadequacies. Changes in the operations of the project or 
other upstream changes could have a significant impact on flood 
control, hydropower, and navigation operations in the Grand (Neosho) 
River system and on the Arkansas River Basin system, as well. The Tulsa 
District has capability to utilize and this committee strongly urges 
the Congress to appropriate $1.7 million for this study in fiscal year 
2002.
    Lake Tenkiller Reallocation Study.--The Tulsa District can execute 
this study in fiscal year 2002 if funding in the amount of $500,000 is 
appropriated to conduct a reallocation study of the water storage of 
Tenkiller Ferry Lake, Oklahoma. Tenkiller Ferry Lake is located on the 
Illinois River approximately 7 miles northeast of Gore, Oklahoma, and 
22 miles southeast of Muskogee, Oklahoma. Construction of the existing 
project began in June 1947 and the dam was completed in May 1952. The 
proposed study would involve reallocation of the authorized project 
purposes among competing users of the project's flood control, 
hydropower and water supply resources.
    Wister Lake Reallocation Study.--We request funding of $450,000 to 
conduct a reallocation study of the water storage of Wister Lake, 
Oklahoma. Wister Lake is located on the Poteau River near Wister, 
Oklahoma. The lake was completed in 1949 for flood control, water 
supply, water conservation and sediment control. Wister Lake is the 
primary water resource development project in the Poteau River Basin. 
It provides substantial flood control, municipal and industrial water 
supply, and recreation benefits for residents of LeFlore County, 
Oklahoma, and the southeastern Oklahoma region. Originally constructed 
for flood control and water conservation, seasonal pool manipulation 
was initiated in 1974 to improve the project's water supply and 
recreation resources. The conservation pool level was permanently 
raised in the Water Resources Development Act of 1996. A reallocation 
study, which would include National Environmental Policy Act (NEPA) 
coordination, is required. NEPA and other resource evaluation and 
coordination would include the assessment of cultural and fish and 
wildlife impacts, potential mitigation measures, and reallocation 
studies.
    Oologah Lake Water Quality Study.--Tulsa District can utilize 
$515,000 for ongoing water quality studies at Oologah Lake and in the 
upstream watershed. The lake is an important water supply source for 
the city of Tulsa and protection of the lake and maintaining and 
enhancing the quality of the water is important for the economic 
development of the city. The Corps of Engineers is working closely with 
the city and with the Oklahoma Water Resources Board to insure a 
unified approach to analysis and preservation of the lake water 
quality. We request the study be funded and that the Corps of Engineers 
be directed to conduct the studies at full Federal expense. We 
therefore urge this Committee to provide funding in the amount of 
$515,000 to move this study forward.
    Continuing Authorities Program.--We also support funding of needed 
programs including the Small Flood Control Projects Program, (Section 
205 of the 1948 Flood Control Act, as amended) as well as the Emergency 
Streambank Stabilization Program, (Section 14 of the 1946 Flood Control 
Act, as amended). Smaller communities in Kansas (Iola, Liberal, 
Medicine Lodge, McPherson, Parsons, Altoona and Coffeyville) have 
previously requested assistance from the Corps of Engineers under these 
programs. We urge you to support these programs to the $50 million 
programmatic limit for the Small Flood Control Projects Program and $15 
million for the Emergency Streambank Stabilization Program.
    Ecosystem Restoration Programs.--Ecosystem Restoration Programs are 
relatively new programs which offer the Corps of Engineers a unique 
opportunity to work to restore valuable habitat, wetlands, and other 
important environmental features which previously could not be 
considered. We urge you to support section 1135 of the Water Resources 
Development Act of 1986 and Section 206 of the Water Resources 
Development Act of 1996 at the $25 million programmatic limits.
    Challenge 21 Program.--The Challenge 21 Program has the possibility 
of providing great assistance to communities which have experienced 
disastrous flood events like those that took place in Kansas with the 
flood of 1998. The Challenge 21 Program will focus on opportunities to 
move homes and businesses from harm's way through structural and non-
structural measures and through comprehensive watershed planning 
efforts. We support funding of this important initiative.
    Planning Assistance to States.--We also support the full funding of 
the Planning Assistance to States (PAS) Program to the full 
programmatic amount of $10 million. The PAS program (Section 22 of the 
1974 Water Resources Development Act) authorizes the Corps of Engineers 
to use its technical expertise in water and related land resource 
management to help States and Indian Tribes solve their water resource 
problems. The program is used by many states to support their State 
Water Plans. As natural resources diminish, the need to manage those 
resources becomes more urgent. We urge your continued support of this 
program as it supports States and Native American Tribes in developing 
resource management plans which will benefit citizens for years to 
come. The program is very valuable and effective, matching Federal and 
non-Federal funds to provide cost effective engineering expertise and 
support to assist communities, states and tribes in the development of 
plans for the management, optimization, and preservation of basin, 
watershed, and ecosystem resources.
    On a related matter, we would share with you our concern that the 
Administration has not requested sufficient funds to meet the 
increasing infrastructure needs of the inland waterways of our nation. 
The Administration's request that there be no new starts undertaken so 
funds will be available to complete projects already underway, may only 
delay those much needed projects until there are serious safety 
concerns or, worse yet, complete failure of some existing 
infrastructure. While this strategy may look good on paper, it may 
actually cause more expense in the long run if/when there is a major 
failure of significant infrastructure. We encourage the Congress to 
appropriate sufficient construction funds to spend down the Inland 
Waterways Trust Fund. We further urge the Congress to continue to fund 
construction and major rehabilitation at a level to keep the fund spent 
down in the future. We would respectfully remind the Congress that cost 
sharing was your idea and as the industry has stepped up to meet that 
challenge the Congress seems to be backing away from it's 
responsibility of matching much needed funds. Moving the completion 
dates out is an unacceptable exercise since 50 percent of the funds 
comes from the Waterways Trust Fund. This will not only waste Federal 
funds, but those from the trust fund as well.
    We strongly urge the Appropriations Committee to raise the Corps of 
Engineers' appropriation to $5 billion to help get delayed construction 
projects back on schedule and to reduce the deferred maintenance 
backlog which is out of control. This will help the Corps of Engineers 
meet the obligations of the Federal Government to people of this great 
country.
    As an example of deferred maintenance in the Tulsa District we 
offer the following for your consideration. The 10 most critical, 
deferred items in the district are: Waurika Project Office, replace 
inflatable fabric dam (chloride control project) $340,000; Robert S. 
Kerr Project Office (navigation), repair downstream weir and tainter 
gate, Lock and Dam 14, $290,000; Canton Project Office, repair tainter 
gates, replace chains w/cables and seals, $3,540,000; Texoma Project 
Office, replace service gate roller chains, $540,000; Fall River 
Project Office, repair stilling basin, $355.000; Fall River Project 
Office, repair Elk City stilling basin, $200,000; Eufaula Project 
Office, rehabilitate area office roof, heating, ventilation and air 
conditioning, and electric, $415,000; Fall River Project Office, repair 
sluice gates and liners, $320,000; Fall River Project Office, repair 
sluice gates and liners, $305,000; Fort Gibson Project Office, repair 
roller chains emergency closure gate,$200,000. This brings the total 
just for these 10 most needed, deferred projects to $6,505,000.
    An example of the 10 most critical deferred projects on the 
McClellan-Kerr Navigation System in Oklahoma are (all are Robert S. 
Kerr Project Office): the second item above, which is number 2 in the 
District; repair tainter gates at Chouteau Lock & Dam (number 11 in the 
District), $685,000; streambank stabilization at Marine Terminal and 
downstream dike repair (number 29 in the District), $470,000; construct 
navigation signs (number 30 in the District), $685.000; retrofit ss 
switchgear with solid state trip units (number 33 in the District), 
$100,000; refurbish governors (number 35 in the District), $800,000; 
replace acb's with vacuum units, (number 59 in the District), $475.000; 
replace bridge bearing pad Lock and Dam 17 (number 64 in the District), 
$270,000; repair support cells, Lock 15 us/rw (number 71 in the 
District), $415,000; miscellaneous repairs to miter gates Lock & Dam 15 
(number 75 in the District), $200,000. This brings the total for the 10 
most critical navigation maintenance projects to $4,390,000.
    Within the Tulsa District there are a total of 331 deferred 
maintenance projects, for a total deferred cost of $114,191,000. We 
would respectfully remind this Committee that this is only one district 
of the Corps of Engineers. The total deferred operation and maintenance 
for the Corps of Engineers is $450,000,000. This is a ``scrubbed list'' 
that contains only the most critical deferred projects. Delayed 
preventive maintenance is risky business at best. One failure of a 
major structure could have catastrophic consequences in loss of 
services, infrastructure and possibly life.
    Concerning another related matter, we have deep concerns about the 
attempt to re-authorize the Endangered Species Act without significant 
beneficial reforms. If a bill is passed through without reforms, it 
will be devastating to industry and the country as a whole. We strongly 
urge you to take a hard look at any bill concerning this re-
authorization and insure that it contains reasonable and meaningful 
reforms. This Interstate Committee would recommend that funding be 
withheld for this program until reforms are enacted and the bill 
reauthorized.
    Mr. Chairman, we appreciate this opportunity to present our view on 
these subjects.
                                 ______
                                 

 Prepared Statement of the Board of Levee Commissioners for the Yazoo 
                           Mississippi Delta

    This statement, made today on behalf of the citizens represented by 
the Yazoo Mississippi Delta Levee Board, is not only in support of the 
funding request contained herein, but also for the general funding 
testimony for fiscal year 2002 as submitted by the Mississippi Valley 
Flood Control Association. The Association is requesting funding in the 
amount of $395 million for the Mississippi River and Tributaries 
Project (MR&T), a figure based on the Association's professional 
assessment of the capabilities of the Corps of Engineers, Mississippi 
Valley Division.
    In the aftermath of the devastating 1927 Mississippi River Flood, 
the Flood Control Act of 1928 established a national priority on the 
development of a comprehensive flood control plan to reduce the 
likelihood of such a devastating event happening again in the lower 
Mississippi valley. As we look back today, some 73 years later, that 
plan, the MR&T, has returned $23 in benefits for each dollar expended 
and represents a true American public works success story.
    Unfortunately, a substantial amount of uncompleted work on the 
project remains, necessarily exposing many areas to the risks of flood. 
Consequently, the YMD Levee Board urges Congress to provide funding at 
a level which will allow the MR&T to continue at a pace commensurate 
with the national priority to protect people and property from the 
ravages of flooding. To avoid potentially hazardous work stoppages and 
delays in award of needed new projects; we again must depend upon the 
men and women of Congress to add the necessary funding to the 
Administration's budget, which will allow the Corps of Engineers to 
proceed with their work, at full capacity.
    What follows is a brief overview of the projects within our 
district with merit special mention:
           mississippi river levees and channels maintenance
    Within our Levee District, the U.S. Army Memphis Engineer District 
is continuing its studies and design efforts to address the problems of 
significant under-seepage and bolls which occur during high river 
stages at the Hillhouse area in Coahoma County, Miss. We urgently hope 
that a solution for this potentially levee threatening situation can be 
devised in the months ahead.
                       upper yazoo projects (uyp)
    This plan, originally released in 1936, includes a system of flood 
control reservoirs that would discharge into a system of channels and 
levees, which could safely convey headwater from the hills to the Miss. 
River. While considerable construction progress has been made on the 
UYP, the YMD Levee Board is requesting assistance from Congress to 
secure supplemental funding for fiscal year 2002 so that ongoing 
construction and contract awards can proceed beyond the city of 
Greenwood.
                yazoo headwater flood control reservoirs
    Four major flood control reservoirs exist in Mississippi to control 
the release of headwater into the Yazoo River system--Arkabutla, 
Sardis, Enid and Grenada reservoirs. These have prevented significant 
flood damages by allowing drainage from the hills to be released into 
the Delta at the proper rate. The proper maintenance and operation of 
these reservoirs is critical to all persons residing downstream and 
hence, the YMD Levee Board is requesting funding which will allow the 
Corps to make necessary operational repairs and improvements.
              sunflower river channel maintenance project
    The Sunflower River System, the primary drainage outlet for 10 
counties, is subject to the same siltation factors as all Delta 
streams, and has been determined by the Corps to have a 40 percent 
reduced flow capacity. Following the completion of studies, the first 
item of work on the project has been completed and right-of-way 
acquisition is being completed for the disposal sites on the second 
item of work. Additional funding is critically needed for the second 
construction contract and additional right-of-way acquisition below the 
Holly Bluff area and we join our sister Mississippi Levee Board in 
urging Congress to provide these badly needed additional funds.
              demonstration erosion control project (dec)
    While these measures to control erosion and sedimentation in 
streams are primarily located outside our district, we support the 
continued funding of the DEC due to the substantial amounts of the 
sediments controlled by these projects would eventually end up within 
the Coldwater-Tallahatchie-Yazoo River System. Such sedimentation would 
necessarily result in significant additional maintenance on the system 
to prevent loss of system capacity.
                        yazoo tributaries study
    The last phase of the MR&T project in the Yazoo Basin, this study 
will identify work necessary for proper drainage and flood control on 
the major tributaries in the Yazoo River System. We urge adequate 
funding for the timely completion of this study so that construction 
improvements might begin as the UYP progresses upstream.
                            yazoo backwater
    The Yazoo Backwater Project, under the jurisdiction of the 
Mississippi Levee Board, is designed to reduce the effects of backwater 
flooding incidents in the South Delta and is very important to the 
people of that region. Consequently, we support the position of our 
sister Levee Board in requesting additional funding so that this 
project might proceed in a timely manner.
                                 ______
                                 

     Prepared Statement of the Los Osos Community Services District

    Honorable Subcommittee Members: The Los Osos Community Services 
District (LOCSD) respectfully submits this testimony in support of 
Representative Lois Capps' Water Resources Development Act (WRDA) 
request to appropriate $7.8 million in Federal fiscal year 01-02 to pay 
for design of the Los Osos Wastewater Project, Los Osos, California. 
WRDA Design funding for the Los Osos Wastewater Project was authorized 
in Section 219(a)27 of HR4577 of 2000.
    The Los Osos Community Services District serves a population of 
14,600 people within a 3,500-acre territory adjacent to the Morro Bay 
National Estuary in San Luis Obispo County. The regulatory agency 
responsible for protecting ground water quality for Los Osos, the 
Central Coast Regional Water Quality Control Board (RWQCB), has 
determined that discharge from private septic systems is the principle 
source of nitrate contamination of the shallow portion of the Los Osos 
Groundwater Basin. The RWQCB has issued twenty four separate Cease and 
Desist Orders and a Time Schedule Order requiring LOCSD to replace the 
septic systems in a 2,500 acre ``Zone of Prohibition'' with a community 
sewer. The RWQCB has also ordered a moratorium on new construction and 
intensification of existing uses within the Zone of Prohibition.
    In addition to the outstanding RWQCB orders, The Morro Bay National 
Estuary Program (MBNEP) has determined that construction of a Los Osos 
Community Sewer is a high priority for protecting the Morro Bay 
National Estuary. In EPA's approved plan for protecting Morro Bay, 
``Turning the Tide for Morro Bay'', the MBNEP states that, ``Another 
important source of nutrients to Morro Bay is generated from leaking 
and failing septic tanks in Los Osos. The Community of Los Osos/Baywood 
Park, with a population of 14,600, is located directly on the edge of 
Morro Bay and is still served by onsite septic systems. It is possible 
that some of the degraded groundwater is entering the bay--A wastewater 
system needs to be developed, funds need to be obtained, incentives 
need to be developed, and education activities need to be undertaken to 
resolve this long term problem.''
    The Health Officer for the County of San Luis Obispo has issued 
health warnings regarding the high level of bacteria and pathogens in 
surface water. According to Dr. Richard Lichtenfels of County Health, 
``the Department agrees that the standing pools do represent a health 
threat. Until a public sewer and comprehensive surface water drainage 
system is built, this office will continue to monitor the standing 
pools and appraise the community of the potential for disease 
transmission.''
    Finally, nitrate contamination of the shallow groundwater basin 
from septic discharge has forced the three Los Osos water purveyors to 
abandon production from the unconfined layer and to substitute 
groundwater from the lower confined aquifer. As a result the community 
has started to experience salt-water intrusion in portions of the deep 
groundwater layer.
    To address these problems, LOCSD has selected a community 
wastewater system that the RWQCB has described as viable and 
technically sound. Following is a summary of the collection, treatment, 
and disposal components of the proposed system:
    Collection System.--A gravity collection system would be designed 
to transport raw wastewater from approximately 4750 sites to the 
treatment facility in 204,000 linear feet of PVC pipe with ten lift 
stations in low spots around the perimeter of the collected area.
    Treatment Facility.--A treatment facility at the TriW site would be 
designed to produce tertiary treated wastewater with a quality suitable 
for public contact (Ca. Health Code Title 22) using the extended 
aeration process followed by filtration and ultra violet light 
disinfection. Since the proposed site is downtown, the proposed 
treatment facility would be covered and odor-scrubbed to avoid use 
conflicts. As a side benefit, the surface of the covered portion of the 
facility would be used for an off-leash dog park, sports fields and 
trails.
    Disposal System.--The disposal system would be designed to recharge 
the groundwater basin with the low nitrate level tertiary treated 
wastewater using subsurface leachfields in areas with adequate 
separation to groundwater on both sides of the Los Osos fault trace. 
This disposed tertiary water is recharged into the groundwater table so 
that the District can harvest additional well water down gradient to 
augment the community's sustainable water supply.
    LOCSD has performed the environmental review required by the State 
of California and has certified a Final Environmental Impact Report on 
this proposed project. In the environmental review process, LOCSD has 
coordinated with both the United States Fish and Wildlife Service 
(USF&WS) and the United States Environmental Protection Agency (USEPA). 
LOCSD has submitted formal consultation requests with USF&WS and USEPA 
for mitigation of Rare and Endangered Species Habitat Mitigation and 
for preparation of a watershed wide all species Habitat Conservation 
Plan. LOCSD expects the USF&WS to issue a positive biological opinion 
on LOCSD's proposed project this fall.
    LOCSD has also prepared a preliminary design engineering report to 
evaluate alternative solutions and to provide cost estimates for the 
proposed solution. LOCSD adopted the Los Osos Wastewater Facilities 
Project Report on March 15, 2001. The Project Report estimates that the 
proposed project will cost $84.6 Million for the project described 
above including all design, construction, land acquisition and habitat 
mitigation. Without grant funding, the proposed project would cost the 
average single family property owner approximately $107 per month 
including approximately $80 per month in debt service charges and $27 
per month in operating user fees. This monthly cost is over five times 
the cost paid by the average wastewater customer in California 
according to the State Water Resources Control Board.
    According to the 1990 U.S. Census, over a third of Los Osos 
residents are classified as low to very low income. LOCSD is concerned 
that construction of the project without significant grant funding 
would displace these residents and dramatically change the social 
fabric of our community. If Federal funding is available to pay for 75 
percent of the project capital cost ($64,000,000), the average monthly 
cost per residence drops from $107 per month to approximately $45 per 
month per residence. Although the $45 per month is still twice the 
average cost paid by residences in other parts of California, it would 
likely displace fewer residents and cause less hardship.
    LOCSD believes that its proposed project warrants Federal 
participation because it addresses a Federal problem in regards to 
preservation of the Morro Bay National Estuary. As documented earlier, 
the EPA approved recovery plan for Morro Bay identifies LOCSD's project 
as a ``priority action'' for preserving the National Estuary. In 
addition, the District believes that this project should be viewed as a 
Federal demonstration project for how other communities can address 
water supply concerns at the same time they respond to Federal water 
quality mandates and how communities can locate a treatment facility in 
a downtown area by taking advantage of innovative technology such as 
odor-scrubbing. Additionally, the downtown location results in energy 
savings as compared to pumping the raw waste to and from a site at the 
perimeter of town.
    LOCSD respectfully requests that the Subcommittee approve the 
funding request submitted by Representative Lois Capps for this 
project.
                                 ______
                                 

           Prepared Statement of the Santa Cruz Port District

For Corps of Engineers Reconnaissance study of the Arana Gulch 
        Watershed which adversely affects the Navigation of Santa Cruz 
        Harbor--$100,000
    Santa Cruz Harbor is an active small craft harbor at the north 
section of Monterey Bay, California. It was authorized as a federal 
navigation project in 1958, constructed in 1964, and expanded in 1972. 
A 1986 joint-venture between the U.S. Army Corps of Engineers and the 
Santa Cruz Port District provided for a permanent sand bypass system to 
solve the ocean-driven shoaling problem at its entrance. The Port 
District has successfully operated that system for the past fifteen 
winters. However, the Port District has been unable to solve the 
siltation problem emanating from the three-square mile watershed which 
terminates at the north end of Santa Cruz Harbor.
    Silt from Arana Gulch fills berths, fairways, and channels in the 
harbor, making them hazardous and unusable. At this time, the siltation 
is not solvable by the existing sand bypass system. The soil 
characteristics of the watershed make beach disposal impractical at 
this time. Arana Gulch sediment must either be taken upland or 
delivered by barge offshore--both of these disposal options are quite 
wasteful. They are also extremely expensive and cost the Port District 
hundreds of thousands of dollars each year. Additionally, the 1998 El 
Niho storms brought 15,000 cubic yards of material into the north 
harbor alone from Arana Gulch. The event was declared a federal 
disaster, and FEMA and the State of California are spending in excess 
of $500,000 to return the harbor to charted depths.
    On June 25, 1998, the House Committee on Transportation and 
Infrastructure passed Resolution Docket 2565 authorizing the Secretary 
of the Army to review the Arana Gulch watershed siltation problem.
    The Port District respectfully requests that $100,000 be 
appropriated for the Arana Gulch reconnaissance study for fiscal year 
2002.
For Corps of Engineers Reconnaissance study of memorandum of agreement 
        on Dredging between Santa Cruz Port District and Corps of 
        Engineers as authorized by 1998 Water Resources Development 
        Act, Section 526--$100,000
    In 1986, the United States Congress and the Santa Cruz Port 
District signed a Memorandum of Agreement (joint-venture L.C.A.) on the 
acquisition of a sand bypass system for Santa Cruz Small Craft Harbor. 
This $2.7 million agreement, authorized under WRDA 1984, provided that, 
once in place, the system would be operated and maintained by the Port 
District.
    The bypass project has been extraordinarily successful. The harbor, 
once the scene of long closures and countless accidents because of 
shoals and breaking surf, is now 100 percent open to navigation all 
year round. The federal government no longer has to appropriate yearly 
O&M funds as it did from 1964 to 1986. The savings over the past ten 
years is estimated at $9+ million. The savings over the life of the 
project (2014) is estimated to be well in excess of $28 million in 1986 
dollars.
    The Port District is quite satisfied with the operational project 
and will carry out its responsibilities through 2014. However, an 
inequity exists in the original cost-share formula, which the Port 
District asked Congress to redress. Congress responded by including 
Section 526 in the Water Resources Development Act of 1998:

``SECTION 526. SANTA CRUZ HARBOR, CALIFORNIA.

    The Secretary may--
            (1) modify the cooperative agreement with the Santa Cruz 
        Port District, California, to reflect unanticipated additional 
        dredging effort, and
            (2) extend the agreement for 10 years.''

    The San Francisco District of the U.S. Army Corps of Engineers has 
advised that in order to study the equities the 1986 Memorandum of 
Agreement. A reconnaissance study should be performed.
    Accordingly, the Port District requests a $100,000 appropriation 
for such study.
    The benefit to the federal government in this redress of past 
inequities is that the Port District is willing to extend the 
successful joint-venture from its current termination date of 2014, to 
2024.
                                 ______
                                 

     Prepared Statement of the NAPA County Flood Control and Water 
                         Conservation District

                               background
    The Napa River is the main waterway into which all tributaries on 
the Napa Valley flow. The river reaches its highest flow and the main 
point of concentration of storm water in the heart of the downtown city 
of Napa. The original town of Napa was established at the head of the 
navigable Napa River channel in 1848 as its only port for 
transportation and commerce until the railroad extended from Benicia to 
Napa in 1902.
    The project is located in the city and county of Napa, California. 
The population in the city of Napa, approximately, 67,000 in 1994, is 
expected to exceed 77,000 this year. Excluding public facilities, the 
present value of damageable property within the project flood plain is 
well over $500 million. The Napa River Basin, comprising 426 square 
miles, ranging from tidal marshes to mountainous terrain, is subject to 
severe winter storms and frequent flooding. In the lower reaches of the 
river, flood conditions are aggravated by high tides and local runoff. 
Floods in the Napa area have occurred in 1955, 1958, 1963, 1965, 1986 
(flood of record), 1995, and 1997. In 1998, the river rose just above 
flood stage on three occasions, but subsided before major property 
damage occurred.
    Over the years, the community has expressed a strong desire for 
increased flood management. Since 1962, twenty-seven major floods have 
struck the Valley region, exacting a heavy toll in loss of life and 
property. The flood on 1986, for example, killed three people and 
caused more than $100 million in damage. The town of Napa is 
particularly vulnerable to floods: during a typical 100-year flood, 
more than 325,000 gallons of water flow through the downtown river area 
per second, with the potential of inundating 2 million square feet of 
businesses and offices and nearly 3,000 homes.
    Flood damage in downtown Napa has recurred in January 1993, January 
and March 1995, January 1997, and February 1998, resulting in disaster 
declarations and Damage Survey Reports filed with FEMA, reaffirming the 
urgent need to implement the cost-effective project. In March 1995 and 
January of 1997, additional flood disasters occurred.
    Damages throughout Napa County totaled about $85 million from the 
January and March 1995 floods. The floods resulted in 27 businesses and 
843 residences damaged countrywide. Almost all of the damages from the 
1986, 1995, and 1997 floods were within the project area.
    Locally developed flood measures currently in place provide minimal 
protection and include levees, floodwalls, pump stations, upstream 
reservoirs, restrictive flood plain management ordinances, and 
designated flood evacuation zones. Vast areas of flood plain are 
restricted to agricultural and open space uses, precluding development 
that would be damaged by flooding. These local measures still leave 
most of the city of Napa vulnerable to frequent damaging floods. 
Congress has authorized a flood control project since 1944, but due to 
expense, lack of public consensus on the design and concern about 
environment impacts, a project had never been realized. The most recent 
Corps of Engineers project plan consisted of a deepening and 
channelization project. In mid-1995, Federal and state resource 
agencies reviewed the plan and gave notice to the Corps that this plan 
had significant regulatory hurdles to face.
                    approved plan--project overview
    In an effort to identify a meaningful and successful plan, a new 
approach emerged that looked at flood control from a broader, more 
comprehensive perspective. Citizens for Napa River Flood Management was 
formed, bringing together a diverse group of local engineers, 
architects, aquatic ecologists, business and agricultural leasers, 
environmentalists, government officials, homeowners and renters and 
numerous community organizations.
    Through a series of public meetings and intensive debate over every 
aspect of Napa's flooding problems, the Citizens for Napa River Flood 
Management crafted a flood management plan offering a range of benefits 
for the entire Napa region. The Corps of Engineers served as a partner 
and a resource for the group, helping to evaluate their approach to 
flood management. The final plan produced by the Citizens for Napa 
River Flood Management was successfully evaluated through the research, 
experience and state-of-the-art simulation tools developed by the Corps 
and numerous international experts in the field of hydrology and other 
related disciplines. The success of this collaboration serves as a 
model for the nation.
    Acknowledging the river's natural state, the project utilizes a set 
of living river strategies that minimize the disruption and alteration 
of the river habitat, and maximizes the opportunities for environmental 
restoration and enhancement throughout the watershed. This strategy 
replaces the former project and now entails flood plain acquisition and 
restoration of a geomorphically stable river channel, replacement of 
bridges and environmentally sensitive stream bank treatment in the 
urban reaches of the city of Napa.
    The Corps has developed the revised plan, which provides 100-year 
protection, with the assistance of the community and its consultants 
into the Supplemental General Design Memorandum (SGDM) and its 
accompanying draft Environmental Impact Statement/Environmental Impact 
Report (SEIS/EIR). These reports were released for public comment in 
December of 1997 and underwent final review by Corps Headquarters. 
Construction of the project began last summer. The coalition plan now 
memorialized in the Corps final documents includes the following 
engineered components: lowering of old dikes, marsh plain and flood 
plain terraces, oxbow dry bypass, Napa Creek flood plain terrace, 
upstream and downstream dry culverts along Napa Creek, new dikes, 
levees and flood walls, bank stabilization, pump stations and detention 
facilities, and bridge replacements. The benefits of the plan include 
reducing or elimination of loss of life, property damage, cleanup 
costs, community disruption due to unemployment and lost business 
revenue, and the need for flood insurance. The plan will protect access 
to businesses, public services, and create opportunities for recreation 
and downtown development, boosting year-round tourism. In fact, the 
project has created an economic renaissance in Napa with new 
investment, schools and housing coming into a livable community on a 
living river. As a key feature, the plan will improve water quality, 
create urban wetlands and enhance wildlife habitats.
    The plan will protect over 7,000 people and over 3,000 residential/
commercial units from the 100-year flood event on the Napa River and 
its main tributary, the Napa Creek, and the project has a positive 
benefit-to-cost ratio under the Corps calculation. One billion in 
damages will be saved over the useful life of the project. The Napa 
County Flood Control District is meeting its local cost-sharing 
responsibilities for the project. A countywide sales tax, along with a 
number of other funding options, was approved three years ago by a two-
thirds majority of the county's voters for the local share. Napa is 
California's highest repetitive loss community. This plan is 
demonstrative of the disaster resistant community initiative, as well, 
as the sustainable development initiatives of FEMA and EPA.
                            project synopsis
    Fiscal year 2001 Funding.--The 2001 appropriations bill included 
$4,000,000 to continue construction of the project. These funds were 
utilized to create 450 acres of marsh and flood plain terraces in the 
most southern reach of the project.
    Necessary fiscal year 2002 Funding.--Funding for the Napa River 
Project during 2002 in the amount of $12,000,000 is needed to continue 
construction of the project. The funding is sought for demolition of 
buildings and fixtures on 24 parcels that have been acquired by the 
non-Federal sponsor, relocation of the Napa Valley Wine Train rail line 
for an approximate 3 mile distance, as well as relocation of the 
attenuate buildings serving this public utility, construction of marsh 
and flood plain terraces for an approximate 3 mile distance. Included 
in this amount is the reimbursement to the non-Federal sponsor for 
expenditures in excess of 45 percent of the total project costs to 
date. By the end of June, 2001 the non-Federal sponsor will have 
expended $42,000,000.00.
                    napa valley watershed management
                               background
    Napa Valley watershed faces many challenges and stresses to its 
environmental health and flood management abilities. From a healthy 
river point of view, the Napa River has been on a recovery path since 
its low point in the 1960's, when the last of the native salmon were 
taken from the system by severe water pollution and habitat 
destruction. Steelhead trout have survived as a remnant population of 
two hundred that is presently in need of higher quality and more 
extensive spawning areas for recovery to a significant population. 
Beginning populations of fall run Chinook salmon have taken up 
residence in the watershed in those few areas available for spawning. 
While the chemical and wastewater pollution of earlier years has been 
effectively dealt with, excess sediment is still a critical stress on 
the salmon population, as it is to the spawning and rearing areas of 
the river in the estuarine zone upstream of San Pablo Bay, populated by 
delta smelt, splittail, green sturgeon and striped bass.
    The U.S. EPA and Region II Water Quality Control Board have 
prioritized the River as an impaired water body because of the sediment 
production. The excess sediment generated in the watershed suffocates 
spawning areas, reduces the stream's flood-carrying ability, fills deep 
pools, increases turbidity in the stream and estuary, carries with it 
nutrients that bring significant algae blooms during the summer and 
fall, and changes the morphological balance of the streams and river 
toward more unstable conditions.
    Over time, both private and public diversions and levees have been 
constructed in a chaotic way. The accumulated encroachment has 
constrained the river and its riparian corridor to approximately one 
third of its optimum morphological width for much of its length. The 
Napa Valley has also been extensively drained in the last century, 
eliminating nearly all of the sloughs and extensive wetlands that once 
covered the valley floor. Combined with increasing agricultural and 
urban development, the narrowed channel and loss of wetlands has 
greatly changed the river and its major tributaries, limiting its flood 
management capabilities. The river now regularly scours extensively on 
both bed and banks generating large amounts of sediment that settle in 
the lower river and estuary, only to be stirred and moved by the tides 
during the dry season. Loss of tidal wetlands in the lower river due to 
70 years of dike construction has resulted in a much smaller area to 
disperse sediment, exacerbating losses in all types of riverine and 
estuarine-related complex habitats in the system.
    In an effort to address these conditions and to develop local tools 
for improving natural resource management, the Corps and the Napa 
County Flood Control and Water Conservation District is currently 
developing a Napa Valley Watershed Management Plan (WMP) which would 
identify problems and opportunities for implementing environmentally 
and economically beneficial restoration in the Napa Valley watershed 
providing ecosystem benefits, such as flood reduction, erosion control, 
sedimentation management, and pollution abatement. The plan, which is 
the feasibility study the District is requesting funds for, would 
include the identification, review, refinement, and prioritization of 
restoration and flood protection opportunities with an emphasis on 
restoration of the watershed's ecosystem (e.g.: important plant 
communities, healthy fish and wildlife populations, rare and endangered 
habitats and species and wildlife and riparian habitats). The 
development of the plan would be an iterative process, providing 
technical planning, and design assistance to local entities to foster 
restoration of watershed ecosystem.
    The purpose would be to complete the WMP by providing technical, 
planning, and design assistance to the non-Federal interests for 
carrying out watershed management, restoration and development on the 
Napa River and its tributaries from Soscol Ridge, located approximately 
5 miles south of the city of Napa, to Mt. St. Helena, the northern most 
reach of the Napa River watershed, California. The watershed plan would 
look at the upper Napa Valley watershed including Napa, Yountville, St. 
Helena, Calistoga, and the unincorporated areas of Napa County north of 
Soscol Ridge. A management program incorporating flood protection and 
environmental restoration would be developed as a result of the 
watershed plan.
    To address the above mentioned and other local, regional, and 
national watershed concerns, the Napa County Board of Supervisors 
appointed a Napa County Watershed Task Force (WTF) to identify 
community based and supported solutions. The WTF submitted their 
recommendation for further action to the Napa County Board of 
Supervisors. Preliminary watershed analysis is being completed with an 
understanding that additional scientific and technical decisions and 
solutions would be incorporated into the Napa Valley watershed plan.
    The U.S. Army Corps of Engineers, San Francisco District (Corps) 
and the Napa County Flood Control and Water Conservation District 
(NCFCD) developed the Napa Valley Watershed Project Management Plan 
with input from the Napa County Planning Department (NCPD), Napa County 
Up-Valley Cities, Napa County Watershed Task Force (WTF), Napa County 
Resource Conservation District (RCD), Regional Water Quality Control 
Board (RWQCB), the San Francisco Estuary Institute (SFEI), and other 
regional and local stakeholders. Coordination of a local and regional 
restoration programs would be critical in the planning process to 
provide a watershed management plan that identifies the best management 
practices for the watershed and supports potential spin off projects to 
be implemented independently of the WMP. The regional monitoring and 
assessment strategy being developed by regional interests would be a 
component in the development of the feasibility report. The monitoring 
and assessment strategy incorporates different indicators, 
classifications, and potential pilot projects to provide benchmarks for 
future restoration activities.
    In an effort to identify problems and opportunities for 
implementing beneficial restoration in the Napa Valley Watershed, the 
Napa County Flood Control District is seeking that the Napa Valley 
Watershed Management Study be continued by the Corps of Engineers. The 
authority for this study is the Northern California Streams Study 
Authority stemming from the Rivers and Harbors Act of 1962, Public Law 
87-874. Specifically, the Napa County Flood Control District is working 
closely with the Corps in the feasibility report in examining the 
watershed management needs, including flood control, environmental 
restoration, erosion control, storm water retention, storm water runoff 
management, water conservation and supply, wetlands restoration, 
sediment management and pollution abatement in the Napa Valley, 
including the communities of Napa, Yountville, St. Helena, Calistoga 
and the incorporated areas of Napa County.
                            project synopsis
    Fiscal year 2001 Budget Funding.--The fiscal year 2001 
appropriations bill included $50,000 to continue the Napa Valley 
Watershed Management Study.
    Necessary fiscal year 2002 Funding.--Funding for the Napa Valley 
Watershed Management Study during fiscal year 2002 in the amount of 
$600,000 is needed to have the Corps of Engineers continue the 
feasibility study to examine watershed management needs.
         milliken-sarco-tulocay creeks groundwater basin study
                               background
    The groundwater basin underlying the unincorporated area east of 
the City of Napa is in overdraft. This area is referred to as the 
Milliken-Sarco-Tulocay groundwater basin, or MST. The Board of 
Supervisors enacted a Groundwater Conservation Ordinance in an effort 
to limit all new and permitted users in the MST area to a very 
restrictive amount of groundwater until such time as a recharge project 
can be implemented to reverse the declining water table. The Napa 
County Flood Control District also took action by contracting with the 
United States Geological Survey (USGS) to perform an update to their 
1977 study of the MST groundwater basin. This study will determine the 
extent of the problem, the recharge characteristics, the inter-basin 
communication capabilities, the solutions that are likely to succeed 
and the groundwater budget for the area. The three year USGS study has 
been underway for a year and early results confirm that the groundwater 
basin is in decline and is in need of serious recharge efforts.
    There is a sense of urgency in establishing a recharge program to 
address this decline in water inventory available to the residents and 
businesses within the basin. A number of potential solutions have been 
identified and must be further assessed to ascertain their viability in 
solving the groundwater problems existent in the basin.
    Possible solutions include the following:
  --Recharge enhancement at the infiltration galleries: The 1977 USGS 
        study revealed that 95 percent of the recharge of the 
        groundwater basin occurred at 23 isolated locations along the 
        creeks and tributaries, generally where the arable soils meet 
        the foothills. Enhancing recharge in these areas may have a 
        dramatic impact on the overall water balance equation for the 
        basin. The USGS work will give a general analysis of this 
        possible solution, but a reconnaissance level evaluation must 
        be done to evaluate cost effectiveness.
  --Importing recycled water: Recycled water will soon be available at 
        the south end of this basin. Great opportunities exist for 
        recycled water usage within the south and middle sections of 
        the basin, especially at an existing golf course located in the 
        middle section. Benefit would be gained by substituting 
        recycled water for pumped groundwater, thereby leaving 
        groundwater for others in the area. Substituted water could be 
        used by this golf course and nearby agriculture.
  --Importing surplus groundwater from another basin: A unique 
        opportunity exists to import surplus groundwater from a 
        construction project into the north basin. The project at hand 
        is a depressed underpass, that gets into the local groundwater 
        table (not the MST basin), results in year round pumping, and 
        creates a year round surplus that would be available for 
        substitution for groundwater within the MST basin (which is 
        located about 3 miles east of the project site.) The most 
        likely user is a golf course located in the north basin.
  --Other possible solutions include: Construction of very small local 
        reservoirs to enhance recharge; Construction of small 
        reservoirs to provide water for agriculture; and, Importing 
        treated water, which, in addition to political problems, would 
        involve finding other imported water to make the treating and 
        delivering agency whole.
    Additionally, there are likely many more possibilities, all of 
which need to be identified, developed, and evaluated. All of these 
possibilities need to be studied at the reconnaissance level to 
determine their feasibility.
    At the heart of this reconnaissance level evaluation must be the 
environmental analysis. As an example, the property owners constructing 
reservoirs have impacted the ecology of the area, which results in 
lessening the sustaining flows to the Napa River. Another example is 
the continuous decline in the groundwater table, which results not only 
in the one time expenditure of effort, materials and energy to drill 
deeper wells, but more tragically, in the ongoing expenditure of energy 
associated with pumping from deeper depths.
    Following directly on the environmental benefits within the 
groundwater basin itself are the other benefits flowing from bringing 
the basin into balance. USGS staff believes that the basin, if in 
balance and in its naturally recovered condition, will actually return 
to its original state of flowing to the Napa River. This would provide 
tremendous benefit, not only to Milliken, Sarco, and Tulocay Creeks, in 
the local setting, but also to the Napa River, both by stream flow and 
by underground flow. Additional water into the Napa River system during 
protracted portions of the year would greatly restore and enhance the 
local watershed ecosystem.
    Action is needed. The sooner steps are taken to identify and 
address the problem, the smaller the cost of implementing solution 
measures.
Request
    In an effort to identify problems and opportunities for 
implementing solutions in the MST groundwater basin, Napa County Flood 
Control District is seeking to have the Corps initiate a reconnaissance 
study to evaluate all prospective water sources that could alleviate 
the widespread water quantity problems and identify and implement 
engineering measures to restore ecological recovery of the MST 
groundwater basin and associated groundwater infiltration and recharge 
in the Napa River watershed. Such measures could include conjunctive 
use; recharge enhancement and importing recycled and potable water.
    Necessary fiscal year 2002 Funding.--Funding for the Napa 
Groundwater Recharge Study during fiscal year 2002 in the amount of 
$100,000 is needed to have the Corps initiate the reconnaissance study 
to examine groundwater needs in the basin.
                                 ______
                                 

 Prepared Statement of the Clark County Regional Flood Control District

    Presented herewith is testimony in support of $20,000,000 for the 
construction appropriation necessary for the U.S. Army Corps of 
Engineers to continue the Tropicana and Flamingo Washes flood control 
project. Also, testimony in support of $5,000,000 appropriation to 
reimburse the non-Federal sponsors, Clark County and the Clark County 
Regional Flood Control District, for work performed in advance of the 
Federal project pursuant to Section 211 of the Water Resources 
Development Act (WRDA) of 1996. This project is located in the rapidly 
growing Las Vegas Valley in Southern Nevada.
    The Las Vegas Valley continues to experience unprecedented growth. 
This growth has occurred over the past 20 plus years. People have moved 
into the area from all parts of the nation to seek employment, provide 
necessary services, retire in the Sunbelt, and become part of this 
dynamic community. It is estimated that 5,000 people relocate to the 
Las Vegas Valley every month of the year. Currently the population is 
exceeds 1.3 million. The latest statistics show that more than 30,000 
residential units are built annually. Once all of these factors are 
combined, the result is that the Las Vegas Valley continues to be one 
of the fastest-growing areas in the nation.
    The Federal project being constructed by the Corps of Engineers 
(Corps) is designed to collect flood flows from a 160 square mile 
contributing drainage area. The Corps project includes four debris 
basins, four detention basins, 28 miles of primary channels, and a 
network of lateral collector channels. The debris basins are designed 
to collect flood flows from undeveloped areas at the headwaters of the 
alluvial fans and trap large bedload debris before it enters the 
channels and causes erosion damage. The detention basins will function 
to greatly reduce the magnitude of the flood flows so that the flows 
can be safely released and conveyed through the developed urbanized 
area at non-damaging rates. The outflow from the debris basins and the 
reduced flows from the detention basins will be contained in the 
primary channel system that will also serve as outfalls for the lateral 
collector channels. While this latter element (lateral collector 
channels) is considered a non-Federal element of the entire plan, it is 
being funded locally because it is a necessary element for the plan to 
function properly and afford flood protection for the community. Since 
flood flow over the alluvial fans, which ring the Las Vegas Valley, is 
so unpredictable in terms of the direction it will take during any 
given flood, all of the components of the Corps' plan are critical.
    Torrential rains deluged the Las Vegas Valley the morning of July 
8, 1999, causing widespread drainage problems and major damages to 
public and private properties. Some of the largest rainfall depths 
occurred over the southwest portions of the Las Vegas Valley resulting 
in significant flows in the Tropicana and Flamingo Washes. The runoff 
that resulted from this intense rainfall caused widespread street 
flooding and record high flows in normally dry washes and flood control 
facilities. The news media reported two deaths resulting from this 
flood event, one of which was a drowning in the Flamingo Wash. Damages 
to public property resulting from this storm are estimated at 
$20,500,000. The President declared Clark County a Federal disaster 
area on July 19, 1999, recognizing the severity of damages to public 
and private properties. Significant damages could have been avoided if 
the Corps' Tropicana and Flamingo Washes Project had been fully 
implemented. However, those features of the Corps' project that were 
completed worked to mitigate damages. The storm of July 8, 1999, 
further reemphasizes the need to expeditiously implement all flood 
control projects in the Las Vegas Valley.
    The Feasibility Report for this project was completed in October 
1991, and Congressional authorization was included in the WRDA of 1992. 
The first Federal appropriation to initiate construction of the project 
became available through the Energy and Water Resources Development 
Appropriations Bill signed into law by the President in October 1993. 
The Project Cooperation Agreement (PCA) was fully executed in February 
1995. Federal appropriations to date have totaled $121,645,000, 
allowing the project to continue to be implemented. The total cost of 
the project is currently estimated at $271,000,000, primarily due to 
the delay in anticipated Federal appropriations.
    The local community has already constructed certain elements of the 
Corps' plan. These project elements require modifications in order to 
fit into the Corps' plan and fulfill the need for a ``total fan 
approach'' to the flooding problems of the Las Vegas Valley. The Red 
Rock Detention Basin was constructed by Clark County in 1985, and 
modifications by the Corps were completed in December 1996. The flood 
flow released from the basin has been reduced, and the basin's capacity 
to hold floodwaters was enhanced, thereby increasing the level of 
downstream protection provided by this feature. Although the Red Rock 
Detention Basin expansion was the first feature completed, the 
immediate benefit realized by the community was the removal of 
approximately five square miles and 4,754 parcels from the alluvial fan 
flood zones shown on the Federal Emergency Management Agency's Flood 
Insurance Rate Maps.
    The non-Federal sponsors also constructed the Flamingo Detention 
Basin. This facility was completed in February 1992, and is one of the 
main components of the Federal project. Under the Corps' plan, the 
flood flows released from this feature will be reduced and the storage 
capacity increased. The non-Federal sponsors have been working with the 
development community in order to remove the excess sand and gravel 
from the impoundment area of this facility. Our goal is to have local 
contractors remove surplus material from the basin for their own use at 
no cost to either the Federal or local governments, thus providing a 
significant cost savings on this project. The work performed by the 
non-Federal sponsors, construction of Red Rock Detention Basin and 
Flamingo Detention Basin, prior to the Project Cooperation Agreement 
being executed have been accounted for in Section 104 credits and total 
$9,906,000.
    As non-Federal sponsors for this important flood control project, 
both the Clark County Regional Flood Control District and Clark County 
are looking forward to the construction start of each feature of this 
project and the project's ultimate completion.
    The non-Federal sponsors request $20,000,000 for the continued 
construction of this project. Funding at this level will allow the 
Corps of Engineers to:
    Complete construction of the following:
  --Lower Flamingo Diversion Channel
  --R-4 Debris Basin and Channel
  --Red Rock Outlet and Scour Protection
    Start construction of the following:
  --Upper Flamingo Diversion Channel
  --F-1 Debris Basin and Channel
  --F-2 Debris Basin and Channel
    In 1996, the local sponsors were notified that Federal funding 
would be reduced for the Corps' flood control project in Las Vegas due 
to reductions in the Corps' overall Federal budget. Our community has 
already suffered a five-year delay in project completion due to past 
reductions in Federal funding. Any further delays in Federal funding, 
in the fastest growing community in the nation, will mean increased 
project costs due to lost opportunities compounded by inflation. It 
might also mean further loss of life.
    In order to provide the required flood protection in a timely 
fashion, the non-Federal sponsors are implementing certain features in 
advance of the Federal government pursuant to Section 211 of WRDA 1996. 
An amendment to the PCA was fully executed on December 17, 1999, that 
formalizes the provisions of Section 211 of WRDA 1996. Section 211(f) 
of WRDA 1996 identifies the Tropicana and Flamingo Washes Project as 
one of eight projects in the nation to demonstrate the potential 
advantages and effectiveness of non-Federal implementation of Federal 
flood control projects. The work funded by the non-Federal sponsors and 
completed to date pursuant to Section 211 of WRDA 1996 totals 
approximately $24,604,855 and includes features that were designed by 
the non-Federal sponsors and constructed by either the Federal 
government or the non-Federal sponsors. These features are summarized 
in the following table:

------------------------------------------------------------------------
                                                             Sponsors'
          Project Element              Nature of Work          Costs
------------------------------------------------------------------------
Tropicana Detention Basin Outfall-- Design, Construction         $88,298
 Russell Road Box Culvert.           & Construction
                                     Management.
Tropicana Detention Basin Outfall-- Design, Construction         174,240
 Valley View Boulevard Box Culvert.  & Construction
                                     Management.
Blue Diamond Channel--Las Vegas     Design (Project              430,210
 Beltway (Segment 7A).               element constructed
                                     by Corps).
Blue Diamond & Red Rock Channels--  Design, Construction      23,552,950
 Las Vegas Beltway (Segment 7B, 8    & Construction
 & 9).                               Management.
Red Rock Channel--Las Vegas         Design (Project              359,157
 Beltway (Segment 10A).              element constructed
                                     by Corps).
      Total Sponsors' Costs.......  ....................      24,604,855
      Estimated Federal Share.....  ....................      18,453,641
      Fiscal year 2001              ....................       1,600,000
       Appropriations.
      Remaining Federal Share.....  ....................      16,853,641
------------------------------------------------------------------------

    The non-federal sponsors are grateful for the $1,600,000 in the 
fiscal year 2001 Energy and Water Development Appropriation Bill. For 
fiscal year 2002, we are asking the committee to appropriate funding of 
$5,000,000 of the remaining $16,853,641 to reimburse the non-federal 
sponsors the federal proportionate share (75 percent) of the completed 
work pursuant to Section 211 of WRDA of 1996 and the PCA amendment. 
This amount is requested in light of the language in contained in the 
fiscal year 2000 Energy and Water Development Bill, Senate Report 106-
58, which states in part, ``The Committee expects--every effort to even 
out reimbursement payments to lessen future budgetary impacts.'' The 
non-federal sponsors contributions to the project are for the primary 
purpose of providing flood protection as quickly as possible.
    In summary, the Tropicana and Flamingo Washes project is an 
important public safety project designed to provide flood protection 
for one of the fastest growing urban areas in the nation. We ask that 
the committee provide the Secretary of the Army with $20,000,000, in 
fiscal year 2002, in order to facilitate continued design and 
construction of additional phases of this critical flood control 
project. We are also asking that the committee provide the Secretary of 
the Army with $5,000,000 to reimburse the non-federal sponsors the 
federal proportionate share of the work completed by the sponsors in 
advance of the federal government.
    The committee is aware that flood control measures are a necessary 
investment required to prevent loss of life and damages to people's 
homes and businesses. Flood control is a wise investment that will pay 
for itself by preserving life and property and reducing the probability 
of repeatedly asking the federal government for disaster assistance. 
Therefore, when balancing the federal budget, a thorough analysis would 
prove that there is substantial future federal savings in disaster 
assistance that supports sufficient appropriations through the Civil 
Works Budget.
                                 ______
                                 

   Prepared Statement of San Bernardino County Administrative Office

                    santa ana river mainstem project
Project Description
    The Santa Ana River Mainstem Project includes seven interdependent 
features: Mill Creek Levee, Oak Street Drain, San Timoteo Creek, Lower 
Santa Ana River, Seven Oaks Dam, Prado Dam and Santiago Creek. Seven 
Oaks Dam, Mill Creek Levee, Oak Street Drain, San Timoteo Creek Reaches 
1, 2 and 3A and the Lower Santa Ana River Reaches 1, 2, 3, 4, 5, 6, 7, 
8 and 10 are complete. Completion of all of the features will provide 
(a) the necessary flood protection within Orange, Riverside and San 
Bernardino Counties; (b) enhancement and preservation of marshlands and 
wetlands for endangered waterfowl, fish and wildlife species; (c) 
recreation amenities; and (d) floodplain management of the 30 miles of 
Santa Ana River between Seven Oaks Dam and Prado Dam.
San Bernardino County Features Status
    Seven Oaks Dam.--Construction completed.
    San Timoteo Creek.--Reach 1 construction was completed in September 
1996. Construction on Reaches 2 & 3A was completed in June 1998. 
Overall, construction is approximately 60 percent complete. CEQA was 
approved on December 19, 2000 and NEPA is scheduled for approval in 
March 2001.
    Project Authorized.--Public Law 94-587, Section 109, Approved 
October 22, 1976. Public Law 99-662, Water Resources Development Act of 
1986
    Total Project Cost.--$1.4 billion--Includes $473 million local 
share
    Requested Action.--Support of the Santa Ana River Mainstem Project.
                           san timoteo creek
Project Description
    The San Timoteo Creek is a major tributary to the Santa Ana River 
in the east San Bernardino Valley. A large watershed of approximately 
126 square miles drains into the Creek which flows through the Cities 
of Redlands, Loma Linda and San Bernardino before discharging into the 
Santa Ana River. The existing Creek, in all three Cities, was an 
earthen bottom and partially improved embankments reinforced with rail 
and wire revetments.
    Major storm flows along the Creek in 1938, 1961, 1965, 1969 and 
1978 caused considerable damage to the Creek itself as well as 
overtopping the banks and causing loss of life and severe property 
damage.
    The Energy and Water Development Appropriations Act of 1988 
authorized improvement of San Timoteo Creek as part of the Santa Ana 
River Mainstem Project. The improvements include the construction of 
approximately 5.5 miles of concrete-lined channel from the Santa Ana 
River upstream through the Cities of San Bernardino, Loma Linda and 
Redlands plus the construction of debris retention facilities at the 
upstream end of the project in the form of in-channel sediment storage 
basins.
Project Status
    Overall project construction is 60 percent complete. An alternative 
design has been developed for Reach 3B, the upstream 40 percent of the 
project, that will include the construction of approximately 0.2 mile 
of improved channel and 18 in-channel sedimentation basins. Plans for 
the final phase will be developed during the remaining 2000/2001 fiscal 
year with completion of construction anticipated in May 2003.
Completed Reaches
    Reach 1:
  --0.7 mile of Channel--Completed--September 1996
  --Waterman Avenue Bridge--Completed--September 1996
    Reach 2:
  --1.9 miles of Channel--Completed--October 1997
  --Redlands Boulevard Bridge--Completed--March 1998
    Reach 3A:
  --0.8 mile of Channel--Completed--June 1998
Remaining Construction and Schedule
    Reach 3B (Phase 1):
  --900 feet of channel.
  --Plans and Specifications--December 2000--February 2001
  --Construction Start--April 2001
  --Construction Completion--December 2001
    Reach 3B (Phase 2):
  --0.2 mile of channel and 18 sedimentation basins along 2.2 miles of 
        channel.
  --Right-of-Way Acquisition--December 2000--July 2001
  --Plans and Specifications--January 2001--July 2001
  --Construction Start--September 2001
  --Construction Completion--May 2003
Estimated Project Cost
    The total estimated project cost is approximately $71,000,000 with 
the Federal participating cost at 75 percent or $53,250,000 and the 
local participating cost at 25 percent or $17,750,000. The cost of the 
remainder of the project (Reach 3B) is estimated to be $41,000,000, 
with the Federal share at $30,750,000 and the local share at 
$10,250,000.
    Requested Action.--Approval of continued funding for the San 
Timoteo Creek Project.
                    san sevaine creek water project
Project Description
    The San Sevaine Creek Water Project will provide environmental 
enhancements, water conservation and flood control facilities in the 
western portion of the San Bernardino Valley. A 137-acre area is being 
set aside to protect a sensitive plant community, wetlands and wildlife 
enhancement. In addition, several water conservation basins will 
percolate an estimated 25,000 acre-feet of storm water runoff per year 
into the Chino Groundwater Basin benefiting agricultural, municipal and 
industrial water users in the Valley. The increased water conservation 
will occur as the result of an additional 5,400 acre-feet of water 
storage which will reduce the need to purchase imported water.
Project Status
    The loan application was signed by the Bureau of Reclamation on 
April 11, 1996 and approved by the Secretary of Interior on May 9, 
1996, starting the 60-day congressional approval process. As of July 
25, 1996 the San Sevaine project completed the 60-day calendar for 
review by congress as required under the Small Reclamation Loan Act. On 
December 17, 1996, the project Repayment Agreement was approved by the 
Board of Supervisors of the County of San Bernardino and approved on 
January 8, 1997, by the Bureau of Reclamation. Initial Federal funding 
began in the 1997/1998 fiscal year and has continued on until the 
present fiscal year. The Bureau is attempting to complete the funding 
of this project by year 2002.
    Although considerable levee, channel and interim basin work has 
already been completed at various locations on this major water 
project, continued Federal assistance in the form of a Small Project 
Loan is urgently needed to allow for the construction of major 
improvements that will provide a fully integrated and functional 
project. Without these funds, it will be decades before local interests 
can accrue sufficient funds to construct this vital project.
    The California Water Commission has consistently since the late 
1980's supported the construction of this project.
    Federal Authority.--Public Law 84-984, as amended 1956
    Bureau of Reclamation Grant Contribution.--Approximately $27.4 
million
    Bureau of Reclamation Loan Contribution.--Approximately $19.2 
million
    Total B of R Project (not additive).--Approximately $52.9 million
    Total local contribution.--$33.7 million
    1997/98 fiscal year Federal budget.--$1.333 million (received 
$10.525 million)
    1998/99 fiscal year Federal budget.--$1.177 million (received 
$1.637 million)
    1999/00 fiscal year Federal budget.--$10.18 million ($3.94 million 
received to date, another $4.5 million has been requested)
    2000/2001 fiscal year President's Budget.--$11.21 million 
(approved)
    2001/2002 fiscal year Proposed.--$11.223 million
     The District and County have coordinated with the Bureau of 
Reclamation and the National Water Resources Agency (NWRA) in a 
cooperative effort to obtain the continued funding for this project. 
The District and County appreciate the continuing support provided by 
the Bureau of Reclamation for this project.
    Requested Action.--Support proposed fiscal year 2001/2002 budget in 
the amount of $11.223 million.
                mojave river forks dam feasibility study
    The Mojave River flows north out of the San Bernardino Mountains 
into the desert communities of Victorville and Barstow. The Mojave 
River Forks Dam (Dam) is an ungated facility designed and constructed 
by the U.S. Army Corps of Engineers to alleviate flooding. Since that 
time, environmental regulations such as the Endangered Species and 
Clean Water Acts and the recent water rights adjudication have changed 
the river's usage. The study will consider factors such as the current 
water rights adjudication while facilitating balance among the River's 
competing usage and diverse interest. Alternatives include modification 
of the Dam's operation and outlet works, construction of a release 
tower and operable gates and construction of one or more off-line 
detention basins.
    The San Bernardino County Flood Control District supports this 
feasibility phase study to evaluate viable water conservation 
alternatives while optimizing the balance between environmental, flood 
control and water supply needs.
    Requested Action.--Approval of $250,000 for Mojave River Forks Dam 
Study.
                san bernardino county feasibility study
    Wilson Creek originates in the San Bernardino Mountains and flows 
in a southwesterly direction through the City of Yucaipa, San 
Bernardino County. The study would investigate methods to control 
erosion and reduce the impacts to the downstream open space areas, 
residences and commercial areas within the watershed. The runoff 
creates a large volume of debris and sediment within the City of 
Yucaipa. Flooding along this Creek is threatening to damage residential 
and commercial development and infrastructure facilities.
    The San Bernardino County Flood Control District supports this 
feasibility study to evaluate the system and determine appropriate 
methods of protection through new facilities and management of the 
existing floodplain.
    Requested Action.--Approval of $500,000 for San Bernardino County 
Study.
           upper santa ana river watershed feasibility study
    The area will focus on the watershed of the Santa Ana River and 
tributaries located above Prado Dam, primarily in San Bernardino 
County. The study is to describe all watershed characteristics and 
uses, to define problem areas under present and future conditions and 
assist the County and local interests in developing a long-term master 
plan for watershed management in the interest of improving specific 
water resource uses including environmental preservation and 
restoration, urbanization water supply and conservation and water-
related recreation activities.
    The San Bernardino County Flood Control District supports this 
feasibility study. Santa Ana Watershed Project Authority is the local 
sponsor of the study.
    Requested Action.--Support of Upper Santa Ana River Watershed 
Study.
                                 ______
                                 

                 Prepared Statement of American Rivers

    American Rivers and more than 530 local, regional, and national 
conservation and community groups \1\ from throughout the country urge 
you to appropriate full funding for the U.S. Army Corps of Engineers' 
Challenge 21, Section 1135, and Section 206 programs in fiscal year 
2002. Specifically, we urge you to appropriate $30 million for the 
Challenge 21 program, $25 million for the Section 1135 program, and $25 
million for the Section 206 program.
---------------------------------------------------------------------------
    \1\ Each of these organizations has signed on to the River Budget: 
National Priorities for Local River Conservation in fiscal year 2002. 
The River Budget is a consensus report that summarizes where the people 
who work to save the nation's rivers believe we can make the best 
investments of tax dollars to benefit our communities, wildlife, and 
water quality. A complete list of these organizations is included at 
the end of this testimony.
---------------------------------------------------------------------------
    Although many Army Corps projects have produced benefits, including 
flood protection and cost-effective transportation, Army Corps projects 
also have altered natural hydrologic regimes, disturbed riverine 
ecosystems, destroyed wetlands, and encouraged development in high 
hazard floodplains. These activities have had a severe and adverse 
consequence on the nation's environmental and economic health.
    The loss of important riverine, wetland, and floodplain habitat as 
a result of Army Corps projects and other activities, have harmed 
wildlife, water quality, and recreational opportunities. Army Corps 
projects and project operations are among the leading reasons North 
America's freshwater species are disappearing as quickly as tropical 
rainforest species and five times faster than land-based species. As 
importantly, by reducing the natural flood attenuation capacity of the 
nation's rivers and wetlands these losses also have severely aggravated 
flooding and flood damages.
    During the past 25 years, the Federal government has spent more 
than $140 billion for traditional flood control works and flood damage 
recovery. Despite these expenditures, however, billions of public and 
private dollars are spent each year on costly repairs and 
reconstruction of floodplain property and associated infrastructure 
damaged by floods. Average annual flood losses continue to rise and now 
exceed $4 billion. Nearly 10 million homes are located in flood prone 
areas, placing $390 billion in property at risk.
    The Challenge 21, Section 1135, and Section 206 programs are 
designed to help restore our nation's damaged rivers and floodplains, 
and to implement environmentally and fiscally sound flood control 
projects. These programs have proven successful and popular. 
Appropriations must be increased to meet the high demand for these 
initiatives.
    The Challenge 21 Program.--(Or the Flood Mitigation and Riverine 
Restoration Program, Sec 212 WRDA 1999): Increasingly, flooded 
communities are implementing non-structural solutions to reduce 
flooding. These solutions include moving frequently flooded homes and 
business out of the floodplain, and working to return the floodplains 
of rivers and creeks to a condition where they can naturally moderate 
floods. In addition to reducing flood losses, non-structural projects 
help meet many other goals of riverside communities, including 
improving water quality, increasing opportunities for recreation, and 
improving and restoring wildlife habitat. Unfortunately, however, most 
Federal spending does little to support non-structural solutions to 
flood damage reduction.
    Challenge 21, a non-structural flood damage reduction program 
authorized in 1999, is explicitly designed to help support such 
community-driven efforts. Challenge 21 allows the Army Corps to 
relocate vulnerable homes and businesses in smaller communities, 
restore floodplain wetlands, increase opportunities for riverside 
recreation, and improve quality of life in riverside communities. 
Challenge 21 also authorizes the Army Corps to work with other Federal 
agencies to more efficiently and effectively help local governments 
both reduce flood damages and conserve, restore, and manage riverine 
and floodplain resources. Individual Challenge 21 projects cannot 
exceed $25 million, and local communities must provide 35 percent of 
the cost.
    The Water Resources Development Act of 1999 requires the Army Corps 
to study appropriate locations for Challenge 21 projects in 23 separate 
locations. Five additional Challenge 21 projects were authorized in the 
Water Resources Development Act of 2000.
    Challenge 21 currently is authorized for only five years. In April 
2003, the Army Corps must report to Congress the results of an 
independent review to evaluate the efficacy of the program in achieving 
the dual goals of flood hazard mitigation and riverine restoration, and 
make recommendations concerning continuation of the Challenge 21 
program. But before the Army Corps can make a meaningful assessment, it 
must have the funding to implement the program.
    Unfortunately, though $20 million was authorized to be appropriated 
for fiscal year 2001, the program has received no funding. Failure to 
appropriate adequate funds to implement the environmentally 
appropriate, common sense, and community supported flood control 
projects authorized by this program will doom both specific projects, 
and the entire program to failure. This is a failure that our nation 
can ill afford.
    The Section 1135 And 206 Programs.--The Section 1135 Program 
(Project Modification for Improvement of the Environment), allows the 
Army Corps to modify the structures and operations of existing Army 
Corps projects to improve the quality of the environment where those 
projects have contributed to the degradation of the environment. The 
program also authorizes the restoration of areas harmed by Army Corps 
projects. Non-Federal interests must provide 35 percent of the cost, 
and modifications may not interfere with a project's original purpose.
    The environmental impacts of existing Army Corps projects, many 
constructed before Federal laws requiring mitigation, are enormous. The 
impacts to the Everglades are perhaps the most highly publicized 
example. However, many other Army Corps projects also have caused 
significant environmental harm. For example, the Army Corps' operation 
and maintenance of the navigation channel in the Missouri River has 
caused the loss of more than 90 percent of the river's critical side 
channels, sandbars and wetlands, and is jeopardizing the continued 
existence of three Federally listed endangered species. The Army Corps' 
operations and maintenance of the navigation channel in the Upper 
Mississippi and Illinois Rivers has contributed to the severe 
degradation of those rivers, and is jeopardizing the continued 
existence of two Federally listed endangered species. The Army Corps' 
operation and maintenance of the navigation channel in the Apalachicola 
River in Florida has resulted in the smothering of over one-quarter of 
the Apalachicola River's banks with spoil dredged from the River. The 
Army Corps' construction and maintenance of the Mississippi River Gulf 
Outlet in Louisiana has caused the destruction of thousands of acres of 
valuable Louisiana marsh, and those losses continue at an alarming 
rate.
    Despite the significant adverse impacts of Army Corps projects 
throughout the nation, the Section 1135 program has never been fully 
funded. As a consequence, even though this program has been authorized 
since 1986, only 45 Section 1135 projects had been completed or were 
under construction as of 1999. It is clear that the interest in this 
program is far more intense than these project numbers indicate. In 
fiscal year 2001, 355 Section 1135 projects had to compete for funding 
totaling only $21 million.
    The Section 206 Program (Aquatic Ecosystem Restoration), allows the 
Army Corps to undertake small-scale projects to restore the aquatic 
environment, regardless of the existence or impact of Army Corps' 
projects in the area. Projects carried out under this program must 
improve the quality of the environment, be in the public interest, and 
be cost-effective. Individual projects under this program may not 
exceed $5 million, and non-Federal interests must provide 35 percent of 
the cost.
    The Army Corps reports that between 1996 (when Section 206 was 
enacted into law) and 1999, six projects had reached the planning and/
or design phase under this program. The interest in this program far 
exceeds the level of funds being appropriated, however, and many 
communities are unable to participate in this program due to inadequate 
funding. In fiscal year 2001, 185 projects under the Section 206 
program had to compete for funding totaling only $19 million.
    Many communities are working with Army Corps districts to restore 
lost wetlands, side channels, and other riverine habitat. Many of these 
restoration projects are designed to offset the habitat losses and 
other environmental impacts of Army Corps levee, dam, and dredging 
projects that were constructed before Federal laws required mitigation. 
Unfortunately, however, far more community-driven projects are being 
rejected due to inadequate funding. Without adequate funding, 
increasing numbers of critical projects will either be rejected 
outright or will languish for years before being completed. Both the 
Section 1135 and 206 programs should be fully funded so that 
communities can work with the Army Corps to reverse damage done, and to 
ameliorate the environmental and economic impacts caused by altering 
our nation's rivers, floodplains, and wetlands.
    Again, we strongly urge you to appropriate full funding for the 
U.S. Army Corps of Engineers' Challenge 21, Section 206, and Section 
1135 programs in fiscal year 2002.
                                 ______
                                 

  Prepared Statement of the Water Replenishment District of Southern 
                               California

                              introduction
    Mr. Chairman and Members of the committee, the Water Replenishment 
District of Southern California respectfully submits the following 
testimony requesting federal assistance for the Alamitos Barrier 
Recycled Water Project.
                          district background
    The Water Replenishment District of Southern California (WRD), 
governed by an elected five member Board of Directors, was formed in 
1959 to manage the Central and West Coast Groundwater Basins located in 
southern Los Angeles County. The District's service area encompasses 
420 square miles with nearly 4 million people in 43 cities. WRD's 
primary objectives are to replenish the groundwater basin, halt 
seawater intrusion and ensure quality groundwater for area residents. 
Groundwater is an important source of water in southern Los Angeles 
County, comprising approximately 40 percent of total water needs in our 
District and in some of our cities, 100 percent. Groundwater reserves 
also provide an emergency supply of water if imported supplies are lost 
during earthquakes, drought or other natural disasters. It is essential 
that this valuable resource be protected.
    replenishing groundwater basins with imported and recycled water
    The WRD now purchases approximately 75,000 acre-feet annually of 
imported water from the Colorado River and Northern California to 
artificially replenish the groundwater basins. Replenishment from 
percolation of storm water simply is not enough. The District also 
purchases about 60,000 acre feet per year of recycled water to 
replenish the groundwater basins.
    As a result of years of overpurnping prior to the formation of the 
District, seawater was drawn into the basins, contaminating and forcing 
the shutdown of numerous wells. Wells were constructed along the coast 
to halt the intrusion of seawater, which also replenished the basin. 
Approximately 30,000 acre-feet per year of the District's expensive 
imported water purchases are used for injection into these wells.
    Southern California's gradual loss of entitlements to both Colorado 
River and Northern California water and its drought history has 
convinced us that a more reliable supply of water for these seawater 
barrier wells must be developed to protect our critical groundwater 
resource.
    The District's goal is to minimize the use of imported water and 
replace whenever possible with recycled water and local storm water 
runoff. The District has an aggressive program to increase the use of 
recycled water and storm water.
                alamitos barrier recycled water project
    Working together with the Orange County Water District and the City 
of Long Beach, the District is proceeding with plans to build a 3000 
acre-feet per year reclamation plant to replace, initially, 50 percent 
of the imported water now being injected into the Alamitos Seawater 
Barrier, one of three widespread barrier systems for which the District 
provides water. The second stage will expand the treatment plant to 
provide 100 percent (6000 to 8000 acre-feet per year) substitution of 
imported water. Orange County Water District is involved because this 
particular barrier system extends into Orange County. The City of Long 
Beach has title to the recycled water that is to be fed to the new 
plant. The proposed plant is consistent with the Metropolitan Water 
District's Integrated Resources Plan, which anticipates 800,000 acre-
feet per year of additional water reclamation by the year 2020.
    Construction of the first phase to deliver 3000 acre-feet per year 
is in progress and is scheduled for completion June 2002. The second 
phase bringing the project up to at least 6000 acre-feet would commence 
in the future upon approval by regulatory authorities.
    Feedwater for the project will be recycled water that would 
otherwise be discharged into the San Gabriel River. Advanced treatment 
equipment, including microfiltration, reverse osmosis, and ultra violet 
light will be put in 2 place to purify the water and meet the stringent 
requirements of the State Department of Health Services and the 
Regional Water Quality Control Board.
    Amortizing the construction cost, adding operation and maintenance 
costs and backing out anticipated reimbursements from the Metropolitan 
Water District's Local Resources Program, the cost of water produced 
from the plant will initially be about $600 per acre-foot, which is 
more that the current cost for imported water, although well within the 
range of costs typically experienced.
    We, therefore, are requesting federal funds to ease the burden on 
our local ratepayers. The California Water Commission has recommended 
this project for your consideration during your funding deliberations. 
The total cost of the project is estimated at $16 million with the 
federal portion totaling $4 million. $3.4 million has already been 
appropriated for Long Beach area projects, of which $1.7 million has 
been allocated to this project. We currently are seeking a total of 
$2.3 million for fiscal year 2002 for this protect. To date, we have 
been reimbursed $0.9 million.
    Federal assistance with this project will enhance project economics 
and ensure the viability of our precious groundwater basins into the 
next century. We appreciate your consideration in the appropriation 
process.
                                 ______
                                 

           Prepared Statement of the State of South Carolina

    Mr. Chairman and distinguished Members of the Committee; on behalf 
of the citizens of the Palmetto State, thank you for this opportunity 
to submit for the record comments regarding the fiscal year 2002 Water 
and Energy Appropriations Bill.
    I can not emphasize too strongly the social and economic benefits 
of the capital investments of the federal government in a wide variety 
of projects throughout South Carolina. Whether making our ports more 
accessible for global trade or enhancing the interior waterways and 
beaches of South Carolina, your interest and commitment to my state has 
had a long lasting and positive impact. It is my hope that proven 
cooperation and collaboration between state and federal agencies 
regarding ongoing and future projects will continue to enhance the 
quality of life for all South Carolinians. Thank you for your 
committee's interest and investments in the Palmetto State.
    My comments reflect input from my staff and also from principal 
state agencies that work most closely with the USACE Charleston and 
Savannah District Offices. These agencies include the State Ports 
Authority, the S. C. Department of Natural Resources, the S. C. 
Department of Health and Environmental Control, S. C. Energy Office and 
the S. C. Department of Commerce. Attached to my testimony, as 
``Supporting Documents'' are all letters received from state agency 
directors as well as individual descriptions of the on-going and 
planned, USACE projects throughout South Carolina. All of the projects 
listed and described in the ``Supporting Documents'' are critical for 
South Carolina. All of the projects recommended for full financing in 
the President's budget have my full support. I also request, however, 
that your committee finance as many additional projects not recommended 
in the President's budget as possible. My comments below are not 
intended to emphasize one project more than another but to highlight 
comments made by state agency directors regarding the importance of 
several of these projects to the state. Please review the letters from 
S. C. agency directors for their input on projects of importance to 
them.
    South Carolina has made great strides in expanding economic 
opportunities for its citizens both in terms of expansion of the 
capital base and creation of jobs. We are, however, a small state and 
our relative prosperity is reliant to a significant degree upon 
financing such as that available through your Appropriations Committee. 
I want to emphasize to you and your colleagues the importance I place 
on the value of the partnership between the state and federal 
governments in making life more fulfilling for all of my fellow 
citizens.
    Again, thank you for this opportunity for input into the 
challenging decision making process you face in apportioning limited 
funds among many needs across the United Stated. I do want to re-
emphasize that all of the projects listed in the ``Supporting 
Documents'' are of importance to South Carolina.
                         general investigations
    A total of $1.185 million is needed for fiscal year 2002 to keep 
the Atlantic Intracoastal Waterway Feasibility Analysis proceeding in a 
phased approach. This study will investigate existing and future 
commercial shallow draft navigation needs and will review ways to 
improve safety and navigation efficiency and reduce operations and 
maintenance costs. Additional financing of $530,000 is needed for this 
critical analysis. I request that your committee add this amount so the 
study can proceed.
    The Port of Charleston is rapidly expanding and continues to 
fulfill its role as a major port for the eastern United States. The S. 
C. Ports Authority is believes that to keep the port fully competitive 
in global movement of goods it may be necessary to deepen the ship 
channel more than its current 45 feet. The Authority requests $100,000 
for the Charleston Harbor (Deepening Analysis) to be undertaken. I 
concur that it is necessary before any further investment is made to 
deepen the channel and enlarge the Wando River Turning Basin.
    In the Upstate of South Carolina, the Reconnaissance Study for the 
Reedy River for aquatic ecosystem restoration, flood damage reduction, 
and streambank restoration needs pursuing. The S. C. Department of 
Natural Resources has conducted a watershed management report and all 
information generated by that effort can be used in the production of 
this report necessary for the environmental rebuilding of this 
watercourse. $100,000 is needed for this general investigation.
                              construction
    The President's recommended full financing of the Charleston Harbor 
(Deepening & Widening) at a level of $6,365,000 is truly welcome so 
that this national asset can continue to function competitively for 
world markets. Continuing capital allocation for this project has 
sizable benefits not only for South Carolina but also for the nation.
    Construction of the Lake Marion Regional Water Project is vital for 
the economic rebirth of one of the poorest areas of the state. Most 
Corps of Engineer's financing is directed toward the coastal counties 
of South Carolina. However, there are needs of an economic and 
infrastructure nature inland. This project conforms to economic 
development planning by two councils of government within the state. 
Moreover, it will also rely on surface water and not ground water 
sources. This project should be financed at the full level of $11.648 
million.
    The J. Strom Thurmond Dam & Lake Construction shows potential for 
increased efficiency and a reduction in operation and maintenance 
costs. The President has recommended $6.5 million in his budget but a 
further $3.0 million is needed to complete the generator rewind of 
units 3 and 4. Moreover, the project will increase dissolved oxygen in 
tail water and improve water quality in the Savannah River downstream 
to Augusta, Georgia and beyond. The need for heightened hydroelectric 
output at this station as well as the project at the Hartwell Dam and 
Lake are critical in this time of high electricity demand. The required 
$3.0 million should be added to this project.
                     operation & maintenance (o&m)
    The Operations and Maintenance Program as it relates to Harbor 
Maintenance at Charleston, Georgetown, and Port Royal is critical for 
the continued full functioning of these facilities. A further $2.26 
million is needed for dredging of the Lower Winyah Bay and continued 
effort toward a dredged materials management plan is needed at 
Georgetown. At Port Royal a further $2.21 million is required for 
dredging of the entrance channel. These additional funds are necessary 
for optimal operations of the important S. C. ports.
    Dredging of the Atlantic Intracoastal Waterway from Charleston to 
Port Royal, Dike Maintenance, and Bank Stabilization will require a 
further $2.823 million for this important project to be completed. 
Funding in the President's budget is for only partial completion of 
identified work elements. This project should be fully funded for the 
AIWW to operate at peak design capacity.
    Operation and Maintenance of Facilities at Dams along the Savannah 
River North of Augusta, Georgia. At the Hartwell Dam and Lake, an 
additional $5.3 million is needed to repair the powerhouse and 
switchyard equipment. At the Richard B. Russell Dam and Lake, a further 
$215,000 is needed to install waterview performance monitoring. At the 
J. Strom Thurmond Dam and Lake a further $2.182 million is needed for 
additional maintenance of recreation areas and to replace asbestos 
cable trays in the powerhouse. Full federal financing relating to all 
three facilities would ensure their continuing vital participation in 
the economic life of the two affected states, guarantee that water 
quality is at highest levels, and offer improved recreational 
opportunities for the citizens of S. C. and Georgia.
    Mr. Chairman, in closing, we in South Carolina are mindful of the 
impact that the economic downturn is having on the ability of the 
federal government to continue sizable budget surpluses. Moreover, we 
are aware that resources are not unlimited and priorities must be 
established. However, South Carolina contributes uniquely to the 
national welfare. Healthy military installations, coastal geography, 
interstate trade routes and key ports are all contributors to a growing 
economy and individual prosperity within South Carolina and the 
Southeast. However, not all areas share equally and that is why 
projects like the Lake Marion Water Distribution Project are so 
critical. In order to keep South Carolina moving forward, I beseech you 
to look favorably on projects relating to my state and to our sister 
state of Georgia. We have made giant strides forward in South Carolina 
in part because of your investment of federal dollars in a wide variety 
of projects. I look forward to continuing cooperation with you and your 
committee.
    Please let me know if you need further information and, again, 
thank you for this opportunity to give input into your decision making 
process.
                                 ______
                                 

     Prepared Statement of the City of Los Angeles Board of Harbor 
                             Commissioners

    Mr. Chairman and Members of the Subcommittee: We are John 
Wentworth, President of the City of Los Angeles Board of Harbor 
Commissioners, and Larry A. Keller, Executive Director of the Port of 
Los Angeles. Together, we oversee the activities of the Port of Los 
Angeles, the largest container seaport in the United States. Our 
testimony speaks in support of continuing the Federal role in carrying 
out the major navigation improvements underway at the Port which 
underpin our country's decisive role in global trade.
    We thank this Subcommittee for its unwavering support of the Pier 
400 Deep-Draft Navigation and Landfill Project completed last April 
ahead of schedule and under budget. The Maersk Sealand shipping 
company, now the world's largest shipping line, has entered a long-term 
lease agreement with the Port for a state-of-the-art container terminal 
on Pier 400 scheduled to open for business in 2002. Last year, you 
helped us begin the Preconstruction Engineering Design stage of the 
Main Channel Deepening Project, the second phase of the navigation 
improvements under the 2020 Infrastructure Development Plan at the Port 
of Los Angeles.
    Today, we present testimony evidencing the need for Federal funding 
that will help start the Main Channel Deepening Project in 2002. While 
President Bush's fiscal year 2002 Budget Blueprint discourages 
Congressional funding of new construction starts and ordinary operation 
and maintenance projects, it does give priority to projects that, 
``provide significant national benefits in the Corps' principle mission 
areas--commercial navigation . . .'' and ``gives priority to funding 
port and harbor . . . activities that support significant commercial 
navigation.'' \1\ By all objective standards, the Main Channel 
Deepening Project squarely meets the President's tests as do the Port's 
operation and maintenance projects that support our commercial 
navigation initiatives. Therefore, we respectfully ask the Subcommittee 
to fund our appropriations requests fully.
---------------------------------------------------------------------------
    \1\ A Blueprint for New Beginnings: A Responsible Budget for 
America's Priorities'', Chapter 30, ``Corps of Engineers'', Page 147.
---------------------------------------------------------------------------
   the importance of the 2020 infrastructure development plan to the 
                         united states economy
    In the early 1980s, the San Pedro Bay ports of Los Angeles and Long 
Beach, and the Army Corps of Engineers, acknowledged that both ports 
would experience a dramatic increase in Pacific Rim and Latin American 
trade volumes over the next several decades. The forecast has proved 
true, far exceeding our expectations! Consequently, infrastructure 
development at the Port of Los Angeles is now more critical than ever, 
with more than 31.5 percent of U.S. containerized trade entering the 
United States through the San Pedro Bay port complex. Pacific Rim and 
Mexican trade with the United States are at an all-time high. These 
increased trade volumes have solidified the Port of Los Angeles as a 
pivotal player in the global trading network.
    With a more robust Asian economy, we can best describe the 
potential for increased two-way trade with just the Pacific Rim as 
colossal. To illustrate, in the last year, nine start-up shipping lines 
have entered the trans-Pacific trading network and are calling at the 
San Pedro Bay ports. Seven of these shipping lines call at the Port of 
Los Angeles. In 2000 alone, the Port and its customers recorded an 
unprecedented 27 percent increase in containerized cargo from the 
Pacific Rim valued at more than $235 billion. These goods went on to 
stores and manufacturing plants across the United States supporting 
jobs and local economies.
    In 2000, China accounted for 55 percent of the overall Pacific Rim 
trade with the United States and is the primary importer of American 
goods. Changes in China's trade policies and investment practices make 
it a favorable market for American businesses and would boost the 
continued buoyance of the United States economy and the strong 
purchasing power of American consumers seeking competitively priced 
retail merchandise. If the Bush Administration is successful in 
reaching trade agreements with China, Singapore and Latin America, 
trade volumes through the Port of Los Angeles will increase even more 
dramatically. We have forecast 2001 as the year of continued burgeoning 
trade opportunities with Latin America. Trade between Mexico and 
Southern California, for instance, has increased 152 percent since 
1994. These increases in 2000 resulted in the Port handling 4.9 million 
containers contributing to the industry's recognition of our facility 
as the busiest container port in the United States.
    In the late 1970s, the Port of Los Angeles quite accurately 
forecast the current surge in the international trade needs of the 
Southern California region, and the Nation. In the early 1980s, the 
Port entered a long-term cooperative planning effort with the Corps, 
known as the 2020 Infrastructure Development Plan. The 2020 Plan 
acknowledges the phenomenal growth of trade through the Port of Los 
Angeles and the San Pedro Bay ports as a whole. It is a blueprint for 
the Port's infrastructure development and its adaptation to changes in 
maritime technology and to the projected growth in trade volumes well 
into this century. The Main Channel Deepening Project marks the second 
phase of the 2020 Plan begun with the Pier 400 Deep-Draft Navigation 
and Landfill Project. The Port of Los Angeles is aggressively moving 
forward with the 2020 Plan to meet its infrastructure needs in the face 
of these extraordinary prospects in global trade.
    The Main Channel Deepening Project began in February 1999 when the 
Port and the Los Angeles District Corps executed a Memorandum of 
Agreement that would expedite the preliminary study phase required to 
engage the Corps in a Federal navigation project. Under the authority 
provided by Section 203 of the Water Resources Development Act of 1986, 
Public Law 99-662, the Port undertook the Feasibility Study in 
cooperation with the Corps. In anticipation of a favorable Chief of 
Engineer's Report, Congress authorized the Main Channel Deepening 
Project in the Water Resources Development Act of 2000, and on December 
29, 2000, the Feasibility Study was approved enabling the Port to 
proceed with the Main Channel Project.
                     main channel deepening project
    The Port of Los Angeles requests that your Subcommittee include the 
final appropriation of the Federal share of $2,650,000 for the 
Preconstruction Engineering Design (PED) phase of the project to deepen 
the Main Channel and also earmark $5,000,000 to begin the two-year 
channel dredging phase immediately following completion of the PED in 
August 2002. The total cost for the Main Channel Project is 
approximately $153,000,000. The Corps estimates the Federal share at 
approximately $42,000,000, and a local share of about $11,000,000,000.
    Deepening the Main Channel in calendar year 2002 is critically 
important. The Main Channel's current depth of -45 feet Mean Lower Low 
Water (MLLW) is inadequate to accommodate the new state-of-the-art 
container vessels designed to hold more than 6,000 TEU's. These ships 
draft as much as -48 feet in depth. The recent Chief of Engineers 
Report concurred with the Feasibility Study recommending that the Corps 
dredge the Main Channel to at least -53 feet, including a modest 
allowance for varied tidal conditions and under-keel clearance. The 
project also includes dredging approximately 6.6 million cubic yards of 
sediment from the Turning Basin, the West and East Basins, and the East 
Basin Channel. Presently, five of the major container shipping lines 
calling at the San Pedro Bay have vessels that draft -46 feet fully 
loaded. Yet to call at the Port, these vessels must come in partially 
loaded to navigate the main harbor channel safely. While unavoidable, 
this makes for an inefficient shipping system.
    One of the Port's clients, the China Shipping Company, recently 
ordered six 9,000 TEU container ships and its partner, CMA-CGM 
(Compagnie Maritime d'Affretement-Compagnie Generale Maritime)--also 
known as ``The French Line''--ordered three 6,600 TEU container ships, 
all of which draft at -48 feet. They will call exclusively at the Port 
of Los Angeles from the Pacific Rim beginning in 2004. Without this 
construction, the Port would be unable to service its clients' 
infrastructure needs and provide a state-of-the-art functional gateway 
for imports consumer goods and manufacturing parts into the American 
stream of commerce. Simply, Mr. Chairman, there are no other ports on 
the west coast of the United States with the current infrastructure 
capacity to serve these container ships or absorb the volume of 
container throughputs even now. These state-of-the-art container ships 
represent the new competitive requirements for international shipping 
efficiencies in this century. Consequently, it is imperative that 
Congress appropriate the requested funding that will enable the Main 
Channel construction to begin in August 2002 with completion scheduled 
for early 2004, in time to receive these deeper draft container 
vessels.
      ongoing maintenance of the los angeles harbor and breakwater
    For the Army Corps of Engineers Operation and Maintenance Program, 
the Port of Los Angeles seeks $5,700,000 to continue the hydrographic 
surveys, and the ongoing maintenance dredging of the Federal channels 
and turning basins, and to continue engineering studies and 
rehabilitation of the Federal breakwater at the Los Angeles Harbor. The 
efficient operation of the completed Pier 400 Project relies on the 
ongoing maintenance of the existing Federal navigation channels and the 
hydrographic surveys.
           continued funding of the los angeles harbor models
    Furthermore, the Port of Los Angeles also requests a total 
appropriation of $3,165,000 for the San Pedro Bay Models at the Corps 
of Engineers' Waterways Experiment Station (WES) at Vicksburg, 
Mississippi. This funding is critical for the Corps' maintenance of the 
Los Angeles Harbor Model studies and the Wave Gauge Program. Our 
request includes $165,000 for the maintenance of the physical model of 
the San Pedro Bay to maintain operational readiness for the continued 
study of navigation improvements at the Port, and $3,000,000 to upgrade 
the wave gauges, wave generators, and computer systems that are now 
outdated. We expect this rehabilitation program to take five years to 
complete at a cost of $11,000,000.
    The information derived from these tools is critical to the 
validation of the numerical and physical models used for the design of 
ongoing projects under the Port's 2020 Plan. For example, during the 
state-of-the-art design of the Pier 400 Project, the scientists and 
engineers at WES, the Port of Los Angeles and the Corps' Los Angeles 
District used eight separate, but related models, to site the land 
reclamation element of the project and its effect on tidal resonance. 
As a result, maintenance of the hydraulic and physical models at WES, 
and their prototype data acquisition facilities, continue to be an 
essential resource for the Corps' Los Angeles District and for the Port 
of Los Angeles.
    the economic impact of the 2020 infrastructure development plan
    Cargo throughput for the San Pedro Bay, and the Port of Los Angeles 
in particular, has a tremendous impact on the United State's economy; 
this fact cannot be over emphasized. The ability of the Port to meet 
the continued demand of this phenomenal growth in global trade is 
dependent upon the construction of sufficiently deep water channels 
that will accommodate the largest state-of-the-art deep-draft cargo 
container vessels that are already in service. These new vessels 
provide greater efficiencies in cargo transportation, thereby offering 
American consumers lower prices on imported goods and more competitive 
exports from the United States to foreign markets. However, for 
American seaports to keep up, they must, without delay, make the 
necessary infrastructure improvements that will enable them to 
participate in the new global trading arena.
    The Main Channel Deepening Project--as part of the overall 2020 
Plan--is clearly a commercial navigation project of national 
significance, from which the United States derives great economic 
benefit. The by-product of this project is the creation and sustaining 
of more than one million permanent well-paying jobs; more than $1 
billion in wages and salaries; and, sales and income tax revenues, 
including increased U.S. Customs Service revenues going to the Federal 
treasury. The return on the Federal investment is real and 
quantifiable, and we expect it to surpass the cost-benefit ratio as 
determined by the Corps of Engineers' project Feasibility Study many 
times over. The Federal investment in the Main Channel Deepening 
Project will ensure that the Nation's largest container port, the Port 
of Los Angeles, remains at the forefront of the new global trade 
network well into the 21st century.
                               in summary
    Mr. Chairman, the Port of Los Angeles respectfully urges your 
Subcommittee to include the following earmarks from the fiscal year 
2002 budget, the following funds to support the Corps of Engineers' 
projects on behalf of the Port of Los Angeles:
  --$2,650,000 to fund the final Preconstruction Engineering Design 
        phase of the Main Channel Deepening Project;
  --$5,000,000 to begin construction of the Main Channel Deepening 
        Project;
  --$5,700,000 for maintenance dredging and rehabilitation of the 
        Federal breakwater;
  --$3,165,000 for ongoing maintenance of the Los Angeles Harbor Model 
        and Wave Gauge Programs at WES;
    Thank you, Mr. Chairman, for the opportunity to submit this 
testimony in support of continued Congressional support of the Main 
Channel Deepening Project and other important Federal navigation 
projects at the Port of Los Angeles. The Port has long valued your 
Subcommittee's support for and understanding of the importance of the 
port industry to the economic vitality of the United States, and, in 
particular, the role of the Port of Los Angeles in contributing to this 
country's economic vigor.
           port of los angeles--los angeles harbor department
       operations and maintenance fiscal year 2002 appropriations
    Critical to the efficient operation of the Port of Los Angeles' 
navigation system are the required ongoing maintenance of existing 
federal navigation channels and breakwaters. Essential to such 
maintenance are the hydraulic and physical models of the San Pedro Bay, 
used by the Corps of Engineers at their Waterways Experiment Station 
(WES) at Vicksburg, Mississippi, to study oceanic conditions. These are 
essential resources for the Port and the Corps.
    Ongoing Maintenance of Federal Channels.--$5,700,000 is needed in 
fiscal year 2002 to continue hydrographic surveys; ongoing maintenance 
dredging of the Federal channels and turning basins; and, ongoing 
engineering studies for rehabilitation of the Federal breakwater. This 
work is essential to protect the Los Angeles Harbor complex from damage 
by deep ocean waves and to provide an optimal wave climate for safe and 
efficient terminal operations.
    San Pedro Bay Models.--A total of $3,165,000 is needed in fiscal 
year 2002 to modify and maintain the San Pedro Bay Models at WES:
  --$165,000 for the maintenance of the physical model to maintain 
        operational readiness for the continued study of navigation 
        improvements at the Port;
  --$3,000,000 to begin a model enhancement program that would provide 
        state-of-the-art wave generators, wave gauges, and computer 
        systems to replace the current outdated and aged systems; the 
        development of state-of-the-art numerical models for the 
        analysis of tidal currents, and the development of prototype 
        measurement instruments to calibrate the upgraded models. This 
        program is expected to take five years to complete at a cost. 
        of $11,000,000.
             port of los angeles channel deepening project
    The Port of Los Angeles and the U.S. Army Corps of Engineers 
acknowledged, more than fifteen years ago, that a dramatic increase in 
Pacific Rim trade volumes would occur over the next several decades. As 
such, the Port and the Corps started a long-range infrastructure 
development plan that would enable the Port to meet the forecast 
demands of increased trade and provide its customers with first-rate 
facilities and services. The forecast has proved true, and 
infrastructure development is critical. Pacific Rim trade with the 
United States is at an all-time high, and the Pacific Rim is the 
primary importer of American goods. In addition, trade between Mexico 
and Southern California's five-county area has increased 152 percent in 
the past seven years. As a result, the Port handled 4.9 million 
containers in 2000--a 27 percent increase over 1999--making it the 
busiest container port in the United States. This burgeoning trade has 
resulted in the manufacture of larger state-of-the-art container ships 
that draft as much as -48 feet. Consequently, the Port must deepen its 
federal channels from their present depth of -45 feet to -53 Mean Lower 
Low Water (MLLW) to accommodate the industry's shift to the larger 
container vessels. In addition to greater navigability, deepening the 
Main Channel would improve navigation safety and shipping efficiencies 
and provide a ready resource of dredged material to create new land for 
future terminal development. Furthermore, the economic benefits include 
nearly 1,300 Port-related jobs locally, during the two years of 
construction, along with increased U.S. Customs Service collections and 
other federal tax revenues.
    Congress authorized the Main Channel Deepening Project in Section 
1010(b)(5) of the Water Resources Development Act (WRDA) of 2000. The 
Port and Corps have estimated the total project cost at $153,000,000, 
of which the federal share is $42,000,000 and the local share is 
$111,000,000.
    Preconstruction Engineering and Design (PED).--$2,650,000 is needed 
in fiscal year 2002 to continue the PED phase and to complete the 
construction plans and project specifications.
    New Construction Start.--$5,000,000 is needed to start construction 
in calendar year 2002. With an estimated one-year PED phase, project 
plans and specifications will be completed in April 2002. Assuming a 
three-month bid solicitation period, the Port expects construction to 
begin in August 2002.
                                 ______
                                 

               Prepared Statement of the City of Norwalk

    Mr. Chairman, thank you for this opportunity to submit testimony on 
behalf of the City of Norwalk, California. The City of Norwalk 
respectfully requests your favorable consideration of two U.S. Army 
Corps of Engineers projects that are critically important to our 
community.
    First, the City of Norwalk, CA requests $450,000 from the Army 
Corps of Engineers' Small Flood Control Account (Sec. 205) for the 
preparation of a comprehensive Drainage System Master Plan and citywide 
Urban Runoff Plan.
    The City of Norwalk lies on the coastal plain tributary to the San 
Gabriel River System. The City manages in collaboration with the Los 
Angeles County Flood Control District several miles of storm drain 
system elements. There exists a need to prepare a Drainage System 
Master Plan to identity system deficiencies in both the City and County 
facilities serving the City. Also of concern are recent regulatory 
requirements from EPA and the Los Angeles Regional Water Quality 
Control Board in relation to non-point source control of contaminated 
urban runoff emanating from City streets and discharging into local 
river systems through the city and county storm drain systems. 
Preparation of a citywide Urban Runoff Plan is proposed to address that 
issue.
    This project includes the following program elements that address 
both the drainage master planning and urban runoff issues:
  --Drainage System Master Plan.--This program would provide for the 
        preparation of a comprehensive drainage system master plan for 
        the City. It would cover both City and County controlled system 
        and would identify updated hydrology and determine hydraulic 
        deficiencies, which may exist in this sub-regional system, 
        which is tributary to the San Gabriel River.
  --Urban Runoff Plan.--This work effort would provide for the 
        development of a citywide Urban Runoff Plan to assure 
        compliance with all federal EPA regulations--National Pollutant 
        Discharge Elimination System (NPDES) and Total Maximum Daily 
        Load (TMDL), as well as State Water Quality Control Board 
        regulations. Specific programs aimed at identifying potential 
        non-point source locations for floatable and dissolved 
        pollutants on the city's street system and entering its storm 
        drain system would be identified. This Water quality management 
        plan would identify potential Best Management Practices and 
        would assess programmatic cost estimates for their development 
        and implementation over the programs planning horizon.
    The identification of projects and a program for improved flood 
control facilities will diminish the likelihood of flooding, thereby, 
increasing public safety and health for the City's constituents and 
reducing the risk of property loss and expenditure of future local, 
regional, state and federal funds for post disaster mitigation. 
Development of an Urban Runoff Plan will help to assure the city's 
public health and the development and implementation of programs to 
eliminate contaminated urban runoff from reaching regional flood 
control and river systems, which eventually drain into the Pacific 
Ocean.
    Second, the City of Norwalk requests $300,000 from the Army Corps 
of Engineers' General Investigations (GI) Account for technical 
assistance in planning and design for water infrastructure projects in 
the City. The City was authorized for environmental infrastructure 
planning and design assistance in the Water Resources Development Act 
of 2000.
    The City's water facilities need to be upgraded to provide a safe 
and more reliable water supply, particularly in the event of an 
emergency such as a major earthquake. The increased system reliability 
will also significantly increase the City's fire fighting capabilities, 
thus greatly enhancing water quality, public health and safety.
    The projects for which funding for technical assistance is 
requested are outlined below.
  --Fire Hydrant Upgrading.--This project would provide for technical 
        assistance to prepare a design for the upgrading of undersized 
        fire hydrants and devices throughout the City. A Water System 
        Seismic Reliability Study prepared by the U.S. Army Corps of 
        Engineers identified severe system deficiencies in this area 
        and recommended upgrading and replacement of these hydrant 
        assemblies.
  --Citywide Groundwater Study.--This element of the request would 
        provide for technical assistance to conduct a citywide 
        Groundwater Quality Study. This study would inventory and 
        assess the threat from groundwater contamination from a variety 
        of potential sources within the community. Assuring water 
        quality for its primary water supply source is a key element in 
        the city's water system infrastructure reliability program. A 
        comprehensive inventory and determination of potential threats 
        to the water supply from underground contaminants will be 
        conducted and a mitigation plan encompassing local, regional, 
        state and federal resources prepared.
  --Central Norwalk Transmission Main.--This request is for technical 
        assistance to provide for the design of a water supply 
        transmission main as identified in the City's Water System 
        Seismic Reliability Study prepared by the U.S. Army Corps of 
        Engineers. This pipeline will interconnect two separate city 
        water systems and provide an opportunity for an upgraded 
        interconnection with an adjacent water purveyor to provide 
        additional system backup in the event of a major earthquake.
    Mr. Chairman, again, on behalf of the City of Norwalk, I request 
the Committee's support for these critically important projects.
                                 ______
                                 

        Prepared Statement of the City of Inglewood, California

    Mr. Chairman, thank you for this opportunity to submit testimony on 
behalf of the City of Inglewood, California. The City of Inglewood 
respectfully requests your favorable consideration of an environmental 
infrastructure project that is critically important to our community.
    The City of Inglewood, CA requests $750,000 from the Army Corps of 
Engineers' General Investigations (GI) Account for studies, plans, 
specifications and estimates for the design and construction of 
transmission pipelines. The City was authorized for environmental 
infrastructure planning and design assistance in the Water Resources 
Development Act of 2000.
    The City has approximately 16 miles (83,200 liner feet) of 
transmission pipeline ranging in diameter from 18 inches to 36 inches. 
These pipes vary in age from 30 to 50 years old. Due to the age, soil 
conditions and pipe materials, a majority of the pipes are susceptible 
to rupture. Therefore, it is highly recommended to replace a majority 
of these pipes to insure continued water supply to the residence of 
Inglewood.
    The City of Inglewood's Capital Improvement Plan for 1999-2002 
outlines the City's need to enhance the City's water, sewer and storm 
drainage infrastructure. The Plan includes numerous projects to affect 
a better overall quality of life and an improved state-of-readiness in 
the event of natural disasters (e.g., earthquakes).
    The projects include improvements of the water, sewer, and storm 
drain systems, street construction, traffic modification to improve 
traffic flow and reduce traffic accidents, redevelopment projects, and 
park facilities programs. Many of these projects are necessary to 
enhance public safety and provide the citizenry with much needed 
additional sources of water, particularly in time of emergency events. 
The City will upgrade its infrastructure through the use of City 
generated revenue, and state and federal assistance where possible.
    Mr. Chairman, again, on behalf of the City of Inglewood, I request 
the Committee's support for this critically important project.
                                 ______
                                 

           Prepared Statement of the City of Huntington Beach

    Mr. Chairman, thank you for this opportunity to submit testimony on 
behalf of the City of Huntington Beach, California. The City of 
Huntington Beach respectfully requests your favorable consideration of 
four U.S. Army Corps of Engineers projects that are critically 
important to our community.
    First, the City of Huntington Beach requests $1.75 million from the 
U.S. Army Corps of Engineers' General Investigations Account for 
technical assistance to provide plans, specifications and estimates for 
the design of the Coastal Bluff Erosion project. The City received 
$211,000 in the fiscal year 2001 Energy and Water Appropriations bill 
for the Reconnaissance Level study for the project.
    The coastal bluff, which is adjacent to Pacific Cast Highway (SR1) 
above several thousand feet of the City's beach, has eroded over time. 
The cause is drainage from inland sources and wave and wind action on 
the beach emanating from the Pacific Ocean. This erosion has become a 
serious safety concern. The erosion has affected existing bike, 
pedestrian coastline trails and park facilities located on the bluff 
and could eventually threaten Pacific Coast Highway, which runs 
parallel to the bluff.
    The proposed solution entails stabilization of the bluff, 
mitigating sources of erosion and reconstruction of public facilities, 
including lighting, fencing, and trails. These improvements would also 
be constructed to provide access in compliance with current Americans 
with Disabilities Act (ADA) requirements. Stabilization of the bluff 
and reconstruction of park facilities on the bluff top would mitigate 
an unsafe condition and provide greater public access to the beach.
    The coastal beach bike and pedestrian trail, park facilities and 
access roads are key elements adding to the economic viability of the 
beach as a tourist attraction. If the bluff area is left in its present 
condition, access to and enjoyment of the beach in that area will be 
limited. This limitation places serious constraints on the beach 
facilities as an economic resource to the City, region and State. The 
Bluff Top Park and the adjacent bike trails are regional coastal 
facilities used by over 750,000 visitors per year.
    Second, the City of Huntington Beach requests $1 million from the 
U.S. Army Corps of Engineers' Small Flood Control Account (Sec. 205) 
for the replacement of deficient facilities and equipment in drainage 
pump stations and new pumping units in existing empty pump bays 
throughout the City.
    Huntington Beach is a ninety-year-old coastal community. Some 
portions of the City are actually below sea level. Because of this fact 
many residents depend upon County and City storm drain channels and 
pump stations to keep storm water moving off their streets during heavy 
rainfall. In recent years several areas within the City have 
experienced flooding on public and private property to differing 
levels. Several of the City's pump stations are at the end of their 
statistical design life. Mechanical equipment including pumps and 
motors are in need of replacement. Additionally they are undersized 
given the level of development both within Huntington Beach and in 
upstream communities, which drain into the City. In order to alleviate 
the problem, the City needs to replace, upgrade or augment the flood 
control pump stations.
    Replacement and repair of the City's flood control facilities will 
reduce the risk of damage to both public and private property. 
Additionally this program will assist the City in helping to remove 
areas from Federal Emergency Management Agency (FEMA) flood plain 
designations.
    This flood control project does have regional impacts and goals. 
Huntington Beach is situated at a major outfall for the Santa Ana River 
and its tributaries. This means that runoff from upstream cities ends 
up in our flood control facilities. A residual impact from this run-off 
has been that it brings with it non-point source pollution from other 
areas outside the City. In recent years, the City has conducted studies 
of its storm drain pumping system comprised of several large capacity 
facilities. Construction of recommended improvements to these 
facilities could alleviate potential flooding affecting upstream 
tributary areas, some of which are outside the City.
    It is anticipated that at least $6 million (Current $) in 
additional funding including federal and local dollars will be needed 
in future appropriations to complete this program. Two of the City's 
Pump Stations have recently been improved utilizing FEMA Hazard 
Mitigation grants.
    Third, the City of Huntington Beach requests $1 million from the 
U.S. Army Corps of Engineers' General Investigations Account for 
technical assistance to provide for studies, plans, specifications and 
estimates for the design and construction of sewer and drainage 
projects. The City received an authorization for planning and design 
assistance under the Environmental Infrastructure Program in the Water 
Resources Development Act of 2000.
    During the past several years the City has experienced increasing 
problems with the integrity of its sewer and drainage system 
infrastructure. Surface and ocean water quality is directly affected by 
the physical integrity of the respective systems. Studies conducted 
through the Corps of Engineers Seismic Reliability Program completed in 
1999 identified several key projects to rehabilitate and/or replace 
physical facilities including storm drain pump stations, sewer lift 
stations and pipelines. The need exists for funding for the planning, 
design and construction of various sewer and drainage systems 
improvements to provide off stream surface water diversion or treatment 
and the avoidance of sewage spills of exfiltration from pipelines.
    Environmental infrastructure improvements are needed to insure that 
surface and ocean water quality standards are met through the control 
of storm water flooding and runoff contamination, and sewer system 
integrity through facility rehabilitation and main relining projects. 
Failure to stem sewage spills, exfiltration, flooding and runoff 
contamination not only represents a significant public health and 
safety issue for the community, but would also have significant adverse 
economic impact on the City, Region and State. Huntington Beach has 
over eight miles of City and State beaches within its boundaries. Each 
year Huntington Beach attracts approximately 9,000,000 State, National 
and International visitors. Tourism is a major industry in Orange 
County and the State of California. Visitors to the City rely upon 
clean, safe beaches. This represents an economic resource not only to 
Huntington Beach but to the State and Nation as well.
    Finally, the City of Huntington Beach requests $650,000 from the 
U.S. Army Corps of Engineers' Aquatic Restoration Program (Sec. 206) 
for technical assistance for the City's Aquatic Restoration Program.
    During the past several years, the City has experienced increasing 
problems with urban runoff emanating both within the City and from 
upstream of the City through both local and County operated flood 
control facilities. Surface and ocean water quality are directly 
affected by inorganic and organic and floatable contaminants, which 
discharge to the Pacific Ocean from these facilities. A site adjacent 
to the City flood control channel would be an ideal location for 
creation of an artificial maintainable vegetative filter area project 
for the combined benefit of watershed cleanup and aquatic restoration.
    In 1999 City beaches were closed or posted with warnings of 
bacterial contamination in the surf zone. Extensive investigations 
indicated that the potential source of the contamination might be urban 
runoff. Such runoff originates from numerous unknown sources and 
travels through the regional flood control systems. A short-term 
strategy for alleviating this problem has been the utilization of City 
storm water pumping stations to divert runoff to the sewer system for 
treatment prior to discharging to the ocean. Failure to stem urban 
runoff contamination not only represents a significant public health 
and safety issue for the community, but would also have significant 
adverse economic impact on the City, Region and State.
    Mr. Chairman, again, on behalf of the City of Huntington Beach, I 
request the Committee's support for these four critically important 
projects.
                                 ______
                                 

              Prepared Statement of the Port of Garibaldi

    Mr. Chairman and members of the Subcommittee: My name is Don Bacon. 
I am Port Manager of the Port of Garibaldi, Oregon, located on 
Tillamook Bay on the Oregon Coast. We appreciate the opportunity to 
present our views on appropriations issues to the Committee.
                         appropriations request
    The Port of Garibaldi requests a $550,000 appropriation for 
operations and maintenance (O & M) of Tillamook Bay and Bar, Oregon. 
The funding will allow the U.S. Army Corps of Engineers' (Corps) 
Portland District to prepare a Major Maintenance Report ($300,000) and 
Plans and Specifications ($250,000) for the Tillamook Bay North and 
South Jetties. I also recommend that the Committee include legislative 
language directing the Corps to prepare and complete the Major 
Maintenance Report and Plans and Specifications in fiscal year 2002, 
given the threats to navigation, public safety and public property 
should the jetty system fail. Earlier this month the Port and Tillamook 
County declared an emergency because of the development of sinkholes in 
the North Jetty.
                report on the tillamook bay jetty system
    In December 2000, The Board of Commissioners of the Port of 
Garibaldi and Tillamook County prepared a report on the Tillamook Bay 
jetty system and bar to inform legislators and other concerned parties 
of the need to restore the jetties and their bar to safe, acceptable 
engineering standards. Excerpts of that report are included below. We 
will provide the committee with a copy of the full report.
    There are three major issues currently associated with the 
deterioration of the system.
    (1) There is a clearly documented increasing hazard to navigation 
from erosion around the ocean ends of both jetties and resultant damage 
to the bar which is causing an escalating loss of life in boating 
accidents every year.
    (2) There is a potentially significant loss of land mass containing 
recreational facilities and permanent structures in one area where the 
north jetty has already breached near its root.
    (3) There is data currently being collected (but incomplete at this 
time) which suggests a possible relationship between the deteriorated 
condition of the jetties and bar and the degree of flooding in some 
land areas surrounding Tillamook Bay.
    The report contains a history of construction and repair of the 
jetties by the Corps, an overview of construction and repair results, a 
summary of an independent engineering report solicited by the Port and 
the Corps' own evaluations of the jetties' present condition, reasons 
for restoration of the jetties and bar, and the Commissioners' 
endorsement of repair of the jetty system and bar as both an urgent 
public safety measure and possible contribution to mitigation of 
flooding in the estuary. It also includes a letter from U.S. Coast 
Guard Station Tillamook Bay which explains several problems with the 
jetty system, and their support for restoration and repair of the 
system.
                               background
    Since settlement in the 1800s, Tillamook County's primary 
industries have been dairy, water and timber oriented. Tillamook Bay 
and the five rivers which feed it have historically furnished an 
abundance of shellfish, salmon and other species of fresh-water and 
ocean food fish. Over the past century the area has become renowned as 
one of the West's premier sport fishing locations.
    Tillamook County's economy has always depended on prime conditions 
in Tillamook Bay, its estuary and watershed for cultivation and use of 
these natural resources. However, human activities including forestry, 
agriculture and urban development have adversely impacted the entire 
Bay area by increasing erosion rates and landslide potential in the 
forest slopes and significantly reducing wetland and riparian habitat. 
All five rivers entering Tillamook Bay now exceed temperature and/or 
bacteria standards established by the Oregon Department of 
Environmental Quality. The installation of a north jetty on Tillamook 
Bay begun in 1912 caused increased erosion of the Bay's westerly land 
border, Bayocean Spit, on the ocean side. The Spit breached in 1950. 
This allowed the Bay to fill with ocean sands on its southern and 
western perimeters and caused a major reduction in shellfish habitat, 
sport-fishing area, and an increase in the cross-section of the bar. A 
south jetty begun in 1969 helped stabilize the Spit and created the 
navigation channel presently in use.
    Increasingly poor water quality in the Bay's feeder rivers and a 
substantial loss of marine life over the past twenty-five years enabled 
Tillamook Bay to become part of the National Estuary Program in 1992. 
The Project's scope of study included the estuary and watershed. One of 
the stated goals in the Project's final Comprehensive Conservation and 
Management Plan is ``the reduction of magnitude, frequency and impact 
of flood events.'' This goal was found to be consistent with the scope 
of study of the Corps' Feasibility Study for Water Resources in 
Tillamook County now being conducted, and was incorporated into this 
new project.
    Previous Corps' evaluations of jetty systems clearly state the 
adverse effects of jetty deterioration and infilling of channels and 
bars on tidal prism (the rate at which water flows into and out of the 
Bay) and indicate that they may influence flooding in a bay's estuary. 
During the past thirty-six months measurements have been taken of 
differential water levels in Tillamook Bay and its estuary and speeds 
of tidal flows during normal and high water events. This data suggests 
an increase in the cross-section of the Tillamook Bay bar and some 
channel infilling which may be affecting esturine flooding. These 
measurements are of stated interest to the Corps. The Port of 
Garibaldi, many Tillamook County businesses which have been victims of 
flooding, and some governmental agencies concerned with various aspects 
of the flooding issue are supporting continuing gathering of these 
measurements of water levels and tidal flow speeds.
    While the conditions of jetties and their resultant bars invariably 
and continually affect the bay on which they are constructed, their 
basic function is the creation of a safe channel between ocean and 
harbor for the transit of maritime traffic. As originally designed and 
constructed, the Tillamook Bay jetties accomplished this. Due to their 
present state of deterioration, that initial effectiveness has been 
substantially reduced.
                            results in brief
    Tillamook County has suffered a series of devastating floods since 
the winter of 1996. The storms caused by El Nino/La Nina events have 
increased the rate of deterioration of Tillamook Bay's jetties and bar. 
Their present condition is raising increasing navigational safety 
issues. The north jetty is now breached in an especially sensitive 
location near its root where the wall protects inhabited land, and the 
eroded area is increasing in size. A significant quantity of water 
flowing through this area would result in loss of the existing land 
mass adjacent to it and the structures on it. A second area of 
deterioration on the north jetty at the beach line is threatening to 
breach. But in either location, an infill of the channel with sands 
would reduce the navigability of the channel, further slow the rate of 
tidal flow and impact the cross-section of the bar. An even greater 
degree of danger to boaters than that which presently exists would 
surely be created.
    The Bayocean Spit breach in 1950 buried one-third the Bay's 
shellfish habitat under ocean sands and did extensive damage to 
esturine lands. The lost shellfish habitat has never been recovered. 
The direction of tidal flow in the Bay is such that a breach in the 
north jetty would cause additional buildup of ocean sands to the inside 
edge of the Spit. This infill would eventually deposit toward the south 
end of the Bay and demolish even more shellfish habitat and sport 
fishing area, adversely impacting Tillamook County's already reduced 
economy. The harbor area would certainly suffer some degree of damage, 
resulting in increased commercial hardship.
    But the most serious impact of jetty and bar deterioration has been 
on navigational safety. The United States Coast Guard Tillamook Bay 
Station has publicly commented on the transit danger to sport, 
commercial and their own vessels due to erosion effects which now 
constitute a maritime hazard. Many local sport and most commercial 
fishermen have abandoned Garibaldi as a permanent berth and sought 
harbor facilities where channel navigation is easier and transit of the 
bar less treacherous. The Coast Guard has formally requested that the 
Corps ``restore the north and south jetties to their original 
dimensions, and remove materials from the original construction that 
may now pose a maritime hazard.''
                           principal findings
    Since the last repair to the south jetty, approximately 302 feet 
have been lost to erosion, 215 feet of that amount since 1998. The 
north jetty was designed and authorized by the USACOE to be 5,700 feet 
in length. As of December, 2000, approximately 275 feet of the ocean 
end of the north jetty is eroded and remains below mean lower low water 
level--submerged, in other words. In 1990 the USACOE capped the head of 
the north jetty from its above-water point going landward for a 
distance of 161 feet in an unsuccessful attempt at erosion control. The 
north jetty remains at least 300 feet short of its engineering-approved 
and authorized length.
    Because of the increased magnitude of storms since 1996, both 
jetties have suffered far more damage than that normally expected to 
occur to such structures. Erosion and displacement of large support 
stones at the ocean ends of both jetties is particularly severe, and 
the submerged ends of both structures are being pushed southward. These 
two areas, adjacent to popular sport fishing locations, are now 
identified by the Coast Guard as extremely dangerous locations. Water 
swirls around the displaced boulders causing eddies sometimes strong 
enough to suck small boats into them. Even in calm, flat seas, water 
breaks over these boulders into waves powerful enough to throw smaller 
vessels onto the jetties. (This was the case on September 22, 2000, 
when a sport fishing boat inadvertently drifted inside the 200 foot 
exclusion zone and was dashed onto the end of the south jetty. Two 
people were killed and a third injured, this incident being the most 
recent loss of life this year in the accident record of the Tillamook 
Bay jetties and bar.)
    Conclusion. On behalf of the Port of Garibaldi and Tillamook 
County, I thank the Committee for giving me this opportunity to provide 
testimony on the Tillamook Bay Jetty System.
                                 ______
                                 

      Prepared Statement of the City of Santa Barbara, California

                  operations and maintenance dredging
    As your distinguished Subcommittee writes the fiscal year 2002 
Energy and Water Resources Appropriations Bill, I would like to bring a 
very important Corps of Engineers project to your attention.
    About 400,000 cubic yards of sand piles up every winter at Santa 
Barbara Harbor, and in years of severe storms, the accumulated sand can 
close the channel bringing local fishing and other businesses in the 
Harbor to a standstill.
    There is an important Federal interest in maintaining dredging at 
the Harbor. It provides slips and moorings for over 1,150 commercial, 
emergency and recreational boats. It is also an important part of Coast 
Guard operations on California's central coast.
    The President's fiscal year 2002 Budget Request includes $2,020,000 
for operations and maintenance dredging for Santa Barbara Harbor. I 
respectfully request that the U.S. Senate, through your Subcommittee, 
maintain that level of funding included in the President's Budget 
Request.
              new construction project--dredge acquisition
    The President's fiscal year 2002 Budget recommendation also 
includes project funding for a potential new construction project in 
Santa Barbara. The City of Santa Barbara and the Corps of Engineers 
have pursued a proposal to design and construct a dredge for annual 
operation and maintenance dredging of our harbor.
    Federal funding for this project has been previously appropriated. 
However, the City of Santa Barbara at this time is unable to contribute 
the required 20 percent local sponsor funding. The City remains 
interested to the dredge acquisition project and together with the U.S. 
Corps of Engineers requests an additional $100,000 in order to prepare 
the necessary plans and specifications for the project.
    The President's fiscal year 2002 Budget Request includes $100,000 
for the dredge acquisition project for the Santa Barbara Harbor. I 
respectfully request that the U.S. Senate, through your Subcommittee, 
maintain that level of funding included in the President's Budget 
Request.
    Thank you for the opportunity to submit this statement.
                                 ______
                                 

          Prepared Statement of the City of Newark, New Jersey

    Chairman Domenici and members of the Subcommittee, thank you for 
giving me the opportunity to submit testimony about two projects under 
your jurisdiction which are very important to the people of Newark, New 
Jersey and the surrounding region. The Passaic River Streambank 
Restoration Project, known as the Joseph G. Minish Passaic River 
Waterfront Park and Historic Area, is an important part of the overall 
economic, land use and transportation development plan of the City of 
Newark. And the implementation of our proposal for a Regional 
Hydroelectric Power Generation demonstration project will help the City 
of Newark to become more energy efficient and self-reliant, through the 
generation of power at an existing water treatment facility.
    The Joseph G. Minish Park/Passaic Riverfront Historic Area project 
addresses the restoration and rehabilitation of approximately 9,000 
linear feet of Passaic River shoreline from Bridge Street to Brill 
Street in the City of Newark. This encompasses the eastern boundary of 
Newark's Central Business District, as well as the edge of the City's 
densely populated Ironbound neighborhood.
    The project is divided into three phases. Phase I consists of 6,000 
feet of bulkhead replacement (Bridge Street to Jackson Street) and 
3,200 feet of wetlands restoration (Jackson Street to Brill Street). 
The second of three sections of this phase will begin construction 
within the next few months, and the objective is to conclude this phase 
as soon as possible. The Army Corps of Engineers will expend the $15 
million which is still available to apply toward Phase I elements. The 
State of New Jersey has been the primary cost-sharing sponsor of Phase 
I, with significant City investment and support. Some additional 
funding will be needed for Phase I, according to the U.S. Army Corps of 
Engineers February 28, 2001 project fact sheet, and City Engineering 
professionals are coordinating with the Corps to complete all elements 
of the bulkheading and its integration with significant Combined Sewer 
Overflow facilities and related Phase I costs.
    Phases II and III consist of the construction of a 40 foot-wide 
promenade along the river's edge, on top of the completed bulkhead 
work, and includes the construction of parkland on the inland side of 
the promenade, between the river and Newark's downtown. This 
restoration will provide a new focal point for downtown development 
activities, reconnect Newark to its riverfront and maritime history, 
and allow neighborhood residents direct access to the riverfront as 
part of a much-needed recreation complex.
    An appropriation of $15 million for the continuation of 
construction on the Newark Riverfront Project is requested, so that 
this integral element in Newark's revitalization can move forward as 
planned, and can be utilized by the Army Corps of Engineers, in fiscal 
year 2002. It will enable the City, State and Corps to complete all 
critical Phase I elements, and to proceed with a Phase II City/Corps 
cooperative program agreement on the next set of essential Phase II and 
Phase III elements. This will include the walkway/greenway component 
above and behind the bulkheading, and the critical connective 
infrastructure that will be needed to insure access and maximum 
effectiveness and utilization of this project for the community and key 
stakeholders and project partners.
    This project was authorized at a level of $75 million in the 1996 
Water Resource Development Act, and has been fully planned by the Army 
Corps of Engineers. The streambank restoration and bulkhead 
replacement, which is the first phase of the overall project, began in 
the fall of 1999 utilizing the fiscal year 1999 and 2000 
appropriations. The fiscal year 2000 appropriation has been used for 
the initial section of bulkhead construction, which is now complete. 
The fiscal year 2001 allocation allowed for continued construction of 
the bulkhead down to Penn Station, funded design of the walkway and 
park area, and could allow walkway construction to begin. Prior 
appropriated funds have been utilized to fully design the bulkhead, a 
segment of naturalized streambank, and a system of walkways and public 
open spaces. Adjacent, currently dormant, sites have become desirable 
locations for development of commercial properties, due to the 
projected walkway, park and open space facilities. However, the current 
funding will only take us through the construction of bulkhead and some 
of the mud flats restoration, not to a usable facility.
    A supplemental appropriation of $15 million is requested so that 
this integral element in Newark's revitalization can move from partial 
construction to the beginning of full project build-out. This 
investment in Newark's future will help us to improve the economic 
status of our nation's third oldest major city. The development of the 
riverfront now is a critical element in the overall plan for Newark's 
downtown revitalization. This linear park will serve as a visual and 
physical linkage among several key and exciting development projects. 
It is adjacent to one of the oldest highways in the nation, Route 21, 
which is undergoing a multi-million dollar realignment and enhancement. 
A light rail system, the Newark-Elizabeth Rail Link, which will connect 
Newark's two train stations, and ultimately, Newark International 
Airport and the neighboring City of Elizabeth, will provide users with 
access to mass transportation. Conversely, the riverfront will become a 
destination served by that system, providing an important open space 
and waterfront opportunity for residents of one of the most densely 
populated cities in the nation.
    The environmental benefits of the project include flood control, 
riverbank and wetlands restoration, creation of urban green space, and 
enhancement of water quality in the Passaic River. These improvements 
will allow the Passaic River to be converted from one of the nation's 
most troubled waterways to a cultural and recreational asset. Ongoing 
and planned greenway projects will provide pedestrian and bicycle 
access to the waterfront from Newark's residential neighborhoods as 
well as the City's five major institutions of higher learning.
    The riverfront development will complement and provide a visual and 
physical connection with the new, $170 million New Jersey Performing 
Arts Center, which opened in the Fall of 1997 and has been incredibly 
successful. Further north along the riverfront, also accessible from 
the riverfront walkway when it is fully built, the City of Newark and 
Essex County have opened Riverfront Stadium, home to a minor league 
baseball team as well as community sporting events such as the Project 
Pride Bowl. Also in close pedestrian proximity is the site for the new 
Newark Sports and Entertainment Arena, which is expected to bring two 
million visitors a year into the area. In addition, NJ Transit is just 
completing construction of a new concourse, which is directly adjacent 
to the riverfront. Once the park and walkway are completed, rail and 
bus passengers will be able to exit the Penn Station north concourse 
directly onto the riverfront area. On the eastern portion of Minish 
Park, residents of a crowded community, Newark's Ironbound, will have 
direct access to the river and its streambank for active and passive 
recreation for the first time.
    The riverfront will be the nexus of these activities, creating a 
vibrant downtown center that will provide economic development 
opportunities for the citizens of Newark and our region. Visitors from 
throughout the nation are expected to come to visit our revitalized 
city, and participate in the exciting growth and development taking 
place. There is tremendous potential for Newark's riverfront to mirror 
the success of other riverfront developments throughout the country, 
and Newark stands ready to accept the challenges such developments 
present.
    The City of Newark has completed conducting a master plan study for 
the entire riverfront area, which will guide us in tying together these 
incredibly exciting, and challenging, projects. We are coordinating 
redevelopment plans with private developers, public agencies, and non-
profit partners. We have a once in a lifetime opportunity to coordinate 
several major development activities into a virtually seamless 
development plan. The appropriation of $15 million which Newark 
requests will serve to incorporate the Army Corps of Engineers' 
construction into our overall economic development plan to reinvigorate 
Newark. I urge you to support this appropriation request, and help us 
to continue Newark's revitalization.
    The second project presented for your consideration concerns the 
generation of power through the City of Newark's own water system. 
Although not yet faced with the severe challenges faced in other parts 
of the country, Newark is seeking to proactively address the need for 
alternative energy sources. The City of Newark is also confronted with 
a series of challenges to its water and power supply resources.
    Accordingly, the City is seeking to develop the ability for the 
generation of hydroelectric power through the addition of in-line 
turbines at existing water transmission facilities. Newark has an 
extensive water collection and treatment system, spread over a large 
area in northern New Jersey. It feeds approximately 100 MGD to the City 
and it's out of town customers. The City maintains and operates five 
storage reservoirs, nine dams, six outlet structures and 64 square 
miles of woodland. It operates 80 miles of transmission aqueducts, 
structures, right-of-way and pump stations, interconnected with other 
major water purveyors. Distribution reservoirs are operated, along with 
their inlet and outlet gates, a rechlorination plant, and a water 
testing laboratory. Newark's extensive local water system includes 500 
miles of distribution mains and pipelines, 5,000 hydrants, and 10,000 
control valves. Although viewed primarily as a water supply system, the 
potential for power generation is present, and the time is right to 
begin its utilization.
    The City's Pequannock Water Treatment facilities and aqueduct 
downstream of the Charlotteburg Dam and Reservoir present a unique 
opportunity to recover energy that is currently dissipated in the 
diversion of water through various dam gatehouse and intake structures, 
pipeline, and downstream screen chambers. Further, the potential 
hydroelectric power and energy represented in the conveyance could, 
most of the time, offset the existing power and energy requirements of 
the water treatment facilities themselves, including the loads present 
at dams and treatment facilities.
    With this potential in mind, the City performed an evaluation of 
the power production and energy generation potential of its system. An 
extensive technical study of the power generation potential of Newark's 
entire collection, treatment and transmission facilities has been 
prepared, showing the possibilities of surplus energy generation, and 
is available for review. It explores the potential generation and 
disposition of power from several of Newark's operations. As a pilot 
project, the least complex element of the system can stand alone, and 
is submitted and described herein.
    This project proposes to construct a Water Turbine Hydroelectric 
Facility at the City's Cedar Grove balancing reservoir. Utilizing the 
existing infrastructure, this proposed facility would take advantage of 
the hydrostatic head on the transmission aqueduct between the West 
Milford Treatment plant (elev. 700 feet) and the Cedar Grove Reservoir 
(elev. 380 feet). The proposed site lies alongside a power company 
easement, which would make connection to the grid quite simple. The 
fairly static flow provided by the interceptor makes this a logical 
location for a turbine regulator set up. This method of energy recovery 
would be the least invasive as it could be implemented without 
significant disruption of our present system. It represents the clean 
and renewable production and use of energy ``on-site'', which is 
currently wasted. The project may also alleviate the relatively 
frequent interruptions and curtailments of power delivery that are 
currently experienced at the Pequannock Water Treatment facilities.
    This proposed facility would be capable of offsetting the City's 
electrical operating expenses in additional to the needs of its Water & 
Sewer Utility, and could potentially offset the cost to construct 
concrete storage tanks at the Cedar Grove site in order to meet Federal 
compliance for the elimination of open potable drinking water 
reservoirs. It provides Newark with a unique energy recovery and use 
opportunity.
    An appropriation of a total of $12 million is sought, with $2 
million for planning and design, and $10 million for construction of 
the project. It is anticipated that the energy generated through the 
facility would offset this initial investment within the current 
decade. Your support for innovative hydroelectric energy generation 
will enable the City of Newark to impact on its own environmental and 
economic concerns.
    In closing, I would like to extend my thanks to the entire New 
Jersey delegation for its ongoing support, especially to subcommittee 
member Rodney Frelinghuysen for his advocacy of Newark's critical 
projects. The time and attention of this subcommittee are deeply 
appreciated.
                                 ______
                                 

         Prepared Statement of the City of Miami Beach, Florida

    The City of Miami Beach appreciates the opportunity to submit for 
the record (1) testimony on an innovative new beach erosion control 
initiative, and (2) testimony in support of the request by Miami-Dade 
County for beach renourishment funds.
     innovative beach erosion prevention and sand recycling system 
                         demonstration project
    Dade County, Florida has approximately 15 miles of sandy beaches. 
The Miami Beach Segment makes up 10.5 miles or 70 percent of that beach 
front area. The Miami Beach Segment is bounded to the north by Baker's 
Haulover inlet and to the south by Government Cut Inlet. The 
construction of these inlets, just after the turn of the century, left 
the Miami Beach Segment isolated between two complete barriers to 
along-shore sand migration. As a result, the Miami Beach Segment 
continuously loses sand through natural processes but can only regain 
sand through artificial means.
    In the years that followed the construction of the inlets, the 
Miami Beach shoreline steadily receded. By the mid-1970's the shoreline 
had receded more than 500 feet and most of the sandy beaches had been 
lost. Property owners were forced to build seawalls, bulkheads and 
other hardened structures to prevent the coastal infrastructure from 
being undercut by the encroaching tides.
    In 1975, the U.S. Army Corps of Engineers (ACOE), in partnership 
with Dade County, initiated the Dade County Beach Erosion Control and 
Hurricane Surge Protection Project. At that time, Dade County and the 
ACOE entered into a 50 year contract for the joint management of Dade's 
sandy beaches. In 1979, the ACOE constructed a flood control dike (sand 
dune) and an ``engineered'' beach along the entire length of Miami 
Beach. The project added more than 300 feet to the width of the 
severely eroded beaches. The new beach was a tremendous success and has 
been credited for contributing significantly to the resurgence of our 
local economy.
    The sand used to nourish the beaches was hydraulically dredged from 
deposits of sand about a mile off our coast. More than 16 million cubic 
yards of sand were used during the initial beach construction and an 
additional 5 million cubic yards have been used in the periodic 
renourishment of segments of the project. However, the near shore 
deposits of sand which have been the source for the renourishment 
projects have been exhausted. There is not enough sand remaining to 
meet the immediate needs of the critically eroded shoreline areas nor 
are there any strategic reserves to be used in the event that our 
shorelines are ravaged by a hurricane or other natural disaster.
    Engineers have determined that Miami Beach loses sand to erosion at 
an average rate of 250,000 cubic yards per year, with that rate 
increasing ten-fold during years of heavy storm activity. Faced with a 
continuing need for a quarter million tons of sand per year for the 
maintenance of our beaches and an exhausted supply of local sand, the 
City of Miami Beach realized that immediate action was needed to avert 
a crisis. Our initial reaction was to try to locate alternate sources 
of beach-quality sand. The City advertised its interest in locating 
sand sources, traveled across Florida & the Caribbean to visit 
potential sources, compiled a database of source location & quality 
information, and secured an invitation for the Army Corps of Engineers 
to conduct testing of several potential sources of high-quality 
carbonate sands in the Turks & Caicos Islands.
    The City remains committed to identifying alternate sources of sand 
and expediting the evaluation of the environmental, physical and 
economic viability of the potential sources, to ensure that sufficient 
quantities of beach-quality sand are available to fulfill our future 
needs. However, we have realized that continuing to pump sand on to our 
beaches without addressing the underlying causes of the erosion, will 
leave us in an endless cycle of needing more, increasingly expensive 
sand.
    If the erosion cycle can be successfully slowed, it would reduce 
the demand for additional sand and save millions of dollars in 
renourishment costs; not to mention the elimination of the 
environmental, public and legal challenges to renourishment projects. 
To achieve this goal, the City embarked upon a program to develop 
innovative technologies which will help prevent beach erosion 
processes.
    Analysis of our coastal system revealed the presence of several 
``hot spot'' areas along our shoreline which accounted for the majority 
of the sand losses. Analysis of the data also revealed the presence of 
an area of substantial sand accretion (accumulation) in a near shore 
area near the southern end of Miami Beach.
    The causative factors behind these hot spots have been linked to 
changes in the shape (compass orientation) of the coastline and benthic 
topographical anomalies in the nearshore area. The worst of these hot 
spots exist within two half-mile long areas along our shoreline. These 
two hot spots have been shown to be responsible for the loss of almost 
200,000 cubic yards of sand each year. The hot spots also accelerate 
the erosion of the adjacent beaches for as much as a mile to the north, 
as the sand from the adjacent beaches slough down to fill the voids 
within the hot spots. With beach renourishment costs of about $14/cubic 
yard of sand, these hot spots are responsible for the loss of more than 
2.5 million dollars annually.
    After detailed examination of the available data and careful 
consideration of the possible alternatives, our coastal engineers have 
designed a series of detached breakwater structures which will 
significantly reduce the rate of erosion within these hot spot areas 
and help to stabilize large sections of our beach. The size and 
configuration of these structures have been carefully ``tuned'' to the 
specific conditions at each of the hot spot areas. Our coastal 
engineers estimate that the elimination of each hot spot will widen and 
stabilize approximately one mile of beach. It is believed that these 
benefits can be gained without significant negative impacts to the down 
drift beach areas or offshore reefs. Sea turtle nesting in the area 
will also be enhanced by the widening and stabilization of more than 
two miles of beach.
    The City of Miami Beach and Dade County have jointly initiated an 
emergency effort to develop and construct breakwater reef structures in 
the location of the two worst hot spots. Preliminary estimates indicate 
the breakwater structures will cost approximately $700,000 each. The 
required funding for the first of set of these structures has already 
been appropriated and construction is scheduled to begin in mid-2001.
    The City's master plan is to develop a series of erosion control 
breakwaters, positioned in key areas along the shoreline, to widen the 
beaches and slow the erosion process. Concurrent with the efforts to 
slow the beach erosion process, we plan to initiate a feasibility 
study/demonstration project to pursue an innovative and promising 
potential solution to our sand shortage problem. Our coastal engineers 
have identified the presence of a highly accretional near-shore area at 
the southern end of Miami Beach. The area is accreting sand at a rate 
of more than 200,000 cubic yards per year. Sand is accreting in the 
area because of the navigational Jetty that juts 1500 yards out to sea, 
along the north side of the Government Cut Inlet, at the southern tip 
of Miami Beach. The jetty structure acts as a barrier, blocking the 
natural, southerly migration of the near shore sand lens, which causes 
the migrating sand to pile-up on the north side of the structure. As 
more and more sand piles-up, the sand lens builds and creeps offshore 
toward the end of the jetty. Because the seaward end of the jetty 
extends out to the first line of coral reefs which parallel our 
shoreline, the jetty and the reef line together form a `trap' which 
prevents most of the sand from being able to move further south. This 
near-shore sand lens is continuing to build and will eventually `over-
top' the reef and smother living corals. If authorized, the City will 
seek to have the overfill accumulating at the southern end of the 
segment ``back passed'' or pumped back up to the eroded beaches at the 
northern end of our beach segment.
    The ultimate goal is to utilize the breakwater structures to slow 
the erosion process, stabilize the beaches and cut the demand for new 
sand. Then, periodically, the excess fill that accumulates will be 
recycled back to the beaches at the north end of the system and the 
cycle will start over. This Sand Recycling System, if successful, will 
allow for the continued, effective maintenance of our beaches, while 
offering substantial financial and environmental benefits.
    Local government has already made a substantial investment in the 
development of this process. If approved, this $2,300,000 appropriation 
request will allow the City to complete a thorough engineering analysis 
of the entire system, obtain the necessary Federal and State permits, 
and contract for the renourishment of a mile long section of beach 
utilizing back-passed sand. This project will serve as a demonstration 
of the effectiveness of the Sand Recycling System and the importance of 
regional sediment management.
              support for miami-dade construction request
    The City of Miami Beach would first like to thank the members of 
the subcommittee for all their efforts in the past to provide support 
for the State of Florida's beaches and in particular, those of Miami 
Beach.
    Beaches are Florida's number one tourist ``attraction.'' Last year, 
beach tourism generated more than $16 billion dollars for Florida's 
economy and more tourists visited Miami Beach than visited the three 
largest national parks combined.
    In addition to their vital economic importance, beaches are the 
front line defense for multi-billion dollar coastal infrastructure 
during hurricanes and storms. When beaches are allowed to erode away, 
the likelihood that the Federal government will be stuck with 
astronomical storm recovery costs is significantly increased.
    The Florida Department of Environmental Protection estimates that 
at least 276 miles (35 percent) of Florida's 787 miles of sandy beaches 
are currently at a critical state of erosion. This includes the entire 
six miles of Miami Beach. As a result of the continuing erosion process 
and more dramatically, recent intense storms which have caused 
tremendous damage to almost all of the dry beach and sand dune 
throughout the middle segment of Miami Beach. Three years ago, most of 
the Middle Beach dune cross-overs were declared safety hazards and 
closed, as the footings of the boardwalk itself were in immediate 
jeopardy of being undercut by the encroaching tides. If emergency 
measures, costing approximately $400,000 had not been taken by the 
City, there would have been considerable risk of coastal flooding west 
of the dune line in residential sections of Miami Beach. As you can 
see, this example points to the commitment we as a beach community have 
to our beaches, but federal assistance remains crucial. While we are 
thankful of the substantial commitment made by the subcommittee in the 
fiscal year 2001 Energy and Water Conference Report, there is still 
much work to be done. Our beaches must be maintained not only to ensure 
that our residents and coastal properties are afforded the best storm 
protection possible, but also to ensure that beach tourism, our number 
one industry, is protected and nurtured.
    In 1987, the Army Corps of Engineers and Metropolitan Dade County 
entered into a fifty year agreement to jointly manage restore and 
maintain Dade County's sandy beaches. Since then, Metropolitan Dade 
County has been responsible for coordinating and funding the local 
share of the cost for the periodic renourishment of our beaches.
    In order to ensure that adequate funding will continue to be 
available, the City of Miami Beach supports and endorses the 
legislative priorities and appropriation requests of Metropolitan Dade 
County, as they relate to the restoration and maintenance of Dade 
County's sandy beaches. Specifically, the City respectfully adds their 
strong support for the efforts of Miami-Dade County and wholeheartedly 
supports their fiscal year 2002 request for beach renourishment funds.
    Your support would be appreciated, Mr. Chairman. The City of Miami 
Beach thanks you for the opportunity to present these views for your 
consideration.
                                 ______
                                 

 Prepared Statement of Association of State Dam Safety Officials, Inc.

    Chairman Domenici and Members of the Subcommittee: The Association 
of State Dam Safety Officials (ASDSO) is pleased to offer this 
testimony on the President's proposed budget for the U.S. Army Corps of 
Engineers (USACE) for fiscal Year 2002.
    The Association of State Dam Safety Officials is a national 
organization of more than 2,000 state, federal and local dam safety 
officials and private sector individuals dedicated to improving dam 
safety through research, education and communications. Our goal is to 
save lives, prevent damage to property and maintain the benefits of 
dams by preventing dam failures. Several devastating dam failures 
occurring in the 1970s focused attention on the potential catastrophic 
results of dam failures. These dramatic failures demonstrate that dams 
should always be properly constructed, operated and maintained to 
continue to provide important benefits and prevent failures.
             united states army corps of engineers (usace)
National Dam Safety Program Act
    The National Dam Safety Program Act, enacted as part of the Water 
Resources Development Act of 1996, is set to expire in fiscal year 
2002. The reauthorization of the Act will be a priority for ASDSO in 
the 107th Congress.
    Total authorized program funds for fiscal year 2002 are $6.4 
million, including $4 million for grants to participating states, $1 
million for research, $500,000 for the dam inventory, $500,000 for 
training, and $400,000 for additional Federal Emergency Management 
Agency (FEMA) staff. The U.S. Army Corps of Engineers has only a small 
part of this important program--the National Inventory of Dams. ASDSO 
supports funding for all National Dam Safety Program Act activities at 
the authorized levels for fiscal year 2002.
    The current National Inventory of Dams (NID) is the result of an 
evolutionary process. The USACE continues to work closely with ASDSO, 
FEMA, and other state and federal agencies to update and publish the 
NID. The success of the NID maintenance and publication program can be 
attributed to the cooperative participation of the 50 states and Puerto 
Rico (as facilitated by ASDSO), and 17 federal agencies, who provide 
information on approximately 77,000 dams currently in the NID.
    The Interagency Committee on Dam Safety (ICODS) created a 
subcommittee to advise the USACE on the update of the NID. The NID 
Subcommittee provides guidance and recommendations concerning the data 
elements, format, and publication media for the NID. Its membership 
consists of representatives of non-federal and federal agencies who 
participate in the NID.
    A web-enabled version of the 1998-1999 NID update was posted to the 
Internet in January 1999. Updated data received by USACE is posted 
quarterly to the on-line database.
    The USACE and ASDSO are continuously improving the process of 
inventory data collection and transmission by the states and federal 
agencies to take advantage of current PC computers, software and the 
Internet. Software tools have been recently developed to improve the 
process of managing, inputting, and transmitting NID data. User 
training for the states and federal agencies on these software tools is 
starting in March 2001.
    This modest, yet vital, funding through the USACE will enable the 
states to continue to update the inventory providing valuable 
information to dam safety officials, city, county and state officials, 
and many others who are affected by dams and the watersheds they 
create.
    Additionally, funding of $7 million was authorized in the Water 
Resources Development Act of 2000 (WRDA), Public Law 106-541, Section 
524, to allow for an inventory of dams constructed in Minnesota using 
funds from the Works Progress Administration (WPA) and the Civilian 
Conservation Corps (CCC). While ASDSO supports the overall intent of 
this language, we have serious concerns that the geographic limitation 
to Minnesota will leave out a significant number of WPA and CCC dams.
    ASDSO has identified more than 1,800 dams in 14 states that had 
been constructed with WPA and CCC funds. Of these, only 450 were in 
Minnesota. The requirement in WRDA 2000 to limit the entire $7 million 
inventory fund to Minnesota will result in unequal treatment for these 
states.
    Additionally, it has been noted that there are 2,100 unsafe dams in 
the United States, which have deficiencies that leave them highly 
susceptible to failure. Previous funding of this program has given the 
USACE, through state dam safety officials, the ability to maintain the 
inventory of dams, and determine which are unsafe.
    An alarming number of dams across the country are showing signs of 
age and lack proper maintenance. Downstream development is increasing, 
which exacerbates the problem. Most older dams were built without 
adequate spillways to release water in heavy rains, which causes water 
to run over the top. Inadequate spillway capacities are the most common 
deficiency and a major cause of dam failures. Dam safety officials 
estimate that thousands of dams are at risk of failing or are disasters 
waiting to happen. One-fourth of all U.S. dams are more than 50 years 
old, and by the year 2020, that figure is expected to increase to 85 
percent. ASDSO estimates that it would cost $2 billion over the next 
five years to begin to rehabilitate all the documented unsafe dams in 
the United States.
    ASDSO respectfully requests that the national dam inventory be 
fully funded at the authorized amount of $500,000 in fiscal year 2002. 
Additionally, ASDSO requests that the Minnesota Dam Safety provision of 
Public Law 106-541, Section 524 be fully funded at $7 million, and that 
the use of the funds be allowed to encompass all dams constructed under 
the Works Progress Administration and the Civilian Conservation Corps 
regardless of their location in the United States. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 

     Prepared Statement of the American Society of Civil Engineers

    Chairman Domenici and Members of the Subcommittee: The American 
Society of Civil Engineers (ASCE) is pleased to offer this testimony on 
the President's proposed budget for the U.S. Army Corps of Engineers 
(USACE) for fiscal Year 2002.
    ASCE was founded in 1852 and is the country's oldest national civil 
engineering organization. It represents more than 125,000 civil 
engineers in private practice, government, industry and academia who 
are dedicated to the advancement of the science and profession of civil 
engineering. ASCE is a 501(c)(3) non-profit educational and 
professional society.
             united states army corps of engineers (usace)
National Dam Safety Program Act
    The National Dam Safety Program Act, enacted as part of the Water 
Resources Development Act of 1996, is set to expire in fiscal year 
2002. The reauthorization of the Act will be a priority for ASCE in the 
107th Congress.
    Total authorized program funds for fiscal year 2002 are $6.4 
million, including $4 million for grants to participating states, $1 
million for research, $500,000 for the dam inventory, $500,000 for 
training, and $400,000 for additional Federal Emergency Management 
Agency (FEMA) staff. The U.S. Army Corps of Engineers has only a small 
part of this important program--the National Inventory of Dams. ASCE 
supports funding for all National Dam Safety Program Act activities at 
the authorized levels for fiscal year 2002.
    The current National Inventory of Dams (NID) is the result of an 
evolutionary process. The USACE continues to work closely with the 
Association of State Dam Safety Officials (ASDSO), the Federal 
Emergency Management Agency (FEMA), and other state and federal 
agencies to update and publish the NID. The success of the NID 
maintenance and publication program can be attributed to the 
cooperative participation of the 50 states and Puerto Rico (as 
facilitated by ASDSO), and 17 federal agencies, who provide information 
on approximately 77,000 dams currently in the NID.
    The Interagency Committee on Dam Safety (ICODS) created a 
subcommittee to advise the USACE on the update of the NID. The NID 
Subcommittee provides guidance and recommendations concerning the data 
elements, format, and publication media for the NID. Its membership 
consists of representatives of non-federal and federal agencies who 
participate in the NID.
    A web-enabled version of the 1998-1999 NID update was posted to the 
Internet in January 1999. Updated data received by USACE is posted 
quarterly to the on-line database.
    The USACE and ASDSO are continuously improving the process of 
inventory data collection and transmission by the states and federal 
agencies to take advantage of current PC computers, software and the 
Internet. Software tools have been recently developed to improve the 
process of managing, inputting, and transmitting NID data. User 
training for the states and federal agencies on these software tools is 
starting in March 2001.
    This modest, yet vital, funding through the USACE will enable the 
states to continue to update the inventory providing valuable 
information to dam safety officials, city, county and state officials, 
and many others who are affected by dams and the watersheds they 
create.
    Additionally, funding of $7 million was authorized in the Water 
Resources Development Act of 2000 (WRDA), Public Law 106-541, Section 
524, to allow for an inventory of dams constructed in Minnesota using 
funds from the Works Progress Administration (WPA) and the Civilian 
Conservation Corps (CCC). While ASCE supports the overall intent of 
this language, we have serious concerns that the geographic limitation 
to Minnesota will leave out a significant number of WPA and CCC dams.
    ASDSO has identified more than 1,800 dams in 14 states that had 
been constructed with WPA and CCC funds. Of these, only 450 were in 
Minnesota. The requirement in WRDA 2000 to limit the entire $7 million 
inventory fund to Minnesota will result in unequal treatment for these 
states.
    In the recently released ASCE 2001 Report Card for America's 
Infrastructure Dams received a grade of D. Additionally, it has been 
noted that there are 2,100 unsafe dams in the United States, which have 
deficiencies that leave them highly susceptible to failure. Previous 
funding of this program has given the USACE, through state dam safety 
officials, the ability to maintain the inventory of dams, and determine 
which are unsafe.
    An alarming number of dams across the country are showing signs of 
age and lack proper maintenance. Downstream development is increasing, 
which exacerbates the problem. Most older dams were built without 
adequate spillways to release water in heavy rains, which causes water 
to run over the top. Inadequate spillway capacities are the most common 
deficiency and a major cause of dam failures. Dam safety officials 
estimate that thousands of dams are at risk of failing or are disasters 
waiting to happen. One-fourth of all U.S. dams are more than 50 years 
old, and by the year 2020, that figure is expected to increase to 85 
percent. ASCE estimates that it would cost $2 billion over the next 
five years to begin to rehabilitate all the documented unsafe dams in 
the United States.
    ASCE respectfully requests that the national dam inventory be fully 
funded at the authorized amount of $500,000 in fiscal year 2002. 
Additionally, ASCE requests that the Minnesota Dam Safety provision of 
Public Law 106-541, Section 524 be fully funded at $7 million, and that 
the use of the funds be allowed to encompass all dams constructed under 
the Works Progress Administration and the Civilian Conservation Corps 
regardless of their location in the United States.
Navigable Waterways
    This navigable waterway system has improved our quality of life and 
has provided a foundation for the economic growth and development of 
the United States. Our flood control works, water transportation 
systems, and multi-purpose projects all contribute to our national 
prosperity. The benefits are realized as flood damages prevented, 
reduced transportation costs, and increased trade.
    Unfortunately, in recent years, national investment in water 
resources projects has not kept pace with our level of economic and 
social expansion. Over the last 30 years the U.S. population has 
increased more than 40 percent while the GDP has grown from $2.5 to 
$7.5 trillion. Meanwhile, capital investment in public water resources 
infrastructure decreased by 70 percent. For example in the 1970s, the 
U.S. Army Corps of Engineers civil works construction appropriations 
were in the $4 billion range. However, in the 1990s the funding dropped 
to an average of $1.6 billion a year. The combination of a decline in 
investment coupled, with an expanding population and economy, has 
created an ``investment gap.''
    The ASCE 2001 Report Card for America's Infrastructure gave 
navigable waterways, which includes ports, harbor, inland waterways, 
and flood damage reduction infrastructure, grade of D+.
    Currently the U.S. Army Corps of Engineers reports a backlog of 
over 500 active projects, with a Federal cost to complete these 
projects of about $38 billion. At the current levels of funding it 
would take 25 years to complete the active projects in the backlog 
without making allowances for considering additional project 
authorizations.
    More than 44 percent of lock chambers are over 50 years of age. 
Many locks are undersized for modern commercial barge movements. Many 
deep-draft channels are undersized for the wider and deeper mega-
container ships that are becoming standard for international cargo 
movements. There is currently a backlog of $9 billion of needed 
waterway improvements. In addition, a maintenance backlog of $238 
million will be experienced in fiscal year 2001, resulting in further 
unrepaired wear and tear on lock chambers and channels.
    Nationwide, queuing delays at locks total some 550,000 hours 
annually, representing an estimated $385 million in increased operating 
costs borne by shippers, carriers, and, ultimately, consumers. 
Construction of new locks with additional capacity and major 
rehabilitation of older locks is essential to maintain the efficiency 
of the system.
    According to the American Association of Port Authorities, more 
than 90 percent of the nation's top 50 ports in foreign waterborne 
commerce require regular maintenance dredging. These ports move 
approximately 93 percent of all U.S. waterborne commerce each year. If 
these ports are not dredged many port facilities and navigation 
channels will be non-navigable in less than a year.
    According to a U.S. Department of Transportation report on 
intermodal freight connectors, connectors to ports, as opposed to other 
freight terminals, received the smallest level of funding and were 
found to be in the worst condition, having twice the percentage of 
mileage with pavement deficiencies when compared to non-interstate 
National Highway System routes.
    Serious problems are likely if current levels of investment 
continue. Demands on the waterway system are expected to double by 
2020, while the current system can barely accommodate current traffic 
levels. In the short term, service will be sustained; however, the 
aging infrastructure and deferred maintenance created by insufficient 
investment levels will result in degraded system performance, safety 
concerns, increased delays, higher transportation costs for goods and 
services, and negative impacts on GDP and employment.
    ASCE respectfully requests that the Operation and Maintenance, 
General, and Construction General be fully funded at the requested 
amounts of $1.745 billion, and $1.324 billion respectively in fiscal 
year 2002.
Flood Damage Reduction Infrastructure
    The nation's flood control infrastructure consists of more than 400 
major Federal dams and reservoirs, 8,500 miles of levees and dikes, and 
hundreds of smaller local flood protection projects. Since 1950, this 
infrastructure has prevented nearly $500 billion in riverine and 
coastal flood damage, returning nearly $6 in flood protection for every 
$1 invested, and preventing, on average, $22 billion in flood damages 
annually.
    The existing stock of Federal infrastructure is generally well-
maintained; however, unfunded, critical maintenance amounted to $82 
million in fiscal year 2001. In addition, over $15 billion of flood 
damage reduction infrastructure is awaiting construction, but has been 
postponed because of insufficient funding. This represents investments 
for needed major rehabilitations to existing projects, as well as new 
projects to service current needs.
    The significant portion of the 100,000-panel flood map inventory 
maintained by FEMA is outdated and may not accurately reflect flood 
prone conditions in the country. This is especially true in areas of 
rapid population growth where the flood plain can change with 
alterations to the original landscape resulting from new development. 
On average, $5 billion in flood damages occur each year, and the new 
construction of homes and infrastructure in the floodplains continues 
to increase.
    The need exists for continued investment in flood prevention, 
including both structural and nonstructural approaches. It should be 
noted that flood control structures once designed to protect 
agricultural land now must also protect homes and industrial 
structures. Additionally, there is an urgent need to update flood 
hazard boundary maps and to identify flood hazards in unmapped areas.
    Urban development in flood prone areas continues to increase by 1.5 
percent-2.5 percent per year. In addition, at-risk coastal areas are 
growing much more rapidly than other locations. In contrast to the 
increasing development in flood prone areas, investments in Flood 
Damage Reduction infrastructure have decreased by almost 70 percent in 
real terms over the past three decades. The combination of these two 
trends makes it likely that residual flood damages could increase 
substantially in the years ahead. For example, in the Highland Lakes 
area of central Texas, the number of structures located in the 
floodplain has increased over 180 percent during the last 10 years. 
Over $18 million in federal and local funding is estimated to be needed 
to provide engineering and mapping to accurately identify flood prone 
areas in this basin alone.
    ASCE respectfully requests that the Operation and Maintenance, 
General, and Flood Control, Mississippi River and Tributaries be fully 
funded at the requested amounts of $1.745 billion, and $280 million 
respectively in fiscal year 2002.
                                 ______
                                 

 Prepared Statement of Louis J. Hector, Vice President, Transportation 
    and Infrastructure, State of New York, Empire State Development 
 Corporation; Richard Gimello, Executive Director, New Jersey Maritime 
 Resources, State of New Jersey, Department of Transportation; Richard 
M. Larrabee, Director, Port Commerce Department, The Port Authority of 
                        New York and New Jersey

    Mr. Chairman and members of the Subcommittee, we appreciate the 
opportunity to share with you our collective request for navigation 
channel funding.
    The flow of international and domestic commerce through the bistate 
gateway has increased dramatically in recent years, evidence of a 
thriving international trade environment and the importance of Federal 
and non-Federal investments in water and landside facilities. Without 
adequate channels and intermodal connectors linking the terminals to 
the highways and rail lines, the nation's business cannot be 
accomplished in an efficient way. We see our role--the role of the 
governmental agencies charged with responsibility for the port--as 
helping make commerce work for our country through the infrastructure.
                               background
    To demonstrate why Federal funds for navigation projects in our 
region are monies well spent, we quickly recite some statistics from 
the year 2000. Last year $82 billion in cargo flowed through our marine 
terminals, an increase of 13-percent increase over 1999. For the first 
time, total container volumes surpassed the 3 million TEU (20-foot 
equivalent units) mark in 2000, a 7-percent increase over 1999. Loaded 
TEUs were 2,246,194 in 2000, a 10.8-percent increase. For the first 
time in 20 years, ship calls topped the 5,000 mark with 5,124 
commercial vessels, representing a 7.3-percent increase. Overall vessel 
traffic in the port has increased more than 12 percent since 1991. 
Total cargo volumes (bulk and general cargo combined) grew by 9.7 
percent in 2000.
    While the Port of New York and New Jersey serves a huge local 
market it is also the major gateway to the United States. The port 
handles 11 percent of all oceanborne general cargo imported into the 
nation. It also serves a significant market in the Midwestern United 
States. In fact, 40 percent of the Midwest bound cargo that flows 
through North Atlantic ports comes through the Port of New York and New 
Jersey. As you might imagine, and as our senators know very well, the 
working port serves not only the national interest but also our bistate 
region where the Port supports more than 166,000 jobs and contributes 
$21 billion to the regional economy.
    We are grateful for the funding that this Subcommittee has provided 
to projects in our port. In addition to the required non-Federal match 
there also will be significant, related investments in a wide range of 
port-related infrastructure. The public and private investments are in 
response to market demands. Those demands clearly indicate that 
commerce will flow strongly through our port at rates that will test 
the capacity of our infrastructure in the channels, at the terminals 
and on access facilities even as construction is underway. Our 
conservative analysis of a few years ago projected annual growth at 4 
percent and a doubling of cargo in our region by the end of the decade. 
However, as you can see in the 2000 statistics, real growth actually 
has exceeded that pace. Given the above, we think that funding the 
projects at our recommended levels is well justified and consistent 
with the best interests of this country as it works to meet the demands 
of world commerce. The navigation channels that are under construction, 
or soon will be, serve the major terminal areas of the Port. The 
improvement work by the Corps of Engineers will ensure that essential 
navigation infrastructure will be in place to accommodate post-Panamax 
ships currently deployed in international commerce.
    Mr. Chairman, the Federal government and we, your partners, should 
undertake major capital projects in timeframes that provide project 
benefits when they are needed and not long after they are required. 
That is why we are investing $4 billion over the next several years on 
an ambitious construction schedule to increase the capacity and 
efficiency of the land and water infrastructure that is required to 
serve the nation's business.
    The Port Authority of New York and New Jersey, alone, is committing 
$1.8 billion in port redevelopment projects over the next five years 
while some of our private partners have committed spending over $500 
million in marine terminal investments. As we already noted, trade 
volumes have skyrocketed, placing ``future'' demands on the port 
facilities today and portending even more to come. Steamships, planned 
and under construction, are only getting larger, promising greater 
volumes of cargo on each call and requiring deeper channels to allow 
the vessels safe and efficient operation. And with greater efficiency 
in all aspects of our transportation system, the nation benefits by 
becoming more competitive. In fact the Army Corps of Engineers 
estimates that the nation will enjoy $270 million in annual 
transportation cost savings due to larger vessels calling on the Port 
of New York and New Jersey.
    Discussed below are select projects and appropriation amounts that 
we seek for fiscal year 2002. Please know that these are in addition to 
other, continuing projects, currently under study or requiring 
maintenance that are in the Corps of Engineers budget.
                               discussion
Kill van Kull--Newark Bay Channels, NY & NJ (Phase II)
    The deepening of the Kill Van Kull and Newark Bay Federal channels 
to 45 feet would serve Port Newark and the Elizabeth Port Authority 
Marine Terminal, the busiest and largest container facilities on the 
East Coast, as well as terminals on the Arthur Kill. The Port of New 
York and New Jersey achieved a major milestone in this project by 
witnessing the beginning of the final phase of construction in 1999. 
Since that time, the project is fully underway, on schedule and under 
budget. Of nine planned construction contracts, one is complete and two 
are nearing completion. A fourth contract was awarded in March and bids 
were received for a fifth contract. In April, bids for a sixth contract 
will be received. The Port Authority of New York & New Jersey as local 
sponsor for this project has approved the local share of funding and is 
committed to completing construction with the Corps of Engineers by the 
end of 2004. It is a goal mandated by the users of the Port who have 
waited a long time for the 45-foot depth. We seek $44 million, the 
amount budgeted by the President, to keep the project on track.
NY & NJ Channels: Arthur Kill Channel, NY & NJ
    The Arthur Kill Channel, NY & NJ, Howland Hook Marine Terminal 
(HHMT) project authorization was initiated in 1986 and most recently 
revised in the 1999 WRDA. The project's controlling depth is currently 
35 feet. The planned channel improvements include: (1) deepening the 
existing 35-foot channel to 41 feet below MLW from its confluence with 
the Kill van Kull Channel to the Howland Hook Marine Terminal and (2) 
deepening to 40 feet below MLW from the HHMT to the Petroport and Tosco 
facilities in New Jersey. The Army Corps estimates that the project 
will result in an annual public benefit of $70 million The Port 
Authority has already invested nearly $52 million in 2000 including the 
purchase of land to expand the terminal at HHMT. Another $475 million 
has been committed in the Port Authority's five-year capital plan to 
further expand capacity and improve the productivity of the terminal.
    The Port Authority Board of Commissioners has approved an amount 
representing the full local share and we are eager to get the project 
underway. The HHMT currently serves 18 shipping lines and employs 800 
people--an increase of 200 over 1999--on peak days and is expected to 
increase to a range of 1000 to 1200 employees in 2001. Howland Hook is 
the fastest growing marine terminal in the harbor, handling 
approximately 20 percent of the Port of New York and New Jersey's 
cargo. In the last year alone, the terminal's volumes grew an amazing 
72 percent. Lastly, we note that HHMT is the Defense Department's 
Northeast Strategic Port of Embarkation in the event of a national 
emergency, which gives it a special role to play in the national 
defense strategy. Yet vessels serving national security interests will 
not be able to fully load at the terminal until the project is 
completed.
    The Port of New York and New Jersey is the number one refined 
petroleum port in the nation and ranks with the Port of Houston, Texas, 
in terms of total volume. Many of the petroleum facilities are located 
along the Arthur Kill, including the Tosco Bayway Refinery. Deepening 
the Arthur Kill to the Tosco Refinery will reduce the need to lighter 
the large tankers at the anchorages in New York Harbor. If lightering 
were no longer necessary, the potential for an environmental accident 
as a result of the double handling of this sensitive cargo would be 
eliminated. Last year, the President's budget request included this 
project for the start of construction and Congress approved $4 million. 
The President's budget requests $15 million. We are aware of 
recommendations that include as much $50 million for the Arthur Kill 
project. We would welcome funding at a level as high as that. However, 
we also understand that the capability of the Corps of Engineers in 
fiscal year 2002 is approximately $20 million. We respectfully request 
that the Subcommittee provide at least that amount in order to keep 
pressure on the Corps of Engineers to complete this important project 
on an expedited basis.
New York Harbor and Adjacent Channels: Port Jersey, NJ
    The 1986 WRDA authorized construction of the Port Jersey Channel to 
41 feet. The Port Jersey Channel, located in Bayonne, NJ, presently 
serves approximately one-half dozen shipping lines calling at Global 
Marine Terminal. In addition, the channel provides access to the Port 
Authority Auto Marine Terminal and would serve a new terminal that is 
contemplated for a portion of the former Military Ocean Terminal at 
Bayonne. As the only privately owned container terminal in the port, 
Global pays approximately $12,000,000 in Federal, state, and local 
taxes annually. More than 300 vessels, carrying more than 325,000 
twenty-foot equivalent units, call annually at the terminal. Well over 
600 terminal employees, with an annual payroll of $28 million, and 
3,000 indirect jobs depend on this facility for their livelihood. In 
addition, Global Terminal has recently invested over $50 million in new 
container cranes and other handling equipment. They also plan to invest 
another $40 to $50 million in facility improvements to efficiently 
handle the growth of cargo projected for this area of the Port. 
Recognizing the demand of ocean carriers and responding to a critical 
need to provide deeper water on an emergency basis, the State of New 
Jersey in 1997 constructed a 38-foot channel leading to Global at a 
cost of $14,000,000. We anticipate that the project will be done over 
two years and that with an appropriation $22 million for fiscal year 
2002, the amount requested in the President's budget, we will be able 
to make the level of progress needed at that location and ensure the 
timely initiation of the second of the two planned contracts.
New York & New Jersey Harbor Project
    Congress last year authorized the New York & New Jersey Harbor 
navigation project that builds on the improvement projects described 
earlier in this statement. This is a comprehensive deepening of the 
entrance channels (to 53 feet) and those serving the major terminal 
areas of the bistate port (to 50 feet). This harbor-wide project will 
take the Port's navigation infrastructure into the 21st century. It 
will ensure that the United States will have world class channel 
dimensions at its principal Atlantic gateway to meet the demands of 
international shipping. The Corps of Engineers has made good progress 
in the project thus far. The Port Authority and New York District 
Engineer signed the PED agreement at the end of 2000. This pre-
construction and engineering design phase is expected to last 2 to 3 
years. The Port Authority is currently investigating ways to shorten 
construction schedules to bring 50' channels to the Port meet the 
demands of our customers sooner. Therefore we request that the 
Subcommittee support the continued engineering and design work on the 
project with an appropriation of $8 million, which is greater than the 
budgeted figure.
NY & NJ Estuary Restoration Project
    The implementation of a restoration and remediation plan for the 
Hudson-Raritan Estuary is a significant part of any future improvement 
strategy for the harbor. The Corps of Engineers' feasibility study on 
harbor restoration is an important step in determining potential 
Federal and non-Federal projects to improve the quality of the natural 
resource. To that end, we respectfully request that funds in the amount 
of $3 million be appropriated for the second year of this valuable 
effort.
Ambrose Shoal
    Last year, the conferees of the Energy & Water Development bill for 
fiscal year 2001 directed the Corps of Engineers to remove dangerous, 
high elevation areas near the entrance to the Ambrose Channel. It was 
an urgent matter, prompted by incidents that were evidence that what 
markings are in place at that location are insufficient to protect 
vessels from the hazard. Thanks to you, and prompt work by the Corps of 
Engineers, it appears that the work will be completed in the current 
fiscal year.
Section 102 Restrictions
    The conferees last year again adopted a limitation on Corps of 
Engineers agreements entailing credits and reimbursements for advances 
by non-Federal sponsors. Such a provision effectively preempts 
initiative on the part of non-Federal sponsors to bring about a 
completed project at a lower cost. We strongly urge the Subcommittee 
not to renew that restriction or to at least provide the Secretary with 
some flexibility in that regard. As partners with Congress and the 
Corps of Engineers in pursuit of beneficial projects, we think that if 
a project can be expedited through the advancement of funds, it is in 
the long term interest of all parties, most especially the public.
                               conclusion
    Mr. Chairman, the Port of New York and New Jersey directly serves a 
substantial portion of the United States, reaching into the Midwest and 
beyond. As the evolution of the shipping industry has continued the 
port sector has witnessed the shift to a smaller number of major 
intermodal gateways that require the deeper channels. We have seen that 
shift occurring in our region. Major steamship lines that are adding 
large ships to their fleets have committed to new and expanded 
facilities in our harbor. We are responding by making investments in 
channels, berths, terminal infrastructure and rail and road 
improvements. We are also implementing a new rail and barge feeder 
service program to speed containerized cargo to their destinations with 
less impact on the environmental and greater efficiency. This program 
will entail even greater expenditures by the public and private sectors 
at the state and local level. The Federal role in meeting the 
requirements of world commerce is even more crucial because the 
navigation channels are the essential first step.
    Thank you for this opportunity to advise you on the Corps of 
Engineers projects of concern to our States and region.
                                 ______
                                 

  Prepared Statement of the Upper Mississippi River Basin Association

 
                        [In millions of dollars]
------------------------------------------------------------------------
                                       President's           UMRBA
                                         request         recommendation
------------------------------------------------------------------------
Construction General:
    Upper Miss. River System                   21.000             33.170
     Environmental Mgt. Program...
    Major Rehabilitation of Locks              13.744             16.954
     and Dams.....................
Operation and Maintenance: O&M of             138.216            177.216
 the UMR Navigation System........
General Investigations:
    Upper Mississippi and Illinois              3.724                \1\
     Waterway Navigation Study....
    Upper Mississippi River System              1.200              1.200
     Flow Frequency Study.........
    Upper Mississippi River                     0.000              2.000
     Comprehensive Plan...........
    Upper MS & IL Rivers Levees &               0.000               .250
     Streambank Prot. Study.......
    Research & Development........             24.000             29.000
    Stream Gaging (U.S. Geological               .700               .700
     Survey)......................
------------------------------------------------------------------------
\1\Sums as necessary.

Introduction
    The Upper Mississippi River Basin Association (UMRBA) is the 
organization created in 1981 by the Governors of Illinois, Iowa, 
Minnesota, Missouri, and Wisconsin to serve as a forum for coordinating 
river-related state programs and policies and for collaborating with 
Federal agencies on regional issues. As such, the UMRBA works closely 
with the Corps of Engineers on a variety of programs for which the 
Corps has responsibility. Recent concerns about the Corps' planning 
process, proposals for management reform, and controversies surrounding 
the Upper Mississippi River Navigation study are serious matters. 
However, these issues do not obviate the fundamental need for a wide 
variety of on-going Corps water resource programs and projects. Of 
particular interest to the basin states are the following:
Environmental Management Program
    The 1999 Water Resources Development Act (WRDA) reauthorized the 
Upper Mississippi River System Environmental Management Program (EMP), 
which was originally authorized in 1986. What was at first a novel 
approach to interagency environmental management, has now become a 
widely recognized and respected regional program.
    The EMP consists of two primary components: the construction of 
individual projects to rehabilitate or enhance critical habitat areas 
and a long term monitoring program to track the environmental health of 
the river system. The habitat projects, which vary in size and range in 
cost from about $500,000 to $14 million, employ different techniques, 
including such measures as island creation, water level control 
features, side channel closures or openings, and selective dredging to 
remove sediment. The long term monitoring program supports six field 
stations throughout the river system that routinely collect 
standardized data on water quality, sediment, fish, invertebrates, and 
vegetation at over 150 sites. In addition, scientists conduct applied 
research, assessing habitat conditions and historic landscape changes, 
and use modeling and statistical analysis to help characterize and 
understand ecological processes.
    The 1999 WRDA increased the annual authorized appropriations for 
the EMP from $19.455 million to $33.17 million. Despite this clear 
indication from Congress and the public that the EMP is an important 
program, the President's fiscal year 2002 budget request for the EMP is 
only $21 million, well below the authorized funding level. In four of 
the past five years, Congress has chosen to increase EMP funding above 
that requested by the Administration. The states are hopeful that 
Congress will again affirm its support for this important program by 
providing the full authorized amount of $33.17 million for the EMP in 
fiscal year 2002.
    The fiscal year 2002 budgeted amount of $21 million will be used to 
initiate construction on 8 habitat projects, continue construction of 3 
projects, and complete construction of 2 projects. The design of 3 
projects will be completed, while design work continues on 5 others. In 
addition, approximately $6.3 million will be used to support the on-
going long-term resource monitoring, research, and analysis. Funding 
will be used to support the work of the state field stations and 
continue analyzing the data collected at those stations to guide 
habitat restoration efforts.
    If an additional $12.17 million is provided in fiscal year 2002, 
significant additional habitat restoration work can proceed, including 
completion of design work on 2 projects, initiation of construction of 
2 projects, and advancing construction of 7 projects. In addition, 
critical bathymetric surveys can be completed. Bathymetry, which is the 
topography of the river bottom, is used to predict habitat impacts from 
flood events, define essential habitats for large river species, and 
identify opportunities for habitat restoration. In addition, enhanced 
funding would insure that land cover/land use data coverage for the 
entire river system could be rapidly completed. Such information is 
needed for a wide variety of management activities, including best 
management practices to address nutrient loss and impacts.
Major Rehabilitation of Locks and Dams
    Given that most of the locks and dams on the Upper Mississippi 
River System are over 60 years old, they are in serious need of repair 
and rehabilitation. For the past 15 years, the Corps has been 
undertaking major rehabilitation of individual facilities throughout 
the navigation system in an effort to extend their useful life. This 
work is critical to ensuring the system's reliability and safety.
    The UMRBA supports the Corps' fiscal year 2002 budget request of 
$13.744 million for major rehabilitation work at three locks and dams 
on the Upper Mississippi River. Half of this amount is to be provided 
by the Inland Waterways Trust Fund. Funding for Lock and Dam 12 ($4.906 
million) and Lock and Dam 24 ($8.038 million) will support continuing 
work, including rehabilitation of lock machinery and concrete 
resurfacing. Funding to address the Lock and Dam 3 outdraft problem 
($800,000) will support continuing work on the reevaluation report and 
draft Environmental Impact Statement. The funds that the Corps has 
requested are expected to be sufficient to accomplish the work 
scheduled at these three sites. However, an additional $3.21 million 
could be used to initiate major rehabilitation work at Lock and Dam 11 
as well.
Operation and Maintenance (O&M) of the Upper Mississippi River 
        Navigation System
    The Corps of Engineers is responsible for operating and maintaining 
the Upper Mississippi River System for navigation. This includes 
channel maintenance dredging, placement and repair of channel training 
structures, water level regulation, and the daily operation of 29 locks 
and dams on the Mississippi River and 7 locks and dams on the Illinois 
River. The fiscal year 2002 budget includes approximately $138 million 
for O&M of this river system, including $101.657 million for the 
Mississippi River between Minneapolis and the Missouri River, $13.068 
million for the Mississippi River between the Missouri River and Ohio 
River, and $23.491 million for the Illinois Waterway.
    These funds are critical to the Corps' ability to maintain a safe 
and reliable commercial navigation system. The efficiency of this 
system is vital to the agricultural economy of the region. In addition, 
these funds support a variety of activities that ensure the navigation 
system is maintained while protecting and enhancing the river's 
environmental values. For example, O&M funds support innovative 
environmental engineering techniques in the open river reaches such as 
bendway weirs, chevrons, and notched dikes that maintain the navigation 
channel in an environmentally sensitive manner. In addition, water 
level management options for a number of pools in the impounded portion 
of the river are being evaluated under the O&M program. Pool level 
management is a promising new approach for enhancing aquatic plant 
growth and overwintering conditions for fish without adversely 
affecting navigation.
    While the funds that the Corps has requested for fiscal year 2002 
are expected to be adequate to meet basic O&M requirements, the UMRBA 
supports additional funding of $39 million, which could be effectively 
utilized in fiscal year 2002 for critical needs such as electrical 
repairs, bulkhead repairs, repairs to cracks and spalls on lockwalls, 
concrete repairs, repairs to liftgates, revetment and dike repairs, and 
replacement of roller gate chains at various lock locations on the 
upper river. Additional funds are also needed to support work related 
to fish passage at dams.
Navigation Study
    The Corps is currently reviewing the findings and recommendations 
of the March 2001 report of the National Research Council (NRC) to 
determine what changes need to be made to the Upper Mississippi--
Illinois Waterway System Navigation feasibility study. In particular, 
the NRC panel that reviewed the study found problems with the Corps' 
economic model, its assumptions, and input data. Due to these problems, 
the panel recommended that the Corps' forecasts of barge traffic and 
waterway congestion not be used. They also recommended that the Corps 
obtain more data and more fully explore inexpensive nonstructural 
alternatives. In addition, the NRC recommended a more comprehensive 
assessment of environmental impacts and better integration of the 
results of the environmental studies in the decision process.
    In response to these findings the Corps is revising its Project 
Study Plan (PSP), which is expected to be done by June 2001. In 
addition, a National Federal Senior Principals Task Force and a 
Regional Interagency Work Group have recently been formed to provide 
guidance on the economic and environmental issues and assist in 
bringing this study to completion. The UMRBA supports the fiscal year 
2002 funding necessary to modify the study as needed so that it can be 
brought to a timely conclusion with credible analysis upon which to 
base future investment decisions.
Upper Mississippi River System Flow Frequency Study
    Flow frequencies for the Upper Mississippi River System badly need 
revision. The flood profiles currently in use were developed in 1979 by 
an interagency task force and replaced profiles previously adopted in 
1966. However, the accuracy of the 1979 profiles has come into question 
now that there are over 20 years of new data, including flow records 
from several high water events like the Great Flood of 1993.
    Flood elevation profiles have a variety of important uses including 
flood insurance; floodplain management; and the study, design, and 
construction of flood control projects. Thus, the five states of the 
Upper Mississippi River Basin have been strong supporters of the Corps' 
efforts to reassess the methodology, update the data, and develop more 
sophisticated and accurate models. The UMRBA supports the fiscal year 
2002 budget request of $1.2 million for the Upper Mississippi River 
Flow Frequency Study. These funds will be used to develop the new flood 
profiles and complete risk and uncertainty and sensitivity analyses.
Upper Mississippi River Comprehensive Plan
    Section 459 of the Water Resources Development Act of 1999 
authorized the Corps to develop what is termed an ``Upper Mississippi 
River Comprehensive Plan.'' The primary focus of the plan is systemic 
flood damage reduction. The current devastating floods on the Upper 
Mississippi River once again demonstrate the need to take a 
comprehensive look at flood control and floodplain management needs on 
the upper river. The UMRBA supports funding of $2 million in fiscal 
year 2002 to initiate coordination with other Federal and state 
agencies to appropriately scope the study and identify data and 
information needs, including how the plan will build upon the results 
of the Flow Frequency Study.
Upper Mississippi and Illinois Rivers Levees and Streambank Protection 
        Study
    Section 458 of the Water Resources Development Act of 1999 
authorized the Upper Mississippi and Illinois Rivers levees and 
streambanks protection study in response to erosion damages to levees 
and other flood control structures on these rivers. The UMRBA supports 
funding of $250,000 to initiate this study in fiscal year 2002.
Research and Development
    The $24 million requested in the President's budget for Research 
and Development does not include funding for a proposed System-Wide 
Modeling Assessment & Restoration Technologies' (SMART) program. The 
SMART program would provide significant new tools needed to address 
environmental restoration at watershed and basin scales. Hydrologic, 
hydrodynamic, and sediment transport models would be linked with 
biological models and socio-economic modules to provide an integrated 
technology for evaluating improvements in land and water management at 
the basin scale. It is proposed that this work focus initially on the 
Upper Mississippi River Basin. SMART would improve prediction 
capabilities regarding sediment and nutrient transport under different 
conditions of land use. This foundational research could then be 
applied to the sediment and nutrient modeling authorized for the Upper 
Mississippi River Basin under Section 403 of WRDA 2000.
    The estimated five-year cost of the SMART program is $25 million, 
with $5 million requested in fiscal year 2002. The UMRBA supports 
funding for the SMART program as the research investment required prior 
to implementation of the Section 403 study.
Stream Gaging
    The Corps of Engineers in cooperation with the USGS operates 
approximately 150 stream gages in the Upper Mississippi River Basin. In 
fiscal year 2001, the estimated Corps share of the cost of these gages 
is $1.1 million. Most stream gages are funded as part of the cost of 
the project to which they are related. However, there are a number of 
gages that are not associated with a particular project. Thus, UMRBA 
supports the $700,000 requested in the General Investigations to 
support the Corps' share of non-project USGS stream gages, many of 
which are located in the five states of the Upper Mississippi River 
Basin.
                                 ______
                                 

   Prepared Statement of the American Society of Mechanical Engineers

    The Energy Committee of the Council on Engineering (COE), American 
Society of Mechanical Engineers (ASME International) is pleased to 
provide testimony on the President's fiscal year 2002 budget request 
for the Department of Energy (DOE). Our testimony is directed to the 
Administration's proposed budget for the Department of Energy's R&D 
programs in the areas of nuclear energy research, renewable energy 
research, and basic energy sciences.
            introduction to the coe energy committee of asme
    The 125,000-member ASME International is a worldwide society 
dedicated to the advancement of the art and science of Mechanical 
Engineering. We focus our efforts on technical, education, and research 
in Mechanical Engineering and conduct one of the world's largest 
technical publishing operations. The COE Energy Committee consists 
primarily of members representing eight technical divisions and three 
ASME Boards (approximately 40,000 members) that address energy 
technologies, resources, and utilization.
                               background
    This past year has been a pivotal one for energy supply and 
utilization in the United States. The first results of restructuring of 
the electric power industry in California manifested themselves 
dramatically, with spiking electrical power prices, rolling blackouts, 
and bankruptcy filings by major utilities. The California experience 
has caused many states that had been contemplating restructuring to 
delay their plans pending resolution of the situation. Nationwide, we 
have experienced some of the highest gasoline prices in a decade with 
predictions that prices could exceed $3/gallon in some parts of the 
country this summer. Some have referred to our situation as an emerging 
``energy crisis,'' while we recognize that these events are symptoms of 
the fact that we have no consistent, well-integrated national energy 
policy to carry us into the 21st Century.
    The COE Energy Committee fully supports the Administration's 
actions to establish a National Energy Strategy to meet our current and 
future energy needs. We firmly believe that success in implementing a 
National Energy Strategy will, in part, depend on developing new and 
continuing current Federal energy R&D programs, while motivating 
industrial and consumer adoption of current state-of-the-art energy 
technologies. Energy R&D funding levels are at all time lows at a time 
when energy issues are on the front pages of American life. This trend 
must be reversed to stoke the (emission-free) fires of America's 
innovative spirit.
    The current situation is placing higher demands on the performance 
of our energy systems and, in some cases, is pushing the limits of 
scientific understanding and technology. As mechanical engineers, we 
feel strongly that investments in scientific research and technology 
development are essential to enable our country to meet its near- and 
long-term energy needs in an environmentally appropriate manner. Fossil 
fuels, which presently are the predominant energy source worldwide, 
will remain the primary fuel for years to come. In the United States, 
coal currently produces more than half our electrical power and, 
because its supply is plentiful, will be the fuel of choice for this 
purpose in the future. In the long term, we need to establish a 
diversity of energy resources to meet our energy needs that include 
expanding our nuclear, hydropower, solar, and other renewable energy 
resources. It is crucial, as we expand and diversify our energy 
resources, that we also use them wisely and effectively, setting 
standards for utilization and improving conservation and efficiency. In 
our view, one example of an ineffective use of an energy resource is 
the proliferation of gas-turbine power plants that use natural gas as a 
fuel when natural gas has more value as a chemical feedstock and home-
heating fuel.
    Even with increased energy shortages, the U. S. public continues to 
demonstrate concern for the preservation of the environment and for 
continued improvement of air and water quality. The ability to meet our 
future energy needs in a manner consistent with our environmental well 
being requires that we continue into the 21st Century the innovation 
and entrepreneurial development in that made us the world leader in 
technology in the 20th Century. To do this, we need strong leadership 
from the Federal government to develop a national energy policy that:
  --ensures a diversity of U. S. energy sources and a transmission and 
        distribution infrastructure to enable adequate future supplies 
        and competition in the market place;
  --utilizes energy resources in those applications where they are 
        unique, efficient, and provide the most value;
  --balances supply-side (resource availability and distribution) and 
        demand-side (conservation, utilization, and efficiency) 
        considerations; and
  --maintains consideration for the environmental impacts of energy-
        related decisions.
    The COE Energy Committee strongly supports increased funding for 
energy research and development that is directed at increasing energy 
conservation, developing advanced forms of energy and improving 
utilization of our resources.
    Our testimony is based on an analysis of the Administration's 
proposed budget for fiscal year 2002 for the Department of Energy's R&D 
programs in nuclear energy research, renewable energy research, and 
basic energy sciences. While the administration clearly recognizes the 
importance of developing a national energy policy as indicated by the 
appointment of the Vice President to lead its development, our analysis 
shows a reduction of funding in the three topic areas of nearly $140 
million dollars over fiscal year 2001 levels. These reductions are 
proposed at a time when we should be expanding, not reducing, R&D, and 
they critically threaten very important energy R&D programs.
                        office of nuclear energy
    The U.S. pioneered the safe utilization of atomic energy for 
commercial power production and today 23 percent of the U. S. 
electrical energy is supplied by nuclear power. Technology developed in 
the U.S. is now employed worldwide for nuclear power generation. For 
over two decades, no new nuclear power plants have been approved for 
construction in the U.S. while abroad many countries are taking 
advantage of this clean, safe, and relatively inexpensive power source. 
The U.S. has the opportunity to renew its option on the effective use 
of nuclear power, which many believe will be a vital part of a future 
where carbon emissions may be severely curtailed. However, this will 
not be possible without a significant, sustained, national investment, 
coupled with the re-licensing of existing U.S. nuclear plants.
    To meet the challenges associated with ensuring a continued supply 
of nuclear power in our country, we have identified the following 
research needs and policy priorities: completion of the high-level 
waste repository and demonstration of long-term technologies for 
monitoring and managing repository safety; R&D to improve on-site and 
off-site interim storage; and incentives for students to enter careers 
for nuclear design, construction, and operation.
Nuclear Energy Plant Optimization (NEPO)
    The COE Energy Committee strongly supports the NEPO to address 
extending the life and improving the efficiency of conventional nuclear 
power plants. The NEPO program marks the beginning of efforts to enable 
maximum use of our existing nuclear generation capacity. Major advances 
in science and technology offer the potential to substantially increase 
the productive life of nuclear plants with improved safety and economic 
performance. Given the current industry trend toward nuclear plant life 
extension and the potential benefits offered by the NEPO program, the 
COE Energy Committee encourages the Subcommittee to increase the amount 
requested by the administration to $10 million, with appropriate and 
justified increases in future years.
Nuclear Energy Research Initiative (NERI)
    The COE Energy Committee continues to support the NERI efforts to 
develop fundamental technologies for future nuclear power. Increased 
understanding of nuclear power technology, advances in materials 
science, and improvements in many related sciences and technology offer 
the potential to reduce plant construction and operation costs and 
waste management requirements, and improve plant operability, 
reliability, life span, and safety. A substantial fraction of this 
initiative will go toward nurturing university research and education 
in nuclear science and engineering, through direct funding and 
reinforcing linkages between the nuclear technical community in 
industry and our national laboratories. It will help ensure the 
availability of an improved nuclear power option for the future and 
increase the dwindling base of nuclear professionals. This will benefit 
the U.S. by enhancing power production in this country and enabling 
U.S. industry to compete effectively in the global energy markets. We 
recommend funding NERI at least equal to last year's level of $35 
million, with serious consideration given to steadily increasing 
funding to the level of $100 million recommended by the 1997 report by 
the Presidents Advisors on Science and Technology (PCAST).
Nuclear Engineering Technologies
    The Energy Committee supports the development of next-generation 
nuclear technologies for advanced light water reactors and robust, 
modular designs. We believe that it is critical to identify and develop 
modular reactor designs with high utilization, lower toxicity, and less 
proliferation potential for process heat, desalination, and hydrogen 
production. We also support the development of designs for advanced 
gas-cooled plant designs. The Committee supports increasing funding for 
Nuclear Technologies to $12 million.
Other Nuclear Programs
    The COE Energy Committee supports continued investment in the 
University Reactor Fuel Assistance and Support (URFAS). It is 
reasonable to believe that increased investment in NERI and NEPO will 
require greater utilization of our university reactors; therefore, the 
COE Energy Committee recommends an increase to $15 million for fiscal 
year 2002.
                       renewable energy resources
    The COE Energy Committee supports increasing the proposed budget 
for solar and renewable energy development as an investment in 
diversity of our energy future. Various studies by the National Science 
Foundation and others have shown that it takes from 20 to 25 years from 
the time of inception for a new technology to start to penetrate 
commercial markets. Some solar and renewable energy resources, e.g., 
wind, hydropower, geothermal, and some biomass technologies, are 
nearing the completion of this development cycle. Other renewable 
technologies (photovoltaics, concentrating solar, and hydrogen) are at 
the mid-point of the cycle and are, realistically, years from reaching 
technological maturity. Because some technologies are more developed 
now does not necessarily mean that they are either the ``best'' or the 
``only'' technologies that will be needed in the future. It is clear 
there will not likely be one winner, but rather a suite of technologies 
that will be deployed to meet the broad range of needs within the U.S. 
and for export. Now is the time to explore and expand all of our 
options to the fullest extent practicable as we prepare to meet power 
generation needs of the 21st Century.
Hydrogen Research
    The COE Energy Committee supports increased funding for Hydrogen 
research to $30 million to accelerate the development of reformer 
technology, membranes, and high-density storage for application to fuel 
cells.
Hydro Power
    THE COE Energy Committee supports increasing funding for hydropower 
to the fiscal year 2001 level of $5 million for continuing development 
of advanced turbines and for studies to evaluate re-powering of 
existing hydroelectric dams, which will increase efficiency and 
capacity and mitigate environmental impacts.
Solar Energy
    The COE Energy Committee supports increases in funding for solar 
energy research by $60 million to support systems integration for 
photovoltaic (increase to $80.1 million) and concentrating solar power 
(CSP) systems (increase to $18.7 million), and for the solar buildings 
program to bring it back to the $3.9 million dollar level of fiscal 
year 2001. The Committee believes that the proposed close out of the 
CSP Program on the grounds that solar trough technology is commercial, 
is ill conceived and does not take into consideration the additional 
development needs of power tower and dish/engine systems.
Renewable Support and Implementation
    The COE Energy Committee strongly favors increased funding for 
renewable energy support and implementation programs by $21.5 million 
as a continuation of support for the coordination of Federal, Native 
American, and state energy programs and to encourage and enhance the 
application of renewable energy projects.
                             other programs
    The COE Energy Committee supports the proposed funding for Biomass 
Power/Biofuels at $80.5 million with primary focuses on alternative 
fuels development and power production. We also recommend: increasing 
the geothermal budget to $27 million to support cross-cutting drilling 
research; increasing the wind energy budget to $45 million in support 
of advance light weight turbine designs and active controls; and an 
increase in energy storage and distributed energy systems to $60 
million for cross-cutting systems and storage development.
    The COE Energy Committee supports enhancing the formation of 
coalitions among industry, universities, and the national laboratories 
to fully explore research and development potential of solar/renewable 
energy resources. We believe that it is government's role to perform 
the basic, fundamental R&D and that, once the concepts have been fully 
developed, it is industry's responsibility to penetrate the global 
marketplace. The development of competitive renewable options provides 
insurance for U. S. energy security and environmental impacts on our 
energy future. They will enable the U.S. to achieve a more sustainable 
energy economy.
                         basic energy sciences
    The COE Energy Committee recognizes the importance of fundamental 
scientific research for the long-term well being of the nation and we 
support the proposed, nearly level funding for Office of Science 
Programs. We cannot help but be concerned about reductions in funding 
for biological research and we recommend a modest increase in the 
advanced scientific computing initiatives to $170 million. We also want 
to support the increases in funding for Basic Energy Sciences and high 
energy physics, and level funding for fusion research and nuclear 
physics.
    The COE Energy Committee joins our President and Vice President in 
facing the challenges of ensuring that energy resources are available 
to meet the needs of all our citizens; and assuring that adequate 
supplies of energy for the safety and security of our families, our 
communities, and our Nation. We believe that dependable, affordable, 
and environmentally sound production and distribution of energy is 
critical for the future of the United States.
    Thank you for the opportunity to offer testimony regarding the 
renewable, nuclear, and science budgets proposed for the Department of 
Energy. ASME's COE Energy Committee will be pleased to respond to 
requests for additional information or perspectives on other aspects of 
our nation's energy programs.
                                 ______
                                 

 Prepared Statement of the Board of Supervisors, Contra Costa County, 
                               California

                   lower walnut creek channel project
                                request
    Contra Costa County requests a $250,000 add-on of Construction 
General (CG) Funding to the Federal Fiscal Year 2002 Budget to allow 
the U.S. Army Corp of Engineers to prepare a General Reevaluation 
Report (GRR) to evaluate new alternatives allowing flood control 
improvements and environmental restoration of this major tributary. 
Army Corps of Engineers review of pertinent information and preparation 
of additional studies are necessary in order to recommend appropriate 
action and funding requirements to provide critical drainage 
improvements and habitat restoration in the Lower Walnut Creek Channel.
                               background
    The Contra Costa County Flood Control and Water Conservation 
District (District) has been unable to operate and maintain portions of 
the Walnut Creek Channel in a traditional manner due to new listings of 
endangered species and regulatory agency policies. As a result the 
channel has silted in over the last several years reducing its flood 
protection capacity. The importance of this project has resulted in 
broad-based support from many agencies and organizations throughout a 
large portion of this major metropolitan area. Through work with our 
Contra Costa Watershed Forum and establishing broad based support, the 
District is proposing new alternatives that will move the channel 
levees back to establish a floodplain and additional habitat. This 
project will also evaluate feasibility to build step pools for fish to 
migrate past a concrete drop structure. The project will enhance the 
flood control aspects of the channel, develop trails for access by the 
public and provide restoration and re-vegetation of portions of Lower 
Walnut Creek Channel. The Army Corps of Engineers needs a budget 
allocation in the Federal fiscal year 2002 Budget to enable them to 
evaluate potential changes to the functioning characteristics of Lower 
Walnut Creek Channel, to allow all parties to move ahead with this 
project.
                                 ______
                                 

                        Letter From Robert Doyle

                           East Bay Regional Park District,
                               Oakland, California, March 15, 2001.
Congressman George Miller,
7th Congressional District, 1333 Willow Pass Road, Suite 203, Concord, 
        CA 94520.
    Dear Congressman Miller: On behalf of the East Bay Regional Park 
District, I am writing to express our support of the Contra Costa 
County Flood Control District's efforts to obtain Federal funding for 
environmental restoration and flood control efforts on the lower Walnut 
Creek Channel. We understand the County is requesting $250,000 in 
fiscal year 2002 Federal Civil Works funding as a congressional add-on 
for a General Reevaluation Study by the Army Corps of Engineers. This 
Study would update existing studies and include new information and 
technology, and to complete environmental review as well as engineering 
and design for the project.
    Restoration efforts and flood control improvements on the Walnut 
Creek Channel will incorporate the Iron Horse Regional Trail's Walnut 
Creek Channel extension which will link Martinez and Concord and 
continue southward on existing trail which runs through the communities 
of Pleasant Hill, Walnut Creek, Alamo, Danville, San Ramon, and most 
recently Dublin. The trail links parks, schools, employment centers, 
residential areas, and three BART Stations along its 23 miles of 
length. Development of the trail in conjunction with a future flood 
control project will provide opportunities for the public to view 
restoration and flood control improvements, creating a unique 
interpretive opportunity of this important watershed.
    We look forward to working cooperatively with the local 
organizations and agencies identified as a part of this project.
            Sincerely,
                                              Robert Doyle,
                             Assist General Manager, Land Division.
                                 ______
                                 

                    Letter From Laura M. Hoffmeister

                                           City of Concord,
                                Concord, California, March 16, 2001
Honorable Ellen Tauscher,
Congresswoman, 10th District, 1801 North California Boulevard, Suite 
        103, Walnut Creek, CA 94595.
    Dear Congresswoman Tauscher: We are writing to express our support 
of the Contra Costa County Flood Control District's efforts to obtain 
Federal funding for environmental restoration and flood control efforts 
on the lower Walnut Creek Channel. We understand the County is 
requesting $250,000 in fiscal year 2002 Federal Civil Works funding as 
a congressional add for a General Re-evaluation Study by the Army Corps 
of Engineers. This Reevaluation Study would update existing studies and 
include new information and technology, and to complete environmental 
review as well as engineering and design for the project.
    We feel that restoration of the Walnut Creek Channel is vitally 
important to our community because restoration of the creek takes many 
forms; we have an opportunity now to improve our creek for flood 
control purposes while adding a vital component which hasn't been 
addressed as part of flood control efforts in the past ecosystem 
restoration. We will now be able to significantly improve riparian 
habitat along the creek for the number of Endangered Species which 
inhabit it, and improve a very decimated yet persistent fishery 
component. In addition, creek improvements will include vital regional 
trail linkages, significantly enhancing recreational opportunities.
    We are working with a large contingent of agencies and 
organizations which are all quite excited to be part of this project. 
We feel very fortunate to have been part of an effort in the past few 
years whereby flood control and ecosystem improvements are being 
implemented hand-in-hand. We stand ready to improve the quality of life 
for human as well as a great number of other species; all we need is 
funding to enable planning work to proceed on this very important 
project. Thanks for your attention and support of our request. If you 
have questions about this project, please do not hesitate to contact 
either Kevin Emigh at (925) 313-2233 or Mitch Avalon (925) 313-2203 at 
the County Floor Control District.
            Sincerely,
                                      Laura M. Hoffmeister,
                                            Mayor, City of Concord.
                                 ______
                                 

                        Letter From Kathy Hicks

                                      City of Walnut Creek,
                          Walnut Creek, California, March 16, 2001.
Ellen Tauscher,
1239 Longworth House Office Bldg, Washington, DC 20515.
    Dear Congresswoman Ellen Tauscher: I would first like to thank you 
for your help on the City's South Broadway Grate Repair project with 
the Corps. It appears construction on that project will be completed 
before this summer. We now need your help on another issue.
    I am are writing to express our support of Contra Costa County 
Flood Control and Water Conservation District (District) and the City 
of Walnut Creek's efforts to obtain funding for environmental 
restoration, flood control, and recreational improvements on Grayson 
and Murderer's Creeks. We understand that the District is requesting 
$200,000 in fiscal year 2002 Federal Civil Works funding as a 
congressional add-on for a reconnaissance and study of the two creeks.
    The Federal Emergency Management Agency has published preliminary 
maps showing approximately 1,800 homes and many businesses to be within 
the 100-year flood plain. The District and City believe that the 
construction of a multi-use basin along Grayson Creek can be utilized 
to protect lives (human and wildlife) and property by temporarily 
storing rainwater during severe storm events. The basin and drainage 
improvements would be constructed to allow the normal flow of water 
through the creeks. In addition to the construction of the basin, clean 
water, fish and wildlife, riparian, recreational, and educational 
enhancements would be incorporated into the project.
    We are one of the many Citizens, business, environmental, wildlife 
and recreational groups participating in the development of this vital 
project. Thank you for your support to acquire a Federal contribution 
for this endeavor. If you have questions regarding this project, please 
call Mitch Avalon, County Flood Control District at (925) 313-2203 or 
Tim Tucker, City of Walnut Creek at (925) 943-5841.
            Sincerely,
                                               Kathy Hicks,
                                                             Mayor.
                                 ______
                                 
murderer's creek and grayson creek project (cities of pleasant hill and 
                             walnut creek)
                                request
    Contra Costa County requests a $100,000 add-on from General 
Investigation (GI) Funding for a Reconnaissance Study and a $100,000 
add-on from General Investigation (GI) Funding for a Feasibility Study, 
to the Federal fiscal year 2002 Budget, for the Murderer's/Grayson 
Creek Project. This would allow the Army Corps of Engineers to review 
pertinent information and to do additional studies as necessary in 
order to recommend appropriate action and funding requirements to 
(potentially) conduct future drainage improvements in the Murderer's 
and Grayson Creek watershed.
                               background
    This last summer, the Federal Emergency Management Agency (FEMA) 
released preliminary updated floodplain maps for areas throughout 
Contra Costa County. There are significant changes to the flood zones 
in the City of Pleasant Hill with approximately 1800 properties added 
to the 100-year floodplain. The flood zone changes are in the 
Murderer's Creek and Grayson Creek areas of Pleasant Hill. Both of 
these creeks are in the larger Walnut Creek drainage basin.
    The City of Pleasant Hill has made it a priority to address this 
drainage issue and requested assistance from the Flood Control District 
on their behalf. The Flood Control District has asked the Army Corps of 
Engineers to update the last report they prepared for this watershed. 
Because this issue has arisen late in the Federal budgeting process, a 
request for funding to be added to the Federal fiscal year 2002 Budget 
is necessary. The Army Corps of Engineers needs a budget allocation to 
enable them to update the 1992 Feasibility Report for Grayson Creek and 
Murderers Creek (within the Walnut Creek Basin), in the Federal fiscal 
year 2002 Budget.
                                 ______
                                 

                     Letter From Robert B. Berggren

                  Pleasant Hill Recreation & Park District,
                          Pleasant Hill California, March 13, 2001.
    Dear Congresswoman Ellen Tauscher: The Pleasant Hill Recreation & 
Park District is in support of the Contra Costa County Flood Control 
and Water Conservation District with the City of Pleasant Hill's 
efforts to obtain funding for a flood control basin. It is our 
understanding that the Water Conservation District is requesting 
$200,000 in the fiscal year 2002 Federal Civil Works funding.
    The Recreation & Park District is in agreement with the Water 
Conservation District and City, that the construction of a mufti-use 
basin along Grayson Creek can be utilized to protect lives (human and 
wildlife) and property by temporarily storing rain water during severe 
storm events. The Recreation & Park District is, of course, very much 
interested in the construction of the basin for not only clean water, 
fish and wildlife, but also recreational enhancements that can be 
incorporated into this project.
    Pleasant Hill Recreation & Park District and other groups that are 
sponsored by the District, include the Soccer Association and the 
Baseball Association, support the development of this vital project. 
Thank you for your support to acquire a Federal contribution for this 
endeavor. We are hoping that this project will take place so we can 
have the much-needed soccer and baseball fields for the youth of this 
community.
            Sincerely,
                                        Robert B. Berggren,
                                                   General Manager.
                                 ______
                                 

                        Letter From David Smith

                        Pleasant Hill Baseball Association,
                         Pleasant Hill, California, March 14, 2001,
    Dear Congresswoman Ellen Tauscher: I am writing to express my 
support of Contra Costa County Flood Control and Water Conservation 
District (District) and the City of Pleasant Hill's efforts to obtain 
funding for environmental restoration, flood control, and recreational 
improvements on Grayson and Murderer's Creeks. I understand that the 
District is requesting $200,000 in fiscal year 2002 Federal Civil Works 
funding as a congressional add-on for a reconnaissance and study of the 
two creeks.
    The Federal Emergency Management Agency has published preliminary 
maps showing approximately 1,800 homes and many businesses to be within 
the 100 year flood plain. The District and City believe that the 
construction of multi-use basin along Grason Creek can be utilized to 
protect lives (human and wildlife) and property by temporarily storing 
rain water during severe storm events. The basin and drainage 
improvements would be constructed to allow the normal flow of water 
through the creeks. As a child in the early 1960's I had to be picked 
up in a boat from my home on Elinora Drive, many homes were damaged in 
this event, so I have seen first hand the damage and trauma such a 
flood can cause. In additional to construction of the basin, clean 
water, fish and wildlife, riparian, recreational, and, educational 
enhancements would be incorporated into the project.
    I represent Pleasant Hill Baseball Association--just one of the 
many business, environmental, wildlife, and citizens groups 
participating in the development of this vital project.
    Pleasant Hill Baseball Association has nearly 1,500 children 
participating in its youth sports program. We need fields for this 
program, as does the Soccer Association, Football and various other 
groups dedicated to providing sports to the youth of the community. 
Studies show children who enjoy participation in organized sports lore 
much more likely to become productive citizens and much less likely to 
run afoul of the law.
    Thank you for your support to acquire a Federal contribution for 
this endeavor. If you have questions regarding this project, please 
call Mitch Avalon, County Flood Control District at (925) 313-2203 or 
Leary Wong, City of Pleasant Hill at (925) 671-5264.
            Sincerely,
                                               David Smith,
                     President, Pleasant Hill Baseball Association.
                                 ______
                                 

                       Letter From Paul Fernbach

                 Pleasant Hill-Martinez Soccer Association,
                                         Pleasant Hill, California.
    Dear Congresswoman Ellen Tauscher: We are writing to express our 
support of Contra Costa County Flood Control and Water Conservation 
District (District) and the City of Pleasant Hill's efforts to obtain 
funding for environmental restoration, flood control, and recreational 
improvements on Grayson and Murderer's Creeks. We understand that the 
District is requesting $200,000 in fiscal year 2002 Federal Civil Works 
funding as a congressional add-on for a reconnaissance and study of the 
two creeks.
    The Federal Emergency Management Agency has published preliminary 
maps showing approximately 1,800 homes and many businesses to be within 
the 100 year flood plain. The District and City believe that the 
construction of a multi-use basin along Grayson Creek can be utilized 
to protect lives (human and wildlife) and property by temporarily 
storing rain water during severe storm events. The basin and drainage 
improvements would be constructed to allow the normal flow of water 
through the creeks. In addition to the construction of the basin, clean 
water, fish and wildlife, riparian, recreational, and educational 
enhancements would be incorporated into the project.
    We are one of the many citizen, business, environmental, wildlife 
and recreational groups participating in the development of this vital 
project. Thank you for your support to acquire a Federal contribution 
for this endeavor. If you have questions regarding this project, please 
call Mitch Avalon, County Flood Control District at (925) 313-2203 or 
Leary Wong, City of Pleasant Hill at (925) 671-5264.
            Sincerely,
                                             Paul Fernbach,
  Regional Commissioner Pleasant Hill--Martinez Soccer Association.
                                 ______
                                 
    san pablo and wildcat creek phase ii project (city of san pablo)
                                request
    Contra Costa County requests a $100,000 add-on of Construction 
General (CG) funding to the Federal fiscal year 2002 Budget to allow 
the U.S. Army Corps of Engineers to prepare a General Reevaluation 
Report (GRR) of the 1985 Feasibility Report for the San Pablo and 
Wildcat Creek, Phase II Project. This would allow the Army Corps of 
Engineers to review pertinent information and to do additional studies 
as necessary to recommend appropriate action and funding requirements 
to (potentially) construct future drainage improvements in the San 
Pablo and Wildcat Creek watersheds. ALTERNATIVELY, add legislative 
language to extend the existing authorization for five years, which 
would postpone the pending deauthorization of the project. This would 
allow the City of San Pablo and the Flood Control District to work with 
the Army Corps of Engineers and request funding through the normal 
budget process.
                               background
    In the early 1980's flood protection improvements were constructed 
to San Pablo and Wildcat Creeks from San Pablo Bay to the San Pablo 
City limits. This was Phase I of a two-phase project. The second phase 
would extend through the City of San Pablo. Last year, the Army Corps 
of Engineers informed the Flood Control District that the Phase II 
project would be de-authorized on April 16, 2002 unless some action was 
taken.
    In September, the City of San Pablo contacted the Flood Control 
District regarding the proposed de-authorization of the Wildcat and San 
Pablo Creeks Phase II Project. The City confirmed its interest in 
keeping the project active and asked for assistance in proceeding to 
the next step with the Army Corps of Engineers. The City would like the 
Corps to reevaluate the original design to provide a more environmental 
solution.
    FEMA is also updating the floodplain maps in the City of San Pablo 
and the City may potentially have 1,500-1,800 properties placed in the 
100-year floodplain. A budget allocation for the Federal fiscal year 
2002 Budget would allow the Army Corps of Engineers to reevaluate Phase 
II of the original plan.
                                 ______
                                 

                    Letter From Ronald L. Kiedrowski

                                         City of San Pablo,
                             San Pablo, California, March 15, 2001.
Mr. Mitch Avalon,
Deputy Director, Public Works Department, 255 Glacier Drive, Martinez, 
        CA 94553.
    Dear Mr. Avalon: We are writing to express our support of Contra 
Costa County's efforts to obtain funding for environmental restoration, 
flood control and recreation efforts on our creeks. Historically, work 
on creeks within Contra Costa County was limited to flood control 
protection and vegetation was removed to maximize flows, particularly 
in flood-prone areas. As a result, many of our creeks are largely 
devoid of riparian vegetation which is critical to a number of 
endangered and other species which inhabit these areas. Today, 
additional flood control work must be done, allowing the opportunity 
for ecosystem restoration and recreational opportunities to go forward 
hand-in-hand with flood control planning efforts. We need your help to 
fund our creek restoration efforts.
    Restoration of the Walnut Creek Channel, and the other creeks in 
our vicinity is vitally important to our community, because restoration 
takes many forms. We will now be able to significantly improve riparian 
habitat along creeks and improve a very decimated yet persistent 
fishery, in addition to the flood control component. In addition, creek 
improvements will include vital regional trail linkages, significantly 
enhancing recreational opportunities for the immediate area as well as 
the larger, region.
    We are working with a large and very broad-based contingent of 
agencies and organizations within our community which are all quite 
excited to be part of this significant effort. Because of recent 
changes in how flood control work is contemplated, a more collaborative 
effort to improve creeks is now possible. We stand ready to improve the 
quality of life for all; funding to enable planning work to proceed is 
critical. Thanks for your attention and support of our request.
            Sincerely,
                                      Ronald L. Kiedrowski,
                                              Interim City Manager.
                                 ______
                                 

                    Letter From Ronald L. Kiedrowski

                                         City of San Pablo,
                             San Pablo, California, March 15, 2001.
Michael J. Walsh,
Colonel Corps of Engineers, Department of the Army, 1325 ``j'', Street 
        Sacramento, CA 95814-2922.
    Dear Col. Walsh: The City of San Pablo requests that the Wildcat/
San Pablo Creeks project be reauthorized, and that an add-on to the 
fiscal year 2002 budget be sought for the project. Reach 1 of the 
project has been completed just downstream of our City. Reach 2, which 
traverses the City of San Pablo, has not yet been done and it is this 
reach that we request be studied. The City of San Pablo experiences a 
significant amount of flooding during heavy rain events, and the 
impacts to our residents are great. Furthermore, the recent proposed 
revision by FEMA to the Flood Insurance Rate Map puts approximately 
1,500 properties in the 100 year flood zone. The requirement to carry 
flood insurance will be a heavy burden on our primarily low-income 
community.
    Thank you for your consideration. Please contact our Public Works 
Division Manager, Ms. Adele Ho, at 510-215-3068, if you have any 
questions or require additional information.
            Sincerely,
                                      Ronald L. Kiedrowski,
                                              Interim City Manager.
                                 ______
                                 

   Prepared Statement of the Kaweah Delta Water Conservation District

    Mr. Chairman and Members of the Subcommittee: My name is Bruce 
George, and I am the Manager of the Kaweah Delta Water Conservation 
District in the eastern San Joaquin Valley of California. Thank you for 
the opportunity to present testimony regarding the fiscal year 2002 
budget for the U.S. Army Corps of Engineers.
    The District respectfully requests that the Subcommittee support an 
appropriation of $9 million to continue construction of a project to 
increase the water storage capacity of Terminus Dam at Lake Kaweah in 
California's San Joaquin Valley. The project would add approximately 
43,000 acre-feet of flood control and conservation storage space to 
Lake Kaweah by raising the Terminus Dam spillway by 21 feet. The 
estimated total first cost of the project is $35 million.
    The Corps of Engineers studied and planned this modest project for 
more than 10 years. Last year, Congress appropriated $3 million to 
continue construction in fiscal year 2001. The State of California is 
the lead non-Federal sponsor of the project and has appropriated the 
necessary funds for construction. In addition to the Kaweah Delta Water 
Conservation District, the other local sponsors are the counties of 
Kings and Tulare, the City of Visalia and the Tulare Lake Basin Water 
Storage District.
                               background
    The Kaweah Delta Water Conservation District was formed in 1927 to 
conserve and protect the surface and groundwater of the Kaweah delta. 
The District serves 337,000 acres, which include the cities of Visalia 
and Tulare and several other incorporated and unincorporated areas in 
Kings and Tulare counties. Those two counties consistently rank among 
the most productive agricultural counties in the nation.
    Terminus Dam and Lake Kaweah, located on the Kaweah River three and 
one-half miles east of the District, was completed in 1962 by the U.S. 
Army Corps of Engineers. The purpose of the project is to provide 
storage space for flood protection and irrigation on the Kaweah River. 
The Conservation District manages the irrigation and flood control 
releases for Lake Kaweah, as well as assisting in the conjunctive use 
of the surface and groundwater of the Kaweah delta.
    Flooding downstream from the dam occurs when flows from individual 
creeks blend together and form a sheet flow through urban and 
agricultural areas. Included in the flooded areas are the communities 
of Visalia, Farmerville, Tulare, Ivanhoe and Goshen. Since construction 
of Terminus Dam, 10 damaging floods have occurred, the most recent in 
1997 and 1998.
    Inadequate flood protection and a long-term groundwater overdraft 
in the region have created a need for greater reservoir storage space 
for flood control and irrigation storage. With a maximum capacity of 
143,000 acre-feet, Lake Kaweah currently provides a less than 50-year 
level of flood protection for communities downstream. Raising the 
spillway at Terminus Dam (by the installation of fuse gates) would 
increase the reservoir storage capacity by 30 percent, thus providing a 
much higher level of flood protection for the region. The bulk of the 
construction work on the project is scheduled for fiscal year 2002.
    California's growing population will place ever-increasing demands 
on its water supply and flood control infrastructure. Improving 
existing facilities such as Terminus Dam is one of the most economical 
and environmentally sensitive ways to meet those new demands. It is 
important for Congress to encourage such projects.
    We are grateful for the Subcommittee's continued support of the 
Terminus project.
                                 ______
                                 

        Prepared Statement of the City of Roseville, California

    Mr. Chairman and members of the Energy and Water Development 
Appropriations Subcommittee, I would like to thank you for this 
opportunity to testify before you. My name is Claudia Gamar and I am 
the mayor of the City of Roseville, California. On behalf of the 
citizens of Roseville, I request your support for one of the City's 
highest priorities for the fiscal year 2002.
    The City of Roseville requests your support of a $200,000 earmark 
for the reconnaissance and feasibility studies associated with the WRDA 
1999 water conservation program targeted for Placer County, El Dorado 
County, and the service area of the San Juan Water District.
    The Water Resources Development Act of 1999 authorized $25 million 
for regional water conservation and recycling projects within Placer 
County, El Dorado County, and the service area of the San Juan Water 
District. During the drafting of WRDA 99, specific agencies and cities 
within those areas identified potential water conservation and 
recycling projects. Roseville specifically identified a portion of its 
conservation plan--meter retrofits--as a prime candidate for Federal 
assistance.
    Meter retrofits provide mitigation for water supply impacts above 
Folsom Dam resulting from flood control operations on the American 
River. In addition, several of the agencies and cities participated in 
the Water Forum, a regional effort to manage water supplies and provide 
a safe and reliable water supply while preserving the fishery, 
wildlife, and recreational values of the Lower American River. The 
agencies and cities agreed to additional water conservation measures as 
part of the Water Forum effort.
    Before the $25 million authorized under WRDA 99 can be 
appropriated, the Army Corps of Engineers must complete a 
reconnaissance study and a feasibility study. The City requests that 
Congress direct the Corps of Engineers to conduct a reconnaissance 
study addressing the water conservation and recycling projects 
referenced above.
    Key elements of the study would include: (1) identification of the 
problems the water conservation and recycling projects would address; 
(2) formulation, to a conceptual level, of specific projects; (3) 
definition of the Federal interest in implementation of those projects; 
and (4) identification of local support for implementation of those 
projects.
    The City also requests that Congress direct the Corps of Engineers 
to complete both the reconnaissance and feasibility studies in fiscal 
year 2002.
    Thank you again for this opportunity to testify before this 
committee.
                                 ______
                                 

          Prepared Statement of the City of Folsom, California

    Mr. Chairman and members of the Energy and Water Development 
Appropriations Subcommittee, I would like to thank you for this 
opportunity to testify before the committee. My name is Steve Miklos 
and I am the mayor of the City of Folsom, California. On behalf of the 
citizens of Folsom, I request your support of one of the City's highest 
priorities for the fiscal year 2002.
    The City of Folsom requests your support of a $3.5 million under 
the Bureau of Reclamation Water & Related Resources Account for 
engineering, construction and inspection to upgrade and replace the 
remaining portion of the Natoma Pipeline System.
    The Natoma Pipeline System is owned and operated by the Bureau of 
Reclamation (USBR) and is the single water supply source for the 
rapidly growing City of Folsom, California. The Natoma Pipeline System 
begins at the Folsom Dam/Reservoir and delivers raw water to the City's 
water treatment facility.
    The pipeline appeared to be in poor condition, and inspections 
confirmed the aging system suffered from weak pipe joints and walls, 
increasing the probability of a pipe failure. Given the critical nature 
of this facility, the City decided to pursue replacement of the 
pipeline using City funds. Because of the significant cost of the 
project, the City found it necessary to fund the project in two phases. 
The first phase has been completed and the second phase is expected to 
be completed by June 2001.
    Recognizing the need to partner with USBR, Folsom undertook 
engineering, construction and inspection for the entire project at a 
cost of $8.6 million. The cost was an unplanned expenditure by the City 
and has significantly reduced funds available for other needed water 
system improvements. Therefore, $3.5 million in Federal funding is 
requested as a reimbursement to the City.
    The City has requested funding for this project in the past two 
Federal funding cycles.
    Thank you again for this opportunity to testify before this 
committee.
                                 ______
                                 

            Prepared Statement of the City of Salem, Oregon

    Mr. Chairman and members of the Energy and Water Development 
Appropriations Subcommittee, I would like to thank you for this 
opportunity to testify before the committee. My name is Mike Swaim and 
I am the mayor of the City of Salem, Oregon. On behalf of the citizens 
of Salem, I request your support of one of the City's highest 
priorities for the fiscal year 2002.
    The City of Salem, Oregon requests a $300,000 earmark in the fiscal 
year 2002 Energy & Water Appropriations bill (Corps of Engineers 
General Investigations Account) for the Salem Area Willamette River 
Study.
    The City of Salem requests Federal assistance in studying the 
Willamette River. Specifically, the project would cover the reach of 
the Willamette River extending through Marion and Polk counties. The 
study would focus on the following points: the river's potential to 
migrate and interact with the floodplain; water quality; stream flow; 
and salmon presence and use.
    The study would focus on current issues including maintenance and 
construction of revetments, Willamette River Greenway development, as 
well as water quality and flow impacts from urban tributary streams, 
direct discharges, and water withdrawals. The study would facilitate 
the City's planning and projects which are now subject to compliance 
with the Endangered Species Act (ESA). In addition to the City of 
Salem, Marion and Polk Counties and the city of Keizer would 
significantly benefit from this study.
    While the Willamette River has been studied on several occasions 
over the last decade, those studies reviewed the entire river system 
and do not provide the detail needed for local, and in some cases 
regional, management decisions.
    The City expects both the Corps of Engineers and the U.S. 
Geological Survey to coordinate in this effort. The City is willing to 
undertake cost sharing on the project.
    Thank you again for this opportunity to testify before this 
committee.
                                 ______
                                 

          Prepared Statement of the Coalition of EPSCoR States

    Mr. Chairman: I am Jane Nichols, Chancellor of the University and 
Community College System of Nevada. I submit this statement on behalf 
of the nineteen states, plus the Commonwealth of Puerto Rico, that are 
currently eligible to participate in the Experimental Program to 
Stimulate Competitive Research (EPSCoR).
    The Coalition of EPSCoR States supports the Energy Department's 
budget request for EPSCoR, but we respectfully urge the Subcommittee to 
consider appropriating $12,000,000 for this effective and productive 
program. This represents an increase of $4,315,000 over the 
Department's request of $7,685,000 for EPSCoR in the Basic Energy 
Sciences budget.
    The Experimental Program to Stimulate Competitive Research (EPSCoR) 
is a research and development (R&D) program originally established by 
the National Science Foundation. Through a merit review process, EPSCoR 
is improving our Nation's science and technology capability by funding 
research activities by talented professionals at universities and non-
profit organizations in states that historically have received little 
Federal R&D funding. EPSCoR is a partnership between the Federal 
government and the EPSCoR states and their universities. It helps 
improve research capabilities and quality in order for the states to 
compete more effectively for non-EPSCoR research funds. EPSCoR is a 
catalyst for change and is widely viewed as a model of Federal-state 
cooperation.
    In 1992, Congress authorized the Energy Department to conduct an 
EPSCoR Program in Section 2203 of the Energy Policy Act (Public Law 
102-486). The Department designed its EPSCoR program based upon the 
National Science Foundation's model developed with the overriding 
purpose of enhancing the capabilities of the eligible states to conduct 
nationally competitive energy-related research and to develop science 
and engineering manpower to meet current and future needs in energy-
related areas.
    Nevada ranked 40th in the U.S. in overall R&D performance in NSF's 
most recent accounting. Our goal, as is the goal of every EPSCoR state, 
is to graduate from the EPSCoR classification. We are making great 
strides in this endeavor and are actively pursuing national and world-
class research competitiveness through investments in research and 
infrastructure. Currently, Nevada has a world class research facility 
in its Free Air CO2 Enrichment (FACE) site, an EPSCoR-funded, long-term 
ecological research experiment on the Nevada Test Site. This is a 
direct result of the first DOE EPSCoR work.
    An example of the State's investment includes the State funded 
Applied Research Initiative that will provide 1:1 matching with 
industry to develop a new technology or to enhance an existing 
technology. This program has proven to be very successful during the 
last three years. UCCSN has established research relationships with 
more than 60 industrial partners. The hallmark of these partnerships is 
collaborative research between the industrial partner, faculty and 
students directed toward the development of new products and processes. 
Dr. Ken Hunter, former Research Vice President at the University of 
Nevada, Reno, has reported that state-matching funds of $1.35 million 
leveraged more than $4.8 million in industrial R&D support to UCCSN 
during the past three years. This would not be possible if the 
University System had not placed a value on applied research, 
encouraging its faculty and students to engage in this research 
activity.
    In a broader context, the DOE EPSCoR program is a major element of 
the State of Nevada's overall EPSCoR effort. The NSF EPSCoR grants 
directly complemented the first DOE EPSCoR award, by expanding research 
activities significantly beyond what could be accomplished by a single 
award, and expanding the pool of K-16 and graduate students to form 
even more viable Science, Math, and Engineering talent sources for the 
future. The number of participants in these EPSCoR programs, as well as 
in the Cooperative Agreements between DOE-NV and University and 
Community College System of Nevada (UCCSN) comprised of the University 
of Nevada, Reno (UNR), the University of Nevada, Las Vegas (UNLV), and 
the Desert Research Institute (DRI) provide a framework and synergism 
for additional collaborative and interdisciplinary undertakings. For 
example, Nevada researchers received approximately $2 million in 1998 
through the highly competitive NSF/DOE/USDA/NASA/NOAA Terrestrial 
Ecology and Global Change (TECO) program, the major U.S. grant program 
for research in global change biology. These researchers also received 
over $2 million in funding from the DOE Terrestrial Carbon Processes 
Program.
    Nevada, under the auspices of the Lieutenant Governor, is in the 
process of updating and evaluating the statewide goals and objectives 
for high technology in the state. A State Technology Plan for Nevada 
was prepared by the Technology Partnership Practice of the Battelle 
Memorial Institute in late 2000, and builds on the State becoming more 
active and adept in commercializing technology, fostering spin-offs, 
and functioning as an innovation center for Federal technology transfer 
and commercialization. The Rand Corporation is also working with the 
UCCSN to redesign the higher education system of Nevada.
    The Nevada DOE EPSCoR Program was established in 1994. It is one of 
the thirteen states awarded grants following a merit-based competition. 
Other states that have had or currently have Department of Energy 
EPSCoR awards are Alabama, Kansas, Louisiana, Mississippi, Montana, 
Nebraska, Kentucky, Puerto Rico, South Carolina, Vermont, West Virginia 
and Wyoming. Each state matches its grant with state, university or 
other non-Federal funds. A crucial aspect of these grants is their 
focus on multi-disciplinary R&D teams targeting selected topics of 
importance to institutions and the state rather than a focus on single-
topic or single-investigator R&D.
    The funding for the Nevada DOE EPSCoR Program during fiscal year 
2001 is $600,000 of which the DOE share is $300,000. The remainder is 
from the State of Nevada.
    The goals of the Nevada DOE EPSCoR Program are to:
  --Achieve human resources critical mass via research team-building 
        within UCCSN,
  --Develop research collaborations between UCCSN researchers and DOE 
        National Laboratories, DOE Nevada Operations Office, and other 
        DOE facilities,
  --Develop research collaborations with industry that result in new 
        technologies and processes,
  --Increase the number of faculty, postdoctoral, and graduate-level 
        students involved in energy-related research in Nevada, through 
        both direct and indirect support from this grant, and
  --Increase the Science, Math, and Engineering undergraduate 
        enrollment of under-represented minorities, women and disabled 
        students.
    Nevada DOE EPSCoR supports the attainment of these goals through a 
statewide research and infrastructure-building program. The research 
focuses on advanced, high quality, multi-pulsed, X-ray radiographic 
diagnostics which are needed to study the dynamic properties of matter 
and energy close to those that occur in the detonation of nuclear 
weapons. Future pulse power and laser power facilities will simulate 
these conditions in a laboratory setting.
    These are the types of activities the Coalition believes the DOE 
should help to further strengthen and expand. This is why we believe 
additional funds should be made available for fiscal 2002. Increased 
funding would enable the DOE to expand the number of states 
participating in implementation grants during the next fiscal year.
    Given the success of the EPSCoR programs in Nevada, it is not 
surprising that we are enthusiastic about the future of the DOE EPSCoR 
program. It is Nevada's experience that EPSCoR funding yields a return 
far greater than the original investment. It stimulates collaboration, 
strategic thinking and broad-based planning.
    On behalf of the Coalition of EPSCoR States, I urge this 
Subcommittee to continue to support the DOE EPSCoR program. Recognizing 
the very tight fiscal constraints this Subcommittee faces, we request 
that the Subcommittee provide $12,000,000 to the Energy Department for 
its EPSCoR program in fiscal year 2002 as part of the Basic Energy 
Sciences budget. The Coalition recommends that $8,000,000 of this 
amount should be used to support meritorious research implementation 
awards. The remaining $4,000,000 should be used to support laboratory 
partnership grants.
    The Energy Department's Experimental Program to Stimulate 
Competitive Research is a wise and timely investment of scarce public 
resources. It will continue to help build the scientific and 
engineering research infrastructure necessary for the future of 
eligible states and the Nation.
    Thank you for your consideration of this request.
                                 ______
                                 

        Prepared Statement of the City of Stillwater, Minnesota

    Chairman Domenici and Members of the Energy and Water Development 
Subcommittee, I thank you for the opportunity to submit this testimony 
requesting the $3.3 million needed to complete Stage 3 of the 
Stillwater, Minnesota flood control project. As this testimony is being 
prepared, the City is once again in the midst, of yet another flood 
event this year. The St. Croix River has crested at 692.3 feet, only 
1.8 feet less than the record flood of 1965 (See attachment.)
    The St. Croix River is now above flood stage, and the water 
continues to rise. The levee wall system is under water, as is the 
Northern extension of the levee system. The river is not expected to 
crest until late next week. On Tuesday, April 3, 2001, the City Council 
approved an initial expenditure of $300,000 to begin the construction 
of dikes and other flood measures. As the Spring rains continue, 
another $300,000 will be necessary to extend, reinforce, increase the 
height of the dikes. It has required more than 30,000 tons of fill 
protect the City and its' residents. The emergency dikes are 
constructed precisely in the location where the Stage 3 flood wall is 
planned for construction.
    It is the third stage of the project that provides the protection 
for the community from flood events. The first two stages were 
essential to halt the erosion that had destroyed a third of the old 
levee system. Stage 3 is designed to provide up to 100-year flood 
protection.
           the impact of lock and dam #3 on floods stillwater
    The Lock and Dam #3 was constructed in 1937-38 on the Mississippi 
River at Red Wing, Minnesota. The Lock and Dam construction raised the 
level of the St. Croix at Stillwater by 8 to 10 feet. It has made the 
City of Stillwater vulnerable during periods of high water and flooding 
of the St. Croix since that time. Records prove that the lock and dam 
construction, raising the water levels of both the Mississippi and the 
St. Croix River, has markedly increased the incidence of flooding at 
Stillwater. The culpability of the Corps is clearly evident.
    The Mississippi and the St. Croix Rivers merge about 14 miles South 
of Stillwater. When constructing the Lock and Dam at Red Wing in 1938, 
the Federal officials recognized that detaining the flow of the 
Mississippi would back up the water in the St. Croix at Stillwater. A 
1,000 foot levee wall system was constructed at Stillwater by the WPA 
under the supervision of the Corps to protect the fragile waterfront.
    From 1850 to 1938, the 88 years prior to the construction of Lock 
and Dam #3, only four floods were reported by historians. None were the 
result of Spring snow melts. The 1852 flood was the result of a 
cloudburst, the destruction of a dam built on McKusick Lake above the 
City, and was not the result of the flooding of the St. Croix River. 
The floods of June 14, 1885, and May 9, 1894, as well as the 1852 
flood, were all the result of cloudbursts in or above Stillwater. These 
floods resulted in both loss of life and significant property losses in 
the City.
    Since the completion of the Lock and Dam 60 years ago, the St. 
Croix has flooded on 17 occasions, and only four times in the 90 years 
preceding the construction of the Lock and Dam. Four floods were 
recorded in the 1940's, immediately after the completion of the lock 
and dam at Red Wing. The 1952, 1965, and 1969 floods were record-
breaking floods, the result of a heavy snow fall, and early Spring 
rainfall, coupled with warm weather.
    Record flooding was avoided in 1997, by the early planning of City 
officials, the construction of a huge emergency levee requiring 
thousands of truck loads of clay and sand, the work of hundreds of 
volunteers, and luck in the avoidance of a severe rainstorm in or 
around the flood event.
    The planning and preparation of City officials, and adequate lead 
time have allowed the construction of levees high enough to avoid 
massive flooding in the historic section of the City during most of the 
floods, and to prevent further loss of life. However, a 4-5 inch 
rainfall during high water levels would be devastating to the City. 
Such rainfalls are not infrequent in the St. Croix Valley, and can not 
be anticipated.
    A wet Fall that saturates the soil, heavy snows during the Winter, 
extended warm spells in the Spring, coupled with persistent Spring 
rains, and cloudbursts as experienced in the past, will all come 
together in the same year at some point in time, and the City's 
emergency responses to flood control will not be sufficient to cope 
with the flood waters.
    History bears out the City's contention that the raising of the 
river levels by ten feet in 1938, when Lock and Dam #3 was constructed, 
greatly increases the flooding potential faced by the City during the 
past 60 years. On this basis alone, the Federal Government must share 
in the responsibility for providing a remedy. The construction of the 
Stage 3 flood wall at Stillwater will provide this safety.
               environment threatened during flood events
    The St. Croix River was designated as one of the first Wild and 
Scenic Rivers by Congress and is protected under both Federal and State 
laws, as well as by local ordinances. The St. Croix River is carefully 
monitored by the Federal government, an Interstate Commission, and the 
DNR's by both the States of Wisconsin and Minnesota.
    The concern to the thousands of Minnesota and Wisconsin citizens 
who use the river each week is the trunk sanitary sewer line and 
pumping stations for the City of Stillwater. The sewer line runs 
adjacent to the riverfront and is frequently under water during major 
flood events. More than 2 million gallons of raw sewage is handled 
daily by the sewer line and pumping stations that follow the 
riverfront. Engineers have advised the City that extended flooding of 
the flood plain could result in the rupturing of the trunk line or the 
surcharging of the pumping stations.
    Either of these event would result in the direct flow of raw sewage 
into the St. Croix River. It would be impossible to repair the system 
during the high water of a flood event. During the 1997 floods, one 
pumping station and a portion of the trunk sewer line remained under 
water for 95 days, and required careful monitoring by the City workers.
    The protection of the river is not only the dominant theme of the 
State and Federal governments, but also by the counties and 
municipalities that line the riverbanks of the St. Croix. However, the 
greatest protectors of the river are the citizens themselves who take 
advantage of the crystal blue waters of the St. Croix for fishing, 
boating,swimming, and other recreational and scenic purposes.
    The topography of the City of Stillwater requires the location of 
the trunk sanitary sewer line and pumping stations at the base of the 
City's hub, adjacent to the riverfront. The City is built on two hills 
that slope toward the river, abruptly interrupted by sandstone bluffs 
extending 50-75 feet high above the river level. The sanitary sewer 
system serving the 16,000 Stillwater residents flows into the trunk 
sewer line that runs parallel to the riverfront. It can not be moved. 
The 2 million gallons of raw sewage handled by the system each day, is 
gathered in the trunk sewer line and pumped Southward to the water 
treatment plant. (2)
    According to engineering studies, the trunk line and the pumping 
stations are both susceptible to rupture or surcharging during periods 
of flooding. Little could be done to stop the flow of raw sewage into 
the St. Croix until the water receded. During recent floods, it is not 
unusual for high water levels to persist for as much as 2-4 months. 
Such an event could release 120 million gallons of raw sewage into one 
of America's most pristine rivers over that period of time. If for no 
other reason than the protection of the river, the City believes the 
Stage 3 flood wall must be constructed with no delay.
  stillwater levee and flood control project progress and description
    The project is divided into three stages. Stage 1 included the 
repair and reconstruction of the existing retaining wall which extends 
1,000 feet from Nelson Street on the South to the gazebo on the North 
end of the levee wall system. Stage 2 consists of the extension of the 
levee wall about 900 feet from the gazebo North around Mulberry Point.
    The completion of Stage 2 was delayed by floods of 1997, costing 
the City and the Federal government nearly a half million dollars. 
After the waters subsided, it was discovered that the soil beneath the 
planned levee extension was very unstable, requiring a revision of 
plans, and the addition of another stage in the construction process.
    The flood waters of the St. Croix River that arrived in April, did 
not recede until August of 1997. The construction area remained under 
water preventing construction work to proceed as scheduled. Lowell 
Park, which extends the full length of the levee wall system, several 
structures, and the emergency roadway which is used to provide 
emergency medical assistance for those using the recreational St. Croix 
River, and as a water source for local fire departments, were all 
either under water or inaccessible.
    Phase I, the repair and reconstruction of the original levee wall, 
was completed in the Summer of 1998. Work on Stage 1 was completed in 
late Summer of 1997, and additional soil borings were taken for Stage 
2. The soil was found to be very unstable, and unable to support the 
levee system designed for Stage 2 of the project. The construction of 
Stage 2 required remedial action, and was been designated as Stage 2S. 
A contract was awarded for Phase 2S in November, 1998, and was 
completed in 1999. Phase 2 was begun in the late Fall of 1999, and the 
major construction work was completed at the end of the year 2000. Only 
some landscaping, and finishing work on the levee wall system remains 
to be done. The Design Memorandum schedule calls for the construction 
of Stage 3 in fiscal year 2002.
    Stage 3 expands the flood protection system by constructing a 3 
foot flood wall, and driving sheet piling below the surface to reduce 
seepage and to provide a base for the wall. The flood wall will be 
constructed about 125 feet inland from the riverbank. Stages 1 and 2 
were critical to the protection of the fragile waterfront, and also, to 
prevent minor flooding on the North end of the riverfront.
    Stage 3 provides the flood protection for the City. The rising 
elevation of the terrain, the flood wall, and minimal emergency 
measures are designed to provide the City with up to 100 year flood 
protection.
    The Mayor, City Council Members, and Engineering staff all 
understand that Stage 3 of the flood control project is essential for 
the protection of life and property of the citizens, that the Stage 3 
flood wall is a critical phase of the project, and that the project 
must be completed at the earliest possible date. The Corps acknowledged 
the necessity for all three stages of the project when the Design 
Memorandum included plans for all three stages.
    This fact is born out by the support of the Minnesota Department of 
Natural Resources, the Governor of Minnesota, and the State 
Legislature. The Minnesota Department of Natural Resources made funds 
available based on this premise. The State has appropriated half of the 
Non-Federal matching funds needed to complete Stage 3 of the project, 
as well as for Stages 1 and 2. The City has provided the remainder of 
the required matching funds, consequently, only the Federal share is 
missing from the partnership.
                  stillwater--a national historic site
    There are 66 historic sites in the City of Stillwater that are 
listed on the National Register of the U.S. Department of Interior, and 
many other historic structures as well. Many of these sites are located 
in the flood plain of the St. Croix River. Designated the ``Birthplace 
of Minnesota,'' the City of Stillwater was founded in 1843.
    When Wisconsin became a state in 1848, a portion of land West of 
the St. Croix and Mississippi Rivers, including much of what is now the 
Twin Cities of Minneapolis and St. Paul, was excluded. The prominent 
citizens of the excluded area convened in Stillwater on August 26, 
1848, passed a resolution to be presented to Congress asking that a 
``new territory be formed,'' and that the territory be named 
``Minnesota.'' Henry Sibley carried the petition to Washington, D.C., 
and in March, 1849, Minnesota Territory was established. Stillwater 
then became the only city in the nation to become the county seat of 
two different territories, St. Croix County in Wisconsin, and 
Washington County, Minnesota. The Stillwater Convention firmly 
established Stillwater as the ``Birthplace of Minnesota.''
    Stillwater grew and prospered as the Lumber Capitol of the Midwest. 
Billions of feet of timber was cut, and floated down the St. Croix to 
the nine sawmills that were located on the riverbank of the St. Croix 
at Stillwater between 1848 and 1914. More logs were carried through the 
boom site North of Stillwater than any other place in the United 
States. Three billion feet of lumber was produced by the nine lumber 
mills in the 1880's alone. All nine lumber mills were located on the 
riverfront The lumber from the Stillwater mills were the primary source 
of wood-constructed buildings throughout the Midwest.
    Much of the lumber was carried down the St. Croix to the 
Mississippi River, and on to St. Louis, the ``jumping off'' point for 
the Westward movement. Sawdust and wood debris from these mills helped 
created the fragile riverbank that the levee wall system protects 
today. Later in the 19th Century, five railroads carried lumber from 
Stillwater Westward to Nebraska, North and South Dakota, and points 
West, as the Nation expanded beyond the Mississippi River into the 
plains states. Many of the Midwest's oldest buildings still carry the 
mark of the Stillwater mills.
    As a result of Stillwater's place in the history of the Midwest, 
the lumber industry, the unique homes built by Minnesota's first 
millionaires, and the birthplace of both Minnesota Territory and the 
State of Minnesota, sixty-six sites are included on the National 
Register of Historic Places. All of the downtown area, which is located 
in the 100-year flood plain, is included in this recognition.
    The Stillwater area is not only of historical importance to The 
cliffs that rise from the floodplain to shelter Battle Hollow is the 
location of the last major Native American battle between the Sioux and 
the Ojibwa Indians. It took place on July 4, 1839. The Sioux warriors 
ambushed the Ojibwa killing 20 of the Ojibwa, and wounding 30 others in 
retaliation for an incident that occurred several days in the lake area 
which is now Minneapolis.
    The site is revered by the Ojibwa, many of whom remain in Minnesota 
and Wisconsin. The Minnesota Historical Society has honored the 
importance site with historic markers, and the location is a popular 
site of tourists.
                   legislative history and background
    The Stillwater Flood Control and Retaining Wall project first was 
authorized in section 363 of the Water Resources Development Act (WRDA) 
of 1992. An allocation of $2.4 million was made in the Energy and Water 
Development Appropriations Act of 1994.
    The Committee Report described the project in three parts,--to 
repair, extend, and expand the levee wall system on the St. Croix River 
at Stillwater, Minnesota.
  --``To repair'' (Stage 1) the original existing levee wall system 
        constructed in 1936.
  --``To extend'' (Stage 2) the original wall by approximately 900 feet 
        to prevent the annual flooding that occurs at that location, 
        and
  --``To expand'' (Stage 3) the system by constructing the flood wall 
        about 125 feet inland from the levee wall system to protect the 
        downtown and residential section in the flood plain.
    In 1995, the Design Memorandum confirmed the cost estimate for the 
project was much too low, and the project was reauthorized for $11.6 
million by Congress in the 1996 WRDA legislation.
    Since the reauthorization of the project five years ago, and the 
completion of the feasibility study, both Stage 1 and 2 have 
essentially been completed. Only Stage 3 will provide the City with the 
flood protection that is critically needed. The reconstruction of the 
existing levee wall system, the extension of the levee wall, and the 
construction of the flood wall are all critical to the safety of the 
citizens, the protection of property, and the preservation of historic 
sites that contributed to the growth and expansion of the Midwest in 
the last half of the 19th Century.
                                summary
  --The Mayor and Council for the City of Stillwater, Washington County 
        Officials, the Governor and Minnesota State Legislature, and 
        bipartisan support of Minnesota Representatives and Senators in 
        Congress, all recognize the significant importance of 
        completing this project by constructing the Stage 3 flood wall 
        on the St. Croix River at Stillwater. They are committed to the 
        completion of the Flood Wall Project at Stillwater. It is 
        critical to the protection of property, the preservation of our 
        history, the respect of historic Indian sites, and the safety 
        of our citizens and their homes and business.
    We respectfully urge the Energy and Water Development Subcommittee 
for Appropriations to allocate $3.3 million needed to construct the 
Stage 3 flood wall in the fiscal year 2002 Appropriations Bill. If you 
have questions or would like additional information regarding this 
project, please call on us.
                                 ______
                                 

         Prepared Statement of the City of Crookston, Minnesota

    Chairman Domenici and Members of the Appropriations Subcommittee, I 
appreciate the opportunity to submit this testimony on behalf of the 
City Council and the citizens of Crookston, Minnesota. We are 
requesting $5.31 million in Federal funds for the construction of Stage 
2 of the flood control project authorized in the Water Resources 
Development Act of 1999. This is the funding level that the U.S. Army 
Corps of Engineers has determined is necessary to complete the work on 
Stage 2 of the Crookston Flood Control Project. As a result of the 
history of flooding experienced by the citizens of Crookston, and the 
continuing threat of flood events we face, we are confident the 
Assistant Secretary of the Army for Civil Works will ask Congress to 
provide the $5.31 million needed for the Crookston project in his 
Budget Request for the U.S. Army Corps of Engineers for fiscal year 
2002.
    First, we would like to thank you and the Members of this Committee 
for the $1 million appropriation awarded for the Crookston Flood 
Control Project in the fiscal year 2001 Appropriation Conference 
Report. These funds have made it possible to begin the construction 
phase of Stage 1 of the project. These funds, and an additional 
$200,000 allocated by the U.S. Army Corps of Engineers, will be 
expended by the end of fiscal year 2001. Plans and specifications for 
Stage 2 are now underway and they will be completed by the Fall of 
2001. Bids for construction of Stage 2 are scheduled to be advertised 
in January or February, 2002. This will allow construction to begin 
immediately after the Winter thaw in the Spring of next year.
    The City of Crookston is located in the Red River Valley of Western 
Minnesota, in Polk County, 25 miles East of Grand Forks, North Dakota. 
The Red Lake River winds its way through the City from its source at 
the Upper and Lower Red Lakes, and flows into the Red River at Grand 
Forks. The population of the City has remained constant over the past 
decade at about 8,200 citizens.
    The community was settled in 1872, when the first railroad route 
was announced crossing the Red Lake River where Crookston now stands, 
and later, extending to Canada. The economy of Crookston is based 
primarily on agriculture. It is the home of the University of Minnesota 
Crookston, a technology oriented school with a full academic program 
enrolling approximately 2,500 students.
                    flooding events and their causes
    Floods occurring over the past forty years have created significant 
damage to homes and businesses, and have resulted in the loss of lives 
as well. They include the flood events of 1965, 1966, 1967, 1969, 1978, 
1979,1996, and 1997. Floods have been documented at Crookston as early 
as 1887. The 1950 flood, though not the maximum flood of record, 
created the most damage to the City and resulted in the deaths of two 
citizens from the community.
    Between 1950 and 1965, clay levees were constructed through local 
efforts in an attempt to ameliorate the damages from the flooding of 
the Red Lake River. The floods of 1965, however, demonstrated these 
efforts were not adequate to hold back the torrents of water during 
significant flood events. While certain areas of the City received some 
flood protection, severe damages occurred in the South Main Street 
area. This section of the City has since been totally cleared.
    The 1969 flood established new high water marks, and again, it was 
necessary to carry out extreme emergency measures. These efforts were 
successful in protecting the community from severe damages. Recognizing 
the need for more protection, another locally financed project was 
initiated, extending, enlarging, and raising the height of the levee 
wall system.
    The flood of 1997, was the ``grandaddy'' of all floods. It 
established the highest water mark in recorded history when the Red 
Lake River crested at 28. 6 feet above flood stage, the equivalent of a 
three story building. It is described as a 500-year flood event.
    Only the careful planning and preparation by City officials in 
cooperation with the Corps of Engineers, the State of Minnesota, FEMA, 
the National Guard, and many private citizens, were damages reduced, 
and fortunately, no lives were lost. Prior to the crest of the flood, 
the City of Crookston completed the work of adding two feet of clay and 
sandbags to the entire levee system throughout the town. The Corps of 
Engineers constructed clay dikes as a second line of defense, 
sacrificing a few homes for the good of many others. As a precautionary 
measure, 400 residents evacuated from their homes during the height of 
the flood.
    These efforts spared Crookston from the devastation experienced by 
neighboring towns, allowing the City to provide for 8,000 persons 
evacuated from their homes in nearby communities, But this disaster and 
the potential devastation that such floods can bring, emphasized the 
critical importance of replacing the temporary earthen and clay dikes 
with a well-planned, permanent flood control system.
    There are several causative factors that have created flood 
conditions for the Red River Valley and the City of Crookston. The Red 
River of the North did not carve out the valley, it merely meanders 
back and forth through the lowest parts of the floor of the ancient 
Glacial Lake Agassiz.
    With no definitive flood plain to channel flood torrents, the slow-
moving flood waters quickly overrun the shallow river banks and spread 
out over the flat floor of the former glacial lake bed. The small 
river's gradient is on \1/2\ foot per mile, as opposed to areas in 
Southwestern Minnesota where in one instance, the gradient establishes 
a 19 foot drop in one mile. Both extremes have created problems.
    The Red Lake River flows into Crookston from the Northeast, winds 
it way through the City, and flows out of the City, turning in a 
Northwesterly direction toward its confluence with the Red River at 
Grand Forks, North Dakota. The merged rivers then flow due North into 
Winnipeg, Manitoba, Canada. As the snow melts in the Southern portion 
of the valley, ice often remains in the channel to the North. Ice and 
other debris flowing North pile up against the river ice creating ice 
dams. These barriers back up the water and increase the flood crest 
upstream.
    The extremely level terrain also creates a phenomenon during the 
Spring thaw which is called ''overland flooding.'' As the snow melts, 
the huge volume of water can overwhelm the network of shallow ditches 
and creeks. Unable to enter the choked stream channels, the water 
travels overland until it meets small terrain barriers such as railroad 
beds and road grades, creating huge bodies of water.
    In addition to the topography of the area, a combination of factors 
such as agricultural drainage, the loss of wetlands, the Federal 
governments work in the Red River Basin, and the construction of the 
county ditch systems, all these factors have contributed to the 
vulnerability of the area.
    City officials and the Corps of Engineers are evaluating the 
potential for flooding even this year, While the weather is permitting 
a more gradual snow melt with less water content, a substantial 
rainfall of several inches on the soil that is already saturated from 
the snow melt can greatly increase the predicted flood levels.
                     project description and status
    A Feasibility Cost Share Agreement between the Corps of Engineers 
and the City was signed on October 19, 1992, and a feasibility study 
and environmental assessment was completed in 1997. Both partners 
shared costs equally in the $1.2 million study. The Red Lake Watershed 
District and the State of Minnesota provided part of the non-Federal 
funding required, and both join the City with their strong support.
    The Feasibility Report by the U.S. Army Corps of Engineers 
recommended that a local flood control project be constructed 
consisting of two down-stream cut off channels and levees built to the 
100-year level of protection for Thorndale, Woods, and the downtown/
Riverside neighborhoods. While the two down-stream cut channels are 
planned to reduce the flooding somewhat for the entire City, and the 
levees protect the fore mentioned neighborhoods, other areas of the 
City remain at risk. The Corps of Engineers has completed a Section 22 
study of the City in which further recommendations will be made.
    The National Economic Development (NED) optimization analysis 
indicated that the 100-year and the 50-year levels of protection would 
have the approximately the same net benefits. The policy is that if two 
alternatives have the same benefits the lower cost plan is accepted. 
The District, after consultation, requested a waiver to recommend the 
100-year protection. Their rationale included the high potential for 
property damages, the increased risk of loss of life, and the benefits 
of providing a consistent level of protection throughout the City. 
Secretary of the Army (Civil Works) H. Martin Lancaster approved the 
waiver on January 15, 1997
  --1992--Feasibility Cost Share Agreement signed.
  --1997--Feasibility Report and Environmental Assessment completed.
  --1997--National Economic Development optimizational analysis waived 
        to provide the entire project with 100-year flood protection.
  --1998--Preconstruction engineering and design efforts begun.
  --1999--Project authorized for construction in the Water Resource 
        Development Act of 1999.
  --2000--Plans, specifications, and design work for Stage 1 completed.
  --2000--Congress appropriates $1 million for Stage 1 construction.
  --2000--Plans and Specifications for Stage 2 commenced.
  --2001--Corps of Engineers total cost estimates for the project to be 
        $10.8 million
  --2001--City requests $5.31 million from Congress for the 
        construction of Stage 2 of the Crookston Flood Control Project.
                              fiscal data
    The recommended plan has a fully funded baseline cost estimate of 
$9.5 million and a benefit to cost ratio of 1.6. The total cost of the 
project, as projected by the Army Corps of Engineers, is $10.8 million. 
The increase is due to newly refined design requirements.
    The following ``Cost-Sharing Schedule'' was information developed 
by the Corps of Engineers, and was made available to us on January 30, 
2001. Our request for $5.31 million for Stage 2 of the project is based 
on this information. Nearly all of Stage 2 expenditures will occur in 
2002 and 2003. The schedule provided by the Corps is as follows:

                        CROOKSTON, MINNESOTA FLOOD CONTROL PROJECT--COST-SHARING SCHEDULE
                                             [Dollars in thousands]
----------------------------------------------------------------------------------------------------------------
                                                    Total                                        Total    Total
                   Fiscal year                     project   LEERDs  Non-fed    Fed    Percent    fed    non-fed
                                                    costs              ped     const.            costs    costs
----------------------------------------------------------------------------------------------------------------
2000 and Prior...................................   $1,168       $0     $298     $870    $29.7     $870     $298
2001.............................................    2,490    1,650        0      840      0.0      840    1,650
2002.............................................    4,086    1,000        0    3,086     32.4    2,760    1,326
2003.............................................    2,814      125        0    2,689     34.8    2,339      475
2004.............................................      242        0        0      242      3.1      211       31
                                                  --------------------------------------------------------------
      Total Costs................................   10,800    2,775      298    7,727      100    7,020    3,780
----------------------------------------------------------------------------------------------------------------
Sponsor 35 percent Share = $3,780
LERRDs = $2,775
Cash Requirement = $1,005
Five Percent Cash = $540

                non-federal contributions to the project
    The citizens of Crookston have demonstrated their commitment to the 
project each year since 1997. Every year for since 1997, they have 
voted to assess themselves a flood control project fee, over and above 
their property taxes. This action by the community has resulted in 
raising about $1.4 million up to the present time. One third of these 
local funds were used to meet part of the 50 percent match for the $1.2 
million feasibility study, and and the remainder will be used as a part 
of the non-Federal match for the construction Stages of the flood 
control project.
    The State of Minnesota has also made a significant contribution to 
the project. They have appropriated $3.3 million for the dual purpose 
of providing funds to match the Federal contribution, and to buy out 
homes that have been lost in the construction of the flood control 
measures. Nineteen families were required to lose their homes to the 
project, including one farm. The State funds were used both for the 
purchase of the homesteads, and the relocation of the affected 
families.
    For these reasons, we respectfully request this Subcommittee to 
appropriate $5.31 million of Federal funds in the fiscal year 2002 
Appropriations Act to complete the Stage 2 work on the Crookston Flood 
Control Project. The Committee's favorable response to this request 
will prevent any delays affecting the completion of the project, and 
avoid cost overruns that inevitably occur when construction is delayed.
    In closing, I would like to say there is nothing more important to 
me as Mayor, and to each Member of the Crookston City Council, than the 
safety of our citizens, and the protection of their homes and property. 
We can not give them this assurance until we have completed this flood 
control project.
    May I also say that our association with the St. Paul District of 
the Army Corps of Engineers throughout this process has been 
outstanding. They are an extraordinary organization, working on the 
scene during flood conditions, and assisting us as we attempt to 
resolve this problem that threatens our citizens. We could not ask for 
a better partner in this project.
    Thank you for the opportunity to bring this important matter to 
your attention through this statement. I will be delighted to respond 
to any questions you may have about the project.
                                 ______
                                 

         Prepared Statement of the National Mining Association

    summary request for approval of fiscal year 2002 appropriations
    National Mining Association (NMA) membership includes companies 
engaged in producing coal, metallic ores, and nonmetallic minerals, and 
in manufacturing mining machinery and equipment. Mine commodities 
frequently are distributed as bulk freight transported on inland 
waterways, Great Lakes, and coastal shipping lanes, and often require 
the use of harbors and shipping channels at shallow draft inland ports 
and deep draft Great Lakes and coastal ports. Deep draft ports also are 
involved in shipping mining machinery and equipment produced in the 
United States for export in world trade. NMA firmly supports 
appropriations needed to keep the U.S. marine transportation system 
safe, efficient, secure, and competitive through timely operation and 
maintenance activities and investments in marine infrastructure 
improvements justified to meet current and projected demand for marine 
transportation services. The table below presents a summary of NMA's 
request for approval of fiscal year 2002 appropriations for the U.S. 
Army Corps of Engineers (Civil Works) in that regard.
                         appropriations request
Operations and Maintenance
    Full funding of fiscal year 2002 operation and maintenance 
requirements for the inland and intracoastal waterways system, the 
Great Lakes, and coastal marine transportation including dredging of 
harbors and shipping channels, operation and maintenance of lockage and 
other navigation controls, and maintenance of dams, levees, revetments, 
mooring cells, and navigation aids within the total marine 
transportation system.
Construction and Rehabilitation
    Fiscal year 2002 appropriations for annualized costs of planning, 
engineering, design, construction and rehabilitation projects at 
selected locations on the inland and intracoastal waterways system 
identified below:

------------------------------------------------------------------------
                  Project                              Purpose
------------------------------------------------------------------------
Ohio River:
    Olmsted L&D...........................  Construction--New Location
    McAlpine L&D..........................  Engineering & Design
    J.T. Myers L&D........................  Engineering & Design
    Greenup L&D...........................  Engineering & Design
    Newburgh L&D..........................  Feasibility Study
    Cannelton L&D.........................  Feasibility Study
    Mainstem Study........................  Systems Analysis/Improvement
                                             Plan
Monongahela River:
    Lock & Dam 2..........................  Construction--Replacement
    Lock & Dam 3..........................  Removal--Coordinate with L&D
                                             2 & 4
    Lock & Dam 4..........................  Construction--Replacement
Kanawha River:
    Marmet L&D............................  Construction--Replacement
    London L&D............................  Major Rehabilitation
Tennessee River: Kentucky L&D.............  Construction--Add New
                                             Chamber
------------------------------------------------------------------------

    inland waterways appropriations request--project cost estimates
    Guided by NMA's review of reports to the Inland Waterways Users 
Board by the U.S. Army Corps of Engineers (Civil Works) and the Users 
Board's 14th Annual Report to the Secretary of the Army and the United 
States Congress, August 2000, NMA's project cost estimates for our 
fiscal year 2002 appropriations request are presented below.

                          [Millions of dollars]
------------------------------------------------------------------------
                                                            Fiscal year
              Project                    Description           2002
                                                          appropriations
------------------------------------------------------------------------
Ohio River:
    Olmsted L&D...................  New twin 1,200                  72
                                     <greek-e> 110 lock
                                     chambers and dam
                                     replacing L&D 52 &
                                     53
    McAlpine L&D..................  Replace L&D and add             20
                                     a second 1,200
                                     <greek-e> 110 lock
                                     chamber
    J.T. Myers L&D................  Add a second 1,200               3
                                     <greek-e> 110 lock
                                     chamber.
    Greenup L&D...................  (same)..............             3
    Newburgh L&D..................  (same)..............             3
    Cannelton L&D.................  (same)..............             3
    Mainstem Study................  Systems analysis of              2
                                     needs on Ohio River
                                     Mainstem.
Monongahela River:
    Lock and Dams 2, 3, 4.........  Replace L&Ds 2 and              75
                                     4, and remove L&D 3
                                     in concert with the
                                     dam replacements
Kanawha River:
    Marmet L&D....................  Replace L&D and add             14
                                     a new 800 <greek-e>
                                     110 lock chamber
    London L&D....................  Major rehabilitation             5
                                     of L&D.
Tennessee River: Kentucky L&D.....  Add new 1,200 110               40
                                     lock chamber.
------------------------------------------------------------------------

ohio river basin provides strategic routes for coal to fuel electricity 
                               generation
    Data provided by the U.S. Army Corps of Engineers in Waterborne 
Commerce of the United States, Calendar Year 1999 underscore the 
importance of the marine transportation system in distribution of U.S. 
coal. In 1999, 219 million tons of coal were transported on the 
waterways in domestic commerce and 58.5 million tons were exported to 
other countries. Included in the domestic coal shipments were 166.8 
million tons carried on inland and intracoastal waterways and 20.5 
million tons on the Great Lakes, with the remainder moved in coastwise 
and intraport shipments. The Ohio River System was dominant in regard 
to coal shipments, carrying 150.8 million tons of coal in 1999, 
illustrating its key role in waterways coal distribution.
    Since passage of the pivotal Water Resources Development Act of 
1986, which established the inland waterways user cost sharing now in 
effect for construction and rehabilitation at lock and dam projects, 
the mining industry regularly has supported adequate funding of 
waterways operation and maintenance requirements and selected 
improvements needed to replace and upgrade obsolete lock and dam 
structures justified because of deterioration and lack of sufficient 
lockage capacity to accommodate barge traffic. Coal traffic on the Ohio 
River between its confluence with the Mississippi River at Cairo, 
Illinois and its headwaters at Pittsburgh, linking with movements on 
rivers connecting with the Ohio River, e.g. the Monongahela, Kanawha, 
and Tennessee Rivers, is heavy, especially in regard to shipments to 
coal-fueled power plants located on, or in the vicinity of, the Ohio 
River and connecting rivers in the Ohio River Basin.
    Several lock and dam projects in the Ohio River Basin have been 
improved, enhancing safety and reducing barge congestion where lock 
chambers were added and/or undersized chambers were replaced. The 
process of conducting planning and feasibility studies for individual 
lock and dam projects, followed by preconstruction engineering and 
design, and several years for construction of improvements is both 
lengthy and costly. Costs, of course, grow markedly when the timetable 
from project inception to completion of construction is stretched out 
resulting in inefficiencies and losses due to inflationary trends. 
However, today two reasons stand out in support of moving forward 
expeditiously with construction and rehabilitation appropriations for 
selected lock and dam projects, in particular on the Lower and Middle 
Ohio River, the connecting Tennessee River, and the Upper Ohio River 
Basin Tributaries, the Kanawha and Monongahela Rivers. These are:
  --The demand for electricity is increasing rapidly, placing even 
        higher emphasis on the capability of coal-fueled power plants 
        in the Ohio River Basin for generating electricity from 
        locations served by barges on the Ohio, Monongahela, Kanawha, 
        and Tennessee Rivers, and other Ohio River tributaries.
  --Planning and feasibility studies and engineering and design of 
        construction and rehabilitation for several key lock and dam 
        projects on the Ohio, Kanawha, and Tennessee Rivers are 
        underway, in addition to construction in progress or completed 
        earlier at other lock and dam projects on the Ohio, 
        Monongahela, and Kanawha Rivers.
    Reports by the Edison Electric Institute show that electricity 
demand over 52 weeks through February 17, 2001, has increased 4.5 
percent. The trend is continuing as shown by a 3.6 percent increase in 
domestic electricity output on a year-to-date basis ending March 19, 
2001, ahead of a comparable period last year, looking at the EEI data. 
Coal is the fuel of choice for generating more than 50 percent of the 
electricity consumed in the U.S.; and according to the Energy 
Information Administration, coal consumption in the United States is 
forecast to grow from 1.045 billion tons in 1999 to 1.297 billion tons 
in 2020, an increase of more than 24 percent in consumption forecasted 
in 2020 versus the 1999 level. Those factors, i.e., growth in electric 
output and expected increases in coal consumption to fuel electricity 
generation, joined with effective access to power plants for coal 
traffic furnished by the rivers located in the Ohio River Basin, 
provide extraordinary impetus on granting priority for fiscal year 2002 
appropriations needed for lock and dam projects in the Basin.
   the ohio river system can serve eastern and western coal shipments
    Because the Ohio River System is located east of the Mississippi 
River, some may mistakenly consider that it is used only to ship coal 
produced in the Appalachian Region of the East or in the Midwest. While 
the System readily accommodates coal produced in Northeast, Northwest, 
and Central Appalachia by virtue of their proximity to the Ohio River 
and its tributaries, the Ohio River Mainstem also carries coal produced 
in the West and carried by coal trains to transfer and storage 
terminals located on the Lower Ohio River and on the Mississippi River 
above the confluence of the Ohio and Mississippi Rivers.
    In fact, each of the four principal coal-carrying railroads has 
access to barge connections on the Ohio River System, CSXT and NS in 
the East and BNSF and UP in the west. Another railroad, CN-IC, which 
accommodates midwest mine-originated coal and additional coal that it 
terminates after connections with other railroads, also has access to 
river terminals. Coal shippers often can be well served by intermodal 
rail/barge movements for three reasons:
  --Rail coal is moved in trains carrying 10 thousand to 15 thousand 
        tons per train. Modern barge tows operating on the Ohio River 
        carry up to 25 thousand tons per single tow. A high degree of 
        automation is used for high speed loading and unloading at 
        rail/barge coal terminals, with an advantage of either storing, 
        or directly transferring, coal while in transit. The large 
        capacities of each mode and the high efficiencies of the 
        terminals offer economies of scale for intermodal rail/barge 
        shipments.
  --Intermodal rail/barge coal routes for particular shipments may 
        provide an alternate way to move coal thereby giving stimuli to 
        carriers for raising the quality of service.
  --Similarly, while differing from (2) above in regard to connectivity 
        of trains with barge tows, the availability of safe, efficient, 
        and competitive barge transportation in some locations may make 
        intermodal truck/barge movements possible, again providing 
        stimuli for raising the quality of service.
    To the extent that ton-miles of coal transportation is obtained 
using barge tows, a spillover benefit can be attributed to the fact 
that barge tows operate separated from other surface traffic, thereby 
reducing traffic congestion in built-up areas, a matter of some 
importance to populous locations in the Ohio River Basin.
Environmental Restoration Program
    NMA has participated in the Acid Drainage Technology Initiative 
(ADTI) with government agencies and academic institutions since its 
inception in 1995 with the goal of developing cost-effective and 
practical technologies to predict and remediate acid mine drainage from 
active and inactive coal and metal mines. This initiative is not a 
regulatory or policy development program. House Report No. 105-581 
acknowledged that acid mine drainage is a serious environmental problem 
and that the U.S. Army Corps of Engineers possessed the experience and 
capability to assist in the ADTI's efforts. The subcommittee directed 
the Corps to participate in this initiative with available funds and, 
since that time the Corps has participated in workshops with members of 
the ADTI to exchange information on mining and related environmental 
issues. In order for the Corps to continue its participation, we 
request that the Corps be provided funds to commit $200,000 annually 
with other Federal agencies involved, such as OSM, BLM, DOE, EPA, and 
USGS) to further the Corps' goals of ecosystem restoration. NMA also 
urges continued support of the Corps' Abandoned and Inactive Noncoal 
Mine Restoration program as authorized by section 560 of Public Law 
106-53. We recommend the Corps be provided an additional $1,000,000 to 
conduct research necessary to support the restoration program.
                                 ______
                                 

                 Prepared Statement of American Rivers

 missouri river fish and wildlife mitigation project; us army corps of 
                               engineers
    American Rivers is joined by seventeen conservation groups from the 
Missouri River basin in calling for $12 million in fiscal year 2002 
funding for the Missouri River Fish and Wildlife Mitigation Project. 
[American Fisheries Society--Kansas Chapter; American Fisheries 
Society--Missouri Chapter; American Fisheries Society--Nebraska 
Chapter; Audubon Iowa Audubon Missouri; Audubon Society of Omaha; 
Burroughs Audubon Society (MO); Jayhawk Audubon Society (KS); Kansas 
Wildlife Federation; Sierra Club--Iowa Chapter; Sierra Club--Kansas 
Chapter; Sierra Club--Nebraska Chapter; Sierra Club--Northwest Iowa 
Group; Sierra Club--Osage Group (MO); Sierra Club--Thomas Hart Benton 
Group (MO); Wachiska Audubon Society (NE); Wolf River Environmental 
Society (KS)]
    The Missouri River Fish and Wildlife Mitigation Project is the 
primary habitat restoration program for the lower Missouri River 
between Sioux City, Iowa and St. Louis. It was established by Congress 
in 1986 to help reverse the long-term decline of the Missouri's fish 
and wildlife habitat due to the Federally sponsored channelization and 
stabilization projects of the Pick-Sloan era. Congress approved $12 
million in fiscal year 2001 for the project, the highest appropriation 
yet received. It is imperative that at least this level of funding be 
maintained.
    The Missouri River remains a nationally significant resource, 
attracting tens of millions of visitors annually and supporting over 
150 species of fish and wildlife. However, severe loss of habitat such 
as side channels, wetlands, and sandbars threaten the river's long-term 
health. As the nation prepares to celebrate the 200th anniversary of 
Lewis and Clark's Voyage of Discovery, we have an once-in-a-lifetime 
opportunity to restore the Missouri River and revitalize riverside 
communities.
    Today, nearly 200 years after their journey, Lewis and Clark would 
hardly recognize the Missouri River. However, while we cannot restore 
the river they knew, we can repair much of it. If we begin now, we can 
restore critical habitat, supporting river wildlife, boosting 
recreation, and improving quality of life in riverside communities in 
the lower Missouri River basin states of Nebraska, Iowa, Kansas, and 
Missouri.
    Channelization and stabilization dramatically altered the lower 
Missouri River, eliminating natural features that once supported one of 
the world's most diverse fisheries. Engineering reduced the Missouri's 
average width below Sioux City by two-thirds and shortened it by 127 
miles, replacing its braided channels with a shorter, ``stabilized'' 
barge canal. Nearly all of the Missouri's islands, sandbars, and side 
channels are gone.
    With nurseries for fish and wildlife destroyed, one-fifth of the 
species native to the Missouri is now on Federal and state watch lists. 
Many species have fallen to less than ten percent of their historic 
population levels.
    Supporting the Missouri River Fish and Wildlife Mitigation Project 
will help reverse the decline of river wildlife by restoring historic 
chutes, side channels, wetlands, backwaters, and other habitat fish and 
wildlife need to feed, conserve energy, and reproduce. For example, the 
restoration of Hamburg Bend, a side channel near Nebraska City, 
Nebraska, now provides temporary refuge from the river's swift currents 
for species like the channel catfish.
    While restored habitat areas are important for the Missouri's fish 
and wildlife, they are also important for people. Waterfowl hunting, 
fishing, birdwatching, and other recreational opportunities at Hamburg 
Bend augment the economy of neighboring communities like Nebraska City. 
In each case, improved recreation and tourism opportunities at restored 
habitat sites translate into real dollars for Missouri River 
communities, as recreation and tourism-dependent businesses support 
visitors to these areas.
    By supporting the Missouri River Fish and Wildlife Mitigation 
Project, Congress can also help us properly commemorate the upcoming 
bicentennial of Lewis and Clark's Voyage of Discovery. With your help, 
we can restore a string of natural places along the Missouri--places 
that Lewis and Clark might recognize and that attract recreation and 
tourism, support river wildlife, and improve the quality of life in 
riverside communities.
    Millions of people already visit the Missouri River each year to go 
sightseeing, hunting, fishing, boating, and camping--often in areas 
closely resembling the Missouri chronicled by Lewis and Clark--annually 
pumping more than $90 million into riverside communities. Through the 
mitigation project, these recreation dollars will increase and we will 
be able to more fully enjoy the Lewis and Clark bicentennial 
commemoration.
    We urge you to bolster critically important efforts to reverse the 
decline of the nation's longest river by supporting an appropriation of 
$12 million for the Missouri River Fish and Wildlife Mitigation Project 
in fiscal year 2002.
 lower columbia river and tillamook bay ecosystem restoration, oregon 
               and washington; us army corps of engineers
    American Rivers and more than 530 local, regional, and national 
conservation and community groups \1\ from throughout the country urge 
you to appropriate full funding for the U.S. Army Corps of Engineers' 
Lower Columbia River and Tillamook Bay Ecosystem Restoration program in 
the Water Resources Development Act 2000 (WRDA) in fiscal year 2002. 
Specifically, we urge you to appropriate the full $30 million for the 
program.
---------------------------------------------------------------------------
    \1\ Each of these organizations has signed on to the River Budget: 
National Priorities for Local River Conservation in fiscal year 2002. 
The River Budget is a consensus report that summarizes where the people 
who work to save the nation's rivers believe we can make the best 
investments of tax dollars to benefit our communities, wildlife, and 
water quality. A complete list of these organizations is included at 
the end of this testimony.
---------------------------------------------------------------------------
    Coastal estuaries in the Pacific Northwest play a vital role in 
supporting healthy stocks of wild salmon, steelhead and other species 
improving the quality of life of countless communities. The Lower 
Columbia River estuary and Oregon's Tillamook Bay are of particular 
importance to the region, benefiting people and wildlife in a myriad of 
ways. They provide critical habitat, offer abundant recreational 
opportunities, and improve water quality by filtering out toxic 
contaminants, sediments and other pollutants.
    The Columbia and Tillamook estuaries are of great importance to the 
region and the nation, offering critical habitat to endangered salmon 
and steelhead and more than 200,000 wintering waterfowl and shorebirds. 
But they also face significant threats. Since 1850, the two estuaries 
have lost more than 70 percent of their historical wetland and riparian 
habitat, primarily because of construction of agricultural levees and 
floodplain development. The Columbia River and its estuary have also 
been damaged by channelization and dredging for navigation.
    In addition, the health of these estuaries has been severely 
compromised over the past half century by conversion of river habitat, 
dams, mining, and logging, which have transformed the ecology and 
economy of the region. The huge price paid by the river's ecosystems is 
illustrated most clearly by severe declines in native salmon species. 
Wild fish have been reduced the only one percent of their pre-
development abundance, and 12 salmon and steelhead species in the 
Columbia River Basin are listed under the Endangered Species Act.
    The Federal Caucus' Biological Opinion on the Reinitiation of 
Consultation on Operation of the Federal Columbia River Power System 
issued December 21, 2000 specifically calls for the Corps to initiate 
the restoration called for in Section 536 of WRDA 2000. Action 160 in 
the biological opinion calls for the Corps ``to develop and implement 
an estuary restoration program with a goal of protecting and enhancing 
10,000 acres of tidal wetlands and other key habitats over 10 years, 
beginning in 2001, to rebuild productivity for listed populations in 
the lower 46 river miles of the Columbia River.'' \2\ Appropriations 
dedicated to implementing Section 536 of WRDA 2000 would help fulfill 
the Federal government's commitment to the restoration and protection 
of the estuary referred to in this biological opinion.
---------------------------------------------------------------------------
    \2\ National Marine Fisheries Service, Northwest Region. Biological 
Opinion, Reinitiation of Consultation on Operation of the Federal 
Columbia River Power System, Including the Juvenile Fish Transportation 
Program, and 19 Bureau of Reclamation Projects in the Columbia Basin. 
Federal Caucus, Issued: December 21, 2000.
---------------------------------------------------------------------------
    The Lower Columbia River and Tillamook Bay Ecosystem Restoration 
program, run by the Army Corps of Engineers, cuts across political 
boundaries and is supported by a diverse group of stakeholders 
including labor, environmental and citizen groups, as well as Federal, 
state, municipal and tribal governments. These stakeholders are 
dedicated to enhancing the fish and wildlife habitat in these 
estuaries. This program offers a cooperative solution to managing 
natural resources that will benefit all of the salmonids in the 
Columbia River system. Adequately funded, the program will restore more 
than 16,000 acres of critical fish and wildlife habitat, augment 
existing monitoring efforts, and help citizens protect and manage 
resources.
    Again, we strongly urge you to appropriate full funding of $30 
million for the U.S. Army Corps of Engineers to implement Section 536 
of the Water Resources Development Act 2000, the Lower Columbia River 
and Tillamook Bay Ecosystem Restoration.
     atchafalaya basin floodway system; us army corps of engineers
    American Rivers, Sierra Club Delta Chapter, EarthJustice Legal 
Defense Fund, and Louisiana Audubon Council urges that the real estate 
acquisition component of the Atchafalaya Basin Floodway System project 
be fully funded at $5 million, and that such funds be earmarked.
    The U.S. Army Corps of Engineers has a central role to play in the 
protection of the Atchafalaya Basin. The Corps' Atchafalaya Basin 
Floodway System project was authorized by the Supplemental 
Appropriations Act of 1985, Public Law 99-88. The Water Resources 
Development Act of 1986, Public Law 99-662, reauthorized the project. 
Funding for acquisition of the real estate features of the project was 
made available by the Energy and Water Resources Development 
Appropriations Act of 1988, Public Law 100-202.
    A key feature of this Corps project is real estate acquisitions 
(fee lands from willing sellers and environmental protection easements) 
to preserve the natural environment of the Atchafalaya Basin and allow 
public access to the Basin. Although at the Corps' earlier pace, it was 
estimated that the planned acquisitions would not be completed until 
the year 2017, during the past few years, the Corps has been making a 
concerted effort to honor its commitment to acquire the real estate 
interests in the Atchafalaya Basin. At the current pace, the Corps has 
indicated that it can complete the real estate acquisitions by 2004.
    A steady flow of adequate funding is necessary to keep these real 
estate acquisitions on track. When part of the real estate work 
necessary for the Basin acquisitions is done but the funds to complete 
the process are not made available, some of the initial work (such as 
appraisals and timber cruises) must be repeated--resulting not only in 
a significant waste of staff time and taxpayer dollars, but also 
leaving the Basin at risk for environmental degradation even longer.
    It is important to provide sufficient, ongoing funding for the real 
estate acquisitions. Approximately $5 million will be needed for the 
real estate acquisitions portion of the Atchafalaya Basin project in 
the 2002 budget. We urge that the real estate acquisition component of 
the Atchafalaya Basin Floodway System project be fully funded, and that 
such funds be earmarked.
       low impact hydropower certification; department of energy
    American Rivers urge the subcommittee to provide the Department of 
Energy with $100,000 to fund the Low Impact Hydropower Certification 
program to help promote environmentally sound, sustainable domestic 
energy supplies.
    American Rivers supports the work of the Low Impact Hydropower 
Institute, which manages a voluntary certification program for 
identifying those hydropower facilities that have low environmental 
impacts relative to other hydropower facilities. The Low Impact 
Hydropower Certification Program evaluates hydropower dams based on 
objective environmental criteria addressing key resources. If a 
facility is certified, the hydropower dam owner can sell the power into 
the ``green'' energy markets; this in turn, will create market 
incentives for other dam owners to follow suit. The program provides an 
important, market-based tool for addressing the environmental impacts 
of hydropower, while providing a boost to renewables and ``green'' 
energy markets, expanding consumer options, and supporting economic 
incentives for hydropower generators to produce low impact power.
    We urge the subcommittee to provide the Department of Energy with 
$100,000 to fund the Low Impact Hydropower Certification program to 
help promote environmentally sound, sustainable domestic energy 
supplies.
    Thank you for your consideration.
                                 ______
                                 

                Prepared Statement of Charles H. Bucknam

    Thank you for agreeing to consider this request for funding of the 
Acid Drainage Technology Initiative (ADTI) through the Federal multi-
agency mechanism. The Army Corps of Engineers (USACE) is being 
requested to provide annual funding of up to $200K, to match the 
standard set by the Office of Surface Mining (OSM). OSM funding is 
going primarily to the Coal Mining Sector of ADTI and a predictable 
base of funding is also needed for the Metal Mining Sector activities, 
in order to identify the best science for controlling acid and metal 
drainage from metal mines and related materials.
    The ADTI is a nationwide technology development program with a 
guiding principle of building a consensus among Federal and State 
regulatory agencies, universities and consulting firms to predict and 
find remedies for acid drainage from active and inactive metal and coal 
mines. It is not a regulatory or policy development program. The Acid 
Drainage Technology Initiative Metal Mining Sector (ADTI-MMS) is an 
organization of volunteers committed to the development of the best 
science and technology-based solutions to mine water quality issues at 
metal mines. The Review Committee is responsible for developing and 
implementing the consensus review process for documents, editorial 
services, international networking and membership coordination. The 
consensus review process is developed by this Committee is available on 
the world wide web at: http://www.bucknam.com/rchb/consensu.txt and 
several draft documents are also being reviewed on the ADTI-MMS web 
site at: http://www.mackay.unr.edu/adti.
    As you may be aware, it has been estimated that correcting the mine 
drainage and abandoned mined land problems will cost up to $70 billion. 
As this figure suggests, it will be necessary to lead off on this 
effort with an adequate foundation of current technology-based 
solutions. The ADTI-MMS organization is in the process of preparing and 
maintaining handbooks to provide that foundation and is prepared to 
launch the necessary research programs to develop the best science and 
technologies.
    ADTI-MMS is backed through participation from members of numerous 
mining companies, environmental consulting firms, Federal and state 
research, land management and regulatory agencies, academic researchers 
committed to the ADTI mission, and the Western Governors Association. 
The Western University Consortium, consisting of University of Nevada--
Reno, New Mexico Institute of Mining and Technology, University of 
Idaho, University of Utah and University of Alaska, Fairbanks and other 
members of the ADTI-MMS University Network (Colorado School of Mines, 
Montana Tech at the University of Montana, South Dakota School of Mines 
and Technology, University of Colorado, Berkeley, Northern Arizona 
University, Montana State University-Bozeman, and the University of New 
Mexico) provide part of our research foundation under direction of the 
Mining Life Cycle Center at the University of Nevada, Reno. In 
addition, the US Army Corps of Engineers Restoration of Abandoned Mined 
Sites (RAMS) program and the headquarter-based Research Programs are 
actively pursuing research coupled with on ground cleanups. 
Coordination with sister organizations in other countries, including 
Mine Environment Neutral Drainage (MEND)-Canada, Mitigation of 
Environmental Impact From Mining Waste (MiMi)-Sweden, (other), 
signifies our position in the international realm.
    The ADTI-MMS Review Committee needs funding for technical-
professional review and illustrations for ADTI-MMS Workbooks on 
prediction, sampling and monitoring, modeling, mitigation and pit 
lakes. We feel that minimal funding (10 percent of ADTI-MMS annual 
budget) can provide needed training documentation for what proves to be 
an expensive multi-decade effort.
    The National Mining Association (NMA), the Interstate Mining 
Compact Commission (IMCC) and several Federal agencies [OSM, BLM, 
Department of Energy (DOE), and Geological Survey (USGS)] have actively 
participated in the Acid Drainage Technology Initiative (ADTI) since 
1995. This collaborative effort receives funding and other support from 
industry and several Federal agencies for specific projects. For 
example, the OSM has provided the ADTI $200,000 for the last three 
fiscal years which has been a consistent source of funding for 
activities related to acid mine drainage from coal mining and has been 
instrumental in accomplishing the ADTI's short-term goals. In addition, 
the EPA has provided $10,000 for travel and administration, and is 
currently providing funding for prediction workbook preparation. If 
each of the Federal agencies, OSM, Environmental Protection Agency 
(EPA), DOE, Army Corps of Engineers (USACE), BLM, USGS, and other 
agencies as appropriate [i.e. Bureau of Reclamation (USBR), National 
Park Service (NPS) and Forest Service (USFS)], were provided funds to 
commit $200,000 toward ADTI, more than $1 million would be available to 
support the work of this vital initiative.
    In fiscal year 1999, House Report No. 105-581 acknowledged that 
acid mine drainage is a serious environmental problem and that the U.S. 
Army Corps of Engineers possessed the experience and capability to 
assist in the ADTI's efforts. Further, the subcommittee directed the 
Corps to participate in this initiative with available funds. Since 
that time, the Corps participated in several workshops with members of 
the ADTI to exchange information on mining and related environmental 
issues and to explore the nature and extent of the Corps' involvement. 
In order to participate effectively, we respectfully request that the 
USACE be provided funds to commit $200,000 annually (with other Federal 
agencies involved, such as OSM, EPA, DOE, BLM, USGS, USBR, NPS and 
USFS) to further the Corp's goals of ecosystem restoration.
    Thank you for your time and interest in this vital area. Your 
continued funding of this Committee's activities will significantly 
improve our ability to develop the best science for addressing drainage 
issues with an organized and predictable schedule.
                                 ______
                                 

           Prepared Statement of the Colorado School of Mines

    Thank you for agreeing to consider this request for funding of the 
Acid Drainage Technology Initiative (ADTI) through the Federal multi-
agency mechanism. The Army Corps of Engineers (USACE) is being 
requested to provide annual funding of up to $200K, to match the 
standard set by the Office of Surface Mining (OSM). OSM funding is 
going primarily to the Coal Mining Sector of ADTI and a predictable 
base of funding is also needed for the Metal Mining Sector activities, 
in order to identify the best science for controlling acid and metal 
drainage from metal mines and related materials.
    The ADTI is a nationwide technology development program with a 
guiding principle of building a consensus among Federal and State 
regulatory agencies, universities and consulting firms to predict and 
find remedies for acid drainage from active and inactive metal and coal 
mines. It is not a regulatory or policy development program. The Acid 
Drainage Technology Initiative Metal Mining Sector (ADTI-MMS) is an 
organization of volunteers committed to the development of the best 
science and technology-based solutions to mine water quality issues at 
metal mines. The Review Committee is responsible for developing and 
implementing the consensus review process for documents, editorial 
services, international networking and membership coordination. The 
consensus review process is developed by this Committee is available on 
the world wide web at: http://www.bucknam.com/rchb/consensu.txt and 
several draft documents are also being reviewed on the ADTI-MMS web 
site at: http://www.mackay.unr.edu/adti.
    As you may be aware, it has been estimated that correcting the mine 
drainage and abandoned mined land problems will cost up to $70 billion. 
As this figure suggests, it will be necessary to lead off on this 
effort with an adequate foundation of current technology-based 
solutions. The ADTI-MMS organization is in the process of preparing and 
maintaining handbooks to provide that foundation and is prepared to 
launch the necessary research programs to develop the best science and 
technologies.
    ADTI-MMS is backed through participation from members of numerous 
mining companies, environmental consulting firms, Federal and state 
research, land management and regulatory agencies, academic researchers 
committed to the ADTI mission, and the Western Governors Association. 
The Western University Consortium, consisting of University of Nevada--
Reno, New Mexico Institute of Mining and Technology, University of 
Idaho, University of Utah and University of Alaska, Fairbanks and other 
members of the ADTI-MMS University Network (Colorado School of Mines, 
Montana Tech at the University of Montana, South Dakota School of Mines 
and Technology, University of Colorado, Berkeley, Northern Arizona 
University, Montana State University-Bozeman, and the University of New 
Mexico) provide part of our research foundation under direction of the 
Mining Life Cycle Center at the University of Nevada, Reno. In 
addition, the US Army Corps of Engineers Restoration of Abandoned Mined 
Sites (RAMS) program and the headquarter-based Research Programs are 
actively pursuing research coupled with on ground cleanups. 
Coordination with sister organizations in other countries, including 
Mine Environment Neutral Drainage (MEND)-Canada, Mitigation of 
Environmental Impact From Mining Waste (MiMi)-Sweden, (other), 
signifies our position in the international realm.
    The ADTI-MS Review Committee needs funding for technical-
professional review and illustrations for ADTI-MMS Workbooks on 
prediction, sampling and monitoring, modeling, mitigation and pit 
lakes. We feel that minimal funding (10 percent of ADTI-MMS annual 
budget) can provide needed training documentation for what proves to be 
an expensive multi-decade effort.
    The National Mining Association (NMA), the Interstate Mining 
Compact Commission (IMCC) and several Federal agencies [OSM, BLM, 
Department of Energy (DOE), and Geological Survey (USGS)] have actively 
participated in the Acid Drainage Technology Initiative (ADTI) since 
1995. This collaborative effort receives funding and other support from 
industry and several Federal agencies for specific projects. For 
example, the OSM has provided the ADTI $200,000 for the last three 
fiscal years which has been a consistent source of funding for 
activities related to acid mine drainage from coal mining and has been 
instrumental in accomplishing the ADTI's short-term goals. In addition, 
the EPA has provided $10,000 for travel and administration, and is 
currently providing funding for prediction workbook preparation. If 
each of the Federal agencies, OSM, Environmental Protection Agency 
(EPA), DOE, Army Corps of Engineers (USACE), BLM, USGS, and other 
agencies as appropriate [i.e. Bureau of Reclamation (BOR), National 
Park Service (NPS) and Forest Service (USFS)], were provided funds to 
commit $200,000 toward ADTI, more than $1 million would be available to 
support the work of this vital initiative.
    In fiscal year 1999, House Report No. 105-581 acknowledged that 
acid mine drainage is a serious environmental problem and that the U.S. 
Army Corps of Engineers possessed the experience and capability to 
assist in the ADTI's efforts. Further, the subcommittee directed the 
Corps to participate in this initiative with available funds. Since 
that time, the Corps participated in several workshops with members of 
the ADTI to exchange information on mining and related environmental 
issues and to explore the nature and extent of the Corps' involvement. 
In order to participate along with the Corps, we respectfully request 
that the USACE be provided funds to commit $200,000 annually (with 
other Federal agencies involved, such as OSM, EPA, DOE, BLM, USGS, BOR, 
NPS and USFS) to further the Corp's goals of ecosystem restoration.
    Thank you for your time and interest in this vital area. Your 
continued funding of this Committee's activities will significantly 
improve our ability to develop the best science for addressing drainage 
issues with an organized and predictable schedule.
                                 ______
                                 

    Prepared Statement of the West Tennessee Tributaries Association

    My name is M.V. Williams and my home is in Friendship, Tennessee 
between the Middle and South Forks of the Forked Deer River. I am the 
President of the West Tennessee Tributaries Association. It is also my 
pleasure to serve as Chairman of the Executive Committee of the 
Mississippi Valley Flood Control Association with headquarters in 
Memphis, Tennessee. This statement on behalf of the Association 
presents their views on fiscal year 2002 Budget for the Mississippi 
River and Tributaries Project.
    To better inform the Sub-committee, I will briefly discuss the 
Mississippi Valley Flood Control Association which is an Agency 
composed almost entirely of public bodies having local responsibility 
for flood control, drainage, bank stabilization and navigation 
improvements in parts of Iowa, Illinois, Kentucky, Mississippi, 
Tennessee, Arkansas, Missouri and Louisiana. Our members are public 
officials who for the most part are elected by the people. The 
Association represents practically all of the levee and drainage 
districts, municipalities, port and harbor commissions and other state 
agencies in the Mississippi Valley, extending from Burlington, Iowa to 
the Gulf of Mexico. These organizations and agencies are political 
subdivisions of the various states in which they are organized and 
function. We provide an agency through which the people of the 
Mississippi Valley may speak and act jointly on all flood control, 
navigation, bank stabilization and major drainage problems. We have 
appeared before the Sub-Committee and served the people in the 
Mississippi Valley for well over sixty years.
    Our Association is comprised of a very large group of individuals 
who are businessmen, property owners, conservationists, farmers, 
attorneys, doctors, wildlife enthusiasts, engineers, accountants, 
environmentalists, civil servants and elected officials from all 
political parties.
    The value of flood control and economic reality of the need for 
navigation is well known by the Congress. Therefore I shall not go into 
details but for the sake of confirming what is already known. Let me 
tell you that for every Federal dollar invested in the Mississippi 
River and Tributaries Project twenty-four dollars have been returned in 
damages prevented. In addition river navigation has produced annual 
benefits of almost nine hundred million dollars. What a wonderful 
investment of taxpayer's dollars.
    Today we find ourself again faced with an inadequate budget from 
the Executive Department but fortunately for us and the other citizens 
of this great Nation, the Congress in its wisdom has always recognized 
the value of such an investment and has consequently, with only rare 
exceptions, appropriated more dollars for the Mississippi River and 
Tributaries Project that has been requested by the Executive Department 
We hope this happens again this year.
    We also find the U.S. Army Corps of Engineers under fire from 
within the Executive Branch, some members of Congress and of course the 
so-called environmentalists. This is the same Corps of Engineers that 
has in peace time for over 225 years built the infrastructure that is 
the envy of the rest of the civilized world and that has also defended 
our Nation in times of conflict, from the war for independence to the 
Gulf War, from Bunker Hill to Baghdad.
    The Corps has faced similar allegations in the past but this time 
government agencies such as the Council on Environmental Quality, the 
Environmental Protection Agency, the U.S. Fish and Wildlife Service and 
others are attempting to change the Nation's public policy relating to 
water resources development and management from one of economic 
development balanced with environmental mitigation and restoration to 
one focused principally on environmental restoration.
    Even though the vast majority of the water resources infrastructure 
has passed its design age and badly needs to be replaced, these 
government agencies have, with help from others, made things so 
difficult and expensive that it becomes very arduous to find the 
economic justification for replacing the vitally needed structures. The 
Budget for fiscal year 2002 does not come close to meeting the needs 
for the maintenance of the work in place, work that was put in place by 
the direction of Congress which also decreed that the work was to be 
maintained by the Corps of Engineers.
    This statement is in support of the Mississippi River and 
Tributaries Appropriations and our request is being made only after 
careful and thoughtful considerations of the barest amount necessary to 
prevent the cancellation of on going contracts and to do the minimum 
amount of required maintenance work. The Mississippi River and 
Tributaries Project is unique in the fact that the appropriations 
allocated are used not only for construction but also for maintenance 
and not only for flood control but also for navigation and includes all 
environmental considerations including mitigation and restoration as 
well as irrigation and water supply.
    It is our conviction that to meet the barest minimums as outlined 
above, the appropriations for the Mississippi River and Tributaries 
Project for fiscal year 2002 must be $395,000,000. In order to merely 
preserve the integrity of our flood control and navigation systems that 
represents a large investment of National assets and to preserve and 
enhance the natural environment of the Mississippi River Valley and to 
continue the authorized work that is under way, the appropriation 
request is justified and should be considered as a wise investment in 
the future well-being of this great Nation.
    With the help of the Congress over the years, we have made progress 
in the Mississippi River Valley and for that we are extremely grateful 
but there is much to be done before the job is completed and the people 
in the valley may live without fear and the entire Nation may reap the 
benefits of what has been done.
    We have attached a sheet to this statement that reflects the 
Mississippi Valley Flood Control Association's request for 
appropriations for the Mississippi River and Tributaries Project for 
fiscal year 2002.

Mississippi Valley Flood Control Association,Fiscal Year 2002 Civil 
Works Requested Budget, Mississippi River and Tributaries Appropriations

        Project and State                               Requested Budget
Surveys, Continuation of Planning and Engineering & 
    Advance Engineering & Design:
    Memphis Metro Area, TN & MS.........................        $535,000
    Memphis Harbor, TN..................................         700,000
    Wolf River, Memphis, TN.............................         205,000
    Bayou Meto Basin, AR................................       2,500,000
    Southeast Arkansas..................................       1,452,000
    Boydsville, AR......................................         100,000
    Olive Branch, MS....................................         500,000
    Coldwater Basin Below Arkabutla Lake, MS............         350,000
    Alexandria, LA to the Gulf of Mexico................         700,000
    Morganza, LA to the Gulf of Mexico..................       6,500,000
    Donaldsonville, LA To Gulf of Mexico................       1,000,000
    Spring Bayou, LA....................................         500,000
    Collection & Study of Basic Data....................         615,000
                    --------------------------------------------------------
                    ____________________________________________________
      Subtotal--Surveys, Continuation of Planning & 
      Engineering
      ..................................................
        & Advance Engineering & Design..................      15,657,000
                    ========================================================
                    ____________________________________________________
Construction:
    St. John's Bayou-New Madrid Floodway, MO............       8,000,000
    Eight Mile Creek, AR................................         915,000
    Helena & Vicinity, AR...............................       1,675,000
    Grand Prairie Region, AR............................      35,414,000
    West Tennessee Tributaries, TN......................         100,000
    Nonconnah Creek, TN.................................       1,500,000
    Reelfoot Lake, TN...................................       2,620,000
    St. Francis Basin, MO & AR..........................       4,502,000
    Yazoo Basin, MS.....................................      33,287,000
    Atchafalaya Basin, LA...............................      30,000,000
    Atchafalaya Basin Floodway System...................       7,858,000
    MS Delta Region, LA.................................       4,600,000
    MS & LA Estaurine, Area, MS & LA....................         100,000
    Louisiana State, Penitentiary, LA...................       3,022,000
    Tensas Basin, Red River Backwater, LA...............       1,112,000
    Channel Improvements, IL, KY, MO, AR, TN, MS & LA...      40,100,000
    Mississippi River Levees, IL, KY, MO, AR, TN, MS & 
      LA................................................      51,968,000
                    --------------------------------------------------------
                    ____________________________________________________
      Subtotal--Construction............................     226,773,000
                    ========================================================
                    ____________________________________________________
      Subtotal--Maintenance.............................     152,570,000
                    ========================================================
                    ____________________________________________________
      Total--Mississippi River & Tributaries............     395,000,000
                                 ______
                                 

        Prepared Statements of the Pontchartrain Levee District

 lake pontchartrain and vicinity hurricane protection, louisiana; st. 
    charles and west shore--lake pontchartrain, st. john the baptist

           SUMMARY FISCAL YEAR 2002 RECOMMENDED APPROPRIATIONS
------------------------------------------------------------------------
            Project                       Budget            Recommended
------------------------------------------------------------------------
St. Charles Parish Hurricane                  $3,000,000      $5,400,000
 Protection....................
West Shore, St. John the                 \1\ 142,000,000  ..............
 Baptist Parish Hurricane
 Protection....................
Lake Pontchartrain & Vicinity                 19,700,000     22,100,000
 Hurricane Protection..........
------------------------------------------------------------------------
\1\Estimated cost.


                            project overview
    Around Lake Pontchartrain, in the vicinity of New Orleans, there 
are several project segments under this major title. All segments are 
nearing completion except St. Charles Parish Hurricane Protection and 
West Shore, St. John the Baptist Parish Hurricane Protection. Both 
projects are located totally in the Pontchartrain Levee District (PLD) 
and the PLD is serving as local sponsor for both.
    The importance and critical necessity for these two parts of the 
overall project is defined by the fact the shoreline of Lake 
Pontchartrain is actually a part of and continuation of the Gulf of 
Mexico shoreline. Sound frightening? Think of the communities, people, 
businesses and improvements remaining unprotected. That expresses the 
urgent, indispensable need for protection from hurricane induced and 
other high tides. Both of these items--St. Charles Parish and West 
Shore--protect major designated evacuation routes for the New Orleans 
Metropolitan area (I-10 & US 190). The problem here is that as soon as 
the hurricane tide has hit New Orleans it has also attacked all the 
shoreline around Lake Pontchartrain. It's a package deal.
    The St. Charles Parish Project has 10 miles of levee, 5 major 
floodgate structures and a construction cost of $100 million. If 
Congress provides maximum funding capability for 2002 and 2003, then 
the first lift levee and structures can be completed in 1\1/2\ years 
from now. A closed system in time for most of the 2003 hurricane 
season! Very exciting! A time to rejoice! Let's do it!
    The West Shore Project includes 18 miles of levee and 3 pumping 
stations. The estimated construction cost is in the vicinity of $142 
million, as determined by the Feasibility Study now complete, and is 
just before submitting to higher authority from the New Orleans 
District, Corps of Engineers. No construction is scheduled for fiscal 
year 2002, but will have a broad start in 2003. Let's get ready to fund 
this project to the hilt. We must remember that portions of Interstates 
55 and 10 have already been flooded by hurricanes and shut down. And it 
will repeat without protection.
    The total appropriation required for all parts of Lake 
Pontchartrain & Vicinity Hurricane Protection is $19,700,000, with a 
budget inclusion of only $10,000,000. That part in St. Charles Parish 
must receive $5,400,000 in 2002 and only $3,000,000 has been requested 
by the Corps of Engineers.
    We believe the West Shore item does not require funding in 2002, 
but the funding must being in fiscal year 2003.
                                comments
    The Pontchartrain Levee District has full realization of the 
necessity of keeping these Subcommittees advised of current and future 
needs for Federal monetary support on vital items of the MR&T Flood 
Control Project. Beginning in 1995 the Subcommittees refused to give 
audience to our pleadings. This year no oral testimony will be heard. 
Again, this is a great travesty of justice. Such actions seriously 
erode the partnership that has been built between Congress, the Corps 
of Engineers and local sponsors.
    We trust that this pattern will revert back to the practice of 
hearing our delegation. Six representatives from the Pontchartrain 
Levee District are present today desiring to present views to the 
Subcommittees--they are:
    Commissioners: Joseph Gautreau, President, Herbert T. Thurber, Vice 
President, Jesse J. Bartley, LeVerne Brown, Steven Wilson.
    Staff: Mike Babin, Program Administrator.
                               conclusion
    The Board of Commissioners, Pontchartrain Levee District, 
compliments the Subcommittees on Energy and Water Development for its 
keen understanding of real needs for the MR&T Flood Control Project 
along with Hurricane Protection and efficient, alert actions taken to 
appropriate funds for the many complex requirements. We endorse 
recommendations presented by the Association of Levee Boards of 
Louisiana, Department of Transportation and Development, Mississippi 
Valley Flood Control Association and Red River Valley Association.
        mississippi river and tributaries flood control project

           SUMMARY FISCAL YEAR 2002 RECOMMENDED APPROPRIATIONS
------------------------------------------------------------------------
                 Project                      Budget        Recommended
------------------------------------------------------------------------
Mississippi River & Tributaries Flood       $370,000,000    $460,000,000
 Control Project........................
------------------------------------------------------------------------


    The Pontchartrain Levee District (PLD) includes the east bank main 
line levee extending from Baton Rouge to Kenner, a length of 115 miles. 
Various segments of this levee require enlargement and construction of 
riverside slope pavement. One such item is currently under construction 
from Carville to Marchand. Additional funds are needed over the 
budgeted amount to allow substantial progress. In the northeast part of 
Louisiana the levee is several feet below grade where if overtopped 
will flood about one-third of the state. Very severe and critical 
conditions! It is recommended that a minimum of $51,067,000 be 
appropriated for Mississippi River Levees, where the budget contains 
only $40,621,000.
    The second item of indispensable importance to PLD and the State of 
Louisiana is Channel Improvements. Main line levees must be protected 
from caving banks throughout this lower river reach where extremely 
narrow battures are the last line of defense against levee crevasses 
and failures. If caving banks are not controlled the only answer is 
``setback''. Simply stated there is no room remaining for levee 
setbacks in the Pontchartrain Levee District. Revetment construction 
must be annually funded to prevent levee failures, land losses and 
relocations. This item also benefits the 55-foot depth navigation 
channel. The Pontchartrain Levee District recommends at least 
$47,900,000 be appropriated for fiscal year 2002. Budget amount is 
$40,100,000.
                                comments
    The Pontchartrain Levee District has full realization of the 
necessity of keeping these Subcommittees advised of current and future 
needs for Federaly monetary support on vital items of the MR&T Flood 
Control Project. Beginning in 1995 the Subcommittees refused to give 
audience to the Mississippi Valley Flood Control Association. This year 
no oral testimony will be heard. Again, this is a great travesty of 
justice. Such actions seriously erode the partnership that has been 
built between Congress, the Corps of Engineers and local sponsors.
    We trust that this pattern will revert back to the sixty-three year 
practice of hearing our delegation. Six representatives from the 
Pontchartrain Levee District are present today desiring to present 
views to the Subcommittees--they are:
    Commissioners: Joseph Gautreau, President, Herbert T. Thurber, Vice 
President, Jesse J. Bartley, LeVerne Brown, Steven Wilson.
    Staff: Mike Babin, Program Administrator.
                               conclusion
    The Board of Commissioners, Pontchartrain Levee District, 
compliments the Subcommittees on Energy and Water Development for its 
keen understanding of real needs for the MR&T Flood Control Project 
along with Hurricane Protection and efficient, alert actions taken to 
appropriate funds for the many complex requirements. We endorse 
recommendations presented by the Association of Levee Boards of 
Louisiana, Department of Transportation and Development, Mississippi 
Valley Flood Control Association and Red River Valley Association.
                                 ______
                                 

         Prepared Statement of the Moss Landing Harbor District

    Mr. Chairman and members of the subcommittee: On behalf of the 
chairman and members of the Board of Harbor Commissioners, thank you 
for the opportunity for me, James Stilwell, as general manager of the 
Moss Landing Harbor District in California to submit prepared remarks 
to you for the record in support of the fiscal year 2002 energy and 
water regular appropriations measure.
    The commission recognizes and expresses its gratitude to our senior 
Senator, the Honorable Dianne Feinstein, a valued member of the 
Appropriations Committee for her continued assistance and support on 
our behalf.
    The commission also expresses its sincere gratitude to our other 
distinguished Senator from the State of California, the Honorable 
Barbara Boxer, for her continued assistance and support on our behalf.
    We express our profound appreciation to the subcommittee and full 
committee for its inclusion of $700,000 in operations and maintenance 
funds in the fiscal year 2001 budget for the conduct of a first ever 
dredged material management plan for the harbor district in order to 
plan for orderly maintenance dredging of the Federal channel and local 
berths over the next twenty or more years.
    The coming year marks the first time in a decade that we have 
returned to a normal three year maintenance cycle of the Federal 
channel and we support inclusion of $2.0 million in fiscal year 2002 
budget for that purpose. Additionally, up to $500,000 may be required 
to complete the dredged material management plan that was funded for 
fiscal year 2001. The total request is therefore for $2.5 million in 
appropriations from the operations and maintenance general account.
    As part of that effort we have cooperatively undertaken a ground 
breaking ecological risk assessment under Corps of Engineers and EPA 
guidance including representatives of the Federal, State and local 
agencies with an interest in dredging activities. We hope this effort 
will:
  --Produce both a useful and practical multidisciplinary decision 
        document for those agencies exercising regulatory or oversight 
        jurisdiction over dredging; and
  --Serve as a model for collaborative efforts in dredged material 
        disposal consensus decision making in unique situations such as 
        for other corps districts and local sponsors seeking to balance 
        required maintenance dredging to support navigation with the 
        corresponding need to protect environmentally sensitive areas, 
        in this instance the unique Monterey Submarine Canyon located 
        at the heart of the Monterey Bay Marine Sanctuary.
    We plan to document this process and our experience for 
incorporation in corps planning guidance for national use and 
congressional oversight as a valuable tool for environmental regulatory 
process streamlining.
    The working group in support of this effort is comprised of every 
State, Federal and local agency with responsibility for the conduct and 
statutory oversight of dredging activities at the site located within 
the boundaries of the Monterey Bay National Marine Sanctuary (MBNMS), 
including the sanctuary, U.S. Army Corps of Engineers, San Francisco 
District (USACESFD), USEPA region IX, U.S. Fish and Wildlife Service 
(USFWS), California Coastal Commission, California Department of Fish 
and Game, the Central Coast Regional Water Quality Control Board, along 
with representatives of related local agencies, the commercial fishing 
industry, public interest groups and the marine research community 
based in the harbor district.
    For those of you who are more familiar with the world renowned 
Monterey peninsula and bay and our acclaimed aquarium, our harbor is 
home to the largest commercial fishing fleet on the central coast of 
California and the largest concentration of Federal, State and private 
marine research and millions of dollars in capital investment in 
vessels and facilities on the west coast. Without ongoing maintenance 
dredging both nationally significant research and commercial fishing 
activities would be threatened.
    As part of voluntary local cost sharing contribution to our dredged 
material management plan, as the local sponsor we have expended over 
$120,000 to date for sedimentary transport studies of both mud and sand 
and associated contaminants from various sources in the SF-12 area 
including the unique Monterey Bay Marine Canyon, over $16,000 for the 
collection of sediment samples (some of which need critical testing and 
evaluation before their expiration), over $12,000 for an extensive 
literature search, and over $25,000 in coordinating with, and 
sponsoring meetings of, the working group. USEPA Region IX has also 
contributed financially to this important endeavor by providing funds 
for the peer review process.
    The Ecological Risk Assessment (``ERA'') underway consists of three 
main phases: (1) problem formulation; (2) analysis; and (3) risk 
characterization.
    The first phase consists of a screening era to identify those 
chemicals, ecological receptors, and exposure pathways requiring 
further evaluation in subsequent phases and to identify additional data 
needs. This phase will address elements of problem formulation, and 
utilizes mostly existing data.
    The problem formulation phase includes the following components:
  --Data evaluation and chemical of potential concern selection--an 
        evaluation of dredged material characteristics to select 
        chemicals of potential concern for further evaluation;
  --Ecosystem characterization--identification of the habitats and 
        aquatic, wildlife, and human receptors of potential concern;
  --Conceptual ecological model development--an evaluation of complete 
        and potentially complete exposure pathways (disposal 
        characteristics), selection of indicator species (sensitive 
        species representative of different levels of the food chain), 
        and identification of assessment and measurement endpoints; and
  --Data gap analysis--identification of data needs and studies 
        required to complete the assessment.
    Because of the nature of the Moss Landing dredged material disposal 
(hydraulic dredging to a highly dispersive site) and the similarities 
of the disposal process to the ongoing sediment deposition to Monterey 
Bay from the local watershed, the initial evaluation will focus on 
these ongoing processes. The ongoing sediment deposition and its 
effects on the Monterey Bay ecosystem can provide a real-time 
indication of the stressor-response relationship. Existing data will be 
reviewed and additional data collected as deemed necessary in the data 
gap analysis described above.
    The second phase analysis will includes the following elements:
  --Watershed characterization--an evaluation of the sediment and 
        chemical loading to Monterey Bay from the surrounding watershed
  --Hydrodynamic evaluation--an evaluation of the dispersional/
        depositional patterns/zones
  --Sediment characterization--an evaluation of sediment chemical 
        concentrations in depositional zone(s)
  --Biota characterization--an evaluation of resulting biota 
        concentrations (benthos and fish); some benthic community 
        analysis may be conducted as well
  --Toxicity identification evaluation (tie)--an evaluation of toxic 
        effects and identification of toxicants
  --Exposure and effects assessments--an evaluation of food chain 
        effects and an evaluation of human health effects
  --Risk characterization--integration of the above elements to 
        estimate risks.
  --Uncertainty analysis.
    The first phase of this evaluation will include a screening level 
assessment using conservative assumptions. as necessary, additional 
data will be collected to refine these assumptions and provide more 
realistic estimates of exposure and effects.
    The third phase of risk evaluation will determine if no significant 
risks are predicted in the above evaluation. subsequent phases of the 
era will estimate the level of additional deposition (i.e., dredged 
material disposal) that could occur before resulting in unacceptable 
risks. If significant risks are predicted in the ambient level 
assessment, the subsequent phases will include predicting the 
incremental risk from disposal of dredged material.
    Project deliverables will include:
  --A work plan, sampling and analysis plan, and quality assurance 
        program plan;
  --Draft, draft final, and final reports; and
  --A monitoring plan.
    The draft report is anticipated to be released during Federal 
fiscal year 2002.
    This effort is intended to save current and future expenditures by 
providing a proven analytical and scientific framework with which to 
balance the costs and risks of upland and unconfined aquatic disposal 
of dredged material, a problem affecting ports and harbors across the 
nation and threatening to have an adverse impact on future corps 
maintenance budgets.
    As part of the effort we are compelled to benchmark suitable upland 
disposal sites for both ecological risk assessment and maintenance 
dredging purposes. We are bounded by the Elkhorn Slough National 
Estuarine Sanctuary and the Monterey Bay Marine Sanctuary, severely 
limiting available disposal options. The harbor district lies within 
the watershed of two rivers draining some of the richest agricultural 
land in the nation but which also serves as the upstream source of 
agricultural pesticides posing a permanent dilemma as to alternative 
disposal options. Compounding this is the high cost of acquisition of 
available upland disposal sites, approximately $35 million for the one 
remaining suitable long term disposal site.
    This brings us to our long term need for a fundamental change in 
Federal law that brings modern navigation project planning and cost-
sharing in line with current practice that has evolved since the 
enactment of the Water Resources Development Act of 1986, as amended. 
Under current law the definition of the general navigation features of 
the project includes inter alia the actual project dredging cost and 
any improvements to locally provided disposal sites for construction 
purposes. For maintenance purposes the cost of maintaining a dredged 
disposal site is apportioned between the Federal government and the 
local sponsor if the site is used for the deposit of both project and 
berth material. Oftentimes the local sponsor outlay for a suitable 
disposal site may represent the single biggest cost element for an 
overall navigation project. This is particularly onerous in the case of 
a small or medium size port.
    A private sector sponsor may develop a single or usually multi-user 
disposal site and charge both the government and the local sponsor for 
its use over time. In practice, environmental permit delays have all 
but consigned this option to the rare instance. Legislative relief in 
the next water resources bill is long overdue.
    We bring these matters to your attention early in the 107th 
Congress so that they may be considered in the public debate over 
future water resources policy and fiscal planning, just as we plan to 
share our experience in dredged material management planning to the 
same end.
    I am prepared to supplement my prepared remarks for the record in 
response to any questions that the chair, subcommittee members, or 
staff may wish to have me answer.
    Thank you Mr. Chairman and members of the subcommittee. This 
concludes my prepared remarks.
                                 ______
                                 

            Prepared Statement of the Ventura Port District

    The Ventura Port District respectfully requests that the Congress:
    Include $3,000,000 in the fiscal year 2002 Energy and Water 
Development Appropriations Bill for the U.S. Army Corps of Engineers 
maintenance dredging of the Ventura Harbor Federal channel and sand 
traps.
    Include $1,500,000 to the fiscal year 2002 Energy and Water 
Development Appropriations Bill for the U.S. Army Corps of Engineers to 
repair the serious structural damage to the south Beach Groin at 
Ventura Harbor.
    Include $400,000 in the fiscal year 2002 Energy and Water 
Development Appropriations Bill to continue a cost shared Feasibility 
Study to determine the advisability of modifying the existing Federal 
navigation project at Ventura Harbor to include a sand bypass system.
                               background
    Ventura Harbor, homeport to 1500 vessels, is located along the 
Southern California coastline in the City of San Buenaventura, 
approximately 60 miles northwest of the City of Los Angeles. The harbor 
opened in 1963. Annual dredging of the harbor entrance area is usually 
necessary in order to assure a navigationally adequate channel. In 
1968, the 90th Congress made the harbor a Federal project and committed 
the U.S. Army Corps of Engineers to provide for the maintenance of the 
entrance structures and the dredging of the entrance channel and sand 
traps.
    The harbor presently generates more than $40 million in gross 
receipts annually. That, of course, translates into thousands of both 
direct and indirect jobs. A significant portion of those jobs are 
associated with the commercial fishing industry (over 25 million pounds 
of fish products were landed in 1999), and with vessels serving the 
offshore oil industry. Additionally, the headquarters for the Channel 
Islands National Park is located within the harbor, and the commercial 
vessels transporting the nearly 100,000 visitors per year to and from 
the Park islands offshore, operate out of the harbor. All of the 
operations of the harbor, particularly those related to commercial 
fishing, the support boats for the oil industry, and the visitor 
transport vessels for the Channel Islands National Park are highly 
dependent upon a navigationally adequate entrance to the harbor.
                     operations & maintenance needs
Maintenance Dredging
    It is estimated that $3,000,000 will be required to perform routine 
maintenance dredging of the harbor's entrance channel and sand traps 
during fiscal year 2002. This dredging work is absolutely essential to 
the continued operation of the harbor.
Breakwater Repairs
    It is estimated that $1,500,000 will be required during fiscal year 
2002 for the Corps of Engineers to repair extensive storm damage to the 
South Beach Groin. This structure is a critical component of the 
harbor's entrance system and its repair must be accomplished 
expeditiously in order to assure that the integrity of the balance of 
the structure is not compromised. Delaying the necessary repairs will 
not only rapidly escalate the repair cost for the groin itself but will 
also result in increased maintenance dredging costs in subsequent 
years.
                              study needs
    It is estimated that $400,000 will be required during fiscal year 
2002 to continue a cost shared Feasibility Study to determine the 
advisability of modifying the existing Federal navigation project at 
Ventura Harbor to include a sand bypass system. Given the continuing 
need for maintenance dredging, it is appropriate to determine if a sand 
bypass system or other measures can accomplish the maintenance of the 
harbor in a manner that is more efficient and cost effective than the 
current contract dredging approach.
                                 ______
                                 

         Prepared Statement of the Red River Valley Association

                              introduction
    The Red River Valley Association is a voluntary group of citizens 
bonded together to advance the economic development and future well-
being of the citizens of the four state Red River Basin area in 
Arkansas, Louisiana, Oklahoma and Texas.
    For the past 75 years, the Association has done notable work in the 
support and advancement of programs to develop the land and water 
resources of the Valley to the beneficial use of all the people. To 
this end, the Red River Valley Association offers its full support and 
assistance to the various Port Authorities, Chambers of Commerce, 
Economic Development Districts, Municipalities and other local 
governmental entities in developing the area along the Red River.
    The Resolutions contained herein were adopted by the Association 
during its 76th Annual Meeting in Bossier City, Louisiana on February 
22, 2001, and represent the combined concerns of the citizens of the 
Red River Basin area as they pertain to the goals of the Association, 
specifically:
  --Economic and Community Development
  --Environmental Restoration
  --Flood Control
  --Bank Stabilization
  --A Clean Water Supply for Residential, Commercial, Industrial and 
        Agriculture Uses
  --Hydroelectric Power Generation
  --Recreation
  --Navigation
    The Red River Valley Association is aware of the constraints on the 
federal budget, and has kept those restraints in mind as these 
Resolutions were adopted. Therefore, and because of the far-reaching 
regional and national benefits addressed by the various projects 
covered in the Resolutions, we urge the members of Congress to review 
the materials contained herein and give serious consideration to 
funding the projects at the levels requested.
    Mr. Chairman and members of the Committee. I am Wayne Dowd, and 
pleased to represent the Red River Valley Association as its President. 
Our organization was founded in 1925 with the express purpose of 
uniting the Citizens of Arkansas, Louisiana, Oklahoma and Texas to 
develop the land and water resources of the Red River Basin.
    Even though the details of the President's budget have not been 
published we know that the fiscal year 2002 Civil Works program is to 
be 14 percent less than what Congress appropriated in fiscal year 2001. 
This does not come close to the real needs of our nation. Six billion 
dollars is a more realistic funding level to meet the requirements for 
continuing the existing needs of the civil works programs. The 
traditional programs, inland waterways and flood protection remain at 
the low, unacceptable level as in past years. These projects are the 
backbone to our nation's infrastructure for waterways, flood control 
and water supply. We remind you that civil works projects are a true 
``jobs program'' in that 100 percent of the construction is contracted 
to the private sector, as is much of the architect and engineer work. 
Not only do these funds provide jobs, but provide economic development 
opportunities for our communities to grow and prosper.
    The civil works program is a catalyst that is responsible for the 
great economy we now experience. It would be irresponsible to allow our 
nations infrastructure to deteriorate, or worse, stop its growth in a 
time when America must be the leader in the world market. Our inland 
waterways are the key to our dominance of world trade. This is a 
pivotal budget year where critical decisions must be made which will 
determine our future economic strength.
    The integrity of the Corps of Engineers and their study process has 
been questioned over this past year. We do not agree with the 
accusations made and our experience has always been one of the highest 
integrity, in Corps personnel and their processes. There appears to be 
a campaign against the Corps of Engineers in which the media is only 
relaying one side of the issue. There is no doubt that upon completion 
of the on going investigations the Corps will be fully vindicated.
    The Corps of Engineers has served our nation for over 225 years and 
has been instrumental in developing the infrastructure that makes us 
the economic power we are in the world today. In 1996 our ports 
generated over $146 billion in federal taxes, Corps flood control 
projects have prevented damages of $21 billion annually and Corps 
projects and lakes provide more recreation opportunities for Americans, 
in visitor days, than the National Park Service. We do not support 
radical reform to the Corps process or additional independent review of 
Corps projects.
    It is difficult to understand why the environmental extremists are 
so strong in their objection to the inland waterways. The facts are 
that one barge, 1,500 tons of commodities, is equivalent to 15 jumbo 
rail hoppers or 58 tractor-trailer trucks. According to EPA, towboats 
emit 35 to 60 percent fewer pollutants than locomotives or trucks. So 
why would anyone want to take cargo off our waterways and increase 
highway congestion and air pollution? We do not believe opponents to 
civil work programs have the scientific justification to back their 
claims.
    I would now like to comment on our specific requests for the future 
economic well-being of the citizens residing in the four state Red 
River Basin region.
    Navigation.--The J. Bennett Johnston Waterway is living up to the 
expectations of the benefits projected. The tonnage moved in 1999 was 
3.6 million tons with the projected tonnage, to justify the project, at 
3.7 million tons. We are extremely proud of our public ports, 
municipalities and state agencies that have created this success. New 
opportunities were announced in 2000 including a ConAgra facility at 
the Natchitoches Parish Port. Liquid petroleum shipments increased in 
2000 as did commercial stone operations. You are reminded that the 
Waterway is not complete, nine percent remains, $180 million. We 
appreciate the Congress's appropriation level in fiscal year 2001; 
however, in order to keep the Waterway safe and reliable we must 
continue at a funding level closer to $25 million. The RRVA formed a 
Navigation Committee for industry, the Corps and Coast Guard to partner 
in making our Waterway a success. This effort has reaped many benefits. 
We can not sacrifice what has been accomplished by inadequate funding 
levels each year.
    The feasibility study to extend navigation from Shreveport-Bossier 
City, Louisiana into the State of Arkansas is on going. It is 
imperative that you continue funding this important study and 
appropriate the $797,000 required for fiscal year 2002. This region of 
SW Arkansas and NE Texas continues to suffer major unemployment, and 
the navigation project, although not the total solution, will help 
revitalize the economy. The U.S. Fish and Wildlife Service ``Planning 
Aid Report'' indicated minimal impact and most probably an enhancement 
to environmental value.
    This will be a multipurpose project addressing navigation, 
hydropower, bank stabilization and environmental restoration. As we 
experience serious shortages of electric power in parts of our nation 
this project will offer the potential for hydropower generation at each 
of the proposed lock and dams. This is the most efficient, safest and 
environmental friendly source of power generation.
    I want to stress that the local the sponsor, the Arkansas Red River 
Commission, has available their 50 percent cost share to complete this 
feasibility study. Few local sponsors have `funds in the bank' and are 
also willing to conduct additional studies to insure a complete and 
accurate analysis is made. Additionally, the interest rate currently 
being used in the study analysis is 6\3/8\ percent, higher than the 
current prime rate and significantly higher than the rate used for the 
Louisiana waterway, 3\1/4\ percent. We believe the extension of 
navigation into Arkansas should be analyzed at the same rate as used in 
Louisiana and request language in the Appropriations bill to direct 
this change.
    Bank Stabilization.--One of the most important, continuing 
programs, on the Red River is bank stabilization in Arkansas and North 
Louisiana. We must stop the loss of valuable farmland that erodes down 
the river and interferes with the navigation channel. In addition to 
the loss of farmland is the threat to public utilities such as roads, 
electric power lines and bridges; as well as increased dredging cost in 
the navigable waterway. These bank stabilization projects are 
compatible with subsequent navigation and we urge that they be 
continued in those locations designated by the Corps of Engineers to be 
the areas of the worst erosion. We appreciated Congressional funding in 
fiscal year 2001 and request you fund this project at a level of $10 
million.
    It is essential to protect the banks from caving and erosion along 
the Red River from Denison Dam, Texas to Index, Arkansas along the 
Texas/Oklahoma border. The Federal Government constantly encourages its 
farmers to protect their lands against all forms of erosion, so it only 
makes sense to be consistent. We ask that you support a Reconnaissance 
Study to investigate the restoration of wetlands, bottomland hardwoods 
and riparian habitat. Various types of bank stabilization would be 
incorporated to protect these environmental zones and corridors.
    There is a new technique for bank stabilization which should be 
tested as a demonstration project, under the existing authority `Red 
River Waterway'. This new technique, underwater bendway weirs, has 
proven to be less expensive than conventional methods and more 
efficient in controlling the energy of the river as well as providing 
environmental benefits. Over 1,000 acres of prime farmland in Oklahoma 
and Texas is lost each year to river erosion and we must investigate 
all avenues to correct this problem. You funded the initiation of this 
project in fiscal year 1999 and we request you continue that 
initiative, in this appropriation, at a level of $5.5 million.
    Flood Control.--You will recall that in 1990 major areas of 
northeast Texas, Southwest Arkansas and the entire length of the Red 
River in Louisiana were ravaged by the worst flooding to hit the region 
since 1945 and 1957. More than 700,000 acres were flooded with total 
damages estimated at $20.4 million. However, it could have been much 
worse. The Corps of Engineers estimates that without the flood control 
measure authorized by Congress over the past several decades an 
additional 1.3 million acres would have been flooded with an estimated 
$330 million in additional flood damage to agriculture and urban 
developments.
    We continue to consider flood control a major objective and request 
you continue funding the levee rehabilitation projects ongoing in 
Arkansas and Texas. Four of eleven levee sections have been completed 
and brought to federal standards. Appropriations of $4.5 million will 
construct two more levee sections; completing Miller County, AR and 
starting levees in Lafayette County, AR.
    In addition, Bowie County levee, in Texas, is crucial to the 
integrity of the Arkansas levee system. Should the Bowie levee fail 
flood waters will inundate behind the just competed Miller County 
levees in Arkansas. It is important to continue funding this project 
for the `locally preferred' option, according to cost sharing under the 
Flood Control Act of 1946, not withstanding economic justification.
    The levees in Louisiana have been incorporated into the Federal 
system; however, do not meet current construction standards due to 
their age. These levees do not have a gravel surface, on top, 
threatening their integrity during times of flooding. It is essential 
for personnel to traverse the levees during a flood to inspect them for 
problems. Without the gravel surface the vehicles used cause rutting 
and themselves can create conditions for the levees to fail. Gravel 
surfaces will insure inspection personnel can check the levees during 
the saturated conditions of a flood. We propose a three phase, three-
year project to correct this Valley wide problem in Louisiana. The 
first year requires a funding level of $2,200,000 with the total 
project costing $6,433,000.
    Clean Water.--Nearly 3,500 tons of natural salts, primarily sodium 
chloride, enter the upper reaches of the Red River each day, rendering 
downstream waters unusable for most purposes. The Truscott Brine Lake 
project, which is located on the South Fork of the Wichita River in 
King and Knox Counties, Texas became operational in 1987. An 
independent panel of experts found that the project not only continues 
to perform beyond design expectations in providing cleaner water, but 
has an exceptionally favorable cost benefit ratio. In fiscal year 1995 
$16 million dollars was appropriated by the Administration, to 
accelerate engineering design, real estate acquisition and initiate 
construction of the Crowell Brine Dam, Area VII and Area IX. Due to a 
conflict over environmental issues, raised by the U.S. Fish and 
Wildlife Service, completion of the SFEIS was delayed pending further 
study to determine the extent of possible impacts to fish and wildlife, 
their habitats and biological communities along the Red River and Lake 
Texoma. In an effort to resolve these issues and insure that no harmful 
impact to the environment or ecosystems would result, a comprehensive 
environmental and ecological monitoring program was implemented. It 
evaluates the actual impacts of reducing chloride concentrations within 
the Red River watershed. This base line data is crucial to 
understanding the ecosystem of the Red River basin west of Lake Texoma 
and funding for this must continue.
    The Assistant Secretary of the Army (Civil Works), in October 1998 
agreed to support a re-evaluation of the Wichita River Basin tributary 
of the project. Completion of this project will reclaim Lake Kemp as a 
usable water source for the City of Wichita Falls and the region. We 
request appropriations of $2,100,000 to continue this important 
project. The drought experienced in the Red River Valley, these past 
two years, has highlighted the critical need for this usable water 
source, to include irrigation in Arkansas and Louisiana.
    Operation & Maintenance.--We appreciate the support of your 
subcommittee to support navigation to Shreveport/Bossier City which is 
now providing a catalyst to our industrial base, creating jobs and 
providing economic growth. We request that O&M funding levels remain at 
the expressed Corps capability to maintain a safe, reliable and 
efficient transportation system. As experienced three years ago failure 
to maintain a revetment for $500,000, when the problem was first 
identified, resulted in a catastrophic failure of the revetment and 
adjacent levee. This led to an emergency repair of $5 million which 
could have been prevented. In order to operate and maintain the 
existing infrastructure $14,750,000 is required just to address the 
most critical backlog maintenance concerns.
    Full O&M funding levels are not only important for our Waterway 
project but for all our Corps projects and flood control lakes. The 
backlog of critical maintenance only becomes worse and more expensive 
with time. We urge you to appropriate funding to address this serious 
issue at the expressed full Corps capability. Presently there is a $400 
million backlog of critical maintenance at Corps projects throughout 
the nation.
    The Continuing Authorities Program (CAP) has never been fully 
funded to its authorized amount. This has been an outstanding program 
providing small, cost shared projects within our communities. We 
believe this program should be funded at its full authorized amount.
    We are sincerely grateful to you for the past support you have 
given our various projects. We hope that we can count on you again to 
fund our needs and complete the projects started that will help us 
diversify our economy and create the jobs so badly needed by our 
citizens. We have included a summary of our requests for easy 
reference.
    Thank you for the opportunity to present this testimony and project 
details of the Red River Valley Association on behalf of the 
industries, organizations, municipalities and citizens we represent 
throughout the four state Red River Valley region. We believe that any 
federal monies spent on civil work projects are truly investments in 
our future and will return several times the original investment in 
benefits that will accrue back to the federal government.
    I am always available to provide you and your staff additional 
information or clarification on any issue presented.
                         iii. grant disclosure
    The Red River Valley Association has not received any federal 
grant, sub grant or contract during the current fiscal year or either 
of the two previous fiscal years.
                  summary of fiscal year 2002 requests
    NOTE.--Projects are NOT in any order of priority.
I. Studies:
    Red River Navigation, SW Arkansas.--This is a feasibility study 
initiated on March 24, 1999 to investigate the potential to extend 
navigation from Shreveport/Bossier, LA to Index, AR. To date $1,932,000 
has been `reprogrammed' for this study from another Red River study. An 
additional $1,023,000 is required to complete the study by fiscal year 
2003. The study is cost shared 50 percent with the Arkansas Red River 
Commission, the local sponsor, who has their share on hand.
            Total fiscal year 2002 Request--$797,000
    Red River Waterway, Index Arkansas to Denison Dam, TX.--Investigate 
the restoration of natural resources, such as wetlands, bottomland 
hardwoods and riparian habitat along approximately 245 river miles. 
Various types of bank stabilization would be considered to protect 
environmental zones and corridors.
            Total fiscal year 2002 Request $100,000
    Washita River Basin, OK.--Under Public Law 534 NRCS constructed 
approximately 1,100 small Flood control structures in the Washita River 
basin above Lake Texoma. These structures have significantly reduced 
the sediment flow into Lake Texoma; however, they are reaching their 50 
year life expectancy. This study will assist NRCS in determing how to 
extend the life of the structures which have had a great positive 
impact to the water quality, flood storage capacity and ecosystem of 
Lake Texoma.
            Total fiscal year 2002 Request--$100,000
    Southwest Arkansas Study.--Conduct a reconnaissance report in the 
four county area of the Red River/Little River basins. Included would 
be the four Corps lakes; DeQueen, Dierks, Gillham and Millwood. The 
watershed study would evaluate; flooding, irrigation, fish and wildlife 
habitat, water quality, recreation and water releases for navigation. 
The State of Arkansas has expressed an interest in cost sharing the 
feasibility study.
            Total fiscal year 2002 Request--$100,000
    Bois D'Arc Creek, Bonham, TX.--This is a reconnaissance study to 
address the flooding on 16,100 acres on the lower two-thirds of the 
basin. The towns of Whitewright and Bonham are within the basin. A dam 
was determined feasible in the 1960's; however, there was no local 
sponsor. Currently there are local sponsors interested in this project. 
In fiscal year 2001 $200,000 was received to initiate this study. The 
total study cost will be $1,100,000.
            Total fiscal year 2002 Request--$200,000
    Southeast Oklahoma Water Resource Study.--Conduct a reconnaissance 
study to evaluate the water resources in the study area. The study area 
includes the Kiamichi River basin and other tributaries of the Red 
River. A comprehensive plan will be developed to determine how best to 
conserve and utilize this water. In fiscal year 2001 $525,000 was 
received for this study.
            Total fiscal year 2002 Request--$200,000
                              construction
Red River Waterway Project
    J. Bennett Johnston Waterway.--Eight projects will be awarded in 
fiscal year 2001 and need to be completed as well as the initiation of 
six new projects. Upon implementation of the Project Cooperation 
Agreement funds will be used for recreation features, as well as 
continued efforts with mitigation.
            Total fiscal year 2002 Request--$28,770,000
    Index, AR to Denison Dam, TX; Bendway Weir Demo Project.--This 
stretch of the Red River experiences tremendous bank caving. A 
demonstration project using this bendway weir technique is needed to 
determine if this method will work in the Red River. The U.S. Highway 
271 Bridge was selected due to the threat to this infrastructure and 
accessibility for evaluation. The project will include bendways 6 miles 
upstream and 5.5 miles downstream of the bridge. There is great 
environmental enhancement potential with this project.
            Total fiscal year 2002 Request--$5,500,000
    Red River Basin Chloride Control Project.--A reevaluation for the 
Wichita River Basin features has been ongoing using reprogrammed funds. 
The office of the ASA(CW) has supported this and reprogrammed funds in 
fiscal year 2001. In addition to the reevaluation and NEPA process, 
environmental monitoring activities will continue.
            Total fiscal year 2002 Request--$2,100,000
Red River Below Denison Dam Levees & Bank Stabilization
    Levee Rehabilitation, AR.--Funds are required to complete 
construction of Levee Item #5 initiated in fiscal year 2000; initiate 
construction of the next Levee Item and initiate design for the follow 
on Levee Item. Design and initiate construction of Dillard Revetment 
downstream extension. An Incorporation Report must be accomplished for 
Twelve Mile Bayou Levee, Caddo Parish, LA as directed by WRDA 99.
            Total fiscal year 2002 Request--$4,500,000
    Bowie County Levee, TX.--The local sponsor wants the `locally 
preferred option' authorized for construction. In fiscal year 2001 
$900,000 was appropriated to initiate this project. The local sponsor 
is willing to execute a PCA and initiate real estate activities in 
fiscal year 2002.
            Total fiscal year 2002 Request--$100,000
    Upgrade Levees, LA.--Approximately 220 miles of levees in Louisiana 
do not have gravel surfaces on top of the levee, so do not meet federal 
standard. These levees are in the federal system and must be upgraded. 
This surface is required for safe inspections of the levees during 
flood fights and to maintain the integrity of the levee. The total 
project can be completed in three phases over three years.
            Total fiscal year 2002 Request--$2,200,000
    Red River Emergency Bank Protection, Arkansas.--Funds are required 
to complete construction of Hunter's Island Revetment initiated in 
fiscal year 2000; award contracts for Pleasant Valley and Bois D'Arc 
Revetments and complete the design for Dickson Revetment.
            Total fiscal year 2002 Request--$10,000,000
    Little River County (Ogden Levee), AR.--A Reconnaissance report in 
1991 determined that flood control levees were justified along Little 
River. The project sponsor, Arkansas Soil and Water Conservation 
Commission requests that the project proceed directly to PED, without a 
cost shared feasibility study. We request language and funding to 
accomplish this.
            Total fiscal year 2002 Request--$200,000
    McKinney Bayou.--The Reconnaissance Report showed a favorable 
project to clear and reshape this drainage canal. Presently, the local 
sponsor is unable to cost share continuation of this project due to the 
extremely high cost of mitigation.
            Total fiscal year 2002 Request--0
    Valley Watershed (Section 1135).--The main focus of this study is 
within the City of Jefferson, Texas. Informal coordination with 
Jefferson has showed their continued support and intent to participate. 
Their total share is estimated to be $601,600 with annual O&M costs of 
approximately $21,000. In fiscal year 2001 $120,000 was appropriated to 
initiate this project.
            Total fiscal year 2002 Request--$110,000
    Millwood Lake, Grassy Lake, AR (Section 1135).--An environmental 
restoration project of 15,000 acres of wetlands located downstream from 
Millwood Dam. The Dam interrupted the flow to these wetlands and this 
project would be a water delivery system to include restoring flow to a 
400-acre pristine wetland area. It is private land; however, there is a 
national interest for migratory birds. A potential sponsor is the 
Arkansas Soil & Water Conservation Commission.
            Total fiscal year 2002 Request--$300,000
    East/West Burns Run Public Use Area, Park Modernization, Lake 
Texoma, OK.--Modernization of these facilities will bring them up to 
standards to serve the volume of users experienced each year. The Lake 
Texoma region economy depends mostly on recreation. This facility will 
ensure continued success, but also increase the economic potential for 
the area.
            Total fiscal year 2002 Request--$4,600,000
                      iii. operation & maintenance
    Red River Waterway.--The President's budget is usually only 
sufficient to operate and perform preventive maintenance. There are 
major, unfunded backlog maintenance items that must be done. These 
items include inspection and certification of lock & dam stop logs, 
repairs to tainter gate diagonal bracing and revetment repairs.
            Total fiscal year 2002 Request--$14,750,000
    Lake Texoma (Denison Dam), TX and OK Reallocation Study and NEPA 
Documentation.--The severe drought experienced these past 2 years has 
increased the need for additional water supply. Public Law 99-662, 
Section 838, granted authority to reallocate up to an additional 
300,000 acre feet of hydropower storage to water supply, 150,000 acre-
feet for Texas and 150,000 acre feet for Oklahoma. This reallocation is 
needed and we request the impact study be funded. The total study cost 
is $750,000.
            Total fiscal year 2002 Request--$750,000
    We support that O&M at all projects be funded at the full Corps 
capability
                                 ______
                                 

        Prepared Statement of the Red River Waterway Commission

    On behalf of the citizens of the Red River Waterway District of 
Louisiana, the Red River Waterway Commission urges the Congress of the 
United States to allocate the funds necessary for fiscal year 2002 for 
Red River Waterway Project. Adequate funding will allow continued 
construction progress toward actual project completion,stimulate 
continued growth in tonnage movement, encourage the continuation of 
private and public development as well as facilitate total reliability 
in project function for industrial and recreational development. While 
this project is still in its infancy stage, the infrastructure 
investment has been justified by commercial and recreational 
development along the Red River and intermodal transportation cost 
savings because of water induced rates resulting from the project.
    Tonnage volumes continue to steadily increase and cargo 
classifications diversify providing numerous business opportunities for 
this region. Further development will continue to take place with the 
knowledge that users can rely on an efficient, functional and user 
friendly river system.
    Construction on Red River is over 90 percent complete, however, it 
is vitally important that we understand the importance of steady 
progress toward project completion with full knowledge of the financial 
constraints this country, the President and the Congress are wrestling 
with during the budget process.
            areas of need for the red river waterway project
    --Navigation Structures (Revetments and Dikes).--The completion of 
these structures is necessary to maintain the channel alignment so as 
to provide reliable navigation to the commercial users. In addition, 
the structures help insure that barges can be loaded to the maximum 
depths allowable for profitable operation and continued industrial 
growth.
    Recreation Development.--Design and Construction in Pools 3, 4 and 
5 has begun with important developments such as the Shreveport 
Riverview project, Teague Parkway Trails in Bossier City, Colfax 
Recreation Area and Natchitoches Recreation Area establishing an 
excellent recreation foundation with more projects in the preliminary 
design stages.
    Operations & Maintenance Program.--Channel Maintenance (Dredging) 
is critical to the viability of the waterway system. The Corps of 
Engineers needs sufficient resources to adequately maintain the 
navigation channel to provide dependable and reliable depths so that 
barges moving on the system can be loaded to the maximum nine foot 
draft. Maintenance of existing navigation structures at strategic 
locations is vital for continued development. The backlog of 
maintenance items at the lock & dam structures could be devastating to 
the nation's investment in the navigation system.
    Construction/Maintenance Program.--The Corps of Engineers needs 
resources available to react quickly to landowner bank caving 
complaints that are a result of the project and are fully justified.
    Aids to Navigation.--As commercial use continues to increase, the 
Coast Guard presence and resources must reflect a similar growth to 
adequately maintain the buoy system on the Red River and stimulate 
confidence in the river system.
    Mitigation and Bendway Dredging.--Continue with land acquisition 
and developmental cost analysis associated with the mitigation portion 
of the project to enhance the bottomland hardwood acreage within the 
Red River Valley area of Louisiana. Continue the bendway dredging 
operations to maintain the backwater connection to the channel of Red 
River for ingress and egress of nutrient rich river water and numerous 
species of freshwater fish.

        Prepared Statement of the Caddo/Bossier Port Commission

    On behalf of the citizens of Northwest Louisiana, the Caddo-Bossier 
Parishes Port Commission respectfully urges the Congress of the United 
States to allocate in the fiscal year 2002 Budget the necessary funding 
to keep America's water resources infrastructure functioning as a major 
contributor to the nation's wealth and prosperity, including monies to 
ensure safe and reliable Red River navigation.
    Unfortunately, the proposed budget decreases funding for the Corps 
of Engineers' civil works program some 14 percent, a cutback more 
severe than for any other Federal agency. Compounded by the fact that 
the Corps of Engineers' budget over the last five years has not even 
kept pace with inflation, the nation's water resource needs are being 
postponed. Projects will cost more, realization of project benefits 
will be delayed, for a final result of costing the nation hundreds of 
million of dollars.
    Our commerce, international trade, environmental and national 
defense needs must not be shortchanged. Our water highways are national 
assets. Their ports' activities link every community in our nation to 
the world. The Port of Shreveport-Bossier, owned and operated by the 
Caddo-Bossier Parishes Port Commission, as part of this waterways 
network links the Ark-La-Tex by way of the Red River with the vast 
midcontinent and coastal and Great Lakes ports.
    The Port of Shreveport-Bossier is one of the newest ports in this 
network, having been in regular operation only since 1997. We are proud 
of its evolution, the impact it is having on the communities it serves, 
and the speed with which the Commission's goals of providing water 
transportation and economic development are progressing. Last spring, 
in only three years, the One Millionth Ton of Cargo milestone was 
achieved, a timetable far ahead of many acknowledged successful inland 
ports. And just as importantly, the Port is prompting jobs and dollar 
investment. Omni Specialty Packaging and Omni Terminal Systems, the 
Port's newest tenants, began operation in 2000 and by year's end 
exceeded employment and production projections. These companies joined 
Oakley Louisiana, Red River Terminals, Arch Chemicals and U.S. Liquids 
at the 2,000 acre Port complex.
    Adequate Federal investment in civil works programs is crucial to 
America's economic and environmental well being. Such investment for 
the Red River must ensure an efficient transportation system, thereby 
assuring local citizens and private business that their investments in 
the Port are not only worthwhile today but will be a sound and ongoing 
investment in the future economic growth of the Ark-La-Tex.
                                 ______
                                 

              Prepared Statement of the Port of San Diego

    The following testimony is provided by the San Diego Unified Port 
District, which represents the California cities of Chula Vista, 
Coronado, Imperial Beach, National City and San Diego, to obtain 
support from the Senate Energy and Water Development Subcommittee to 
include $4,000,000 of funds under Section 107 of the 1960 River and 
Harbor Act, as amended (continuing authority program) to complete plans 
and specifications and to construct the deepening project for San Diego 
Harbor.
    The Port District has previously entered into a 50/50 Cost Sharing 
Agreement with the Corps for a Feasibility Study to deepen San Diego 
Harbor and is willing and able to enter into a similar Cost Sharing 
Agreement for completion of plans and specifications and construction 
of the project.
    The San Diego Unified Port District operates and maintains two 
marine terminals and engages in other maritime related business and 
economic activities. These economic activities result in regionally 
significant fiscal impacts including: economic output, high value 
employment and associated payroll taxes, and federal revenue in the 
form of income taxes, as well as various duties and trust fund 
contributions.
    An independent economic and fiscal impact study of the Port of San 
Diego was conducted in 1999 by SourcePoint. The study revealed the 
following regional economic impacts:

Maritime Commerce Regional Economic Impacts

                                                             1998 Impact
Employment:
    Direct Jobs \1\.....................................             917
    Total Jobs..........................................           1,818
Employee Payroll:
    Direct Payroll......................................     $28,955,000
    Total Payroll.......................................      53,016,000
Output (Business Sales):
    Direct Output.......................................     102,659,000
    Total Output........................................     182,019,000

    \1\ Includes 471 maritime jobs on the tidelands and 446 
construction related jobs.

    Source: SourcePoint, using IMPLAN, an input-output model for the 
San Diego region.

    A timely and unique opportunity has presented itself to the Port 
District. The U.S. Navy has completed a major channel deepening project 
to accommodate its nuclear aircraft carriers. The Navy's dredging 
project deepens the existing channel to about -50 feet, all the way 
from the ocean to the carrier turning basin, approximately seven miles. 
It is only an additional two miles to the Port District's 10th Avenue 
Marine Terminal. The Port District perceives this as a ``partnering'' 
opportunity between the Navy, Corps of Engineers, Port District and 
private sector interests to lower maritime shipping costs at the Port 
of San Diego.
    The Port District is committed to working with the Corps of 
Engineers and the maritime industry to maintain and enhance our ability 
to contribute to the region's economic stability by providing the 
physical infrastructure needed to provide competitively priced maritime 
shipping opportunities. To that end, the Port District has commenced 
several strategic initiatives, including:
  --$16,000,000 to repair berths at the 10th Avenue Marine Terminal 
        (completed in 1997)
  --$30,000,000 landside and railroad improvements at the National City 
        Marine Terminal, in partnership with the BNSF Railroad 
        (completed in 1997)
  --$27,000,000 to extend and expand the wharf at the National City 
        Marine Terminal (preliminary design completed in 1998), and
  --the commitment to cost share with the Corps of Engineers the cost 
        of deepening the federal navigation channel to the 10th Avenue 
        and National City Marine Terminals.
    The draft Feasibility Study, currently under review by the Corps of 
Engineers and Port District, indicates a positive federal interest in 
the deepening of San Diego Harbor. The Port is uniquely positioned to 
competitively serve new and existing maritime shipping needs between 
the Pacific Rim and the southwestern United States. However, the 
current channel depth prevents full realization of federal and regional 
benefits.
    In conclusion, the San Diego Unified Port District requests your 
support to include $4,000,000 in the Corps of Engineers continuing 
authority programs for the deepening of San Diego Harbor. The Port 
District and its maritime partners have made, and will continue to 
make, significant financial investments in the landside infrastructure. 
We request only that the Corps of Engineers be provided the financial 
resources to modify the federal navigation channel so that potential 
shipping cost reductions can be realized. With seven miles of the 
federal channel already deepened by the Navy, it only makes economic 
sense to extend the deepening to the marine terminal so that 
nonmilitary benefits can also be realized.
                                 ______
                                 

Prepared Statement of the Missouri River Bank Stabilization Association

    The Missouri River Bank Stabilization Association and its members 
thank you for the opportunity to present this statement, including a 
budget request, relative to the budget for fiscal year 2002.
    This statement concerns and is focused on the Missouri National 
Recreational River project which received Congressional authorization 
in 1978 per Section 707 of Public Law 95-625. The Association's budget 
request for fiscal year 2002 is $325,000.00, an amount to be used for 
these purposes:
  --The operation, maintenance and repair of streambank protection 
        structures constructed prior to 1978 under the authority of 
        Section 32 of the Streambank Erosion Control and Demonstration 
        Act;
  --Repair or replace structures which fell victim to the record flows 
        (about double normal) of 1997;
  --Improve user access to the river in the lower reaches of the 
        project, particularly on the South Dakota side of the river;
  --The acquisition from landowners of shore line easements to protect 
        existing (but disappearing) wildlife habitat and to increase or 
        restore such habitat in areas where it has disappeared or needs 
        augmentation;
  --Providing streambank protection, where needed, as needed, for the 
        river's ``high banks'', i.e. at the meander line;
  --For the acquisition or protection of the river's scenic attributes 
        as envisioned by this legislation;
  --Such other needs as may be required to achieve the congressional 
        purposes relative to this reach of the Missouri.
    This project pertains to the some fifty-nine mile reach of the 
Missouri River extending downward from near the Gavins Point Dam, circa 
River Mile 811, near Yankton, South Dakota, to the Ponca State Park, 
circa River Mile 752, near Ponca, Nebraska. This reach of the Missouri 
is the only relatively natural reach of the river lying downstream of 
the ``main stem'' dams. Channelization was never extended upstream of 
Ponca. While some limited, isolated bank protection structures do exist 
along this reach, the river for the most part retains its natural 
characteristics. These include caving banks, shifting sandbars, some 
islands, a profusion of snags, frequent shifting of the channel, sudden 
changes in depth, timbered bluffs and limited access. Wildlife found 
here includes beavers, raccoons, coyotes, muskrats, deer and mink. A 
profusion of birds is found here; spring and fall bring a spectacular 
array of ducks, geese and other migratory birds. As we have noted 
before, the business of the Missouri River is to move the Rocky 
Mountains to the Gulf of Mexico. Erosion is a major tool the river 
employs in this process. Consequently, its shorelines are under 
endless, relentless assault. The mostly sandy soils which characterizes 
its bank in this reach are easily eroded, and erode they do.
    Intensive and extensive erosion, of course, has always been one of 
the Missouri's defining characteristics; it is a natural process. 
Unfortunately, this natural process has been significantly altered by 
the construction of the river's ``main stem'' dams. The principal 
purpose of these dams was flood-control. In this reach that aim has 
been achieved; the natural flooding, often over-the-banks flooding, has 
been eliminated. Termination of such flooding, however, has also 
terminated the natural process of land restoration. Thus, erosion 
continues but no longer is it offset by accretion. Exacerbating this 
problem is the fact that erosion has actually been increased because 
the now relatively clear water discharged through the dams has a 
greater sediment-carrying capacity. Thus, the river has an even more 
rapacious appetite for its shorelines. Where once riparian landowners 
had a fifty-fifty chance of regaining land lost to the river, they, 
instead, now have a one hundred percent chance of losing it. Protection 
from such losses is needed now.
    Congress authorized some $21,000,000.00 for this project; about 
$2,000,000.00 has been spent. The recently adopted management plan 
contains a variety of proposals aimed at facilitating public enjoyment 
of this treasured reach of the Missouri. Central among these proposals 
is preservation and protection of those attributes of this reach which 
prompted congressional designation as a recreational river. Indeed, the 
enabling legislation specifically provides for streambank protection. 
It is an inalterable fact that without such protection many of the very 
features of this river, which Congress sought to protect, will simply 
disappear. For example, the erosion of the timbered shoreline, circa 
River Mile 777.8R, is proceeding unchecked. Magnificent old cottonwoods 
litter the river there, and their denuded skeletons scattered 
downstream are grim evidence of the river's voracious appetite. 
Irreparable damage has occurred. . . and continues to occur. The 
current management plan is ominously vague with respect to protecting 
the core of characteristics the plan ostensibly was designed to 
protect.
    A further assault on the aim of this project and the riparian 
landowners is the proposal by the U. S. Fish and Wildlife Service to 
change drastically the flow regimen currently in effect. The proposed 
``spring flood'' will inevitably further exacerbate the erosion 
problem. Indeed, the Fish and Wildlife proposal is intended to increase 
erosion! Those responsible for this ludicrous proposal exhibit not the 
least concern for those to be affected by their proposal. In short, 
that proposal is clearly an intentional destruction of property . . . a 
crime in both South Dakota and Nebraska.
    As the bicentennial of the Lewis and Clark Expedition nears, public 
interest in the expedition continues to build. The reach of river we 
are here concerned with is already attracting considerable attention by 
a variety of Lewis and Clark fans and others interested in, or curious 
about the expedition. To accommodate those interested, public access 
should be increased, signage added, and some additional viewing sites 
(``overlooks'') provided. Obviously, such measures will be of little 
value unless the ``wild Missouri'' the visitors seek, is preserved and 
protected.
    The Congress from the start has favored this project. The 
Association surely appreciates that interest and support, and we thank 
the Congress for such. Likewise, appreciative are the hunters, 
fishermen, boatsmen, and a wide range of others who love this remnant 
of the ``wild Missouri'' of old.
                                 ______
                                 

  Prepared Statement of the Riverside County Flood Control and Water 
                         Conservation District

        Project                                                  Request
Murrieta Creek Flood Control Project/Preconstruction 
    Engineering & Design................................      $1,000,000
Murrieta Creek Flood Control Project/Construction 
    General.............................................       1,500,000
Lake Elsinore-Gunnerson Pond/Section 1135, Environmental 
    Restoration.........................................       1,745,000
San Jacinto River/Feasibility Study--Flood Control......         300,000
Santa Ana River--Mainstem/Construction General..........      40,000,000
Prado Dam/Construction General..........................      16,000,000
San Jacinto & Santa Margarita River Watersheds Special 
    Area Management Plan (SAMP)/General Investigations..       2,000,000
              murrieta creek channel flood control project
    Murrieta Creek poses a severe flood threat to the cities of 
Murrieta and Temecula. Over $10 million in damages was experienced in 
the two cities as a result of Murrieta Creek flooding in 1993. The 1997 
Energy and Water Appropriations Act dedicated $100,000 to conducting a 
Reconnaissance Study of watershed management in the Santa Margarita 
Watershed ``including flood control, environmental restoration, 
stormwater retention, water conservation and supply, and related 
purposes''. The study effort was initiated in April 1997 and completed 
the following December. The Reconnaissance Study identified a Federal 
interest in flood control on the Murrieta sub-basin, and recommended 
moving forward with a detailed feasibility study for a flood control 
project on Murrieta Creek.
    Efforts on the Feasibility Study began in April 1998, and were 
completed in September 2000. The Feasibility Study Report recommends 
the implementation of Alternative 6, the Locally Preferred Plan (LPP) 
for flood control, environmental restoration, and recreation. The LPP 
is endorsed by the Cities of Temecula and Murrieta, and by the 
community as a whole.
    H.R. 5483, the Energy and Water Appropriations Act of 2000 includes 
specific language authorizing the Corps to construct ``the locally 
preferred plan for flood control, environmental restoration and 
recreation described as Alternative 6, based on the Murrieta Creek 
Feasibility Report and Environmental Impact Statement dated September 
2000.'' The project is now set to move into the design phase.
    After finalizing the necessary cost sharing agreement in February 
2001, the Corps is now initiating the detailed engineering design 
necessary to develop construction plans and specifications for a 
Murrieta Creek Flood Control Project utilizing a fiscal year 2001 
appropriation of $750,000. The District, therefore, respectfully 
requests that the Committee support a fiscal year 2002 appropriation of 
$1,000,000 so that the Corps may continue with the Preconstruction 
Engineering and Design phase for the Murrieta Creek Flood Control 
Project.
    The Murrieta Creek Flood Control Project was authorized by Congress 
on October 27, 2000. Current schedules show the detailed engineering 
design phase of the project being completed in 18-24 months. The Corps 
anticipates that in fiscal year 2002, a significant portion of its 
design effort will be completed for the downstream reach of the project 
through Old Town Temecula, and that an element or feature of the 
project will be ready for construction. The District, therefore, 
respectfully requests the Committee's support of a $1,500,000 
appropriation in fiscal year 2002 so that the Corps may pursue 
construction start for the much awaited Murrieta Creek Flood Control, 
Environmental Restoration, and Recreation Project.
            gunnerson pond environmental restoration project
    Gunnerson Pond is a Section 1135 environmental restoration project 
that will restore approximately 60 acres of degraded riparian and 
woodland area adjacent to the Lake Elsinore Outlet Channel, a Section 
205 project in the city of Lake Elsinore, completed in 1994. The 
project would enable both floodwater from Lake Elsinore and discharge 
from a nearby wastewater treatment plant to flow into Gunnerson Pond, 
thereby creating a permanent wetland. Such a wetland would serve to 
enhance and develop waterfowl habitat, endangered species habitat, 
emergent wetlands vegetation, and riparian vegetation.
    The Reconnaissance phase of the project was completed with the 
approval, in July of 1996, of the Project Restoration Plan at the 
Washington level of the Corps. In fiscal year 1998 the project received 
a Federal appropriation to fully fund the Feasibility Study, and to 
initiate engineering design for the project. The Feasibility phase 
(Project Modification Report) of the project was completed in April of 
1998. In fiscal year 1999 the District sought a Federal appropriation 
for Gunnerson Pond from available Section 1135 funds to provide the 
funding necessary to complete final plans and specifications and to 
partially fund construction. In fiscal year 2001 the project received a 
Federal appropriation for $1,400,000, the balance estimated to fully 
fund the construction of the project. The Corps completed its design in 
June, advertised for construction bids in August, awarded a contract 
for construction in September, and initiated construction in October of 
2000. The Corps anticipates that construction of Gunnerson Pond, the 
Corps Los Angeles District's first Section 1135 project, will be 
completed in April 2001.
    The Gunnerson Pond project encountered higher than anticipated real 
estate and utility relocation costs, as well as costs resulting from 
project modifications made to accommodate various resource agencies. 
These cost increases drove the Corps share of the overall cost of the 
project up to the Section 1135 Program ``cap'' of $5 million. The 
District, therefore, respectfully requests the Committee's support of a 
fiscal year 2002 appropriation of $1,745,000 in order to fully fund the 
Federal government's share ($5 million) of the overall project.
                           san jacinto river
    The 730 square mile San Jacinto River watershed drains into Lake 
Elsinore in western Riverside County. The San Jacinto River originates 
in the San Jacinto Mountains and passes through the cities of San 
Jacinto, Perris, Canyon Lake and Lake Elsinore. The only major flood 
control structures on the river are levees in the city of San Jacinto 
built by the Corps in the early 1960's. In the 30-mile reach of the 
river between Lake Elsinore and the city of San Jacinto, only minor 
channelization exists as the river is characterized by expansive 
overflow areas including the Mystic Lake area.
    Flooding from the river has caused major damage to agricultural 
areas and rendered Interstate 215 and several local arterial 
transportation routes impassable. The river is, however, an important 
resource that provides water supply, wildlife habitat, drainage and 
recreational values to the region. The fiscal year 2000 Energy and 
Water Appropriations Act dedicated $100,000 to conducting a 
Reconnaissance Study of watershed management in the San Jacinto River 
Watershed ``including flood control, environmental restoration, 
stormwater retention, water conservation and supply, and related 
purposes''. The study effort was initiated in March 2000 and completed 
in September. The Expedited Reconnaissance Study 905(b) Report 
identified a Federal interest in flood control on the San Jacinto 
River, and has tentatively recommended moving forward with a detailed 
Feasibility Study for a flood control project, but with some concern 
about the economic justification for the project.
    The Administration's fiscal year 2001 budget included an 
appropriation of $225,000 to move into a Feasibility Study for a flood 
control project along the San Jacinto River. The District respectfully 
requests the Committee's support of a $300,000 appropriation in fiscal 
year 2002 so that the Corps may continue its work effort on the San 
Jacinto River Feasibility Study.
                       santa ana river--mainstem
    The Water Resources Development Act of 1986 (Public Law 99-662) 
authorized the Santa Ana River-All River project that includes 
improvements and various mitigation features as set forth in the Chief 
of Engineers' Report to the Secretary of the Army. The Boards of 
Supervisors of Orange, Riverside, and San Bernardino Counties continue 
to support this critical project as stated in past resolutions to 
Congress.
    The three local sponsors and the Corps signed the Local Cooperation 
Agreement (LCA) in December 1989. The first of five construction 
contracts started on the Seven Oaks Dam feature in the spring of 1990 
and the dam was officially completed on November 15, 1999. A dedication 
ceremony was held on January 7, 2000. Significant construction has been 
completed on the lower Santa Ana River Channel and on the San Timoteo 
Creek Channel. Construction activities on Oak Street Drain and the Mill 
Creek Levee have been completed.
    For fiscal year 2002, an appropriation of $10 million is necessary 
to complete all engineering design and to construct several features 
within ``Reach 9'' of the Santa Ana River immediately downstream of 
Prado Dam. This section of streambed would receive localized levee and 
slope revetment treatment to protect existing development along its 
southerly bank. The landscaping of Reaches 4 and 8 of the Santa Ana 
River Channel would require an $8 million appropriation. The removal of 
accumulated sediment within an already completed section of the Santa 
Ana River Channel near its outlet to the Pacific Ocean will necessitate 
a fiscal year 2002 appropriation of $5 million. This dredging work is 
necessary before project turnover to the Local Sponsors for operation 
and maintenance. Phase 3 of San Timoteo Creek Channel, a Mainstem 
feature located within San Bernardino County, would see its final 
engineering effort, as well as a construction start with an additional 
$17 million appropriation.
    The Prado Dam feature of the Santa Ana River Mainstem project 
continues to edge closer to a construction start. Engineering design 
for the dam embankment and outlet works is complete. Design contracts 
are underway for the balance of engineering work necessary before 
construction. A fiscal year 2002 appropriation of $16 million would 
allow the Corps to complete all of its design efforts on the Prado Dam 
project, and to initiate construction on Prado Dam's outlet works and 
embankment. We, therefore, respectfully request that the Committee 
support an overall $56 million appropriation of Federal funding for 
fiscal year 2002 for the Santa Ana River Mainstem project including 
Prado Dam.
san jacinto & santa margarita river watersheds special area management 
                                 plans
    The County of Riverside recognizes the interdependence between the 
region's future transportation, habitat, open space, and land-use/
housing needs. In 1999, work was initiated on Riverside County's 
Integrated Planning program (RCIP) to determine how best to balance 
these factors. The plan will create regional conservation and 
development plans that protect entire communities of native plants and 
animals while streamlining the process for compatible economic 
development in other areas. The major elements of the plan include 
water resource identification, multi-species planning, land use, and 
transportation.
    Water resources are the critical element of any regional planning 
effort. The County of Riverside has, therefore, requested that the 
Corps initiate work on what are termed Special Area Management Plans 
(SAMP) for both the San Jacinto and Santa Margarita Watersheds to 
qualitatively identify existing and future water resources requirements 
in each area. The Corps' effort will include facilitating meetings 
between all potential watershed partners, and the integration of the 
joint study effort with the planning efforts of the balance of the RCIP 
project. The $500,000 Federal appropriation received for fiscal year 
2001 allowed the Corps to initiate work on this three year, $6.5 
million project. We, therefore, respectfully request that the Committee 
support a combined $2,000,000 appropriation of Federal funding for 
fiscal year 2002 for the Corps to continue the work on the Special Area 
Management Plans for the San Jacinto and Santa Margarita River 
Watersheds.
                                 ______
                                 

       Prepared Statement of the Eastern Municipal Water District

    The Eastern Municipal Water District respectfully requests your 
support for inclusion of $5 million in the fiscal year 2002 Energy and 
Water Appropriations bill for the District's ``Water Supply 
Desalination Infrastructure South Perris Project'' as well as for 
inclusion in the same bill, $1 million for the District's ``Regional 
Water Related Infrastructure Project''.
    The South Perris project was authorized for design and construction 
as part of the U.S. Army Corps of Engineers' Water Resources management 
Act projects, that were included in H.R. 4577, Section 108, Subsection 
(d), item number 52 for the amount of $25,000,000. The Regional Water 
Related Infrastructure project was authorized for preliminary 
engineering, feasibility studies and environmental documentation as 
part of H.R. 4577, Section 108, Subsection (a), item number 24.
    These two projects are important components to the overall plan of 
the District to address increasing needs as a result of concerns over 
the future availability of imported water supplies from Northern 
California and the Colorado River. I have attached fact sheets and maps 
for each of these projects.
    In addition, we would strongly request that you support efforts to 
increase the overall budget of the Bureau of Reclamation. The Bureau's 
Budget has been cut 36 percent from fiscal year 1991 to fiscal year 
2000. This is the primary Federal agency that we have relied upon in 
the past for funding our infrastructure needs and would like to use to 
fund future authorizations. We know the Bureau of Reclamation has a $5 
billion backlog of work. That work, as well as any new authorizations 
in this congress will not be addressed in a timely manner if the Bureau 
continues to be cut and underfunded. We support the western water 
industry's campaign to increase the Bureau's Water and Related 
Resources Budget over a five year period from its present $648 million 
to $1 billion.
    On behalf of the Board of Directors of Eastern Municipal Water 
District and the General Manager, I want to thank you for your 
consideration of our request for assistance.
                water resources development act project
Name of Project
    ``Regional Water Related Infrastructure Project,'' Eastern 
Municipal Water District, Perris California
Authorization
    HR 4577, Section 108, Subsection (a), Item no. 24--Eastern 
Municipal Water District, California
Location, Description, and Representation
    This project is located in Riverside County, California, north of 
the San Diego County line, east of the City of Riverside and west of 
the San Jacinto Mountains. The project will consist of preliminary 
engineering investigations, design, and environmental documentation for 
over 30 miles of nonreclaimable waste pipelines, and pumping plants 
required to manage high salinity wastes and brines resulting from 
industrial processes and water supply desalination. Representation for 
the State of California includes: CA-43--Rep. Ken Calvert (R); CA-44-
Rep. Mary Bono (R); CA-48 Rep. Darrell Isa (R); and Senators Dianne 
Feinstein (D); Barbara Boxer (D).
Project Purpose
    In response to increasing concerns over the future availability of 
imported water supplies from Northern California and the Colorado 
River, the Eastern Municipal Water District is aggressively 
implementing programs to recycle treated wastewater and desalinate 
local brackish groundwater supplies. These programs will require major 
investment in the pipelines and pump stations that will be necessary to 
manage the high-salinity wastes and brines resulting in desalination 
and industrial processes. The availability of non-reclaimable waste 
disposal facilities (brine lines) will ensure the quality of future 
recycled water supplies, advance the District's desalination program, 
and increase the District's ability to manage salinity in local 
groundwater basins. Additionally, these facilities will allow the 
communities served by the District to compete for industrial 
development which previously could not be accommodated because of the 
lack of cost-effective options for the disposal of high-salinity 
wastes.
    This project will reduce the District's demand on imported water, 
directly supporting the goals of the CalFed program while providing 
direct economic benefits to the communities served by the District.
    ``Regional Water Related Infrastructure Project,'' Eastern 
Municipal Water District, Perris California

Total project cost............................................$5,000,000
    Federal share............................................. 4,000,000
    Local share............................................... 1,000,000
    Fiscal year 2002: Request................................. 1,000,000
Name of Project
    ``Water Supply Desallnation Infrastructure South Perris Project,'' 
Eastern Municipal Water District, Penis, California
Authorization
    HR 4577, Section 108, Subsection (d), Item no. 52--South Penis, 
California
Location, Description, and Representation
    This project is located in Riverside County, California, north of 
the San Diego County line, east of the City of Riverside and west of 
the San Jacinto Mountains. The project will design and construct a 
reverse osmosis desalination plant, wells, pipelines and brine 
management pipelines required for the phased implementation of the 
Perris Basins Desalination Program, providing a reliable potable water 
supply and preserving existing groundwater resources. Representation 
for the State of California includes: CA-43--Rep. Ken Calvert (R); CA-
44-Rep. Mary Bono (R); CA-48--Rep. Darrell Isa (R); and Senators Dianne 
Feinstein (D); Barbara Boxer (D).
Project Purpose
    Substantial portions of the Eastern Municipal Water District 
overlie groundwater basins (Penis Basins) where the salt content (TDS) 
of the groundwater is over 1,500 mg/L, making the water unusable for 
potable or agricultural uses. In these areas, groundwater levels are 
rising and saline water is spreading into adjacent high-quality basins, 
resulting in the loss of local water supplies.
    Over the last 7 years, the District has extensively studied local 
groundwater conditions and developed a conceptual desalination plan for 
the Penis basins. The first phase of this plan, construction of the 
Menifee Desalter, is currently underway. The District plan calls for 
the phased construction of 2 additional desalters plus associated 
extraction wells, feedwater pipelines and brine lines. When completed, 
the Perris Basin Desalination program will produce over 12,000 AF/YR of 
potable water from an otherwise unusable resource. Strategically 
located wells will pump salty groundwater to the desalter thereby 
controlling water levels and preventing the degradation of neighboring 
basins. The resulting brine waste will be disposed through a regional 
non-reclaimable waste disposal system (brine line network). 
Additionally, the desalter will provide the District with the ability 
to provide regulatory salinity offsets which will be required to 
maximize the use of recycled water within our service area.
    ``Water Supply Desalination Infrastructure South Perris Project,'' 
Eastern Municipal Water District, Penis, California

Total Estimate Project Cost.............................     $46,250,000
    Federal share.......................................      25,000,000
    Local share.........................................      21,250,000
    Fiscal year 2002: Request...........................       5,000,000
                    perris south desalination program
                               background
    Brackish groundwater (TDS 1,000--3,000 mg/L) levels are rising in 
the Perris South and Menifee subbasins--Cause: changed land uses and 
decreased agricultural pumping.
    Brackish groundwater is flowing into the Lakeview subbasin (TDS 500 
mg/L) threatening agricultural and municipal supplies--Cause: over-
pumping in Lakeview and rising groundwater in Perris South.
    Southern California agencies are being asked to develop local 
supplies as a means of decreasing demand on the Sacramento Bay Delta.
    EMWD extensive water recycling program requires long-term salinity 
management and control of salt discharged to sanitary sewers (no 
industrial wastewater).
                              the program
    The Perris South Desalination Program will consist of the phased 
construction of 3 desalters (4,000 AF production each) and the wells 
and pipelines required for feedwater and brine management.
  --Menifee.--Currently under construction, the Menifee desalter and 
        non-reclaimable waste pipeline provide the core facilities 
        required for future expansion of the program.
  --Perris South Desalter--Phase I.--Provides an additional 4,000 AF/YR 
        of product and will extend core brine management facilities 
        towards Moreno Valley.
  --Perris South Desalter Phase II.--Will construct the final desalter 
        and well fields.
  --Moreno Valley and Temecula Valley Brine Lines.--Will extend the 
        core brine management facilities providing a network of brine 
        lines allowing for full management of industrial and other non-
        reclaimable waste.
                                benefits
    Provides 12,000 AF/YR of local water supply reducing demands on the 
Bay-Delta (CaIFed goal).
    Preserves the agricultural and municipal water of the Lakeview 
subbasin by controlling rising groundwater and reversing the hydraulic 
gradient into Lakeview.
    Protects the District's water recycling program from the impacts of 
high salinity wastes.
    Improves the ability of local communities to compete for high tech 
industries by providing cost-effective disposal of non-reclaimable 
waste.
    Creates a salinity offset which will allow recycled water to be 
used in subbasins where regulatory objectives limit water recycling.
                                 ______
                                 

    Prepared Statement of the International Association of Fish and 
                           Wildlife Agencies

                      u.s. army corps of engineers
    The fiscal year 2002 budget proposal for Civil Works Appropriations 
of the U.S. Army Corps of Engineers is $3.9 billion. In addition the 
program will include $315 million in non-federal contributions and 
trust fund receipts. The budget proposal reflects continued commitment 
to proper management of our natural resources, through dedication of 
$988 million to environmental programs (a $93 million increase over 
fiscal year 2001). The environmental portion of the Corps budget 
represents approximately 25 percent of the overall request. The 
Association applauds the fact that many of our recommendations from 
previous fiscal years have been maintained by the Corps in their 
succeeding year's budget request.
    A total of $479 million has been established to fund ongoing 
environmental restoration programs including Sections 204, 206, and 
1135 of Water Resources Development Acts. We urge the Corps to continue 
to take steps to expedite the approval process for those projects in 
order to rapidly realize benefits. The Association encourages the Corps 
to expedite design and grant administration associated with Section 
1135 projects. The 1135 projects provide an excellent opportunity to 
bring the Corps and State fish and wildlife agencies together on 
environmental projects but the current administrative burden may limit 
state participation.
    The Association encourages the Corps to cooperate, coordinate, and 
develop civil works and restoration activities with State fish and 
wildlife agencies. The State fish and wildlife agencies are generally 
aware of where Corps projects could most effectively enhance the status 
of fish and wildlife resources through improvements to habitat. We are 
pleased there continues to be funding which will result in development 
of partnerships to restore riverine ecosystems that address flood 
prevention through nonstructural alternatives.
    Our Association particularly appreciates the leadership of Congress 
in providing funding for mitigation projects. We are especially pleased 
that the Corps is requesting, and the Association supports, 
continuation of funding for the Columbia River Fish Mitigation in 
Washington. The Association also strongly encourages Congress to 
appropriate necessary funding within the Corps budget to facilitate the 
mitigation feature of the West Tennessee Tributaries Project, which is 
needed to satisfy legal constraints to enable initiation of river 
restoration work within this significant watershed.
    We recommend that the Congress explore the need for generic 
legislative direction to the Corps to ensure that the older projects 
include the authority for mitigation and enhancement of fish, wildlife, 
water quality, and sustained minimum flow and if legislation is 
necessary, to act on that need. Further, the Association recommends 
that mitigation funding for ongoing projects be listed as a separate 
line item within the Civil Works Appropriations. Also, the Association 
suggests that the Corps continue to look at actually transferring some 
project mitigation lands to the State fish and wildlife agencies. The 
Corps is currently in the process of transferring mitigation lands 
associated with the Richard B. Russell Project to the State of South 
Carolina, along with a trust account to manage these lands. The 
Association encourages Congress to support the transfer of mitigation 
lands to those States interested in receiving title to such lands.
    The Association is also generally supportive of the funding 
requested for some of the large river restoration projects. The 
Association supports the fiscal year 2002 request of $26 million for 
restoration of meanders and wildlife habitat on the Kissimmee River and 
continued funding of $139 million to restore water flows through the 
Everglades and other areas in Florida. It is in the best interest of 
the country to restore the habitat and hydrologic components of these 
rivers that have been significantly altered under previous Corps 
projects.
    With regard to the Corps' regulatory authority under the Clean 
Water Act of 1972, we strongly support the request of $128 million for 
conducting a streamlined program to process, review, issue permits and 
provide an appeals procedure for the permitting of activities in waters 
of the United States. Furthermore, the Association believes a strong 
partnership program with State agencies affords the best opportunity 
for balanced conservation of aquatic resources.
    The Association recommends that the Corps continue to initiate 
applicable restoration, mitigation and conservation projects in 
partnership with State fish and wildlife agencies. For example, we 
request the Corps continue to participate with State agencies and non-
Federal interests in the North American Waterfowl Management Plan 
through wetlands conservation and wetlands identification.
    The Association is excited by the potential for significant 
environmental accomplishments in restoration, conservation, and 
sustainable management of water, fish, and wildlife resources. The 
Association is especially pleased with Federal plans to partner with 
local, State and Tribal agencies and with the watershed management 
emphasis. The States are interested in forging a true partnership 
through sharing ideas, plans, design, implementation structure and 
enforcement in establishing a unified, cooperative approach to 
improving water quality.
                                 ______
                                 

   Prepared Statement of the Los Angeles County Board of Supervisors

    As you deliberate on the fiscal year 2002 Energy and Water 
Appropriations Act, it is respectfully requested that you support four 
studies that are not only important to Los Angeles County, but the 
nation as a whole. Two of these studies, both related to shoreline 
protection and coastline management, received no funding in the 
President's recommended budget. The two studies related to dredging 
were significantly underfunded by the President.
    Following is a brief discussion of each of these studies:
Coast of California Storm and Tidal Wave Study--Los Angeles County 
        Shoreline Protection Studies In Progress--$500,000
    Los Angeles County is host to over 50 million visitors annually at 
the 30 miles of public beaches that we own or manage. These beaches are 
not only among the nation's top recreational attractions; they generate 
jobs, income and revenue to all levels of government. The beaches are 
also an important element of the infrastructure, as they protect major 
highways, utilities, public facilities, businesses and homes from ocean 
storms.
    What is not well known is that these beaches are not all naturally 
sandy. Over 35 million cubic yards of sand have been placed on them 
since the 1930's, and they require ongoing maintenance. In 1998, Los 
Angeles formed a multi-agency Beach Replenishment Task Force. One of 
its goals is to develop a long-term management plan for the beaches. 
The Corps' Coast of California Study is critical to the achievement of 
this goal. The study will gather data and employ numeric models to 
assess long-term shoreline changes and coastal processes, which are 
needed to plan and design future shore protection and beach 
replenishment projects.
    Congress added $500,000 to the fiscal year 2001 budget for the 
first year of this study. The President did not continue funding 
projects that were added by Congress in fiscal year 2001. The County is 
obtaining a $500,000 grant from the State of California to help fund 
the local share of this study. It is, therefore, very important that 
your Subcommittee support an appropriation of $500,000 to continue this 
study.
California Coastal Master Plan Regional Coastal Watersheds Management 
        Plans--$1,000,000
    California's coast is an invaluable resource. It produces millions 
of jobs and billions of dollars in revenue to the Federal Government. 
Yet, California ranked eighth out of eleven states receiving Federal 
appropriations for shoreline protection between 1995 and 1999. 
California received just $10 million, while New York got $111 million, 
New Jersey got $104 million, Florida got $90 million, and Illinois got 
$30 million. By comparison, California received $12,000 per mile of 
coastline against $800,000 per mile for New York and New Jersey.
    Protecting California's coastal resources, including ancient 
redwoods, flourishing and protected species, and very popular public 
beaches, can best be accomplished through informed decisions and 
planning. The Corps' proposed Coastal Master Plan will provide the 
technical, environmental, regulatory, economic, legal, and policy data 
needed to maintain and enhance the health of California's coastline.
    The Master Plan has the support of other coastal counties, as well 
as the State agencies responsible for coastal resources. It will make 
it possible to develop policies and to execute management sub-plans 
that will ensure the future vitality of California's beaches, 
shoreline, and coastal watersheds.
    There was no funding included in the President's recommended budget 
for this study. Therefore, your support for an appropriation of $1 
million to initiate this critical work is respectfully requested.
Marina del Rey and Ballona Creek Feasibility Study Navigation Studies 
        in Progress--$400,000
    This study was authorized by Congress to develop a dredged material 
management plan (DMMP) for contaminated sediments in Marina del Rey, 
and a sediment control plan for the Ballona Creek watershed. The DMMP 
has been incorporated into the development of a regional plan. 
Completion of the watershed portion requires an extension of the study 
to develop a trash and debris management plan (TDMP). Trash and debris 
from Ballona Creek create many environmental and economic problems in 
Marina del Rey and along the nearby beaches.
    Resolving the Marina's dredging problem depends on completion of 
this study. Without its completion, and the resultant TDMP, other 
mitigation measures and improvements will be ineffective. 
Implementation of plans resulting from the study will improve water 
quality in the Santa Monica Bay, boating safety in Marina del Rey, and 
the public's enjoyment of nearby beaches.
    This study has been fully funded for several years, including the 
County's cost share. A total of $400,000 in Federal funding is needed 
in fiscal year 2002. The President's budget only includes $169,000 for 
this study, leaving a need for $231,000 in additional funding. It is, 
therefore, respectfully requested that you support an increase in 
appropriation, to $400,000, for this study.
Los Angeles County--Regional Dredged Material Management Plan 
        Navigation Studies in Progress--$350,000
    Ensuring navigational safety in the Los Angeles region, as well as 
providing for much needed port expansion, depends on the ability to 
dredge and dispose of some contaminated sediments. Approved disposal 
sites are not available or economically feasible. The accumulation of 
contaminated sediments has raised concerns about their impact on the 
environment and human health.
    A multi-agency task force was formed in 1997 to develop a long-term 
management strategy for the dredging and disposal of contaminated 
sediments. The work of the task force has been funded by the California 
Coastal Commission, the State Regional Water Quality Control board, the 
County of Los Angeles, and the Ports of Los Angeles and Long Beach. The 
Corps' development of a regional dredged material management plan is 
critical to achievement of the task force's goals.
    Without completion of this plan, the region's contaminated sediment 
problem will be increasingly difficult and costly to solve. Safe 
navigation will be jeopardized and our nation's largest, most 
productive port complex will not be able to meet the ever-expanding 
demand.
    Congress appropriated $100,000 in fiscal year 2000, and $225,000 in 
fiscal year 2001 for this study. The President has included $200,000 in 
the recommended budget for fiscal year 2002, resulting in a need to add 
$150,000. Your support of a total appropriation of $350,000 is 
respectfully requested.
    With your Subcommittee's leadership and support, the Corps has 
performed its Congressionally mandated missions for Los Angeles County 
in an excellent manner. We appreciate your continued support of the 
Corps and its important mission.
    Thank you for your consideration of these requests.
                                 ______
                                 

           Prepared Statement of the National Audubon Society

    Mr. Chairman, on behalf of the one million members and supporters 
of Audubon, thank you for the opportunity to submit our views on the 
fiscal year 2002 budget of the U.S. Corps of Engineers. Our mission, to 
protect birds, other wildlife, and their habitat, is the focal point of 
our statement on the Corps' fiscal year 2000 budget.
                         everglades restoration
    Thank you for your past support of the restoration of America's 
Everglades. The Everglades ecosystem, from the Mississippi River Valley 
in the north through Lake Okeechobee, the Everglades, Florida Bay, the 
Keys, and the coral reefs to the south, is a unique and world-renowned 
eco-region. Because of its unique biological wealth and beauty, the 
17,000 square mile area of Everglades National Park has been declared a 
World Heritage Site, UNESCO Biosphere Reserve and Ramsar Wetland. The 
Everglades, America's premiere wetland, is also one of the nation's 
most endangered ecosystems.
    The Everglades has been abused for more than 100 years. Its 
restoration is the most ambitious environmental challenge our nation 
has ever undertaken. The outcome is uncertain. What happens depends on 
how much Americans recognize the need to balance the use and 
conservation of natural resources. If our effort is successful, 
restoration of the South Florida/Everglades ecosystem will serve as the 
hemispheric model for sustainability.
    Congress approved, and the State of Florida supports, the 
Comprehensive Everglades Restoration Plan (CERP) as a framework for 
changes to the Central and Southern Florida (C&SF) Project, which along 
with Modified Water Deliveries and the C-111 project, are needed to 
restore, preserve, and protect the South Florida ecosystem, while 
providing for other water-related needs of the region.
    We urge the Subcommittee to consider the following points:
  --Everglades restoration is a long-term commitment, and it must be 
        completed in its entirety. Each component depends on others 
        therefore, all of the ``building blocks'' must be in place for 
        the restoration to succeed.
  --The budget must continue adequate funding for previously authorized 
        programs whose performance assumptions have been included in 
        the Comprehensive Everglades Restoration Plan (CERP), including 
        Kissimmee River Restoration and Critical Projects.
  --The budget must adequately fund CERP implementation at a level 
        consistent with the implementation schedule as reflected in the 
        plan.
  --We are concerned that CERP Pilot Projects will not be implemented 
        in the most expeditious manner, if funding is not provided in 
        fiscal year 2002 ($8 million). Additionally, the regional 
        aquifer storage and recovery (ASR) study must be completed 
        expeditiously, ahead of or concurrently with the ASR Pilot 
        Projects.
  --With the passage of the Restoring the Everglades, an American 
        Legacy Act last year, Congress began a long-term commitment 
        (more than 20 years) to Everglades restoration. To be 
        successful, Everglades restoration must remain a national 
        priority.
     upper mississippi river environmental management program (emp)
    Cover 400 bald eagles and nearly 30,000 wild tundra swan use the 
Upper Mississippi River. We urge you to include $33.17 million in the 
President's fiscal year 2002 budget request for the Upper Mississippi 
River System Environmental Management Program (EMP) found in the Army 
Corps of Engineers' Construction General Budget. The Environmental 
Management Program is a cooperative and cost shared effort. Those 
participating include the U.S. Army Corps of Engineers, the U.S. Fish 
and Wildlife Service, the U.S. Geological Survey, and the states of 
Illinois, Iowa, Minnesota, Missouri, and Wisconsin.
    The mission of the EMP is to ``ensure the coordinated development 
and enhancement of the Upper Mississippi River System.'' The efforts of 
the EMP contribute to the management of navigation and flood control. 
The EMP enhances and rehabilitates riverine wetland areas up and down 
the river stimulating transportation uses, attracting visitors, adding 
recreational opportunities, and bolstering local economies. The EMP 
helps preserve this natural treasure by managing river navigation and 
flood control, and promoting recreation on the river. It helps folks 
enjoy the river now while ensuring its preservation for future 
generations.
    the challenge 21 program (or the flood mitigation and riverine 
                restoration program, sec 212 wrda 1999)
    Mr. Chairman, the need for the Challenge 21 program is demonstrated 
by the fact that today, many communities along the Mississippi River 
are experiencing severe flooding along with economic and environmental 
damage. The Challenge 21 program would greatly reduce the devastating 
effects of the flooding that these communities are facing. Indeed, this 
flooding is precisely the type of situation that Challenge 21 programs 
are intended to mitigate.
    Increasingly, flooded communities are implementing non-structural 
solutions to reduce flooding. These solutions include moving frequently 
flooded homes and business out of the floodplain, and working to return 
the floodplains of rivers and creeks to a condition where they can 
naturally moderate floods. In addition to reducing flood losses, non-
structural projects help meet many other goals of riverside 
communities, including improving water quality, increasing 
opportunities for recreation, and improving and restoring wildlife 
habitat. Unfortunately, most federal spending does little to support 
non-structural solutions to flood damage reduction.
    Challenge 21, a non-structural flood damage reduction program 
authorized in 1999, is explicitly designed to help support such 
community-driven and environmentally beneficial efforts. Challenge 21 
allows the Army Corps to relocate vulnerable homes and businesses in 
smaller communities away from floodplains, restore floodplain wetlands, 
increase opportunities for riverside recreation, and improve quality of 
life in riverside communities. Challenge 21 also authorizes the Army 
Corps to work with other Federal agencies to more efficiently and 
effectively help local governments both reduce flood damages and 
conserve, restore, and manage riverine and floodplain resources. 
Individual Challenge 21 projects cannot exceed $25 million, and local 
communities must provide 35 percent of the cost.
    The Water Resources Development Act of 1999 requires the Army Corps 
to study appropriate locations for Challenge 21 projects in 23 separate 
locations. Five additional Challenge 21 projects were authorized in the 
Water Resources Development Act of 2000. Challenge 21 currently is 
authorized for only five years. In April 2003, the Army Corps must 
report to Congress the results of an independent review to evaluate the 
efficacy of the program in achieving the dual goals of flood hazard 
mitigation and riverine restoration, and make recommendations 
concerning continuation of the Challenge 21 program. But before the 
Army Corps can make a meaningful assessment, it must have the funding 
to implement the program.
    Unfortunately, though $20 million is authorized for fiscal year 
2001, the program has received no funding. Consequently, none of the 
innovative and effective non-structural flood control projects that 
could have been implemented under Challenge 21 and might have benefited 
residents in Mississippi River communities during this year's flooding 
are in place. Residents of these communities and other flood-prone 
communities throughout the country deserve to see Challenge 21 fully 
funded and implemented.
    Failure to appropriate adequate funds to implement the 
environmentally appropriate, common sense, and community supported 
flood control projects authorized by this program will doom both 
specific projects and the entire program to failure. This deserving 
program should be fully funded so it can achieve both flood hazard 
mitigation and restoration of this nation's great rivers.
                   the section 1135 and 206 programs
    The Section 1135 Program (Project Modification for Improvement of 
the Environment) allows the Army Corps to modify the structures and 
operations of existing Army Corps projects to improve the quality of 
the environment where those projects have contributed to the 
degradation of the environment. The program also authorizes the 
restoration of areas harmed by Army Corps projects. Non-federal 
interests must provide 35 percent of the cost, and modifications may 
not interfere with a project's original purpose.
    The environmental damage caused by existing Army Corps projects, 
many constructed before federal laws requiring mitigation, are 
enormous. These projects have caused devastating environmental harm to 
the Everglades, and severely degrade such rivers as the Missouri, Upper 
Mississippi, Illinois, and Apalachicola Rivers. The harm includes the 
loss of rivers' critical side channels, sandbars and wetlands, and 
jeopardizes the continued existence of federally listed endangered 
species.
    Despite the significant adverse impacts of Army Corps projects 
throughout the nation, the Section 1135 program has never been fully 
funded. As a consequence, even though this program has been authorized 
since 1986, only 45 Section 1135 projects had been completed or were 
under construction as of 1999. It is clear that the interest in this 
program is far more intense than these project numbers indicate. In 
fiscal year 2001, 355 Section 1135 projects had to compete for funding 
totaling only $21 million.
    The Section 206 Program (Aquatic Ecosystem Restoration), allows the 
Army Corps to undertake small-scale projects to restore the aquatic 
environment, regardless of the existence or impact of Army Corps' 
projects in the area. Projects carried out under this program must 
improve the quality of the environment, be in the public interest, and 
be cost-effective. Individual projects under this program may not 
exceed $5 million, and non-federal interests must provide 35 percent of 
the cost.
    The Army Corps reports that between 1996 (when Section 206 was 
enacted into law) and 1999, six projects had reached the planning and/
or design phase under this program. The interest in this program far 
exceeds the level of funds being appropriated, however, and many 
communities are unable to participate in this program due to inadequate 
funding. In fiscal year 2001, 185 projects under the Section 206 
program had to compete for funding totaling only $19 million.
    Many communities are working with Army Corps districts to restore 
lost wetlands, side channels, and other riparian habitat. Many of these 
restoration projects are designed to offset the habitat losses and 
other environmental impacts of Army Corps levee, dam, and dredging 
projects that were constructed before federal laws required mitigation. 
Unfortunately, far more community-driven projects are being rejected 
due to inadequate funding. Both the Section 1135 and 206 programs 
should be fully funded so that communities can work with the Army Corps 
to reverse damage done, and to ameliorate the environmental and 
economic impacts caused by altering our nation's rivers, floodplains, 
and wetlands.
    We strongly urge you to appropriate full funding for the U.S. Army 
Corps of Engineers' Challenge 21, Section 206, and Section 1135 
programs in fiscal year 2002.
  lower columbia river and tillamook bay ecosystem restoration program
    The Columbia and Tillamook estuaries are of great importance to the 
region and the nation, offering critical habitat to endangered salmon 
and steelhead and more than 200,000 wintering waterfowl and shorebirds. 
But they also face significant threats. Since 1850, the two estuaries 
have lost more than 70 percent of their historical wetland and riparian 
habitat, primarily because of construction of agricultural levees and 
floodplain development. The Columbia River and its estuary have also 
been damaged by channelization and dredging for navigation.
    In addition, the health of these estuaries has been severely 
compromised over the past half century by conversion of river habitat, 
dams, mining, and logging, which have transformed the ecology and 
economy of the region. The huge price paid by the river's ecosystems is 
illustrated most clearly by severe declines in native salmon species. 
Wild fish have been reduced to only one percent of their pre-
development abundance, and 12 salmon and steelhead species in the 
Columbia River Basin are listed under the Endangered Species Act.
    The Lower Columbia River and Tillamook Bay Ecosystem Restoration 
program, run by the Army Corps of Engineers, is supported by a diverse 
group of stakeholders including labor, environmental and citizen 
groups, as well as federal, state, municipal and tribal governments. 
These stakeholders are dedicated to enhancing the fish and wildlife 
habitat in these estuaries. This program offers a cooperative solution 
to managing natural resources that will benefit all of the salmonids in 
the Columbia River system. Adequately funded, the program will restore 
more than 16,000 acres of critical fish and wildlife habitat, augment 
existing monitoring efforts, and help citizens protect and manage 
resources.
    Again, we strongly urge you to appropriate full funding of $30 
million for the U.S. Army Corps of Engineers to implement Section 536 
of the Water Resources Development Act 2000, the Lower Columbia River 
and Tillamook Bay Ecosystem Restoration.
                       missouri river restoration
    The Missouri River Fish and Wildlife Mitigation Project is the 
primary habitat restoration program for the lower Missouri River 
between Sioux City, Iowa and St. Louis. Congress established it in 1986 
to help reverse the long-term decline of the Missouri's fish and 
wildlife habitat due to the federally sponsored channelization and 
stabilization projects of the Pick-Sloan era. Congress approved $12 
million in fiscal year 2001 for the project, the highest appropriation 
yet received. It is imperative that at least this level of funding be 
maintained.
    The Missouri River remains a nationally significant resource, 
attracting tens of millions of visitors annually and supporting over 
150 species of fish and wildlife. However, severe loss of habitat such 
as side channels, wetlands, and sandbars threaten the river's long-term 
health. As the nation prepares to celebrate the 200th anniversary of 
Lewis and Clark's Voyage of Discovery, we have a once-in-a-lifetime 
opportunity to restore the Missouri River and revitalize riverside 
communities.
    Supporting the Missouri River Fish and Wildlife Mitigation Project 
will help reverse the decline of river wildlife by restoring historic 
chutes, side channels, wetlands, backwaters, and other habitat fish and 
wildlife need to feed, conserve energy, and reproduce.
    While restored habitat areas are important for the Missouri's fish 
and wildlife, they are also important for people. Waterfowl hunting, 
fishing, birdwatching, and other recreational translate into real 
dollars for Missouri River communities, as recreation and tourism-
dependent businesses support visitors to these areas.
    By supporting the Missouri River Fish and Wildlife Mitigation 
Project, Congress can also help us properly commemorate the upcoming 
bicentennial of Lewis and Clark's Voyage of Discovery. With your help, 
we can restore a string of natural places along the Missouri--places 
that Lewis and Clark might recognize and that attract recreation and 
tourism, support river wildlife, and improve the quality of life in 
riverside communities.
    We urge you to bolster critically important efforts to reverse the 
decline of the nation's longest river by supporting an appropriation of 
at least $12 million for the Missouri River Fish and Wildlife 
Mitigation Project in fiscal year 2002.
                   savannah harbor expansion, georgia
    Authorized in the Water Resources Development Act of 1999, the $230 
million harbor expansion project on the Lower Savannah River along the 
border between Georgia and South Carolina poses a serious threat to the 
ecological health of the Savannah National Wildlife Refuge. Dredging 
will destroy many of the freshwater tidal wetlands in the wildlife 
refuge to accommodate the Georgia Port Authority's belief that new 
shipping business must be brought to Savannah. A preliminary economic 
study has shown that the costs of the harbor expansion far outweigh the 
potential benefits, even before necessary environmental mitigation 
costs are included in the analysis. The Army Corps of Engineers has 
failed to conduct studies to address many of the environmental impacts, 
while numerous state and federal environmental agencies have stated 
repeatedly that the decision to deepen the harbor is premature.
    We oppose the $400,000 appropriation included in the President's 
budget for the Savannah Harbor Expansion, and urge re-direction of 
these funds into further study of the environmental consequences of 
this potentially destructive project.
       big sunflower dredging and yazoo pump project, mississippi
    The Big Sunflower River ``Maintenance'' project and Yazoo Backwater 
Pumping Station are part of an environmentally-destructive Corps plan 
to re-plumb the Mississippi River Delta through a series of water 
diversions and channels. The Big Sunflower project involves dredging of 
the entire width of the Mississippi River for 104 miles--to reduce 
seasonal flooding by only a few inches. The Yazoo Backwater Pump 
Project would create the world's largest pump system to move water from 
south Delta wetlands into the Mississippi River, disrupting natural 
water cycles in some of the last intact bottomland hardwood forests and 
forested wetlands in the Mississippi Delta.
    We oppose the Administration's request for $500,000 to fund the 
Yazoo pump and $1 million for dredging. We support re-directing these 
funds to reforestation, as a non-structural alternative to flood 
control and other environmentally sound projects to benefit the area. 
While the pump project alone is estimated to cost at least $150 million 
to complete, cost estimates performed by EPA for reforestation and 
easement purchases would only be around $75 million.
               devils lake emergency outlet, north dakota
    Audubon supports de-funding of this environmentally-damaging 
project to create an outlet from Devils Lake to the Sheyenne River. The 
outlet would reduce surface elevations of Devils Lake by only inches, 
yet would contribute to increased flooding and reduced water quality 
downstream and potentially violate an international treaty with Canada. 
None of the Administration requested $1.7 million should be 
appropriated for this project.
    This Subcommittee has done an excellent job of opposing this 
project in the past, and we commend your efforts. We urge you to 
continue your opposition to the project, and we will continue to 
support you in your efforts.
    Thank you for providing us with this opportunity to testify on the 
Corps budget request.
                                 ______
                                 

               Prepared Statement of Alabama State Docks

                        alabama inland waterways
    Each year, with the annual appropriations cycle of the U.S. 
Congress for the U.S. Army Corps of Engineers (COE) budget for Civil 
Works, the partnership between the Federal Government and the State of 
Alabama is revalidated. This partnership is critical to the Port of 
Mobile and the Alabama inland waterway systems that service the four 
state area of Alabama, Mississippi, Tennessee and Georgia. Without the 
partnership our communities would be at a distinct disadvantage in 
their ability to compete at the regional, national and international 
level.
    The Port of Mobile, for which the Alabama State Port Authority 
(ASPA) serves as the local cost sharing partner, was ranked 12th 
nationwide in 1999 for total cargo tonnage. This tonnage generally is 
split equally between domestic and foreign cargoes. The high level of 
domestic waterborne traffic transiting the Port of Mobile is 
attributable to the Port's multimodal hub status. Not only are we 
serviced by two Interstate Highways (I-10 & I-65) and four Class I 
Railroads (CNIC, CSX, BNSF & NS), but the State is also blessed with a 
system of six navigatable inland waterways.
    The Alabama-Coosa, Appalachicola-Chatahochee-Flint, Black Warrior-
Tombigbee, Gulf Intercoastal Waterway, Tennessee and the Tennessee-
Tombigbee form a network crisscrossing the heart of the South. 
Additionally, in the event of any navigational construction in the 
Lower Mississippi River, this system provides the only access for 
waterborne commerce on the Ohio, Illinois, Upper Mississippi and 
Missouri River Systems to deep water ports and international commerce.
    Just as with any other mode of transportation, maintenance of these 
systems is essential not only to their day-to-day operations, but also 
to the perception of their reliability. If they are not consistently 
maintained we achieve a self fulfilling prophecy that produces a 
spiraling downturn of cargo and could ultimately lead to their closure. 
At a time when the highways and railroads of the region are becoming 
ever more congested with freight traffic, this is not the time to 
further constrain the safest, most economical and least environmentally 
damaging mode of domestic transportation in the U.S.
    I therefore strongly request that these systems be provided with a 
level of funding for fiscal year 2002 at least equal to that 
appropriated for fiscal year 2001.
                             port of mobile
    The Water Resources Development Act of 1986 authorized the 
deepening of the main channel serving the Port of Mobile to 55 feet by 
550 feet. Actual construction however was limited (45 feet by 400 feet) 
as a result of limited local cost sharing capability. The initial 
construction work was completed in 1990.
    Operations and maintenance cost, of the Mobile Harbor federal 
project in 1991 were approximately twenty-two million dollars 
($22,000,000). Over the subsequent ten (10) years these maintenance 
costs have averaged approximately the same amount. It is the desire of 
the Port of Mobile to obtain twenty-two million, eight hundred thousand 
dollars ($22,800,000) for Operations and Maintenance funding for fiscal 
year 2002. Assuming that no catastrophic event impacts the Mobile Bay 
this should be sufficient to not only maintain the main channel, but 
also other channels which have not received maintenance over the last 
ten plus (10+) years (i.e., Arlington and Chickasaw). Additionally, 
significant growth in the Port of Mobile since the deepening has 
established a need to continue to lengthen the 45' channel as 
authorized. We therefore request two million, three hundred thousand 
dollars ($2,300,000) in Construction General funds. Our total request 
is twenty-five million, one hundred thousand dollars ($25,100,000).
    The Port of Mobile is the terminus of approximately fifteen hundred 
miles of inland waterway systems serving the State of Alabama. As such, 
the Port of Mobile supports testimony of the waterway systems serving 
the Port and requests steady state funding for them.
                                 ______
                                 

      Prepared Statement of the Gulf Intracostal Canal Association

Operation and Maintenance.--$80,319
    Key projects here are the dredging of the Intracoastal Waterway at 
strategic locations ($15.5 million), Houston Ship Channel ($12.2 
million), and Sabine Neches Waterway ($14.2 million).
   new orleans district (including mississippi river and tributaries)
General Investigations.--$18,172
    Critical projects are the Calcasieu Lock Replacement and Bayou 
Sorrel Lock (total $1.4 million). Both of these structures represent 
traffic bottlenecks on the GIWW main stem. Also critical is the 
Morganza to the Gulf Study ($6.5 million).
Construction General.--$266,680
    The single most important project here is the Inner Harbor 
Navigation Canal Lock ($30 million). This is a most critical project in 
terms of safety and efficiency of the entire Gulf Intracoastal Waterway 
traffic flow. It must continue on schedule. The present structure was 
completed in 1921, and it represents the most critical bottleneck on 
the waterway.
Operation and Maintenance.--$169,150
    Critical to the continuing efficiency of the waterway is $18.7 
million for dredging and lock maintenance. A key initiative in 
maintaining all the waterway's efficiencies is reduction of downtime 
for maintenance. The building of spare lock gates prior to major lock 
maintenance has proven to be a major factor in reducing job duration 
and resulting delays. This process is proving very attractive in saving 
overall project costs as well. An additional $2.0 million is needed for 
spare gates at Old River Lock in anticipation of its major overhaul.
                            mobile district
Operations and Maintenance
    We support the Corps efforts to install mooring buoys in Mobile Bay 
to provide Safe Haven for tows waiting weather ($375,000). The securing 
of additional dredge material disposal sites is critical to the long 
term future of the Intracoastal Waterway, and GICA strongly supports 
funding for these items.
    This testimony, April 16, 2001, is submitted by Raymond Butler, 
Executive Director of the Gulf Intracoastal Canal Association, for the 
official record before the House and Senate Energy and Water 
Development Appropriations Subcommittees. The Gulf Intracoastal Canal 
Association (GICA) is the oldest of the regional waterway associations, 
having been established in Victoria, Texas in 1905. The Gulf 
Intracoastal Waterway transports 110 million tons of freight annually, 
the third highest volume among our inland and coastal waterways after 
the Mississippi and Ohio Rivers. GICA's membership includes port 
authorities, port commissions and navigation districts, barge and 
towing companies, petroleum refineries, chemical manufacturers, 
shipyards, marine fabricators, fuel terminal facilities, and 
individuals whose businesses are waterway related and dependent. We 
have 180 members in the five states of Texas, Louisiana, Mississippi, 
Alabama, and Florida served by the Gulf Intracoastal Waterway. In 
addition, the GIWW is the link that binds the North-South Rivers to the 
Intracoastal Canal, the coastal ports, and ultimately the heartland of 
America. The Mississippi River intersects the GIWW at New Orleans, one 
of our busiest ports, and the Tennessee-Tombigbee Waterway intersects 
the GIWW at Mobile. Our system of Inland Waterways Barge Transportation 
provides this country with the safest, most environmentally friendly 
and fuel-efficient means of surface transportation. The values and 
efficiencies provided by barge transportation accrue to our country in 
almost every area of commerce. We should begin to view our waterways as 
the solution to many of our country's transportation related problems.
             specific budget requests for fiscal year 2002
                           galveston district
    The Gulf Intracoastal Canal Association (GICA) supports the 
approval of the following amounts for the Galveston District:
General Investigations.--$4,555,000
    Included here are the Brazos River to Port O'Connor ($974 
thousand), High Island to Brazos River ($535 thousand), and Port 
O'Connor to Corpus Christi 216 Studies ($1 million). The Matagorda Bay 
Alternate Route ($910 thousand), which has the potential to reduce 
existing maintenance costs significantly and improve transit safety, is 
included. The Sabine-Neches Waterway Widening and Deepening Project 
($1.1 million) is of major concern for barge/ship transit safety.
Construction General.--$54,165,000
    It is most critical that these projects continue uninterrupted. The 
Houston Ship Channel Widening and Deepening is now well into completion 
stages and is most critical to barge/ship transit safety. Total fiscal 
year 2002 needs for this project are $46.8 million. The completion of 
the channel to Victoria ($6.6 million) and the mouth of the Colorado 
River ($1.8 million) are two additional projects that must continue to 
avoid additional costs and improve waterway efficiency.
                              other areas
    The GICA also supports the operations and maintenance funding 
request for Tri Rivers Waterway Development Association. We support 
sound economic development efforts to improve the ACF waterway as a 
vital link for southeast Alabama, southwest Georgia, and northwest 
Florida to export goods to other national and international markets via 
the Gulf Intracoastal Waterway. We support finding the ACF system at 
levels equal to last year's budget of $5.1 million.
    In other areas, the GICA strongly supports repeal of the 4.3 cent 
per gallon Deficit Reduction Tax placed on fuel. This tax has now 
outlived its original purpose and is contributing to the General Fund, 
which is well in excess of the needs it supplies.
    The Gulf Intracoastal Canal Association respectfully enters these 
comments for the record. We appreciate the privilege of providing such 
critical input.
                                 ______
                                 

     Prepared Statement of the Sacramento Area Flood Control Agency

    We appreciate the opportunity to provide testimony to this 
Subcommittee, and extend our sincere appreciation for your past support 
of this community's efforts to protect the citizens and properties in 
the capital city of California. In our continuing efforts to protect 
the Sacramento metropolitan area, the Sacramento Area Flood Control 
Agency (SAFCA), and its member agencies, support the following Federal 
appropriations for fiscal year 2002:

     SACRAMENTO'S 2002 FLOOD CONTROL FEDERAL APPROPRIATIONS REQUEST
                        [In millions of dollars]
------------------------------------------------------------------------
                                                       Proposed   SAFCA
                       Project                          Budget   Request
------------------------------------------------------------------------
South Sacramento Streams: Prevention of flooding of    ........  \1\ 10.
 portions of Sacramento from the south, where four                     0
 creeks convey foothill runoff through urbanized
 areas into Beach Lake and the Delta. NEW START......
Folsom Modifications: Modifications to Folsom Dam to   ........  \1\ 12.
 provide greater efficiency in managing flood storage                  0
 in Folsom Reservoir.................................
American River Common Elements: 24 miles of levee      ........  \1\ 17.
 improvements along the American River and 12 miles                    0
 of improvements along the Sacramento River levees,
 flood gauges upstream of Folsom Dam, and
 improvements to the flood warning system along the
 lower American River. Request includes $5.0 million
 to begin work on levee parity, authorized in WRDA
 1999................................................
Sacramento River Bank Protection: Will correct         ........  \1\ 3.0
 harmful erosion along the banks of the American
 River that threatens the integrity of the existing
 levees..............................................
Magpie Creek: Authorized under the Corps' Section 205  ........  \1\ 3.0
 program, this project will provide a high degree of
 flood protection on Magpie Creek....................
American River Plan: Funds to continue previously      ........  \2\ 1.0
 authorized planning and design of Sacramento flood
 protection projects.................................
American River Watershed (Natomas): Reimbursement to   ........  \1\ 5.0
 SAFCA for the Federal share of the flood control
 improvements undertaken by the local project
 sponsor.............................................
Lower Strong & Chicken Ranch Sloughs (D05 Pump         ........  \3\ 0.2
 Station): a feasibility study to restore 100-year
 level of flood protection to Chicken Ranch Slough
 drainage to the American River. This area has
 flooded four times since 1986.......................
Magpie Creek on McClellan AFB: A feasibility study to  ........  \1\ 0.2
 evaluate alternatives for providing improved flood
 protection on McClellan Air Force Base in connection
 with the reuse of that base.........................
                                                      ------------------
      Total I........................................  ........    51.40
------------------------------------------------------------------------
\1\ Construction.
\2\ Preconstruction Engineering and Design.
\3\ General Investigation.

    According to the Corps of Engineers, Sacramento has the highest 
risk of flooding of any major urban area in the country. Located at the 
confluence of the Sacramento and American Rivers, the Sacramento 
floodplain is home to over 400,000 residents, 150,000 homes, 5,000 
businesses, the State Capitol, and 1,300 government facilities. 
Additionally, there are 200,000 jobs in the floodplain, as Sacramento 
is a regional employment hub for it neighbors in Placer, El Dorado, and 
Yolo counties. The Corps of Engineers estimates a major flood on the 
American River would cause between $7 and $16 billion in damage and 
likely result in lives being lost. Improved flood protection is our 
region's most critical infrastructure need.
    The Sacramento Area Flood Control Agency is a joint powers agency 
formed in 1989 to provide the local response to the 1986 flood. Since 
its formation, SAFCA has raised over $140 million in local funds that 
have been expended on planning and construction of flood control 
facilities and on public education. Over the same period, approximately 
$130 million in State and Federal funds have been appropriated for the 
same purpose.
    As part of the 1999 Water Resources Development Act, Congress 
authorized the most significant set of flood control improvements since 
Folsom Dam was constructed in 1955. These improvements will raise the 
minimum level of protection from about 85-year to 140-year and provide 
a foundation for additional improvements to achieve the federal, state 
and local goal of at least 200-year flood protection. Additionally, 
because these projects will improve the ability of federal dam 
operators to control American River flows, they also benefit 
Sacramento's downstream neighbors in Yolo County. Property owners, 
flood control engineers, businesses and environmentalists all agree 
Sacramento needs to move forward with these improvements as rapidly as 
possible. Last year, the projects were authorized and funded by the 
State and, by an 82 percent margin, Sacramento property owners voted to 
tax themselves to provide the local share. These actions clearly 
demonstrate the strong state and local support for these projects. We 
hope you can understand our desire for appropriation levels that will 
allow these and other projects to proceed forward on an optimum 
schedule.
                 south sacramento streams group project
    In 1995, homes in the South Sacramento area were threatened by rain 
swollen creeks which reached to within a foot, and in some areas less, 
of overtopping the levees and channels and flooding adjacent 
residential subdivisions. The Corps 1998 feasibility study concluded 
much of the urban area of South Sacramento has less than 50-year flood 
protection from these urban streams. There are over 100,000 people and 
41,000 structures in the floodplain of Morrison, Unionhouse, Florin and 
Elder Creeks that make up the South Sacramento Streams Group Project. 
Congress authorized the NED plan recommended by the Corps as part of 
the 1999 WRDA. However, a misunderstanding resulted in Congress only 
appropriating funds to advance preliminary engineering and design in 
2002. This project is ready to start construction, and we are 
requesting a new start and a $10 million appropriation. Additionally, 
we are asking the committee to approve a 215 crediting agreement so 
that we can use the non-federal funds to initiate construction this 
summer.
                        folsom dam modifications
    When Folsom Dam, the only flood control structure along the 
American River was completed in 1955, Sacramento was thought to have a 
very high level of flood protection (500-year or greater) consistent 
with other urban areas in the nation. However, five recent large storms 
have demonstrated that the American River can produce far larger floods 
than anticipated at the time Folsom was designed. The Corps has 
concluded that Folsom can control only about an 85-year storm. This is 
far less protection than the project was authorized to provide and 
substantially less than other similarly situated major urban areas 
around the nation including St. Louis, Kansas City, Dallas, Omaha, 
Minneapolis, and Pittsburgh.
    Following unsuccessful efforts to obtain authorization of a new 
flood control dam on the American River in 1992 and 1996, the Corps, 
the State and SAFCA shifted their focus to identifying improvements to 
Folsom Dam that will cost effectively increase flood protection. As a 
result of these efforts, Congress authorized improvements to the outlet 
works at Folsom dam in the 1999 WRDA, and approved a new start in 2001.
    This single project, the centerpiece of the Federal program in 
Sacramento, nearly doubles the level of flood protection for 150,000 
homes and 5,000 businesses in Sacramento and improves the level of 
protection for downstream communities in Yolo County. The project risks 
are extreme, the benefits of the project are significant, and an 
aggressive schedule is clearly justified. We are therefore requesting 
an appropriation of $12 million so that construction on this important 
project can continue.
                 american river common elements project
    In 1996, Congress did not approve a comprehensive flood control 
project for Sacramento, but did authorize levee-strengthening projects 
that were common to all the long-term alternative plans. These included 
26 miles of levee stabilization along the lower American River, raising 
and strengthening 12 miles of the east levee of the Sacramento River, 
and an early warning system to protect recreational visitors along the 
American River. The purpose of these projects is to prevent the types 
of levee failures and resultant flooding that occurred in the Central 
Valley in 1986 and 1997. An appropriation of $17 million is requested 
so that the work authorized on American River Levees in 1996 and 1999 
can be completed.
       sacramento bank protection project (american river levees)
    SAFCA, the State of California and the Corps have found that bank 
protection improvements are needed to stop erosion that otherwise 
threatens urban levees along the lower American River. Over the last 
four years SAFCA has led a collaborative process through which flood 
control, environmental and neighborhood interests have reached 
agreement on how to complete this work in a manner which protects the 
sensitive environmental and aesthetic values of the American River in 
addition to improving the reliability of the levee system. As a result, 
an American River bank protection construction program was implemented 
under the Sacramento River Bank Protection authorization. An 
appropriation of $3 million is needed to complete projects already 
started.
       magpie creek (section 205 continuing authorities program)
    The Magpie Creek Diversion Project, constructed by the Corps in 
1955 as an element of the Sacramento River Flood Control Project, is 
inadequate for even the 100-year flood event using the most up-to-date 
hydrologic data. The resulting floodplain encompasses downstream 
residential and commercial structures and would close Interstate 80, 
the major east-west transportation route through Sacramento. The Corps 
has completed a favorable report recommending the initiation of a 
Section 205 small flood control project in the area adjacent to the 
McClellan Air Force Base. In addition, Congress specifically directed a 
separate Section 205 study pursuant to Section 104 of the Water 
Resources Development Act of 1999 for the on-base portion of Magpie 
Creek. The off-base improvements have a benefit to cost ratio of 2.5 to 
1. Both portions protect existing urban development and are essential 
to provide capacity for future improvements on McClellan Air Force Base 
to allow for orderly conversion of this closed base to a Sacramento 
employment center. Congress earmarked funds in last year's Energy and 
Water Appropriations bill to initiate work on the off-base portion of 
the project, but construction has been delayed. SAFCA seeks a $3.0 
million earmark as part of the proposed fiscal year 2002 budget for the 
Section 205 Program and requests the Corps be directed to initiate 
construction of the Magpie Creek Diversion Project with those funds. 
SAFCA also requests Congress direct the Corps to move forward with an 
investigation of alternatives for controlling flooding on base.
                          american river plan
    An appropriation of $1 million is needed so that the Corps can 
complete its evaluation of alternative projects for providing a minimum 
of 200-year flood protection for Sacramento. This evaluation, ordered 
by Congress in 1999, is focused on three measures. The first includes 
modifying levees so more water can safely be conveyed through 
Sacramento in a flood. The second option is enlarging Folsom Dam so 
that more water can be effectively stored during a flood, and the third 
incorporates improvement in long range weather forecasting into flood 
control operations. Combinations of these measures are also being 
evaluated, and the full feasibility study will be presented to Congress 
in 2002.
              american river watershed (natomas features)
    In 1992, the recommended plan for the American River was 
construction of a flood detention dam at Auburn and levee improvements 
around Natomas and along lower Dry and Arcade Creeks. Congress did not 
authorize the recommended project in the 1992 WRDA, but in subsequent 
legislation that year Congress did authorize the levee improvements 
around the Natomas basin and North Sacramento. The authorizing 
legislation included provisions to reimburse the local agency for 
constructing levee improvements that were consistent with the Federal 
project. With over 75,000 residents at risk, subject to life 
threatening flood depths of 20 feet in some areas, SAFCA decided to 
initiate construction of the project using local funds with the 
potential for future Federal reimbursement. By borrowing heavily from 
other sources and debt financing through a capital assessment district, 
SAFCA proceeded to rapidly construct a $60 million project that was 
consistent with the 1992 authorization. However, the Corps 1992 report 
described levee improvements that were consistent with controlling flow 
in the American River with a dam at Auburn. SAFCA felt the construction 
of that project was uncertain and therefore decided to construct higher 
levees than those described in the Corps report. These improvements 
were instrumental in preventing flooding in 1995 and 1997. However, the 
borrowing of funds, coupled with additional future flood control 
obligations, has severely strained SAFCA's financing capability. The 
Corp has agreed to reimburse SAFCA $21 million, their estimate of the 
costs of building levees to the heights described in their 1992 report 
and Congress has appropriated funds consistent with that agreement. The 
Corp has also agreed to consider reimbursement for higher levees, and 
SAFCA and the Corps are jointly working on an agreement for additional 
reimbursement. In anticipation of a formal agreement on this matter, we 
are requesting an appropriation of $5 million.
                 lower strong and chicken ranch sloughs
    SAFCA, in cooperation with Sacramento County, is seeking 
appropriations of $0.2 million to allow the Corp to complete it 
feasibility study for Lower Strong and Chicken Ranch Sloughs. 
Floodwaters from these urban streams are collected and pumped into the 
American River. In 1986 and again twice in 1997, the limited channel 
and pumping capacity led to significant flood damages to a number of 
residential and commercial structures. Most of the flooding occurs when 
the American River is at a high stage due to releases from Folsom Dam. 
The original pump station was built by the Corps as part of the 
American River and Folsom project in the 1950's but does not have 
sufficient capacity to prevent flooding from today's larger storms. The 
Corps has completed a reconnaissance evaluation and concluded that 
there is a federal interest in completing a feasibility study. This 
appropriation would allow that study to move forward on an optimal 
schedule.
                                 ______
                                 

                Prepared Statement of Charles H. Bucknam

    Dear Subcommittee on Energy and Water Development: Thank you for 
agreeing to consider this request for funding of the Acid Drainage 
Technology Initiative (ADTI) through the federal multi-agency 
mechanism. The Army Corps of Engineers (USAGE) is being requested to 
provide annual funding of up to $200K, to match the standard set by the 
Office of Surface Mining (OSM). OSM funding is going primarily to the 
Coal Mining Sector of ADTI and a predictable base of funding is also 
needed for the Metal Mining Sector activities, in order to identify the 
best science for controlling acid and metal drainage from metal mines 
and related materials.
    The Prediction Committee of the Acid Drainage Technology Initiative 
Metal Mining Sector (ADTI-MMS) has identified several needs to improve 
the scientific and technical foundation necessary for accurate 
prediction of mine waste drainage quality. More accurate prediction of 
mine waste drainage quality will lead to the management of mine wastes 
in a manner that will avoid adverse impacts to natural waters. ADTI-MMS 
Prediction Committee activities will benefit multiple federal agencies. 
Broad based funding from participating federal agencies (to augment the 
voluntary contributions from states, federal agencies, industry, 
universities and consulting companies), will greatly accelerate 
progress of the ADTI-MMS Prediction Committee.
    Federal and state land-managing agencies, as well as mining 
companies, are continually challenged with making environmentally-sound 
decisions on how to best manage millions of tons of mine waste from 
abandoned, existing, and future metal-mining activities without 
adversely impacting water quality. Mine-waste management decisions are 
largely based on the predicted quality of drainage from mine wastes. 
Several predictive tests to help forecast minewaste drainage quality 
are available to industry and reviewing agencies, yet no consensus 
exists regarding how well these tests predict future drainage quality 
in the field. What is critically needed is a systematic, unbiased, 
scientific assessment of the available tests, an organized compilation 
of existing predictive data to evaluate the accuracy of tests, 
modification of existing or development of new tests, and evaluation 
and development of mine waste dissolution models. These aspects are 
essential for making scientifically based decisions on mine waste 
management.
    The ADTI-MMS consists of volunteer representatives from government, 
academia, and the private sector who are involved in the 
environmentally sound management of metal-mine wastes. This group is 
focused on cost effective, environmentally sound methods and 
technologies to manage mine wastes and related metallurgical materials 
for abandoned, active and future mining and associated operations. The 
objective of the ADTI-MMS is to identify, evaluate, develop, 
disseminate information regarding, and promote understanding of these 
methods and technologies.
    The Prediction Committee is one of five technical committees formed 
by the ADTI-MMS. The focus of the Prediction Committee is prediction of 
drainage quality from mining wastes (i.e. tailings, waste rock) and 
related metallurgical materials (e.g. stockpiles). Based on the 
predicted drainage quality from a mine waste, appropriate mine waste 
management plans can be developed to avoid adverse impacts to natural 
waters. In order to improve the scientific and technical foundation 
necessary for accurate prediction of mine waste drainage quality, the 
ADTI-MMS Prediction Committee identified the following needs.
  --Survey, analyze and compile information from literature and active 
        research regarding scientific and technical foundations and 
        methods for mine waste drainage quality prediction.
  --Develop standard methods for prediction of drainage quality from 
        mine wastes and associated metallurgical materials.
  --Develop reference standards for quality assurance of predictive 
        test results.
  --Generate empirical data on the long-term dissolution behavior of 
        mine wastes by conducting field and laboratory tests on 
        individual mine waste rock types.
  --Conduct literature surveys and develop data bases for field 
        validation of prediction methods.
  --Conduct regional workshops with government, industry and academia 
        to arrive at consensus on scientific and technical foundations 
        and methods for predicting drainage quality.
  --Disseminate the latest information on the best science for mine 
        waste drainage quality prediction to those involved and 
        interested in the sound prediction of drainage quality.
    The ADTI-MMS Prediction Committee has made progress in these areas 
through voluntary efforts and limited funding from the Office of 
Surface Mining and Environmental Protection Agency. Furthermore, we are 
committed to continue this work. With broader based funding from 
participating federal agencies to augment these contributions, we can 
address these needs more effectively and in a much shorter time frame. 
Thank you for your time and interest in this vital area. Your continued 
funding of this Committee's activities will significantly improve our 
ability to develop the best science for addressing drainage issues with 
an organized and predictable schedule.
                                 ______
                                 

                Prepared Statement of Rebecca A. Miller

    Thank you for agreeing to consider this request for funding of the 
Acid Drainage Technology Initiative (ADTI) through the federal multi-
agency mechanism. The Army Corps of Engineers (USAGE) is being 
requested to provide annual funding of up to $200K, to match the 
standard set by the Office of Surface Mining (OSM). OSM funding is 
going primarily to the Coal Mining Sector of ADTI and a predictable 
base of funding is also needed for the Metal Mining Sector activities, 
in order to identify the best science for controlling acid and metal 
drainage from metal mines and related materials.
    The Prediction Committee of the Acid Drainage Technology Initiative 
Metal Mining Sector (ADTI-MMS) has identified several needs to improve 
the scientific and technical foundation necessary for accurate 
prediction of mine waste drainage quality. More accurate prediction of 
mine waste drainage quality will lead to the management of mine wastes 
in a manner that will avoid adverse impacts to natural waters. ADTI-MMS 
Prediction Committee activities will benefit multiple federal agencies. 
Broad based funding from participating federal agencies (to augment the 
voluntary contributions from states, federal agencies, industry, 
universities and consulting companies), will greatly accelerate 
progress of the ADTI-MMS Prediction Committee.
    Federal and state land-managing agencies, as well as mining 
companies, are continually challenged with making environmentally-sound 
decisions on how to best manage millions of tons of mine waste from 
abandoned, existing, and future metal-mining activities without 
adversely impacting water quality. Mine-waste management decisions are 
largely based on the predicted quality of drainage from mine wastes. 
Several predictive tests to help forecast minewaste drainage quality 
are available to industry and reviewing agencies, yet no consensus 
exists regarding how well these tests predict future drainage quality 
in the field. What is critically needed is a systematic, unbiased, 
scientific assessment of the available tests, an organized compilation 
of existing predictive data to evaluate the accuracy of tests, 
modification of existing or development of new tests, and evaluation 
and development of mine waste dissolution models. These aspects are 
essential for making scientifically based decisions on mine waste 
management.
    The ADTI-MMS consists of volunteer representatives from government, 
academia, and the private sector who are involved in the 
environmentally sound management of metal-mine wastes. This group is 
focused on cost effective, environmentally sound methods and 
technologies to manage mine wastes and related metallurgical materials 
for abandoned, active and future mining and associated operations. The 
objective of the ADTI-MMS is to identify, evaluate, develop, 
disseminate information regarding, and promote understanding of these 
methods and technologies.
    The Prediction Committee is one of five technical committees formed 
by the ADTI-MMS. The focus of the Prediction Committee is prediction of 
drainage quality from mining wastes (i.e. tailings, waste rock) and 
related metallurgical materials (e.g. stockpiles). Based on the 
predicted drainage quality from a mine waste, appropriate mine waste 
management plans can be developed to avoid adverse impacts to natural 
waters. In order to improve the scientific and technical foundation 
necessary for accurate prediction of mine waste drainage quality, the 
ADTI-MMS Prediction Committee identified the following needs.
  --Survey, analyze and compile information from literature and active 
        research regarding scientific and technical foundations and 
        methods for mine waste drainage quality prediction.
  --Develop standard methods for prediction of drainage quality from 
        mine wastes and associated metallurgical materials.
  --Develop reference standards for quality assurance of predictive 
        test results.
  --Generate empirical data on the long-term dissolution behavior of 
        mine wastes by conducting field and laboratory tests on 
        individual mine waste rock types.
  --Conduct literature surveys and develop data bases for field 
        validation of prediction methods.
  --Conduct regional workshops with government, industry and academia 
        to arrive at consensus on scientific and technical foundations 
        and methods for predicting drainage quality.
  --Disseminate the latest information on the best science for mine 
        waste drainage quality prediction to those involved and 
        interested in the sound prediction of drainage quality.
    The ADTI-MMS Prediction Committee has made progress in these areas 
through voluntary efforts and limited funding from the Office of 
Surface Mining and Environmental Protection Agency. Furthermore, we are 
committed to continue this work. With broader based funding from 
participating federal agencies to augment these contributions, we can 
address these needs more effectively and in a much shorter time frame.
    Thank you for your time and interest in this vital area. Your 
continued funding of this Committee's activities will significantly 
improve our ability to develop the best science for addressing drainage 
issues with an organized and predictable schedule.
                                 ______
                                 

  Prepared Statement of the Coachella Valley Water District; Imperial 
     Irrigation District; Metropolitan Water District of Southern 
            California; and San Diego County Water Authority

   fiscal year 2002 funding request for habitat and enhancement and 
                       improved water management
    It is requested that $2 million be provided in the Bureau of 
Reclamation fiscal year 2002 budget for Salton Sea area habitat 
enhancement, budget line item--Salton Sea Project. It is also requested 
that $2.8 million be provided in the Bureau of Reclamation fiscal year 
2002 budget for water management reservoirs near the All-American 
Canal, budget line item--Colorado River Front Work and Levee System. 
This funding is needed to ensure the success and timely implementation 
of California's Colorado River Water Use Plan to bring California 
within its 4.4 million acre-feet per year normal apportionment of 
Colorado River water. In recent years, California has taken up to 5.2 
million acre-feet per year, relying on surplus and unused 
apportionments of other states that will not be available in the 
future.
    California's Colorado River Water Use Plan is a major undertaking 
by the State and its agencies that will enable California to reduce its 
reliance on Colorado River water by up to 800,000 acre-feet per year. 
Key components of California's Colorado River Water Use Plan include 
core voluntary cooperative water conservation/transfers from 
agricultural use to urban use which are needed for California to meet 
its water needs and maintain its urban and agricultural economies. At 
the same time, we must conserve and enhance critical wildlife habitats 
that could be affected by water conservation programs.
    California and its Colorado River water users will be making 
expenditures in the billions of dollars to implement California's 
Colorado River Water Use Plan. This funding request deals with federal 
aspects and responsibilities that are critical to the success of the 
Plan.
    The habitat enhancement measures in and around the Salton Sea and 
its national wildlife refuge are necessary to gain the environmental 
permits and approvals associated with implementing a key component of 
California's Colorado River Water Use Plan, cooperative water 
conservation/transfers of over 500,000 acre-feet of water per year from 
agriculture use to urban use. These actions are intended to conserve 
and enhance habitat that could be affected by agricultural water use 
efficiency improvements needed to provide water to meet urban water 
needs in southern California. The funds would be used to create lower 
salinity habitat in the Salton Sea deltas and surrounding areas, 
provide for wetland/upland restoration and conservation, and enhance 
piscivorous bird habitat.
    The water management reservoirs would improve Colorado River and 
supply management, water conservation, and energy generation; help 
facilitate water storage and conjunctive use programs; provide water 
for environmental purposes; and provide for cooperative improved water 
supply management opportunities with Mexico. Much of the identified 
benefits relate to federal responsibilities for Colorado River 
management and water deliveries.
    Successful implementation of California's Colorado River Water Use 
Plan is vital to the economy and water supply reliability of the State 
of California, and is critical to the Colorado River interests of the 
other Colorado River Basin states and Mexico. We respectively request 
that these items and funding levels be part of the Bureau of 
Reclamation's fiscal year 2002 budget.
                                 ______
                                 

 Prepared Statement of the Central Arizona Water Conservation District

    Mr. Chairman: The Central Arizona Water Conservation District 
(CAWCD) is pleased to offer the following testimony regarding the 
fiscal year 2002 Energy and Water Development Appropriations Bill.
    The Central Arizona Project or ``CAP'' was authorized by the 90th 
Congress of the United States under the Colorado River Basin Project 
Act of 1968. We thank the Committee for its continuing support of the 
CAP. The CAP is a multi-purpose water resource development project 
consisting of a series of canals, tunnels, dams, and pumping plants 
which lift water nearly 3,000 feet over a distance of 336 miles from 
Lake Havasu on the Colorado River to the Tucson area. The project was 
designed to deliver the remainder of Arizona's entitlement of Colorado 
River water into the central and southern portions of the state for 
municipal and industrial, agricultural, and Indian uses. The Bureau of 
Reclamation (Reclamation) initiated project construction in 1973, and 
the first water was delivered into the Phoenix metropolitan area in 
1985. For the first time, CAP delivered its normal year entitlement of 
1.5 million acre-feet in 2000, allowing Arizona to utilize its full 
Colorado River apportionment of 2.8 million acre-feet.
    CAWCD was created in 1971 for the specific purpose of contracting 
with the United States to repay the reimbursable construction costs of 
the CAP that are properly allocable to CAWCD, primarily water supply 
and power costs. In 1983, CAWCD was also given authority to operate and 
maintain completed project features. Its service area is comprised of 
Maricopa, Pima, and Pinal counties. CAWCD is a tax-levying public 
improvement district, a political subdivision, and a municipal 
corporation, and represents roughly 80 percent of the water users and 
taxpayers of the state of Arizona. CAWCD is governed by a 15-member 
Board of Directors elected from the three 2 counties it serves. CAWCD's 
Board members are public officers who serve without pay.
    Project repayment is provided for through a 1988 Master Repayment 
Contract between CAWCD and the United States. Reclamation declared the 
CAP water supply system (Stage 1) substantially complete in 1993, and 
declared the regulatory storage stage, or Plan 6 (Stage 2), complete in 
1996. No other stages are currently under construction. Project 
repayment began in 1994 for Stage 1 and in 1997 for Stage 2. To date, 
CAWCD has repaid $548 million of CAP construction costs to the United 
States. In 2000, CAWCD and Reclamation successfully negotiated a 
settlement of the dispute regarding the amount of CAWCD's repayment 
obligation for CAP construction costs. This dispute has been the 
subject on ongoing litigation in United States District Court in 
Arizona since 1995. The CAWCD Board of Directors formally approved a 
settlement stipulation on March 2, 2000, and the stipulation was 
subsequently approved by the United States District Court on May 9, 
2000. The settlement stipulation provides a three-year timeframe in 
which to complete several other activities that are necessary for the 
settlement to become final.
    In its fiscal year 2002 budget request, Reclamation seeks 
$31,442,000 for the CAP. Of this amount, $24,420,000 is requested for 
the construction of Indian distribution systems. The balance, 
$7,022,000, is sought for other CAP activities, most of which would be 
at least partially reimbursable by CAWCD. Under the settlement 
stipulation, these costs would not affect CAWCD's repayment obligation. 
Of the total $31,442,000 requested, $1,418,000 is earmarked to fund 
activities associated with implementation of a 1994 biological opinion 
of the U.S. Fish and Wildlife Service (FWS) pertaining to delivery of 
CAP water to the Gila River Basin and for native fish activities on the 
Santa Cruz River.
    For the Gila River Basin, these funds are requested for payments to 
FWS for non-native fish eradication activities and native fish 
conservation ($500,000), and for the Santa Cruz River Basin, funds are 
requested for the construction of fish barriers ($708,000) and non-
native fish eradication activities ($60,000). In addition, Reclamation 
is seeking $148,000 to cover its non-contract costs. Historically, 
CAWCD has objected to Reclamation's continued spending in these areas. 
Both environmentalists and CAWCD challenged the 1994 biological opinion 
in court. However, given its settlement with the United States over CAP 
costs, CAWCD supports Reclamation's budget request to allow it to 
complete Endangered Species Act compliance for CAP deliveries in the 
Gila River basin.
    CAWCD continues to support appropriations necessary to ensure 
timely completion of all CAP Indian distribution systems. We note that 
Reclamation's fiscal year 2002 budget request of $24,420,000 for CAP 
Indian distribution systems is $1,409,000 less than the fiscal year 
2001 budget request for this item. CAWCD supports full funding for this 
program.
    CAWCD also supports the continuation of funding for the Tucson 
Reliability Division. The requested $375,000 will allow planning work 
to continue and will assist Tucson in developing and implementing a 
plan to ensure adequate reliability for its CAP water allocation.
    In its fiscal year 2002 budget request, Reclamation also seeks 
$13,103,00 for its Lower Colorado River Operations Program. This 
program is necessary for Reclamation to continue its activities as the 
``water master'' on the lower Colorado River. In addition, this program 
provides Reclamation's share of funding to complete the lower Colorado 
River Multi-Species Conservation Program (MSCP). Of the $13,103,000, 
$2,808,000 is requested for administration of the Colorado River, 
$2,695,000 is for water contract administration and decree accounting, 
and $7,600,000 is for fish and wildlife management and development. The 
fish and wildlife management and development program includes funding 
for the MSCP ($3,129,000) endangered species protection ($1,364,000) 
riparian and native fish habitat and ecological restoration 
($2,907,000), and program administration ($200,000).
    CAWCD supports Reclamation's budget request for the Lower Colorado 
River Operations Program. The increased funding level is necessary to 
support the MSCP effort as well as environmental measures necessary to 
fully implement the interim surplus criteria for the lower Colorado 
River. These are both critical programs upon which lower Colorado River 
water and power users depend. CAWCE also supports increasing 
Reclamation's funding by $12,500,000 in 2002 to support MSCP pilot 
projects. The $12,500,000 includes $7,000,000 for the acquisition of 
private properties along the lower Virgin River through the Land and 
Water Conservation Fund. $2,500,000 for the Colorado River Indian 
Tribes Ahakhav and Deertail Backwater Restoration Project proposal to 
restore approximately 1,500 acres of native aquatic, wetland, and 
riparian habitat, and $3,000,000 to support habitat conservation 
planning and data acquisition by the U.S. Fish and Wildlife Service on 
behalf of the MSCP.
    The MSCP is a cost-shared program among federal and non-federal 
interests to develop a long-term plan to conserve endangered species 
and their habitat along the lower Colorado River from Lake Mead to 
Mexico. CAWCD is one of the cost-sharing partners. Development of this 
program will conserve hundreds of threatened and endangered species 
and, at the same time, allow current water and power operation to 
continue. The MSCP pilot projects are essential to begin the process of 
protecting and conserving species and habitat on the lower Colorado 
River. The interim surplus criteria allow the Secretary of the Interior 
to declare limited Colorado River surpluses for the next 15 years to 
assist California in gradually reducing its use of Colorado River to 
its annual apportionment of 4.4 million acre-feet.
    Finally, in its fiscal year 2002 budget request, Reclamation seeks 
$685,000 for the South/Central Arizona Investigations Program. This 
program includes funding for the Central Arizona Salinity 
Investigations ($300,000), Southern Arizona Regional Water Management 
Study ($150,000), Verde River Basin Water Management Plan ($35,000), 
West Salt River Valley Water Management Study ($50,000), and the Upper 
Gila Watershed Restoration Program ($150,000). CAWCD again supports 
funding for Reclamation's investigations in south/central Arizona. The 
West Salt River Valley Water Management Study, in particular, will 
study the integration and management of water resources in the West 
Salt River Valley, including the use of CAP water. CAWCID supports 
continued funding for this effort. In addition, the Southern Arizona 
Regional Water Management Study will continue work with Pima County 
water providers to develop a plan for integrating CAP water, 
groundwater, and reclaimed effluent. CAWCD supports funding for this 
effort as well.
    CAWCD welcomes this opportunity to share its views with the 
Committee, and would be pleased to respond to any questions or 
observations occasioned by this written testimony.
                                 ______
                                 

        Prepared Statement of the Mid-Dakota Rural System, Inc.

                    fiscal year 2002 funding request
    First let me thank the Subcommittee for the opportunity to testify 
in support of fiscal year 2002 appropriations for the Mid-Dakota Rural 
Water Project and for the Subcommittee's support both past and present.
    The Mid-Dakota Project is requesting $30.684 million in Federal 
appropriations for fiscal year 2002. As with our past submissions to 
this Subcommittee, Mid-Dakota's fiscal year 2002 request is based on a 
detailed analysis of our ability to proceed with construction during 
the fiscal year. In all previous years, Mid-Dakota has fully obligated 
its appropriated funds, including Federal, state, and local, and could 
have obligated significantly more were they available.
    Mid-Dakota understands and appreciates pressures on Congress to 
pass and maintain a balanced and seemingly an austere budget and in 
that respect we understand the difficulties before congressional 
appropriators to provide sufficient funds to fully fund our request. 
However, we request and strongly urge Congress to appropriate the full 
amount of Mid-Dakota's request.
                       history of project funding
    The Project was authorized by Congress and signed into law by 
President George H.W. Bush in October 1992. The Federal authorization 
for the project totaled $100 million (1989 dollars) in a combination of 
Federal grant and loan funds (grant funds may not exceed 85 percent of 
Federal contribution). The State authorization was for $8.4 million 
(1989 dollars.) The total authorized indexed cost of the project now 
stands at approximately $144 million (fiscal year 2001). All Federal 
funding considered, the Government has provided 61 percent of its 
commitment ($81.8 million of $134 million) to provide construction 
funding for the Project. When considering the Federal and state 
combined awards, the project is approximately 63 percent complete, in 
terms of financial commitments.
    Mid-Dakota wishes to thank this committee for its support over the 
past eight years. Within the limited monetary parameters of current 
Federal awards and funds appropriated by the state of South Dakota, we 
have been able to put those scarce resources to good work, making 
exceptional progress on project construction, albeit not nearly as fast 
as is needed or as we had initially envisioned.

                                                            SUMMARIZATION OF FEDERAL FUNDING
                                                                [In millions of dollars]
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                         Conf.        Bureau                  Total fed.
                Fed. fiscal year                   Mid-Dakota     Pres.        House        Senate      enacted       award      Additional     funds
                                                    Request       budget                                 levels       levels       funds       provided
--------------------------------------------------------------------------------------------------------------------------------------------------------
1994............................................        7.991            0            0        2.000        2.000        1.500            0        1.500
1995............................................       22.367            0            0        8.000        4.000        3.600            0        3.600
1996............................................       23.394        2.500       12.500       10.500       11.500       10.902        2.323       13.225
1997............................................       29.686        2.500       11.500       12.500       10.000        9.400        1.500       10.900
1998............................................       29.836       10.000       12.000       13.000       13.000       12.221        1.000       13.221
1999............................................       32.150       10.000       10.000       20.000       15.000       14.100        2.000       16.100
2000............................................       28.800        5.000       15.000        7.000       14.000       12.859        1.000       13.859
2001............................................       24.000        6.040       11.040        6.040       10.040        9.398            0        9.398
2002............................................       30.684  ...........  ...........  ...........  ...........  ...........  ...........  ...........
                                                 -------------------------------------------------------------------------------------------------------
    Totals......................................  ...........       36.040       72.040       79.040       79.540       73.980        7.823       81.803
--------------------------------------------------------------------------------------------------------------------------------------------------------

    Additionally, the State of South Dakota has contributed $9.67 
million in grants to the Mid-Dakota Project in previous years. The 
State of South Dakota completed its initial authorized financial 
obligation to the Mid-Dakota Project in the 1998 Legislative Session.
    The $10.04 million funding provided by the Subcommittee in fiscal 
year 2001 provided Mid-Dakota with the opportunity to achieve 
significant accomplishments for the fiscal year. These are later 
summarized in the section titled ``Construction in Progress.'' Mid-
Dakota will continue to deliver quality drinking water to 14 community 
systems and approximately 1,800 rural customers (farms and ranches). 
Mid-Dakota estimates that an additional 300 rural farm and ranch 
accounts along with two more community systems will be receiving 
project water at the close of contracts awarded in fiscal year 2000/
2001. The generosity of the Subcommittee has already had a deep and 
favorable effect on the lives of over 12,000 South Dakotans.
                       impacts of previous awards
    As is evident by the previous table (``Summarization of Federal 
funding'') Mid-Dakota has typically received less than one-half of its 
funding requests as an enacted appropriation. As disturbing as the 
funding short-falls are, even more disturbing is the fact that the 
Federal government is not alone in absorbing negative impacts of 
insufficient funding. In addition to making the Mid-Dakota Project more 
expensive to the Federal government, the resulting delays also have had 
a direct and proportional effect on the rate of debt service to be paid 
by the Project and ultimately the water users. The repayment agreement 
entered into by Mid-Dakota and the Federal government (the Bureau of 
Reclamation acting on the government's behalf), demands that Mid-
Dakota's ``minimum bill'' increase proportionally with the indexing 
applied to the Project. This is done by establishing the ratio of the 
Federal authorization at the time Mid-Dakota submitted its Final 
Engineering Report (FER) in 1994, compared to the authorized ceiling 
today with indexing applied. This same ratio is then applied to Mid-
Dakota's ``minimum bill'' as was identified at the time of execution of 
the repayment agreement.
    By the Federal Government's (through the Bureau of Reclamation) own 
design, slowing down the development of the Mid-Dakota Project will 
ultimately make the Project more expensive, in terms of rates paid by 
water users, construction costs, total debt of the Project and Bureau 
of Reclamation's oversight costs.
                   impacts of fiscal year 2002 award
    The most obvious impact of any significant reduction from Mid-
Dakota's request will be the delay of construction of one or more 
Project components. The $30.684 million dollar request will allow the 
Project to proceed with construction of multiple contracts summarized 
later in this testimony. An award of less than our request will result 
in the deletion or reconfiguration of one or more of these contracts 
from the fiscal year 2002 construction schedule. Further, reduced 
appropriations have the effect of adding more cost to the amount needed 
for completion of the Project.
    Mid-Dakota has consistently informed members of Congress and 
appropriate Federal agencies about the detrimental effects insufficient 
funding have on the Project and ultimately the people who are to 
receive the water. In previous years, Mid-Dakota and the public, which 
we will serve, have been able to make the most of the resources 
provided by the Project. However, failure to provide full funding has 
had profound consequences.
                        construction in progress
    Mid-Dakota began construction in September 1994, with the 
construction of its Water Intake and Pump Station. Since that eventful 
day of first construction start, we have bid, awarded, and completed 17 
project components and are constructing on seven other major Project 
components. The following table provides a synopsis of each major 
construction contract:

                                                              SUMMARIZATION OF CONSTRUCTION
                                                                [In millions of dollars]
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                                                            Percent over
   Cont. No.                                  Description                                 Cont.      Cont. bid   Final cont.  Over (under)     (under)
                                                                                        budget \1\     award        price        budget        budget
--------------------------------------------------------------------------------------------------------------------------------------------------------
            1-1 Oahe Water Intake and Pump Station                                         4.662        3.959        3.945       (0.717)          (15)
            2-1 Oahe Water Treatment Plant                                                13.361        9.920       10.278       (3.083)          (23)
           3-1A Raw Water Pipeline                                                         1.352        1.738        1.719        0.367            27
           3-1B Main Pipeline--Blunt                                                       7.823        6.916        7.024       (0.799)          (10)
           3-1C Main Pipeline--Highmore                                                    5.439        4.791        4.798       (0.641)          (12)
           3-2A Main Pipeline--Ree Hights                                                  3.261        3.155        3.149       (0.112)           (3)
           3-2B Main Pipeline--St. Lawrence, SD                                            3.691        3.349        3.352       (0.339)           (9)
   4-1A/B (1-5) Distribution System--West                                                  9.345        9.983       10.731    \2\ 1.386            15
     4-1A/B (6) Distribution System--North West                                            8.333        8.329        9.028    \2\ 0.695             8
        4-2 (1) Distribution System--Central                                               4.727        4.717        4.700       (0.027)          (.5)
        4-2 (2) Distribution System--South Central                                         2.763        2.835        3.000    \2\ 0.237             9
      4-2 (4-5) Distribution System--Central                                               5.753        4.952     In Prog.          n/a           n/a
       4-2A (4) Distribution System--Central                                               1.042         .991     In Prog.          n/a           n/a
            5-1 Water Storage Tank--Highmore                                               1.545        1.434        1.433       (0.108)           (7)
       5-1A (1) Water Storage Tank--Onida                                                  0.471        0.395        0.400       (0.075)          (16)
       5-1A (2) Water Storage Tank--Okobojo                                                0.381        0.338        0.333       (0.048)          (13)
       5-1A (3) Water Storage Tank--Agar                                                   0.422        0.391        0.385       (0.037)           (9)
       5-1A (4) Water Storage Tank--Gettysburg                                             0.952        0.814        0.808       (0.144)          (15)
        5-2 (1) Water Storage Tank--Mac's Corner                                            .460         .573         .561        0.101            22
        5-2 (2) Water Storage Tank--Rezac Lake                                              .438         .493     In Prog.          n/a           n/a
        5-2 (3) Water Storage Tank--Collin's Slough                                         .254         .393     In Prog.          n/a           n/a
       5-2A (1) Water Storage Tank--Ames \3\                                                .300         .378     In Prog.          n/a           n/a
       5-2A (2) Water Storage Tank--Cottonwood Lake \3\                                     .800         .696     In Prog.          n/a           n/a
       5-2A (3) Water Storage Tank--Wessington Springs \3\                                  .515         .491     In Prog.          n/a           n/a
                                                                                    --------------------------------------------------------------------
                      Totals                                                              78.090       72.031       65.644       (3.344)           (5)
--------------------------------------------------------------------------------------------------------------------------------------------------------
                \1\ Contract budget is determined by Mid-Dakota's estimate for the contract at the time of bidding.
                \2\ A significant portion of cost increases are attributable to the placement of additional users as construction proceeds.
                \3\ Contract bid and awarded in fiscal year 2001, only site and concrete work given authorization to proceed.

    As is evident by the foregoing table, Mid-Dakota has been very 
successful in containing Project costs. Currently the construction of 
major Project components are approximately 5 percent under budget, 
providing an estimated saving of over $3.3 million. The savings are an 
example of sound engineering, good management, and advantageous bid 
lettings. While we can't guarantee future contract bid lettings will 
continue to provide the level of savings currently experienced, we do 
think it speaks well of the Mid-Dakota Project and how we've managed 
Project funding to date.
                 response to related crisis situations
    Mid-Dakota also provided the solution to a number of crisis 
situations in the past. The following are some of the most notable 
examples:
  --Mid-Dakota was the catalyst of the ``rescue'' effort in the City of 
        Gettysburg, SD, to provide the town with a dependable, quality 
        water supply (Mid-Dakota) just as they were about to lose their 
        existing water intake, due to sluffing of the hillside at that 
        location.
  --Mid-Dakota constructed an advanced project feature in Virgil, South 
        Dakota. The town of Virgil, SD now has a new distribution 
        system, replacing the old one that was in disrepair and 
        draining the town coffers to keep it running and supply 
        drinking water to Virgil residents.
  --Mid-Dakota has agreed to take over the operations of the Southern 
        Spink and Northern Beadle Rural Water System (SSNB). The SSNB 
        is a small community water supply system that lacks the 
        necessary capacity to properly operate a potable water supply 
        system.
  --Mid-Dakota replaced approximately eight miles of pipeline along 
        U.S. Highway 212. An existing water pipeline located in the 
        Highway right-of-way would have to be relocated increasing the 
        cost of the Highway improvement. Mid-Dakota instead placed its 
        pipeline (that would have been constructed in the future) out 
        of the way of the Highway improvement. This lessened the cost 
        of the Highway project and provided for an uninterrupted supply 
        of water to people along the pipeline route.
  --Mid-Dakota recently (January 2001) took over operational 
        responsibility for the water system in the City of St. 
        Lawrence, South Dakota. The community (pop. <300) was having 
        trouble maintaining a qualified operator to maintain their 
        systems as is mandated by EPA. An Administrative agreement 
        between Mid-Dakota and the City provided a viable solution to 
        their dilemma.
    Additionally, Mid-Dakota is keeping in close contact with the City 
of Huron, SD, (population 12,400) regarding potentially serious EPA 
water quality violations anticipated with the implementation of the 
Safe Drinking Water Act (SDWA) enhanced surface water rules due in 
2003. Engineers who have analyzed the current drinking water source for 
Huron (James River) have concluded that the City will not be able to 
treat the current James River source without very significant and 
costly upgrades to their existing treatment facilities. Further the 
engineers have concluded that without these upgrades or switching to a 
new source i.e., Mid-Dakota, the City will be out of compliance with 
the Disinfection and Disinfection by-products rule (D/DBP) to be 
implemented in 2003. Huron is located at the East end of the Mid-Dakota 
Project (Mid-Dakota is being built in a general West to East manner) 
and is currently Mid-Dakota's largest contracted user. It is 
anticipated that with sufficient funding, beginning with fiscal year 
2002 and continuing thereon, Mid-Dakota can be in a position to connect 
to Huron in time to remedy the potential EPA non-compliance issue faced 
by Huron.
            tentative fiscal year 2002 construction schedule
    Mid-Dakota \3\ has developed an aggressive construction schedule 
for fiscal year 2002, with plans to install nearly 700 miles of rural 
pipeline and 45 miles of main transmission pipeline. The proposed 
construction would provide service to an estimated 17,000 more people 
than are currently receiving or scheduled to receive Project drinking 
water (estimate includes the City of Huron, SD). Our construction 
schedule will also provide the necessary main pipeline infrastructure 
to move forward with many more rural and community connections in the 
future. Federal funding allocated in any given fiscal year is always 
the limiting factor that drives Mid-Dakota's construction schedule.
---------------------------------------------------------------------------
    \3\ Project features listed in table are subject to rescheduling 
based upon funding provided, readiness to proceed, and other factors. 
Actual construction activities, therefore, may not coincide exactly 
with schedule presented here.

                                     CONSTRUCTION SCHEDULE FISCAL YEAR 2002
 [Schedule is based upon Mid-Dakota's ``Capability Statement'' provided to the Bureau of Reclamation in January
                                                      2001]
----------------------------------------------------------------------------------------------------------------
                                                                      Percent         Cost of
               PROJECT FEATURE \1\                 Construction    construction    construction    Total feature
                                                     estimates    phase services  phase services       cost
----------------------------------------------------------------------------------------------------------------
Main Pipeline--Wolsey...........................      $5,777,000             5.5        $317,735      $6,094,735
Main Pipeline--Huron............................       4,959,000             5.5         272,745       5,231,745
Distribution System--Ames \2\...................       3,100,613            12.5         387,577       3,488,190
Distribution System--Cottonwood Lake \2\........       4,801,077            12.5         600,135       5,401,212
Distribution System--Wessington Springs \2\.....       2,824,714            12.5         353,089       3,177,803
Storage Tank--Ames..............................        $225,000            14.0          31,500         256,500
Storage Tank--Cottonwood Lake...................         675,000            14.0          94,500         769,500
Storage Tank--Wessington Springs................         425,000            14.0          59,500         484,500
Storage Tank--Redfield..........................         300,000            14.0          42,000         342,000
                                                 ---------------------------------------------------------------
      Subtotal Construction.....................      23,087,404             9.4       2,158,781      25,246,185
                                                 ===============================================================
Contingencies \3\...............................         ( \4\ )            10.0  ..............       2,308,740
Engineering, Design and Consultants.............  ..............  ..............  ..............         975,000
Administration and General......................         ( \4\ )             2.0  ..............         461,748
Bureau of Reclamation Oversight.................         ( \4\ )             3.0  ..............         692,622
                                                 ---------------------------------------------------------------
      Total RWS fiscal year 2002................  ..............  ..............  ..............      29,684,295
                                                 ===============================================================
Wetland Component...............................  ..............  ..............  ..............       1,000,000
                                                 ---------------------------------------------------------------
      Total Fiscal Year 2002 Request............  ..............  ..............  ..............     30,684,295
----------------------------------------------------------------------------------------------------------------
\1\ Construction of Features not listed in any order of priority.
\2\ Completion of a ``Distribution System'' must include the accompanying Water Storage Tank in order to be
  hydraulically operable.
\3\ Contingencies include 5 percent (bidding) and 5 percent (Change Order).
\4\ Percent of construction.

                                closing
    Mid-Dakota is intensely aware of the difficult funding decisions 
that face the Energy and Water Appropriations Subcommittee and we do 
not envy the difficult job that lies ahead. We strongly urge the 
Subcommittee to look closely at the Mid-Dakota Project and recognize 
the dire need that exists. Consider the exceptionally high level of 
local and state support and lastly, our readiness, our credibility, and 
our ability to proceed.
    Again, we thank the Subcommittee for its strong support, both past 
and present.
                                 ______
                                 

 Prepared Statement of the Fort Peck Assiniboine and Sioux Tribes and 
                        Dry Prairie Rural Water

                    fiscal year 2002 budget request
    The Fort Peck Assiniboine and Sioux Tribes and Dry Prairie Rural 
Water respectfully request fiscal year 2002 appropriations for the 
Bureau of Reclamation from your subcommittee on Energy and Water 
Development. Funds will be used to construct critical elements of the 
Fort Peck Reservation Rural Water System, Montana, (Public Law 106-382, 
October 27, 2000). The amount requested is $7,553,000 as set out below:

Fiscal Year 2002 Budget Request

Non-Contract Construction Activities:                             Budget
    Tribal Administration/Easements...........................  $115,160
    Dry Prairie Administration................................    61,020
    Intake Design/Oversight and Inspection....................   712,800
    WTP Design/Oversight...................................... 1,811,285
    Dane Valley Design/Oversight..............................   174,732
                    --------------------------------------------------------------
                    ____________________________________________________

      Subtotal................................................ 2,874,997
                    ==============================================================
                    ____________________________________________________
Design and Construction Activities
    Intake Construction (100 percent)......................... 2,880,000
    WTP Construction (<5 percent).............................   813,272
    Dane Valley Contruction...................................   984,408
                    --------------------------------------------------------------
                    ____________________________________________________

      Subtotal................................................ 4,677,681
                    ==============================================================
                    ____________________________________________________
      Total................................................... 7,552,678
                          proposed activities
    This project, which includes all of the Fort Peck Indian 
Reservation in Montana and the Dry Prairie portion of the project 
outside the Reservation (see map), was authorized by Public Law 106-
382, October 27, 2000. The budget request provides for final design of 
the intake and treatment plant for this regional drinking water 
project. Most important, the budget request provides for 100 percent of 
the construction costs of the intake on the Missouri River and 15 
percent of the construction costs of the treatment plant. A minor 
project would be undertaken in the Dry Prairie area to bring existing 
water supplies to Dane Valley residents and mitigate costs of hauling 
water so prevalent there. All other construction will be of common 
facilities on the Fort Peck Indian Reservation. The budget request is 
consistent with (but slightly lower than) the construction schedule in 
the Final Engineering Report. (See Table 3 for the construction 
schedule).
                       status of project planning
    The Final Engineering Report, incorporating the costs of facilities 
to serve both the Reservation and the Dry Prairie Rural Water System 
outside the Fort Peck Indian Reservation is scheduled for completion in 
June 2001. The draft FER was submitted for review by Reclamation on 
January 5, 2001. The FER includes a water conservation plan. Bureau of 
Reclamation concluded a value engineering session on the project on 
March 2, 2001.
    The Final Engineering Report shows that construction costs of the 
project total $192 million, October 1998$. Costs on the Fort Peck 
Indian Reservation will be $124 million with 100 percent federal cost 
share. Construction costs off Reservation in the Dry Prairie area will 
be $68 million. The federal cost share in the Dry Prairie area will be 
$51 million (76 percent), the State share will be $8.5 million (12 
percent with an approved mechanism for funding by the Montana 
legislature) and the local share will be $8.5 million (12 percent). The 
total Federal costs will be $175 million (October 1998$), less or 
comparable to similar projects in the Western United States.
    Environmental baseline investigations have been concluded within 
the Reservation and the Dry Prairie areas of the project. The latter 
investigations are currently being incorporated into an environmental 
assessment to be completed in draft form by June 30, 2001, and in final 
form by September 30, 2001.
    By September 30, 2001, the project will have completed the FER, 
water conservation plan and NEPA compliance thereby fulfilling all 
statutory pre-requisites for start of construction in fiscal year 2002.
                         local project support
    The State of Montana, by action of its legislature, appropriated 
$62,000 in fiscal year 1997 to provide for a Needs Assessment and cost 
estimate of facilities outside the Reservation in the Dry Prairie part 
of the project. The 1999 Montana Legislature approved an additional 
$182,000 in planning funds for use by Dry Prairie in fiscal year 1999 
and 2000. The needs and facility costs determined for the Dry Prairie 
Water System were incorporated into the Final Engineering Report. In 
addition, the 1999 Montana Legislature approved a funding mechanism 
from its Treasure State Endowment Program to finance the non-federal 
share of project planning and construction. Demonstrating support of 
Montana for the project, there were only three votes against the 
statutory funding mechanism in both the full House and Senate.
    The Fort Peck Tribes have supported the project since 1992 when 
they conceived it and sought means of improving the quality of life in 
the region. The planning was a logical step after successful completion 
of an historic water rights compact with the State of Montana. This 
compact was the national ``ice breaker'' that increased the level of 
confidence by other Tribes in Indian water right settlement 
initiatives. The Tribes did not seek financial compensation for the 
settlement of their water rights but contemplated water development for 
meaningful projects as now authorized.
    Dry Prairie support is demonstrated by a financial commitment of 
all 14 communities within the service area to participate in the 
project. Rural support is strong, with about 70 percent of area farms 
and ranches intending to participate as evidenced by their intent fees 
of $100 per household.
enterprise community designation and need for water quality improvement
    The Fort Peck Indian Reservation is designated as an Enterprise 
Community, underscoring the level of poverty and need for economic 
development in the region. The success of the Enterprise Community 
designation within the Reservation will be enhanced with the 
availability of safe and adequate municipal, rural and industrial water 
supplies that this regional project will bring to the Reservation. 
Outside the Fort Peck Indian Reservation, the Dry Prairie area has 
income levels that are higher than within the Reservation but lower 
than the State average.
    The geologic setting of the Fort Peck Indian Reservation and the 
counties outside the Reservation is comparable to the rest of eastern 
Montana, North Dakota and South Dakota. With the exception of the 
Missouri River, which is a high quality water source, the groundwater 
supplies of the region are of poor quality. More than 80 percent of 
rural households draw water from near-surface aquifers with nitrates 
exceeding primary contaminant levels for drinking water pursuant to 
regulations implementing the Safe Drinking Water Act. Some of the worst 
water on the North American Continent lies below the Fort Peck Indian 
Reservation in the Madison Formation. This water is not used for human 
or livestock consumption. It is a brine several times more concentrated 
than sea water. Above this unsuitable aquifer are lesser aquifers that 
have been subjected to oil and gas development and have been 
contaminated, in part, by those activities.
    The Poplar River, which flows through the central portions of the 
Fort Peck Indian Reservation and the region is the subject of an 
Apportionment Agreement between Canada and the United States. Half of 
the water supply is available for Canada as measured at the 
International Boundary, and the balance is available for use in the 
United States. Depletion of this resource by agricultural and coal-
fired power generation on the Canadian side increases the 
concentrations of chemicals and contaminants in the supply for the 
United States. The Poplar River and its principle tributaries are 
neither dependable supplies of water nor are they of suitable quality 
for this project. Thus, the Fort Peck Tribes and Dry Prairie have 
successfully planned a regional water project, comparable to Garrison, 
WEB, Mni Wiconi and Mid-Dakota that relies on the high quality waters 
of the Mainstem Missouri River.
    The feature of this project that makes it more cost effective than 
similar projects is its proximity to the Missouri River. The southern 
boundary of the Fort Peck Indian Reservation is formed by the Missouri 
River for a distance of more than 60 miles. Many of the towns in this 
regional project are located two to three miles from the river, 
including Nashua, Frazer, Oswego, Wolf Point, Poplar, Brockton, 
Culbertson, and Bainville. As shown on the enclosed project map, a 
looping transmission system outside the Fort Peck Indian Reservation 
will deliver water 30 to 40 miles north of the Missouri River. 
Therefore, the distances from the Missouri River to all points in the 
main transmission system are shorter than in other projects of this 
nature in the Northern Great Plains.
    For comparison of water quality of this project with other regional 
projects, please refer to Tables 1 and 2.

   TABLE 1.--COMPARISON OF FORT PECK TOTAL DISSOLVED SOLID LEVELS WITH
                           COMPARABLE PROJECTS
------------------------------------------------------------------------
                                                               Total
            Project                     Community            Dissolved
                                                           Solids (mgl)
------------------------------------------------------------------------
Fort Peck.....................  Fort Kipp...............           2,730
Lewis and Clark...............  Upper Limit.............           2,600
Mni Wiconi....................  Red Shirt...............           2,332
Mni Wiconi....................  Reliance................           2,056
Mni Wiconi....................  Murdo...................           1,761
Mni Wiconi....................  Kennebec................           1,740
Mni Wiconi....................  Presho..................           1,398
Fort Peck.....................  Poplar..................           1,380
Fort Peck.....................  Frazer..................           1,180
Lewis and Clark...............  Lower Limit.............           1,179
Mni Wiconi....................  Wakpamni Lake...........           1,125
Mni Wiconi....................  Horse Creek.............             869
Fort Peck.....................  Brockton................             748
Mni Wiconi....................  Pine Ridge Village......             416
------------------------------------------------------------------------


    TABLE 2.--COMPARISON OF FORT PECK SULFATE LEVELS WITH COMPARABLE
                                PROJECTS
------------------------------------------------------------------------
            Project                     Community          Sulfate (mgl)
------------------------------------------------------------------------
Lewis and Clark...............  Upper Limit.............           1,500
Mni Wiconi....................  Reliance................           1,139
Fort Peck.....................  Fort Kipp...............           1,120
Mni Wiconi....................  Red Shirt...............           1,080
Mni Wiconi....................  Murdo...................           1,042
Mni Wiconi....................  Kennebec................             984
Mni Wiconi....................  Presho..................             644
Lewis and Clark...............  Lower Limit.............             538
Fort Peck.....................  Frazer..................             498
Mni Wiconi....................  Horse Creek.............             410
Mni Wiconi....................  Wakpamni Lake...........             398
Fort Peck.....................  Brockton................             212
Fort Peck.....................  Poplar..................             103
Mni Wiconi....................  Pine Ridge Village......              70
------------------------------------------------------------------------


                                                     TABLE 3.--CONSTRUCTION SCHEDULE FORT PECK ASSININBOINE SIOUX MRI SYSTEM/DRY PRAIRIE RWS
                                                                                      [Amounts in dollars]
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                               Fort Peck/
            Segment              Total cost     Dry prair      2001        2002        2003        2004        2005        2006        2007        2008        2009        2010         Total
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Intake........................     2,880,000  Fort Peck...  ..........   2,880,000  ..........  ..........  ..........  ..........  ..........  ..........  ..........  ..........     2,880,000
Treatment Plant...............    16,734,000  Fort Peck...  ..........     814,000  11,161,000   4,759,000  ..........  ..........  ..........  ..........  ..........  ..........    16,734,000
Poplar to Big Muddy...........    22,681,000  Fort Peck...  ..........  ..........  ..........   4,515,000   6,894,000  10,310,000     962,000  ..........  ..........  ..........    22,681,000
Big Muddy to Plentywood.......    19,433,000  Dry Prair...  ..........  ..........  ..........  ..........  ..........  ..........   4,023,000   6,104,000   9,306,000  ..........    19,433,000
Highway 13 to FP Boundary.....     9,247,000  Fort Peck...  ..........  ..........  ..........  ..........  ..........  ..........   4,024,000   5,223,000  ..........  ..........     9,247,000
FP Boundary to Scobey.........     4,025,000  Dry Prair...  ..........  ..........  ..........  ..........  ..........  ..........  ..........  ..........     860,000   3,165,000     4,025,000
Scobey to Plentywood..........     9,838,000  Dry Prair...  ..........  ..........  ..........  ..........  ..........  ..........  ..........  ..........  ..........   9,838,000     9,838,000
Scobey to Opheim..............     7,945,000  Dry Prair...  ..........  ..........  ..........  ..........  ..........  ..........  ..........  ..........  ..........   7,945,000     7,945,000
Poplar to Wolf Point..........    14,889,000  Fort Peck...  ..........  ..........  ..........   4,515,000   6,895,000   3,479,000  ..........  ..........  ..........  ..........    14,889,000
Wolf Point to Porcupine Ck....    25,301,000  Fort Peck...  ..........  ..........  ..........  ..........  ..........  ..........   4,024,000   6,103,000  15,174,000           0    25,301,000
Porcupine Creek to Glasgow....     3,874,000  Dry Prair...  ..........  ..........  ..........  ..........  ..........  ..........  ..........  ..........  ..........   3,874,000     3,874,000
Glasgow to Opheim.............     3,506,000  Dry Prair...  ..........  ..........  ..........  ..........  ..........  ..........  ..........  ..........  ..........   3,506,000     3,506,000
FP OM Buildings...............     1,000,000  Fort Peck...  ..........  ..........  ..........  ..........  ..........  ..........     250,000     250,000     250,000     250,000     1,000,000
DP OM Buildings...............       500,000  Dry Prair...  ..........  ..........  ..........  ..........  ..........  ..........     125,000     125,000     125,000     125,000       500,000
FP Electrical, Meters,             4,164,000  Fort Peck...  ..........  ..........  ..........     595,000     595,000     595,000     595,000     595,000     595,000     594,000     4,164,000
 Easements.
DP Electrical, Meters,             3,521,000  Dry Prair...  ..........  ..........  ..........     503,000     503,000     503,000     503,000     503,000     503,000     503,000     3,521,000
 Easements.
Planning, Design, Admin:
    Fort Peck.................    27,397,000  Fort Peck...   3,143,000   1,044,000   3,156,000   4,067,000   4,067,000   4,067,000   2,786,000   2,394,000   2,434,000     239,000    27,397,000
    Dry Prairie...............    14,626,000  Dry Prair...      50,000      51,000      50,000     202,000     202,000     202,000   1,864,000   2,648,000   4,276,000   5,081,000    14,626,000
                               -----------------------------------------------------------------------------------------------------------------------------------------------------------------
      Total...................   191,561,000  ............   3,193,000   4,789,000  14,367,000  19,156,000  19,156,000  19,156,000  19,156,000  23,945,000  33,523,000  35,120,000   191,561,000
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

      Prepared Statement of the National Urban Agriculture Council

    Mr. Chairman, Members of the Subcommittee, I am Roger Waters, 
President of the National Urban Agriculture Council (NUAC). NUAC is a 
national nonprofit organization established as a center for the 
promotion and implementation of effective water management in the urban 
landscape.
    I would like to offer testimony on six Bureau of Reclamation 
programs: Drought Emergency Assistance; Efficiency, Incentives, Water 
Management and Conservation, Technical Assistance to States, Soil and 
Moisture Conservation, and the Title XVI--Water Reclamation and Reuse.
    I would like to request that the Subcommittee support efforts to 
increase the overall budget of the Bureau of Reclamation. As a result 
of a report by NUAC, ``Withering in the Desert: The Need to increase 
the Bureau of Reclamation's Budget'' we know the Bureau's budget was 
reduced by 36 percent from fiscal year 1991 through fiscal year 2000. 
We are quite concerned about that trend given the fact that many 
communities in the West are concerned that the agency no longer has 
adequate resources to carry out its mission or to properly maintain its 
infrastructure. I urge the Subcommittee to increase the Bureau's core 
activities, including the operation and maintenance of facilities 
designed to provide reliable supplies of water and power to Western 
farmers and communities.
    It is for the above reason that the Western Water Industry has come 
together in an ``Invest In the West'' campaign to push for an increase 
the Bureau's Budget to $1 billion over the next five fiscal years. NUAC 
is proud to be a part of the West-wide coalition on this issue that 
includes the Western Coalition of Arid States, the WateReuse 
Association, the Family Farm Alliance, the national Water Resources 
Association, the Association of California Water Agencies, the Oregon 
Water Resources Congress, the Upper Missouri Water Association and the 
Water users Association.
                      drought emergency assistance
    NUAC has been an active participant in the efforts of the Interim 
National Drought Policy Commission's efforts to produce a report and 
plan for moving forward on recommendations for a national drought 
policy for the country. Part of the core mission of NUAC is to act as a 
center for the acceptance, promotion, and implementation of practical, 
science-based water resource management and conservation practices. An 
important element of that mission is making sure water users are 
prepared for the eventuality of drought. We have been supportive of the 
efforts of the Commission to produce such a vision as part of their 
recommendations in the final report.
    The Bureau of Reclamation requested $500,000 for fiscal year 2002. 
NUAC believes and would ask that Congress consider that given the 
drought problems in this country, that a budget of $5 million be 
included in this program for fiscal year 2002. The Bureau of 
Reclamation and the Department of Agriculture appear to be the best 
agencies suited to working with state and local governments, tribes and 
local water users by undertaking activities that can result in down the 
road savings by the Federal Government not having to provide emergency 
bailouts to the degree they would if such preparedness does not take 
place.
                     efficiency incentives program
    NUAC is supportive of this program that provides a partnership 
among the Bureau of Reclamation, water users, and states to implement 
water use efficiency and conservation solutions that are tailored to 
local conditions. The Bureau of Reclamation requested only $500,000 for 
the program for fiscal year 2002. We would like to see the program 
increased up to $5,000,000 so a greater amount of work can take place 
with water districts for planning assistance and training on the 
development of water conservation plans and water efficient landscapes. 
The need for this type of training was one of the reasons NUAC was 
founded. Water Resource managers and policy makers are increasingly 
challenged by management issues. Paramount to making good management 
decisions is the availability of sound scientifically information. This 
information is an aid in the development of practical and 
environmentally sound programs which are both cost effective and 
socially responsible.
               water management and conservation program
    On the surface this program appear to be a duplication of other 
Bureau of Reclamation assistance programs. The. Bureau of Reclamation 
requested $7.507 million for this program for fiscal year 2002. One of 
the questions that has arisen in this program is whether the Bureau of 
Reclamation has construction authority for funds provided to districts 
under the program. This is an issue we would like the Committee to 
clear up so projects could go forward. We believe the funding requested 
is adequate, but if construction is going to occur under this program 
we would suggest a cap on the size of the project receiving such 
funding so it does not become a program for the few and not the many.
                   technical assistance to the states
    NUAC is concerned with how this program has been cut by Congress 
over the past several years. We believe the data collection and 
analyses for management of water and related land resources that occurs 
with this funding is important in the absence of this country having a 
national water policy, We would ask that the request of not be cut, and 
if possible, the funding be increased to $3 million to help make up the 
shortfall that has occurred from previous cuts.
                     soil moisture and conservation
    The modest amount of the Bureau of Reclamation's request makes this 
program appear unimportant. NUAC would like to see this increased by a 
modest amount to $500,000 but have that increase tied to assisting in 
the efforts from the recommendations of the final National Drought 
Policy Commission Report. We also believe this program should be 
examined to see if it couldn't assist in proper site management of 
Federally funded structures that are going to need water for their 
urban landscapes.
                 title xvi--water reclamation and reuse
    NUAC is supportive of the funding that has been provided in the 
fiscal year 2002 request for the projects that are underway under the 
Title XVI program. The $19.5 million requested is substantially below 
the $30.5 million provided by Congress, for fiscal year 2001 and we 
would request that you consider increasing the funding at least up to 
that level this year. The funding provided for research, new starts, 
and feasibility studies needs to be examined from the standpoint of how 
long it is going to take to fund the existing projects, instead of 
looking to increase the number of project. We believe there is a need 
for a serious discussion among water policy leaders on how to fundthe 
future of this program in a timely manner. With regard to research, we 
see this as an area for the private and public sector to move forward 
on their own. It is important that discussions continue how and for 
what type of research does need to take place and the role Reclamation 
should play in that agenda. We believe the results of those discussions 
would be beneficial in terms of laying the groundwork for any future 
legislative changes to the program and NUAC looks forward to continuing 
to be a part of that effort.
    Thank you for the opportunity to provide testimony for the record 
on these programs.
                                 ______
                                 

                      Letter From Elmer McDaniels

                                Tumalo Irrigation District,
                                      Bend, Oregon, April 16, 2001.
Senator Pete Domenici,
Chair, Committee on Appropriations, Subcommittee on Energy and Water, 
        U.S. Senate, Washington, DC.
    Dear Senator Domenici: The Tumalo Irrigation District (TID) in 
Bend, Oregon respectfully requests your support for inclusion of 
$600,000 in the fiscal year 2002 Energy and Water appropriations bill 
for the District's Bend Feed Canal Project. The 106th Congress 
authorized the U.S. Bureau of Reclamation to participate in the further 
construction associated with the project in the amount of $2.5 million.
    The TID is proposing to pipe a critical portion of our open canals, 
essentially eliminating water loss and enhancing public safety along 
the project's approximate 14,500 foot length. The conserved water would 
be used to deliver enhanced water to the TID irrigators even in drought 
years, as they currently receive inadequate water in 8 of 10 years. It 
will also increase stream flows in Tumalo Creek and the Deschutes 
River.
    The TID Board of Directors has expressed its willingness to pay 
their share of the estimated $5 million project cost of this important 
project which would benefit both the District and the general public. 
We appreciate the previous funding that we have received for work in 
this area and look forward to your favorable consideration of our 
request.
             Sincerely,
                                           Elmer McDaniels,
                                                           Manager.
                                 ______
                                 

       Prepared Statement of the Oregon Water Resources Congress

    Mr. Chairman, Members of the Subcommittee, I am Beverly 
Bridgewater, President of the Oregon Water Resources Congress (OWRC). 
The OWRC represents irrigation, water control, drainage and water 
improvement districts, private ditch and irrigation corporations, 
cities and counties, individual farmers and ranchers statewide as well 
as having agribusiness associates as members.
    I am writing to urge your support for the attached list of projects 
in the Bureau of Reclamation's fiscal year 2002 Budget Request. The 
funding for these projects represents a valuable commitment to meeting 
the needs of our member organizations at a time when many are 
confronted with the problem of how to meet water delivery needs for 
their district populations while at the same time addressing 
environmental and Native American requirements. There are particular 
projects like the Deschutes Ecosystem Restoration project and the 
Klamath project in Southern Oregon that typify this balance.
    I would also like to request that you provide the write-in funding 
for the Tumalo Irrigation District, Bend Feed Canal, Umatilla Boundary 
Change Environmental Assessment projects and funding for implementation 
of herbicide monitoring programs.
    OWRC continues to be concerned about the inadequate funding for the 
Oregon Water Management and Technical Assistance program, the 
Efficiency Incentives program and the Water Management Conservation 
Program. These are valuable programs for water users to address the 
combination of water/environmental/Native American/growth related 
issues in the State.
    OWRC has also been following the work of the Interim National 
Drought Policy Commission. OWRC would like the Subcommittee to consider 
increasing the funding for the Bureau of Reclamation drought assistance 
program up to $5 million so our water users are in the position to 
benefit from the recommendations of the Commissions report.
    With a recent court ruling, irrigation districts are required to 
have an NPDES permit under the Clean Water Act for application of 
herbicides to canals. Monitoring of these systems will be crucial to 
maintaining the ability to deliver an uninterrupted supply of water to 
the irrigators. We are requesting funding in the Bureau of Reclamation 
program for assistance in this effort.
    OWRC also requests that the Subcommittee support efforts to 
increase the overall budget of the Bureau of Reclamation. The Bureau's 
budget was reduced by 36 percent from fiscal year 1991 through fiscal 
year 2000. Because of that trend, many communities in the West are 
concerned that the agency no longer has adequate resources to carry out 
its mission or to properly maintain its infrastructure. I urge the 
Subcommittee to increase funding for the Bureau's core activities, 
including the operation and maintenance of facilities designed to 
provide reliable supplies of water and power to Western farmers and 
communities.
    Thank you for considering our requests and we look forward to 
favorable action by the Subcommittee.

Projects and Programs in fiscal year 2002 Bureau of Reclamation Budget 
that OWRC Supports

Crooked River Project.........................................  $696,000
Deschutes Ecosystem Restoraton Project.....................\1\ 2,000,000
Deschutes Project.............................................   498,000
Deschutes Project, Wickiup Dam................................12,000,000
Eastern Oregon Projects.......................................   607,000
Grand Ronde Water Optimization Study..........................   150,000
Klamath Project...............................................13,010,000
Oregon Investigations Program.................................   457,000
Rogue River Basin Project, Talent Division....................   479,000
Tualatin Project..............................................   256,000
Tualatin Valley Water Supply Feasibility Study................   100,000
Umatilla Basin Project (Phase III)............................    50,000
Umatilla Project.............................................. 2,636,000
Broader Programs:
    Columbia and Snake River Salmon Recovery Project..........11,000,000
    Endangered Species Recovery Implementation................ 1,971,000
    Requests for New Money....................................
    Tumalo Irrigation District, Bend Feed Canal...............   600,000
    Umatilla Boundary Change Environmental Assessment 
      (Hermiston-West Extension)..............................   100,000
    Umatilla Boundary Change Environmental Assessment (West 
      Extension)..............................................   100,000
    Herbicide Monitoring Program in Irrigation Canals.........   100,000

\1\ Fiscal Year 2002 Budget request was $500,000.

   Prepared Statement of the Garrison Diversion Conservancy District

    Over the years, Garrison Diversion Unit appropriations have been 
used to provide a reliable, high quality water supply to rural 
communities in need throughout North Dakota and to maintain the 120 
miles of canals and pumping plants already in place.
    The Garrison Diversion Project continues to be the backbone of a 
series of rural water projects to serve municipal, rural and industrial 
water needs in North Dakota. Completing Garrison Diversion will assure 
our citizens affordable access to an adequate quantity and quality 
water supply for municipal, rural and industrial systems. In addition, 
Garrison Diversion programs and funding are the key to future economic 
development, recreation, tourism and wildlife enhancement in our state.
    The President's budget request includes $25,900,000 for the 
Garrison Diversion Unit. An additional $14,100,000 is needed to 
continue the important work of the MR&I program to serve Indian and 
non-Indian needs on four North Dakota reservations, as well as a 
variety of projects across the state. Additional appropriations will 
continue a very successful effort to develop rural water supply systems 
across the state. This funding impacts the lives of families and 
business owners statewide who are working to provide a basic water 
infrastructure that will serve as a base for efforts to stop the 
devastating out migration of North Dakota's most valuable resource, her 
young people.
    Meeting the Indian MR&I needs also concerns North Dakotans. The 
four Indian reservations in the state face some of the most severe 
water problems in North Dakota. The unmet needs on the reservations are 
growing. Additional appropriations and an appropriate ceiling increase 
will allow tribal leaders to continue working on their most critical 
water needs. Additional funding is desperately needed to continue this 
important program. We concur that this need is of the highest priority.
    The Dakota Water Resources Act provides for a full evaluation and 
completion of an Environmental Impact Statement on the ways to meet the 
water quality and quantity needs in the Red River Valley. Funding is 
needed to continue this important work already underway.
    Mr. Chairman, we fully support and appreciate the committee's 
current and past efforts in regard to funding for the Garrison 
Diversion Unit. Because water is a valuable resource in North Dakota, 
we are committed to finding solutions to our state's water needs.
    Of additional concern, Mr. Chairman, is the overall Bureau of 
Reclamation budget. Current trends show this budget number has been 
shrinking on an annual basis. Additional funding and a redirection of 
the funding allowed for ``water supply programs'' is definitely needed. 
Although water conservation, water reuse and restoring fish and 
wildlife resources are important, the Bureau's budget needs to be 
refocused and increased to place more emphasis on completing the 
authorized projects already on the books.
    We would strongly request that you support efforts to increase the 
overall budget of the Bureau of Reclamation. The Bureau's budget has 
been cut 36 percent from fiscal year 1991 to fiscal year 2000. This is 
the primary Federal agency that we rely upon for funding of our 
infrastructure needs. We know the Bureau of Reclamation has a $5 
billion backlog of work. That work, which includes our project, as well 
as any new authorizations in this Congress, will not be addressed in a 
timely manner if the Bureau continues to be cut and underfunded. We 
support the western water industry's campaign to increase the Bureau's 
Water and Related Resources budget over a five-year period from its 
present $719,000,000 to $1,000,000,000.
                                 ______
                                 

                     Letter From Gail L. Achterman

                     Deschutes Basin Resources Conservancy,
                                      Bend, Oregon, April 16, 2001.
Senator Pete Domenici,
Chairman, Committee on Appropriations, Subcommittee on Energy and 
        Water, U.S. Senate, Washington, DC
    Dear Chairman Domenici: The Deschutes Basin Resources Conservancy 
(DRC) in Bend, Oregon respectfully requests your support of inclusion 
of $2 million in the fiscal year 2002 Energy and Water Appropriations 
bill for DRC's programs that were authorized for $2 million per year in 
Public Law 106-270. The Administration fiscal year 2002 request of 
$500,000 is woefully inadequate for DRC to carryout its mission as 
originally authorized by Congress in 1996.
    The DRC is a community-based cooperative endeavor that believes 
economic progress and natural resource conservation must both be 
accommodated to benefit the basin and its residents. Our goal is to 
improve water quantity and quality in the Deschutes Basin. Since 1998, 
when we first received funding, the DRC has supported 21 restoration 
projects. We have,been able to leverage the Federal money that we have 
received for work in the Basin on one to five basis $1 Federal to $5 
Non-Federal.
    The Federal money we receive allows DRC to bring together state, 
Federal, Tribal and local governmental entities with private interests 
in our area to carryout out basin wide ecosystem restoration. As part 
of our 2001 program we are establishing innovative programs such as the 
Deschutes Water Bank that will assist in efforts throughout the region 
to efficiently transfer water to meet the region's changing needs. We 
are on the cutting edge of new water quality approaches through our 
Carbon Sequestration program whereby farmers in the Basin are 
converting from traditional tillage to no-till methods so that soil 
erosion will decrease and carbon stored in the soils will increase.
    The DRC appreciates the past support of the Subcommittee and looks 
forward to your future support. Thank you for making this letter a part 
of your hearing record on the fiscal year 2002 Energy and Water 
Appropriations Budget for the Bureau of Reclamation.
            Sincerely,
                                         Gail L. Achterman,
                                                Executive Director.
                                 ______
                                 

              Prepared Statement of Washoe County, Nevada

    Washoe County, Nevada, submits the following testimony in support 
of the Spanish Springs Valley Wastewater Reclamation Project unit of 
the Truckee River Reclamation Project authorized in Public law 106-554 
as an amendment to the Bureau of Reclamation Title XVI program. The 
objectives of the Truckee River Reclamation Project are to treat and 
recycle existing wastewaters for multiple uses within the watershed to 
augment the local water supplies and to provide a high quality return 
flow to the Truckee River to meet the requirements of the Pyramid Lake 
settlement and the protection of the Paiute Indian Nation.
    The limited watershed of the Truckee River and the many demands 
upon it for environmental needs, protection of tribal uses, and 
domestic and commercial needs in the burgeoning communities of Reno and 
Sparks compels water recycling and reuse as the river continues its 
course to Pyramid Lake, an acknowledged national resource and a site of 
significance to the Paiute Nation. This region of northern Nevada 
relies upon the Truckee River as its major source of water. The Truckee 
River Reclamation Project has these various objectives as its goal.
    The Spanish Springs area is the fastest growing suburban area of 
Reno. While new subdivisions constructed after 1996 have connected to 
the community sewer system, there are approximately 2000 homes which 
rely on septic tanks for wastewater treatment. This is a lost 
opportunity to enhance the water supply to the region. Connection of 
these homes to the community sewer system would take some of the 
pressure off of Truckee River water supplies by creating additional 
wastewater effluent for non-potable water uses. The community 
represents a moderate income area and lacks the financial resources to 
accomplish this project on its own.
    Washoe County is working with the Spanish Springs community to 
develop a wastewater facilities plan, scheduled to be complete by 
February 2002. This plan will provide for the collection and treatment 
of septic tank flows which are otherwise lost to the groundwater 
aquifer. These flows will become part of the non-potable wastewater 
effluent supply which reduces demands on Truckee River water.
    The total cost of the Spanish Springs Reclamation Project was 
originally estimated at $30 million, $23 million for wastewater 
reclamation/water quality protection and $7 million for extension of 
the water reuse system to the Spanish Springs Valley. Current 
estimates, as a result of further facility planning and preliminary 
design work on the water reuse system are: $39 million for the 
wastewater reclamation project and $7.6 million for the extension of 
the water reuse system.
    The septic tank conversion project will be phased over a number of 
years to lessen the impact to the community of this large scale 
endeavor. The extension of the water reuse system will commence in 
fiscal year 2003. Following is an anticipated schedule of expenditures 
over the first three years of implementation of the project:
                            fiscal year 2002
    Budget.--$400,000 ($100,000 Federal Request)
    Wastewater Reclamation/Water Quality Protection: Activity.--
Completion of Facility Plan and Final Design of Phase I.
                            fiscal year 2003
    Budget.--$13,100,000 ($3,275,000 Federal Request)
    Wastewater Reclamation/Water Quality Protection: Activity.--
Construction of Phase I improvements, conversion of approximately 250 
on-site treatment systems. Design of Phase II improvements.
    Water Reuse System Extension: Activity.--Construct extension of 
water reuse system to Spanish Springs Valley unincorporated area.
                            fiscal year 2004
    Budget.--$5,500,000 ($1,375,000 Federal Request)
    Wastewater Reclamation/Water Quality Protection: Activity.--
Construction of Phase II improvements, conversion of additional 250 on-
site treatment systems. Design of Phase II improvements.
                                 ______
                                 

              Prepared Statement of the MNI Wiconi Project

              fiscal year 2002 construction budget request
    The Mni Wiconi Project beneficiaries (as listed below) respectfully 
request appropriations for construction in fiscal year 2002 for the 
project in the amount of $47,503,000 as follows:

Oglala Sioux Rural Water Supply System:
    Core Facilities (Pipelines and Pumping Stations)....     $17,481,000
    Distribution System on Pine Ridge...................       7,868,000
West River/Lyman-Jones Rural Water Systems..............       8,908,000
Rosebud Sioux Rural Water System........................      11,892,000
Lower Brule Sioux Rural Water System....................       1,354,000
                    --------------------------------------------------------------
                    ____________________________________________________

      Total Mni Wiconi Project..........................      47,503,000

    Additionally, operation, maintenance and replacement funds in the 
amount of $6,500,000, an increase over last year's budget of $6,000,000 
and reflective of the growing operational capability of the project, is 
requested. This brings the total funds request to $54,003,000 for 
fiscal year 2002.
    The subcommittee is asked to note that the total budget requests of 
the Administration over the last several years have been relatively 
unchanged. Thus, as the OMR budget has increased to address increasing 
service to more people, there has been less funding available each year 
for construction. We are hopeful that the subcommittee can give 
attention to the fact that the project is now mid-way in construction 
and needs, at a minimum, a constant or increasing construction budget 
that can bring the project to conclusion in a reasonable time frame.
  need for osrwss to reach murdo in fiscal year 2002--major milestone
    The Oglala, Lower Brule and Rosebud Sioux Tribes have not yet been 
informed of the President's request for the fiscal year 2002 
construction budget for the Mni Wiconi Project as required by the 
Indian Self-Determination Act (Public Law 93-638, as amended). The 
funding request presented above is reasonable and within the capability 
of the sponsors to utilize.
    The principle elements in the budget for fiscal year 2002, delayed 
by inadequate funding in fiscal year 2001, are $17.481 million for the 
Oglala Sioux Rural Water Supply System (OSRWSS) core and funds for 
OSRWSS, Rosebud, Lower Brule and West River/Lyman-Jones to build 
distribution systems that will interconnect with the OSRWSS core 
facilities. The OSRWSS core system funds and most of the funds 
designated for distribution systems are needed to complete the project 
to Murdo in fiscal year 2002, where water can be delivered to the 
largest areas of demand in the West River/Lyman-Jones service area and 
all of the Rosebud service area. By completing the project to Murdo, 
all of the interconnection points for the Lower Brule Sioux Tribe will 
also be provided.
    Only the Pine Ridge Indian Reservation and parts of West River/
Lyman-Jones will be without points of interconnection to the OSRWSS 
core. This landmark in progress on the project in fiscal year 2002 is 
the most significant event in the project to date. The requested 
funding level is needed to achieve the objective and to permit 
interconnection to the OSRWSS core for delivery to approximately 50 
percent of the project water users.
    Important to note is the fact that the intake and treatment plant 
on the Missouri River will be fully operational in summer 2001 and will 
deliver water to Vivian where the Lower Brule Sioux Tribe is building a 
core pipeline that will permit interconnection by West River/Lyman-
Jones.
    Completion of the OSRWSS core pipeline system to Murdo is needed to 
take greater advantage of the completed intake and treatment plant. The 
funding request for fiscal year 2002 will permit completion of the 
necessary construction to Murdo, thereby providing interconnection to a 
population of 26,000, 50 percent of the project population. Absent 
sufficient funds in fiscal year 2002, only 8,000 persons will be 
provided with interconnection to the OSRWSS core to receive water from 
the Missouri River. Emphasis is placed on the importance of serving an 
additional 14,000 residents of the project in fiscal year 2002.
    All proposed sponsor construction activity will build pipelines 
that will provide project water immediately to beneficiaries. In many 
cases, construction is ongoing, and fiscal year 2002 funds are required 
to complete those projects.
    Funding for OSRWSS core and distribution facilities are necessary 
to bring the benefits of the Empowerment Zone designation to the Pine 
Ridge Indian Reservation, one of five rural designations across the 
Nation. There is great anticipation on the Pine Ridge Indian 
Reservation. The Federal projection that as much as $.5 to $1.0 billion 
in economic activity can be generated, however, is largely dependent on 
the timely completion of a water system, which depends on 
appropriations for this project.
    Finally, the Subcommittee is respectfully requested to take 
cognizant of the fact that fiscal year 2002 will conclude with 
construction of facilities that permit sponsors and the Subcommittee to 
bring the end of the project into sight. While amendment of the 
legislation is required to extend the completion date beyond fiscal 
year 2003 to as distant as fiscal year 2007, the Subcommittee has 
consistently supported the project, and the end can now be visualized. 
Key to the conclusion of the project in fiscal year 2003 and beyond is 
the completion of the OSRWSS core to the northeast corner on the Pine 
Ridge Indian Reservation were most on the remaining 50 percent of the 
design population resides. Toward this end, funds are included in the 
fiscal year 2002 budget to build the connecting pipelines between the 
northeast corner of the Pine Ridge Indian Reservation and the central 
portion of the Reservation near Kyle. Rosebud is similarly engaged in 
the construction of major connecting pipelines that will join the 
OSRWSS core near Murdo and deliver water southerly to the central 
portions of the Rosebud Indian Reservation and to service areas for 
West River/Wyman-Jones. Funds in fiscal year 2002 are necessary to 
ensure that when water reaches the northeast corner of the Pine Ridge 
Indian Reservation from the OSRWSS core, pipelines and related 
facilities are available to receive and deliver Missouri River water 
into the Reservation.
                      unique needs of this project
    Each year our testimony addresses the fact that the project 
beneficiaries, particularly the three Indian Reservations, have the 
lowest income levels in the Nation. The health risks to our people 
drinking unsafe water are compounded by reductions in health programs. 
We respectfully submit that our project is unique and that no other 
project in the Nation has greater human needs. Poverty in our service 
areas is consistently deeper than elsewhere in the Nation. Health 
effects of water borne diseases are consistently more prevalent than 
elsewhere in the Nation, due in part to (1) lack of adequate water in 
the home and (2) poor water quality where water is available. Higher 
incidences of impetigo, gastroenteritis, shigellosis, scabies and 
hepatitis-A are well documented on the Indian reservations of the Mni 
Wiconi Project area. At the beginning of the third millennium one 
cannot find a region in which social and economic conditions are as 
deplorable. These circumstances are summarized in Table 1. Mni Wiconi 
builds the dignity of many, not only though improvement of drinking 
water, but through employment and increased earnings during planning, 
construction, operation and maintenance. We urge the subcommittee to 
address the need for creating jobs and improving the quality of life on 
the Pine Ridge and other Indian reservations of the project area.
    Employment and earnings among the Indian people of the project area 
is expected to positively impact the high costs of health-care borne by 
the United States and the Tribes. Our data suggest clear relationships 
between income levels and Federal costs for heart disease, cancer and 
diabetes. During the life of the Mni Wiconi Project, mortality rates 
among the Indian people in the project area for the three diseases 
mentioned will cost the United States and the Tribes more than $1 
billion beyond the level incurred for these diseases among comparable 
populations in the non-Indian community within the project area. While 
this project alone will not raise income levels to a point where the 
excessive rates of heart disease, cancer and diabetes are significantly 
diminished and the projected $1 billion in costs due to excessive rates 
of incidence is not eliminated, the employment and earnings stemming 
from the project will, nevertheless, reduce mortality rates and costs 
of these diseases.

                               TABLE 1.--1990 BUREAU OF CENSUS ECONOMIC STATISTICS
----------------------------------------------------------------------------------------------------------------
                                                                     Per capita families below
                                                                 --------------------------------  Unemployment
                    Indian reservation/state                          Income       Poverty level     (percent)
                                                                     (dollars)       (percent)
----------------------------------------------------------------------------------------------------------------
Pine Ridge (Shannon County).....................................           3,029            59.6            32.7
Rosebud (Todd County)...........................................           4,005            54.4            27.3
Lower Brule (Lyman County)......................................           4,679            45.0            15.7
State of South Dakota...........................................          10,661            11.6             4.2
National........................................................          14,420            10.0             6.3
----------------------------------------------------------------------------------------------------------------

    Financial support for the Indian membership has already been 
subjected to drastic cuts in funding programs through the Bureau of 
Indian Affairs and through Welfare Reform. This project, progressing 
through the budget fighting efforts at the National level, was a source 
of strong hope that would off-set the loss of employment and income in 
other programs and provide for a healthier environment. Tribal leaders 
anticipate that Welfare Reform legislation and other budget cuts 
nation-wide will create a crisis for tribal government when tribal 
members move back to the reservations in order to survive. This 
movement has already started. Recent Census Bureau data indicate that 
the population of Shannon County (Pine Ridge Indian Reservation) 
increased over 21 percent between 1990 and 1997. The population of Todd 
County (Rosebud Indian Reservation) has increased over 11 percent in 
the same time period. Those population increases are greater than 
anticipated and will create water needs that will more than utilize the 
benefits of the Mni Wiconi Project Act. Public policy has resulted in 
accelerated population growth on the reservations. The Act mandates 
that:
    . . .  the United States has a trust responsibility to ensure that 
adequate and safe water supplies are available to meet the economic, 
environmental, water supply and public health needs of the Pine Ridge, 
Rosebud and Lower Brule Indian Reservations. . .
    Indian support for this project has not come easily because the 
historical experience of broken commitments to the Indian people by the 
Federal Government is difficult to overcome. The argument was that 
there is no reason to trust and that the Sioux Tribes are being used to 
build the non-Indian segments of the project and the Indian segments 
would linger to completion. These arguments have been overcome by 
better planning, an amended authorization and hard fought agreements 
among the parties. The Subcommittee is respectfully requested to take 
the steps necessary the complete the critical elements of the project 
proposed for fiscal year 2002.
    The following sections describe the construction activity in each 
of the rural water systems.
          oglala sioux rural water supply system--distribution
    Pine Ridge and parts of West River will be the last project 
sponsors to interconnect with the OSRWSS core to receive Missouri River 
water. With projects now designed and proceeding under construction 
award there are 932 services and 450 miles of distribution and service 
pipelines, down from earlier projections due to the pace of funding. We 
continue to extend the start of new projects. The Manderson Loop has 
been under construction since fiscal year 1996, and the fifth of five 
phases will be scheduled for completion with fiscal year 2002 funds. 
The Red Shirt Project in the northwest corner of the Reservation is 
underway and is scheduled for completion in fiscal year 2001.
    Of particular importance to the Oglala Sioux Tribe is the start of 
the main transmission system from the northeast corner of the 
Reservation to Kyle in the central part of the Reservation. The 
transmission line is needed to interconnect the OSRWSS core system with 
the distribution system within the Reservation in order to deliver 
Missouri River water to the populous portions of the Reservation. With 
adequate funds, this critical segment of the project can be initiated 
in fiscal year 2002 and concluded to coincide with the westward 
construction of the OSRWSS core to the northeast corner of the 
Reservation. This component of the Oglala system has been deferred due 
to inadequate funding although the design and easements have been 
completed on large portions of the project.
        west river/lyman-jones rural water system--distribution
    Mni Wiconi core pipeline construction makes it possible for WR/LJ 
to serve it's membership. Having the OSRWSS water treatment plant on 
line and completing the core pipeline to Murdo in fiscal year 2002 are 
major milestones in Mni Wiconi project development. Efforts undertaken 
over 30 years ago by the project originators are bearing fruit.
    Completion of projects under construction this year is our highest 
priority. The Ft Pierre West project serves WR/LJ users that are 
closest to the water source and have anxiously awaited operation of the 
treatment plant. The Mellette East and Kennebec North projects will 
benefit from the Rosebud core pipeline that is now in service and the 
Lower Brule core line that is under construction, thereby bringing 
quality water service to WR/LJ and Tribal members in these chronically 
short water areas.
    Completion of the core pipeline to Murdo will further the delivery 
of quality water to population centers along Interstate Hwy 90 and 
service to great numbers of America's traveling public. The realization 
of the health and economic benefits of quality water, which have long 
been a vision of the Mni Wiconi project sponsors, will began to take 
place. Bringing quality water to rural residents of the region will 
remove the burden of hauling their drinking water. Providing reliable 
water supplies to livestock producers in the region removes the 
economic threat of having to liquidate their herds in times of drought.
    Continuing appropriations for the Mni Wiconi project has provided 
hope to those not yet served. Those members that will be served last 
are developing faith that their needs will be addressed. WR/LJ with 
reach 34 percent completion with the requested fiscal year 2002 
appropriation. Those members see hope in continued progress of the Mni 
Wiconi project.
                       rosebud rural water system
    For the Rosebud Sioux Tribe the second year of new millennium may 
be the most challenging in the history of the Sicangu Mni Wiconi. The 
proposed work plan has two primary objectives; the connection with the 
OSRWSS Core at Murdo and additional distribution and service lines.
    The connection to the OSRWSS core will reduce the dependence on 
interim ground water supplies in Mellette County. It will provide a 
reliable source of high quality water for economic development, the 
residents in the rural areas near Corn Creek and the WR/LJ Mellette 
East Project. The Corn Creek area, located in western Mellette County, 
suffers from both a lack of water and low quality where it is 
available. This project expands on the work started in 2001 and will 
require additional funding in 2003. The Tribe recently completed an 
engineering review session the results of which should reduce the 
amount of funding required in 2003.
    Additional distribution and service lines are planned for the 
Spring Creek/Grass Mountain area. These connections will utilize 
improvements completed in 2000, 2001 and scheduled for completion to 
bring water to several rural homes in Crazy Horse Canyon. Many of the 
private wells in this area have concentrations of arsenic that exceed 
the recently revised primary drinking water standard. The final project 
proposed is additional distribution and service lines in eastern Todd 
County near Okreek. For water to be available for this area the interim 
supplies currently being utilized in portions of Mellette County will 
have to be replaced with water supplied from the OSRWSS Core pipeline.
              lower brule rural water system--distribution
    The Lower Brule Rural Water System's (LBRWS) new microfiltration 
water treatment plant has been in operation for slightly more than a 
year and continues to provide high quality water to the communities of 
Lower Brule and West Brule and some scattered homesites on the 
Reservation. As well as providing high quality water for use on the 
Reservation, the new plant provides water to West River/Lyman Jones's 
(WR/LJ) Reliance service area including the Town of Reliance through 
the West Brule to Reliance core pipeline. WR/LJ is also utilizing the 
water to flush their newly constructed lines between Reliance and 
Vivian as well as filling and testing their Vivian elevated tank. 
Cooperation and communication between the sponsors on the timing and 
need of water for flushing and testing has developed into a very good 
working relationship.
    The Fort George Butte--County Line Road pipeline is complete and 
the Vivian to Presho pipeline is nearly complete, both of which will be 
tested and placed into operation as soon as water is available from the 
Oglala Sioux Rural Water Supply System (OSRWSS) core pipeline. These 
pipelines will initially serve only WR/LJ users until the on-
Reservation distribution system can be constructed.
    LBRWS has committed current funding for the construction of the 
Presho to Kennebec and Kennebec North pipelines during the 2001 
construction season. This will result in the core pipeline from Vivian 
to Kennebec serving WR/LJ service areas along the pipeline and the 
cities of Vivian, Presho and Kennebec. If adequate funds are available, 
the pipeline north of Kennebec will be extended from the Reservation 
boundary to State Highway 1806 on the Reservation.
    In order to include Lower Brule in the Mni Wiconi Project, a cost 
estimate was hurriedly put together and included in the Final 
Engineering Report without review. After the Project received funding 
and construction began, the LBRWS quickly realized that the original 
estimated cost was severely under estimated. The Bureau of Reclamation 
confirmed the error in the original estimate in their Cost Containment 
Report dated October 1999.
    Primarily, as a result of the severely under estimated cost in the 
Final Engineering Report, the LBRWS has reached its authorized ceiling 
with the receipt of the 2001 funds. However, an amendment to increase 
the ceiling for Lower Brule has been requested and LBRWS is proceeding 
with the optimism that the amendment will be approved in a time frame 
that will not impact the progress that is currently being made. To that 
extent, LBRWS is requesting $1,354,000 in fiscal year 2002 funds. This 
amount would provide adequate funds to construct the Kennebec to 
Reliance core pipeline and complete the core pipeline to be provided 
under the LBRWS. This will allow service to all of the cities and rural 
users in the WR/LJ system in Lyman County.
    The completion of the core pipeline will allow LBRWS to turn its 
focus to the on-Reservation distribution service areas, with current 
cost estimates totaling $6,886,000. The first of these to be 
constructed will be the Fort Hale Service Area, which was previously 
designed but not constructed due to lack of funding and a commitment to 
complete construction of the core pipeline prior to beginning the 
distribution lines. Again, completion of the core pipeline between 
Kennebec and Reliance and the distribution pipeline to serve our on-
Reservation users will only be possible with an increase in its 
authorized cost ceiling of $8,240,000.
    On a related topic, the Mni Wiconi Act authorized in Public Law 
100-516 was amended by Public Law 103-434 to authorize and fund a 
wastewater needs assessment for the three Tribal Reservations within 
the Project. This assessment has been completed and costs have been 
identified, however, further analysis will be needed at the time 
funding is obtained to update the cost of the necessary improvements.
                                 ______
                                 

            Prepared Statement of the City of Salem, Oregon

    The City of Salem requests your consideration in obtaining $200,000 
in additional funding from the United States Bureau of Reclamation for 
the continued development of a natural treatment system being built by 
the City of Salem, Oregon. Salem has been working since 1996 to develop 
a natural reclamation system (NRS) to complement Salem's existing 
secondary wastewater treatment plant. This natural system uses 
treatment wetlands composed of shallow marshes to treat wastewater 
prior to the water either being returned to the Willamette River or 
possibly being reused as a valuable source of irrigation water.
    The Salem Natural Reclamation System was originally authorized by 
Congress in 1998 as amendments to the Reclamation Wastewater and 
Groundwater Study and Facilities Act of 1992 (Public Law 102-575). This 
law authorizes the United States Bureau of Reclamation to participate 
in the (1) planning, (2) design and (3) construction of the NRS with 
the Federal share of the project to not exceed 25 percent of the total 
cost of the project. The original cost estimate for the Natural 
Reclamation System was $35 million. The City of Salem wants to thank 
you again for this authorizing legislation.
    The process the City of Salem is following to develop the full 
scale Natural Reclamation System is to first build a demonstration 
project at Salem's Willow Lake Wastewater Treatment Plant, operate and 
test the demonstration system over a four-year period, and finally, 
depending on the outcome, make a decision on the full-scale system by 
the year 2005. The 2005 date fits with the planned expansion of the 
Willow Lake Treatment Plant.
    Actual cost-share funding of the project is to be obtained from the 
Bureau of Reclamation for each phase of work through a Cost Sharing 
Agreement between the City and the Bureau. The planning study for the 
Natural Reclamation System was completed by the City's consultant, 
CH2M-Hill, in December 1999, and a cost sharing agreement with the 
Bureau of Reclamation was completed in June 2000. The City received 
$50,000 from the Bureau in July 2000 for 25 percent of the planning 
study and wants to again thank both you and the Bureau for this 
support.
    Next, the City had our consultant, CH2M-Hill, prepare design 
drawings and specifications for the Natural Reclamation System. Part of 
the design process has been the establishment of a citizens' advisory 
committee to learn about the NRS project and help make the project 
successful. The Bureau of Reclamation staff are involved with this 
committee. The cost of the design is slightly more than $800,000, and 
the 25 percent share would be $200,000. The City is interested in 
amending the cost sharing agreement with the Bureau in order to receive 
these funds.
    Finally, bid opening for the construction of the demonstration 
Natural Reclamation System was held April 4, 2001. The City received 
eight bids on the demonstration project and the low bid should be 
awarded within the next few weeks. Construction of the demonstration 
system should begin soon and should be completed by next spring 2002.
    In summary, the City of Salem has appreciated the support on this 
project from Congress and the Bureau of Reclamation and hopes you will 
be able to provide additional funding.
                                 ______
                                 

     Prepared Statement of the Colorado River Commission of Nevada

                              introduction
    It has long been said that the Colorado River is the lifeblood of 
the West. Today, the Colorado River supplies vital water and power 
resources for more than 20 million people in Arizona, California and 
Nevada.
    Concerns have been raised about the reliability of these water and 
power resources following the U.S. Fish and Wildlife Service's 1994 
designation of critical habitat for four endangered fish species in the 
Colorado River Basin.
    In response, representatives of the U.S. Department of the 
Interior, Arizona, California, and Nevada, Native American tribes, 
along with various stakeholders and water and power agencies along the 
lower Colorado, have formed a regional partnership, which is developing 
a first-of-its kind multi-species conservation program aimed at 
protecting sensitive, threatened and endangered species of fish, 
wildlife and their habitat.
    The partnership formed a 35-member steering committee, which has 
been designated by the U.S. Fish and Wildlife Service as an Ecosystem 
Conservation and Recovery Implementation Team (ECRIT) under the Federal 
Endangered Species Act. The steering committee has retained the 
services of professional facilitator and technical consultant teams to 
help develop a plan for the conservation program. The conservation plan 
is scheduled for completion in Fall 2002.
                          program description
    The multi-species conservation program will work toward the 
recovery of listed species through habitat restoration and species 
conservation, and reduce the likelihood of additional species listings 
under the Federal and California Endangered Species Act.
    The MSCP planning area includes the historic floodplain of the 
lower Colorado River and reservoir full-pool elevations from Lake Mead 
to the Southerly International Boundary with Mexico. MSCP habitat 
restoration and preservation activities are intended to address the 
following habitat types: aquatic, wetland/marsh, riparian and upland 
desert fringe. It is the intent of the MSCP to re-vegetate native 
cottonwood-willow and mesquite trees in the floodplain, and remove the 
non-native salt cedar, or tamarisk, that has become established.
    The MSCP will be implemented over a 50-year period. The long-term 
program is also intended to accommodate current water diversions and 
power production and optimize opportunities for future water and power 
development. This comprehensive program will provide long-term 
environmental compliance for participating Federal agencies, pursuant 
to Section 7 of the Federal Endangered Species Act, and non-Federal 
agencies under Section 10. California Agencies will also pursue 
programs and actions to achieve compliance with California 
Environmental Quality and Endangered Species Acts.
    Over the past four years, interim conservation measures (ICMs) have 
been developed and implemented to address the immediate critical needs 
for certain endangered species. ICMs benefiting the endangered 
razorback sucker, bonytail, and southwestern willow flycatcher were 
initiated.
                        program development cost
    Current, program development costs are projected at about $6.7 
million over five years for planning needs and implementation of ICMs. 
A Federal/non-Federal cost-sharing agreement is in place for 
development of the program and implementation of interim conservation 
measures. The Federal and non-Federal participants shared program 
development costs on a ``50/50'' basis. Among the non-Federal 
participants, the shares were distributed as follows: 50 percent of the 
non-Federal share was borne by California, 30 percent by Arizona, and 
the remaining 20 percent by the State of Nevada.
                         program implementation
    The MSCP will be implemented over the fifty-year period beginning 
in late-2002. However, MSCP proponents are desirous of implementing a 
series of ``pilot projects'' in order to begin evaluating potential 
habitat restoration and species conservation technologies within the 
planning area. Additionally, the pilot projects would be supplemented 
with species and habitat monitoring and research programs, providing 
the basis for a comprehensive adaptive management approach.
          colorado river indian tribes pilot project proposal
    The Colorado River Indian Tribes (CRIT) have played an active role 
in the restoration of critical habitats for the past eight years. Since 
1993, the tribe has restored, preserved and protected over 2,000 acres 
of riparian, wetland, and aquatic resources on the Lower Colorado 
River. In particular, the Ahakhav Tribal Preserve project has served as 
a model for riparian habitat restoration in the southwestern United 
States for Native American Tribes, the U.S. Fish and Wildlife Service, 
U.S. Bureau of Reclamation, and various other public and private 
agencies. More importantly, it serves as a model for the Lower Colorado 
River Multi-Species Conservation Program (MSCP).
    Located just south and west of Parker, Arizona, in La Paz County, 
the Ahakhav and Deertail Backwater Restoration Pilot Project is located 
on the Colorado River on the Colorado River Indian Reservation. The 
Ahakhav and Deertail Restoration Pilot Project provides numerous 
opportunities for MSCP covered species conservation and native habitat 
restoration. Many of the nearly 100 species proposed for coverage, or 
receiving benefits from MSCP conservation, occur on lands within the 
pilot project area. Anticipated actions for this pilot project include 
enhancement of riparian, wetland, and aquatic habitats and continued 
collaboration with ongoing Native American, Federal, and state 
environmental planning efforts, specifically the MSCP.
                     pilot project area description
    The Ahakhav and Deertail backwaters extend from Rivermile (RM) 169 
to 174 on the Colorado River. This restoration pilot project plans to 
restore native riparian, wetland, and aquatic habitats modified through 
development of the Colorado River water and hydroelectric power 
resources over the past century. This proposed pilot project would 
restore over 1,000 acres of native riparian habitat, 200 acres of open 
water, 250 acres of wetland/marsh complex, and 200 acres of fallowed 
agricultural land. Over 300 species of birds, 32 species of mammals, 19 
fish species, 20 species of reptiles, and 9 amphibian species utilize 
the sites. In addition, 29 threatened or endangered species are 
expected to benefit from the proposed pilot project, including the 
endangered southwestern willow flycatcher, Yuma clapper rail, and 
razorback sucker.
                         pilot project actions
    In keeping with the overarching intent of the MSCP, habitat 
restoration at these sites is the primary component of the project. 
This MSCP pilot project seeks to restore wildlife habitat and some 
measure of pre-development hydraulic conditions in this area. This will 
be accomplished through re-excavation and re-connection of historic 
channel features, installation of water control structures, conversion 
of agricultural land and riparian re-vegetation activities. The 
following is a list of pilot project goals and objectives:
  --Excavate historic channel features to improve water quality and 
        flow in existing wetlands;
  --Convert fallowed agricultural lands into cottonwood-willow forests;
  --Re-vegetate stands of native cottonwood, willow, and mesquite trees 
        in areas where exotic plant species have invaded;
  --Implement pre- and post-restoration monitoring to measure success 
        and aid in the development of future maintenance and 
        restoration activity recommendations; and
  --Provide environmental and cultural education and low-impact 
        recreational opportunities for surrounding communities.
                         pilot project funding
    It is proposed that the CRIT Ahakhav and Deertail Restoration Pilot 
Project of $2.5 million be funded through the U.S. Bureau of 
Reclamation, Lower Colorado Region, Lower Colorado River Operations 
(LCROP) budget line item.
                                 ______
                                 

      Prepared Statement of the Colorado River Board of California

                              introduction
    It has long been said that the Colorado River is the lifeblood of 
the West. Today, the Colorado River supplies vital water and power 
resources for more than 20 million people in Arizona, California and 
Nevada.
    Concerns have been raised about the reliability of these water and 
power resources following the U.S. Fish and Wildlife Service's 1994 
designation of critical habitat for four endangered fish species in the 
Colorado River Basin.
    In response, representatives of the U. S. Department of the 
Interior, Arizona, California, and Nevada, Native American tribes, 
along with various stakeholders and water and power agencies along the 
lower Colorado, have formed a regional partnership, which is developing 
a first-of-its kind multi-species conservation program aimed at 
protecting sensitive, threatened and endangered species of fish, 
wildlife and their habitat.
    The partnership formed a 35-member steering committee, which has 
been designated by the U.S. Fish and Wildlife Service as an Ecosystem 
Conservation and Recovery Implementation Team (ECRIT) under the 
federaly Endangered Species Act. The steering committee has retained 
the services of professional facilitator and technical consultant teams 
to help develop a plan for the conservation program. The conservation 
plan is scheduled for completion in Fall 2002.
                          program description
    The multi-species conservation program will work toward the 
recovery of listed species through habitat restoration and species 
conservation, and reduce the likelihood of additional species listings 
under the Federal and California Endangered Species Act.
    The MSCP planning area includes the historic floodplain of the 
lower Colorado River and reservoir full-pool elevations from Lake Mead 
to the Southerly International Boundary with Mexico. MSCP habitat 
restoration and preservation activities are intended to address the 
following habitat types: aquatic, wetland/marsh, riparian and upland 
desert fringe. It is the intent of the MSCP to conserve, protect, and 
re-vegetate native cottonwood-willow and mesquite trees in the 
floodplain, and remove the non-native salt cedar, or tamarisk, that has 
become established.
    The MSCP will be implemented over a 50-year period. The long-term 
program is also intended to accommodate current water diversions and 
power production and optimize opportunities for future water and power 
development. This comprehensive program will provide long-term 
environmental compliance for participating Federal agencies, pursuant 
to Section 7 of the Federal Endangered Species Act, and non-Federal 
agencies under Section 10. California Agencies will also pursue 
programs and actions to achieve compliance with California 
Environmental Quality and Endangered Species Acts.
    Over the past four years, interim conservation measures (ICMs) have 
been developed and implemented to address the immediate critical needs 
for certain endangered species. ICMs benefiting the endangered 
razorback sucker, bonytail, and southwestern willow flycatcher were 
initiated. LCR MSCP Interim conservation measures have been previously 
awarded to the CRIT for habitat restoration projects associated with 
the Ahakhav Tribal Preserve.
                        program development cost
    The cost to develop the long-term conservation plan is projected to 
be approximately $6.7 million over five years for planning needs and 
implementation of ICMs. A Federal/non-Federal cost-sharing agreement is 
in place for development of the program and implementation of interim 
conservation measures. The Federal and non-Federal participants shared 
program development costs on a ``50/50'' basis. Among the non-Federal 
participants, the shares were distributed as follows: 50 percent of the 
non-Federal share was borne by California, 30 percent by Arizona, and 
the remaining 20 percent by the State of Nevada.
                         program implementation
    The MSCP will be implemented over the fifty-year period beginning 
in late-2002. However, MSCP proponents are desirous of implementing a 
series of ``pilot projects'' in order to begin evaluating potential 
habitat restoration and species conservation technologies within the 
planning area. Additionally, the pilot projects would be supplemented 
with species and habitat monitoring and research programs, providing 
the basis for a comprehensive adaptive management approach.
          colorado river indian tribes pilot project proposal
    The Colorado River Indian Tribes (CRIT) have played an active role 
in the restoration of critical habitats for the past eight years. Since 
1993, the tribe has restored, preserved and protected over 2,000 acres 
of riparian, wetland, and aquatic resources on the Lower Colorado 
River. In particular, the Ahakhav Tribal Preserve project has served as 
a model for riparian habitat restoration in the southwestern United 
States for Native American Tribes, the U.S. Fish and Wildlife Service, 
U.S. Bureau of Reclamation, and various other public and private 
agencies. More importantly, it serves as a model for the Lower Colorado 
River Multi-Species Conservation Program (MSCP).
    Located just south and west of Parker, Arizona, in La Paz County, 
the Ahakhav and Deertail Backwater Restoration Pilot Project is located 
on the Colorado River on the Colorado River Indian Reservation. The 
Ahakhav and Deertail Restoration Pilot Project provides numerous 
opportunities for MSCP covered species conservation and native habitat 
restoration. Many of the nearly 100 species proposed for coverage, or 
receiving benefits from MSCP conservation, occur on lands within the 
pilot project area. Anticipated actions for this pilot project include 
enhancement of riparian, wetland, and aquatic habitats and continued 
collaboration with ongoing Native American, Federal, and state 
environmental planning efforts, specifically the MSCP.
                     pilot project area description
    The Ahakhav and Deertail backwaters extend from Rivermile (RM) 169 
to 174 on the Colorado River. This restoration pilot project plans to 
restore native riparian, wetland, and aquatic habitats modified through 
development of the Colorado River water and hydroelectric power 
resources over the past century. This proposed pilot project would 
restore over 1,000 acres of native riparian habitat, 200 acres of open 
water, 250 acres of wetland/marsh complex, and 200 acres of fallowed 
agricultural land. Over 300 species of birds, 32 species of mammals, 19 
fish species, 20 species of reptiles, and 9 amphibian species utilize 
the sites. In addition, 29 threatened or endangered species are 
expected to benefit from the proposed pilot project, including the 
endangered southwestern willow flycatcher, Yuma clapper rail, and 
razorback sucker.
                         pilot project actions
    In keeping with the overarching intent of the MSCP, habitat 
restoration at these sites is the primary component of the project. 
This MSCP pilot project seeks to restore wildlife habitat and some 
measure of pre-development hydraulic conditions in this area. This will 
be accomplished through re-excavation and re-connection of historic 
channel features, installation of water control structures, conversion 
of agricultural land and riparian re-vegetation activities. The 
following is a list of pilot project goals and objectives:
  --Excavate historic channel features to improve water quality and 
        flow in existing wetlands;
  --Convert fallowed agricultural lands into cottonwood-willow forests;
  --Re-vegetate stands of native cottonwood, willow, and mesquite trees 
        in areas where exotic plant species have invaded;
  --Implement pre- and post-restoration monitoring to measure success 
        and aid in the development of future maintenance and 
        restoration activity recommendations; and
  --Provide environmental and cultural education and low-impact 
        recreational opportunities for surrounding communities.
                         pilot project funding
    It is proposed that the CRIT Ahakhav and Deertail Restoration Pilot 
Project of $2.5 million be funded through the U.S. Bureau of 
Reclamation, Lower Colorado Region, Lower Colorado River Operations 
(LCROP) budget line item, for which Federal, tribal, and state MSCP 
participants shall receive credit as part of their long-term 
conservation commitments.
                                 ______
                                 

    Prepared Statement of the Arizona Department of Water Resources

    Your support and leadership are requested in securing additional 
fiscal year 2002 funding for the Department of the Interior with 
respect to the Federal/State/tribal Lower Colorado River Multi-Species 
Conservation Program (LCR MSCP). The LCR MSCP is the multi-stakeholder 
process, organized in 1995, that is developing a long-term endangered 
species and habitat conservation program for the mainstream of the 
Lower Colorado River in the States of Arizona, California and Nevada. 
This comprehensive program, when completed and implemented in 2002, is 
intended to meet the needs of over 100 species and aquatic, wetland and 
riparian habitats along the Lower Colorado River from Lake Mead to the 
Southerly International Boundary with Mexico.
    The purpose of the LCR MSCP is to provide Federal, State and tribal 
managers and users of the Lower Colorado River's water and 
hydroelectric power resources with a 50-year environmental compliance 
program meeting the needs of the Federal and California Endangered 
Species Acts, California Environmental Quality Act, California Natural 
Communities Conservation Planning Act and National Environmental Policy 
Act. This long-term compliance program is required in order for the 
Lower Colorado River Basin States to continue current River operations 
and accommodate future water and power operations.
    The Arizona Department of Water Resources (Department) is the state 
agency charged with protecting Arizona's interests and rights in the 
water resources of the Colorado River System. In this capacity, the 
Department and approximately 35 other organizations and agencies, 
Federal, State and tribal, are members of the LCR MSCP Steering 
Committee, and have been designated as an ``Ecosystem Conservation 
Recovery Implementation Team'' (ECRIT) by the U.S. Fish and Wildlife 
Service for the purpose of the preparing the LCR MSCP, pursuant to 
Section 4(f)(2) of the Federal Endangered Species Act.
    The purpose of this request for additional funding for the Bureau 
of Reclamation's Lower Colorado Region Lower Colorado River Operations 
Program (LCROP) budget line item, is in support of a critically needed 
habitat restoration project on the Colorado River Indian Tribes (CRIT) 
reservation near Parker, Arizona. The CRIT Ahakhav and Deertail 
Backwater Restoration Project proposal to restore approximately 1,500 
acres of native aquatic, wetland and riparian habitat will provide 
immediate benefits to many Federally listed threatened and endangered 
species, as well as many state-listed or sensitive species. Enclosed 
with this letter is written testimony which describes the LCR MSCP and 
restoration project in more detail in support of our request.
    The Colorado River Indian Tribes are an active participant in the 
LCR MSCP and are a recognized leader in the implementation of habitat 
restoration activities associated with the re-establishment of native 
riparian habitat along the Lower Colorado River. The CRIT habitat 
restoration is intended to kickoff implementation of the larger, more 
comprehensive species conservation and habitat restoration effort being 
developed through the consensus-based LCR MSCP.
    The State of Arizona's Water Protection Fund, a riparian 
restoration and enhancement program, funded two other complementary 
restoration projects on CRIT lands. Those projects were recently 
completed, and have resulted in the successful restoration of over 175 
acres of riparian and wetland habitat. The State of Arizona contributed 
more than $1.3 million towards the implementation of these 
complementary projects.
    The Department recognizes that the Bureau of Reclamation's LCROP 
budget line item is used for a variety of programs important to the 
Lower Colorado River Basin States. Specifically, Reclamation's 
continued compliance with the terms and conditions of the 1997 U.S. 
Fish and Wildlife Service biological opinion for current River 
operations is critical to maintaining the status quo. For this reason, 
the Department respectfully requests that the LCROP line item budget be 
increased by $2.5 million in support of the CRIT Ahakhav and Deertail 
Backwater Restoration Project, on behalf of the LCR MSCP process.
    The Colorado River is, and will continue to be, a major and vital 
water and hydropower resource to the 17 million residents of southern 
California. Preservation and conservation of the Lower Colorado River's 
habitat and species is of major importance not only to the southwestern 
United States, but also to the Country as a whole.
    The Department greatly appreciates your support of the LCR MSCP's 
CRIT Ahakhav and Deertail Backwater Restoration Project proposal, and 
again asks for your assistance and leadership in securing additional 
funding for this important project.
                                 ______
                                 

 Prepared Statement of the Lower Colorado River Basin States--Arizona, 
                         California and Nevada

                              introduction
    It has long been said that the Colorado River is the lifeblood of 
the West. Today, the Colorado River supplies vital water and power 
resources for more than 20 million people in Arizona, California and 
Nevada.
    Concerns have been raised about the reliability of these water and 
power resources following the U.S. Fish and Wildlife Service's 1994 
designation of critical habitat for four endangered fish species in the 
Colorado River Basin.
    In response, representatives of the U. S. Department of the 
Interior, Arizona, California, Nevada and Native American tribes, along 
with various stakeholders and water and power agencies along the Lower 
Colorado River, have formed a regional partnership, which is developing 
a first-of-its kind Multi-Species Conservation Program (MSCP) aimed at 
protecting sensitive, threatened and endangered species of fish, 
wildlife and their habitat.
    The partnership formed a 35-member steering committee, which has 
been designated by the U.S. Fish and Wildlife Service as an Ecosystem 
Conservation and Recovery Implementation Team (ECRIT) under the Federal 
Endangered Species Act. The steering committee has retained the 
services of professional facilitator and technical consultant teams to 
help develop a plan for the MSCP. The MSCP is scheduled for completion 
in Fall 2002.
                          program description
    The MSCP will work toward the recovery of listed species through 
habitat restoration and species conservation, and reduce the likelihood 
of additional species listings under the Federal and California 
Endangered Species Act.
    The MSCP planning area includes the historic floodplain of the 
Lower Colorado River and reservoir full-pool elevations from Lake Mead 
to the Southerly International Boundary with Mexico. MSCP habitat 
restoration and preservation activities are intended to address the 
following habitat types: aquatic, wetland/marsh, riparian and upland 
desert fringe. It is the intent of the MSCP to re-vegetate native 
cottonwood-willow and mesquite trees in the floodplain, and remove the 
non-native salt cedar, or tamarisk, that has become established.
    The MSCP will be implemented over a 50-year period. The long-term 
program is also intended to accommodate current water diversions and 
power production and optimize opportunities for future water and power 
development. This comprehensive program will provide long-term 
environmental compliance for participating Federal agencies, pursuant 
to Section 7 of the Federal Endangered Species Act, and non-Federal 
agencies under Section 10. California agencies will also pursue 
programs and actions to achieve compliance with California 
Environmental Quality and Endangered Species Acts.
    Over the past four years, interim conservation measures (ICMs) have 
been developed and implemented to address the immediate critical needs 
for certain endangered species. ICMs benefiting the endangered 
Razorback Sucker, Bonytail, and Southwestern Willow Flycatcher were 
initiated.
    In addition, implementation of this pilot project will enhance two 
other restoration projects, a riparian restoration and enhancement 
program, recently completed on CRIT lands and funded by the State of 
Arizona's Water Protection Fund. Those projects have resulted in the 
successful restoration of over 175 acres of riparian and wetland 
habitat. The State of Arizona contributed more than $1.3 million 
towards the implementation of these complementary projects.
                        program development cost
    Current program development costs are projected at about $6.7 
million over five years for planning needs and implementation of ICMs. 
A Federal/non-Federal cost-sharing agreement is in place for 
development of the program and implementation of interim conservation 
measures. The Federal and non-Federal participants shared program 
development costs on a ``50/50'' basis. Among the non-Federal 
participants, the shares were distributed as follows: 50 percent of the 
non-Federal share was borne by California, 30 percent by Arizona, and 
the remaining 20 percent by Nevada.
                         program implementation
    The MSCP will be implemented over the fifty-year period beginning 
in late-2002. However, MSCP proponents are desirous of implementing a 
series of ``pilot projects'' in order to begin evaluating potential 
habitat restoration and species conservation technologies within the 
planning area. Additionally, the pilot projects would be supplemented 
with species and habitat monitoring and research programs, providing 
the basis for a comprehensive adaptive management approach.
          colorado river indian tribes pilot project proposal
    The Colorado River Indian Tribes (CRIT) have played an active role 
in the restoration of critical habitats for the past eight years. Since 
1993, the tribe has restored, preserved and protected over 2,000 acres 
of riparian, wetland and aquatic resources on the Lower Colorado River. 
In particular, the Ahakhav Tribal Preserve project has served as a 
model for riparian habitat restoration in the southwestern United 
States for Native American Tribes, the U.S. Fish and Wildlife Service, 
U.S. Bureau of Reclamation and various other public and private 
agencies. More importantly, it serves as a model for the Lower Colorado 
River MSCP.
    Located just south and west of Parker, Arizona, in La Paz County, 
the Ahakhav and Deertail Backwater Restoration Pilot Project is located 
on the Colorado River on the Colorado River Indian Reservation. The 
Ahakhav and Deertail Restoration Pilot Project provides numerous 
opportunities for MSCP covered species conservation and native habitat 
restoration. Many of the nearly 100 species proposed for coverage, or 
receiving benefits from MSCP conservation, occur on lands within the 
pilot project area. Anticipated actions for this pilot project include 
enhancement of riparian, wetland and aquatic habitats and continued 
collaboration with ongoing Native American, Federal and State 
environmental planning efforts, specifically the MSCP.
                     pilot project area description
    The Ahakhav and Deertail backwaters extend from Rivermile (RM) 169 
to 174 on the Colorado River. This restoration pilot project plans to 
restore native riparian, wetland and aquatic habitats modified through 
development of the Colorado River water and hydroelectric power 
resources over the past century. This proposed pilot project would 
restore over 1,000 acres of native riparian habitat, 200 acres of open 
water, 250 acres of wetland/marsh complex and 200 acres of fallowed 
agricultural land. Over 300 species of birds, 32 species of mammals, 19 
fish species, 20 species of reptiles and 9 amphibian species utilize 
the sites. In addition, 29 threatened or endangered species are 
expected to benefit from the proposed pilot project, including the 
endangered Southwestern Willow Flycatcher, Yuma Clapper Rail and 
Razorback Sucker.
                         pilot project actions
    In keeping with the overarching intent of the MSCP, habitat 
restoration at these sites is the primary component of the project. 
This MSCP pilot project seeks to restore wildlife habitat and some 
measure of pre-development hydraulic conditions in this area. This will 
be accomplished through re-excavation and re-connection of historic 
channel features, installation of water control structures, conversion 
of agricultural land and riparian re-vegetation activities. The 
following is a list of pilot project goals and objectives:
  --Excavate historic channel features to improve water quality and 
        flow in existing wetlands;
  --Convert fallowed agricultural lands into cottonwood-willow forests;
  --Re-vegetate stands of native cottonwood, willow and mesquite trees 
        in areas where exotic plant species have invaded;
  --Implement pre- and post-restoration monitoring to measure success 
        and aid in the development of future maintenance and 
        restoration activity recommendations; and,
  --Provide environmental and cultural education and low-impact 
        recreational opportunities for surrounding communities.
                         pilot project funding
    It is proposed that the CRIT Ahakhav and Deertail Restoration Pilot 
Project of $2.5 million be funded by increasing the U.S. Bureau of 
Reclamation, Lower Colorado Region, Lower Colorado River Operations 
(LCROP) budget line item.
                                 ______
                                 

                        Letter From Jim Geringer

                  State of Wyoming, Office of the Governor,
                                       Cheyenne, WY, April 4, 2001.
Hon. Pete V. Domenici, Chairman,
Hon. Harry Reid, Ranking Minority Member,
Subcommittee on Energy and Water Development, Committee on 
        Appropriations, U.S. Senate, Washington, DC.
    Dear Chairman Domenici and Ranking Minority Member Reid: This 
letter is sent in support of fiscal year 2002 funding for the Bureau of 
Reclamation's Colorado River Basin Salinity Control Program. I request, 
inclusion of this letter into the formal hearing record concerning 
fiscal year 2002 appropriations.
    The Colorado River provides municipal and industrial water for more 
than 18 million people in seven states. It also provides irrigation 
water for about 2 million acres of land. The salinity of the river is 
high, in almost equal part, because of natural features such as 
underlying salt formations and saline springs and the use of water by 
man. Over-application of irrigation water by agriculture is also a 
large contributor of salt to the river, as irrigation water seeps 
through saline soils and returns to the river.
    The 1944 Mexico Treaty obligates the United States to provide 1.5 
million acre-feet of water to Mexico, but does not address quality. 
Mexico filed a formal protest in the 1960's when the salinity levels of 
water being delivered pursuant to the Treaty increased sharply. Several 
minutes to the Treaty were negotiated, including Minute 242, to address 
the water quality concerns voiced by Mexico. That minute requires that 
the average annual salinity of the Colorado delivered upstream from 
Morelos Dam (Mexico's principal diversion dam) does not exceed the 
average salinity of the water arriving at Imperial Dam by a specified 
amount.
    The Environmental Protection Agency's interpretation of the 1972 
amendments to the Clean Water Act required the seven Basin states to 
adopt water quality standards for salinity levels in the Colorado 
River. The Colorado River Basin Salinity Control Forum was created as 
an interstate coordination mechanism in 1973, consisting of 
gubernatorial appointees from Arizona, California, Colorado, Nevada, 
New Mexico, Utah, and Wyoming. To address salinity problems, and ensure 
the United States could meet its obligation to Mexico, the Congress 
passed the Colorado River Basin Salinity Control Act of 1974. Title I 
addressed the United States' obligations to Mexico to control river 
salinity concentrations, while Title II of the Act authorized measures 
upstream of Imperial Dam and directed the Secretary of the Interior to 
construct several salinity control projects, most of which are located 
in Colorado, Utah, and Wyoming. Title II of the Act, which was amended 
in 1984 and 1995, directed the Bureau of Reclamation to conduct a $75 
million pilot program to award grants on a competitive-bid basis for 
salinity control projects. Cost savings under this pilot program have 
far exceeded expectations--down to about $30 per ton of salt control, 
from the previous average of about $80 per ton. The Forum was heavily 
involved in the development of the 1974 Act and has continued to have a 
very active role in overseeing the Federal agencies' salinity control 
program efforts.
    For the past 28 years, the seven-state Colorado River Basin 
Salinity Control Forum has actively assisted the Federal agencies, 
including the Bureau of Reclamation, in implementing this unique, 
collaborative and important program. At its recent October 2000 
meeting, the Forum recommended that the Bureau of Reclamation should 
expend $17,500,000 in fiscal year 2002. This funding level is 
appropriate to reduce a growing ``backlog'' in meeting the pace of salt 
loading reductions necessary to control the salinity of Colorado River 
waters so as not to exceed the numeric salinity concentration criteria 
contained within the water quality standards for the Colorado River. 
Failure to maintain the standards' numeric criteria could result in the 
imposition of state-line water quality standards and impair the 
Colorado River Basin states' ability to develop their Compact-
apportioned water supplies. ``Catch-up'' funding in the future will 
require expending greater sums of money, increasing the likelihood that 
the numeric salinity criteria are exceeded, and create undue burdens 
and difficulties for one of the most successful Federal/State 
cooperative non-point source pollution control programs in the United 
States.
    The State of Wyoming greatly appreciates the Subcommittee's support 
of the Colorado River Salinity Control Program in past years. We 
respectfully suggest this important basin-wide water quality 
improvement program merits continued funding and support by your 
Subcommittee.
            Best regards,
                                              Jim Geringer,
                                                          Governor.
                                 ______
                                 

   Prepared Statement of the New Mexico Interstate Stream Commission

                                summary
    This Statement is submitted in support of appropriations for the 
Colorado River Basin salinity control program of the Department of the 
Interior's Bureau of Reclamation. Congress designated the Bureau of 
Reclamation to be the lead agency for salinity control in the Colorado 
River Basin by the Colorado River Basin Salinity Control Act of 1974. 
Public Law 104-20 reconfirmed the Bureau of Reclamation's role. A total 
of $17.5 million is requested for fiscal year 2002 to implement the 
authorized salinity control program of the Bureau of Reclamation. The 
President's request for funding is not known at this time. An 
appropriation of $17.5 million for Reclamation's salinity control 
program is necessary to protect water quality standards for salinity, 
to prevent unnecessary levels of economic damage from increased 
salinity levels in water delivered to the Lower Basin states and 
Mexico.
                               statement
    The water quality standards for salinity of the Colorado River must 
be protected while the Basin States continue to develop their compact 
apportioned waters of the river. Studies have shown that the 
implementation of the salinity control program has fallen below the 
threshold necessary to prevent future exceedence of the numeric 
criteria of the water quality standards for salinity in the Lower Basin 
of the Colorado River. The salinity standards for the Colorado River 
have been adopted by the seven Basin States and approved by EPA. While 
currently the standards have not been exceeded, salinity control 
projects must be brought on-line in a timely and cost-effective manner 
to prevent future effects that would cause the numeric criteria to be 
exceeded.
    The Colorado River Basin Salinity Control Act was authorized by 
Congress and signed into law in 1974. The seven Colorado River Basin 
States, in response to the Clean Water Act of 1972, had formed the 
Colorado River Basin Salinity Control Forum, a body comprised of 
gubernatorial representatives from the seven states. The Forum was 
created to provide for interstate cooperation in response to the Clean 
Water Act, and to provide the states with information necessary to 
comply with Sections 303(a) and (b) of the Act. I am New Mexico's 
representative to the Forum. The Forum has become the primary means for 
the Basin States to coordinate with Federal agencies and Congress to 
support the implementation of the salinity control program for the 
Colorado River Basin.
    The Bureau of Reclamation is currently completing studies on the 
economic impacts of the salinity of the Colorado River in the United 
States. Damages in the United States may soon be approaching $1 billion 
per year. Every salinity concentration increase of 30 milligrams per 
liter in the Colorado River causes salinity damages of approximately 
$100 million in the United States and threatens the quality of water 
delivered to Mexico that is protected by treaty under Minute No. 242 of 
the International Boundary and Water Commission (IBWC), United States 
and Mexico.
    It is essential that appropriations for the funding of the salinity 
control program be timely in order to comply with the water quality 
standards for salinity to prevent unnecessary economic damages in the 
United States, and to protect the quality of the water that the United 
States is obligated to deliver to Mexico. The amount of appropriations 
requested in the previous President's budget request was inadequate to 
protect the quality of water in the Colorado River and prevent 
unnecessary salinity damages in the states of the Lower Colorado River 
Basin. Although the United States has always met the water quality 
standard for salinity of water delivered to Mexico under Minute No. 242 
of the IBWC, the United States through the U.S. Section of IBWC is 
currently addressing a request by Mexico for better quality water.
    Congress amended the Colorado River Basin Salinity Control Act in 
July 1995 (Public Law 104-20). The salinity control program authorized 
by Congress by the amendment has proven to be very cost-effective, and 
the Basin States are standing ready with up-front cost sharing. 
Proposals from public and private sector entities in response to the 
Bureau of Reclamation's advertisement have far exceeded available 
funding. Basin States cost sharing funds are available for the $17.5 
million appropriation request for fiscal year 2002. The Basin States 
cost sharing adds 43 cents for each Federal dollar appropriated.
    Public Law 106-459 of last year gives the Bureau of Reclamation 
additional spending authority for the salinity control program. With 
the additional authority in place and significant cost sharing by the 
Basin States, it is essential that the salinity control program be 
funded at the level requested by the Forum and Basin States to protect 
the water quality of the Colorado River.
    I urge the Congress to appropriate $17.5 million to the Bureau of 
Reclamation for the Colorado River Basin salinity control program. 
Also, I fully support testimony by the Forum's Executive Director, Jack 
Barnett, in request of this appropriation, and the recommendation of an 
appropriation of the same amount by the Federally chartered Colorado 
River Basin Salinity Control Advisory Council.
                                 ______
                                 

 Prepared Statement of the California Society of Professional Engineers

    The California Society of Professional Engineers recommends your 
support of the fiscal year 2002, Federal Water Appropriations as 
recommended by the California Water Commission.
    We have tracked the screening processes of the Commission each year 
as the final recommendations are developed. The Commission's process 
includes several discussions with clients, proponents, opponents, and 
the agencies as to their capabilities. We can assure you that the 
projects and funding levels recommended are needed, are sound and will 
contribute to economic, health, environmental and social benefits for 
California's citizens.
    We call emphasis to the need to continue to support all projects 
associated with the CALFED Bay-Delta program, as this is the lynchpin 
necessary to complete in order to move on to other projects affecting 
conveyance and delivery of water to end use consumers.
    The California Society of Professional Engineers is a 50-year old, 
2500-member organization of professional engineers of all disciplines 
and areas of employment (construction, education, government, industry 
and private practice).
                                 ______
                                 

              Prepared Statement of the City of Oceanside

    Mr. Chairman, thank you for this opportunity to submit testimony on 
behalf of the City of Oceanside, California. The City of Oceanside 
respectfully requests your favorable consideration of a Bureau of 
Reclamation project and two Army Corps of Engineers projects that are 
critically important to our community.
    First, the City of Oceanside requests $407,675 from the Bureau of 
Reclamation, Title 16 Water Reuse, for the expansion of the City's 
Mission Basin Brackish Groundwater Desalting Research and Development 
Project.
    The City of Oceanside has been authorized to design, plan and 
construct a 3 million gallon per day expansion of its Mission Basin 
Brackish Groundwater Desalting Research and Development Project. The 
additional funding will reduce the impact of the Mission Basin Brackish 
Groundwater Desalting Research and Development project expansion on the 
ratepayer, as well as reduce the amount of imported water purchased by 
the City to supply its residents. The project will lessen the demand 
for imported water from the Colorado River and environmentally 
sensitive Sacramento-San Joaquin River Delta. Creating local, highly 
reliable water supplies is a goal of the Metropolitan Water District of 
Southern California, the San Diego Water Authority and the California 
State Legislature.
    The City has received $1,852,325 to date in federal appropriations 
for this project. The actual cost to expand the project's capacity by 3 
million gallons per day is $9.04 million. Therefore, a residual of 
$407,675 is allowed for the 3 million gallon per day expansion.
    Second, the City of Oceanside requests $1 million from the Army 
Corps of Engineers' General Investigations (GI) Account to continue a 
special Oceanside Shoreline Study to determine how to mitigate the 
erosion of Oceanside's beaches resulting from the construction of the 
Camp Pendleton Marine Base Harbor.
    Section 415 of the Water Resources Development Act of 2000 
authorizes the City's requested Shoreline Special Study at full federal 
expense. Total cost of the three-year project is approximately $2 
million. A total of $325,000 was included in the fiscal year 2001 
Energy and Water Development Appropriations bill for this study. The 
study is now underway and will provide a summation of all historic and 
current documentation of the impacts of the federal construction on the 
Oceanside beach.
    Oceanside has a 57-year history of beach erosion resulting from the 
Camp Pendleton Harbor construction that began in 1942. The federal 
government acknowledged responsibility for Oceanside's beach erosion in 
1953. A later report to the U.S. Navy from the Army Corps of Engineers 
noted that the construction of the Camp Pendleton jetties had 
compartmentalized the littoral cell and resulted in the loss of 1.5 
million cubic yards of sand in Oceanside during 1950-52. An additional 
U.S. Army Corps of Engineers report to Congress in 1956 concluded that 
the restoration of the protected beach at Oceanside would protect the 
upland area and restore and maintain a satisfactory recreational beach. 
In 1958, the Navy extended the north jetty to reduce the entrance 
channel maintenance problems. This action further aggravated the 
erosion of the beaches.
    In 1967, Congress authorized a review study of beach erosion at 
Oceanside, resulting in the office of the Chief of Engineers confirming 
100 percent federal responsibility for shoreline damages. Despite 
numerous and significant efforts in placing sand on the beach, periodic 
nourishment of sand from maintenance dredging of the harbor and sand 
bypassing project, no permanent solution to the massive erosion problem 
has been achieved.
    Tourism is the San Diego region's second largest industry. The 
areas beaches, including Oceanside, represent a key attraction for our 
residents and our tourists. The San Diego Convention and Visitors 
Bureau notes that the majority of the region's visitor lodgings are 
located along the coastline. Total tourism dollars are identified as 
$4.7 billion annually. San Diego and Oceanside's beaches are clearly an 
economic contributor to the region's economic well-being.
    Significant portions of Oceanside's beaches are not able to provide 
full recreational and tourism revenue benefits due to the eroded beach 
conditions. Furthermore, the beaches are too narrow to provide full and 
adequate protection to public infrastructure, commercial facilities and 
residential structures. Addressing this problem will significantly 
decrease storm damage costs along the City's shoreline.
    Finally, the City of Oceanside requests $1.27 million from the Army 
Corps of Engineers' Operations and Maintenance (OM) Account for 
maintenance dredging for the entrance to Oceanside and Camp Pendleton 
Marine Corps Base Harbor. (This request for funding is for year two of 
a three-year contract. It has also been included in the fiscal year 
2002 Administration Budget).
    In 1960, Congress authorized (Public Law 85-500) full federal 
funding for maintenance of the Oceanside Harbor in recognition of the 
fact that the harbor entrance was constructed as an emergency wartime 
measure in 1942. To this day, the Oceanside Harbor entrance continues 
to serve the vital military installation of Camp Pendleton Harbor. In 
1992, the Harbor District partnered with the federal government in a 
local cost share agreement to modify the harbor entrance and the 
authorized channel depth to reduce storm damage, provide surge 
protection to the harbor's infrastructure, and provide significant 
reduction of navigational hazards that have produced 11 deaths, 49 
serious injuries, 134 boating accidents and $1.5 million of damage to 
vessels in the harbor entrance.
    Oceanside Harbor is the only harbor between San Diego and Dana 
Point in Orange County. The State of California and the Federal 
Government have designated it as a harbor of refuge. The Oceanside 
Harbor would experience severe negative impacts should the dredging 
project not be funded. Such action would prevent access to the Pacific 
Ocean to the United States Navy and Marine Corps as joint users of the 
entrance channel. The economic impact upon the local fishing fleet, the 
commercial sport fishing fleet and the 1,000 recreational vessels 
berthed here, as well as the businesses supported by the harbor, would 
be critically impacted.
    This maintenance program is essential for the safe navigation into 
Oceanside Harbor and the U.S. Marine Corps Base Camp Pendleton Harbor. 
The program also provides beach sand restoration, shoreline protection, 
recreational and commerce benefits. In fiscal year 2001 $2.035 million 
was budgeted for this project. Third year funding is estimated to be 
approximately $1 million.
    Mr. Chairman, again, on behalf of the City of Oceanside, I request 
the Committee's support for these three critically important projects.
                                 ______
                                 

  Prepared Statement of the Colusa Basin Drainage District--California

    Mr. Chairman and Members of the Subcommittee: Thank you for the 
opportunity to testify on the fiscal year 2002 budget request of the 
U.S. Bureau of Reclamation.
    The Colusa Basin Drainage District respectfully requests that the 
Subcommittee support an appropriation of $500,000 in the Bureau of 
Reclamation budget for planning and design of flood control and 
watershed enhancement elements of the Colusa Basin Integrated Resources 
Management Plan authorized by the 106th Congress.
    The cost-shared program is designed to address flooding problems 
and provide opportunities for future conjunctive use of water resources 
to meet the diverse needs of agricultural, urban and wildlife interests 
in the 650,000-acre Colusa Basin on the western side of the Sacramento 
Valley.
    The District has secured State cost share funding for the site 
specific feasibility study of addressing flooding through structural 
and non-structural methods in three watersheds in the northern portion 
of the District. Past hydrologic studies show storms in this area 
caused the most damage to homes, agricultural land and public 
infrastructure. In fact, damage to public infrastructure is estimated 
to be 65 percent of the losses.
    The program includes 10,000 acres of environmental restoration 
measures, small-scale detention reservoirs on intermittent streams that 
are prone to rapid flooding. The program will be implemented over a 20- 
to 25-year period on a willing-landowner basis. Any incidental water 
supplies created by the program will be devoted to environmental 
purposes.
    We thank the Subcommittee for its past support and request that 
Reclamation continue to play a significant role in this project that is 
a model for the State and nation.
                                 ______
                                 

    Prepared Statement of the Northern California Water Association

    Mr. Chairman, Members of the Subcommittee, my name is David Guy, 
Executive Director of the Northern California Water Association. I 
appreciate the opportunity to submit this testimony on behalf of the 
water suppliers and individual farmer members of the Northern 
California Water Association (NCWA). We submit the following testimony 
in support of our request that an additional $9,000,000 (above the 
President's request) be earmarked in the fiscal year 2002 Energy and 
Water Development Appropriations bill, under Bureau of Reclamation, 
Central Valley Project, Miscellaneous Project Programs, Anadromous Fish 
Screening Program, for fish screen projects on the Sacramento River. 
These screens represent classic ``win-win'' projects to benefit both 
the economy and the environment and are broadly supported in our 
communities.
      northern california water association mission and membership
    The NCWA mission is to promote the economic, social and 
environmental viability of Northern California by enhancing and 
preserving the water rights and supplies of our members. Our 
Association was formed in 1992 to provide agricultural water suppliers, 
farmers and landowners a united regional voice on California water 
policy. NCWA is committed to constructive leadership in the pursuit of 
real solutions to California's water problems. NCWA today represents 
nearly 70 agricultural water suppliers and individual farmers who 
irrigate over 850,000 acres of Northern California farmland.
    NCWA's membership is geographically diverse, extending from the 
Coast Range to the Sierra Nevada foothills, and from Redding to 
Sacramento. Our members rely on the waters of the Sacramento, Feather, 
Yuba and American Rivers, smaller tributaries and groundwater to 
produce nearly every type of food and fiber grown in the region. These 
waters provide equally important fish and wildlife habitat and 
recreational uses.
    The Sacramento Valley's initiative and effort to help protect 
salmon and other aquatic species is unprecedented and is now recognized 
as one of the most exciting and progressive voluntary salmon 
restoration efforts in the United States. Today, over a dozen NCWA 
members, representing over 500,000 acres of irrigable land, are in 
various stages of developing screens to prevent fish entrainment at 
their diversions. As a result, nearly 75 percent of all agricultural 
water use from the Sacramento River will soon flow through new, state-
of-the-art, fish screens.
    Since 1994, many NCWA members have initiated far-reaching efforts 
to screen diversions, refurbish fish ladders, construct siphons, remove 
dams, create habitat conservation plans and implement other habitat 
improvement projects to enhance the environment. We submit this request 
for funding, and your support, for our member agencies' ongoing efforts 
to enhance fishery protection and water infrastructure efficiency in 
the Sacramento Valley.
                      statutory/program authority
    The Central Valley Improvement Act (CVPIA; Public Law 102-575, 
Title 34) and the CalFed Program both emphasize the importance of 
providing additional anadromous fish species protection on the 
Sacramento River. The primary objective of the CVPIA Anadromous Fish 
Screen Program (CVPIA Section 3406(b)(21)) is to protect juvenile 
salmon, steelhead, sturgeon, bass and shad from entrainment. The 
Secretary of the Interior is required by the CVPIA to assist the State 
of California in developing and implementing measures to avoid losses 
of juvenile anadromous fish resulting from unscreened or inadequately 
screened diversions.
                 sacramento river fish screen projects
    The Natomas Mutual Water Company, Reclamation District 108 and 
Sutter Mutual Water Company are at the forefront of efforts to provide 
anadromous fish species protection on the Sacramento River. By 
consolidating existing diversions, installing new screening technology 
and upgrading and integrating distribution facilities, Natomas, RD 108 
and Sutter are not only improving fishery protection, but also are 
simultaneously increasing water operation/management efficiencies.
    Natomas Mutual Water Company (Natomas) has completed the 
feasibility, preliminary design and environmental evaluation work 
associated with consolidation of five Sacramento River diversions into 
two screened facilities. The project will remove pumping from an area 
(``Natomas Cross Canal Channel'') that can be preserved for both fish 
passage as well as provide new protections for terrestrial species by 
preserving and enhancing important habitat.
    The consolidation of diversions and upgrading of associated 
infrastructure will allow the Natomas project to also assist 
neighboring communities in achieving regional water management 
improvements by connecting the Sacramento and American Rivers for the 
first time, thus making regional groundwater recharge and banking 
possible while reducing diversion impacts on the American River. Over 
fifty regional water, business, environmental and public interest 
groups support this project. Thus the consolidated diversion and new 
screen facility is an important component for future integrated water 
resources management and cooperation in the American River basin.
    Reclamation District 108 (RD 108) last year completed construction 
of a $12 million screen on the Sacramento River. The project, located 
at the district's Wilkins Slough diversion, protects migrating 
endangered winter-run Chinook salmon, as well as the spring-run Chinook 
and steelhead trout. The design for the new screen facility was chosen 
after several years were spent examining the performance of alternate 
screen technologies. The district held dedication ceremonies for the 
completed project on April 14, 2000.
    RD 108 is currently developing a new fish screen project that will 
consolidate its three largest unscreened river diversions into one 
pumping plant with a new fish protection screen facility. This project 
is under reconnaissance investigation, scheduled for completion in 
April 2001. Total preliminary cost for design and construction of these 
facilities is estimated at $12 million. Funding assistance for the 
reconnaissance investigation has been received from the California 
Department of Fish and Game.
    Sutter Mutual Water Company (Sutter Mutual) is proceeding with a 
fish screen feasibility study concerning its diversion on the 
Sacramento River at Tisdale Weir. This is the last major unscreened 
diversion on the Sacramento River, and thus a priority project for the 
California Department of Fish and Game, CalFed and the U.S. Bureau of 
Reclamation. A feasibility study, funded by the U.S. Bureau of 
Reclamation, is scheduled for completion in June 2001. Consolidation of 
one or two other Sutter Mutual diversions into an upgraded diversion at 
Tisdale is being investigated as part of the feasibility study. 
Feasibility, preconstruction engineering and design should be completed 
in the fall of 2002, with the project constructed and operational by 
the fall of 2003 or 2004. Early estimates indicate a total cost of $18-
$30 million, depending on the results of the feasibility of 
consolidating the Sutter Mutual diversions.
    Individually and together, these projects to consolidate and screen 
diversions and improve water supply infrastructure and efficiencies 
represent the best efforts of local communities working with state and 
federal agencies to provide state-of-the-art fishery protection in 
conjunction with efficient water delivery to meet agricultural and 
human needs. We strongly urge and respectfully request your support for 
$9,000,000 in addition to the President's budget request for Sacramento 
River Fish Screen Projects, under the Bureau of Reclamation, Central 
Valley Project, Miscellaneous Project Programs, Anadromous Fish 
Screening Program.
                                 ______
                                 

  Prepared Statement of the Glenn-Colusa Irrigation District Board of 
                               Directors

    Mr. Chairman, Members of the Subcommittee, my name is Donald 
Bransford, President of the Glenn-Colusa Irrigation District Board of 
Directors. I appreciate the opportunity to submit this testimony on 
behalf of the water suppliers, individual farmer members, and farm 
families dependant on Glenn-Colusa Irrigation District.
    The Glenn-Colusa Irrigation District (``GCID'') is located in the 
heart of the Sacramento Valley and is the largest and one of the oldest 
diverters of water from the Sacramento River. GCID diverts water from 
the Sacramento River through a 65-mile long irrigation canal into a 
complex system of over 430 miles of laterals. The water is delivered to 
more than 1,200 families who farm approximately 141,000 acres of 
valuable, productive, agricultural land. Farmers within GCID grow such 
diverse crops as rice, wheat, tomatoes, cotton, corn, walnuts, almonds 
and pistachios, which are shipped across the nation and the world. More 
than $270 million of agricultural products are produced annually on 
Glenn-Colusa Irrigation District farms, helping to sustain an estimated 
12,000 jobs in the region.
    GCID is also the sole source of surface water deliveries for three 
wildlife refuges--the Sacramento, Delevan, and Colusa National Wildlife 
Refuges--that comprise some 20,000 acres of critical wildlife habitat. 
Winter water supplied by GCID to thousands of acres of rice land also 
provides a rich oasis for migrating waterfowl.
    Specifically, GCID has three requests of the Energy and Water 
Development Subcommittee in the fiscal year 2002 appropriations bill. 
First, GCID requests the Subcommittee's support for a an allocation of 
$6,600,000 in the Energy and Water Development Appropriations Bill, 
under Bureau of Reclamation, Fish and Wildlife Management and 
Development, to continue work on the GCID fish screen improvement 
project. The amount requested is $6,000,000 more than the budget 
request for the project. The additional funds are needed to begin to 
reimburse GCID for costs incurred by the District that have yet to be 
cost-shared by the Bureau of Reclamation.
    The GCID Fish Screen Improvement Project is critical to the 
protection of five runs of anadromous fish in the Sacramento River, 
including the winter-run Chinook salmon. It has consistently been among 
the highest priority fish protection projects in the Central Valley. 
The project is also critical to the restoration of full water 
deliveries to more than 1,200 families who farm approximately 141,000 
acres of valuable, productive, agricultural land.
    Pursuant to the authorization provided in the Central Valley 
Project Improvement Act (CVPIA) the U.S. Bureau of Reclamation 
(Reclamation) is the lead Federal agency working in cooperation with 
GCID and the California Department of Fish and Game as co-lead state 
agencies, to implement long-term fish protection at GCID's Sacramento 
River diversion near Hamilton City.
    A final Environmental Impact Report/Environmental Impact Statement 
was completed and reviewed extensively, resulting in the selection of 
the preferred fish screen alternative in early 1998. The preferred 
alternative for the Fish Screen Improvement Project consists of two 
important elements, the fish screen extension and the gradient 
facility. Construction of the fish screen extension and related channel 
improvements began in spring of 1998 and will continue into early 2001. 
An appropriation of $500,000 in fiscal year 2001 was granted to 
continue construction on the new fish screen facility at the site. 
These funds were appropriated as a non-reimbursable construction 
expense under the CVP, Sacramento River Division as set forth in the 
authorizing language of the CVPIA.
    Reclamation staff estimates a need for an appropriation of $2.6 
million for fiscal year 2002 for the fish screen extension portion of 
the Project. These funds will be necessary in fiscal year 2002 to cover 
the costs of the intensive hydraulic and biological testing during 
fiscal year 2001 that must be performed after completion of 
construction. The testing is necessary to confirm that the screen is 
functioning as designed and to ensure that off-site mitigation work 
stays on schedule.
    GCID urges support for a total of $6.6 million for the project, $4 
million above the budget request, to begin reimbursing the district for 
costs incurred by the District in excess of the District's required 
cost share. GCID's growers have contributed to GCID's share of the cost 
of the permanent fish facility. To date, GCID has expended more than 
$12 million on construction of the fish screen extension, biological 
monitoring, environmental review of the long-term solution, land 
acquisition, environmental mitigation and downstream channel 
improvements. This represents $4 million more than the District's 
authorized cost share.
    Second, GCID requests an appropriation of $4,000,000 in the Energy 
and Water Development Appropriations Bill, under Corps of Engineers, 
Construction General, to continue hydraulic and biological testing on 
the gradient restoration facility and initiate bank stabilization work 
in the vicinity of River Mile 208. This represents an increase of 
$1,716,000 above the budget request of $2,284,000 for the project. The 
project is critical to stabilizing the Sacramento River at GCID's 
diversion and ensuring the long-term viability of the new fish screen 
structure at the Hamilton City Pumping Plant under inevitable changing 
river conditions.
    Restoring the gradient on the Sacramento River near Hamilton City 
is an essential component of the Fish Screen Improvement Project 
(Project). When fully constructed, the Project will vastly improve the 
passage of fish in the reach of the River near GCID's diversion. The 
design of the
    Gradient Facility is based upon natural riffles observed in the 
Sacramento River. By mimicking a natural riffle, the Gradient Facility 
will provide for fish passage and recreational boating through the 
Facility. It will stabilize the river elevation and improve the 
effectiveness of the new fish screen built at GCID's pump station.
    In 1999, GCID urged support of a proposed post-authorization change 
under Section 902 of the Water Resources Development Act of 1996 from a 
total project cost for the Gradient Facility of $20.7 million to $26 
million. As a result, a post-authorization increase to $26 million was 
approved. In 1999, GCID also urged support of a post-authorization 
change to include bank protection work in the vicinity of River Mile 
208 as part of the Gradient Facility. As a result, for the protection 
of the Gradient Facility and Fish Screen Extension, a post-
authorization change to include work at River Mile 208 was approved.
    For fiscal year 2001, GCID received support of appropriations in 
the amount of $4.1 million for the U.S. Army Corps of Engineers (Corps) 
to complete design, plans and specifications, award construction 
contracts and construct the Gradient Facility. The construction 
contract for the Gradient Facility was awarded on February 24, 2000, 
and construction of the Gradient began in April 2000.
    Again, the optimum schedule indicates a need for $4 million in 
fiscal year 2002 to complete the Gradient Facility element of the 
project. GCID urges support for this amount to ensure that this portion 
of the Project proceeds as scheduled. Upon completion of construction 
in mid-2001, funds will be necessary to cover the intensive hydraulic 
and biological testing that must be performed. The testing is necessary 
to confirm that the screen is functioning as designed. Funds will also 
be necessary for planting of on-site vegetation, for off-site 
mitigation work required to compensate for the Project's impacts to 
habitat and for completion of design plans, specifications, award of 
contracts and construction of bank protection in the vicinity of River 
Mile 208.
    Third, GCID requests an additional $2 million in the Energy and 
Water Development Appropriations Bill, under Bureau of Reclamation, 
Water and Related Resources (CVP, Sacramento River Division) to carry 
out detailed, site-specific environmental assessment and permitting 
work on, as well as to facilitate non-Federal participation with 
respect to, a Sites Reservoir, including an evaluation of the 
utilization of both the GCID Main Canal and the Tehama-Colusa Canal as 
a means to convey water into that proposed reservoir.
    With a storage capacity of 1.6 million-acre feet of water, the 
proposed Sites Reservoir Project is an important part of the solution 
to California's water supply and water quality problems. Sites 
Reservoir has been identified within the Sacramento Valley in northern 
California as a potential element of an integrated water supply program 
involving state, local and Federal entities and agencies. The funds 
requested will be used to carry out detailed, site-specific 
environmental assessment and permitting work on, as well as to 
facilitate non-Federal participation with respect to a Sites Reservoir, 
including an evaluation of the utilization of both the GCID Main Canal 
and the Tehama-Colusa Canal as a means to convey water into that 
proposed reservoir.
    Sites Reservoir is one of the two potential storage projects 
identified in the CALFED Record of Decision (ROD) for further study. 
Sites Reservoir could enhance water management flexibility in the 
Sacramento Valley. The ROD further notes that the Sites Reservoir would 
increase reliability of supplies for a significant portion of the 
Sacramento Valley and also provide storage and operational benefits for 
other CALFED programs, including water quality and the Environmental 
Water Account (``EWA'').
    In a more recent development, Mr. Chairman, the State Water 
Resources Control Board (SWRCB) on April 26, 2001 issued an order to 
stay the contentious Phase 8 Bay-Delta water rights hearings. The 
decision initiates an integrated water management program designed to 
protect Northern California water rights by assuring that the 
Sacramento Valley will receive full water supplies--both now and into 
the future. Projects will be developed to provide water for farms, 
cities and fish and wildlife in the Sacramento Valley, while also 
helping to meet environmental needs and improve water supplies and 
quality in other parts of the state.
    The agreement, as part of this integrated program, contains a 
strong commitment to Sites reservoir and local water management 
projects in Northern California. Given that the Bureau of Reclamation 
was a principal signatory to this agreement, it is appropriate that the 
agency be provided additional resources to help Federal water users in 
the region to accelerate work on Sites Reservoir.
    Finally, the U.S. Bureau of Reclamation has the authority to study 
Sites (Public Law 89-561, 80 Stat. 707) and this is not a new study. 
The Bureau or Reclamation's last study on Sites was completed in 1981. 
Again, on behalf of GCID's Board of Directors and all of the farm 
families in our region, I strongly urge you to approve this request.
    Thank you for the opportunity to submit these prepared remarks.
                                 ______
                                 

  Prepared Statement of the Central Montana Resource and Conservation 
                               area, Inc.

                fiscal year 2002 appropriations request
    The Central Montana Resource and Conservation Area, Inc., in 
association with six (6) small communities and numerous ranchers, in 
four counties, in central Montana, respectfully request funds in the 
Bureau of Reclamation budget to investigate the engineering viability 
and costs of the Musselshell Valley Regional Water Project, in the 
amount of $375,000 as set out below:

Fiscal Year 2002 Appropriations Request

        Item                                                      Amount
Exploratory Water Wells.......................................  $195,000
Technical Investigations......................................   160,000
Reclamation Oversight.........................................    20,000
                    --------------------------------------------------------------
                    ____________________________________________________

      Total...................................................   375,000
                            need for project
    Drought, inability to meet existing and future Safe Drinking Water 
Act requirements, exceedingly poor water quality of unregulated 
contaminants and inability of income levels within the regional project 
boundaries to support the development of individual projects are 
factors that underscore the need for this project, shown in location on 
Figure 1. Each community has expended their own funds in search of 
better water. Having found none, other than extensive individual 
treatment, this is the only alternative.
    The project would serve a current population of 4,330 summarized as 
follows:

Musselshell Valley Regional Population

                                                               Estimated
                                                                 Current
        Community                                             Population
Judith Gap........................................................   138
Harlowton......................................................... 1,075
Ryegate...........................................................   302
Lavina............................................................   178
Roundup........................................................... 2,078
Melstone..........................................................   121
Musselshell.......................................................    40
Spring Water Colony...............................................    96
Rural Ranchers....................................................   304
                                                                  ______
    Total......................................................... 4,332

    Roundup.--Poor quality of water in the Roundup public water system 
demonstrates the need for improvement and, while different from other 
communities, draws attention to other problems in the region. The 
source of public water supply in Roundup is a well drilled into an 
abandoned coal mine. As shown in the table below, problems with this 
water supply include high concentrations of dissolved iron and 
manganese, sulfates, hydrogen sulfide and total dissolved solids.
    The relatively high concentrations of magnesium and sodium combine 
with the sulfate to form magnesium sulfate (Epson salt) and sodium 
sulfate (Glauber's salt) which make the water slightly bitter and which 
act as a laxative for people not accustomed to the water. There are 
additional concerns about treatment requirements when the proposed 
sulfate rule is put into effect. The waters in the developed parts of 
the mine exhibit the characteristics shown in the following table.

                                        ROUNDUP WATER QUALITY INDICATORS
----------------------------------------------------------------------------------------------------------------
                                                                                    At current     At increased
                           Contaminant                              Recommended   pumping levels  pumping levels
                                                                   limits (mg/l)      (mg/l)          (mg/l)
----------------------------------------------------------------------------------------------------------------
Total Dissolved Solids..........................................             500           2,800           4,000
Sodium..........................................................            n.a.             450             670
Magnesium.......................................................            n.a.             120             150
Sulfate.........................................................             250           1,400           1,400
Iron............................................................            .300           4.100             N/A
Manganese.......................................................            .050            .330            .368
----------------------------------------------------------------------------------------------------------------

    There are additional concerns about the adequacy or longevity of 
the water supply from the underground coal mine. Tests conducted in 
1995 indicate that increased pumping from the mine will result in a 
decrease in water quality. Water quality in the undeveloped part of the 
mine will become a larger component of the pumped water if the pumping 
rate is increased.
    Judith Gap.--Judith Gap obtains its public water supply from a well 
completed in the basal Kootenai sandstone (Third Cat Creek sand). 
Problems include lack of backup pumping capacity and dissolved iron in 
the water.
    Harlowton.--Harlowton obtains public water supply from three wells 
(detailed below) completed in the Claggett Shale and Eagle Sandstone. 
The principal problem with the public water supply system is aging 
facilities, namely the water wells. Water quality problems contribute 
to the need to replace the aging water wells. Five wells have been 
drilled for public water supply at Harlowton over five decades; 
however, only three of the wells remain in service. Of those three 
wells, only two are used most of the time because water quality is poor 
and the casing is deteriorating at the other well. Gasoline product was 
recently discovered in the upper part of the Claggett Shale near the 
City reservoir site. Although a remediation program has been 
implemented, this raises concerns about contamination of the existing 
wells, particularly those with deteriorated casing.
    Thompson Well.--The Thompson well was completed in June 1949 with a 
reported yield of 716 gpm from a total depth of 390 feet. Over the 
years, the casing has deteriorated such that it is presently not 
possible to install a pump below about 120 feet and a restriction is 
present at 30 feet due to failing casing. Well yield has been reduced 
to 175 gpm, and it is only a matter of time before this well will fail 
completely. The well produces water high in iron. The iron 
concentration of 0.68 mg/l and the sulfate concentration of 393 mg/l 
exceed National Secondary Drinking Water Regulations. Recommended upper 
limits are 0.3 mg/l for iron and 250 mg/l for sulfate. The total 
dissolved solids concentration for 1,100 mg/l is more than twice the 
National Secondary Drinking Water recommendation of 500 mg/l.
    Prichard Well.--The Prichard well was completed in August 1961 at a 
total cased depth of 1,220 feet. The well is a flowing artesian well 
with an initial yield reported in 1961 of more than 1,000 gpm. The well 
was used at a flow rate of 400 to 500 gpm historically, however, the 
rate is presently reduced to about 375 gpm because the deteriorating 
well casing allows sand to enter the well in addition to small 
fragments of rusted casing and cement from behind the casing. Water 
from the well is corrosive due to a hydrogen sulfide content of 0.84 
mg/l, a factor contributing to the casing deterioration. The strong 
sulfur odor from the water is partly, but not completely, mitigated by 
strong chlorination to oxidize the sulfide and by a chemical treatment 
system. Total dissolved solids concentrations in the well water exceed 
the National Secondary Drinking Water recommended upper limit of 500 
mg/l. This well is the principal source of water at Harlowton.
    South Well.--The South well was completed in 1975 at a total depth 
of 921 feet and, although a flowing well, is equipped with a pump to 
increase the well yield to 280 gpm. The well is in good condition; 
however, it yields water with a hydrogen sulfide concentration of 0.26 
mg/l. Although the hydrogen sulfide concentration in this water does 
not pose as serious an odor problem as that from the Prichard well, the 
water is corrosive and O & M requirements for the pump house valves and 
plumbing and for pump column replacement are greater than normal.
    Ryegate.--Ryegate provides public water supply from shallow wells 
along the Musselshell River. The groundwater level in the wells 
fluctuates in response to changes in the river level, and the well 
yields fluctuate accordingly. The alluvial aquifer along the river is 
thin such that the alluvium does not provide significant groundwater 
storage and the well yields are therefor dependent upon local recharge 
from the surface flow in the river. This has two undesirable results: 
(1) the well yields become inadequate in years when surface flow in the 
river is low and (2) water from the wells has been determined to be 
Groundwater Under Direct Influence of Surface Water (GWUDISW) and 
therefore must be treated under the Surface Water Treatment Rule 
(SWTR). The Ryegate public water supply system presently does not have 
surface water treatment capabilities.
    Lavina.--Lavina does not have a public water supply system. Private 
wells provides water to individual homes. Similar to Ryegate, the wells 
are completed in the shallow alluvium along the Musselshell River with 
well depths ranging from 18-30 feet in depth. Such wells are subject to 
contamination by animal wastes and other pollutants on the land surface 
and, similar to Ryegate, the shallow groundwater may be under the 
influence of surface water and, while not regulated as a public water 
system subject to SDWA regulation, is potentially contaminated with 
pathogens and poses a significant health risk. The groundwater level 
here is also influenced by changes in river flow.
    Melstone.--The public water supply at Melstone is obtained from the 
surface flow of the Musselshell River and is treated in a surface water 
treatment plant. Wells filled at Melstone in the past have not been 
successful in providing an adequate water supply with acceptable water 
quality. The principal problem with the present water supply is that 
Melstone is far enough downstream on the Musselshell River that the 
surface water flow ceases unless it is supported by releases from the 
Deadman Basin Reservoir. In periods of drought, storage in the 
reservoir is not adequate to maintain surface flow to Melstone. The 
community residents must seek alternative sources of water supply.
    Finally, the regional water project is needed to combine local, 
Montana and Bureau of Reclamation funding into an affordable project. 
The ability of water users in the public water systems and in the rural 
areas to pay for the initial investment in a suitable water system, 
adequate in supply and capable of meeting present and future regulatory 
requirements, is limited by income levels averaging $16,725.00 
annually.
                 plan to address regional project needs
    Despite the inadequacies of year-round streamflow in the 
Musselshell River and the poor quality of water in groundwater 
resources relied upon by the regional communities, the area is blessed 
with high quality water in the Madison Aquifer on the northwestern 
flank of the Big Snowy Mountains. This regional water project proposes 
to develop a well field in the Madison Aquifer about seven miles 
southeast of Moore, Montana. An alternative would locate a well field 
about 1.5 miles west of Garneill, or 5 miles north of Judith Gap, on 
the northeastern flank of the Little Belt Mountains. These well fields 
are in favorable terrain to develop groundwater with wells less than 
2,000 feet deep. The proposed investigation would permit exploration of 
the Madison Aquifer in the area of the proposed well field near Moore. 
As many as two exploratory wells would be drilled.
    The ultimate plan for development will provide for as many as six 
high capacity wells and the treatment of raw water derived from the 
well field. Pipeline with diameters ranging from 2 to 16 inches would 
be constructed over distances totaling 342 miles to serve six 
communities as identified above and 152 rural connectors. Only three 
pumping stations and two reservoirs would be required. The plan would 
serve a population of 4.332 (given above) at an estimated cost 
(reconnaissance level) of $34 million. The funds sought through the 
fiscal year 2002 appropriations process would provide for significant 
improvement in the cost estimates and the status of knowledge 
respecting the Madison Aquifer, the latter based on exploratory 
drilling of the wells.
    Based on the ability to pay analysis to be concluded in the 
proposed investigation, a non-federal cost share of 20 percent may be a 
reasonable funding proposal. Assuming the reconnaissance level cost 
estimate is accurate, the project would seek approximately $27.2 
million in federal cost share through the Bureau of Reclamation budget, 
and the remaining costs ($6.8 million) would be divided equally between 
the local water users and the State of Montana, provided the Montana 
Legislature finds the project worthwhile and authorized funding from 
the regional water project fund.
                         local project support
    Attached to this testimony are a letter from the Governor of 
Montana, the Honorable Judy Martz, letters from the Montana House and 
Senate representatives from the project area, the Montana Department of 
Environmental Quality, and from participating communities. These 
letters demonstrate broad support for an investigation of the type 
described here.

                         Letter From Judy Martz

                  State Office of the Governor, of Montana,
                                   Helena, Montana, March 23, 2001.
Hon. Pete Domenici,
Chairman, Subcommittee on Appropriations for Energy and Water 
        Development, U.S. Senate, Washington, D.C. 20515.
    Dear Chairman Domenici: I would appreciate the support of your 
Subcommittee for the $375,000 requested by the Musselshell Valley 
Regional Water Project for fiscal year 2002 for planning of their 
project with local communities, farmers and ranchers.
    The federal appropriations requested will permit the project to 
progress, a project that will greatly improve the quality of life in 
Central Montana where water supplies and water quality are in need of 
significant improvement.
            Respectfully,
                                                Judy Martz,
                                                          Governor.
                                 ______
                                 

                    Letter From Jerry C. Burns, P.E.

               Montana Department of Environmental Quality,
                                      Billings, Mt, March 16, 2001.
Mr. J. Jay Erdie,
President, Central Mt RC&D Area, Inc., Roundup, Montana.
    Dear Mr. Erdie: Thank you for submitting a copy of the fiscal year 
2002 Appropriations Request for the above referenced project, and for 
the opportunity to comment. The following comments regarding the need 
for the project are based partly on first hand knowledge of the water 
systems and on records in the Department of Environmental Quality 
Public Water Supply Program. I have worked in this program for the past 
22 years. My comments regarding the proposed water supply source are 
based on recent conversations with the Montana Bureau of Mines and 
Geology.
Need for Project:
    Roundup.--In addition to the stated needs, which are consistent 
with our records, the interference with disinfection and the 
infiltration gallery pose sanitary risks to health. Break point 
chlorination can not be practiced due to high levels of iron and 
manganese. Therefore, adequate chlorine residuals cannot be maintained 
throughout the distribution system. The secondary water supply source 
is an infiltration gallery that appears to be under the direct 
influence of surface water. Also, the present piping at the clearwell 
allows water from the well to recharge the infiltration gallery. This 
connection between sources needs to be corrected and the surface water 
influence needs to be addressed. Filtration or elimination of the 
gallery will likely be required.
    Ryegate.--The infiltration wells have been determined to be under 
the direct influence of surface water. The Department of Environmental 
Quality will be issuing a letter in the near future requiring 
compliance with the Surface Water Treatment rule within 18 months of 
receipt of the letter.
    Lavina.--The Town is not served by a public system. However, the 
school is classified as a public water supply system. The well is 
shallow and has a history of coliform violations. This well has also 
been threatened by an underground gasoline tank leak from a nearby 
service station.
    Melstone.--Raw water shortages and operational problems have 
plagued this system. Operational problems have resulted in treatment 
technique violations.
    Judith Gap.--Judith Gap has a history of intermittent bacterial 
problems. The wells in town have been abandoned due to a petroleum 
release. Leaving only one well to serve the town.
    Harlowton.--Our records agree with the stated problems, and also 
show that Harlowton has at times experienced severe water shortages as 
a result of the aging water supply wells.
Plan to Address Regional Project Needs:
    The Madison Aquifer has a very good potential for providing the 
necessary quality and quantity. I recommend working closely with the 
Montana Bureau of Mines and Geology for locating test wells.
    I strongly support efforts to correct the deficiencies with systems 
included in this proposal and to develop a regional water system. With 
the new and upcoming regulations in the Safe Drinking Water Act, it is, 
and will continue to be, very difficult for small communities to 
provide the technical and financial resources to stay in compliance. 
Small communities with surface water systems will experience the most 
difficulty.
    Please feel free to use this letter as a letter of support for the 
project. If you or anyone reading this letter has any questions or 
would like information out our Public Water Supply files, please call 
me at 247-4445.
            Sincerely,
                                      Jerry C. Burns, P.E.,
                                          Billings Regional Office.
                                 ______
                                 

                       Letter From Alan J. Olson

                          Montana House of Representatives,
                                     Helena Montana, March 6, 2001.
Mr. J. Jay Erdie, Inc.,
President, Central Mt RC&D Area, Roundup, MT.
    Dear Mr. Erdie: I am very interested in the regional water project 
being proposed by the RC&D. The project would service most of the 
communities and surrounding areas in my House District.
    I know of the struggles these communities have faced with adequate 
water quantities and quality over the years. The City of Roundup has to 
get their municipal water from an abandoned coal mine. The water is 
nearly undrinkable. The water for the other communities up and down the 
river valley is also extremely poor, not to mention their dependence on 
the continued flow of the Musselshell River. Again, this year flows do 
not look promising.
    Knowing how low the income levels are for this area, I am happy to 
see this regional approach to finding a long term solution that may be 
affordable for the area citizens. I am totally in support of the 
project and would be glad to assist you where possible.
            Sincerely,
                                             Alan J. Olson,
                                                  House District 8.
                                 ______
                                 

                      Letter From Almeda F. Moore

                                           City of Roundup,
                                    Roundup, Montana, March 6, 2001
Mr. J. Jay Erdie,
Chairman, Central Mt RC&D Area, Inc., Roundup, MT.
    Dear Mr. Erdie: The City of Roundup is very supportive of the 
proposed Musselshell Valley Regional Water Project. We have spent 
nearly three years and $50,000 searching for an alternative water 
source near Roundup. There is no such thing.
    In addition we have spent several thousands of dollars 
investigating water treatment options and costs. The total capital cost 
is staggering, and added to the on-going projected operations and 
maintenance costs it is prohibitive. It is not clear how and at what 
additional cost we could handle the waste stream resulting from water 
treatment.
    We support the proposed regional water project because water was 
identified by the public as our number one priority in our Capital 
Improvement Plan. We believe that a regional approach, though quite 
expensive in front-end capital cost, would be financially manageable 
for continued operations and maintenance costs, and would result in the 
best and most stable water supply we could ever hope for.
            Sincerely,
                                           Almeda F. Moore,
                                                             Mayor.
                                 ______
                                 

                        Letter From John Peccia

                                         City of Harlowton,
                                Harlowton, Montana, March 14, 2001.
J. Jay Erdie,
President, Central Mt RC&D Area, Inc., Roundup, MT.
    Dear Mr. Erdie: The Mayor and City Council of Harlowton whole 
heartedly support the collective effort to solve the regional water 
quality and quantity problems that have plagued the Musselshell Valley 
for years.
    Harlowton acquires its water from a series of wells in the 
vicinity. Even when fully operational, our water quality has been very 
poor, in many cases fax less than secondary national drinking water 
standards. Age and deterioration have left us with only three of the 
original five wells, and those remaining are producing at reduced 
levels.
    Hill water treatment for compliance with current and future 
standards is far beyond the financial means of this relatively poor 
community. This is especially true with the local debt our citizens 
have recently encumbered with our new wastewater treatment project.
    Please keep us informed as this proposal progresses. We offer our 
assistance wherever possible.
            Sincerely,
                                               John Peccia,
                                                             Mayor.
                                 ______
                                 

                       Letter From Mark Solnosky

                                           Town of Ryegate,
                                  Ryegate, Montana, March 14, 2001.
Mr. J. Jay Erdie,
President, Central Mt RC&D Area, Inc., Roundup, MT.
    Dear Mr. Erdie: The Town of Ryegate gets its water from the 
alluvial gravels adjacent to the Musselshell River. As a result, we are 
dependent upon the flows of the river. Recently we were informed that 
our water was classified as groundwater, under the influence of surface 
water, by the Water Quality Bureau of the State of Montana. This will 
require treatment of some form that a community of our size cannot 
afford.
    The proposal put forth by our area RC&D for a regional water system 
is totally supported by the Mayor and City Council of Ryegate. This 
proposal appears to solve the individual potable water supply problems 
of the entire Musselshell Valley. We appreciate your efforts as this 
area of Montana is in dire straits when it comes to safe, clean 
drinking water.
            Sincerely,
                                             Mark Solnosky,
                                                             Mayor.
                                 ______
                                 

                     Letter From James C. Pinkerton

                                          Town of Melstone,
                                 Melstone, Montana, March 14, 2001.
Jay Erdie,
Chairman of Central Montana, Roundup, MT.
    Dear Mr. Erdie: The Melstone City Council would just like to 
confirm the fact that we are in full support of the Musselshell Valley 
Water Project. We are very excited about being part of the project and 
are willing to help in any way.
    Thank you for including us.
            Sincerely,
                                        James C. Pinkerton,
                                                             Mayor.
                                 ______
                                 

                      Letter From Janet M. Summers

                                            Town of Lavina,
                                    Lavina, Montana, March 16, 2001
Mr. J. Jay Erdie,
President, Central Mt RC&D Area, Inc., Roundup, MT.
    Dear Mr. Erdie: The Town of Lavina has never had a potable water 
system. We do have a sanitary sewer collection and lagoon system that 
we are in the process of upgrading.
    We would like in the future to provide the community with a potable 
water system and increased fire protection, but we are faced with the 
same quality and quantity problems encountered up and down the 
Musselshell Valley. Presently, water is obtained from individual 
private shallow groundwater wells which depend on the flow in the 
Musselshell River. This flow varies from feast to famine, as the river 
is entirely unpredictable, The quality of this shallow water is 
marginal at best.
    The Mayor and Town Council would like to go on record as supporting 
the investigation of the feasibility of this project and request your 
assistance in providing the basic element of life to our citizens.
            Sincerely,
                                          Janet M. Summers,
                                                             Mayor.
                                 ______
                                 

               Prepared Statement of the Crow Creek Sioux

Fiscal Year 2002 Budget Request
    The Crow Creek Sioux Tribe respectfully requests fiscal year 2002 
appropriations for the Bureau of Reclamation from your subcommittee on 
Energy and Water Development. Funds will be used to finalize all pre-
authorization documents (Special Study and Environmental Assessment) 
underway and supported by the subcommittee since fiscal year 1995. The 
amount requested is $179,000 as set out below:

Fiscal Year 2002 Budget Request

Tribal Administration and Coordination........................   $69,600
Finalize Special Study and Conduct Value Engineering..........    37,560
Finalize Environmental Assessment.............................    30,575
Reclamation Oversight.........................................    41,265
                    --------------------------------------------------------------
                    ____________________________________________________

      Total...................................................   179,000

Proposed Activities
    The Crow Creek Sioux Tribe, in cooperation with the Bureau of 
Reclamation, has concluded draft documents: ``Special Study, Crow Creek 
Sioux Municipal Rural and Industrial Water Project'' and the 
environmental assessment for the referenced project. The Bureau of 
Reclamation has reviewed the draft documents and has made formal 
comments on the documents that will pen-nit the Tribe to finalize them. 
The request for funds is to provide the means to conclude the Special 
Study and the environmental assessment during this session of Congress 
when draft bills will be presented to the South Dakota delegation by 
the Tribe for consideration of a project authorization. This is not a 
new project concept but one that has been in development for more than 
five years with the support of the Bureau of Reclamation and periodic 
line-item appropriations by Congress. The request for this year will 
finalize the planning phase of the project and permit the Tribe to 
advance to the construction phase given an authority through enabling 
legislation.
    This has been a long process. Requirements for the planning phase 
of the project have evolved to meet requirements of Bureau of 
Reclamation oversight. Reclamation has advised us of the need for 
additional funds to complete the necessary work. Reclamation should be 
consulted for their concepts on the remaining requirements.
    In addition to the completion of the documents, it is expected that 
value engineering of the preferred project alternative will be 
conducted to determine if savings can be realized while meeting the 
objectives to develop a safe and dependable supply of water for the 
Crow Creek Indian Reservation.
Exigent Conditions
    There is an immediate need to construct facilities to distribute 
Missouri River water and improve water quality throughout the Crow 
Creek Indian Reservation. This action will reduce health risks to the 
membership of the Crow Creek Sioux Tribe and other residents of the 
Reservation. With the exception of the community of Fort Thompson, 
water supplies and water quality are deplorable throughout the 
Reservation. There is an immediate need to extend pipelines from Fort 
Thompson to the community and day school at Stephan where water quality 
is extremely poor, and existing wells are limited in capacity.
    Inspired by efforts of the Crow Creek Sioux Tribe, including the 
planning for the Reservation municipal, rural and industrial water 
system, the water treatment facilities at Fort Thompson have been 
improved with microfilters that produce a high quality water for 
residents of the community. The new water treatment facilities are 
incorporated as a part of the Reservation-wide project and, with 
construction of necessary pipelines, will permit delivery of high-
quality water north to Stephan.
    The need for the Reservation-wide project is underscored by the 
recent population releases from the 2000 census. Our planning had 
projected population increases on the Reservation from 1990 to 2000 at 
a rate of 14.3 percent. The actual rate of growth experienced in the 
last decade was 26.7 percent, significantly greater than the seemingly 
liberal projection made from the 1990 census.
    The subcommittee is respectfully requested to carefully consider 
our needs and provide the necessary funding to complete the planning 
stage of our project.
Project Construction Costs and Recommended Project Alternative
    Costs of alternatives, including construction contracts and non-
contract costs, range from $15,403,000 (Alternatives b, d and e) to 
$17,853,000 (Alternative a). After accounting for funding already 
authorized by Congress for the Mid-Dakota project that could be 
transferred to the reservation project by amended legislation 
(Alternatives a and b) or used within the reservation in general 
conformity to plans by Mid-Dakota, additional funding authorization 
from Congress ranging from $10,634,000 (Alternatives b, d and e) to 
$12,946,000 (Alternative a) is required.
    Based on the least cost scenario and self-determination, the Crow 
Creek Sioux Tribe's preferred project alternative is Alternative a 
($12,946,000 in new funding authority; see description below): source 
of water on Lake Sharpe near Fort Thompson constructed, operated., 
maintained and replaced by the Crow Creek Sioux Tribe. Environmental 
factors, such as cultural and historic resources, and identifiable 
impacts on physical and biological resources are not significantly 
different between alternatives and had least influence on the 
recommended alternative.
    Five alternatives for developing the project were:
  --A project constructed, operated, maintained and replaced by the 
        Crow Creek Sioux Tribe and meeting all needs through year 2030 
        within the Crow Creek Indian Reservation. Source of water would 
        be the Missouri River with modifications to the existing intake 
        and water treatment plant at Fort Thompson.
  --A project constructed, operated, maintained and replaced by the 
        Crow Creek Sioux Tribe and meeting all needs through year 2030 
        within the Crow Creek Indian Reservation. Source water would be 
        the Missouri River from the intake and water treatment plant 
        constructed by Mid-Dakota on Lake Oahe. The reservation system 
        would be connected to the Mid-Dakota system along the northern 
        and eastern borders of the reservation. Mid-Dakota would sell 
        water to the Tribe as a bulk user.
  --A project constructed, operated, maintained and replaced by the 
        Crow Creek Sioux Tribe to service the Fort Thompson and Crow 
        Creek community areas, and rural areas in between, from intake 
        and water treatment plant at Fort Thompson. The balance of the 
        project would be constructed, operated and maintained by Mid-
        Dakota with water supply from the Mid-Dakota intake and water 
        treatment plant.
  --A project constructed, operated, maintained and replaced 
        exclusively by Mid-Dakota to service the entire reservation 
        with water supply from the Mid-Dakota intake and water 
        treatment plant.
  --A project constructed by Mid-Dakota throughout the reservation and 
        operated, maintained and replaced by the Crow Creek Sioux Tribe 
        with water supply from the Mid-Dakota intake and water 
        treatment plant.
  --Future Operation, Maintenance and Replacement (OMR) Costs.
    Future operation, maintenance and replacement costs, including 
staff, equipment. electricity, chemicals and all other materials 
necessary for repair and replacement, have an estimated range in cost 
from $597,195 (Alternative a) to $826,185 (Alternatives b, d and e).
Present Value of Net Costs
    Net costs were estimated as the present value of the costs of 
construction and OMR less the off-setting value of construction and OMR 
earnings by members of the Crow Creek Sioux Tribe, an under-employed 
labor force. Present value of net costs ranges from $15,348,180 
(Alternative a) to $22,673,000 (Alternatives d and e).
Construction Schedule
    A construction schedule beginning in fiscal year 2003 and ending in 
fiscal year 2006 is proposed. Construction and non-contract employment 
would provide 131 full-time equivalent man years of employment. Annual 
levels of funding needs would range from $2,135,000 in fiscal year 2003 
to $6,736,000 in fiscal year 2005.
Environmental Factors
    Pipelines proposed for the project range from 1.5 to 12 inches in 
diameter and have lengths ranging from 269.8 miles (Alternative c) to 
276.4 miles (Alternative a). From five to seven pump stations with 
horsepower ranging from 103.0 to 164.5 are representative of the 
alternatives. From six to eight reservoirs with up to 495,000 gallons 
of capacity are proposed. Future population growth will require 
approximately five acres of new wastewater lagoons by year 2030.
    Approximately 70 wetlands will be crossed by the project on the 
basis of the current layout, which will be modified in later designs to 
avoid wetlands. As many as 31 perennial stream crossings will be made. 
Nearly 43 miles of prime farmlands will be crossed by pipelines where 
most of the farmlands are defined as ``prime'' if irrigated in the 
future. Approximately 23 miles of unstable soils will be crossed. Up to 
134 miles of trust lands (slightly less than 50 percent of the total) 
will be crossed by pipelines.
    An Environmental Assessment and a class I cultural resource 
inventory and descriptive report have been prepared.
Population
    The statistical summary below shows that population of the Crow 
Creek Indian Reservation in 1990 was 1,756 persons. 1,532 Indian 
persons and 224 non-Indian persons. Based on the rate of growth in the 
Indian and non-Indian population over the past several decades, year 
2030 population estimates were made resulting in a future population of 
3,417. These estimates recognize a relatively high growth rate within 
the Indian population and out-migration of non-Indians.
Income and Employment
    Median household income in 1990 on the Crow Creek Indian 
Reservation averaged $12,763 as contrasted with averages for the state 
of South Dakota of $22,503. The Indian labor force on the reservation 
represented 55.7 percent of the population and 29 percent were 
unemployed. Across the state of South Dakota. 74.3 percent of the 
population was in the labor force, and 4. 1 percent were unemployed. 
Income levels on the reservation are extremely low, and unemployment is 
extremely high.
Ability to Pay
    Consistent with the income levels described above, annual residual 
household income on the reservation is $8,924 after deducting the costs 
of housing and electricity from median household income. Results from 
the American Housing Survey of 1993, showed that 80 percent of those 
surveyed were paying $13.59 per month for water and sewer for 
comparable levels of residual income. Sewer costs on the reservation 
are $13 per month leaving $0.59 per month for water bill payments if 
residents of the reservation are expected to pay as much as 80 percent 
of the population with comparable income in the American Housing 
Survey.
Existing Public Water Systerms and Water Quality of Sources
    Existing public water systems in the communities of Fort Thompson, 
Stephan, Big Bend and Crow Creek serve a population of 1,520. The 
maximum flow capacity of the systems is 53O gallons per minute, and 
reservoirs with 241,000 gallons of capacity are available.
    Fort Thompson receives water from the Missouri River, which has 
good-quality water (479 milligrams per liter total dissolved solids as 
contrasted with the suggested level for secondary contaminants of 500 
milligrams per liter). Crow Creek community receives its water from 
wells with total dissolved solids of 706 milligrams per liter. Stephan 
and Big Bend also receive water from wells with total dissolve solids 
ranging from 1,500 to 1.928 milligrams per liter. Wells serving the 
households in the rural areas have water quality ranging from an 
average 702 milligrams per liter total dissolved solids to a maximum of 
4,440.
Future Water Sources
    The best available source of future water for the reservation is 
the Missouri River with water quality reflective of Fort Thompson. The 
annual flow of the Missouri River at Pierre is 15,873,000 acre-feet 
annually as contrasted with the largest stream on the reservation (Crow 
Creek) with an average annual flow of 13,749 acre feet. The Missouri 
River is dependable with minimum monthly flow of 192.000 acre-feet.
    Periods of no flow are experienced on all reservation streams. 
Groundwater sources are generally (but not universally) adequate for 
single households in the rural areas and water quality ranges from good 
to poor. Nitrates may be increasing in groundwater sources, and there 
is evidence of copper exceeding maximum contaminant levels in rural 
water, but the source of copper is unknown and can be naturally 
occurring or introduced through the plumbing.
    Note: the reporting is from the draft Special Study, which will 
change in detail. but not substance, in the final report to be 
concluded.)
                                 ______
                                 

 Prepared Statement of the Colorado River Basin Salinity Control Forum

    This testimony is in support of funding for the Colorado River 
Basin salinity control program. Congress has designated the Department 
of the Interior, Bureau of Reclamation (Reclamation), to be the lead 
agency for salinity control in the Colorado River Basin. This role and 
the authorized program were refined and confirmed by the Congress when 
Public Law 104-20 was enacted. A total of $17,500,000 is requested for 
fiscal year 2002 to implement the needed and authorized program. 
Failure to appropriate these funds will result in significant economic 
damage in the United States and Mexico. The President's request for 
funding is not known at this time. Studies have shown that 
implementation of the program has fallen behind the needed pace to 
control salinity concentrations. Water quality commitments to 
downstream U.S. and Mexican water users must be honored while the Basin 
states continue to develop their Compact apportioned waters of the 
Colorado River. Concentrations of salts in the water above water 
quality standard mandated levels would cause hundreds of millions of 
dollars in damage in the United States and result in poorer quality 
water being delivered by the United States to Mexico. For every 30 mg/l 
increase in salinity concentrations, there is $75 million in additional 
damages in the United States. The Forum, therefore, believes 
implementation of the program needs to be accelerated to a level beyond 
that requested by the past President.
    The program authorized by the Congress in 1995 has proven to be 
very successful and very cost effective. Proposals from the public and 
private sector to implement salinity control strategies have far 
exceeded the available funding. Hence, Reclamation has a backlog of 
proposals and is able to select the best and most cost-effective 
proposals. Funds are available for the Colorado River Basin states' 
cost sharing for the level of federal funding requested by the Forum. 
Water quality improvements accomplished under Title II of the Colorado 
River Basin Salinity Control Act also benefit the quality of water 
delivered to Mexico. Although the United States has always met the 
commitments of the International Boundary & Water Commission's 
(Commission) Minute 242 to Mexico with respect to water quality, the 
United States Section of the Commission is currently addressing 
Mexico's request for better water quality at the Southerly 
International Boundary.
                                overview
    In 2000, Congress reviewed the program as authorized in 1995. 
Following hearings, and with Administration support, the Congress 
passed legislation that increased the ceiling authorized by this 
program by $100 million. Reclamation is now prepared to receive 
proposals to move the program ahead and the Basin states have funds 
available to cost-share up-front.
    The Colorado River Basin Salinity Control Program was authorized by 
Congress in 1974. The Title I portion of the Colorado River Basin 
Salinity Control Act responded to commitments that the United States 
made, through Minute 242, to Mexico concerning the quality of water 
being delivered to Mexico below Imperial Dam. Title II of the Act 
established a program to respond to salinity control needs of Colorado 
River water users in the United States and to comply with the mandates 
of the then newly legislated Clean Water Act. Initially, the Secretary 
of the Interior and Reclamation were given the lead federal role by the 
Congress. This testimony is in support of adequate funding for the 
Title II program.
    After a decade of investigative and implementation efforts, the 
Basin states concluded that the Salinity Control Act needed to be 
amended. Congress revised the Act in 1984. That revision, while keeping 
the Secretary of the Interior as lead coordinator for Colorado River 
Basin salinity control efforts, also gave new salinity control 
responsibilities to the Department of Agriculture, and to the Bureau of 
Land Management. Congress has charged the Administration with 
implementing the most cost-effective program practicable (measured in 
dollars per ton of salt removed). The Basin states are strongly 
supportive of that concept as the Basin states consider cost sharing 30 
percent of federal expenditures up-front for the salinity control 
program, in addition to proceeding to implement their own salinity 
control efforts in the Colorado River Basin.
    The Colorado River Basin Salinity Control Forum (Forum) is composed 
of gubernatorial appointees from Arizona, California, Colorado, Nevada, 
New Mexico, Utah and Wyoming. The Forum has become the seven-state 
coordinating body for interfacing with federal agencies and Congress to 
support the implementation of the program necessary to control the 
salinity of the river system. In close cooperation with the 
Environmental Protection Agency (EPA) and under requirements of the 
Clean Water Act, every three years the Forum prepares a formal report 
analyzing the salinity of the Colorado River, anticipated future 
salinity, and the program necessary to keep the salinities in control.
    In setting water quality standards for the Colorado River system, 
the salinity levels measured at Imperial, and below Parker, and Hoover 
Dams in 1972 have been identified as the numeric criteria. The plan 
necessary for controlling salinity and to reduce downstream damages has 
been captioned the ``plan of implementation.'' The 1999 Review of water 
quality standards includes an updated plan of implementation. The level 
of appropriation requested in this testimony is in keeping with the 
agreed upon plan. If adequate funds are not appropriated, state and 
federal agencies involved are in agreement that damage from the high 
salt levels in the water will be widespread in the United States as 
well as Mexico and will be very significant.
                             justification
    The $17,500,000 requested by the Forum on behalf of the seven 
Colorado River Basin states is the level of funding necessary to 
proceed with Reclamation's portion of the plan of implementation. In 
July of 1995, Congress amended the Colorado River Basin Salinity 
Control Act. The amended Act gives Reclamation new latitude and 
flexibility in seeking the most cost-effective salinity control 
opportunities, and it provides for proposals and more involvement from 
the private as well as the public sector. The result is that salt 
loading is being prevented at costs often less than half the cost under 
the previous program. Congress this last year recommitted its support 
to the revised program when it enacted Public Law 106-459. The Basin 
states are, pursuant to Public Law 104-127 (FAIRA), cost sharing up-
front on an annual basis, which adds 43 cents for every federal dollar 
appropriated. The federally chartered Colorado River Basin Salinity 
Control Advisory Council, created by the Congress in the Salinity 
Control Act, has met and formally supports the requested level of 
funding. The Basin states urge the Subcommittee to support the funding 
as set forth in this testimony.
                     additional support of funding
    In addition to the funding identified above for the implementation 
of the newly authorized program, the Salinity Control Forum urges the 
Congress to appropriate necessary funds needed to continue to maintain 
and operate salinity control facilities as they are completed and 
placed into long-term operation. Reclamation has completed the Paradox 
Valley unit which involves the collection of brines in the Paradox 
Valley of Colorado and the injection of those brines into a deep 
aquifer through an injection well. The continued operation of this 
project and other completed projects will be funded through Operation 
and Maintenance funds.
    In addition, the Forum supports necessary funding to allow for 
continued general investigation of the salinity control program. It is 
important that Reclamation have planning staff in place, properly 
funded, so that the progress of the program can be analyzed, 
coordination between various federal and state agencies can be 
accomplished, and future projects and opportunities to control salinity 
can be properly planned to maintain the water quality standards for 
salinity so that the Basin states can continue to develop their 
Compact-apportioned waters of the Colorado River.
                                 ______
                                 

        Prepared Statement of the Tucson Regional Water Council

    The Tucson Regional Water Council (TRWC) thanks you for the 
opportunity to provide testimony concerning the Bureau of Reclamation's 
fiscal year 2002 budget request. TRWC is a non-profit organization in 
Tucson, Arizona, whose members are water providers, business and 
professional people, and concerned citizens dedicated to ensuring a 
long-term, stable quality water supply for southern Arizona. Our 260 
members appreciate the Committee's long support of the Central Arizona 
Project. We are grateful to you and your colleagues for your years of 
dedication to this project.
    The TRWC wishes to address the Bureau of Reclamation's budget that 
pertains to water resources in southern Arizona and, in particular, the 
Bureau's plans that continue to positively impact our Central Arizona 
Project water planning.
    Colorado River water delivered by the Central Arizona Project will 
be part of the City of Tucson's water supply starting in April. This 
new supply enables the City to turn off groundwater wells that are 
pumping water from underneath the metropolitan area, which should halt 
further subsidence. The other CAP contract holders in the metropolitan 
area, particularly those located north of the City of Tucson, are 
proceeding with their plans to develop the necessary infrastructure to 
receive and deliver Colorado River water. In August 2000, the Bureau of 
Reclamation's Phoenix Area Office published an appraisal study titled 
``Alternatives for Using Central Arizona Project Water in the Northwest 
Tucson Area.'' It is vital for the well being of the residents of these 
areas to have access to a renewable water supply and to partner with 
the Bureau of Reclamation in developing delivery systems.
    In addition, in order to fully utilize CAP water, users must have 
reliability features as part of the Central Arizona Project. It is 
imperative for the Bureau of Reclamation to proceed with their planning 
for Tucson Reliability and for the Northwest region. We respectfully 
request that the Bureau of Reclamation budget line item: Tucson 
Reliability Division be approved. This line item allows the Bureau to 
continue its planning process.
    In addition, work done by the Bureau of Reclamation in southern 
Arizona is necessary for this region to continue its water resources 
planning. We are experiencing great growth, which requires coordination 
with other agencies. Valuable services provided by the Bureau through 
its inter-regional budget items include environmental and interagency 
coordination, general planning activities, providing technical 
assistance, and planning investigations programs.
    Of particular importance is the on-going Bureau Investigations 
Defined Program for southern Arizona, the Southern Arizona Water 
Management Study. This study is assisting the State of Arizona, several 
municipalities in southern Arizona, and two Indian Nations in 
coordinating planning efforts and Central Arizona Project water 
exchanges. The study is instrumental in identifying long-range water 
needs, water supply and treatment management options, and developing 
efficient water management strategies.
    The Tucson Regional Water Council is closely associated with the 
Bureau under the Tucson Area Water Reclamation and Reuse Study, which 
is funded under Title XVI--Water Reclamation and Reuse Program. The 
study, which is known locally as the Regional Effluent Planning 
Partnership, is in its fourth year. Regional participants meet monthly 
to cooperatively plan for use of reclaimed wastewater, this regions 
only water resource that will increase in the future. We are in the 
process of developing the Feasibility Study report, which includes 
projects from three municipalities.
    The Bureau of Reclamation is providing water management and 
resource planning services that are crucial for southern Arizona 
residents. We respectfully request that the Bureau receive its full 
funding requests for fiscal year 2002.
                                 ______
                                 

            Prepared Statement of the State of South Dakota

    The Perkins County Rural Water System in South Dakota, which was 
authorized by Congress through passage of Public Law 106-136 during 
1999, has submitted a request to your subcommittee for federal fiscal 
year 2002 funding. I am writing in support of their request.
    Perkins County has a shortage of good quality water. During times 
of drought, conditions become desperate. Perkins County experienced 
drought conditions last summer. Dams dried up and people had to haul 
water for livestock and domestic use.
    Several years ago, local people in Perkins County had a vision to 
bring high quality Missouri River water to the county and proceeded to 
work out an innovative agreement to extend the North Dakota Southwest 
Pipeline to Perkins County. The North Dakota Southwest Pipeline is a 
federal project that draws water from the Missouri River and runs south 
through southwestern North Dakota. The significant federal investment 
in the Southwest Pipeline Project indicates the recognition of the 
severe water problems that exist in this area.
    The people of Perkins County and the rest of South Dakota have 
invested much time, effort, and funding to bring the Southwest Pipeline 
from North Dakota to the South Dakota border. In fact, South Dakota has 
already invested $1.1 million from the state Water and Environment Fund 
to reserve capacity in the Southwest Pipeline. I just authorized an 
additional $150,000 loan to help local sponsors complete the Final 
Engineering Report required by the federal project authorization. This 
report will be completed later this summer so that any federal funding 
obtained can be used immediately for final design and construction.
    This federal, state, and local partnership has worked hard and well 
to bring quality Missouri River water to the Perkins County border. 
However, now is the time to complete construction of the distribution 
system in Perkins County and get the people the water they so 
desperately need. By approving the funding request from Perkins County 
Rural Water System, you will be helping to make that happen.
    I make this request knowing that federal budget restraints and 
limited resources prevent many projects from being funded or receiving 
the full request. I also understand that tough decisions concerning the 
types of projects that are to receive federal assistance will have to 
be made as the appropriation process is completed. But, it would be 
very unfortunate if this needed project is delayed further.
    Thank you in advance for your consideration of the Perkins County 
Rural Water System budget request. If I can be of any assistance, 
please do not hesitate to contact me.
                                 ______
                                 

   Prepared Statement of the Perkins County Rural Water System, Inc.

    The Perkins County Rural Water System, Inc. respectfully submits 
this written testimony to the Appropriations Subcommittee on Energy and 
Water Development for appropriations for fiscal year 2002.
    Perkins County is located in northwestern South Dakota on the North 
Dakota state line. We are the second largest county in South Dakota and 
have a total of 2,866 square miles. Perkins County has a population of 
3,542 people, of which 2,065 live in the two incorporated towns of 
Lemmon and Bison. Number one business in our county is agriculture and 
support services for the farmer and rancher. We have three 
manufacturing plants in Lemmon that employ approximately 130-140 full 
time jobs. Other large employers in Perkins County are federal 
government offices, state highway district offices, rural electric 
offices, county government, hospital and clinic and three school 
districts. Perkins County and the rest of northwestern South Dakota is 
a semi-arid climate with an annual precipitation of 14 inches, of which 
76 percent falls normally in April through September.
    History of this project goes back to 1982 when a group of farmers 
and ranchers in Perkins County were contacted by Southwest Pipeline 
Project in North Dakota if they would be interested in obtaining water 
to serve Perkins County. At that time, approximately 100 farms and 
ranches and the towns of Bison and Lemmon were interested, so Perkins 
County was included in their feasibility study. In November of 1992, 
Southwest Water Pipeline Project had grown to the point that Perkins 
County was contacted about receiving water from the project and to be 
included in the engineering design work. A committee of interested 
landowners and representatives from the two incorporated towns were 
organized through the Perkins County Conservation District/Natural 
Resources Conservation Service. From this committee, nine directors 
volunteered to serve on a board to study the feasibility of rural water 
for the county. In March of 1993, Perkins County Rural Water System, 
Inc. was organized as a non-profit organization. Two grants were 
obtained from the South Dakota Department of Environment and Natural 
Resources for $50,000 each to do a feasibility study. At the same time, 
the Directors were able to acquire good intention fees from rural 
landowners, state land, federal land, and the two towns for a total of 
$28,250 to cost share the state money on an 80-20 share basis. A 
feasibility study was conducted for Perkins County Rural Water by KBM, 
Inc. of Grand Forks, North Dakota, and the Alliance of Rapid City, 
South Dakota in 1994. In the 1995-96 South Dakota legislature, we 
obtained state authorization and appropriation of one million dollars. 
This money was used to up-size the pipe in North Dakota for our 
capacity and for administration costs of Perkins County Rural Water. We 
have signed a contract with the North Dakota State Water Commission to 
deliver 400 gallons per minute to the border. We have also signed 
contracts with both towns to be the sole supplier for their water 
systems. We have had a very good response from the rural farmers and 
rancher in that 50 to 60 percent have signed and paid for water 
contracts delivered to their farmstead. The total for those contracts 
equals $81,500 plus obligations of another $72,000 when the project 
becomes a reality. To the ranchers and farmers of Northwestern South 
Dakota, that is a substantial investment for them to make. We also will 
be signing a contract with a grazing association that run livestock on 
US Forest Service land. In the fall of 1999, we received federal 
authorization with the 106th Congress for a 75 percent grant of twenty 
million dollars. We were unable to obtain appropriations in 2000 for 
the 2001 budget though we were able to obtain a loan from the State of 
South Dakota for $150,000 to operate till fiscal year 2002. The budget 
presented has been sent to the Bureau of Reclamation in Bismarck, North 
Dakota to be entered in their budget processing for 2002 thru 2003.
    During our feasibility study, conducted by the combination of two 
engineering firms of the Alliance of South Dakota and KBM, Inc. of 
North Dakota, several alternatives were looked at to provide Perkins 
County with quality water. These alternatives were pumping water from 
Shadehill Lake or from deep-water wells drilled into the Fox Hills 
formation. Due to the high salt content, both of these sources would 
have to use reverse osmosis treatment that is very costly to build and 
operate. Buying bulk water from a large rural water system turned out 
to be the most feasible. Water from Southwest Water Authority is 
already treated at a large treatment plant and distributed to the 
border of North Dakota and South Dakota.
    The quality of water in Northwestern South Dakota is the main 
concern for the health and well being of the people. Although the water 
in Perkins County typically meets the primary standards established by 
the US EPA, most of the chemicals in the water are exceedingly high by 
the State of South Dakota standards. Due to the fact that new standards 
by the EPA are set each year, it will be impossible for small water 
systems such as those in our towns to comply. Just across the line in 
North Dakota, two small towns have exceeded the fluoride levels from 
the same aquifer that water is pumped in South Dakota. At this time, 
fluoride in the Town of Lemmon is within one to two tenths of the MCL 
set by EPA through the Safe Drinking Water Act. In the deep wells of 
both Bison and Lemmon, the total dissolved solids, sulfates, and sodium 
consistently exceed the recommended levels set by EPA. Sodium is the 
major concern with the water in Perkins County. Running at 450 parts 
per million and above, the medical community has problems with people 
who have to be on a salt free diet. In the rural areas, bacteria 
contamination has been noted in wells that are dug into shallow 
aquifers. There are two letters in the appendix that relate to both the 
medical and the rural problems. Also, the rural population has noticed 
declining water levels in these same wells due to drought and over use. 
We are currently in a drought that has dried up any surface water 
supplies for livestock. If water had been available, some ranches would 
not have had to sell or ship livestock out of the county last fall.
    In Table 1, we show construction costs of our project, which 
includes approximately 375 miles of pipeline along the support 
appendages. A map of the total system is appendix one. We will have 
reservoirs strategically located within the county to use for both 
storage and pressure to be able to provide the quantity of water that 
the people of Perkins County needs. The connection to Southwest Water 
Pipeline is included at 5.5 million dollars. This money will cover the 
capitalization of the pipeline to provide PCRWS with the water needed 
to operate. Since we have paid and will pay for the construction on 
both sides of the border, we will be able to obtain water at the cost 
of operation and maintenance. With State money, we have been able to 
pay for our share of the up sizing of the pipe that has been 
constructed in the last 3-4 years to the border. Also included is 1.75 
million dollars for public water system's upgrading within the county 
that have deteriorated to the point that they could not afford to 
purchase our water.
    In Table 2, we have included the operation's cost of the system. 
This table includes total operation costs, debt service and reserve 
payments when the system is operating at peak capacity.
    Table 3 includes the request for fiscal year 2002. The request is 
1.25 million dollars higher than requested for 2002. Since we did not 
receive any money for 2001, our time line is moving up for completion 
of the project. We are able to do this much construction work in one 
year and hope to finish the project in 4-5 years with this size 
appropriation per year.
    At the end of the report, we have included letters representing 
people who have a problem with the water quality in Perkins County. 
They include the county extension educator, doctors in our local 
hospital and a letter from the Town of Lemmon stating the problems that 
they have with the current water status. Also there is a letter from 
our engineering firm showing how the system may save money because of 
the low pipe price at this time.
    One of the reasons given for not obtaining money for fiscal year 
2001 is that we are categorized as a new project. This is not totally 
true. Our start began in 1986 with the congressional approval of 
Southwest Water Authority (SWA) in North Dakota. We were going to 
attach an amendment increasing the ceiling level of SWA, but both the 
state and our congressional delegation believed it would be faster if 
we went with stand-alone legislation. Since the whole project costs $20 
million dollars, we could be built in four to five years. Other wise 
our contracts would be too small for the larger construction firms to 
bid.
    Water quality and quantity in Perkins County has been a plague for 
the county over many years. Droughts, both long and short term, are a 
fact of life for the people in this area. Being able to obtain quality 
water during these periods and having a backup system for other times 
would make the life in the county easier. Due to our isolation from 
major water supplies, this may be our only chance to obtain water at an 
affordable cost.
    At the present time, we are working on our final engineering 
report, environmental and cultural resources reports, and, with a 50-60 
percent signup rate, we are still signing up farmers and ranches. Upon 
obtaining the amount requested, we would be able to start construction 
in the spring of 2002 and have the system built in 3-4 years. We know 
that funds are hard to obtain, but finding quality water in our area is 
even harder. Thank you for reading our report and, on the behalf of the 
people of Perkins County South Dakota, we hope you can find the funds 
to build our system.

                               TABLE 1.--PIPELINE CONSTRUCTION--SOUTHWEST PIPELINE
----------------------------------------------------------------------------------------------------------------
                         Item                             No. units      Units      Unit price    Extended price
----------------------------------------------------------------------------------------------------------------
Mobilization.........................................               1         LS      $50,000.00      $50,000.00
Water Main:
    1.5" PVC.........................................         671,400         If            2.00    1,342,800.00
    2.0" PVC.........................................         228,500         If            2.10      479,850.00
    3.0" PVC.........................................         222,000         If            2.25      499,500.00
    4.0" PVC.........................................         283,800         If            2.50      709,500.00
    6.0" PVC.........................................         379,500         If            4.00    1,518,000.00
    8.0" PVC.........................................         204,500         If            6.75    1,380,375.00
    1.0" Poly........................................             300         If            4.50        1,350.00
    4.0" Poly........................................           4,500         If           12.25       55,125.00
1.0" Curb Stop.......................................               6         ea          175.00        1,050.00
1.5" Curb Stop.......................................             166         ea          275.00       45,650.00
Water Meters:
    Residential Meters...............................             172         ea          275.00       47,300.00
    2" Water Meters..................................              17         ea          450.00        7,650.00
4" Meter Station.....................................               1         ea       12,000.00       12,000.00
8" Meter Station.....................................               1         ea       15,000.00       15,000.00
Frost Proof Water Meter..............................              27         ea          950.00       25,650.00
Water Service Installation...........................             184         ea          100.00       18,400.00
River Crossings......................................              13         ea        5,000.00       65,000.00
Non-cased Bore.......................................              94         ea          600.00       56,400.00
Cased Bore...........................................           8,600         If           50.00      430,000.00
Gate Valves:
    2"...............................................              85         ea          300.00       25,500.00
    3"...............................................              15         ea          375.00        5,625.00
    4"...............................................              36         ea          400.00       14,400.00
    6"...............................................              50         ea          475.00       23,750.00
    8"...............................................              40         ea          620.00       24,800.00
Pressure Reducing Valves.............................              40         ea       11,000.00      440,000.00
ARV Station..........................................             193         ea        1,200.00      231,600.00
Reservoir Pumping Station............................               4         ea      175,000.00      700,000.00
Booster Stations.....................................               4         ea      150,000.00      600,000.00
Signs................................................             418         ea           21.00        8,778.00
Seeding..............................................             225        Ac.          300.00       67,500.00
Gravel...............................................          18,000        Ton           10.00      180,000.00
Municipal Improvements...............................               1         LS    1,750,000.00    1,750,000.00
Reservoir (2,000,000 Gal)............................               1         LS    1,200,000.00    1,200,000.00
Connection to SW Pipeline............................               1         LS    5,500,000.00    5.500,000.00
                                                      ----------------------------------------------------------
      Subtotal--Construction.........................  ..............  .........  ..............   17,532,553.00
                                                      ==========================================================
US Bureau of Rec. Admin..............................  ..............  .........  ..............      544,494.00
Engineering:
    Design & Construction Admin......................  ..............  .........  ..............      496,107.00
    Construction Observation.........................  ..............  .........  ..............      340,000.00
    Additional Services..............................  ..............  .........  ..............      160,000.00
Legal & Administration...............................  ..............  .........  ..............      100,000.00
Contingencies & Construction Int.....................  ..............  .........  ..............      826,846.00
                                                      ----------------------------------------------------------
      Total project costs............................  ..............  .........  ..............   20,000,000.00
----------------------------------------------------------------------------------------------------------------

              Table 2.--Cost of Perkins County Rural Water

COST OF CONSTRUCTION & ENGINEERING......................  $14,500,000.00
COST OF UPFRONT AND INCREMENTAL COSTS...................    5,500,000.00
                    --------------------------------------------------------
                    ____________________________________________________
      TOTAL PROJECT COSTS...............................    20,000,00.00
                    ========================================================
                    ____________________________________________________
PROJECTED FUNDING:
    GRANT FUNDS:
        FEDERAL 75 percent..............................   15,000,000.00
        STATE 10 percent................................    2,000,000.00
    LOAN FUNDS: LOCAL 15 percent........................    3,000,000.00
YEARLY OPERATIONAL & MAINTENANCE (w/o water)............      161,000.00
DEBT SERVICE (40 years @ 6 percent).....................      179,000.00
ANNUAL RESERVE ($350,000 after 20 years)................       17,500.00
                    --------------------------------------------------------
                    ____________________________________________________
      TOTAL.............................................      357,500.00
                    ========================================================
                    ____________________________________________________
PROJECTED WATER USAGE:
    RURAL...............................................      48,600,000
    CITIES..............................................      85,800,000
    GRAZING ASSOC.......................................      75,000,000
                    --------------------------------------------------------
                    ____________________________________________________
      TOTAL (gal/yr)....................................     209,400,000
                    ========================================================
                    ____________________________________________________
COST OF WATER:
    Minimum monthly charge ($40.00 per month)...........       84,000.00
    Pasture taps ($175 per year)........................       21,875.00
    Grazing Assoc. ($175 per year)......................        2,450.00
    O&M cost ($1.38/1000 gal)...........................      289,800.00
                    ========================================================
                    ____________________________________________________
      TOTAL.............................................      398,125.00

  Table 3.--Perkins County Rural Water System, Inc. Budget fiscal year 
                                  2002

        ITEM                                              EXTENDED PRICE
FINAL ENGINEERING (COMPLETION) ADMIN. (INCLUDES BOR 
    COST)...............................................     $380,000.00
50 PERCENT LEMMON INFRASTRUCTURE........................      720,000.00
50 PERCENT MAINLINE TO LEMMON...........................      550,000.00
VAULT AND PIPE TO ND-SD BORDER..........................      100,000.00
50 PERCENT MAINLINE TO BISON............................      900,000.00
LODGEPOLE POCKET........................................      600,000.00
                    --------------------------------------------------------
                    ____________________________________________________
      TOTAL.............................................    3,250,000.00
                                 ______
                                 
                      Letter From Clark B. Johnson
                                            City of Lemmon,
                                         Lemmon, SD, March 6, 2001.
Perkins County Rural Water System Inc.
Bison, SD.
    Dear Perkins County Rural Water: We write this letter in support of 
funding that can be obtained to expedite the construction of the 
Perkins County Rural Water System. The City of Lemmon is being held in 
a very ``crucial'' situation. Many blocks of the city water mains are 
in desperate need of replacement before pipeline water can be delivered 
to our system. Lemmon is experiencing many and increasing numbers of 
water main breaks. However, some existing wells are planned to be used 
in conjunction with pipeline water for fire protection and watering of 
city parks. This entire project needs to be designed with all factors 
considered so that precious tax dollars are not wasted in joining the 
two systems. Consequently, Lemmon cannot go forward with this critical 
project until significant dollars are appropriated so they are assured 
this project will become a reality. Meanwhile, the city continues to 
experience an increasing number of pipeline failures.
    Lemmon's existing water supply continues to be a public health 
hazard. The water source is high in flouride and sodium. High levels of 
flouride and sodium are health hazards that will be eliminated when 
pipeline water is delivered to the Lemmon area.
    One should also note, the tremendous support the system has 
received in the immediate rural area around the city. These rural 
residents have already paid at least $475 each in hopes of obtaining 
quality water sometime in the future. The rural signups are a testament 
to the poor quality of rural water. When people voluntarily part with 
their own money--there is a problem.
    We hope these concerns will help you to obtain funding for the 
Perkins County Rural Water System.
            Sincerely,
                                          Clark B. Johnson,
                          President of the Council, City of Lemmon.
                                 ______
                                 

                   Letter From Robert E. Grossman, MD

                                West River Health Services,
                                  Hettinger, ND, February 28, 2001.
Paul Adcock,
Manager, Perkins County Rural Water System, Inc.; Bison, SD.
    Dear Mr. Adcock: I would heartily endorse your water project. I do 
feel that the benefits from decreased sodium, specially in light of the 
high elderly population and the large number of patients with cardiac 
disease, the new water is a wonderful resource.
    As a physician who cares for many people in that area, I would 
definitely endorse the water project for Perkins County.
            Sincerely,
                                        Robert E. Grossman,
                                                         MD, FAAFP.
                                 ______
                                 

                        Letter From Vincent Gunn

                             South Dakota State University,
                            Bison, South Dakota, February 28, 2001.
Perkins County Rural Water System, Inc.,
Bison, South Dakota.
    Dear Sirs: As a SDSU County Educator for Agronomy, I am writing 
this letter to express the Great Need for improving the water quality 
in Perkins County located in northwestern South Dakota.
    I have personally collected water samples from many drinking water 
sources located throughout Perkins County. Almost all the human water 
samples are contaminated with excessive sodium (about 1600 to 2400 
ppm), total dissolved solids, non-sodium salts such as sulfates, and 
fluoride. These high levels of salts and solids present health hazards 
to the water consumer that need to be corrected.
    During the past six months I have been testing livestock water for 
total salts after reports were received of cattle, sheep and horses 
being killed in Perkins County, South Dakota. Excessive salts such as 
sodium and sulfates were found in the livestock drinking water. The 
water killed cattle at the 7800 parts per million level that is 
substantially lower than the supposedly 10,000 parts per million ``book 
value'' salt concentration level required to kill livestock.
    Likewise, many houseplants, trees, and shrubs cannot tolerate the 
high salt level found in our human drinking water. Many well-documented 
circumstances have been seen with the Perkins County human drinking 
water killing plants.
    Please find us a water source that is safe for human, livestock, 
and plant health.
            Sincerely,
                                              Vincent Gunn,
                                              SDSU County Educator.
                                 ______
                                 

                          Letter From Jim West

                                                 KBM, Inc.,
                      Grand Forks, North Dakota, February 28, 2001.
Paul Adcock,
Mgr., Perkins County Rural Water System, Inc., Bison, SD.
    Dear Paul: Yesterday, a Mr. Roger Fjeldahl from Northern Pipe 
Products Inc. was in my office and indicated that PVC pipe was at very 
low price. Apparently, last fall PVC pipe prices fell, and they are 
very attractive from a funding point of view.
    If you or your funding institution is interested in low prices, it 
would be prudent to obtain money as soon as possible to began 
installation of pipe. The pipe prices will probably continue to 
escalate upward for the next seven years.
            Respectfully Submitted,
                                                  Jim West,
                                                    Vice President.
                                 ______
                                 

        Prepared Statement of the Tucson Regional Water Council

    The Tucson Regional Water Council (TRWC) thanks you for the 
opportunity to provide testimony concerning the Bureau of Reclamation's 
fiscal year 2002 budget request. TRWC is a non-profit organization in 
Tucson, Arizona, whose members are water providers, business and 
professional people, and concerned citizens dedicated to ensuring a 
long-term, stable quality water supply for southern Arizona. Our 260 
members appreciate the Committee's long support of the Central Arizona 
Project. We are grateful to you and your colleagues for your years of 
dedication to this project.
    The TRWC wishes to address the Bureau of Reclamation's budget that 
pertains to water resources in southern Arizona and, in particular, the 
Bureau's plans that continue to positively impact our Central Arizona 
Project water planning.
    Colorado River water delivered by the Central Arizona Project will 
be part of the City of Tucson's water supply starting in April. This 
new supply enables the City to turn off groundwater wells that are 
pumping water from underneath the metropolitan area, which should halt 
further subsidence. The other CAP contract holders in the metropolitan 
area, particularly those located north of the City of Tucson, are 
proceeding with their plans to develop the necessary infrastructure to 
receive and deliver Colorado River water. In August 2000, the Bureau of 
Reclamation's Phoenix Area Office published an appraisal study titled 
``Alternatives for Using Central Arizona Project Water in the Northwest 
Tucson Area.'' It is vital for the well being of the residents of these 
areas to have access to a renewable water supply and to partner with 
the Bureau of Reclamation in developing delivery systems.
    In addition, in order to fully utilize CAP water, users must have 
reliability features as part of the Central Arizona Project. It is 
imperative for the Bureau of Reclamation to proceed with their planning 
for Tucson Reliability and for the Northwest region. We respectfully 
request that the Bureau of Reclamation budget line item: Tucson 
Reliability Division be approved. This line item allows the Bureau to 
continue its planning process.
    In addition, work done by the Bureau of Reclamation in southern 
Arizona is necessary for this region to continue its water resources 
planning. We are experiencing great growth, which requires coordination 
with other agencies. Valuable services provided by the Bureau through 
its inter-regional budget items include environmental and interagency 
coordination, general planning activities, providing technical 
assistance, and planning investigations programs.
    Of particular importance is the on-going Bureau Investigations 
Defined Program for southern Arizona, the Southern Arizona Water 
Management Study. This study is assisting the State of Arizona, several 
municipalities in southern Arizona, and two Indian Nations in 
coordinating planning efforts and Central Arizona Project water 
exchanges. The study is instrumental in identifying long-range water 
needs, water supply and treatment management options, and developing 
efficient water management strategies.
    The Tucson Regional Water Council is closely associated with the 
Bureau under the Tucson Area Water Reclamation and Reuse Study, which 
is funded under Title XVI--Water Reclamation and Reuse Program. The 
study, which is known locally as the Regional Effluent Planning 
Partnership, is in its fourth year. Regional participants meet monthly 
to cooperatively plan for use of reclaimed wastewater, this regions 
only water resource that will increase in the future. We are in the 
process of developing the Feasibility Study report, which includes 
projects from three municipalities.
    The Bureau of Reclamation is providing water management and 
resource planning services that are crucial for southern Arizona 
residents. We respectfully request that the Bureau receive its full 
funding requests for fiscal year 2002.
                                 ______
                                 

   Prepared Statement of the Metropolitan Water District of Southern 
                               California

    The Metropolitan Water District of Southern California (MWD) is 
pleased to submit the following testimony for the record, regarding 
programs contained in the U.S. Bureau of Reclamation's, the Department 
of Energy's and the Army Corps of Engineers' fiscal year 2002 budget 
for your Subcommittee's hearing record.
    MWD strongly recommends your approval of a Reclamation and Corps of 
Engineers fiscal year 2002 budget that includes $263.6 million in 
funding for the CALFED Bay-Delta Program. We urge your support for 
reauthorization of the California Water Supply and Ecosystem 
Enhancement Act (California Bay-Delta Act). In addition, MWD urges your 
support for the San Joaquin Water Supply and Exchange Program, as part 
of the reauthorization of the California Bay-Delta Act. We ask for your 
support for additional federal funding for Reclamation's Colorado River 
Basin Salinity Control Program. We request that Congress appropriate 
$17.5 million for implementation of the basinwide program that will 
ensure protection of water quality for this important source of water 
supply. MWD also urges your support for Reclamation's Endangered 
Species Recovery Implementation effort that will provide for 
conservation of endangered and threatened species and habitat along the 
lower Colorado River, and requests an additional $2.5 million for the 
Lower Colorado River Operations Program, which provides mitigation for 
impacts associated with Reclamation's projects.
    California has developed a Colorado River Water Use Plan 
(California Plan) to provide a framework for the agencies which rely on 
river water to reduce diversions to within California's 4.4 million 
acre-foot per year normal apportionment. Successful implementation of 
the California Plan is vital to the water supply reliability of the 
State of California, and is critical to the Colorado River interests of 
the six other Colorado River Basin states and Mexico. MWD supports 
Reclamation funding of $2 million for Salton Sea Habitat Enhancement 
activities in support of environmental permits required to proceed with 
the California Plan. Two water management reservoirs near the All-
American Canal, an 8,000 acre-foot reservoir to the east of the 
Imperial Valley, and a 3,000 acre-foot on the western side of the 
Valley would help facilitate the implementation of the California Plan 
and could be of significant benefit to the other Colorado River Basin 
states and Mexico. Reclamation funding of $2.8 million is needed in 
fiscal year 2002 in order to provide for environmental impact analysis, 
and if a decision is made to move forward, the initial stage of project 
design.
    MWD supports the recommendation by the National Drought Policy 
Commission that drought planning assistance funding needs to be 
increased at the national level and recommends the Bureau's drought 
planning program be increased to $5 million. Finally, MWD desires your 
support of funding necessary for work required to remove radioactive 
uranium mill tailings in Moab, Utah. These programs are essential for 
regional water supply reliability.
    We look forward to working with you and your Subcommittee. Please 
contact Brad Hiltscher, MWD's Legislative Representative in Washington, 
D.C. at (202) 296-3551, if we can answer any questions or provide 
additional information.

 METROPOLITAN WATER DISTRICT OF SOUTHERN CALIFORNIA--RECOMMENDATIONS FOR
                     FISCAL YEAR 2002 APPROPRIATIONS
------------------------------------------------------------------------
     Appropriations Bill                   MWD Recommendation
------------------------------------------------------------------------
U.S. Bureau of Reclamation:
    California Bay-Delta       $210.9 million
     Ecosystem Restoration.
    Salton Sea Habitat         $2 million
     Enhancement Activities.
    Water Management           $2.8 million
     Reservoirs near the All-
     American Canal.
    Colorado River Basin       $17.5 million plus sufficient funds for
     Salinity Control           required operation and maintenance of
     Program--Title II.         constructed units and for plan
                                formulation
    Endangered Species         $12.179 million
     Conservation/Recovery
     Projects.
    Lower Colorado River       $2.5 million above President's budgeted
     Operations Program.        amount (Support 3 state/federal/tribe
                                effort)
    Land and Water             $7 million
     Conservation Fund.
    Water Conservation Field   $500,000 for MWD
     Services Program Earmark.
    National Fish and          $1.3 million for LCR MSCP (Support 3
     Wildlife Foundation.       state/federal/tribe effort)
    Office of Native American  $250,000 for LCR MSCP (Support for 3
     Affairs.                   state/federal/tribe effort)
    Drought Assistance         $5 million
     Program.
    Brackish Water             $3 million
     Desalination.
Department of Energy: Removal  $10 million
 of Radioactive Tailings in
 Moab, Utah.
U.S. Army Corps of Engineers:  $52.7 million
 Bay-Delta Related Activities.
------------------------------------------------------------------------



       LIST OF WITNESSES, COMMUNICATIONS, AND PREPARED STATEMENTS

                              ----------                              
                                                                   Page
Accardo, Joseph Jr., Executive Director, Port of South Louisiana, 
  letter from....................................................   477
Achterman, Gail L., Executive Director, Deschutes Basin Resources 
  Conservancy, letter from.......................................   669
Alabama State Docks, prepared statement..........................   644
Alachua County Board of County Commissioners, Alachua County, 
  Florida, prepared statement....................................   416
American:
    Chemical Society, prepared statement.........................   399
    Museum of Natural History, prepared statement................   413
    Public Power Association, prepared statements389, 400........
    Rivers, prepared statements452, 556, 610.....................
    Phytopathological Society, prepared statement................   428
    Society:
        For Microbiology, prepared statement.....................   392
        Of Civil Engineers, prepared statement...................   578
        Of Mechanical Engineers, prepared statement..............   588
        Of Plant Physiologists...................................   428
    Wind Energy Association, prepared statement..................   442
Anderson, Maj. Gen. Phillip R., Division Engineer, South Atlantic 
  Division, Corps of Engineers--Civil, Department of the Army, 
  Department of Defense--Civil...................................    99
Arizona Department of Water Resources, prepared statement........   679
Arkansas River Basin Interstate Committee:
    (Colorado), prepared statement...............................   534
    (Kansas), prepared statement.................................   535
    (Oklahoma), prepared statement...............................   538
    Prepared statement...........................................   530
Arnold, Brig. Gen. Edwin J., Jr., Division Engineer, Mississippi 
  Valley Division, Corps of Engineers--Civil, Department of the 
  Army, Department of Defense--Civil.............................    99
Association:
    For the Development of Inland Navigation in America's Ohio 
      Valley, prepared statement.................................   519
    Of State Dam Safety Officials, Inc., prepared statement......   576
    Of State Floodplain Managers, Inc., prepared statement.......   454

Baker, Kenneth E., Acting Deputy Administrator for Defense 
  Nuclear Nonproliferation, National Nuclear Security 
  Administration, Department of Energy...........................   141
    Statement of.................................................   195
Barrett, Lake H., Acting Director, Office of Civilian Radioactive 
  Waste Management, Department of Energy.........................   351
    Prepared statement...........................................   353
Batemon, Stanley D., Chairman, St. Clair County Commission, 
  letter from....................................................   489
Berggren, Robert B., General Manager, Pleasant Hill Recreation & 
  Park District, letter from.....................................   594
Bennett, Hon. Robert F., U.S. Senator from Utah, question 
  submitted by...................................................   364
Biggs, Otha Lee, President, Monroe County Commission and Judge of 
  Probate, letter from...........................................   487
Biomass Energy Research Association (BERA), prepared statement...   431
Board of:
    Levee Commissioners for the Yazoo Mississippi Delta, prepared 
      statement..................................................   542
    Mississippi Levee Commissioners, prepared statement..........   527
    Supervisors, Contra Costa County, California, prepared 
      statements450, 591.........................................
Bob Lawrence & Associates, Inc., prepared statement..............   383
Bowman, Admiral Frank L., Director, Naval Nuclear Propulsion 
  Program, National Nuclear Security Administration, Department 
  of Energy......................................................   141
    Opening statement............................................   177
    Prepared statement...........................................   180
Browne, John C., Director, Los Alamos National Laboratory, 
  prepared statement.............................................    77
Bucknam, Charles H., prepared statements613, 649.................
Business Council for Sustainable Energy, prepared statement......   420
Butte County, CA, prepared statement.............................   455
Byard, Jim, Jr., Mayor, City of Prattville, letter from..........   485
Byrd, Hon. Robert C., U.S. Senator from West Virginia, question 
  submitted by...................................................   368

Caddo/Bossier Port Commission, prepared statement................   629
California:
    Reclamation Board, prepared statement........................   508
    Society of Professional Engineers, prepared statement........   684
Castro, Brig. Gen. Randal R., Division Engineer, Pacific Ocean 
  Division, Corps of Engineers--Civil, Department of the Army, 
  Department of Defense--Civil...................................    99
Central:
    Arizona Water Conservation District, prepared statement......   652
    Montana Resource and Conservation Area, Inc., prepared 
      statement..................................................   690
Chambers County-Cedar Bayou Navigation District, prepared 
  statement......................................................   490
Chambliss, Clyde, Chairman, Autauga County Commission, letter 
  from...........................................................   483
City of:
    Crookston, Minnesota, prepared statement.....................   604
    Folsom, California, prepared statement.......................   598
    Gridley, prepared statement..................................   404
    Huntington Beach, prepared statement.........................   566
    Inglewood, California, prepared statement....................   566
    Los Angeles Board of Harbor Commissioners, prepared statement   561
    Miami Beach, Florida, prepared statement.....................   574
    Newark, New Jersey, prepared statement.......................   571
    Norwalk, prepared statement..................................   565
    Oceanside, prepared statement................................   684
    Phoenix, prepared statement..................................   491
    Roseville, California, prepared statement....................   597
    Sacramento, prepared statement...............................   465
    Salem, Oregon, prepared statements598, 674...................
    Santa Barbara, California, prepared statement................   570
    Stillwater, Minnesota, prepared statement....................   601
Clark County Regional Flood Control District, prepared statement.   551
Coachella Valley Water:
    District, prepared statement.................................   517
    District; Imperial Irrigation District; Metropolitan Water 
      District of Southern California; and San Diego County Water 
      Authority, prepared statement..............................   652
Coalition:
    Of EPSCoR States, prepared statement.........................   599
    Of Northeastern Governors, prepared statement................   403
Cochran, Hon. Thad, U.S. Senator from Mississippi, statement of..   101
Colorado River:
    Basin Salinity Control Forum, prepared statement.............   699
    Board of California, prepared statements463, 677.............
    Commission of Nevada, prepared statement.....................   675
Colorado School of Mines, prepared statement.....................   615
Columbia River Inter-Tribal Fish Commission, prepared statement..   513
Colusa Basin Drainage District--California, prepared statement...   686
Confederated Tribes of the Umatilla Indian Reservation, prepared 
  statement......................................................   493
Coosa-Alabama River Improvement Association, Inc., prepared 
  statement......................................................   480
County of:
    Sonoma, California, prepared statement.......................   517
    Tulare, California, prepared statement.......................   464
Crow Creek Sioux, prepared statement.............................   696
Craig, Hon. Larry E., U.S. Senator from Idaho:
    Question submitted by........................................   211
    Statement of.................................................   301
Crapo, Hon. Mike, U.S. Senator from Idaho, statement of..........   302

Decker, Dr. James, Acting Director, Office of Science, Department 
  of Energy......................................................   219
    Prepared statement...........................................   236
    Statement of.................................................   233
Delesdernier, Captain Mark, Jr., President, Crescent River Port 
  Pilots' Association, letter from...............................   480
Dixon, Dr. Robert, Deputy Assistant Secretary, Office of Power 
  Technologies, Energy Efficiency and Renewable Energy, 
  Department of Energy...........................................   219
    Prepared statement...........................................   224
    Statement of.................................................   221
DOE University Research Program in Robotics (URPR), prepared 
  statement......................................................   393
Domenici, Hon Pete V., U.S. Senator from New Mexico:
    Opening statements of1, 23, 81, 99, 141......................
    Questions submitted by16, 45, 199, 280, 286, 293, 362........
    Statement of.................................................   299
Dorgan, Hon. Byron L., U.S. Senator from North Dakota, statement 
  of.............................................................   100
Doyle, Robert, Assistant General Manager, Land Division, East Bay 
  Regional Park District, letter from............................   592
Dozier, Richard T., President, Montgomery Marina, Inc., letter 
  from...........................................................   488

Eastern Municipal Water District, prepared statement.............   635

Farish, Anne H., Mayor, City of Monroeville, letter from.........   484
Fifth Louisiana Levee District, prepared statement...............   448
Fernbach, Paul, Regional Commissioner, Pleasant Hill--Martinez 
  Soccer Association, letter from................................   595
Flowers, Lt. General Robert B., Commander and Chief of Engineers, 
  Corps of Engineers--Civil, Department of the Army, Department 
  of Defense--Civil1, 99.........................................
    Prepared statements7, 110....................................
    Statements of5, 108..........................................
Fort Peck Assiniboine and Sioux Tribes and Dry Prairie Rural 
  Water, prepared statement......................................   660
Fricks, William M., Chairman, Rome City Commission, letter from..   490

Garrison Diversion Conservancy District, prepared statement......   668
Geothermal:
    Energy Association, prepared statement.......................   381
    Resources Council, prepared statements.....................377, 436
Geringer, Jim, Governor, Office of the Governor, State of 
  Wyoming, letter from...........................................   682
Gimello, Richard, Executive Director, New Jersey Maritime 
  Resources, State of New Jersey, Department of Transportation, 
  prepared statement.............................................   581
Gioconda, General Thomas F., Acting Deputy Administrator for 
  Defense Programs, National Nuclear Security Administration, 
  Department of Energy...........................................   141
    Statement of.................................................   185
Glenn-Colusa Irrigation District Board of Directors, prepared 
  statement......................................................   688
Glidewell, Sue L., Mayor, City of Rainbow City, letter from......   485
Gordon, General John, Under Secretary of Energy for Nuclear 
  Security and Administrator, National Nuclear Security 
  Administration, Department of Energy23, 141....................
    Prepared statements32, 149...................................
    Statements of23, 26, 143.....................................
Gowan, Lynn A., Acting Chairman, Montgomery County Commission, 
  letter from....................................................   487
Graham, David, on behalf of the Institute for Defense Analysis...    53
Green Brook Flood Control Commission, prepared statement.........   470
Griffin, Brig. Gen. Robert H., Division Engineer, Great Lakes and 
  Ohio River Division, Corps of Engineers--Civil, Department of 
  the Army, Department of Defense--Civil.........................    99
Gulf Intracostal Canal Association, prepared statement...........   645

Hector, Louis J., Vice President, Transportation and 
  Infrastructure, State of New York, Empire State Development 
  Corporation, prepared statement................................   581
Hicks, Kathy, Mayor, City of Walnut Creek, letter from...........   593
Hoffmeister, Laura M., Mayor, City of Concord, letter from.......   592
Hollings, Hon. Ernest F., U.S. Senator from South Carolina, 
  questions submitted by50, 373..................................
Huntoon, Carolyn L., Ph.D., Acting Assistant Secretary, Office of 
  Environmental Management, Department of Energy.................   299
    Prepared statement...........................................   307
    Statement of.................................................   305

Integrated Petroleum Environmental Consortium, prepared statement   410
International Association of:
    Fire Fighters<Register>, prepared statement..................   380
    Fish and Wildlife Agencies, prepared statement...............   637

Johnston, Ronald, Program Director, Cup Completion Act Office, 
  Bureau of Reclamation, Department of the Interior..............    81
    Prepared statement...........................................    89
Jordan, James T., President, J.T. Jordan Cotton, Inc., letter 
  from...........................................................   486
Jordan, Terry T., Lake Charles Harbor & Terminal District, letter 
  from...........................................................   478

Kaweah Delta Water Conservation District, prepared statement.....   596
Kiedrowski, Ronald L., Interim City Manager, City of San Pablo, 
  letters from...................................................   596

Larrabee, Richard M., Director, Port Commerce Department, The 
  Port Authority of New York and New Jersey, prepared statement..   581
Lewis and Clark Rural Water System, Inc., prepared statement.....   460
Little River Drainage District, prepared statement...............   448
Lorino, Michael R., Jr., President, Associated Branch Pilots, 
  letter from....................................................   479
Los Angeles County Board of Supervisors, prepared statement......   638
Los Osos Community Services District, prepared statement.........   544
Louisiana Governor's Task Force on Maritime Industry, prepared 
  statement......................................................   473
Lovelace Respiratory Research Institute (LRRI), prepared 
  statement......................................................   415
Lower Colorado River Basin States--Arizona, California and 
  Nevada, prepared statement.....................................   680
Low Impact Hydropower Institute, prepared statement..............   439

Madsen, Brig. Gen. Peter T., Division Engineer, South Pacific 
  Division, Corps of Engineers--Civil, Department of the Army, 
  Department of Defense--Civil...................................    99
Magwood, William D. IV, Director, Office of Nuclear Energy, 
  Science and Technology, Office of Nuclear Energy, Science and 
  Technology:                                                       219
    Prepared statement...........................................   252
    Statement of.................................................   249
Martz, Judy, Governor, Office of the Governor, State of Montana, 
  letter 
  from...........................................................   693
Mathis, Joseph F., Executive Director, Prattville Area Chamber of 
  Commerce, letter from..........................................   488
McDaniels, Elmer, Manager, Tumalo Irrigation District, letter 
  from...........................................................   666
McDonald, J. William, Regional Director, Pacific Northwest 
  Region, Bureau of Reclamation, Department of the Interior......    81
    Prepared statement...........................................    84
    Statement of.................................................    82
Melcher, Brig. Gen. David F., Division Engineer, Southwestern 
  Division, Corps of Engineers--Civil, Department of the Army, 
  Department of Defense--Civil...................................    99
Merced Irrigation District, prepared statement...................   472
Metropolitan:
    St. Louis Sewer District, prepared statement.................   462
    Water District of Southern California, prepared statement....   708
    Water Reclamation District of Greater Chicago, prepared 
      statement..................................................   467
Mid-Dakota Rural System, Inc., prepared statement................   654
Miller, Rebecca A., prepared statement...........................   651
Missouri River Bank Stabilization Association, prepared statement   631
MNI Wiconi Project, prepared statement...........................   670
Monterey County Water Resources Agency (MCWRA), prepared 
  statement......................................................   457
Moss Landing Harbor District, prepared statement.................   620
Murray, Hon. Patty, U.S. Senator from Washington:
    Questions submitted by280, 285, 374..........................
    Statement of.................................................   348

NAPA River Flood Control Project, prepared statement.............   546
National:
    Agriculture Water Council, prepared statement................   665
    Corn Growers Association, prepared statement.................   428
    Audubon Society, prepared statement..........................   640
    Hydrogen Association, prepared statement.....................   423
    Mining Association, prepared statement.......................   607
New Mexico Interstate Stream Commission, prepared statement......   683
New York University, prepared statement..........................   407
Northern California Water Association, prepared statement........   686
Nuclear:
    Energy Institute, prepared statement.........................   424
    Waste Strategy Coalition, prepared statement.................   396

Oregon Water Resources Congress, prepared statement..............   667

Perkins County Rural Water System, Inc., prepared statement......   702
Pontchartrain Levee District, prepared statement.................   618
Port:
    Of Garibaldi, prepared statement.............................   568
    Of San Diego, prepared statement.............................   630
Poso Creek Improvement Joint Powers Agreement Agencies, prepared 
  statement......................................................   464
Powell, Phil, Mayor, City of Centre, letter from.................   484

Red River:
    Valley Association, prepared statement.......................   623
    Waterway Commission, prepared statement......................   629
Reid, Hon. Harry, U.S. Senator from Nevada:
    Opening statement of.........................................   219
    Prepared statements62, 344...................................
    Questions submitted by212, 272, 283, 292, 365................
    Statements of2, 101, 344.....................................
Rhoades, Brig. Gen. M. Stephen, Division Engineer, North Atlantic 
  Division, Corps of Engineers--Civil, Department of the Army, 
  Department of Defense--Civil...................................    99
Richard, Roger P., Executive Director and CEO, Port of Greater 
  Baton Rouge, letter from.......................................   477
Riverside County Flood Control and Water Conservation District, 
  prepared statement.............................................   632
Robinson, C. Paul, Director, Sandia National Laboratories, 
  prepared statement.............................................    66

Sacramento Area Flood Control Agency, prepared statement.........   646
San Bernardino County Administrative Office, prepared statement..   553
Sanguinetti, Phillip A., President, The Anniston Star, letter 
  from...........................................................   483
Santa Clara Valley Water District, prepared statement............   495
Santa Cruz Port District, prepared statement.....................   545
Schlesinger, Dr. James, on behalf of the Panel to Assess the 
  Reliability, Safety, and Security of the United States Nuclear 
  Stockpile......................................................    53
    Prepared statement...........................................    55
Seminole Tribe of Florida, prepared statement....................   515
Smith, David, President, Pleasant Hill Baseball Association, 
  letter from....................................................   594
Smith, Sandy, Executive Director, Monroeville Area Chamber of 
  Commerce, letter from..........................................   486
Solar Energy Industries Association (SEIA), prepared statement...   429
South Dakota School of Mines & Technology, prepared statement....   446
Southeastern:
    Federal Power Customers, Inc., prepared statement............   451
    Universities Research Association, prepared statement........   444
Southern Nevada Water Authority, prepared statement..............   455
St. Francis Levee District of Arkansas, prepared statement.......   529
State of:
    Illinois, prepared statement.................................   505
    South Carolina, prepared statement...........................   559
    South Dakota, prepared statement.............................   701
Steamship Association of Louisiana, prepared statement...........   387
Stepan, J. Craig, General Manager, Warrior & Gulf Navigation 
  Company, letter from...........................................   489
Strock, Brig. Gen. Carol A., Division Engineer, Northwestern 
  Division, Corps of Engineers--Civil, Department of the Army, 
  Department of Defense--Civil...................................    99

Tarter, C. Bruce, Director, Lawrence Livermore National 
  Laboratory, University of California, prepared statement.......    72
Thompson, Hon. Fred, U.S. Senator from Tennessee, statement of...    25
Tornblom, Claudia L., Deputy Assistant Secretary of the Army 
  (Management on Budget), Corps of Engineers--Civil, Department 
  of the Army, Department of Defense--Civil......................    99
    Prepared statement...........................................   104
    Statement of.................................................   102
Tucson Regional Water Council, prepared statements701, 707.......
Tule River Improvement Joint Powers Agreement Agencies, prepared 
  statement......................................................   465

University:
    Corporation for Atmospheric Research, prepared statement.....   405
    Of Medicine and Dentistry of New Jersey, prepared statement..   419
Upper Mississippi River Basin Association, prepared statement....   584

Van Winkle, Major Gen. Hans A., Deputy Commanding General (Civil 
  Works), Corps of Engineers--Civil, Department of the Army, 
  Department of Defense--Civil...................................    99
Ventura Port District, prepared statement........................   622
Vining, Robert, Chief, Program Management Division, Corps of 
  Engineers--Civil, Department of the Army, Department of 
  Defense--Civil.................................................    99

Wallace, Jamie D., President, Selma and Dallas County Chamber of 
  Commerce, letter from..........................................   489
Water Replenishment District of Southern California, prepared 
  statement......................................................   558
West Tennessee Tributaries Association, prepared statement.......   616
Wolf, Robert, Director, Program Budget and Liaison, Bureau of 
  Reclamation, Department of the Interior........................    81
    Prepared statement...........................................   180


                             SUBJECT INDEX

                              ----------                              

                      DEPARTMENT OF DEFENSE--CIVIL

                         Department of the Army

                       Corps of Engineers--Civil

                                                                   Page
Additional committee questions...................................    16
Civil works program..............................................     7
Corps officers involved in the Upper Mississippi and Illinois 
  navigation
  study..........................................................     4
Federal role in addressing the nation's water resources needs....     4
Other observations...............................................     9
Proposed South Carolina Port on Savannah River...................    15
Upper Mississippi and Illinois navigation study..................     8
Water resources planning and the national interest...............     7
What we are doing................................................     9

                          DEPARTMENT OF ENERGY

                National Nuclear Security Administration

Ability to meet military requirements48, 49......................
Acceleration of decline in facilities............................    48
Additional committee questions45, 199............................
Adequacy of the fiscal year 2002 budget request..................   200
Administration:..................................................
    Strategic review212, 213.....................................
    Support for nonproliferation programs........................   205
Advanced hydrotest facility at LANL..............................   210
APT and AAA......................................................   209
Background.......................................................    77
Backlog of maintenance...........................................    45
BN-350 reactor...................................................   211
Budget priorities................................................   147
Butler-Cutler report.............................................    50
Certifiable pits schedule........................................   192
Certification of stockpile.......................................   193
Challenges and advances of the stockpile stewardship program.....   187
Condition of the nuclear weapons stockpile.......................   199
Costs of infrastructure repair...................................    43
Critical skills..................................................   203
Cyber security...................................................   201
Defense PA&E review of April 2000................................    47
Environmental management funding.................................    50
Facilities and infrastructure recapitalization initiative33, 69..
Findings.........................................................    56
Fiscal year 2002 Department of Energy budget request.............   182
Five-year:
    Budgeting plan...............................................    47
    Plan for national ignition facility..........................   194
Foster panel recommendations46, 202..............................
Goal 1: Stockpile stewardship....................................   154
Goal 2: Securing nuclear facilities, materials, information, and 
  expertise worldwide............................................   161
Goal 3: Detecting, deterring, and impeding proliferation.........   166
Goal 4: Providing naval nuclear reactors.........................   170
Goal 5: Vitality and readiness of the NNSA enterprise............   171
Goal 6: Creating a well-managed organization.....................   172
Hazardous activities.............................................   215
Headquarters reorganization......................................    42
Highly technical and specialized employees.......................   182
How to use additional resources..................................   199
Improvements are still needed....................................   153
Industrial partnerships..........................................   204
Infrastructure23, 212............................................
    As a morale and recruitment issue............................    49
    Funding......................................................   193
    Initiative...................................................    42
    Kansas City plant............................................    29
    Size/composition.............................................    26
    Status.......................................................   186
International programs status....................................   197
IPP program status...............................................   196
Laboratory directed research & development204, 208...............
LANL infrastructure..............................................    28
Livermore lab building 132.......................................    29
Management.......................................................    31
Microsystems and engineering sciences applications (MESA) complex   201
Mission accomplishments..........................................   151
Modern pit production facility...................................    51
Morale issues....................................................    40
MOX:
    Facility status..............................................   197
    Program status...............................................   190
MPC&A program status.............................................   196
National ignition facility202, 215...............................
    Status.......................................................   191
Naval:
    Reactor budget request summary...............................   178
    Reactor's accomplishments....................................   146
    Reactors Department of Energy budget detail..................   184
Nevada:
    Operations facility..........................................    29
    Test site....................................................   213
        Infrastructure...........................................    28
NNSA accomplishments.............................................   144
Nuclear:
    Cities initiative............................................   207
        Status...................................................   196
    Non-proliferation area status................................   195
    Test readiness and long-term pit production..................   147
Observations.....................................................   150
Ongoing reviews and their effect on the budget request...........   146
Overall cost to rebuild the infrastructure of the complex........    45
Pantex infrastructure............................................    29
Pit production...................................................   195
    And certification............................................   203
Plutonium pits...................................................   214
Polygraphs.......................................................   208
    And employee morale..........................................   209
Program:
    Infrastructure and administrative requirements...............   185
    Technical requirements.......................................   184
Progress on the accelerated strategic computing initiative.......   217
Recapitalization:
    Funding......................................................    30
    Initiative30, 46.............................................
Recommendations..................................................    56
Recruitment......................................................    41
Reinvestment rates compared to industry and Department of Defense    49
Retirement systems...............................................   209
Safety and security record.......................................   205
Sandia infrastructure............................................    28
Second line of defense program status............................   197
Size of the future nuclear weapon stockpile......................   200
Status of:
    Complex......................................................    27
    Defense nuclear non-proliferation program....................   148
    Of MOX facility program......................................   189
    NNSA.........................................................   143
    Stockpile stewardship program................................   185
Stockpile requirements...........................................    44
TA-55 at Los Alamos National Lab.................................    44
Tritium..........................................................   216
    Extraction facility..........................................    30
    Modernization and consolidation..............................    51
Upgrades to the advanced test reactor............................   211
Value of nuclear power...........................................   181
Weapons complex..................................................    31
Y-12:
    Infrastructure...............................................    29
    Plant........................................................    30
        Chain of command.........................................    42
        Infrastructure...........................................    41

            Office of Civilian Radioactive Waste Management

                   Office of Environmental Management

Accomplishments and progress in fiscal year 2001.................   308
Additional committee questions...................................   362
Benefits of cooperation with foreign waste management programs...   365
Budget priorities................................................   306
Challenges to the Yucca Mountain site............................   352
Clean up progress................................................   305
Compliance agreements342, 359, 363...............................
Continuing the investment in science and technology..............   314
Contractor financial issues......................................   358
Disposal of waste at the Nevada test site........................   366
Efficiency goals.................................................   307
Ensuring we use resources effectively............................   316
Environmental management program373, 374.........................
Excess facilities................................................   368
Fiscal year 2002 activities......................................   354
Funding for research and development.............................   361
Giving priority to the highest risk materials and wastes.........   311
Hanford:
    River corridor cleanup project...............................   376
    Tri-party agreement renegotiations...........................   375
    Worker layoffs...............................................   376
Improving:
    Contract management..........................................   317
    Project management...........................................   316
Industry and university program..................................   370
INEL buried waste--Idaho.........................................   343
Linking sites through integration................................   318
Litigation.......................................................   356
Local oversight funding..........................................   366
Meeting:
    Commitments..................................................   374
    Long-term stewardship responsibilities.......................   315
    New responsibilities.........................................   313
    The challenge of the environmental legacy....................   308
MOAB mill tailings site346, 348, 364.............................
    Remediation plan.............................................   347
    Surveillance at the..........................................   347
National Energy Technology Laboratory............................   369
Nuclear power plants.............................................   367
Office of:
    Civilian Radioactive Waste Management........................   351
    River Protection:
        Funding349, 374..........................................
        Building new double-shell tanks..........................   376
        Future funding for the WTP...............................   375
        Renegotiation of Bechtel contract........................   375
Performance:
    Based contracts..............................................   363
    Measures.....................................................   354
Possible renegotiation of Bechtel Washington contract............   350
Preparations for Yucca Mountain repository.......................   351
Program management and integration...............................   356
Providing effective Federal oversight............................   319
Safety first.....................................................   311
Savannah River Ecology Laboratory................................   373
Summary of:
    Fiscal year 2002 appropriation request.......................   353
    The fiscal year 2002 budget..................................   319
Supporting the closure of major sites............................   313
The fiscal year 2002 request.....................................   310
Total systems life cycle costs...................................   366
Transportation of waste..........................................   365
Vitrification technology.........................................   367
Waivers for disposition of scrap metals from radiological areas..   368
Waste:
    Acceptance, storage, and transportation......................   355
    Funding......................................................   359
    Isolation pilot plant........................................   362
    Management education and research consortium (WERC)361, 362, 
      364........................................................
Working with our regulators and other stakeholders...............   318
Yucca Mountain:
    Radiation standards..........................................   357
    Site time table..............................................   357

  Office of Power Technologies, Energy Efficiency and Renewable Energy

                           Office of Science

            Office of Nuclear Energy, Science and Technology

Additional committee questions...................................   272
Advanced:
    Accelerator applications program251, 294.....................
    Radioisotope power systems...................................   258
    Scientific computing legislation.............................   265
Attracting scientists............................................   285
Basic energy sciences............................................   244
Biological and environmental research............................   245
Biomass..........................................................   273
Biomass v. solar.................................................   282
Budget:
    Development..................................................   296
    For Science..................................................   286
Distributed energy resources.....................................   223
Energy:
    Efficiency...................................................   278
    Policy report................................................   270
    Research analyses............................................   248
    Supply R&D programs--technical information management........   249
Environmental Molecular Sciences Laboratory......................   285
Facility operations..............................................   286
Fiscal year 2002 budget request..................................   225
    For renewable energy.........................................   269
Fusion energy sciences246, 283...................................
Generation IV....................................................   250
    Nuclear energy systems initiative292, 293....................
    Technologies.................................................   263
Genomes to life program235, 284, 286, 287........................
Geothermal.......................................................   272
High energy and nuclear physics234, 235..........................
High energy physics..............................................   246
High temperature superconductivity center........................   283
Hydrogen.........................................................   273
Infrastructure...................................................   264
    At the science labs..........................................   287
    Nuclear facilities management................................   261
Looking to the future--fiscal year 2002..........................   238
Low dose radiation effects program...............................   290
Medical isotope program..........................................   259
Million solar roofs..............................................   274
Mining Industry of the Future Program............................   266
Multiprogram energy laboratories--facilities support.............   247
Nanotechnology research..........................................   289
National:
    Energy problem...............................................   222
    Nuclear Security Administration labs.........................   296
Nuclear:
    Energy research initiative...................................   264
    Energy technologies program..................................   250
    Physics......................................................   247
    Power plants249, 266.........................................
    Safety.......................................................   268
Our accomplishments and recent successes.........................   237
Performance measures.............................................   243
Program direction/organizational issues..........................   262
Project management environment...................................   285
PubSCIENCE.......................................................   290
Purex reprocessing technology....................................   268
Questions submitted to the:
    Office of Nuclear Energy, Science and Technology.............   292
    Office of Power Technologies, Energy Efficiency and Renewable 
      Energy.....................................................   272
    Office of Science............................................   283
Recycling spent nuclear fuel.....................................   267
Reliability274, 282..............................................
Renewable energy:
    R&D..........................................................   223
    Resources....................................................   225
Renewables.......................................................   275
Report to Congress on thorium fueled reactor assemblies..........   295
Research:
    And development..............................................   255
    On brain imaging.............................................   288
Safeguards and security program support..........................   248
Science:
    Program direction............................................   248
    Programs--advanced scientific computing research.............   244
Solar............................................................   274
Spallation neutron source234, 288................................
Status of nuclear engineering programs...........................   294
Superconductivity................................................   273
The revitalization of the nuclear power option...................   252
Underground science at the waste isolation pilot project.........   290
University:
    Nuclear science and engineering program......................   264
    Reactor fuel assistance and support..........................   257
    Research reactors............................................   252
Wind.............................................................   272
Wind energy......................................................   271
Working with NNSA labs280, 281...................................

                       DEPARTMENT OF THE INTERIOR

                         Bureau of Reclamation

Additional committee questions91, 125............................
American River Watershed:
    (Common features), California................................   139
    (Folsom Dam modifications), California.......................   139
Animas-La Plata..................................................    94
Assessing the Nation's needs for water and related land resources 
  management.....................................................   111
Beach re-nourishment policy change...............................   126
Bluestone Dam safety project.....................................   133
Budget:
    Impacts......................................................    93
    Process......................................................    91
California:
    Bay-delta restoration........................................    87
    Power........................................................    83
Central Valley project restoration fund83, 87....................
Challenges based on listening sessions...........................   112
Corps backlog....................................................   127
Dam safety and facilities operation..............................    91
Devils Lake, North Dakota........................................   137
Direct program...................................................   111
Feasibility and reconnaissance studies...........................   137
Fiscal year:
    2000 accomplishments highlights..............................    88
    2002 Army civil works program................................   104
        Highlights of the........................................   104
    2002 budget request..........................................    85
Flood control, Mississippi River and tributaries construction--
  Yazoo Basin, Mississippi.......................................   131
Government Performance and Results Act...........................   107
Grand Forks, North Dakota-East Grand Forks, Minnesota............   138
Greenbrier basin flood control project...........................   133
Impact of the President's budget request.........................   128
Impacts to operations and maintenance budget cuts................   132
Infrastructure129, 130...........................................
Initial assessment of circumstances..............................   112
Lower Mud River..................................................   136
Middle Rio Grande project endangered species.....................    95
Mission..........................................................    85
New Mexico problems..............................................    90
Operation and maintenance........................................   139
Other accounts...................................................    88
Policy and Administration and Loan Program.......................    83
Project:
    Cost increases...............................................   131
    Planning and review..........................................   107
Reclamation's commitment.........................................    84
Redirecting congressional priorities.............................   131
Reimbursed program...............................................   111
Robert C. Byrd locks and dam, WV & Ohio..........................   132
Rural water programs.............................................    91
Safety of dams evaluation and modification program...............    92
South Sacramento County streams, California......................   139
Summary of civil works program budget............................   111
Title XVI program................................................    93
Total budget request.............................................    83
Upper Mississippi and Illinois navigation study, Illinois, Iowa, 
  Minnesota, Missouri and Wisconsin..............................   126
Wahpeton, North Dakota and Breckenridge, Minnesota...............   138
Water and related resources83, 86................................
    New FTE......................................................    93
West Virginia Tug Fork flood protection projects.................   134
Wheeling Creek channelization project............................   136
Winfield locks and dam, WV.......................................   132
Yazoo basin, backwater pump, Mississippi.........................   131
Zero growth budget...............................................    90

                                   - 

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
